<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2002</title>
<body><pre>[Senate Hearing 107-312]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-312

AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2330/S. 1191

 AN ACT MAKING APPROPRIATIONS FOR AGRICULTURE, RURAL DEVELOPMENT, FOOD 
 AND DRUG ADMINISTRATION, AND RELATED AGENCIES PROGRAMS FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2002, AND FOR OTHER PURPOSES

                               __________

                  Commodity Futures Trading Commission
                       Department of Agriculture
 Department of Health and Human Services: Food and Drug Administration
                       Farm Credit Administration
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
70-706 PDF                  WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
                                     MARY L. LANDRIEU, Louisiana
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
                 Terry Sauvain, Minority Staff Director
                                 ------                                

  Subcommittee on Agriculture, Rural Development, and Related Agencies

                  THAD COCHRAN, Mississippi, Chairman
ARLEN SPECTER, Pennsylvania          HERB KOHL, Wisconsin
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BYRON L. DORGAN, North Dakota
CONRAD BURNS, Montana                DIANNE FEINSTEIN, California
LARRY CRAIG, Idaho                   RICHARD J. DURBIN, Illinois
TED STEVENS, Alaska                  TIM JOHNSON, South Dakota
  (ex offico)                        ROBERT C. BYRD, West Virginia
                                       (ex offico)
                           Professional Staff

                           Rebecca M. Davies
                        Martha Scott Poindexter
                               Les Spivey
                           Rachelle Schroeder
                       Galen Fountain (Minority)
                        Jessica Arden (Minority)

                         Administrative Support

                         Angela Lee (Minority)




                            C O N T E N T S

                              ----------                              

                       Wednesday, April 25, 2001

                                                                   Page
Department of Agriculture: Office of the Secretary...............     1

                         Thursday, May 3, 2001

Department of Agriculture: Farm and Foreign Agricultural Services   161

                         Thursday, May 10, 2001

Department of Health and Human Services: Food and Drug 
  Administration.................................................   279

    Material Submitted by Agencies Not Appearing for Formal Hearings

Department of Agriculture:
    Rural Utilities Service......................................   367
    Agricultural Research Service................................   373
    Rural Business-Cooperative Service...........................   377
    Natural Resources Conservation Service.......................   381
    Office of Communications.....................................   385
    Office of the General Counsel................................   386
    Office of the Chief Financial Officer........................   399
    National Agricultural Statistics Service.....................   402
    Agricultural Marketing Service...............................   405
    Animal and Plant Health Inspection Service...................   409
    Office of Inspector General..................................   419
    Food Safety and Inspection Service...........................   429
    Food and Nutrition Service...................................   440
    National Appeals Division....................................   443
    Economic Research Service....................................   444
    Cooperative State Research, Education, and Extension Service.   448
    Grain Inspection, Packers and Stockyards Administration......   451
    Office of the Chief Information Officer......................   460
    Departmental Administration..................................   468
    Rural Housing Service........................................   472
    Farm Service Agency..........................................   477
Related Agency: Farm Credit Administration.......................   481
Additional committee questions: Cooperative State Research, 
  Education, and Extension Service...............................   487
Nondepartmental witnesses........................................   733
Related Agency: Commodity Futures Trading Commission.............   942

 
AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              


                       WEDNESDAY, APRIL 25, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:35 p.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Bond, Craig, Kohl, Harkin, 
Dorgan, Durbin, and Johnson.

                       DEPARTMENT OF AGRICULTURE

                        Office of the Secretary

STATEMENT OF HON. ANN M. VENEMAN, SECRETARY OF 
            AGRICULTURE
ACCOMPANIED BY:
        KEITH COLLINS, CHIEF ECONOMIST
        STEPHEN B. DEWHURST, BUDGET OFFICER


               OPENING STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. The committee will please come to order. 
It is my pleasure to convene in our first hearing of the year, 
and to welcome to the subcommittee having jurisdiction over the 
Department of Agriculture and Related Agencies budget for 
fiscal year 2002 the new Secretary of Agriculture, Ann Veneman. 
We appreciate the cooperation of you and your staff in our 
review of the President's budget that has been submitted to the 
Congress for its consideration.
    We notice that you have accompanying you today Keith 
Collins, the Department's chief economist, and Stephen 
Dewhurst, who is the budget officer for the Department. I have 
had an opportunity to review your prepared statement, which I 
appreciate your submitting to the committee, and an outline of 
the President's budget request for the Department of 
Agriculture and the other agencies that come within the 
jurisdiction of this committee.
    I think there is a compliment that is deserved at this 
point, and that is that in this submission there is a proposal 
to increase funding to cover mandatory pay increases, and to 
continue essential investments in technology that are important 
to the effective and efficient operations of all agencies of 
the Department.
    The budget maintains staffing levels for essential agency 
functions, and it also requests resources to support nutrition 
assistance programs to protect the safety of our Nation's food 
supply, to support agriculture trade initiatives, to deal with 
emerging pest and other challenges to agriculture and our food 
supply. Most of these proposed increases are offset by proposed 
reductions in some ongoing programs and other congressionally 
mandated additions to the budget.
    We know we have some new challenges that are being faced by 
this Department, and your statement touches on them. Bovine 
Spongiform Encephalopathy, better known as mad cow disease or 
BSE, and the recent outbreak of foot and mouth disease in 
Europe, which poses threats not only there but probably around 
the world, requiring new initiatives and vigilance and efforts 
to make sure that those problems don't occur here.
    We look forward to discussing that with you as we review 
the Department's budget today, and we encourage you to provide 
us with whatever additional comments you think would be helpful 
to our understanding of this budget request.
    I am happy now to yield to our distinguished Ranking 
Member, my good friend from Wisconsin, Senator Kohl.


                     STATEMENT OF SENATOR HERB KOHL


    Senator Kohl. I thank you so much, Senator Cochran. It is 
good to join you and all members of the subcommittee as we 
begin work on the agriculture appropriations bill for fiscal 
2002. I would also like to recognize our two newest members, 
Senators Johnson and Craig.
    Secretary Veneman, I especially want to welcome you, along 
with Mr. Collins and Mr. Dewhurst. It is good to have all of 
you here, and I look forward to your comments. Every year, it 
seems, we talk about the current crisis facing American 
agriculture. Unfortunately, this year is no different. 
Commodity prices remain at historic lows. Devastating animal 
disease is loose in the world and threatens our shores, 
recurring drought has again gripped the south and, as we speak, 
flood waters continue to consume farmland in Wisconsin and 
throughout other Midwestern States, and this is only April.
    The President's proposed USDA budget provides $72 billion 
in appropriations for fiscal year 2002. That is a reduction of 
$563 million from last year's appropriated level, without even 
counting emergency funds enacted last year. Of the total 
proposed, $14.1 billion is discretionary spending. While the 
President has claimed to hold overall spending to a 4.4 percent 
increase, it appears that USDA programs have been held to a 
lower position of importance within Government than other 
areas. This is a fact I find troubling, given the wide range of 
issues now facing the rural sector.
    While I agree that meaningful income tax relief is very 
important, farm income tax relief presumes that there is farm 
income to be taxed, and an estate tax relief may benefit a 
handful of individual farmers but would have very limited 
effect on the overall farm sector.
    On the other hand, the programs funded by this 
subcommittee, such as research, conservation, marketing and 
others, do provide all farmers with tools that can help raise 
farm income and help farmers withstand the misfortunes of 
nature and disrupted markets. A 4.4 percent increase would be 
modest indeed, and a reduction would be disturbing.
    I note the Secretary's commitment to open markets and the 
need to tear down trade barriers. I applaud that commitment and 
hope it applies equally to domestic as well as foreign markets. 
Today in this country, a regional market barrier has been built 
that puts Wisconsin and other States' dairy products at great 
risk. This is an unacceptable situation, and I fully expect the 
USDA to support all U.S. agriculture and work to tear down all 
trade barriers, foreign and domestic.
    The President's budget also provides $36.6 billion for USDA 
nutrition programs, the largest single area of spending in the 
USDA budget. These important programs provide a safety net for 
the most vulnerable children and adults and, while most of them 
involve mandatory spending, it is important to remember that 
they are subject to appropriations and the scrutiny of this 
subcommittee. Whether the issue is the nutritional quality of a 
school lunch or the level of WIC participation, this 
subcommittee is charged with the responsibility to ensure that 
every American shall have access to a healthy meal.
    So Mr. Chairman, I thank you for your leadership and your 
assistance. I look forward to working with you and all members 
of the subcommittee this year as we review the President's 
budget and set priorities based on the real needs of rural 
America.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Kohl.
    Senator Bond.


            STATEMENT OF SENATOR CHRISTOPHER ``KIT'' S. BOND


    Senator Bond. Thank you very much, Mr. Chairman, and 
Secretary Veneman, it is a pleasure to welcome you to the 
subcommittee. One of the most important ingredients of being a 
good Secretary of Agriculture is timing, and with prices now in 
the tank you have got a real opportunity to be the true heroine 
for agriculture if they just turn around, so the Secretaries 
may or may not have an ability to impact farm income, but 
unfortunately you always take the blame, and so there is 
opportunity and there is hope ahead.
    The critical ingredient to success, however, is a 
willingness to use your position forcefully as an advocate for 
farmers, and that will mean keeping your eye and a hammer on 
other agencies who don't always have the best interests of 
farmers at heart, and keeping your eye on our friends at OMB 
who are sometimes accused, fairly enough, I would say, of 
knowing the cost of everything and the value of nothing. A lot 
of people have a high regard for your understanding of and 
commitment to trade expansion, and yesterday you and I 
discussed the promise that plant biotechnology holds in 
improving human health, the environment, diversifying ag uses, 
and improving production for the hungry in the world.
    U.S. Agency for International Development had a group of 
scientists from Kenya, South Africa, Uganda and elsewhere in 
town yesterday to discuss the critical need to make new 
technology available to the poor, the sick, and the hungry in 
impoverished regions of Africa. It is clear to me that, while 
the wealthy, well-fed in Europe want a technology-free zone in 
Europe, the impoverished, hungry people in Africa are anxious 
to have the benefits that science can bring to them.
    I have also taken a number of trips to Southeast Asia. They 
are particularly interested in trade and technology, and I hear 
more and more people say that, while we don't want to ignore 
Europe entirely, time will be spent much better on focusing on 
Asia, Latin America, and Africa, where our markets may be the 
most productive. If Europe wants to be isolated and cultivate 
more hysteria and nonsense than farmland, then we ought to look 
at regions that value science more than politics.
    I do have one parochial issue. It is a favored farmer and 
environment-friendly program called Agroforestry. This 
subcommittee has funded research for a number of years, and 
while I know you will be a strong supporter of Agroforestry and 
its multiple benefits for farmers and the environment, for 
cleaning of the waters of our Nation, it is identified in the 
budget for a rescission.
    Now, we go through this exercise every year with OMB, but 
since I have a better understanding of what may be your 
priorities and perhaps the President's than OMB does, I am 
certainly going to urge the chairman and the Ranking Member to 
reject the proposal for a rescission.
    Finally, while you are in great demand, I do want to call 
your attention to an invitation you have received to attend the 
World Agriculture Forum taking place May 20 through 22 in St. 
Louis, Missouri. There will be a number of world leaders, 
including heads of State, deputies, ministers of agriculture 
chief executive officers, scientists, farmers, and others, and 
I hope you can look at that invitation and see if you will take 
advantage of that opportunity.
    Since I have imposed upon the goodwill of the chairman and 
the Ranking Member and the committee members, I will extend to 
all of you an invitation to join us in St. Louis to talk about 
agriculture and world trade in agriculture May 20 through 22.
    Thank you.
    Senator Cochran. Thank you, Senator Bond. In recognizing 
Senators alternatively, one side of the aisle to the other, in 
the order in which they attended the hearing, I would now 
recognize Senator Johnson for any opening statement he may 
have.


                    STATEMENT OF SENATOR TIM JOHNSON


    Senator Johnson. Well, thank you, Mr. Chairman, and Senator 
Kohl, I appreciate this opportunity to serve on the 
Appropriations Committee, on the Agricultural Subcommittee in 
particular. I look forward to working with the leadership of 
the committee and all members. This is of immense importance to 
my home State of South Dakota and, I think, to the Nation at 
large.
    As a new member, I will focus a lot of my time to learning 
and listening, but I do very much appreciate this opportunity 
to participate in this hearing. I want to welcome Secretary 
Veneman to this hearing as well. Ms. Veneman is known as a 
Californian, but we in South Dakota claim some credit as well, 
as her Dutch ancestors homesteaded in Charles Mix County in 
South Dakota. There are not a lot of peaches being raised in 
South Dakota, as there are in California, but we are proud to 
have that claim to Ms. Veneman's heritage.
    I look forward to the testimony today on a range of issues. 
Obviously, tax relief is a matter of significant importance to 
us all, but it is also important that it be balanced with the 
needs to address other key priorities in this Nation, among 
them, agriculture and rural America, food safety, rural 
development, conservation, and other high priorities that I 
think people, rural and urban alike, share a concern for.
    I am somewhat concerned about the reductions in 
conservation efforts at USDA, and I look forward to your 
testimony in that regard, as well as I am concerned about 
funding levels for our antitrust and concentration efforts at 
USDA.
    One area that I have a parochial concern as well, although 
not entirely just for South Dakota, has to do with the status 
of our CRP wetlands six-State pilot project, which has had 
bipartisan support, would utilize the CRP in a fashion which 
would address some of our wetlands controversies we have had in 
the prairie pothole region in particular. The rule has not yet 
been published, and it is imminent. Our farmers across the six 
States of the Northern Plains are looking forward to that as an 
additional tool.


                           PREPARED STATEMENT


    It is a proposal that was put together by a group of some 
30-plus rural and agricultural organizations in South Dakota as 
part of an out-of-court settlement. Any time you can get the 
Sierra Club, the Farm Bureau, and the Farmer's Union all to 
agree on a conservation initiative of this sort, I think we 
ought to move forward with it, and it is my hope that we can 
work with the Secretary to get those proposals published in the 
very near future.
    So again, I welcome the Secretary to the committee, and 
look forward to my participation on this subcommittee.
    Senator Cochran. Thank you, Senator Johnson.
    [The statement follows:]

               Prepared Statement of Senator Tim Johnson

    Thank you Chairman Cochran, Ranking Member Kohl and members of the 
subcommittee, it is an honor to participate in my first appropriations 
subcommittee hearing on agriculture. I am pleased by the reception that 
my colleagues on this panel have extended to me, and I look forward to 
working with all of you to complete work on a thoughtful, balanced 
budget for the United States Department of Agriculture (USDA), and the 
many important programs under the jurisdiction of this subcommittee.
    I also thank Secretary Ann Veneman for offering testimony on USDA's 
proposed budget for fiscal year 2002, and I look forward to working 
with her to assure this subcommittee provides the investments necessary 
to keep rural America strong, now and into the future. Madam Secretary, 
I enjoyed meeting with you in January--prior to your confirmation by 
the Senate Agriculture Committee--and I expect to follow-up with you 
today on some of the issues and priorities we discussed at that time. 
Mr. Chairman, I want to make a special note at this point that while 
Senator Feinstein may take great pride in the fact that our new 
Secretary of Agriculture is indeed from a California peach-growing 
region, I am proud that Secretary Veneman has South Dakota ties too. In 
fact, her Dutch ancestors homesteaded in Charles Mix County near 
Platte, South Dakota. That was a long time ago, and there's not much 
peach growing in Charles Mix County, but nonetheless, we're proud of 
her connection to our South Dakota. Finally Madam Secretary, I again 
invite you back to your ancestral State, where we can discuss issues of 
importance to South Dakota's farm families and rural communities.
    Regarding USDA's budget proposal for fiscal year 2002, I appreciate 
the President's desire to fund national priorities in a restrained way 
so as to provide significant tax relief to America's working families. 
I too am on record in support of a significant tax cut. Yet, we must 
address the budget and tax cut in a balanced fashion, assuring efforts 
are made to pay down the federal debt and fund key programs--such as 
agriculture, conservation, rural development, and food safety just to 
name a few--which are essential to the well-being of our country.
    In an initial analysis, USDA's proposed budget adequately addresses 
some of our agricultural, trading, and food safety priorities. Yet, I 
believe it fails to make some specific and significant investments in a 
secure farm safety net, conservation programs, efforts to restore 
marketplace competition, and rural development.
    Moreover, despite the fact that over 20 major farm and commodity 
groups in the country--from Farm Bureau to Farmers Union, and including 
cattlemen, pork producers, corn, wheat, dairy, soybeans, cotton, rice, 
sugar producers, and others--have asked for increased support for a new 
farm bill and additional emergency aid for farmers and ranchers at 
levels similar to that of last year, the proposed USDA budget includes 
no support for a new farm bill or room for emergency aid--save the so-
called contingency reserve. We will discuss this specific issue in 
greater detail at next week's subcommittee hearing on the farm economy 
and assistance for farmers and ranchers. Yet, our past experience of 
enacting multi-billion ad hoc emergency bills, while ignoring even 
modest changes to the farm bill, has proven costly to taxpayers, 
unpredictable for farmers, and not sustainable nor responsible in terms 
of long-term policy. That said, I am disappointed that USDA's budget 
does not include funding for a new farm bill that will ensure economic 
security for family farmers, ranchers, and rural communities now and 
into the future. I look forward to working with you, Madam Secretary, 
and the members of this subcommittee to help develop an adequate 
disaster bill for 2001 and sustainable new farm bill.
    I am specifically concerned about the cuts or elimination of funds 
in fiscal year 2002 for important conservation programs such as the 
Wetlands Reserve Program, the Wildlife Habitat Incentives Program, and 
the Emergency Conservation Program. Farmers, other landowners, and 
society as a whole continue to desire more options to ensue the proper 
stewardship of our nation's soil and water resources. With agricultural 
conservation programs oversubscribed by nearly six times the available 
funding, this is clearly the wrong direction to take with conservation 
funding, and I plan to work in the subcommittee to secure funds that 
promote greater use of conservation programs instead of cutting or 
eliminating them altogether.
    Madam Secretary, we have visited about a new pilot program I pushed 
last year to enroll farmed wetlands in the continuous Conservation 
Reserve Program (CRP)--which was enacted with some help from Senators 
Harkin, Kohl, Cochran, and Daschle. This two year pilot program was 
created by farmers and conservationists in South Dakota, and it would 
permit up to 500,000 acres of farmed wetlands to be enrolled under CRP 
in six states of the Prairie Pothole Region. Unfortunately, the rule to 
begin the process for farmers to sign-up for the program has yet to be 
published in the Federal Register. While the severe and wet weather in 
South Dakota and other reaches of the country have delayed planting 
decisions and inadvertently could permit some to enroll in this 
program, further procrastination on the finalization of this rule will 
only hurt the chances for this program to succeed. I urge you to work 
with the appropriate agencies within USDA to ensure the rule for this 
CRP-wetlands pilot project is published in the Federal Register and 
that sign-up commence as soon as possible.
    On the other hand, I wish to thank you Madam Secretary for the 
steps you've taken within USDA to prevent outbreak of diseases such as 
Bovine Spongiform Encephalopathy (BSE) or ``mad cow'' disease and Foot 
and Mouth Disease (FMD) in the United States. Only three states raise a 
more sizable calf crop than that reared by South Dakota's cattle 
ranchers. Livestock production and processing contributes over $3 
billion to South Dakota's economy each year. An outbreak of either 
disease would have crippling consequences for the hard-working families 
raising cattle, sheep, and hogs in South Dakota. Under your leadership, 
USDA currently enforces a ban on the import of ruminant animals and 
animal products (primarily beef-based) into this country, and you've 
taken steps to ban the import of all animal and animal products from 
the European Union (EU), in response to the spread of FMD. Moreover, 
under the leadership of Chairman Cochran, the fiscal year 2001 
Agriculture Appropriations bill provided USDA with $85 million for 
preventative animal health monitoring and surveillance operations in 
the U.S.
    In the context of the appropriations process, I believe this 
subcommittee may need to plan to provide additional funding both in 
fiscal year 2002--and potentially accelerated funding this year--for 
APHIS, the Food and Drug Administration (FDA), and other appropriate 
federal agencies that must work to prevent FMD and BSE outbreaks in the 
U.S. I have already met with FDA officials to discuss these issues, and 
look forward to Secretary Veneman's views today.
    I am pleased that USDA's budget request for fiscal year 2002 
increases funding for disease prevention. In fact, you seek to increase 
the Animal and Plant Health Inspection Service (APHIS) budget by $174 
million from fiscal year 2001, up to an $849 million total for fiscal 
year 2002.
    This should authorize additional resources to increase inspection 
personnel that protect against animal and plant diseases like FMD at 
major U.S. ports of entry. Specifically, USDA can hire approximately 
350 additional personnel at critical ports and international airports 
to protect against pests and diseases. I am equally pleased with your 
requested $13 million in additional program support to strengthen the 
Agriculture Quarantine Inspection Program (AQI), which helps protect 
the U.S. against animal diseases like FMD and BSE. Finally, in regards 
to increases in Agricultural Research Service (ARS) efforts to prevent 
diseases, I support your request for an increase of $5 million for BSE-
related research.
    In addition to greater investment in USDA disease prevention 
efforts, I have encouraged my Senate colleagues and you, Madam 
Secretary, to consider S. 280, my bipartisan legislation calling for 
beef, pork, and lamb country-of-origin labeling. This bill, the 
Consumer Right to Know Act of 2001, ensures that consumers have 
knowledge about the true origin of the meat they feed their families. 
The legislation provides consumers with the confidence that meat 
products labeled as originating from the U.S. are, in fact, from 
animals born, raised, and slaughtered in the U.S.
    While I would not suggest that my bill is necessary from a food 
safety standpoint (because the majority of current live animal and meat 
imports meet U.S. inspection and safety standards), I would assert that 
my legislation would empower consumers to make informed choices about 
meat products. Furthermore, I would observe that the pure standard in 
my bill for defining a meat product as being from the U.S. would reward 
domestic producers for their herd health and production practices, 
capitalize upon current USDA and FDA safeguards, and help prevent 
unwarranted consumer fear about U.S. meat.
    We cannot underestimate the need to be very vigilant about the 
health of domestic livestock herds and the safety of domestically 
produced meat. I look forward to working with both of you to ensure 
Congress takes the appropriate measures this year to deal with FMD and 
BSE prevention, surveillance, monitoring, and control operations.
    Rural Development (RD) initiatives provide incentives for the 
creation and expansion of value-added agricultural ventures in South 
Dakota, and help furnish critical infrastructure and telecommunications 
support to rural areas of our country. I am concerned by the $2.5 
billion cut to RD programs within USDA's budget. Because rural America 
depends upon a diverse economic engine to run smoothly, I am hopeful 
this subcommittee will work to restore funding to some of the key RD 
programs this year.
    In concern to investments in Cooperative State Research Extension 
and Education Services (CSREES), the partnership between USDA and our 
land-grant university system is one of the most important investments 
we can make to ensure a strong rural America. In South Dakota, South 
Dakota State University (SDSU) and the Cooperative Extension Service 
are efficiently and effectively capitalizing upon the federal CSREES 
funds allocated to them to invest in educational opportunities for 
young people, to ensure a dependable food supply, to foster economic 
development, and to promote sustainable agricultural production while 
protecting our soil and water resources all at the same time. While 
USDA's proposed (CSREES) budget maintains formula funds at $544 
million--imperative to SDSU because these funds comprise thirty-eight 
percent of our extension service budget--I will be supporting an 
increase of $200 million in the CSREES budget to invest in student 
learning, a dependable food supply, rural community economic 
development, and sustainable agricultural production.
    This increase is necessary to build upon the success stories told 
time and time again in South Dakota and across the country, and I'd 
like to cite just two of many examples in my State.
    In South Dakota, these formula funds allow for a program entitled 
``Putting Youth Back in Sports'' that teaches sportsmanship, honesty, 
and fairness to young people involved in athletics and other extra-
curricular activities. This innovative program also addresses the role 
parents and other adults play in serving as responsible role models, 
therefore ``Putting Youth Back in Sports'' works with parents, 
teachers, coaches, and others to ensure everyone knows how to be a 
``good sport.'' As a result, nearly 10,000 people in South Dakota 
completed this program last year, and SDSU has been invited to bring 
the program to Penn State.
    Additionally, CSREES funds allowed SDSU to establish a Standardized 
Performance Analysis (SPA), a record keeping analysis for cow-calf 
ranchers in South Dakota. This SPA permits individual ranchers to 
calculate operational costs on a per-cow and per-calf basis, and as a 
result, identify a specific break-even value allowing ranchers to take 
steps to reduce costs and increase potential profit-making opportunity.
    These and many other innovative programs benefit from CSREES funds, 
which promote projects in South Dakota that serve it's citizens through 
and educational process that helps them improve their lives by applying 
unbiased, scientific knowledge focused on needs and issues. That is why 
I will support an increase for fiscal year 2002. Thank you Mr. 
Chairman, this concludes my opening statement but I look forward to 
addressing Secretary Veneman with some questions in relation to these 
and other matters.

                  STATEMENT OF SENATOR LARRY E. CRAIG

    Senator Cochran. Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much. Secretary 
Veneman, thank you for being with us today. I look forward to 
your testimony. I read your prepared remarks. You have just 
returned from Quebec and I have just returned from Brussels. 
You engaged Brazil and Argentina in discussions dealing with 
their extended agricultural capabilities, and I engaged Fran 
Krischler, the EU's ag minister.
    Out of those two conversations, I suspect we in this 
country have got to decide where we're going to go with 
agriculture as it relates to what our public policy will be in 
the near and the long term. We are going to start looking at 
that soon, and I would suggest that we will find it extremely 
difficult to continue to simply serve an ag policy, which means 
write a check to every producer and make it larger every year 
so that they can balance the books. That will not continue to 
work, and somehow we have got to wrestle our way out of that.
    I think that Senator Dorgan and I had a rather interesting 
awakening a a few years go when, as cochairs of the WTO Caucus, 
we engaged a fellow by the name of Pascal Lame, and after we 
had roughed him up for a bit he looked us all in the eye and 
chuckled a bit, and he says, you do not understand us, do you. 
We in Europe have decided to protect the pastoral beauty of our 
agricultural landscape, and therefore we will provide for our 
farmers and we will pay them directly for that purpose. We 
believe it is good social policy in Europe, so the only thing 
that you have left for us to debate is the subsidy that we may 
or may not do as it relates to moving product into the world 
market.
    In other words, he said, hands off our domestic policy. We 
have made our decision. I think that is changing now in the EU 
as new countries come in and those countries come with a large 
agricultural portfolio.
    At the same time, it is without question going to be 
demanding of us to look into our crystal balls and decide how 
we are going to deal with agricultural policy in this country 
as it relates to a producer-producer relationship, and 
certainly the well-being of our country and our consumers. I 
don't have an answer to that, and my guess is you probably 
don't, either, but maybe collectively in the next year we will 
work that out.
    In the meantime, we need to continue a level of support for 
agriculture that at this time is at or below break-even, 
depending on the specific commodity, few of them above that 
line, and all of that extremely important to individuals within 
the industry itself, but collectively to our States and to our 
country.
    I look forward to your testimony. More importantly, I look 
forward to working with you in the long-term as we wrestle 
through these issues.
    Thank you.
    Senator Cochran. Thank you, Senator Craig.
    Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much, and 
again, Mr. Chairman, thank you for convening this hearing. 
Madam Secretary, thank you for being here, and welcome.
    Abraham Lincoln created what is now the U.S. Department of 
Agriculture, with nine employees back in the early 1860's. I 
understand we now have more than 97,000 employees, including 
the forest service, some 35,000 plus in the forest service. My 
feeling is, the only reason to have a Department of Agriculture 
is to preserve the network of family farms in this country.
    I would prefer to use the term family farmer than just, 
quote, agriculture, unquote, because I think corporate America 
would farm America from coast to coast, given their own 
interests. I am interested in preserving the network of family 
producers in this country, and if we are not about doing that, 
then as far as I am concerned we probably could shut down USDA. 
If we want to do that, let us have an operational statement 
that our goal is to create, or rather to preserve, a network of 
family producers in this country on rural lands.
    My colleague from Missouri mentioned timing, and certainly 
timing is important. There is an old story about a Cherokee 
Indian chief who said, the success of a rain dance depends a 
lot on timing. I suspect that is true, and it is certainly 
true, perhaps, with the stewardship of the Secretary of 
Agriculture. It is also true that initiative is critically 
important. The question for us is, do we have good intentions, 
number 1, and number 2, are we pursuing good policy?
    Our family farmers are in some very serious trouble, and 
have been for some long while. The current farm program was 
written when the price of wheat was over $5 a bushel. It 
collapsed quickly, and every single year we have had to play 
catch-up with some emergency help.
    Last week, I was in Stanley, North Dakota. A young high 
school boy who had written me a letter came up and introduced 
himself and asked if I remembered him. I said I did. He wrote 
me a plaintive letter saying, I live on the farm with my 
family. He said, my dad can feed 180 people, and he can't feed 
his family. I told him that, I remember that letter. That is 
not a letter someone would easily forget. But he was describing 
the difficulty of trying to operate a family farm when prices 
for that which they produce are so far below their cost of 
production.
    This budget that we're talking about is far short of what 
is needed. It is not reflective of what we need. We need to 
write a new farm program, and then we need to fund a 
countercyclical program in the farm program that will help 
family farmers when times are tough.
    We also need to target that help. I do not want to see 
stories on television about the millions and millions of 
dollars we give to the largest producers in America. That does 
not make any sense. Corporate agrifactors will do just fine, 
thank you. They have got plenty of financial strength to do so.
    But I look forward to working with you on a range of these 
issues. I would say I support expanded trade, but I do not 
think we are going to trade our way out of this problem. I 
support tax incentives that are well-constructed, but I think 
my colleague, Senator Kohl, said it correctly. The fact is, the 
tax breaks are not going to help a whole lot if you do not have 
income, especially income tax breaks do not help much if you do 
not have income. We need to work together and find a way to 
decide whether we have, as an operational statement for 
describing the purpose of USDA, that we want to preserve a 
network of family farms in this country's future.
    If we do that, if we decide that is a goal, then let us 
work together to make that happen with a farm program that 
finally works. If not, maybe we ought to close the doors down 
there and save some money.

                           Prepared Statement

    I do not mean to end this on a down note. I think there is 
plenty of hope if we work together, and if we are willing to 
find the resources to try to preserve our family farmers. It is 
not the case that they are like the little old diner that is 
left behind when the interstate came through and all that is 
left is some nostalgia about what was the part of our culture. 
They are an important part of this country and an important 
part of its future, but they will not be around unless we take 
affirmative action and the right initiatives and the right 
policy courses.
    Mr. Chairman, thank you very much.
    [The statement follows:]

             Prepared Statement of Senator Byron L. Dorgan

    Mr. Chairman, today this Subcommittee begins to officially 
scrutinize the United States Department of Agriculture budget that the 
President released a couple of weeks ago. Quite frankly, I am very 
disappointed that the President has targeted the Agriculture budget for 
some of the largest spending cuts in his overall budget--cuts that we 
all know are mainly necessary to pay for his massive tax cut. All of us 
involved in Agriculture recognize the bleak economic climate in rural 
America. We can all agree that this segment of the national economy did 
not fare all that well in the last decade.
    Commodity prices collapsed four years ago and have remained 
stagnant ever since. Repeated weather disasters have ravaged the nation 
from coast to coast. Even now, the upper Midwest river systems are 
flooding while news reports tell us daily about water shortages and 
drought in Florida and the Western United States. Few would deny that 
family farmers and those whose businesses are dependent on them in 
rural America continue to face tough economic circumstances right now, 
and are in no shape to be neglected by USDA.
    Put bluntly, the conditions--low prices and adverse weather--that 
warranted three emergency farm assistance packages totaling $25 billion 
these past three years are still in place. USDA's Chief Economist 
recently stated that net cash farm income for 2001 will plummet $4 
billion below the average of the 1990's if no emergency help is 
enacted.
    Despite this fact, the Administration has proposed a budget for 
USDA that drastically curtails expenditures. Tax relief for farmers is 
touted as a benefit that will more than compensate agriculture for this 
neglect.
    However, to have a tax problem requires income, and most American 
farmers are suffering from a lack of income. Tax breaks are not a 
replacement for sound farm policy. To be more specific, collectively 
since 1980, deductible farm expense has exceeded farm income which 
means that the nation's farmers as a whole had a net taxable ``loss'' 
for the 20 year period. Recent tax records show that seventy-three per 
cent of farm sole proprietors either reported a farm loss or have no 
federal income tax liability. To say that farmers ought to blindly 
support the Administration's fiscal year 2002 USDA budget proposal 
because they have a ``stake'' in the overall budget objectives of the 
President--mainly his tax cut--is stretching things just a bit.
    The Administration has proposed deep cuts in conservation and 
foreign food aid budgets. The program levels for rural development and 
research will also be significantly reduced under the Administration's 
recommendation. They remain silent about any need for emergency 
assistance for family farmers should commodity prices remain stagnant 
at these collapsed levels or weather disasters continue to plague the 
countryside.
    USDA's proposed budget is naive in that it proposes to ignore the 
economic realities of rural America. Economic forecasts for agriculture 
remain bleak for the 2001 growing season and beyond due to the 
continuation of collapsed commodity prices, while input costs--most 
notably fuel and fertilizer--skyrocket. If we fail to offer adequate 
support for agriculture, massive farm failures will surely occur. Such 
failures would cripple rural America's economy and could further dampen 
the general economy, something we must prevent during this time of 
national economic uncertainty.
    I am confident my colleagues will agree with me and that this 
Subcommittee will address the inadequacies of the Administration's 
proposed USDA budget for fiscal year 2002.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Cochran. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman, Senator Kohl, and 
my colleagues. Secretary Veneman, welcome to the hearing. I am 
glad to see you are joined by two stalwarts, Mr. Collins, who 
has served as an economist for a long time--I have known him 
since my days in the house--and Steve Dewhurst, who I think 
started in the early Grover Cleveland administration----
    Senator Durbin.--He has continued on with distinction every 
single year. You are lucky to have to two of them by your side.
    Madam Secretary, I would like to follow through with a 
comment as well about the emergency situation we face. We have 
faced emergency assistance for farmers for the last several 
years that has literally meant whether or not those farmers 
survive or not. In Illinois and across the farm belt the 
Federal payments have accounted for half the net farm income. 
The farmers literally would not have survived without it.
    Now, on top of that, Mother Nature has thrown us another 
challenge with the flooding in the Midwest. I was on the phone 
a few minutes ago with Joe Allbaugh of FEMA who is on his way 
to Illinois. Over 28,000 acres have been flooded now, and will 
be affected in terms of crop planting.
    I would like to issue a personal invitation to you, Madam 
Secretary, if you would consider it, to come to Illinois and 
come to the flooded areas to meet with the farmers and farm 
families. There are some important questions they would like to 
ask of you, of the administration, concerning their future. 
They took a look, or at least their farm organizations have 
taken a look at the proposed budget and are concerned as to 
whether or not there has been a sufficient amount of money set 
aside for emergency purposes. There is an inadequate amount 
from where I am sitting, but perhaps there is another view of 
this. We would like to offer you the opportunity to come and 
speak to that.
    Second, I would like to say that I noted in many of the 
introductory comments here how often the issue of food safety 
has come up. It is interesting, in a country with the safest 
food supply in the world, that we want to do better, and we are 
conscious of challenges that other countries and other people 
are facing.
    I have introduced three pieces of legislation. I would like 
to ask your Department to review and see if you might support. 
One of them relates to the whole question of the food that is 
being imported into this country, the National Food Security 
and Safety Act, to strengthen our national defenses against mad 
cow disease and related threats. It uses sound science, and I 
hope good common sense, to make our borders more secure, 
improve our surveillance activities, and remove from the food 
supply for humans any animals, some animal-derived materials 
that could potentially spread mad cow disease.
    I am also working on the Genetically Engineered Foods Act. 
I noticed last night, perhaps you saw it, Frontline had a 
program relative to this whole issue of biotech, which is 
extremely controversial. Senator Bond has been a leader in 
speaking out on this, as others have. We want to make certain 
that we have the safest food supply and use the best science to 
not only feed America, but to feed the world.
    Finally, I would like to commend to you a position that was 
taken by President Bush during his campaign but not by the 
Democratic candidates. It was a position that I have been 
espousing for some time, and it addresses the fact that we 
currently have Federal food safety fragmented in 12 different 
Federal agencies with 35 different laws and 28 different House 
and Senate subcommittees with jurisdiction and oversight. Is it 
any wonder that we have conflicting, overlapping, and 
oftentimes amusing contradictions in the law when it comes to 
the safety of our food?
    This administration I think can make history by finally 
bringing together all of the different food safety aspects of 
the Federal Government into one scientifically driven agency 
that will combine the mission of food safety so that people 
across America and around the world know that we are absolutely 
doing our very best. I have been working on this for several 
years, and I would be anxious to work with you on that in the 
future.

                           Prepared Statement

    The last point I will make is this. It is more global. 
After our visit to Africa a little over a year ago, I came back 
absolutely overwhelmed with what I had seen with the AIDS 
epidemic, and I am heartened by comments from my colleagues 
like Senator Frist and others, Senator Lugar, who believe, as I 
do, that with the largesse in the United States we have an 
opportunity and an obligation to try to help those in other 
countries who are braving this type of epidemic and other 
health problems. I hope that we can find ways to work together 
to expand our assistance in this area.
    I thank you for joining us.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Chairman Cochran, thank you for holding this important hearing 
today. I look forward to working with you, Senator Kohl, and my 
Subcommittee colleagues on the fiscal year 2002 (fiscal year 2002) 
Agriculture Appropriations bill.
    Mr. Chairman, I would like to welcome USDA Secretary Ann Veneman to 
the hearing this afternoon. Although she may be a new secretary, she is 
not new to USDA or to agricultural issues. I enjoyed working with her 
during her stint as Deputy Secretary in the early 1990s. Madam 
Secretary, I look forward to working with you and the team you're 
assembling at the Department. I'm certainly familiar with the gentlemen 
you've brought with you today, Chief Economist Keith Collins and Budget 
Officer Steve Dewhurst. I always enjoy their budget insights.
    I would like to take a few minutes this afternoon to talk about 
some very important issues that affect the Department and my home state 
of Illinois.
    First, I've noticed that the Department's fiscal year 2002 budget 
contains no emergency funding. The Administration is relying on its 
proposed National Emergency Reserve Fund or Contingency Reserve Fund--
neither of which exist at this time--to provide farmers with federal 
assistance.
    The proposed Emergency Reserve Fund would only be given $5.6 
billion in fiscal year 2002 to respond to all types of disasters, 
including floods, earthquakes, hurricanes, droughts, and the kinds of 
emergency payments farmers will need. While I am open to efforts to 
prepare for unexpected emergencies, the continuing farm slump is 
different. We know the need. Congress has appropriated more than $5.6 
billion for farm assistance alone in each of the years since the farm 
economy's downturn began.
    As for offering the Contingency Reserve Fund as an option for 
funding, this approach pits farm aid against Medicare, Social Security 
and defense spending needs. I wonder, how is relying on these reserve 
funds, which compete with other national needs, a responsible method 
for ensuring our farmers get the support they desperately need?
    I raise this point because as we speak, western Illinois and 
eastern Iowa residents are battling another Mississippi River flood. 
The Illinois Department of Agriculture tells me that many farmers have 
canceled orders for inputs such as fertilizer and chemicals and are 
delaying the planting of crops in anticipation of possible flood damage 
to their property. Record crests are expected today and the FEMA 
director will travel to the Quad Cities on Thursday to assess the 
damage. Already, 28,600 acres of cropland in ten Illinois counties have 
been affected, according Illinois Emergency Management Agency.
    And just like we can't accurately predict floods, other natural 
disasters or poor crop conditions could emerge through the planting 
season and into fall harvest throwing our agricultural economy for yet 
another loop. We need to be prepared.
    Congress has provided approximately $25 billion in emergency 
agriculture aid since 1998. Farm groups have requested up to a $12 
billion increase in the agriculture budget for fiscal year 2002 in 
anticipation of another year of depressed commodity prices and higher 
input costs. The Senate passed an amendment to the budget resolution 
that would allow for $9 billion in additional emergency agricultural 
assistance this fiscal year. I supported that measure.
    My colleagues will not be shocked to learn that government payments 
in 2000 made up nearly half of net farm income. The USDA predicts that 
without government payments, farm income will fall in 2001 to $4.1 
billion. A recent study by the University of Illinois shows that 
Illinois farm income is up slightly in 2000, but that government 
payments still account for 21 percent of gross farm returns. In fact, 
many families have to go off the farm to earn money to pay for simple 
living expenses and income and Social Security taxes.
    Having said that, I think it's important for all of us to realize 
that the 1996 Farm Bill was not written in stone. It can and should be 
changed. I believe we must start now by reforming Freedom to Farm 
because clearly it has failed to meet the most basic needs of 
producers. Restoring the farm safety net, targeting payments to farmers 
in need, and ensuring that livestock producers are not left behind 
should be the first steps.
    We must also work to both open and broaden markets for American 
agricultural products and find appropriate alternative uses. More 
specifically, I hope that my colleagues in Congress, and in the Bush 
Administration, will make every effort to expand the role of ethanol in 
the reformulated gasoline program. Knowing what we know about MTBE, 
this should be a top priority. I believe expanding ethanol's role is a 
win for our farmers, a win for the environment, and a win for the rural 
economy.
    We have a great deal to do and a very short year in which to 
accomplish these initiatives for rural America and our farm families. 
It's time for Congress to roll up its sleeves and get to work.
    Now, I'd like to mention food safety.
    Our country has been blessed with one of the safest and most 
abundant food supplies in the world. We have the science and know-how 
to make it even safer. And as the public learns of global threats to 
diseases like mad cow and foot and mouth and new, unfamiliar 
technologies--like genetically engineered crops and animals--we need to 
make sure that public confidence in food safety remains high.
    I recently announced that I will soon introduce the National Food 
Security and Safety Act to strengthen our national defenses against mad 
cow disease and related threats. This bill will apply sound science and 
good common sense to make our borders more secure, improve our 
surveillance activities, and remove from the food supply for humans and 
animals some animal-derived materials that could potentially spread mad 
cow. We'll also get these same materials out of non-food items, like 
cosmetics and medicines.
    I also plan to reintroduce the Genetically Engineered Foods Act. 
While I strongly support biotechnology, I've seen farmers in Illinois 
and throughout the country get hurt by some grave mistakes made by 
others. We must be able to better assure farmers of an available market 
for biotech crops, and assure consumers of the safety and effective 
oversight of this new technology. My bill will accomplish both these 
goals.
    All food safety threats--whether salmonella or mad cow--are made 
more difficult to manage by our highly fractured food safety system. 
Currently, federal oversight for food safety is fragmented with at 
least 12 different federal agencies, 35 different laws governing food 
safety, and 28 House and Senate subcommittees with food safety 
oversight. With overlapping jurisdictions and scattered 
responsibilities, federal agencies often lack accountability on food 
safety-related issues.
    For that reason, I will also be reintroducing the Safe Food Act. 
This legislation would unite food safety and inspection activities in a 
single agency with a clear mission to protect the public health. While 
the details of a new structure need to be developed in an open, 
participatory process, one of the best things we can do to protect the 
public health and save lives is unite federal food safety activities in 
one agency.
    I want to work with you and others in the Administration to design 
and implement a more streamlined system to strengthen food safety and 
better protect public health. I hope the Department will continue to 
explore this idea and work with me on ensuring that our food supply is 
the safest in the world.
    Secretary Veneman, as you may know, the Department has been working 
in Chicago and the surrounding suburbs to help eradicate the Asian 
Longhorned Beetle. The City of Chicago and the State of Illinois have 
been battling these pests for over three years now. Both APHIS and the 
Forest Service have been invaluable partners in this effort. I'm 
pleased to see that the Department's Budget includes more than $49 
million for efforts to fight Beetles in Illinois and New York.
    I hope the Department will continue to work with the Illinois 
Delegation on the innovative Illinois Rivers 2020 program, a federal-
state initiative designed to restore and enhance the Illinois River 
Basin.
    Allow me to touch briefly on Africa. As you probably know, I was in 
Africa in January of last year and had an opportunity to see U.S. food 
aid programs in action. I was impressed and heartened by direct feeding 
programs as well as programs that sell U.S. food products at low cost 
to finance development projects. But I was overwhelmed by the impact of 
AIDS on Africa--particularly by the millions of children being left 
orphaned by the epidemic and the devastating impact on African 
countries' economies.
    I believe U.S. food aid could be used to target communities heavily 
affected by AIDS. Last year, I supported a provision that passed in the 
final bill to use $25 million-worth of surplus commodities in the 
416(b) program for food aid, or to be monetized for development 
projects, for communities heavily impacted by AIDS. I would like to 
know what progress USDA has made in disbursing these funds and what 
kind of projects PVOs and the World Food Programme suggested. I would 
like to get the Department's views on the potential for U.S. food aid 
being used more broadly to help those children, families, and 
communities affected by AIDS in Africa and elsewhere in the world.
    Finally, Madam Secretary, I have asked in the past that the 
Department specifically request funding to implement the U.S. Action 
Plan on Food Security. I'm very interested in how you think the United 
States can meet the commitments we made to reduce world hunger at the 
1996 World Food Summit. So far, our action plans have appeared to be 
only a list of the programs we already have, but we have not made much 
progress toward the goal of cutting in half the number of 
undernourished people by 2015.
    Mr. Chairman, again thank you for the opportunity to raise these 
issues.

    Senator Cochran. Thank you, Senator. Madam Secretary, our 
Ranking Member is not going to be able to return to the 
committee after we go vote--we have a vote that has now begun 
on the Senate floor--so I am going to recognize him for the 
purpose of asking a couple of questions, which I hope you can 
answer; Then we can take a break and go vote, and we will come 
back and resume our hearing and hear your statement and have 
additional questions.
    Senator Kohl.

                         Foot and Mouth Disease

    Senator Kohl. Thank you, Mr. Chairman, for your courtesies.
    Madam Secretary, I appreciate your comments on the steps 
necessary to avoid an outbreak on foot and mouth disease or 
similar animal diseases in our country. If an outbreak were to 
occur in my State, which relies on the dairy industry, the 
consequences would be absolutely devastating, as I pointed out 
in my April 7th letter to you. In that letter, I also mentioned 
a troubling story on this subject that appeared in Wisconsin 
State Journal on April 4 which reported shortfalls in the 
inspection procedure at U.S. points of entry, so Madam 
Secretary, have you had a chance to review that story, and 
would you please respond to the concerns it raises, and if a 
confirmed outbreak of foot and mouth disease were to occur in 
this country what USDA procedures are in place for disease 
containment?
    Secretary Veneman. Thank you, Senator. As you probably 
know, foot and mouth disease has taken up a considerable amount 
of time for us in the Department of Agriculture since we 
assumed office, with the outbreak that occurred in the U.K. and 
continues to show new cases every day.
    We have been watching this issue very, very closely, and 
taking considerable action with regard to foot and mouth 
disease. Initially we suspended the imports of products from 
any foot and mouth disease country as well as all of the EU, 
following the outbreak in Europe.
    We have strengthened the number of inspectors that we have 
at ports of entry. We have increased our inspection at 
airports. We have increased public service announcements. We 
have increased the number of personnel at ports and airports. 
We have added about $32 million from our AQI user fees to add 
inspectors toward this effort, so overall we have been 
continually reviewing the programs that we have for exclusion.
    In addition, we are looking at all of the issues that we 
have with regard to preparedness should an outbreak occur, and 
that means working interagency with other agencies to make sure 
that we are totally prepared in the unfortunate event that we 
might get an outbreak.
    We have strengthened our relationship with the States and 
the State veterinarians to ensure that all of our programs are 
working in coordination. We have taken a number of steps with 
regard to constantly retooling our programs, looking into how 
we can strengthen them, because we know how devastating this 
disease can be to the United States, whether it is in your 
State, the dairy States, in my home State of California, or 
around the country, or to all of the livestock herds we 
currently have in so many parts of the country today.
    This would impact seriously on almost every State, and so 
we are very cognizant of the importance of our vigilance.
    As I said, if we did confirm an outbreak we would hope that 
it could be contained and eradicated very quickly, and we are 
constantly reviewing our systems to make sure we are working 
together with our States and all of the resources that we have 
in the U.S. to ensure that we could act quickly, and in the 
unfortunate event that we got it, to eradicate it quickly.
    Senator Kohl. I would just ask one other question and 
submit the others for the record, as well as a letter from 
Senator Wellstone.
    [The letter follows:]

                 Letter From Senator Paul D. Wellstone

                                                    April 23, 2001.
Hon. Herb Kohl,
Ranking Member, Subcommittee on Agriculture, Rural Development and 
        Related Agencies, U.S. Senate, Washington, DC 20510.
    Dear Herb: I understand your Committee is hearing testimony from 
Secretary Veneman this week regarding the fiscal year 2002 Budget. As 
you know recent flooding has ravaged a number of Minnesota communities. 
I would appreciate your informing the Secretary of the current 
situation in Minnesota as it relates to agriculture.
    Continued extremely wet conditions over the weekend of April 22nd 
have made planting conditions quite difficult. Approximately 5 to 8 
inches of snow fell in central Minnesota, and over 4 inches of rain 
fell covering much of central and southeast portions of the state. 
Prior to this weekend's precipitation, the following state-wide 
estimates were provided by the Minnesota Farm Service Agency (FSA): $1 
million in structure damage (farm buildings, bins, storage facilities, 
etc.) and 8,000 acres of Conservation Reserve Program flooded out.
    Minnesota FSA estimates that approximately 1.5 million acres of 
farm land have been flooded. Additionally 10 million acres are 
saturated, with no capacity to absorb any more moisture. The largest 
portion of the 11.5 million flooded and saturated cropland are along 
the Minnesota and Mississippi Rivers. The current cold and wet 
conditions increase the risk of another occurrence of the perennial 
scab and blight that affect small grains.
    Furthermore FSA predicts delays in planting will result in a marked 
shift from corn to soybeans, due to a shorter growing season for 
soybeans. Minnesota already has seen an approximate 35 percent shift 
from traditional corn acres to soybean acres for this crop year because 
of favorable loan rates for soybeans. These projected shifts have 
already depressed the soybean market.
    Thank you for your assistance on this matter. As additional 
information becomes available I will keep the Committee informed.
            Sincerely,
                                                 Paul D. Wellstone.

                           Cranberry Industry

    Senator Kohl. Madam Secretary, the cranberry industry 
continues to face record low prices and problems related to 
oversupply. Wisconsin is the leading cranberry producing area 
in the country. The current crisis has devastated producers in 
my State. Currently, I know that you are reviewing a Cranberry 
Marketing Committee proposal for volume reduction to stabilize 
market conditions this year. Since it is obviously important 
that planning decisions be concluded soon, can you provide a 
timetable by which you will have made a decision on this 
matter?
    Secretary Veneman. Well, Senator, I am aware of this issue 
and the fact that there are industry proposals. The industry is 
not exactly united on this issue. We are looking at the issue. 
We hope to have a decision very soon. I understand very clearly 
the need to act with some urgency on this issue, and the fact 
that we have to have a timely decision. We will address this 
issue within a matter of days.
    Senator Kohl. I thank you so much, and I thank you, Mr. 
Chairman.
    Senator Cochran. Thank you, Senator Kohl. The committee 
will stand in recess. We will go over and vote on the 
legislation on the floor, and we will reconvene within a few 
minutes.
    The committee will please come to order. I am pleased to 
continue our hearing. I apologize for having to suspend while 
we went over and voted on the legislation on the floor of the 
Senate.
    We are pleased to have before the committee today Secretary 
Ann Veneman, Secretary of Agriculture. We have had opening 
statements from our committee members and a couple of questions 
from the Ranking Member. Madam Secretary, we are pleased to 
receive your statement at this time, and we will have a few 
questions following your statement. Your written statement is 
being included in full in the record, so we encourage you to 
make whatever summary comments you think would be helpful to 
us.

                    Secretary Veneman's oral remarks

    Secretary Veneman. Thank you, Mr. Chairman, and I was going 
to say members of the committee, but I will just say Mr. 
Chairman for now. It is an honor for me to appear before you 
today to discuss our 2002 budget for the Department of 
Agriculture, and as was indicated early on, I am lucky to have 
the two gentlemen with me, both of whom are long-time employees 
of the Department. Steve Dewhurst, our budget officer, and 
Keith Collins, our chief economist. I am going to make a 
relatively brief statement, and then we will all be available 
to respond to questions, and I appreciate you taking my full 
statement for the record.
    I want to begin by thanking this committee for its support 
of USDA programs and for the long history of effective 
cooperation between the committee and the Department. I enjoyed 
a productive relationship with this committee when I was Deputy 
Secretary in the early nineties, and I want to preserve and 
strengthen that relationship in the future. I look forward to 
working with you, Mr. Chairman and all the members of the 
committee toward that objective.
    As you know, the details of the President's budget 
proposals were released on April 9th. For the activities within 
the jurisdiction of this committee, the Department is 
requesting appropriations for the year 2002 which total $72 
billion, an increase of $883 million for the Department's 
ongoing programs. It is important to note that in 2001 there 
was more than $4 billion appropriated for emergencies. This 
budget does not include approximately $3 billion of that 
spending appropriated for the Department, because it was mostly 
one-time emergency spending where the missions have been 
completed.
    By any measure, this is a responsible, yet restrained 
budget. It meets the President's objectives of slowing the 
growth of Federal spending, funding urgent national priorities, 
achieving historic levels of debt reduction, and providing tax 
relief. Farmers and other beneficiaries of USDA programs all 
have a stake in these objectives.
    As you know, the Department is responsible for a very 
diverse set of programs. It is always difficult to find the 
appropriate balance for funding them. Nevertheless, we have 
tried very hard to provide adequate funding for the most urgent 
issues facing American agriculture, and we look forward to 
working with the committee as it proceeds through the year 2002 
budget process.
    However, I do want to emphasize that in order to get growth 
of spending under control, it is important that the levels that 
we are recommending to you today be supported. This budget was 
developed to include sufficient funding to carry out key 
priorities, including:
    First making sure we have the funding and legal authorities 
we need to strengthen our agricultural quarantine inspection 
activities and combat pest and disease infestations;
    Provide overseas marketing intelligence and technical 
expertise needed to support agricultural trade;
    Implement the new Agricultural Risk Protection Act so the 
farmers will have the benefits of improved crop insurance as 
soon as possible;
    Provide adequate funding for our food safety activities, 
particularly the meat and poultry inspection workforce of the 
Food Safety Inspection Service;
    Support our food assistance programs at levels consistent 
with the anticipated need for these programs;
    Provide adequate funding for the Department's rural 
developments activities, with particular emphasis on water and 
sewer facilities, rural housing, and efforts to improve access 
of rural areas to technology, particularly the Internet;
    Provide continued support to landowners, farmers, and 
ranchers through the Department's conservation programs, and 
redirect USDA research into important new ares.
    With your permission, I would like to briefly make some 
additional comments on a couple of the areas that I just 
mentioned. As you know, there has been much attention this year 
devoted to issues such as foot and mouth disease and bovine 
spongiform encephalopathy, BSE, particularly given the 
heightened concerns about the situation in Europe. Preventing 
the introduction of these diseases into the U.S. is the best 
way of dealing with these threats.
    I have said many times that pests and animal disease 
prevention and eradication programs are the very infrastructure 
to protect production agriculture. For 2002, we are requesting 
an increase of $174 million in appropriations for APHIS 
programs which will allow us to continue emergency programs 
underway in 2001.
    Specifically, we are requesting almost a 40-percent 
increase over the 2000 levels for the agricultural quarantine 
inspection, or AQI program, in order to increase the level of 
inspections along U.S. borders and ports of entry. In order to 
provide more inspection resources at borders and ports of entry 
as soon as possible, I have authorized use of an additional $32 
million of AQI user fees for 2 years, beginning in fiscal year 
2001.
    Using these two sources of additional funding, we will be 
able to increase staffing in the AQI program by over 900 by the 
end of 2002, more than 35 percent higher than 2000. We have 
also taken a number of other actions in response to the 
outbreak of foot and mouth disease abroad. We have tightened 
regulations to prohibit shipments of livestock products from 
high-risk countries, strengthened Federal, State, and industry 
coordination, implemented education campaigns, and dispatched 
U.S. experts to provide technical assistance overseas.
    All of these measures have been taken to reduce risk, and 
we continue to review and examine all existing programs to 
ensure this Department has all the necessary means to (1) 
prevent the possible entry of foot and mouth disease, and (2) 
ensure that if we ever faced an emergency, that we will have 
the resources and capabilities to quickly contain and 
eradicate.
    Concerning BSE, we are proposing a research initiative for 
the Agricultural Research Service to determine the nature and 
transmission of the disease, and to develop improved detection 
and diagnostic tools. Early detection of the disease before 
symptoms appear is a priority, both to eradicate the disease 
and prevent hazardous products from entering the food chain.
    Concerning food safety, this budget does not propose any 
new user fees for meat, poultry, or egg inspection. However, it 
does request additional funding to support a workforce 
sufficient to meet industry demand for inspection services so 
that there is no disruption in slaughter plant operations due 
to a lack of inspectors. Our goal is to make sure the food 
supply is safe, and to protect it from the variety of hazards 
that pose a threat. In that regard, we are also currently 
conducting a review of our food safety programs to ensure 
regulations and programs are meeting the goals of protecting 
consumers.
    We believe this budget carries out the President's 
commitment to expand markets for American agricultural 
products. I have personally spent a lot of my time over the 
years dealing with trade matters, and I want to make sure the 
Department is well-equipped to do the job in this area. In this 
regard, I would like to emphasize the importance of funding our 
request to bolster the Department's capability to address 
technical trade issues and to strengthen our market 
intelligence capabilities at our overseas posts.
    In addition, we are proposing funding for our credit, 
market development, and export enhancement programs at or above 
2001 levels. We also will be aggressively pursuing 
international negotiations to reduce trade barriers and open 
markets for our farmers and ranchers.
    Finally, I would mention a couple of points on the farm 
assistance side. Farmers have been through some tough economic 
times in the past several years, and there is continuing 
uncertainty about the future. We are closely monitoring the 
crop and market conditions and if additional assistance is 
needed we will work with the Congress to determine the nature 
and extent of that assistance.
    There has been an extremely heavy workload in our county 
office service centers assisting farmers. We expect the heavy 
workload to continue into 2002, although with some moderation. 
In order to deal with providing adequate assistance to farmers, 
we will need greater funding for the salaries and expenses in 
the Farm Service Agency.
    As noted in the budget request, we have proposed some 
additional funding to properly implement the reformed crop 
insurance programs authorized by Congress last year. As well, 
additional funding is included to assure that farmers have 
access to the credit they may need to carry out their farming 
operations.

                           Prepared Statement

    With that, Mr. Chairman, I will conclude my statement. I am 
looking forward to working closely with the committee on the 
year 2002 budget. I know that one of the first things we can do 
to help the committee is to make sure you have all the 
information that you need to proceed to make decisions about 
the budget. You have received our budget justifications and 
other supporting material. If there is additional information 
that you need, please do not hesitate to let us know.
    Now, we would be glad to respond to any questions.
    [The statement follows:]

                  Prepared Statement of Ann M. Veneman

    Mr. Chairman, Members of the Committee, it is an honor for me to 
appear before you to discuss the fiscal year 2002 budget for the 
Department of Agriculture. I have with me today our Chief Economist, 
Keith Collins, and our Budget Officer, Steve Dewhurst.
    I want to begin by thanking this Committee for its support of USDA 
programs and for the long history of effective cooperation between this 
Committee and the Department in support of American agriculture. The 
Department had a strong relationship with this Committee when I was 
Deputy Secretary in the early 1990's. I want to preserve and strengthen 
that relationship in the future. I look forward to working with you, 
Mr. Chairman, and all the Members of the Committee toward that 
objective.
    As you know, the details of the President's Budget Proposals were 
released on April 9th. For the activities within the jurisdiction of 
this Committee, the Department is requesting appropriations in 2002 
which total $72.7 billion. This is a reduction of $3.3 billion from the 
levels enacted by the Congress in 2001. However, it is important to 
remember that the 2001 figure includes over $4 billion in emergency 
appropriations. When this factor is considered, the actual budget for 
the Department's on-going programs reflects an increase in 2002 of $883 
million.
    By any measure, this is a restrained budget.
    In developing the 2002 budget, the objectives of the President were 
to slow the growth of Federal spending, fund urgent national 
priorities, achieve historic levels of debt reduction and provide tax 
relief. Farmers and other beneficiaries of USDA programs all have a 
stake in these objectives. Farmers especially will benefit from the 
elimination of the estate tax and from the proposed establishment of 
tax-deferred risk management accounts.
    Restraint of Federal spending is important. Federal spending has 
grown substantially in recent years. Left unchecked, Federal spending 
would far exceed the Budget Enforcement Act baseline over the next 10 
years. USDA has contributed to this growth of Federal spending. Now, we 
must contribute to budget restraint.
    Restraining the budget is not easy. The Committee is aware that 
USDA has one of the most diverse sets of programs in the Government. 
Developing a budget for this Department always involves difficult 
questions of finding the appropriate balance among all of these 
programs within a reasonable budget figure.
    We have tried very hard to provide adequate funding for the most 
urgent issues facing the constituents of the Department. I realize that 
there are some reductions proposed in this budget which will cause 
concern. We are more than happy to discuss those matters and to work 
cooperatively with the Committee as we proceed through the 2002 budget 
process. However, I want to emphasize that we share the President's 
commitment to assuring that the total USDA budget does not exceed the 
levels recommended to you today.
    As we developed this budget, I focused my attention on a number of 
key concerns. Specifically, I wanted to be sure that this budget had 
the necessary resources to:
  --Provide the overseas market intelligence and technical expertise we 
        need to support agricultural trade;
  --Implement the new Agricultural Risk Protection Act of 2000 so that 
        farmers will have the benefits of improved crop insurance as 
        soon as possible;
  --Make sure we have the funding and legal authorities we need to 
        strengthen our agricultural quarantine inspection activities 
        and combat pest and disease infestations;
  --Provide adequate funding for our food safety activities, 
        particularly the meat and poultry inspection workforce of the 
        Food Safety and Inspection Service (FSIS);
  --Support our food assistance programs at levels consistent with the 
        anticipated need for those programs;
  --Provide adequate funding for the Department's rural development 
        activities, with particular emphasis on water and sewer 
        facilities; rural housing; and efforts to improve the access of 
        rural areas to technology, particularly the internet;
  --Provide continuing support to landowners, farmers, and ranchers 
        through the Department's conservation programs; and
  --Redirect USDA research into important, new areas.
    With your permission, I will now provide an overview of how I 
believe this budget responds to each of these important needs.
                 farm and foreign agricultural services
    As you know, farmers have been through some tough economic times in 
the past several years, and there is continuing uncertainty about the 
future. Although the situation has improved for some commodities, there 
is continued weakness in certain sectors of the farm economy. The 
Department will be closely monitoring crop and market conditions over 
the coming months. If additional assistance is needed, we will work 
with the Congress to determine the nature and extent of that 
assistance. The President's overall budget includes a contingency 
reserve which could be used for this purpose. In the meantime, there 
are a number of specific proposals in this budget which I would commend 
to the Committee's attention.
    The Administration has established an ambitious trade expansion 
agenda. USDA will be a full and active participant in that effort. The 
reasons for doing so are clear. With more than 95 percent of the 
world's population living outside the United States, the future 
prosperity of the American farm sector depends upon reducing trade 
barriers and increasing access to new markets in the expanding global 
economy.
    USDA's trade expansion efforts will involve a coordinated 
Department-wide effort. One of the highest priorities will be 
international trade negotiations that provide the opportunity to 
achieve further reductions in trade-distorting agricultural policies, 
ensure fairer competition in global markets, and open new markets for 
our farmers and ranchers.
    As the Committee is aware, multilateral negotiations to further 
liberalize agricultural trading practices are already underway under 
the auspices of the World Trade Organization. The United States has 
offered a set of ambitious proposals for the negotiations that provide 
for the elimination of export subsidies, improved market access through 
reduced tariffs and increased quotas, reform of state trading 
enterprises, tighter rules on trade-distorting domestic support, and 
facilitation of trade in the products of new technologies. The 
Department will be working closely with the Office of the U.S. Trade 
Representative to secure an agreement which incorporates those 
objectives.
    Negotiations also are underway to achieve a Free Trade Area of the 
Americas by 2005. For agriculture, the objectives of the negotiations 
include eliminating export subsidies that affect trade in the 
Hemisphere, identifying other trade-distorting practices in order to 
bring them under greater discipline, and ensuring that sanitary and 
phytosanitary measures are based on science and conform with Uruguay 
Round principles. Latin America and the Caribbean region are expected 
to be among the most promising growth markets for U.S. agricultural 
products in the coming years, and we need to ensure that American 
agriculture has maximum access to those markets.
    In addition to negotiating new agreements, the Department will be 
working hard to ensure that our trading partners comply fully with 
existing trade agreements and do not institute technical barriers to 
trade that run counter to the spirit of those agreements. Technical 
trade issues, such as those related to food safety and biotechnology, 
are among the fastest growing and most sensitive issues affecting 
agricultural trade today. It is critical that regulatory actions taken 
by our trading partners do not impede U.S. exports and that they comply 
with Uruguay Round trade disciplines. It is also important for the 
United States to participate actively in the international 
organizations that set the technical standards that govern agricultural 
trade.
    The Foreign Agricultural Service (FAS) is the Department's lead 
agency in implementing many of our international programs and 
activities. For 2002, the budget provides appropriated funding of $126 
million for FAS. This is an increase of $6.4 million above the 2001 
level. This additional funding is provided to bolster FAS' capabilities 
to address technical trade issues and to strengthen FAS' market 
intelligence capabilities at its overseas posts. The emergence of 
increasingly complex trade policy and food security issues in recent 
years has led to a dramatic increase in workload at the agency's 
overseas offices. Meeting these priority workload demands in addition 
to regular commodity reporting, marketing, and representation duties 
has overwhelmed FAS in a number of key locations. We will be focusing 
our efforts on 14 important markets around the world where 
opportunities to expand U.S. agricultural exports appear to be the 
greatest.
    Beyond these specific proposals, the budget also includes adequate 
funding for our export promotion and market development programs. The 
sustained effort of these programs is needed if we are to benefit from 
the market opportunities which become available. The Department's 
Foreign Market Development (Cooperator) Program, the Market Access 
Program, and the Quality Samples Program are estimated at $120 million 
in the budget, the same level as 2001. The Department's Export 
Guarantee Programs are estimated at $3.9 billion, an increase of more 
than $100 million above the current estimate for 2001. Finally, funding 
for the Export Enhancement Program is estimated at $478 million which 
is the maximum level authorized by statute and the same as 2001; and 
funding for the Dairy Export Incentive Program is estimated at $42 
million, slightly above the current estimate for 2001.
    The budget includes a commitment to take a further look at the 
Department's foreign food assistance programs to be sure they are 
effective in achieving their objectives. The study has not yet been 
designed, but I believe it is in everyone's interest to make sure that 
these programs will meet the Nation's needs for the foreseeable future. 
For instance, we want to ensure that these programs significantly 
benefit farmers, target necessary humanitarian feeding needs and avoid 
adverse commercial impacts.
    The budget for this Mission Area also includes other important 
proposals. Full funding is included for implementation of the reformed 
crop insurance programs authorized by the Congress last year. The 
budget includes increases of $250 million in mandatory spending to 
finance the additional subsidies involved in this program and $9 
million in discretionary spending to provide the administrative money 
required by the Risk Management Agency to be sure this program is 
properly implemented.
    With respect to the Farm Service Agency (FSA) salaries and expenses 
activities, the 2002 budget proposal will support about 5,900 Federal 
staff years and 11,500 non-Federal county staff years, including about 
2,000 temporary county staff years. The heavy county office workload 
resulting from the weakened farm economy of the past few years is 
expected to continue into 2002, although with some moderation. The 2002 
budget proposes to increase FSA salaries and expenses funding by almost 
$120 million, the largest salaries and expense budget increase in USDA. 
As a result, FSA temporary staffing will be maintained at about twice 
the levels of the pre-crisis period of 1996-1998.
    We have also budgeted almost $4 billion in farm credit programs to 
assure that farmers have access when necessary to Federally-supported 
operating, ownership, and emergency credit. This action alone requires 
an increase of $68 million in the discretionary budget.
                   marketing and regulatory programs
    Critical issues of pest and disease control are the primary 
responsibility of the APHIS. For APHIS' salaries and expenses, we are 
requesting a $174 million increase over 2001. Outbreaks of bovine 
spongiform encephalopathy (BSE) or ``mad cow disease'' and foot-and-
mouth disease (FMD) in the European Union and other countries 
underscore the need to protect our borders from animal and plant 
threats. Preventing the introduction of these devastating pests and 
diseases is the most cost-effective approach to deal with such threats. 
As a result, the APHIS budget provides increased funding for the 
Agricultural Quarantine Inspection (AQI) program along U.S. borders and 
ports of entry. Funding for the AQI program in 2002 will be almost 40 
percent higher than 2000 and authorized staffing will be increased over 
900 staff years--more than 35 percent higher than 2000. Part of this 
increase results from the additional $8.4 million requested for the 
taxpayer supported inspection activities at the Canadian and Mexican 
borders. Another part of the increase results from my recent 
authorization to expand the user fee supported inspection services by 
$32 million through 2002. These activities will increase inspection 
personnel to protect against animal and plant diseases, such as, foot-
and-mouth, at major U.S. ports of entry.
    In the face of threats from FMD and BSE, USDA has increased its 
vigilance to prevent such diseases from entering the United States. 
Live ruminants and their products were already prohibited from all EU 
countries due to risks associated with BSE. With the outbreak of FMD 
there, USDA has temporarily restricted the importation of live swine 
and swine products from the EU as well. This action is in addition to 
our standing restrictions on specified imports from other countries 
that have FMD. USDA has also intensified scrutiny and inspections at 
ports of entry, enhanced anti-smuggling operations, engaged in a public 
education campaign to raise travelers' awareness, enhanced 
communication with States and the livestock industry, and furthered our 
emergency preparedness. Finally, I asked a top California State 
veterinarian to come to USDA to assist APHIS in our FMD exclusionary 
planning activities.
    With respect to pest and disease outbreaks, the 2002 budget 
requests appropriations to continue funding for several eradication 
programs that had been started with funds transferred from Commodity 
Credit Corporation (CCC). These continuing activities can no longer be 
considered ``emergencies.'' These appropriations will fund eradication 
of 9 pest and disease outbreaks, including Mediterranean fruit fly, 
citrus canker, Asian Long-horned Beetle, and bovine tuberculosis. For 
any new emergency pest and disease outbreak, we are requesting 
continuation of our legal authority to use CCC funding.
    I would also direct the Committee's attention to other important 
proposals in this area. For instance, the budget for the Grain 
Inspection, Packers and Stockyards Administration (GIPSA) includes $1.2 
million to facilitate U.S. grain exports by helping resolve recurring 
international grain quality issues and by enabling GIPSA certification 
laboratories to meet revised international certification standards.
    The budget for the Agricultural Marketing Service includes an 
increase of $4 million to develop the agency's capability to test bio-
engineered fruits, vegetables, nuts, and seeds to support labeling 
programs aimed at differentiating bio-engineered commodities from 
conventional commodities. Also, the budget includes an increase of $1 
million to expand the agency's involvement in international standard 
setting activities to ensure that U.S. interests are represented during 
the development of agricultural standards that have an impact on export 
opportunities for U.S. producers.
                              food safety
    Ensuring the safety of the food we eat is vital to American 
agriculture and consumers. There is no question that USDA must and will 
carry out its duties to protect the food supply from the variety of 
hazards that threaten its safety.
    Unlike some recent budgets, this budget does not propose user fees 
for meat, poultry, and egg inspection. Instead, we are requesting 
appropriations of $716 million, an increase of $21 million over the 
2001 level. The budget includes an increase for pay and benefits that 
is necessary to support FSIS workforce, including approximately 7,600 
meat and poultry inspectors. The agency estimates that this level of 
inspectors is necessary to meet industry demand for inspection services 
without disruption.
    The 2002 budget for FSIS also includes an increase to improve the 
agency's capability to detect residues in meat products being exported 
to the EU. This will comply with EU requirements and protect these 
exports.
    The 2002 budget also includes an increase to review foreign 
inspection systems to assure they meet U.S. requirements. The requested 
increase will enable FSIS to strengthen efforts to conduct follow-up 
investigations of foreign systems found to have problems meeting U.S. 
requirements. The increase will also enable FSIS to increase the number 
of on-site audits of countries requesting initial certification to 
export to the United States.
                 food, nutrition, and consumer services
    The budget includes $36.6 billion for the Department's nutrition 
assistance programs. This is about 50 percent of the total 
appropriations we are requesting from this Committee.
    The Food Stamp Program is funded at $21 billion. This includes 
funds to cover an anticipated food cost increase of 3 percent and an 
estimated additional increase of 800,000 participants. These figures 
are consistent with the overall economic projections in the President's 
budget. In addition, $1 billion is requested for a contingency reserve. 
While use of the reserve is not anticipated, it would be available in 
the event that unforeseen economic changes would increase demand for 
the program.
    The Child Nutrition Programs are budgeted under current law at 
$10.1 billion, about $550 million more than the 2001 estimate. This 
estimate is based on increased participation and an adjustment for the 
Consumer Price Index for Food Away From Home. The Department will 
continue to work with the States to improve the nutritional quality of 
school meals and to help strengthen program integrity.
    For the Special Supplemental Program for Women, Infants, and 
Children (WIC), the budget requests $4.1 billion, an increase of $94 
million over the 2001 appropriations, which will support a monthly 
average of 7.25 million participants, the same level expected in 2001. 
Funds are included to continue efforts to implement electronic benefit 
transfer (EBT) for WIC. EBT is expected to improve efficiency not only 
at the grocery checkout, but also within WIC clinics where the cards 
can greatly simplify identification and clerical tasks. The budget also 
funds the Farmers' Market Nutrition Program at $20 million, the same as 
the 2001 level.
                   natural resources and environment
    The 2002 budget request in the conservation area recognizes the 
importance the public has placed on natural resource concerns, as well 
as the need to protect the conservation partnership that has evolved 
over the years between the Department and conservation districts and 
farmers.
    For the Natural Resources Conservation Service, the budget requests 
$927 million in appropriated funding. This includes $678 million for 
conservation technical assistance (CTA) which represents the foundation 
of the Department's conservation partnership. The CTA request includes 
an increase of $44 million for technical support of the Conservation 
Reserve Program (CRP). This is necessary because the 1996 Farm Bill 
imposed significant restrictions on the availability of CCC funds to 
support services such as conservation technical assistance for the CRP. 
Any funds not needed for this purpose will be available to support 
other high priority on-going conservation activities, such as waste 
management plans for animal feeding operations.
                           rural development
    The 2002 budget will allow USDA to continue to play a significant 
role in the development of Rural America. The 2002 budget requests $2.4 
billion in budget authority to finance $12.4 billion in rural 
development loans and grants.
    The 2002 budget supports almost $5 billion in loans and grants for 
rural utilities, including $2.6 billion in loans for electric 
generation and transmission facilities, $500 million in loans for 
telecommunication systems, over $300 million for distance learning and 
medical link facilities, and $1.4 billion in loans and grants for water 
and waste disposal systems.
    The 2002 budget also includes a proposal to provide permanent 
authority for financing broadband transmission and local dial-up 
Internet service in rural areas. The 2001 Agriculture Appropriations 
Act authorized a pilot program that would support $100 million in loans 
and $2 million in grants for these services. These levels would be 
maintained in 2002. This program will narrow the gap in access for 
rural areas to the digital world of telecommunications.
    The 2002 budget supports almost $5.8 billion in loans and grants 
for rural housing. About $4.2 billion of this amount is for loans for 
single-family housing, and will provide home-ownership opportunities 
for an estimated 56,000 rural families.
    Rental assistance payments would be increased from $679 million in 
2001 to $694 million in 2002. These payments are used to reduce the 
rents of the low-income occupants of USDA financed rental projects. The 
beneficiaries of this program have an average income below $8,000. USDA 
maintains a portfolio of projects with about 430,000 units of housing 
for low-income families. This multifamily portfolio has an outstanding 
indebtedness of approximately $12 billion. Rental assistance payments 
serve the dual purpose of protecting USDA's investment in these 
projects, while keeping rents affordable for very low income families.
    The budget supports a total of $1.1 billion for rural business and 
cooperative programs. The biggest program in this area is our 
guaranteed loan program for business and industrial development. 
Subsidy costs for this program are rising largely because defaults are 
higher than expected. For this reason, the 2002 budget proposes that 
the fee charged for these loans be increased from 2 percent to 3.25 
percent. This increased fee is consistent with what other lenders are 
charging and will permit us to provide a $1 billion business and 
industry (B&I) guaranteed program.
    The 2002 budget also discontinues funding for direct B&I loans. 
Direct loans were first introduced in 1997. Since then, demand has 
never reached the authorized loan level of $50 million. Further, the 
subsidy rate has increased dramatically due to increased defaults. This 
indicates that the program is not achieving its goal to provide long-
term, stable jobs in rural America.
                   research, education, and economics
    To maintain and strengthen U.S. farmers' current competitive 
advantage in world markets will require investments in new technology. 
To meet these needs within a restrained budget, we must take a hard 
look at priorities.
    The 2002 budget for this Mission Area totals $2.1 billion including 
mandatory research grants. This is a reduction of 7 percent from 2001, 
but about the same level as provided in 2000. There are increases for 
selected programs and to cover pay costs. Proposed reductions are 
limited to earmarked projects and facility construction.
    The 2002 research budget for the Agricultural Research Service is 
$916 million, an increase of 2 percent above 2001. The budget includes 
$15 million for work on bio-based products and bioenergy to overcome 
technical barriers to low-cost biomass conversion, $12 million for 
additional work to prevent and control exotic diseases and pests with 
special emphasis on BSE, $7.5 million to support work on biotechnology, 
including the development of databases and tools to store, analyze, and 
interpret genomics data for plants, animals, and microbes.
    The 2002 budget request for the Department's extramural grants 
programs is nearly $1 billion, a reduction of 12 percent from 2001 due 
almost entirely to discontinuing earmarked projects. Formula-based 
programs to the land grant university system are continued at the 2001 
level. The $544 million requested for these programs represents over 
one-half of the Cooperative State Research, Education, and Extension 
Service budget for 2002. The budget also proposes to maintain funding 
for the competitive National Research Initiative at the 2001 level of 
$106 million and the Initiative for Future Agriculture and Food Systems 
at $120 million.
                        departmental management
    The Departmental staff offices provide leadership, coordination, 
and support for all administrative and policy functions of the 
Department. These offices are vital to USDA's success in providing 
effective customer service and efficient program delivery. Salaries and 
benefits often comprise 90 percent or more of these offices' budgets, 
leaving little flexibility to reduce other expenditures when salary 
costs increase. Thus, the 2002 budget proposes additional funding to 
cover pay costs, enabling these offices to maintain staffing levels 
needed to provide oversight and coordination for management initiatives 
and activities within the Department. The primary objective is to make 
the Department an efficient, effective, and discrimination-free 
organization that delivers the best return on the taxpayers' 
investments. In this area, we will be focusing on:
  --Implementing a civil rights policy that affirms that discrimination 
        will not be tolerated and that complaints will be resolved on a 
        timely basis.
  --Completing installation of the common computing environment in USDA 
        local offices so that customers will have the ability to access 
        information and download and file program applications and 
        other forms electronically by the summer of 2002.
  --Strengthening information security to safeguard the delivery of 
        services over the Internet while protecting USDA information 
        systems from costly hacker attacks.
  --Implementing modern management systems to provide timely and 
        reliable information on USDA's finances, people, and purchases.
  --Continuing the renovation of the 70-year-old South Building in 
        USDA's Washington complex to address safety and health hazards 
        and enable access to modern technology.
    The budget also includes $71 million to maintain staffing levels 
for the Office of Inspector General (OIG). Public health and safety 
issues will continue to be a priority for OIG audits and 
investigations.
    That concludes my statement. I am looking forward to working 
closely with the Committee on the 2002 budget so that we can better 
serve those who rely on USDA programs and services.

                         Foot and Mouth Disease

    Senator Cochran. Thank you very much, Madam Secretary. I 
think you have given a good overview of the budget request of 
the administration and emphasized a number of areas of concern 
in the general public's mind, and also here in the Congress. 
One, of course, that is at the top of the list, the foot and 
mouth disease issue. Recently I was reading in one of our major 
daily newspapers a story about the administration's assessment 
of the threat in terms of whether it was likely or not likely 
that we would see an outbreak of foot and mouth disease here in 
the U.S., and the headline said, administration fears outbreak 
is likely. I read the article and couldn't find anybody in 
there quoted as saying that. As a matter of fact, those who 
were quoted and who had statements attributed to them from the 
Department of Agriculture were saying that it was not likely. 
If you had had to write that headline, given the information 
that you have, would you have said that it's likely or not 
likely?
    Secretary Veneman. I would not have said that it is likely. 
As I said in my statement, Mr. Chairman, we are doing 
everything that we can to assure that we protect against 
getting the disease, but at the same time, we are doing 
everything we can to make sure that in the event that we were 
to get any kind of outbreak, that we would be prepared to 
quickly respond and eradicate so that we would not have the 
situation, hopefully, that we have all seen in the U.K.

                            Budget Revision

    Senator Cochran. I know that the budget contains requests 
for research dollars at Plum Island, the New York facility that 
I think has the major responsibility for research in this area. 
Is the budget submission going to be revised in any way, given 
the instances of changes or new discoveries that are being made 
that would require more funds for any of the projects and 
programs that would deal with this problem?
    Secretary Veneman. Well, as I indicated in my statement, we 
have added $32 million to help us hire additional people to 
work at the ports, inspectors and so forth. That money has come 
from our user fee account. It will not require an additional 
appropriation.
    In addition, we are continually reviewing our programs and 
looking at whether or not we need additional resources. If it 
is determined, we will come back to the committee to discuss 
those needs.
    Senator Cochran. I think I can assure you for the committee 
that we would be responsive and quickly move to act on any 
supplemental request if you feel that that should be included. 
I know that we are going to have a supplemental submitted that 
will include the Department of Defense, and there may be other 
priority areas for funding consideration. I think we would move 
quickly to include whatever is needed and justified.

                              Food Safety

    In another area, food safety, the inspection of our own 
domestically produced processed foods, there has been a good 
deal of attention paid in recent years. Senator Durbin in his 
comments talked about the fact that more consolidation and 
streamlining needs to be done in this area, but in connection 
with the funding of the new programs that rely on emerging 
technologies to discover contamination in foodstuff that is 
processed here in our country. Do you think the budget that is 
submitted contains enough funding to guarantee that we will 
continue to have the safest and most wholesome food supply in 
the world?
    Secretary Veneman. First I would simply start out by saying 
that we are very committed to the issue of food safety in the 
Department of Agriculture, and we take our responsibility in 
that regard very seriously.
    As you know, we have the oversight responsibility for meat 
and poultry inspection in the USDA. A number of other food 
safety authorities are contained in the FDA. We have fully 
funded the projected number of inspectors that we believe will 
be needed over fiscal year 2002, and we have done that without 
proposing any user fees to do it, so we do believe that the 
Food Safety and Inspection Service is important, and will be 
funded at levels which will support it.
    I might ask Steve Dewhurst to give you a little more 
specificity on the budget for FSIS.
    Mr. Dewhurst. With respect to food safety, we spend about 
$90 million a year in the Agricultural Research Service in the 
food safety area. We spend about $35 million a year through the 
Cooperative State Research, Education, and Extension Service 
with the university system in food safety, and we are spending 
an increasing amount now, up to about $6 million a year, in the 
Agricultural Marketing Service in testing products for residue 
and for contaminants. The overall food safety activities of the 
Department are funded in this budget in ways that do not reduce 
them from the prior year. It is a very substantial commitment.
    There is an increase in the FSIS budget of about $20 
million. A large part of that is for the protection of the 
inspection workforce, but there is some money in the FSIS 
budget to improve their technical capability to identify 
residues in the meat supply. They have a scientific laboratory 
that will be upgraded in this budget.
    Senator Cochran. Almost invariably, when we report a bill 
from this subcommittee and from the full committee to the floor 
of the Senate, there is a temptation for Senators to want to 
add money for all the good-sounding things, and food safety is 
one of them. We invariably see amendments well-argued to add 
money. That was one reason I wanted to ask the question, to be 
sure that we have in the bill sufficient funds to take care of 
the challenges and problems in this area. I do not think any 
Senator wants to undercut this program, or to underfund this 
program.

                        Food Assistance Programs

    There is a similar concern in food and nutrition programs, 
too. We want to be sure that we fully fund the programs to feed 
those who are unable to provide for their own nutrition needs. 
I am talking about food for everything from the breakfast and 
lunch programs in our schools, to the food stamp program and 
the women and infants feeding program, all of which are very 
important. I notice in your statement you point out that $36.6 
billion is requested for funding those programs, and it 
reflects nearly half of the total amount requested in this 
entire bill, so I want to ask that question about those 
programs as well.
    Are your requests adequate to take care of the anticipated 
needs in that program? You do have almost like a mandatory 
program, obligations to pay what somebody is entitled to under 
the food stamp program, so are you satisfied with the 
estimates, that this budget is based upon sound estimates of 
expected needs?
    Secretary Veneman. I think they are based upon the 
estimates that have been traditionally used to determine food 
stamp needs, and we have fully funded what we anticipated the 
levels will be needed for food stamps. That is on the mandatory 
side of the budget. The WIC budget, which is on the 
discretionary side of the budget, shows an increase of $94 
million, for a total of $4.1 billion, and we believe, that that 
will be adequate to fund the number of WIC desired participants 
for the fiscal year.

                          Disaster Assistance

    Senator Cochran. Last year, Congress ordered disaster 
assistance payments and economic loss payments made to 
distressed farmers because of drought conditions and other 
weather-related problems that production agriculture faced last 
year. We were late with some of those programs in that the 
regulations under which the funds were disbursed were late 
being drafted.
    This was before you came into office, so it is not your 
fault, but the purpose of my inquiry right now is, have we 
gotten to the point now where we see the funds that have been 
appropriated by Congress for this purpose are being paid to 
farmers? Are there any further hangups or problems that we need 
to address in a supplemental way to deal with last year's 
declared emergencies?
    Secretary Veneman. Senator, when we came to the Department 
there were a number of these regulations yet to be completed. 
As far as I know, I think we had all of those regulations 
completed within about 60 days. Most of the programs now that 
were authorized then, the payments are now in the process of 
being made under these programs.
    Mr. Dewhurst. We made about $3\1/2\ billion in payments 
against those programs and, of course, the key program, the 
crop loss payment program, was not capped in the legislation, 
so we can use whatever money is necessary to make those 
payments so we should be able to cover the needs in that area.
    Secretary Veneman. Keith Collins has one additional point.
    Mr. Collins. There is one program left that we are still 
working on, and that is the one that would pay farmers for 
quality losses as a result of last year. That is a very 
difficult one, because we have to spend a fair amount of time 
figuring out what a quality loss is. That is the last of 15 or 
so major programs that the Farm Service Agency has to get out.
    Senator Cochran. Of the moneys appropriated by Congress to 
be paid out, how much did we appropriate that has not been paid 
out? Do you know what that number is, and do you recommend a 
rescission or a deferment?
    Mr. Dewhurst. Senator, direct assistance to farmers, the 
estimate was $3,542 million. That was an estimate. We have paid 
about $3\1/2\ billion so far. We have additional authority to 
put out additional money if we get valid claims under the crop 
loss disaster program, so essentially we can meet the need, and 
we have implemented the entire program.
    Senator Cochran. Thank you.
    Senator Craig.
    Senator Craig. Thank you, Mr. Chairman.

                              Potato Wart

    Secretary Veneman, I understand a letter has gone to the 
Canadians in relation to potato wart.
    Secretary Veneman. Yes, Senator. Over the last several 
weeks we have been dealing with the Canadians on the issue of 
potato wart and the fact that it was found on Prince Edward 
Island.
    There has been a lot of debate back and forth about what 
kind of measures would provide the level of protection that is 
needed to make sure that this disease does not spread from 
Prince Edward Island and the place where it was found to other 
parts of Canada and, indeed, into the U.S. Our scientists have 
been negotiating with Canada for a number of weeks on this 
issue.
    We had our team of scientists come back together over the 
last week or 10 days and look at additional ways in which we 
might provide the level of protection we would need for 
potatoes to move off of Prince Edward Island to ensure that the 
risk of moving that disease was as small as possible. As a 
result of discussions that were held yesterday, the scientists 
have come to terms on an agreement that would allow movement 
from Prince Edward Island subject to meeting very stringent 
standards on cleanliness.
    As you know, this disease is carried in the soil. Subject 
to the cleaning of the potatoes to stringent standards there 
would be allowance for these potatoes to move into other areas 
of Canada. In addition, potatoes for table use only could be 
moved into the United States if they are washed and what is 
called desprouted. We have discussed this with a number of 
scientists. They are satisfied that it provides the level of 
protection, and there will be a joint exchange of letters 
between the two countries finally resolving this issue for the 
2000 year crop.
    Senator Craig. So at least the scientists are jointly 
agreeing. The Canadians have not yet accepted, or is that joint 
agreement, that action an acceptance?
    Secretary Veneman. The final documents are in the process 
of being drawn up as we speak. They may be completed by now.

                     Expedited Approval of Requests

    Senator Craig. On March 7, the Idaho delegation submitted 
to you a request for the expedited approval of conservation 
reserve program, emergency haying, and grazing. The reason for 
that is severalfold. As you know, we are in a drought 
environment in the intermountain West as we speak, or the 
Pacific Northwest. That, coupled with about 1.3 million acres 
of land in Idaho that burned last year in the worst fire season 
ever, of which about 69,000 acres was private grazing, and of 
which about 37,000 acres cannot be grazed in 2001.
    It is also true of a substantial number of public acres 
that can now not be grazed this year because of last year's 
fires. In addition, 227,000 acres of that land burned about--
almost 200,000 cannot be grazed.
    We believe that the emergency flexibility is necessary. we 
have got livestock men and women who are now ready to turn 
their cattle out onto the range, and some of them have no range 
to return to. We would hope that we could get your look at that 
right quickly and get a response to that request.
    Secretary Veneman. We will expedite the review of this 
request. I know that there have been a number of emergency 
situations around the country where our FSA people in the field 
are reviewing requests, looking at the damage, and we will be 
looking at the emergency programs that might be applicable.

                     China Importation of Potatoes

    Senator Craig. Last year also, I guess it was August 1, 
APHIS announced China was open to the importation of potatoes. 
I found it quite interesting that Alaska, a great potato-
producing State, along with Washington and Oregon, were the 
only three States recognized. Idaho for some reason did not 
find its way onto that list. We would suggest that we do grow a 
few more potatoes in Idaho than they do in the Mattanuska 
Valley of Alaska, and so therefore it would be appropriate that 
we might appear on that list. We hope you would review that.
    Secretary Veneman. We certainly will, Senator.
    Senator Craig. Thank you much. My requests are simple ones.
    Senator Cochran. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.

               Environmental Protection and Conservation

    Madam Secretary, I have noted in the budget in several 
areas relating to environmental protection and conservation 
that you are proposing to eliminate some programs that have 
been around for a while--the wetland reserve program, wildlife 
habitat incentives program, the environmental quality 
incentives program, and conservation reserve program. Senator 
Harkin I am sure will follow through on this.
    Senator Harkin. Do you want my chart?
    Senator Durbin. Thanks, Senator Harkin, for bringing our 
chart.
    I would like to ask, Madam Secretary, at a time when 
farmers certainly across the Midwest are facing extreme 
difficulties in making a living, to the point where they are 
relying on the Federal Government for more than half of their 
income, do we not run the risk, if we eliminate these 
environmental protection and conservation programs, that we 
will be giving at least a tacit approval to farmers planting 
land or using land that frankly is not in the best long-term 
interest of America?
    These conservation programs I think are especially 
important when the economy is in a very difficult time for our 
farmers. Do we not run the risk, without these programs, of 
creating incentives, the wrong incentives for farmers to plant 
fragile land?
    Secretary Veneman. Senator, first of all I would say that 
we take our environmental responsibilities in the Department 
very seriously, and we have a number of programs that assist 
farmers that are very beneficial to, as you say, protecting the 
land, because the farmers certainly have a vested interest in 
protecting the resources upon which they rely to produce their 
products.
    A number of these programs that have been discussed--and I 
have been asked this question several times--have reached their 
authorized levels for funding under the last farm bill. We do 
not have any additional acres to enroll. I will ask Mr. 
Dewhurst to address the specifics of the budget for the 
programs that you mentioned.
    Mr. Dewhurst. In the wetlands reserve program, the 
statutory limit on acreage is 1,075,000 acres. There was an 
increase approved by the Congress for this fiscal year to get 
to that number, and that additional acreage of 100,000 acres 
will be signed up this year. At that point we will be against 
the acreage limit, and so there is no authority in current law 
to add more acres.
    In the wildlife habitat incentives program and the farmland 
protection program, there were cumulative funding limits in the 
farm bill for those programs, and we are against those limits.
    In the conservation reserve program we have approximately 
33 million acres in that program. We have a current statutory 
cap of 36\1/2\ million acres for that program. The budget 
assumes that we will have an additional sign-up in fiscal year 
2002 to add those acres to the CRP program, and there is 
appropriated money requested in the budget for the Natural 
Resources Conservation Service to be sure that they can provide 
the technical assistance and support of that CRP sign-up, but 
beyond that, of course, there is no authority and therefore 
there is no proposal in the outyears.
    Senator Durbin. I thank you, and I thank you, Madam 
Secretary. I would have thought that it would have been sound 
policy for the administration to come forward and acknowledge 
the limits on authority, but also the backlog of applications 
on all of these programs that indicate a genuine interest by 
farmers and producers across America to set land aside that 
might otherwise cause environmental damage.
    Instead what we have seen is kind of a closing of the door. 
Basically saying this is the end of the program as we see it. I 
will not dwell on that. If you would like to respond, I would 
be happy to allow it at this point, and then I would like to 
ask another question.
    Secretary Veneman. Senator, I would not say it is a closing 
of the door. It is certainly a recognition of what the limits 
are, but secondly it is a recognition that we are going to be 
looking at--and I say we, meaning the administration and the 
Congress are going to be looking at the farm bill for the year 
2002. I have had discussions with many groups, with many people 
in Congress, there is a great interest in making sure that we 
address many of the environmental programs, that we look at new 
ways, new kinds of programs in the environmental areas, and we 
certainly look forward to working with you to look at new 
opportunities in that regard.
    Senator Durbin. Thank you.

                              Food Safety

    On the issue of food safety, I want to commend your 
decision on April 5. I do not know the background, and perhaps 
this is your first chance publicly to explain it. When you came 
to the testing of salmonella contamination for ground beef in 
the school lunch program, there was a posting on the USDA web 
site on March 30 to indicate that there would be an end to zero 
tolerance testing for salmonella in ground beef used in the 
school lunch program.
    That sent a shock wave across the country, because people 
were very concerned that we might be compromising the safety of 
food for our children, some of the most vulnerable in our 
society, and there was really no explanation for it. I commend 
you again for announcing that you reversed the decision. I 
think at the time someone said it was made at a lower level and 
it never reached your office. Could you comment about how such 
an important decision could be made at that level, and what is 
your approach going to be when it comes to these issues of food 
safety in the school lunch program and other areas of 
jurisdiction?
    Secretary Veneman. Well, as I said earlier, Senator, we 
take food safety issues very seriously. This issue is difficult 
to understand, because most people believe that it would have 
been a regulation. This actually was a contract standard for 
purchases of product for school lunch, and the contract 
standards were drawn up in the Agricultural Marketing Service 
rather than in the food safety or the nutrition areas. It was 
in the Agricultural Marketing Service, and they were looking at 
a different approach to the standard, which would have measured 
for a number of the microbiological indicators of salmonella 
but not the test result for salmonella itself.
    I was unaware of that decision at the time it was posted on 
the web. When I was made aware of it we pulled it back and went 
back to the old contract. We are now reviewing that.
    One of the other issues, of course, was that it did not 
have concurrence of all the parties who were interested in this 
issue, and so we pulled that back and we are now working with 
all of the interested parties to determine whether or not there 
is a common ground with regard to this issue that will provide 
a complete level of protection for our schoolchildren. This 
again was a contract standard. That is why it was done at the 
level of this.
    Senator Durbin. I do not want to jump ahead, but are you 
saying that the basic policy decision is still in play and 
still being considered that the Department may reach the same 
conclusion, or a slightly different conclusion? What is your 
hope in terms of outcome here?
    Secretary Veneman. Well, what is being looked at is the 
overall contract standard for purchases of ground beef--making 
sure that the contract standard has the greatest amount of 
protection that we can ask for in terms of a contract. We are 
looking at what fast food restaurants do in terms of what they 
demand, in terms of their suppliers, and we are looking as the 
customer of the product, and so we want to make sure that our 
contract standard is consistent with what we need to do, and 
what will provide the level of protection that we need for our 
children.
    Senator Durbin. Can families across this country be 
confident that when this is over that the standard we will use 
for ground beef and other food in the school lunch program will 
be at least as safe, if not safer, as that used by commercial 
entities across this country?
    Secretary Veneman. Yes.

                                Starlink

    Senator Durbin. Let me ask you about the biotech area. When 
it comes to StarLink, for example, I made an inquiry of the 
agencies that are involved in StarLink and was surprised to 
find a real lack of coordination. The USDA, the Food and Drug 
Administration, the EPA, all clear a biotech crop like 
StarLink, and I think you understand the contamination of 
StarLink has caused a great deal of economic loss and concern 
across America. I would like to ask you if you would consider, 
early in your administrations, looking to a coordination when 
it comes to this type of biotech product. I sense that there 
just is not enough communication, and I am fearful if we do not 
understand the implications of this, either from an economic or 
scientific perspective.
    Secretary Veneman. Senator, I think that is a very 
important issue, and I agree with you. When I was in the 
Department in the late eighties, early nineties, the issue of 
biotech at that time was just how we were going to regulate it 
within the U.S. Government. At that time, there was very 
coordinated approach with FDA, EPA, and the USDA in terms of 
setting up the regulatory structure under which agricultural 
biotechnology would be regulated.
    Since I have been back in the administration, of course, 
the StarLink issue has continued to be fairly significant. As 
you know, we had the issue of trying to get the seed out of the 
system for this year, and USDA agreed to purchase the seed that 
was in the hands of various distributors, but I will tell you 
that we also are increasing coordination all the time among 
these three agencies and among other agencies as well that have 
an interest, because so many of these issues now impact trade 
and other issues.
    We have had, actually this week, a Cabinet-level 
coordinating meeting on these biotechnology issues and how we 
are going to move forward and work together on them, but I can 
assure you that we in the administration are working very 
closely together, recognizing that we need a very strong, 
coordinated system to deal with these issues.

                       Global Feeding Initiative

    Senator Durbin. Mr. Chairman, I would like to make two last 
comments and yield to my colleagues. I have worked with former 
Senators McGovern and Dole and my colleagues Senators Harkin 
and Leahy and Lugar and others on the feeding program, the 
international feeding program. The last administration by 
administrative decision moved money into this option that we 
could send some foodstuffs abroad, particularly for children, 
really focused on countries of greatest need, such as those 
that have been ravaged by the AIDS epidemic. We are going to be 
introducing formal legislation next week as a group on the Hill 
here, and I sincerely hope you will take a good look at this. I 
hope the administration can support this bipartisan effort.

                              WIC Funding

    The last point that I will make, and then, of course, any 
closing comment I will leave to the Secretary. When it comes to 
WIC funding I have a concern. The concern is, although there is 
an increase in WIC funding in your budget, if we take the 
unemployment figures that have been projected by the 
administration for this year and look back to the history of 
the program as to the number of people who enroll in the 
program with that level of unemployment, then the amount of 
money that you are suggesting we appropriate this year will be 
inadequate.
    For example, in 1998, when unemployment was at the same 
level as the administration is projecting for the year 2002, 
WIC participation averaged 7.37 million per month. As I 
understand it, your budget projects that only 7.2445 million 
women, infants, and children can be served with the current 
budget.
    I would hope you will keep a close eye on this, because if 
we do not make a quick recovery and see higher unemployment, I 
think the demands in this program will grow, and we certainly 
want to make sure the nutritionallob needs of children and 
pregnant women are taken care of.
    Secretary Veneman. We do--Senator, I do believe WIC is a 
very important program. I was surprised during my briefings 
yesterday to learn that almost 50 percent of the children born 
in this country have some kind of WIC assistance.

                       Global Feeding Initiative

    As to the global feeding initiative, we have allocated $300 
million this year as a pilot program for that initiative. I am 
looking forward to meeting next week, I think, with Senator 
McGovern to further discuss this issue.
    Senator Durbin. Thank you very much. Thanks, Mr. Chairman.
    Senator Cochran. Senator Dorgan.
    Senator Dorgan. Thank you, Mr. Chairman, very much.

                            Trade Sanctions

    Again, Madam Secretary, welcome. Let me ask a number of 
questions in some policy areas. Number 1, you devoted a fair 
amount of your presentation to the issue of trade, opening 
foreign markets and so on. As you know, I have spent a great 
deal of time and in fact on this subcommittee offered 
amendments that became the subject of substantial controversy 
dealing with sanctions against other countries. That includes 
sanctions with respect to food and medicine. I am wondering if 
you have any information about this administration's 
inclination of lifting especially food and medicine sanctions 
dealing with all countries, including Cuba.
    Secretary Veneman. Senator, as you know, this 
administration has supported no new unilateral sanctions. I do 
not anticipate that the sanctions with regard to Cuba would be 
lifted at this point unless there was some kind of change in 
the structure of the Government there.
    Senator Dorgan. But those of us in Congress will attempt to 
remove the impediment that was created last year in our 
legislative initiative. That impediment makes it appear as if 
there will be an opportunity to sell some food into the Cuban 
market, whereas, in fact, we will not be selling food into the 
Cuban market. My question is, for those of us who are 
attempting to remove that restriction, will the administration 
be supportive, or will it be opposing us?
    Secretary Veneman. I have not talked recently with people 
to know exactly what the administration position is, but I can 
certainly reiterate that the position has been that they do not 
support any new unilateral sanctions.
    Senator Dorgan. I understand. Would you make some inquiries 
and get back to me to let me know what we might expect.
    Secretary Veneman. Certainly.
    Senator Dorgan. I think it is immoral for this country, and 
I feel that with respect to any administration, to use food and 
medicine as weapons in the use of sanctions. I think it is not 
the right thing for this country, and it does not matter what 
other country we are talking about, it is not an endorsement of 
a foreign leader whose policies we have great problems with, or 
a foreign leader we may very well disrespect.
    It has to do with sick, hungry, and poor people. When we 
impose sanctions that include food and medicine, especially 
food, we take aim at a dictator some place, and we end up 
hitting poor people, sick people, and hungry people, and we 
have to stop it. We know enough now to stop it.
    So I am going to attempt once again to remove that 
roadblock, and I would hope for your support and the 
administration's support.

                         Agricultural Research

    Let me ask a question or two about the issue of 
agricultural research. One of the top scientists at North 
Dakota State University told me on several occasions that we 
have had in recent years the fusarium head blight which is 
called scab. We have had the worst crop disease in a century in 
our State. The result is, we have had to rely on a robust 
amount of agricultural research at our research institutions to 
try to respond to it.
    As you know, the President's budget calls for a cut of 
close to $190 million in research related to education 
programs, which would result in curtailing or eliminating some 
of these programs and projects that are very important in 
agricultural research. Can you speak to that for a moment? It 
seems to me that this is ill-advised, and can you tell me some 
of the administration's thinking in the preparation of a budget 
that would cut that amount of money for research?
    Secretary Veneman. The primary cuts in the research budget, 
as I understand it, are mandates that were put in the budget, 
and not proposed by the administration. I think it has been 
traditionally the way that the administration has proposed 
budgets, is that they have not put in those mandates, and I 
think those are the major cuts.
    Senator Dorgan. Might I ask also your judgment about 
agricultural research? Would you not agree that at a time when 
we are trying to battle some pretty significant crop diseases, 
that we would want to maintain a robust agricultural research 
function?
    Secretary Veneman. Absolutely. I think research is very 
important, and I think it is particularly important in the 
areas you are bringing up. Pest and disease prevention and 
eradication is very important, as we have talked about, the 
animal diseases we tend to deal with since we have been here. 
Crop diseases and pests are significant issues for American 
agriculture.
    As I said in my opening statement, pest and disease 
prevention and eradication really are the infrastructure of 
what protects our agriculture in this country, and we need the 
research to support that.
    I also think that we need to be targeting our research to 
address issues such as food safety, to address issues such as 
environmental issues that agriculture is facing, to look at new 
technologies, new uses, and alternative uses for agricultural 
products. So certainly research is important. In terms of 
biotechnology as well, we were talking earlier about some of 
the biotech issues, and so research in all of those areas are 
ones where we think our priority should be.

                          Quality Loss Program

    Senator Dorgan. Let me ask on the quality loss program 
which I helped create along with my colleagues on this 
subcommittee. This is the one area of help for family farmers 
that is not yet available and the payments for that have not 
yet gone out. Can you give us a timetable for that? When do you 
expect the quality loss program will be ready to provide some 
help to family farmers?
    Secretary Veneman. I am going to have Mr. Collins address 
some of the issues on that program.
    Mr. Collins. I regret I cannot give you a timetable as I 
sit here.
    Senator Dorgan. Mr. Collins, I cannot hear you.
    Mr. Collins. I regret that I cannot give you a timetable as 
I sit here at the moment. We continue to work on that. It is 
difficult, because we have to establish how we measure quality 
and what the benchmark of quality is. That is what the producer 
would have produced otherwise, but we are working on that very 
diligently. We have a team from all over the country that is 
working on that.
    Senator Dorgan. But you can narrow it down. I mean, is it a 
week, a month, a year? I assume it is not a year.
    Mr. Collins. It will not be a year.
    Senator Dorgan. Are we within days or weeks of having this 
completed so that some payments can go out to farmers?
    Mr. Collins. I cannot tell you the answer to that. It is 
certainly something that is the highest priority we have at the 
moment. It is the last of these 15 or so programs that we have 
been putting together.
    Senator Dorgan. But somebody must have some notion. Are we 
within weeks, or is it going to be months? What is the 
objective?
    Mr. Collins. As soon as possible, in the near term.
    Senator Dorgan. But you are a trained economist.
    Mr. Collins. I am, but I am not, unfortunately, writing 
this reg.
    Senator Dorgan. But somebody is, and I am not trying to be 
confrontational, but somebody needs to give me some notion. Is 
this going to be within a month or so? What can farmers expect 
here? We have got a lot of them that are almost flat on their 
back, and they are into spring planting. The lenders do not 
have the foggiest notion what is going to happen this year with 
respect to a farm price support program.
    Mr. Collins. I will tell you there are a number of 
particular problems with this that we are still working on, and 
I hope that we will finish them very shortly. One, for example, 
is hay. Hay is probably going to be the biggest commodity we 
deal with under this quality loss program. Hay has not been 
part of our crop disaster programs frequently in the past, and 
so we have got a lot of pioneering work to do here. I am not 
trying to equivocate. I am just telling you that we are working 
on this as diligently as we can. We understand the needs of 
American producers and we are going to get this out absolutely 
as soon as possible.
    Senator Dorgan. Secretary Veneman, any comment on that?
    Secretary Veneman. What I have been told is similar to what 
Mr. Collins has said. There have been some difficult issues 
with regard to this particular program. Because it is a pioneer 
program, we have never really dealt with this kind of 
calculation before, and it is not an easy thing to do. I would 
be happy to have our staff come and brief your staff on some of 
the issues we are encountering, if you would like that.
    Senator Dorgan. Let me just say to you, I understand this 
is not a program without difficulty. I am just trying to get a 
sense on behalf of our producers out there what your goal might 
be in trying to sift through all of these difficulties.
    Secretary Veneman. Our goal would have been to have it out 
within the 60 days that we got most of the other regs out, but 
because we cannot--our folks have not been able to work out the 
calculation on this. It has not been an easy one, and I frankly 
have not been given any timetable.
    Mr. Collins. I would also mention, there is software 
development problems. I understand what you would like, Mr. 
Dorgan. We would like to be able to tell you. The problem is, 
if I tell you next week and we do not meet next week, then it 
creates a lot of difficulties.
    Senator Dorgan. I understand why you are hedging, and you 
understand why I am asking, so we have reached a perfect 
balance here.
    We actually have both studied economics, have we not?
    Mr. Collins. Well then, we are very clear with one another.
    Senator Dorgan. If I might, Mr. Chairman, do I have another 
moment to ask another question?
    Senator Cochran. No more economic questions.
    You go ahead.
    Senator Dorgan. Let me quote Mr. Collins in testimony he 
provided recently. He said, a strong rebound--is it okay to 
quote an economist?

                    Farm Programs Emergency Funding

    Senator Dorgan. He said, a strong rebound in farm prices 
and income from the marketplace for major crops appears 
unlikely, at least over the next couple of years, in the 
absence of major global shortfall in crop production, and then 
he went on.
    Given that testimony, I would ask Secretary Veneman, would 
it not be preferable to acknowledge now that we may have to 
provide some emergency funding in the farm program, rather than 
take the position well, let us just wait and see?
    The problem is, all the farmers in this country, the family 
farmers who are relying on a farm program to help them through 
tough times and through collapsed prices are now going into 
spring planting after they have been to the bank. Neither they 
nor their banker have the foggiest idea what kind of assistance 
might be available this year outside of the Freedom to Farm 
bill, which in itself, as you know, is going to call for 
decreasing payments.
    So would it not be better, given Mr. Collins' testimony 
that it is unlikely that we are going to see strength in the 
marketplace, would it not be better just to say to the farmers, 
look, the Secretary and the administration understand we are 
going to have to do something to provide some countercyclical 
help this year in the form of emergency help?
    Secretary Veneman. Senator, this is an issue or a question 
we have certainly gotten many times and, as you know, when the 
President addressed the Congress, he set aside nearly $1 
trillion for emergencies, a savings account for the Government 
to deal with emergencies, and one of the emergencies he 
articulated that might be eligible for that savings account, 
that special, almost trillion-dollar fund, was agriculture.
    As you know, the Congress has not really dealt with these 
emergency situations until August or September after they see 
what the crop looks like, after they see what the emergency 
really is, what the disasters are, and then the Congress has 
dealt with that.
    The administration, because of the uncertainties of what 
the situation may be, what the emergency may be, has not at 
this point in time proposed any additional funding, but again, 
that nearly trillion-dollar reserve is available, and 
agriculture is one of the issues that will be considered as a 
part of that.
    Senator Dorgan. That is an understandable position. I 
understand the rationale for making that judgment and saying 
what you said. But then, is it not also understandable for you 
to say, although we will not make that decision today, we want 
to send a signal to farmers across this country that if we have 
a tough crop, if we have collapsed prices through this fall, 
this administration stands prepared to work with Congress to 
develop an emergency fund and an emergency program?
    The reason I ask that is, you have indicated in your speech 
recently there is no assurance of Federal help in the future, 
and that creates the uncertainty out there that people are 
concerned about. I am just wondering if there is a contingency 
fund, in fact- and there is some dispute about whether that is 
not medicare trust funds, but if there is, in fact, a 
contingency fund, would you say to farmers today that if things 
remain as they are, prices are continued low, and we have the 
problems that we expect and Mr. Collins predicts, that the 
administration stands ready to work with the Congress on 
emergency help for farmers this year?
    Secretary Veneman. Yes, and I think I said that I believe 
that there is certainly a good likelihood that we will see 
additional emergency assistance this year, and we certainly 
would stand ready to work with the Congress in that regard once 
we determine what the needs and the emergencies are.
    Senator Dorgan. And be supportive of that?
    Secretary Veneman. Yes.
    Senator Dorgan. As I indicated when I made my opening 
statement, you have assumed a challenging job in challenging 
times. You and I could spend a lot of time, but I will not 
continue further, except to make one additional comment. There 
are a number of things where we would have disagreements.

                          Rural Telephone Bank

    For example, the rural telephone bank, zeroing out that 
program I think is a mistake. Those of us who come from rural 
America and understand the need to avoid having a digital 
divide, and the need to especially have rural telephone 
companies play a significant role in the development of 
advanced telecommunications services all across the country 
know that we are going to need to rely on the rural telephone 
bank program. We are going to have to try to add back--I mean, 
I do not want to zero that out, so there are areas of 
disagreement.
    I think we can have a discussion about them as we go along, 
and I would say, as I said when I started, my main concern here 
is family farms. Those families are living out there trying to 
make a go of it. This country will lose something very 
important if we do not get a program to help family farmers 
through tough times. The current farm program does not work. We 
have demonstrated that year after year, unfortunately, with 
emergency needs.
    But, I hope to work with the chairman who, in the time that 
I have been on this subcommittee, has done an excellent job. He 
has worked with us as we go into conference to help provide 
some emergency help and has recognized what is going on in this 
country. We hope to be able to work with you to do that, Mr. 
Chairman.
    Thank you very much.
    Senator Cochran. Thank you, Senator Dorgan. I appreciate 
your kind comments, and I look forward to working with you and 
all the other members of this subcommittee to craft a bill that 
we can present to the full committee that will reflect the 
legitimate needs of production agriculture, and also reflects 
our concern for carrying out the responsibilities of law in a 
lot of other areas. We have mentioned a good many of them 
today.
    Madam Secretary, my impression is that you are off to an 
excellent start as Secretary of Agriculture, and I commend you 
for the good job you are doing and the way you are going about 
trying to identify problems and find the right solutions and be 
a real leader in the Department of Agriculture.
    I want to also let you know that you made the newspaper 
back in Jackson, Mississippi, today. This is your photograph, 
and it is a story that was released by the Delta Council up in 
Cleveland, Mississippi, saying that you would be the speaker at 
the group's annual meeting on May 24. That is really good 
judgment.
    Secretary Veneman. As I recall, Senator, you made that 
request at my confirmation hearing.
    Senator Cochran. It is very unique how this works out.
    I hope you enjoy your trip to Mississippi and all goes 
well. I am sure it will.
    Secretary Veneman. And I am taking my assistant, Hunt 
Shipman, with me.
    Senator Cochran. Then you will not need a map of the local 
roadways if you have him along.

                     Additional committee questions

    There may be additional questions that will be submitted to 
the Secretary from members of the subcommittee, and we hope you 
will be able to respond to them in a reasonable time. Thanks 
again for participating and cooperating with our committee.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

           animal plant health and inspection service (aphis)
    Question. What is the projected need for predator control funding 
for fiscal year 2002 for wolf activities in Wyoming, Idaho, and 
Montana? What is the projected need in Minnesota, Michigan, and 
Wisconsin?
    Answer. The U.S. Fish and Wildlife Services--(FWS) gray wolf 
reintroduction in Wyoming (Yellowstone National Park) and Idaho has 
been so successful that wolf populations have expanded beyond original 
introduction site boundaries. From an original reintroduction of 66 
wolves in 1995 and 1996, the FWS now estimates there are between 360-
405 wolves in these two States. In addition, naturally occurring wolf 
populations in Montana have grown from an estimated 25-50 wolves in the 
early 1990s, to approximately 80 to 100 wolves today according to the 
FWS. In total, FWS estimates there are approximately 440-505 wolves in 
the Northern Rocky Mountain area and that the total number of wolves 
will triple in the next several years. APHIS received $1,000,000 in 
fiscal year 2001 for predator/wolf control in Idaho, Montana, and 
Wyoming which we allocated equally among the three States. We are 
evaluating the impact of these expanding wolf populations and our 
ability to provide adequate service with the increased funding.
    The Minnesota wolf population has steadily increased from 
approximately 1,200 wolves in 1979, found only in the remote 
northeastern parts of the State, to approximately 2,600 wolves now. 
This population increase has caused a significant southern expansion 
with a contiguous range now covering approximately 40 percent of the 
State. Wisconsin began to monitor the wolf populations in 1979, with an 
initial report of 25 animals. In the late 1980s, this population began 
to steadily increase and there are approximately 250 wolves now. In 
1995, wolf discoveries occurred in areas south of the northern 
Wisconsin region. As wolves began to occupy northern Wisconsin, 
individual wolf observations occurred in the Upper Peninsula of 
Michigan. The FWS now estimates that approximately 200 wolves inhabit 
the Upper Peninsula. With such a large and ever expanding natural 
population of gray wolves, we have been addressing wolf impacts in 
Minnesota since the mid 1970s. The population growth and expanding 
range have resulted in wolves moving into Wisconsin and Michigan.
    Question. What is the amount of funding in the baseline and the 
President's fiscal year 2002 budget request for the protection of 
sunflowers and rice from blackbirds?
    Answer. The President's fiscal year 2002 budget request contains 
the following funding levels to protect sunflowers and rice from 
blackbirds (which are amounts that the Congress appropriated in the 
form of directives in previous years): in fiscal year 1989, APHIS 
received $368,000 for blackbird control in North Dakota and South 
Dakota; in fiscal year 1994, APHIS received $50,000 for blackbird 
control in Arkansas, $50,000 for blackbird control in Illinois, and 
$120,000 for controlling blackbird damage to rice in Louisiana. APHIS 
commits these funds to Congressionally directed activities, such as the 
cattail management program in the Dakotas and to protect sprouting rice 
in Louisiana.
    Question. APHIS has asked for comments on its notice in the Federal 
Register for protection of sunflowers from Red-Winged Blackbirds in 
North Dakota, South Dakota, and Minnesota. Should APHIS determine that 
lethal and non-lethal techniques will be used to control blackbirds, 
will the funding requested in the fiscal year 2002 budget suffice?
    Answer. APHIS is evaluating the need to manage blackbird damage for 
the protection of sunflower crops. As part of that evaluation, APHIS 
personnel are conducting an environmental analysis of proposed actions 
which may include lethal control methods, non-lethal control methods, 
or a combination of both. Because of the range of issues that the 
public has raised through the public participation process, APHIS has 
decided to develop an environmental impact statement (EIS) to 
thoroughly analyze the issues and any proposed alternatives for 
managing the blackbird damage.
    Question. As the budget for inspection has increased for animal 
welfare, has the agency seen an increased need for funding for 
enforcement and prosecution? If yes, at what amount does the fiscal 
year 2002 President's request fund enforcement and prosecution?
    Answer. The increases in funding for Animal Care over the past 
couple of years and the resulting increase in the number of Animal Care 
Inspectors in the field will correlate with a need for more enforcement 
and prosecution. Fiscal year 2002, the President's request would fund 
enforcement and prosecution at $6,601,000, an increase of $352,000 over 
fiscal year 2001.
    Question. Please provide information on the pilot project which was 
funded as a result of the provision in the fiscal year 2001 agriculture 
appropriations act which required a pilot project on development of 
non-lethal wildlife predation control methods in four states associated 
with livestock operations.
    Answer. The Minnesota wolf population has steadily increased from 
approximately 1,200 wolves in 1979, found only in the remote 
northeastern parts of the State, to approximately 2,600 wolves now. 
This population increase has caused a significant southern expansion 
with a contiguous range now covering approximately 40 percent of the 
State. Wisconsin began to monitor for wolf populations in 1979, with an 
initial report of 25 animals. In the late 1980s, this population began 
to steadily increase and there are approximately 250 wolves now. In 
1995, wolf discoveries occurred in areas south of the northern 
Wisconsin region. As wolves began to occupy northern Wisconsin, 
individual wolf observations occurred in the Upper Peninsula of 
Michigan. The U.S. Fish and Wildlife Service (FWS) now estimates that 
approximately 200 wolves inhabit the Upper Peninsula. With this 
expanding natural population of gray wolves, we have been addressing 
wolf impacts in Minnesota since the mid 1970s. The population growth 
and expanding range have resulted in wolves moving into Wisconsin and 
Michigan. As the wolf population increases, so does the number of 
depredation incidents against livestock. We project our responses to 
wolf complaints in Minnesota, Wisconsin, and Michigan will reach 289 
during fiscal year 2001, a 26 percent increase since fiscal year 1999.
    The FWS gray wolf reintroduction in Wyoming (Yellowstone National 
Park) and Idaho has been so successful that wolf populations have 
expanded beyond original introduction site boundaries. From an original 
reintroduction of 66 wolves in 1995 and 1996, the FWS now estimates 
there are between 360-405 wolves in these two States. In addition, 
naturally occurring wolf populations in Montana have grown from an 
estimated 25-50 wolves in the early 1990s, to approximately 80 to 100 
wolves today according to the FWS. In total, FWS estimates there are 
440-505 wolves in the Northern Rocky Mountain area and that the total 
number of wolves will triple in the next several years. APHIS--
responsibility has increased significantly as a result of the wolf 
recovery efforts in Wyoming, Idaho, and Montana. We project our 
responses to wolf complaints in these States will reach 244 during 
fiscal year 2001, a 116 percent increase since fiscal year 1999. APHIS 
received $1,000,000 in fiscal year 2001 for predator/wolf control in 
Idaho, Montana, and Wyoming which was allocated equally among the three 
States. We are evaluating the impact of these expanding wolf 
populations and our ability to provide adequate service with the 
increased funding.
    Question. Please update the subcommittee on the status of the 
construction of the bison quarantine facility and the Environmental 
Impact Statement (EIS) that will be implemented by the National Park 
Service.
    Answer. During calendar year 2000, APHIS, along with several other 
Federal Agencies, were involved in negotiations with the State of 
Montana to finalize a long term management plan for bison. The Record 
of Decision (RoD) on the EIS for bison management was released in 
December 2000. Since completion of the ROD, program officials have 
begun implementing the long term bison management plan. Among other 
items, the bison management plan includes increasing monitoring and 
surveillance of cattle in the area. Although the plan does not address 
the immediate need for a bison quarantine facility, it does allow for 
the consideration of this facility, if needed, at a later date. In the 
interim, program officials are using an APHIS funded and Montana 
operated capture facility in Horse Butte for the capture and sampling 
of bison.
    While the plan is not intended to be a brucellosis eradication 
plan, it is intended to be a plan for the management of bison in the 
Greater Yellowstone Area (GYA) to prevent transmission of brucellosis 
from bison to cattle. Our next step will be working with the other 
Agencies to develop a plan for eliminating brucellosis from the bison 
and elk populations of the GYA.
    Question. Please provide the amount requested (by line item) in the 
fiscal year 2002 President's budget for Foot and Mouth Disease.
    Answer. APHIS has requested $3,839,000 under the Foreign Animal 
Disease/Foot-and-Mouth Disease line item for fiscal year 2002. This 
request is for ongoing cooperative programs in Colombia, Mexico, and 
Panama.
    Question. Please provide an update on the Texas and Michigan 
problems with bovine tuberculosis. What does the fiscal year 2002 
President's budget request contain to address bovine tuberculosis (by 
line item)?
    Answer. Of the 10 dairy herds currently located in the El Paso 
milkshed area, 2 are infected with tuberculosis. Most of these 10 herds 
have had recurring infections over the years. Only one herd has 
remained infection free. Recent studies have demonstrated a high 
probability that the recurrent infections in El Paso are linked to the 
high prevalence of tuberculosis in the dairies located near Juarez, 
Mexico. To address this problem, along with several others such as 
infection in wildlife, the Secretary of Agriculture declared an 
emergency in October 2000 and transferred $54 million from the 
Commodity Credit Corporation (CCC). Congress appropriated an additional 
$6 million towards this effort in the fiscal year 2001 Miscellaneous 
Appropriations Act. These funds will allow the Agency to implement a 
comprehensive bovine tuberculosis eradication plan which will include 
eliminating infected and high risk dairy herds in the El Paso milkshed 
area. By eliminating these herds, APHIS will create a buffer zone in 
the El Paso area to protect the U.S. cattle population. APHIS expects 
to begin eliminating these herds in August 2001. These funds have also 
allowed APHIS to address bovine tuberculosis in Michigan's wildlife 
population including enhanced surveillance in wildlife and domestic 
livestock, and depopulation. To date, close to 444,000 bison, cattle, 
and goats in Michigan have been tested for bovine tuberculosis. Twenty-
seven of these animals (from 13 herds) were found to be disease 
positive. Of the 13 herds, 11 were depopulated and 2 are on the ``test 
and remove plan''. In the fiscal year 2002 President's Budget request, 
APHIS requests $18.6 million to continue this effort.
    Question. Has the new Administration revisited the Clinton 
Administration's recommended guidelines for the use of lost income 
compensation to control and eradicate emergency outbreaks of pests and 
diseases? Has the new administration solicited input from the 
authorizing committees, state government officials, and experts in 
academia and the private sector as recommended by the Chairman of the 
House Agricultural Appropriations?
    Answer. We are reviewing the issue now and intend to work with the 
Office of Management and Budget to determine an appropriate position. 
Once we finish that review, we will share the position with the 
appropriate Members and Committees of the Congress.
    Question. What amount does the President's fiscal year 2002 budget 
request contain for the National Poultry Improvement Plan (NPIP) for 
the National Veterinary Services Laboratories?
    Answer. The President's fiscal year 2002 budget request contains 
$744,000 for the National Poultry Improvement Plan (NPIP), of which 
$497,000 is for diagnostic support at the National Veterinary Services 
Laboratory.
               food safety and inspection service (fsis)
    Question. What level of funding will be spent on ratite and squab 
inspection in fiscal year 2001 and how much is budgeted for these 
activities for fiscal year 2002?
    Answer. FSIS received $2.5 million in its fiscal year 2001 
appropriation to conduct mandatory ratite and squab inspection. The 
Agency implemented regulations governing this activity on April 26, 
2001; mandatory inspection of both species commenced on that date. 
Costs associated with the development of the mandatory inspection 
regulation, and with inspection implementation itself, are estimated to 
be $2.5 million in 2001 and 2002.
    Question. Does the fiscal year 2002 budget request earmark FSIS 
dollars for the in-distribution program? How much?
    Answer. The 2002 budget does not earmark dollars for an in-
distribution program.
    Question. What is the new Administration's philosophy regarding 
testing for E.coli 0157.H7 at the retail level? Does the Bush 
Administration plan to continue to test at the retail level or will it 
increase testing more in the distribution chain? Would more testing 
during the distribution help to discover the contaminated product 
sooner?
    Answer. The Food Safety and Inspection Service plans to reassess 
its E. coli O157:H7 testing program. While this review is ongoing, the 
administration does not plan to make any changes in the current testing 
program and will wait for the results to determine how best to proceed 
on a scientifically sound basis.
    Question. Does the new administration at the agency plan to work 
with the meat industry and retailers to minimize the risk of E.coli 
0157.H7? If yes, how will the agency proceed?
    Answer. Yes, we plan to work with all stakeholders to minimize the 
risk of E. coli O157:H7 and all pathogens found in meat and poultry. 
Industry has made several suggestions on changes that could be made to 
the Pathogen Reduction/HACCP rule as well changes to microbiological 
testing. Some of their suggestions will be discussed at the upcoming 
National Advisory Committee for Meat and Poultry Inspection in early 
June.
             natural resources conservation service (nrcs)
    Question. Why is there an undistributed amount of funding, 
$2,776,188, for the Forestry Incentives Program for 2001?
    Answer. The $2,776,188 represents the carryover amount from the 
fiscal year 2000 Forestry Incentives Program activities. All monies 
have since been released to the states and no reserve is retained at 
the national level.
                       farm service agency (fsa)
    Question. The President's fiscal year 2002 budget request proposes 
$3 million for the state mediation program. The budget justification 
notes mention that 2 more states will be approved for participation in 
2001. Which states are going to be approved? How much funding is needed 
to approve all of the pending applications?
    Answer. Six states have either submitted or indicated that they 
would be submitting an application for certification. They are 
California, Colorado, Maine, New York, Mississippi and Tennessee. 
California was recently approved to participate in this program and 
decisions on approving the additional applications will be made soon.
    The pending applications can be approved without additional 
funding. If they are approved, funding for fiscal year 2002 could be 
prorated.
                  agricultural marketing service (ams)
    Question. Please update the committee on the implementation of the 
Microbiological Data Program (MDP). Are microbiologists involved in 
sampling, testing?
    Answer. The Agricultural Marketing Service (AMS) has been involved 
in a number of activities in preparation for implementing the 
Microbiological Data Program (MDP). I have asked AMS to provide a 
status of their activities for the record.
    [The information follows:]
    AMS has established the infrastructure to implement MDP. AMS 
completed cooperative agreements with the ten participating States. 
These agreements delineate the responsibilities of AMS and the 
participating States regarding sampling, testing, reporting 
requirements, and quality assurance. The agreements, totaling $4 
million are with the agriculture departments of California, Colorado, 
Florida, Maryland, Michigan, New York, Ohio, Texas, Washington, 
Wisconsin, and the California Department of Pesticide Regulation (for 
sampling). All states will be testing samples except for Maryland 
(samples shipped to Ohio) and Texas (samples shipped to AMS Eastern 
Laboratory).
    The work plan for fiscal year 2001 was completed in cooperation 
with the Food and Drug Administration (FDA)/Center for Food Safety and 
Applied Nutrition (CFSAN) and the Centers for Disease Control (CDC). 
The plan requires the quantitative determination of Escherichia coli, 
as an indicator organism and the identification of Salmonella spp. The 
sampling design is based on the statistically reliable parameters 
employed by AMS' Pesticide Data Program (PDP). The number of source 
samples to be collected is based on State populations, ranging from 14 
source samples in California to 2 in Wisconsin and Colorado, for a 
maximum of 62 source samples per month per commodity. Each source 
sample consists of 3 sub-samples. Samples are all collected within a 
state on the same day to create a testing set that meets the 
appropriate quality control requirements. The probability of selecting 
a site for sampling in a State is based on the volume of product at the 
site and was developed using the expertise of the National Agricultural 
Statistics Service. This sampling method will enable data users to make 
national inferences based on the data. All samples are collected 
aseptically, based on random selection at terminal markets and major 
distribution centers.
    The system for sample collection and testing practices was placed 
in effect April 16 with collections of leaf and romaine lettuce as 
separate commodities. Domestic and imported tomatoes were added on May 
1 and celery is scheduled for August 2001. The commodities were chosen 
for inclusion into MDP based on national consumption data in 
consultation with FDA and CDC. Standard Operating Procedures (SOP 
protocols) were developed for sampling, testing, and data reporting and 
are being tested during the first several weeks of sample collection. A 
final system should be in place by June. A proficiency testing system 
is also under development, slated for implementation later this fiscal 
year. A data system to handle electronic information transfer similar 
to the system in effect for PDP is under development, with segments to 
be developed by contract. An interim system for data transfer is in 
effect until a combined comprehensive PDP-MDP system is completed with 
state-of-the-art software design.
    AMS established agreements with the Agricultural Research Service 
and Pennsylvania State University for serotyping of isolates and 
antibiotic resistance profiling as part of the baseline and research 
objectives of the Program.
    AMS has four microbiologists assigned to handle SOP development and 
technical aspects of the program. In addition, the eight states engaged 
in daily testing activities have trained microbiologists and have 
developed expertise in microbial and pathogen determinations. AMS is 
also using the PDP sampling infrastructure and data transfer expertise 
in order to have consistent operation of both programs with the 
respective participating states.
    Question. As part of the MDP, the Subcommittee understands that the 
data from this program will be made available to state public health 
agencies for food safety decision-making purposes. However, any 
premature or incorrect announcement by a public health official 
regarding microbiological information can prove to be a major setback 
to public health and economically harmful to the impacted industries. 
Has this issue been considered and what safeguards are in place in 
respect to this issue?
    Answer. The Agricultural Marketing Service (AMS) has held 
discussions with the Food and Drug Administration (FDA) and 
participating States. The States will adhere to their current internal 
guidelines concerning actions regarding the confirmed determination of 
a pathogen. From the present testing requirements, this implies the 
determination of Salmonella. The FDA has requested data at three-month 
intervals for information purposes. These safeguards should avoid 
premature actions regarding pathogen determinations.
    Question. Industry has applied to AMS for a petition to create a 
certification labeling program for ``USA BEEF''. When will this 
petition be accepted so that consumers will be able to purchase beef 
labeled ``USA BEEF?''
    Answer. At about the same time that industry groups petitioned the 
Department to create a process-verified program, ``Beef: Made in the 
USA'', a conference committee report was issued accompanying the 
Agricultural Appropriations Act of 2000. The conference committee 
report directs the Department to determine the best terms to use on 
labels to inform consumers that the beef products are U.S. products. 
The report stated that the lack of clarity regarding the definition of 
the terms ``U.S. cattle'' and ``U.S. fresh beef products'', hinders the 
ability of U.S. producers, who raise and handle cattle from birth to 
slaughter, to promote their products. At this time, an advanced notice 
of a proposed rulemaking is under consideration by the Department for 
addressing these issues. In light of these developments, the Department 
informed the industry coalition that sent the petition that the 
petition will not be addressed until the issues raised by Congress are 
addressed.
                           food stamp program
    Question. A USDA report dated January 2001, regarding the Food 
Stamp Program's Electronic Benefits Transfer (EBT) system, indicates 
that forty-one states, the District of Columbia, and Puerto Rico have 
operational food stamp EBT systems, and that thirty-nine of those 
systems are operating statewide. What is the current status of the nine 
states which had not completed the implementation of an EBT system as 
of the date of this report?
    Answer. EBT is a high priority for the Department. EBT is expected 
to improve the efficiency of the program and help identify and control 
fraud. Thirteen State agencies (11 States, 2 Territories) did not have 
contracts for Statewide EBT implementation as of the last status 
report. Theses were California, Delaware, Guam, Indiana, Iowa, Maine, 
Mississippi, Montana, Nebraska, Nevada, Virginia, the Virgin Islands, 
and West Virginia. Although without Statewide EBT contracts, California 
and Iowa have EBT operations in limited areas.
    Currently, Indiana, Nevada, and Virginia have approved contracts 
with Citicorp. Indiana began its pilot May 1, 2001. Nevada and Virginia 
are scheduled to begin pilot operations in October 2001. The remaining 
States/Territories--California, Guam, Iowa, Maine, Mississippi, 
Montana, Nebraska, the Virgin Islands, and West Virginia--are in some 
stage of planning or procurement for Statewide systems. However, there 
is a wide range of activity among these States and some are not likely 
to meet the October 2002 deadline unless they work aggressively to 
secure a contract for EBT implementation.
    Delaware selected E-Funds as its EBT contractor but broke off 
negotiations when prices were significantly above the Federal cost cap. 
Delaware subsequently has asked for a waiver from the EBT mandate, 
citing excessive costs associated with EBT as the reason.
    Question. Will all states have an operating EBT system by October 
2002, as mandated by Welfare Reform?
    Answer. EBT implementation is a high priority for the Department. 
The Food and Nutrition Service (FNS) continues to work towards the goal 
of Nationwide EBT by the October 2002 mandate and in particular, we are 
working with States that have obstacles to EBT implementation. However, 
State agencies without a contractual agreement in place very soon will 
have difficulties meeting the October 2002 deadline.
    Delaware selected E-Funds as its EBT contractor but broke off 
negotiations when prices were significantly above the Federal cost cap. 
Delaware subsequently has asked for a waiver from the EBT mandate, 
citing excessive costs associated with EBT as the reason.
    Other State problems include the lack of staff resources, budget 
constraints, insufficient infrastructure, the lack of technical 
expertise, competing priorities, and the sheer lack of time to complete 
implementation by October 2002.
    Question. One projected benefit of the EBT system is the decreased 
possibility of fraud within the Food Stamp Program. An Associated Press 
article dated April 10, 2001, revealed that a New York food stamp 
recipient discovered an additional $221,382 in her food stamp benefits 
account after making a purchase with her EBT card. What has been done 
recently to fight error and fraud within the entire Food Stamp Program, 
and specifically the EBT system?
    Answer. The instance you cite of the overpaid recipient was, upon 
investigation, found to be an error in the retailer's point-of-sale 
device which caused an incorrect balance to print on the receipt. The 
incorrect amount was shown as a cash benefit to the recipient, not a 
food stamp benefit. Since then, steps have been taken to correct the 
error, however, at no time did the recipient actually have this amount 
in her account.
    Overall, EBT has contributed to reducing fraud by creating an audit 
trail which helps pinpoint illegal transactions. It also allows 
recipients as well as retailers to be identified and sanctioned for 
trafficking violations using the transaction data. EBT States continue 
to expand their use of the data and to refine the techniques associated 
with analysis of transaction data.
    In addition to these advantages of EBT, we continue to assist 
States in reducing the causes of overpayment and underpayment error, 
including identifying ``best practices'' by low error States. We are 
also expanding our use of the existing databases to identify and remove 
prisoners, deceased persons, and cases of duplicate participation from 
the rolls, and to follow up with sanctions and recoupment of 
overpayments, as necessary. Another tool in the collection of 
overpayments is the Treasury Offset Program (TOP), which is responsible 
for a growing percentage of total collections by intercepting tax 
refunds an other payments otherwise due the overpaid individual
    Question. On December 27, 2000, the Food and Nutrition Service 
placed in the Federal Register a notice of availability of research 
grants to improve Food Stamp Program Access through Partnerships and 
New Technology. These competitively awarded grants would be 100 percent 
funded by the Federal Government with no matching requirement. How many 
of these grants have been awarded?
    Answer. Fourteen grants have been awarded, totaling $3.6 million.
    Question. What have been the findings of the research projects 
funded by these grants?
    Answer. As the program has only recently been initiated, it is too 
soon to report findings. However, grant recipients are required to 
submit periodic progress reports, and at the end of the two year grant 
period, final reports will be submitted assessing the impact of the 
grant projects.
    Question. Does the Department support continued funding for these 
research grants?
    Answer. The Department's 2002 request includes the base funding 
from which these grants were funded in 2001. A decision on how best to 
utilize these funds will be determined following the enactment of our 
appropriations for 2002, and will take into consideration the success 
of these activities to date, and other potential activities.
                        child nutrition programs
    Question. The President's Budget suggests an increase of $2,000,000 
to enhance integrity in the National School Lunch Program (NSLP). How 
would this funding be used to enhance the integrity of the NSLP?
    Answer. The $2,000,000 requested would be used to improve the 
integrity of the NSLP by exploring potential improvements to the 
process used by schools and school districts to certify students for 
free and reduced price meals. FNS is seeking ways to provide these 
benefits to needy children without providing them to non-needy 
children, and doing so in a manner that is manageable for schools 
operating the NSLP.
    FNS is operating a number of pilot projects designed to test 
alternative approaches to the existing NSLP application and 
verification process. The agency's current plan is to use a significant 
portion of the requested funding to collect information on income from 
a sample of parents whose children are in pilot schools, along with a 
sample of parents whose children are not in pilot schools, in order to 
provide an independent source of income data to compare to the 
application process. While this remains, in our judgment, the best 
option for using this funding to enhance NSLP integrity, USDA intends 
to continue to gather information from the pilots and other sources on 
this important issue. Our ongoing work with State officials and other 
Federal agencies continues to reveal new opportunities for system 
improvement. By the time of final appropriation, it may be more 
appropriate to focus these resources on activities that begin to 
address the issue operationally.
    Question. What is the estimated cost of each activity?
    Answer. The proposed income data collection analysis and reporting 
described above would cost roughly $1.5 million, but could range as 
high as $2.0 million. As noted previously, we intend to reassess our 
efforts as the pilot projects and other information-gathering 
continues, and consider using these funds for promising strategies to 
improve operations, as appropriate.
    Question. The School Breakfast Pilot Program is now fully funded. 
Please provide the Subcommittee with an update on this pilot program.
    Answer. Work on the pilot is progressing well. The six 
participating school districts were announced on May 15, 2000. 
Elementary schools within each school district were paired and randomly 
assigned to the control (regular School Breakfast Program) or treatment 
(universal-free breakfast program) group. Seventy control and 73 
treatment school units are participating in this project.
    Implementation of the universal-free breakfast program began in 
School Year 2000-2001. Five of the six selected school districts began 
implementation at the start of the school year; the sixth began 
implementing the universal-free breakfast program at the end of 
October, 2000.
    The evaluation contractor, Abt Associates, Inc. a Cambridge, 
Massachusetts research firm, was competitively selected to conduct the 
evaluation, and the contract was awarded on June 26, 2000. Abt is 
currently collecting first-year implementation data in the six school 
districts. Data is being collected on about 30 students from each 
school for a total of 4,290 students. Student outcome measures include 
achievement test scores, cognitive performance scores, classroom 
behavior, attendance and dietary intakes. Program operations data, 
including implementation methods and operating costs, are also being 
collected.
    Administrative data will be collected during School Years 2001-2002 
and 2002-2003. Follow-up implementation data will also be collected 
during the third year of implementation (School Year 2002-2003). An 
interim project report will be available in Summer 2002, and the final 
report in Summer 2004.
special supplemental nutrition program for women, infants, and children 
                                 (wic)
    Question. On December 11 of last year, President Clinton issued a 
memorandum on improving immunization rates for children at risk. In 
that memorandum, agencies were directed to ``include a standardized 
procedure as part of the WIC certification process to evaluate the 
immunization status of every child applying for WIC services using a 
documented immunization history.'' While the WIC program has served an 
appropriate role in child immunization screening and referral, a policy 
that might make WIC certification contingent on immunizations or 
require WIC clinics to evaluate and be held accountable for every 
participating child's immunization status could prove too burdensome 
and impose potential troubling liability issues on WIC caseworkers. 
What is the status of USDA's efforts to implement this Presidential 
directive?
    Answer. As directed by the Executive Memorandum, USDA is working 
with the Centers for Disease Control and Prevention (CDC) to ensure 
that the actions outlined in the Presidential directive are taken in a 
manner ``consistent with the mission'' of each agency. A partnership 
consisting of USDA, CDC, the National Association of WIC Directors, 
American Academy of Pediatrics (AAP), Association of State and 
Territorial Health Officials, Association of Immunization Managers, and 
Every Child By Two is providing guidance and assistance to implement 
current and future WIC immunization linkages to meet the directives of 
the Executive Memorandum.
    A draft policy memorandum, written in collaboration with partners, 
was distributed to partners and State WIC agencies for comment in 
February 2001. The policy memorandum outlined procedures for 
immunization screening and referral in the WIC Program, as directed by 
the Executive Memorandum. In response to comments, the policy 
memorandum is being redrafted and will be issued in June 2001. The 
policy memorandum makes it clear that (1) WIC certification is not 
contingent on immunization status or the attainment of immunization 
records, and (2) as an adjunct to health services, the WIC Program's 
role in immunization screening and referral is to support existing 
funded immunization activities. Increased WIC involvement in 
immunization screening and referral should not result in reduced 
efforts or costs incurred for immunization services and programs that 
have primary responsibility in this area.
    The policy memorandum includes a minimum screening protocol, 
developed in conjunction with CDC and AAP, specifically for use in WIC 
Programs where children are not screened and referred for immunizations 
by other means. The purpose of the minimum screening protocol is to 
identify children who may be at risk for under immunization. It is not 
meant to fully assess a child's immunization status, but allows WIC to 
effectively fulfill its role as an adjunct to health care by ensuring 
that children who are at risk are referred for appropriate care. In 
State or local areas with documented vaccination coverage rates 90 
percent or greater in WIC children by 24 months of age, there will be 
no requirement to implement the procedures set forth in the policy 
memorandum.
    Through a ``Dear Colleague'' letter to its State immunization 
program grantees, CDC will ensure that Immunization Programs coordinate 
with WIC to provide the following: cooperative planning and budgeting 
that supports WIC screening and referral; adequate and appropriate 
referral information and networks; training of WIC staff; and other 
activities necessary to ensure that a comprehensive screening and 
referral system is in place that supplements WIC's limited role and 
responsibility in this area.
    Question. What is the status of the Department's efforts to seek 
reimbursement from other agencies for health care services provided 
through the WIC program?
    Answer. A partnership consisting of USDA, Centers for Disease 
Control and Prevention, National Association of WIC Directors, American 
Academy of Pediatrics, Association of State and Territorial Health 
Officials, Association of Immunization Managers, and Every Child By Two 
is finalizing a National strategic plan to improve immunization 
coverage rates of children participating in WIC. One of the goals of 
the strategic plan is to obtain adequate funding and/or reimbursement 
for WIC immunization activities so that WIC funds and staff time 
available for nutrition services are not reduced.
    The Food and Nutrition Service (FNS) issued a WIC Cost Allocation 
Guide in November 1999 as a resource for WIC State and local staff. The 
guide describes acceptable methods to ensure that a State or local 
agency's WIC Program grant or subgrant is only charged for WIC's fair 
share of allowable costs.
    Question. The fiscal year 2002 budget requests continued funding 
for WIC electronic benefit transfer (EBT) systems. What is the status 
of WIC EBT efforts? What has been accomplished with the additional 
funding provided for this purpose for fiscal year 2001?
    Answer. Currently, there are 14 WIC State agencies at various 
stages of planning, developing, and implementing EBT systems. This 
includes 1 State agency that has nearly completed statewide roll-out, 3 
States with operational EBT pilot systems, 2 States preparing to launch 
pilots before the end of 2001, 2 States preparing to launch pilots in 
2002, and 6 States preparing to launch pilots in 2003. Fiscal year 2001 
funds for WIC EBT will be used for up-front development costs, and will 
be awarded through a competitive grant proposal and evaluation process 
to WIC State agencies that have made significant progress toward 
implementing EBT systems.
    Question. What is the status of the draft proposed rule on the WIC 
food prescription (package)?
    Answer. The Department has drafted and entered into clearance a 
proposed rule addressing changes in the WIC food packages. The rule is 
currently awaiting review by policy officials of the Bush 
Administration.
    Question. What is the status of the scientific examination of the 
WIC food prescription anticipated to be undertaken under the auspices 
of USDA's Western Human Nutrition Research Center?
    Answer. Further work on this project was suspended pending policy 
review by the Bush administration. Before continuing the study, the new 
team needs to determine the extent to which the study can and will fill 
the scientific gaps. We will be taking a look at this when we are fully 
staffed.
 cooperative state research, education, and extension service federal 
               administration and special research grants
    Question. Please provide a description of the research that has 
been funded under the Federal administration/special research grant.
    Answer. Sent to the Senate under separate cover.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research. (For extension activities: What is the national, regional, or 
local need for this project?)
    Answer. Sent to the Senate under separate cover.
    Question. What was the original goal of the research and what has 
been accomplished to date? (For extension activities: What was the 
original goal of this program and what has been accomplished to date?)
    Answer. Sent to the Senate under separate cover.
    Question. How long has this work been underway, and how much has 
been appropriated, by fiscal year through fiscal year 2001, for this 
work?
    Answer. Sent to the Senate under separate cover.
    Question. What is the source and amount of non-Federal funds 
provided, by fiscal year?
    Answer. Sent to the Senate under separate cover.
    Question. Where is the work being carried out?
    Answer. Sent to the Senate under separate cover.
    Question. What was the anticipated completion date of the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Sent to the Senate under separate cover.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Sent to the Senate under separate cover.
     cooperative state, research, education, and extension service 
                    sustainable agriculture research
    Question. For fiscal year 2002, the Congress provided increased 
funding for sustainable agriculture to focus on organic farming to 
serve an expanding and increasingly active constituency of producers 
and consumers. Can you give the Committee an update on this new 
initiative?
    Answer. The increase in fiscal year 2001 funding over fiscal year 
2000 for the Sustainable Agriculture Research and Education, SARE, 
program has been used for a range of high-priority projects in 
accordance with the guidance from the Senate appropriations report, 
which stated, in response to the targeting of the SARE increase to 
organic agriculture in the fiscal year 2001 President's Budget:
     ``Increased funds provided for sustainable agriculture research 
and education should include, but in no way be limited to, projects on 
organic agriculture. While organic production practices are included 
under the umbrella of sustainable agriculture, it is critical that 
funding increases be directed also to research on broader sustainable 
agriculture production systems and practices. The Committee also 
directs the Department to allocate a portion of funding increases to 
on-farm demonstration and producer-research projects.''
    The increased funds are being used to support some projects in 
organic agriculture, particularly in the SARE southern region, which 
established organic agriculture as one of five priority areas for 
fiscal year 2001 competitive grants, and which held a region-wide 
training conference on organic agriculture for Extension and other 
agricultural professionals. Competitive grant projects in other regions 
that could not have been supported, had fiscal year 2001 funding not 
increased, include several on crop and market diversification in both 
field crops and specialty crops, sustainable production of crops 
including cotton and tomatoes, several projects in the Pacific Islands, 
and a project to encourage farmer-directed research and networking.
    Increased support of on-farm, producer-led research is taking place 
not only through the last project noted above, but also through 
increased allocations toward producer grants in each region, either in 
fiscal year 2001 or planned for fiscal year 2002. In addition, the SARE 
Northeast region is allocating SARE Professional Development Program--
Extension--funds to increasing the interaction of Extension and other 
agricultural professionals with producers engaged in SARE-sponsored on-
farm research, and the SARE Southern region is piloting a program of 
on-farm research grants targeted at Extension agents and other agency 
and private-non-profit personnel who work closely with farmers in on-
farm research.
    Other uses of the increased Extension funds in the SARE 
Professional Development Program include a partnership with the 
Extension Indian Reservation Program to enhance sustainable agriculture 
professional development with Native American communities, and 
competitive grant projects on a range of professional development 
topics ranging from assisting private landowners with resource-
conserving management practices, to producing and marketing ethnic and 
specialty vegetables. Additional resources are also being targeted to 
enhance program evaluation.
              native american institutions endowment fund
    Question. Beginning in fiscal year 2001, 1994 Institutions were 
given the authority to use funds available from the Native American 
Institutions Endowment Fund to support facility infrastructure. How 
many of the 1994 Institutions have elected to use these funds for 
facility requirements?
    Answer. The Conference Report states, ``For the Native American 
Institutions Endowment Fund authorized by Public Law 103-382 (7 U.S.C. 
301 note), $7,100,100: Provided, That hereafter, any distribution of 
the adjusted income from the Native American Institutions Endowment 
Fund is authorized to be used for facility renovation, repair, 
construction, and maintenance, in addition to other authorized 
purposes.'' The 1994 Institutions have expressed strong interest in 
using the adjusted income from the Native American Institutions 
Endowment Fund for facility requirements. The fiscal year 2001 adjusted 
income from the Endowment Fund will not be available until late in the 
year. Thus, these funds will be available for facility requirements 
after the end of fiscal year 2001 and beyond.
                      1890 land-grant institutions
    Question. Provide a list, by 1890 Institution, of the renovation 
and construction projects funded in fiscal year 1999 and fiscal year 
2000, the funds provided for each, and the amount required in future 
years to complete the project.
    Answer. Awards are made for the acquisition and improvement of 
agricultural and food sciences facilities and equipment, including 
libraries, so that the 1890 land-grant institutions and Tuskegee 
University may participate fully in the production of human capital in 
the food and agricultural sciences. These activities are ongoing and 
are proposed in a five-year plan of work. The table below indicates the 
past, current and proposed appropriations to complete activities under 
the current five-year plan of work.
    [The information follows:]

                                                 1890 FACILITIES
----------------------------------------------------------------------------------------------------------------
                                                             Fiscal year--
                                   -----------------------------------------------------------------    Total
                                        1998         1999         2000         2001         2002
----------------------------------------------------------------------------------------------------------------
Alabama A&M University............     $403,755     $449,013     $666,710     $675,111     $675,111   $2,869,700
Tuskegee University...............      403,755      449,013      666,710    675,1 1 1      675,111    2,869,700
University of Arkansas at Pine          387,818      430,036      658,969      666,395      666,395    2,809,613
 Bluff............................
Delaware State University.........      310,482      337,479      621,209      623,880      623,880    2,516,930
Florida A&M University............      408,640      454,830      669,083      677,783      677,783    2,888,119
Fort Valley State University......     4.18,874     502,73.1      688,627      699,788      699,788    3,039,811
Kentucky State University.........      497,465      560,587      712,229      726,362      726,362    3,223,005
Southern Univer-  sity............      379,624      420,281      654,989      661,914      661,914    2,778,722
University of Maryland Eastern          356,775      393,076      643,890      649,419      649,419    2,692,579
 Shore............................
Alcorn State University...........      392,395      435,487      661,192      668,898      668,898    2,826,870
Lincoln Univer-  sity.............      495,381      558,109      711,217      725,223      725,223    3,215,153
North Carolina A&T State Univer-        511,065      576,736      718,817      733,779      733,779    3,274,176
 sity.............................
Langston University...............      399,604      444,071      664,694      672,841      672,841    2,854,051
South Carolina State Univer-  sity      394,830      438,385      662,374      670,229      670,229    2,836,047
Tennessee State University........      455,003      510,031      691,604      703,140      703,140    3,062,918
Prairie View A&M University.......      570,689      647,775      747,798      766,411      766,411    3,499,084
Virginia State University.........      430,885      481,317      679,888      689,950      689,950    2,971,990
                                   -----------------------------------------------------------------------------
      Subtotal....................    7,247,040    8,088,960   11,520,000   11,686,234   11,686,234   50,228,468
                                   =============================================================================
Federal Administration............      301,960      337,040      480,000      486,926      486,926    2,092,852
                                   =============================================================================
      Total.......................    7,549,000    8,426,000   12,000,000   12,173,160   12,173,160    52,321320
----------------------------------------------------------------------------------------------------------------

                      agriculture in the classroom
    Question. Please provide a description of expanded outreach 
activities being financed with the additional funds provided for fiscal 
year 2001 for the Agriculture in the Classroom program.
    Answer. The additional funding for fiscal year 2001 for the 
Agriculture in the Classroom program was exceptionally helpful in 
broadening the reach of the program across the Nation. New initiatives 
were chosen in close collaboration with the National Agriculture in the 
Classroom Consortium. Ongoing outreach activities that were 
strengthened include the annual Agriculture in the Classroom National 
Conference, the Agriculture in the Classroom web site, and catalyzing 
State Agriculture in the Classroom Directors to play a more active 
leadership role. The additional funding also served new outreach 
activities, as follows:
    Four sets of teaching materials were developed to support the 
Listening to the Prairie education program developed by the Agency's 
Sustainable Agriculture Research and Extension staff in collaboration 
with the Smithsonian Institution. The Listening to the Prairie display 
will tour selected libraries throughout the Nation over the next two 
years. The teaching materials will be used by elementary, middle 
school, and high school teachers whose classes visit the traveling 
display.
    Work was begun on the development of a comprehensive scientific and 
educational review of teaching materials and preparation of a Resource 
Guide for Agriculture in the Classroom Teachers. The Guide will reduce 
redundancy, increase the use of high quality teaching materials, and 
assure that teaching materials are scientifically sound, educationally 
appropriate, and meet new and enhanced State learning standards
    Funds will be used in cooperation with the White House Office of 
Science and Technology Policy, and the Office of the Science and 
Technology Adviser to the Secretary of State to develop outreach 
activities for Global Science and Technology Week, May 6-12, 2001. To 
highlight the international nature of science and the importance of 
math and science education in today's era of globalization, a special 
edition of the ``Agriculture in the Classroom Notes Newsletter'' was 
prepared and distributed, a mobile science laboratory visited a 
Washington, DC elementary school, career opportunities in the food and 
agricultural sciences were highlighted, and acknowledgment of the work 
of the Classroom teachers provided by a Nobel Laureate was distributed.
    Funds were also committed to support education research to 
determine the effectiveness and impacts of Agriculture in the Classroom 
programs in five States. This work will determine characteristics of 
successful and effective programs, and will be used to further develop 
and strengthen Agriculture in the Classroom in states desiring to 
expand their programs.
                              rural health
    Question. Please give the Committee an update on the Louisiana and 
Mississippi rural health projects.
    Answer. The Rural Health and Safety Education Extension Project 
funds health and safety education in Mississippi and Louisiana. These 
programs are recruiting students to the health professions and 
promoting rural practice by new health care providers to mitigate 
health risk factors.
                           current activities
    In Mississippi, the Mississippi State University Extension Service 
coordinates the Mississippi Rural Health Corps with the state's 15 
community and junior colleges. The purpose of the endeavor is to 
improve rural health through the education of Mississippi residents and 
the training of health care professionals in rural practice. Various 
health and economic development related organizations, in the public 
and private sectors, have worked with the Corps in support of its 
goals.
    A variety of educational outreach activities provide the foundation 
for this program. The cornerstone of the program, training of nurses 
and allied health professionals, provides scholarships/loans to 
students willing to commit themselves to a period of service in rural 
Mississippi upon graduation. In addition, health education, the 
development of community-based healthcare coalitions, the Rural Medical 
Scholars program, and the Rural Health Explorers program have been 
instrumental in strengthening the health sector of Mississippi. This 
program also works with the Mississippi Rural Health Association to 
improve the health status of rural Mississippians.
    A Community College Network connects the state's community and 
junior colleges, the Mississippi Extension Service, and the University 
of Mississippi Medical School. This technology connects multiple sites 
to conduct administrative and educational activities.
    The Nurse Managed Family Care Center program conducted by Southern 
University and A & M College addresses health promotion and disease 
prevention for vulnerable populations residing in rural and inner city 
communities in southern Louisiana. This program is a collaborative 
effort of the Extension Service and the School of Nursing at Southern 
University. Services offered include health assessments, health 
training, teaching, and other health-care professional referrals. The 
services are provided through a nurse-managed center in a non-
traditional setting--center and a mobile health unit. The mobile unit 
serves persons in a 50-mile radius of the School of Nursing. Quality, 
cost-effective, community-based primary health care services are being 
offered where graduate nurse faculty, nursing students, and physicians 
located in community health outreach centers assist women, children, 
and the elderly in understanding and utilizing self-care health 
practices.
    Services include: physical examinations, childhood vaccinations, 
height and weight, blood pressure, and vision screenings. Health 
education is provided to participants to enhance health promotion and 
disease prevention by increasing self-care capabilities. Health 
education topics include nutrition, safety, breast self-examination, 
dental health, hypertension, and diabetes.
                            accomplishments
    In fiscal year 2000, 426 scholarship/loans were made to nursing and 
allied health professional students enrolled in the state's community 
college system and 6 loans were awarded to community college nursing 
faculty members seeking advanced degrees. The loan recipients must 
commit themselves to a period of service in rural Mississippi upon 
graduation. Project funds provide a portion of the faculty salaries for 
the Mississippi Rural Health Corps. Through health education, skills 
training programs reach youth, parents of young children, adults with 
chronic diseases, and elder caregivers. Annually, the health education 
programs reach 60,000 families. Youth have improved their decision 
making skills related to health issues and adults have learned how to 
deal effectively with emergencies and practice family safety. The Corps 
has facilitated the formation of more than 30 community-based health 
care coalitions.
    Two newer additions to the Mississippi program include the Rural 
Medical Scholars and the Rural Health Explorers programs for youth. The 
Rural Medical Scholars program works with high school students who have 
an interest in being physicians in rural Mississippi. Students 
participated in a 6-week residential experience at Mississippi State 
University. The students completed two pre-med courses, ``shadowed'' 
physicians, and attended a lecture series for aspiring physicians.
    The Scholars program has been expanded to include a Rural Health 
Explorers component for high school students with a more general 
interest in health care careers. The Explorers take one course, either 
anatomy or physiology, tour hospitals, interact with health care 
professionals, and talk with community college representatives about 
academic requirements for health care careers.
    In Louisiana, the Nurse Managed Family Health Care Center served 
400 Headstart students. In addition, 250 clients received health 
screening, health teaching, follow-up and referral services.
    This program provides clinical settings for faculty and students. 
In this setting, research is generated and students and faculty can 
test nursing theories and models of practice. This project has strived 
to develop culturally appropriate educational materials and delivery 
methods. Graduates of the nursing program are better prepared to work 
with vulnerable population groups and function effectively in a variety 
of rural and inner-city settings.
Funds Distribution
    The Rural Health and Safety Education Extension Program is funded 
at $2,517,329 for fiscal year 2001. The Mississippi Rural Health 
Corps--Mississippi State University Extension Service--program receives 
about $2.1 million of the total. Funds under this project will be used 
for salaries/wages, fringe benefits, college scholarships/loans, the 
Rural Medical Scholars program, the Rural Health Explorers program, the 
Community College Network, and administrative costs such as equipment, 
materials and supplies, travel, and publication/printing costs.
    The Southern University and A & M College Nurse Managed Family 
Health Care Center program receives about $0.4 million. Funds under 
this project will be used for salaries/wages, fringe benefits, 
equipment, materials and supplies, travel, and publication/printing 
costs. Both projects show 100 percent match with non-Federal funds.
    Question. With each case of food borne illness costing $1,300 in 
medical expenditures and lost productivity it is easy to understand why 
food safety is seen as a top priority for the Cooperative State 
Research, Education, and Extension Service. Please provide a listing of 
the food safety research projects funded through the Special Grants, 
National Research Initiative, Fund for Rural America, and Initiative 
for Future Agriculture and Food Systems programs in each of fiscal 
years 1999, 2000, and 2001. Include a description of the research work 
and the cost of the research project?
    Answer. The Food Safety Program is a competitive and special grant 
program that consists of several components. A list of projects grouped 
by component is provided for the record.
    [The information follows:]

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                   Institute                                                                                    Title                                                                   Amount
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
         SPECIAL RESEARCH GRANTS--1999


Kansas State University.......................  Ecology of E-coli 0157:H7 in Beef Cow-Calf Operations from Ranch Through Feedlot....................................................     198,347
Iowa State University.........................  Operation of Food Irradiator........................................................................................................     187,120
University of Georgia.........................  Alliance for Food Protection........................................................................................................     140,340
The Pennsylvania State University.............  Milk Safety.........................................................................................................................     233,900

         SPECIAL RESEARCH GRANTS--2000


Kansas State University.......................  Ecology of E-coli-0157:H7 in Beef-Cow Operations from Ranch Through Feedlot.........................................................     198,326
University of Georgia.........................  Alliance for Food Protection........................................................................................................     140,325
Iowa State University.........................  Operation of Food Irradiator........................................................................................................     187,100
Pennsylvania State University.................  The Penn State fiscal year 2000 Milk Safety Research Program........................................................................     278,311
University of Alaska-Fairbanks................  Seafood Quality and Safety Program Projects.........................................................................................     327,425

         SPECIAL RESEARCH GRANTS--2001


Cornell University............................  Food Safety Consortium, New York entitled: ``Listeria monocytogenes subtyping database for control of foodborne listeriosis''.......     266,592
Kansas State University.......................  Ecology of E-coli 0157:H7 in Beef-Cow Operations from Ranch Through Feedlot.........................................................     197,871
Iowa State University.........................  Operation of Food Irradiator........................................................................................................     210,004
University of Georgia.........................  Alliance for Food Protection........................................................................................................     140,003
North Dakota State University.................  Intelligent Quality Sensors (IQS) for Safe Food Products............................................................................     132,535
The Pennsylvania State University.............  The Penn State fiscal year 2001 Milk Safety Research Program........................................................................     350,007

      NATIONAL RESEARCH INITIATIVE--1999

Chapman University............................  Irradiation in a Combination Approach to Enhance Vegetable Safety...................................................................     128,000
University of Delaware........................  Recalcitrance of Clostridium perfringens to High Hydrostatic Pressure Processing....................................................      95,000
University of Florida.........................  Are Virulent Strain-Specific DNA Sequences of Vibrio vulnificus Essential for Virulence?............................................     150,000
University of Georgia.........................  Inactivation of Pathogens on Alfalfa Seeds Treatments for Fresh Produce.............................................................     114,319
University of Georgia.........................  Improving Pathogen Decontamination..................................................................................................     185,000
University of Hawaii..........................  Genetic Markers and Pathogenisis Features of Listeria monocytogenes serotype........................................................     220,000
University of Idaho...........................  Identifying Factors that Promote Clearance of E. coli. 0157:H7 from Cattle..........................................................     265,000
Illinois State University.....................  Molecular Mechanisms of Psychrotrophy in Listeria monocytogenes.....................................................................     253,000
Purdue University.............................  Molecular Biology of Fumonisin Biosynthesis in Gibberella fujikuroi.................................................................     100,000
Kansas State University.......................  Ecological Distribution of E. coli. 0157:H7 Strains in Agricultural Environments....................................................     210,000
U.S. Food and Drug Administration.............  Characterization of Multiple Fluoroquinolone Resistance Among Bacterial Pathogens...................................................     157,000
Mississippi State University..................  Detection of Viable Enterohemorrhagic Escherichia coli using Polymerase Chain Reaction and RNA-based Polymerase Chain Reaction......     111,000
University of Nebraska........................  Extrusion Processing as a Means of Reducing Fusarium Mycotoxins in Cereal Foods.....................................................     128,000
Rutgers; The State University of New Jersey...  A Membrane Fluidity Model for Sensitivity of Foodborne Pathogens to Preservatives...................................................     230,405
Cornell University............................  Specific Detection and Typing of Vibrio parahaemolyticus serotype 03:K6.............................................................     110,065
Cornell University............................  Novel Strategies for Determining Thermal Destruction of Mycobacterium paratuberculosis..............................................      87,784
Cornell University............................  Transmission of Listeria monocytogenes in Food Systems..............................................................................     192,000
North Carolina State University...............  Modeling Bacterial Pathogen/Biocontrol Competition with Changing Temperature........................................................     117,369
North Carolina State University...............  A Salmonella-based Vaccine to Prevent E.coli 0157:H7 Infection in Cattle............................................................     200,000
North Carolina State University...............  Characterization of Genes Regulating Aflatoxin Biosynthesis.........................................................................     220,000
The Ohio State University.....................  Development and Validation of Instruments to Evaluate Food Safety Education.........................................................     200,000
University of Rhode Island....................  Optical Biosensor Detection of Food Pathogens Based on Direct Measurement of Antibody/Antigen Binding...............................     180,000
Clemson University............................  Evaluation of Jenseniin G as a Potential Food Preservative..........................................................................      90,000
Virginia Polytechnic Institute & State          Mechanism of Pathogen Survival During Microwave Thermalization......................................................................     123,000
 University.
Washington State University...................  Molecular Characterization of the Campylobacter jejuni Adhesin to Fibronectin.......................................................     195,000
University of California......................  Ecologic Assessment of Salmonella Enteritidis var Typhimurium in a Dairy Milk Shed..................................................     600,000
Colorado State University.....................  New Methods for Risk Analysis of Infectious Animal Diseases Affecting Food Safety...................................................     359,515
University of Georgia.........................  Following Resistant Salmonella Through The Food Chain: A Molecular Ecology Approach.................................................     814,564
University of Illinois........................  Molecular Epidemiology of Salmonella Transmission in Swine Production Systems.......................................................     885,294
Michigan State University.....................  Risk Factors for Samonella and Campylobacter Infections and Drug Resistance in Dairy Cattle.........................................     765,447
University of North Carolina..................  Microbial Contamination of Produce: A Field Study in the Lower Rio Grande...........................................................     416,572
The Ohio State University.....................  Ecology of Antimicrobial Resistance of Enteric Salmonella and E. coli in Cattle Operations..........................................     771,868
The Ohio State University.....................  Dynamics of Campylobacter Transmission on Poultry Farms.............................................................................     384,284
Washington State University...................  Effect on Water Chlorination on Prevalence of E.coli 0157:H7 and Campylobacter in Feedlot Cattle....................................     325,528
University of South Alabama...................  Novel Molecular Approaches to Eradicating E. coli 0157 From the Bovine GI...........................................................     230,810
University of Arizona.........................  Effect of Phagosome Activities on Campylobacter jejuni pathogenesis.................................................................     250,000
University of Arkansas........................  Immunoelectrochemical/Optical Biosenser with a Capillary Bioseparator/Bioreactor for Rapid Detection of Pathogens in Poultry and         130,000
                                                 Meat Products.
University of California......................  Factors Affecting Colonization of Plants By Human Pathogenic Bacteria...............................................................     275,000
University of California......................  DNA Adenine Methylase Mutants of S. typhimurium as Modified Live Vaccines in Calves.................................................     310,000
University of Delaware........................  Mortality Kinetics of Bacterial Populations Exposed to High Pressure................................................................     230,000
University of Florida.........................  Microbiological Safety of Citrus Fruit For Juice Processing.........................................................................     200,000
University of Florida.........................  Phase Variation and Expression of Capsular Polysaccharide in Vibrio vulnificus......................................................     260,000
Iowa State University.........................  Persistent Colonization by E. coli 0157:H7 in Ruminants.............................................................................     185,000
University of Illinois........................  Genetic Determinants of Salmonella in Chickens and Mice.............................................................................     195,000
University of Illinois........................  Sources of Genetic Resistance to Reduce Fumonisin in Corn-based Foods...............................................................     175,000
New England Medical Ctr.......................  The Effect of Antibiotics on Shiga toxin Phage Movement in Ruminants................................................................     240,000
University of Maryland........................  Characterization of Multiple Antibiotic Resistance Among Enterohemorrhagic Escherichia coli.........................................     250,000
University of Maine...........................  A Sensitive, Accurate and Rapid Method for Detection of Foodborne Pathogens.........................................................     180,000
Michigan State University.....................  Incorporating Humidity into Microbial Inactivation Models for Convection Cooking of Meats...........................................     130,000
Michigan State University.....................  Genetics of Zearalenone Biosynthesis and Grain Colonization by Gibberella zeae......................................................     200,000
North Carolina State University...............  RNA Aptamers for Food Safety Diagnostics............................................................................................     145,000
North Dakota State University.................  Safety Food Preservation............................................................................................................      60,000
University of Nebraska........................  Genetics and Ecology of E. coli 0157................................................................................................     215,000
Bowling Green State University................  Identification of Salmonella adhesins for colonization of chickens..................................................................     135,000
University of Tennessee.......................  The Role of Catabolite Repression in Closstridium perfringens Food Poisoning........................................................     240,000
Texas A&M University..........................  Verification of Safe Cooking Endpoints in Beef and Pork by Multiple Antigen ELISA...................................................     150,000
Texas A&M University..........................  Minimizing Salmonella Enteritidis Invasion During Induced Molting...................................................................      79,190
University of Wyoming.........................  LC/MS Equipment Research Enhancement For Department of Veterinary Sciences..........................................................      50,000
University of Illinois........................  Epidemiology and Ecology of Antibiotic Resistance Determinants on Dairy Farms.......................................................   1,391,326
University of Nebraska........................  A Novel Strategy to Test and Monitor Beef Feedlot Food-Safety Control Points........................................................     953,735
New England Medical Center....................  National Pediatric Diarrhea Surveillance Study......................................................................................     937,473
Kansas State University.......................  Epidemiological Aspects of Combining E. coli 0157:H Control Programs and Feedlot Performance........................................     231,483
University of Minnesota.......................  Food-Borne Antibiotic-Resistant and Extraintestinal Pathogenic E. coli..............................................................     542,357

  INITIATIVE FOR FUTURE AGRICULTURE AND FOOD
                 SYSTEMS--2000

University of Georgia.........................  Safe Produce Production Using Manure................................................................................................     560,000
Texas A&M University..........................  Improving the Safety of Fruits and..................................................................................................   4,100,000

   SPECIAL RESEARCH FOOD SAFETY GRANTS 1999
                 (Competitive)

University of Arizona.........................  Role of irrigation water in contamination of Import and Domestic Fresh Food.........................................................     275,000
University of Arkansas........................  An Electrochemical Method to Destroy Pathogenic Bacteria in Brine Chilling Water for Cooked Poultry and Meat Products...............     194,668
University of Arkansas........................  Non-destructive rinse sampling--Immunoblot quantitation of RTE foods for bacterial pathogens........................................     160,000
California Polytechnic State University.......  Processing Parameters and GMPs for Optimal Application of Ozone in Food Processing..................................................     117,648
National Food Processors Association            Quantitation of Listeria monocytogenes In Ready-to-Eat Foods and Risk Assessment....................................................     340,000
 Foundation.
University of Georgia.........................  Validation of jerky processing for Small-Scale and Home Processors..................................................................      92,763
Iowa State University.........................  Characterization of Antimicrobials and Risk Assessment of Listeria monocytogenes on Hot Dogs........................................     275,000
Iowa State University.........................  Real-Time Detection of Fecal and Ingesta Contamination..............................................................................     151,876
Kansas State University.......................  Post-process Pasteurization of Packaged, Ready-to-eat Meat Products for Control of Listeria monocytogenes...........................     124,026
Michigan State University.....................  A time-temperature integrator to validate Salmonella destruction in beef patties....................................................     184,807
University of Minnesota.......................  Control of Calicivirus Contamination of Fresh Fruits and Vegetables in Food Service Establishments..................................     210,000
University of Minnesota.......................  Use of bacteriocins to control food-borne Pathogens in Vegetables...................................................................     157,136
 Nebraska Agricultural Experiment Station.....  CCP Identification and Validation During Poultry Production and Processing..........................................................     249,481
Rutgers University............................  Implication of Manure and Irrigation Water on contamination of Produce in the Field.................................................     188,422
Cornell University............................  Survival of Foodborne Pathogens in Untreated Manure and Manure Applied to Soil......................................................     151,684
North Carolina State University...............  Human Disease Risk from RTE Foods Contaminated by Poor Handling Practices...........................................................     377,503
Oklahoma State University.....................  Lactobacilli to Control Salmonella & E. coli 0157:H7 in Fresh Cut Produce...........................................................      69,619
Clemson University............................  In-package pasteurization and food grade Film Agents for Pathogens on Meat Products.................................................     145,984
Texas A&M University..........................  Contamination During Production of Domestic and Imported Cabbage and Melons.........................................................     263,920
Virginia Polytechnic Institute & State          Surface Sampling and Ultraviolet Light Treatment of Raw Produce.....................................................................     185,575
 University.
University of Wisconsin.......................  Sensitization of E. coli 0157:H7 on Fruits and Vegetables to Halogenated Sanitizers.................................................     149,191
University of Wisconsin.......................  Critical Limits for Land-Spread Manure To Ensure Vegetable Crop Safety..............................................................     163,193
University of Wyoming.........................  Control of Foodborne Pathogens in Minimally Processed Ready-to-Eat Meatproducts.....................................................      88,019

 FOOD SAFETY AND QUALITY NATIONAL INITIATIVE--
                     1999

American Samoa Community College..............  Expanding Food Safety Education in American Samoa...................................................................................      30,000
Auburn University.............................  Food Safety Education for 4-H Groups in Alabama.....................................................................................      30,000
Alabama A&M University........................  Training Food Handlers in Elderly Care Facilities Using HACCP.......................................................................      30,000
Tuskegee University...........................  Church-Based Food Safety Education for Rural African American Youth.................................................................      30,000
University of Alaska, Fairbanks...............  FSQ-POW--Telephone Outreach and Publication Development.............................................................................      30,000
University of Arkansas........................  Safe at the Plate-Food Safety Programs for Arkansas.................................................................................      30,000
University of Arkansas at Pine Bluff..........  HACCP/Safe Food Capacity Building Project...........................................................................................      30,000
University of Arizona.........................  Safe Food 2000--Food Safety and Quality.............................................................................................      30,000
University of California......................  Developing Food Safety Ed. Programs Sanitation & Food Handler Training..............................................................      30,000
The University of California..................  Food Animal Residue Avoidance Databank (FARAD)......................................................................................     200,000
Colorado State University.....................  Colorado Food Safety and Quality Education Program..................................................................................      30,000
University of Connecticut.....................  1999 Food Safety POW Projects.......................................................................................................      30,000
Delaware State College........................  Enhancing Seafood Safety and Quality in Delaware....................................................................................      30,000
University of Delaware........................  Food Safety Education of Youth and Foodservice Employees............................................................................      30,000
University of the District of Columbia........  DC Coalition for Food Safety Education..............................................................................................      30,000
University of Florida.........................  The Florida Food Safety and Quality Plan of Work....................................................................................      30,000
University of Florida.........................  Food Animal Residue Avoidance Databank (FARAD)......................................................................................     100,000
Florida A&M University........................  A Food Safety Education Program for Florida Consumers...............................................................................      30,000
Fort Valley State.............................  Peach County Food Safety Education and Training Program.............................................................................      30,000
University of Georgia.........................  Food Safety and Quality Plan of Work................................................................................................      30,000
University of Hawaii..........................  Improving Food Safety and Quality Through Ed. Prgms. & Technology...................................................................      30,000
University of Idaho...........................  Food Safety Education for Idaho Consumers...........................................................................................      30,000
University of Illinois........................  Cooking Meat Safe Program...........................................................................................................      30,000
Purdue University.............................  Maximizing the Effectiveness of Food Safety Training in Indiana.....................................................................      30,000
Iowa State University.........................  Web-Based Food Safety & HACCP Ed. for Foodservice Operators.........................................................................      30,000
Kansas State University.......................  Kansas Food Safety Plan of Work Projects............................................................................................      30,000
University of Kentucky........................  Statewide Food Safety Campaign From Farm to Table...................................................................................      30,000
Louisiana State University....................  Food Safety and Quality Plan of Work Project........................................................................................      30,000
Southern University and A&M College...........  In-Service Food Safety & Quality Training for Ext. Field Staff & Volunteers.........................................................      30,000
University of Maine...........................  Food Safety POW Ed./Resources-Maine (Food Safety Power/Maine).......................................................................      30,000
University of Maryland........................  A Food Safety Mgmt. Program--Processors, Food Handlers, & Educators.................................................................      30,000
University of Massachusetts...................  Food Safety Educ.: Solving Problems through Practice & Partnership..................................................................      30,000
Michigan State University.....................  Food Safety Education for Consumers and Food Professionals..........................................................................      30,000
College of Micronesia.........................  Reduction of Food-Borne Illness in Palau............................................................................................      30,000
University of Minnesota.......................  Minnesota Food Safety Plan of Work..................................................................................................      30,000
Mississippi State University..................  Food Safety Certification for Permitted Food Service Establishments.................................................................      30,000
University of Missouri........................  Missouri Outreach Plan of Work 1999-2000............................................................................................      30,000
Lincoln University............................  FS&Q POW Proposal--Food Safety and You..............................................................................................      30,000
Montana State University......................  Montana's Food Safety Education in Training.........................................................................................      40,000
University of Nebraska........................  Enhancing HACCP Implementation in Nebraska Food Systems.............................................................................      30,000
University of Nevada..........................  Food Safety Self-Study Module.......................................................................................................      30,000
University of New Hampshire...................  New Hampshire Food Safety Programs--From Farm to Table..............................................................................      30,000
Rutgers University............................  The Development of a Good Agricultural Practices Training Program...................................................................      30,000
New Mexico State University...................  HACCP & Food Safety Ed. for Restaurant Managers & Employees.........................................................................      30,000
Cornell University............................  Providing Safe Food for the Homeless and Destitute..................................................................................      30,000
North Carolina A&T State University...........  North Carolina Food Safety Education Program for the Youth..........................................................................      30,000
North Carolina State University...............  Communicating Food Safety Concepts..................................................................................................      30,000
North Carolina State University...............  Food Animal Residue Avoidance Databank (FARAD)......................................................................................     200,000
North Dakota State University.................  Food Safety Education for North Dakota Handlers.....................................................................................      30,000
Northern Marianas College.....................  Handle the Safe Way.................................................................................................................      30,000
Ohio State University.........................  HACCP-Based Food Handler Training for Ohio..........................................................................................      30,000
Oklahoma State University.....................  Food Safety and Quality Plan of Work Project........................................................................................      30,000
Oregon State University.......................  Oregon Plan for Promoting Food Safety...............................................................................................      30,000
Pennsylvania State University.................  Enhancing the Safety of the Pennsylvania Food System................................................................................      30,000
University of Puerto Rico.....................  Food Safety and HACCP Education.....................................................................................................      30,000
University of Rhode Island....................  Food Safety Education Program.......................................................................................................      30,000
Clemson University............................  Continuation of Food Safety Education in South Carolina.............................................................................      30,000
South Carolina State University...............  Reducing Foodborne Illness Among the Elderly and Farmers............................................................................      30,000
South Dakota State University.................  Applied Food Safety Ed. Programs for Middle & High School Youth.....................................................................      40,000
University of Tennessee.......................  HACCP Training for Food Svc. & Train the Trainer for County Faculty.................................................................      30,000
Texas A&M University..........................  Reaching the Foodservice Industry & Youth with Food Safety Education................................................................      30,000
Prairie View A&M University...................  Reduction of Food-Borne Illness.....................................................................................................      30,000
Utah State University.........................  Plan of Work for Food Safety in Utah: Farm to Table.................................................................................      30,000
University of Vermont.........................  Food Safety Vermont, 2000...........................................................................................................      30,000
VPI & State University........................  Food Safety For Farmers, Processors, Distrs., Consumers & Inspectors................................................................      30,000
Washington State University...................  Food Safety Education in Washington State...........................................................................................      30,000
West Virginia University......................  Food Safety in West Virginia........................................................................................................      30,000
University of Wisconsin.......................  Food Safety Ed. & Training for Small-Farm Apple Processing Industry.................................................................      30,000
University of Wyoming.........................  Food Safety and Quality Plan of Work Project........................................................................................      30,000

 NATIONAL INTEGRATED FOOD SAFETY INITIATIVE--
                     2000

University of Alaska-Fairbanks................  Simplifying HACCP: An Interactive Software Prgm. for CCP Analysis of Recipes........................................................      50,000
Auburn University.............................  Ethnic/Cultural Food Safety/Preservation Training Program S.D. Tribal Colleges......................................................     100,000
Tuskegee University...........................  An Education and Outreach Center on Food Safety for Small Processors................................................................     100,000
University of Arkansas........................  Operation Food Safety--Arkansas Public Schools......................................................................................      49,483
University of Arizona.........................  HACCP for Small and Very Small Meat and Poultry Processors in Arizona...............................................................      99,988
University of California......................  California Small Farm Food Safety Project...........................................................................................     181,291
Colorado State University.....................  Food Safety Works: A Certificate Training Program for Welfare to Work...............................................................      53,966
University of Connecticut.....................  Food Handler Education and Training for Hispanic Consumers and Youth................................................................     100,000
University of Connecticut.....................  Food Safety Distance Education and Training.........................................................................................      59,902
University of the District of Columbia........  Food Handler Education for Small Non-Commercial Service Agencies....................................................................      60,000
University of Florida.........................  A National Science and Education Conference: Toward Implementing the ``Guide to Minimize Hazards on Fresh Fruits''..................      39,500
University of Florida.........................  National Food Safety Database for Food Safety Information and Program Evaluation....................................................      52,500
University of Georgia.........................  National Center for Home Food Preservation..........................................................................................     280,000
University of Georgia.........................  Food Handler Education for Consumers and Youth Using Fight Bac! Video Curricula.....................................................     248,911
University of Illinois........................  Partnership for Food Safety Certification Over the Worldwide Web....................................................................      59,330
Purdue University.............................  Food Safety Education for High-Risk Audiences: Prenatal to Preschool................................................................     100,000
Iowa State University.........................  Web-Based Reporting System: Indicator Facilitation for Food Safety & Quality Program................................................      40,000
Kansas State University.......................  Veterinarian HACCP Training Program for Reducing ON-Farm Foodborne Pathogens........................................................      59,811
Kansas State University.......................  Food-A-Syst for Food Producers and Home Food Preparers..............................................................................     100,000
University of Kentucky........................  Development of Comprehensive HACCP Technical Support System.........................................................................     135,000
Southern Univ. and A&M College................  Circle of Food Safety for Children, Families, and Communities.......................................................................      60,000
Michigan State University.....................  HACCP Curriculum for Bay Mills Community College....................................................................................      50,000
Michigan State University.....................  Fresh Juice HACCP Alliance and Train-the-Trainer Program............................................................................     109,090
Michigan State University.....................  Food Handler Educational Training for Consumers and Youth in Poultry Areas..........................................................      99,850
College of Micronesia.........................  Reducing Waterborne Disease in the Marshalls........................................................................................      24,390
University of Minnesota.......................  Woodlands Wisdom: Holistic Approach to Food Safety Education........................................................................      99,980
University of Minnesota.......................  Preserving Food Safety..............................................................................................................       9,865
University of Minnesota.......................  Keep It Hot, Keep It Cold...........................................................................................................      21,767
Alcorn State University.......................  Establish a Food Safety/Quality Assurance Prgm. for Small-Scale Farmers & Cooperatives in Mississippi...............................      88,200
Lincoln University............................  Fresh Fruit and Vegetable Safety for Small Missouri Farms...........................................................................      87,376
University of Nebraska........................  Food Safety and Limited Resources Management Collaborative Education Program........................................................      57,106
University of Nebraska........................  HACCP Implementation/Mgmt. for Small Meat & Food Processors in 4 Midwest States.....................................................     200,000
New Mexico State University...................  Trilingual (Navajo, Spanish and English) Games and Interactive Activities for Fight Bac! Outreach to Hard-to-Reach..................     100,000
New Mexico State University...................  Navajo Food Safety--Pesticide Safety, Integrated Pest Mgmt. & Livestock Quality.....................................................      94,130
Cornell University............................  An Internet Based Distance Education Seafood HACCP Alliance Training Program........................................................      51,378
Cornell University............................  Reducing Microbial Risks in Fruits/Vegetables with Good Agricultural Practices in US................................................     731,481
North Carolina State University...............  Development of Food Safety Educ. Prgm. for Congregate Nutrition Site Participants...................................................      23,811
Ohio State University.........................  A HAACP-Based Plan for Ensuring Food Safety in Distribution, Shipping, and Retail Establishments....................................     119,650
Ohio State University.........................  Program Indicators and a Web-Based Reporting System for the FSQ Initiative..........................................................      75,960
Oregon State University.......................  Development and Delivery of HACCP Models for the Vegetable Sprout Industry..........................................................      97,599
Oregon State University.......................  Native American Storytelling Teaches Food Safety in Oregon and Alaska...............................................................      86,287
University of Tennessee.......................  Web-Based Food Safety Training to Vocational High School Teachers...................................................................      52,693
Tennessee State University....................  Are They Effective for African American? Food Safety Messages.......................................................................      59,950
Texas A&M University..........................  System Food Safety Education for Retail Employees...................................................................................      53,626
Virginia Polytechnic Institute and State        Train-the-Trainer in SQF 2000: An Integrated HACCP Program..........................................................................     100,000
 University.
Washington State University...................  HACCP Training and Development for the Lopez Island Food Processing Center..........................................................       8,992
West Virginia University......................  Unsafe Temperatures in Home Refrigerators...........................................................................................      19,000
University of Wisconsin.......................  Linking Food Safety to Farm-A-Syst/IPM to Reduce Microbial/Pesticide Risks in Apples................................................     150,000
University of Wisconsin.......................  A National Risk Assessment Tool for Consumer Food Safety............................................................................     100,000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                              usda epscor
    Question. Please provide a chart listing, by state, the number of 
proposals submitted to each of the USDA EPSCoR award areas, and the 
number of those proposals which received funding for each of the past 
three fiscal years.
    Answer. A list of EPSCoR awards by state is provided under the 
National Research Initiative Competitive Grants Program--NRICGP.
    [The information follows:]

                                         NRICGP STRENGTHENING STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                        1998                  1999                  2000
                                               -----------------------------------------------------------------
                                                Proposals    Awards   Proposals    Awards   Proposals    Awards
----------------------------------------------------------------------------------------------------------------
AK:
    Sabbatical................................          0          0          O          0          0          0
    Equipment.................................          0          0          0          0          0          0
    Seed......................................          0          0          2          0          1          1
    Standard..................................          1          0          1          1          1          0
AL:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          1          1          3          3          0          0
    Seed......................................          4          1          1          0          1          1
    Standard..................................          4          0          4          0          1          1
AR:
    Sabbatical................................          1          0          0          0          0          0
    Equipment.................................          3          1          3          0          2          1
    Seed......................................          3          3          5          1          6          0
    Standard..................................         12          3         12          2         16          6
CA:
    Sabbatical................................          1          1          0          0          0          0
    Equipment.................................          2          1          2          0          0          0
    Seed......................................          1          1          0          0          0          0
    Standard..................................          4          1         10          7          1          0
CO:
    Sabbatical................................          0          0          1          1          0          0
    Equipment.................................          0          0          0          0          0          0
    Seed......................................          1          1          0          0          0          0
    Standard..................................          1          0          3          0          3          2
CT:
    Sabbatical................................          1          1          0          0          0          0
    Equipment.................................          0          0          2          2          1          0
    Seed......................................          3          0          4          4          2          2
    Standard..................................         15          4          7          4          7          1
DC:
    Sabbatical................................          0          0          0          0          1          1
    Equipment.................................          0          0          0          0          0          0
    Seed......................................          0          0          0          0          0          0
    Standard..................................          2          0          1          1          1          1
DE:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          1          0          1          1          1          1
    Seed......................................          4          2          3          0          4          1
    Standard..................................          7          1          8          4          3          1
FL:
    Sabbatical................................          1          1          0          0          0          0
    Equipment.................................          0          0          1          0          0          0
    Seed......................................          3          0          1          0          0          0
    Standard..................................          2          0          2          0          2          0
GA:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          1          1          2          0          1          1
    Seed......................................          2          0          2          0          2          2
    Standard..................................          0          0          3          1          3          1
HI:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          1          1          2          1          2          2
    Seed......................................          2          0          5          0          3          2
    Standard..................................          4          1          5          4          4          1
IA:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          0          0          0          0
    Seed......................................          2          0          3          1          1          1
    Standard..................................          0          0          1          0          0          0
ID:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          3          2          3          3          1          1
    Seed......................................          3          1          0          0          2          1
    Standard..................................         10          6         10          4          5          2
IN:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          0          0          0          0
    Seed......................................          O          0          2          0          1          0
    Standard..................................          0          0          0          0          0          0
IL:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          6          3          1          1
    Seed......................................          1          0          0          0          1          0
    Standard..................................          1          0          2          0          1          0
KS:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          3          1          0          0          0          0
    Seed......................................          0          0          1          0          0          0
    Standard..................................          0          0          1          1          1          0
KY:
    Sabbatical................................          0          0          0          0          1          1
    Equipment.................................          2          0          0          0          1          1
    Seed......................................          0          0          0          0          3          2
    Standard..................................          0          0          3          0         15          6
LA:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          0          0          1          0
    Seed......................................          1          0          2          0          0          0
    Standard..................................          2          0          2          0          1          0
MA:
    Sabbatical................................          1          1          0          0          1          0
    Equipment.................................          0          0          0          0          0          0
    Seed......................................          1          0          2          0          1          1
    Standard..................................          0          0          3          1          4          0
MD:
    Sabbatical................................          0          0          1          0          0          0
    Equipment.................................          1          1          0          0          0          0
    Seed......................................          1          0          1          0          1          0
    Standard..................................          2          1          2          0          1          0
ME:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          1          1          1          1
    Seed......................................          5          2          4          2          1          0
    Standard..................................          0          0         12          4          7          3
MI:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          2          0          0          0
    Seed......................................          1          1          1          0          1          0
    Standard..................................          1          0          3          1          1          0
MN:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          1          1          1          0          0          0
    Seed......................................          3          0          1          0          0          0
    Standard..................................          0          0          2          0          2          0
MO:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          1          1          1          0          0          0
    Seed......................................          3          1          2          1          1          0
    Standard..................................          0          0          2          2          2          0
MP:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          1          1          0          0          0          0
    Seed......................................          1          0          0          0          0          0
    Standard..................................          1          0          0          0          0          0
MS:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          2          1          4          4          1          1
    Seed......................................         10          2          8          2          3          1
    Standard..................................          9          1          7          2          5          1
MT:
    Sabbatical................................          2          2          0          0          0          0
    Equipment.................................          1          1          4          2          5          4
    Seed......................................          7          4          4          3          7          5
    Standard..................................          8          0          5          3         10          4
NC:
    Sabbatical................................          1          0          1          1          0          0
    Equipment.................................          1          1          0          0          0          0
    Seed......................................          3          2          7          3          2          0
    Standard..................................          2          0          2          1          2          0
ND:
    Sabbatical................................          1          0          0          0          0          0
    Equipment.................................          5          0          6          2          3          2
    Seed......................................          5          3          6          2          3          0
    Standard..................................          7          2          7          1          9          3
NE:
    Sabbatical................................          0          0          0          0  .........  .........
    Equipment.................................          0          0          0          0  .........  .........
    Seed......................................          1          0          0          0  .........  .........
    Standard..................................          1          1          1          0          1          0
NH:
    Sabbatical................................          0          0          0          0          1          1
    Equipment.................................          2          2          3          1          0          0
    Seed......................................          5          2          4          1          0          0
    Standard..................................          3          3          3          2          5          3
NJ:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          0          0          2          0
    Seed......................................          0          0          2          0          0          0
    Standard..................................          0          O          0          0  .........  .........
NM:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          1          0          1          1
    Seed......................................          0          0          2          1          2          1
    Standard..................................          2          0          1          0          1          1
NV:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          2          1          0          0          0          0
    Seed......................................          0          0          1          1          1          1
    Standard..................................          3          2          6          1          5          1
NY:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          1          1          1          1
    Seed......................................          4          0          7          3          5          1
    Standard..................................          6          3          4          3          1          0
OH:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          2          0          0          0
    Seed......................................          2          0          3          0          2          1
    Standard..................................          1          0          2          0          1          0
OK:
    Sabbatical................................          0          0          1          0          0          0
    Equipment.................................          1          1          5          3          1          0
    Seed......................................          0          0          1          0          0          0
    Standard..................................          0          0          0          0          0          0
OR:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          1          0          0          0          1          1
    Seed......................................          1          0          1          1          0          0
    Standard..................................          0          0          0          0          0          0
PA:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          1          0          1          1
    Seed......................................          4          2          2          O          2          0
    Standard..................................          3          1          3          0          2          1
PR:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          0          0          1          1
    Seed......................................          0          0          2          0          1          0
    Standard..................................          1          0          0          0          1          0
RI:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          4          3          6          4          2          2
    Seed......................................          5          2          1          0          2          2
    Standard..................................          4          1          5          3          4          0
SC:
    Sabbatical................................          1          1          0          0          0          0
    Equipment.................................          4          2          2          2          1          0
    Seed......................................          9          2          9          5          3          0
    Standard..................................         17          1          8          3         11          1
SD:
    Sabbatical................................          1          1          1          1          0          0
    Equipment.................................          3          2          6          2          5          3
    Seed......................................          6          1         10          2          5          2
    Standard..................................         12          1          9          1         10          3
TN:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          7          4          1          1
    Seed......................................          5          0          2          1          1          0
    Standard..................................          3          2          1          1          1          0
TX:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          1          1          1          0
    Seed......................................          4          0          3          1          2          0
    Standard..................................          2          0          0          0          5          3
UT:
    Sabbatical................................          0          0          2          1          0          0
    Equipment.................................          1          1          2          2          0          0
    Seed......................................          4          1          5          2          0          0
    Standard..................................          7          1         12          3          0          0
VA:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          0          0          0          0
    Seed......................................          1          0          0          0          0          0
    Standard..................................          0          0          2          0          2          0
VI:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          0          0          0          0          0          0
    Seed......................................          1          0          0          0          0          0
    Standard..................................          0          0          0          0          0          0
VT:
    Sabbatical................................          1          1          0          0          0          0
    Equipment.................................          1          1          0          1          1          1
    Seed......................................          4          2          4          2          2          2
    Standard..................................          2          0          6          3          3          2
WA:
    Sabbatical................................          0          0          0          0          0          0
    Equipment.................................          2          1          1          1          1          1
    Seed......................................          0          0          0          0          0          0
    Standard..................................          0          0          0          0          0          0
WI:
    Sabbatical................................          1          0          0          0          0          0
    Equipment.................................          0          0          0          0          1          0
    Seed......................................          2          0          3          0          2          1
    Standard..................................          0          0          3          1          2          1
WV:
    Sabbatical................................          0          0          1          0          0          0
    Equipment.................................          0          0          3          1          2          2
    Seed......................................          4          1          6          2          3          1
    Standard..................................          8          3          3          3          0          0
WY:
    Sabbatical................................          1          0          1          1          0          0
    Equipment.................................          1          0          1          0          5          3
    Seed......................................          2          0          1          1          4          2
    Standard..................................          3          1          1          1          9          3
----------------------------------------------------------------------------------------------------------------

                       economic research service
    Question. In the President's budget an increase is requested to 
continue the retail meat purchase price reporting system in which a 
large portion of the increase is for data purchase from retailers. How 
do you plan on protecting the confidentiality of the retailers that the 
information is being purchased from?
    Answer. Ensuring data confidentiality has been an important goal 
from the start of the project to collect retail scanner data. In order 
to reassure stores about the confidentiality of this process, the 
initial data collection and processing will be handled by a third-party 
contractor. Many stores now sell scanner data to market information 
firms who process the data and re-sell statistics to food and package-
good manufacturing firms. This contractor will provide us with summary 
statistics, not individual store data. There will be no way to identify 
firm-level information from the data received from the third-party 
contractor. Information will be further analyzed and summarized before 
it is posted to the ERS website for public consumption.
    Question. Can you elaborate on the development of additional 
information regarding retail price measurements and price transmissions 
between retail, wholesale, and the farm level.
    Answer. The Mandatory Livestock Price Reporting Act of 1999 
requires USDA to provide better information on the average prices paid 
for cuts of meat and the sales volume moving through grocery stores. 
Currently, the only public source of retail food prices is the Bureau 
of Labor Statistics (BLS). This information is limited and the efforts 
of the Economic Research Service will provide better price information 
on retail meats. According to ERS, the price reporting system will 
significantly improve the quality of price measurement at the retail 
level. We will know more about price transmissions from wholesalers to 
grocery stores, but at this point efforts are not focused on improving 
price data from the farm to wholesale level. Early research on price 
transmission should identify whether the new retail price data shows a 
different pattern of price adjustment than retail prices calculated 
using BLS procedures.
    The present data-collection systems do a poor job of tracking meat 
products once they leave the wholesale level. Currently, we do not know 
how much meat goes to retail grocery stores versus other areas, such as 
food service or exports. According to ERS, the new process of using 
grocery store scanner data is designed to better capture the average 
price that consumers pay for meat cuts. For instance, BLS prices are 
recorded as of a particular point in time and no adjustments are made 
to prices for a variety of consumer discounts, which are captured 
through scanner data. Also, price data collected by BLS is not 
associated with quantities sold. Not only will the scanner data provide 
better data on meat prices, it will provide data on the weight and type 
of cuts of meat. Thus, the new process will weight the prices by sales 
volume. Consumers are likely to buy less of a product when its price is 
high than when it is low. We expect that the average price paid for 
meat cuts will be lower using this method than the average price 
reported by BLS for meat cuts.
    Question. Do you foresee any shortfalls in the implementation of 
this program if new funds are not provided.
    Answer. Without new funding, we would be unable to purchase data 
and improvements to price reporting would be limited. The kind of data 
required to improve price reporting as intended by the Mandatory Price 
Reporting Act is available only from commercial sources. Commercial 
purchase of data on retail prices and quantities of variable weight 
meat products will be the largest part of the annual expenses--
approximately $1 million per year.
    Question. For the past three years the Economic Research Service 
(ERS) has been given the responsibility to manage the research program 
for the nation's food assistance programs. With a $3 million decrease 
in funds proposed in the fiscal year 2002 budget, how will this affect 
the ongoing research programs carried out by ERS and how will it affect 
full-time equivalent (FTE) personnel requirements?
    Answer. The President's budget for fiscal 2002 proposes to split 
the research funds with the Food and Nutrition Service (FNS) so that 
FNS can undertake necessary short-term programmatic information 
collections, policy studies and budget analyses. FNS studies are highly 
targeted and typically address a narrow program or policy related issue 
that are best handled by the program agency. This change will not 
affect ERS staffing because those researchers who would have been 
monitoring outside contracts will be redirected to high priority 
internally conducted research.
    Question. Will there be a need to improve coordination between the 
Economic Research Service and the Food and Nutrition Service given the 
proposed sharing of research program monies?
    Answer. While there will continue to be a need to closely 
coordinate research between the two agencies, we anticipate that this 
split will actually reduce the especially high degree of coordination 
needed for the short-term, highly programmatic studies that are 
currently being directed by the Economic Research Service.
    Question. How does ERS prioritize the research projects it conducts 
for other USDA agencies and other organizations with the agency's 
normal workload?
    Answer. In developing its research program, ERS attempts to 
anticipate the program and policy issues that USDA agencies will likely 
have to confront in the near future. ERS also seeks input from a broad 
constituency of policy officials, researchers, practitioners, 
advocates, industry groups, and service providers, and hosts a series 
of round-table discussions with representatives of these constituents 
to identify crucial research and policy information needs.
     Question. What are the research priority areas for fiscal year 
2002?
    Answer. In general, ERS priorities include, among others, improving 
our understanding of the effects of trade agreements on agricultural 
markets, improving the effectiveness of polices designed to ensure a 
safe food supply, assessing the impacts of alternative farm production 
management systems and analyzing market trends for genetically modified 
crops. I will have ERS supply more specific information for the record.
    [The information follows:]
    Assessing the adaptation of the U.S. food and agricultural sector 
to changing market structure and post-WTO and post-NAFTA trade 
conditions. This includes analyzing factors that drive change in the 
structure and performance of domestic and global food and agriculture 
markets, and analyzing how global environmental change, international 
trade agreements, and foreign trade restrictions affect U.S. 
agricultural production, exports, imports, and income. A critical 
component of analysis of the implications of rapid structural change in 
food and agricultural markets is the ERS request for funding to improve 
the price reporting of meat products.
    Building the analytical and empirical base for improving the 
efficiency and effectiveness of public policies and programs designed 
to protect consumers from unsafe food. This includes analyzing the 
benefits of safer food, such as reducing direct medical costs and 
indirect costs associated with productivity losses from foodborne 
illnesses caused by microbial pathogens, and estimating the costs of 
alternative food safety policies.
    Analyzing factors affecting dietary changes and trends in America's 
eating habits, including impacts on agricultural producers and the 
structure of the food industry, and providing economic evaluations of 
nutrition and food assistance programs, such as factors determining 
changes in Food Stamp program participation. The three research 
emphases for food assistance and nutrition studies conducted under the 
Food Assistance and Nutrition Research Program (FANRP) are diet and 
nutrition outcomes, food program targeting and delivery, and program 
dynamics and administration.
    Assessing the profitability and environmental impacts of 
alternative farm production management systems, including the cost-
effectiveness and equity dimensions of public sector conservation 
policies and programs. ERS is also putting increased priority on 
understanding and analyzing trends in adoption of genetically modified 
crops and the emergence of markets for both genetically modified and 
non-genetically modified commodities.
    Identifying how investments, technology, employment opportunities 
and job training, Federal policies, and demographic trends affect rural 
America's capacity to prosper in the global marketplace. This includes 
analysis of rural financial markets and how the availability of Federal 
credit, public spending, taxes, and regulations influence rural 
economic development.
    Conducting the economic analysis required to support litigation of 
the Pigford Consent Decree which is from a class action lawsuit that 
alleges racial discrimination of USDA farm loan and benefit programs. 
ERS' role, for which it is requesting an increase of 600,000 is to 
generate an objective estimate of economic damages in each particular 
case using a consistent, understandable, and defensible methodology 
that is based on standardized farm accounting procedures.
    Question. How much ERS research is conducted in-house and how much 
is contracted out?
    Answer. The ERS research program is predominantly an in-house 
program supplemented with a number of small cooperative agreements with 
land-grant university researchers, with the exception of the food 
assistance research program. Currently, about 80 percent of the food 
assistance research is conducted outside the agency and 20 percent is 
conducted in-house.
                          agriculture research
    Question. What is the specific program rationale for terminating 
the following research projects being carried out by the Agricultural 
Research Service?

Bioinformatics................................................  $474,000
Biobased technology...........................................   284,000
Biomass-based energy..........................................   900,000
Citrus canker................................................. 4,740,000
Citrus tristeza...............................................   740,000
Exotic pest diseases.......................................... 1,247,000
Pierce's Disease.............................................. 1,896,000
Avian Leukosis--J Virus.......................................   250,000
Fusarium Head Blight..........................................   798,200

    The Committee notes that these research initiatives are budgeted 
also as increases in the fiscal year 2002 request.
    Answer. The first seven items on the list are Special Research 
Grants funded under CSREES. No funding is proposed for these Special 
Research Grants in the fiscal year 2002 Cooperative State Research, 
Education, and Extension Service budget request. This action is 
consistent with the Administration's belief that the most effective use 
of taxpayer dollars is through competitively-awarded, peer-reviewed 
grants that meet National goals. Alternate funding from formula 
programs, State and local governments, and private sources could be 
used to support aspects of this program deemed to be of a priority at 
State and/or local levels.
    The last two items on the list are Agricultural Research Service 
projects. A Congressional program increase of $249,450 for research on 
avian leukosis J virus (an emerging virus infection that causes cancer-
like-disease and production problems in chickens) was approved in 
fiscal year 2001. This increase was not included in the President's 
Budget for fiscal year 2002. Plans are to use available resources on 
research issues of higher national priority. ARS does, however, have an 
ongoing research program on avian retroviruses including avian leukosis 
J virus at the ARS Avian Diseases and Oncology Laboratory in East 
Lansing, Michigan. This ongoing research program will continue to 
provide necessary research information that will help the poultry 
industry in their efforts to control this important disease.
    A Congressional program increase of $798,200 for research on 
Fusarium Head Blight was approved in fiscal year 2001. This increase 
was not included in the President's Budget for fiscal year 2002. Plans 
are to use these available resources on research issues of higher 
national priority.
    Question. What is the status of each of the ARS projects funded for 
fiscal year 2001? In many cases, ARS is to hire scientists to implement 
the research required under the Act. By project, what is the status of 
hiring new scientists?
    Answer. ARS plans to hire approximately 100 additional scientists 
in order to implement increases provided in 2001 for budget initiatives 
and new projects established by Congress. The status of new ARS 
scientists being hired due to all fiscal year 2001 increases is 
provided for the record.
    [The information follows:]

                                             STATUS OF SY RECRUITMENT
                                           [Fiscal Year 2001 Increase]
----------------------------------------------------------------------------------------------------------------
             Location                             Job title                          Recruitment status
----------------------------------------------------------------------------------------------------------------
Ithaca, NY.......................  Cat 4 Bioinformatics..................  Certificate issued 5/8/01.
Leetown, WV......................  Research Geneticist (Animal)..........  Vacancy announcement closed 3/20/01.
Wyndmoor, PA.....................  Chemist/Food Technologist.............  Position description is being
                                                                            finalized; Selection has been made.
Beltsville, MD ANRI/FTSL.........  Microbiologist/Food Technologist......  Vacancy announcement closes 6/11/01.
Beltsville, ANRI/FTSL............  MD Microbiologist/Food Technologist...  Vacancy announcement closes 6/25/01.
Beltsville, MD ANRI/ISL..........  Agricultural Engineer.................  Completed. Filled by internal
                                                                            reassignment Biomed. Eng.
Wyndmoor, PA.....................  Research Chemist......................  Readvertisement closed 4/19/01;
                                                                            Certificate issued 4/24/01.
Beltsville, MD ANRI/AMBL.........  Research Chemist......................  NPS disapproved proposed position
                                                                            Description 5/8/01. Supervisor is
                                                                            Making changes.
Plum Island, NY..................  VMO and Microbiologist................  Tentative effective date of 7/10/01.
                                                                            Microbiologist. Action pending.
Montpellier, France..............  Entomologist..........................  Position description being prepared.
Beltsvillle, MD PSI/CAIBL........  Research Chemist......................  Recruitment action received.
                                                                            Selection made.
Leetown, WV......................  Research Physiologist.................  Certificate issued 4/4/01.
Orono, ME........................  Soil Scientist........................  Certificate issued 4/16/01.
University Park, PA..............  Soil Scientist/Agronomist.............  Recruitment action pending
Frederick, MD....................  Plant Pathologist.....................  Certificate issued 5/7/01.
Kearneysville, WV................  Plant Geneticist/Molecular Biologist/   Certificates issued 4/16/01 and 5/9/
                                    Plant Pathologist.                      01.
Beltsville, MD ANRI/PBSEL........  Research Molecular Biologist..........  Vacancy announcement closed 5/7/01.
Ithaca, NY.......................  Ecologist.............................  Selection effective 2/11/01.
Beltsville, MD Nat'l Arb/F&N.....  Research Agronomist...................  Position moved to the National
                                                                            Arboretum. Supervisor is writing the
                                                                            position description.
Struttgart, AR...................  Research Fishery Biologist............  Certificate issued 4/13/01.
Athens, GA.......................  Veterinary Medical Officer............  Student trainee to be converted
                                                                            (pending graduation)
New Orleans, LA..................  Agricultural Engineer.................  Recruitment action initiated.
Winter Haven, FL.................  Research Chemist......................  Closed 4/9/01; SME reviewing
                                                                            applications.
Auburn, AL.......................  Molecular Biologist/Microbiologist....  Selection made; EOD 6/3/01.
Miami, FL........................  Research Geneticist...................  Selection made; EOD 11/5/00.
Starkville, MS...................  Res. Plant Pathologist/Physiologist...  Selection made; EOD 9/10/01.
Las Cruces, NM...................  Research Textile Technologist.........  Selection made; EOD 4/22/01.
Las Cruces, NM...................  Agricultural Mechanical Engineer......  Certificate issued 3/28/01.
Booneville, AR...................  Research Animal Scientist.............  Drafting vacancy announcement
Athens, GA.......................  Res. Food Tech/Agricultural Engr......  Certificate issued 4/6/01.
Athens, GA.......................  Res. Food Tech/Agricultural Engr......  Announcement closes 5/29/01.
College Station, TX..............  Microbiologist........................  Selection made; EOD 3/11/01.
Athens, GA.......................  Microbiologist........................  Certificate issued 2/26/01;
                                                                            interviews being conducted.
Lubbock, TX......................  Microbiologist........................  Certificate issued 4/13/01.
Athens, GA.......................  Research Physiologist.................  Certificate issued 4/6/01.
Athens, GA.......................  Res. Plant Pathologist/Microbiologist.  Closed 3/26/01; SME reviewing
                                                                            applications.
Little Rock, AR..................  Immunologist..........................  Closed 5/25/01.
Florence, SC.....................  Soil Scientist........................  Selection made; EOD 4/22/01.
Gainesville, FL..................  Research Entomologist.................  Certificate issued 3/30/01.
Auburn, AL.......................  Soil Scientist/Res. Agon./Res. Hydr...  Readvertised; Closed 4/30/01;
                                                                            Certificate issued 5/11/01.
Stoneville, MS...................  Res. Geneticist/Animal Scientist......  Selection made; EOD pending receipt
                                                                            Of PhD in September 2001.
Tifton, GA.......................  Research Plant Pathologist............  Certificate issued 4/5/01.
Las Cruces, NM...................  Rangeland Scientist/Ecologist.........  Closed 5/25/01.
Las Cruces, NM...................  Research Plant Physiologist...........  Closed 5/25/01.
Las Cruces, NM...................  Research Hydrologist..................  Selection made; EOD 5/6/01.
Las Cruces, NM...................  Range Scientist.......................  Selection made, EOD 4/22/01.
Stoneville, MS...................  Research Entomologist.................  Readvertised; closed 6/15/01.
Stoneville, MS...................  Research Geneticist (Plants)..........  Selection made; tentative EOD 8/26/
                                                                            01, pending ad hoc panel.
Stoneville, MS...................  Research Plant Pathologist............  Certificate issued 3/23/01.
Stoneville, MS...................  Research Geneticist (Plants)..........  Certificate issued 3/29/01.
Lubbock, TX......................  Research Plant Physiologist...........  Certificate issued 3/29/01.
Lubbock, TX......................  Soil Scientist/Microbiologist.........  Certificate issued 3/27/01.
MS State, MS.....................  Agronomist............................  Selection made; EOD 6/17/01.
Stoneville, MS...................  Research Biologist (Weed Ecology).....  Certificate issued 4/6/01.
Ft. Pierce, FL...................  Microbiologist/Res. Plant Pathologist.  Closed 6/4/01.
Ames, IA.........................  Veterinary Medical Officer............  Announcement being drafted.
Ames, IA.........................  Microbiologist........................  Recruitment period extended.
Ames, IA.........................  Entomologist..........................  Announcement closed 6/1/01.
Ames, IA.........................  Immunologist..........................  Filled.
Peoria, IL.......................  Genet/Mycotox./Plant Pathologist......  Closed 6/9/01.
Peoria, IL.......................  Biochemist/Molecular Biologist........  Closed 6/15/01.
E. Lansing, MI/Avian Disease       Geneticist............................  Closed 5/18/01.
 (Listed under Headquarters).
W. Lafayette, IN.................  (2) Positions--Crop Production........  No recruitment action initiated.
Madison, WI......................  Soil Scientist........................  Announcement closes 7/2/01.
Madison, WI......................  Chemist...............................  Announcement closed 6/4/01.
Albany, CA.......................  Research Chemist/Res. Entomologist....  Announcement closing date extended to
                                                                            5/14/01.
Albany, CA.......................  Ecologist.............................  Certificate Issued 2/27/01.
Albany, CA.......................  Research Chemist......................  Vacancy announcement sent to target
                                                                            location for clearance before
                                                                            recruitment action initiated.
Albany, CA.......................  Microbiologist........................  Certificate Issued 5/1/01.
Parlier, CA......................  Plant Pathologist.....................  No recruitment action has been
                                                                            initiated.
Parlier, CA......................  (2) Entomologist......................  No recruitment action has been
                                                                            initiated.
Pullman, WA......................  Research Plant Pathologist............  Certificate Issued 4/27/01.
Pullman, WA......................  Veterinary Medical Officer............  Vacancy announcement sent to
                                                                            targetlocation for clearance before
                                                                            recruitment action initiated.
Fresno, CA.......................  Soil Scientist........................  Certificate Issued 3/7/01.
Davis, CA........................  Research Gen./Phy.....................  Announcement closed 6/1/01.
Prosser, WA......................  Research Gen..........................  Certificate Issued 4/9/01.
Aberdeen, ID.....................  Geneticist............................  No recruitment action initiated.
Hilo, HI.........................  Research Horticulturist...............  Announcement closed 4/2/01.
Burns, OR........................  Rangeland Scientist...................  Selection made; EOD 4/8/01.
Pullman, WA......................  Research Plant Pathologist............  Announcement closed 5/7/01.
Clay Center, NE..................  Bioinf./Comp. Spec....................  No recruitment action initiated.
Logan, UT........................  Bee Research..........................  No recruitment action initiated.
Fargo, ND........................  Geneticist............................  Announcement closed 5/21/01.
Fargo, ND........................  Gen./Plant Pathologist................  No recruitment action initiated.
Clay Center,.....................  NE Microbiol./VMO.....................  Certificate Issued 2/21/01.
Ft. Collins, CO..................  Weed Sci./Ecologist...................  Vacancy reannounced. Closed 6/11/01.
Sidney, MT.......................  Entom./Weed Sci.......................  Recruitment pending.
Grand Forks, ND..................  Geneticist............................  No recruitment action initiated.
----------------------------------------------------------------------------------------------------------------

    Question. Describe current research and funding for Foot-and-Mouth 
Disease (FMD). What are your priority research issues? What progress 
has been made to date on each research project?
    Answer. Current ARS research priorities are: 1) development of 
highly specific and rapid diagnostic technology, and 2) development of 
a vaccine that can be deployed in case of an outbreak. The current ARS 
funding for the Foot-and-Mouth Disease research program is $5,230,800. 
ARS has developed and is currently validating a highly specific nucleic 
acid on-site detection technology that allows minimally trained 
personnel using a briefcase-sized device to definitively identify FMD 
virus on the farm within an hour. This on-site technology can also be 
adapted to screen imported carcasses for animals that have been 
previously infected with FMD and also for animals that have been 
vaccinated against the disease. ARS will test two promising vaccine 
candidates. The first is a synthetic peptide vaccine produced by a 
company on Long Island, New York. The technology is based on research 
conducted by ARS scientists at Plum Island Animal Disease Center 
(PIADC) over the past 20 years. The company indicates that this vaccine 
protects swine and has been selling the product in Taiwan and China. 
ARS is currently proposing to work with this company to examine the 
vaccine's protective ability for cattle and sheep and to determine if 
the virus is carried by vaccinated animals that were later exposed to 
infection. This peptide vaccine would be the only readily available 
product should the U.S. urgently need to vaccinate animals with a type 
of virus vaccine not present in the North American Vaccine Bank. The 
second candidate vaccine is an ARS-developed adenovirus vectored 
(genetically engineered) FMD vaccine that has been shown to protect 
swine in laboratory studies. This work will be extended to tests in 
cattle and sheep to determine if all species are protected. These 
vaccines differ in several features and need to be compared for 
efficacy, particularly for their ability to protect under outbreak 
conditions.
    CSREES provides only limited funding for research directly focused 
on the virus itself through the National Research Initiative which must 
go to the ARS facility at Plum Island. In addition, CSREES has funded 
four additional projects related to FMD which are primarily focused on 
economic impacts of the disease and the evaluation of potential 
management response systems that might be employed in the event of an 
outbreak of FMD. Three of these projects are funded through Formula 
Funds--Hatch and Animal Health--and one with funds from the National 
Research Initiative. All of the projects are located at the University 
of California-Davis.
    Question. How are U.S. Foot-and-Mouth Disease research, control and 
eradication activities coordinated with those of Great Britain, Canada 
and others? Have these countries applied the same technologies and 
strategies as would the U.S. under similar circumstances?
    Answer. ARS research supports the regulatory activities of APHIS in 
control and eradication of FMD. ARS also has collaborative research 
with Great Britain and other nations. ARS is developing new rapid 
diagnostic capabilities to test for FMD and is working with Great 
Britain to evaluate the technology. ARS coordinates its vaccine 
research with APHIS priorities for vaccines. ARS conducts collaborative 
research with several nations that have endemic FMD including South 
Africa to develop new vaccines that can be produced in those nations.
    APHIS coordinates its Foot-and-Mouth Disease program with many 
countries. The Agency has provided a support role to Great Britain 
during its most recent outbreak. In general, APHIS coordinates its 
animal health activities with other member countries of the 
International Organization of Epizootics (OIE). The OIE is the 
internationally recognized standard-setting body for diagnostic testing 
and vaccines. Through this organization, APHIS also helps to establish 
international guidelines for surveillance and monitoring. Great Britain 
and other members of the World Trade Organization abide by the 
standards of the OIE.
    In the countries of the Western hemisphere, APHIS actively 
coordinates FMD research, control, and eradication activities. Mexico 
and the U.S. have had a joint commission since 1948, with an APHIS co-
director stationed in Mexico City. APHIS also works closely with Canada 
through the North American Animal Health Committee. The two countries 
do test exercises and perform outbreak scenarios where they recently 
tested their vaccination programs. Mexico, Canada, and the U.S. share 
the North American Vaccine Bank, which contains many prevalent strains 
of FMD ready in the event of an outbreak in any of the three countries.
    Due to the threat of FMD coming overland, APHIS maintains bilateral 
agreements with each country of Central America. In Panama, APHIS 
performs FMD laboratory testing, monitoring, and surveillance 
activities through the US-Panama Cooperative Program for the Prevention 
of Foot-and-Mouth Disease, with the goal of preventing outbreaks from 
coming in from Colombia.
    In South America, where FMD is endemic, APHIS is involved in 
bilateral as well as regional programs to prevent FMD. APHIS has been 
working in Colombia on maintaining a barrier for FMD on the Panama-
Colombia border. The Agency also supports the hemispheric plan, based 
on Bolivia, Brazil, Ecuador, Peru, and Venezuela working together to 
eradicate FMD. Eradicating FMD from the hemisphere would greatly reduce 
the risk of an outbreak in the United States.
    Question. Should the U.S. find FMD within its borders next week, 
how would APHIS and other agencies utilize and deploy existing research 
detection and vaccine technologies? What actions would the U.S. 
implement?
    Answer. If APHIS were to confirm an outbreak of FMD in the United 
States, APHIS would respond according to the Agency's FMD response 
plan. Because specific outbreak situations vary, and each State's 
emergency response capabilities differ, APHIS' FMD response plan is 
designed to be flexible and dynamic. APHIS' FMD response plan taps 
State and Federal resources as available, and allows the Agency's 
animal health expertise and coordination skills to fill any remaining 
gaps. After identification of disease subtype, APHIS would activate the 
FMD vaccine bank, order vaccine doses, and consider using the vaccine 
as a tool in our eradication effort. APHIS would also work with the 
Agricultural Research Service (ARS) to transfer technology from the 
laboratory which has been proven to be useful in our response effort, 
to the field. An example of this technology is the use of rapid 
detection tests.
    Upon the initial confirmation of FMD, APHIS and State officials 
would immediately begin investigating the source and trace all animals 
that may have come into contact with the disease. These officials 
apprise both State and Federal officials on the status of their 
investigation and will also initiate emergency response efforts at the 
State and local level. These measures include notifying State 
agriculture and, if necessary, public health officials of the disease 
detection, securing the biosecurity of the affected site including 
depopulating the whole herd, establishing and maintaining animal 
movement quarantines, and alerting officials in neighboring States.
    APHIS would expect to pay fair market value for all animals, 
products, or articles destroyed as part of an FMD eradication program. 
Additionally, the Agency would pay for certain directly associated 
costs like cleaning and disinfection of affected premises and care and 
feed for vaccinated animals until they are destroyed, should we employ 
that eradication tool. The basic principle is to ensure that owners do 
not have to incur out of pocket costs or suffer the loss of the value 
of their animals. The policy would cover animals, products, or articles 
we must destroy regardless of where we find them.
    Question. Your budget recommends an increase of $5 million for 
Bovine Spongiform Encephalopathy (BSE), or ``Mad Cow Disease'' which, 
to date, has had a devastating impact on Great Britain and Europe. Have 
USDA scientists been engaged in research collaboration with these 
countries concerning these outbreaks? What actions would the U.S. take 
under similar circumstances?
    Answer. ARS has no research effort specifically targeted to the 
unique problem of Bovine Spongiform Encephalopathy (BSE). ARS 
scientists at the Animal Disease Research Unit (ADRU) in Pullman, 
Washington are currently collaborating with their counterparts at the 
National Center for Foreign Animal Disease, Winnipeg, Canada and the 
Veterinary Laboratories Agency in Weybridge, U.K. and USDA-APHIS to 
validate reagents that potentially can be used for BSE surveillance. 
These reagents, which bind to the causative agent of disease (prions), 
were developed from research to test for scrapie, a TSE disease of 
sheep directly related to BSE in cattle. This test, known as the third-
eyelid-test, is the only practical live animal test for scrapie disease 
in sheep. At the Western Regional Research Center, Albany, California, 
ARS has initiated a research program to develop methods to detect for 
the presence of ruminant proteins and central nervous system (CNS) 
tissue in animal foods and feeds. Prohibition of feeding ruminant 
derived tissues to cattle is known to be an effective way of breaking 
the chain of transmission of BSE disease. If a TSE of cattle (BSE) were 
found in the U.S., slaughter and restriction on movement of ruminants 
and ruminant byproducts should be based on environmental monitoring as 
well as conventional epidemiology and diagnostics. USDA will provide 
the appropriate regulatory and action agencies, and the pharmaceutical 
industry the tools to identify and contain any potential exposure of 
humans to infectious materials.
    The CSREES role in the instance of an outbreak of BSE would be to 
provide funding to scientists in various research centers, including 
Federal facilities to conduct needed research as determined by mutual 
consultation with ARS and APHIS.
    Question. USDA/ARS is funding research on Transmissible Spongiform 
Encephalopathy (TSE). Where is this research conducted? How much is 
currently spent on TSE? Please describe these programs. Are there other 
TSEs which we are not funding? How much funding is required to put a 
meaningful TSE research program in effect?
    Answer. ARS conducts Transmissible Spongiform Encephalopathy (TSE) 
research on scrapie in sheep, and chronic wasting disease (CWD) in deer 
and elk, both naturally occurring TSE diseases within the U.S. This 
research is conducted at the National Animal Disease Center (NADC) in 
Ames, Iowa, and the Animal Disease Research Laboratories (ADRL) in 
Pullman, Washington. ARS funding for this research is currently $2.6 
million. The research programs focus on: (1) developing control 
measures for sheep scrapie and CWD through improved diagnostic tests, 
defining genetic (prion) susceptibility, and defining the routes of 
transmission through cells and secreted molecules; (2) developing and 
validating the nictating membrane biopsy (third-eyelid-test) for the 
preclinical diagnosis of scrapie in sheep; (3) determining if U.S. 
agents that cause Spongiform Encephalopathy in sheep and mule deer will 
cause a disease in cattle resembling BSE; (4) determining if the agent 
of CWD will cause scrapie in sheep; and (5) developing diagnostic 
methods that can detect TSE in live and dead animals. Currently, ARS 
has no research effort specifically targeted to the unique problem of 
Bovine Spongiform Encephalopathy (BSE) in cattle. The recently 
published report (May, 2001) from the ARS-BSE workshop indicated 
several critical research priorities that need to be immediately 
addressed in order to provide new tools for use in prevention and 
controls strategies to further reduce the risk of TSE diseases in the 
U.S. Current funding levels must be significantly increased in order to 
address these priorities. To initiate these research priorities is 
outlined in the agency's fiscal year 2002 budget includes an increase 
of $5 million for BSE research.
    The following table shows research and control funds for BSE and 
other TSEs, by agency.

               UNITED STATES DEPARTMENT OF AGRICULTURE--TRANSMISSIBLE SPONGIFORM ENCEPHALOPATHIES
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                       2000        2001 Estimate    2002 Budget
----------------------------------------------------------------------------------------------------------------
Bovine Spongiform Encephalopathy: Research: Agricultural                       0               0           5,000
 Research Service
    Control: Animal and Plant Health Inspection Service.........              78              78              78
Other Transmissible Spongiform Encephalopathies:
    Research:
        Agricultural Research Service...........................           2,589           2,622           2,622
        Cooperative State Research, Education, and Extension                 325             388             294
         Service................................................
    Control: Animal and Plant Health Inspection Service.........          16,072           8,983          21,942
                                                                 -----------------------------------------------
      Total, USDA TSEs..........................................          19,064          12,071          29,936
----------------------------------------------------------------------------------------------------------------

    Question. How does TSE and BSE differ? How much reliable 
information does the scientific community (here and abroad) have on BSE 
and TSE?
    Answer. Transmissible spongiform encephalopathies (TSE's) are a 
family of progressive, degenerative, fatal neurological diseases that 
affect both animals and humans. TSE's take their name in-part from the 
brain lesions that these diseases cause, the lesions leaving the brain 
with numerous holes, giving the appearance similar to that of a sponge. 
The modified host protein or prion hypothesis is generally the accepted 
theory as regards to the nature of the infectious agents. The major 
animal forms of these diseases are bovine spongiform encephalopathy 
(BSE) in cattle, scrapie in sheep and goats, chronic wasting disease 
(CWD) in deer and elk, transmissible mink encephalopathy (TME), and 
feline spongiform encephalopathy (FSE), which is the expression of BSE 
in domestic cats. The human forms of these diseases are Creutzfeldt-
Jacob disease (CJD), new-variant Creutzfeldt-Jacob disease (nvCJD) 
whose causative agent is indistinguishable from BSE, Gerstmann-
Strausslaer-Scheinker syndrome (GSS) the familial form of CJD, fatal 
familial insomnia (FFI) an inherited TSE similar to familial CJD, and 
Kuru, a TSE restricted to the Fore people of New Guinea and spread by 
ritualistic cannibalism.
    There has been considerable research effort by the scientific 
community to understand specific TSE's. Expert reports are available 
from the Council for Agricultural Science and Technology in the U.S. 
and the Ministry of Agriculture, Fisheries, and Food (MAFF) in the U.K. 
Kuru is now primarily of historical importance since cannibalism is 
prohibited. Although scrapie was first recognized in the U.K. and other 
Western countries more than 250 years ago, the means of natural 
transmission have still not been fully defined. It is thought to be 
spread most commonly from ewe to offspring and to other lambs through 
contact with the placenta and placental fluids. Studies have found no 
scientific evidence that scrapie poses a risk to human health. ARS has 
developed the first practical preclinical test for the disease. CWD was 
first recognized in the U.S. in 1967. It naturally affects free ranging 
deer and Rocky Mountain elk. The origin of CWD and routes of 
transmission are not known. There is no reliable test for CWD in the 
live animal and post mortem testing involves the detection of the agent 
in the central nervous system. CWD is not a USDA program disease and 
legal tests for diagnosis of disease in clinical and preclinical deer 
and elk are not yet validated. BSE as a clinical disorder in cattle was 
first reported in the U.K. in 1986. BSE is thought to originate from 
contamination of feed by infectious material in meat and bone meal from 
rendered livestock. The infectious agent appears to be an infectious 
ruminant protein (Prp-sc) recycled through the rendering process. The 
BSE is thought to have originated in sheep and jumped the species 
barrier into cattle. A novel TSE of humans, nvCJD was reported in 1996. 
This disorder is believed to have arisen by ingestion of tissue or food 
products contaminated with the transmissible agent of BSE.
    Despite research efforts there are still many critical questions 
and issues relative to TSE's. These include: determining the nature, 
structure and function of the TSE agents; what is the mechanism of 
transmission of TSE agents, and how does the species barrier to 
transmission of TSE's work; developing methods to detect and type TSE's 
both pre-clinically, postmortem, and in feeds and foods; how does TSE 
disease occur; how do host genetics influence TSE disease 
susceptibility; what is the epidemiology of TSE diseases; and can 
methods to inactivate the TSE agents be developed.
    Question. Your budget proposes to define the nature, transmission, 
detection and diagnosis of BSE. Please describe in detail the planned 
implementation of the proposed research. Where will this research be 
done in the U.S.?
    Answer. The ARS research implementation plan for BSE includes 
several projects. One set of projects is an integrated approach for 
improved detection of BSE and will be conducted at the ARS Animal 
Disease Research Unit (ADRU), Pullman, Washington and the Western 
Regional Research Center (WRRC), Albany, California. ARS research will: 
(a) validate the gold standard assay for TSEs; (b) develop a system for 
differentiating the TSEs endemic to North American ruminants from BSE; 
(c) develop methods for real-time testing of cattle in slaughter 
facilities; and (d) develop methods for detecting PrP-TSE (prion 
proteins) in materials not intended for human food. The plan includes 
collaboration with the National Center for Foreign Animal Disease 
(NCFAD), Winnipeg, Canada, to test postmortem samples and validate the 
final reagent set and protocol. BSE test validation will include brain 
samples from cattle exhibiting neurologic signs and previously examined 
by histology and immunohistochemistry. The ARS laboratory in Pullman, 
WA is also collaborating with Colorado State and Wyoming State 
Veterinary Diagnostic Laboratories (CS-WSVDL) for PrP-TSE detection and 
pathology, CJD testing, and diagnostic methods development in brain 
tissue from deer and elk. The CS-WSVDL will assist in validation of a 
live-animal test for scrapie and a preclinical test diagnostic or 
slaughter test. ARS is collaborating with the University of Washington 
to develop rodent detection assays of infectivity and with Washington 
State University to develop specific reagents, monoclonal antibody to 
PrP-TSE.
    Another set of ARS projects focuses on development and validation 
of detection methods for TSEs in live animals and will be conducted at 
the National Animal Disease Center (NADC), Ames, Iowa. ARS will also 
determine whether imported sheep were infected with BSE or another TSE. 
Research will be carried out in the Virus and Prion Diseases of 
Livestock Research Unit at NADC in collaboration with APHIS National 
Veterinary Services Laboratory, Ames, Iowa and Veterinary Laboratories 
Agency, Weybridge, U.K. The NADC is collaborating with the Veterinary 
Laboratories Agency (V L.A), Weybridge, U.K., using postmortem samples 
to validate the final reagent set and protocol. This collaboration will 
provide U.S. researchers access to otherwise unavailable infected 
cattle and tissues.
    Question. What other Federal agencies are involved in BSE and TSE 
research and control activities? How is ARS coordinating its research 
with CDC, HHS, FDA, etc.? How much money is being spent by the Federal 
Government for research and control activities for these diseases 
overall? Who is coordinating the U.S. effort in these areas?
    Answer. Federal agencies that have an interest in TSE/BSE research 
and control include: USDA-ARS, USDA-APHIS, USDA-FSIS, CDC, FDA-CFSAN, 
FDA-CVM, NIH, and the Department of State. Coordination of USDA efforts 
is through the Office of the Secretary of Agriculture. ARS is 
prioritizing and coordinating its research activities with other 
Federal agencies through specific workshops organized at the agencies 
highest level. Workshop reports are circulated in a timely manner to 
all interested Federal agencies and stakeholders. The total funding for 
all Federal Government efforts is unknown, however, ARS funding for TSE 
research is currently $2.6 million.
    With regards to specific agency involvement: ARS conducts 
Transmissible Spongiform Encephalopathy (TSE) research on scrapie in 
sheep, and chronic wasting disease (CWD) in deer and elk, both 
naturally occurring TSE diseases within the U.S. ARS has no research 
effort specifically targeted to Bovine Spongiform Encephalopathy (BSE), 
however, ARS scientists collaborate with their counterparts at the 
National Center for Foreign Animal Disease, Winnipeg, Canada, 
Veterinary Laboratories Agency in Weybridge, U.K. and USDA-APHIS to 
validate reagents that potentially can be used for BSE surveillance. 
USDA's Food Safety and Inspection Service inspects all cattle before 
they can be approved for use as human food; use of cattle with 
unidentified neurological diseases is prohibited. The USDA's Animal and 
Plant Health Inspection Service (APHIS) enforces explicit import 
regulations covering animals and animal products offered for import 
into the United States to prevent the importation of foreign exotic 
diseases such as BSE. USDA-APHIS prohibits the importation of live 
ruminants from countries where BSE is known to exist in native cattle. 
APHIS controls the importation of live ruminants and most ruminant 
products from all of Europe. APHIS also implements an aggressive BSE 
monitoring program examining the brains of cattle exhibiting various 
abnormal behaviors, including neurological symptoms. No evidence of BSE 
has been found in these U.S. cattle specimens.
    Agencies within the Department of Health and Human Services (DHHS) 
have a long-standing commitment to research, epidemiological studies 
and consumer protection involving BSE and variant and classic CJD. The 
Food and Drug Administration (FDA) prohibits the use of most mammalian 
protein in the manufacture of animal feeds given to ruminant animals, 
such as cows, sheep and goats. The regulation also requires process and 
control systems to ensure that feed for ruminants does not contain the 
prohibited mammalian tissue. This prohibition is a preventative measure 
designed to protect animals from potential transmissible degenerative 
neurological diseases such as BSE and to minimize any potential risk to 
humans. If a case of BSE were found in the United States, these 
measures would also help to prevent the spread of BSE through feeds in 
U.S. cattle. FDA issued guidelines to blood centers to reduce the 
theoretical risk of transmission of vCJD to recipients of blood 
products. This precautionary measure recommended procedures for 
deferring potential donors who may have been significantly exposed to 
food and other cattle-derived products in BSE-endemic countries. FDA's 
present guidelines ask blood centers to exclude potential donors who 
have spent six or more cumulative months in the U.K. between January 1, 
1980, and December 31, 1996, from donating blood. Further revision to 
this guidance may be forthcoming with new information regarding other 
countries' BSE experiences. FDA's TSE Advisory Committee recently 
offered advice on revising the guidelines to include potential donors 
who have lived an aggregate of 10 years in France, Ireland and 
Portugal. FDA also provides guidance on the use of bovine materials 
from countries affected by BSE in non-food products, for example 
gelatin from bones for oral consumption or cosmetic use. The Center for 
Disease Control (CDC) conducts regular surveillance for any trends and 
current incidence of vCJD among humans in the U.S. The National 
Institutes of Health (NIH) conducts research on various TSE's: BSE, 
CJD, vCJD and related neurological diseases through their Maryland and 
Rocky Mountain Laboratories. NIH has a particular interest on the 
molecular biology of prion protein folding and its role in the 
induction of TSE disease.
    Question. There are a number of plant and animal diseases of 
critical economic importance to American agriculture. Some of these 
diseases have become noteworthy recently. Please provide the Committee 
with the current status of research projects and current funding (by 
Agency) for each project listed: Citrus Canker, Citrus Tristeza, 
Pierce's disease, Avian Newcastle disease, Bovine Tuberculosis, Johne's 
disease, African Swine Fever, West Nile Virus, Avian Influenza, Plum 
Pox Virus, Asian Longhorned Beetle and Wheat Scab.
    Answer. In fiscal year 2001, $4,739,550 was appropriated for the 
Citrus Canker Special Research Grant. The grant proposal was received 
on January 30, 2001 and the proposal is undergoing programmatic review. 
In fiscal year 2001, $740,368 was appropriated for the Citrus Tristeza 
Special Research Grants. The grant proposals were due by February 15, 
2001, and the proposals are undergoing programmatic review. In fiscal 
year 2001, $1,895,820, was appropriated for the Pierce's Disease 
Special Research Grant. The grant proposal was received on January 24, 
2001, and is awaiting administrative review and final signature. In 
fiscal year 2001, $324,285, was appropriated for the Bovine 
Tuberculosis Special Research Grant. The grant proposal was received on 
March 12, 2001, and is awaiting administrative review and final 
signature.
Current status of research on Citrus Canker:
    ARS is conducting research on citrus canker at Ft. Pierce, Florida, 
and Beltsville, MD, in support of regulatory and action agencies to 
control this devastating disease. These include: biological control 
methods to stop or slow the spread of the disease; molecular and 
genetics approaches to determine virulence factors; epidemiological 
methods to better understand the disease cycle and dissemination 
characteristics; and early detection technologies. Current fiscal year 
2001 funding: $315,000.
Current status of research on Citrus Tristeza Virus (CTV):
    ARS scientists at Ft. Pierce, Florida, are identifying exotic CTV 
strains and vectors which threaten citrus production. The biological 
diversity and molecular basis of pathogenicity and virulence among 
strains are being determined. Regulatory actions are being supported by 
determining the genetic, epidemiological, biochemical, and serological 
characteristics of CTV. Researchers at Frederick, Maryland, are 
studying vector transmission characteristics of CTV. ARS laboratories 
at Fresno, California, and Beltsville, Maryland, are examining the 
diversity of CTV strains and developing improved methods for 
maintaining and storing isolates, and determining their host range. 
Current fiscal year 2001 funding is $2,320,000 for all locations.
Current status of research on Pierce's Disease:
    To combat Pierce's Disease and the vector transmitting it, research 
is being coordinated at the Horticultural Crop Research Laboratory at 
Parlier, California. Research includes efforts to better understand the 
causative bacterium's host range and potential pathogenicity for 
California crops, particularly grapes. Epidemiology of the disease is 
also being determined. Current fiscal year 2001 research funding is: 
$1,098,000.
Current status of research on Avian Newcastle disease:
    The ARS research program on avian Newcastle is directed to: improve 
diagnostic tests; develop improved vaccines; determine genetic and 
biologic mechanisms controlling Newcastle Disease Virus (NDV) 
virulence; use molecular epidemiology to determine origin of NDV 
strains and predict geographic spread; identify and characterize 
molecular markers for NDV pathotyping; and determine the frequency and 
mechanisms for NDV persistence in clinically normal poultry. Current 
fiscal year 2001 funding is $786,000.
Current status of research on Bovine Tuberculosis (TB):
    ARS in collaboration with industry, APHIS, other Federal agencies, 
and State and university cooperators developed a joint regulatory and 
research strategy for TB in livestock, deer, and elk. Under ARS 
scientific leadership, research goals were established to: (1) define 
interactions between cattle, white tailed deer, and elk and M. bovis; 
(2) develop and improve tests for diagnosis of M. bovis infection in 
these species; and (3) develop improved methods for strain 
differentiation of M. bovis isolates. ARS recently initiated research 
to address the diagnosis, pathogenesis, and epidemiology of TB in white 
tailed deer and to develop vaccines to control tuberculosis in deer. 
Current fiscal year 2001 funding is $1,432,000.
Current status of research on Johne's disease:
    The ARS program on Johne's disease (a bacterial disease caused by 
M. paratuberculosis) is conducted at the Bacterial Disease of Livestock 
Research Unit at the National Animal Disease Center, Ames, Iowa. The 
program's objectives are: (1) to sequence the complete genome of M. 
paratuberculosis, (2) develop highly sensitive and specific diagnostic 
technology and study of host immune responses during the different 
stages of disease, (3) determine shedding of M. paratuberculosis in 
milk of naturally infected cows at the farm level and evaluate survival 
of M. paratuberculosis in milk after heat treatment, and (4) identify 
immunogens of M. paratuberculosis by random and directed expression 
library immunization (DNA vaccines). Current fiscal year 2001 funding 
is $1,618,000.
    A new focus is being added to the ARS research program at the 
Western Regional Research Center in Albany, California, includes 
testing for the presence of M. paratuberculosis in animal manure. The 
testing in this program results from the need to develop the knowledge 
and technology to prevent the transmission of epizootic pathogens, 
including M. paratuberculosis, from animal manure to food products for 
human consumption.
Current status on African Swine Fever:
    ARS program on African swine fever (ASF) is conducted at the Plum 
Island Animal Disease Center. The research is focused on: (1) 
identification of pathobiologically significant ASF genes that might 
assist in developing a disease control strategy, and (2) Defining 
protective immune responses to ASF virus and other significant foreign 
animal disease threat agents. Current fiscal year 2001 funding is 
$6,400,000.
Current status of research on West Nile Virus (WNV):
    Advanced mosquito trapping methods developed by ARS scientists in 
Gainesville, Florida, are being used in New York City, in association 
with the Wildlife Conservation Society. In fiscal year 2001, methods 
will be developed for the same purpose in Connecticut in cooperation 
with the Connecticut Agricultural Experiment Station. Also, an 
alternative (non-pesticidal) technology for control of the larval 
stages of mosquito WNV vectors is being tested. Additionally, ARS 
scientists at the Southeast Poultry Research Laboratory (SEPRL) 
examined the susceptibility of chickens, to answer questions about 
viremia, incubation period, clinical signs, and antibody response. Both 
chickens and turkeys developed high viremias and shed virus in feces. 
Contact birds remained healthy and virus-free. The ARS, Arthropod-Borne 
Animal Diseases Research Laboratory (ABADRL), Laramie, Wyoming, has all 
arthropods viruses in their research mission. The laboratory is 
conducting research at the request of APHIS to develop a WNV vaccine. 
Current fiscal year 2001 funding is $798,000.
Current status of research on Avian Influenza:
    The ARS program on avian influenza is conducted at the Southeast 
Poultry Research Laboratory (SEPRL) in Athens, Georgia. The program is 
focused on issues related to epidemiology, molecular virology, vaccines 
and pathogenesis of avian influenza. The United States, Mexican, Hong 
Kong and Italian virus isolates received from APHIS are being 
classified for disease-causing potential at the SEPRL. Scientists at 
SEPRL are developing and evaluating techniques to predict which mild 
forms of virus will change to more deadly virus. ARS is collaborating 
with private industry on recombinant and inactivated vaccines and 
improved diagnostic tests for avian influenza. ARS is also evaluating 
new vaccines to protect U.S. poultry from the threat of Hong Kong H5N1 
and other types of avian influenza should they be introduced to the 
U.S. Current fiscal year 2001 funding is $1,391,000.
Current status of research on Plum Pox Virus (PPV):
    The ARS research program on PPV is focused on improved detection 
and characterization, virus-vector transmission, and enhancement of 
germplasm for resistance, through both biotechnology and conventional 
breeding techniques. ARS scientists at Frederick, Maryland, and 
Kearneysville, West Virginia, are developing this integrated disease 
management system to support ongoing eradication efforts and to 
minimize the impact of the disease. Current fiscal year 2001 funding: 
$1,232,000.
Current Status of research on Asian Longhorned Beetle (ALB):
    ALB systematics and identification keys have been developed by the 
Systematics Entomology Laboratory, Beltsville, MD. Two ALB pheromones 
have been discovered and are being patented (A347907) by the Chemicals 
Affecting Insect Behavior Laboratory, Beltsville, MD. Previously, it 
was not believed that the beetles communicated by smell. The chemicals 
will be developed into a trap for monitoring. Researchers at the 
Beneficial Insects Introduction Research Laboratory, Newark, DE, have 
shown that adult beetles disperse nearly one mile each year, rather 
than 100 yards as previously thought. This information has resulted in 
a widening of the beetle containment zone by APHIS. Using novel 
acoustic tools developed at Newark, DE, researchers were able to detect 
beetles in living trees in the field. The practicality of using this 
approach for monitoring is being investigated. Two natural enemies of 
ALB have been discovered in China by researchers at Newark and are 
being evaluated as biocontrol agents. Current fiscal year 2001 funding 
is $821,000.
Current status of research on Wheat Scab:
    Improved resistance to Wheat scab, (Fusarium head blight), is being 
developed at the ARS Cereal Disease Laboratory at St. Paul, Minnesota. 
Research at Peoria, Illinois is being conducted to determine the 
genetics of toxin biosynthesis and genetic variability in the pathogen 
is being studied at ARS locations in Fargo, North Dakota and Albany, 
California. ARS researchers in Raleigh, North Carolina and Beltsville, 
Maryland are improving disease control strategies and researchers at 
Madison, Wisconsin are examining the effects of the disease on nutrient 
and seed quality. Finally, ARS participates in the U.S. Wheat and 
Barley Scab Initiative which is a consortium of Federal, state, and 
private researchers, growers, and others concerned about the losses 
caused by scab in wheat and barley. The research initiative focuses on 
six distinct program areas: Variety development and coordinated 
screening nurseries; Epidemiology (how scab develops, spreads) and 
disease management; Food safety, toxicology, and utilization; 
Biotechnology; Chemical and biological control, and Germplasm 
introduction and evaluation. Researchers from 22 states and 6 locations 
within ARS are involved. Current fiscal year 2001 funding for all wheat 
scab research is $8,818,600.
    Question. Describe for the Committee the status and corresponding 
funding for these projects carried out by APHIS. To what extent does 
APHIS carry out methods development and scientific services for these 
projects.
    Answer. The APHIS Plant Methods Development program provides 
advanced scientific and technological capabilities to protect and 
improve U.S. agriculture. Methods development supports APHIS programs 
by optimizing existing pest management practices and by developing new 
technologies for pest exclusion, detection, survey, and management. 
This is accomplished by evaluating biocontrol organisms, evaluating new 
biological and chemical materials, adapting or inventing equipment, 
providing technical consultation and training, collecting and 
disseminating pertinent information, and integrating technological 
advancements into integrated pest management systems. APHIS conducts 
cooperative programs with State and local agencies and organizations to 
control or eradicate plant pests and diseases, and to control or 
eradicate animal diseases.
    The Agricultural Research Service (ARS) is the principal research 
agency of the Department of Agriculture charged with conducting 
research to expand the knowledge and technology necessary to maintain 
and increase the productivity and quality of crop plants, and animals, 
and animal products. ARS provides research on broad regional and 
national problems; research to support Federal action and regulatory 
agencies; and expertise to meet national emergencies. ARS conducts 
research to find ways to protect plants from diseases, insects, and 
weeds. ARS also conducts research to assure the quality and safety of 
animal products used as food for humans; and research to reduce losses 
due to pathogens, diseases, parasites, and insect pests.
    The citrus canker methods development APHIS has funded thus far is 
still in its early stages and has not yielded any significant results.
    In regard to citrus tristeza, APHIS has worked on the control of 
brown citrus aphid, the vector for this disease. APHIS supported some 
studies in Florida with pathogens that can be applied in a manner 
similar to an insecticide spray. Also, APHIS funded a small ($50,000) 
cooperative agreement with the University of Florida to learn more 
about the vector. APHIS has only recently begun to work on Pierce's 
Disease and its vector, the Glassy-winged Sharpshooter (GWSS) in 
California. APHIS has teamed up with both the private sector and the 
Agricultural Research Service to look at ways of identifying this 
disease more quickly for the growers. Also, APHIS has also begun to 
seek ways to separate the pathotype that attacks grapes from the one 
that attacks citrus, almonds and oleanders. Additionally, APHIS is 
working on developing the use of airborne spectral analysis systems to 
detect this disease early in the disease cycle before it becomes a 
source of inoculum for other vines. This work is being funded by 
approximately $250,000 for APHIS. In addition, APHIS provided ARS with 
$150,000 for their work in this area, and the one private group is 
willing to work with APHIS for now at no cost to the Government. APHIS 
also awarded approximately $5.2 million to universities in California 
through a competitive grant process.
    In fiscal year 2000, APHIS spent approximately $1 million on 
methods development to address Plum Pox Virus (PPV). APHIS gathered 
preliminary data on population dynamics and seasonal distribution of 
aphid species in infected orchards in Pennsylvania. Also, APHIS 
determined that none of the weed species in the heavily infected 
orchards carry the virus. In addition, APHIS determined the incidence 
of PPV within infected orchards through an intensive survey and this 
helped us tailor our survey plan in Pennsylvania and nationally. Our 
data also indicates that the mild D Strain of PPV is the only strain 
involved in this infestation. APHIS is coordinating with the 
Agricultural Research Service to determine future plum pox methods 
development and research needs. APHIS anticipates continuing to conduct 
confirmatory tests for new finds; typing the finds to strain, and 
acting as a back-up to the State-run labs; establishing laboratory 
testing standard operating procedures and quality control protocols; 
evaluating known foreign strains to determine strain differences which 
may determine the infection pathway into the United States; and 
ensuring State laboratories conducting routine PPV diagnostic tests 
meet established quality control standards. Laboratory testing for PPV 
identification is a crucial element in the survey program because 
infected plant material cannot be reliably identified based on visual 
symptoms.
    APHIS recently allotted $1.6 million to the Forest Service for 
Asian Longhorned Beetle. This funding will support continued ALB 
research conducted by the U.S. Forest Service on attractant activity; 
detection technology detection technology, including the development of 
acoustical detection tools; DNA characterization of ALB populations and 
biotypes; development and evaluation of control technologies, including 
new research to develop biologically-based control technologies (field 
testing of four species of nematodes, microsporidia and Bt 
biopesticide); methods and protocols for monitoring ALB in the urban-
wildland interface; improved rearing methods for quarantine 
populations; continued development and evaluation of trap designs; and, 
new studies to understand dispersal and life history in natural 
forests. Forest Service research is conducted in quarantine and in 
China, and in collaboration with the Agricultural Research Service, 
APHIS methods development, and U.S. and Chinese university scientists. 
This research will not yield any meaningful results until perhaps 
fiscal year 2003. APHIS does not fund any research projects on Wheat 
Scab.
    While APHIS does not fund any research projects on Avian Newcastle 
disease, Johne's disease, African Swine Fever, West Nile Virus (WNV), 
or Avian Influenza (AI), its National Veterinary Services Laboratories 
(NVSL) in Ames, Iowa, does conduct diagnostic testing on sample 
submissions through routine monitoring and surveillance. In fiscal year 
2000, APHIS used $375,000 in contingency funds to test serum and tissue 
samples at NVSL from approximately 440 clinically-ill equine in 30 
different states for WNV. In fiscal year 2001, APHIS will use $400,000 
for this same purpose. In addition, APHIS tested 1,457 specimens from 
live-bird markets in the Northeastern United States for AI. The Agency 
isolated AI subtype H7N2 from 1 of the 439 specimens from New Jersey 
and 104 of the 900 specimens from New York. Specimens from Connecticut 
(16), Massachusetts (76), New Hampshire (2), and Rhode Island (24) were 
negative for AI. In fiscal year 2000, APHIS spent $100,000 to support 
bovine tuberculosis research activities. APHIS provided these funds to 
Michigan State University to study the transmission of tuberculosis in 
Michigan's free ranging white-tailed deer population. In fiscal year 
2001, APHIS received $53 million from the Commodity Credit Corporation 
to accelerate the eradication of bovine tuberculosis. Another $7 
million was received from the fiscal year 2001 Miscellaneous 
Appropriations Act. Of this $60 million, close to $200,000 will be 
spent on evaluating promising field diagnostic tests such as skin 
testing and $165,000 will be spent on evaluating promising vaccines.
    Question. Please describe for the Committee the beginning point in 
which methods development or technical services aspects of the APHIS 
mission occurs for these projects?
    Answer. APHIS is subject to the Federal appropriations process, and 
must therefore identify its methods development needs approximately 2 
years before the funds are made available. The ``beginning point'' from 
a functional perspective is when APHIS identifies a programmatic need 
in an activity, such as domestic, international, or port operations, 
APHIS' first look at available technologies, contact experts and 
researchers (internationally as well as scientists within this country, 
including the Agricultural Research Service) in the subject area, and 
determine whether solutions can be implemented to preclude the entry of 
pests or diseases, to detect and to identify new ones or those of 
programmatic significance, and to eradicate or suppress them where they 
occur. In some cases, if technology is available but merely needs to be 
slightly adapted for implementation, then APHIS may commit the 
necessary resources to do so. If the programmatic needs are such that 
immediate solutions can not reasonably be implemented with minor 
modification of a technology, or the scope is such that APHIS does not 
have adequate resources to address the issue, then APHIS would attempt 
to communicate these more ``long-term'' research needs to our sister 
agencies and researchers both within the United States and abroad.
                 national plant germplasm system (npgs)
    Question. Last year, the Department stated that a static budget for 
the National Plant Germplasm System (NPGS) would have severe 
programmatic ramifications throughout the NPGS. Did the USDA request an 
increase for the NPGS for fiscal year 2002 in its request to OMB and, 
if so, how much did the USDA request for fiscal year 2002?
    Answer. Because of the change in Administration, the sequence of 
events used to develop the fiscal year 2002 budget was somewhat 
different from the usual process. Without a full complement of policy-
level officials, much of the budget was developed through negotiations 
directly between the Secretary and the Office of Management and Budget. 
Much of this abbreviated budget development process took place during 
the weeks between inauguration and the release of the President's 
budget blueprint on February 28, 2001. As a result, there is not a set 
of formal agency and Department-level proposals.
    Question. Last week, the USDA Advisory Committee on Agricultural 
Biotechnology agreed to recommend that funding be doubled for the 
National Plant Germplasm System (NPGS). What steps will you take to 
implement this recommendation?
    Answer. The recent recommendations of the USDA Advisory Committee 
on Agricultural Biotechnology (ACAB), together with the 
Administration's strategic plans and budgetary targets, and input from 
other customers, cooperators, and stakeholders will be taken into 
account when formulating the Agency's fiscal year 2003 budget request. 
The Agency will continue to provide requested information to the ACAB 
regarding the NPGS's status. The Secretary will review the agency's 
request in the overall context of priorities for all of the 
Department's missions.
    Question. Traditionally, the NPGS has supported food, feed, and 
fiber security in the U.S. Today, we have the most stable food supply 
in the world. Why is the NPGS important and what is the cost to the 
Nation of not supporting the NPGS to the extent requested by the ARS?
    Answer. Genetic raw materials, water, air, soil, sunlight, and 
management practices comprise the agricultural production system that 
sustains humanity, and currently provides the United States with an 
affordable, highly diverse, and nutritious diet. Although the U.S. 
today has perhaps the most stable food supply in the world, its systems 
of renewable resource production and land stewardship face formidable 
challenges in the new millennium. Among the most exacting challenges is 
successfully adapting to the accelerating rates of change in factors 
affecting agricultural productivity. Climatic extremes may now occur 
more frequently due to human activities. Water and soils are being 
depleted more rapidly. As global agricultural production incorporates 
more fertilizers, herbicides, or pesticides, water and soils are also 
increasingly threatened by pollution. Unless new technologies, 
including new crop varieties derived from germplasm in the NPGS, are 
developed and utilized, the costs to the Nation may be environmental 
deterioration that threatens agricultural production. In addition, 
regulations and other proposed remedies for those phenomena that may 
rapidly complicate resource management, food and fiber production, and 
processing will be other costs. Environmental deterioration and the 
preceding complications, in turn, may result in more rapidly increasing 
prices paid by consumers, more volatile commercial markets, reduced 
profits for producers, and a narrower competitive edge for U.S. 
products in world markets. More costly food may result in less 
nutritious diets for the poor.
    Globally, natural plant communities and landscapes that contain 
potentially useful plants are disappearing. Burgeoning human 
populations worldwide are increasingly urban, with cities now occupying 
ever more hectares of formerly productive agricultural land. As a 
result, rates of agricultural productivity can be raised only if the 
remaining land under cultivation yields more agricultural production. 
New, more intensive production practices implemented throughout the 
Nation (e.g., higher density plantings, reduced tillage and chemical 
inputs) place new demands on crops. Formerly minor pathogens are now 
economically important because of changing production practices. New, 
more virulent genetic variants of already important pathogens and pests 
are cause for grave concern. These provide an impetus for assaying NPGS 
germplasm for new sources of host-plant resistance. Furthermore, 
economic constraints to agricultural profitability underscore the 
immediate need for value-added and alternative crops for increasing the 
monetary return to producers (especially in rural areas), and for 
efficiently diversifying the productive capacity of U.S. agriculture. 
The NPGS will likely be the sources for such new crops.
    The rapid destruction of natural habitats and agricultural 
productive capacity may be most extreme in the developing countries, 
where a wealth of genetic resources vital to U.S. agriculture is 
endangered. Essentially all the major crops we grow and use originated 
there. Consequently, the stability of U.S. agriculture is based 
primarily on crops that were imported long ago and on their continual 
genetic improvement via more recently acquired genes conserved in the 
NPGS collections. The cost to the Nation of not adequately supporting 
the NPGS may be extinction of these resources, or inaccessibility 
caused by lack of operating funds. That may increase the genetic 
vulnerability of agriculture to rapidly evolving pests, pathogens, 
environmental changes, and to competitive market demands, which change 
continually and rapidly according to consumer preferences and advances 
in processing technology. The demands placed on U.S. agriculture by a 
rapidly changing world can only be met by technologies that optimally 
harness the inherent genetic potential of NPGS germplasm so as to 
maximize profits, security of supply, price stability, market 
competitiveness, and avoid crop losses from genetic vulnerability. More 
rapid and efficient methods for identifying useful properties of 
germplasm, and for manipulating genetic and genomic material and 
information, are required. These new methods will include more 
effective breeding strategies and more comprehensive knowledge of crop 
genomic structures. The new scientific approaches of genomics and 
biotechnology, when applied to NPGS germplasm, are critical for 
developing improved crops that enable producers to maximize yields of 
high-quality products, but minimize chemical input, water and soil 
depletion, water and soil contamination, as well as production costs.
    Paradoxically, sole reliance on the preceding methods of genetic 
improvement may lead to superior but excessively narrow genetic bases 
for crop gene pools. As a result, the Nation's future food, fiber, 
feed, ornamental, and industrial product supply may become more 
vulnerable to rapidly changing pathogens, pests, or environmental 
extremes. It may be less abundant, nutritious, and diverse, hence less 
capable of adapting to changing regulatory concerns or to global change 
in climates and commercial markets. The cost to the Nation of such 
developments would be catastrophic. Adequate funding is needed for the 
NPGS in order to ensure that accessions are available for distribution, 
and that essential germplasm acquisition, maintenance and regeneration, 
preservation and conservation, and characterization and evaluation 
activities are carried out. Consequently, the NPGS, which furnishes the 
means for broadening crop genepools, is crucial to developing safer, 
more secure, and more efficient agricultural systems. Its genetic 
resources are literally the basis of U.S. agriculture.
    Question. For fiscal year 2000 and fiscal year 2001, the 
agricultural appropriations bills provided increases for the NPGS of 
$1.75 million and $3 million, respectively. Please provide the 
subcommittee with a detailed list, by NPGS site, of where the 
additional funds were spent, for what purposes the funds were used, and 
whether the additional funds were critical for maintaining or improving 
the program level at the particular site.
    Answer.
Fiscal year 2000 ($1.75 million gross allocation).
    Albany, CA: ($250,000 gross).--This funding increase enabled a 
scientist and support staff to be hired to characterize, with leading-
edge genomic approaches, small grains (wheat, rye, and barley) genetic 
resources. The research will also help develop more effective and 
efficient genetic markers to facilitate small grains agronomic 
evaluation and breeding. Furthermore, it will expand bioinformatics/
database development and refinement efforts for linking the GrainGenes 
genome database more closely to small grains germplasm databases such 
as the Germplasm Resources Information Network (GRIN) in the U.S. and 
the International Center for Maize (Corn) and Wheat Research (CIMMYT) 
wheat database system. The additional resources are crucial for 
enabling the NPGS to intensify its program of genetic and genomic 
characterization of small grains germplasm with leading-edge tools and 
technologies, such as nucleotide sequencing and comparative genomic 
approaches.
    Ft. Collins, CO: ($250,000 gross).--The funding increase enabled 
one research scientist and one support scientist to be hired to develop 
and apply long-term preservation protocols for clonal and desiccation-
resistant seed germplasm. The budgetary increase was crucial for 
supporting research wherein ``stress'' genes in blackberry were 
isolated; mechanisms whereby cells of mint adapt to ultra-cold 
temperatures were elucidated, and which resulted in new methods for 
long-term preservation of garlic bulbs and embryos of citrus, coffee 
and wild rice. A technician was hired to strengthen the clonal 
preservation operations and additional part-time staff were hired for 
seed quality evaluation. The technician was important for increasing 
the National Seed Storage Laboratory's (NSSL's) capacity to store 
clonal germplasm over the long-term, for a few species, and the 
additional temporary staff increased the efficiency for storage of 
seed.
    Ames, IA: ($250,000 gross).--Prior to the fiscal year 2000 
increase, the NPGS site at Ames, IA, required funds to maintain the 
then current operations and staffing levels, due primarily to increased 
personnel and operating costs. The budget increase in fiscal year 2000 
supported two additional temporary Federal support staff, two 
additional student support staff, purchased much-needed equipment, and 
covered wage and benefit increases for that year.
    Columbia, MO: ($250,000 gross).--For maize (corn) germplasm, 
characterization, evaluation, and enhancement of the large NPGS 
collection of this crop are priority needs. The fiscal year 2000 
funding increase expands efforts to evaluate and characterize poorly-
studied NPGS maize germplasm for genes conditioning adaptation, 
productivity, and host-plant resistance to major pathogens and pests of 
maize. The new funds enable researchers to employ up-to-date genetic/
genomic technology to detect latent genetic diversity in maize, and to 
develop genetic markers closely associated with agriculturally-
important traits, so that the markers can facilitate incorporation of 
such traits into adapted germplasm. Together with cooperators 
throughout the U.S., scientists in Columbia are conducting one 
component of the GEM Project, which is genetically enhancing public 
maize germplasm by incorporating genetic diversity from unadapted 
germplasm for productivity, quality, and resistance to biotic and 
abiotic stresses. Finally, these funds are supporting a collaborative 
effort among personnel at Columbia, MO, Ames, IA, and elsewhere to link 
the MaizeDB database more closely to maize germplasm databases such as 
the NPGS-wide GRIN database and the System-wide Information Network for 
Genetic Resources (SINGER) databases for the international agricultural 
research centers, especially the CIMMYT maize database.
    Beltsville, MD: ($250,000 gross).--This increase enabled the NPGS's 
database system GRIN (Germplasm Resources Information Network) to 
retain the requisite staffing level, to purchase maintenance agreements 
for the GRIN's hardware and software, and to fund critical operating 
expenses. Had these funds been unavailable, three permanent staff 
members may have been terminated and software and hardware maintenance 
may have been deferred.
    Ithaca/Geneva, NY: ($250,000 gross).--The budgetary increase was 
partially devoted to hiring a molecular biologist and a laboratory 
technician to develop DNA technologies to more efficiently and 
effectively preserve tomato, onion, cole crops, winter squash, and 
buckwheat germplasm. The remaining funds were applied to updating aging 
seed production equipment and facilities, and to upgrading computer 
software and hardware for seed germplasm data management capabilities. 
The budget increase was essential for preserving and improving the 
quality of the seed germplasm collection at this site so that it began 
to approach international standards for viability, phytosanitation, and 
availability.
    Pullman, WA: ($250,000 gross).--This budget increase was partially 
devoted to establishing a new greenhouse manager position that is very 
important for enhancing operational efficiency. Also, a research 
geneticist was hired to expand genetic marker and comparative genomic 
characterization for cool season legumes, dry beans, beets, forage 
legumes and grasses, etc. The additional funds were integral for 
developing, maintaining, and enhancing genetic marker and genomic data 
management and bioinformatic capabilities by enabling continual 
upgrading (both technical, and in terms of additional data) of software 
and hardware, for germplasm data management.
Fiscal year 2001 ($2,993,400 gross):
    Phoenix, AZ: ($149,600 gross).--The fiscal year 2001 budget 
increase was critical for expanding germplasm evaluation or 
characterization research to identify or characterize new sources of 
agronomically important traits in Pima cotton, and for the new crops 
guayule (source of hypoallergenic rubber), and Lesquerella (new oilseed 
crop). The additional funds are enhancing this site's capabilities to 
regenerate, store, and/or maintain guayule and Lesquerella germplasm so 
that more is available to researchers and breeders. New cotton, 
guayule, and Lesquerella germplasm will be acquired to replenish 
current supplies, or to fill genetic gaps in the collection.
    Davis, CA: ($199,600 gross).--Because of long deferred repair and 
maintenance of facilities, vehicles, and implements due to many years 
of fiscal deficits, the fiscal year 2001 increase was applied mainly to 
renovating and repairing basic infrastructure at this site. One 
temporary technical staff was hired for orchard maintenance, where 
personnel are still needed. Next year, the infrastructure renovation 
should be complete, and the new funds will be applied to characterizing 
germplasm. Currently, only the walnut and fig collections are well-
described. Without such genetic descriptions and characterizations, 
germplasm users lack the means for efficiently selecting material for 
their purposes. The fiscal year 2001 funds will be critical for hiring 
a scientist specializing in germplasm characterization to generate data 
crucial for efficient management and use of germplasm, so that 
potential users have descriptive data available to select material with 
certain characteristics, rather than to pick, almost randomly, from 
names on a list, without recourse to additional information.
    Riverside, CA: ($199,600 gross).--The new funds enabled the 
recruitment of a plant pathologist to increase the amount of pathogen 
testing and elimination in citrus (orange, lemon, lime, grapefruit and 
related species), thereby addressing the critical need to increase the 
amount of germplasm available to breeders and researchers, as well as 
increasing the germplasm that this site could acquire.
    Ft. Collins, CO: ($199,600 gross).--The fiscal year 2001 increase 
enabled hiring of a support scientist and technician. The support 
scientist serves as an instrumentation specialist for the entire NSSL 
research effort, enabling research integration that has facilitated 
study of the effects of provenance on propagule quality, the results of 
which may lead to more consistent survival of seeds following ultracold 
storage. The technician helped establish gene expression analysis and 
cloning, important molecular approaches for studying plant acclimation 
to drought and cold. The fiscal year 2001 funds will add another 
scientist to the clonal plant preservation program to help adapt and 
modify protocols for preserving vegetatively propagated plant 
germplasm, thereby enabling the ultracold storage of a variety of 
clonal crop germplasm.
    Washington, D.C.: ($149,600 gross).--The fiscal year 2001 budget 
increase has expanded the volume of woody ornamental germplasm 
accessions actively managed, which will make more germplasm available 
to the scientific community. It has provided funding critical for 
expanding the current effort to coordinate the North American Plant 
Collections Consortium (NAPCC), and enabled stronger linkage between 
the former and the U.S. National Arboretum's woody germplasm management 
effort. The additional funds have expanded efforts to modify current 
protocols or develop new methods for optimal woody ornamental germplasm 
management, including new molecular marker assay systems, and have 
expanded the scope and volume of data and information management 
activities.
    Griffin, GA: ($299,300 gross).--The fiscal year 2001 funds were 
critical for expanding the volume of germplasm accessions available to 
the scientific community, developing new methods for optimal germplasm 
management, and expanding the data management program. Operating funds 
for each germplasm curator were quadrupled, enabling an increase in the 
amount of germplasm regenerated and otherwise managed. A germination 
technician is being hired to conduct germinations needed to set 
accurate regeneration priorities and provide users with higher quality 
seed. A retired agronomist's position was re-filled, which bolstered 
management of the warm-season forage and turf grass national 
collection. Temporary summer help will handle the increased amount of 
germplasm regenerated. Without the additional funds, regenerations 
would have been severely reduced or eliminated because there would have 
been no labor to plant, manage, harvest, and thresh seed from 
regenerated accessions. The new program for seed germination program 
and quality would not exist. The curatorial staff would have been 
insufficient to handle the workload.
    Ames, IA: ($239,500 gross).--The fiscal year 2001 funding increase 
provided additional seed storage, seed processing, lab equipment, and 
office resources for integrating the Genetic Enhancement of Maize (GEM) 
Project into this site's overall operational framework. The new funds 
were critical for hiring an additional temporary Federal employee and 
additional student labor. It funded normal wage and benefit increases, 
and covered a 50 percent increase in energy costs. These funds were 
critical for building capacity to increase germplasm regeneration, 
evaluation, characterization, and distribution efforts.
    Aberdeen, ID: ($219,500 gross).--Many of the new funds purchased 
critical equipment (e.g., planter and thresher) and supplies critical 
for germplasm management. Four full-time Federal technical positions 
will strengthen operations at this wheat, barley, oats, and rice 
germplasm site. All of the preceding progress was dependent on the new 
funds.
    Urbana, IL: ($199,600 gross).--The new funds enabled the soybean 
germplasm program to buy a new high purity seed thresher and a new 
vehicle for field work. Additional temporary personnel were hired to 
assist in processing seeds, and a new permanent technician position was 
established. Before the fiscal year 2001 increase, the entire budget 
was devoted to salaries and utilities; the increase was critical for 
providing an operating budget for germplasm management and research.
    Ithaca/Geneva, NY: ($124,800 gross.--Note that this location 
received an additional $249,600 gross for germplasm management via a 
separate fiscal year 2001 budget line) Some of the budgetary increase 
was devoted to hiring a permanent field technician and part-time field 
assistance, leasing beehives for controlled pollination, and to DNA 
technology development. The new resources helped the genebank approach 
the international standards for seed viability testing, whereby all 
seed lots have known germination rates and procedures have been 
established for determining viability as a normal part of the 
management process. Furthermore, the amount of germplasm available to 
the scientific community has increased, as has the volume of associated 
characterization and evaluation data. Scientists and technicians were 
hired to amplify the apple, grape, and tart cherry germplasm management 
effort, and to develop and deploy DNA markers to assess genetic 
diversity in fruit germplasm.
    Corvallis, OR: ($219,500 gross).--Many of the new funds will 
support temporary technical personnel to assist in the field and 
greenhouse management of strawberry and other berry and nut germplasm. 
Additional funds will expand the critical effort to evaluate small 
fruit and mint germplasm for horticultural merit. The remainder of the 
increase will bolster budgets for travel, staff training, supplies, 
equipment, utilities, and maintenance. This funding increase was 
critical to maintaining operational capacity of this genebank. Without 
this increase, key permanent positions would have been terminated, 
because of the budgetary impact of this year's increased energy and 
fuel costs.
    Charleston, SC: ($149,600 gross).--The fiscal year 2001 increase to 
the U.S. Vegetable Laboratory expanded germplasm evaluation research on 
sweet potato, cole crops, melons, peppers, and southern peas. This 
research is identifying or characterizing new sources of 
horticulturally important traits. Whenever possible, these or 
previously identified priority traits are being incorporated into 
enhanced breeding lines of the preceding crops, so as to make superior, 
better-documented germplasm accessions available to breeders and plant 
scientists.
    College Station, TX: ($249,500 gross).--Funds will initially be 
used to expand greenhouse space, and to expand germplasm regeneration 
and characterization efforts. The increase enabled the continued 
employment of a staff member who was scheduled to be terminated in 
April 2001, due to lack of funds. The pecan orchards could be 
fertilized this year, greatly aiding trees that were unfertilized last 
year and stressed by last year's drought. Top priorities are hiring 
seasonal help at two worksites (Brownwood and College Station, TX) and 
buying equipment key for more efficient operations. The pecan/hickory 
orchards are not irrigated, and acquiring a reliable irrigation system 
is critical for the long-term security of the collection.
    Pullman, WA: ($244,500 gross).--The funds devoted to Pullman and a 
worksite at Prosser covered additional personnel costs and general 
operations support that is crucial for both germplasm maintenance and 
research.
    Madison/Sturgeon Bay, WI: ($149,600 gross).--Most of the new funds 
were devoted to hiring additional personnel, buying needed equipment, 
and conducting long-deferred facility upgrades. A scientist is being 
recruited to manage research and evaluation projects, and part-time 
labor is being hired to conduct additional genetic analyses, seed 
increases, etc., for the national potato germplasm collection. The new 
funds were critical for remodeling and outfitting this site's 
laboratory to conduct molecular marker analyses, enabling more rapid 
progress assessing the optimal genebank management practices for 
maximizing the capture and preservation of genetic diversity.
    Question. It is our understanding that many sites are unable to 
fill positions of persons who have retired because of the lack of 
funding necessary to meet cost of living increases, escalating energy 
costs, and maintenance of NPGS facilities. Please provide the 
subcommittee with a list by site of positions terminated within the 
past two fiscal years and that will be terminated during fiscal year 
2002 unless the site receives an increase in funding.
    Answer. Permanent positions at NPGS sites have been abolished not 
only after incumbents retire, but also after they leave voluntarily to 
take other jobs, etc. Furthermore, to manage increasing costs with a 
static budget, many site managers exercise fiscal prudence by hiring 
temporary rather than permanent staff to provide the budgetary 
flexibility needed. But offering temporary rather than permanent 
appointments makes recruitment of high-quality staff difficult.
    Davis, CA.--Because of the current level of financial support for 
this site, and uncertain future energy prices, fiscal prudence dictated 
that a new technician position be a temporary, rather than permanent 
appointment, so as to provide budgetary flexibility to redirect 
resources to maintaining living collections that require constant 
maintenance.
    Riverside CA.--One technician position was terminated in fiscal 
year 2000 when the incumbent transferred. Unencumbered funds were used 
to renovate and upgrade a high-volume air-conditioning system. With the 
fiscal year 2001 increase, the technician position may be re-
established, but probably as a temporary appointment, so as to conserve 
funds to cover substantially higher energy costs, inflation and cost-
of-living increases.
    Ft. Collins, CO.--Following the retirement of one incumbent, one 
research scientist position was terminated this fiscal year, leaving a 
void in this site's capability to conduct research on seed physiology 
and molecular biology relevant to more than 90 percent of the NPGS 
collection. Without funding increases in fiscal year 2002, increased 
operating expenses will necessitate abolishing one technician position, 
four temporary student positions, and one visiting scholar position. 
Loss of those positions will impede critical research on 
cryopreservation, and on other innovative, more efficient means for 
conserving germplasm.
    Griffin, GA.--During the past two fiscal years, five temporary 
technical positions were terminated and three permanent positions were 
hired in replacement. Unless another budget increase occurs in fiscal 
year 2002, fewer temporary workers will be hired, reducing the number 
of germplasm samples that can be regenerated, and the scope of 
laboratory operations.
    Hilo, HI.--One permanent technical position was terminated when the 
incumbent transferred. Because of funding constraints, only two \1/2\ 
time, temporary technicians could be hired in replacement, which does 
not satisfy the ongoing need for two additional, permanent technical 
assistance positions to address key, core managerial functions.
    Ames, IA.--Following retirement of a research entomologist in 
fiscal year 2001, funds encumbered by that position were devoted to 
support a new breeder/coordinator position for the Genetic Enhancement 
of Maize (GEM) program. If the GEM receives no new resources in fiscal 
year 2002, either the research entomologist position will not be re-
established, or the new breeder/coordinator position will go unfilled. 
If no additional resources are not forthcoming, two or three temporary 
technical support positions would be terminated each year for the 
foreseeable future, and germplasm management operations would diminish. 
There would be little or no opportunity to adopt new technologies, such 
as geographical information systems (GIS) information systems and 
molecular markers to germplasm management.
    Corvallis, OR.--One graduate research assistant position and one 
temporary technical assistant position were terminated during the past 
two fiscal years, because of lack of fiscal resources. Without an 
additional base fund increase, a permanent field manager position may 
be eliminated during fiscal year 2002.
    Mayaguez, PR.--After retirements during the past two fiscal years, 
two administrative positions were terminated so as to meet increased 
indirect research costs.
    College Station, TX.--Retirement of a technician in fiscal year 
2000 caused personnel reassignments, with the net loss of an employee 
to the pecan germplasm management program. The impending termination of 
a full-time non-Federal employee was at least temporarily avoided by 
the fiscal year 2001 budget increase, but it may be threatened if no 
budget increase occurs in fiscal year 2002. The cotton germplasm 
program anticipates retirements of four support staff by 2002; with 
current budget levels, some of the former positions would be 
terminated.
    Question. Have the escalating energy costs had an effect on the 
ability of the NPGS sites to maintain their program effort?
    Answer. The effects of escalating energy costs on NPGS sites are 
highly variable throughout the U.S. Some effects have been direct, 
e.g., higher costs for running cold rooms, natural gas for drying 
harvested crops, and fuel for gasoline/diesel-powered machinery. The 
effects have also been indirect, e.g., higher costs for goods and 
services due to increased energy prices. Most of these items are 
essential so higher costs divert funds from other uses, e.g., research, 
non-essential maintenance, etc.
    The NPGS sites in California have been affected the most severely; 
average cost increases for electricity of nearly 50 percent are 
forecast for the next year. At Davis, CA, cost estimates for goods and 
services procured locally have increased more than 10 percent in the 
last three months. At the NPGS sites in Riverside, CA, and Parlier, CA, 
the more immediate threats are not increased power costs but, rather, 
power outages. Parlier is suffering from ``rolling blackouts'', which 
affect computer use, and reduce the effectiveness of climate control in 
growth chambers, refrigerators and freezers. Without power to run the 
greenhouse cooling system at Riverside, high temperatures might kill 
citrus trees, and months of pathogen testing might be lost because some 
assays require consistently cool temperatures. Loss of power might also 
destroy DNA samples and expensive chemicals stored in refrigerators and 
freezers. Should power costs in CA continue to increase substantially, 
fewer funds would be available to hire temporary employees and for 
operations, with the result that germplasm management efforts would 
diminish.
    The NPGS site at Mayaguez, PR, has suffered a 57 percent increase 
in electricity costs during the last few months. These costs are 
projected to continue for the foreseeable future. As a result, planned 
purchases of farm equipment may be postponed, and fewer temporary field 
laborers may be hired, thereby slowing the rate of progress with key 
managerial tasks.
    Similarly, the NPGS site at Urbana, IL, is planning for a 55 
percent increase in energy costs for the coming fiscal year by altering 
plans for future operations. Without the fiscal year 2001 budget 
increase, no funds would have been available to pay for the increased 
cost of running the germplasm storage building.
    Energy costs have increased at the Ames, IA, site 50 percent so far 
during fiscal year 2001, due to rising fuel, fertilizer, utility, 
transportation, and plastic products costs. When electricity rates are 
re-negotiated later this year, utility costs may double, necessitating 
redirection of funds.
    Energy surcharges for transportation of goods and materials, plus 
direct increases in gasoline, propane, electricity, travel, and postal 
costs have occurred at the NPGS site at Corvallis, OR. The energy rates 
are forecast to double next year, necessitating that funds must be 
diverted from performing non-essential maintenance to pay for the 
forecast increased utility costs.
    Utility costs comprise much of the cost of running the National 
Seed Storage Laboratory at Ft. Collins, CO. Actual usage of steam and 
water for the first six months of fiscal year 2001 indicates that the 
costs of these utilities will double, thereby reducing the amount of 
funds available for other operating expenses, temporary research 
appointments, etc.
    At College Station, TX, the cost of operating greenhouse and cold 
rooms for cotton may rise by up to 100 percent, but cost estimates are 
still preliminary. Energy costs this year for the pecan program have 
increased 46 percent. To reduce energy costs, more plants have been 
transferred from greenhouses to the field, with a concomitant increase 
in plant mortality. This increased cost is met from the operating 
budget, reducing the amount of maintenance that can be conducted on 
facilities and equipment, and the amount of additional summer labor 
that can be hired.
    Question. Do you have materials in the NPGS that are at risk for 
loss? If we lose germplasm due to the lack of regeneration, is it 
always possible to replace it? What percentage of NPGS germplasm is not 
in long-term, back-up storage?
    Answer. Duplicate germplasm samples and duplicate copies of 
databases maintained in at least two physically-separate locations 
represent perhaps the most effective safeguards against the risk of 
catastrophic loss from weather-related causes, other natural phenomena, 
equipment failure, and human activity, be it intentional or 
unintentional.
    It is not always possible to replace germplasm samples that are 
lost due to lack of regeneration when they are not duplicated within 
the NPGS, obtainable from other germplasm collections or genebanks 
within the U.S. or internationally, currently grown by farmers or 
produced by seed companies or nurseries, or if they are extinct in 
nature, as is the case with some wild species. Some of the genetic 
components of the ``lost samples'' may be conserved in other, 
genetically closely-related samples. But the degree of genetic 
redundancy between such samples may be quite variable and 
unpredictable. Consequently, germplasm managers in general do not 
assume that genetically closely-related samples necessarily contain 
precisely the same genetic components of the ``lost samples,'' some of 
which may be key to current and future genetic improvement crops.
    At present, ca. 20 percent of the seed samples and ca. 86 percent 
of the clonally-propagated samples in the NPGS collection of 430,000 
samples are not duplicated in long-term storage, and consequently, are 
at a higher risk of catastrophic loss than are the duplicated samples. 
Some of the samples that are not duplicated within the NPGS are 
duplicated in other nations (e.g., the NPGS pineapple collection is 
duplicated in Martinique) or at International Agricultural Research 
Centers (IARCs). But, with increasing fiscal shortfalls at other 
institutions, the NPGS cannot assume that duplicates of ``lost'' 
germplasm can be readily obtained elsewhere.
    As the preceding data indicate, the risk is greatest for clonally-
propagated germplasm. With many clonal crops, long-term ``backup'' 
methods (e.g., cryopreservation) do not exist; more funds are needed 
for NPGS researchers to develop this technology.
    Germplasm may also be at risk from slower, more insidious processes 
such as gradual loss of viability, loss of genetic integrity, 
infectious disease, etc., that deteriorate the quality of germplasm and 
associated data.
    Question. What percentage of accessions is unavailable for 
distribution and why are they unavailable?
    Answer. For the NPGS as a whole, approximately 15.5 percent of the 
nearly 436,000 total accessions is unavailable for distribution. 
Notably, the percentage of accessions unavailable varies widely across 
the different crops and sites of the NPGS (see table below). For 
example, nearly all of the pecan accessions at the Brownwood/College 
Station site are available for distribution, whereas in contrast nearly 
all citrus accessions are not currently available.
    For the most part, the accessions are unavailable because they 
consist of too few seeds or plants, and/or because of uncertain 
viability and disease status. Lack of personnel and operating funds for 
standard seed and clonal increases, for special propagation techniques 
(e.g., tissue culture), and insufficient field and greenhouse space are 
the most common causes for such unavailability. Many of the unavailable 
accessions are wild species; they often require scarce greenhouse space 
for seed increase, prohibitively expensive special techniques for 
propagation, or funds for research to develop such techniques.
    Some discussion of certain figures listed below is warranted. The 
unavailable maize genetic stocks in Urbana are primarily newly received 
materials, many from NSF-funded plant genome projects, that require 
seed increase before sufficient quantities are available for 
distribution to users. The many unavailable citrus accessions are 
largely result from their uncertain disease status; quarantine 
restrictions for citrus are manifold. Transport of citrus across state 
lines is highly regulated, and until funds are available for disease 
indexing, most of the accessions cannot be transported to researchers 
in Florida, Texas, etc. In crops other than citrus, quarantine 
restrictions also contribute to germplasm being unavailable for 
distribution. The percentage of accessions unavailable for regeneration 
is provided for the record.
    [The information follows:]

                                                     Percent unavailable
        Selected NPGS site                                    accessions
Brownwood/College Station, TX (pecan).........................       >1 
Davis, CA (tomato)............................................       3.1
Sturgeon Bay/Madison, WI (potatoes)...........................        5 
Hilo, HI (tropical fruits)....................................        5 
Aberdeen, ID (small grains)...................................        8 
Pullman, WA (plant introduction station)......................       10 
Griffin, GA (plant introduction station)......................       15 
Davis, CA (fruit and nut, clonal).............................       22 
Geneva, NY (plant introduction station).......................       28 
Urbana, IL (maize genetic stock)..............................   ca. 40 
Riverside, CA (citrus)........................................   ca. 95 

    Question. For fiscal year 2000 and fiscal year 2001, please provide 
the dollar amount and overall percentage of the NPGS budget spent on 
each of the following categories related to germplasm: maintenance, 
regeneration, evaluation, acquisition, and characterization.
    Answer. Of the total $26.7 million allocated to the NPGS in fiscal 
year 2000 about 63 percent ($16.9 million) was devoted to germplasm 
conservation and preservation, which includes the activities of 
maintenance and regeneration. $3 million (11 percent) was devoted to 
germplasm acquisition, and the remaining 26 percent ($6.8 million) was 
devoted collectively to germplasm characterization and evaluation, 
categories that often overlap substantially. In fiscal year 2001 a 
total of $32.2 million is currently allocated to the NPGS with 62 
percent ($19.9 million) devoted to germplasm maintenance and 
regeneration, and $3.3 million (10 percent) to germplasm acquisition. 
The remaining 28 percent ($9 million) was devoted collectively to 
germplasm characterization and evaluation, categories that often 
overlap substantially. At specific NPGS sites (e.g., plant introduction 
stations, crop-specific collections of clonal germplasm, grains, 
oilseeds, etc.) that both maintain and regenerate germplasm, the 
budgetary percentage devoted to maintenance and regeneration may be 75 
percent or higher.
    Question. Do you have sufficient resources to manage the materials 
that are in the quarantine centers in a manner that fulfills the 
demands of the users? Have materials died in quarantine centers? Are 
the materials made available to the requesters in a timely manner?
    Answer. In general, the Plant Germplasm Quarantine Office/National 
Plant Germplasm Quarantine Center (PGQO) in Beltsville, MD, can manage 
the plant germplasm in quarantine successfully, provided the amount of 
germplasm in the PGQO does not exceed current capacity, which is 
determined primarily by the funding available for personnel, 
operations, and facilities. To ensure that its capacity is not exceeded 
by demand, the PGQO is establishing annual quotas for each type of 
germplasm. These were communicated to germplasm users in May 1999 and 
put into effect starting in fiscal year 2000. The quotas vary somewhat 
over years based on factors such as the germplasm in the quarantine 
testing ``pipeline'' at the beginning of the year, changes in testing 
protocols, and changes in program goals.
    No significant germplasm losses have occurred in the potato, sweet 
potato, rice, or sugarcane held by the PGQO. In the past, fruit tree 
accessions in the PGQO orchards were lost because of inadequate care, 
and insufficient attention to matching the work load with the resources 
available to tend to this germplasm. These problems were addressed and 
loss has been minimal during the recent years of orchard testing.
    Some replicates of accessions have been lost to herbicide injury 
but, in these cases, a sufficient amount of backup material was 
available to repeat the tests as necessary. Occasionally, replicate 
samples of blackberry, raspberry, or currant perish from winter damage 
in the screenhouses. But, these samples are ``backed up'' so the 
accession is not lost, but its release from quarantine is delayed 
because the tests must be repeated. Losses from winter kill have been 
minor during recent years because of mild weather, and improved 
horticultural care. Sweet potatoes, Irish potatoes, and currants are 
backed-up in tissue culture for additional security.
    The stone fruit (cherry, peach) quarantine program is conducted 
entirely in greenhouses and screenhouses, where germplasm loss is 
relatively rare, but does occur occasionally because of several factors 
that are not unique to PGQO: (1) the inherent difficulty of maintaining 
trees in pots for years; and, (2) cherry and peach accessions received 
by PGQO as budwood are often difficult to propagate, especially after 
days in international transit, and may die before they are established.
    Germplasm is made available (``released'') from quarantine as 
rapidly as quarantine regulations and/or ``pathogen clean up'' permit. 
The only crop with a backlog of accessions awaiting quarantine testing 
is rice, with a 4,000 accession backlog. The rice backlog can be 
addressed if the testing protocol is being revised to continue 
quarantine testing at Beltsville with seed production of quarantined 
accessions in North Carolina (where rice is no longer grown 
commercially). For other crops, the release/backlog situation is 
summarized below:
  --Pome fruits (apples, pears, quince) are now released 
        ``provisionally'' within one year if the first round of testing 
        is negative and if the propagative material is available. Under 
        the ``provisional release policy,'' germplasm users can 
        propagate and evaluate the germplasm prior to its final release 
        from quarantine. This policy has been very popular with 
        germplasm users, and is feasible because of the PCR test for 
        phytoplasmas. Final release still requires at least 3-5 years 
        because test trees must produce fruit for evaluation of 
        symptoms: there is no technological substitute for the fruit 
        evaluation.
  --Stone fruits (cherry, peach) are also provisionally released after 
        one year, but full release requires at least 3-5 years for 
        germplasm imported as budwood. But germplasm imported as seed 
        can be released sooner (12-18 months) because less testing is 
        required.
  --Sugarcane imported from other nations requires 18-24 months in 
        quarantine, whereas sugarcane shipped interstate (e.g, 
        Louisiana to Florida) requires 12-18 months. Current molecular 
        technology will probably not accelerate the release time, 
        although the former may improve the accuracy of test results.
  --Rice cannot be released from quarantine until it sets seed, which 
        can require 100 to 240 days, depending on the specific 
        germplasm. Notably, quarantine testing could be conducted 
        entirely from in vitro tissue culture and germplasm released in 
        30 days but, because it would be distributed in the form of 
        tissue-cultured plantlets rather than true seed, the user 
        community has not been interested in this method.
  --The quarantine process for potatoes and sweet potatoes require 18-
        24 months; tests require one year and are repeated. The testing 
        required for true potato seed is substantially less than for 
        potato tubers.
  --The quarantine process for currants and gooseberries requires 3-5 
        years, necessitated by waiting for plants to fruit so they can 
        be evaluated for the reversion virus. There is a PCR-based test 
        for the reversion virus but APHIS has not accepted it, although 
        Agriculture Canada has done so. The PCR test could enable 
        provisional release after one year, if the propagative material 
        is available.
  --The quarantine process for raspberries requires about 3 years.
    Question. With current resources, are you able to take advantage of 
modern molecular techniques to accelerate the rate of quarantine 
testing for crops such as rice, apples, cherries, sweet potatoes, and 
others?
    Answer. Molecular diagnostic techniques alone may not accelerate 
the final release of germplasm from quarantine but they may accelerate 
the provisional release of germplasm, as described above for pome and 
stone fruits. The tests will detect target pathogens that have been 
thoroughly characterized genetically, but not other ``exotic'' 
pathogens which are often essentially unknown scientifically, except 
for symptoms on the plant or fruit. Thus, molecular diagnostic tests 
will not completely replace the time-consuming visual observations of 
plants currently required by APHIS regulations. Consequently, the speed 
of the entire quarantine process may be more closely related to 
principles of scientific risk assessment and/or the field and 
greenhouse capacity, rather than to modern molecular technology.
    Despite the preceding factors, the current staffing level at the 
Plant Germplasm Quarantine Office (PGQO) does not enable the PGQO to 
take full advantage of molecular diagnostic techniques.
  --Pome (apple, pear) and stone fruits (cherry, plum, peach).--The 
        polymerase chain reaction (PCR)-based test for phytoplasmas and 
        molecular hybridization assays for viroids have enabled 
        provisional quarantine release within one year, providing 
        adequate budwood is available. Additional technical assistance 
        is needed to fully utilize new greenhouse and screenhouse 
        space, implement more fully this molecular testing program, and 
        further accelerate the quarantine process.
  --Stone fruits.--Implementation of a PCR-based test for sharka (plum 
        pox) could supplement the plant graft testing on indicator 
        species, but would require additional resources for 
        implementation, and additional technical assistance to fully 
        utilize new greenhouse and screenhouse space.
  --Sugarcane.--Current quarantine testing relies on observations of 
        symptoms on greenhouse-grown plants, which is not ideal for 
        sugarcane. Molecular tests for Fiji virus (Oceania) and 
        sugarcane mosaic gemini virus (Africa) are under development at 
        PGQO. Implementing these tests, which might result in 
        provisional quarantine release, will require additional staff 
        resources for the PGQO.
  --Rice.--Molecular techniques are not required to accelerate pathogen 
        diagnostic testing with rice, because the key pathogens are 
        readily culturable bacteria. Additional technical assistance is 
        needed to fully utilize new greenhouse and screenhouse space 
        for the rice quarantine program.
  --Currants and gooseberries.--A PCR-based assay for the reversion 
        virus in these plants should be implemented, but this will 
        require APHIS approval and additional staff resources for PGQO.
  --Potatoes and sweet potatoes.-- A PCR-based test for phytoplasma 
        should be implemented to improve the accuracy and reliability 
        of the potato/sweet potato pathogen detection, but would not 
        necessarily accelerate the rate whereby germplasm is released 
        from quarantine. Additional technical assistance is needed to 
        fully utilize new greenhouse and screenhouse space and to 
        bolster this molecular testing program.
    Question. Have the germplasm materials at the Griffin, Georgia, and 
Pullman, Washington, facilities been tested for viability?
    Answer. Of the 68,900 germplasm accessions at Pullman, WA, 32.2 
percent have undergone germination testing at Pullman during the 11-
year period of 1991-2001. Most of the germination tests were conducted 
during the last 6 years (1995-2001). Roughly one-half of the 68 percent 
of the collection that has not been tested recently comprises samples 
of legumes, which often survive 40 years or more in storage.
    During the last 11 years, few of the more than 81,000 seed-
propagated accessions at Griffin, GA, have undergone germination 
testing at Griffin; approximately 60 percent of the samples stored at 
Griffin have been tested recently for viability at the National Seed 
Storage Laboratory (NSSL), Fort Collins, CO, which provides important 
information for managing Griffin collection. There are 686 clonally-
propagated sweet potato accessions at Griffin that are regularly 
checked visually for health and vigor.
    Duplicate samples of 77 percent of the seed-propagated accessions 
from Griffin, GA, and 85 percent of the accessions from Pullman have 
been deposited at the NSSL, Ft. Collins, CO. The viabilities of many, 
but not all, of these duplicate samples were tested by NSSL before 
being deposited in long-term storage and the germination information 
made available to curators at Griffin, GA, and Pullman, WA, as was 
mentioned above.
    Question. Do all the facilities have viability testing plans and 
procedures in place and do they have the resources sufficient to follow 
such plans and procedures?
    Answer. No, not all of the NPGS facilities have viability testing 
plans and procedures in place, as some sites (e.g., Palmer AK; 
Columbus, OH; Parlier, CA) were only recently established, and the 
precise scope of their germplasm holdings is still under consideration. 
The preceding sites are still in the process of securing needed 
equipment, facilities, and other infrastructure. Some years ago, the 
NPGS conducted a system-wide effort to ensure that each existing NPGS 
site had an operations manual that included such viability testing 
plans and procedures. As a result, the ``older'' NPGS sites generally 
do have such plans and procedures in place, especially for major crops, 
where there may be extensive information regarding the expected long-
term seed viability. In contrast, for wild species, or for ``minor/
specialty crops,'' such as many ornamental species, viability testing 
procedures have not yet been developed, so no testing procedures exist. 
More resources are needed to conduct research at NPGS sites and 
elsewhere to develop those standard assays.
    The linchpin of the NPGS's viability testing program is the 
National Seed Storage Laboratory (NSSL) at Ft. Collins, CO, which 
preserves the ``base'' collection which holds duplicate samples of NPGS 
germplasm as a back-up to materials at the active sites. The NSSL 
conducts viability tests on all seed samples when they are initially 
received for deposit in long-term storage. NSSL's plans and procedures 
stipulate viability monitoring every 15 years for all samples with a 
viability percentage of 85 percent or higher when last tested. Due to 
budgetary limitations, this target has not been attainable, and the 
NSSL must rely on an outside laboratory to conduct at a fee about 2,500 
tests each year. Although germination tests are standard, seed vigor 
testing would also be desirable, but insufficient funds are available 
to initiate such testing.
    The NSSL's research program develops for the NPGS viability 
monitoring tools to predict longevity so that monitoring frequency is 
optimal, and to measure changes in viability non-destructively. At 
present, the NSSL scientific staff is insufficient for developing 
efficient and non-invasive viability assays for seeds, or to develop 
molecular markers that evaluate genetic and environmental influences on 
seed quality. Furthermore, development of viability assays for wild 
species and ``minor crops'' is limited by insufficient quantities of 
seeds or other propagules for experimentation. Currently, technical 
staff is insufficient for mass producing experimental propagules, which 
involves very labor intensive procedures.
    The resources available for implementing established viability 
plans and procedures vary considerably across the ``active'' NPGS 
sites, i.e., those that distribute seeds, tubers, and cuttings directly 
to scientists. Thanks to funding increases in fiscal year 2000 and 
fiscal year 2001, the genebank at Ithaca/Geneva, NY, has resources to 
implement testing plans and procedures aimed at maintaining seed 
germplasm collections at international standards. Similarly, potato 
samples at Madison/Sturgeon Bay, WI, are tested at least every five 
years, and this site currently has sufficient funds to conduct research 
on improving germplasm viability and on improving the efficiency of 
viability assessments. The site at Pullman, WA, has sufficient 
personnel, germination testing facilities, and testing protocols to 
assess seed viability, but there is a significant backlog of samples 
needing viability testing (over 60 percent of the collection). During 
this last fiscal year, resources were redirected for added support for 
viability assessment, but this site still needs one additional half-
time worker to conduct requisite viability testing. The small grains 
collection at Aberdeen, ID, has a plan in place to monitor viability of 
all cultivated accessions every 10 years. For the wild relatives of 
crops, monitoring does not begin until the seed is at least 20 years 
old because most of the wild seed seem to retain viability longer. At 
Urbana, IL, funds are available for regrowing soybean samples every ten 
years and those of wild soybean relatives every 15 years, so that 
nearly all samples are of sufficiently high quality for distribution.
    The NPGS site at Ames, IA, has developed detailed guidelines for 
viability testing that include a flow chart enabling planning and 
tracking the testing process for each accession, and recording all 
germination methods used. Each accession is tested generally at five-
year intervals, although this interval can be reduced or lengthened, 
based on experimental results. Thanks to development of new custom 
software, and bar coding, the testing efficiency and accuracy have 
increased, thereby increasing the number of tests performed per year. 
There are still backlogs of germination tests for certain crops, and 
appropriate tests do not exist for all the species conserved but, as a 
whole, a recent assessment of this program found that the testing 
program is nearly meeting its goals.
    Prior to the fiscal year 2001 budget increase, the Griffin, GA, 
site had no funds, personnel, facilities, equipment, or supplies 
available for germination tests. Established plans or procedures ``in 
place'' had little meaning because there were no means for conducting 
such tests. With the budget increase, a germination testing program is 
being established, but with suboptimal technical support and equipment. 
Consequently, it will require years to test the many (81,000 samples) 
there, and also test newly acquired or regrown samples.
    Viability of cotton seeds are tested when materials are backed-up 
at NSSL, because the active site at College Station, TX, lacks 
resources for such testing. Such assays are crucial with some of the 
wild species with limited periods of seed viability, but resources are 
lacking for research in this area. Similarly, at Mayaguez, PR, lack of 
funds, personnel, and the large size of the collection has impeded 
progress with viability testing on sorghum, 5,000 of which may have 
very poor viability.
    For some clonally propagated crops maintained in orchards (e.g., 
citrus), visual monitoring is sufficient for assessing viability. Staff 
at Davis, CA, and at NSSL are conducting pilot cryopreservation 
experiments on cherries and grape, but results to date have been 
disappointing. Pilot studies on embryo culture methods for fruit and 
nut crops have begun. Genetic fidelity testing for cherries and grapes 
is underway, and may have immediate impact on management methods. At 
College Station, TX, water delivery to orchards and greenhouses is the 
primary threat to maintaining pecan and hickory germplasm. Resources 
are lacking to monitor water quality.
    Question. What percentage of the NPGS collection requires timely 
regeneration to maintain its genetic integrity? With current resources, 
and at the current rate of regenerating accessions, how long would it 
take the ARS to regenerate those accessions?
    Answer. In our response, we assume that 1) ``timely'' means 
``during the next 2-5 years'' (consistent with the 1997 GAO study of 
the NPGS), and 2) ``regeneration'' is relevant for the 400,000 + seed-
propagated NPGS germplasm accessions. Because of the variable quality 
and quantity of data available, the accuracy and precision of the 
following percentages vary. Across the NPGS, the median percentage of 
collections that require regeneration during the next 2-5 years seems 
to be about 30 percent. The percentage information is provided for the 
record.
    [The information follows:]

                                                    Estimated percentage
                                                  requiring regeneration
                                                     during the next 2-5
        Selected NPGS collections                                  years

Tomato genetic stock (Davis)..................................     20-50
Soybean (Urbana)..............................................        50
Cotton (College Station)......................................     50-60
Seed-propagated fruits and nuts (Corvallis)...................        50
Seed propagated accessions (Ames).............................        20
Seed propagated accessions (Griffin)..........................        30
Seed propagated accessions (Geneva)...........................      2-97
Small grains (Aberdeen).......................................       8-9
Seed propagated accessions (Mayaguez).........................     10-50
Seed propagated accessions (Pullman)..........................         3
National Seed Storage Laboratory (Ft. Collins)................        30

    Regeneration rate is determined not only by fiscal resources 
available for that activity, but also strongly by the biological 
properties of each crop (breeding system, genetic constitution, growth 
rate, duration, etc.). Therefore, information for representative 
individual seed-propagated crops is presented. Because of the variable 
quality and quantity of data available, the accuracy and precision of 
the following figures vary. Across the NPGS, the median period required 
to regenerate these accessions seems to be more or less 9 years. But, 
importantly, for a substantial proportion of these accessions, 
especially of wild species (e.g., tomato, potato), research and 
development will be required to first develop methods for successful 
regeneration. The estimated years required to regenerate accessions is 
provided for the record.
    [The information follows:]


------------------------------------------------------------------------
                                           Estimated years required to
       Selected NPGS collections              regenerate accessions
------------------------------------------------------------------------
Tomato genetic stock (Davis)...........  3-7
Soybean (Urbana).......................  5
Cotton (College Station)...............  10-15
Seed-propagated accessions (Corvallis).  No resources are currently
                                          available for regenerating
                                          those accessions.
Seed propagated accessions (Ames)......  2-23
Seed propagated accessions (Griffin)...  12-15
Seed propagated accessions (Geneva)....  1-25
Small grains (Aberdeen)................  5-10
Seed propagated accessions (Mayaguez)..  10
Seed propagated accessions (Pullman)...  7-10
National Seed Storage Laboratory.......  Regeneration of base (Ft.
                                          Collins) collection is
                                          conducted at active sites.
------------------------------------------------------------------------

    Question. What resources are needed to develop the methodology to 
ensure long-term preservation of the viability of the clonally and seed 
propagated material in storage?
    Answer. Resources are needed not only to develop effective seed 
storage or orchard/greenhouse preservation protocol (e.g., 
cryopreservation, green-house pot culture) that preserves viability, 
but also for more efficient methods (less time, less cost, fewer 
materials) of long-term preservation. In many cases, resources are 
needed to test the genetic fidelity/authenticity of stored materials.
    The National Seed Storage Laboratory (NSSL) at Ft. Collins, CO, is 
the NPGS central site for long-term germplasm preservation. Although 
cryopreservation protocols exist for propagules (sexually or asexually 
derived) innately extremely tolerant of low temperature or moisture 
stresses, and for propagules sensitive to these stresses but, because 
of their small size (<1,000 cells), are amenable to other approaches, 
there are hundreds of species and tens of thousands of samples, for 
which cryopreservation methods are lacking. Despite some progress, many 
barriers remain for efficient cryopreservation of the former samples, 
and too few scientists are addressing these problems.
    Plant material may often be insufficient for such experiments 
because methods are usually labor intensive; there is usually 
insufficient support staff to implement procedures on the wide scale 
required. More support scientists are needed to apply technology and 
more technicians are needed to enhance propagule production and 
processing and to implement a viability-monitoring program. Staff 
support is needed for further research on documentation of stress 
physiology of uncharacterized species before they are placed in a 
routine storage environment, on greater longevity of propagules so that 
monitoring and regeneration frequencies can be extended, on greater 
capabilities to regenerate large quantities of high quality propagules, 
on assessments of genetic diversity within and among accessions and 
genetic shifts resulting from storage so that the size of collections 
can be optimized, appropriate samples can be archived, species or 
varieties lacking preservation protocols can be prioritized, and the 
impact of mortality on genetic diversity can be assessed.
    Specific preservation protocols must be developed for species 
represented by more than 30,000 NPGS samples. Clonal protocols for 
liquid nitrogen storage are very specific to species or sub-species; 
these protocols must be adapted for hundreds if not thousands of 
species. A nondestructive seed viability monitoring test is needed to 
reduce the destruction of seeds during testing. The research to develop 
the latter will require extensive resources in addition to time to 
adapt protocols for germplasm storage.
    NPGS sites that primarily manage clonally-propagated germplasm face 
many of the same resource issues. Current funding at Riverside, CA, is 
insufficient for developing methods for storing citrus seeds at 
cryogenic temperatures, so all citrus germplasm is maintained clonally 
as orchard trees, which is expensive. Similarly, much of the tropical 
germplasm at Hilo, HI, and Mayaguez, PR, is preserved in orchards or in 
pots in greenhouses. Resources are needed to develop reliable methods 
for long-term cryopreservation of tropical/subtropical clonally-
propagated fruit germplasm at both sites. Thanks to research conducted 
previously at Hilo, HI, pineapple, breadfruit, and tea are stored in 
tissue culture for the medium term, but limited storage space and 
personnel impede progress. Funds for additional technical assistance 
are needed to back up in cryogenic storage and in vitro culture more of 
the small fruit and nut samples at Corvallis, OR. For fully a half of 
the collection, scientific techniques must be developed to do so. 
Additional facilities (a tissue culture lab facility), an additional 
scientist, technician, supplies, and equipment (growth chambers, 
laminar flow hood, microscopes) are needed at Ithaca/Geneva, NY, for 
long-term storage of clonally-propagated grape germplasm as buds or 
other tissues.
    At Pullman, WA, continued development of infrastructure through 
capital improvements is needed to expand and improve greenhouse, 
screenhouse, and growth chamber space needed to develop seed increase 
protocols, or where the actual increases are conducted, because the 
accessions are either not adapted to the local area or because of 
diseases (primarily vial). Greenhouse seed increase provides not only 
the best yields per plant per accession, but also by far the best 
quality of seed. Similarly, at Aberdeen, ID, the paucity of greenhouse 
space is limiting the rate for regenerating the backlog of wild 
species.
    For pecans and hickory, additional resources are needed to develop 
molecular genetic tools for analyzing the structure of genetic 
diversity in native populations. Such data will help with establishing 
a viable in situ conservation strategy, which would be the best for 
these native tree species. The research also may help establish 
improved, ex situ plantations selected for improved performance in 
particular geographic regions (from which continued selection can 
contribute to long-term regional improvement), for verification of 
cultivar identity, as well as for the long-term development of marker-
aided selection to improve the efficiency of the breeding program. The 
molecular marker work is funded by a grant that expires this year. At 
current budget levels, there are no resources to continue using the 
markers in routine assays.
    Sufficient resources are available to preserve the viability of 
clonally-and seed-propagated potato germplasm at Madison/Sturgeon Bay, 
WI. However, additional resources are needed to develop genetic markers 
for assessing the genetic fidelity/authenticity of stored potato 
germplasm. Similarly, the system for long-term preservation for cotton 
at College Station, TX, seems to be adequate, except that additional 
resources would be welcome for more rapidly moving new materials 
through the seed increase and document phases to be incorporated into 
the long-term base collection.
    Methods are available for ensuring long-term preservation for the 
vast majority of species maintained at Ames, IA. But for some crops, 
appropriate protocols are not yet available. Staff at that site 
collaborate with staff at NSSL on those issues. Resources are currently 
unavailable to examine the genetic component of longevity under actual, 
long-term storage conditions, and genetic shifts in accessions as a 
result of the regeneration process itself, both independent of, and 
related to, genetic shifts under long-term storage conditions. 
Relatively few accessions at Ames, IA, are maintained vegetatively but 
they often possess special characteristics, for which reliable safe, 
long-term preservation methods are lacking. Such germplasm is 
maintained in field and greenhouse plantings, with no organized system 
of off-site backup. Little is known about their long-term health, with 
respect to the broad range of microbes present as latent infections for 
extended periods of time.
    The costs of ongoing, long-term planting or long-term maintenance 
in the greenhouse vary widely depending on re-propagation frequency, 
adaptation to field conditions, etc. Nevertheless, reliable protocols 
for slow-growth, in-vitro shoot-tip culture or cryogenic preservation 
of buds could decrease per unit preservation costs. Such protocols are 
generally lacking and, even when they are available, two important 
issues remain: (1) how easily can generic protocols be modified to work 
well on a broad range of genotypes, and (2) do the plants that are 
recovered after storage preserve the genetic integrity of the source 
material?
    A research geneticist, additional lab technicians, and updated DNA 
sequencers are needed in Griffin, GA, to test the genetic authenticity 
of clonal germplasm stored in tissue culture and in the greenhouse. 
Methods for maintaining sweet potato via cryopreservation rather than 
the current labor-intensive tissue culture system are needed, not only 
to save time and money, but to reduce the risk of losing valuable 
germplasm. Increased funding for the molecular lab would also increase 
testing for duplication and genetic redundancy, which not only increase 
storage and regeneration costs, but also hamper evaluation efforts 
wherein genetically identical accessions may be assessed. Similarly, no 
genetic fidelity tests are conducted on sorghum in Mayaguez, PR, which 
is especially worrisome for accessions with low viability. Additional 
resources are needed for that genetic testing.
    Question. Does the NPGS have the resources to effectively use 
geographic information system tools to identify gaps in the U.S. 
collection?
    Answer. In addition to the resources available for geographical 
information systems (GIS) analyses, methodological and data quality 
factors may strongly affect how effectively GIS can identify genetic 
gaps in the NPGS's collection. Of course, the resources that have been 
available historically may have strongly affected the preceding 
factors.
    First, for each crop or species under consideration, the strength 
of the association between genetic variation and ecogeographical 
factors must be determined before GIS analyses of ecogeographical data 
can be considered a reliable means for predicting genetic divergence or 
diversity. There are few resources throughout the NPGS to hire 
personnel with GIS expertise to integrate genetic diversity data with 
geographic information. NPGS sites such as at Ft. Collins, CO, have the 
potential to utilize the GIS to reduce duplication, improve the quality 
of the collection through core subsets, and identify locations for 
growout that would be cost efficient, but they lack funding for 
personnel to generate such genetic data, or with needed GIS background 
or computer skills.
    Second, basic information about the degree of reliability for the 
ecogeographical information itself is generally lacking. GIS relies on 
the accuracy of the available latitude and longitude data to identify 
sites that environmental factors suggest may contain genetic variation 
valuable to sample. For example, the ecogeographical information 
available for the pecan and hickory collection at College Station, TX, 
lacks the precision needed for GIS analyses. Development of such 
information, a long-term project, is required for this site to use GIS 
techniques to integrate ecogeographical information with molecular 
estimates of genetic variation. The major limitations to progress are 
insufficient resources for personnel.
    Third, lack of latitude/longitude/elevation data, or any accurate 
location data at all, may simply preclude use of GIS to analyze many 
thousands of older accessions (e.g., in citrus). As funds permit, 
locations such as Ames, IA, and Beltsville, MD, are retrospectively 
determining the latitude and longitude of the origin of NPGS 
accessions. But additional resources are needed for permanent data 
entry specialists to do that, and to computerize descriptive 
information recorded only on paper. But, in contrast, the Aberdeen, ID, 
site had sufficient resources to map almost all possible germplasm 
samples by their latitude and longitude with GIS software and 
electronic gazeteers.
    Finally, lack of resources for identifying the optimal GIS approach 
and for confirming the validity of initial experiments may impede 
application of GIS to identify genetic gaps in the NPGS collection. For 
example, at Beltsville, MD, inadequate resources for technical support 
is greatly limiting implementation of an original approach for applying 
GIS technology to identify gaps in the NPGS collections and 
prioritizing acquisition needs. Resources are similarly lacking at 
Pullman/Prosser, WA, and at the soybean collection at Urbana, IL. In 
general, throughout the NPGS there are few resources for applying 
existing techniques to the many important crop genepools and very 
limited capacity for developing more sophisticated tools for more in 
depth analysis of collections, needs, and priorities.
    Question. Does the NPGS have the resources to analyze the plant 
collections for gaps and the resources to prioritize the collections 
using this procedure?
    Answer. As with the preceding question, factors other than resource 
availability, such as methodological and data quality issues, may be 
key for developing the means for applying GIS and molecular genetic 
analyses to managerial/curatorial decision-making, such as gap analyses 
and setting priorities for germplasm management.
    First, let us presume that ``gaps'' mean absence from the 
collections of key genes, genotypes, varieties, etc. Before GIS 
technology can be applied to identifying gaps, and the technological 
merit of this approach assessed, basic information is needed regarding 
the genetic structure of crop genepools and their distribution in 
nature, farmers' fields, and in gene banks. Besides the major crops, 
relatively little is known about the total genetic diversity of other 
crop species; the genetic diversity within and among populations/
accessions of a species; the number of accessions needed to fully 
represent the genetic diversity of a species; and the relationship 
between morphological traits, environmental plasticity and genetic 
diversity. Molecular analytical procedures must be developed for each 
species so that genetic relationships among genebanks samples can be 
estimated.
    For example, little or nothing is known of the genetic diversity in 
many wild perennial sunflowers. A gap in the genetic coverage of the 
NPGS collection of wild relatives of sorghum is suspected, but a lack 
of genetic data makes it difficult to confirm this or to estimate the 
size of such gap. The current status of ``wild'' citrus and date palms 
in nature is unclear, and political barriers currently impede access to 
some nations where these crops originated. Much descriptive literature 
on these crops is very old (1800's) and probably not always accurate. 
Similarly, taxonomic treatments for many minor (especially tropical) 
and even some major crops are currently insufficient to identify gaps. 
Up-to-date taxonomic classifications, accurate data on native 
distributions, and access to important taxonomic reference data, all 
critical for analyzing gaps, may be lacking. With the current level of 
support, the staff of taxonomists associated with the NPGS struggles to 
adequately meet the ever-increasing demands for taxonomic data.
    In some NPGS sites, lack of resources impedes the ability to 
conduct gap analysis with GIS and/or molecular approaches. At Pullman, 
WA, resources are needed to format the passport data so that it can be 
analyzed by GIS. Furthermore, once passport data are ready, both 
morphological and molecular markers must be combined in databases. For 
many of the species within its collection, NPGS lacks sufficient 
scientific staff or molecular genetic labs with high throughput 
capabilities to perform the prerequisite genetic assays. This is 
especially the case for large collections, e.g., 30,000 + sorghum 
samples managed at Mayaguez, PR, and Griffin, GA, where resources are 
not available to analyze the entire collection for gaps.
    Resources are lacking to continue molecular analyses, funded by a 
competitive grant, that are providing critical baseline genetic data 
for pecans and hickories at College Station, TX. Furthermore, permanent 
``in-house'' personnel trained in plant population analysis and 
interpretation are needed there. The genebank at Corvallis, OR, lacks 
resources for molecular analysis of temperate fruit or nut collections 
to identify gaps. Additional molecular tools, in conjunction with 
extant information on morphological traits and ecogeographical 
location, would provide a more precise estimate for genetic diversity 
in the collections. Where, such as at Aberdeen, ID, the necessary 
ecogeographical baseline data and GIS tools are available for 
initiating GIS assisted gap analyses, resources (money and techniques) 
may be lacking to evaluate samples at the molecular level and thereby 
identify gaps.
    Limited genetic resources, often from competitive grants, have been 
available for NPGS scientists to complete an extensive survey of potato 
genetic variability and systematic relationships during the last 15 
years, providing a detailed accounting of the gaps in the NPGS and 
other potato germplasm collections. Also, some ``gap analyses'' (that 
have not employed GIS) have been conducted on very small plant 
collections, where they also uncovered putative duplicates/
redundancies, which may occur especially in poorly-characterized 
collections of clonally-propagated crops. For example, molecular 
analyses detected little genetic variation among samples of tannier at 
Mayaguez, PR. Analyses may also be conducted at the level of species, 
e.g., the Beltsville, MD, site is determining the presence or absence 
of wild crop relatives and the number of accessions for these species 
in the NPGS collections, then will use GIS tools to analyze the 
ecogeographic origin of existing accessions as a first step in the 
analysis of gaps and prioritization of acquisition needs.
    In some cases, molecular analyses have successfully detected gaps 
in genetic diversity, and resources were available for NPGS scientists 
to collect new material to fill those gaps. A comprehensive molecular 
analysis of the pea collection at Pullman, WA, revealed that newly 
discovered genetic variants almost always occurred in samples from 
Turkey. As a result, several collecting expeditions were mounted in 
Turkey until it was believed that the genetic gap was filled. 
Similarly, genetic research at Davis, CA, with wild relatives of the 
cultivated grape identified species that may be of special interest to 
grape breeders. As a result, scientists are planning to collect wild 
grape species from Armenia, and assess its diversity. Also, plans are 
underway to collect wild Chinese grape species in danger of extinction 
in nature. There are few Chinese grape samples in the NPGS, and those 
sample's properties suggest that this poor representation represents a 
major gap.
    Question. What is the status of international efforts to exchange 
germplasm and is any germplasm located outside of the U.S. at a risk of 
loss? What agencies or entities are involved in assessing whether 
germplasm is at a risk of loss on an international basis?
    Answer. During the last decade--especially during the last five 
years--developments in international and national legislation and 
diplomatic agreements have complicated, or sometimes precluded, free 
international exchange of germplasm. Part of this trend is the result 
of the philosophical change from considering germplasm the ``common 
heritage of humankind,'' to formal recognition of nations' sovereignty 
over the germplasm within their own borders. The Convention on 
Biological Diversity (CBD) and other legislation now require that 
``prior informed consent'' and arrangements for ``benefit sharing'' be 
established before germplasm can be exchanged. Although such provisions 
are considered by some as the basis for durable germplasm conservation 
and exchange, to some extent, they have slowed the rate of germplasm 
exchange, and sometimes impeded the ability of scientists to visit 
endangered locales and at least perform a ``triage'' to save crop 
germplasm. Negotiations that precede plant exchange are now 
considerably longer, more complicated, and consequently germplasm 
exchange may be more expensive than ever before.
    Outside of the United States, destruction of natural and 
agricultural habitat and of traditional cultures is proceeding at an 
accelerated rate that threatens germplasm. Although other nations 
(especially in the developing world) have established genebanks and 
reserves for natural vegetation, on a global scale, the capacity to 
manage germplasm in gene banks or in reserves has probably not 
increased substantially. At present, many genebanks in other nations 
have very limited capacity, and conservation reserves are often not 
adequately managed. Also, on a global scale, enhanced capacity in some 
nations (e.g., several developing nations) has been ``canceled out'' by 
lost capacity in other nations (e.g., Russia, some nations of the 
Former Soviet Union), by cutbacks in funding to some of the CGIAR 
centers, etc. Consequently, germplasm outside of the U.S. is still at 
risk. As limited resources permit, staff of the NPGS are working with 
officials in Russia and elsewhere to place duplicate germplasm samples 
in the NPGS for safekeeping.
    Finally, economic ``globalization'' has benefitted many worldwide 
through substantial expansion in international trade and through 
development of transportation infrastructure (e.g., roads, airfields, 
navigational channels), affording ever easier access to previously 
remote regions that may facilitate germplasm collection, tourism, 
agricultural development, etc. But, this access has also increased the 
danger to germplasm in nature, as formerly pristine regions are 
converted from traditional agriculture and/or natural habitats to more 
intensive agricultural and forestry practices. Concurrently, the 
traditional cultures of indigenous peoples, and their rich lore about 
plant uses, may be lost. Lastly, penetration into pristine regions 
provides invasion routes for additional exotic, invasive species which 
may rapidly deteriorate the landscape and endanger potentially valuable 
germplasm of traditional crops and their wild relatives.
    The International Plant Genetic Resources Institute (IPGRI), an 
international agricultural research center (IARC) supported by the 
World Bank through the Consultative Group for International Agriculture 
Research (CGIAR), has as part of its mission the monitoring of 
germplasm loss internationally. Similarly, the Food and Agricultural 
Organization of the United Nations (FAO) maintains the World 
Information and Early Warning System (WIEWS) to disseminate information 
about germplasm at risk, and as an instrument for the periodic 
assessment of the state of the world's crop germplasm. The USDA/ARS 
National Plant Germplasm System (NPGS) collaborates closely especially 
with IPGRI on projects to assess the status of germplasm in specific 
crops, e.g., peanuts. The U.S. government provides 20 percent of the 
funding for the FAO, and the NPGS contributes information to the WIEWS.
    Question. What is the availability and condition of collections at 
the international agricultural research centers and have the 
collections been evaluated adequately?
    Answer. The availability and condition of the crop germplasm 
collections at the international agricultural research centers (IARCs), 
and the degree to which germplasm has been evaluated adequately, varies 
widely from IARC to IARC, and across the individual crop collections at 
each IARC. For some crops, samples from the IARCs are generally readily 
available, although they may not be adequately evaluated. Recently, 
there has been a very active exchange of dry bean germplasm between 
NPGS at Pullman, WA, and scientists at CIAT, an IARC in Colombia. At 
other IARCs, unless NPGS scientists have established a collaborative 
research effort with that IARC's scientists, germplasm access may be 
problematic. Access by U.S. researchers to germplasm in IARCs or held 
by other countries may be seriously compromised as a result of the 
forthcoming FAO International Undertaking, which will regulate 
worldwide access to plant germplasm.
    The quality of germplasm collections at the IARCs is highly 
variable. It is generally believed that resources for periodic 
viability testing of the collections held at the IARC's does not exist, 
therefore viability testing is not done. It is difficult to monitor the 
condition of collections without that information, but resources are 
generally not going to germplasm viability testing or regeneration on a 
routine basis at these centers. The NPGS site at Beltsville, MD, is 
assessing the quality of IARC collections with respect to species 
representation, numbers of accessions per species, geographic origin of 
accessions, etc. Eventually, this information may be used to compare 
the contents of IARC collections with contents of the NPGS collections 
to identify ``global'' gaps, redundancies etc.
    Collections of cool-season legumes (chickpea, lentil, pea) at the 
International Center for Agricultural Research in Desert Areas (in 
Syria) and the International Center for Research in the Semi-Arid 
Tropics (in India) seem to be of generally high quality, and readily 
accessible to researchers. The International Center for Maize (Corn) 
and Wheat Research (CIMMYT) has excellent germplasm storage facilities, 
but the condition of their collections is directly related to their 
condition at the time of deposit, and varies greatly. In contrast, 
there are few germplasm collections of tropical/subtropical fruits at 
IARCs and they may not be of high quality or adequately evaluated. 
Banana and cacao may be exceptions, but even collections of these crops 
may deteriorate due to unstable political climate and lack of funding. 
Many clonal collections of tropical fruit crops in IARCs are 
unreplicated and accessions grafted into different and unknown 
rootstocks, thereby greatly complicating evaluations.
    A molecular assessment of the genetic diversity in crops in both 
the IARC and U.S. collections would help the U.S. assess its needs, the 
countries where it could expect to exchange germplasm, and its 
interdependence on any countries holding valuable collections or wild 
relatives in situ. For example, additional evaluations of horticultural 
merit are needed for collections of white potatoes and sweet potatoes 
at the International Potato Center (CIP, in Peru), Furthermore, 
germplasm in most of the other IARCs and in national collections have 
not been evaluated well, or at all, for conditions and traits of 
benefit to U.S. needs. Indeed, most of the samples in IARC genebanks 
have not been evaluated adequately for performance under temperate 
conditions.
    Finally, for some globally important crops, there are no IARC 
collections. For all practical considerations, the NPGS collection at 
College Station, TX, serves as the international collection for cotton, 
and the collection at Urbana, IL, serves a similar role for soybean.
    Question. If there is not a substantial increase in the NPGS budget 
of $20 million as ARS requested, what are some of the forecast 
ramifications?
    Answer. As mentioned in answer to a previous question, there were 
no formal agency or Departmental budget requests. The ramifications of 
a static NPGS budget for fiscal years 2002-2006 can be forecast from 
both a fiscal and a programmatic standpoint. From a fiscal standpoint, 
consider the current budget of $32.2 million, and assume the following: 
(1) inflation reduces purchasing power at a rate of 2.6 percent per 
year (the mean calculated from annual estimates for this period in the 
fiscal year 2001 Budget Analytical Perspectives); and (2) personnel 
costs increase by 3.4 percent per year (the mean calculated from annual 
estimates for this period in the fiscal year 2001 Budget Analytical 
Perspectives). Given the preceding figures, and a static budget during 
fiscal years 2002-2006, the purchasing power of the NPGS budget would 
decrease by 14 percent from inflation. During the same period, the 
current percentage (15 percent) of the NPGS budget devoted to non-
salary items (equipment, operations, travel) would decrease by 18 
percent to 13 percent. Adjusted for inflation, the non-salary budget 
would effectively be reduced to less than 10 percent of the total NPGS 
budget. And, at certain NPGS sites, that percentage would be 
substantially less than 10 percent.
    A static budget during fiscal years 2002-2006 would have severe 
programmatic ramifications throughout the NPGS. The budgets of some 
sites are already running deficits that are accompanied by substantial 
programmatic effects. Funding at many sites would be insufficient not 
only for salaries of temporary employees, but also for some permanent 
curatorial staff. At many sites, no funds would be available for 
utilities, travel, operations, facility repairs or expansion, supplies, 
or equipment. Position vacancies would be abolished to provide funds 
for operations.
    With a static budget during fiscal years 2002-2006, the NPGS would 
by necessity focus nearly exclusively on providing security for 
databases and for germplasm stored in coldrooms, greenhouses, and field 
plantings. Purchase of equipment key for germplasm security might be 
precluded. Acquisition of endangered germplasm would slow or cease, as 
would evaluation of germplasm for agronomically or horticulturally 
valuable traits. The rate of duplicating (backing-up) germplasm and 
testing it for health, viability, or genetic integrity would slow or 
cease. Germplasm would move through the quarantine process more slowly, 
or not at all. Germplasm currently at risk would perhaps be endangered 
further, whereas additional germplasm might also be endangered. As the 
funds available for maintaining each accession shrank, the supply of 
germplasm would shrink, which would limit germplasm distribution, and 
impede the progress of important research and breeding programs. Should 
additional funds become available in later years, they would initially 
be devoted to restoring the NPGS to its state in fiscal year 2002, 
rather than to progress on new initiatives.
    A static budget would preclude the NPGS from exploiting the new 
tools of genomics and biotechnology to develop more effective and 
efficient means of maintaining and regenerating germplasm. The 
ramifications would be especially severe for clonally-propagated crops, 
many of which cannot now be preserved by long-term tissue culture or 
cryopreservation.
    Lastly, there is currently more demand (more frequent requests, and 
more samples per request) from scientists for germplasm for research, 
and more public interest in conserving genetic diversity and in 
exploiting it for crop improvement, than at anytime in the past. For 
example, soybean farmers through the United Soybean Board and state 
checkoffs have been and still are investing millions to exploit soybean 
germplasm. Researchers are already finding new genes for improved 
levels of disease resistance and yield. Genomic technology is 
identifying loci and allelic variants important for yield, seed 
composition, disease resistance and other economically important traits 
in soybean, tomato, and other crops. The major funding increases for 
plant genomic research at NSF will generate many new specialized 
genetic stocks for the NPGS to manage. For example, NSF-funded research 
will generate at least 50,000 new maize (corn) genetic stocks, which 
would more than double the size of the NPGS maize stock center. Just 
when researchers can use germplasm more effectively and efficiently 
than ever before, just when its clientele is demanding more from the 
NPGS, and just when the NPGS, if sufficiently funded, could deliver 
more than ever before to its customers, the NPGS would struggle just to 
maintain staff, facilities, and germplasm.
    Question. If NPGS received an increase of $10 million for fiscal 
year 2002, what would you be able to accomplish with the additional 
resources?
    Answer. An NPGS-wide $10 million funding increase would enable the 
NPGS as a whole to accelerate substantially its progress in all facets 
of plant genetic resource management. As a result, the time needed to 
regenerate accessions that are endangered because of low seed number or 
viability would be shortened dramatically, thus safeguarding much of 
the germplasm currently at risk. An additional 6-7 scientists could be 
hired. The number of permanent, full-time technicians, information 
management personnel, or support scientists could be increased by about 
40. At sites that employ substantial crews of part-time or seasonal 
workers, many more of these workers would be hired.
    More germplasm would be safeguarded by newly developed 
cryopreservation and in vitro culture technologies. The genetic 
diversity in entire collections could be characterized by new, high 
throughput methods for assessing genetic diversity. Funds would be 
available to adapt the latest technology of genomics and bioinformatics 
to germplasm management by hiring scientists trained in genome 
analyses, bioinformaticists, and computational biologists. New, 
specialized databases would be constructed to meet specific user needs. 
Some genebanks would have the resources to begin to distribute 
germplasm in the form of isolated, purified DNA for molecular studies.
    Costly new specialized facilities, e.g., specialized greenhouses, 
screenhouses, growth chambers, and laboratories, could be constructed. 
New greenhouses and screenhouses are needed throughout the NPGS, 
especially if new funding were available to intensify germplasm 
regeneration, maintenance, and quarantine programs. With crops that are 
cultivated worldwide, the genetic variability and ecological adaptation 
within the crop are so broad that no one site is suitable for 
cultivating all varieties in the field, so some must be grown in 
greenhouses. Furthermore, until in vitro culture techniques are 
developed for particular clonally-propagated germplasm, greenhouses and 
screenhouses can serve as back-up sites for accessions that are now 
maintained solely in orchards at other sites.
    Question. Does the NPGS have sufficient resources to handle the 
projected increase in specialized genetic stocks generated by the 
publicly funded plant genome programs? Please provide the dollar amount 
and the percentage of the NPGS budget for specialized genetic stocks on 
a location-by-location basis.
    Answer. During the next decade, the specialized genetic stocks and 
research tools produced by public plant genome projects supported by 
the National Science Foundation and USDA/National Research Initiative 
(NRI) will substantially increase the size of the NPGS's specialized 
genetic stock collections. If the funding currently available for 
supporting these stock collections does not increase proportionately, 
then resources will not be sufficient for optimally conserving and 
distributing these valuable research tools.
    For example, managers of pea, common bean, and lettuce genetic 
resources at Pullman, WA, are being asked to curate numerous special 
genetic stocks developed for gene mapping and characterization projects 
supported primarily by the NRI, but the personnel, equipment, and 
facilities currently are insufficient to do so. Current funding and 
facilities devoted to tomato and potato genetic stocks would need to be 
expanded extensively to handle thousands of new genetic stocks that may 
be generated by public tomato or potato genome projects.
    Genome projects will increase the numbers of maize (corn) genetic 
stocks enormously. One large maize genome project funded by NSF in 1999 
is generating ca. 50,000 new genetic lines. As a result, the maize 
genetic stock collection at Urbana, IL, will require at least one 
additional technician and accompanying increased budget for operations 
to manage those lines alone. As the stocks arrive during the next few 
years, additional climate-controlled seed storage space must be 
available, which will require construction. New greenhouses are needed 
for cultivating some of the new stocks safely. Thus, the impact of this 
one project on the NPGS will be on the order of $50,000-$75,000 
annually, adjusted upward for inflation, for the foreseeable future. 
And that quantity reflects only increased operational costs: capital 
improvements (greenhouse, cold storage space) would further increase 
the total cost. The current ARS base budget for the maize genetic stock 
collection does not suffice even for handling the new genetic stocks 
generated just by that one (albeit large) project. It is uncertain how 
many more such projects will be funded by NSF or NRI in the future, but 
each has the potential of increasing the demand on the NPGS's resources 
by a similar amount.
    Similarly, funds have not been available to maintain cotton genetic 
stocks at College Station, TX, that cannot be managed according to 
routine procedures for this crop. It is anticipated that a number of 
publicly-funded cotton genome projects will deposit genetic stocks in 
the collection, especially because the projects are supported by grant 
funds, which will expire soon.
    Soybean genetic stocks currently comprise little of the soybean 
collection at Urbana, IL. It is uncertain whether the numerous soybean 
genome projects will greatly increase the number of genetic stocks 
incorporated into that collection. At present about 1.4 percent of the 
100,000+ samples at the National Small Grains Collection at Aberdeen, 
ID, are genetic stocks. Current resources are sufficient to manage 
these stocks.
    Furthermore, resources are needed to conduct research (at Ft. 
Collins, CO, and elsewhere) on how to effectively conserve some genetic 
lines with altered synthesis of and response to plant growth 
regulators. Their seeds are not amenable to conventional storage.
    A summary of the fiscal resources devoted specifically to managing 
genetic stock collections is provided, site by site. One research 
project at Urbana, IL, is devoted completely to managing such a 
collection (for maize, i.e., corn). For other crops, genetic stock 
collections are often considerably smaller than that for maize, and 
these efforts are thoroughly integrated with much larger general crop 
germplasm management efforts. In these cases, a relatively small 
percentage (<10 percent) of total funds in the relevant research 
project is devoted specifically to managing genetic stocks. For the 
total NPGS budget of ca. $32 million, an estimated $587,600, or 1.8 
percent, is devoted to managing crop genetic stocks.
    [The information follows:]

------------------------------------------------------------------------
                                            Percent of
                                             relevant
                                             research
                  Site                        project          Funds
                                            devoted to
                                          genetic stocks
------------------------------------------------------------------------
Aberdeen, ID (wheat and barley).........             6.0         $83,900
Urbana IL (maize).......................           100.0         357,200
Urbana, IL (soybeans)...................             4.0          27,700
Ithaca/Geneva, NY (tomato) (funds                    6.7          54,300
 transferred to University of
 California, Davis, CA).................
College Station, TX (cotton)............             4.0          58,800
Pullman, WA (pea).......................             0.3           5,700
------------------------------------------------------------------------

      agricultural research service (ars) buildings and facilities
    Question. The President's fiscal year 2002 budget proposes a $44 
million reduction in funding for Agricultural Research Service 
buildings and facilities. The President's budget blueprint indicates 
that the Department will conduct a comprehensive review of overall 
facility needs. Agriculture research facilities have been reviewed on 
numerous occasions. The last I am aware of was submitted in August of 
1999 by the Strategic Planning Task Force required by the 1996 Farm 
Bill to conduct a study of USDA research facilities and report back to 
the Secretary of Agriculture and the Congress. Why is a new, 
comprehensive facilities' review needed? What does the Administration 
hope it will accomplish that the others did not? What guidance has been 
given for this review; who will conduct the review; and when is it 
expected to be completed?
    Answer. Comprehensive review of USDA research facilities is needed 
as part of the Administration's review of budget proposals and 
priorities for preparation of the fiscal year 2003 and future budgets. 
Although no formal guidance has been issued regarding the review of 
facility needs, it is anticipated that existing reports will be 
utilized for this review. Updated information is required, however, to 
determine long-term cost commitments for projects, utilization rates 
for existing space, and other determining factors that impact capital 
investment decisions. In addition, an analysis of research program 
priorities as they relate to facility condition should be part of our 
new analysis.
    Question. The Congress has initiated funding for a number of 
projects which are needed and supported by the Department and the ARS 
even if they do not make the Administration's priority list for 
inclusion in the President's budget request. Given budgetary 
constraints, these projects have been funded incrementally over a 
number of years. A number of projects funded in past appropriations 
Acts can now be completed if the final increment of construction 
funding is provided for fiscal year 2002. Given the investment made to 
date and to avoid further escalation in total cost, wouldn't it make 
more sense to complete these projects rather than to initiate new 
projects or new phases of projects as the President's fiscal year 2002 
budget proposes?
    Answer. There are times when priorities change or when projects are 
recognized as local or regional priorities when they are not part of 
the national research agenda established in the annual budget process. 
Projects chosen for funding in the 2002 budget are those serving 
national needs, including the major regional research centers of the 
Agricultural Research Service. Most of these projects are continuing 
long-term modernization efforts at existing facilities. While prior 
year investment to fund construction projects is an important factor 
and requires our prudent review, the ultimate goal of completion does 
not serve as the decisive measure when determining priority for funding 
proposals.
    Question. The fiscal year 2002 budget requests $3.762 million to 
continue modernization of the Plum Island Animal Disease Center in 
Greenport, NY. Research on foot-and-mouth disease and other foreign 
animal diseases that are an ongoing threat to livestock is currently 
conducted at this location. Are the current facilities at Plum Island 
adequate to conduct this work?
    Answer. The requested modernization of the Plum Island Animal 
Disease Center (PIADC) in Greenport, New York is an essential component 
of the requirement to ensure the successful research on Foot-and-Mouth 
Disease (FMD) and other foreign animal diseases. The facility, although 
safe, is not a state-of-the-art facility. The high containment animal 
housing space is limited and currently is being used for research on 
FMD. Modernization of these research and diagnostic facilities is 
critical if we are to meet the threats posed by exotic foreign animal 
diseases to U.S. American agriculture and to human health worldwide, as 
PIADC is the only Federal U.S. facility where research of this caliber 
can be conducted.
    Question. Funding of $20.5 million has been provided to date for 
the Western Human Nutrition Research Center, Davis, CA. It was my 
understanding that the project scope had been down-sized to enable the 
project to be completed within the funds appropriated. The fiscal year 
2002 budget requests $5 million to restore the facility to its original 
scope. Why?
    Answer. The Agricultural Research Service was appropriated 
$20,350,000 for the design and construction of this facility. However, 
because of escalating building and construction costs in California, 
the facility's original scope had to be reduced from 49,000 GSF to 
43,000 GSF to meet the funding available for this construction project. 
While such a down-sized facility would still accommodate the projected 
staffing level of 16 scientists, the ARS space allocations would be 
reduced for most functions, including lab space, human studies space, 
offices and storage areas. Moreover, the down-sized facility would not 
provide room for future program growth which could only be accommodated 
in space in other university-owned buildings on the UC-Davis campus. 
The benefits of consolidation in a single facility--to ARS and UC-Davis 
campus--would be foregone.
                    information technology/security
    Question. On April 30, 2001, the Chicago Tribune reported that due 
to lax computer security, the National Agricultural Statistics Service 
(NASS) has left highly sensitive crop forecasting data vulnerable and 
open to hackers and others who would want to profit from having access 
to such data. What has the Department done to investigate this matter 
and what steps has it taken to ensure that vital data such as this 
throughout the Department and at its data center in New Orleans and 
Kansas City are adequately protected from unauthorized access and 
misuse?
    Answer. The Office of the Chief Information Officer (OCIO) has 
examined the issues raised in the Chicago Tribune article and informed 
me that the allegations are misleading. This is due, in part, to 
misunderstandings of NASS security procedures and the perceived threat.
    Both OCIO and Office of Inspector General (OIG) have concluded 
their reviews of this issue. OIG has issued an opinion that NASS 
information is secure. They offered some recommendations to further 
tighten security and OCIO is working to help strengthen NASS's security 
program in identified areas. In addition, security reviews have been 
concluded at the Department's major centers. I will have OCIO provide 
more specific information on these security issues.
    [The information follows:]
    OCIO is currently working with the General Accounting Office (GAO), 
which has begun its own review of NASS security practices. Information 
related to the NASS crop forecasting process and security of the 
forecasting data has been provided. In addition, NASS systems are 
currently on OCIO's oversight review plan. A comprehensive security 
review will be conducted following the conclusion of the GAO review.
    In November, a site assessment team, comprised of security 
specialists, conducted an onsite security risk assessment at the USDA 
National Finance Center (NFC). The team reviewed NFC's computer and 
telecommunications environment. Additionally, they interviewed security 
personnel to determine if security measures, both in place and planned, 
are adequate to protect the integrity, availability and safety of NFC's 
information resources. The review established a security baseline for 
measuring progress at NFC and resulted in numerous findings, most of 
which were easily remedied. Others, however, will require additional 
follow-up efforts to adequately mitigate. Follow-up configuration 
management training also resulted from this review. None of the 
vulnerabilities found related to the potential compromise of NASS data.
    The Cyber Security Program Office staff recently concluded security 
reviews (both physical and cyber-security) of IT facilities at the 
National Information Technology Center (NITC) in Kansas City. The NITC 
review assessed security measures already in place and planned for 
NITC. The review was conducted to determine if measures are adequate to 
protect the information resources hosted at NITC, and also establishing 
a security baseline for measuring future progress and mitigating risks. 
This review was similar to one conducted recently at the National 
Finance Center (NFC) in New Orleans and is part of Cyber Security's 
risk-based security review program.In addition, contracted security 
specialists recently completed an exhaustive study of NITC security 
requirements and existing security controls. Recommendations for 
improvement in NITC security posture have been delivered and are 
currently under consideration by NITC and OCIO management. These 
recommendations include an analysis of alternative methods for 
encrypting sensitive data managed by NITC systems.
    Question. Over the last several years we and others have raised 
questions and expressed concerns about USDA's management of and plans 
associated with its multibillion dollar effort to modernize business 
processes and information technology for its county based agencies. 
What assurances can you give us that this critical effort is on track 
and is being managed in a cost-effective and efficient manner?
    Answer. The USDA Chief Information Officer has been assigned direct 
management responsibility for the information technology portion of the 
Service Center Modernization Initiative (SCMI) and has taken steps to 
ensure that this effort is managed cost-effectively and efficiently. A 
central management structure, headed by an Office of the Chief 
Information Officer (OCIO) executive and assisted by a central project 
management office manages the effort. The OCIO has also engaged 
experienced private-sector support to provide assistance. According to 
OCIO, integrated project plans are being used to ensure that the 
project is managed in an efficient and cost effective manner. Funds 
provided by the Congress for this initiative are being managed by the 
OCIO, and the National Food and Agriculture Council and the OCIO 
develop budgets and monitor spending. Status reports are prepared and 
circulated internally, and OCIO also submits quarterly reports to 
Congress on implementation of the Common Computing Environment.
    Question. For some time, USDA has been trying to improve its 
financial management systems, which includes implementing its 
Foundation Financial Information System (FFIS). Where does USDA stand 
in resolving its financial management problems?
    Answer. USDA is making significant progress in implementing FFIS. 
The Department's largest agencies are now using FFIS, and by October 1, 
2002, all USDA agencies will be using FFIS. FFIS is intended to be the 
foundation for other departmentwide or ``corporate'' systems 
initiatives needed to ensure that the program and financial data fed 
into FFIS is reliable. The Department has been formulating plans for 
these corporate systems and will be implementing them in the coming 
years. We will also address agency-specific financial reporting 
problems, which together with improved financial management systems, 
should improve our audit opinion in fiscal year 2001.
    Question. Where does USDA stand on implementing the Freedom to E-
File Act for enabling farmers and others to access and file paperwork 
electronically with the Department? Does USDA plan to implement GAO's 
recent e-File report recommendations?
    Answer. In the short term, we are continuing to expand the number 
of redesigned forms available on the common Service Center e-Government 
web site. The initial requirement of the Freedom to E-File Act was met 
through the deployment of commonly used Rural Development, Farm Service 
Agency, and Natural Resources Conservation Service forms to this site.
    USDA is in agreement with the recommendations in a recent GAO 
report on our implementation of the Freedom to E-File Act. A senior 
executive is leading our e-Government efforts. He is working with 
agency e-Government executives on department-wide and agency-specific 
plans to implement e-Government programs and processes, consistent with 
legislative requirements and GAO recommendations.
    Question. Table 22-1 of the President's budget shows that total 
information technology (IT) investments for USDA will increase from 
$1.383 billion in fiscal year 2001 to $1.488 billion in fiscal year 
2002. What are the major and significant projects that will be 
supported by the fiscal year 2002 funding level requested? Did USDA's 
CIO and Executive Information Technology Investment Review Board 
(ITIRB) review and approve each one as part of USDA's fiscal year 2002 
capital planning and investment control process? Were any problems 
identified as part of their review of these projects and, if so, what 
actions were taken to address them? Which funded projects were not part 
of USDA's fiscal year 2002 capital planning and investment control 
process, and why was each project excluded from this process?
    Answer. I will have the Chief Information Officer provide that 
information for the record.
    [The information follows:]
    USDA's CIO and Executive Information Technology Investment Review 
Board (EITIRB) reviewed and prioritized all major projects as part of 
USDA's fiscal year 2002 capital planning and investment control 
process. A project is defined as ``major'' if it meets one of several 
criteria, such as having a total life cycle cost greater than $50 
million, has a significant multi-agency impact, is mandated by 
legislation, or is identified as a priority by the Secretary. 
Significant investments are those which do not meet the criteria to be 
classified as ``major'', but are still deemed significant to an 
agency's business processes. The EITIRB does not review significant 
projects although these projects are still part of USDA's Capital 
Planning and Investment Control (CPIC) Process. Significant investments 
are reviewed at the agency level, and OCIO is working with agencies to 
ensure that each agency has set up IT executive review boards to review 
and approve significant and other information technology investments. 
Significant investments are also reviewed by the CIO through USDA's IT 
Investment Moratorium. Small IT projects and activities that are 
neither classified as major or significant, as defined by the Office of 
Management and Budget are not part of the CPIC process.
    Issues or concerns raised during the EITIRB's review are addressed 
by meeting with affected investment principals, requesting improved/
clarifying documentation of proposed alternatives, and monitoring of 
progress to meet agreed upon objectives. Investment activities may be 
restricted until all conditions are met.
    Following is a list of the major and significant information 
technology investments proposed as part of the fiscal year 2002 budget 
for the record.
           major it investments proposed for fiscal year 2002
    Farm and Foreign Agricultural Services.--FSA-CORE Accounting System 
(CORE); FSA-Processed Commodities Inventory Management System FNS/AMS/
FSA; RMA-Emerging Information Technology Architecture; RMA-
Infrastructure Modernization, Support, and Training (IMST).
    Food, Nutrition and Consumer Services.--Food Stamp Program 
Integrated Information System (FSPIIS) Redesign; Special Nutrition 
Programs Integrated Information System (SNPIIS) Redesign; Food 
Acquisition Tracking and Entitlement System (FATES) FNS/AMS/FSA; Agency 
Financial Management System (AFMS); FSPIIS Legacy System; SNPIIS Legacy 
System; Electronic Benefit Transfer (EBT)--Grants to States; Advanced 
Planning Documents (APDs)--Grants to States.
    Food Safety.--FSIS Automated Corporate Technology Suite (FACTS); 
FSIS-Field Automation Information Management (FAIM).
    Natural Resources and Environment.--FS-Project 615 (IBM) FS IT 
Infrastructure; FS-Integrated Personnel System (IPS); FS-Connect Human 
Resources; FS-Timber Information Management (TIM); FS-INFRA; FS-Natural 
Resources Information System (NRIS); NRCS-New Combined Administrative 
Management System (CAMS-HR) NRCS/FSA/RD; NRCS-Data Acquisition.
    Research, Education, and Economics.--REE Information System 
(REEIS).
    Rural Development.--Dedicated Loan Origination and Servicing System 
(DLOS); New Guaranteed Loan System RD/FSA; Rural Utility Loan Servicing 
System; Program Funds Control System RD/FSA; Automated Multi-Housing 
System.
    Marketing and Regulatory Programs.--AMS-Livestock Mandatory Price 
Reporting; APHIS-Integrated System Acquisition Project (ISAP).
    Departmental Administration.--Integrated Acquisition System (IAS); 
Employment Complaints Tracking System (ECTS).
    Staff Offices.--OCIO-Universal Telecommunications Network (UTN); 
OCIO-Service Center Modernization Initiative (SCM-IT); OCIO-Capital 
Planning and Investment Control WI-TIPS (CPIC); OCFO-Foundation 
Financial Management Information System (FFIS); OCFO-Payroll Engine; 
OCFO-Thrift Savings Plan (TSP).
        significant it investments proposed for fiscal year 2002
    Farm and Foreign Agricultural Services.--FSA-Grain Inventory 
Management System (GIMS); FSA-Management of Agricultural Credit Systems 
(MAC); FSA-Debt and Loan Restructuring System (DALRS); FSA-Farm Loan 
Information and Delivery System; FSA-Farm and Home Plan (FHP); FSA-
Guaranteed Loan System (GLS); FSA-Cotton Management Systems (CMS); FSA-
AMTA Enrollment and PFC Payments System; FSA-Acreage Reporting and 
Compliance Systems; FSA-Automated Price Support System (APSS); FSA-
Geological Information System (GIS); FSA-Common Computing Environment 
(CCE) Hardware and Software; FSA-Information Systems Security Program; 
FSA-Field Office Telecommunication; FSA-Field Office Voice and Data 
Support; FSA-LAN, MAN, WAN, and Server Hardware; FSA-Microcomputer 
Hardware--KC Complex; FSA-PC Software and Support; FSA-Service Center 
Hardware Maintenance; FSA-Provide Microcomputer Hardware and Software; 
FSA-LAN/WAN/Voice Project--Service Center Implementation; FAS-Financial 
Accounting and Reporting System (FARS); FAS-Overseas Computer Systems; 
FAS Core Information and Communication Systems; FAS-Wide E-Commerce 
(GPEA & FFMIA Implementation).
    Food, Nutrition, and Consumer Services.--EBT-FNS Direct Operations; 
EBT--Account Management Agent (AMA); Food Program Information 
Infrastructure Modernization (FPIIM); FSP--Certification and Issuance 
Support (DRS, CRIMS); FSP--Store Tracking, Authorization and Redemption 
System (STARS); Automated Funds Control System (AFCS).
    Food Safety.-- Performance Based Inspection System; Laboratory 
Information Management System Security.
    Natural Resources and Environment.--Forest Service FFIS; FS-
National Financial Applications; FS-Central Accounting System (CAS) 
Feeders; FS-Automated Timber Sale Accounting System; FS-Budget & Ledger 
System for CAS; FS-Enterprise-wide Data Warehouse; FS-Budget 
Formulation & Execution System; FS-Automated Land Project (ALP); FS-
Weather Information Management System (WIMS) FS-Resource Ordering and 
Status System (ROSS); FS-Forest Inventory & Analysis; FS-Radio 
Communication; NRCS-Financial Management Information System--Legacy; 
NRCS-Water and Climate Information System; NRCS-Strategic Analysis and 
Assessment Information System; NRCS-Telecommunication Infrastructure.
    Research, Education, and Economics.--ARS-Radio Program; ARS-
Integrated Program Management System (RMIS redesign); ARS-
Biotechnology; Cooperative Research, Education, and Extension 
Management System (C-REEMS); NASS-Estimates Processing and 
Dissemination; NASS-Census and Survey Processing Systems; NASS-
Information Technology Support and Delivery; NASS Research System.
    Rural Development.--Program Loan Accounting System RD/FSA; 
Centralized Help Desk; Data Warehousing; Paperwork Elimination; Credit 
Reform.
    Marketing and Regulatory Programs.--Automated Targeting System 
(ATS); Wildlife Services MIS 2000; Port Information Network Operations 
(PIN-Ops); Market News.
    Question. USDA's Chief Information Officer's (CIO's) fiscal year 
2002 budget shows that more that $60 million in working capital funds 
will be used for IT projects in fiscal year 2001 and fiscal year 2002. 
What specific IT projects were funded out of the Department's working 
capital fund in fiscal year 2001 and which specific projects have been 
approved for fiscal year 2002?
    Answer. The Office of the Chief Information Officer uses working 
capital funds to support both the National Information Technology 
Center (NITC) and the Telecommunications Services and Operations (TSO).
    The NITC provides enterprise server services and application 
development services to governmental agencies both inside and outside 
the Department of Agriculture. The NITC does not fund projects per se. 
NITC is a data center and provides data center services to USDA and 
non-USDA customers on a competitive, 100 percent fee-for-service basis. 
NITC services include a wide range of IT infrastructure support to 
achieve effective mission performance and program delivery for customer 
agencies. According to OCIO, current major initiatives NITC is 
undertaking include: cyber security and disaster recovery planning, and 
continuing to strengthen its IT infrastructure to support customers' 
needs as they move to e-Government service delivery.
    TSO's working capital fund operational projects are based on 
continuing upgrades to support wide area network services, local area 
network systems, and a variety of other telecommunications services. 
According to OCIO, TSO efforts are now focused on the USDA Universal 
Telecommunications Network which will provide all USDA agencies with 
cost-effective wide area network services, and improving basic local 
area network services.
    Question.--The fiscal year 2002 budget for USDA's CIO shows $7.6 
million in capital equipment under the working capital funds. What will 
these funds be used for?
    Answer. I will have the Chief Information Officer provide that 
information for the record.
    [The information follows:]
    USDA's CIO fiscal year 2002 capital equipment under the working 
capital funds breaks down as follows:

Enterprise Server Services--NITC..............................$6,425,000
Application Development Services--NITC........................   250,000
Business Services--TSO........................................    40,000
Network Engineering--TSO......................................   375,000
Computer Services Unit--TSO...................................    55,000
Network Services--TSO.........................................   500,000
                    --------------------------------------------------------------
                    ____________________________________________________

        TOTAL................................................. 7,645,000

    Funds expended for capital equipment maintain the dependability and 
cost effectiveness of NITC data center hardware and software. As new 
technology is released, NITC upgrades enterprise server configurations 
to keep current, vendor-supported versions of hardware and software for 
the NITC customers. In addition to purchasing enterprise server CPU 
hardware/software, NITC is also purchasing environmental control 
equipment, data storage equipment, mid-range computer technology, 
telecommunications equipment, LAN server equipment, web security and 
application development tools. All of these capital equipment outlays 
are in response to customer demands and, as stated previously, 
replenished every year on a 100 percent fee-for-service basis. 
Furthermore, these expenses are depreciated to NITC customers over a 
period of time.
    TSO's working capital fund estimated capital investment dollars for 
fiscal year 2002 will be used to upgrade existing systems and to 
purchase essential equipment including: Oracle software upgrade, test 
bed server, integration of the video system infrastructure, South 
Building renovation (new switches) phase III, three firewalls, Local 
Area Network (LAN) upgrade, intrusion detection, spare router cards, 
and a network modeling tool suite.
    Question. USDA's CIO budget shows that a total of $3,383,045 of Y2K 
emergency supplemental funds remain to be obligated in fiscal year 
2001. Why are these funds still needed and for what specific purposes 
will they be used?
    Answer. According to OCIO, the Department of Agriculture fiscal 
year 2001 carryover balance is targeted for continued Year 2000 
conversion activities in fiscal year 2001, along with payment of 
services rendered but not yet billed to the Department, including 
telecommunications services. The dollars being spent are targeted 
toward a wide spectrum of non-mission critical Year 2000 compliance 
expenditures, which include scientific and laboratory equipment 
upgrades, hardware upgrades and replacements, software upgrades and 
replacements, telecommunication system remediation and program 
management.
    Question. USDA's budget shows that $2.036 million of the remaining 
ADP cap was still unobligated as of the beginning of fiscal year 2001. 
What's the status of these funds and what activities will they fund?
    Answer. The $2.036 million remaining under the CCC ADP cap will be 
expended by the end of fiscal year 2001. The funds under the ADP cap 
will be used to cover essential basic operating costs and maintenance 
of legacy systems.
             government performance and results act (gpra)
    Question. What are USDA's key performance goals for improving the 
management and use of information technology throughout the Department 
during fiscal years 2001 and 2002?
    Answer. The following are USDA's information technology goals and 
performance goals for fiscal years 2001 and 2002:
  --Establish a common computing environment for USDA Service Centers, 
        which includes hardware, software, security, websites, 
        telecommunications and databases.
  --Transition to an e-Government environment.
    Question. What key goals were not met and why?
    Answer. In fiscal year 2000, key IT goals for the Department were 
set forth in the OCIO annual performance plan; all key targets were met 
or exceeded. The Department will evaluate its success in meeting the 
above performance goals at the close of Fiscal years 2001 and 2002 and 
make information available on the goals achieved and not achieved at 
those points.
        service center modernization initiative (scmi) and plan
    Question. USDA funds its Service Center Modernization Initiative 
(SCMI) effort through various appropriations and accounts. This 
includes Common Computing Environment (CCE) direct appropriations, 
obligations from other appropriation accounts, emergency and 
supplemental funding provisions, additional contributions/funds from 
FSA, NRCS and RD's salaries and expense and other accounts, and from 
CCC ADP and other section 11 accounts. Provide a consolidated table 
related to the Service Center Modernization Initiative that will 
include all such accounts for Fiscal years 2000, 2001, and 2002. Also 
include unobligated balances, a justification for each of the fiscal 
year 2002 budget items, an explanation of how they relate to the 
overall effort, and whom at the department is responsible for managing 
and overseeing each of these funds.
    Answer. The Service Center Modernization Initiative (SCMI) is 
critical to making the Department's field office structure leaner, more 
efficient, and customer-focused. Significant progress has been made in 
collocating FSA's, NRCS', and RD's field offices into one-stop USDA 
Service Centers. Key to the success of the SCMI is the establishment of 
a common computing environment (CCE) that allows the Service Center 
agencies to share information and reduce the redundant requests, office 
visits, and paperwork faced by customers participating in multiple 
programs. CCE is also critical to meeting the requirements of the 
Freedom to E-File Act e-Government. I will have the detailed 
information you requested provided for the record.
    [The information follows:]

                             SERVICE CENTER MODERNIZATION FUNDING SOURCES AND LEVELS
                                             [Dollars in Thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                     Estimate       President's
                            Activity                               Actual fiscal    fiscal year    budget fiscal
                                                                     year 2000         2001          year 2002
----------------------------------------------------------------------------------------------------------------
BPR/Management:
    Business Process Reengineering:
        FSA.....................................................          $6,249          $3,303         $11,350
        NRCS....................................................           3,400           3,100           1,700
        RD......................................................           1,800           3,300           2,429
                                                                 -----------------------------------------------
          Sub-Total.............................................          11,449           9,703          15,479
                                                                 ===============================================
    Change Mgt./Program Mgt:
        FSA.....................................................           1,050             437             266
        NRCS....................................................             710             295             180
        RD......................................................             457             190             116
                                                                 -----------------------------------------------
          Sub-Total.............................................           2,217             922             562
                                                                 ===============================================
          Total BPR/CM..........................................          13,666          10,625          16,041
                                                                 ===============================================
Integrated Technology:
    Common Computing Environment:
        CCE Funds...............................................           2,201          69,768          44,369
        FSA.....................................................           7,229           4,600           4,600
        NRCS....................................................           6,999           3,000           3,880
        RD......................................................           1,929           3,800           4,600
          Sub-Total.............................................          18,358          81,168          57,449
                                                                 ===============================================
Telecom.Lan/WAN/Voice:
        CCE Funds...............................................               0               0          15,000
        FSA.....................................................           1,734           3,640           4,313
        NRCS....................................................           1,783           3,505           3,269
        RD......................................................           1,733           2,129           2,419
                                                                 -----------------------------------------------
          Sub-Total.............................................           5,250           9,274          25,001
                                                                 ===============================================
          Total, Integrated Technology..........................          23,608          90,442          82,450
                                                                 ===============================================
Base Data Acquisition (BDA):
        FSA.....................................................           1,713           1,919           5,153
        NRCS....................................................          15,350          15,680          16,090
                                                                 -----------------------------------------------
          Total, BDA............................................          17,063          17,599          21,243
                                                                 ===============================================
Funding Source Totals:
        CCE Funds...............................................           2,201          69,768          59,369
        FSA.....................................................          17,795          13,899          25,682
        NRCS....................................................          28,242          25,580          25,119
        RD......................................................           5,919           9,419           9,564
                                                                 -----------------------------------------------
          Grand Total...........................................          54,337         118,666         119,734
----------------------------------------------------------------------------------------------------------------

    Note: Fiscal year 2001 and 2002 levels subject to change based on 
availability of agency contributions. Totals may not add due to 
rounding. FSA's funding comes from its salaries and expenses account, 
RD's funding comes from its salaries and expenses account, and NRCS's 
funding comes from its conservation operations account.
    (a) Includes fiscal year 2000 appropriation provided to the Office 
of the Secretary for CCE that was obligated in fiscal year 2000 and 
fiscal year 2001 as well as funds appropriated to the CCE account. 
Fiscal year 2001 amount includes $40 million provided through the 
fiscal year 2001 appropriations act and $19.5 million in emergency 
funding.
    Business process reengineering involves teams of Service Center 
employees reviewing their agencies' business practices and determining 
how these practices can be streamlined or improved to provide better 
service. Currently, there are about 20 active projects in various 
stages of development focusing on core business areas such as lending, 
managing risk, conservation and environment, community development and 
outreach, and administration. Each of these projects is led and funded 
by one of the Service Center agencies.
    Change management and program management refers to the overall 
coordination of SCMI activities carried out by the National Food and 
Agriculture Council (NFAC) staff. It supports customer service 
training, communications activities and special projects. Funding is 
contributed by the Agencies and managed by the NFAC staff.
    The Integrated Technology funding area provides for the IT 
infrastructure needed to modernize Service Center program delivery 
operations. The Information Technology Working Group (ITWG) established 
by the USDA CIO manages this effort and funding. This category is 
further broken down into the CCE Hardware/Software component and the 
Telecom/LAN/WAN/Voice component as follows:
  --Common Computing Environment (CCE).--The CCE is providing Service 
        Centers with common and updated information systems by 
        acquiring and deploying the servers, workstations, printers, 
        software, and other tools necessary to maximize program and 
        customer service, as well as other administrative efficiencies. 
        Improvements include employee access to email, the Internet, 
        and software productivity tools (e.g., word processing) that 
        will save both employee and customer time. CCE also provides 
        the technical infrastructure necessary for the use of 
        Geographical Information Systems (GIS) in the Service Centers. 
        A priority for fiscal year 2002 is the acquisition of 
        application servers to support reengineered business processes 
        and geographic information systems.
  --Telecom/LAN/WAN/Voice.--The Service Center agencies' existing 
        telecommunications capacity, or bandwidth must keep pace with 
        the growing customer, partner, business, and legislative 
        demands for electronic access. This project will enable the 
        Agencies to improve network capacity and performance in support 
        of customer demands and the requirements of legislative 
        mandates.
    Base data acquisition funds will allow us to continue the 
development of Geographic Information Systems (GIS) data layers. GIS 
will provide Service Center agencies with the ability to improve 
customer service in many ways. For example, determinations of field 
measurements, classifications and uses will be more accurate and 
timely. Base data funding is managed by each Agency. Coordination 
occurs through an interagency GIS team that also coordinates with other 
USDA agencies and external partners. While we have made significant 
progress, we will need your continued support over the next few years 
to complete key data layers and implement our reengineered processes. 
Fiscal year 2002 funding will maintain the current level of NRCS base 
data acquisition, but will accelerate the FSA Common Land Unit 
digitizing that is a key data layer needed by all three agencies.
    Question. What kinds of technical refreshments are planned over the 
next several years for the thousands of high-end desk-top computers, 
notebooks, workstations and peripherals already purchased and deployed 
and how much will it cost?
    Answer. USDA recognizes the need to regularly refresh technology 
components as they age and has included that concept in long range 
plans. We will be determining our fiscal year 2003 needs for technology 
refreshment during the budget process this summer. The initial 
priorities will be to replace workstations purchased early in the CCE 
implementation.
    Question. What is the current status and estimated completion date 
associated with implementing each of the major projects identified in 
USDA's December 2000 Service Center IT Modernization Plan?
    Answer. An integrated project plan has been developed for each of 
the nine projects Individual tasks needed to complete this projects are 
built around the overall milestones laid out for the various components 
of the Common Computing Environment (CCE). Specific information is 
provided for the record.
    [The information follows.]
Fiscal year 2001
    March 31, 2001--Deploy AS 400 servers to FSA to ensure connectivity 
to legacy systems and provide a basis for migrating program 
applications. STATUS: Completed.
    April 30, 2001 to September 30, 2001--Pilot test telecommunications 
alternatives and develop Internet plan to upgrade capacity to support 
e-Business and agency web applications. STATUS: Underway, pilot will 
continue into the fall of 2001, plan will be complete in September 
2001.
    April 30, 2001 to September 30, 2001--Conduct comprehensive 
information and systems security planning and analysis. STATUS: 
Underway, on schedule.
    May 2001 to September 2001--Provide necessary systems and end-user 
training to support fiscal year 2001 initiatives. STATUS: On schedule.
    June 30, 2001 to September 30, 2001--Acquire and deploy remaining 
workstations. STATUS: On schedule, deployment may continue into 
October.
    June 30, 2001 to September 30, 2001--Support targeted 
implementation of selected technologies (GPS, digital cameras, etc.) 
STATUS: On schedule, team finalizing requirements.
    June 30, 2001 to September 30, 2001--Acquire GIS enterprise 
license. STATUS: On schedule, procurement process initiated.
    July 31, 2001 to October 31, 2000--Deploy Electronic Access 
Initiative investments and fund a second round of investments to 
provide a secure web environment to support e-Government STATUS: On 
schedule.
    October 2000 to November 2001--Acquire and deploy shared network 
servers in all offices to enable enterprise-wide information sharing, 
common email, and remote management of workstations STATUS: Pilot 
installation completed and operational. Anticipate meeting end dates.
Fiscal year 2002
    October 1, 2001 to September 30, 2002--Acquire and deploy 
application/GIS hardware and software nationwide; deploy enterprise-
wide GIS software.
    October 1, 2001 to September 30, 2002--Provide comprehensive end-
user training to support the fiscal year 2002 initiatives listed above.
    October 1, 2001 to September 30, 2002--Make the capital investments 
needed to upgrade telecommunications to support Internet and web 
applications.
    Question. Does USDA still plan to have the SCMI completed and fully 
operational in 2002? If not, when will it be completed and how much 
will it cost in total to complete it?
    Answer. The basic CCE infrastructure will be in place by the end of 
fiscal year 2002 with requested funding. Once the basic infrastructure 
is in place, additional investments will be considered to maintain the 
infrastructure and provide supporting devices that will enhance the 
capability and efficiency of the SCMI.
    Question. The December 2000 plan also notes improved productivity 
at Service Centers by virtue of deploying a set of common tools such as 
e-mail, office automation software, secure Internet access and sharing, 
telecommunications, and business applications. Are USDA service 
centers' employees presently using these common tools? If not when will 
service center employees be able to use each of these tools?
    Answer. According to OCIO and Service Center agency 
representatives, the Service Center agencies are now using shared 
telephone systems, data connections, internet access, common 
workstation software such as word processing and spread sheet and other 
applications. They are also using common GIS software, common web tools 
and equipment and common data definitions, data warehouse tools, 
administrative software and other tools. A common customer information 
management application is nearing completion, as are other shareable 
business applications. The employees are also supported by a common 
Help Desk system. With the deployment of the network servers by the end 
of fiscal year 2002, the employees will be on the same e-mail and 
messaging system and share new and sophisticated security tools.
    Question. USDA's budget says that the Department is in the final 
stages of determining the cost effectiveness of placing an application 
server in every location or clustering them in fewer locations. When 
will USDA complete this analysis and what potential cost savings exist 
should the Department consolidate and employ more centralized server 
operations using larger capacity servers wherever possible? Did USDA 
perform a similar study before buying network servers for every 
location and, if not, why?
    Answer. According to OCIO and Service Center agency 
representatives, the Common Computing Environment Applications 
Architecture that is scheduled for completion by the end of this year 
will address the question of centralizing or distributing application 
server operations. Potential cost savings have not been determined, but 
will be defined when this study is completed.
    I have also been informed that a similar analysis was completed 
prior to the acquisition of the network servers. The analysis 
determined that the use of the current telecommunications facilities 
would have resulted in a delay of over 20 minutes for an employee 
requesting a typical customer file from a remote server. The cost of 
increased bandwidth telecommunications service was compared to placing 
servers at individual offices in the study, and it was determined that 
increased telecommunications was much more than the purchase of 
individual servers. An additional consideration was the continued 
ability to service customers even if the network connection became 
inoperable.
    Question. Are the Service Center IT agencies using existing USDA 
contract vehicles or their own separate contracts to acquire the same 
or similar technologies and if so what's the rationale and cost 
implications for doing so? Has the CIO's office reviewed and approved 
using separate contract vehicles?
    Answer. According to the Chief Information Officer, whenever 
possible, USDA Service Center agencies use existing USDA or other 
Federal Government contract vehicles to acquire goods and services. As 
of this date, existing contracts have been used for all CCE purchases. 
We expect to continue that approach unless there is a special need that 
cannot be met with an existing contract. The USDA CIO reviews and 
approves all contract purchases.
    Question. Since 1995, USDA has had various efforts underway to 
reengineer business processes and reform service delivery in county 
offices across the U.S. Which business processes have USDA successfully 
reengineered for each of the farm service agencies? What efficiencies, 
savings, or benefits to customers have been gained as a result of each 
reengineered business process? When will USDA complete reengineering 
the remaining ones?
    Answer. I will have information on past reengineering efforts 
provided for the record. We will continue to build on these efforts 
through IT innovation and the implementation of e-Government 
initiatives.
    [The information follows:]
    The USDA Service Center agencies have made significant progress in 
business process reengineering (BPR). The agencies initial BPR projects 
documented the requirements for the current round of CCE equipment that 
is being deployed. These projects include the GIS based Customer 
Service, Wetland and Easement Toolkits that automate conservation 
planning and wetlands and environmental assessments. The Service Center 
Information Management (SCIMS) and Land Use projects, which provide the 
foundation for the agencies to manage customer and land records, are 
nearing completion. SCIMS will enable FSA, NRCS, RD and the 
Conservation Districts to fully share information and coordinate to 
improve service to customers. The agencies have developed and continue 
to evolve a common set of administrative processes including the 
Combined Administrative Management System (CAMS) which initially 
automates shared human resources management functions, the Office 
Information Profile (OIP) which provides information on offices, and 
common directives. OIP and CAMS are currently being integrated. These 
systems provide foundations on which the agencies will build.
    Business process reengineering is an ongoing process, and work 
continues on a number of other projects. Following are two examples.
  --Rural Development has made significant progress in reengineering 
        and deploying applications such as the Guaranteed Loan and 
        Multi-family Housing systems. It has also made significant 
        progress in developing a common data warehousing systems that 
        can help associate program data with demographic information.
  --The Service Center agencies and their partners have developed an 
        agreed upon set of data standards and definitions that enable 
        the sharing of data. The agencies are developing a Resource 
        Data Gateway for the creation and distribution of GIS data to 
        the Service Centers and customers.
    Through the Electronic Access Initiative, the Service Center 
agencies are working together to provide the infrastructure needed to 
enable customers to do business with the Department electronically and 
are planning to bring more services the Internet. These plans represent 
the next phase of agency business process reengineering. Customer 
benefits and cost savings are beginning to be realized. For example, an 
NRCS soil conservationist reports that more conservation filter strip 
designs can be offered to customers because GIS has helped reduce the 
time it takes to develop them.
                         freedom to e-file act
    Question. When the Freedom to E-File Act is fully implemented, how 
will farm services be improved and what specific business processes 
will be automated as a result? To what extent will farmers and others 
covered under the act still have to visit a service center to 
participate in USDA's programs?
    Answer. Once the Act is fully implemented it is envisioned that the 
Service Center agencies and Risk Management Agency will provide 
services using both electronic and traditional methods to meet the 
varying needs of its customers. Some customers will conduct business 
solely via the Internet while others will continue to conduct business 
in the more traditional paper-based fashion or through a combination of 
electronic and traditional. The choice of the number of visits the 
customer makes to the office site will ultimately rest with the 
customer. Eventually, virtually no trips to the USDA service centers 
will be required to conduct transactions. There will still be a need 
for some customer visits in June, 2002.
    According to OCIO, most of the service center agencies' business 
processes are already automated in some manner. However, the migration 
to on-line delivery of information and services will impact virtually 
every one of the agencies' processes where interaction with the 
customer is required. These processes will have to be revamped in a 
manner that reasonably ensures customer understanding and successful 
use in the non-service center environment.
    Question. What steps are being taken by the Department to ensure 
that USDA meets the Freedom to E-File Act legislative deadlines of 
December 1, 2001 and June 20, 2002 for providing farmers and others 
covered under the act the ability to file electronically for services 
with the Department? What has been accomplished so far?
    Answer. The Department's e-Business Executive and the OCIO are 
working with Service Center Agency program and IT leaders to develop a 
comprehensive e-Government strategy and project plan within an overall 
framework which addresses common issues such as infrastructure, 
policies, training, and agency-specific program delivery requirements. 
The major accomplishment so far is that FSA, NRCS, and RD deployed a 
common Internet web site to meet the first set of requirements of the 
Freedom to E-File Act, which enables agricultural producers and RD 
customers to access and download forms used to participate in the 
agencies' respective programs and services. Additionally, RMA developed 
its implementation plan and sent guidance to private insurance 
providers on what they need to do to conduct transactions 
electronically by December 2001.
    Question. GAO made a series of recommendations to help USDA better 
ensure success in meeting the provisions of the Freedom to E-File Act. 
Where does the department stand on implementing each GAO 
recommendation?
    Answer. USDA agrees with the recommendations of the GAO report, 
that both the development of a comprehensive plan and the assignment of 
a senior-level official with overall responsibility, authority, and 
accountability for the effort, is necessary to ensure the Service 
Center agencies, together with the RMA, meet the tight deadlines of the 
Act.
    We have a Senior Executive, as well as an executive working group 
coordinating efforts in the Department. We received OMB approval of 
resubmitted RD forms in March and are in the process of completing a 
comprehensive plan to meet the requirements of the Freedom to E-File 
Act.
  electronic service, e-gov, and government paperwork elimination act 
                                 (gpea)
    Question. The Internet and other new technologies have made new 
demands on government agencies to greatly expand their ability to 
provide electronic services to the public. Where does USDA stand in 
developing and implementing an overall e-Gov strategy to help guide its 
e-Gov transition? What major obstacles are there to providing these 
kinds of electronic services at USDA and what efforts are underway to 
address them?
    Answer. The Department is working to develop a framework for 
planning and implementing e-Government initiatives. According to the 
Chief Information Officer, this e-Government framework will serve as a 
blueprint of policies and procedures that articulates a defined vision 
and strategy to ensure a common understanding regarding e-Government 
and will give agencies knowledge with which to make good business 
decisions.
    The major obstacles identified by OCIO and agencies include the 
resource-intensiveness of efforts, the need to organize activities 
across the Department, and the difficulty of authenticating the 
transmission of sensitive data. A readiness assessment of the agencies 
and customer groups relative to their capability to engage in e-
Government will be conducted. We expect that more specific obstacles 
and challenges will be identified in this assessment relating to 
organizational and technical readiness to implement e-Government 
initiatives. We will also be evaluating the funding requirements and 
the need to scale existing telecommunications capabilities.
    Question. The Government Paperwork Elimination Act (GPEA) 
specifically requires each agency, including USDA, to implement 
procedures necessary to offer secure electronic services for all its 
components and offices by October 2003. What progress has USDA made to 
implement GPEA?
    Answer. USDA agencies developed initial plans for complying with 
GPEA in October 2000. These plans identified business processes deemed 
important to automate in accordance with OMB guidance. OCIO has been 
conducting customer service visits to each of the Department's agencies 
to understand the type of information, guidance, and support the 
agencies need to ensure good planning that leads to successful 
implementation. OCIO is currently working with agency representatives 
to prepare a comprehensive e-Government framework of policies and 
procedures for the department. Efforts of agencies showing significant 
progress, including the Foreign Agricultural Service, Animal Plant and 
Health Inspection Service, and E-File Act agencies, will serve as a 
model for the rest of the Department in developing the framework and 
meeting GPEA requirements.
    Question. Obviously, building and supporting a secure and private 
communications network infrastructure and electronic records management 
process will be of the utmost importance. What specific steps is the 
department taking to provide these very basic kinds of assurances to 
USDA customers and the public?
    Answer. The strengthening of computer security and protection of 
the privacy of information in the Department's computer systems is a 
top priority. USDA agencies have been actively engaged in security 
planning at both the department and agency levels. The Department will 
continue to address security needs and privacy issues through close 
collaboration between the Secretary, OCIO, and individual USDA 
agencies. I will have the Chief Information Officer provide more 
detailed information for the record.
    [The information follows:]
    Long-term objectives are concentrated around building the 
compatible architectures of security, IT, and telecommunications which 
are flexible and capable of meeting both the service level requirements 
and the security requirements. With contractor assistance we will 
establish the telecommunications and security baselines, establish our 
technical options, and develop a security selection matrix and a 
security architecture maintenance process.
    USDA has also taken important steps to implement its comprehensive 
action plan to strengthen Cyber Security. In fiscal year 2001, the 
Department has expanded the Cyber Security Program Office and begun 
implementation of key programs under its comprehensive security 
framework. The Associate CIO is working with the CIO, who also serves 
as the Department's Senior Official for Privacy Policy, and individual 
agencies to assure the privacy of customer and other confidential data 
maintained in USDA information systems.
    Short-term objectives are concentrated around securing the outer 
perimeter of the Departments telecommunications backbone network and 
addressing immediate security needs. Specific steps include:
  --Improving current delivery of services over the Internet. This is 
        being accomplished by deploying additional firewalls, filtering 
        in routers, and intrusion detection systems across the backbone 
        network that together provide a much-improved level of network 
        security.
  --Improving network oversight. OCIO has purchased and installed 
        scanning and penetration testing tools which are used to 
        provide constant network monitoring.
  --Developing specific security architecture components to meet short 
        term needs which will be compatible with our long-term 
        architecture goals.
    In addition, the OCIO has been engaged with the USDA agencies to 
raise their awareness of the need to address electronic recordkeeping 
and to include electronic records requirements into both current and 
future systems design. Agencies have also been provided information on 
the migration of data and information from legacy to new systems and 
that the associated costs must be planned for as part of the system 
development life cycle costs. The need for long-term retention of 
records, such as loans that can span in excess of 40 years, is under 
discussion. Of concern is the need to plan for the verification, 
validation and authenticity, and the storage media as records as 
migrated from one systems to another.
    USDA also has Departmental policy on electronic recordkeeping 
requirements. The USDA Department Records Officer has been actively 
engaged in external electronic recordkeeping groups to ensure USDA's 
policies address the current and future environments. While progress 
has been made, as USDA moves toward a broader electronic environment, 
where paper records are no longer the record copy, much more needs to 
be done. To further address this need, OCIO recently established an e-
Government Program staff to further address electronic records 
requirements. OCIO will be forming a team of agency business experts, 
information technologists, and records officers to address electronic 
recordkeeping requirements in the Internet environment. To this end, 
USDA is exploring the need for a corporate information infrastructure 
and taxonomy to address common records disposition requirements. This 
corporate approach will enable USDA to address electronic recordkeeping 
issues more quickly and provide a common approach for USDA employees 
and a common message to USDA's customers regarding USDA's commitment to 
best recordkeeping requirements in the electronic environment.
                  information technology (it) security
    Question. Were security plans developed for all new IT investments 
approved for fiscal year 2002? If so, how and by whom were these plans 
evaluated, reviewed, and approved?
    Answer. According to the Chief Information Officer, security 
requirements for USDA's Capital Planning and Investment Control Process 
were recently enhanced. More rigorous security requirements have been 
included to ensure that plans for all new systems identify specific 
security controls, costs, and schedules. This will ensure that security 
requirements are adequately addressed during the review of USDA 
information technology investments and that the Department will have a 
baseline from which to monitor security progress.
    Both the Office of the Chief Information Officer (OCIO) and the 
Office of Inspector General (OIG) have concluded their reviews of this 
issue. OIG identified several weaknesses and NASS has already corrected 
most of them and aggressively implemented plans to correct the rest. In 
addition, security reviews have been concluded at the Department's 
major centers. I will have OCIO provide more specific information on 
these security issues.
    According to OCIO, this year agency security plans were required to 
be signed by the respective agency head before submission to OCIO, 
thereby ensuring senior management scrutiny. All plans are initially 
assigned to a staff security specialist for review, followed by review 
by the Associate CIO for Cyber Security. If necessary, the submitting 
agency will be contacted for amplification or clarification prior to 
approval.
    Question. USDA has been criticized in the past for having 
significant computer security weaknesses and in January 2001, GAO 
designated computer security at USDA as a major performance and 
accountability challenge. What management priority has the Department 
assigned computer security and where does USDA stand on implementing 
each of GAO's and the USDA OIG's recommendations?
    Answer. The protection of the security and privacy of USDA 
information resources is a top management priority. The Department 
developed a comprehensive action plan to strengthen Cyber Security and 
has taken important steps to implement the plan. The Department's 
Associate CIO for Cyber Security is leading a corporate approach to 
protecting USDA information resources and is working with the CIO and 
individual agencies to assure the privacy of customer and other 
confidential data maintained in USDA information systems. The 
Department will continue to address security needs and privacy issues 
through close collaboration between my office, OCIO, and individual 
USDA agencies. I will have the Chief Information Officer provide more 
detailed information for the record.
    [The information follows:]
    USDA's ``Action Plan to Strengthen USDA Information Security'' 
provides a sound strategy, based on the best practices of leading 
organizations, for identifying computer security vulnerabilities and 
implementing mitigation procedures and mechanisms. Both the GAO and 
USDA's OIG have favorably reviewed this plan and have recommended 
implementation. Progress OCIO has made to implement its cyber security 
plan and address GAO and OIG recommendations include:
  --The centralized management focus of the cyber security program will 
        be strengthened and expanded to provide additional oversight 
        and hands-on problem solving. This central management strategy 
        will position USDA to be in accordance with oversight guidance, 
        the requirements of legislative mandates, and the strategies 
        practiced by many of the most successful government and private 
        security organizations. Recent additions to the Cyber Security 
        Program Office staff provide the Department with the expertise 
        and experience necessary to improve USDA's cyber security 
        posture.
  --With funds provided in fiscal year 2001 to implement a Department-
        wide Risk Management program, the Cyber Security Program Office 
        has contracted to develop risk assessment checklists, issue 
        guidance, conduct training, and work directly with OCIO and the 
        agencies in conducting risk assessments. Agencies will 
        ultimately be responsible for conducting and funding agency 
        risk assessments and providing the results of those risk 
        assessments to the central Cyber Security Program Office. Risk 
        assessments and subsequent data analyses will form the basis 
        for the decision-making process required to protect USDA's 
        critical cyber infrastructure.
  --The OCIO Cyber Security Program project plan also calls for a major 
        effort in fiscal year 2001 to refine the requirements for 
        security architecture and begin its design and implementation. 
        With these funds, contract expertise will be employed to assist 
        with the refining of USDA security requirements, establishment 
        on the Department's security baseline and the development of a 
        security architecture methodology. Design and implementation of 
        the security architecture will follow.
    With funds specifically designated for these programs, OCIO's Cyber 
Security Program Office will continue to build on its work in the areas 
of risk management and security architecture development. Specific 
vulnerabilities and weaknesses cited in the most recent OIG review 
focuses on operational security controls and procedures. This review 
cited a large number of security weaknesses, some of which are highly 
sensitive. Most of the items identified by OIG have been corrected or 
mitigated.
    Question. How much will be spent in fiscal year 2002 across USDA on 
information security management for staff, software, and other related 
expenses? [Please break out the number of information security 
management staff in and total security dollars spent at each agency and 
office.]
    Answer. In large part, the cost for security of USDA information 
technology systems is not accounted for separately from overall capital 
investment costs. This is consistent with past Office of Management and 
Budget (OMB) direction. OCIO is currently working with agencies to 
develop an accurate estimation of fiscal year 2002 security 
expenditures. We will forward that information when it is available.
    Question. What has USDA done to identify, track, and correct 
security weaknesses and vulnerabilities that exist throughout the 
Department? How many such instances have been reported since the 
beginning of fiscal year 2000, by each fiscal year, and by mission 
area/agency/staff office?
    Answer. The Department is working to correct vulnerabilities 
identified by GAO and OIG as well as by the Cyber Security Program 
Office. Vulnerabilities are identified through audits, security 
reviews, and the scanning of our information systems. The CIO has 
informed me that while we do not have information in the format you 
requested, we do have information on vulnerabilities and efforts are 
underway to improve the way risks are tracked and managed. I will have 
that information provided for the record.
    [The information follows:]
    The OIG just completed an assessment of 1,200 of USDA's devices and 
found 3,300 high and medium security vulnerabilities within seven 
agencies. Their evaluation concluded all agencies tested had poor 
controls over physical and logical access to sensitive data and 
systems. The Cyber Security Program Office is implementing 
comprehensive programs to manage risks and work with agencies to 
correct vulnerabilities.
    In fiscal year 2001, the Cyber Security Program began onsite 
reviews as part of the new Risk Management Program. Recognizing that 
comprehensive and thorough risk assessments of USDA's information 
assets must become an integral part of IT management within the 
Department, the OCIO Cyber Security Program began conducting onsite 
reviews at critical USDA facilities. Thus far, comprehensive 
assessments have included the National Finance Center and the National 
Information Technology Center. Vulnerabilities identified thus far, 
when added to those identified by GAO and OIG, total approximately 
3,800.
    The Department tracks and is working to correct operational 
security weaknesses identified by OIG and the Cyber Security Program 
staff. Vulnerabilities are identified through audits, security reviews, 
network scans, and intrusion detection monitors. Specific 
vulnerabilities and weaknesses cited in the most recent OIG review 
focuses on operational security controls and procedures. This review 
cited a large number of security weaknesses, some of which are highly 
sensitive. Most of the items identified by OIG have been corrected or 
mitigated. If the Committee desires, I will have the OCIO Cyber 
Security staff provide a briefing on the state of USDA computer system 
vulnerabilities.
    Also in fiscal year 2001, the Cyber Security Program initiated its 
development of risk assessment tools as part of its Risk Management 
Program. The Cyber Security Program Office has made significant 
progress in developing the methodologies and tools required to perform 
effective risk assessments of the Department's information assets. 
Contract support has been obtained to develop risk assessment tools and 
to work directly with USDA agencies in conducting actual risk 
assessments. These risk assessment tools will be used to assess 
existing mission critical systems as well as future IT acquisitions. 
Contracts call for all risk assessment tools to be field-tested and 
independently appraised.
    Funding received in fiscal year 2001 for staffing the OCIO Cyber 
Security Program has allowed USDA to add security specialists with the 
experience and expertise needed to train and counsel agency security 
staffs. Over the past year, experts in the fields of configuration 
management, mainframe and desktop security, physical security, risk 
management, network security, and other disciplines have been hired to 
both oversee the Department's Cyber Security Program and assist agency 
security specialists meet their respective security responsibilities.
    Question. Have all USDA computer system and networks that handle 
highly sensitive data, including NASS information, been tested for 
vulnerabilities and risks? If so, what general types of problems were 
identified and what types of steps are being taken to address them?
    Answer. USDA's Computer Security Program is following a risk-based 
facility review program to fully assess USDA's critical infrastructure. 
Computer security measures have been evaluated at our major data 
centers and NASS. This strategy involves on-site reviews of major USDA 
information management facilities based on their relative criticality 
to the organization. According to the Associate CIO for Cyber Security, 
facilities of the highest priority will be reviewed twice each year, 
and less critical facilities will be reviewed once each year. At the 
same time, the Cyber Security Program Office is implementing essential 
security programs and projects that include security risk management, a 
security architecture, configuration management, physical security 
management, intrusion detection and prevention, system certification, 
disaster recovery, and security standards and enterprise-side controls. 
I will have the CIO provide more specific information.
    [The information follows:]
    Vulnerabilities identified by OCIO, GAO and OIG generally fall into 
the following categories:
  --Corrective actions for known vulnerabilities are not being 
        implemented.
  --Inadequate skills within USDA's security program to implement and 
        maintain security devices and procedures.
  --Low level of management attention to security requirements.
  --Inadequate resources to acquire, implement and manage necessary 
        security controls.
  --Pressures arising from legislation and customer demand to move to 
        new technologies that are inherently riskier without proper 
        attention to security.
  --Inadequate network and system access controls.
  --Transmission of sensitive information in unencrypted formats.
    To support current and future delivery of services over the 
Internet, USDA must develop a comprehensive electronic security 
architecture. Activities to improve the USDA security architecture thus 
far include deploying: 1) additional firewalls, 2) filtering in 
routers, and 3) intrusion detection systems that together provide a 
much-improved level of network security.
    Funding was received in OCIO's fiscal year 2001 budget specific to 
the development of a USDA Security Architecture; a contract effort has 
begun to assist the Cyber Security Program staff with security 
architecture design. Additionally, the Department has already 
established firewalls across its telecommunications backbone network, 
procured system monitoring and evaluations tools, and is negotiating 
for a Department-wide contract to provide intrusion detection 
mechanisms. These devices will allow OCIO staff to participate in 
active network monitoring. Collectively, these security controls 
provide a more strict and coordinated enforcement of network access and 
use.
    The OCIO has initiated a backbone security program to address a 
broad range of security issues. This program is designed to establish 
security standards and policies, identify and install security 
mechanism and tools and engage agencies in the application of uniform 
procedures that, collectively, will provide a rigorous set of standard 
security controls to ensure the integrity, availability and 
confidentiality of information transmitted across the Department's 
network. Specific activities planned or underway include:
  --Encryption.--The objective of this initiative is to identify a set 
        of common encryption requirements that will ensure the safety 
        of data transmitted across the USDA telecommunications backbone 
        network. These requirements will address information asset 
        classification, assessment of vulnerability, physical and 
        logical controls, and the tools and procedures necessary to 
        provide a rigorous process designed to eliminate the risk of 
        fraud and misuse of sensitive information.
  --Network Security.--The USDA Network Security program is designed to 
        implement security tools, procedures and policies designed to 
        deter unauthorized and potentially damaging access to the 
        Department's backbone telecommunications network. These 
        mechanisms will provide both preventative and detective 
        controls through a consistent monitoring and filtering system 
        that will ensure the safety and reliability of information as 
        it traverses the network. Additionally, the Department has 
        requested additional support from law enforcement in 
        investigating unauthorized access to our computer systems.
    OCIO has already deployed firewalls, filtering in its routers, and 
intrusion detection systems that together provide a much-improved level 
of network security. For the USDA Telecommunications Backbone Network, 
firewalls have now been installed at every Internet access point. 
Scanning procedures and tools are in place and reports are produced 
daily. Three separate ISS scan tools and other security monitoring 
tools have been purchased and installed at USDA's headquarters complex. 
These devices will allow OCIO staff to participate in active network 
monitoring. Collectively, these security controls will provide a more 
strict and coordinated enforcement of network access and use.
  --Electronic Access Security Design.--The objective of the Electronic 
        Access Security Design initiative is to engage contractors to 
        work with security and network personnel in USDA county-based 
        agencies (RD, FSA, and NRCS) and the OCIO to develop and 
        recommend a comprehensive information security program for 
        Internet/Intranet/Extranet services (Web Farms) and to 
        standardize security-related efforts. Outcomes expected from 
        this effort include 1) a generalized logical architecture; 2) a 
        physical implementation of the logical architecture including 
        integration testing in a laboratory environment, and: 3) a 
        generalized support infrastructure including staffing, 
        policies, procedures, and management processes.
    Agreement has now been reached on a USDA Web Farm architecture. At 
a minimum, all internet-based implementations must agree with the 
standards established for USDA firewall settings. Virtual Private 
Network's (VPN's) established to transmit sensitive data will follow 
the methodology already established within USDA for VPN tunneling. This 
will provide for secure data designations ranging from anonymous to 
``non-repudiation''. Web Farm transmissions will be built on a 
standardized TCP/IP protocol stack and will require the segregation of 
public service traffic and USDA internal services. USDA services will 
be accessed only through authorized paths.
    In addition to the logical controls and security personnel 
requirements, OCIO is currently in the process of establishing physical 
security standards for all Web Farm development. These standards, 
developed in conjunction with USDA's physical security staff, will set 
forth the minimum physical security requirements that must be met prior 
to implementation. The physical security requirements will be finalized 
by the end of fiscal year 2001.
    Question. How is the Department overseeing the expanded use of 
electronic technologies to ensure there are adequate levels of security 
and privacy over Department-wide information resources?
    Answer. Our Chief Information Officer is working closely with the 
Department's IT and business leaders to ensure adequate security and 
privacy as we expand the use of technology in conducting business. USDA 
must ensure the privacy of customer information, customer transactions, 
and other sensitive data it maintains. OCIO is currently in the process 
of updating functional requirements, position descriptions, and skill-
set requirements for personnel who will be assigned responsibility for 
managing privacy issues. Comprehensive security policies and programs 
are also being implemented at the Department-level to ensure a 
corporate approach to mitigating security weaknesses and protecting 
customer privacy. Right now a risk management program and security 
architecture are under development and more programs are planned in 
implementing the Department's comprehensive security action plan.
    According to the CIO, to ensure adequate security in meeting the 
mandates of the Freedom to E-File Act, cyber security program staff 
members have worked closely with Service Center agencies' personnel to 
develop and begin implementing a comprehensive Web Farm architecture 
with adequate security controls. This architecture utilizes common 
hardware, software, configurations, security, policies and procedures, 
and staffing to ensure an orderly transition to delivering services 
over the Internet.
         usda's foundation financial management systems (ffis)
    Question. When does USDA anticipate fully implementing FFIS and how 
much will the system cost to develop and operate once its completed?
    Answer. FFIS will be fully implemented in all USDA agencies on 
October 1, 2002. An assessment is underway to determine the full 
operational costs once all seventeen USDA agencies/organizations are 
implemented and in full operation.
    Question. How much does USDA plan to spend in fiscal year 2002 to 
further implement its FFIS and related improvements?
    Answer. The USDA fiscal year 2002 FFIS implementation budget is 
$17,468,700. Agencies have additional costs as they make improvements 
to their systems, which feed data to FFIS.
    Question. How many agencies are currently using FFIS to input their 
financial information, and when does the Department expect all 
agencies/offices to be using FFIS?
    Answer. There are currently eight USDA agencies using FFIS. All 
USDA agencies are expected to be using FFIS by October 1, 2002.
                information technology (it) contracting
    Question. How much does USDA expect to spend in fiscal year 2002 
for IT contractor support services by mission area/agency/office, and 
how much was spent for such services in fiscal year 2000/2001?
    Answer. The Chief Information Officer provided the following table, 
which shows the fiscal year 2000, and estimated 2001 and 2002 funding 
for USDA IT contractor support services by agency:

                                      USDA SUPPORT SERVICES COSTS BY AGENCY
                                              [Millions of Dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                             Agency                                    2000            2001            2002
----------------------------------------------------------------------------------------------------------------
Agricultural Marketing Service..................................            $4.0            $4.8            $1.7
Agricultural Research Service...................................             3.8             4.2             4.1
Animal and Plant Health Inspection Service......................             3.7             3.5             3.6
Coop State Research, Education, & Extension.....................             2.1             3.0             3.4
Departmental Administration.....................................             4.9             7.3            13.9
Economic Research Service.......................................             0.4             0.2             0.2
Farm Service Agency.............................................            49.7            37.8            53.8
Food and Nutrition Service......................................            10.5             9.9            12.0
Food Safety and Inspection Service..............................             5.1             6.1             6.1
Foreign Agricultural Service....................................             7.2            10.0            10.1
Forest Service..................................................            59.0            55.2            62.8
Grain Inspection, Packers & Stockyards Admin....................             0.1             0.1             0.1
National Agricultural Statistics Service........................             0.6             1.2             1.9
National Appeals Division.......................................  ..............  ..............  ..............
Natural Resources Conservation Service..........................            12.8             8.7             7.2
Office of Budget and Program Analysis...........................  ..............  ..............             0.6
Office of Communications........................................             0.0             0.0             0.0
Office of General Counsel.......................................  ..............  ..............  ..............
Office of Inspector General.....................................             0.1             0.1             0.2
Office of the Chief Economist...................................  ..............             0.1             0.1
Office of the Chief Financial Officer...........................            31.7            28.9            19.2
Office of the Chief Information Officer.........................            26.4            32.6            29.4
Risk Management Agency..........................................            10.8             7.1            15.5
Rural Development...............................................            13.7            34.4            25.4
                                                                 -----------------------------------------------
U.S. Department of Agriculture..................................           246.6           255.2           271.3
----------------------------------------------------------------------------------------------------------------

    Question. To what extent has USDA analyzed and assessed 
opportunities to outsource additional IT support services over the next 
several years? What specific areas would such outsourcing cover and 
what are the expected costs/benefits?
    Answer. USDA has conducted its fiscal year 2000 FAIR Act Inventory 
as required and identified IT jobs that could potentially be 
outsourced. The OCIO and individual agencies are preparing to conduct 
cost comparisons for jobs in the Inventory. Once these studies are 
conducted, we will be able to identify costs and benefits of 
outsourcing these IT positions.
                    chief information officer (cio)
    Question. What has the CIO identified as its major/key performance 
goals for fiscal year 2002?
    Answer. I will have the Chief Information Officer provide that 
information for the record.
    [The information follows:]
    OCIO's performance goals for fiscal year 2001 and fiscal year 2002 
are as follows:
    Goal 1: Enhance Customer Service and Operational Support.
    Performance Goals:
  --Support the USDA Enterprise Architecture.
  --Develop new services and increase OCIO customer base for existing 
        services.
  --Improve customer service quality.
  --Develop and implement USDA Universal Telecommunication Network.
  --Improve performance of existing network through enhanced network 
        management capabilities.
    Goal 2: Improve and Enhance Information Technology Capital 
Investments Process and The Skills of the Information Technology 
Workforce.
    Performance Goals:
  --Enhance the Capital Planning and Investment Control Process by 
        increasing use of USDA's I-TIPS.
  --Increase the number of corporate projects and information systems.
  --Complete USDA IT skills assessment.
  --Develop an IT Workforce plan.
    Goal 3: Effective Stewardship through Enterprise Program Management 
Performance Goals:
  --Develop and implement a common computing environment infrastructure 
        for USDA's Service Centers which includes the whole package of 
        hardware, software, security, websites, telecommunications and 
        databases, but excludes the development of applications.
  --Transformation to a fully integrated e-government environment.
    Goal 4: Develop, Implement and Maintain a Secure and Confident IT 
Environment while Protecting Privacy.
    Performance Goals:
  --Provide policy, guidance and training to strengthen USDA 
        information security to all USDA agencies.
  --Evaluate all mission critical information systems and identify all 
        vulnerabilities.
  --Develop mitigation plans for vulnerabilities discovered through 
        formal threat assessments.
  --Develop policies and guidelines that provide agencies with security 
        standards and repeatable procedures that ensure information 
        assets remain safe and available.
    Question. What are the total costs in fiscal year 2001 and fiscal 
year 2002 to operate the National Information Technology Center located 
in Ft. Collins, Colorado? (identify and include all categories of 
costs) What is the rationale and justification for maintaining the 
separate Ft Collins office and has USDA performed any cost/benefit 
studies of maintaining this separate office rather than performing its 
functions out of the CIO's headquarters office in Washington D.C.?
    Answer. The NITC program in Fort Collins (NITC-FC) is an 
organizational division of NITC but is a separately funded activity 
within USDA's Working Capital Fund. NITC-FC obtains all of its funding 
through memorandums of understanding and reimbursable agreements with 
customer agencies that choose to use NITC-FC's services. It receives no 
appropriated funds. The Department maintains the Ft. Collins, Colorado, 
location because that is where many of its customers and the projects 
it supports are located. I will have the CIO provide more information 
for the record.
    [The information follows:]
    The budgeted costs for NITC-FC for fiscal years 2001 and 2002 are 
as follows:

------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
              Cost Category                    2001            2002
------------------------------------------------------------------------
Federal Personnel Costs.................      $3,792,000      $3,932,000
Contract Services.......................       2,499,000       2,570,000
Rents, Communications, Utilities........         348,000         356,000
Equipment and Depreciation..............         154,000         267,000
Travel and Transportation...............         145,000         149,000
Software and Supplies...................         100,000         102,000
                                         -------------------------------
      Total.............................       7,038,000       7,376,000
------------------------------------------------------------------------

    No formal cost benefit studies have been conducted since a data 
center consolidation study was performed by Booz, Allen and Hamilton, 
Inc., in 1985. This study provided the basis for the current NITC 
organizational structure.
    USDA continues to maintain this development staff in Fort Collins, 
Colorado because many of the customers and major projects supported by 
this staff are also located in Fort Collins, including the Forest 
Service, the Natural Resources Conservation Service, the Animal and 
Plant Health Inspection Service and others. This allows NITC direct 
access to customers and helps to reduce costs including travel and 
long-distance communications. NITC's high-quality, low-cost information 
technology (IT) services have resulted in many new projects for the 
Fort Collins division over the last decade. Many of the applications 
that the NITC Fort Collins division supports are national applications 
that are used by all USDA agencies and other Federal agencies, such as 
the General Services Administration's FTS 2001 applications.
    The overall cost of living is lower in Fort Collins than the 
Washington, D.C. area. This allows NITC to recruit and retain both 
Federal and contractor positions at a much lower cost to customers. 
Fort Collins is part of the Rest of the U.S. (RUS) locality pay 
structure and has lower salary and benefit costs than the D.C. area. 
Contractor support costs are also lower than they would be in D.C., 
which saves customers additional money.
                     telecommunications management
    Question. Several years ago, the Department said that it spent more 
than $200 million annually for telecommunications services. How much 
does USDA currently spend on telecommunications each year? (Please 
break these costs out by major category and by mission area, agency, 
and office.)
    Answer. I will have the CIO provide that information.
    [The information follows:]
    The following amounts consist of local and long distance services 
(not including international) for voice, data and video 
telecommunications (other than radio) developed in January 2000.

USDA Telecommunication Costs

                          [Millions of Dollars]

Foreign Agricultural Service:                           Fiscal year 2000
                                                                  $2.326
    Farm Service Agency.......................................    58.024
    Risk Management Agency....................................     6.621
Food, Nutrition & Consumer Services: Food & Nutrition Services     1.069
Food Safety: Food Safety & Inspection Service.................     0.650
Natural Resources & Environment:
    Forest Service............................................    48.900
    Natural Resources Conservation Service....................    24.170
Research, Education & Economics:
    Agricultural Research Service.............................     7.369
    Coop State Res, Edu, & Ext Service........................     1.378
    Economic Research Service.................................     4.348
    National Agricultural Statistics Service..................     2.288
Rural Development: Rural Development..........................    14.713
Marketing & Regulatory Programs:
    Agricultural Marketing Service............................     3.257
    Animal & Plant Health Inspection..........................    11.790
    Grain Inspection, Packers & Stockyards Admin..............     0.829
Departmental Administration: Departmental Administration......     0.784
Departmental Staff Offices:
    Office Chief Financial Officer \1\........................     1.714
    Office General Counsel....................................     0.322
    Office Inspector General..................................     0.986
    Office Communications.....................................     0.311
    Office Chief Information Officer \1\......................    15.324
    National Appeals Division.................................     0.266
                    --------------------------------------------------------------
                    ____________________________________________________

        SDA Total.............................................   207.439

\1\ Numbers reflect total Appropriated and Working Capital Funding. 
These numbers are not adjusted for collections.

    Question. Where does USDA stand with respect to implementing all of 
GAO's recommendations for improving Department-wide management of 
telecommunications?
    Answer. According to OCIO, USDA has achieved closure on most GAO 
recommendations concerning Department-wide management of 
telecommunications. Open recommendations remain in the following two 
GAO telecommunications audits:
  --AIMD-95-203--USDA Telecommunications: Better Management and Network 
        Planning Could Save Millions
  --AIMD-98-131--USDA Telecommunications: Strong Leadership Needed to 
        Resolve Management Weaknesses, Achieve Savings
    I will have the Chief Information Officer provide the status of 
these open recommendations for the record.
    [The information follows:]
    AIMD-95-203.--During fiscal year 2000, three of five open 
recommendations from AIMD-95-203 were closed. The two open 
recommendations can be summarized as follows:
  --Establish and implement procedures for reviewing telecommunications 
        resources at offices that USDA plans to close or relocate.
  --Develop Departmental policy requiring agencies to establish 
        management controls over the acquisition and use of 
        telecommunications resources.
    Recommendations and Actions Taken.--These two recommendations 
require that telecommunications inventory and compliance activities be 
undertaken. Following guidance provided by GAO, OCIO is working to 
leverage existing Service Center agency review efforts to address 
compliance requirements. OCIO is working with USDA agencies through the 
Telecommunications Mission Area Control Officers to develop an 
inventory system. Both of these activities are resource intensive, 
requiring sufficient funding, staffing, and time to complete.
    AIMD-98-131. The purpose of this audit was to emphasize 
recommendations from previous audits:
  --AIMD-95-97 USDA Telecommunications: Missed Opportunities to Save 
        Millions
  --AIMD-95-203 USDA Telecommunications: Better Management and Network 
        Planning Could Save Millions
  --AIMD-96-59 USDA Telecommunications: More Effort Needed to Address 
        Telephone Abuse and Fraud
    Recommendations and Actions Taken.--Over the past 18 months, OCIO 
has been aggressive in taking the steps necessary to obtain closure of 
two of the audits (AIMD-95-97 and AIMD-96-59). As noted under AIMD 95-
203, OCIO has efforts underway to address the inventory and compliance 
issues needed to close the two remaining open recommendations. Based on 
feedback from GAO, AIMD-98-131 should be closed when AIMD-95-203 is 
closed.
                           year 2000 rollover
    Question. USDA has reported to OMB that it spent almost $200 
million to address the Year 2000 problem. What type of accounting 
controls existed over these funds and what lessons were learned from 
accounting for these emergency-type funding initiatives at USDA?
    Answer. According to the Chief Information Officer, USDA 
established an accounting management program to monitor the tracking 
and use of all supplemental emergency funding in the department. This 
program used an on-line reporting capability, supported by the National 
Finance Center (NFC), to track financial obligations. Once an agency 
entered an obligation into the system, the transaction was tracked to 
completion. The CIO noted that a key lesson learned from accounting for 
emergency-type funding initiatives for was that having central control 
of funds is essential to oversight and investments.
    Question. We understand that USDA hired a contractor to audit 
agency Year 2000 expenditures. When was this audit completed and what 
were the results?
    Answer. The audit activity on USDA's Year 2000 expenditures is 
ongoing and scheduled for completion by May 31, 2001.
                          unobligated balances
    Question. Provide actual/estimated fiscal year-end 2000, 2001, and 
2002 unobligated balances, by account, with an explanation of amounts 
in excess of 10 percent of the total funding available at the beginning 
of the fiscal year.
    [The information follows:]
 explanation of unobligated balances in excess of 10 percent of total 
                            funds available
Farm Service Agency
  --Agricultural Conservation Program. This program is no longer 
        authorized and USDA cannot obligate additional funds. The 
        objectives of this program were incorporated into the 
        Environmental Quality Incentives Program which is funded by the 
        Commodity Credit Corporation.
  --Emergency Conservation Program. Unobligated balances are needed in 
        the event of unforeseen emergencies dealing with cases of 
        severe damage to farmlands and rangelands resulting from 
        natural disasters.
Risk Management Agency
  --Federal Crop Insurance Corporation Fund. The estimated unobligated 
        balances are roughly equivalent to the FCIC's outstanding 
        capital stock of $500 million.
Foreign Agricultural Service
  --Salaries and Expenses. The unobligated balance includes $4 million 
        for the Cochran Fellowship Program, about $6 million from the 
        Department of State for overseas security enhancements, and 
        about $15 million from the Agency for International 
        Development. The funds will be used to conduct required future 
        activities.
    Public Law 480.--More than 85 percent of the fiscal year 2000 
unobligated balance represents Title I amounts for the Russia Food 
Assistance Program that will be obligated prior to the end of fiscal 
year 2001. The remaining amounts are for Titles II and III.
Rural Development
  --Rural Housing Assistance Grants. Of the amount available for 
        carryover, 80 percent of the total is for natural disasters 
        which has had few requests for funding.
  --Rural Empowerment Zones/Enterprise Community Grants. There are 
        balances because of a delay in the clearance of the regulations 
        needed to initiate the program for the Round II EZ/EC's.
  --Rural Economic Development Grants. The funds for the Rural Economic 
        Development Grants are provided from the interest differential 
        on Rural Utilities Service (RUS) borrowers' cushion of credit 
        accounts. Under the Cushion of Credit Payment Program, RUS 
        borrowers are authorized to make voluntary advance payments on 
        their loans and receive 5 percent interest on those advance 
        payments. These advance payments, called ``cushion of credit'' 
        payments, are held in the Rural Electrification and 
        Telecommunications Liquidating Account. This account is 
        credited monthly with a sum determined by multiplying the 
        outstanding cushion of credit payments made after October 1, 
        1987, by the difference between the average weighted interest 
        rate paid on outstanding certificates of beneficial ownership 
        issued by the Fund and the 5 percent rate of interest provided 
        to RUS borrowers on cushion of credit payments. At the end of 
        the fiscal year, the cushion of credit payments in the Rural 
        Electrification and Telecommunications Liquidating Account are 
        transferred to the Rural Economic Development and Grants and 
        used to make grants the next fiscal year.
  --National Sheep Industry Improvement Center Revolving Fund. For the 
        fund, $25 million has been appropriated. The funds are 
        authorized to carry out the authorized programs and activities 
        of the Center without fiscal year limitation. Of the $25 
        million available to date, $14 million was obligated to an 
        intermediary to make direct, indirect, and guaranteed loans. 
        Also, $4.8 million is being used for grants for marketing and 
        promotion of lamb meat. The remaining funds will be used to 
        carry out the intent of the revolving fund.
Natural Resources Conservation Service
  --Watershed and Flood Prevention Operations. NRCS does not record an 
        obligation until a Federal contract has been awarded, a project 
        agreement has been executed, a cooperative agreement has been 
        signed by the sponsor, or a long-term contract has been signed 
        by the participant. It often takes a great period of time to 
        accomplish this due to the complexity of the work. Some of the 
        unobligated balances are due to an emergency supplemental that 
        was passed later in the fiscal year.
  --Forestry Incentives Program. NRCS does not record an obligation 
        until a forest management plan is developed and approved. It 
        often takes a great period of time to accomplish this due to 
        the complexity of the work.
  --Great Plains Conservation Program. This NRCS program is now 
        conducted under the authority of the Environmental Quality 
        Incentives Program. The unobligated balances will be maintained 
        until all existing contracts are modified or expire.
  --Colorado River Basin Salinity Program. This NRCS program is now 
        conducted under the authority of the Environmental Quality 
        Incentives Program. The unobligated balances will be maintained 
        until all existing contracts are modified or expire.
  --Wildlife Habitat Incentives Program. NRCS does not record an 
        obligation until the wildlife habitat development plan is 
        finalized. It often takes a great period of time to accomplish 
        this due to the complexity of the work.
  --Rural Clean Water Program. No needs are anticipated for the 
        remaining unobligated funds because the implementation period 
        for all projects has ended. The final payments have been made 
        and the program will be closed out in 2001.
Agricultural Research Service
  --Building and Facilities. Most of the balances in this account are 
        for facilities projects that are awaiting additional 
        appropriations in order to fully fund a complete segment of the 
        project; waiting for completion of design work in order to 
        award construction contracts, or currently in various phases of 
        construction and funds are being obligated as the work 
        progresses.
Cooperative State Research, Education and Extension Service
  --Initiative for Future Agriculture and Food Systems. The 2002 Budget 
        provides that 2001 unobligated balances carry over to fund the 
        program in 2002 and postpone spending the new $120 million to 
        be appropriated for 2002 until 2003.
Agricultural Marketing Service
  --Marketing Services. The unobligated balances in this account are 
        reimbursed funds collected from fees paid by the agricultural 
        industry customers for cotton and tobacco grading services. A 
        balance is maintained to cover a 3 or 4 month reserve for 
        unforeseen liabilities.
Animal and Plant Health Inspection Service
  --Building and Facilities. Most of the balances in the account are 
        for facilities that are in various phases of construction or 
        repair and are being obligated as the work progresses.
Grain Inspection, Packers and Stockyards Administration
  --Inspection and Weighing Services. A balance is maintained to cover 
        a 3 or 4 month reserve for unforeseen liabilities.
    Fund for Rural America.--The 2002 Budget provides that 2001 
unobligated balances carry over to fund the program in 2002 and 
postpone spending the new $60 million to be appropriated for 2002 until 
2003.

              UNITED STATES DEPARTMENT OF AGRICULTURE UNOBLIGATED BALANCES BY ACCOUNT: END OF YEAR
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                         Agency or Item                             2002 actual   2001 estimated  2002 estimated
----------------------------------------------------------------------------------------------------------------
FARM SERVICE AGENCY:
    Salaries and Expenses.......................................              13               0               0
    Agricultural Credit Insurance Fund Program Account..........             100               0               0
    Conservation Reserve Program................................               1               0               0
    Agricultural Conservation Program...........................              45              45              45
    Emergency Conservation Program..............................              67              62               0
COMMODITY CREDIT CORPORATION:
    Commodity Credit Corporation................................           1,065           1,385           1,385
    CCC Export Loans Program Account............................             345             345             345
    Farm Storage Facility Loans Program Account.................               8               0               0
RISK MANAGEMENT AGENCY: Federal Crop Insurance Fund.............             284             458             501
FOREIGN AGRICULTURAL SERVICE:
    Salaries and Expenses.......................................              25              25              25
    Scientific Activities Overseas (Foreign Currency Program)...               1               1               0
PUBLIC LAW 480:
    Title I:
        Program Account.........................................             371               0               0
        Ocean Freight Differential Grants.......................              85               0               0
    Title II & III Grants.......................................              91  ..............  ..............
RURAL DEVELOPMENT: Rural Community Advancement Program..........              11               3               3
RURAL UTILITIES SERVICE: Distance Learning and Telemedicine                    3               0               1
 Program........................................................
RURAL HOUSING SERVICE:
    Rural Housing Assistance Grants.............................              10               0               0
    Rental Assistance Program...................................              14               0               0
    Rural Housing Insurance Fund Program Account................              24               0               0
RURAL BUSINESS-COOPERATIVE SERVICE:
    Rural Empowerment Zones/Enterprise Community Grants.........              13               0               0
    Rural Economic Development Grants...........................               7               4               4
    National Sheep Industry Improvement Center..................               9               5               5
FOOD AND NUTRITION SERVICE:
    Food Stamp Program..........................................              92             263             298
    Child Nutrition Programs....................................             410             347               3
    Special Supplemental Nutrition Program for Women, Infants,                 2               0               0
     and Children (WIC).........................................
    Commodity Assistance Program................................               7               5               0
    Food Donations Programs.....................................               1               0               0
NATURAL RESOURCES CONSERVATION SERVICE:
    Conservation Operations.....................................              11               0               0
    Watershed and Flood Prevention Operations...................              65               0               0
    Forestry Incentives Program.................................               3               0               0
    Resource Conservation and Development.......................               1               0               0
    Great Plains Conservation Program...........................               3               3               3
    Colorado River Basin Salinity Control Program...............               1               1               I
    Wildlife Habitat Incentives Program.........................               1               0               0
    Rural Clean Water Program...................................               5               5               5
FOOD SAFETY AND INSPECTION SERVICE..............................              17              17              17
AGRICULTURAL RESEARCH SERVICE:
    Salaries & Expenses.........................................               6               0               0
    Buildings and Facilities....................................             109             133             114
COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE:
    Research and Education Activities...........................              67               9               9
    Extension Activities........................................               2               2               2
    Initiative for Future Agriculture and Food Systems..........             120             120             120
    Buildings and Facilities....................................               3               0               0
AGRICULTURAL MARKETING SERVICE: Marketing Services..............              43              43              43
ANIMAL AND PLANT HEALTH INSPECTION SERVICE:
    Salaries and Expenses--Appropriated.........................              35              72              72
    Buildings and Facilities....................................              16               9               2
GRAIN INSPECTION, PACKERS AND STOCKYARDS ADMIN: Inspection and                 6               6               6
 Weighing Services..............................................
OFFICE OF THE SECRETARY.........................................              14               2               1
    Fund for Rural America......................................              60              60              60
DEPARTMENTAL ADMINISTRATION:
    Agriculture Buildings and Facilities and Rental Payments....              16              16              16
    Hazardous Materials Management..............................               I               1               I
OFFICE OF THE CHIEF INFORMATION OFFICER.........................               3               0               0
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

              Questions Submitted by Senator Arlen Specter

                                 dairy
    Question. Milk prices dropped to $9.63 per hundredweight at the end 
of 1999, the lowest price in 21 years (since August of 1978). This was 
a drop of $7.71 from December of 1998, when the price was $17.34. Over 
the past several years, price swings of 30 to 40 percent from one month 
to the next have become common.
    Agriculture is the largest industry in Pennsylvania and dairy is 
its single largest component. Pennsylvania is the fourth largest dairy 
producer in the nation and there are approximately 9,900 dairy farms 
which produce $1.73 billion worth of milk each year. Over the past 
decade, however, Pennsylvania has lost an average of 300-500 farmers 
per year. Between 1993 and 1998, Pennsylvania lost 11.4 percent of its 
dairy farmers. While facing record low prices, Pennsylvania farmers 
often have to deal with droughts, other natural disasters, high feed 
and transportation costs and other variables that challenge their 
ability to sustain their farms. Pennsylvania dairy farmers continue to 
face low farm prices for their milk. What action is the Administration 
taking to help dairy farmers who are facing record low milk prices?
    Answer. USDA has purchased 300 million pounds of nonfat dry milk 
and 11 million pounds of cheese, so far in fiscal year 2001 (October 1-
April 30), in order to support the price of milk used for manufactured 
products above $9.90 cents per hundredweight. Expenditures of about 
$400 million are expected for dairy product purchases under the price 
support program during fiscal year 2001. An additional $6.7 million has 
been spent in the Dairy Export Incentive Program to aid in making 
export sales of dairy products during fiscal year 2001. An additional 
allotment for further export aid will become available July 1, 2001.
    The Dairy Market Loss Assistance Program made payments to dairy 
producers of nearly 65 cents per hundredweight (cwt) on up to 39,000 
cwt of milk production. Expenditures under this program are nearly 
complete and total about $665 million.
    The national average all-milk price for CY 2001 is expected to be 
$1.70 cents per cwt higher than it was in CY 2000. This should increase 
dairy farm income from milk sales by about $2.6 billion, or 13 percent. 
During the first quarter this year, ``all milk price'' was $1.63 per 
cwt above the same period last year.
    Question. What is the relationship between the price paid by 
consumers for milk in retail settings to the price received by dairy 
farmers for providing the milk?
    Answer. There seems to be a limited relationship between retail 
price of milk and the prices received by farmers. In the short term, 
changes in prices received by farmers may not be reflected in the 
retail prices consumers pay. Economic studies on milk retail-farm gate 
price spread indicate that the farmer share of the retail milk prices 
is nearly 30 percent. Other factors such as the processing, 
transportation, distribution, wholesaling, marketing, advertizing, 
profits, etc. make up the rest. However, over the long-run, consistent 
changes in prices received by farmers get reflected in the retail 
price, i.e., a consistent increase or decrease in prices received by 
farmers will result in increase or decrease in retail prices, though 
the magnitude of the change may be different due to other components of 
the price spread. Market observations suggest that due to market forces 
and nature of the business practices, the reaction time is shorter for 
price increases compared to price decreases. Once increased, the 
downward adjustment of prices is ``sticky.''
    Question. According to a recent General Accounting Office report 
(GAO-01-326), milk protein concentrate (MPC) imports grew rapidly 
between 1990 and 1999, and nearly doubled between 1998 and 1999. Many 
people involved in the dairy industry are concerned about the safety of 
MPC and circumvention of regulations prohibiting use of MPC in cheese 
production. Are these concerns valid and what activities is USDA 
undertaking to respond to these concerns?
    Answer. As noted in the GAO report, the Food and Drug 
Administration found no violations of the use of imported MPCs in 
standardized cheese production in fiscal year 1999. The report does 
point out, however, that Vermont State inspectors in the year 2000 
found two cheese plants that were using imported MPCs to make 
standardized cheeses in violation of Federal and state regulations, and 
that both of these plants discontinued the practice when issued warning 
letters by the State. FDA also has the responsibility of ensuring 
compliance of imported dairy products with U.S. public health 
requirements. Regarding the safety of MPCs, the GAO report states that 
``FDA officials told us that these imports pose little food safety risk 
and therefore receive minimal monitoring.''
    Question. What actions are currently being taken by USDA or other 
departments and agencies in coordination with USDA to defend U.S. 
farmers against Foot and Mouth Disease and Mad Cow Disease?
    Answer. USDA has taken a number of recent actions to defend U.S. 
farmers against FMD and bovine spongiform encephalopathy, commonly 
referred to as mad cow disease. USDA has placed additional personnel at 
high-traffic international ports of entry to assist with passenger 
clearance, cargo inspection, cleaning and disinfection, and mail and 
small package inspection. As part of these efforts, approximately 350 
additional staff are being hired, and USDA has authorized the use of an 
additional $32 million from APHIS--user fee account to support this 
personnel increase through fiscal year 2002. APHIS is also accelerating 
the training and placement of supplementary detector dog teams at key 
air and cargo ports.
    Since the first detection of FMD in the UK, USDA has been 
coordinating and meeting regularly with regional USDA officials, their 
counterparts with the U.S. Customs Service and the Department of 
Defense, State agriculture and veterinary officials, university 
experts, and airline/travel industry representatives.
    APHIS has also held conference calls with State agriculture 
commissioners about USDA exclusion efforts. State agriculture 
commissioners were given the opportunity to ask APHIS officials 
questions about preparedness and response efforts should FMD ever be 
detected in the United States. APHIS officials have also met directly 
with State officials on several occasions.
    To assist with preparedness, the National Association of State 
Departments of Agriculture is exploring acceptable methods of carcass 
disposal in each State. State officials have been asked to assume that 
the largest herd in the State has to be depopulated and carcasses 
disposed of as close to the premises as possible. This planning will 
greatly assist any future efforts to eradicate a foreign animal disease 
by depopulating and disposing of infected or potentially exposed 
animals.
    APHIS continues to coordinate the weekly deployment of U.S. 
veterinary teams to the UK. These teams, comprised of State and Federal 
veterinarians, are providing assistance with the FMD eradication 
program there. Returning team members are bringing back important 
information with regard to containing and eradicating an FMD outbreak. 
APHIS will continue to coordinate these assistance efforts for as long 
as requested by UK officials.
    The Tripartite Exercise 2000, an FMD outbreak simulation involving 
Canada, Mexico, and the United States, resulted in a committed effort 
by all three countries to collaborate on efforts to prevent FMD in 
North America. As a result of lessons learned during the exercise, 
APHIS has updated its FMD response plan to incorporate new information 
about communication and vaccination in the event of an outbreak.
    USDA has also embarked on an aggressive public information campaign 
in regard to FMD. These efforts have included posting additional 
advisory signs in airports, broadcasting public service announcements, 
and establishing an information hotline and website to inform the 
public of the steps that they can take to prevent FMD from entering the 
United States.
    USDA has implemented numerous prevention, surveillance, and 
education measures to prevent the occurrence of BSE in our country's 
livestock population. Since 1989, we have severely restricted imports 
of cattle, other ruminants, and ruminant products from countries where 
BSE is known to exist. As a further precaution, we expanded the 
prohibition in 1997 to include the importation of all ruminants and 
most ruminant-origin products from European countries, including 
countries where BSE has not been reported. As of December 7, 2000, we 
have also prohibited all imports of rendered animal protein products, 
regardless of species, from Europe. This ban followed the determination 
by the European Union that some of this material was potentially cross-
contaminated with the BSE agent.
    APHIS and FSIS conduct an active surveillance program for BSE. The 
surveillance program includes monitoring of field cases of cattle 
exhibiting signs of neurological disease, cattle condemned at slaughter 
for neurologic reasons, rabies-negative cattle submitted to public 
health laboratories, neurologic cases submitted to veterinary 
diagnostic laboratories and teaching hospitals, and sampling of cattle 
that are nonambulatory (downer cattle/fallen stock) at slaughter. APHIS 
and FSIS have also cooperatively drafted an emergency response plan to 
be used in the event that a case of BSE is detected in the United 
States.
    APHIS established a TSE (transmissible spongiform encephalopathy) 
Working Group in the late 1980s to study the issues surrounding this 
group of degenerative neurological diseases. TSEs include BSE and 
scrapie, a disease that affects sheep and has been present in the 
United States since at least 1947. The TSE Working Group makes policy 
recommendations for preventing BSE from entering the United States and 
serves as a liaison to Federal and State agencies to coordinate all 
efforts against BSE. Members of the Working Group also work with 
industry representatives and foreign governments to provide accurate 
technical information about TSEs.
special supplemental nutrition program for women, infants, and children 
                                 (wic)
    Question. Concerns have been raised by the National Association of 
WIC Directors and other groups regarding the Administration's WIC 
participation projections for fiscal year 2002, upon which the budget 
request is predicated. How confident is the Administration in its 
projected average monthly participation of 7.25 million women, infants 
and children in this important program?
    Answer. At this time we believe the Administration's projected 
average monthly participation of 7.25 million for fiscal year 2002 is 
accurate. However, projection of future WIC participation is inherently 
difficult and changes in economic conditions could impact demand for 
services. The Department plans to closely monitor the Program's 
participation over the next several months.
    Question. The Commonwealth of Pennsylvania joined the Farmers 
Market Nutrition Program in 1989. Since that time, the program has 
provided WIC recipients the opportunity to purchase fresh food directly 
from local farmers. The Administration's budget includes approximately 
$20 million for this crucial program, including $9,956,000 from any 
funds not needed to maintain current WIC caseload levels. Given the 
importance of this program to so many low-income women and children 
throughout the nation, are you concerned about a funding shortfall that 
may occur if WIC caseload increases do not allow for transfer of this 
necessary additional $9.956 million?
    Answer. At this time, the Department believes that projected WIC 
caseload can be supported with funding levels requested in the fiscal 
year 2002 President's Budget request. However, should actual WIC 
participation exceed our projections, appropriations language that 
makes funding for the WIC Farmers' Market Nutrition Program (FMNP) 
contingent on WIC Program caseload may be problematic for the FMNP in 
fiscal year 2002.
                                 ______
                                 

               Questions Submitted by Senator Larry Craig

  national nutrition monitoring system and the discontinuation of the 
   usda survey, the continuing survey of food intakes by individuals 
                                (csfii)
    Question. In fiscal year 2000, USDA announced plans to discontinue 
its food consumption survey, the Continuing Survey of Food Intakes by 
Individuals (CSFII) due to lack of adequate funding. It is my 
understanding that in the absence of CSFII, USDA plans to rely on 
dietary data collected by the U.S. Department of Health and Human 
Services (DHHS). There is concern that without CSFII, USDA can no 
longer be assured it will receive the types of data needed in a timely 
fashion to support the multi-faceted functions of the Department.
    Without the USDA data, how can USDA monitor and evaluate programs 
and how can we have access to the information we need to make 
programmatic adjustments to maximize benefit and minimize cost?
    Answer. The USDA will not discontinue its food intake survey. The 
USDA Agricultural Research Service (ARS), and the Department of Health 
and Human Services (DHHS) National Center for Health Statistics (NCHS) 
have been planning over the past three years the integration of the 
Continuing Survey of Food Intakes by Individuals (CSFII) and the 
National Health and Nutrition Examination Survey (NHANES) as set forth 
in the National Nutrition Monitoring and Related Research Act of 1990. 
In the CSFII/NHANES integrated survey, the USDA will collect, process 
and analyze exactly the same information as the USDA had collected 
previously in a free standing CSFII. The data will be collected and 
processed using the USDA developed methodology and will be released in 
the same time frame as was previously released for the CSFII. In 
addition, the benefits of the integration allow for continuous annual 
collection of the data (as opposed to periodic collection previously), 
a full second day of data collection from all respondents, conversion 
of the foods consumed into approximately 50 percent more nutrients, an 
improved multipass method of dietary intake collection, and for the 
first time a linkage between the intake of foods and medical and 
diagnostic information for all respondents.
    USDA is committed to collecting the important information provided 
by the CSFII. Integration with the NHANES survey will allow the Agency 
to perform this task with currently available funding; enhancing data 
that historically was collected by both the USDA and DHHS.
    Question. My understanding is that both USDA and DHHS surveys 
collected dietary data on 5,000 individuals creating a 10,000 sample 
size. Since DHHS isn't planning to increase their sample size to 
compensate for the loss of the 5,000 household CSFII sample, what are 
the implications of losing half of the total number in the sample?
    Answer. Ideally, the sample size should be much larger than even 
the 10,000 number. In recent conversations with Statistics Canada, we 
have learned that their national food consumption survey is planned at 
30,000 respondents. While it is true that in the past both the NHANES 
and the CSFII included 5,000 respondents per year, both surveys were 
not necessarily ongoing at the same time. In addition, both surveys 
were periodic in that data collection proceeded for three years and was 
typically followed by a period of several years where no data were 
collected. So, in any given year, there could have been no data 
collected, 5,000 respondents, or a maximum of 10,000 respondents. While 
it is true that the integration of the two surveys will reduce the data 
collection to a maximum of 5,000 respondents, one of the benefits of 
the joined survey activities is that CSFII data will be truly 
continuous i.e., it will be collected every year. Furthermore, a single 
method of data collection should mitigate some of the inconsistencies 
that have been well noted between the CSFII and NHANES in the past. 
Ideally, however, increasing the sample size of the survey, which would 
be easy to do with the merged survey, would be highly desirable to 
continue to monitor the food intake of populations at risk. The issue 
of what is an adequate sample size is an important one; these 
nationwide food consumption surveys are extremely expensive to conduct.
    Question. What data, or types of data, were collected by USDA in 
CSFII that will not be collected in the DHHS survey?
    Answer. The combined survey will produce data that was not 
available previously including continuously collected data, a much 
enhanced nutrient analysis of foods consumed and important health 
information on respondents. In the CSFII/NHANES integrated survey, the 
USDA will collect, process, and analyze exactly the same information as 
the Agency had previously collected in a free-standing CSFII. The major 
concern with the combined survey is information on seasonal variation 
in diets. This concern arises out of the fact that the data for day one 
of the survey will be collected in the NHANES mobile trailers, which 
are driven to the locations of data collection. Because of the reliance 
on the trailers, the ability to collect data in the middle of winter in 
cold climates is somewhat limited. USDA and DHHS are aware of this 
limitation and we have planned accordingly. DHHS has winterized the 
trailers and has made adjustments in scheduling in order to provide 
more cold weather data collection. In addition, we think that we will 
collect the information that we need on seasonal variation by 
collecting the second day of food intake data by telephone, which is 
obviously not going to be affected by weather. Telephone data 
collection works well with NHANES (approximately 85 percent response 
rate).
    Data collected in the past has formed the basis for the Household 
Food Consumption Survey (HFCS). USDA is committed to collecting these 
data and we believe we can collect and release them similarly to what 
has been done in the past. These data were collected periodically by 
telephone from the CSFII respondents. The data now will be collected 
from the 5,000 integrated survey respondents.
    Question. Given the many competing interests and various health 
measurements and assessments performed in the DHHS survey, can USDA 
guarantee that questions of interest to USDA always will be included in 
the DHHS survey?
    Answer. While the nutrition component of the NHANES is small 
relative to the overall scope of the NHANES, it is an essential 
component. USDA has worked with DHHS for the past 4 years to develop 
and implement the integrated survey and both parties have been 
cooperative and made concessions to each other to accommodate the needs 
of customers and stakeholders of both surveys. This dialog and joint 
planning has been helpful to allow us to focus on what are the 
important pieces of information that are needed by the USDA for those 
who have relied on the CSFII. Throughout the planning process we have 
held numerous stakeholder meetings to ensure that we are aware of the 
needs of users of the data. It is interesting to note that several of 
the major users of the CSFII data have in the past been financial 
supporters of NHANES. It is also interesting to note that although 
there seems to be widespread support by USDA stakeholders for the 
merged survey, many of the concerns that have been raised would not 
have been met with a free standing CSFII, such as continued over 
sampling of children as was done by USDA in response to a one year 
appropriation. If at any time in the future, the USDA perceives that 
the needs of the users of our data are not being met, we will look at 
other ways of collecting the data.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                         foot and mouth disease
    Question. Madame Secretary, I appreciate your comments in regard to 
the question I verbally posed about the steps necessary to avoid an 
outbreak of Foot and Mouth Disease, or similar animal diseases in this 
country. As I mentioned, if an outbreak were to occur in my state, with 
its reliance on the dairy industry, the consequences would be 
absolutely devastating, a fact I also pointed out in my April 17th 
letter to you.
    In that letter I mentioned a troubling story on this subject that 
appeared in the Wisconsin State Journal on April 4th which reported 
shortfalls in the inspection procedures at U.S. points of entry. That 
story made reference to specific incidents at O'Hare International 
Airport, which may be representative of international airports around 
the country. For example, a traveler who had been in the British 
countryside had to insist repeatedly to airport officials that special 
steps were necessary to disinfect her shoes. It should be recognized 
that many travelers to rural England spend time in the proximity of 
livestock (such as at a rural Bed and Breakfast) without necessarily 
considering their experience as being a ``farm'' visit.
    While your response to my question provided general information, it 
did not specifically answer the question I asked. Have you had a chance 
to review that story and would you please respond to the concerns it 
raises regarding travelers like Ms. Randall and whether USDA has taken 
actions either internally or with other agencies to assure that 
incidents like the one reported will not occur?
    Answer. We are concerned about such reports and continue to work 
with related agencies to reduce such incidents. All international 
travelers must state on their Customs declaration form whether or not 
they have been on a farm or in contact with livestock and if they are 
bringing any meat or dairy products from their travels back with them. 
The Animal and Plant Health Inspection Service (APHIS) is working 
closely with the U.S. Immigration and Naturalization Service and U.S. 
Customs Service to ensure that they refer all passengers, who check 
``yes'' to the agriculture question #11 on the Customs declaration, to 
an APHIS official. APHIS officials will inspect travelers' baggage if 
they indicate they have been on a farm or in contact with livestock. We 
have determined that footwear that is clean (i.e., no appearance of 
manure, dirt, or other particulate matter) does not provide the 
appropriate conditions (i.e., moisture level, pH, and temperature) for 
the FMD virus to survive. Footwear that appears dirty can provide the 
appropriate conditions for carrying FMD and must be disinfected with 
detergent and bleach. To accommodate passengers who are still concerned 
that they could be carrying FMD after we inspect their footwear and 
determine there is no risk, APHIS inspection policy now states that our 
inspectors will disinfect their footwear at their request.
    Question. If a confirmed outbreak of Foot and Mouth Disease were to 
occur in this country, what USDA procedures are in place for disease 
containment? In other words, what specific actions does USDA have as 
planned contingencies if an outbreak were to occur? Would USDA plan to 
offer compensation to affected livestock producers? How would USDA 
prevent the transportation of infected cattle within the United States? 
How would USDA handle infected herds? Would there be whole herd 
slaughters as we have witnessed in the UK?
    Answer. If APHIS were to confirm an outbreak of FMD in the United 
States, APHIS would respond according to the Agency's FMD response 
plan. Because specific outbreak situations vary, and each State's 
emergency response capabilities differ, APHIS' FMD response plan is 
designed to be flexible and dynamic. APHIS' FMD response plan taps 
State and Federal resources as available, and allows the Agency's 
animal health expertise and coordination skills to fill any remaining 
gaps.
    Upon the initial confirmation of FMD, APHIS and State officials 
would immediately begin investigating the source and trace all animals 
that may have come into contact with the disease. These officials 
inform both State and Federal officials on the status of their 
investigation and will also initiate emergency response efforts at the 
State and local level. These measures include notifying State 
agriculture and, if necessary, public health officials of the disease 
detection; securing the biosecurity of the affected site including 
depopulating and disposing of the whole herd and cleaning and 
disinfecting premises; establishing and maintaining animal movement 
quarantines, and alerting officials in neighboring States and the 
international community. Upon spread of the disease, APHIS and States 
would enhance surveillance efforts, expand quarantines as needed, 
conduct a comprehensive public media campaign to alert the public on 
the signs and transmission of FMD. After identification of the subtype, 
APHIS would activate the FMD vaccine bank, order vaccine doses, and 
consider the use of vaccines as a tool in the eradication effort.
    USDA has developed a compensation policy with the Office of 
Management and Budget and with input from other interested parties. The 
goal of this policy is to ensure that an outbreak is located and 
diseased or exposed animals are destroyed as soon as possible. For 
that, we need the full cooperation of all producers. For animals 
depopulated to eradicate a disease, USDA has traditionally paid an 
indemnity approximating the fair market value of the animals. We intend 
to provide compensation for the fair market value of animals 
depopulated due to FMD, possibly including other specific direct costs 
incurred by producers. We will provide more comprehensive information 
on our compensation policy in the near future.
    Question. Please provide information regarding new technologies 
(including vaccines) that have been or are being developed to combat 
Foot and Mouth Disease or similar animal diseases.
    Answer. ARS has developed and is currently validating a highly 
specific nucleic acid on-site detection technology that allows 
minimally trained personnel using a briefcase-sized device to 
definitively identify FMD virus on the farm within an hour. This on-
site technology can also be adapted to screen imported carcasses for 
animals that have been previously infected with FMD and also for 
animals that have been vaccinated against the disease.
    ARS will test two promising vaccine candidates. The first is a 
synthetic peptide vaccine that is being produced by a company on Long 
Island, NY. The technology is based on research conducted by ARS 
scientists at Plum Island Animal Disease Center (PIADC) over the past 
20 years. The company has data to indicate that this vaccine protects 
swine from Type O FMD virus and has been selling the product in Taiwan 
and China. ARS is currently proposing to work with this company to 
examine the vaccine's protective ability for cattle and sheep and to 
determine if the virus is carried by vaccinated animals that were later 
exposed to infection. This peptide vaccine would be the only readily 
available product should the U.S. urgently need to vaccinate animals 
with a type of virus vaccine not present in the North American Vaccine 
Bank. The second candidate vaccine is an ARS-developed adenovirus 
vectored (genetically engineered) FMD vaccine that has been shown to 
protect swine in laboratory studies. This work will be extended to 
tests in cattle and sheep to determine if all species are protected. 
These two vaccines may differ in their ability to protect livestock in 
case of an outbreak and will be compared for likely efficacy in those 
conditions.
    ARS also has a modest program on Vesicular stomatitis viruses 
(VSV); these are insect-transmitted viruses that cause vesicular 
disease in cattle, swine, horses and humans, and are clinically 
indistinguishable from foot-and-mouth disease. The ARS program on VSV 
is conducted at: (1) the Arthropod-Borne Animal Disease Research 
Laboratory (ABADRL), Laramie, Wyoming where scientists are 
investigating the role of biting arthropods in VSV transmission; and 
(2) at PIADC, Greenport, New York where researchers are determining 
genomic information useful for detecting exotic strains of VSV, and 
tracking the origin of VS strains causing outbreaks in the U.S. In 
addition they are carrying out pathogenesis studies in livestock that 
will be useful for development of vaccines and therapeutic agents. 
There are no VSV vaccines commercially available in the U.S. The 
livestock industry is reluctant to use traditional killed-virus 
vaccines because vaccinated animals would be serologically 
indistinguishable from infected ones, which would have important trade 
implications.
                          emergency assistance
    Question. We have all seen on recent national news broadcasts the 
flood waters that have been sweeping down the Midwest along the 
Mississippi, Wisconsin, Red Rivers and others. This year, the 
Mississippi River is cresting at record levels and lands in my state 
are still underwater and will be for some time. We don't know yet how 
badly scoured those lands will be or how costly the repair and recovery 
costs will be.
    I have received a letter from Senator Wellstone from my neighboring 
state of Minnesota who reports that on top of already dismal 
conditions, just this last weekend the central part of his state 
received 5 to 8 inches of snow, and an additional 4 inches of rain fell 
over central and southeast Minnesota affecting literally millions of 
acres of farmland and posing increased threats from scab and other 
grain disease this year if, in fact, farmers are able to put a crop in 
the soil.
    Secretary Veneman, I understand that the President's budget 
includes $5.6 billion that can be made available to help people recover 
from the sort of devastation we are now seeing in the upper Midwest. It 
is also my understanding that that amount, $5.6 billion, is the total 
for all government agencies and programs for recovery from natural 
disasters. How will USDA determine among all agencies how much of that 
$5.6 billion should be allocated for agriculture related losses?
    Answer. The $5.6 billion National Emergency Reserve would provide 
for additional needs arising for major disasters above and beyond 
normal and average needs. The budget provides for average funding needs 
for disaster related programs such as USDA's fire fighting program, 
FEMA's disaster assistance and others. The allocation of funds from the 
Emergency Reserve would be proposed by the President and acted upon by 
the Congress. USDA will, of course, monitor disaster related conditions 
and needs related to its programs.
    Question. Are there any other sources of funds within the budget 
available if recovery needs exceed $5.6 billion?
    Answer. The President's Budget also provides for a contingency 
reserve to allow for unanticipated priority spending needs including 
such things as emergency farm economic and disaster assistance.
    Question. If there are no additional funds budgeted, then it would 
appear we are sending a message that Federal assistance to flood and 
storm victims may not be provided at levels similar to previous 
disasters. Do you believe that is fair to victims today, or do you 
believe that victims of, say for example Hurricane Floyd or the Grand 
Forks flood of 1997 were over compensated?
    Answer. The budget does provide funding for various governmentwide 
disaster relief programs such as FEMA disaster assistance, USDA and DOI 
firefighting, and SBA disaster loans at levels commensurate with normal 
or average needs. The proposed Emergency Reserve is an attempt to 
provide a mechanism to meet major unexpected needs without resort to 
unplanned supplemental emergency programs which may be disruptive to 
overall budget planning and discipline.
    Question. Does USDA have plans to assess the damage from current 
flood events and report those findings to the Congress with a request 
for supplemental funding? If so, how soon may we expect to receive such 
a request?
    Answer. USDA is monitoring the flooding situation closely. However, 
funding needs assessments can only be made after the flood waters have 
receded. For the Emergency Watershed Protection (EWP) program, initial 
funding requirements will be determined within a few weeks of the water 
receding and the sites becoming accessible for technical evaluations.
    Question. In what ways and how soon may victims of the current 
flooding in the Upper Midwest expect assistance from USDA?
    Answer. We are continuing to monitor this situation, but cannot yet 
determine the extent of potential needs.
    Question. Does the Bush Administration plan to respond to disaster 
needs occurring during fiscal year 2001 in a way that might differ from 
future years? If so, explain.
    Answer. It is too early to determine whether or how planning in 
future years might be changed.
    Question. Does USDA have plans to alter its policy in regard to 
disaster assistance to areas where there is a history of natural 
disasters, such as in frequently flooded areas? If so, how might that 
policy change?
    Answer. We need to review this concern, before determining whether 
it is reasonable to explore any change in policy.
                             dairy compacts
    Question. Secretary Veneman, when we visited shortly after your 
confirmation as Secretary, I voiced my objection to the Northeast Dairy 
Compact and to the imposition of domestic trade barriers generally. 
Aside from the basic policy and constitutional questions that surround 
the issue of diary compacts, dairy producers in Wisconsin are at risk 
of losing their livelihoods due to the market distorting features of 
the existing compact and face even more stringent difficulties if there 
were an expansion of compacts in other states.
    Do you accept, as a matter of policy, that U.S. dairy producers in 
one region of the country should be allowed to suffer financial ruin 
due to market distorting features imposed on them by producers in 
another region of the country?
    Answer. U.S farm policy in general during the past several years 
has been to increase the role of market forces in determining what 
commodities are produced and consumed and in determining how much is 
produced and consumed. We think that in general that is the appropriate 
guiding principle for fostering an efficient farm sector. This applies 
to dairy as well. However, we recognize that adjustments in dairy 
policy toward market orientation have been gradual and that is not 
inappropriate given the nature of the dairy sector. With specific 
regard to the Northeast Dairy Compact, a number of studies have shown 
it has probably increased prices to consumers in the region, increased 
prices received by producers who sell milk in the Compact area and has 
slightly reduced prices to producers elsewhere. None of these studies 
have taken into account the recent supply control measures instituted 
in the Northeast Compact which may mitigate the effects on producers 
elsewhere. We are aware that GAO is currently studying the Northeast 
Compact and await its findings.
    Question. Do you believe it is consistent with the Bush 
Administration's policy on free trade that we should seek free trade 
abroad, but not free trade at home?
    Answer. We believe that in the long run free competitive markets 
both domestically and internationally are the appropriate goals to be 
moving forward. Having said that we are also cognizant of the costs of 
adjustment which would be affected by changes in policy.
    Question. What would be the Bush Administration's view if the 
Northeast Dairy Compact was the creation of the European Union rather 
than a collection of states in this country? Would WTO principles apply 
in such a case?
    Answer. The Northeast Dairy Compact acts to manage the market for 
producer milk within its region rather than to place direct 
restrictions on trade. It is our view that such Compacts are not 
inconsistent with WTO principles, and although questions have been 
asked about the Northeast Compact by other WTO members, no serious 
allegations of noncompliance have been made against it.
    Question. President Bush in Canada last week worked toward an 
agreement for Trade in the Americas to tear down trade barriers in this 
hemisphere. Does that agreement pertain to trade within the United 
States and if so, would it not be inconsistent with dairy compacts?
    Answer. Interstate commerce within the United States is protected 
and regulated as provided for under the Constitution, and would not be 
limited or otherwise affected by the proposed Free Trade Area of the 
Americas or any other international trade agreement.
    Question. Don't you believe it would be much more productive to 
develop a dairy policy that is national in scope that would treat all 
dairy producers fairly than one that pits one group of producers 
against another? Do you have any suggestions on how such a policy 
should be crafted? Are you willing to work with us toward the 
development of such a policy?
    Answer. We will be willing to work with the Congress and all 
affected interests to search for an appropriate national policy for 
dairy. As your question indicates, the varying regional interests in 
dairy production make the formulation of a reasonable national policy 
challenging.
                       national appeals division
    Question. I have previously been concerned about a large number of 
decisions favorable to farmers by regional hearing officers being 
overturned by the Director of NAD. I also understand that NAD-wide 
training was held last year, emphasizing the planning and conduct of 
appeal hearings, including on-line training. What percentage of NAD 
employees have attended this training, and what benefits has NAD seen 
as a result of this?
    Answer. According to NAD management, more than ninety-nine percent 
of NAD hearing officers attended NAD training conferences in 2000 and 
2001. NAD's on-line training program is not yet complete. NAD is 
balancing available funds for training between providing traditional 
forms of training and continuing development of the on-line training 
program in fiscal year 2001. The training conferences emphasized 
listening, writing, format, reasoning, finding of fact, conclusions of 
law, judicial demeanor, subpoenas, hearing procedure and similar 
hearing- and determination-related matters.
    As a result of training, NAD management says it is seeing 
improvements in the work of many hearing officers. NAD management 
reports that many hearing officers have applied the lessons of the 
training to hearing appeals and writing determinations. Hearings are 
more professional and determinations are better written with improved 
reasoning.
    Question. Please provide information on how this training, and 
NAD's transition to its final rules published in June 1999, have 
affected the hearings process and outcomes, and how USDA has worked to 
ensure there is no bias against producers.
    Answer. The Department will work hard to ensure that the NAD 
appeals process is fair and impartial. I will have NAD provide more 
specific information on its training program, final rules, and how the 
Department has worked to ensure there is no bias against producers.
    [The information follows:]
    The effects of training on the hearings process include increased 
professionalism in the way hearings are conducted and improvements in 
how determinations are written and supported by sound reasoning. The 
final rule involved only minor changes to the interim rule under which 
NAD operated since 1996. Changes implemented in the final rule involved 
the need for a personal signature in certain cases where it was not 
specified in the interim rule, options available to the hearing officer 
when a party fails to appear for a hearing, and delineating the status 
of third parties and interested parties. Overall, issuance of final 
rules had little substantive impact on the hearing process or the 
outcome of appeals.
    NAD works to prevent bias through quality control procedures 
involving review of hearings and determinations to assure that all 
parties are treated alike and that all determinations are based solely 
on the application of the applicable regulations to the facts of the 
case. The Director has issued specific guidance in a NAD Directive, 
``Disqualification or Recusal from an Appeal,'' No. 99-08, dated March 
19, 1999. Bias is not established by any recitation of numbers or 
percentages of determination results, but in a failure to conform to 
the highest standards of integrity and objectivity in applying the law. 
NAD adheres to such standards.
                 office of the chief financial officer
    Question. Please provide an update on the status of the current 
USDA financial management audit.
    Answer. On February 26, 2001, the U.S. Department of Agriculture's 
(USDA) Office of Inspector General issued a disclaimer of opinion on 
the USDA Consolidated Financial Statements for fiscal year 2000. 
However, three of the Department's components--the Food and Nutrition 
Service, the Rural Telephone Bank; and the Federal Crop Insurance 
Corporation--received unqualified audit opinions and substantial 
progress has been made in improving the audit results of our other 
agencies. A variety of efforts are underway to resolve the Department's 
financial reporting issues, and we are hopeful that these efforts will 
result in an improved audit opinion on the USDA consolidated financial 
statement for fiscal year 2001.
    Question. How have the results of these audits, over the past three 
years, compared to other Federal agencies?
    Answer. USDA received disclaimers of opinion on its consolidated 
financial statements for fiscal years 1998, 1999 and 2000. Of 24 major 
Federal agencies producing audited financial statements, seven, four, 
and two others in addition to USDA received disclaimers in 1998, 1999, 
and 2000 respectively.
                      common computing environment
    Question. Please provide an update on establishment of the Common 
Computing Environment.
    Answer. Since fiscal year 1998, the Service Center agencies (the 
Farm Service Agency, Rural Development, and the Natural Resources 
Conservation Service) have been replacing old, out-of-date and 
incompatible workstation computers with modern, common computing 
environment (CCE) workstations as part of the Department's Service 
Center Modernization Initiative. With requested resources in fiscal 
year 2002, we intend to complete the basic CCE infrastructure with the 
procurement of application servers and increased telecommunications 
capacity. I will have more detailed information provided for the 
record.
    [The information follows:]
    Priorities in fiscal year 2002 will include: increasing the Service 
Center agencies' telecommunications capacity and network security to 
allow customers to transact business electronically and acquiring high 
capacity servers needed to support the reengineered business processes.
    The CCE workstations have identical software consisting of office 
automation applications, such as word processing, and base program 
application software needed by one or more of the agencies. This common 
workstation and common ``core'' load of software make these machines 
interchangeable and provide employees with software that is in general 
use by the customer base and partners. It is anticipated that the 
remaining workstations will be procured in July/August 2001.
    Network servers will provide full communications and connectivity 
of the Service Center workstations to the local and wide area networks. 
Network services that will be provided by these servers include 
security and access control, business quality electronic mail, printer 
and peripheral access, file storage and backup, and the management of 
local data for all employees within the Service Center. These servers 
also provide the mechanism for remote system management and 
configuration of the desktop and portable workstations. Currently, 
without the network servers, an update or fix of software on the 
workstations requires that an IT support person visits each office 
location and take each machine offline for about 1\1/2\ hours to 
perform the work. With the servers, these updates can be done remotely, 
from one location and during off hours so that no downtime or onsite 
work is required. Deployment of the network servers will begin later 
this year.
    Additional funds from the Service Center agencies will complement 
the fiscal year 2002 CCE funding request by supporting continued 
business process re-engineering, data acquisition and training needed 
to reap the benefits of the new technology, as well as maintenance and 
support of existing legacy systems.
        agriculture buildings and facilities and rental payments
    Question. I understand Phase One of the South Building Renovation 
is complete, and the contract bid period for Phase Two of the 
Renovation is currently underway. Please provide an estimated timetable 
on when Phase Two will be completed, and what the renovations entail.
    Answer. Bids were received on April 13, 2001, for the Phase Two 
construction contract. Excluding delays due to unforeseen conditions, 
completion is scheduled for 1 year from the start date, with occupancy 
beginning in the summer of 2002.
    The Phase Two renovation work includes total demolition of the 
existing interior construction of wing 4, except for First Floor 
historic preservation considerations involving existing corridor walls 
and doorways. The contract entails abatement of hazardous materials--
asbestos and lead paint; upgraded mechanical, electrical, 
telecommunications and plumbing systems; new fire alarm and sprinkler 
systems; accommodations for persons with disabilities; and improved 
space tailored to the needs of the tenant agencies.
                     office of the general counsel
    Question. Last year, OGC was provided with $500,000 in emergency 
funds to be used on activities relating to concentration and 
consolidation of agricultural businesses. Please provide an update on 
how these funds have been used to date, and plans for expending any 
remaining funds.
    Answer. According to the OGC, these funds will be used to hire 
additional attorneys to handle regulatory and enforcement cases arising 
from concentration specifically in the livestock and poultry 
industries. Two new attorneys will be coming on board within the next 
several weeks to augment the legal staff handling concentration-related 
cases, and OGC is also seeking to hire up to two additional new 
attorneys for this work.
              outreach for socially disadvantaged farmers
    Question. I understand that the majority of projects funded with 
section 2501 funds were completed in fiscal year 2000. Please provide 
information on new and completed projects funded in fiscal year 2001 
with section 2501 dollars.
    Answer. I have been informed that all but one of the section 2501 
projects were completed in fiscal year 2000. One project will complete 
its 5-year project with funding from fiscal year 2001 monies. A request 
for new project proposals, will be issued soon, and the remainder of 
the fiscal year 2001 funds will be awarded to the selected proposals 
later this year.
    Question. Were all available funds committed?
    Answer. Except for the one project which will complete its 5-year 
project with fiscal year 2001 program funds, none of the fiscal year 
2001 funds have been committed yet. We expect to commit them later this 
year.
    Question. Please provide information on the requirements for 
receiving this money, as well as examples of successful and 
unsuccessful uses of section 2501 funds.
    Answer. The Request for Proposals for new section 2501 projects 
will be announced shortly. To receive funds, applicants will need to 
show that they can responsibly meet the intent of the program--that is, 
to provide outreach and technical assistance to socially disadvantaged 
farmers and ranchers to help them own and operate farms and ranches and 
to participate in agricultural programs. We will provide a few examples 
of completed projects for the record.
    [The information follows.]
    Alabama A&M University developed a program of technical assistance 
to reverse the decline in the number of socially disadvantaged farmers 
and ranchers in its area and improve family living conditions. It 
increased the information available to the participants and increased 
their participation in Federal and local assistance programs.
    Delaware State University and the University of Maryland Eastern 
Shore worked together to build small-scale agriculture and coordinate 
markets for farm products in their area. They provided intensive 
training in farm production and improved the financial planning of the 
participants. These participants played an important part in the 
economic revitalization of their small communities.
    Langston University (Oklahoma) provided technical assistance in 
farm management and alternative use and non-farm activities, which 
improved farm income through better management and financial analysis 
and expanded the alternatives for part-time and off-farm employment.
    Lac Courte Oreilles Objibwa Community College (Wisconsin) developed 
and implemented an agricultural and resource management program that 
integrated modern technology with traditional practices in farming and 
marketing activities. The project contributed to a more diverse and 
sustainable local farm economy.
                          agriculture research
    Question. There is a growing concern that funding for agricultural 
research is not keeping pace with needs, nor keeping in line with 
research in other sectors. For example, the President's budget requests 
funding of $969 million for the Agricultural Research Service and $994 
million for the Cooperative State Research, Education, and Extension 
service, the two primary research agencies of USDA. When compared to 
other agencies such as the National Science Foundation or the National 
Institutes of Health, the total funding for USDA research is often the 
same level as the annual increases in the non-ag sector. This problem 
presents the reality of an exodus of skilled ag researchers to fields 
of science where Federal funds are more readily available. Also, at a 
time when emerging plant and animal pest and disease issues, plant and 
animal genetics issues, food safety issues, and a host of other 
challenges are facing U.S. farmers, this drain of expertise and overall 
lack on an adequate research base is most troubling. Can you explain 
why the administration has not placed a greater emphasis on 
agricultural research and why it lags so far behind the Federal 
research support in the non-ag sectors?
    Answer. Maintaining and strengthening the competitive advantage of 
U.S. farmers will require investments in new technology. To meet these 
needs within a restrained budget, we have taken a hard look at 
priorities. The President's Budget provides funding to cover increased 
pay costs for in-house agricultural research and redirects priorities 
to fund increases in selected National priority areas. Proposed 
reductions are limited to earmarked projects and facility construction.
    Question. Did you express to OMB or the White House during the 
development of the fiscal year 2002 budget the need to bring 
agricultural research more in line with other Federal research efforts?
    Answer. Due to the change in Administration, much of the budget 
development for the 2002 President's budget was held in a few weeks 
directly following the Presidential Inauguration. I was assisted in 
negotiations by a small transition subcabinet-level policy staff. 
During this brief period of discussions, we focused on negotiating for 
funds to support my highest priority research initiatives. These 
initiatives include research on mad cow disease, biotechnology risk 
assessment, biobased products, maintaining a broad range of extramural 
research and education programs, and other high priority initiatives.
    Question. Do you think that current levels of agricultural research 
are adequate to meet the challenges facing the U.S. farm sector today?
    Answer. The research agencies consistently meet the challenges that 
arise with today's ever-changing global farm economy, including 
addressing needs ranging from organic production, to improved pest and 
disease control, to bioengineered foods. Research programs must serve 
small and minority farmers; sustain the rural economy and provide 
opportunities for growth; and support efforts to further develop 
markets locally and abroad. These programs must and do provide the 
scientific basis for a multitude of programs, such as producing high 
quality foods, examining human nutrition, developing sound production 
practices that minimize environmental impacts and emphasize economics, 
and numerous other areas important to the agriculture system, in the 
field, in the home, and elsewhere. By maintaining a balanced portfolio 
of extramural grants and in-house research funding, the Department is 
able to manage its research program in order to address high priority 
research areas identified by our stakeholders in the U.S. farm sector.
                       economic research service
    Question. Please provide information in regard to the coordination 
of ERS with FNS on establishing studies and evaluations priorities on 
the subject of nutrition.
    Answer. The Economic Research Service works closely with the Food 
and Nutrition Service (FNS) in identifying and setting research 
priorities. FNS is the primary client for these studies and thus 
receives considerable weight in determining priorities for research. In 
addition to an annual written list of research priorities provided by 
FNS to ERS, ERS staff are in almost daily contact with FNS about 
prioritizing its research needs. ERS also seeks input from other 
stakeholders including Congress, researchers, practitioners, advocates, 
industry groups, and service providers.
                     agricultural research service
    Question. Please provide an update on activities regarding 
Integrated Farming Systems programs in Wisconsin or other states.
    Answer. The Agricultural Research Service (ARS) at the U.S. Dairy 
Forage Research Center (USDFRC), the University of Wisconsin (UW) and 
the Michael Fields Agricultural Institute (MFAI) all continue to 
conduct research in a cooperative project on integrated farming systems 
in Wisconsin. The USDFRC is in the process of hiring an agroecologist 
and a research geneticist to join the integrated farming system 
project. The USDFRC conducts research on (1) developing low-input 
management of intensive grazing systems, giving emphasis to procedures 
that provide needed supplements to growing and lactating dairy cattle 
without nutrient buildup in pastures and loss to the environment; (2) 
evaluating and developing cropping systems that provide quality feed 
for profitable dairy farms in an environmentally safe manner; (3) 
developing strategies for managing nutrients in crop-livestock systems 
with special emphasis on animal manure to, at minimal cost, maximize 
nutrient recycling and minimize environmental risks; (4) investigating 
surface loss of phosphorus and nitrogen from pasture paddocks that have 
been managed in different ways; and 5) cooperate in a multi-agency/
institute project on farm diversification--"Small Grains Initiative,'' 
the goal of which is to incorporate small grains and legumes into a 
normal corn-soybean rotation while taking into account both production 
and marketing objectives. Researchers at other ARS locations are also 
cooperating in this last project and with MFAI on topics such as soil 
quality. This group has also received USDA grant funding to expand 
their efforts to develop cropping systems utilizing cover crops and 
manure to optimize nitrogen and phosphorus use while minimizing their 
loss to leaching and runoff.
    One of ARS' National Programs is entitled, ``Integrated 
Agricultural Systems.'' ARS research on ``integrated farming systems'' 
is a major activity across the country. This National Program is unique 
in that it addresses the context in which research is conducted as well 
as the scope of the research. Attributes of projects in the Integrated 
Agricultural Systems National Program include among others: active 
producer/stakeholder participation; determination of interactions among 
components; involvement of interdisciplinary teams and multi-
organizational collaborators; optimum use of long-term studies; use of 
natural ecological and biological resources whenever appropriate; and 
consideration of economic, environmental, community, and social 
concerns. The Administration's 2002 budget recommendations for the ARS 
Integration of Agricultural Systems budget line item include an 
increase of $484,000 for estimated pay cost increases in an effort to 
maintain the current level of scientific staffing in ARS.
    Although it would be difficult for any one project to have all 
these attributes, there are ongoing ARS-led Integrated Agricultural 
Systems projects throughout the country that have many of these 
characteristics. For example, a project in Georgia, focusing on the use 
of cover crops and biocontrol, involves three ARS locations, three 
universities, a number of nongovernment organizations (NGOs) including 
Community in Schools and the Georgia Conservation Tillage Alliance, and 
multiple farmers with research sites on their farms. Another project 
led by ARS researchers in Ames, Iowa, is using farmers, consultants, 
university researchers, and NGOs, to develop environmentally sound and 
profitable farming systems for the highly erodible deep loess soils of 
the Cornbelt. An activity lead by scientists at the ARS unit in Mandan, 
North Dakota, in cooperation with seven other ARS Great Plains 
locations and numerous university cooperators and producers, is doing 
research on soil quality, cropping systems, and integrated crop-
livestock production. One outcome, just released, is the decision 
support aid called ``Crop Sequence Calculator'' which enables northern 
plain farmers to choose the most profitable crop rotations based on 
their specific situation. More than 5,000 copies have already been 
distributed. Multiple ARS units across the Pacific Northwest, led by 
researchers in Corvallis, Oregon, are cooperating with other government 
agencies, NGOs, producers, and environmental groups to develop cropping 
systems compatible with salmon restoration. These, as well as other 
sustainable agricultural projects, are being conducted to meet the 
needs of ARS stakeholders expressed at the National Program workshops 
to address their integrated systems needs.
         agricultural research service buildings and facilities
    Question. Please provide an update on activities regarding planned 
improvements of the Cereal Crops Laboratory in Madison, Wisconsin.
    Answer. ARS retained an architect-engineer to review the facility 
conditions and needs to support the research program at the Cereal 
Crops Laboratory in Madison, Wisconsin. The feasibility study 
identified three options to meet the needs of the program. The facility 
report requested by Congress is currently being reviewed in the 
Department. The report will assess the needs for the facilities in 
Madison, Wisconsin and provide current information on costs for the 
project.
    Question. Please provide an update on activities regarding the 
National Animal Disease Laboratory in Ames, Iowa, including ARS 
coordination with APHIS regarding this facility.
    Answer. In fiscal year 1999, ARS and APHIS agreed to develop a 
preliminary combined modernization plan. In combining modernization 
efforts of both agencies, efficiencies can be realized by consolidating 
facilities, and phasing of construction can be simplified by 
eliminating the need for swing space. Combining efforts also presents 
the opportunity to create a world class facility consisting of new, 
state-of-the-art structures for biocontainment research, diagnostics, 
and vaccine evaluation. New construction allows the structures to be 
optimally sited along an upgraded infrastructure spine; provides 
increased security, operations and maintenance efficiencies; and 
results in an enhanced research environment. The facility report 
requested by Congress was submitted on May 25, 2001. The report 
assesses the needs for the facilities in Ames, Iowa and provides 
current information on costs and scheduling for project alternatives.
      cooperative state research, education, and extension service
    Question. Please provide information on Special Research Grants 
which as of fiscal year 2001 have received funding through this account 
for at least four consecutive years and suggest other USDA grant 
programs for which these projects could compete.
    Answer. Based on our funding history records, there are over 100 
special grant projects which have been funded for the last four years. 
A table showing funding over the past four years for these grants is 
provided below for the record.
    Some of these grants might qualify for funding under other grants 
programs administered by the Cooperative State Research, Education, and 
Extension Service--CSREES. CSREES administers programs related to a 
wide variety of national problem areas, including those that have a 
water quality, food safety, plant and animal genomics, biotechnology, 
or new uses focus. Many of the special grants projects tend to fall 
under these types of broad focus areas. However, the special grants 
provide earmarked funds for specific locations, without benefit of a 
competitive process including merit and peer review. Investigator-
initiated basic research might qualify for support under broad national 
priorities of the National Research Initiative Competitive Grants 
Program. In addition, the Initiative for Future Agriculture and Food 
Systems gives priority to proposals that successfully integrate 
research, extension and education and/or address the concerns of small 
and mid-sized producers and land managers (especially in natural 
resource management and farm efficiency and profitability). The goal of 
IFAFS is to award large grants to multi-state, multi-institutional, and 
multi-disciplinary projects; preference will be given to those 
projects. Requests for proposals are modified each year to address the 
highest priority concerns for the U.S. agriculture and food system. 
CSREES administers a number of smaller programs that support work that 
is generally related to special grant topics, such as pest management 
and control programs, which might be funded under Improved Pest 
Control. These programs support alternative pest management practices. 
In addition, the Crops at Risk from Food Quality Protection Act--FQPA--
Implementation and Risk Mitigation for Major Crops supports alternative 
pest management practices for crops at risk from loss of pest controls 
due to the FQPA. Food safety and water quality grants might also be 
supported under the programs under the Integrated Activities account.
    [The information follows:]

  COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE RESEARCH
            AND EDUCATION ACTIVITIES SPECIAL RESEARCH GRANTS
                        [In thousands of dollars]
------------------------------------------------------------------------
                                 1998       1999       2000       2001
                                Actual     Actual     Actual    Estimate
------------------------------------------------------------------------
Aegilops cylindricum (WA;           346        360        360        359
 Jointed Goatgrass).........
Aflatoxin, Illinois.........        113        113        113        131
Agricultural                        131        131        131        131
 diversification, Hawaii....
Agricultural diversity/Red          250        250        250        374
 Riv C (MN/ND)..............
Agriculture based indust.           200        250        250        349
 lubricants (IA)............
Alliance for food protection        300        300        300        299
 (NE,GA)....................
Alternative crops, North            550        550        550        624
 Dakota.....................
Alternative salmon products         400        400        553        644
 (Alaska)...................
Anml. Sci. Food Safety Con.       1,521      1,521      1,521      1,631
 (AR, KS, IA)...............
Apple fireblight (MI, NY)...        500        500        500        499
Aquaculture, Louisiana......        330        330        330        329
Aquaculture, Stoneville,            642        592        592        591
 Mississippi................
Aquaculture Prod. and Mrktg.        600        750        750        748
 Dev. (WV)..................
Babcock Institute, Wisconsin        312        400        510        599
Ctr. for animal health &            113        113        113        113
 prod. (PA).................
Center for rural studies,            32        200        200        200
 Vermont....................
Chesapeake Bay aquaculture..        370        385        385        391
Competitiveness of ag.              677        680        680        679
 products, WA...............
Cool season legume research,        329        329        329        328
 ID & WA....................
Cranberry/blueberry disease         220        220        220        220
 & breed, NJ................
Dairy and meat goat research         63         63         63         63
 (TX).......................
Delta rural revitalization,         148        148        148        205
 Mississippi................
Drought mitigation (NE).....        200        200        200        200
Ecosystems (AL).............        500        500        500        499
Environmental research (NY).        486        486        400        399
Environmental risk factors/         100        100        170        227
 cancer (NY)................
Expanded wheat pasture, (OK)        285        285        285        292
Feed barley for rangeland           600        600        638        692
 cattle, MT.................
Floriculture (Hawaii).......        250        250        250        249
Food & Ag Policy Institute,         800        800        800        948
 IA, & MO...................
Food irradiation, IA........        200        200        200        225
Food Marketing Policy               332        400        400        494
 Center, Connecticut........
Food processing center,              42         42         42         42
 Nebraska...................
Food Systems Research Group,        221        225        425        499
 Wisconsin.,................
Forestry, Arkansas..........        523        523        523        522
Fruit & vegetable market            296        320        320        347
 analysis...................
Generic commodity                   212        212        198        198
 promotions, research and
 evaluation, NY.............
Global Change...............      1,000      1,000      1,000      1,431
Grain Sorghum, Kansas.......        106        106        106        106
Grass seed cropping for             423        423        423        422
 sustainable ag.............
Human nutrition, IA.........        473        473        473        472
Human nutrition, LA.........        752        752        752        750
Human nutrition research, NY        622        622        622        621
Hydroponic tomato production        140        200        200        100
 (OH).......................
Illinois-Missouri Alliance        1,184      1,184      1,184      1,239
 for Biotech................
Improved dairy management           296        296        296        397
 practices, PA..............
Improved fruit practices....        445        445        445        444
Institute for Food Science &        950      1,250      1,250      1,247
 Enginr., AR................
Integrated production               161        180        180        180
 systems, Oklahoma..........
International arid lands            329        400        400        494
 consortium.................
Iowa Biotechnology                1,564      1,564      1,564      1,561
 Consortium.................
Livestock and Dairy Policy          445        475        475        569
 (NY and TX)................
Lowbush blueberry research          220        220        220        259
 (ME).......................
Maple research (VT).........        100        100        100        119
Michigan Biotech. Consortium        675        675        675        723
Midwest Adv. Food                   423        423        423        461
 Manufacturing Allianc,.....
Midwest agricultural                592        592        592        645
 products (IA)..............
Milk safety, Pennsylvania...        268        250        298        374
Minor use animal drugs......        550        550        550        549
Molluscan shellfish (OR)....        400        400        400        399
Multi-commodity research            364        364        364        363
 (OR).......................
Multi-cropping strategies           127        127        127        127
 for aquaculture............
National Bio. Impact                254        254        254        253
 Assessment.................
Nematode resist. genetic            127        127        127        127
 engineering, NM............
Nonfood ag products,                 64         64         64         64
 Nebraska...................
Oil from desert plants (NM).        175        175        175        175
Organic waste utilization           100        100        100        100
 (NM).......................
Pasture and forage research         225        225        225        249
 (Utah).....................
Peach tree short life, South        162        162        162        179
 Carolina...................
Pest control alternatives,          106        106        106        117
 SC.........................
Phytophthora root rot, NM...        127        127        127        138
Plant, drought, and disease         150        150        213        249
 resist. gene cataloging
 (NM).......................
Potato research.............      1,214      1,300      1,300      1,447
Preharvest food safety, KS..        212        212        212        212
Preservation & processing,          226        226        226        226
 OK.........................
Rangeland ecosystems, NM....        185        200        200        299
Regional barley gene mapping        348        400        425        587
 project....................
Region. implications of farm        294        294        294        293
 prgs, MO, TX...............
Rice Modeling, AR...........        296        296        296        295
Rural Development Centers...        423        523        523        522
Rural policies institute....        644        644        644        820
Russian Wheat Aphid.........        200        200        200        249
Seafood harvesting, proc.,          305        305        305        304
 mkt. (MS)..................
Small fruit research (OR,           212        300        300        324
 WA, ID)....................
Southwest Consortium for            338        338        338        368
 plant genetics and water
 resources..................
Soybean cyst nematode (MO)..        450        475        475        599
STEEP III-water quality in          500        500        500        499
 Northwest..................
Sustainable agriculture (MI)        445        445        445        444
Sustainable agriculture (PA)         94         95         95        100
Sustainable agriculture              59         59         59         59
 systems (NE)...............
Sustainable pest mgt-dryland        400        400        425        461
 wheat (MT).................
Swine waste mgmt. (NC)......        300        500        500        499
Tillage, silviculture, waste        212        212        212        212
 mgmt (LA)..................
Tropical & subtropical            2,724      2,724      2,724      3,854
 research...................
Vidalia onions (GA).........         84        100        100        249
Viticulture consortium (NY,         800      1,000      1,000      1,497
 CA, PA)....................
Water conservation, (KS)....         79         79         79         79
Weed control (ND)...........        423        423        423        435
Wheat genetic research (KS).        261        261        261        260
Wood utilization............      3,536      5,136      5,136      5,773
Wool research (TX, MT, WY)..        300        300        300        299
                             -------------------------------------------
      Total, Special             42,598     46,323     46,953     52,304
       Research Grants......
------------------------------------------------------------------------

                           wildlife services
    Question. Please provide an update on the agencies' non-lethal 
control activities and, in particular, the pilot programs in up to four 
states as provided in Public Law 106-387.
    Answer. APHIS has taken steps to begin the project. APHIS has 
written a study protocol that will provide a statistically meaningful 
evaluation of the relative effectiveness of non-lethal predator 
management methods only versus the integrated approach of lethal and 
non-lethal management methods. This study is in addition to a broader, 
continuing research and methods development program APHIS conducts to 
protect livestock, crops, and human health and safety. APHIS devotes 
over 75 percent of their research effort to non-lethal development 
activities. APHIS has consulted with staffs of Senators Boxer and 
Smith, as well as with representatives from Defenders of Wildlife and 
the Humane Society of the United States, to identify the non-lethal 
methods to evaluate. The protocol calls for a four-year evaluation 
involving eight to twelve ranches each in California, Idaho, and West 
Virginia. The project is designed to evaluate both non-lethal and 
integrated management methods for two years on each ranch.
    Question. Please provide information regarding the Wildlife 
Services activities in regard to wolf predation issues and control 
efforts in the Upper Midwest, including Minnesota, Wisconsin, and 
Michigan, and please compare the activities in that region with similar 
operations in the Rocky Mountain states.
    Answer. The Minnesota wolf population has steadily increased from 
approximately 1,200 wolves in 1979, found only in the remote 
northeastern parts of the State, to approximately 2,600 wolves now. 
This population increase has caused a significant southern expansion 
with a contiguous range now covering approximately 40 percent of the 
State. Wisconsin began to monitor for wolf populations in 1979, with an 
initial report of 25 animals. In the late 1980s, this population began 
to steadily increase and there are approximately 250 wolves now. In 
1995, wolf discoveries occurred in areas south of the northern 
Wisconsin region. As wolves began to occupy northern Wisconsin, 
individual wolf observations occurred in the Upper Peninsula of 
Michigan. The U.S. Fish and Wildlife Service (FWS) now estimates that 
approximately 200 wolves inhabit the Upper Peninsula. With this 
expanding natural population of gray wolves, we have been addressing 
wolf impacts in Minnesota since the mid 1970s. The population growth 
and expanding range have resulted in wolves moving into Wisconsin and 
Michigan. As the wolf population increases, so does the number of 
depredation incidents against livestock. We project our responses to 
wolf complaints in Minnesota, Wisconsin, and Michigan will reach 289 
during fiscal year 2001, a 26 percent increase since fiscal year 1999.
    The FWS gray wolf reintroduction in Wyoming (Yellowstone National 
Park) and Idaho has been so successful that wolf populations have 
expanded beyond original introduction site boundaries. From an original 
reintroduction of 66 wolves in 1995 and 1996, the FWS now estimates 
there are between 360-405 wolves in these two States. In addition, 
naturally occurring wolf populations in Montana have grown from an 
estimated 25-50 wolves in the early 1990s, to approximately 80 to 100 
wolves today according to the FWS. In total, FWS estimates there are 
440-505 wolves in the Northern Rocky Mountain area and that the total 
number of wolves will triple in the next several years. APHIS--
responsibility has increased significantly as a result of the wolf 
recovery efforts in Wyoming, Idaho, and Montana. We project our 
responses to wolf complaints in these States will reach 244 during 
fiscal year 2001, a 116 percent increase since fiscal year 1999. APHIS 
received $1,000,000 in fiscal year 2001 for predator/wolf control in 
Idaho, Montana, and Wyoming which was allocated equally among the three 
States. We are evaluating the impact of these expanding wolf 
populations and our ability to provide adequate service with the 
increased funding.
                             animal welfare
    Question. It has been brought to my attention that in the past 
several years, there have been a variety of instances in several 
states, including Missouri and Minnesota, in which USDA Animal Care 
Inspectors had found no cases of noncompliance at facilities with 
significant animal welfare problems, or where sanctions for 
noncompliance have been lax or unenforced. Please provide me with 
detailed information on how the USDA administers and enforces sanctions 
to Animal Welfare Act violators, and how you ensure that Animal Care 
Inspectors are completing detailed inspections of animal facilities.
    Answer. APHIS conducts regulatory activities which ensure the 
humane care and treatment of animals and horses as required by the 
Animal Welfare Act (AWA) of 1966 as amended (7 U.S.C. 2131-2159). These 
activities include inspection of certain establishments which handle 
animals intended for research, exhibition, and sale as pets.
    APHIS uses a variety of methods to assure that AWA inspections are 
thorough, complete, and conducted in a consistent, uniform manner. We 
rely heavily on proper training to insure that each animal care 
inspector has the background and knowledge to conduct a proper 
inspection. With fiscal year 2001 approximately halfway complete, the 
program has conducted three training courses for inspectors so far this 
year. One course concentrated on research facilities, and the other two 
focused on basic inspection techniques. APHIS also held a regional 
conference for animal care inspectors this year which included training 
designed to promote consistent, high quality inspections.
    APHIS recently published an Animal Care Inspection Manual which 
outlines inspection procedures and also contains a checklist for 
inspectors to assure that they have covered all areas of the 
regulations that are pertinent to the facility being inspected. To help 
ensure that Animal Care Inspectors are completing detailed inspections 
of animal facilities, each inspector is supervised by a Supervisory 
Animal Care Specialist who conducts periodic reviews of the inspection 
process, and accompanies inspectors on actual inspections. These 
supervisors also review a random number of reports from each inspector 
to assure they are done properly and cover all areas prescribed in the 
AWA regulations.
    With our recently developed Animal Care data base, we are able to 
statistically monitor the field inspection process by determining how 
many and what type of violations are written by each inspector, the 
number of inspections conducted, and other useful information to more 
effectively assure the inspections are conducted properly and 
thoroughly.
    Enforcement activities are carried out by a separate investigative 
and enforcement (IE) staff funded under the Animal and Plant Health 
Regulatory Enforcement line-item. Animal Care program officials refer 
alleged violations identified during inspections to our investigative 
and enforcement unit for investigation. Headquarters IE staff review 
the completed investigative reports, and initiate an appropriate action 
based on a number of factors including the gravity of the violation, 
prior history, and size of the business.
    Less serious infractions may be settled with an official notice of 
warning, while more serious cases may be resolved at the Agency level 
through stipulated civil penalty agreements with the violator or 
through formal administrative action before an Administrative Law 
Judge. Stipulations allow alleged violators to pay a fine, have their 
license suspended, or both, in lieu of formal administrative 
proceedings. Cases that warrant formal prosecution undergo Departmental 
review for legal sufficiency prior to issuance of a formal 
administrative complaint. Formal cases may be resolved by license 
suspensions, revocations, cease-and-desist orders, civil penalties, or 
combinations of these penalties through administrative procedures. 
APHIS also uses innovative settlements where appropriate to encourage 
compliance. In innovative settlements, the Agency allows a portion of 
the civil penalty to be used by the licensee or registrant to provide 
training or make repairs and/or upgrades to facilities to help ensure 
future compliance with the Act.
    Question. I have been informed that the Animal Welfare Information 
Center has received an appropriation of $750,000 to perform its 
activities without an increase in over a decade. It is also my 
understanding that more than 50 percent of the AWIC budget is 
transferred to the National Agricultural Library and Agricultural 
Research Service for overhead costs. Please explain why AWIC must 
provide such a large amount of its budget for AWI and ARS overhead 
costs.
    Answer. The National Agricultural Library received an appropriation 
of $750,000 in fiscal year 1986 to support an information service at 
NAL. There have been no increases in the base appropriation since then 
and several mandated permanent reductions have resulted in an overall 
decrease in the original appropriation of about 9 percent. To clarify, 
NAL and ARS do not take 50 percent of the budget for overhead. ARS, 
however, applies a 10 percent across-the-board assessment for overhead 
to support the agency's overall program and administrative management 
activities. The remaining 90 percent is allocated directly to the AWIC 
and the other NAL program and administrative activities that support 
the AWIC.
                          cranberry purchases
    Question. The fiscal year 2001 Act provided $30 million for the 
purchase of surplus cranberries. Please provide an update on those 
activities and please provide information in regard to how those funds 
have been directed toward the actual purchase of fruit (as directed by 
statute) and for the costs of processing (as has been reported).
    Answer. As of May 16, 2001, AMS has purchased 32.7 million pounds 
of cranberry juice concentrate at a cost of $16.2 million. In addition, 
the agency has purchased 3.25 million pounds of dried cranberries at a 
cost of $5.5 mil., and 7.36 million pounds of canned cranberry sauce at 
a cost of $3.4 mil. The agency is currently offering to purchase 4.05 
million pounds of cranberry juice at an estimated cost of $1.7 million. 
AMS buys processed cranberry products and does not track the cost of 
processing separately from the cost of the fruit.
    AMS is committed to purchasing $30 million surplus cranberries as 
directed by the Act. However, purchases are dependent on USDA's ability 
to find sufficient outlets that can take the product. AMS is working 
directly with the Food and Nutrition Service in this effort.
    Although some portion of the funds available must be spent on 
processing to procure product in a form that is acceptable to 
recipients, the Department has donated sucrose for use in the 
production of cranberry juice concentrate to maximize the amount of 
cranberries that are being purchased.
                 conservation crp technical assistance
    Question. The fiscal year 2002 budget includes an appropriated 
amount to cover the cost of technical assistance associated with the 
Conservation Reserve Program. Previous to the 1996 Farm Bill, mandatory 
funds were available for technical assistance in this regard, but 
imposition of the Section 11 cap by the authorizing committee created 
the funding difficulties resulting in your 2002 request. Since this 
problem is a direct result of action by the authorizing committee, why 
did the President not submit a request to the authorizing committee to 
strike the cap they imposed?
    Answer. Many of the conservation programs funded by the Commodity 
Credit Corporation, such as the Conservation Reserve Program, expire 
with the 1996 Farm Bill. Discussions regarding the appropriate farm 
policy for the future are underway and will continue this year. The 
request for CRP technical assistance funding under the Conservation 
Operations account addresses the short-term needs for fiscal year 2002.
         rural development rural community advancement program
    Question. EPA Administrator Christine Todd Whitman recently stated 
that one reason for reviewing the arsenic level standard for drinking 
water was her concern that since arsenic levels are more prevalent in 
individual private wells than public drinking systems, the Bush 
Administration did not want to take action that might force public 
systems to close and make Americans more reliant on private well 
sources of drinking water.
    If this is the Administration's concern, why was there not a 
substantial increase in the budget to allow more Americans access to 
public water systems in rural areas?
    Answer. The Administration's position is that these standards need 
to be examined based on the best science available and that they need 
to be realistic in terms of what can be achieved by communities that 
rely on a public drinking water system. While USDA's water and waste 
disposal program certainly helps rural communities obtain clean and 
safe drinking water, most projects require these communities to pay a 
fairly substantial portion of the cost for both constructing and 
operating a system. Consequently, the level of funding for the program 
is only one of the considerations that needs to go into the decision on 
these standards.
    Question. To what extent are arsenic levels a problem in rural 
areas, especially in areas where no public systems are now available?
    Answer. A May 2000 study conducted by the U.S. Geological Survey 
found that about 10 percent of the samples it took had an arsenic level 
exceeding the World Health Organization 19s provisional guideline. The 
samples were taken in about 24 percent of U.S. counties.
    Question. Please provide information on the backlog of applications 
for the water and wastewater loan and grants program.
    Answer. As of March 2001, there were 1,445 applications for water 
and waste disposal loans, totaling about $2.2 billion, and 734 
applications for water and waste disposal grants, totaling about $757 
million.
                         rural housing service
    Question. Calculations based on USDA estimates received last year 
show that the average home under the Section 502 program is financed 
for just over $60,000. Is this calculation correct, and if not, what is 
the average amount of a direct loan, and a guaranteed unsubsidized 
loan, under the Section 502 Rural Housing Loan program?
    Answer. Direct Section 502 loans averaged close to $65,000 for 
fiscal year 2000 and are estimated to average about $67,000 for 2002. 
Guaranteed loans, which are unsubsidized and tend to serve borrowers 
with more income than direct loan borrowers, averaged about $74,000 for 
2000 and are estimated to average about $78,000 for 2002.
                        rural utilities service
    Question. Please provide information regarding the ability of rural 
electric providers to cope with increasing energy costs?
    Answer. The President's energy task force report will address the 
root cause of the problems the Nation, including rural America, is 
experiencing due to increasing energy costs. The President has spoken 
repeatedly about his concerns for long-term solutions, including the 
development of additional power generating capacity. USDA's Rural 
Utilities Service (RUS) is already experiencing an increase in 
applications for generation projects. Demand side management is also 
necessary. RUS recently published proposed changes in its regulations 
to facilitate such action.
    Question. What has been the effect of electric power deregulation 
on rural electric cooperatives?
    Answer. Rural electric cooperatives with outstanding loans or loan 
guarantees from RUS are not regulated by the Federal Regulatory Energy 
Commission (FERC). However, they are impacted by FERC initiatives 
relating to the prices of electricity sold in wholesale markets, from 
which the cooperatives buy a portion of their power. Further, virtually 
all RUS borrowers are dependent upon transmission services to reach 
their customers. However, it appears that deregulation is not 
encouraging new providers to enter rural areas. In Pennsylvania, for 
example, 2 years after all the State's rural electric cooperatives 
elected to open their systems to full retail competition, not a single 
competitive provider has applied to serve these cooperatives.
    Question. To what extent do rural electric providers have access to 
their own generation sources and for those that do not, are they being 
provided adequate access to other sources?
    Answer. Nationwide, electric cooperatives, including rural electric 
cooperatives, generate about 55 percent of the power they need to serve 
their retail customers. The rest is obtained from wholesale markets. So 
far, the electric cooperatives have been able to secure the electricity 
they need to keep the lights on for their customers--but, in some 
instances, the purchases of peaking power on the spot market have come 
at a very high price.
    Question. What percentage of Rural America has access to internet 
and broadband communications capabilities on a scale comparable to most 
urban areas in this country?
    Answer. While an estimated 39 percent of rural households have some 
type of access to the internet, the quality of that access is, in many 
cases, far less then that in urban areas. For example, most users are 
able to connect to the internet at a minimum transmission rate of 28 
kilobits per second, which is three times faster than the capacity of 
many rural phone lines. Further, only 7.3 percent of rural household 
have access to broadband services.
                            human nutrition
    Question. For many Americans, USDA nutrition programs are the only 
guarantee that they will have access to at least one nutritious meal a 
day. However, recent accounts of increased demands at food banks, 
questions about the quality of food children consume at school, and 
similar stories raise concern that some people, especially those most 
vulnerable, may be falling through the cracks.
    Answer. The Department is keeping a close eye on the needs of the 
most vulnerable Americans, and we will take steps to help ensure that 
they have access to what they need to be properly nourished.
                    school breakfast start-up grants
    Question. In my state of Wisconsin, I worked last year to help 
encourage schools to participate in USDA school breakfast programs as a 
way to help ensure that more children start their school day ready to 
learn. Can you please provide an update on how the Department is 
working with the State of Wisconsin on this program?
    Answer. On February 12, 2001, FNS entered into a Grant Agreement 
with the Department of Public Instruction, the State agency that 
administers Child Nutrition Programs in Wisconsin. The Agreement was 
entered into pursuant to provisions in Public Law 106-387, the 
Agriculture, Rural Development, Food and Drug Administration, and 
Related Agencies Appropriations Act for Fiscal Year 2001, which 
directed the Secretary to provide Wisconsin with $500,000 for school 
breakfast startup grants in the State. Under the terms of the 
Agreement, the State agency will provide grants to eligible school food 
authorities to help cover costs associated with implementing a School 
Breakfast Program (SBP) in currently non-participating schools.
    The grant funds may be used for any local level costs that are 
allowable, reasonable, and necessary for a school to implement the SBP 
and, therefore, extend program benefits to a greater number of eligible 
children. The Agreement will require the State agency and school food 
authorities receiving funds to obligate those funds no later than 
September 30, 2002. The State agency will report on the use of the 
funds quarterly and will submit annual project reports describing the 
activities accomplished using the funds. FNS has provided the State 
agency with guidance, when requested and remains available to provide 
any assistance that the State may require.
                nutritional value of assistance programs
    Question. There has recently been a lot of publicity about the 
nutritional value of foods consumed by children, especially while they 
are at school. Would you please provide your views on the adequacy of 
the nutritional value children are receiving, especially while at 
school?
    Answer. The Child Nutrition Programs offer children meals that are 
affordable, convenient, and consistent with the Dietary Guidelines for 
Americans. I know that nutrition education is a top priority of the 
Department and is incorporated into all of the nutrition assistance 
programs.
    The results of two recent reports sponsored by FNS provide some 
insight into the adequacy of the nutritional value of children's diets. 
Children's Diets in the Mid-1990s: Dietary Intake and Its Relationship 
with School Meal Participation shows that on average, children's 
reported daily mean intakes of most vitamins and minerals exceed the 
Recommended Dietary Allowances. Only a small percentage of children met 
the dietary recommendations for intake of total fat, saturated fat, 
fiber, and sodium. The school meal programs play a substantial role in 
the diets of school-aged children. Students who participate in both the 
school lunch and breakfast programs are more likely to meet the dietary 
standards for a variety of vitamins and minerals than students who 
participate in neither program. Participants also have a higher mean 
intake, at school and over 24 hours, of total fat, saturated fat, 
fiber, and sodium.
    The School Nutrition Dietary Assessment Study-II indicates that the 
average meals offered in the National School Lunch Program and School 
Breakfast Program are both high in nutritional quality and well-
balanced across a number of key nutrients. Since the implementation of 
the School Meals Initiative for Healthy Children in 1995, schools have 
significantly reduced the amount of fat and saturated fat in school 
meals, although the average school lunch still falls short of meeting 
the Dietary Guidelines for Americans recommendations for fat and 
saturated fat. These improvements have been accomplished while 
maintaining the overall nutrient contribution of the school meals.
                        seniors' farmers market
    Question. Last year, USDA developed a special farmers market 
program to help make fresh produce available to senior citizens. The 
program not only provided special benefits to seniors, it also helped 
provide an additional outlet for farmers products. Wisconsin is one of 
the states that is participating in this program. However, you have 
eliminated this program in the fiscal year 2002 budget. Please provide 
an overview of how this program will operate this year and explain why 
you did not choose to continue it next year.
    Answer. The Seniors Farmers' Market Nutrition Pilot Program 
(SFMNPP) operates in 36 locations--30 States, 5 Indian Tribal 
Organizations and the District of Columbia. The program provides 
resources in the form of fresh, nutritious, unprepared, locally grown 
fruits, vegetables, and herbs from farmers' markets, roadside stands 
and community supported agriculture programs to low-income seniors. It 
also increases the domestic consumption of agricultural commodities by 
developing or aiding in the expansion of domestic farmers' markets, 
roadside stands, and community support of agriculture programs.
    The 36 locations are: Alabama, Alaska, Arkansas, California, 
Chickasaw Nation (Oklahoma), Connecticut, District of Columbia, 
Florida, Grand Traverse Band of Ottawa and Chippewa Indians (Michigan), 
Hawaii, Illinois, Inter-Tribal Council of Michigan, Iowa, Louisiana, 
Maine, Maryland, Massachusetts, Michigan, Minnesota, Mississippi Band 
of Choctaw Indians, Montana, Nebraska, New Hampshire, New Jersey, New 
York, North Carolina, Ohio, Oregon, Osage Tribal Council (Oklahoma), 
South Carolina, Tennessee, Vermont, Virginia, Washington, West 
Virginia, and Wisconsin. A summary of the highlights of each program is 
attached.
    As you know, funding for the SFMNPP comes from the Commodity Credit 
Corporation and does not require an appropriation. The SFMNPP was 
funded as a pilot program by the previous Administration. No decision 
has been made by the current Administration as to the continuation of 
the pilot program beyond fiscal year 2001.
             the emergency food assistance program (tefap)
    Question. It has come to my attention that food banks and other 
food distribution agencies have or may have to turn back donated food 
items because they do not have adequate resources for transportation 
and distribution costs. Please provide information on why this problem 
has suddenly become so serious.
    Answer. The flow of USDA commodities available to the Emergency 
Food Assistance Program (TEFAP) increased significantly in fiscal year 
2001. This increase was due in part to the enactment of the 
Agricultural Risk Protection Act of 2000 (Public Law 106-224).
    In addition to the $100 million worth of commodities purchased in 
fiscal year 2001, it is estimated that the bonus commodities that will 
be delivered to TEFAP State agencies in 2001 will exceed $225 million. 
Included in this amount is the majority of bonus fruits and vegetables 
purchased for domestic consumption mandated by Public Law 106-224, the 
Agricultural Risk Protection Act of 2000. The Act required the 
Secretary to purchase specialty crops that experienced low prices 
during the 1998 or 1999 crop year. These commodities are provided in 
addition to commodities donated by other sources and make up a portion 
of the total amount of food distribution through the TEFAP distribution 
network.
    Question. Are there available resources within USDA to help these 
local organizations?
    Answer. All of the $45 million in TEFAP administrative funds 
appropriated under the 2001 appropriations bill has been allocated to 
State agencies, which in turn allocate most of these funds to local 
organizations. Although available resources are very limited, the 
Department is in the process of examining the possibility of providing 
additional funding to support the distribution of TEFAP commodities.
    Question. What funding would be necessary to ensure that local 
agencies have the necessary means to transport and distribute food 
donated through TEFAP?
    Answer. The flow of USDA commodities available to the Emergency 
Food Assistance Program (TEFAP) increased significantly in fiscal year 
2001, and this has led a number of States to express concern about 
administrative funding. All but a few of the 25 or so States responding 
to an informal survey report a shortage of administrative funding. The 
majority complain of serious strains on transportation, storage, or 
distribution. About a quarter of respondents have had to become more 
particular about which foods they will take, selecting only the most 
popular commodities for fast turnover; and a quarter also report that 
they will not be able to take any more bonus foods this year, citing 
lack of administrative funds.
                              wic program
    Question. The President's budget proposes funding for the WIC 
program at a level intended to serve 7.25 million people, the same 
number of people the Administration expects to serve in fiscal year 
2001. What is the expected carryover of funds into fiscal year 2002 
based on USDA's most recent data?
    Answer. The budget estimates that about $136 million from fiscal 
year 2001 will be available for use in fiscal year 2002. The actual 
amount is dependent on participation and costs in fiscal year 2001. We 
believe the $136 million is a good estimate of the effects of costs and 
participation in fiscal year 2001.
    Question. What has been the historical relationship been between 
WIC participation and the unemployment rate? Do you believe there is a 
correlation between these two indicators?
    Answer. I believe that unemployment does effect income eligibility. 
However, income eligibility is only one of the eligibility criteria 
used for participation in the WIC Program.
    For most of WIC's history, participation was constrained by 
funding, and so did not respond to economic factors such as the 
unemployment rate. Therefore, it is correct that for most of WIC's 
history, participation did not tend to increase when unemployment went 
up, nor decrease when unemployment went down.
    In 1997, WIC participation peaked at 7.4 million. After this, 
despite the absence of a clear funding constraint, participation fell 
slightly. It may be reasonable to assume that at this point, 
participation changes were more directly related to economic 
conditions. While the data from 1997 to 2001 suggests a relationship 
between unemployment and participation, these data are not adequate to 
permit construction of a model of that relationship that would enable 
us to ``tie'' changes in WIC participation to changes in the 
unemployment rate with any reasonable degree of accuracy.
    It should also be noted that analyses of participation should 
consider factors other than economic changes that could affect 
participation decisions (eg., changes in program rules, welfare reform, 
etc.).
    Question. Was the Administration's budget forecasts that the 
unemployment rate will rise in fiscal year 2002 to 4.6 percent taken 
into consideration when formulating the fiscal year 2002 budget for the 
WIC Program?
    Answer. Although data from 1997-2001 suggest a positive 
relationship between unemployment and participation, these data are not 
adequate to permit construction of a model of that relationship that 
would enable us to ``tie'' changes in WIC participation to changes in 
the unemployment rate with any reasonable degree of accuracy. Such a 
model would be needed in order to factor changes in the unemployment 
rate into budget requests for WIC. The President's budget was 
constructed to maintain projected average fiscal year 2001 
participation of 7.25 million.
    Question. Is it the view of the Administration that if WIC 
participation demands increase as a result of higher levels of 
unemployment, adequate resources should be made available to cover the 
increased program demand?
    Answer. The Administration's fiscal year 2002 request was 
constructed to maintain projected average fiscal year 2001 
participation of 7.25 million. There are currently no waiting lists for 
the WIC program and, at present, we believe that the President's budget 
request for fiscal year 2002 is sufficient to continue to meet demand 
for the WIC program. However, we are aware that substantial changes in 
economic conditions may effect demand for the program. We plan to 
monitor the situation closely, and work with Congress to ensure that 
the program is funded at an appropriate level.
    Question. Please provide an update on WIC referral services and, in 
particular, the status of the Presidential Memorandum on the subject of 
childhood immunization.
    Answer. USDA is working with the Centers for Disease Control and 
Prevention to implement the directives outlined in the Executive 
Memorandum. A partnership composed of representatives from the National 
Association of WIC Directors, American Academy of Pediatrics, 
Association of State and Territorial Health Officials, Association of 
Immunization Managers, and Every Child By Two is providing guidance and 
assistance to implement current and future WIC immunization linkages to 
meet the directives of the Executive Memorandum. A working group of 
this partnership is finalizing a National strategic plan to improve 
immunization coverage levels of children participating in WIC.
    A draft policy memorandum, written in collaboration with partners, 
was distributed to partners and State WIC agencies for comment in 
February 2001. The policy memorandum outlined procedures for 
immunization screening and referral in the WIC Program, as directed by 
the Executive Memorandum. In response to comments, the policy 
memorandum is being redrafted and will be issued in June 2001.
                  child and adult care feeding program
    Question. Section 101 of Public Law 106-554, Division B, Title I 
expanded the eligibility criteria for participation in the Child and 
Adult Care Feeding Program (CACFP). Please provide information 
regarding USDA implementation of this provision including the number of 
CACFP providers and program beneficiaries have been made eligible under 
this new criteria.
    Answer. The Department issued its implementation memorandum 
governing these expanded eligibility requirements to all CACFP State 
administering agencies on January 19, 2001. This memorandum laid out 
the basic eligibility requirements established in Public Law 106-554, 
contained guidance necessary for States to administer the program in 
the newly-eligible centers and reminded States of the importance of 
acting quickly to seek out, train and approve eligible centers. On 
February 26, 2001, the Department followed up the initial guidance with 
additional guidance based on questions received from States during the 
implementation process.
    The Department has estimated the total number of potentially 
eligible centers to be approximately 4,600 and the number of children 
enrolled in those centers to be about 323,600. While we do not have a 
formal vehicle for collecting data on the number of centers actually 
participating under the expanded eligibility criteria, we do have 
anecdotal information suggesting that this number is considerably less 
than the eligible universe--probably no more than 130. State agencies 
are dealing with these eligibles in a number of different ways. Some 
are actively recruiting centers while others have done relatively 
little in this regard. For the most part, these States believe that the 
effort required to approve, train and monitor an entirely new group of 
centers which may be on the program for a relatively short period of 
time is not the best use of administrative resources, given the demands 
put on them under the CACFP Management
    Question. Does the Bush Administration support making this change 
permanent and if not, please explain.
    Answer. The President's fiscal year 2002 budget request did not 
include funding for extending this provision beyond the current fiscal 
year. However, we have not taken a final position on this issue and 
will not do so until the Food, Nutrition and Consumer Services policy 
team is in place.
    Question. The Senate Report to accompany Public Law 106-387 
includes language urging FNS to provide technical assistance and 
guidance to states that do not maximize the number of children served 
under CACFP and to pool certain Title XX funds with CCDBG funds to meet 
the technical requirement of current law. Please provide information 
regarding implementation of this directive.
    Answer. Over the past several years, the Department has provided 
guidance and technical assistance to State agencies relative to the 
pooling of Title XX funding. Initial guidance was issued to all Child 
and Adult Care Food Program State administering agencies on July 6, 
1999. Copies of that guidance have also been provided to the Congress. 
That guidance was also re-issued on April 6, 2000.
           agricultural trade dairy export incentives program
    Question. You have stressed the importance of international trade 
as a means to improve net farm income. I agree that we should pursue an 
aggressive strategy with our trading partners and we must remain 
vigilant that our agricultural trade interests are not compromised by 
long-term objectives of other sectors of the U.S. economy here at home.
    One of the programs available to you now is the Dairy Export 
Incentives Program (DEIP). Over the past few years, significant 
quantities of U.S. dairy producers were allocated for shipment under 
DEIP, but for a number of reasons, those quantities were not shipped. 
Later, the U.S. dairy industry sought to have those quantities 
reallocated for shipment under DEIP, but were told by the USDA that 
once allocations were issued, they could not be reissued regardless of 
whether they had been shipped or not. In explanation, we were told that 
during negotiations with our trading partners an agreement was reached 
that precluded reallocation under DEIP. However, in spite of our 
repeated requests, no documentation was provided that expressly laid 
out this agreement.
    Do you believe that the practice of not reallocating unused DEIP 
quantities if the initial allocation was not shipped is consistent with 
U.S. trade objectives?
    Answer. In response to a request included in the conference report 
accompanying the fiscal year 2001 Agriculture Appropriations Bill, the 
Department provided the Committees on Appropriations a report outlining 
USDA's position not to reallocate awarded but unshipped dairy product 
tonnage under the DEIP. The report concluded that authorizing the 
export of awarded but unshipped dairy product tonnage from as far back 
as 5 years ago would be inconsistent with the established U.S. 
methodology for reporting export subsidies to the WTO and would likely 
be viewed by our trading partners as an attempt to circumvent our 
subsidy reduction commitments. As the report indicated, such an action 
would provide limited economic benefit for U.S. dairy farmers.
    We are now engaged in negotiations in the WTO to further liberalize 
trade in agricultural products, including the elimination of export 
subsidies. Taking steps that would be viewed by many as a circumvention 
of our current export subsidy commitments would be detrimental to our 
efforts in those negotiations. For these reasons, the reallocation of 
prior-year unshipped DEIP allocations would be inconsistent with U.S. 
trade objectives.
    Question. Do you intend to continue the practice of not 
reallocating DEIP quantities under these circumstances?
    Answer. With respect to the reallocation of quantities from 
previous years, no change of policy is anticipated. However, at this 
time, the Department is reviewing whether or not a modification of 
program operations for DEIP could be made to allow for the re-
announcement of canceled tonnage within the confines of an allocation 
year. Preliminary discussions have already taken place with the 
industry.
    Question. If you do intend to continue this practice, will you 
please provide to the Committee a copy of the express agreement that 
requires you to do so?
    Answer. As indicated above, the Department is currently reviewing 
its allocation and reallocation procedures.
                   milk protein concentrates (mpc's)
    Question. Dairy producers in Wisconsin and across the country are 
becoming increasingly alarmed by the level of MPC's being imported into 
the U.S. Is it the view of the Bush Administration that MPC imports are 
not subject to WTO requirements or should they be included as part of 
this country's dairy import strategy?
    Answer. Milk Protein Concentrates are subject to a U.S. tariff 
commitment in the WTO to limit the import duty to 0.37 cents per 
kilogram. At the time of the Uruguay Round, this product was 
specifically provided for in our tariff schedule and was not subject to 
any import quotas of the type that were converted to tariff rate quotas 
(TRQs) under that agreement. Consequently, MPCs were not included in 
our dairy TRQs. The United States expects other countries to adhere to 
their international market access commitments just as other countries 
expect the United States to comply with its commitments. Changes in 
these commitments would require agreement with affected countries on 
compensation. Consequently, changes to these international obligations 
must be considered carefully, within the context of our overall World 
Trade Organization commitments.
    Question. Please provide the Committee with information regarding 
the levels of MPC imports, the countries from which those imports 
originate, and the U.S. market use of these products.
    Answer. Following are two tables showing 1999 and 2000 MPC imports 
by source and the monthly pattern of MPC imports through February 2001. 
Please note that following the pattern of the GAO report, these tables 
exclude the casein product also called milk protein concentrate. If 
that product were included it would add another 9,800 tons to the 1999 
total and another 11,900 tons to the 2000 total.
    According to the monthly data, starting in August 2000, the level 
of MPC imports began to decline, largely mirroring the upturn in 
international prices for nonfat dry milk (NDM). The strong upturn in 
international prices for NDM appears to have sharply reduced the 
incentive to produce and export MPCs.
    We have no quantitative data as to what products are manufactured 
using imported MPCs. The GAO study suggested a rather wide range of 
products with the higher protein MPCs directed towards health and 
nutrition foods.
    [The information follows:]



------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          Cumulative to date                                       December
                                                                                         -------------------------------------------------------------------------------------------------------
                                                                                                  Quantity                    Value                   Quantity                    Value
       Commodities Imported and Area/Countries of Origin                                 -------------------------------------------------------------------------------------------------------
                                                                                          01/1999-12/  01/2000-12/  01/1999-12/  01/2000-12/
                                                                                              1999         2000         1999         2000         1999         2000         1999         2000
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
MK PC,WHT/NS,NES...............................................           M0404901000 MT  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
North America..................................................                       01  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
Canada.........................................................                     1220        3,420        2,234    7,753,190    5,063,093          386            0      880,494            0
                                                                --------------------------------------------------------------------------------------------------------------------------------
      Total North America......................................  .......................        3,420        2,234    7,753,190    5,063,093          386            0      880,494            0
                                                                ================================================================================================================================
South America..................................................                        4  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
Argentina......................................................                     3570            0           54            0      240,098            0            0            0            0
                                                                --------------------------------------------------------------------------------------------------------------------------------
      Total South America......................................  .......................           54            0      240,098            0            0            0            0
                                                                ================================================================================================================================
European Union.................................................                       05  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
Sweden.........................................................                     4010           98            0      187,154            0            0            0            0            0
Denmark........................................................                     4090           80          961      136,116    1,892,826            0           24            0       52,812
United Kingdom.................................................                     4120           66          101      137,345      222,319           40            0       75,838            0
Ireland........................................................                     4190        9,775        6,917   31,949,864   21,531,018        1,598          137    5,634,161      646,243
Netherlands....................................................                     4210        4,560        5,193    7,937,645   10,377,645          334           18      590,883       62,057
Belgium-Luxembourg.............................................                     4230           19          180       33,026      253,500            0            0            0            0
France.........................................................                     4270          339          931      894,105    2,408,474          100           60      324,416      239,478
Germany........................................................                     4280        5,261        7,018   10,242,886   14,466,304          315           53      621,177      135,063
                                                                --------------------------------------------------------------------------------------------------------------------------------
      Total European Union.....................................  .......................       20,197       21,300   51,518,141   51,152,086        2,387          271    7,246,475    1,135,653
                                                                ================================================================================================================================
Other West Europe..............................................                       06  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
Switzerland....................................................                     4410           52        1,229       89,264    2,587,046            0          215            0      450,632
                                                                --------------------------------------------------------------------------------------------------------------------------------
      Total Other West Europe..................................  .......................           52        1,229       89,264    2,587,046            0          215            0      450,632
                                                                ================================================================================================================================
Eastern Europe.................................................                       08  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
Hungary........................................................                     4370          416        1,267    1,713,861    4,642,414           58          166      216,000      394,285
Poland.........................................................                     4550          875           59    1,543,932      175,067           95            0      241,311            0
                                                                --------------------------------------------------------------------------------------------------------------------------------
      Total Eastern Europe.....................................  .......................        1,291        1,326    3,257,793    4,817,481          153          166      457,311      394,285
                                                                ================================================================================================================================
Former Soviet Union............................................                       07  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........
Estonia........................................................                     4470          300           80      577,282      161,275           40            0       70,191            0
Lithuania......................................................                     4510           49          168      205,758      316,239           17            0       71,379            0
                                                                --------------------------------------------------------------------------------------------------------------------------------
      Total Former Soviet Union................................  .......................          349          248      783,040      477,514           57            0      141,570            0
                                                                ================================================================================================================================
Oceania........................................................                       14  ...........  ...........  ...........  ...........  ...........  ...........  ...........
Australia......................................................                     6020        4,967        6,936   13,853,645   22,122,035          468           16    1,633,175       32,84E
New Zealand....................................................                     6140       14,601       19,352   44,998,189   66,387,470        1,741        2,294    4,502,027    6,978,951
                                                                --------------------------------------------------------------------------------------------------------------------------------
      Total Oceania............................................  .......................       19,568       26,287   58,851,834   88,509,505        2,210        2,310    6,135,202    7,011,795
                                                                ================================================================================================================================
      Grand Total..............................................  .......................       44,877       52,677  122,253,262  152,846,823        5,192        2,962   14,861,052    8,992,365
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                            MONTHLY PRECEDENCE REPORT
----------------------------------------------------------------------------------------------------------------
                            Month                                 1998         1999         2000         2001
----------------------------------------------------------------------------------------------------------------

                  Quanity (In Metric Tons)

JAN.........................................................        1,709        2,664        5,337        2,598
FEB.........................................................        1,578        2,992        5,731        2,988
MAR.........................................................        1,711        3,335        5,957  ...........
APR.........................................................        1,274        2,642        3,693  ...........
MAY.........................................................        1,743        3,082        5,938  ...........
JUN.........................................................        2,329        4,256        4,846  ...........
JUL.........................................................        3,033        3,940        5,242  ...........
AUG.........................................................        2,805        3,588        2,992  ...........
SEP.........................................................        3,975        4,179        2,684  ...........
OCT.........................................................        3,294        3,684        3,744  ...........
NOV.........................................................        2,650        5,322        3,549  ...........
DEC.........................................................        2,828        5,192        2,962  ...........
                                                             ---------------------------------------------------
      Year Total............................................       28,929       44,877       52,677  ...........

                     VALUE (In Dollars)

JAN.........................................................    6,306,753    6,785,701   14,210,345  ...........
FEB.........................................................    5,655,386    7,555,518   16,937,948  ...........
MAR.........................................................    6,404,701   10,326,470   17,018,990  ...........
APR.........................................................    5,537,792    8,063,621    9,990,919  ...........
MAY.........................................................    6,761,583    8,675,193   16,293,460  ...........
JUN.........................................................    8,725,857   10,896,440   14,447,008  ...........
JUL.........................................................   10,281,507   10,473,084   14,842,574  ...........
AUG.........................................................    7,578,441    9,140,663    8,836,276  ...........
SEP.........................................................   11,490,923   11,642,285    8,467,512  ...........
OCT.........................................................   10,856,055   10,099,492   10,948,316  ...........
NOV.........................................................    8,688,697   13,733,743   11,861,106  ...........
DEC.........................................................   10,845,303   14,861,052    8,992,369  ...........
                                                             ---------------------------------------------------
      Year Total............................................   99,132,998  122,253,262  152,846,823  ...........
----------------------------------------------------------------------------------------------------------------


    Question. Please provide an estimate on the level to which these 
imports are affecting U.S. dairy producer prices.
    Answer. It is our understanding that imported MPCs primarily 
substitute for NDM as a source of protein in beverage and food 
processing uses. MPC imports would therefore to some extent displace 
surplus NDM into CCC inventories as provided for under the dairy price 
support program. Currently and in recent years, the CCC purchase price 
places a floor under domestic NDM prices. Therefore, we believe 
imported MPCs have limited effect on U.S. dairy producer prices at 
present.
    Question. Please provide information regarding potential food 
safety and animal health-related issues as they pertain to MPC imports, 
including contamination through the packaging or shipment of such 
products.
    Answer. The public health aspects of MPC imports and use come under 
the purview of the Food and Drug Administration, but so far as we are 
aware no problems have been identified, whether through direct use of 
through packaging or shipment.
    Animal health aspects of imported MPCs and of dairy products 
generally come under the responsibility of APHIS. As you are aware, 
APHIS has greatly stepped up its operations to guard against Foot and 
Mouth Disease (FMD) contamination from dairy and animal product imports 
generally from affected countries. We are confident the measures 
implemented by APHIS are providing adequate protection against FMD 
contamination and other disease threats to U.S. animal agriculture.
                               sanctions
    Question. What is the view of the Bush Administration in regard to 
making it easier for U.S. farm products to gain access to markets in 
Cuba?
    Answer. The policy with regards to exporting farm products to Cuba 
was spelled out in the Trade Sanctions Reform and Export Enhancement 
Act of 2000. Among other things, the legislation partially eases 40 
years of trade sanctions for agricultural products by allowing U.S. 
companies to export agricultural products to Cuba, including agencies 
of the Cuban government, subject to certain restrictions. These 
restrictions generally revolve around the prohibitions on export 
financing by U.S. banks and the prohibition on any form of government 
assistance to facilitate U.S. exports. U.S. tourism to Cuba remains 
prohibited as does the prohibition on any imports from Cuba. The Bureau 
of Export Administration at the Department of Commerce is working 
diligently to finalize the new regulations required to implement the 
new policy.
    Question. If agricultural trade restrictions with Cuba were 
relaxed, which U.S. farm commodities would primarily benefit?
    Answer. Cuba currently imports roughly $600 million worth of 
agricultural products a year. If agricultural trade restrictions were 
completely relaxed and Cuba were willing to import from the United 
States solely on the basis of sound economics, the United States would 
quickly become a significant supplier of wheat, feedgrains, rice, 
vegetable oil, beans, meat and dairy products. Cuba cannot produce 
enough of these products to meet its domestic needs and must source 
them from competitors that we believe would have a difficult time being 
competitive with U.S. offerings.
    Question. Is it the view of the Bush Administration that free and 
open trade is an important step toward economic recovery of the farm 
sector and if so, should Cuba not be part of that strategy?
    Answer. The Administration absolutely views free and open trade as 
vital to the economic interest of America's agricultural producers. It 
is for this reason that it is pursuing further multilateral trade 
liberalization through the WTO negotiating process as well as through 
regional pacts such as the FTAA. However, as was recently affirmed by 
the democratically elected Heads of State in the Final Declaration from 
the Summit of the Americas, regional integration in the hemisphere 
requires respect for democratic values. The rule of law and strict 
respect for the democratic system are, at the same time, a goal and a 
shared commitment and are an essential precondition of participation in 
the Summit of the Americas process. Yes, we look forward to the day 
when free and open trade is possible between the U.S. and Cuba, not 
just for agricultural products but for all products. However, the Cuban 
government must change its policies and embrace the democratic 
traditions referred to in the Final Declaration.
                      humanitarian food assistance
    Question. Although the USDA 2002 budget for the appropriated level 
of Public Law 480, Title II is the same as fiscal year 2001, previous 
year balances will not be available in 2002, resulting in an overall 
program level reduction. This is occurring at time when world wide 
demand, especially in areas like Africa, are growing. Why does the USDA 
budget for fiscal year 2002 not provide, at least, the fiscal year 2001 
program level for Public Law 480, Title II?
    Answer. In order to meet the goal of restraining the growth in 
spending, some programs were continued at current funding levels. These 
include the Public Law 480 foreign food assistance programs, for which 
budget authority is maintained at the same level provided by Congress 
in 2001.
    Question. Does the Department intend to utilize Section 416(b) 
authorities in fiscal year 2002 as a means to provide humanitarian food 
assistance? If not, please explain.
    Answer. Our ability to provide donations of food commodities under 
the authority of section 416(b) in fiscal year 2002 will be determined 
in large part by the availability of domestic commodity surpluses. The 
domestic supply situation will not be known until the fall, and at that 
point the Administration can be expected to make a decision on the 
level and extent of section 416(b) donations in 2002.
    Question. Does the Department support the international school 
lunch program as envisioned by former Senators McGovern and Dole? To 
what extent should the United States be a participant in this effort?
    Answer. The Department is in the process of carrying out the Global 
Food for Education Initiative (GFEI) on pilot basis. Once the pilot 
program is completed and evaluated, the Administration will be in a 
position to decide whether the GFEI should be continued and on what 
scale.
    With respect to U.S. participation, it is probably vital to any 
global school feeding effort as envisioned by the Senators. As you 
probably know, the United States is the world leader in providing 
global food assistance, and our leadership in such a global effort 
would be needed as a catalyst to encourage other countries to 
participate.
                                 ______
                                 

               Questions Submitted by Senator Tom Harkin

                                  wic
    Question. Please clarify the budget's treatment of funding for the 
Supplemental Nutrition Program for Women, Infants and Children (WIC). 
The budget indicates an increase of about $94 million for WIC compared 
to fiscal 2001. However, other budget documents indicate an increase of 
$44 million in outlays, or according to the USDA budget summary, an 
increase of $49 million in program level.
    In any case, I am concerned that the requested amount is not 
adequate to keep up with the needs of the program's beneficiaries, 
especially if unemployment levels reach those assumed in the budget 
itself. I have received an estimate that as a result some 100,000 to 
200,000 eligible women, infants and children who would receive 
assistance if funding were adequate will not receive assistance.
    For the past several years, Congress, working with the 
Administration, has provided funding to allow WIC to serve essentially 
all eligible women, infants and children. It very strongly appears that 
the current budget proposal would back away from this commitment. Will 
you provide an explanation of the budget request for WIC funding and 
the adequacy of that request to serve all eligible WIC recipients?
    Answer. The Administration's fiscal year 2002 request was 
constructed to maintain projected average fiscal year 2001 
participation of 7.25 million. There are currently no waiting lists for 
the WIC program and, at present, we believe that the President's Budget 
request for fiscal year 2002 is sufficient to continue to meet demand 
for the WIC program. However, the Department is aware that substantial 
changes in economic conditions may effect demand for the program. We 
plan to monitor the situation closely, and work with Congress to ensure 
that the program is funded at an appropriate level.
    Question. Does the budget figure for WIC take into account the 
impact of the assumptions in the budget regarding unemployment levels?
    Answer. Although data from 1997-2001 suggest a positive 
relationship between unemployment and participation, these data are not 
adequate to permit construction of a model of that relationship that 
would enable us to ``tie'' changes in WIC participation to changes in 
the unemployment rate with any reasonable degree of accuracy. Such a 
model would be needed in order to factor changes in the unemployment 
rate into budget requests for WIC. The President's budget was 
constructed to maintain projected average fiscal year 2001 
participation of 7.25 million.
    Question. Will you commit to working with this Committee to make 
sure we keep our longstanding commitment to WIC?
    Answer. The Department plans to closely monitor WIC Program 
participation and economic conditions during the course of the year and 
work with Congress to ensure that the program is funded at an 
appropriate level.
            foreign market development (cooperator) program
    Question. I am quite concerned about the level of funding in the 
budget for the Foreign Market Development (Cooperator) Program. In the 
past there have been carryover funds that helped to maintain the 
resources to support this important program. However, it does not 
appear that those carryover funds are available for fiscal 2002.
    Please describe the resources that will be available to the FMD 
(Cooperator) Program in fiscal 2002 under the proposed budget and 
explain whether with this level of resources it will be possible to 
maintain fully the current programming levels for the program.
    Answer. The CCC budget for fiscal year 2002 includes $27.5 million 
for the FMD program, the same level as fiscal year 2001. We believe 
that with these funds, coupled with available carryover balances, 
current marketing plan levels can be maintained through fiscal year 
2002.
                 microbiological performance standards
    Question. I want to commend the Administration for moving forward 
with the appeal of the Supreme Beef case. I am sure you were offered 
many different opinions on whether USDA should appeal.
    As I have said to you before, we need to have the most effective 
and scientifically sound microbiological performance standards 
possible. We need to continue to improve the standards that we have. 
But those standards absolutely must be enforceable. I have no doubt we 
can come up with better standards that all sides can support. However, 
some are fundamentally opposed to having any enforceable performance 
standards.
    Is the decision to appeal the Supreme Beef decision a reflection of 
the Department's commitment to enforcing its microbiological 
performance standards?
    Answer. The notice of appeal by USDA of Supreme Beef Processors, 
Inc. v. United States Department of Agriculture was filed on September 
8, 2000. Under this Administration, required filings continue to be 
made by USDA and the appeal is moving forward.
    Question. Do you support the current Salmonella performance 
standard?
    Answer. The Salmonella performance standards were based on the best 
available estimates of national product prevalence (i.e. the percentage 
of product with Salmonella). The prevalence of Salmonella on raw meat 
and poultry products continues to decline by as much as half on raw 
chicken, for example. CDC reports sustained reductions in foodborne 
illness as well.
    As you know, language accompanying the 2001 Agriculture 
Appropriations Act directed the Food Safety and Inspection Service to 
ask the National Advisory Committee on Microbiological Criteria for 
Foods (NACMCF) and the National Research Council of the National 
Academy of Sciences (NAS) for an evaluation of the role of 
scientifically determined criteria, including microbiological criteria, 
in the production and regulation of meat and poultry products. The 
information from these reports combined with the best available science 
will guide the Department's decisions on the Salmonella performance 
standards.
    Question. Do you have plans for revising it?
    Answer. USDA will continually review the performance standards to 
ensure that all food safety policies are based on sound scientific 
principles. Further, language accompanying the 2001 Agriculture 
Appropriations Act directed FSIS to ask the National Advisory Committee 
on Microbiological Criteria for Foods (NACMCF) and the National 
Research Council of the National Academy of Sciences (NAS) for an 
evaluation of the role of scientifically determined criteria, including 
microbiological criteria, in the production and regulation of meat and 
poultry products. FSIS is discussing the initiation of a study with 
NAS. Also, FSIS has also asked the Micro Committee to review and 
evaluate the Salmonella performance standards. Specifically, the NACMCF 
will advise FSIS on the use of indicator organisms as opposed to a 
specific pathogen, like Salmonella; whether it is scientifically 
appropriate and wise from a public health standpoint to incorporate 
regional and seasonal variations into performance standards; how 
quantitative baseline prevalence data should best be used to develop or 
modify performance standards; and what other key considerations are 
involved in using risk assessments to develop performance standards.
 national animal disease center: ars and aphis facilities at ames, iowa
    Question. The Appropriations Committee in the fiscal 2001 
Appropriations measure required a report on the need and options for 
moving ahead with this project that was due on March 1. I understand 
that the draft report just went to OMB on April 20.
    Clearly, the entire nation has become keenly aware of the costs and 
problems that can occur because of animal diseases. We can have great 
damage to animal agriculture and in some circumstances we face real 
risks to human health as well.
    A highly respected international peer review group that USDA 
created to look at the draft report indicated that the need to move 
forward was urgent and should be considered an emergency, that the 
inadequacy of some of the facilities is astounding, that there is 
severe vulnerability, that current studies are restricted, and that the 
status quo is not an option. The group also indicated that the 
improvements would facilitate United States animal exports--which could 
presently be at some risk because of the poor quality of the existing 
facilities.
    The group fully endorsed the draft plan's finding that the merging 
of the National Animal Disease Center and APHIS' Center for Veterinary 
Biologics and the National Veterinary Services Laboratories was the 
preferred option.
    Will you give your personal attention to completing and releasing 
the required report as soon as possible and, more importantly, will the 
Administration support the work that is necessary at Ames, Iowa
    Answer. The report, which was due March 1, 2001, was finally 
transmitted to the Congress on May 25, 2001. Delays were incurred in 
completing the report since the report dealt with major animal research 
and diagnostic facility needs of the Agricultural Research Service 
(ARS) and the Animal and Plant Health Inspection Service (APHIS). The 
report was devised through a series of meetings and reviews between the 
two agencies as well as consultants in Washington, D.C. and in Ames, 
IA. The report provides for several alternative plans ranging in cost 
from $430 million to $548 million.
                                listeria
    Question. Earlier this year, USDA published a proposal to require 
ready-to-eat meat and poultry processing plants to test for Listeria 
species in their plants. The rule would require plants producing hot 
dogs and deli meats to perform Listeria testing; however, the testing 
would be so infrequent that its value would be minimal. Plants would 
test for Listeria only one to four times a month, despite the fact that 
a lot of product can be produced during that time. This testing 
frequency is significantly less than that which many processors 
voluntarily follow today. Is one to four tests per month adequate to 
assure control of Listeria?
    Answer. As part of the rulemaking process, FSIS has specifically 
requested public comment on the proposed testing frequencies. FSIS has 
held a scientific conference and a public meeting to discuss the 
proposed provisions, especially those that would require certain 
establishments to conduct environmental testing for Listeria.
    FSIS also presented the proposed testing requirements and related 
scientific issues to the National Advisory Committee for 
Microbiological Criteria for Foods (NACMCF) for review. FSIS has 
extended the comment period for the proposed rule for 60 days to 
incorporate issues raised at a technical conference and public meeting 
on the proposed rule held May 8-10, 2001, here in Washington.
    Question. Is more testing necessary to rapidly identify when plants 
are not controlling Listeria?
    Answer. As part of the rulemaking, we encourage the industry and 
the public to provide any available information on alternative testing 
protocols that FSIS should consider in developing a policy for 
controlling Listeria contamination in ready-to-eat meat and poultry 
products.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

    Question. I see that the Rural Utilities Service budget has been 
cut by $164 million for fiscal year 2002. This is cause for concern to 
those of us who represent rural America.
    Let me give you just one example: Many rural areas have slow 
Internet service and need help achieving high-speed, broadband Internet 
access. It's highly unlikely that the private sector is willing to 
invest funds to bridge this digital divide. The Rural Telephone Bank 
program is the logical tool for meeting this need, but the 
Administration has eliminated this program. Don't you agree that high-
speed broadband Internet access is crucial to any region's economic 
viability?
    Answer. I certainly agree that rural America needs to have access 
to the Internet in order to share in the benefits of our information-
oriented economy. Some rural areas already have such access, however, 
in general rural areas do not have the same access as many urban areas.
    Question. If you do agree, isn't it necessary for USDA to continue 
to provide funding for the Rural Telephone Bank?
    Answer. The Rural Telephone Bank (RTB) is an important source of 
funding for telecommunications. However, it is not necessary for USDA 
to continue to provide the financing for the RTB to make loans. Current 
law requires that the RTB be privatized and that process has already 
begun. The Administration's budget proposal to not provide the 
financing for RTB loans is intended to accelerate the privatization 
process. The RTB has the ability to obtain financing from the private 
sector.
                                 ______
                                 

            Questions Submitted by Senator Richard J. Durbin

                         emergency reserve fund
    Question. The Emergency Reserve Fund only provides $5.6 billion for 
fiscal year 2002. And the Contingency Reserve Fund pits farm aid 
against Medicare, Social Security and defense spending needs. How is 
relying on the reserve funds a responsible method for ensuring our 
farmers get the support that they need?
    Answer. In the long run, the better way to ensure that producers 
get the appropriate support is to develop improved ongoing programs 
which eliminate the necessity to rely heavily on year-to-year ad hoc 
emergency assistance. The improvements in crop insurance programs made 
by the Agricultural Risk Protection Act of 2000 was a step in that 
direction. In any case there is a likelihood that some, as yet hard to 
estimate, level of additional emergency assistance may be needed this 
year and/or next year. The budget, at least, attempts to recognize and 
allow for this contingency by identifying the Contingency Reserve. This 
is preferable to completely ignoring the possibility of emergency 
spending needs as has been done in some prior years. As for the $5.6 
billion Emergency Reserve Fund for coping with major natural disasters, 
it is based on historical data and should be adequate for most 
circumstances for the disaster relief and related programs it 
addresses.
                    value-added cooperative funding
    Question. The Rural Business-Cooperative Service implemented a new 
grant for value-added cooperatives this year. These Value-Added 
Agricultural Product Market Development Grants have been popular. In 
Illinois, we have producers who want to form ethanol co-ops and 
producers who want to form the first farmer-owned pork processing plant 
in the country. However, there is no funding provided for these grants 
in the fiscal year 2002 budget. Will the Administration support 
additional funding for these grants?
    Answer. The Value-Added Agricultural Product Market Development 
Grant program was authorized by the Agricultural Risk Protection Act of 
2000. That Act also provided funding for the program, which is why 
there is no discretionary funding request for funds in the President's 
2002 budget.
                    rural economic area partnership
    Question. The Southeastern Illinois Regional Planning and 
Development, the Greater Wabash Regional Planning, and the Southern 
Five Regional Planning and Development Commissions are seeking a Rural 
Economic Area Partnership (REAP) Zone designation for a 17-county area 
in Southern Illinois. I strongly support their request. When will USDA 
review this application/request and render a decision? Has the 
Department designated a staff person to work with these Illinois groups 
to compile the necessary information and offer technical assistance?
    Answer. USDA's Rural Development Illinois State Office has been 
working with the three aforementioned planning commissions in preparing 
an application for a REAP zone designation for Southern Illinois. 
However, to date, no formal application has been submitted. Once an 
application is received, Dr. Norman Reid will serve as USDA's staff 
contact.
                           food aid/donations
    Question. Last year, I supported a provision to use $25 million 
worth of surplus commodities in the section 416(b) program for food 
aid, or to be monetized for development projects, for communities 
heavily impacted by AIDS. Could you tell me what progress USDA has made 
in disbursing these funds? What kind of projects have PVOs and the 
World Food Program suggested and where?
    Answer. Nine separate proposals with an HIV/AIDS component have 
been approved for commodity donations under section 416(b) authority 
this fiscal year. The total estimated cost of these proposals is just 
over $21 million.
    Eight of the approved programs are in sub-Saharan Africa, and the 
ninth is in eastern Europe. Two will be implemented by the World Food 
Program, and seven by private voluntary organizations. HIV/AIDS 
education, prevention, and related feeding or assistance programs are 
included among those approved. Program agreements with the cooperating 
sponsors are currently being developed, and the programs can move 
forward once the agreements are signed.
    Question. I understand that the USDA plans to review recent 
donation activities under the section 416(b) program. As we see how 
this AIDS program progresses, I'd like to work with you on finding a 
more sustainable source of funding.
    Answer. The Department is always willing to assist in whatever way 
we can.
    Question. There is a bipartisan, bicameral interest in authorizing 
an international feeding initiative proposed by Ambassador George 
McGovern and Senator Bob Dole. I will be joining my colleagues Senators 
Harkin and Leahy in introducing legislation soon to authorize this 
initiative. Will the Administration support this proposed McGovern-Dole 
feeding initiative, and support funding for the program?
    Answer: The Department is in the process of carrying out the Global 
Food for Education Initiative (GFEI) on a pilot basis. Once the pilot 
program is completed and evaluated, the Administration will be in a 
position to decide whether GFEI should be continued and on what scale. 
With respect to specific legislation authorizing the initiative on a 
permanent basis, the Administration has not yet developed a position.
    Question. The Administration currently is implementing the Global 
Food for Education Initiative, a pilot of an international feeding 
program. The program is funded by $300 million for fiscal year 2001. I 
am concerned that the lag time between funds from the pilot program and 
finding funds for the legislation will be disruptive. Is the 
Administration willing to support short-term funding so as to minimize 
disruption to implementing a permanent international feeding program?
    Answer. The current pilot program is likely to continue into fiscal 
year 2002, simply because of the length of time needed to develop the 
individual project agreements with cooperating sponsors, procurement of 
the commodities and transportation services, shipment of the 
commodities, and then distribution overseas. Thus, the question of 
whether additional short-term funding might be needed is unlikely to 
arise until well into next year. Until the current pilot program is 
implemented and preliminary results known, it is difficult to take a 
position on prospective future funding for the initiative.
    Question. Garnering international support for the McGovern-Dole 
proposal is important to the success of the program. Will the 
Administration bring this up at the next G8 meeting to build support 
among other member countries?
    Answer. Items to be placed on the agenda for the next G8 summit 
currently are under consideration. The Global for Education Initiative 
is being considered as a possible item for discussion.
    Question. The fiscal year 2002 budget includes $478 million for the 
Export Enhancement Program. But the USDA only spent $1 million in 
fiscal year 2000. I plan on introducing legislation that would 
authorize the USDA to reallocate unspent EEP monies for food aid and 
foreign market development programs. How does the Administration feel 
about reallocated unspent EEP funds?
    Answer. The Administration has not taken a formal position on the 
proposal to authorize the reallocation of unused EEP funding. However, 
we would be willing to consider the proposal seriously as the 
Administration is committed to expanding access to overseas markets and 
the level of U.S. agricultural exports.
    Question. As farmers are faced with more environmental challenges 
(water and air quality), how can we expect them to meet those 
challenges on such limited assistance?
    Answer. We are very much aware of the environmental challenges 
facing farmers in today's economically stressed farm climate. We 
anticipate that these environmental challenges will be addressed in 
upcoming farm bill discussions.
    Question. How can we expect farmers to try innovative conservation 
practices if there is not even enough funding for basic agriculture 
conservation programs?
    Answer. We anticipate that environmental challenges facing farmers 
today will be thoroughly debated in upcoming farm bill discussions. In 
the meantime, USDA agencies such as the Natural Resources Conservation 
Service will continue to assist farmers in addressing environmental 
concerns with science based low-cost conservation practices. NRCS will 
also continue to rely on and support the innovation of farmers and 
ranchers in developing practical solutions to conservation problems.
    Question. The Illinois NRCS has brought to my attention that they 
are facing a funding shortfall in fiscal year 2001 to pay technical 
staff because of reduced revenues of not having a Conservation Reserve 
Program sign-up this year. I recognize that the budget includes an 
increase in funding for CRP technical assistance, but that will not 
come until fiscal year 2002 and the Illinois NRCS needs the funds 
immediately. Will you support additional funds to pay for CRP technical 
assistance in fiscal year 2001?
    Answer. In any given year, NRCS receives funding from several 
sources, including reimbursements from the Commodity Credit Corporation 
and supplemental appropriations to address disaster activities. The 
amount of shortfalls, if any, in funding for fiscal year 2001 will not 
be known until later this year when we know the full extent of 
reimbursements for CRP continuous signup activities and workload 
demands needed to address flooding and disaster activities in the 
Midwest and other places. In the meantime, adequate technical 
assistance funding will be available in fiscal year 2001 for the 
Conservation Reserve Enhancement Program (CREP) as well as the 
continuous CRP signup.
    Question. But it appears, with respect to puppy mills, this is not 
an issue solely of funding. Authorizing legislation is needed to combat 
the problem. With Senator Santorum of Pennsylvania, I will be 
introducing bipartisan legislation to revoke licenses for chronic 
Animal Welfare Act violators, require proper socialization and 
veterinary care for animals in mass breeding conditions and limit 
breeding frequency. I hope that you will support this modest change in 
the law. Do you have any comment?
    Answer. The Animal and Plant Health Inspection Service (APHIS) 
shares your concern for the welfare of animals in commercial breeding 
facilities and appreciates this opportunity to explain our efforts on 
their behalf. Under the Animal Welfare Act (AWA), APHIS requires 
individuals who breed certain animals--including dogs-for sale at the 
wholesale level to be licensed. These individuals must provide their 
animals with veterinary care, a balanced diet, clean and structurally 
sound housing, and protection from extremes of weather and temperature, 
among other things.
    With regard to your proposal calling for proper socialization, 
current language in the AWA has requirements that licensed entities 
provide their animals with exercise. Certainly, APHIS believes that 
socialization, including exercise, is an important component to 
ensuring the health and care of licensed animals and would support 
additional socialization requirements that would benefit licensed 
animals.
    With respect to the imposition of breeding requirements, APHIS 
believes that limiting breeding frequency may improve the overall 
welfare of breeding females. However, enforcement of such a requirement 
would be difficult due to the wide range of licensed breeds with 
varying ranges for appropriate breeding frequency. There is also 
widespread disagreement within the animal welfare community and 
commercial breeding industry regarding what constitutes appropriate 
breeding frequency.
    I want to assure you that, in cases of serious or repeat violations 
of the AWA that remain uncorrected, alleged violators are prosecuted to 
the fullest extent of the law, including the imposition of penalties 
such as fines, license suspensions, and license revocations. Data for 
fiscal years 1996-1999 demonstrate our commitment to AWA enforcement. 
During that time, APHIS imposed more than $3 million in monetary 
penalties and issued 122 revocations, suspensions, and 
disqualifications. The Department also moved forward in its efforts to 
expedite the prosecution of AWA offenders, virtually eliminating the 
backlog of cases awaiting resolution. You may be interested to learn 
that APHIS has proposed a regulation that would allow the Department to 
deny a license renewal if a facility is in chronic noncompliance. 
(Currently, we must renew any license if the appropriate fees are paid 
regardless of compliance history.) After completion of a thorough 
review of the numerous comments received, APHIS will determine how to 
proceed with rulemaking.
                                 ______
                                 

               Questions Submitted by Senator Tim Johnson

                       crp-wetlands pilot project
    Question. Madam Secretary, we have visited about a new pilot 
program I pushed last year to enroll farmed wetlands in the continuous 
CRP--which was enacted with some help from Senators Harkin, Kohl, 
Cochran, and Daschle. This two year pilot program was created by 
farmers and conservationists in South Dakota, and it would permit up to 
500,000 acres of farmed wetlands to be enrolled under CRP in six states 
(ND, SD, MN, NE, IA, MT) of the Prairie Pothole Region. Currently, 
grass filter strips surrounding these farmed wetlands qualify for CRP, 
but not the actual wetland acreage. This has proven to be an inadequate 
incentive for the purpose of getting this sensitive land out of 
production.
    Last year, this proposal was endorsed by the American Farm Bureau, 
National Farmers Union, the National Corn Growers Assoc., the American 
Soybean Assoc., the National Assoc. of Wheat Growers, Ducks Unlimited, 
Pheasants Forever, the National Wildlife Federation, the National 
Audubon Society, and the International Assoc. of Fish and Wildlife 
Agencies--just to name a few. The pilot project will provide landowners 
an alternative to farming these highly sensitive wetlands in order to 
achieve a number of benefits, including; improved water quality, 
reduced soil erosion, enhanced wildlife habitat and, less wetland 
drainage.
    Unfortunately, the rule to begin the process for farmers to sign-up 
for the program has yet to be published in the Federal Register. While 
the severe and wet weather in South Dakota and other reaches of the 
country have delayed planting decisions and inadvertently could permit 
some to enroll in this program, further procrastination on the 
finalization of this rule will only hurt the chances for this program 
to succeed. I urge you to work with the appropriate agencies within 
USDA to ensure the rule for this CRP-wetlands pilot project is 
published in the Federal Register and that sign-up commence as soon as 
possible.
    Answer. Thank you for your interest in the Conservation Reserve 
Program (CRP). The Farmable Wetlands Pilot Program rule for CRP is 
expected to be published in the Federal Register on May 2, 2001. We 
expect the sign-up activities to begin in May as well.
    (Note: The notice was published in the Federal Register on May 2, 
2001.)
                    country-of-origin labeling (col)
    Question. Last month, I wrote you a letter regarding an effort by a 
coalition of meatpackers and retailers who've petitioned USDA to create 
a voluntary U.S. beef certification program titled ``Beef: Made in the 
USA.'' To the extent that this voluntary certification program enabled 
producers, packers, and retailers to work together, I supported their 
effort. Yet, I have indicated to the coalition and USDA that I 
preferred to move forward with my bipartisan legislation (S. 280, the 
Consumer Right to Know Act of 2001), which requires country-of-origin 
meat labels on beef, lamb, and pork meat products, as well as fruits 
and vegetables.
    To qualify as ``Beef: Made in the USA'' under the voluntary system 
advocated by the coalition, U.S. beef products could originate from 
cattle raised and fed a mere 100 days in the U.S. For instance, under 
the proposal, a ribeye steak could be identified as ``Beef: Made in the 
USA'' even though it originated from a steer or heifer that was born in 
a foreign country, raised (perhaps up to one year) in a foreign 
country, and shipped to the U.S. at least 100 days prior to slaughter. 
Essentially, this means a beef product of foreign origin may be labeled 
as coming from the United States.
    Given the recent and very real concerns about the spread of 
diseases such as Foot and Mouth disease (FMD) and BSE or ``mad cow'' in 
foreign countries, the requested definition of ``U.S. beef'' under this 
voluntary certification proposal is simply insufficient. Any 
certification or labeling program that even unintentionally permits 
beef from cattle where FMD or BSE have been discovered to be identified 
as ``Made in the USA,'' is misguided and risky. While current 
safeguards make this unlikely, the requested definition may blur the 
line and create unnecessary confusion and concern about the origin and 
safety of meat products originating in the U.S.
    I believe the standard for beef to qualify as ``Made in the USA'' 
should be simple and truthful. As such, the standard should be that for 
any meat product to be identified as ``U.S.'' or ``Made in the USA,'' 
it should originate from an animal that is born, raised, and 
slaughtered in the U.S. Consumers expect no less and livestock 
producers deserve no less.
    I ask USDA to immediately revise the petition to include my 
recommended strong standard for defining beef as ``Made in the USA,'' 
or to reject the coalition's voluntary beef certification petition at 
this time, and work with the bipartisan Members of Congress who are 
favoring mandatory country-of-origin meat (and fruit and vegetable) 
labeling legislation that offers strong, meaningful standards for 
identifying food products as ``Made in the USA.''
    Answer. A Congressional directive contained in the Conference 
Report accompanying the fiscal year 2000 Agriculture Appropriations Act 
requires the Department, in consultation with the affected industries, 
to promulgate regulations defining which cattle and fresh beef products 
are ``Products of the U.S.A.'' In addition, the Department was also 
directed to determine what labeling terminology would best reflect that 
the beef products were derived from cattle born, raised, and 
slaughtered in the U.S. At this time an Advanced Notice of a Proposed 
Rulemaking is under consideration that would solicit industry input on 
how to define U.S. beef products, whether the scope of such labeling 
should be applied to poultry, what type of verification programs should 
be employed, and the potential impact on international trade. In light 
of these developments, the Department informed the industry coalition 
that sent the petition that the petition will not be addressed until 
the issues raised by Congress are addressed.
      usda-aphis precedent for defining the origin of beef cattle
    Question. Madam Secretary, on Wednesday, June 28 of last year, 
USDA's Animal and Plant Health Inspection Service (APHIS) issued an 
interim rule and request for public comment regarding regulations 
governing the importation of animals, meat, and meat products from 
Argentina, as an emergency measure to protect livestock herds in the 
United States from foot and mouth disease (FMD).
    One of the conditions for the importation of fresh beef from 
Argentina--in the context of rule--was that the beef indeed originate 
from Argentina. APHIS indicated (on page 39783 of the Federal Register, 
Volume 65, No. 125, on Weds. June 28, 2000) that ``in order to avoid 
any misunderstanding of their intent regarding the term originate,'' 
they are specifying that ``fresh beef, to be imported from Argentina, 
must originate from bovines that were born, raised, and slaughtered in 
Argentina.'' APHIS goes on to say they consider this change ``necessary 
to make it clear that beef exported from Argentina that comes from any 
animals born, raised, or slaughtered in a country other than Argentina 
may not be imported into the U.S.''
    Now that imports of beef from Argentina have been suspended--for 
the second time in less than a year--this regulation is temporarily 
moot. However, APHIS's definition of ``originate'' does set a 
precedent, in my mind and I'm sure in others, that the only clear and 
truthful way to describe a meat product as ``originating'' from 
someplace is to define or describe it as meat from an animal born, 
raised, and slaughtered in a given country before it can be said it 
``originates'' from a given country.
    Wouldn't you agree that given this USDA precedent--albeit an APHIS 
precedent dealing with whether beef can be imported from Argentina in 
response to concerns about FMD--demands that USDA consistently follow 
it in working on the voluntary beef certification program, the carcass 
grading rule, and negotiating with USTR and WTO partners in the context 
of defining ``country-of-origin?''
    Answer. The definition established by the Animal and Plant Health 
Inspection Service (APHIS) for use in the context of protecting U.S. 
agriculture from foreign animal diseases, does not necessarily set a 
precedent for use in defining a voluntary certification program's 
specification, defining what animals and carcasses are eligible for 
USDA grading, or when negotiating with USTR and WTO partners in the 
context of defining ``country-of-origin'' for marketing purposes. It 
also does not affect FSIS country of origin labeling requirements.
               usda carcasses quality grading rule status
    Question. Madam Secretary, in 1999, the National Cattlemen's Beef 
Association and the American Sheep Industry Association--in concert 
with other organizations such as R-CALF and National Farmers Union--
petitioned USDA to end the grading of imported beef and lamb carcasses. 
Over 100 groups and individuals commented to USDA, and a majority 
requested that USDA discontinue grading of imported beef and lamb 
carcasses. Moreover, according to the Agricultural Marketing Service, 
this proposed rule only applies to around 150,000 beef and lamb 
carcasses imported annually. Therefore, this rule change, albeit 
modest, is certainly doable from an administrative standpoint.
    American livestock producers invest millions of dollars annually to 
educate consumers about the quality, safety, and nutritional value of 
the meat produced on our ranches. Conversely, foreign nations do 
nothing to actively promote the value of USDA graded meat, yet they 
fight to ensure that meat products exported to the United States enjoy 
USDA quality grades when placed on retail shelves. For no defensible 
reason, this puts U.S. beef and lamb at a distinct competitive 
disadvantage in the retail market. Furthermore, this creates potential 
for unnecessary confusion among consumers whom may reasonably assume 
that a USDA grade shield indicates that a meat item is domestically 
produced.
    Former USDA Secretary Glickman indicated that he'd support a rule 
change to discontinue grading on imported beef and lamb carcasses, yet, 
this rule was held-up in the transition. I am curious as to the status 
of this rule and encourage you and USDA to finalize a rule change to 
discontinue using USDA quality grades on imported beef and lamb.
    Answer. A proposed rule that would discontinue the application of 
USDA grades to imported beef, lamb, veal, and calf carcasses was 
prepared and submitted to the Federal Register on January 19, 2001 for 
publication. As you stated, in accordance with White House Chief of 
Staff Andrew Card's regulatory review memorandum dated January 20, 
2001, this proposal was withdrawn from the Federal Register before it 
was published so that there was an opportunity for review to ensure 
that it reflected the policies of this Administration. Accordingly, 
this review is still ongoing and the Department is considering what 
course of action to take.
               state ag credit mediation program funding
    Question. Madam Secretary, last year I introduced legislation to 
re-authorize, expand, and clarify the state agricultural mediation 
program, a bill eventually adopted by Congress and signed into law as 
an amendment to the Grain Standards Act Reauthorization. Our 
reauthorization extends mediation through 2005.
    This step was significant, Madam Secretary, because family farmers 
and ranchers in South Dakota and all across this country continue to 
suffer from a depressed rural economy and rock-bottom commodity prices. 
Agriculture is the backbone of our economy, and we must not fail to 
provide support to our family farmers and ranchers who are coping with 
these difficult times.
    Each year Congress provides funding for state mediation, and these 
funds are matched with state funds to carry out the mediation program. 
Currently, twenty-five states participate in this mediation program, 
(including Alabama, Arkansas, Arizona, Florida, Idaho, Illinois, 
Indiana, Iowa, Kansas, Michigan, Minnesota, Nebraska, Nevada, New 
Mexico, New York, New Jersey, North Dakota, Oklahoma, Oregon, South 
Dakota, Texas, Utah, Washington, Wisconsin, and Wyoming).
    Four States--Mississippi, California, Colorado, and New York--are 
poised to begin new mediation programs this coming year. I believe this 
justifies the need for an increase in the Federal commitment to 
mediation, coupled with the fact that Congress clarified and expanded 
the scope of mediation last year to make clear that mediation can aim 
to resolve disputes such as wetland determinations, grazing issues, and 
USDA farm program matters, in addition to the traditional credit role 
of mediation.
    The mediation program allows agricultural producers to settle their 
credit and farm program disputes in a fair way without digging 
themselves into legal debt. USDA's fiscal year 2002 budget suggests 
funding at $3 million, despite the fact that additional states are 
coming on line this year, and Congress expanded the scope of mediation 
last year, I am urging you to support and increase for mediation.
    Answer. The program has had some success in resolving disputes, 
particularly over issues relating to USDA's farm credit programs. USDA 
also other methods in place for resolving such disputes, such as the 
National Appeals Division. Our farm loan programs also provide 
extensive servicing options for borrowers who are having difficulties. 
Our field staff is there to help.
                     efforts to prevent bse and fmd
    Question. Foreign outbreaks of the infectious virus FMD, tied to 
fear and confusion about the effects of BSE in Europe, have resulted in 
frightening, headline-grabbing news reports that concern many American 
consumers and livestock producers. While BSE has never been recorded in 
the U.S., and FMD was eradicated here in 1929, Congress and USDA can 
play a role to ensure the health of our domestic livestock herds and 
the safety of our meat and food supplies.
    As you know, USDA currently enforces a ban on the import of 
ruminant animals and animal products (primarily beef-based) into this 
country. I applaud the Department's recent step to ban the import of 
all animal and animal products from the European Union (EU), in 
response to the spread of FMD.
    Additionally, the Senate recently adopted legislation sponsored by 
over 30 Senators that requires reports from executive-level agencies--
led by USDA--on the efficacy of current disease prevention safeguards, 
whether additional authorities are needed to prevent BSE and/or FMD, 
how well agencies at the executive level are cooperating, and whether 
additional funding is necessary to prevent either disease.
    I am pleased that USDA's budget request for fiscal year 2002 
increases funding for disease prevention. In fact, you seek to increase 
the Animal and Plant Health Inspection Service (APHIS) budget by $174 
million from fiscal year 2001, up to an $849 million total for fiscal 
year 2002.
    This should authorize additional resources to increase inspection 
personnel that protect against animal and plant diseases like FMD at 
major U.S. ports of entry. Specifically, USDA can hire approximately 
350 additional personnel at critical ports and international airports 
to protect against pests and diseases. I am equally pleased with your 
requested $13 million in additional program support to strengthen the 
Agriculture Quarantine Inspection Program (AQI), which helps protect 
the U.S. against animal diseases like FMD and BSE. Finally, in regards 
to increases in Agricultural Research Service (ARS) efforts to prevent 
diseases, I support your request for an increase of $5 million for BSE-
related research.
    However, some indicate additional authorities may be needed to deal 
with a potential BSE outbreak in the U.S. Would you address whether 
USDA believes it is necessary for additional funding or authorities to 
prevent BSE and FMD?
    Answer. We periodically assess funding and authority needs to 
facilitate quick and effective action. In the President's supplemental 
appropriations request, we included $35 million for the Animal and 
Plant Health Inspection Service. This would chiefly be for dealing with 
foreign animal diseases.
                       mandatory price reporting
    Question. In 1999, Congress adopted mandatory price reporting--
legislation sponsored by myself and many others in the Senate to 
require the major meatpackers to report the prices they pay for 
negotiated transactions of slaughter-ready livestock.
    On April 2nd, USDA's Agricultural Marketing Service launched price 
reporting. I am curious as to how things have been progressing. Do you 
have any updates on price reporting? Does USDA need additional funds to 
ensure the proper functioning of price reporting?
    Answer. Beginning in April 2001, packers have been submitting data 
to the Agricultural Marketing Service (AMS) via a secure Internet 
connection, allowing AMS to release some reports that do not compromise 
the identity of source packers. However, AMS has not been able to be 
release a number of reports due to confidentiality provisions. The 
confidentiality provisions are being reviewed to determine if 
statistical procedures can be implemented that will allow for release 
of additional reports without disclosing the identity of source 
packers. The following reports have not been released due to technical 
problems: swine reports, cow cut reports, and lamb carcass reports. The 
technical problems are being investigated and will be corrected as soon 
as possible. Funds requested in the President's 2002 budget will ensure 
the proper functioning of mandatory price reporting activities.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

                       rural water and wastewater
    Question. Madam Secretary, in our modern world, in a nation that 
enjoys a comparably high standard of living, it is difficult to 
conceive of areas where clean, safe, drinking water and sanitary 
wastewater disposal are unavailable. Yet, a recent Environmental 
Protection Agency report on the state of unmet drinking water needs 
across America found that for rural areas and communities of 10,000 or 
less, the total unmet need is nearly $48 billion! In West Virginia 
alone, funding for water and wastewater programs is deficient by over 
$41 million for 2001, based on the applications on hand. The backlog of 
applications awaiting funding across the nation totals nearly $800 
million in grants and $2.2 billion in loans! Certainly this is a 
critical public health issue that should be addressed with all due 
speed.
    In an effort to address rural water and wastewater needs, and to 
allow the Department of Agriculture to address its backlog of 
applications, I offered an amendment to the Congressional Budget 
Resolution for fiscal year 2002, which would increase domestic 
discretionary spending for rural water and waste water programs by $1 
billion. My amendment was adopted.
    I am concerned that the President's budget for the Department of 
Agriculture ignores the backlog of applications and fails to respond to 
the need for water and wastewater projects. Instead, the President's 
budget proposes reductions for rural water and wastewater programs. 
Particularly disheartening is the budget's intent to reduce rural water 
and sewer grant programs, which help the neediest communities, below 
fiscal year 2000 funding levels. How do you justify a reduction in 
funding levels for rural water and waste water programs when such a 
basic need as clean, safe drinking water for all Americans has not yet 
been met?
    Answer. The level of loan and grant assistance that would be 
offered by our ongoing water and waste disposal program in 2002 is not 
being reduced. It is the same as appropriated under the discretionary 
cap for 2001. The 2001 Appropriations Act did, however, include some 
emergency funding that did not count against the cap. This emergency 
funding remains available until expended. No additional funding is 
being requested on an emergency basis.
    It is true that the 2002 budget reflects a reduction in budget 
authority for the water and waste disposal program. Recent declines in 
interest rates have reduced the subsidy rate on direct loans, which 
means that the cost to the Government for making the same amount of 
loans is less. This is a technical matter on how the program is 
budgeted, not one relating to the level of assistance the program is 
expected to provide.
    Question. Would you support providing a fiscal year 2002 funding 
level for rural water and wastewater programs that would address the 
backlog of unfunded applications for rural water and wastewater 
projects?
    Answer. A backlog of about $3 billion in requests for water and 
waste disposal loans and grants has existed for the past several years. 
Some, but not all, of these requests are ready for funding. Due, in 
part, to the amount of time it takes to develop a typical water or 
waste disposal project, a backlog is not unexpected. Trying to 
eliminate it would put a stress on the approval process. The 
President's 2002 budget provides adequate funding to maintain the 
continuity of the program.
    Question. Other than sufficient funding levels, are there other 
barriers prohibiting access to clean and safe drinking water for all 
Americans? If so, what are these barriers, and how would you eliminate 
them?
    Answer. There are no real barriers. However, a typical water or 
waste disposal project represents a major undertaking for most rural 
communities. There may be engineering difficulties or environmental 
concerns. In almost all cases, a great deal of planning and 
coordination with local, State and other Federal agencies is necessary, 
which takes time.
                              emergencies
    Question. Year after year the Appropriations Committee has 
scrambled to provide emergency assistance to farmers when natural 
disasters--such as floods, droughts, or hurricanes--strike. Already 
this year, the Mississippi River has spilled from its banks. The USDA 
has received more than 123 requests for emergency declarations since 
the beginning of April and many counties have already received disaster 
declarations in the first four months of 2001. Farmers may also face 
factors such as low prices for their products, regardless of improved 
marketing practices or trade with foreign nations. In sum, 
unpredictable events will undoubtably negatively impact our nation's 
farmers during fiscal year 2002. In the President's budget for 
agriculture, under the guise of fiscal responsibility, there are no 
specific allowances for emergency spending. Although the President's 
budget includes allowances for emergency spending, it does not make 
clear how that funding would be made available. While no one can 
control the powers of nature, Congress can certainly prepare to deal 
with the consequences of natural disasters and other unforseen events, 
and the impact that these events will have on farmers. To do less than 
this is to leave our responsibilities unfulfilled.
    Rather than reacting to emergencies as they arise, we may instead 
want to take proactive actions to ensure that there are no holes in the 
safety net for rural communities and farmers. For example, following 
the 1999 drought that devastated West Virginia's agricultural economy, 
I worked with then Agriculture Secretary Glickman, the Senator from 
Mississippi, Thad Cochran, and others to create a contingency fund of 
$450 million to expedite Federal assistance should another disaster 
materialize. If drought struck, this contingency fund would be in place 
so that assistance could be immediately infused to address sudden 
agricultural emergencies. My initiative was really an ounce of 
prevention. It set aside funding to be made available only if a drought 
occurred, but as soon as a disaster is declared. Plans such as this are 
helpful in addressing drought more rapidly and, ultimately, reducing 
losses.
    The drought contingency fund that I created ensured that should 
disaster occur funding would be made available for farmers 
expeditiously. Under the President's contingency fund, how quickly 
could funding be made available?
    Answer. The President's budget proposal includes two provisions for 
potential emergency or unanticipated needs. The first is a National 
Emergency Reserve of $5.6 billion which would be set aside under the 
budget resolution for use in meeting extraordinary large natural 
disaster needs, primarily but not exclusively, of the Federal Emergency 
Management Agency's disaster relief fund, USDA's and Department of 
Interior's fire fighting programs, and SBA disaster loan programs. This 
reserve would be allocated to the Appropriations Committees upon a 
Presidential request designating the proposed funding as an emergency, 
as well as, determination by the Budget Committees that appropriate 
criteria are met. This proposed change in procedures would restore 
discipline to the budget process and reduce needs for supplemental 
emergency appropriations. It would also ensure availability of budget 
authority for major disaster relief.
    The President's budget also proposes a contingency reserve of about 
$1 trillion over the next 10 years to be available to meet 
unanticipated or difficult to estimate in advance priority spending 
needs, including potential economic or disaster assistance for farmers. 
This reserve is included in the estimates of on-budget surpluses and 
provides for potential future increased spending needs. This proposal 
also, of course, depends on Congressional action to allocate and 
authorize funding. The President's contingency fund, thus, attempts to 
assure that funding will be available for unanticipated needs, but does 
not otherwise expedite the process of making funds available since 
Congressional action will be required.
    Question. Should the so-called ``contingency fund'' from which the 
President's budget proposes emergency farm assistance be drawn be 
depleted for non-agricultural emergencies, what assistance will be 
available for farmers?
    Answer. The Congress, of course, could choose to allocate 
additional funding for farm assistance through emergency supplemental 
appropriations or otherwise if necessary. Of course, we hope that the 
improved crop insurance and related programs provided by the 
Agricultural Risk Protection Act of 2000 and other ongoing programs 
will help meet any additional needs. And we understand the currently 
pending Congressional Budget Resolution may result in allocation of 
additional funding for farm assistance, so that there may be less 
likelihood that we will be faced with the problem you pose.
        research programs/food safety/administration priorities
    Question. The President's budget cuts $34 million from earmarked 
projects. I recognize the need to set funding priorities. However, I am 
concerned that the budget does not allow room for priorities which are 
not set by the Administration. In fact, the budget makes a point of 
redirecting funding focused on specific research projects, simply 
because they are Congressional earmarks, to the Administration's 
priorities. I am concerned that some Congressionally earmarked projects 
that provide critical components to Administration priorities have 
simply not been considered.
    For example, a $2 million earmark that I added to the fiscal year 
2001 Agriculture Appropriations bill for Pasture-Based Beef Systems 
research at the Agricultural Research Service Appalachian Farming 
Systems Research Center, in Beaver, West Virginia, was eliminated. This 
project teams the Research Center with West Virginia University, and 
Virginia Tech. The project's goal is to enhance the efficiency, 
profitability, sustainability, and environmental stewardship of grass-
based beef production systems. Not only would this project provide a 
new economic opportunity for farmers, but it will also provide a 
nutritious, high quality, and safe meat product. As more attention is 
focused on food safety and healthy eating, more information is needed 
on profitable sustainable production systems such as pasture-based 
beef, which guards against serious food safety issues, such as animal 
disease in concentrated feeding areas, produces products high in 
beneficial fatty acids and nutrients, and reduces environmentally 
costly production methods. I hope that you will agree that the goals of 
the pasture-based beef project are important to the future of 
agriculture in America.
    Other than the fact that they were earmarks, what criteria was used 
to reduce or eliminate funding for more than seventy Agricultural 
Research Service projects nationwide?
    Answer. The President's fiscal year 2002 Budget recommended that 
all research projects which were added in fiscal year 2001 be 
discontinued in fiscal year 2002 to finance national high priority 
agricultural research initiatives in the following areas: emerging and 
exotic diseases and pests of plants and animals; biotechnology risk 
assessment; agricultural genome/bioinformatic tools; control of 
invasive species (weeds/anthropods); and biobased products and energy. 
The administration believes that taxpayer dollars must be spent on the 
highest priority needs of national significance.
                          research facilities
    Question. Page 71 of the budget summary for the U.S. Department of 
Agriculture for fiscal year 2002 notes that innovative research depends 
upon the availability of modern facilities. However, the President's 
budget for fiscal year 2002 reduces funding for buildings and 
facilities to forty percent of the funding level for fiscal year 2001, 
and identifies specific science centers that would be the only centers 
eligible for improvement. In West Virginia, both the Appalachian 
Farming Systems Research Center in Beaver and the Appalachian Fruit 
Research Station in Kearneysville require improvements to their 
facilities. Without some of these improvements, research progress may 
be hampered, or even set back. How does the Department justify such a 
drastic cut to funding for research buildings and facilities when all 
of its laboratories are not completely modernized and fail to meet 
industry standards?
    Answer. We recognize the need for substantial funding required for 
the modernization of ARS' buildings and facilities each year. However, 
the Administration believes that growth in Federal spending must be 
controlled and only the highest priority modernization and construction 
projects are requested in ARS' Buildings and Facilities for fiscal year 
2002.
             senior farmers' market nutrition pilot program
    Question. A meeting I had with former Agriculture Secretary 
Glickman and Undersecretary Shumacher led to the implementation of the 
Senior Farmers' Market Nutrition Pilot program. This program is 
intended to improve the nutrition of low-income seniors by encouraging 
their connection with local farmers, while also improving market 
opportunities for farmers. The program will provide low-income seniors 
with coupons to use toward purchasing fresh fruits, vegetables, and 
herbs from farmers' markets, roadside stands, and community supported 
agriculture programs. The USDA announced that it would provide the West 
Virginia Department of Agriculture a grant for $1.2 million to operate 
the Senior Farmers' Market Nutrition Pilot program in 2001. West 
Virginia expects that this program will benefit more than 50,000 
seniors in eleven West Virginia counties this year. Nationwide, $15 
million was provided for this program in fiscal year 2001, but the 
President's budget does not include funding in its fiscal year 2002 
budget for this project.
    Would you agree that programs such as this, which help consumers 
and producers, can improve the health and economic well-being for all 
of the involved parties? What criteria was used in considering the 
elimination of this project?
    Answer. The SFMNPP was funded as a pilot program by the previous 
Administration and no decision has been made by the current 
Administration whether it will be continued beyond the current fiscal 
year. I certainly agree that farmers' markets are of great benefit to 
both producers and consumers, and the Department intends to continue 
our ongoing involvement in encouraging farmers' markets, including 
providing funding to allow access by low-income households. The 
Department believes that the Senior Farmers' Market Nutrition Pilot 
Program (SFMNPP) will help senior citizens achieve the goal of 
consuming five servings of fruits and vegetables each day which will 
assist them in improving their nutritional health.
    Question. What opportunities exist for expanding the Senior 
Farmers' Market Nutrition program?
    Answer. Funding for the SFMNPP comes from the Commodity Credit 
Corporation and does not require an appropriation. The SFMNPP was 
funded as a pilot program by the previous Administration. No decision 
has been made by the current Administration as to the continuation of 
the pilot program beyond fiscal year 2001.
                              aquaculture
    Question. Could you provide a status regarding the National Center 
for Cool and Cold Water Aquaculture, including expected timetable for 
completion and dedication?
    Answer. Design was awarded in March 1999. Construction was awarded 
in July 1999, and was originally expected to be completed by September 
2000. Due to financial difficulties with the contractor, the government 
terminated the contract for default. A takeover agreement was signed in 
May 2000. Project completion will be in July 2001. A dedication 
ceremony is anticipated for mid-August.
    Question. What funding is made available for the operation of the 
National Center for Cool and Cold Water Aquaculture in the President's 
budget?
    Answer. Fiscal year 2002 funding available in the President's 
budget is $3,328,400 (gross). Proposed project terminations total 
$1,708,700.

                          Subcommittee Recess

    Senator Cochran. Our next hearing is going to be on 
Thursday, May 3, at 10:00 a.m. in this room, 138 of the Dirksen 
Senate Office Building. At that time, we will hear from 
Department of Agriculture witnesses regarding assistance to 
producers and the farm economy.
    This concludes the hearing. We are recessed.
    [Whereupon, at 3:20 p.m, Wednesday, April 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              


                         THURSDAY, MAY 3, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Johnson, Kohl, and Dorgan.

                       DEPARTMENT OF AGRICULTURE

                 Farm and Foreign Agricultural Services

STATEMENT OF THOMAS HUNT SHIPMAN, ACTING DEPUTY UNDER 
            SECRETARY
ACCOMPANIED BY:
        KEITH COLLINS, CHIEF ECONOMIST, DEPARTMENT OF AGRICULTURE
        DENNIS KAPLAN, DEPUTY DIRECTOR, OFFICE OF BUDGET AND PROGRAM 
            ANALYSIS, DEPARTMENT OF AGRICULTURE
        JAMES LITTLE, ACTING ADMINISTRATOR, FARM SERVICE AGENCY, 
            DEPARTMENT OF AGRICULTURE
        PHYLLIS W. HONOR, ACTING ADMINISTRATOR, RISK MANAGEMENT AGENCY, 
            DEPARTMENT OF AGRICULTURE
        MARY CHAMBLISS, ACTING GENERAL SALES MANAGER, DEPARTMENT OF 
            AGRICULTURE

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The subcommittee will please come to 
order. Today the subcommittee continues the consideration of 
the fiscal year 2002 budget submitted by the President for the 
Department of Agriculture, which includes, of course, Rural 
Development and Related Agencies.
    It gives me a special pleasure this morning to be able to 
welcome my good friend and former staff member, the Acting 
Deputy Under Secretary for Farm and Foreign Agriculture 
Services, Hunt Shipman, as a witness before our subcommittee; 
and also to welcome our friend Keith Collins, who is the chief 
economist of the Department of Agriculture. They are 
accompanied by Dennis Kaplan, who is representing the 
Department's budget office.
    Today, we will review the emergency farm assistance 
programs being administered by USDA and the outlook for the 
farm economy.
    Last year Congress approved nearly $9 billion in crop and 
market loss assistance for agriculture producers. This 
assistance was provided under the authority of the Agricultural 
Risk Protection Act as well as the Agriculture Appropriations 
Bill.
    Emergency funding for farmers is not specifically requested 
by the President in the budget request he has submitted to 
Congress. But the budget does propose a contingency fund to 
meet emergency requirements arising from natural disasters and 
unforeseen events; and a 10-year contingency reserve, which 
could be used to provide additional assistance to farmers, if 
needed.
    I know the Department has made the implementation of 
emergency assistance programs a high priority. It has worked to 
promulgate regulations and disperse funds to producers.
    The Committee looks forward to working with the Department 
on these and other efforts to help farmers and to strengthen 
the U.S. farm economy. We have the statements that have been 
prepared by the witnesses and they will be made a part of the 
record.
    Mr. Shipman, you may proceed.

                    STATEMENT OF THOMAS HUNT SHIPMAN

    Mr. Shipman. Thanks very much, Senator. It is a humbling 
experience for me to be here today for three reasons--one to be 
here in the role that I am today; also, to be here in the 
company of Keith Collins, whose outstanding job I have been 
able to watch in my previous job on the other side of dias as 
he responded to these questions; and third, to represent the 
career staff that is here.
    With me today are three acting administrators, who, along 
with people around the country, have worked so hard to 
implement the programs that Congress has authorized over the 
last few years and particularly in the fiscal year 2001 
Agricultural Appropriations Act to assist farmers and ranchers 
around the country.
    As I mentioned, with me today are the three acting 
administrators of the Farm Service Agency, the Risk Management 
Agency, and the Foreign Agricultural Service. They are Jim 
Little, Phyllis Honor and--well, my testimony is wrong, but 
Mary Chambliss as well. I am sorry.
    Mr. Shipman. Let me speak to each of the three agencies' 
activities and how they play into the delivery of emergency 
assistance in implementing the authorities that Congress has 
provided us and also in how that plays into the fiscal year 
2002 budget.
    In recent years, FSA has handled a tremendous increase in 
workload associated with the problems that we have seen in 
agriculture country all around our nation.
    Marketing assistance loan placements have doubled between 
1997 and the year 2000, loan deficiency payment transactions 
have increased over 5,000 percent or 51 times the 1995 level.
    Marketing loan gains and loan deficiency payments increased 
from negligible levels in 1997 to over $4 billion in 1999 and 
$8 billion in the year 2000, and are expected to remain near $7 
billion for 2001 and $5 billion in 2002.
    Demand for farm operating, ownership, and emergency loans 
has increased more than 65 percent from the pre-farm-crisis 
period.
    In the past year, FSA has implemented 24 new and 
reauthorized farm programs mandated by the fiscal year 2001 
Agriculture Appropriations Act, as well as 17 programs 
authorized by the Agriculture Risk Protection Act of 2000 and 
the Military Construction Act of 2001. Farmers are now signing 
up or receiving payments for more than 20 programs that USDA 
has implemented.
    FSA's ongoing commodity program activities include 
administration of production flexibility contracts, the 
Marketing Loan and Loan Deficiency Payment Programs, and the 
Non-Insured Crop Disaster Assistance Program.
    In implementing the emergency and disaster assistance 
programs, Congress provided nearly $14 billion including $11 
billion in loss payments for 1999 and 2000 crops.
    For this fiscal year, Congress authorized $1.8 billion for 
crop losses and nearly $500 million to assist livestock 
producers.
    About $2 billion--$2.2 billion--was provided for market 
loss and other emergency assistance in fiscal year 2001, 
including the dairy market loss assistance estimated at $675 
million, $500 million for oilseeds, and emergency payments for 
apples, cranberries, potatoes, honey, peanuts, tobacco, nursery 
stock and other producers.
    Signup has closed or is still under way for the 2000 Crop 
Disaster Program, the Florida Nursery Program, apple and 
cranberry market loss assistance, the Tri-Valley California 
Cooperative Insolvency Program, the 2000 Oilseed Program, the 
Peanut Marketing Assistance Program and the Tobacco Loss 
Assistance Program.
    And signup will begin this month for the 2000 Disaster 
Quality Loss Program, the Apple and Potato Quality Loss 
Program, and the Potato Diversion Program.
    Livestock producers are receiving benefits through the 2000 
Livestock Assistance and Livestock Indemnity programs, the 
American Indian Livestock Feed Program, Poultry Enteritis 
Mortality Syndrome Program, wool and mohair loss assistance, 
and others that I will submit for the record. In total, more 
than 54,000 producers have applied for livestock aid totaling 
over $270 million by April 16.
    To date, nearly 1,300 counties in 34 States, more than 40 
percent of all the counties in our country, are eligible for 
the Livestock Assistance Program.
    The 2002 President's budget proposes to fund emergency 
needs, such as crop and livestock disaster assistance and 
emergency conservation, through a $5.6 billion national 
emergency reserve. And this reserve would be available for 
sudden, urgent and unforeseen needs government-wide. Funds 
would be released from this reserve only after approval from 
the Congress and the President.
    In the farm loan program, the loan portfolio is showing its 
best performance in many years, as evidenced by a direct loan 
delinquency rate of 12.3 percent, which is the lowest in 20 
years. The guaranteed loan delinquency rate is at an all-time 
low of 1.8 percent, and the direct loan loss rate is at its 
lowest since 1987. In addition, our inventory of property is at 
its lowest since 1980.
    For fiscal year 2002, the President's budget request will 
support $3.9 billion in direct and guaranteed loans. And these 
loan levels will serve an estimated 37,000 producers.
    In the conservation area, which is the second largest 
category of Commodity Credit Corporation expenditures, the 
largest program is the Conservation Reserve Program.
    CRP enrollment is expected to reach 33.9 million acres at 
the end of this fiscal year and to reach its maximum authorized 
level of 36.4 million acres by December 31st of 2002.
    Included in this are 4.2 million in cumulative acres that 
are projected to be enrolled under continuous signup, as well 
as 500,000 farmable wetland acres. Outlays for this program in 
2002 are expected to be $1.8 billion.
    The Administrative Expenses budget has enabled FSA in the 
last two fiscal years to employ additional temporary staff to 
meet the heavy workload associated with administering ongoing 
and emergency assistance programs.
    We are also continuing to re-engineer and streamline 
business processes, such as establishing the common computing 
environment, and to expand our E-government services and 
capabilities as mandated by Congress.
    In the next year, we will continue to review our field 
office structure and to identify additional opportunities to 
improve efficiencies and realize savings. However, FSA 
continues to have significant temporary staffing needs that are 
reflected in our budget request for 2002.
    The Risk Management Agency's top priority is to implement 
the Agricultural Risk Protection Act, or ARPA, of 2000, so that 
farmers can realize the benefits of an improved crop insurance 
program as soon as possible.
    Title I of that Act includes a 5 year, $7 billion 
initiative to make higher levels of protection more affordable 
and useful to producers, to provide better protection for 
farmers suffering multi-year losses, to expand risk management 
education and outreach opportunities, to stimulate development 
of new risk management products and to improve the program's 
integrity.
    RMA began last year by reducing farmer-paid premiums and 
increasing yield coverage levels that were mandated as a part 
of the enactment of ARPA.
    So far in 2001, crop insurance sales have increased 
substantially, with significantly more acreage covered under 
revenue insurance products. Crop revenue coverage has tripled 
and currently covers about 51 percent of all acreage reported 
today. Coverage under the revenue insurance program now 
available in the southern plains has increased about 7 percent.
    RMA has worked closely with the Farm Service Agency to 
develop a coordinated plan that includes training, claims, 
audit and fraud referral procedures, and data reconciliation, 
which was such an important part of the discussion as Congress 
enacted the ARPA.
    As a part of this plan, RMA will provide anti-fraud and 
loss adjustment training to over 2,500 Farm Service Agency 
State and county office personnel.
    RMA has also worked with other USDA agencies to utilize 
contracting authority to make greater use of partnerships and 
private sector expertise in developing new risk management 
products.
    The Agency has awarded four contracts to help develop new 
insurance plans for currently insured crops as well as new crop 
policies, and new types of risk management products.
    The agency has studies underway on the cost of production 
pilot program, the feasibility of developing a pasture and 
range land insurance program, new revenue coverage plans and a 
livestock pilot program. Also, it is planning to implement a 
pilot raspberry/blackberry crop insurance program for the 2002 
crop year.
    Another important function is to expand crop insurance 
participation in under-served regions. And RMA is working to 
expand its risk management activities and utilize forums such 
as producer meetings in the Cooperative State Research, 
Education, and Extension Service to provide that education.
    The President's budget for 2002 includes full funding for 
implementing many of the crop insurance reforms authorized by 
Congress. This budget includes increases of $232 million in 
mandatory spending to finance the additional subsidies in 
delivery expenses associated with additional participation, and 
$9 million in discretionary spending, which includes $4.5 
million to finance data mining and improvements in information 
technology systems.
    The Foreign Agriculture Service's primary mission is to 
continue to move forward in multilateral trade negotiations and 
to expand overseas markets intelligence and technical expertise 
that we need to support agricultural trade.
    International negotiations to further liberalize 
agricultural trading practices are already underway under the 
auspices of the World Trade Organization.
    And the United States has already offered a set of 
ambitious proposals for the negotiations that provide for the 
elimination of export subsidies, improved market access, reform 
of State trading enterprises, tighter rules on trade distorting 
domestic support and facilitation of trade in the products and 
new technologies.
    USDA will work closely with the Office of the United States 
Trade Representative to secure an agreement which incorporates 
these objectives.
    Negotiations are also underway to achieve a free trade area 
of the Americas by 2005. For agriculture, these objectives 
include eliminating support subsidies that affect trade in our 
hemisphere, identifying and reducing other trade distorting 
practices, and ensuring that sanitary and phytosanitary 
measures are based on science and conform with the Uruguay 
Round principles.
    A successful conclusion of these negotiations will gain 
American farmers increased access to a region of 675 million 
people with a combined consumer buying power of over $1.5 
trillion.
    But farmers and agricultural businesses do not just benefit 
from open markets, they depend on them for their income, as 
agriculture generally ranks among the top six industry groups 
in export sales. Dollar for dollar, we export more meat than 
steel, more corn than cosmetics, more wheat than coal, more 
bakery products than motor boats and more fruits and vegetables 
than household appliances.
    Agriculture is also twice as dependent on exports as the 
general U.S. economy. So the apparent rebounding in our export 
numbers is a welcome trend.
    Last year, agriculture exports were valued at $51 billion. 
In fiscal year 2001, they are forecast to increase to $53 
billion.
    The technical trade issues such as those related to food 
safety and biotechnology are among the toughest for us to deal 
with and have occupied much of the time of the Secretary and I 
in the first few months of this Administration.
    It is important we participate actively in the 
international organizations that set technical standards that 
govern agricultural trade; and our focus will be in making sure 
that biotech and other approval regimes are transparent, 
predictable, and based on sound science.
    Our budget request for 2002 reflects these concerns and 
includes increased funding to expand FAS's capabilities to 
address technical trade issues and to strengthen our market 
intelligence capabilities at overseas posts.
    We will be focusing our efforts on 14 important markets 
around the world where opportunities to expand our exports 
appear to be greatest.
    In addition, the budget also contemplates adequate funding 
for our export promotion and market development program so that 
we can benefit from emerging market opportunities, the Foreign 
Market Development or Cooperator Program, the Market Access 
Program, and the Quality Samples Programs are estimated to be 
funded at $120 million for 2002, which is the same as the 
current fiscal year.
    Our export guarantee programs are estimated at $3.9 
billion, an increase of more than $100 million above fiscal 
year 2001.
    And finally funding for the Export Enhancement Program is 
estimated at $478 million, the statutory maximum and the same 
level as this year.
    Funding for the Dairy Export Incentive Program is estimated 
at $42 million, which is slightly higher than the current 
fiscal year.

                          Prepared Statements

    Mr. Chairman, this concludes my statement. And I look 
forward to answering any questions the subcommittee might have.
    Senator Cochran. Thank you very much, Mr. Shipman.
    [The statements follow:]

               Prepared Statement of Thomas Hunt Shipman

    Mr. Chairman and members of the Subcommittee, I am pleased to 
appear before you today with USDA's Chief Economist, Keith Collins, to 
discuss our assistance to producers, both this year and as proposed in 
the President's fiscal year 2002 budget.
    The mission of Farm and Foreign Agricultural Services is to secure 
the long-term vitality and global competitiveness of American 
agriculture through delivery of commodity, credit, conservation, 
insurance, and export programs. In the past several years, that mission 
has been tested by low commodity prices, weak overseas demand, and a 
continual onslaught of natural disasters. Improved market conditions 
have been slow to materialize, and with continued weakness in the farm 
economy, USDA will be closely monitoring crop and market conditions 
over the coming months.
    In this economic environment, we have used our continuing 
authorities and recently enacted program and policy tools to help 
producers weather the market crises in production agriculture. 
Implementing those tools are the three agencies which comprise the 
mission area: the Farm Service Agency, Risk Management Agency, and the 
Foreign Agricultural Service. Each plays a significant role in USDA's 
continued efforts to help America's farmers and ranchers.
                       farm service agency (fsa)
    The Farm Service Agency is USDA's principal organization for 
providing financial support to our nation's producers. Through its 
administration of farm commodity, credit, conservation, and emergency 
assistance programs, FSA helps to ensure a stable, accessible, 
affordable food supply while promoting stewardship of the land and 
providing assistance to our nation's farmers and ranchers.
    In recent years, FSA has seen a tremendous increase in workload 
associated with tough times in farm country both in the agency's 
ongoing programs as well as in the dozens of new programs enacted to 
provide relief from market losses and natural disasters. Since 1993, 
FSA has experienced an 87 percent increase in program funding levels 
and a 24 percent reduction in staff.
    At the same time, workload transaction volumes have increased 
substantially. Loan deficiency payments have increased over 5,000 
percent or 51 times 1995 levels. Marketing assistance loan placements 
doubled between 1997 and 2000. Marketing loan gains and loan deficiency 
payments increased from negligible levels in 1997 to over $4 billion in 
1999 and $8 billion in 2000 and are expected to remain near $7 billion 
in 2001 and about $5 billion in 2002. Demand for farm loans has 
increased more than 65 percent in recent years.
    Supplemental appropriations in 2000 and 2001 have enabled FSA to 
employ additional temporary staff to meet the heavy workload needs of 
our ongoing and emergency assistance programs. To improve our service 
to our customers, we also are continuing to reengineer and streamline 
business processes, establish a common computing environment, and 
maximize efficiencies among the county-based agencies. However, FSA 
continues to have significant temporary staffing needs that are 
reflected in our budget request for fiscal year 2002.
    Over the past year, FSA has implemented 24 new and reauthorized 
farm programs mandated by the fiscal year 2001 Agricultural 
Appropriations Act, as well as 17 programs authorized by the 
Agricultural Risk Protection Act of 2000 (ARPA) and the Military 
Construction Act of 2001. Farmers are now signing up or receiving 
payments for some two dozen programs.
    Mr. Chairman, I'd now like to describe the efforts underway to help 
America's family farmers and ranchers.
Ongoing Commodity Programs
    Production Flexibility Contract Payments.--The 1996 Farm Bill 
replaced the income support mechanisms of previous farm bills with 
production flexibility contract payments which are specified annually 
from 1996 through 2002 at a total of $35.6 billion. From fiscal year 
1999 through 2002, producers eligible for contract payments on their 
wheat, corn, grain sorghum, barley, oats, upland cotton or rice crops 
had the option of receiving them as two 50 percent payments or one 100 
percent payment anytime during the fiscal year. So far in fiscal year 
2001, farmers have opted to receive about $3.2 billion of the $4.1 
billion available. In fiscal year 2002, production flexibility contract 
payments will total nearly $4 billion.
    Marketing Assistance Loans.--Non-recourse marketing assistance 
loans provide short-term financing to producers who harvest crops of 
wheat, feed grains, rice, minor oilseeds, soybeans and cotton. As of 
April 16, farmers had received $6.1 billion through 151,740 loans on 
their 2000 crops. For their 1999 crops, an additional $3.7 billion for 
107,616 loans remains outstanding.
    Loan Deficiency Payments (LDPs).--LDPs are made to producers who 
opt to forgo marketing assistance loans on their eligible crops. As of 
April 16, expenditures for the 2000 crop year totaled $6.2 billion on 
over 2.8 million LDP transactions for wheat, feed grains, upland 
cotton, rice, soybeans and oilseeds. Effective only for the 2000 crop 
year, producers growing a contract commodity on a farm with no 
production flexibility contract are eligible for LDPs on their 2000 
crop production. Also effective only for the 2000 crop year, payment 
limitations were doubled from $75,000 to $150,000--for LDPs and 
marketing loan gains for contract commodities, oilseeds, and honey.
    Farm Storage Facility Loans.--Under this program, which provides 
low-cost financing for producers to build or upgrade on-farm storage 
handling facilities, FSA funded 1,980 loans totaling $59.3 million for 
the 2000 crop year, of which $56.7 million remains outstanding. As of 
April 16, 466 additional loans have been made for the 2001 crop year. 
So far this year, nearly $16 million has been obligated, and $5 million 
disbursed to producers. In fiscal year 2002, the budget proposes 
outlays of $3 million to support a program level of $125 million for 
farm storage facility loans.
    Dairy Price Support Program.--This program was extended through 
December 31, 2001, and the Dairy Recourse Loan Program was postponed to 
January 1, 2002. As of April 1, 2001, FSA has purchased 772 million 
pounds of nonfat-dry milk and 11 million pounds of cheese under the 
Dairy Price Support program.
Emergency and Disaster Assistance Programs
    Appropriations acts provided about $5 billion in emergency 
assistance in 1999 and about $8.5 billion in 2000 to help farmers cope 
with some of the lowest commodity prices in many years. The 
Agricultural Risk Protection Act (ARPA) provided an additional $6.5 
billion in emergency funds for 2000. The fiscal year 2001 
Appropriations Act provided an additional $3.5 billion in emergency 
funds.
    For 2002, the President's budget proposes to fund emergency needs 
such as crop disasters, emergency watershed protection, emergency 
conservation and other programs through a $5.6 billion National 
Emergency Reserve. This reserve would cover sudden, urgent and 
unforeseen needs government-wide. Funds would be released from the 
reserve only after approval from both the President and the Congress. 
The President's budget also proposes approximately $1 trillion over 10 
years for a reserve to meet unanticipated emergency and special needs 
on a government-wide basis, including the potential need for assistance 
to farmers above levels in existing programs, such as marketing 
assistance loans and loan deficiency payment programs.
    The status of our major program activity in fiscal year 2001 
includes:
Crop Emergency Programs
    Noninsured Crop Disaster Assistance Program (NAP).--The NAP has 
undergone a number of legislated reforms to improve its coverage for 
producers of uninsured crops. The ARPA eliminated the area loss 
requirement for individual eligibility and provided that all types or 
varieties of a crop may be considered to be a single eligible crop for 
NAP assistance. The 2001 NAP requires producers to be more proactive, 
they will need to apply for individual coverage similar to basic 
catastrophic crop insurance, and pay a $100 service fee per crop. But 
they will know they are covered before disaster strikes. Since the 1995 
crop year, 2,136 NAP areas have been approved and $211.7 million paid 
in benefits. However, benefits for fiscal year 2001 are estimated at 
$176.5 million.
    2000 Crop Disaster Program (CDP).--The CDP compensates farmers if 
their losses exceed 35 percent of historic yields, providing greater 
benefits to those who bought insurance on their eligible crops. Unlike 
previous crop loss programs, the 2000 CDP payments will not be subject 
to a national proration factor; farmers will receive 100 percent of the 
approved payment. Signup began January 18 and is ongoing. To date, 
200,039 producers have requested CDP benefits and 138,097 have been 
approved. As of April 9, nearly $1.4 billion has been paid to 
producers.
    2000 Disaster/Quality Loss Program.--This program compensates 
producers for crop quality losses which are not adequately covered 
under the CDP. For example, durum wheat producers in North Dakota and 
other States have experienced deep market discounts on their crops. 
Such discounts are not currently reflected in the FSA schedule of 
premiums and discounts used to adjust production for quality losses 
under the CDP. Also, certain crops which were not eligible for a 
quality adjustment under CDP--such as hay crops--will be eligible under 
this special program. We expect to begin signup in May.
    Apple/Potato Quality Loss Program.--This program provides $38 
million to compensate apple and potato producers for quality losses due 
to weather or disease for both the 1999 and 2000 crops. Payments will 
be made regardless of whether a crop was harvested. We expect to begin 
signup in May.
    2000 Florida Nursery Program.--The Nursery Program assists Florida 
producers who suffered nursery losses from October 1-December 31, 2000, 
due to weather, insect or disease damage. To date, 91 producers have 
requested benefits and 45 have been approved.
    2000 Sugar Payment-in-Kind Program.--The Sugar PIK offered sugar 
beet producers the opportunity to divert a portion of their crop from 
harvest in exchange for sugar held in inventory by the CCC. 
Approximately 5,000 offers for over 101,000 acres--about 7 percent of 
the acreage planted to sugar beets--were accepted. CCC transferred over 
277,000 tons of refined sugar, valued at $105.5 million, to 
participating producers, resulting in a $555,000 reduction in monthly 
CCC storage costs. The Sugar PIK Program also reduced potential 
forfeitures of loan collateral.
    Apple Market Loss Assistance Program.--Apple Market Loss Assistance 
will provide nearly $100 million in payments to apple producers to help 
offset market losses on their 1998 and 1999 production. Signup has been 
extended to May 4, and we expect to begin making payments by mid-June.
    Cranberry Market Loss Assistance.--This program will provide nearly 
$20 million to cranberry growers who suffered market losses when prices 
for their 1999 crop fell to a record low. Signup ended April 13, and we 
began making payments in late April.
    Limited California Cooperative Insolvency Payment Program (Tri-
Valley).--The Tri-Valley Program will make payments of $20 million to 
500 members of the Tri-Valley Growers Cooperative who produced 2000 
crop tomatoes, pears, peaches, and apricots and who suffered losses due 
to the cooperative's insolvency. Signup ended April 24.
    2000 Fresh Russet Potato Diversion Program (PDP).--PDP will make 
payments of $10.3 million to potato growers on 2000 crop russet 
potatoes rendered unmarketable and diverted from normal trade channels 
to charitable institutions, livestock feed, or ethanol. The diversion 
period began April 13 and will end May 13. Signup will run from May 14 
through June 13. We expect to make payments by early July.
    Grazing Payments for 2001 Wheat, Barley or Oats (GRAZEOUT).--
GRAZEOUT makes payments in lieu of loan deficiency payments to 
producers who forgo harvesting and graze out their 2001 wheat, barley, 
or oats acreage. Producers will receive payments estimated at $60 
million by September 30, 2001, under the same terms and conditions as 
if they harvested a crop and applied for a loan deficiency payment.
    2000 Oilseeds Program.--The Oilseeds Program provides payments to 
producers who, in 2000, planted an oilseed crop that is eligible for 
marketing assistance loans. Signup for the program ran from October 16, 
2000, through January 12 of this year, and FSA county offices began 
issuing payments in February. Nearly $500 million in program payments 
have been issued to 591,695 producers in 47 States.
    2000 Honey Loans.--Honey producers are eligible for nonrecourse 
marketing assistance loans and LDPs on their 2000 crop honey. As of 
April 18, FSA county offices had disbursed 726 marketing assistance 
loans totaling $34.7 million and 5,619 LDPs totaling $17.1 million on 
the 2000 honey crop.
    Peanut Marketing Assistance Program (PMAP).--PMAP helps to 
compensate producers whose incomes have dropped in the 2000 crop year 
due to continued low commodity prices and increasing costs of 
production. Signup ran from October 2, 2000, through February 1, 2001. 
As of April 4, FSA county offices had disbursed $63.7 million to 
approximately 50,000 peanut producers in 17 States.
    Tobacco Loss Assistance Program (TLAP).--TLAP provided payments of 
$340 million to owners or operators of flue-cured, fire-cured, burley, 
or cigar binder tobacco farms for which the 2000 quota or acreage was 
reduced due to a drop in the national marketing quota or acreage for 
that kind of tobacco. Growers on approximately 275,000 farms in 12 
States were eligible for payments.
    Tobacco Quota Holders Assistance.--This program provides 
supplemental assistance to quota holders who were not eligible under 
TLAP. OMB has only apportioned $3 million for tobacco quota holder 
assistance. While a request for an increase to $7 million is at OMB, it 
is not certain the request will be approved. Additionally, producer-
owned cooperative marketing associations were allowed to fully settle 
their loans for 1999 crops of burley, flue-cured and cigar binder 
tobacco by forfeitures to the CCC. The tobacco covered by this 
provision is valued at $591 million.
Livestock and Dairy Emergency Programs
    2000 Livestock Assistance Program (LAP).--The 2000 LAP provides 
assistance in counties named as primary disaster areas under a 
Presidential or Secretarial designation. As of April 16, more than 
54,000 producers have applied for aid totaling over $270 million. Also 
as of April 16, 1,291 counties in 34 States more than 40 percent of all 
counties in the United States--have been approved for LAP. Included in 
the approvals are all counties in Alabama, Mississippi, and Utah, and 
90 percent of the counties in Arkansas, Georgia, Louisiana, and Texas.
    2000 Livestock Indemnity Program (LIP).--The 2000 LIP provides 
payments to producers for livestock losses during CY 2000 due to non-
drought disasters in counties named in a Presidential or Secretarial 
disaster declaration. To date, approximately 1,050 livestock owners 
have requested benefits totaling $765,000. In addition, indemnity 
payments of up to $10 million are available to compensate contract 
growers who raise livestock owned by others. This program covers 1999 
livestock losses, and has been extended to cover losses incurred 
through February 7, 2000.
    American Indian Livestock Feed Program (AILFP).--AILFP is 
contracted as a government-to-government program to provide direct cash 
payments to livestock producers suffering from natural disasters on 
tribal lands. The program was originally funded from the sale of feed 
grains from disaster reserve stocks in 1977. With those funds 
exhausted, the program received additional funding of $12 million in 
fiscal year 2001 to remain available until spent. Since the program 
began, it has provided assistance to 27 tribes.
    Poult Enteritis Mortality Syndrome (PEMS) Program.--Funded at $2 
million, this program helps offset income losses suffered by contract 
growers as a result of an outbreak of PEMS from March 1, 2000, through 
April 30, 2001. When PEMS outbreaks occur, turkey producers must 
depopulate their turkey houses and leave them empty for two or more 
growing cycles. We expect about 100 contract growers to apply for 
benefits in early May.
    Wool and Mohair Loss Assistance Program II.--Funded at nearly $20 
million in 2001, the program makes direct producer payments not to 
exceed 40 cents per pound for wool and mohair due to continued low 
market prices. Signup has been extended through May 4, and payments are 
slated to be made by mid-June. Payments made in fiscal year 2000 
totaled $10.2 million.
    Lamb Meat Adjustment Assistance Program.--In its second year, the 
program provides up to $30 million total, with a target of $10 million 
per year, in direct cash payments to help lamb and sheep growers 
improve their production efficiencies and the marketability of lamb 
meat, during a 3-year period from July 22, 1999, through July 31, 2002. 
As of April 16, payments for Year 2, which ends July 31, totaled nearly 
$3.7 million. Payments in Year 1 of the program totaled $12.7 million, 
for a total paid to date of nearly $15.3 million.
    Dairy Market Loss Assistance Program (DMLA).--DMLA, first 
implemented in 1999, to assist primarily small and mid-sized dairy 
operations that suffered losses from 1999 to the present, as well as 
new dairy producers or operations in 2000. DLMA III provides 
supplemental payments to dairy producers who received payments in the 
first two years of the program. As of April 3, fiscal year 2001 
payments total $655 million.
Bioenergy Program
    In other actions to benefit America's farmers, FSA is implementing 
a Bioenergy Program in fiscal year 2001 to encourage the processing of 
surplus agricultural commodities for industrial uses. FSA has approved 
54 agreements with 79 plants in 19 States for participation in the $150 
million program. Increased bioenergy production for fiscal year 2001 as 
a result of the program is projected to be 246.2 million gallons of 
ethanol and 36.5 million gallons of biodiesel.
Cry9C Seed Corn Purchase
    USDA, through CCC, is implementing a program to purchase seed corn 
that contains the Cry9C protein. FSA has contacted 286 seed corn 
companies and has offered to purchase all seed corn containing the 
Cry9C protein for $40 per unit. To date, 67 seed corn companies have 
indicated that they hold seed containing the Cry9C protein and that 
they want to enter into purchase contracts with CCC.
Starlink Corn Containment
    On October 2, CCC offered to purchase 2000 crop Starlink corn from 
producers and to channel Starlink corn into industrial non-food and 
animal feed markets. Under this program, which was established in 
conjunction with EPA and FDA, CCC has purchased approximately 250,000 
bushels at a cost of $310,000. Aventis Crop Science has reimbursed CCC 
for all costs incurred in administering this purchase program.
    Additionally, CCC is monitoring disposition of Starlink corn that 
was not sold to CCC to ensure that it is also disposed of through 
appropriate uses.
Farm Loan Programs
    FSA offers direct and guaranteed farm ownership and operating loans 
to farmers who are unable to obtain sufficient credit from private 
sources. FSA borrowers range from beginning farmers and ranchers who 
cannot qualify for conventional loans because they have insufficient 
financial resources to established farmers who have suffered financial 
setbacks from natural disasters, or whose resources are too limited to 
maintain profitable farming operations.
    The goal of FSA's farm loan program is to assist eligible 
individuals and families through supervised credit, outreach and 
technical assistance so that they become successful farmers and 
ranchers. Regardless of the type of loan, FSA's financial assistance 
provides a safety net for borrowers who have reasonable prospects for 
lasting economic viability in agriculture.
    The FSA farm loan portfolio is showing its best performance in many 
years as evidenced by direct loan delinquency which is the lowest in 
over 20 years at 12.3 percent. The guaranteed loan delinquency is at an 
all-time low of 1.83 percent, and the direct loan loss rate is the 
lowest since 1987. In addition, inventory property numbers are the 
lowest since 1980.
    In fiscal years 1999 and 2000, FSA provided loans and loan 
guarantees totaling $7.5 billion to over 71,000 family farmers. Of this 
total, 24,000 were beginning and socially disadvantaged farmers, who 
received assistance totaling $1.9 billion.
    FSA has developed ways to decrease the paperwork burden on both 
farmers and lenders. The emergency loan process has been streamlined 
from 6 to 2 weeks. Both the guaranteed and direct loan programs now 
have a one-page application for loans of less than $50,000. FSA also 
has been condensing direct loan regulations by deleting 1,200 pages of 
text and reducing the number of required forms by almost 30 percent. We 
have joined with the other service center agencies in a common Internet 
web site where customers of FSA, Rural Development and the Natural 
Resources Conservation Service can download and complete the forms 
needed to participate in many agency programs and services.
    In fiscal year 2001, demand for FSA's farm loan assistance remains 
strong. As of March 31, 2001, loans and loan guarantees totaling $1.5 
billion have assisted 15,000 farmers with their credit needs. A 
significant portion of this loan assistance--$515 million--is being 
provided to 6,000 beginning and socially disadvantaged farmers. The 
lending season is currently at its busiest and most critical time, and 
FSA is working hard to rapidly process the thousands of applications 
coming into county offices.
    For fiscal year 2002, the President's budget request will support 
$3.8 billion in direct and guaranteed loans. We will continue to 
emphasize providing assistance to beginning and socially disadvantaged 
farmers, and will increase the proportion of loan amounts targeted to 
these groups to 30 percent.
    For farm operating loans, the 2002 budget provides $600 million for 
direct loans and $2 billion for guaranteed loans. These loan levels 
will serve an estimated 31,000 farmers, of whom about 14,500 will 
receive direct loans. The availability of farm operating loans provides 
farmers with short term credit to finance the costs of maintaining or 
improving their farm operations, such as purchasing seed, fertilizer, 
livestock, feed, equipment and other supplies.
    For farm ownership loans, the 2002 budget provides $128 million in 
direct loans and $1 billion in guaranteed loans. The 2002 levels will 
provide almost 6,000 people with the opportunity to acquire their own 
farm or save an existing one. About 1,250 borrowers would receive 
direct loans and 4,500 would receive guaranteed loans.
    The 2002 budget also proposes funding for emergency loans at $25 
million, which is the same amount as appropriated for fiscal year 2001. 
The budget also proposes to maintain State mediation grants at the 
fiscal year 2001 level of $3 million.
Conservation Programs
    Conservation program outlays represent the second largest major 
category of CCC expenditures. FSA offers a variety of these programs 
for our Nation's farmers and ranchers, providing needed financial 
assistance to protect and enhance the environment. These programs 
include the Conservation Reserve Program, Emergency Conservation 
Program, Pasture Recovery Program, Debt for Nature Program, Biomass 
Pilot Projects, and the Farmable Wetlands Pilot Program. Also, FSA 
teams with NRCS in the administration of the Environmental Quality 
Incentives Program.
    Conservation Reserve Program (CRP).--CRP is USDA's largest 
conservation/environmental program. CRP's purpose is to cost-
effectively assist farmers in conserving and improving soil, water, 
air, and wildlife resources by retiring environmentally sensitive land 
from agricultural production and keeping the land in long-term resource 
conserving cover. Acreage is enrolled into the CRP through scheduled 
general signups and through a continuous, noncompetitive signup.
    CRP enrollment is expected to total 33.9 million acres at the end 
of fiscal year 2001 and reach the maximum authorized level of 36.4 
million acres by December 31, 2002. Included in this total are 4.2 
million cumulative acres that are projected to be enrolled under the 
continuous signup as well as 500,000 farmable wetland acres. Outlays 
for fiscal year 2002 are estimated at $1.8 billion.
    As of March 2001, there were 522,480 active CRP contracts covering 
33.5 million acres with associated annual rental payments of $1.5 
billion. General signup activity accounted for 74 percent of the 
contracts, 96 percent of the acres, and 91 percent of the annual 
outlays. Continuous signups, including the Conservation Reserve 
Enhancement Program, accounted for the remainder.
    There will be no general signup for CRP in 2001. However, CRP 
participants whose contracts are scheduled to expire on September 30, 
2001 may extend the expiration date for one year.
    Through mid-March 2001, over 1.4 million acres have been enrolled 
under continuous signup practices such as filter strips, riparian 
buffers, contour grass strips, and grass waterways. The continuous 
signup has significantly increased the enrollment of these 
environmentally important lands. Financial incentives to encourage 
participation in the continuous signup such as up-front signing bonuses 
and incentives for practice installation and maintenance will total up 
to $250 million from fiscal year 2001 through fiscal year 2002.
    Continuous signup acreage also includes enrollment under the 
Conservation Reserve Enhancement Program (CREP), which is designed to 
target program benefits to address specific local and regional 
conservation problems. Currently, 15 States have approved CREP 
agreements, and another 9 States have CREP proposals pending. CREP is a 
results-oriented, community-centered partnership between USDA, State 
and tribal governments, and non-governmental groups. CREP currently 
accounts for 2 percent of CRP contracts, less than 1 percent of the 
acres enrolled, and 1 percent of CRP outlays.
    Emergency Conservation Program (ECP).--ECP provides emergency cost-
share funding to farmers to rehabilitate farmland damaged by natural 
disaster and for carrying out emergency water conservation measures 
during periods of severe drought. During the last several years, ECP 
has been funded through emergency supplemental appropriations. A total 
of $80 million was appropriated for fiscal year 2001. As of April 16, 
2001, $39.2 million in ECP funds had been allocated to States. While 
the Administration's budget proposes no ECP funding for fiscal year 
2002, it does propose a $5.6 billion National Emergency Reserve to 
cover unforeseen expenditure requirements.
    Pasture Recovery Program (PRP).--PRP provides payments for 
reestablishing permanent vegetative cover to farmers who have suffered 
pasture losses due to drought. PRP is funded at $40 million in fiscal 
year 2001. Through mid-April, $27.5 million in payments had been 
distributed to farmers. Signup for the fiscal year 2001 PRP began on 
March 26, 2001, and ends on May 11, 2001.
    Debt for Nature Program (DNP).--Also known as the Debt Cancellation 
Conservation Program, DNP provides that farmers with FSA loans secured 
by real estate may qualify for cancellation of a portion of their FSA 
indebtedness in exchange for a conservation contract on marginal 
cropland and other environmentally sensitive lands for conservation, 
recreation, and wildlife purposes. By the end of fiscal year 2000, FSA 
had closed 206 conservation contracts for a total of 82,225 acres 
enrolled in the program.
    Farmable Wetlands Pilot Program.--This program provides for the 
enrollment of 500,000 acres of certain wetlands and buffer acreage on a 
pilot basis into the CRP during 2001 and 2002. The program will operate 
in Iowa, Minnesota, Montana, Nebraska, North Dakota, and South Dakota. 
Regulations will be issued in the near future.
    Biomass Pilot Projects.--Biomass pilot projects, under which CRP 
acres may be harvested for biomass to be used for energy production, 
are authorized in up to 6 States. A notice was published on October 20, 
2000, providing the opportunity for those interested to submit an 
application for consideration by December 12, 2000. An inter-agency 
team recently approved pilot projects in Iowa, Minnesota, New York, and 
Pennsylvania.
Service Center Modernization Initiative
    As part of ongoing efforts to improve service delivery, FSA has 
completed installation of 2,557 new AS400 computers in its field 
offices, replacing the aging System 36s. The AS400s permit FSA offices 
to have full connectivity to the USDA service center local area network 
and the telecommunications infrastructure, and also ensure 
uninterrupted FSA program delivery while software applications are 
migrated to a common computing environment (CCE). A fully-implemented 
CCE will enable employees to take full advantage of reengineered 
business processes and time-saving software. Over the next year, we 
will continue to review our field office structure to identify 
additional opportunities to improve efficiency, realize savings, and 
address the growth in electronic transaction of farm business.
Fiscal Year 2002 Budget
    The current 2002 CCC budget estimates largely reflect supply and 
demand assumptions for the 2001 crop, based on October 2000 data. CCC 
net expenditures for fiscal year 2002 are estimated at $13.1 billion, 
down nearly $7.5 billion from a level of $20.5 billion in fiscal year 
2001, and $19.2 billion below the record high of $32.3 billion in 
fiscal year 2000.
    The net decrease in projected fiscal year 2002 CCC expenditures 
primarily reflects the expiration of $4.5 billion in 2001 emergency and 
market loss assistance authorized by the Agricultural Risk Protection 
Act of 2000 and the 2001 Agriculture Appropriations Act. Other 
components include decreases of about $1.4 billion in loan deficiency 
payments, nearly $300 million in Section 416 ocean transportation, and 
about $120 million in production flexibility contract payments.
    Non-Federal county staff years are projected to decrease from 
11,957 in 2001 to 11,496 in 2002 because the temporary staff years 
needed to carry out crop and market loss assistance programs are 
expected to decline modestly. However, FSA temporary staff years are 
expected to remain at twice the pre-farm-crisis levels of 1996 through 
1998.
                      risk management agency (rma)
    The Risk Management Agency administers the Crop Insurance Program 
and is USDA's primary organization for providing risk management 
services to farmers and ranchers. By 2002, the Crop Insurance Program 
is expected to provide over $36 billion in risk protection on about 222 
million acres 84 percent of the nation's acres planted to principal 
crops.
    Significant reforms to the program were enacted in the Agricultural 
Risk Protection Act of 2000 (ARPA) which build on the increased 
participation levels of recent years. Title I of the Act contains a 5-
year, $7 billion dollar initiative to make higher levels of protection 
more affordable and useful to producers, provide better protection to 
farmers suffering multi-year losses, expand risk management education 
opportunities, stimulate development of new risk management products, 
and improve program integrity.
    Soon after enactment of ARPA last June, RMA implemented provisions 
of ARPA that lowered 2001 farmer-paid premiums, along with other 
changes in the program. As a result, farmers benefitted from higher 
levels of protection at less cost for their 2001 crops.
    Under ARPA, revenue insurance plans will be much more affordable 
and changes to the Actual Production History (APH) system will help 
producers suffering multi-year losses retain a reasonable amount of 
insurance protection. The new APH provisions allow producers to 
substitute 60 percent of the applicable transitional county average 
yield (T-yield) when their actual yields are lower than 60 percent of 
that T-yield. This change can increase yield guarantees and protect 
producers who have suffered multiple losses by providing more coverage 
while continuing to assess premiums proportional with the additional 
risk.
    RMA also acted to implement changes to the insurance fee structures 
required by ARPA and amended the Standard Reinsurance Agreement with 
reinsured companies to lower the expense reimbursement that private 
insurance providers receive for servicing catastrophic risk protection 
policies.
    With the first wave of actions completed, RMA has begun 
implementing many of the more complex and forward-reaching provisions 
of Title I of ARPA aimed at expanding the crop insurance system, 
facilitating innovation, and improving program oversight. Currently, 
RMA offers 114 crop insurance products to the nation's producers.
    Recent activities and accomplishments in implementing ARPA include:
Improving Compliance and Integrity
    RMA has been working closely with FSA to address training of FSA 
personnel, consulting with FSA State Committees, claims audit and fraud 
referral procedures, and data reconciliation. As required by ARPA, a 
coordinated implementation plan was developed and signed by the 
Secretary on January 12, 2001, and presented to the crop insurance 
industry on January 18, 2001. Joint RMA/FSA teams were then expanded to 
include 23 participants from the reinsurance companies.
    RMA plans to spend approximately $2.25 million in fiscal year 2001 
to provide anti-fraud and loss adjustment training to about 2,500 State 
and county FSA personnel. The first phase of training FSA State Office 
personnel in compliance and loss adjustment procedures was held in late 
March. In April, the training of FSA county personnel kicked off in 
several locations around the country; this training will continue 
through June, 2001. In fiscal year 2002, training will continue with 
updating of information and re-certification of participants.
    The team set up to develop internal communications and coordinate 
procedures for the two agencies met with FSA State Committees in late 
January, and developed the reporting processes and procedures to follow 
when consulting on RMA crop insurance policies and procedures. These 
procedures were developed into a handbook that was distributed in April 
and is available for viewing on FSA and RMA web-sites.
    In the data mining area, RMA entered into a contract with Tarleton 
State University to develop systems and technologies to identify 
indicators of waste, fraud, and abuse. Once the data mining capability 
is implemented, RMA field offices and FSA county offices will be able 
to forward potential fraud, waste, and abuse issues to investigative 
offices. Data management technologies will make compliance verification 
more accurate, efficient, and timely, thus allowing RMA to oversee a 
greatly expanded program. In April, strategies were developed for data 
reconciliation.
    To reduce losses through the intentional filing of false or 
inaccurate claims with the Federal Crop Insurance Corporation (FCIC), 
Congress has encouraged extensive use of administrative sanctions 
available through ARPA and other statutes. New data management and 
referral processes, investigative capabilities, and cooperative efforts 
with reinsurance companies provide additional resources for identifying 
potential sanctions and closing cases. ARPA also adds new categories to 
the sanctions list. Third party program abusers, such as elevator 
operators, could not be reached under previous sanctions authorities. 
Administrative sanctions provide an effective and direct way for FCIC 
to take action against program abusers.
Research and Development
    RMA is currently implementing a number of changes in line with ARPA 
requirements for greater use of private sector expertise in developing 
new risk management tools.
    The agency has awarded four contracts to help develop new insurance 
plans for currently insured crops, as well as new crop policies and new 
types of risk management programs. The contractors will help develop 
new products using these tentative priorities: Pasture, Rangeland and 
Forage Program feasibility study; Cost of Production Pilot Program; 
Revenue Coverage Plans study; Multi-Year Coverage study; California 
Fresh Vegetables; Cotton Quality Adjustment; Cotton Boll Weevil 
Eradication study; Tropical Crops and Trees; Coverage for Direct-
Marketed Crops; Organic Crops study; and Silage Sorghum Program 
(insurance of dual-purpose sorghum harvested as silage). RMA also has a 
cooperative agreement with the University of Alaska Fairbanks 
Agricultural and Forestry Experiment Station to conduct initial 
research into the feasibility of developing a risk management strategy 
for wild sockeye salmon that addresses the economic needs of Bristol 
Bay fishermen.
New Pilot Programs
    A Raspberry/Blackberry Crop Insurance Pilot Program will be 
implemented effective with the 2002 crop year in 7 counties in 
California, Oregon, and Washington.
    Should the study on wild sockeye salmon indicate that it is indeed 
feasible to develop an insurance product addressing the economic needs 
of Alaskan fishermen, development will begin in fiscal year 2002.
    A Livestock Risk Protection Program has been developed by a private 
insurance company and presented to the FCIC Board; approval is pending 
further development..
Education and Risk Management Assistance
    To expand risk management education and provide special emphasis to 
under-served regions, RMA is funding producer education initiatives 
through the Cooperative State Research, Education, and Extension 
Service on the full range of risk management activities. These include 
futures, options, agricultural trade options, crop insurance, cash 
forward contracting, debt reduction, production diversification, farm 
resources risk reduction, and other risk management strategies.
    With input from regional universities, State departments of 
agriculture, grower organizations, crop insurance and farm credit 
businesses, and other USDA offices, RMA is implementing a 5-year 
strategic plan and one-year action plan outlining the direction and 
focus of risk management education plans and activities for 15 under-
served States. The program will be delivered primarily through these 
private partners, allowing RMA to leverage Federal funding with the 
resources and local expertise of these groups. A key initial focus is 
encouraging the use of the Adjusted Gross Revenue (AGR), or ``whole 
farm'' insurance in these areas. As of April 13, approximately 150 AGR 
policies have been sold in 11 under-served Northeast States.
    In addition, RMA is implementing plans which target producers of 
specialty crops and under-served commodities. RMA continues to partner 
with public and private sector organizations which have the capacity to 
reach these producers with local level educational programs such as 
workshops and training sessions. During fiscal year 2000, 30,095 
producers attended 858 RMA-coordinated risk management education 
sessions offered throughout the nation. For fiscal year 2001, it is 
estimated that 50,000 producers will attend 1,500 planned risk 
management education sessions to be held across the country for 
targeted producers and education partners.
Options Pilot Program
    RMA announced a major expansion of the Dairy Options Pilot Program 
(DOPP), the innovative cost-sharing program that helps dairy farmers 
put a ``floor'' under the price they receive for milk using the options 
markets. USDA subsidizes both premiums and brokerage fees for 
participating dairy farmers. USDA will spend about $24 million over the 
next 2 years expanding this program from 61 counties to 300 counties in 
39 States.
    Rounds I and II of DOPP have been completed and Round III will be 
conducted in fiscal year 2001. It is estimated that in Round III, which 
will include counties/States from Rounds I and II, plus an additional 
176 counties, 14,000 producers will participate in the training and 
purchase an estimated 6,000 milk Put options.
Electronic Availability of Crop Insurance Information
    RMA has received from each of the insurance providers the required 
E-business Implementation plan in response to the Freedom to E-File 
Act. These plans are currently being reviewed and evaluated.
Improved Storage & Management of Livestock and Poultry Waste
    RMA is in the process of finalizing a cooperative agreement with 
America's Clean Water Foundation to study market-based mechanisms to 
assist producers with improved storage and management of livestock and 
poultry waste. The estimated $1.7 million study will describe livestock 
and poultry handling and storage systems, failures in these systems and 
associated costs. The study also will identify existing market-oriented 
mechanisms that may be applied to assist producers to better manage the 
handling and storage of animal waste, and mitigate the environmental 
damages caused by system failures.
Management of Corporation
    ARPA restructured the composition of the FCIC Board of Directors, 
increased Board membership from 7 to 10, established a term of office, 
and required the appointment of 6 private sector members.
    ARPA also requires the Board to establish procedures for use in 
reviews of policies, plans of insurance, and related materials by 
independent reviewers and to contract with at least 5 persons to review 
each program. New products under review and Board consideration include 
a Livestock Risk Protection Program, a Timber Crop Coverage Program, 
and a Group Risk Protection Program. The Board also directed FCIC to 
conduct a study of localized prevented planting problems and to develop 
guidelines and proposed modifications to existing prevented planting 
provisions.
Administrative and Operating Expenses
    In fiscal year 2002, discretionary account expenses are estimated 
to increase by $9.3 million from the fiscal year 2001 level of $65.5 
million. The increase includes $7.9 million for improvements in 
information technology systems, such as data mining, e-commerce, and 
data storage. These changes are needed to meet RMA's changing 
responsibilities resulting from the implementation of ARPA, 
particularly with regard to improved compliance and Internet 
applications for producers to purchase crop insurance on-line.
FCIC Fund
    The fiscal year 2002 budget for the FCIC Fund proposes an estimated 
$232.3 million increase in program spending over the fiscal year 2001 
estimate of $2.8 billion.
    Premium subsidy is expected to increase to $1.9 billion due, in 
part, to an estimated increase in participation. The increase in 
premium subsidy, of which $190.2 million of the increase is for CAT and 
$1.7 billion is for additional coverage, will enable us to provide 
producers a more cost-effective means of managing their risk.
    Delivery expenses or administrative and operating expense 
reimbursements provided to approved insurance providers, are based on 
24.5 percent of the estimated total premium for most non-CAT policies 
for fiscal year 2002 in accordance with the Agricultural Research, 
Extension, and Education Reform Act of 1998. As a result of increased 
total premium, RMA anticipates delivery expenses will amount to $677.8 
million, compared with the fiscal year 2001 estimate of $461.2 million. 
The increase reflects increased program participation.
    The fiscal year 2002 mandatory funding for ARPA initiatives is $58 
million, a decrease of $9.5 million below the fiscal year 2001 
estimates. The $58 million includes $3.5 million for improving program 
compliance and integrity; $30 million for research and development; $11 
million for pilot programs for livestock and wild salmon; $10 million 
for education and risk management assistance, and $3.5 million for 
policy consideration and implementation.
                   foreign agricultural service (fas)
    The Foreign Agricultural Service administers a variety of export 
promotion, food assistance and foreign market development programs. The 
FAS mission is to serve U.S. agriculture's international interests by 
expanding export opportunities for U.S. agricultural, fish, and forest 
products and promoting world food security.
U.S. Trade Prospects
    U.S. agricultural exports rebounded to $50.9 billion in fiscal year 
2000, an increase of $1.7 billion over 1999. FAS expects this trend to 
continue in fiscal year 2001, with agricultural exports forecast to 
reach $53 billion, up $2.1 billion over 2000. Much of the gain is 
expected in Asia, as that region's economies continue to improve from 
the financial crisis of 1997-99. Export prospects are promising in both 
value and volume terms for most major commodities, including corn, 
wheat, soybeans, soybean meal, livestock products, and horticultural 
products.
FAS Program Activities
    To support the goal of expanding export opportunities for our 
nation's producers and agribusinesses, FAS continues to use long-
standing export programs vigorously. For example, the export credit 
guarantee programs facilitated sales of more than $3 billion in U.S. 
agricultural products last year.
    The GSM-102 program helped U.S. exporters register sales of more 
than $400 million to Indonesia despite that country's economic 
uncertainties. The program helped U.S. exporters continue to develop 
markets in the Andean region, with U.S. sales of over $122 million 
worth of feed grains and $100 million of wheat.
    The GSM-103 program helped U.S. exporters sell over $13 million 
worth of wheat to Jordan and to re-enter the grain market in Tunisia 
with sales of $9 million.
    The Supplier Credit Guarantee Program was used for the first time 
by importers in West Africa and Central America, resulting in sales of 
over $18 million to buyers in the West Africa Region, and about $14.5 
million to buyers in Central America.
    The first guarantee was issued under the Facility Guarantee Program 
for a project to improve a grain elevator in the port of Veracruz, 
Mexico. When this project is completed, the facility will increase its 
capacity to import bulk grains from 5,000 to 20,000 tons per hour. It 
is expected to handle nearly 19 million tons of grain between 2000 and 
2004, with about 87 percent of it coming from the United States.
    With the aid of the Dairy Export Incentive Program (DEIP), U.S. 
exporters sold more than 95,000 tons of dairy products in fiscal year 
2000. The Commodity Credit Corporation awarded more than $78 million in 
bonuses to help U.S. dairy exporters meet prevailing world prices and 
develop foreign markets.
    Use of the Export Enhancement Program was limited in 2000 because 
of market conditions, with bonuses of about $1.6 million awarded for 
sales of more than 2,500 tons of frozen poultry.
    We continue to stress the importance of market development. In 
2000, FAS allocated $90 million to 65 U.S. trade organizations, State 
regional groups, and cooperatives for export promotion activities under 
the Market Access Program (MAP), and allocated $27.5 million to 25 
trade organizations under the Foreign Market Development (FMD) program.
    FAS introduced 735 Cochran Fellows from over 75 countries to U.S. 
products and policies in 2000. These Fellows met with U.S. 
agribusiness; attended trade shows, policy and food safety seminars; 
and received technical training related to market development. The 
Cochran Fellowship Program provides USDA with a unique opportunity to 
educate foreign governments and private sectors not only about U.S. 
products, but also about U.S. regulations and policies on critical 
issues such as food safety and biotechnology.
    On the trade policy front, USDA works to open, expand, and maintain 
markets for U.S. agriculture. FAS was a key player in the successful 
launch of negotiations in March 2000 to further liberalize global 
agricultural trade under the World Trade Organization (WTO). In June 
2000, the United States presented its comprehensive proposal to 
establish a framework for the new agricultural negotiations.
    FAS continues to monitor aggressively foreign countries' compliance 
with Uruguay Round Agreement commitments. In calendar year 2000, the 
United States raised significant compliance issues with other WTO 
members, addressing policies that affected about $450 million in U.S. 
agricultural trade.
    To support both our export mission and our food security mission, 
FAS has used food aid to move commodities from the U.S. marketplace to 
needy people around the world.
    Over the past two years (Fiscal Year 1999 and fiscal year 2000 food 
aid programs), FAS programmed more than 12 million metric tons in food 
aid to help feed millions of hungry people in more than 80 countries 
around the world--from the unprecedented assistance package for Russia 
to food relief for Kosovo refugees, famine victims in North Korea, and 
hurricane victims in Central America and the Caribbean. Total U.S. 
contributions accounted for more than 75 percent of total global 
emergency food aid to the Horn of Africa this past year, helping to 
avert large-scale starvation.
    Under the authority of section 416(b) of the Agricultural Act of 
1949, as amended (Section 416), the Commodity Credit Corporation (CCC) 
donated about $500 million worth of commodities in fiscal year 2000, 
including about 2.6 million tons of wheat and wheat products, 168,000 
tons of corn, 141,000 tons of rice, 130,000 tons of soybean oil, and 
26,000 tons of dry milk. These U.S. surpluses were put to good use, 
helping to relieve hunger and suffering abroad.
    Concessional sales under Public Law 480, Title I, totaled about 1 
million metric tons in fiscal 2000, including 500,000 metric tons of 
U.S. corn, 163,000 tons of soybean meal, more than 150,000 tons of 
wheat, and 135,000 tons of rice, among other products. These 
commodities, valued at an estimated $157 million, went to eight 
countries. Another 413,000 tons of various U.S. commodities were 
donated to 12 countries under the Food for Progress program, with Title 
I-funded Food for Progress donations accounting for almost two-thirds 
of this tonnage.
    In addition, FAS has undertaken a pilot Global Food for Education 
(GFE) Initiative. Under this year's $300 million pilot, USDA is 
donating approximately 630,000 metric tons of surplus U.S. agricultural 
commodities for use in school feeding and pre-school nutrition projects 
in 38 developing countries. School feeding programs help will reach 9 
million children, using donated corn, rice, soybeans, soybeans and 
vegetable oil, wheat products and nonfat dry milk.
    In addition to food aid activities, FAS continues to serve as the 
coordinator for the U.S. Government's food security committee. Last 
September, the agency issued a national food security progress report 
that outlines how the United States is working to address our 
international and domestic food security goals.
Priorities for 2001 and 2002
    Faced with competing demands for budgetary resources, a strong U.S. 
dollar and continued aggressive spending on market promotion by our 
competitors, USDA must redouble its efforts to improve the outlook for 
U.S. agricultural exports.
    Topping the list of priorities for this year is moving forward in 
the multilateral trade negotiations on agriculture under the WTO. As 
part of the negotiating process, the U.S. must engage the developing 
world in the creation and implementation of appropriate trading rules 
and guidelines. This undertaking will take time, but it will be worth 
the investment. These countries represent our future growth markets. If 
we are to realize our goal of liberalizing trade through multinational 
bodies such as the WTO, we cannot ignore the concerns of developing 
countries, which make up the majority of WTO members.
    FAS will continue to work with the countries that would like to 
join the WTO. While membership in the WTO is a high priority, we will 
continue to insist that these accessions be made on commercially viable 
terms that provide trade and investment opportunities for U.S. 
agriculture. This means that acceding countries, such as China, will 
need to implement trade policies and regulations that are fully 
consistent with WTO rules and obligations.
    Another important area of work for FAS is the negotiation to 
establish the Free Trade Area of the Americas (FTAA). The FTAA is 
intended to be a comprehensive free trade agreement between the 34 
democracies in the Western Hemisphere. Negotiations began in 1998 and 
are expected to conclude by 2005. By concluding the FTAA, the U.S. will 
gain liberalized access to a region of 675 million people with a 
combined consumer buying power of $1.5 trillion.
    FAS also is actively participating in the Asia Pacific Economic 
Cooperation (APEC) forum. Asia represents an important market for U.S. 
agriculture, and FAS is working with other APEC members to promote 
economic policies in the region to moderate economic shocks like the 
Asian economic crisis of 1997-98. We expect APEC to serve as the 
launching point for promoting continued trade liberalization within the 
region and in the WTO.
    Another priority is how we deal with the trade issues surrounding 
products produced through biotechnology. Today's market environment for 
biotech products is unsettled. The demand by some users for non-biotech 
commodities only, the resulting calls for segregation by some handlers, 
and the indications that premiums and discounts may be appearing for 
non-biotech vs. biotech commodities are bound to have an effect on 
farmers' planting decisions.
    This issue is likely to be a dominant one for U.S. agriculture in 
the immediate years ahead, whether in the WTO or in our bilateral 
relationships with customer and competitor nations alike. Our focus 
will be in making sure that biotech approval regimes, wherever they 
exist, are transparent, timely, predictable, and science-based.
    FAS also will be working to improve the way we carry out our market 
development programs. The agency is currently in the process of 
refining its global marketing strategy that will target markets that 
offer the most growth opportunity. This will require a thorough 
evaluation of the U.S. opportunities and challenges in those markets, 
and close coordination with private industry partners. In the next 10 
years, the growth markets are likely to be the developing countries in 
Asia (especially China and South East Asia, and possibly India) and 
Latin America. Gaining market share in these high-growth markets is the 
most effective way to increase market share globally.
    The global marketing strategy is also instrumental in the agency's 
ongoing review of overseas office locations and staffing. FAS is 
committed to strengthening overseas staffing to ensure that the United 
States is positioned to take advantage of the market opportunities 
created by market access initiatives as well as new opportunities 
offered by emerging growth markets.
    Alleviating hunger and malnutrition in the world also presents a 
significant challenge. The global marketing strategy includes 
identifying the food security challenges that currently exist and are 
likely to emerge over the next decade. FAS will continue to use USDA's 
food aid programs to help developing countries meet their food needs.
Administrative and Operating Expenses
    The fiscal year 2002 budget proposes a funding level of $125.8 
million for FAS. This represents an increase of $6.4 million from this 
fiscal year and supports several important agency initiatives.
    First, in order to strengthen the agency's market intelligence 
capabilities at our overseas posts, $2.7 million is requested to 
provide additional support in 14 overseas locations where workload 
demands have become acute, including China, the Philippines, Colombia, 
Argentina, Thailand, and Turkey. This action will enable FAS to focus 
on the government policies and issues that can affect the 
competitiveness of U.S. exports, particularly competitor activities 
within that market, host country compliance with trade rules, and the 
formation of cooperative links for the upcoming WTO trade round.
    An additional $750,000 and 10 additional staff years are requested 
to improve FAS' ability to address and resolve technical trade issues. 
Technical trade issues, such as those related to food safety and 
biotechnology, have become the fastest growing and most sensitive trade 
issues in U.S. agriculture today. FAS is responsible for assuring 
regulatory actions taken by our trading partners do not impede our 
exports and comply with the WTO sanitary and phytosanitary disciplines.
Export Programs
    For export programs, the fiscal year 2002 budget includes the 
following:
    Export Credit Guarantee Programs.--The budget includes a projected 
overall program level of $3.9 billion for export credit guarantees in 
fiscal year 2002. As in previous years, the budget estimates reflect 
actual levels of sales expected to be registered under the programs 
rather than authorized program levels. Of the total program level, $3.4 
billion will be made available under the GSM-102 program and $100 
million will be made available under the GSM-103 program. For supplier 
credit guarantees, the budget includes an estimated program level of 
$330 million and an estimated program level of $95 million for facility 
financing guarantees.
    Foreign Market Development.--The fiscal year 2002 budget includes 
CCC funding of $27.5 million for the Foreign Market Development 
(Cooperator) Program and $2.5 million for the Quality Samples Program, 
both unchanged from this year. Under the Quality Samples Program, 
samples of U.S. agricultural products are provided to foreign importers 
in order to overcome trade and marketing barriers. This program is 
carried out through commodity organizations and agricultural trade 
associations.
    Market Access Program (MAP).--The budget provides funding for MAP 
in 2002 at the maximum authorized level of $90 million, unchanged from 
fiscal year 2001. Under MAP, CCC funds are used to reimburse 
participating organizations for a portion of their costs of carrying 
out overseas marketing and promotional activities.
    Public Law 480.--For fiscal year 2002, the budget includes a total 
program level for all titles of Public Law 480 food assistance of $995 
million, which is expected to provide approximately 2.7 million metric 
tons of commodity assistance. In the case of Public Law 480 Title I 
credit sales, appropriated funding has been continued at the fiscal 
year 2001 level. However, the Title I credit level is reduced due to 
higher estimated subsidy costs for the program which result from 
changes in assumed county allocations and financial terms.
    Export Enhancement Program (EEP).--World supply and demand 
conditions have limited EEP programming in recent years. However, the 
fiscal year 2002 budget does include a program level of $478 million 
for the EEP, the maximum level authorized, and the awarding of EEP 
bonuses can be resumed whenever market conditions warrant.
    Dairy Export Incentive Program (DEIP).--The budget assumes a DEIP 
program level of $42 million for fiscal year 2002, slightly above the 
fiscal year 2001 estimate of $34 million. These levels are reduced from 
those of recent years. A major factor in the decline is the sharp drop 
since 1999 in the average subsidy rate for nonfat dry milk, the largest 
category of dairy products exported under DEIP. This development 
reflects higher world prices for nonfat dry milk and greater 
competitiveness for U.S. product in world markets.
    The future offers continued opportunity for expansion of U.S. 
agricultural exports and trade. Strengthening our ability to compete 
globally has the direct payoff of increasing farm incomes and 
supporting rural economies.
    Mr. Chairman, this concludes my statement. I will be glad to answer 
any questions.
                                 ______
                                 

                 Prepared Statement of Phyllis W. Honor

    Mr. Chairman and members of the Subcommittee, I am pleased to 
testify in support of the President's fiscal year 2002 budget for the 
Risk Management Agency (RMA). The first year of the new millennium was 
a very good one for RMA and the farmers we serve. During it, we 
provided farmers approximately $34.3 billion of protection on nearly 
205 million acres through 1.3 million policies. Loss payments to hard 
hit farmers totaled almost $2.5 billion. Further, with crop insurance 
guaranteeing a minimum, farmers across the nation were able to obtain 
operating loans and market their crops more aggressively.
    Building upon the increased levels of participation in recent 
years--Congress passed the Agricultural Risk Protection Act of 2000 
(ARPA). Title I of that law contains a five-year, $7 billion initiative 
to make higher levels of protection more affordable and useful to 
producers, provide better protection to farmers suffering multi-year 
losses, expand risk management education opportunities, stimulate 
development of new risk management products, and improve program 
integrity.
    Within days of enactment last June, RMA issued a package of 
administrative actions that lowered 2001 farmer-paid premiums and 
implemented other key provision of the new legislation. Most of these 
changes were finalized by RMA before the June 30 contract change date 
for fall-planted crops. As a result, farmers planting crops last fall 
immediately benefitted from higher levels of protection at less cost.
    Under ARPA, revenue insurance plans will be much more affordable 
because premium subsidy now applies to both yield and price risks 
covered by the policy. Prior to the new law, producers paid 100 percent 
of the rate associated with the price. Further, changes to the Actual 
Production History (APH) system will help producers suffering multi-
year losses retain a reasonable amount of insurance protection. The new 
APH provisions allow producers to substitute 60 percent of the 
applicable transitional (county average) yield (T-yield) when their 
actual yields are lower than 60 percent of that T-yield. This change 
can increase yield guarantees and protect producers who have suffered 
multiple losses by providing more coverage while continuing to assess 
premiums proportional with the additional risk.
    RMA also acted to implement changes to the insurance fee structures 
required by ARPA and amended the Standard Reinsurance Agreement to 
lower the expense reimbursement that private insurance providers 
receive for servicing catastrophic risk protection policies.
    With the first wave of actions completed, we have begun 
implementing many of the more complex and forward-reaching provisions 
of Title I aimed at expanding the crop insurance system, facilitating 
innovation, and improving program oversight. Some of these will unfold 
over the next several months, some over the next several years. Today, 
I would like to highlight our recent progress in implementing ARPA.
  --Improving Program Integrity.--RMA has been working closely with the 
        Farm Service Agency (FSA) to address training of FSA personnel, 
        consultation with FSA State Committees, claims audit, fraud 
        referrals, and data reconciliation. Five teams were developed 
        to resolve operational details--they focused their tasks on 
        developing internal communications and procedures for the two 
        agencies to work together at the field level. As required by 
        ARPA, a Coordinated Plan for Implementation was developed and 
        signed by Secretary Glickman on January 12, 2001, and presented 
        to the crop insurance industry on January 18, 2001. The teams 
        were then expanded to include insurance company participants.
      --RMA plans to spend approximately $2.25 million over the next 
        year to provide anti-fraud and loss adjustment training to 
        about 2,500 county and State FSA personnel. RMA compliance and 
        oversight training began in late March, and included review of 
        the Consultation, Referrals, and Claims Audit procedures. These 
        procedures were developed into a handbook that will be 
        distributed in April.
      --In the data mining area, RMA entered a $5 million contract with 
        Tarleton State University to develop systems and technologies 
        to identify indicators of waste, fraud, and abuse. Once the 
        data mining capability is implemented, RMA field offices and 
        FSA county offices will be able to forward potential fraud, 
        waste, and abuse cases to investigative offices. The data 
        management technologies will allow RMA to easily query over 25 
        million records to assess the need for individual analysis. 
        Data mining will make compliance verification more accurate, 
        efficient, and timely, thus allowing RMA to oversee a greatly 
        expanded program.
  --Research and Development.--RMA is currently implementing changes in 
        program development required by ARPA. The bill requires the 
        research and development of new risk management programs 
        through partnerships and contracts. A comprehensive training 
        program has been set in motion to provide a series of classes 
        on contracting skills. These classes will give RMA staff needed 
        information and skills to move forward in developing contract 
        vehicles to implement ARPA. RMA is also working to retool its 
        workforce and equip them with the knowledge and skills 
        necessary to be successful in the new culture and way of doing 
        business.
      --The training that has been provided to date has already had 
        significant impact on RMA's ability to accomplish tasks via 
        contract. For example, RMA awarded four contracts to help 
        develop new plans of crop insurance for currently insured 
        crops, new crop policies, and new types of risk management 
        programs. The contractors selected will help develop new 
        products using these tentative priorities: Pasture, Rangeland 
        and Forage Program, Cost of Production Policy, Revenue Coverage 
        Plans (report), Multi-Year Coverage (report), California Fresh 
        Vegetables, Cotton Quality Adjustment, Cotton Boll Weevil 
        Eradication (study), Tropical Crops and Trees, Coverage for 
        Direct-Marketed Crops, Organic Crops (report), and Silage 
        Sorghum Program (insurance of dual-purpose sorghum harvested as 
        silage).
  --Dairy Options Pilot Program (DOPP).--RMA announced a major 
        expansion of DOPP, the innovative cost-sharing program that 
        helps dairy farmers put a ``floor'' under the price they 
        receive for milk using the options markets. USDA subsidizes 
        both premiums and brokerage fees for participating dairy 
        farmers. USDA will spend about $24 million over the next two 
        years expanding this program. The program will expand from 61 
        counties to 300 counties in 39 States. A full list of 
        participating counties is available at www.rma.usda.gov.
  --Education and Risk Management Assistance.--ARPA provisions include 
        expanding risk management education and providing special 
        emphasis to under-served regions. To comply with the 
        requirements of ARPA, RMA provided $5 million to the 
        Cooperative State Research, Education, and Extension Service 
        this spring for the purpose of educating agricultural producers 
        about the full range of risk management activities. These 
        activities include futures, options, agricultural trade 
        options, crop insurance, cash forward contracting, debt 
        reduction, production diversification, farm resources risk 
        reduction, and other risk management strategies.
      --With input from regional universities, State departments of 
        agriculture, grower organizations, crop insurance and farm 
        credit businesses, and other USDA offices, RMA developed, and 
        is currently implementing, a five-year strategic plan and one-
        year action plan outlining the direction and focus of risk 
        management education plans and activities for 15 under-served 
        States. The program will be delivered primarily through these 
        private partners, allowing RMA to leverage the effectiveness of 
        Federal funding with the unique resources and local expertise 
        of these groups. A key initial focus was on encouraging the use 
        of the Adjusted Gross Revenue, or ``whole farm'' insurance in 
        these areas. The announcement by Secretary Glickman of the 
        following 15 under-served States allowed RMA to hit the ground 
        running. The under-served States include: Maine, Vermont, New 
        Hampshire, Massachusetts, Rhode Island, Connecticut, New York, 
        New Jersey, Pennsylvania, Maryland, Delaware, West Virginia, 
        Nevada, Utah, and Wyoming.
      --In addition, RMA has developed one-year action and five-year 
        strategic plans which target producers of specialty crops and 
        under-served commodities. RMA has and continues to partner with 
        public and private sector organizations who have the capacity 
        to reach these producers with local level educational programs 
        such as workshops and training sessions.
              administrative and operating (a&o) expenses
    Discretionary account expenses are estimated to increase by $9.3 
million from the fiscal year 2001 level of $65.5 million. This increase 
includes $2.8 million for data mining, data warehousing, and other data 
management technologies to increase compliance and integrity of the 
crop insurance program; $1.8 million for training and travel costs 
related to increased and revised responsibilities of RMA personnel; 
$1.6 million for public information and civil rights activities aimed 
at increasing participation in the crop insurance program of women and 
minorities, and ensuring that under-served and socially disadvantaged 
producers have full access to RMA programs; $1.7 million for 
information technology data systems to meet additional and increasing 
demands of the ARPA requirements; and $1.4 million for pay costs, of 
which $351,000 is for the annualization of the fiscal year 2001 pay 
raise and $1.1 million is for the anticipated fiscal year 2002 pay 
raise.
                               fcic fund
    The fiscal year 2002 budget for the FCIC Fund proposes an estimated 
$232.3 million increase in program spending over the fiscal year 2001 
estimate of $2.8 billion.
    Premium subsidy is expected to increase by $190.2 million due, in 
part, to an estimated increase in participation. The premium subsidy 
provided by the Federal government ranges from 38 to 67 percent, 
depending on coverage levels. The government pays 100 percent of the 
catastrophic coverage (CAT) premium. The $1.9 billion in premium 
subsidy, of which $232.2 million is for CAT and $1.7 billion is for 
additional coverage, assists in providing producers a cost-effective 
means of managing their risk.
    Delivery expenses, or administrative and operating expense 
reimbursements provided to approved insurance providers, are based on 
24.5 percent of the estimated total premium for most non-CAT policies 
in fiscal year 2002 in accordance with the Agricultural Research, 
Extension, and Education Reform Act of 1998. As a result of increased 
total premium, RMA anticipates delivery expenses in the amount of 
$677.8 million, compared with the fiscal year 2001 estimate of $461.2 
million.
    RMA also expects excess losses, which are based on calculations of 
increased premium and program losses, to increase by $48 million to a 
level of $408 million. This estimate supports a loss ratio of 1.075 and 
is authorized under the appropriation language ``such sums as may be 
necessary.'' Without these funds, which directly support the mission 
and goal of the Agency, FCIC would be unable to fully fund expected 
indemnities, thereby weakening producers' safety net.
    The fiscal year 2002 budget assumes $58 million to fund ARPA 
initiatives. The $58 million includes funds for: improving program 
compliance and integrity ($3.5 million), research and development ($30 
million), pilot programs for livestock and wild salmon ($11 million), 
education and risk management assistance ($10 million), and policy 
consideration and implementation ($3.5 million).
                               conclusion
    Congress first authorized Federal crop insurance in the 1930s along 
with other initiatives to help agriculture recover from the combined 
effects of the Great Depression and the Dust Bowl. FCIC was created in 
1938 to carry out the program and, initially, was started as an 
experiment. Crop insurance activities were mostly limited to major 
crops in the main producing areas.
    Within the past decade, covered acres have increased from 80 
million to over 200 million, from one insurance product to dozens, from 
a few crops to approximately 120. The program has nearly quadrupled in 
size. In 1999 and 2000, insurers quickly and efficiently paid out in 
excess of $4.8 billion to cover losses of farmers.
    At the same time RMA is directing a growing program, we are 
dramatically changing the way in which we bring new products to market, 
conduct outreach, and provide oversight. The ARPA has improved the 
program's ability to be a broad and effective means for producers to 
manage their production risk. RMA has responded deliberately and 
methodically to this challenge, and we believe we are well on track to 
implement the new provisions in a timely and farmer-friendly way. We 
are committed to providing producers with effective crop insurance 
coverage at an affordable price. Crop Insurance is one of the tools of 
a farm safety net that can best help farmers deal with the changing 
nature of agriculture in the 21st century.
    We appreciate your continued support as we transform our Agency and 
our programs to better serve the risk management needs of the American 
farmer.
                                 ______
                                 

   Prepared Statement of Mattie R. Sharpless, Acting Administrator, 
                      Foreign Agriculture Service

    Mr. Chairman, members of the Subcommittee, I appreciate the 
opportunity to review the work of the Foreign Agricultural Service 
(FAS) and to present the President's budget request for FAS programs 
for fiscal year 2002.
U.S. Trade Prospects
    U.S. agricultural exports rebounded to $50.9 billion in fiscal year 
2000, an increase of $1.7 billion over 1999. FAS expects this trend to 
continue in fiscal year 2001, with agricultural exports forecast to 
reach $53 billion, up $2.1 billion over fiscal year 2000. Much of the 
gain is expected in Asia, as that region's economic growth continues to 
rebound from the financial crisis of 1997-99. Export prospects are 
promising in both value and volume terms for most major commodities, 
including corn, wheat, soybeans, soybean meal, livestock products, and 
horticultural products.
    The FAS mission remains constant: we are committed to expanding 
export opportunities for U.S. agricultural, fish, and forest products, 
and to helping in the alleviation of world hunger and food insecurity. 
Given today's budgetary environment, these goals must be accomplished 
through better public/private sector collaboration, strategic planning, 
greater use of technology, and resource management.
FAS Program Activities
    To support our goal of expanding export opportunities for U.S. 
agricultural, fish, and forest products, we continue to use our long-
standing export programs vigorously. For example, the export credit 
guarantee programs facilitated sales of more than $3 billion in U.S. 
agricultural products last year. The GSM-102 program helped U.S. 
exporters register sales of more than $400 million to Indonesia despite 
that country's economic uncertainties. The program helped U.S. 
exporters continue to develop markets in the Andean region, with U.S. 
sales of over $122 million worth of feed grains and $100 million of 
wheat. The GSM-103 program helped U.S. exporters sell over $13 million 
worth of wheat to Jordan and to re-enter the grain market in Tunisia 
with sales of $9 million. The Supplier Credit Guarantee Program was 
used for the first time by importers in West Africa and Central 
America, resulting in sales of over $18 million to buyers in the West 
Africa Region, and about $14.5 million to buyers in Central America. 
The first guarantee was issued under the Facility Guarantee Program for 
a project to improve a grain elevator in the port of Veracruz, Mexico. 
When this project is completed, the facility will increase its capacity 
to import bulk grains from 5,000 to 20,000 tons per hour. It is 
expected to handle nearly 19 million tons of grain between fiscal year 
2000 and fiscal year 2004, with about 87 percent of it coming from the 
United States.
    With the aid of the Dairy Export Incentive Program (DEIP), U.S. 
exporters sold more than 95,000 tons of dairy products in fiscal year 
2000. The Commodity Credit Corporation awarded more than $78 million in 
bonuses to help U.S. dairy exporters meet prevailing world prices and 
develop foreign markets. Use of the Export Enhancement Program was 
limited in 2000 because of market conditions, with bonuses of about 
$1.6 million awarded for sales of more than 2,500 tons of frozen 
poultry.
    We continue to stress the importance of market development. In 
2000, we allocated $90 million to 65 U.S. trade organizations, State 
regional groups, and cooperatives for export promotion activities under 
the Market Access Program (MAP), and allocated $27.5 million to 25 
trade organizations under the Foreign Market Development (FMD) program.
    The Cochran Fellowship Program provides USDA with a unique 
opportunity to educate foreign governments and private sectors, not 
only about U.S. products, but also about U.S. regulations and policies 
on critical issues such as food safety and biotechnology. FAS 
introduced 735 Cochran Fellows from over 75 countries to U.S. products 
and policies in 2000. These Fellows met with U.S. agribusinesses; 
attended trade shows, policy and food safety seminars; and received 
technical training related to market development.
    On the trade policy front, USDA works to open, expand, and maintain 
markets for U.S. agriculture. FAS was a key player in the successful 
launch of negotiations in March 2000 to further liberalize global 
agricultural trade under the World Trade Organization (WTO). In June 
2000, the United States presented its comprehensive proposal to 
establish a framework for the new agricultural negotiations. In June 
2000, the United States tabled a credible and well-received 
comprehensive proposal which called for the substantial reduction of 
tariffs and trade-distorting domestic support, and the elimination of 
export subsidies.
    FAS continues to monitor aggressively foreign countries' compliance 
with Uruguay Round Agreement commitments. In calendar year 2000, the 
United States raised significant compliance issues with other WTO 
members, addressing policies that affected about $450 million in U.S. 
agricultural trade.
    To support both our export mission and our food security mission, 
we have used food aid to move commodities from the U.S. marketplace to 
needy people around the world.
    Over the past two years (fiscal year 1999 and fiscal year 2000 food 
aid programs), FAS programmed more than 12 million metric tons in food 
aid to help feed millions of hungry people in more than 80 countries 
around the world--from the unprecedented assistance package for Russia 
to food relief for Kosovo refugees, famine victims in North Korea, and 
hurricane victims in Central America and the Caribbean. Total U.S. 
contributions accounted for more than 75 percent of total global 
emergency food aid to the Horn of Africa this past year, helping to 
avert large-scale starvation.
    Under the authority of Section 416(b) of the Agricultural Act of 
1949, as amended (Section 416), the Commodity Credit Corporation (CCC) 
donated about $500 million worth of commodities in fiscal year 2000, 
including about 2.6 million tons of wheat and wheat products; 168,000 
tons of corn; 141,000 tons of rice; 130,000 tons of soybean oil; and 
26,000 tons of non-fat dry milk. These U.S. surpluses were put to good 
use, helping to relieve hunger and suffering abroad.
    Concessional sales under Public Law 480, Title I, totaled about 1 
million metric tons in fiscal year 2000, including 500,000 metric tons 
of U.S. corn; 163,000 tons of soybean meal; more than 150,000 tons of 
wheat; and 135,000 tons of rice, among other products. These 
commodities, valued at an estimated $157 million, went to eight 
countries. Another 413,000 tons of various U.S. commodities were 
donated to 12 countries under the Food for Progress program, with Title 
I-funded Food for Progress donations accounting for almost two-thirds 
of this tonnage.
    In addition, we have undertaken a pilot Global Food for Education 
(GFE) Initiative. This year, USDA is donating approximately 630,000 
metric tons of surplus U.S. agricultural commodities for use in school 
feeding and pre-school nutrition projects in developing countries. 
School feeding programs help assure that children attend and remain in 
school, improve childhood development and achievement, and thereby 
contribute to more self-reliant, productive societies.
    In addition to our food aid activities, FAS continues to serve as 
the coordinator for the U.S. Government's food security committee. Last 
September, we issued a national food security progress report that 
outlines how the United States is working to address our international 
and domestic food security goals.
Priorities for fiscal year 2001 and fiscal year 2002
    Faced with competing demands for budgetary resources, a strong U.S. 
dollar and continued aggressive spending on market promotion by our 
competitors, we must redouble our efforts to improve the outlook for 
U.S. agricultural exports. For this year, we plan to continue to:
  --Pinpoint constraints to exports of U.S. agricultural, fish, and 
        forest products;
  --Work to remove trade barriers and trade-distorting practices;
  --Safeguard U.S. agricultural interests by advocating strongly U.S. 
        policies in the international community;
  --Help producers, processors, and exporters to strengthen their 
        export knowledge and skills;
  --Ensure that the U.S. farm, forest and fishery sectors have timely 
        and complete intelligence about emerging market opportunities;
  --Inform foreign buyers about the superior quality and reliable 
        quantities of agricultural products offered by U.S. producers, 
        and educate them about how to locate U.S. products;
  --Use our export credit guarantee programs to reach new customers for 
        U.S. agriculture;
  --Use our food aid authorities to help hungry people overseas and 
        farmers here at home;
  --Use USDA export assistance programs, such as the Foreign Market 
        Development Program and the Market Access Program, effectively 
        to pursue export opportunities; and
  --Work with emerging markets and developing countries to promote 
        economic development to help meet the U.S. commitment to reduce 
        by half the number of food insecure persons by 2015.
    I would like to take a few moments to discuss our top priorities 
for fiscal years 2001 and 2002.
    At the top of our list is moving forward in the multilateral trade 
negotiations on agriculture under the WTO. With the submission of our 
comprehensive proposal last June, the United States has taken a leading 
role in the WTO negotiations underway in Geneva. The WTO multilateral 
negotiations are the best place to address needed reforms in world 
agriculture because it is only in the WTO that we have broad 
disciplines on market access, subsidies, and technical measures.
    As part of the negotiating process, we must engage the developing 
world in the creation and implementation of appropriate trading rules 
and guidelines. This undertaking will take time, but it will be worth 
the investment. These countries represent our future growth markets. If 
we are to realize our goal of liberalizing trade through multinational 
bodies such as the WTO, we cannot ignore the concerns of developing 
countries, which make up the majority of WTO members.
    We also will continue to work with the countries that would like to 
join the WTO. While membership in the WTO is a high priority, we will 
continue to insist that these accessions be made on commercially viable 
terms that provide trade and investment opportunities for U.S. 
agriculture. This means that acceding countries will need to implement 
trade policies and regulations that are fully consistent with WTO rules 
and obligations.
    China is a perfect illustration of this strategy. Although we are 
pleased with the U.S.-China accession agreement, and with China's bid 
for WTO accession nearing completion, soon our work will shift toward 
implementation of the agreements. Chinese concessions will be important 
for improved access opportunities; but we must remain vigilant and work 
with Chinese officials to ensure market opening.
    With more than 1.2 billion people, or one-fifth of the world's 
population, China's accession to the WTO will give U.S. agriculture 
access to the world's second largest economy in terms of domestic 
purchasing power. This could result in at least $2 billion in 
additional U.S. agricultural exports by 2005.
    China's WTO accession will strengthen the global trading system, 
slash barriers to U.S. agriculture, give U.S. farmers and 
agribusinesses stronger protection against unfair trade practices and 
import surges, and create a more level and consistent playing field in 
this market.
    In order to realize these gains, we will be vigilant to ensure that 
China lives up to its WTO commitments, effectively administers tariff-
rate quotas, eliminates discriminatory licensing, and fully implements 
the Agricultural Cooperation Agreement reducing phytosanitary barriers 
for citrus, wheat, and meat.
    Another important area of work for FAS is the negotiation to 
establish the Free Trade Area of the Americas (FTAA). The FTAA is 
intended to be a comprehensive free trade agreement between the 34 
democracies in the Western Hemisphere. Negotiations began in 1998 and 
are expected to conclude by 2005. By concluding the FTAA, the United 
States will gain liberalized access to a region of 675 million people 
with a combined consumer buying power of $1.5 trillion.
    For several years now, the other countries in this hemisphere have 
been removing trade barriers to each other's trade. There are currently 
more than 30 reciprocal trade agreements in the hemisphere. The United 
States is a participant in only one, the North American Free Trade 
Agreement (NAFTA). USDA's analysis shows that if the United States 
remains outside of this process, our agricultural exports to the region 
will be displaced by other hemispheric suppliers at a cost of about 
$200 million a year. On the other hand, U.S. participation in these 
agreements could mean an increase in agricultural exports of around 
$750 million annually. However, this negotiation will be particularly 
challenging since the Latin American countries are also major 
agricultural exporters.
    We also are actively participating in the Asia Pacific Economic 
Cooperation (APEC) forum. Asia represents an important market for U.S. 
agriculture; and we are working with other APEC members to promote 
economic policies in the region to moderate economic shocks like the 
Asian economic crisis of 1997-98. We expect APEC to serve as the 
launching point for promoting continued trade liberalization within the 
region and in the WTO and we will be working through the APEC food 
system to realize this goal.
    Another priority is how we deal with the issues surrounding 
products produced through biotechnology. There is a lot to say about 
what is happening in the biotechnology field and how it is affecting 
trade. I could go on at length to describe our efforts at USDA to try 
to stay on top of the issue or to ensure that government actions on 
labeling and product approval in Japan, the European Union, Korea, 
Australia, New Zealand, and elsewhere, do not lead to irrational 
policies that reduce market access for U.S. commodities.
    But I believe that events of the past year have resulted in an 
environment for biotech products that is as unsettled as it has ever 
been during the short commercial life of this new technology. The 
demand by some users for non-biotech commodities only, the resulting 
calls for segregation by some handlers, and the indications that 
premiums and discounts may be appearing for non-biotech vs. biotech 
commodities are bound to have an effect on farmers' decisions regarding 
what to plant next year.
    This issue is likely to be a dominant one for U.S. agriculture in 
the immediate years ahead, whether in the WTO or in our bilateral 
relationships with customer and competitor nations alike. That is why 
we have said that when it comes to biotechnology and the next trade 
round, our focus will be in making sure that biotech approval regimes, 
wherever they exist, are transparent, timely, predictable, and science-
based.
    We also will be working to improve the way we carry out our market 
development programs. FAS is currently in the process of refining its 
global marketing strategy that will target those markets that offer the 
most growth opportunity. To capture the opportunities and address the 
challenges that lie ahead, FAS needs to build on the considerable 
progress it has made in the past three and a half years in implementing 
strategic planning at all levels of the Agency.
    We must protect our hard-won gains in mature markets of Western 
Europe and Japan, and at the same time, set aggressive but achievable 
growth targets in those markets that offer the most potential. This 
will require a thorough evaluation of the U.S. opportunities and 
challenges in those markets, and close coordination with our private 
industry partners to turn the opportunities to our advantage and the 
challenges into opportunities. In the next 10 years, the growth markets 
are likely to be the developing countries in Asia (especially China and 
South East Asia, and possibly India) and Latin America. Gaining market 
share in these high-growth markets is the most effective way to 
increase market share globally.
    Our global marketing strategy is also instrumental in our ongoing 
review of our overseas office locations and staffing. We must continue 
to strengthen our staffing in FAS overseas offices to ensure that we 
are positioned to take advantage of the market opportunities created by 
our market access initiatives as well as new opportunities offered by 
emerging growth markets.
    Alleviating hunger and malnutrition in the world also presents a 
significant challenge. One means to ensure this issue is addressed 
appropriately is to identify within the global marketing strategy the 
food security challenges that currently exist and are likely to emerge 
over the next decade. We will continue to use our food aid programs to 
help developing countries that lack the financial means to meet their 
food needs.
Budget Request
    After three consecutive years of essentially straight-lined 
budgets, we appreciate the increases provided in the fiscal year 2001 
appropriation for FAS. The net increase of just under $6.0 million 
allows FAS to fund fiscal year 2001 pay cost increases fully and 
partially cover higher overseas operating costs. Additionally, FAS is 
able to add 15 staff years for food aid and monetization activities, as 
well as increase our overseas staff in Ukraine and the Balkans.
    We believe the future offers continued opportunity for the 
expansion of U.S. agricultural exports. Strengthening our ability to 
compete globally has the direct payoff of increased farm income for 
America's farmers and ranchers and the continued economic development 
of rural communities. Our fiscal year 2002 request builds on the 
foundation provided by this Committee in fiscal year 2001.
    Mr. Chairman, the fiscal year 2002 budget proposes a funding level 
of $125.8 million for FAS. This represents an increase of $6.4 million 
and supports several important agency initiatives.
    First, in order to strengthen the agency's market intelligence 
capabilities at our overseas posts, $2.7 million is requested to place 
3 new American officers and 27 new foreign service nationals on 
Personal Services Agreements (PSAs) in 14 overseas locations where 
workload demands have become acute. Over the past several years, FAS 
overseas offices have experienced dramatic increases in workload, 
particularly that associated with complex trade policy, sanitary and 
phytosanitary, and food security issues. Meeting these priority 
workload demands, in addition to regular commodity reporting, 
marketing, and representation functions, has overwhelmed the capacity 
of many of our offices in important geographic areas.
    As an example, under the bilateral agreement reached with China 
relating to its accession to the WTO, U.S. agriculture should have 
increased access for a range of products with lowered tariffs, as I 
mentioned earlier. However, existing staff is overwhelmed with requests 
for commodity and market intelligence, intervention on sanitary and 
phytosanitary (SPS) issues, and official and commercial visitors. FAS 
has assigned an officer to monitor the agreement, but has no marketing 
officer ready to identify potential opportunities and work with the 
private sector to take advantage of them. Currently, FAS simply lacks 
the staff resources needed to handle these opportunities--a situation 
repeated in numerous locations around the world.
    The PSAs would assume a greater portion of core office 
responsibilities, thus allowing FAS Agricultural Counselors and 
Attaches more flexibility to focus on the government policies and 
issues that can affect the competitiveness of U.S. exports, 
particularly competitor activities within that market, host country 
compliance with existing trade rules, and the formation of cooperative 
links for the upcoming WTO trade round. Increased resources will be 
directed to China, Philippines, Canada, Colombia, Thailand, Israel, 
Turkey, El Salvador, Korea, Brazil, Russia, Argentina, Nigeria and 
India.
    Second, the budget requests $750,000 and 10 additional staff years 
to improve FAS' ability to address and resolve technical trade issues. 
Technical trade issues, such as the commercialization of food products 
produced using biotechnology, have become the fastest growing and most 
sensitive trade issues in U.S. agriculture today and is one of the 
Agency's key priorities that I mentioned earlier. In addition to 
biotechnology, U.S. agriculture and our exporters are facing other 
critical challenges related to technical issues associated with food 
safety, changing production methods to address environmental concerns, 
the growing global concern over Bovine Spongiform Encephalopathy (BSE) 
or mad cow disease, and the expansion of foot and mouth disease. In all 
cases, FAS is responsible for ensuring regulatory actions taken by our 
trading partners do not impede our exports and comply with the WTO SPS 
disciplines. However, existing staff levels only allow FAS to react, on 
a piecemeal basis, to immediate issues such as StarLink and the BSE 
outbreak in the European Union.
    The additional 10 staff years requested will allow FAS to develop a 
cohesive strategy for addressing technical market access issues in 
current major markets and facilitating our entry into newer growth 
markets. Among other things, staff will be dedicated to developing a 
strategy for building a coalition of countries important to 
negotiations and discussions in international organizations. This 
represents an opportunity to avoid future market access issues by 
establishing relationships with appropriate government departments and 
officials. Developing a core group of countries with similar approaches 
to food safety and biotechnology will be crucial to the United States 
meeting its goals in international fora.
    Finally, the budget includes $2.9 million to fund projected pay 
cost increases in fiscal year 2002. Budget constraints forced FAS to 
absorb pay costs in three of the past four fiscal years. Absorption of 
these costs in fiscal year 2002 would constrain programs.
Export Programs
    Mr. Chairman, the export promotion, food assistance and foreign 
market development programs administered by FAS are key to expanding 
global market opportunities for U.S. agricultural producers. Our 
program proposals provide the tools to meet these new sales 
opportunities.
    Export Credit Guarantee Programs.--The budget includes a projected 
overall program level of $3.9 billion for export credit guarantees in 
fiscal year 2002. As in previous years, the budget estimates reflect 
actual levels of sales expected to be registered under the programs 
rather than authorized program levels. Of the total program level, $3.4 
billion will be made available under the GSM-102 program and $100 
million will be made available under the GSM-103 program. For supplier 
credit guarantees, the budget includes an estimated program level of 
$330 million and an estimated program level of $95 million for facility 
financing guarantees.
    Foreign Market Development.--The fiscal year 2002 budget includes 
Commodity Credit Corporation (CCC) funding of $27.5 million for the 
Foreign Market Development (Cooperator) Program, unchanged from last 
year. The CCC estimates also include $2.5 million in funding from CCC 
for the Quality Samples Program. Under this program, samples of U.S. 
agricultural products are provided to foreign importers in order to 
overcome trade and marketing barriers by promoting a better 
understanding and appreciation of the high quality characteristics of 
U.S. agricultural products. The Quality Samples Program is carried out 
through commodity organizations and agricultural trade associations.
    Market Access Program (MAP).--The CCC estimates provide funding for 
MAP in fiscal year 2002 at the maximum authorized level of $90 million, 
unchanged from fiscal year 2001.
    Public Law 480.--For fiscal year 2002, the budget includes a total 
program level for all titles of Public Law 480 food assistance of $995 
million, which is expected to provide approximately 2.7 million metric 
tons of commodity assistance. In the case of Public Law 480 Title I 
credit sales, appropriated funding has been continued at the fiscal 
year 2001 level. However, the Title I credit level is reduced due to 
higher estimated subsidy costs for the program which result from 
changes in county allocations and financial terms.
    Export Enhancement Program (EEP).--World supply and demand 
conditions have limited EEP programming in recent years. However, the 
fiscal year 2002 budget does include a program level of $478 million 
for the EEP, the maximum level authorized by the Agricultural Trade Act 
of 1978, and the awarding of EEP bonuses can be resumed whenever market 
conditions warrant.
    Dairy Export Incentive Program (DEIP).--The budget assumes a DEIP 
program level of $42 million for fiscal year 2002, slightly above the 
fiscal year 2001 estimate of $34 million. These levels are reduced from 
those of recent years for a number of reasons. Foremost among these 
reasons is the fact that the average subsidy rate for nonfat dry milk, 
the largest category of dairy products exported under DEIP, has 
declined from $1,040 per metric ton in fiscal year 1999 to a rate of 
$121 per metric ton during the first 6 months of fiscal year 2001. This 
development reflects higher world prices for nonfat dry milk and 
greater competitiveness for U.S. product in world markets.
    This concludes my statement, Mr. Chairman. I will be glad to answer 
any questions.

    Senator Cochran. Mr. Collins, we would be pleased to hear 
from you now.

                       STATEMENT OF KEITH COLLINS

    Mr. Collins. Thank you very much, Mr. Chairman, Mr. Kohl, 
and Mr. Johnson. Thanks for the invitation to join you today in 
your review of farm and trade programs.
    I, too, would say I am delighted to be here to join with 
Mr. Shipman, who as you know, has brought high energy, a quick 
wit and most importantly, I think, a good nature to the USDA. 
And so we are pleased to have him.
    You asked me to briefly describe the state of the overall 
farm economy and I am going to do that by first discussing a 
few positive developments and then as economists should do, 
offering a few concerns.
    Despite the downturn in farm markets since 1997, there are 
some encouraging signs in the farm economy, and Mr. Shipman 
just ended on one of them, and that is U.S. agricultural 
exports, which two years ago were $49 billion, last year $51 
billion and this year we expect $53 billion, with much of this 
year's gain in high value and value-added products, such as 
meats and horticultural products.
    I would point out: Our expected exports to Canada and 
Mexico this year. We are forecasting them to reach $15.2 
billion. If you go back to 1996, when we had our all-time 
record high level of farm exports of $60 billion, our exports 
to our NAFTA partners in that year were only $11 billion. So we 
are gaining materially here in the western hemisphere.
    A second encouraging sign is that some of the global crop 
markets are beginning to move toward better supply and demand 
balance.
    And I will give you an example; look at total world grain 
stocks at the end of this marketing year. We are expecting them 
to be 240 million tons. If you go back to 1998 marketing year, 
they ended at 280 million tons
    So the current level of stocks is not excessive by 
historical standards and it does suggest if there were to be 
some material disruption in production around the world, we 
could have a sharp boost in grain prices.
    A third encouraging sign is that U.S. producers appear to 
be reducing plantings of major crops in response to a little 
bit lower net market returns.
    Last year, in fact, planted acreage to the principal crops 
rose. This year producers have indicated plans to reduce crops 
such as corn by four percent and in total area in principal 
crops by about 3.5 million acres or 1.5 percent.
    A fourth encouraging sign is that livestock prices and 
returns for the most part are up. In fact, we just reported 
that cash receipts for livestock and poultry for the year 2000 
were a record high.
    We saw record high beef production in the year 2000, and at 
the same time we saw fed cattle prices average $70 per hundred 
weight, which would be an unusually propitious experience for 
our nation's cattle ranchers.
    Hog receipts were also up 37 percent in the year 2000. And 
despite being very weak last year, we think that this year milk 
prices will average the fourth highest level ever.
    A fifth encouraging sign has been a strong rural economy, 
providing off-farm job opportunities for farmers and ranchers. 
Today, four out of five farm households have one or more 
spouses earning income off the farm.
    This and the strength of the national economy have boosted 
farm household incomes and made many farm households less 
vulnerable to downturns in the farm economy.
    Well, despite these encouraging signs, a strong rebound in 
market returns for major crops is probably not likely without a 
significant weather disruption around the world or an 
unexpected surge in demand this year. And that is because there 
are a few not so encouraging signs in the farm economy.
    One of those on the export front is simply the overall 
global economy, which is now growing at a much slower rate than 
most analysts expected at the start of this year.
    A second problem we have is the exchange value of the 
dollar, which remains very high relative to the mid-1990s. And 
that, of course, prevents people who import our products from 
seeing the full discount that they would otherwise see in our 
prices.
    And it also insulates our competitors from declines in farm 
prices as well. And I will give you as an example soybeans, 
where we see right now a 25-year low in the soybean price, and 
yet soybean production in Brazil and Argentina has increased 20 
percent over the past 2 years.
    Another discomforting factor is the price of energy-based 
farm production inputs. Last year, high gasoline and diesel 
prices raised farm production expenses for energy-based inputs 
by $2.9 billion.
    And I think this year we are going to see a similar 
increase of that magnitude, something on the order of a $5 
billion to $6 billion increase over a 2-year period in energy-
based production expenses.
    Another factor of concern is the dependence of farm income 
on government payments. Last calendar year, farmers received a 
record high $22 billion.
    This year we expect that to fall to $14 billion, with part 
of that decline due to the ongoing provisions of the 1996 Farm 
Bill, but most of that decline due to reduced supplemental 
assistance payments.
    Although market revenue is expected to be up this year, 
lower government payments--of course, I am assuming that in the 
absence of any legislation at this point--lower government 
payments and higher production costs would reduce U.S. net cash 
farm income by some ten percent.
    And, of course, that projected decline is what has put 
Congress in the position of providing supplemental assistance 
again in 2001.
    I would like to end by just profiling a couple of key 
developments to look for in commodity markets this year. For 
wheat, we have the lowest acreage in 28 years. We also have a 
poor condition in the winter wheat crop. That suggests to me 
that wheat stocks could be drawn down fairly substantially this 
year and we could see stronger prices in 2001 and 2002.
    We also are seeing some shift out of corn this year. And I 
think that combined with very strong feed and industrial use, 
particularly 18 consecutive months of record high ethanol 
production in the United States, will pull corn stocks down in 
the 2001 season and improve corn prices as well.
    However, the record large soybean crop that is in prospect 
for this year--large southern hemisphere crops, as well, could 
push soybean prices even lower.
    Cotton prospective planted area this year is the second 
highest planted area since 1962. And I think that, together 
with the fact that China looks like it is going to be producing 
more cotton has put cotton right now at 25-year lows in price. 
And I think those prices are going to remain under some 
pressure.
    I think the same is true for rice. We have a fairly tight 
market for long-grain rice. However the world has abundant rice 
supplies so that is going to keep pressure on that market.
    For horticultural products, the record is mixed. We have 
several crops like potatoes, cranberries and apples that are 
facing market weakness due to large supplies, but we also 
expect horticultural exports to be record high this year. And 
that is going to benefit some of those commodities.
    As I mentioned earlier, we are seeing stronger markets for 
meats and milk. Animal disease problems in Europe are having a 
small positive effect on our protein feed exports to replace 
meat and bonemeal and, I think, may strengthen slightly our 
exports of pork and poultry as some foreign buyers shift away 
from E.U. beef.
    On balance, Mr. Chairman, there are some hopeful signs and 
U.S. agriculture, including an improving supply/demand balance, 
higher farm prices for some of our major commodities in 
prospect.

                           Prepared Statement

    U.S. farm households have also shown resiliency in 
maintaining their financial position and standard of living 
over the last couple of years. Nevertheless, net income from 
crop markets continues to be the key weak spot in the farm 
economy.
    Thank you.
    Senator Cochran. Thank you, Mr. Collins.
    [The statement follows:]

                  Prepared Statement of Keith Collins

    Mr. Chairman, thanks for the invitation to discuss the current 
situation and outlook for U.S. agriculture. While the overall farm 
situation of the past couple years of generally weak markets continues, 
there are some signs of improvement. Global demand is slowly getting 
better, livestock prices and returns are for the most part up, global 
grain stocks are not excessive when compared with use, and reduced U.S. 
plantings could lead to lower grain stocks and higher prices in 2001. 
Nevertheless, a strong increase in farm prices and income from the 
marketplace for major crops appears unlikely, unless adverse weather 
leads to a shortfall in global crop production. In addition, increases 
in prices for energy-related farm inputs continue to push up farm 
production expenses, and adverse weather is reducing crop production 
prospects and delaying spring planting in some areas.
General Overview
    The U.S. economy has benefitted from income growth, low 
unemployment, surging productivity, low inflation, and low interest 
rates the past several years. While these economic trends have also 
helped farmers and ranchers, other economic factors, such as foreign 
competition, a strong dollar, and economic recession in foreign 
countries reduced U.S. agricultural exports and prices received by 
farmers.
    Our most recent monthly data for April 2001 shows some price 
improvement. The index of prices received by producers for all crops 
was up 4 percent from a year ago and the index of prices received for 
livestock and livestock products was up 11 percent. While farm prices 
are generally up, they are recovering from unusually low levels. For 
the 1999/00 marketing year, the average price of soybeans was the 
lowest since 1972/73, the prices of corn and wheat the lowest since 
1986/87, the price of rice the lowest since 1992/93, and the price of 
cotton the lowest since 1974/75. Cattle and hog prices were also 
relatively weak in 1999 but were up 6 and 31 percent, respectively, in 
2000. Milk prices were relatively strong in 1999 but fell to a 9-year 
low in 2000.
    Many producers, during the last several years, also have been 
adversely affected by weather-related problems and, more recently, 
increases in prices for energy-related inputs. Soil moisture levels 
remain very low in parts of the Southeast, Florida, west Texas, and the 
Northwest. Sierra snow pack levels, which provide water to California's 
reservoirs for electricity generation and farmland irrigation, were 
below normal this past winter. Cool and wet weather is delaying spring 
fieldwork in parts of the Midwest, and below normal rainfall in the 
Southern Plains last fall has adversely affected winter wheat stands 
and increased abandonment.
    Congress responded to the problems caused by low commodity prices 
and adverse weather by authorizing nearly $25 billion in supplemental 
assistance the past three years, greatly limiting the farm financial 
stress that farmers and ranchers would otherwise have faced. These 
supplemental payments, plus payments authorized under the 1996 Farm 
Bill, pushed government payments to a record-high $22 billion in 
calendar year 2000 and Commodity Credit Corporation (CCC ) outlays to a 
record $32 billion in fiscal year 2000. If Congress had not provided 
nearly $9 billion in supplemental assistance, net cash income would 
have likely fallen to $47.5 billion in 2000, the lowest level since the 
farm financial crisis of the mid-1980s. Instead, net cash income 
reached $56.4 billion in 2000, nearly $2 billion above the average of 
the 1990s.
Outlook for U.S. Agricultural Exports
    In the mid-1990s, the value of U.S. agricultural exports rose 
sharply peaking at a record $60 billion in fiscal year 1996, as world 
gross domestic product (GDP) grew at an annual rate of 3 percent and 
global grain and oilseed production fell about 4 percent. Over the next 
3 years, the value of U.S. agricultural exports fell by nearly $11 
billion, as good weather and strong prices led to an abrupt turnaround 
in world crop production and world economic growth, excluding the 
United States, dropped to 1.3 percent. In fiscal year 2001, the value 
of U.S. agricultural exports is forecast to reach $53 billion, up from 
last year's $50.9 billion.
    The outlook for agricultural exports generally appears more 
positive than in recent years. While world GDP, excluding the United 
States, is expected to slow from last year's high rate of nearly 4 
percent, it is expected to continue to remain firm at over 2.5 percent 
in 2001 and above 3 percent in 2002. Several Asian, Latin American, and 
Middle Eastern countries that were in recession in 1998 and 1999 are 
now registering steady growth.
    Another key factor for U.S. agricultural exports is the U.S. 
exchange rate. Between April 1995 and January 2001, the U.S. real 
agricultural trade-weighted exchange rate appreciated by 25 percent 
relative to the currencies of countries that import U.S. agricultural 
products, thus increasing the price importers must pay in terms of 
their own currency. And over this period, the U.S. dollar appreciated 
nearly 40 percent relative to the currencies of U.S. agricultural 
competitors, which helped insulate their producers from lower world 
prices. Declining interest rates and a slowing economy should weaken 
the dollar somewhat in 2001, making U.S. agricultural products modestly 
more attractive to foreign buyers.
Outlook for Farm Income
    In 2001, farm cash receipts are forecast to reach $200 billion, up 
$4 billion from last year and $16 billion from the average of the 
1990s, although $8 billion below the record set in 1997. Compared to 
1997, crop receipts are projected to be down $11 billion in 2001, while 
livestock receipts are forecast to be up about $3 billion. These 
figures mask steep declines in cash receipts and income for major field 
crops. Cash receipts for grains, soybeans, and cotton declined from a 
record $57 billion in 1997 to $43 billion in 2000 but are projected to 
increase slightly to $45 billion in 2001.
    Despite improving cash receipts, USDA currently forecasts a decline 
in net cash farm income in 2001 to under $51 billion, down from $56.4 
billion last year, as production expenses continue to rise and 
government payments decline. This decline assumes no supplemental 
assistance for the 2001 crops. Increases in petroleum prices and prices 
for other production inputs increased farmers' production expenses by 4 
percent or $7.6 billion in 2000, with higher fuel and oil prices 
accounting for about one-third of the increase. In 2001, farmers' total 
cash production expenses are forecast to increase $1.5 billion to a 
record $179.5 billion. Higher petroleum and natural gas prices have 
increased the prices of diesel fuel and nitrogen fertilizer, and 
repair, marketing, and labor costs are also expected to increase in 
2001.
    Government payments have offset much of the decline in major crop 
cash receipts since 1998, helping to maintain producers' cash flow. 
Direct government payments to farmers reached a record $22 billion last 
year, up from $8 billion in 1997. In 2000, direct government payments 
included nearly $5 billion in Production Flexibility Contract (PFC) 
payments, $6.4 billion in loan deficiency payments, $2 billion in 
conservation program payments, and nearly $9 billion in supplemental 
(crop and market loss) assistance.
    In calendar 2001, government payments are projected to decline 
about $8 billion to slightly over $14 billion. With no supplemental aid 
legislation in place for the 2001 crops, supplemental assistance to 
farmers and ranchers is forecast to fall from nearly $9 billion last 
year to about $3.5 billion in 2001. The supplemental assistance that is 
expected to be paid out in 2001 was authorized by Congress last year to 
cover crop and market losses producers incurred in 2000. Scheduled 
annual reductions in PFC payments under the 1996 Farm Bill and lower 
loan deficiency payments, reflecting improving prices for major crops, 
are forecast to reduce government payments by $2.5-$3.0 billion in 
2001.
    Net cash farm income on a crop year basis for the major field 
crops--wheat, rice, corn, sorghum, oats, barley, cotton and soybeans--
excluding government payments was quite low for the 1999-2000 crops and 
is projected to remain low in 2001. Net cash farm income for major 
field crops averaged $43.4 during 1999-2000 and is projected to rise to 
$46 billion for crop year 2001, compared with the average of $51 
billion during the 1990s and $54.5 billion for the 1995-99 crops. 
Direct government payments were equal to three-fourths of net cash 
income for major field crops in 1999 and more than two-thirds of net 
cash income in 2000. In 2001, net cash income for major field crops is 
projected to fall by more than $6 billion. The projected decline in 
income in 2001 is about equivalent to the amount of market loss 
assistance Congress authorized last year for major field crops.
Outlook for Farm Finance
    Farm financial conditions remain stable, aided by record government 
payments and greater off-farm income. The debt-to-asset ratio remains 
stable at about 16 percent, down from 23 percent during the farm 
financial crises of the mid-1980s, and farm real estate values and land 
rental rates generally continue to rise. All major farm lender 
institutions continue to experience historically low levels of loan 
delinquencies, foreclosures, net loan charges, and loan restructuring. 
At the end of 1999, nearly 60 percent of all farms reported they had no 
outstanding debt.
    Farm debt rose 2.4 percent in 2000, surpassing $180 billion for the 
first time since 1984. In 2001, farm debt is forecast to increase to 
slightly under $183 billion. As a percent of the value of farm assets, 
farm debt is expected to remain unchanged from last year's 16.1 
percent. Even though farmers' balance sheets are much improved from the 
mid-1980s, the forecast drop in farm income in 2001 would reduce 
somewhat farmers' ability to repay existing debt. In 2001, farmers are 
forecast to use, on average, 65 percent of their maximum feasible 
debt--which is termed debt repayment capacity utilization (DRCU) and is 
calculated based on income and interest rates. This use of feasible 
debt would be up from 60 percent in 1999 and 2000.
    USDA research suggests that commercial farms that cannot service 
their debt and stop performing on their loans usually have debt equal 
to 240 percent or more of their maximum feasible debt. In both 1999 and 
2000, about 50,000 of the nation's 512,000 commercial farms had debt of 
240 percent or more of maximum feasible debt. In 2001, the number of 
commercial farming operations with debt of 240 percent or more is 
forecast to increase to 70,000.
    In addition to record government payments, improved off-farm income 
opportunities for farm households have helped avoid more serious farm 
financial problems. Off-farm earnings are a significant source of 
income for farm households and help insulate them from financial 
difficulty when the farm economy weakens. Eighty percent of all farmers 
or their spouse are employed off the farm. In recent years, about 90 
percent of the total income of the average farm household is derived 
from off-farm sources. Earnings of farm operator households from off-
farm sources averaged an estimated $60,000 in 2000, up from less than 
$36,000 in 1992. Combining income from farm and off-farm sources, farm 
operators averaged over $64,000 in total household income in 1999, 
about 17 percent higher than the average income of all U.S. households.
    While nationally farm financial conditions appear secure, regional 
and sector problems persist. The combination of low prices and adverse 
weather in the Southeast, southern plains and elsewhere has contributed 
to regional pockets of farm financial stress. In addition, production 
agriculture consists of a diverse group of farms and ranches with 
varying degrees of financial success, which a single aggregate 
performance indicator such as net farm income cannot capture.
Farm Financial Characteristics by Farm Type
    Net cash income and net farm income are single dimension indicators 
that can be used to track sector performance over time. Aggregate 
performance measures, however, mask the wide distribution of earnings 
in the farm sector, discount off-farm income and wealth, and do not 
reveal debt service problems or signal the occurrence of farm failures. 
The farm typology, recently developed by the Economic Research Service, 
provides a useful framework for examining the wide array of farm and 
farm household financial circumstances exhibited by the sector today.
    When crop prices are low and aggregate farm income falls, the 
common expectation is that farm household income will also decline 
leading to a lower standard of living for farm families. However, for 
the majority of farm households (62 percent), the farm business 
operator's primary occupation is something other than farming. Indeed, 
the financial well-being of most farm families is much more dependent 
on general economic conditions and the local economy and than on 
commodity prices.
    That said, the condition of the farm economy matters most to the 
800,000 farm households in which the primary occupation of the operator 
is farming. Farm households in which the primary occupation of the 
operator was farming had an average household income of $55,000 in 
1999, compared with $70,000 for farm households in which the primary 
occupation of the operator was something other than farming. Nearly one 
in three farm-dependent households had consumption expenditures that 
exceeded household income. These households had to withdraw from 
savings, or borrow or liquidate assets in order to accommodate income 
short falls.
    A common perception is that low returns from farming lead to a low 
rate of wealth creation for farm households. On average, farm 
households are wealthier than their non-farm counterparts and have seen 
their wealth increase at a faster rate during the 1990s than non-farm 
households. Much of this wealth advantage is associated with the 
ownership of farmland. Agricultural land values have steadily increased 
in the last decade and these gains are in part attributable to 
government payments.
    According to data collected through USDA's Agricultural Resource 
Management Study (ARMS), slightly over 40 percent of all farm operators 
received farm program payments in 1999. Recipients of farm program 
payments tend to be concentrated in the largest farm typology classes, 
since payments are principally based on current or historical plantings 
of program crops. About 80 percent of full-time family farms with sales 
between $100,000-$500,000 (farming occupation/higher sales and large 
family farms) received farm program payments. These two groups, 
consisting of 12 percent of all farms, received 46 percent of total 
government payments to farm operators in 1999 and, on average, farm 
program payments made up 14 percent of gross cash income on these 
farms. Family farms with sales of $500,000 or more, 3 percent of all 
farms, received 22 percent of total farm program payments and, on 
average, each farm received just over $85,000 in government payments. 
Farm program payments accounted for about 6 percent of gross cash 
income on these very large farms. Limited-resource family farms (small 
farms with less than $100,000 in gross sales, farm assets less than 
$150,000 and total operator household income less than $20,000), 6 
percent of all farms, received $4,000 in government payments, on 
average, but these payments accounted for over 25 percent of average 
gross cash income on these farms. About 1 percent of farm program 
payments went to limited-resource family farms in 1999. Larger farms 
received more of their government payments from PFC payments and loan 
deficiency programs, while smaller farms received more of their 
payments from the Conservation Reserve Program (CRP).
    Slightly over 40 percent of all farms reported having outstanding 
farm debt at the end of 1999, indicating that debt is not a source of 
capital for the majority of farms. Farm loan delinquency rates (percent 
of loans with payment past due 30 days or more) peaked in 1987 at 11 
percent of total loan volume and declined throughout most of the 1990s, 
remaining around 3 percent for the last several years. Comparison of 
actual debt levels with the maximum amount of debt that can be serviced 
by household income suggests that 17 percent of farm households 
experienced debt repayment problems in 1999. Repayment problems varied 
ranging from 10 percent for retirement farm households, which borrowed 
primarily for non-farm purposes, to nearly one in four for large family 
farms.
    The American Bankers Association (ABA) conducts a survey of 
agricultural banks to track the number of farms going out of business 
each year. The majority of farm sales are normal attrition and 
voluntary liquidations (80 percent). Farm bankruptcy filings peaked at 
4.2 percent in 1986 and ranged between 1 and 2 percent for most of the 
1990s.
Outlook for Major Crop and Livestock Commodities
    Major crop prices for the 2000/01 season are generally expected to 
register modest improvement from last year, reflecting another year of 
large global production of major crops and ample stocks. While it is 
too early to predict a substantial recovery in major crop prices in 
2001, global stock levels going into the 2001 season are projected to 
be down from a year earlier. At the end of this season, global grain 
stocks are projected to be down 11 percent from a year ago and the 
lowest since 1996/97. As a result, world grain prices could move up 
sharply if weather adversely affects global crop production over the 
next several months.
    In 2000, U.S. producers planted the lowest wheat acreage since 
1973. Wheat prices this marketing year are forecast to average $2.60-
$2.70 per bushel, up from last season's $2.48. The increase in prices 
reflects lower total supplies, increasing total use, and declining 
world and U.S. carryover stocks. Total use is forecast to increase by 
44 million bushels over last year's nearly 2.4 billion bushels, as food 
use, feed use, and exports are all expected to register modest gains. 
Wheat exports are projected to reach 1.1 billion bushels, the highest 
since the 1995/96 season. A major factor supporting higher exports was 
weather, as weather reduced the size of Australia's crop and the 
quality of EU's crop in 2000. Ending stocks are forecast to fall for 
the second consecutive year, from 950 million bushels at the end of 
last season to 829 million bushels at the end of this marketing year.
    Lower wheat supplies in 2001/02 could lead to another year of 
reduced carryover and improved farm prices. Growers have indicated 
intentions to plant 60.3 million acres to wheat in 2001, down 4 percent 
from 2000. Some of the winter wheat was seeded late because it was 
initially very dry followed by very wet weather. As a result, much of 
this wheat did not emerge until spring, and the wheat that did emerge 
last fall was in poor shape going into the winter. Over one-third of 
the winter wheat crop in Kansas and Oklahoma currently is rated in very 
poor or poor condition. Some producers are leaving the land fallow or 
tearing the wheat up and planting row crops. Others are grazing cattle 
on their winter wheat acreage or planning to cut the wheat for hay. 
Also, spring wheat plantings have been stalled in some parts of the 
Northern Plains because of flooding and wet conditions. While weather 
conditions in coming weeks will be very important, the poor condition 
of winter wheat in parts of the Southern Plains and sparse rains in the 
Pacific Northwest is likely to lead to lower wheat yields in 2001.
    The 2000/01 corn crop of 9.97 billion bushels was the second 
highest on record, as plantings expanded by 2 million acres and growing 
conditions were generally quite favorable for much of the Midwest. The 
bigger crop and large beginning stocks resulted in the largest supplies 
of corn since 1987/88. With total supplies up sharply from one year 
ago, ending stocks are forecast to increase by over 230 million bushels 
from last season's 1.72 billion bushels to the highest level since 
1992/93. Total corn use this season is projected to reach a record 9.75 
billion bushels, compared with last season's 9.52 billion bushels, 
primarily reflecting expanding domestic use. Both feed use and food, 
seed and industrial use are expected to reach record levels. Corn used 
for alcohol production is projected to total 615 million bushels, up 9 
percent from a year earlier and up 50 percent from a decade ago. Corn 
exports are expected to be about unchanged from last year, even though 
foreign corn production is down about 10 percent this season. Concerns 
about the potential presence of StarLink in U.S. corn likely 
contributed to Japan and South Korea purchasing more corn from 
Argentina and Brazil. The farm price of corn for the 2000/01 marketing 
year is forecast to average $1.80-$1.90 per bushel, compared with last 
year's $1.82 per bushel.
    Higher natural gas prices will increase corn producers' fertilizer 
and irrigation costs in 2001. These higher costs are expected to reduce 
corn plantings in 2001. In early March, corn growers indicated they 
intend to plant 76.7 million acres of corn in 2001, down 4 percent from 
2000 and down 1 percent from 1999. Below-normal temperatures, combined 
with excessive moisture, is delaying corn plantings in some areas, but 
corn planting progress overall is only marginally below the 5-year 
average. Depending on the weather over the next few weeks, corn 
plantings could advance rapidly with little loss in yield potential. 
Assuming normal weather, lower acreage, another year of good export 
opportunities supported by continued global economic growth, and 
expanding ethanol use would reduce ending stocks by several hundred 
million bushels, strengthening market prospects for corn in 2001/02.
    Soybean plantings and production were record-high in 2000. Soybean 
production reached nearly 2.8 billion bushels, up 4 percent from a year 
earlier, which more than offset lower carry-in stocks and caused total 
soybean supplies to increase about 2 percent in 2000/01. Most of the 
increase in supplies is expected to go into higher total use. Domestic 
crush is forecast to exceed the record set in 1998/99 by 1 percent and 
U.S. soybean exports could eclipse last year's record of 973 million 
bushels by 2 percent. Still, with ample supplies, soybean prices for 
2000/01 are projected to average $4.45-$4.55 per bushel, compared with 
last season's $4.63.
    Less fall planted wheat, higher fertilizer prices, planting 
flexibility, and the benefits of the soybean marketing loan program 
provide an incentive for producers to further expand soybean plantings 
in 2001. In early March, producers indicated they intend to plant a 
record 76.7 million acres to soybeans in 2001, up 3 percent from last 
year. Continued delays in corn plantings caused by excessive moisture 
and cool temperatures could lead to some additional acreage being 
planted to soybeans. Assuming normal weather, higher acreage could lead 
to another year of record soybean production and rising carryover, 
although total use could also reach another record in 2001/02. The EU's 
ban on the use of meat and bone meal in animal feeds could raise 
soybean meal exports, but foreign competition is likely to remain 
intense. Under the pressure of rising stocks, soybean prices could fall 
further during the 2001/02 marketing year.
    Cotton production rose 1 percent in 2000, even though drought 
caused significant yield losses in some areas of the country. Despite a 
slightly higher total supply, U.S. cotton mill use is projected to 
decline from last season's 10.2 million bales to 9.3 million bales, as 
textile imports continue to grow. Reflecting the sharp decline in 
domestic mill use and modestly higher exports, stocks of cotton at the 
end of the 2000/01 season are projected to reach 5 million bales, a 12-
year high. From August 2000 through February 2001, the farm price of 
cotton averaged 54.6 cents per pound, compared with last year's season 
average price of 45 cents. However, prices have sunk recently as 
production in both China and the U.S. is likely to expand this year.
    Farmers intend to plant 15.6 million acres to cotton in 2001, up 
less than 1 percent from last year. This would be the largest cotton 
acreage since 1995 and the second largest since 1962. Assuming a return 
to more normal weather, total cotton supplies for the 2001/02 season 
could reach the highest level in 35 years. With a rebound in domestic 
mill use unlikely, U.S. cotton exports would need to reach a nearly 
unprecedented 10 million bales to prevent 2001/02 carryover from 
surpassing projected carryover for the 2000/01 season. Strong 
competition for export markets and large supplies are expected to 
continue to pressure U.S. cotton prices during the 2001/02 season.
    Rice production, in 2000, fell 7 percent from the record of 206 
million cwt. set in 1999, causing total supplies at the beginning of 
the crop year to decline 4 percent from the previous year. Total 
carryover stocks are projected to fall from last season's 27.5 million 
cwt. to 24.3 million cwt. at the end of this season, as the drop in 
total supplies is projected to be partially offset by lower total use. 
This season, the farm price of rice is forecast to average $5.65-$5.75 
per cwt., compared with last season's $5.93. Producers indicated in 
early March that they intend to increase rice plantings by 1 percent in 
2001.
    Large sugar production in 1999/00 resulted in large forfeitures of 
sugar to the CCC last year. In order to reduce government inventories 
of sugar and prevent additional forfeitures, USDA announced a Payment-
in-Kind (PIK) Program for 2000-crop sugar under which beet producers 
could elect to divert a portion of their contracted acreage from 
production in exchange for in-kind payments in the form of CCC-owned 
sugar. Under the program, 102,000 acres of beet sugar were diverted 
from production in 2000 cutting sugar production by an estimated 
275,000 tons. On April 1, 2001, the CCC owned nearly 800,000 tons of 
sugar. For all of 2000/01, sugar production is down an estimated 
552,000 tons, which has reduced, but not eliminated, the prospect of 
additional forfeitures to the CCC in 2001. For the 2001/02 season, 
farmers indicated plans to reduce sugar beet planted acreage, mainly in 
California and the Plains States. Looking ahead, import commitments 
under existing international trade agreements (including Mexico), the 
potential for over quota or second tier imports from Mexico, continuing 
imports of sugar-containing products that are exempt from import 
restraint and trend growth in U.S. yields could continue to pressure 
sugar prices, leading to further CCC stock accumulation over the next 
several years, unless U.S. sugar production declines.
    In 2000, hog prices averaged $44.70 per cwt. for the year, up 31 
percent from a year earlier. Responding to low returns, producers began 
to reduce their breeding herds in late 1998 and continued to reduce 
them in 1999 and through much of 2000. Responding to improved returns, 
producers began increasing farrowings at the end of 2000. The increase 
in farrowings is expected to cause pork production to rise about 1 
percent in 2001. Hog prices are forecast to average $42-$44 per cwt. in 
2001, but rising hog and poultry production could push hog prices to 
the mid-$30 range during the fourth quarter.
    In 2001, liquidation of the nation's cattle herd is expected to 
finally lead to reduced beef production. In 2000, lower cattle and calf 
numbers did not translate into less beef production, as record 
slaughter weights and increased placements of cattle in feedlots, due 
to reduced forage supplies caused by dry weather, led to record beef 
production. The most severe winter since 1992/93 reduced fed beef 
production and increased cow slaughter during the first quarter of 
2001. Net placements of cattle on feed during March were 12 percent 
below 2000 and 14 percent below 1999 levels. During the last half of 
2001, reduced placements of cattle on feed are expected to lead to a 5-
percent decline in beef production. For all of 2001, beef production is 
forecast to be down 4 percent, with choice steer prices averaging $74-
$77 per cwt., compared with $69.65 in 2000 and $65.56 in 1999.
    Recent concerns over Bovine Spongiform Encephalopathy (BSE) and 
outbreaks of foot-and-mouth disease (FMD) in a number of countries are 
expected to have little impact on U.S. livestock markets. The United 
States has banned beef imports from the EU since 1996, so the recent 
outbreak of FMD in the United Kingdom, Ireland, France, and the 
Netherlands is not expected to directly affect U.S. beef imports. The 
United States exports grain-fed beef which is higher priced than EU 
grass-fed product, so these products do not compete in the same 
markets.
    The United States imports pork from a number of EU countries, 
primarily Denmark, and imports of fresh, chilled, and frozen pork 
products are now banned. However, the amount of EU pork imports covered 
by the ban represents just 0.6 percent of total U.S. pork consumption. 
Although a number of countries have bans in place on imports of EU 
pork, imports to South Korea, Taiwan, and Russia had been forecast to 
decline after EU subsidies were dramatically reduced in mid-2000. On 
April 25, Japan lifted its ban on imports of pork from Denmark, the 
major U.S. competitor. This allows Japanese importers to resume imports 
of Danish product instead of switching to pork from North America. 
Expansion of U.S. exports to Russia will be limited by Russia's recent 
announcement that it will allow red meat imports from most of the EU.
    Broiler prices are projected to average 57-60 cents per pound in 
2001, compared with 56.2 cents per pound in 1999. In response to low 
prices through most of 2000, producers have reduced the rate of 
expansion in broiler production. In 2000, broiler production rose 2.5 
percent which followed a 7-percent increase in 1999. In 2001, broiler 
production is forecast to increase by 1 percent. Broiler exports 
continue to show considerable strength. In 2001, broiler exports are 
forecast to reach 5.7 billion pounds, up 3 percent from last year and 
up 16 percent from two years ago.
    Increased milk production caused milk prices to collapse at the end 
of 1999, as producers responded to two consecutive years of strong 
returns. In 2000, the all-milk price averaged $12.40 per cwt., a 9-year 
low. In response to the collapse in milk prices, Congress authorized 
payments of $0.65 per cwt. to dairy producers on production of up to 
39,000 cwt. and extended the price support program for milk through the 
end of calendar year 2001. Extension of the price support program, 
rising milk production, and a desire to maintain dairy producers' 
incomes has led to the largest government purchases and inventories of 
nonfat dry milk since the mid-1980s. On April 1, 2001, the CCC held 772 
million pounds of nonfat dry milk in inventory.
    Cow numbers have begun to decline in response to last year's low 
milk prices and cold winter weather caused milk production per cow to 
fall in the first quarter. These factors are expected to cause milk 
production to decline in 2001, following increases of over 3 percent in 
both 1999 and 2000. Declining milk production and continued increases 
in demand for dairy products caused wholesale butter and cheese prices 
and farm-level milk prices to increase sharply in recent months. The 
all-milk price is forecast to average $13.85-$14.35 per cwt. in 2001, 
compared with the average of $13.57 per cwt. during the 1990s.
    The outlook for horticultural crops is very uneven. As a group, 
cash receipts for horticultural crops are projected to be up in 2001 
and the value of exports is forecast to reach a record $11.3 billion in 
fiscal year 2001. However, farm prices for some horticultural crops, 
including apples, cranberries, grapefruit, lemons, pears, and potatoes, 
are being adversely affected by large supplies. In addition, irrigation 
water constraints and higher electricity prices in the west are likely 
to cause some reduction in horticultural production, particularly for 
processing vegetables.
Longer-term Outlook
    Over the next several years, the market situation for major crops 
is expected to gradually improve. Rising world demand and continued 
progress toward freer trade are projected to lead to steady increases 
in U.S. agricultural exports and farm prices and cash receipts for 
major crops. Increases in domestic food, feed, and industrial uses 
could also contribute to higher farm prices for major crops. Assuming 
no additional supplemental aid and continuation of current farm 
programs, farm income could fall below recent levels over the next few 
years, as gains in cash receipts fail to offset sharply lower 
government payments. Farm program spending carried out through the CCC 
is projected to decline to $20 billion in fiscal year 2001 and to $13 
billion in fiscal year 2002 before stabilizing at $8-$10 billion 
thereafter under continuation of current law. Beyond the next few 
years, the outlook for the farm sector improves as expanding exports 
further strengthen farm commodity prices and increases in farm income 
and farm asset values help to moderate farm financial stress.
    Mr. Chairman, that completes my testimony and I would be pleased to 
respond to questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Cochran. I appreciate very much the obvious hard 
work that has gone into the preparation of the statements for 
the subcommittee this morning by our witnesses.
    I have made some notes and have some questions to ask. But 
before I do that, I am going to yield to my good friend from 
Wisconsin, the Senator from Wisconsin, the Ranking Member of 
this subcommittee for any statement that he wishes to make, and 
any questions.
    Remembering that we do have a Senator from South Dakota, 
who got here before you did, I am going to recognize you 
anyway.
    Senator Kohl. Well, I do thank you.
    Senator Cochran. He will be patient.

                          Prepared Statements

    Senator Kohl. And I thank the Senator from South Dakota.
    I have a statement for the record and I will proceed to a 
few questions that I would like to ask.
    Senator Cochran. Your statement and those of any other 
members will be included in the record.
    [The statements follow:]

                Prepared Statement of Senator Herb Kohl

    Thank you, Chairman Cochran. I would like to welcome our panel here 
this morning and I look forward to hearing from all of you on your 
views regarding the status of today's farm economy.
    I would also like to congratulate Mr. Hunt Shipman on his new 
position at the Department of Agriculture. Hunt, throughout your 
tenure, more than a decade with the distinguished Senator from 
Mississippi, Chairman Cochran, you have been an outstanding public 
servant for all of American agriculture. I want to thank you for all 
you have done for this Subcommittee and congratulate you on your new 
position.
    The facts are clear. Our agriculture sector is changing. America 
has come a long way from the days when a vast majority of our people 
lived, worked, and depended on the land for survival. New technology 
resulting in more efficiency means we are producing more with less. 
Today, roughly 2 million farmers and ranchers feed us and the world. 
However, low prices in most commodities continue to place economic 
stress on our farms and rural economies. We see more and more farmers 
finding jobs off the farm to make ends meet. We continue to face the 
problems of urban sprawl that threaten our arable land. And increased 
concentration and consolidation in the industry shrink producers' 
ability to receive a fair price for their product.
    We can and we must do better for our farmers. Congress has provided 
nearly $25 billion in supplemental assistance over the last three 
years. But that is not the only answer. Today, half of total farm 
income comes from the government--and let me tell you, no one in this 
room or out on the farm is proud of that fact. This morning I want to 
hear from you on how you think this Subcommittee should craft an 
appropriations bill that provides the right combination of funding for 
important programs that will equip our farmers and ranchers with the 
tools they need to protect their land, market their products, and make 
a living.
    The dairy industry has been particularly hit with depressed prices. 
This is devastating to my State of Wisconsin--America's Dairyland. In 
order to help keep farmers in business I have worked with Chairman 
Cochran and others to provide emergency supplemental assistance to 
dairy producers over the past three years. If this supplemental 
assistance is ever to be reduced, we need something different. We need 
a national and equitable program to treat all dairy farmers fairly. 
Regional Compacts are not the answer. I have worked with Senator 
Santorum from Pennsylvania on a bill that is an attractive alternative 
to regional cartels. That bill is S. 294, the National Dairy Farmer's 
Fairness Act. I look forward to the Administration's support of this 
legislation.
    The challenges that face today's agriculture sector are vast and 
far-reaching. Today, we need from you advice on where you think this 
Subcommittee needs to focus its work this year. I look forward to 
working with you and the Secretary on making sure we provide the 
necessary funding to meet the demands of our agriculture community.
    Again, thanks for testifying this morning and I look forward to 
hearing from each of you.
                                 ______
                                 

               Prepared Statement of Senator Tim Johnson

    Thank you Chairman Cochran, Ranking Member Kohl and members of the 
subcommittee, I am pleased to participate in today's subcommittee 
hearing on the state of the agricultural economy and steps to provide 
assistance to America's family farmers and ranchers during these tough 
economic times.
    I welcome Keith Collins, Chief Economist for the United States 
Department of Agriculture (USDA) and Hunt Shipman, Acting 
Undersecretary of USDA's Farm and Foreign Agricultural Services. I look 
forward to their insight on the agricultural economy and about what 
USDA is doing to provide support to producers.
    Mr. Chairman, simply put, America's agricultural economic engine is 
misfiring, it's just not hitting on all cylinders. Since agriculture 
comprises a significant share of the economy in South Dakota (one-
fourth of the total economic output in my State, more than double that 
of any other industry in South Dakota) the poor agricultural economy is 
leaving South Dakota's overall economy vulnerable to weak conditions as 
well. Unfortunately, a host of factors are contributing to this 
weakened condition which began late in 1997 (early in 1998).
    First, our nation's family farmers and ranchers have experienced a 
price crisis of near-historical proportions. Nationally, soybean prices 
have collapsed to a 29-year low, and corn and wheat prices are hovering 
at a 15-year price low. In South Dakota, the prices farmers received 
for major cash crops (such as corn, soybeans, and wheat) just last 
month were substantially lower than when the current farm bill was 
enacted, and with the exception of wheat, prices are even lower today 
than they were just one year ago. (Due to a dry fall, volatile winter, 
and wet spring, acres of wheat will be lower across South Dakota and 
the country, and overall, winter wheat conditions are below average 
throughout South Dakota and other regions of the U.S., leading to 
higher futures prices and higher cash bids at local elevators today.)

                                                  [In bushels]
----------------------------------------------------------------------------------------------------------------
                                                                                                     Change from
                            Crops                             April, 2001   1 Year Ago      1996         1996
----------------------------------------------------------------------------------------------------------------
Corn........................................................         1.69         1.85         3.55        -1.86
Soybeans....................................................         3.97         4.87         7.00        -3.03
Wheat.......................................................         2.81         2.54         4.77        -1.96
----------------------------------------------------------------------------------------------------------------

    Tough economic conditions for farmers have been perpetuated by a 
series of weather-related disasters in certain regions of the country. 
Entire crops have been wiped out by flooding, drought, hail, and wind 
in many areas of South Dakota the last few years. Furthermore, surplus 
crop production--both here and abroad--weak global demand, marketplace 
concentration, and an inadequate farm safety have all contributed to 
the current farm crisis.
    So, just when farmers thought their condition could not get worse, 
the cost of energy-related inputs like fuel and fertilizer have 
skyrocketed. In addition, USDA economists predict repair, equipment, 
marketing, and labor expenses for farmers to increase in 2001. Given 
the input-intensive nature of production agriculture, a combination of 
increased production expenses and decreased prices situates farmers and 
ranchers in a price-cost squeeze that makes it nearly impossible for 
them to earn income that covers expenses.
    As a result of a woefully inadequate farm bill, Congress has 
enacted multi-billion dollar disaster programs in the last 3 years--a 
record $28 billion in fiscal year 2000. It should be noted direct 
government payments accounted for around three-fourths of net cash 
income for major field crops in 1999 and for about two-thirds in 2000. 
In many States, farmers are receiving more of their total net farm 
income from the government rather than from the marketplace. Was this 
the promise of the 1996 farm bill? I certainly hope not.
    Clearly, the 1996 farm bill fails to provide a meaningful, 
fiscally-responsible, safety-net for farmers when prices are poor on an 
annual and sustained basis. Already, we have worked to carve out nearly 
$9 billion in supplemental assistance for 2001 because many Senators 
joined my effort on the budget resolution to provide for this emergency 
reserve this year. (It is yet to be seen what the budget resolution 
conference committee will do with this Senate passed provision of $9 
billion in 2001 emergency aid.) This 2001 crop year assistance--if 
passed--will become the fourth consecutive emergency aid package for 
farmers and ranchers likely to compensate producers for low prices and 
potential production losses resulting from weather-related disasters. 
Obviously I will support this, but I would suggest farmers and 
taxpayers deserve better. That is why I offered an amendment to the 
Senate budget resolution to provide over $88 billion from fiscal years 
2002 through 2011 in order for Congress to write a new farm bill. 
Unfortunately, my amendment was defeated, but we did work to restore 
nearly $58 billion over the same period for a new farm bill re-write.
    I believe Congress can and should amend current farm policy 
immediately to provide a more predictable, secure safety-net for 
farmers in 2001 and 2002--essentially modifying the farm bill now 
instead of waiting until it expires. It is time for a new farm bill 
that provides a meaningful income safety net, is reasonable in cost to 
the American taxpayers, yet assures some level of economic security for 
our nation's family farmers and ranchers.
    One farm bill alternative I have introduced is S. 130, the Flexible 
Fallow farm bill amendment. Under my proposal, farmers electing to 
devote a portion of their total crop acreage to conservation-use 
receive a higher loan rate on their remaining crop production. On an 
annual and crop-by-crop basis, farmers can choose to conserve up to 
thirty percent of their total crop acreage. An adjustable loan rate 
schedule is a key feature of Flex Fallow. With the exception of wheat 
and soybeans, the proposed base loan rates for zero percentage 
participation in Flex Fallow (full production) are set at 2001 levels. 
Participation in Flex Fallow is directly proportional to increased loan 
rates. For corn, wheat, and soybeans, loan rates increase by one 
percent for each one percent increase in conservation-use.
    Iowa State University economist Neil Harl believes my Flex Fallow 
proposal is ``the missing link to the 1996 farm bill,'' because it 
works in a market-oriented fashion yet provides an income safety net.
    USDA's proposed budget adequately addresses some of our 
agricultural, trading, and food safety priorities. Yet, I believe it 
fails to make some specific and significant investments in a secure 
farm safety net, conservation programs, efforts to restore marketplace 
competition, and rural development. Moreover, despite the fact that 
over 20 major farm and commodity groups in the country--from Farm 
Bureau to Farmers Union, and including cattlemen, pork producers, corn, 
wheat, dairy, soybeans, cotton, rice, sugar producers, and others--have 
asked for increased support for a new farm bill and additional 
emergency aid for farmers and ranchers at levels similar to that of 
last year, the proposed USDA budget includes no support for a new farm 
bill or room for emergency aid--save the so-called contingency reserve. 
I am disappointed that USDA's budget does not include funding for a new 
farm bill that will ensure economic security for family farmers, 
ranchers, and rural communities now and into the future.
    I am specifically concerned about the cuts or elimination of funds 
in fiscal year 2002 for important conservation programs such as the 
Wetlands Reserve Program, the Wildlife Habitat Incentives Program, and 
the Emergency Conservation Program. Farmers, other landowners, and 
society as a whole continue to desire more options to ensure the proper 
stewardship of our nation's soil and water resources. With agricultural 
conservation programs oversubscribed by nearly six times the available 
funding, this is clearly the wrong direction to take with conservation 
funding, and I plan to work in the subcommittee to secure funds that 
promote greater use of conservation programs instead of cutting or 
eliminating them altogether.
    Thank you Mr. Chairman, this concludes my opening statement. I look 
forward to asking questions of the witnesses.
                                 ______
                                 

             Prepared Statement of Senator Byron L. Dorgan

    Mr. Chairman, I would like to welcome Hunt Shipman, the Acting 
Deputy Under Secretary for Farm and Foreign Agricultural Services, to 
this hearing today. I probably should say welcome back, since the Under 
Secretary was, until recently, working for the Chairman of this 
Subcommittee. I also want to welcome USDA's Chief Economist, Keith 
Collins, to this hearing. Thank you both for coming.
    Last week, the Chief Economist and I fenced some about when the 
Quality Loss portion of the Crop Loss Disaster Program was going to be 
implemented. Today, I want to assure both of you, and the employees of 
the Farm Service Agency, that I understand the complex nature of the 
legislation. I also want to thank the Agency for all the hard work that 
has been put forth by everyone involved. I have never doubted that the 
Agency was not trying to get this program out to the farmers at the 
earliest possible date.
    Having said that, I still want to impress on you the need to get 
the notice for this program published. We all know that there will be 
some lag time after publication to allow for county office staff 
training and to get the software finished and downloaded. I urge you to 
include in the publication examples of how the program will be 
implemented so that farmers and their bankers have some way to estimate 
the assistance that will be forthcoming to them.
    Discussing the implementation of disaster programs allows for a 
very good segue into the topic of FSA staff levels. You have 
acknowledged the difficulties facing FSA as they try to deliver 
Congressionally mandated programs over the last few years. The 
Administration's budget provides level funding for FSA full time staff 
particularly in the field. It is my belief--and that of many county 
level FSA employees who deal directly with farmers--that there is a 
need for more help in those county offices.
    In a visit to a local FSA office in a fairly large county in North 
Dakota, I asked about staff needs. A seasoned veteran of many years 
told me that the office had experienced a Reduction In Force of seven 
Full Time Employees from the peak years of employment in the 1980s, but 
that the workload that was being asked of them was larger than anything 
she had ever experienced since coming to work in the office.
    Now, we all know computerization can make an office more efficient, 
but technology can't make up for that many people. I am concerned about 
the personal stress that is being placed on these workers and their 
families. I don't think that we are doing all we can to alleviate this 
problem.
    We know from the Chief Economist's testimony that USDA will need to 
continue to be an integral part of a farm's operation for the 
foreseeable future. I have asked County Executive Directors what 
Congress should do, and have been told an additional full-time employee 
in many of these county offices would make all the difference in the 
world.
    All the major farm and commodity organizations, including the 
American Farm Bureau, the National Farmers Union, the National 
Association of Wheat Growers, the National Cotton Council and the 
National Corn Growers, to name just a few, have requested emergency 
assistance for farmers once again this year. As we are well aware, 
nothing has changed in the farm economy, and this Subcommittee will 
need to address these needs.
    Mr. Chairman, as the fiscal year 2002 Agriculture Appropriations 
bill moves forward , I hope this Subcommittee will consider addressing 
fully the needs of America's farmers, and the FSA staff who serve them 
at local county levels.
                                 ______
                                 

                Prepared Statement of Richard J. Durbin

    Chairman Cochran, thank you for holding this important hearing 
today. I would like to welcome Hunt Shipman, Acting Deputy Under 
Secretary for Farm and Foreign Agricultural Services to the hearing 
this morning, and Chief Economist Keith Collins. I appreciate the 
opportunity to continue the budget discussion we started with Secretary 
Ann Veneman on April 25.
    The mission of Farm and Foreign Agricultural Services is to ensure 
the well-being of U.S. agriculture through delivery of commodity, 
credit, conservation, insurance and export programs.
    Although the Department's fiscal year 2002 budget is a good start, 
I am concerned that it is insufficient to meet the Farm and Foreign 
Agricultural Services mission. I've noticed that the Department's 
fiscal year 2002 budget contains no emergency funding. The 
Administration is relying on its proposed National Emergency Reserve 
Fund or Contingency Reserve Fund--neither of which exist at this time--
to provide farmers with Federal assistance.
    The proposed Emergency Reserve Fund would only be given $5.6 
billion in fiscal year 2002 to respond to all types of disasters, 
including floods, earthquakes, hurricanes, droughts, and the kinds of 
emergency payments farmers will need. While I am open to efforts to 
prepare for unexpected emergencies, the continuing farm slump is 
different. We know the need. Congress has appropriated more than $5.6 
billion for farm assistance alone in each of the years since the farm 
economy's downturn began.
    As for offering the Contingency Reserve Fund as an option for 
funding, this approach pits farm aid against Medicare, Social Security 
and defense spending needs. I wonder, how is relying on these reserve 
funds, which compete with other national needs, a responsible method 
for ensuring our farmers get the support they desperately need?
    Congress has provided approximately $25 billion in emergency 
agriculture aid since 1998. Farm groups have requested up to a $12 
billion increase in the agriculture budget for fiscal year 2002 in 
anticipation of another year of depressed commodity prices and higher 
input costs. The Senate passed an amendment to the budget resolution 
that would allow for $9 billion in additional emergency agricultural 
assistance this fiscal year. I supported that measure.
    My colleagues will not be shocked to learn that government payments 
in 2000 made up nearly half of net farm income. The USDA predicts that 
without government payments, farm income will fall in 2001 to $4.1 
billion. A recent study by the University of Illinois shows that 
Illinois farm income is up slightly in 2000, but that government 
payments still account for 21 percent of gross farm returns. In fact, 
many families have to go off the farm to earn money to pay for simple 
living expenses and income and Social Security taxes. I am also 
concerned that the budget provides zero-funding for popular 
conservation programs such as the Wetlands Reserve Program and the 
Wildlife Habitat Incentives Program. It also under funds the 
Environmental Quality Incentives Program, despite strong support from 
producers and Congress to raise funding for this program.
    In fact, the Illinois Delegation has proposed an innovative 
approach to improving water quality by asking producers to work 
together to prevent pollution of the Illinois River Basin. It is called 
Illinois Rivers 2020, and it relies on many of the zero-funded and 
underfunded agriculture conservation programs. I'll be asking Chairman 
Cochran and Senator Kohl for their help in funding this innovative 
program.
    Farmers are increasingly faced with environmental challenges, and 
many of these programs face a serious backlog of applications that 
outstrip available funding. If we ask them to be better stewards of 
their land then we must provide them with the resources they need to 
accomplish this goal. I hope the Administration will work with Congress 
to improve conservation funding.
    Allow me to touch briefly on export programs, in particular, 
foreign food assistance. Just this morning I joined Ambassador George 
McGovern and former Senator Bob Dole in front of the Capitol to 
introduce a bipartisan bill to create an international feeding program 
for children in need around the world.
    It is estimated that nearly 300 million children throughout the 
world go to bed hungry at night. And of those children, some 130 
million kids don't attend school mainly because their parents need them 
to stay at home or work to earn income for the family.
    This legislation is based on a proposal by Ambassador McGovern and 
Mr. Dole, who are the fathers of the U.S. school lunch program. By 
amending the Public Law 480 program, the bill authorizes the USDA to 
work with private voluntary organizations, cooperatives and 
international organizations, such as the World Food Programme, to feed 
and create incentives for children to stay in school.
    Just as this surely will benefit children, it will also add value 
to agricultural products at home. This proposal will benefit 
agricultural producers, processors, millers, packaging manufacturers, 
rail and motor transportation and commercial shippers and ports.
    I appreciate the Administration's commitment of $300 million in 
surplus commodities for the Global Food For Education Initiative pilot 
program, which jump started the McGovern-Dole proposal. I hope the 
Administration will support this new legislation.
    Mr. Chairman, again thank you for the opportunity to raise these 
issues.

                              Dairy Policy

    Senator Kohl. First I would like to discuss dairy policy, 
gentlemen. Dairy policy in the United States continues to 
include features that are particularly harmful to the Upper 
Midwest, which, as you know, is one of the primary dairy 
production areas in our country.
    One component of this flawed policy is the introduction a 
few years ago of regional dairy compacts--a Northeast dairy 
compact in particular. To make matters worse, the House of 
Representatives just this week introduced legislation to 
expand, as you know, the concept of dairy compacts to many 
other States.
    President Bush has said he wants to establish free trade in 
all of the Americas, which would be a comprehensive free trade 
agreement between the 34 democracies in the Western Hemisphere. 
I think that is a great idea. I am very supportive of that.
    But I would strongly suggest that before the President 
seeks free trade among 34 countries, or along with that, he 
must also guarantee that we continue to insist upon free trade 
among the 50 United States, which has been characteristic of 
our economy since the first day of our country's inception, as 
you know, and which many people would argue is the miracle of 
our economy. Among the 50 States, there are no restrictions. 
There have never been any restrictions on the free flow of 
goods and products in our country.
    Last year, the Congress again provided financial assistance 
to dairy producers suffering from historic low prices. While 
prices have rebounded somewhat, they are still far below the 
cost of production. And Wisconsin and other States continue to 
have great difficulty.
    I have just three questions. Does the Bush Administration 
believe that it is important to continue to move agriculture 
products as well as all other products and all other services 
freely throughout the United States?
    And if there are any reservations or any suggestions that 
you are not sure, or you cannot speak for the Administration, 
please say so.
    Mr. Shipman. Mr. Chairman and Senator Kohl, the 
Administration obviously understands the point of your question 
and has not taken a position on dairy policy thus far as a part 
of an overall Farm Bill strategy for this coming year. 
Obviously, the points that you make are well taken.
    Senator Kohl. You are not saying anything. I will not stop 
until you say something. Are you saying that the Administration 
may be prepared to depart from that policy, which has been the 
hallmark of the American economy since the beginning of this 
country? Are you saying that is a possibility?
    Mr. Shipman. Senator, I think one could argue that our 
current milk marketing order system does not provide for 
unencumbered trade among States in dairy products as it is 
right now.
    Senator Kohl. I agree with that.
    Mr. Shipman. So for me to answer your question with respect 
to the future would be to take a position on dairy policy that 
this Administration has not taken thus far.
    Dr. Collins may be able to add more to it.
    Mr. Collins. Well, I will not venture into the policy arena 
here. But I will make a factual observation that may assuage 
you, Mr. Kohl, and that is that the Northeast Dairy Compact, 
certainly one feature of this problem of moving milk freely in 
the United States, expires at the end of September and the 
President's budget does not have a proposal in it to continue 
the Northeast Dairy Compact. That is simply a factual 
observation.
    Senator Kohl. Okay. And of course, that is very encouraging 
to hear.
    One of the Senators from the Northeast States has gone on 
record as saying in published remarks in some of his hometown 
newspapers that he fully expects it to be continued just as it 
was incepted, 4 years ago by just sticking it into a year-end 
omnibus bill, which has several hundred thousand components to 
it. If they cannot get the votes, and they have not been able 
to get the votes--that is the way they hope to have it 
continued-the way it was originated.
    And, I am arguing for Wisconsin, but as I hope you are able 
to perceive, I am arguing a bigger principle.
    If I were just arguing for Wisconsin, you win some, you 
lose some and that is the way it goes. But this whole business 
of suggesting that we are--we may be willing or the 
Administration may be willing--just as the Clinton--this is not 
partisan here. The Clinton Administration allowed it to happen 
too.
    So I am not speaking here as a Democrat to Republicans, but 
I would like to hope that this Administration--more so than the 
Clinton Administration--is committed to the principle of free 
trade in this country.
    And that there is nothing that unique about the dairy 
industry. It is a commodity, you know. I mean, it is not all 
that much different from wheat or grain or corn or strawberries 
or so many other items that we might mention in the 
agricultural sector that need to have access throughout our 
country, if they are going to be able to sustain themselves.
    The dairy industry arguably is the same thing, with 
problems. But the other agricultural sectors, as you know, have 
problems too.
    So, the question is why would we make an exception for 
dairy or why would the Administration, so committed to business 
as they should be? I am a businessman. That is my background, 
whether you know it or not. That is my background.
    Mr. Collins. Right. Well, I would just----
    Senator Kohl. This is god-awful policy. It really is.
    And I would like to hope that this year the Administration 
is prepared to do whatever it takes not to allow this to become 
a part of--because it will come down the pike in different 
forms next year and next year and next year, if we allow it to, 
go on this year.
    There will be other commodities and other industries and 
other services that will begin to ask for the same kinds of 
protections. And they will now have had something to point to.
    You know, if we started with this industry, then why would 
we be prepared to say no to the next Senator from the next 
State that would like to protect their particular industry? And 
then where does it stop, except in really hurting the American 
economy?
    I am sorry, Mr. Collins. I know you were going to say 
something.
    Mr. Collins. It would probably be more prudent not to.
    But I guess I would say that, the Administration has not 
confronted this yet and the resolution of that, well, as you 
point out, would be an exercise in political economy.
    But I think from our point at USDA, one of the things we 
can certainly point out is what the effects are on the economy 
of having not only a compact in one area of the country but a 
broadened one in many other areas of the country.
    And there have been lots of studies done and you have 
certainly seen them. The studies indicate potential to cause a 
disruption in the most efficient use of our resources in this 
country.
    They do provide some benefit to the producers in the 
compact area. Economists have looked at that and agreed with 
that.
    Compacts also have said that is probably not a very 
efficient way to benefit the producers in that area. So I 
think, our job will be within the administration as they 
confront this issue to try and bring an informed discussion of 
all the effects of this kind of policy to their attention and 
hope that a good solid, reasoned decision is made.
    Senator Kohl. Just to add what you said about benefitting 
the producers. As you know, almost every impartial estimate has 
come to the conclusion that benefitting producers does not 
benefit the consumers.
    Mr. Collins. Oh, absolutely.
    Senator Kohl. And for every producer, there are 10,000 or 
20,000 consumers.
    Mr. Collins. I do not disagree with that.
    Senator Kohl. I mean----
    Mr. Collins. I think that is true.
    Senator Kohl. You know, it just does not make any sense.
    Now, in connection with that, as you know, Senator Santorum 
and I have introduced a bill, S. 294, which would establish a 
counter cyclical national dairy program, which in effect means 
that if we get below $12.50 a hundred weight, we begin to 
respond to producers.
    Would you care to comment on that in any way you wish?
    Mr. Collins. Well, I have not really looked at all the 
details of your bill. It provides producers a direct payment 
when milk prices go below $12.50. From an economic point of 
view, some of those provisions if they are closely tied to a 
producer's production decision, cause me a little bit of 
concern, because they blunt the response that you would like to 
see when prices get low.
    People have complained continually over the last couple of 
years that in the face of low prices, American agricultural 
production has not cut back. One of the reasons it does not is 
because we provide lots of payments to producers, so that they 
do not necessarily see the full force of lower market prices.
    Understanding that lower market prices cause some pain on 
producers, nevertheless that is how you get adjustments in 
markets. So to some extent, proposals that would provide 
producers payments that are tied to their production--and I do 
not know if this is tied to their production, but if it is, it 
tends to blunt the market response, which is a concern.
    On the other hand, I would say that dairy producers have 
just gone through a very difficult year in the year 2000. They 
had milk prices that were at a 9-year low and so, you can make 
a case for providing some financial assistance.
    There are those all kinds of countercyclical programs. The 
only general concern I would raise is that would be considered 
as amber and subject to discipline under the WTO would cause an 
economist some concern because it would be production 
distorting.

                     Dairy Export Incentive Program

    Senator Kohl. Okay. I would like to ask a question on the 
Dairy Export Incentive Program (DEIP).
    The President's budget provides for just a slight increase 
in the Dairy Export Incentive Program from the previous year. 
However, it is my understanding that there are approximately 
40,000 tons of non-fat dry milk awards that had been allocated 
under DEIP, but for some reason were never shipped.
    Although industry requests have been made for this tonnage 
to be reallocated, the previous Administration had taken the 
position that a reallocation would be in violation of the 
United States WTO commitments.
    Further since the Article Nine rollover authority expired 
on June 30th, 2000, these unshipped quantities cannot be made 
available under DEIP.
    Is the Article Nine rollover authority expressly tied to 
previously allocated but unshipped tonnage in addition to 
previously unallocated tonnage? Do you have any response to 
that?
    Mr. Shipman. Senator, if I might, if you would allow me to 
ask Mary Chambliss----
    Senator Kohl. Sure.
    Mr. Shipman (continuing). Our acting General Sales Manager, 
as well as our acting administrator of the Foreign Agricultural 
Service.
    Senator Kohl. Thank you.
    Ms. Chambliss. Good morning, Senator. I will try to shed 
some light on your question and then, because this is a 
somewhat complicated issue, with our colleagues in the dairy 
industry, which we have discussed frequently, I will also 
provide more information for the record, if that is acceptable.
    [The information follows:]

    Question. Is Article 9 ``rollover'' authority expressly 
tied to previously allocated but unshipped tonnage in addition 
to previously unallocated tonnage?
    Answer. The U.S. had already used the maximum flexibility 
allowable under Article 9 ``rollover'' for nonfat dry milk by 
bringing forward DEIP allocations un-awarded in previous years 
prior to the June 30, 2000 expiration of that provision.
    Question. Does the current Administration take the view 
that a reallocation of unshipped tonnage under DEIP would be a 
violation of our WTO commitments and if so, what action will 
USDA take to better ensure that all allocations are actually 
shipped?
    Answer. Authorizing the export of awarded but unshipped 
dairy product tonnage would be inconsistent with the 
established U.S. methodology for reporting export subsidies to 
the WTO and would likely be viewed by our trading partners as 
an attempt to circumvent our subsidy reduction commitments. We 
are now engaged in negotiations in the WTO to further 
liberalize trade in agricultural products, including the 
elimination of export subsidies. Taking steps that would be 
viewed by many as a circumvention of our current export subsidy 
commitments would be detrimental to our efforts in those 
negotiations. The Department is reviewing whether re-
announcement of canceled tonnage within the confines of an 
allocation year can be accomplished. If it is decided to modify 
the DEIP operations to allow for this, it is expected that this 
action would alleviate the majority of any problems with 
unshipped tonnage.

    Mr. Chambliss. I am familiar with the rollover issue. It 
really goes back to the original position we took in the 
Uruguay Round and gets back to the base period and how we, in 
that negotiation, identified our base period.
    It did not include rollover tonnages, because the base 
period allowed us to maximize our capabilities under the dairy 
export subsidy program, which is why we did not undertake the 
rollover.
    As you note, of course it expired at the end of June. You 
are probably also aware that this year we have had quite a bit 
of success with commercial dairy exports. They have done quite 
well. They did very well last year. And they are doing quite 
well this year.
    The next year begins July 1 and, as you know, the budget 
provides $42 million for the DEIP program, for next year.
    We are also looking internally at different ways that we 
administer that program to see if there is some flexibility 
that might be even more helpful to the dairy industry and we 
are continuing to undertake that review. Thank you.
    Mr. Collins. And can I add one thing to that? Your question 
was about Article Nine. In my view, Article Nine is binding 
here.
    Ms. Chambliss. Yes.
    Mr. Collins. Article Nine says that in the last year of the 
agreement, we have to have our DEIP authorizations down to a 
fixed percentage of what they were in the base period. So you 
cannot add beyond that, or you go above the fixed percentage.
    Prior to the last year, the first 5 years of the 
implementation period, you could go above that. You could roll 
over.
    But when you get to the last year and beyond in the Uruguay 
Round agreement, Article Nine--without being a lawyer, just my 
reading of it--says to me that our DEIP bonuses have to be 
within a fixed percentage of our base period.
    Senator Kohl. Okay.
    Ms. Chambliss. Which is what the $42 million would reflect.
    Senator Kohl. Right.
    Ms. Chambliss. Yes.
    Senator Kohl. I will just ask one other question, Mr. 
Chairman----
    Senator Cochran. Sure.
    Senator Kohl (continuing). Then I will submit the other 
questions for the record.
    I appreciate your statements on the importance of trade to 
the agricultural sector and I agree that we must stay vigilant 
to protect our place in those markets.
    However, we must also be careful not to rely too heavily on 
exports. As we learned in recent years, following the Asian 
economic collapse, U.S. agriculture should not be left to the 
fragile whims of foreign economies.
    One trade issue that currently faces the dairy industry is 
dramatic increase in milk protein concentrates, MPC, imports. 
To what extent are milk protein concentrates displacing U.S. 
dairy products in domestic markets?
    Does the USDA take the position that MPC's are subject to 
review under the WTO? If not, will USDA take actions to ensure 
that they become subject to such review?
    And if the Administration is not willing to take a strong 
stand to stop MPC's, which can devastate the U.S. dairy sector, 
what signals does that send to our trading partners about our 
willingness to stand firm on interests of great importance to 
U.S. agriculture?
    Mr. Collins. Senator, I would make a comment on MPC's. This 
is an issue, which has gotten larger over the last couple of 
years as imports of dry milk protein concentrate have grown.
    GAO has recently completely a study on this and pointed out 
that they have grown by 600 percent since 1995.
    Nevertheless, they are still a fairly small percentage of 
our total milk balance sheet. The problem here, of course, is 
this is a product that did not exist when we set tariffs and 
quotas.
    This is a product that comes in at 70 to 90 percent 
protein. At the time we set all these quotas and tariffs, 
basically, everything we were importing had less than 40 
percent protein.
    So it is a product that is not subject to a quota and a 
very minimal tariff. So we are constrained to the extent that 
we can deal with this.
    You can certainly deal with it, with a trade case, like a 
section 201 or 301, if the imports were to be shown to be 
disruptive or dumped.
    It is also an issue that could be brought up at the next 
WTO discussions. It is really not unlike the situation we had 
with stuffed molasses and sugar, or peanut paste imports from 
Mexico, all of which were products that were not imported when 
we set tariffs and quotas, or when we tariffed and set quotas. 
And so it is a difficult issue in that regard.
    The only thing I could say is it has been brought to our 
attention. We are looking at it. And I cannot tell you how or 
what we would propose to resolve it at this point.

                          Cranberry Marketing

    Senator Kohl. Okay. As I turn this hearing back to the 
Chairman, I just want to make this comment to you, Mr. Shipman: 
When Secretary Veneman testified before the subcommittee last 
week, I asked her about the status of the cranberry market 
volume reduction order that is important to cranberry growers, 
not only in my State, but in other States as well.
    Secretary Veneman assured me and this subcommittee that 
action would be taken within days. And I noticed that nothing 
on the subject has been published in the Federal Register since 
last week's hearing.
    I understand that the statement is ``in the works.'' Is 
that right?
    Mr. Shipman. Yes, sir.
    Senator Kohl. Does that mean it is going to get done very 
shortly or what?
    Mr. Shipman. I think you have quoted Secretary Veneman 
correctly in quantifying the time before action is taken on 
this as a matter of days. That is an accurate statement.
    There were some decisions that had to be made within USDA 
in order to prepare the final documentation necessary. Those 
decisions were made in the time frame that she talked about. 
And the final paperwork is in the final clearance in USDA, and 
since today is Thursday, I will not promise it to you before 
the end of this week, but certainly by next week, I think we 
will have something ready to go.
    Senator Kohl. That would be great. And I thank you very 
much. And I thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from South Dakota, Mr. Johnson.

                              Farm Economy

    Senator Johnson. Well, thank you, Mr. Chairman. And I too 
want to join in welcoming Mr. Collins, Mr. Shipman and Mr. 
Kaplan to the Committee today.
    The U.S. Ag economy engine is misfiring. Although we have 
had a remarkable decade in the past, the economy as a whole, 
our Ag economy and rural economies tend to struggle all across 
this country.
    With a price crisis--with soybean, corn and wheat prices 
all around 15-year lows in terms of prices and now coupled with 
high-energy related costs impacting not just fuel, but 
fertilizer as well, it has put a lot of our producers in a very 
difficult price cost squeeze in America.
    We have offset some of that over the last three years, as 
you have indicated in your testimony with multi-billion dollar 
disaster legislation, a record $28 billion in fiscal year 2000. 
And the discussion is already in early stages about what level 
of relief is likely to be next year.
    But with the producers of grain and--and--alike all across 
my home State, there is a lot of headshaking about this.
    They recognize that it has put a lot of money out in the 
countryside, but it is not sustainable and it is not the 
philosophy our producers, where they want to grow dependent on 
to this degree either way.
    The whims of political budgetmaking in Washington is not 
something that they can take to their banker. It is not 
something that they can rely on. And we have found ourselves, I 
think, in an Ag income strategy that almost everyone would 
concede is not the long-term solution to our problems in rural 
America.

                             New Farm Bill

    We are going to begin debate later this year on a farm bill 
and on mechanisms for improving the farm safety net. And I 
would like to ask Mr. Shipman, do you have any early notion 
about a time frame whereby the Administration would be 
proposing concrete farm bill strategies for this Congress?
    Mr. Shipman. Senator, let me just say that Secretary 
Veneman is very cognizant of the time frame that is being 
contemplated, both by Chairman Combest as a part of the budget 
resolution, and in the interest of members in trying to proceed 
with dispatch on a farm bill strategy here within the Congress.
    And certainly she intends for the Department to be actively 
engaged in that discussion. And we will--as soon as we can 
have, hopefully, a full complement of undersecretaries 
confirmed by the Senate, we will be able to engage in that with 
all of the power that they will bring to us.
    Senator Johnson. Well, I appreciate that you are still in a 
transitional mode here a bit, and I understand that. But I have 
to urge very expeditious progress in this matter.
    We need the White House to be engaged in this debate, and 
sooner rather than later, as we come together both on the 
budget and on the policy side. How on earth are we going to 
break out of this dependence on ad hoc disaster legislation, 
which is a disaster in its own right?
    I also have some concern about what many people around the 
country are interpreting as a bit of a retreat on the part of 
the Administration from our commitment to conservation 
programs.
    With reductions in wetlands reserves, wildlife habitat and 
emergency conservation programs, it would seem to me that these 
are areas where we could create win/win strategies, which are 
WTO legal, which have a good environmental and family producer 
consequence.
    And I would hope that we do not leave green strategies out 
of the overall mix of where we are going to go with the next 
farm bill.

                           Bioenergy Programs

    I am also concerned, as we talk about energy, about the 
future of last year's legislation to create a bioenergy program 
and whether the $150 million that was in that program, which 
has been instrumental in helping to promote bioenergy 
production to move ahead.
    We have four or five ethanol plants underway in my home 
State of South Dakota. Some of this funding has been helpful in 
that regard. And I would hope that the USDA would remain an 
active partner in helping to promote these alternative, 
especially plant-based, energy strategies.
    Any comment, Mr. Shipman, about where you see USDA coming 
down on those kinds of programs?
    Mr. Shipman. Senator, Dr. Collins has been participating in 
some energy discussions within the Administration, and I will 
ask him to comment, too.
    But before I do that, let me just say that I think part of 
the Secretary's strategy for the farm bill, as she has 
articulated it thus far, has been that all options are on the 
table. And she wants all the interested and involved parties 
around the table to discuss that.
    And I think she is committed to doing it, and we are 
committed to making sure that we are actively engaged in that.
    Mr. Collins. Mr. Johnson, I think when you talk about the 
problems in the farm economy, certainly, you know, one hope for 
the future is that we can dramatically expand the non-food use 
of farm products. And energy would be a big part of that. So I 
think this is certainly a bipartisan issue.
    I think the last Administration has and, this 
Administration is going to be committed to trying to do that 
through the tools of research and programs.
    Our budget proposal for 2002 in energy research and 
programs in USDA is about $245 million. Our discretionary 
budget proposal is $82 million for energy. Two years ago it was 
$73 million.
    So we are trying to increase our research on energy, not 
just ethanol, but biomass generally, including biodiesel. We 
have an expanded research program. We are redirecting some 
funds in ARS as well. And the CC Bioenergy Program that we are 
running this year is in our budget again for next year. And we 
think that is helping.
    As you probably know, there is something like seven ethanol 
plants under construction right now nationally. There is a 
bunch more about to go under construction.
    There are about 40 ethanol plants that are expanding their 
capacity right now. The most recent data we have got was for 
the month of March. Ethanol production was 113,000 barrels per 
day, which is equivalent to about 1.73 billion gallons per 
year.
    Last year, we ran about 1.6 billion gallons. As I mentioned 
in my comments, we had 18 consecutive months of record-setting 
ethanol production. So we are on a bandwagon for ethanol.
    And what we need to do now is make sure we have resources 
to help with some of these other areas where we are not as far 
along, where the economics are not as good. And I think we are 
going to try and do that.
    Senator Johnson. Lastly, because I know that my colleague 
from North Dakota wants--has some questions as well, I was 
struck by your testimony, Mr. Collins, where you indicate that 
80 percent of all farmers or their spouses are employed off the 
farm. And in recent years, about 90 percent of total income of 
the average farm household is derived from off-farm sources--90 
percent from off-farm sources.
    You then go on to note that farm operators averaged over 
$64,000 in total household income in 1999; actually, 17 percent 
higher than the average income of all U.S. households.
    I can tell you I have an awful lot of South Dakota farm 
operators who do not have $60,000 off-farm income opportunities 
in their communities and in their counties. And while that 
average sounds high, I wonder if you have any offhand notion of 
what the median would turn out to be----
    Mr. Collins. Not the median, but I could add----
    Senator Johnson (continuing). In terms of farm operator 
income.
    Mr. Collins. I could add a couple of points to this. Your 
observation is a good one. You have to be careful with 
averages, no matter what you are looking at.
    That data reflects the fact that when we go out every year 
in February and we do our farm financial survey, one of the 
first questions we ask farmers is, ``What is your principal 
occupation?''
    Sixty-two percent of all the farm operators tell us it is 
not farming. It is something else. So the question is: Do you 
want to count those as farms or not? Well, we do, when we add 
up all these income numbers.
    So you have a whole lot of farm households, over 800,000 
that we have called lifestyle or leisure farms. And so they 
tend to inflate those income numbers.
    And we can break those down any number of ways, you would 
like. One way to break them down is to look at the average 
household income of those who say their principal occupation is 
farming versus those who say it is not. Then the income falls a 
little bit.
    For those who say their principal occupation is farming, 
the average household income in 1999 was about $55,000, which 
is down from the $65,000 overall average. For those who say it 
is not farming, their average was over $70,000.
    And then when you get into that $55,000, you can break that 
down into size of farms. And if you look at some of the smaller 
size categories of farms for which we have hundreds of 
thousands of farms who are principally engaged in agriculture, 
I believe for the smallest category, up to $100,000 in sales, 
and there are several hundred thousand farms in that category, 
their average household income is about $35,000.
    So if you start taking these numbers apart geographically 
and by size of farms, you can certainly identify several 
hundred thousand farms that have very low household incomes, 
well below the national average.
    Senator Johnson. Thank you.
    I yield back.
    Senator Cochran. The Senator from North Dakota, Mr. Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    And thank you for being here today.
    I sometimes get a bit despondent when I read through 
testimony and see the number of agencies and programs within 
the USDA.
    I mean, we such a proliferation of different enterprises 
going on and I think most of us would think that we have maybe 
three basic goals.
    One is trying to get farmers a decent income, so that 
during tough times, you have a bridge over price depressions; 
second, to promote some conservation; and third, promote some 
exports that contribute to the income; and then fourth, while 
it is not your primary issue, to make sure we have safe food 
domestically.
    And as I take a look at all of these different enterprises 
we are involved in, I wonder, to what extent do they contribute 
to those goals?
    But let me ask you a question about the issue of targeting. 
We have talked about how much money we spent on trying to help 
family farms in the last 4 years.
    We really have not targeted that help. My whole theory is 
that we ought to be about the business of trying to help family 
farms and not agro-factories. Agro-factories have the financial 
wherewithal to withstand price depressions. Family farms do 
not.
    We really do not have much of a targeting mechanism with 
respect to how we are spending this money, do we?
    Mr. Collins. Mr. Dorgan, not really. We do not. Our 
payments are based on sort of the historical evolution of these 
programs, which are based on a commodity. And we do have 
payment limits.
    Senator Dorgan. What--what kind of income from the 
government would the larger enterprises have gotten in the last 
year, on a grain farm, for example?
    Mr. Collins. We could work out examples for you. I could 
tell you that generally as farms get larger, this is speaking 
of all farms nationally, as their sales go up, the percent of 
their gross income from government payments goes down.
    To give you an example, for farms that sell more than 
$500,000 a year in agriculture products, if my memory serves me 
right, I think about 8 percent of their gross income is from 
government payments; whereas if you look at the very small 
farms, what we call the limited resource farms, those with 
sales of less than $100,000 a year, with a very small asset 
base and very small net income, their government payments 
account for about 25 percent of their share of gross income.
    There are a couple of reasons for that. One is some of the 
very large farms are not crop farms. You know, they tend to be 
livestock farms, poultry farms, whatever. And the other reason 
is that it may well be that we see a little bit of the payment 
limit kicking in on some of those very large farms.
    Senator Dorgan. But another way of looking at it is in 
evaluating the amount of income that goes to the larger 
farmers, the percentage of income that goes to the larger 
farmers is much, much higher.
    Mr. Collins. Oh, yes. Oh, yes.
    Senator Dorgan. Second, let me ask you about the trade 
picture. You have testified today about the strength in dollar, 
which has an inhibiting design on our trade opportunities.
    What do you see happening with respect to agricultural 
trade in the coming year?
    Mr. Collins. Well, our current forecast is only for fiscal 
year 2001 and our projection is $53 billion compared with $51 
billion last year.
    First of all, the increase is fairly small, but at least it 
is positive. Most of it is not bulk commodities. It is not 
corn, for example. It is meats where we expect record volume. 
And it is horticultural products where we expect record value.
    Senator Dorgan. And in your projections for our trade 
circumstances, do you see the GMO issue playing a significant 
role in the coming couple of years?
    Mr. Collins. I really do not. I think that we have 
certainly heard from some of our potential customers like Japan 
telling us that they do not want GMO wheat. We have heard from 
some domestic customers like large food processors that they do 
not want GMO sugar, for example.
    But we do have lots of GMO products, round-up ready 
soybeans, bt cotton. These represent high proportions of the 
crop. They are being traded quite competitively and wanted in 
the world marketplace. And I expect that to continue.
    The only real dilemma we have had over the last year has 
been related to Starlink with its peculiar approval, its 
bifurcated approval, which generally led to the problem that we 
have. But we think we are getting by the Starlink problem, at 
least we hope we are.
    We are running a lot of programs at USDA to deal with 
Starlink, and we seem to be starting to put that problem behind 
us. That has had probably a minor effect on our corn exports 
this year.
    Mr. Shipman. And, Senator, if I might add to that, as well?
    Senator Dorgan. Sure.
    Mr. Shipman. You know, part of the budget request this year 
is to provide additional resources to the Foreign Agricultural 
Service to address these types of technical issues that seem to 
be on the forefront of what we deal with most in trade these 
days.
    Those resources will enable us to better combat those, as 
well as we are continuing to work with our trading partners in 
Europe and in Asia to ensure that the regimes that they put in 
place on these are scientifically based and I am confident that 
we will be able to continue in that regard.

                          Commodity Loan Rates

    Senator Dorgan. You referenced in your testimony the 
substantial increase in soybean acres. I do not know whether 
you are familiar with legislation that I have introduced 
talking about equalization of loan rates.
    I contend and I think with some validity that loan rates 
for wheat, for example, are radically out of synch vis-a-vis 
the loan rates for oilseeds. I do not propose to bring the 
rates for oilseeds down. I propose to bring wheat and feed 
grains up.
    Do you surmise that part of the reason for the increase in 
soybean acres has to do with people planning because of the 
farm program, the incentive in the farm program to raise 
oilseeds vis-a-vis wheat?
    And if so, is that not exactly the position that we wanted 
to get out of?
    Mr. Collins. I think that is certainly a factor. It is 
complicated this year by the energy cost issue as well, because 
about 40 percent of the operating costs of producing corn per 
acre are energy based; for soybeans, energy is only about 10 or 
15 percent.
    So the energy issue has pushed some people into soybeans 
this year, but I do think that what we have seen----
    Senator Dorgan. The same was true last year, right, in 
the----
    Mr. Collins. Not as much last year. Last year, the increase 
was pretty much just in fuel, diesel fuel. This year, the 
increase----
    Senator Dorgan. I meant the increase in soybean acres.
    Mr. Collins. Oh, yes. We had 74.5 million acres last year. 
This year we are expecting 76.7 million. We had an increase 
last year, and a bigger increase this year, a 3-percent 
increase this year. That is a sizeable one-year increase, and 
so I think that energy has added to that.
    It probably would have gone up anyway, even if we did not 
have the big increase in nitrogen costs. And I think the loan 
rate is certainly a factor in that.
    Senator Dorgan. Because farmers and their lenders would 
take a look at the loan rate and say, ``Gosh. This is not about 
what the market suggests that I should do. It is about what the 
loan rates suggest I should do. The loan rate is so much more 
attractive for oilseeds''----
    Mr. Collins. Sure.
    Senator Dorgan. ``than it is for wheat or feed grains 
that--that I really ought to be considering the protection that 
exists for oilseeds.''
    Mr. Collins. I think that is a factor.
    Mr. Shipman. But Senator, I think you cannot look at these 
issues independently.
    If you would go to the Chairman's State, as an example, and 
look at the current market prices and futures prices for 
cotton, where soybeans could very well be a substitute crop, 
farmers are doing the economics and looking at the input costs 
of cotton for that return versus soybeans and are making 
market-based decisions as well.
    In other parts of the country, energy costs may factor more 
or less into it. So I think it is dangerous for us to look at 
farm programs solely and then look at market prices solely and 
to make those comparisons independently. Obviously, farmers 
have to look at all those things at once, and I think they are.
    Senator Dorgan. But would you not agree that the loan rates 
are out of whack? I mean, clearly the loan rate for oilseeds is 
not in synch in terms of cost production and also a 5-year 
Olympic average of price and so on with wheat and feed grains. 
Would you not agree with that?
    Mr. Shipman. I would agree with Dr. Collins about that 
and----
    Senator Dorgan. And I am not suggesting we should bring the 
loan rate for oilseeds down. I happen to think that we ought to 
have better price protection for wheat and feed grains.
    All right. Well, I mean there is a lot to talk about and I 
was almost tempted to talk about amber boxes whenever I hear 
someone describe these things.
    It makes me want to talk about trade some. But I will spare 
the Chairman and Ranking Member that.
    Look--can I just make one point about trade?
    Senator Cochran. Sure, of course.
    Senator Dorgan. This is not about your programs. But do you 
know that today, on Thursday, every pound of beef that we send 
from the United States to Japan has a 38.5 percent tariff on 
it? And that is acceptable to the WTO.
    Mr. Collins. Well, that is right. That is because the WTO 
started with everybody's existing levels and went down the same 
percentage.
    Senator Dorgan. It is not going down. It is 38.5 percent 
with a snap-back provision. That is----
    Mr. Collins. With a snap-back, right.
    Senator Dorgan. That is the bilateral agreement we have 
with Japan. And we actually had feasts and celebrations for 
having done that about 12 years ago.
    And so when people talk to me about boxes and our 
capability in trade, all I have to do is look at Japan or China 
or Canada or Mexico and pick out any one of about two-dozen 
egregious provisions that are injuring our producers, that no 
one is doing anything about. You mentioned stuffed molasses as 
one example. No one is lifting a finger to do anything about 
that.
    So we should have a longer discussion about it. I will not 
prolong the trade issue today. There are other venues to do 
that.
    Thanks for being here. You run a large organization with a 
lot of very complicated programs. In your testimony you talked 
about the quality loss adjustment and gave some time frames of 
May for that. I appreciate that. Thank you very much.
    Mr. Shipman. Thank you, Senator.

                              FSA Staffing

    Senator Cochran. Thank you very much, Senator.
    Mr. Shipman, I know that earlier this week or last week, 
you had a chance to speak to Farm Service Agency employees who 
were here in Washington.
    I met with some from our State as well, and they were 
talking particularly about the problem of temporary staff 
having to be brought in to handle the increased workload for 
the signups and the disaster programs that we had authorized 
and funded.
    Is there any plan or is reflected in this budget the need 
to improve the field office structure and the permanent 
staffing in the Farm Service Agency offices to deal with the 
expected workloads of the future?
    Mr. Shipman. Senator, there was a large office 
consolidation effort that occurred early in the last 
Administration. I think we need to reevaluate all opportunities 
for us to utilize technology enhancements that are available 
now that might not have even been available 5, 6, 7, 8 years 
ago, and to see if there are opportunities for us to gain 
additional savings that could be re-channeled into staffing 
needs and other things.
    With respect to the current budget request, I might ask Mr. 
Kaplan or Jim Little to speak to that, as well.
    Senator Cochran. Mr. Kaplan.
    Mr. Kaplan. As far as permanent staffing is concerned for 
the Farm Service Agency, it is the same in 2002 as we plan to 
have in 2001. Temporary staffing does go down from 2,461 to 
2,000 staff years.
    We expect less of a disaster program or we do not want to 
assume a disaster program, and the requested staffing should 
meet the needs of the FSA, is what we are told.
    Senator Cochran. If there is an additional program, a 
benefit program approved by Congress this year to farmers, will 
we have to take another look at that, in terms of the reduction 
in temporary staff?
    Could they actually handle another disaster program without 
having any temporary or additional permanent employees in these 
offices?
    Mr. Shipman. Senator, I think that would be dependent upon 
what commodity prices are at the time and what the staffing 
needs to process marketing loan and loan deficiency payment 
applications are at that time as well.
    As you may recall, in the last 2 years, as Congress has 
provided emergency disaster assistance to the Department to 
deliver to farmers, it has provided with it supplemental 
appropriations or authorities to utilize a percentage of the 
funding for delivery expenses.
    And so that may very well be necessary depending on what 
the current conditions are if Congress approves a program.
    Senator Cochran. Thank you.
    Mr. Collins, we talked about the outlook for the farm 
economy, and you gave us some good news and then some not-so-
good news in your assessment of the situation.
    Comparing the outlook for this crop year with what we 
observed last year and the year before, can you predict whether 
farmers will be just as in need of additional assistance for 
market loss or other benefit program assistance as they were 
for the past 2 years?
    Mr. Collins. The only way I can really do that is by 
looking at projected net income and if you look at it just for 
the principal program crops, let us say wheat, rice, the four 
feed grains, cotton and add soybeans to that, then it would 
look like for the 2001 and 2002 crop year that net income will 
fall in the range of $6 billion below what it was the last 
couple of years.
    Just coincidentally that happens to be close to the kinds 
of numbers people are talking about for financial assistance--
maybe it is not coincidental--for the 2001 and 2002 crop year.
    Net returns from the market the last 2 years have been very 
weak. They are going to get a little bit better in the 2001 and 
2002 crop year. But then we are going to have the problem of 
higher production costs. And so when I am giving you a figure, 
I am talking about net income.
    Production costs were fairly stable in the mid-1990s then 
they shot up last year and they are going to shoot up again 
this year. And so even though the market is getting a little 
better, it will put net income from the marketplace about where 
it was a year ago.
    Senator Cochran. Is the increase in costs mainly 
attributable to increased energy costs?
    Mr. Collins. Energy costs are the single biggest factor. We 
also have higher labor costs, as well. But energy is the single 
biggest increase.
    Senator Cochran. Senator Johnson, I think, asked you about 
the renewable energy resources and you talked about ethanol.
    Mr. Collins. Right.
    Senator Cochran. And are there any other programs like that 
or any activities like that in agriculture to produce energy 
resources on the farm that would help reduce the costs? Are any 
of these technologies up to the point now where they actually 
will have the prospect of reducing energy costs in the future?
    Mr. Collins. Not really reducing energy costs. 
Agriculture's contribution to the total energy picture in the 
nation is pretty small.
    Of the total energy used in the United States, renewable 
energy only accounts for about 3 or 4 percent. Of the total 
gasoline burned in the United States, ethanol only accounts for 
1.2 percent. Of the total diesel burned in the United States, 
biodiesel accounts for basically zero.
    So agriculture is not going to bring down the prices of 
energy in the United States over the next few years. Over the 
long term, agriculture can do some things. Agriculture can make 
a greater contribution to electricity production for example.
    The CRP program this year has a biomass pilot project, 
where up to 250,000 acres could be used to produce energy, and 
all of that is being used to produce electricity. So there are 
some electricity gains that could be made. But that is going to 
take years. There are some biodiesel gains that could be made. 
That is going to take years.
    The real big gain is ethanol right now, which accounts for 
600 million bushels of corn, and that makes a material 
difference in the LDP's that we are paying out. That does make 
a difference in the cost of the corn program.
    But there really not much else like ethanol. There is 
increasing production of what people call bio-products or bio-
chemicals is resins, coatings, lubricants, plastics, these 
kinds of things, which are made from agricultural materials.
    And that is helping the industrial demand, again, primarily 
for corn. But over time we need new technologies that can help 
convert the other types of agricultural materials into these 
products as well.

                          Farm Loan Repayment

    Senator Cochran. In looking at the needs of farmers in the 
credit area, I was interested in an assessment of the payment 
of loans and the fact that the repayment rate has been better 
than in years past. That is encouraging.
    Is it because farmers are not borrowing or using the credit 
programs that are authorized to be administered by USDA? How do 
you account for those significant improvements?
    Mr. Shipman. Senator, I am not sure that I can answer your 
question specifically. I think it is a combination of things, 
and I will ask Jim Little if he can speak more specifically to 
that.
    In its continued depressed condition the farm economy may 
be driving what would normally be commercial bank borrowers to 
the government. And so we may be displacing higher risk 
borrowers, if you will, with lower risk ones.
    And I think also it is a factor of the changes in the 
program that Congress has authorized and the restrictions that 
have been placed on borrowing through the last farm bill. Those 
dividends are beginning to pay.
    Jim, do you have----
    Senator Cochran. Mr. Little, come up to the table and give 
us your reaction to that.
    Mr. Little. Thank you, Mr. Chairman. I think some of it 
might have to do with the Debt Collection Improvement Act of 
1996. We have done a little bit better--a lot better job in 
administering the programs, as well as making an effort to work 
with the borrowers in getting their repayments. The Debt 
Collection Improvement Act authorizes an offset program with 
the Department of Treasury, so we have a lot better collection 
tools.
    Also, the States have better information that we provide to 
them, and they are working with the borrowers one on one in 
attempting to get them to repay, as well as making compromises, 
along with the debt offset program. I believe these factors 
have a lot to do with the reduction in the delinquency rate.
    Senator Cochran. Do you know how much is on hand for Farm 
Service Agency loans and loan guarantees as compared to the 
levels we appropriated for fiscal year 2001?
    Mr. Little. I do not have that amount at the tip of my 
fingers.
    Senator Cochran. Well, you can submit that for the record. 
And we would like to know if you expect that any supplemental 
funding might be needed for any of these programs during the 
current fiscal year?
    Mr. Little. Yes, sir. We will provide that for the record.
    [The information follows:]

                                               FARM SERVICE AGENCY
                               [Status of Farm Loan Programs as of April 30, 2001]
----------------------------------------------------------------------------------------------------------------
                                                         Funding (in millions of dollars)
                    Program                     -------------------------------------------------    Number of
                                                 Supportable \1\     Obligated       Available      loans made
----------------------------------------------------------------------------------------------------------------
Direct:
    Farm Operating.............................             $700          $490.5          $209.5           9,918
    Farm Ownership.............................              156           128.5            27.5           1,159
    Emergency..................................            298.5            59.6           238.9           1,155
    Indian Land Acquisition....................                2             0.1             1.9               1
    Boll Weevil Eradication....................              100              10              90               1
    Seed Loans.................................               35            27.1             7.9             581
    Apple Loans................................             99.6             6.2            93.4             221
Guaranteed:
    Operating, Unsubsidized....................          1,187.1           659.6           527.5           4,075
    Operating, with Interest Assistance........            473.3           383.9            89.4           2,185
    Ownership, Unsubsidized....................          1,009.5           443.9           565.6          1,822
----------------------------------------------------------------------------------------------------------------
\1\ Supportable includes fiscal year 2001 appropriations and fiscal year 2000 carryover unobligated balances.

    The Farm Service Agency does not plan to request any supplemental 
funding for the farm loan programs for fiscal year 2001.

    Senator Cochran. Okay. Let me ask a question on another 
subject, foreign trade. We talked about the expansion of trade 
and negotiating new agreements, trying to help make sure we get 
a share of emerging markets for farmers in America.
    Is there a realistic expectation that these increased 
market opportunities will help increase prices of U.S. farm 
products, the money that farmers are actually making? What is 
your assessment of that, Mr. Collins?
    Mr. Collins. I think that is our goal. I think----
    Senator Cochran. Yes. But farmers tell me sometimes, they 
say, ``It is great to have these new markets expanded, but I am 
not seeing it reflected in the prices that we are getting from 
our commodities.''
    Mr. Collins. I can appreciate that. We certainly had the 
Uruguay Round adopted with great fanfare, and farmers asked me, 
you know, ``Where are the benefits of it? I have watched my 
exports go from $60 billion down to $50 billion over the last 
few years.''
    And the answer is complicated. There are a lot of things 
that have happened in the world, particularly the economic 
problems in Asia and Latin America and Russia and the exchange 
rate, and large crops around the world and that sort of thing. 
But if you look at American agriculture, the only best hope we 
really have is to expand market demand.
    We are going to have tremendous productivity gains in the 
future. We have always had tremendous productivity gains.
    We have the GMO revolution before us. And I think what we 
have to do is work on reducing production costs and work on 
expanding demand. And expanding demand will be through, I hope, 
non-food products, but also we can look around the world and we 
can see--as everyone says, 94 percent of the world's population 
is outside of the United States.
    We have strong growth, income prospects in Latin America, 
North Africa in the Middle East, and Asia. And those are going 
to be prime growth markets in years to come. And a lot of that 
growth is going to be not necessarily in corn or wheat or rice. 
It is going to be in value-added and high-value products.
    And, of course, that can benefit bulk products. You know, 
the more meat we export, the more soybean meal is going out as 
meat. Corn is going out as meat. Barley is going out as meat. 
Sorghum is going out as meat. So it can help the bulk products 
as well.
    But over the next couple of years I see a slow recovery in 
exports. In fact, I would guess that we would not hit our $60 
billion figure that we hit in 1996--I think we would not hit 
that until like 2003 or 2004.
    But the point is: You have to keep building this demand 
base, and that is what our export programs are trying to do. At 
some point, we are going to get the engine of the world economy 
firing in all eight cylinders and then, hopefully, we will see 
the kind of growth in exports that we saw through much of the 
1990s pick up again. But I cannot tell you exactly when that is 
going to occur.

                 Emergency Disaster Assistance Payments

    Senator Cochran. With respect to the disaster emergency 
assistance program this year, it is encouraging that now in 
place are signup notices, and there are clear signs that 
progress is being made in getting the regulations out. It is 
really amazing to me that so much work by the new 
Administration has been done so quickly to get us to this 
point.
    Will there be a time that you can expect when all payments 
will actually be made to those who are eligible? Can you look 
ahead and predict when that date will be?
    Mr. Shipman. Senator, when Secretary Veneman first came 
into office, I set a goal in my own mind that we would try and 
be done with the crop disaster program, the crop quantity loss, 
if you will, within 60 days.
    And I think we met it or came very close to that. And 
taking into account the complexity of the crop quality loss 
program, I have been hoping that at least within 60 days of 
completion of the quantity loss, we would be done with the 
quality loss. And I think we are on track to meet that.
    As far as when the final payments will be done, that 
depends largely on how long a signup we have. But it is 
important to remember in both of these programs and in all of 
those that Congress did not place specific dollar limitations 
on, once a producer completes his application, and we process 
it, we can issue a check almost immediately.
    Now, there are programs such as the Tri-Valley Cooperative 
Program and others which are dollar limited. The oilseeds 
program is another example, where it was limited to $500 
million. In those cases we have to allow the signup to 
complete, the county offices to transmit that data back to 
Washington, and us to apply a pro-ration factor.
    But in the specific examples of crop quantity and quality 
losses, once those producers submit their applications and we 
process them, we should be able to issue a check; maybe not 
immediately, but certainly we can do so before the signup is 
complete.
    Senator Cochran. I congratulate you on the leadership you 
are providing and the success that you have had in meeting 
those target dates.
    A couple of questions that I had planned to ask about 
biotechnology and trade and the effect have already been asked 
and answered by other Senators.
    I am glad that we are apparently getting a better handle on 
this, and the people around the country and around the world 
are understanding that biotechnology is not a bad word 
necessarily. It has provided a lot of efficiencies and safer 
supplies of food in more instances than not.
    One of our food aid programs is Public Law 480 and the 
Title I program particularly. And I notice in the budget there 
is something called a ``Blueprint for New Beginnings,'' and the 
Administration proposes to undertake a review of Public Law 480 
Title I to evaluate its continued effectiveness in meeting 
market development objectives.
    Do you know how long this evaluation will take and what it 
involves, and what market development objectives may be used to 
evaluate the effectiveness of the program?
    Mr. Shipman. Senator, this is a top-to-bottom review, as I 
would describe, to borrow from the Pentagon's evaluation of 
some of its operations, a top-to-bottom review of our food aid 
programs within the Department that was, agreed to as you 
mentioned, a part of the President's budget blueprint.
    We will be cooperating with the Office of Management and 
Budget to do that. And it will encompass all aspects of what 
our food aid program objectives are and how we administer that 
program.
    We look forward to participating in that and to completing 
it expeditiously. But to my knowledge that process has not yet 
begun. And so it would be difficult for me to provide you with 
an expected target date.
    Senator Cochran. My last question has to do with crop 
insurance, one of, I am sure, your favorite subjects.
    The Agricultural Risk Protection Act, when it was passed by 
Congress and signed by President Clinton in June of 2000, has 
resulted in the Farm Service Agency and the Risk Management 
Agency reconciling data that will be used to combat fraud and 
abuse.
    Can you provide the members of the subcommittee with a 
report on the data reconciliation process and when the process 
might be complete?
    Mr. Shipman. Senator, let me first ask that you let us 
submit a more detailed answer for the record. But in general 
terms, the Risk Management Agency entered into contracts with 
Tarleton University and one other vendor, as I recall, to 
participate in some data mining activities in evaluating the 
information that we have, and in trying to come up with methods 
by which we can compare Farm Service Agency data with Risk 
Management Agency data and to have analogies that can occur 
which will show us where there are potentials for fraud and 
abuse and other things.
    That is an ongoing process that we are hopeful will yield--
along with the cooperative role or arrangement between RMA and 
FSA at the county office level--a better compliance system that 
will get rid of some of the perceived problems with the crop 
insurance program in general. We are hopeful that we can 
utilize this technology in order to do that.
    [The information follows:]

    The Risk Management Agency (RMA) and Farm Service Agency 
(FSA) are working onn procedures for data reconciliation, which 
will be Part 4 of the RMA/FSA 4-RM Handbook. This handbook 
details procedures for the implementation of the Agricultural 
Risk Protection Act of 2000 (AR-PA). The reconciliation will 
initially include four basic fields: producer identification, 
acreage, share, and production. The reconciliation of RMA and 
FSA data will zero in on 19 FSA program (loan deficiency 
payment) crops. The procedures should be finalized by June 30, 
2001, and will then be included in the Handbook. The 
reconciliation should begin by August 31, 2001, for crop year 
2001 and will include three of the four basic fields, excluding 
production. Changes to other similar RMA/FSA data will be made 
in fiscal year 2002. RMA and FSA will continue to maintain 
their respective data bases.

    Senator Cochran. I am hopeful that we can see a crop 
insurance program in place that will make it less likely that 
annual emergency bills will be necessary. That would be one of 
the results of a workable, affordable crop insurance program 
that works like farmers expect it to.
    But we do have to make sure that those who are abusing the 
program or who are engaging in fraudulent practices are not 
successful in continuing that. And there has to be a budget 
impact on all that, as well.
    Well, I appreciate very much the witnesses' cooperation 
with our Committee today at this hearing to examine the state 
of our farm economy and the budget request as it relates to 
farmers and the assistance programs that are funded in the 
budget to help make it more likely that farmers can operate 
profitably, and we can strengthen our farm economy.
    This concludes today's hearing. We appreciate very much, as 
I said, the cooperation of the chief economist and our new 
deputy undersecretary, Mr. Shipman.

                     Additional Submitted Questions

    Additional questions may be submitted in writing by the 
Committee members, and we hope you will be able to answer them 
within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

             Questions Submitted to the Farm Service Agency

              Questions Submitted by Senator Thad Cochran

                production flexibility contract payments
    Question. Given that the scheduled annual reduction in Production 
Flexibility Contract (PFC) payments under the 1996 Farm Bill and lower 
loan deficiency payments are to reduce government payments by $2.5 to 
$3 billion in 2001, is a second PFC payment needed to help farmers at 
least break even this year?
    Answer. Farmers may need additional government payments depending 
on final plantings, harvested yields per acre, and market prices. 
According to the fiscal year 2002 President's Budget estimates, PFC 
payments and marketing loan benefits (loan deficiency payments and 
marketing loan gains) are expected to decline from $12.2 billion for 
the 2000 crop year to $9.7 billion for the 2001 crop year, a decrease 
of $2.5 billion. However, under the baseline projections, market 
revenues for the wheat, feed grains, upland cotton, rice, and oilseeds 
are expected to increase about $1.2 billion for the 2001 crop compared 
with the 2000 crop, partially offsetting the decline in government 
payments.
    Commitment at this time to a specific type and level of additional 
assistance is premature, particularly since spring planting is not 
complete. World weather patterns are still a major influencing factor 
that will affect the outcome of plantings, harvested yields, and market 
prices.
                        effects of energy costs
    Question. How have increases in petroleum and natural gas prices 
affected specifically the poultry industry, a major industry in my 
State?
    Answer. Last winter saw dramatic increases in the cost of heating 
poultry houses. Many producers saw their costs more than double, 
resulting in negative returns. While some integrators modified their 
heating allowances, these increases fell far short of meeting the 
increased costs. With the heating season now over, higher petroleum and 
natural gas prices are not expected to have a significant direct impact 
on poultry producers, and with rising prices for poultry products, 
grower returns are expected to return to profitable levels.
    Question. What other agricultural sectors have been hit extremely 
hard by the increased energy and fuel costs?
    Answer. In general, the farm economy appears to be responding 
efficiently and in a normal market-oriented way to increased energy 
prices. Most farmers are facing higher costs of production and reduced 
incomes due to higher energy prices. Production costs are also up for 
food processing and distribution, but very little effect is expected on 
retail food prices or the supply of food.
    The Department's current forecast of U.S. farm income for 2001 
placed farm expenditures on fuels and oils, electricity, fertilizer and 
pesticides at $30.9 billion, up $700 million from 2000. Developments 
since the forecast was made indicate that farm spending on farm energy 
inputs may actually increase by $2 to 3 billion, further eroding farm 
income.
    Sectors of the farm economy that are experiencing or are expected 
to experience disproportionate adverse impacts from higher energy 
prices are those that are relatively energy intensive--irrigated crops 
in the West that have high pumping costs, corn production due to both 
high fertilizer inputs and the need for grain drying, cotton ginners 
due to drying, and horticultural producers who have very little 
flexibility in adjusting to higher energy prices.
    Question. How will these increased energy and fuel costs affect 
irrigated crops, especially in the Southeast?
    Answer. Southeastern irrigated agriculture should experience less 
of an impact than western areas due to both the lower amount of water 
used per acre and the higher per acre value of the crops irrigated. 
While increases in energy prices are expected to decrease growers' 
returns, total acres irrigated in the southeast are expected to remain 
relatively unchanged. The most recent agriculture census indicated that 
in 1998 about 2 to 3 percent of total irrigated acres suffered 
diminished yields resulting from interruptions due to high energy 
costs. Given the recent increases in energy prices, yield impacts are 
expected to increase. Farmers are expected to respond to the higher 
energy prices by reducing the volume of water used and switching to 
crops requiring less water.
                              farm income
    Question. I am very concerned with the agriculture credit situation 
that our farmers are currently facing. Low market prices have placed 
our producers in a state that makes their individual cash flow more 
important than ever. What suggestions do you have to assure credit 
availability in the near future?
    Answer. Ample credit is available through commercial lending 
sources for family farmers, contingent upon their ability to conduct a 
profitable farming operation. Unfortunately, low commodity prices and 
weather problems have made it difficult for some family farmers to 
finance their farming operations. This situation has created strong 
demand for FSA credit assistance. In fiscal years 1999 and 2000, FSA 
provided loans and loan guarantees totaling $7.5 billion to 71,000 
family farmers . Beginning farmers use FSA direct loan programs to 
establish family farms, while established farmers use FSA guaranteed 
loans to sustain their existing farm businesses.
    Full funding of the direct and guaranteed loan programs will allow 
family farmers, who are unable to obtain credit from a commercial 
source, an opportunity to secure financing until an improvement in 
economic conditions returns.
    Question. With the farm economy in the state that it is, what is 
happening in the land market?
    Answer. Farmland prices depend both on landowners' and land buyers' 
expectations about profits that agriculture may provide in the future, 
and, particularly in the Northeast and West, on the demand for rural 
land for development and recreation. The value of farm real estate rose 
in 2000 and USDA forecasts that it will be steady in 2001, indicating 
that farmland owners anticipate that either Government programs or the 
marketplace will provide them with adequate returns on their land and 
other assets.

Farm Real Estate Values in the 1990's

                        [In billions of dollars]

          
        Year                                           Real Estate Value
1990.............................................................. 619.1
1991.............................................................. 624.8
1992.............................................................. 640.8
1993.............................................................. 677.6
1994.............................................................. 704.1
1995.............................................................. 740.5
1996.............................................................. 769.5
1997.............................................................. 808.2
1998.............................................................. 841.8
1999.............................................................. 870.0
2000.............................................................. 874.4
2001 (forecast)................................................... 883.1

    Of course, national statistics mask the diverse conditions facing 
producers across the country. The latest available USDA statistics show 
that per acre land prices declined slightly in 1999 in three Corn Belt 
States. Corresponding statistics for 2000 will be available in July 
2001.

                          FARM REAL ESTATE--AVERAGE VALUE PER ACRE, BY REGION AND STATE
                                             [January 1, 1996-2000]
----------------------------------------------------------------------------------------------------------------
                                                                                                         Change
                     State                         1996       1997       1998       1999       2000    1999-2000
                                                                                                       (Percent)
----------------------------------------------------------------------------------------------------------------
Northeast:                                         $2,220     $2,240     $2,280     $2,370     $2,470        4.2
    CT........................................      5,950      5,950      5,950      6,300      6,600        4.8
    DE........................................      2,550      2,580      2,660      2,750      2,850        3.6
    ME........................................      1,150      1,170      1,190      1,200      1,210        0.8
    MD........................................      3,110      3,150      3,180      3,300      3,500        6.1
    MA........................................      5,100      5,150      5,210      5,500      5,900        7.3
    NH........................................      2,250      2,250      2,250      2,250      2,300        2.2
    NJ........................................      7,100      7,100      7,000      7,000      7,100        1.4
    NY........................................      1,260      1,250      1,280      1,340      1,410        5.2
    PA........................................      2,270      2,300      2,390      2,500      2,620        4.8
    RI........................................      6,500      6,500      6,500      6,500      6,500        0.0
    VT........................................      1,490      1,500      1,520      1,570      1,640        4.5
Lake States:                                        1,130      1,200      1,280      1,390      1,490        7.2
    MI........................................      1,420      1,530      1,670      1,850      2,100       13.5
    MN........................................      1,030      1,090      1,160      1,230      1,270        3.3
    WI........................................      1,130      1,170      1,240      1,370      1,500        9.5
Corn Belt:                                          1,510      1,610      1,730      1,830      1,840        0.5
    IL........................................      1,900      1,980      2,130      2,250      2,220       -1.3
    IN........................................      1,740      1,870      2,060      2,220      2,210       -0.5
    IA........................................      1,450      1,600      1,700      1,770      1,750       -1.1
    MO........................................        950      1,010      1,070      1,130      1,190        5.3
    OH........................................      1,820      1,890      2,040      2,220      2,250        1.4
Northern Plains:                                      463        481        499        510        526        3.1
    KS........................................        553        565        577        580        590        1.7
    NE........................................        610        620        645        670        695        3.7
    ND........................................        383        390        401        406        415        2.2
    SD........................................        310        325        348        360        380        5.6
Appalachian:                                        1,550      1,630      1,720      1,840      1,940        5.4
    KY........................................      1,300      1,350      1,450      1,530      1,590        3.9
    NC........................................      1,900      2,000      2,080      2,250      2,400        6.7
    TN........................................      1,530      1,650      1,810      1,950      2,100        7.7
    VA........................................      1,840      1,880      1,920      2,040      2,130        4.4
    WV........................................        980      1,050      1,090      1,070      1,060       -0.9
Southeast:                                          1,580      1,630      1,700      1,770      1,920        8.5
    AL........................................      1,320      1,360      1,440      1,520      1,680       10.5
    FL........................................      2,150      2,200      2,240      2,260      2,400        6.2
    GA........................................      1,360      1,430      1,510      1,630      1,800       10.4
    SC........................................      1,360      1,400      1,480      1,520      1,600        5.3
Delta States:                                       1,020      1,070      1,130      1,180      1,230        4.2
    AR........................................      1,010      1,070      1,150      1,220      1,250        2.5
    LA........................................      1,180      1,190      1,210      1,210      1,250        3.3
    MS........................................        917        980      1,050      1,100      1,180        7.3
Southern Plains:                                      541        557        596        613        631        2.9
    OK........................................        547        570        610        625        634        1.4
    TX........................................        540        554        593        610        630        3.3
Mountain:                                             383        399        415        426        440        3.3
    AZ \1\....................................        880        920        987      1,070      1,140        6.5
    CO........................................        558        590        618        630        640        1.6
    ID........................................        900        960      1,020      1,090      1,170        7.3
    MT........................................        289        291        294        296        300        1.4
    NV \1\....................................        332        366        392        420        440        4.8
    NM \1\....................................        212        215        217        217        215       -0.9
    UT \1\....................................        740        780        807        855        900        5.3
    WY........................................        206        215        222        220        235        6.8
Pacific:                                            1,670      1,730      1,780      1,870      1,890        1.1
    CA........................................      2,400      2,500      2,610      2,770      2,850        2.9
    OR........................................        928        960        960      1,000      1,020        2.0
    WA........................................      1,120      1,160      1,190      1,190      1,150       -3.4
                                               -----------------------------------------------------------------
      Total, 48 States........................        887        926        974      1,020      1,050        2.9
----------------------------------------------------------------------------------------------------------------
\1\ Excludes Native American Reservation Land.

    Federal Reserve Bank analyses also provide information on recent 
regional land value trends. The following are excerpts from their 
latest available reports:
    Kansas City District.--In this district, which covers Kansas, 
Missouri, Nebraska, Oklahoma, Colorado, New Mexico and Wyoming, 
farmland values climbed in the fourth quarter of 2000, finishing their 
strongest year since 1997. In 2000, district cropland values rose 
nearly 4 percent while district ranchland values surged nearly 7 
percent. All district States posted strong gains in farmland values 
during 2000 with Kansas and the Mountain States leading the way. Many 
district bankers noted that recent gains in farmland values came in 
response to non-farm demand factors and hefty government payments 
rather than good times in the industry.
    Minneapolis District.--In this district, which covers Montana, 
North Dakota, South Dakota, Minnesota, northwestern Wisconsin, and the 
Upper Peninsula of Michigan, cropland prices increased over last 
winter's prices from an average of 5 percent in Minnesota to 15 percent 
in western Wisconsin. In addition, pasture land price increases ranged 
from an average of 5 percent in Minnesota to 11 percent in South Dakota 
over those of a year ago.
    Chicago District.--In this district, which covers Illinois, 
Indiana, Iowa, Michigan (except for the Upper Peninsula), and Wisconsin 
(except for the northwestern portion), percent changes in the dollar 
value of ``good farmland'' from January 1, 2000, to January 1, 2001, 
were: Illinois, +4; Indiana, +7; Iowa, +7; Michigan, +3; and Wisconsin, 
+8.
    Question. Are farmland prices declining and reducing the equity 
position of farmers?
    Answer. Farm real estate values increased throughout the 1990's and 
2000, and USDA forecasts they will be stable in 2001. Farm land 
accounts for about 78 percent of the value of farm assets. Thus, stable 
or increasing land prices are crucial in maintaining farmers' equity 
positions, also commonly called net worth. A major downturn in 
landowners' expectations about the ability of agriculture to produce 
profits--whether due to market conditions, input costs, or changes in 
Government programs--could bring about large declines in farm real 
estate values, significantly eroding the equity position of farmers.
    Question. Is this declining equity position making it difficult for 
farmers to borrow money to meet operating expenses?
    Answer. Farmers' equity, or net worth, increased each year in the 
1990's and in 2000. USDA forecasts a further 1-percent increase in 
2001. Firm real estate values will help provide farmers with the 
collateral needed to qualify for loans.

Farm Equity in the 1990's

                        [In billions of dollars]

          
        Year                                                 Farm Equity
1990.............................................................. 702.6
1991.............................................................. 705.0
1992.............................................................. 729.3
1993.............................................................. 768.2
1994.............................................................. 789.3
1995.............................................................. 816.8
1996.............................................................. 848.7
1997.............................................................. 887.7
1998.............................................................. 912.7
1999.............................................................. 940.2
2000.............................................................. 941.6
2001 (forecast)................................................... 951.0
                          commodity loan rates
    Question. Agriculture commodity organizations have testified that 
the current commodity loan rates are not equal. If loan rates are 
raised and become equal, how do you believe the commodity market would 
respond?
    Answer. Nearly all of the farm and commodity groups have called for 
some changes to marketing assistance loan rates as established under 
the Federal Agriculture Improvement and Reform Act of 1996 (FAIR Act). 
With the exception of the American Soybean Association (ASA), these 
calls for loan rate realignment have been based on concerns that the 
current soybean loan rate, relative to the loan rates for other 
commodities, distorts farmer planting decisions in favor of soybeans. 
The $5.26-per-bushel soybean loan rate is substantially higher than the 
average per-bushel variable cash expenses incurred producing a bushel 
of soybeans. Adjusting per-acre variable cash expenses to a per-bushel 
basis using a moving 5-year average for yield, the soybean loan rate 
exceeds per-bushel variable cash expenses by 160 percent. The corn and 
wheat loan rates exceed variable cash expenses by 60 and 80 percent, 
respectively.
    Soybean acreage has expanded substantially since the mid-1990's. 
Between 1996 and 2001 (based on 2001 producer planting intentions 
reported in the March 2001 Prospective Plantings), soybean acreage has 
increased from 64.2 million acres to 76.7 million acres, an increase of 
12.5 million acres, or 19 percent. During this same period, corn 
acreage fell by 2.5 million acres, or 3 percent, and wheat acreage fell 
by 14.8 million acres, or 20 percent. As ASA has argued in its recent 
testimony before the House Agriculture Committee, not all of this 
increase in soybean acreage and decrease in corn and wheat acreage has 
been the result of the $5.26-per-bushel soybean loan rate.
    Soybean acreage increased substantially during the early 1990's, 
growing from 57.8 million acres in 1990 to 64.2 million acres in 1996, 
an increase of 6.4 million acres, or 11 percent. Nearly all of the 
increase in soybean acreage in 1996, 1997, and 1998 resulted from 
planting flexibility offered under the FAIR Act, which eliminated 
planting restrictions and planting requirements to protect program crop 
acreage bases. Soybean acreage in these years also expanded as the 
result of new varieties better adapted to the western and northern 
growing areas and the advent of biotech crops like Roundup Ready 
soybeans.
    Realigning loan rates so that they do not favor the planting of 
soybeans would likely cause some acreage to shift from soybeans to 
other commodities. Thus, assuming no other supply and demand changes, 
soybean market prices would increase while market prices would decrease 
for the commodities for which plantings increase.
                  conservation reserve program acreage
    Question. Most economists seem to believe that the depressed 
commodity prices are directly related to excess supply of each product. 
With this in mind, would it be beneficial to increase acreage 
limitation within the current Conservation Reserve Program?
    Answer. There are really two questions or issues: (1) What impact 
would increasing CRP enrollment have on commodity prices, and (2) What 
would be the consequences of higher commodity prices? The answer to the 
first question hinges on the response both domestically and 
internationally. Expansion of CRP would be expected to reduce domestic 
supply and thereby increase commodity prices and increase U.S. farm 
income, especially when increases in aggregate CRP rental payments are 
included. The extent of the commodity supply and price impacts largely 
depend on the actual net change in planted acreage of each commodity 
that occurs as a result of the change in CRP enrollment. Typically 
plantings decline, but not by an amount equal to the increased CRP 
acreage. This mitigates the commodity supply and price effects, which 
is compounded if increases in international production occur.
    An earlier analysis of the price impacts of expanding the CRP gives 
an indication of the magnitude of crop price changes that could be 
attributable to a future expansion of the program. As an example, the 
analysis suggested that increasing the program to 45 million acres 
could result in wheat, corn, and soybean price increases of 15 cents, 2 
cents, and 25 cents per bushel, respectively, compared with a 36.4-
million-acre-program. Price impacts would amount to about half of these 
levels for a 40-million-acre program.
    The second issue relates to the consequences on the farm sector and 
society of lower commodity supplies and higher commodity prices. While 
crop income is generally expected to increase and landowners would 
benefit, net incomes of livestock producers may decline. Consumers lose 
whenever supplies decline and prices increase. Again, past economic 
studies have concluded that the CRP at current levels has resulted in 
net economic benefits to domestic and foreign producers and consumers, 
but only when estimates of the environmental benefits are included. 
Based on these studies, enlarging the program above the current 36.4-
million-acre limit may result in net benefits for society.
                          crop loss assistance
    Question. It is my understanding that a producer is eligible for 
payment under the Crop Quality Loss Program as long as 20 percent of 
the affected area experiences quality loss. Is my assumption correct?
    Answer. No, it is not. Producers will be eligible for a Quality 
Loss Program (QLP) payment if they provide written documentation 
substantiating that the harvested production of a crop produced in the 
2000 crop year suffered a minimum of a 20 percent reduction in quality 
due to an eligible cause of loss. Affected production may be calculated 
using the smallest measurable unit for which acceptable records exist, 
such as bale, truck load, bin or bunk. County ``average'' quality loss 
percentages are not applicable to QLP.
    Question. Additionally, will a producer be able to choose to 
collect the quality loss payment or the crop loss disaster payment?
    Answer. Producers can receive both a CDP payment and a QLP payment. 
However, payment cannot be received for the same loss under both CDP 
and QLP. If a portion of the CDP payment includes a quality adjustment, 
the calculated QLP payment will be reduced by the portion of the CDP 
payment attributed to quality losses.
                 starlink buy-back/bioengineered foods
    Question. USDA has recently announced a purchase program for seed 
containing the protein (Cry9C) found in StarLink corn. Out of 300 
contracts sent out to the seed companies by USDA, 78 seed companies 
reported contaminated seed and signed up to participate in the buy-back 
program. Do you have any concern that the remaining 148 companies not 
participating in the program may be selling contaminated seed?
    Answer. No, companies involved have recovered and taken control of 
all lots of hybrid seed corn found to have the Cry9C protein. Seed 
companies routinely test their products for impurities and many took 
steps to detect Cry9C before USDA recommended testing procedures on 
December 29, 2000. Additionally, CCC has directly contacted all seed 
companies to stress the importance of testing and advised them not to 
sell any seed corn that tests positive for the Cry9C protein. Press 
releases have also been issued advising farmers to not plant any seed 
corn this year that has not been tested or verified to be negative for 
the protein. Farmers have been advised to return any positive or 
untested seed to their dealer for a full refund.
    Question. The Washington Post has reported that StarLink was found 
in new categories of corn products such as corn bread, polenta, and 
hush puppies in tests conducted by the company, Aventis, that developed 
the corn. In your opinion, will this trigger more food recalls and 
cause more countries that are opposed to genetically-engineered food to 
avoid U.S. food products?
    Answer. The new information provided by Aventis appears to support 
the Environmental Protection Agency's (EPA's) assessment that the wet-
milling process effectively eliminates StarLink from finished products. 
The reports did indicate that the dry-milling process denatures but 
does not totally eliminate pure 100 percent StarLink in finished food 
products. However, StarLink is no longer approved for production, and 
therefore, the 100 percent pure StarLink will not be grown this year. 
EPA, the U.S. Food and Drug Administration, and USDA are continuing to 
coordinate an aggressive Federal effort, in cooperation with growers, 
millers, the food industry and Aventis, to divert StarLink corn away 
from the human food supply.
    Through the Cry9C Protein Seed Corn Purchase Program (Program), 
USDA is removing the Cry9C protein from the food chain and destroying 
it before it has an opportunity to spread further. Under this program, 
USDA is purchasing for destruction, seed corn that contains any Cry9C 
protein. Current estimates are that the testing procedures detect 
concentrations of less than 1 percent. Given this low detection 
threshold and the destruction of known seed containing the protein, it 
is highly unlikely that the Cry9C protein will show up on any tests on 
this year's corn crop. USDA has been very successful in working with 
growers and seed companies to ensure that seed intended for the 2001 
growing season is tested for the presence of Cry9C (StarLink) and is 
not planted if found to contain Cry9C. Therefore, we believe there 
should be no additional food recalls or foreign concerns for the 2001 
U.S. corn crop.
                                 ______
                                 

              Questions Submitted by Senator Arlen Specter

                 ldp program repayments in pennsylvania
    Question. I contacted Secretary Glickman last year and Secretary 
Veneman in February of this year to request assistance in resolving an 
unacceptable situation in Erie County, Pennsylvania. Specifically, due 
to erroneous actions taken by the Farm Service Agency Office in 
Waterford, Pennsylvania, hundreds of Erie County farmers were told to 
repay loan deficiency payments they had received for 1998 and 1999 crop 
years. These farmers report they would have been entitled to these 
payments had USDA employees correctly assisted them in filling out the 
applications. A recent article in a Northwestern PA publication 
indicates that USDA has chosen to reverse its earlier decision with 
regard to repayment, although only for those who have not made 
repayments. My office has not been informed of any such decision by the 
Department.
    Is this report accurate?
    Answer. No, this report is not correct; USDA has not reversed its 
decision.
    Question. If so, how does the Administration justify holding 
farmers in Erie County to different standards with regard to this 
situation?
    Answer. The standards are uniform for everyone.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                         state mediation grants
    Question. Please provide information regarding the number and type 
of problem resolutions that have been achieved though this program and 
include estimates on dollar amounts of loans that were prevented from 
being discharged through bankruptcy or other final resolutions that 
would have been counter to the interests of either party.
    Answer. The USDA State mediation programs have helped resolve many 
areas of disputes, including farm loans, price support payments, 
wetland determinations, conservation compliance, and Conservation 
Reserve Program payment eligibility. The most difficult disputes to 
resolve involve farm loan programs, which represent 60 percent of 
mediation cases. Disputes involving the Conservation Reserve Program 
and production flexibility contracts represent the bulk of the other 
cases. Dispute issues involving rural housing loans, rural business 
loans, and crop insurance are considered appropriate for mediation by 
the USDA State mediation programs. The number of mediation clients 
increased from 4,140 in fiscal year 1999 to 4,673 in fiscal year 2000. 
The number of agreements or resolutions increased from 2,898 in fiscal 
year 1999 to 3,411 in 2000.
    It is difficult to estimate the dollar amounts of loans that were 
prevented from being discharged through bankruptcy as a result of 
mediation. We do know that conflict is an expensive business. To the 
extent that regulations and procedures provide opportunities for 
voluntary resolution of disputes, financial benefits of mediation 
accrue not only to USDA but to other governmental institutions, 
businesses, and individuals, including farmers and ranchers. For 
example, State mediation cases usually cost between $400 to $800 a case 
depending on the complexity of the dispute and the number of 
participants involved. The average resolution rate is over 73 percent. 
The Nebraska Department of Agriculture reported that a significant 
amount of money is saved by parties using the Nebraska State Mediation 
Program since the attorney fees alone for a person in bankruptcy 
average between $3,500 and $7,500. Many of the savings are intangible 
such as restoring communications between farmers and lenders, helping 
producers improve their decision making abilities, and helping farmers 
better understand their options thereby making the ultimate solution 
more workable for them.
                       new markets--biotechnology
    Question. It has been recently reported that scientists have 
discovered a gene in certain plants that can be modified that would 
increase the amount of oil the plant would produce, thereby, increasing 
its use for bio-energy. Does USDA support increased research and 
development in bio-energy and do you think that renewable energy 
derived from farm products can serve to replace conventional fossil 
fuels to any meaningful extent in terms both of decreasing our energy 
dependence on foreign sources and increasing farm income?
    Answer. USDA does support increased research and development in 
bio-energy. In fiscal year 2001 the Agricultural Research Service will 
be investing $6.867 million in research on this issue, CSREES will be 
investing $6.594 million, the Forest Service will be investing $1 
million, and the Commodity Credit Corporation will be investing $150 
million in incentive payments to develop increased production of 
biofuels. In addition, the Conservation Reserve Program (CRP) is 
conducting a demonstration project using grass and trees from six CRP 
locations to evaluate the feasibility of co-firing and firing electric 
power generation using biomass.
    We do believe that renewable energy from farm products replaces a 
significant amount of conventional fossil fuels and decreases our 
dependence on foreign oil. We have conducted an analysis to determine 
the effect of replacing methyl tertiary butyl ether (MTBE) with 
ethanol. Results of that analysis indicated that the price of corn 
would rise by an annual average of 15 cents per bushel over the 2000 to 
2010 period as a result of the increased demand for corn as a feedstock 
to produce ethanol. Over the same period, annual average net farm 
income would increase by about $1.2 billion. Replacing MTBE as an 
oxygenate in gasoline would result in annual demand for about 4.5 
billion gallons of ethanol, about 2.5 times the 2001 annual 
consumption, which is expected to be about 1.8 billion gallons.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

                         farm program delivery
    Question. It's likely that the farm economy will not improve this 
year, and there is a good chance that there will be an effort advanced 
by Congress to provide more emergency help similar to what has taken 
place the past few years.
    In a visit to a local Farm Service Agency office in a fairly large 
county in North Dakota, I asked about staff needs. A seasoned veteran 
of many years told me that the office had experienced a reduction in 
force of seven full-time employees from the peak years of employment in 
the 1980's, but that the workload that was being asked of them was 
larger than anything she had ever experienced since coming to work in 
the office.
    Obviously, local County FSA office staff are stretched to the 
limit, and I am concerned about the personal stress that is being 
placed on these workers and their families.
    Computerization has made up for some of this loss of staff, but not 
all. Local County Executive Directors tell me one additional full time 
employee would greatly reduce the burden for existing staff. This is 
because temporary staff cannot be charged with many of the tasks, 
simply because they are not there long enough to warrant the training 
required.
     Would the Administration support an increase in staff for local 
offices, given the need that is quite apparent?
    Answer. FSA county offices have successfully implemented more than 
25 new disaster and economic assistance programs over the last several 
years. Much of this unanticipated workload was completed due to the 
appropriation of supplemental funding and the subsequent hiring of 
temporary staffing. The agency relies on the flexibility of temporary 
staffing in order to best meet the changing workload activity levels 
and locations associated with the disaster and economic assistance 
programs.
    FSA acknowledges the tremendous workload impact that these 
increased activities have had on the permanent workforce. Through the 
placement of temporary staffing, FSA has tried to minimize the impact 
on employee morale and stress issues. To increase permanent staffing 
levels at this time, however, would impact budgetary resources, limit 
flexibility of remaining staffing distribution, and put the agency in 
the position of potential reductions-in-force when workload activities 
return to normal ongoing operations.
                              ag mediation
    Question. USDA is requesting $3 million for State agricultural 
mediation grants for fiscal year 2002--the same as last year. However, 
four new programs in California, Colorado, Mississippi and New York 
have pending certification applications. Since this is a growing 
program due to the continued depressed farm economy, it has been 
suggested that $4.5 to $5 million would be a more appropriate funding 
level.
     Have any States been turned down for participation in this program 
due to a lack of funding?
    Answer. No States have been turned down for participation in the 
USDA State mediation program. California is the 26th State to be 
certified by USDA. The certified States are:
    Alabama; Arizona; Arkansas; California; Florida; Idaho; Illinois; 
Indiana; Iowa; Kansas; Maryland; Michigan; Minnesota; Missouri; 
Nebraska; Nevada; New Jersey; New Mexico; North Dakota; Oklahoma; South 
Dakota; Texas; Utah; Washington; Wisconsin; Wyoming.
    Colorado, Maine, Mississippi, New York and Tennessee State 
officials are interested in becoming certified pending availability of 
mediation grant funds.
    These 26 certified States requested matching Federal grants 
totaling over $3.825 million. In fiscal year 2001, $3 million was 
appropriated, and each State's grant was prorated to approximately 78 
percent of the request. This has resulted in States contributing more 
than their 30 percent share in order to maintain viable agricultural 
mediation programs.
                          quality loss program
    I want to thank USDA for its commitment to start the signup for the 
quality loss program in May. The Farm Service Agency has struggled to 
get this complex legislation implemented, and I want to thank the 
Agency for all the hard work that has been put forth by everyone 
involved. I have never doubted that the Agency was not trying to get 
this program out to the farmers at the earliest possible date.
    Having said that, I still want to impress on you the need to get 
the notice for this program published. We all know that there will be 
some lag time after publication to allow for county office staff 
training and to get the software finished and downloaded. I urge you to 
include in the publication examples of how the program will be 
implemented so that farmers and their bankers have some way to estimate 
the assistance that will be forthcoming to them.
    Question. Once again, I thank you for committing to begin a signup 
for the Quality Loss Program in May. Obviously, there is still some 
work to do on the interpretation. Can you tell me if the ``decision 
memo'' has reached the Secretary's office for consideration yet?
    Answer. All necessary decisions to begin signup have been made.
    Question. Considering the late date of implementation and the fact 
that financial plans have been made with question marks with regards to 
the specifics of this program, will the notice include examples so that 
farmers and their bankers have some indication of what they can expect 
for assistance?
    Answer. The notice will include examples and explain eligibility 
requirements for a QLP payment, including providing acceptable evidence 
of the quality loss.
                  fruit and vegetable violations rule
    The Fruit and Vegetable Rule contained in the 1996 farm bill was 
intended to keep farmers from switching program crop acres to fruit and 
vegetable production while pocketing AMTA payments. If a farmer planted 
a fruit or vegetable on a program acre, the fine was the value of the 
crop planted.
    A number of farmers who grow dry beans in ND have inadvertently 
violated this rule due to farm reconstitutions, putting land into or 
out of CRP, etc. The fines range from $1,000 to $53,000. The farmer 
with the $53,000 fine has annual AMTA payments of $17,000 for his 
entire farm.
    In ND, the fine for growing dry beans on program acres was 
calculated the following way: the county yield (1,000) <greek-e> a set 
price ($.18) = $180/acre
    A retroactive rule change was put in place in January:
  --1st violation--a fine of 3 times the AMTA payment on the acres in 
        question. (For ND, a $30 to $45/acre fine instead of $180)
  --2nd violation--the fine reverts to the original rule.
    The rule change was withdrawn for review in late January of this 
year.
    Question. What is the status of the potential rule?
    Answer. The Department is still considering whether to publish a 
final rule.
    Question. Don't you agree that the penalty for the 1st violation 
under this change is a sufficient deterrent, and that leaving the 
original ``drop dead'' fine in place for the 2nd violation is a good 
compromise in that it alleviates ruinous fines to inadvertent violators 
while protecting the traditional fruit and vegetable growers?
    Answer. There are varying opinions on this matter. During the 
comment period, some people advocated that no change in the rule should 
be made.
                                 ______
                                 

               Questions Submitted by Senator Tim Johnson

                           bioenergy program
    Question. In South Dakota, the Bioenergy Program has already 
benefitted three ethanol companies and four specific plants. Broin 
Enterprises of Scotland, SD--my State's first ethanol plant, and 
Heartland Grain Fuels--with ethanol plants in Huron and Aberdeen, SD--
have both been approved for compensation under the Bioenergy Program.
    Additionally, Dakota Ethanol, a new 40 million gallon farmer-owned 
ethanol plant based near Wentworth, SD, has tentatively been approved 
for compensation subject to the completion of the plant's construction 
yet this year.
    Can you verify for certain if the Administration has included the 
authorized $150 million for the Bioenergy Program for fiscal year 2002 
(in addition to the $150 million approved for fiscal year 2001)? 
Additionally, I believe the Bioenergy Program has merit and needs to be 
extended beyond 2002. Please tell me what the future holds for the 
Bioenergy Program in the USDA CCC budget.
    Answer. Yes, the Administration has included the authorized $150 
million for the Bioenergy Program for fiscal year 2002. It is shown in 
the CCC Commodity Estimates Book, fiscal year 2002 President's Budget, 
Presentation No. 0301, dated April 9, 2001.
                        farm bill emergency aid
    I believe Congress can and should amend current farm policy 
immediately to provide a more predictable secure safety-net for farmers 
in 2001 and 2002--essentially modifying the farm bill now instead of 
waiting until it expires. It is time for a new farm bill that provides 
a meaningful income safety net, is reasonable in cost to the American 
taxpayers, yet assures some level of economic security for our nation's 
family farmers and ranchers.
    Question. When can we expect USDA to offer any suggestions for re-
writing the farm bill?
    Answer. The Administration plans to begin a process this month to 
develop policy proposals that will be included in a new farm bill. This 
process is expected to be completed by the end of the summer.
               state ag mediation grants program funding
    Question. The President's budget requests $3 million for State 
Mediation Grants for fiscal year 2002, although it has been suggested 
that $4.5 to $5 million is needed to adequately fund this program.
    Can you provide a list of the States which have requested to 
participate in this program but have been turned down for lack of 
funding?
    Answer. No States with qualified programs have been turned down for 
participation in the State Mediation Grants program. This fiscal year 
26 State programs requested matching Federal grants totaling $3.825 
million. With an appropriation of $3 million, each State received 
approximately 78 percent of its request. Several States including 
Colorado, Maine, Mississippi, New York and Tennessee are interested in 
becoming certified pending availability of mediation grant funds.
    Question. Please provide information relating to any problems 
identified by currently participating States associated with low 
funding levels.
    Answer. Participating States are unable to engage in some of the 
activities authorized under the program. The Grain Standards and 
Warehouse Improvement Act of 2000, which reauthorizes the State 
Mediation Grants program through 2005, also authorizes the use of 
matching grant funds for financial advisory and counseling services. At 
the pro rated level, States are not able to assume this additional 
responsibility. States also are unable to address the full range of 
issues that the law makes subject to mediation.
    In addition, officials in five more States are interested in 
becoming certified pending availability of mediation grant funds. The 
Federal share is authorized at 70 percent of the cost of a States's 
program, with the State contributing the remaining 30 percent. In 
fiscal year 2001 States have had to provide more than their required 
level of matching funds in order to maintain their operations. If 
Federal funds were further pro rated, there could come a point at which 
a State would consider its program not to be viable.
                       conservation program cuts
    Question. USDA's proposed budget adequately addresses some of our 
agricultural, trading, and food safety priorities. Yet, I believe it 
fails to make some specific and significant investments in a secure 
farm safety net, conservation programs, efforts to restore marketplace 
competition, and rural development.
    I am specifically concerned about the cuts or elimination of funds 
in fiscal year 2002 for important conservation programs such as the 
Wetlands Reserve Program, the Wildlife Habitat Incentives Program, and 
the Emergency Conservation Program.
    Can we expect USDA to re-evaluate their position on significant 
cuts to conservation programs?
    Answer. President Bush has made it clear that providing a farm 
security net consistent with the free market, including assistance to 
farmers to protect our farm-based natural resources, is a key objective 
of USDA's mission. USDA is reviewing and analyzing program and policy 
options, to be considered in the next Farm Bill, that would achieve 
this objective. Objectives within this review and analysis process 
include (1) establishment of the appropriate balance between the two 
major approaches to resource protection--i.e., major land use change, 
such as cropland retirement, and better management and protection of 
working farmlands, (2) better targeting of funding for programs and 
policies involving either approach, and (3) more and better cooperation 
with local and State governments to ensure that the Federal funds are 
best spent and funding leverage is maximized.
    The Wetlands Reserve Program and the Wildlife Habitat Incentive 
Program have reached the acreage and/or funding limits established 
under the Federal Agriculture Improvement and Reform Act of 1996. Any 
future recommendations for these two programs or programs of these 
types will be developed within the farm bill review and analysis 
process. The President's Budget requests no funding for the Emergency 
Conservation Program for fiscal year 2002. However, the $5.6 billion 
Government-wide National Emergency Reserve proposed in the President's 
Budget could provide for emergency conservation needs.
    Question. Does USDA agree that programs like CRP, WRP, the new 
Farmable Wetlands Pilot, and others should be considered as part of a 
farm bill?
    Answer. USDA is in the process of reviewing and analyzing 
conservation policies and programs to be considered for the next farm 
bill. The important resource conservation actions and policies embodied 
in the current Conservation Reserve Program, Wetland Reserve Program, 
and the Farmable Wetlands Pilot Program will be carefully reviewed and 
evaluated in establishing our conservation program proposals and 
priorities.
                        wool assistance program
    Question. Some sheep producers in South Dakota have indicated to me 
that although the signup period for the ad hoc wool assistance program 
ends this Friday (May 4), actual payments will not be made until mid to 
late June. Sheep growers truly expect the payments to be made in May.
    Can you confirm when the payments will be made on this program?
    Answer. The target date for payments under the Wool and Mohair 
Market Loss Assistance Program (WAMLAP) II is the week of June 20, 
2001.
    Question. Also, can you provide me with the wool payments per State 
and how many producers are participating in the emergency wool program?
    Answer. There are approximately 66,800 sheep and lamb operations 
that participated in WAMLAP I. Participation in WAMLAP II will not be 
known until the program's conclusion. Attached is a breakdown by State 
of WAMLAP I payment activity.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

        Questions Submitted to the Foreign Agricultural Service

              Questions Submitted by Senator Thad Cochran

                 starlink buy-back/bioengineered foods
    Question. The Washington Post has reported that StarLink was found 
in new categories of corn products such as corn bread, polenta, and 
hush puppies in tests conducted by the company, Aventis, that developed 
the corn.
    In your opinion, will this trigger more food recalls and cause more 
countries that are opposed to genetically-engineered food to avoid U.S. 
food products?
    Answer. It is our understanding that Aventis, in a petition to EPA, 
described a new, more sensitive test for the StarLink protein (Cry9C) 
in finished foods. Aventis submitted data showing that in some food 
products made from dry milled corn meal, such as corn muffins, the 
StarLink protein was not broken down, although the level of the protein 
in the food was greatly reduced. The products tested were made from 100 
percent StarLink corn. In addition, Aventis' recent submission 
supported a report EPA issued in March for public comment which showed 
that the process of wet-milling corn effectively eliminates StarLink 
protein from finished food products, such as corn oil, corn syrup, 
alcohol, and corn starch. However, contrary to what was reported in the 
Washington Post article, Aventis did not itself test any commercial 
food products and so did not find any StarLink in such foods. EPA will 
carefully evaluate this new information as it continues to review 
Aventis' pending request to completely authorize StarLink corn in the 
human food supply.
    Pending a comprehensive evaluation of all scientific information 
available on human health concerns related to StarLink corn, EPA, the 
U.S. Food and Drug Administration (FDA) and the U.S. Department of 
Agriculture are continuing to coordinate an aggressive Federal effort, 
in cooperation with growers, millers, the food industry, and Aventis to 
divert StarLink corn away from the human food supply. USDA has been 
very successful working with growers and seed companies to ensure that 
bags of corn seed intended for the 2001 growing season are tested for 
the presence of StarLink corn and are not planted if found to contain 
StarLink. FDA and the Centers for Disease Control and Prevention (CDC) 
are continuing their investigation of cases in which people reported 
experiencing allergic reactions from eating corn products. Results of 
this investigation will be made public as soon as they are available.
    Due to these extraordinary efforts, we are hopeful that few if any 
future food recalls due to the new test will be necessary, and that 
countries importing U.S. corn may rest assured that it is safe.
            agricultural trade/foreign agricultural service
    Question. Last week, the Secretary testified that the 
Administration has established an ambitious trade expansion agenda, and 
USDA will be a ``full and active participant in that effort.'' Can you 
be more specific about the major trade barriers faced by U.S. 
agriculture and how the Department is working and coordinating its 
efforts to further reduce trade-distorting policies, ensure fair 
competition in global markets, and expand and enhance economic and 
trade opportunities for U.S. agriculture?
    Answer. There are numerous areas where USDA is working, together 
with USTR and other U.S. Government agencies, to remove barriers to 
U.S. agricultural exports. In addition to the numerous bilateral issues 
that come up on a regular basis, as indicated in the explanatory notes 
for FAS, one of the most significant USDA activities is the WTO 
negotiations on agriculture. These negotiations began in early 2000, as 
required by the WTO Agreement on Agriculture, and are making good 
progress. This is an important opportunity to reduce barriers in all of 
our trading partners with one agreement. Many significant barriers to 
our exports will be addressed in these WTO negotiations. In the area of 
market access, the most significant barrier we face is high tariffs. 
Average world tariffs for agricultural products are higher than 60 
percent, compared to the U.S. average of around 12 percent. We have 
proposed that these tariffs be reduced substantially and in a manner 
that reduces disparities among countries. In the area of subsidies, the 
European Union spends more than $5 billion in export subsidies 
annually, nearly 90 percent of all the export subsidies notified to the 
WTO. We have proposed that all export subsidies be eliminated. These 
are just some of the issues that are being dealt with in the WTO 
agriculture negotiations. For a complete listing of our proposals 
please look on the FAS web site (www. FAS.USDA.gov) under Trade Policy. 
USDA is also working closely with USTR and other agencies on regional 
and bilateral free trade agreement negotiations such as the Free Trade 
Area of the Americas, the Chile FTA, and the Singapore FTA.
    Another important area where U.S. agriculture faces barriers to our 
exports is the area of Sanitary and Phytosanitary (SPS) restrictions. 
While every country has the right to protect the health and safety of 
its consumers and to protect its producers from diseases and pests, 
these types of measures are often used to restrict trade without an 
appropriate scientific basis. USDA works with other government 
agencies, including FDA and USTR, to remove or modify these measures so 
that they do not impede U.S. exports. We also work to develop 
appropriate standards in the international standard setting bodies and 
to educate the authorities in developing countries so that their 
governments are less likely to adopt measures which do not meet the 
requirements of the WTO SPS agreement.
    Another important area of work for USDA is to limit the 
restrictions being established in many countries on trade in the 
products of biotechnology. As these products become more common in 
international trade, many countries are proposing labeling and other 
measures to control their use and distribution. FAS does not currently 
have sufficient resources to keep up with the growing work load 
generated by these changes and, therefore, the President's budget has 
proposed additional funding for that purpose.
    Question. The fiscal year 2002 budget is an increase of $6.4 
million above the fiscal year 2001 level to enhance the Foreign 
Agricultural Service's capabilities to address technical trade issues 
and to strengthen the Service's market intelligence capabilities at its 
overseas posts. Please give us an assessment of our current 
capabilities in each of these areas and how our efforts will be 
strengthened with the additional funds requested.
    Answer. Roughly half of this increase covers non-discretionary 
increases in salaries and benefits associated with the proposed fiscal 
year 2002 pay raise. The remainder is intended for expanding overseas 
market intelligence capacity and dealing with technical trade barriers.
    FAS overseas posts have traditionally focused on providing market 
research and intelligence, promoting U.S. products through marketing 
activities, and administering food aid programs. Since the Uruguay 
Round, this workload has been increased by the need to ensure foreign 
market access through trade policy activities. Growth of this portion 
of an already heavy workload, especially as it relates to non-tariff 
barriers, has shifted attention in our overseas posts from traditional 
reporting to trade policy interventions. Nevertheless, at this time we 
are unable to follow WTO compliance systematically, even to the extent 
of translating and analyzing other countries' formal WTO notifications 
of intended changes in regulations and laws. Our efforts to shift from 
gathering market intelligence on traditional bulk commodities to 
increasing emphasis on the faster-growing consumer-ready market segment 
have been hampered by diversion of staff resources to market access 
issues. We are missing market opportunities. New overseas staff will 
handle routine market intelligence and analytical chores as well as 
bolster our ability to track compliance with WTO obligations. Adding 
staff for this routine work will free our American agricultural 
attaches to focus on high-priority market access tasks, while ensuring 
that unbiased, accurate, and time-critical market intelligence 
continues to flow.
    In Washington, additional trade policy staff will focus on knocking 
down or preventing the erection of non-scientific, technical trade 
barriers. Some such barriers already keep U.S. products out of foreign 
markets, such as Europe's ban on bioengineered corn. Examples of 
potential future barriers could include bans on bioengineered cotton, 
which is already in the marketplace, or bioengineered wheat, which 
could be on the market in the next 3 years. Current staffing permits 
FAS to react ad hoc to crises. It is already not sufficient to review 
systematically foreign government compliance with WTO obligations, to 
develop and implement strategies for dealing with the growth in 
technical trade barrier activity, to resolve technical issues of 
commercializing new products of biotechnology, or to ensure support of 
U.S. positions on food safety when they are debated within standard-
setting international organizations.
    Question. Where do the greatest opportunities to expand U.S. 
agricultural exports exist? How are these determined?
    Answer. The Foreign Agricultural Service has set a goal of 
increasing the U.S. share of world agricultural exports from its 
current level of 18 percent to 22 percent by 2010. To be successful in 
reaching this overall goal, the Department must increasingly focus its 
trade policy efforts and export promotion programs and activities in 
those markets expected to be the most dynamic import growth markets of 
the next 10 years. Our experience and empirical evidence indicate that 
the greatest opportunities are in the emerging markets of China, 
Southeast Asia and Latin America (especially Mexico). In the somewhat 
longer term, India should be added to the list.
    This determination is based on two primary factors. The first 
factor is based on identifying where overall food consumption growth is 
expected to be greatest given projected increases in consumer incomes 
and the propensities to translate those income gains into increased 
food consumption. This roughly translates into identifying the 
countries where the growth in the middle class is expected to be the 
greatest. One of the first consumer ``needs'' to be satisfied during 
the transition to middle class is food--namely, the quantity and 
variety of food consumed. In 19 of the world's largest developing 
countries, experts have projected 600 million additional middle class 
consumers will emerge by 2006--the large majority are in the markets 
listed above.
    The second factor involves those countries with very high market 
access barriers where reductions in those barriers through trade 
negotiations would translate into significant new opportunities for 
U.S. exporters. With the exception of Mexico, many of the countries 
identified above impose substantial barriers to U.S. exporters. For 
example, agricultural tariffs average 62 percent in WTO countries as a 
whole and over 100 percent (super tariffs) in a number of developing 
countries such as India. Levels that high not only sharply reduce U.S. 
exports, they act as a tax on local consumers, which leads to higher 
domestic prices and reduced overall food demand. The higher prices, in 
turn, lead to overproduction by local producers and is just another 
form of domestic support--paid for by consumers instead of taxpayers.
    For the countries listed above, the combination of these two 
factors put them at the top of our list of ``best growth market'' 
prospects over the next 10 years. U.S. success in these growth markets 
will largely determine whether FAS' 22 percent market share goal will 
be achieved. However, there will be fierce competition among the 
world's major exporters (i.e. the EU and Cairns Group) to capture a 
large share of this new demand. Given the significant role that 
exchange rates play plus the increasing export expansion commitments of 
our competitors, especially in the area of market development, it is 
still too early to predict who will capture the lion's share of these 
new export opportunities.
                       cochran fellowship program
    Question. The fiscal year 2002 budget proposes to maintain 
appropriations for the Cochran Fellowship Program at a level of $4 
million. What are the benefits of this program, not only in terms of 
educating foreign participants about U.S. products, but educating them 
about U.S. policies on issues such as food safety and biotechnology?
    Answer. In fiscal year 2001, we expect to provide training programs 
for over 830 international participants from about 75 countries. This 
will be about a 14 percent increase in the number of participants from 
fiscal year 2000. Roughly half of these activities will directly 
involve providing training to potential international buyers of U.S. 
agricultural products, and will include making direct contact between 
U.S. agricultural producers and potential buyers. These activities will 
provide U.S. producers the opportunity to showcase not only the variety 
of U.S. products available on the market but to educate potential 
consumers about the uses and quality of these products. Many of these 
potential buyers are from countries not currently importing U.S. 
agricultural products.
    Because market access issues in the areas of food safety and 
biotechnology remain a significant constraint to increased market 
opportunities, the Cochran Fellowship Program is working with FAS 
Agricultural Affairs Offices overseas and with our USDA regulatory 
agencies to provide training in these areas. For example: USDA's Animal 
and Plant Health Inspection Service (APHIS) and Food Safety and 
Inspection Service (FSIS) are working with the Cochran Program to 
provide training to their counterparts in other countries in animal 
diseases and meat and poultry inspection. We expect to provide training 
to over 50 international participants in these areas in fiscal year 
2001. We also expect to provide training to over 70 international 
regulators, scientists, and journalists regarding biotechnology issues. 
In addition, we will organize World Trade Organization (WTO) accession 
training activities for about 15 international policy makers in fiscal 
year 2001.
    Question. How has the Cochran Fellowship Program contributed to our 
market development efforts?
    Answer. The Cochran Fellowship Program works with FAS Agricultural 
Affairs and Agricultural Trade Offices overseas, as well as with U.S. 
agricultural trade and market development associations, to identify 
candidates for training that benefit market development efforts. This 
process has proven successful in the past. Examples include the 
following:
  --Turkish participants who attended a Food Executive Program in 
        fiscal year 2000 have already imported biscuits, cheese cake, 
        popcorn, and peanuts from the U.S. and plan to import over $5 
        million in 2001;
  --A Russian participant purchased a 54 head dairy goat herd (valued 
        at over $1 million);
  --A Moldovan participant has been buying U.S. soybeans for human 
        consumption and has recently opened 10 new shops due to 
        increased demand;
  --Vietnamese and Colombian participants started importing California 
        wine as a result of their training; a participant from India 
        reports that he started importing cherries, apricots, prunes, 
        and other items;
  --A Polish participant purchased 5,300 portions of U.S. cattle semen; 
        and
  --The American Soybean Association states that the Cochran Program 
        has benefitted U.S. export of soybeans to Russia.
    Question. In past years, additional funding has been provided for 
the program through AID and the CCC emerging markets program. Is 
additional funding being provided for the program in fiscal year 2001?
    Answer. The Cochran Fellowship Program received $1.662 million from 
AID through the Freedom Support Act in fiscal year 2001 for activities 
in the Independent States of the Former Soviet Union. To date we have 
received $720,000 in fiscal year 2001 funding from the CCC Emerging 
Markets Program in support of Cochran activities in China, Southern 
Africa, and Serbia/Montenegro. We intend to request additional funds 
for Vietnam and Russia in the near future.
    Question. Is the fiscal year 2002 funding level proposed for the 
Cochran Fellowship Program sufficient to extend fellowships to all 
countries which seek to participate in the program? If not, what 
additional funding would be required to meet these requests?
    Answer. Each year the demand for the Cochran Fellowship Program 
expands, not only for additional countries but also to increase the 
size and scope of the program in some countries. In fiscal year 2001, 
for example, the program expanded into seven new countries (Yemen, 
Bolivia, Ecuador, Peru, Zimbabwe, Mozambique, and Botswana), requests 
for the number of Cochran fellows increased about 14 percent from 735 
participants to over 830 participants, and we have seen significant 
expansion in requests for training in food safety, biotechnology, WTO 
accession, and the global food for education program. We estimate that 
the budget request is sufficient to meet the needs of the program.
    Question. Please provide the fiscal year 2000 and 2001 program 
participant levels by country and region.
    Answer. In fiscal year 2000, the Cochran Fellowship Program 
provided training for 735 international participants from 70 countries. 
Participant numbers by region and by country follow:
    Asia.--180 participants from nine countries: Malaysia (16 
participants), China (43), Thailand (29), Indonesia (23), Philippines 
(19), Vietnam (31), India (11), Pakistan (2), and Sri Lanka (6).
    Latin America and Caribbean.--165 participants from 23 countries: 
Mexico (16), Venezuela (15), Trinidad & Tobago (13), Antigua (1), 
Barbados (9), Dominica (1), Grenada (1), Haiti (1), Jamaica (23), 
Dominican Republic (2), St. Kitts & Nevis (3), St. Lucia (3), St. 
Vincent (2), Panama (7), Colombia (26), Guatemala (8), Honduras (4), 
Costa Rica (11), Nicaragua (6), Brazil (5), El Salvador (4), Guyana 
(2), and Uruguay (2).
    Eastern Europe.--156 participants from 16 countries: Turkey (15), 
Poland (20), Hungary (10), Czech Republic (18), Slovakia (10), Albania 
(2), Bulgaria (15), Slovenia (10), Croatia (14), Latvia (8), Estonia 
(8), Lithuania (3), Romania (12), Bosnia (4), Macedonia (1), and 
Montenegro (6).
    Africa and Middle East.--48 participants from 11 countries: Cote d' 
Ivoire (4), Ghana (1), Senegal (2), Nigeria (4), South Africa (6), 
Kenya (8), Uganda (4), Tanzania (1), Tunisia (8), Morocco (7), and Oman 
(3).
    Independent States of the Former Soviet Union.--186 participants 
from 11 countries: Russia (41), Ukraine (21), Kazakstan (20), 
Kyrgyzstan (18), Uzbekistan (17), Turkmenistan (13), Tajikistan (4), 
Armenia (8), Moldova (17), Georgia (18), and Azerbaijan (9).
    The Cochran Fellowship Program has selected over 830 participants 
for the program in fiscal year 2001. The largest regional increases are 
in Asian and Latin America and Caribbean countries, as these are 
considered the largest growth markets for U.S. agricultural products. 
The program is also expanding in Sub-Saharan Africa, and the Middle 
East.
    Question. Please provide examples of the benefits of the 2000 
Cochran Fellowship Program to U.S. agriculture.
    Answer. Several examples of the benefits of fiscal year 2000 
programs, include:
  --A Regional Southeast Asia Biotechnology training program for 
        regulators and journalists from Thailand, Malaysia, Indonesia, 
        the Philippines, and Vietnam led to a number of positive local 
        newspaper articles on the safety of U.S. biotechnology 
        products.
  --The Cochran Program worked with several U.S. companies to provide 
        dairy genetics training to African dairy technicians in fiscal 
        years 1998, 1999 and 2000. These programs enhanced the trade 
        linkages with U.S. companies and U.S. genetic exports to the 
        region have expanded significantly.
  --The FAS Agricultural Trade Office (ATO) in Shanghai, China reports 
        that a Chinese wood products team ``reported more use of U.S. 
        wood products, such as maple, cherry, and walnut, in their 
        projects. And as these companies are major players or trend 
        setters in interior decoration it also influenced the use of 
        American wood products by other companies.''
  --Two Malaysian participants placed orders for trial shipments of 
        Medjool dates, pecans, salted pistachios, prune concentrate, 
        and other products after their Cochran training. The FAS 
        Agricultural Office in Malaysia States: ``The first-hand 
        knowledge acquired served as a foundation for these importers 
        to look to the United States for premium and quality 
        products.''
  --An Indian participant in a Cochran supermarket program reports that 
        he developed business relationships with several U.S. companies 
        during the training. He reports that: ``One container of grain 
        has just arrived and another with Oregon cherries, California 
        apricots, prunes, and other canned items will be here next 
        month.'' Fiscal year 2000 was the first year for the Cochran 
        Program in India.
  --A fiscal year 1999 Vietnamese participant in a consumer food 
        program reports that he ``has set up a distribution center and 
        plans to import 20 percent of the food products from the United 
        States.''
  --The FAS Agricultural Trade Office in Miami reports that a 1999 
        Cochran participant is now the largest distributor in Barbados 
        and has significantly increased imports of U.S. produce, 
        especially organic, to supply hotels and cruise ships and 
        increased Certified Angus Beef and other meat products. In 
        addition, two chefs are now using new products from the U.S. in 
        their menus, such as organic produce, gourmet mushrooms, and 
        duck products.
  --As a result of a Cochran Program, a Colombian company reports they 
        have introduced California wine to the largest supermarket 
        chain in Colombia, and are working with another Cochran team 
        member to continue their marketing activities to other Latin 
        American countries.
  --Following his fiscal year 2000 training program, a Kazakh fellow 
        organized a private farmers market and established a school to 
        train private farmers in the Pavlodar Oblask.
  --A Cochran Program for Polish veterinarians laid the foundation for 
        new health certificates for shipment of U.S. livestock to 
        Poland. The FAS Office in Warsaw estimates that these 
        certificates will allow for the continued export of $50 to $60 
        million of U.S. commodities.
                   export credit guarantee activities
    Question. Please provide a listing of the activities supported 
under each of the four export credit guarantee activities in fiscal 
year 2000 and in fiscal year 2001 to date: Supplier Credit Guarantees, 
Facilities Guarantees, GSM-102 and GSM-103.
    Answer. The information follows:
        activities for fiscal year 2001 are as of april 27, 2001
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            overseas offices
    Question. Provide a list of FAS overseas counselor/attache and 
trade offices for fiscal year 2000, fiscal year 2001, and proposed for 
fiscal year 2002. Please show the funding and full-time equivalent 
staffing levels of each office.
    Answer. A list of FAS overseas counselor/attache and trade offices 
and the amount of funding and full-time equivalent staffing levels is 
provided.
    [The information follows:]

 FOREIGN AGRICULTURAL SERVICE OVERSEAS COUNSELOR/ATTACHE AND TRADE OFFICES FUNDING AND STAFF \1\ LEVELS--FISCAL
                                           YEAR 2002-FISCAL YEAR 2002
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal year 2000      Fiscal year 2001      Fiscal year 2002
                                               -----------------------------------------------------------------
         Foreign Agricultural Affairs                       On-board              On-board              On-board
                                                 Funding    employ.    Funding    employ.    Funding    employ.
----------------------------------------------------------------------------------------------------------------
WESTERN EUROPE:
    FRANCE....................................       $794          6       $747          6       $794          6
    GERMANY...................................        696          6        572          6        592          5
    ITALY, EMB................................        757          6        671          6        757          6
    GREECE....................................        228          2        220          2        228          2
    NETHERLANDS...............................        811          5        610          5        811          5
    BELGIUM, E................................        240          1        241          1        240          1
    DENMARK...................................        193          3        189          3        193          3
    SPAIN.....................................        793          6        739          6        793          6
    PORTUGAL..................................        155          2        161          2        155          2
    UNITED KINGDOM............................        773          6        721          5        773          6
    IRELAND...................................        158          1        141          1        158          1
    BELG. USEU................................      1,416          6      1,136          6      1,416          6
    SWITZ, GENEVA.............................      1,062          4        894          4      1,062          4
    ITALY, FODAG..............................        232          1        229          1        232          1
                                               -----------------------------------------------------------------
      TOTAL...................................      8,308         55      7,271         54      8,204         54
                                               =================================================================
EASTERN EUROPE AND EURASIA:
    AUSTRIA...................................        691          4        672          4        691          5
    CZECH REP.................................         42          1         46          1         42          1
    BULGARIA..................................        258          3        323          4        362          4
    ROMANIA...................................         42          1         58          1         42          1
    PAKISTAN..................................        299          4        304          3        299          4
    POLAND....................................        550          4        592          4        654          5
    UKRAINE...................................         48          1         59          1         48          2
    RUSSIA....................................        950          8        923          9      1,010          8
    SWEDEN....................................        367          5        361          4        367          5
    TURKEY....................................        493          4        520          4        615          4
                                               -----------------------------------------------------------------
      TOTAL...................................      3,740         35      3,858         35      4,130         39
                                               =================================================================
WESTERN HEMISPHERE:
    ARGENTINA.................................        757          5        795          5        852          5
    BRAZIL....................................        438          4        448          4        498          4
    CANADA....................................        488          5        520          4        868          5
    CHILE.....................................        343          3        340          3        343          3
    COLOMBIA..................................        530          4        385          4        630          4
    COSTA RICA................................        402          3        431          3        402          3
    DOM. REPUBLIC.............................        471          2        432          2        467          2
    GUATEMALA.................................        461          3        459          3        511          3
    MEXICO....................................      1,000          9        931          8      1,104          8
    PERU......................................        343          4        341          4        343          4
    ECUADOR...................................        154          2        140          2        154          2
    VENEZUELA.................................        779          5        818          5        675          4
                                               -----------------------------------------------------------------
      TOTAL...................................      6,166         49      6,040         47      6,847         47
                                               =================================================================
AFRICA AND MIDDLE EAST:
    COTE D'IVOIRE.............................        342          3        334          3        342          3
    EGYPT.....................................        464          4        376          3        464          4
    ISRAEL....................................        158          1        180          1        328          2
    SYRIA.....................................         54          1         56          1         54          1
    KENYA.....................................        367          2        357          2        367          2
    MOROCCO...................................        261          3        256          3        261          3
    ALGERIA...................................         35          0         34          0         35          0
    TUNISIA...................................         75          2         70          2         75          2
    NIGERIA...................................        439          2        408          2        482          2
    SO. AFRICA................................        695          6        649          6        695          6
                                               -----------------------------------------------------------------
      TOTAL...................................      2,890         24      2,720         23      3,103         25
                                               =================================================================
ASIA:
    AUSTRALIA.................................        308          3        310          4        308          3
    CHINA.....................................        952          4        934          4      1,827          5
    INDIA.....................................        390          7        402          7        505          8
    BANGLADESH................................         45          1         41          1         45          1
    INDONESIA.................................        444          5        425          4        444          5
    JAPAN.....................................      1,431         12      1,539         12      1,431         12
    KOREA.....................................        610          5        640          5        705          5
    MALAYSIA..................................        279          3        276          3        279          3
    SINGAPORE.................................          0          0        222          2        222          2
    NEW ZEALAND...............................        189          3        185          3        189          3
    PHILIPPINES...............................        505          5        508          5        795          6
    THAILAND..................................        539          5        527          5        574          5
    VIETNAM...................................        351          2        337          2        351          2
                                               -----------------------------------------------------------------
      TOTAL...................................      6,043         55      6,346         57      7,675         60
                                               -----------------------------------------------------------------
      TOTAL, FAA..............................     27,147        218     26,235        216     29,959        225
                                               =================================================================
AGRICULTURAL TRADE OFFICES:
    SAO PAULO, Brazil.........................        439          4        462          4        439          4
    SHANGHAI, China...........................        497          1        519          1        497          1
    GUANGZHOU, China..........................        434          1        471          1        434          1
    HAMBURG, Germany..........................        461          3        434          3        461          3
    HONG KONG.................................        896          4        858          4        896          4
    JAKARTA, Indonesia........................        293          1        285          1        293          1
    TOKYO, Japan..............................      2,050          5      2,122          5      2,050          5
    OSAKA, Japan..............................        534          3        637          3        534          3
    SEOUL, Korea..............................      1,027          4      1,011          4      1,027          4
    MEXICO CITY...............................      1,191          4      1,370          4      1,191          4
    MONTERREY, Mexico.........................  .........  .........  .........  .........        400          4
    MOSCOW, Russia............................        323          1        317          1        323          1
    RIYADH, Saudi Arabia......................        257          2        275          2        257          2
    SINGAPORE.................................        860          3          0          0          0          0
    DUBAI, U.A.E..............................        390          4        393          4        390          4
    CARIBBEAN BASIN, USA......................        410          3        409          3        410          3
                                               -----------------------------------------------------------------
      TOTAL, ATO..............................     10,062         43      9,563         40      9,602         44
                                               =================================================================
      GRAND TOTAL.............................     37,209        261     35,798        256     39,561       269
----------------------------------------------------------------------------------------------------------------
\1\ Overseas managed on a head count basis, not FTE basis. Total includes FSN's as well as U.S. Foreign Service
  personnel.


      INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES \1\
                         [Fiscal year 2000-2002]
------------------------------------------------------------------------
                                           Fiscal     Fiscal     Fiscal
                                         year 2000  year 2001  year 2002
------------------------------------------------------------------------
Foreign Agricultural Affairs...........      8,796      8,882     10,362
Agricultural Trade Offices.............      2,330      2,372      1,741
                                        --------------------------------
      TOTAL............................     11,126     11,254    12,103
------------------------------------------------------------------------
\1\ ICASS and Other Reimbursements to State Department.

                             public law 480
    Question. Provide a listing of the Public Law 480 funding 
allocations, by country and commodity, for fiscal year 2000, and for 
fiscal year 2001 to date.
    Answer. [The information follows. Allocations for fiscal year 2001 
are as of March 6, 2001.]
    [Clerk's Note.--Tables I-IV--Planned U.S. Food Aid for Fiscal Year 
2001 can be found in Subcommittee files.]
          foreign market development (fmd) cooperator program
    Question. Provide a breakdown of how FMD Cooperator Program funds 
were allocated in each of fiscal years 2000 and 2001 to date.
    Answer. The information is provided for the record.
    [The information follows:]


------------------------------------------------------------------------
                                            Fiscal year     Fiscal year
              Organization                 2000  budget    2001  budget
------------------------------------------------------------------------
American Forest and Paper Association...      $2,851,287      $2,962,771
American Peanut Council.................         561,945         558,944
American Seafood Institute..............          80,069          55,611
American Seed Trade Association.........         272,163         274,889
American Sheep Industry Association.....         167,537         169,639
American Soybean Association............       7,081,782       7,400,417
California Agricultural Export Council..          11,269          11,403
Cotton Council International............       1,953,000       2,087,397
Leather Industries of America...........         198,069         199,000
Mohair Council of America...............          26,129          26,183
National Cottonseed Products Association         140,374         120,558
National Dry Bean Council...............         122,103         122,218
National Hay Association................          55,345          40,218
National Renderers Association..........       1,009,044         998,170
National Sunflower Association..........         265,871         265,475
North American Millers Association......          81,528          70,368
USA Dry Pea and Lentil Council..........         187,890         187,738
USA Poultry and Egg Export Council......       1,512,990       1,495,170
USA Rice Federation.....................       1,739,535       1,687,806
U.S. Dairy Export Council...............         708,348         808,916
U.S. Grains Council.....................       5,709,387       5,559,188
U.S. Hide, Skin and Leather.............          85,759          85,000
U.S. Livestock Genetics Export Inc......         801,336         741,718
U.S. Meat Export Federation.............       1,528,287       1,455,832
U.S. Wheat Associates...................       6,394,954       6,161,370
------------------------------------------------------------------------

                            catfish imports
    Question. The U.S. catfish industry has had an analysis done of the 
economic indicators of injury due to imports of frozen catfish fillets 
from Vietnam. The analysis concluded that data suggests that imports of 
frozen catfish fillets from Vietnam have both displaced significant 
volumes of U.S. produced frozen catfish fillets and kept U.S. 
producers' prices suppressed. This has affected the earnings and 
business prospects of U.S. catfish farmers and processors. The industry 
has been advised that an antidumping (Section 731) petition should be 
filed against imports of frozen catfish from Vietnam.
    How can the Department best help the catfish industry to publicize 
its concern over the injury being inflicted by the imports from Vietnam 
and its desire for active consideration of an antidumping petition?
    Answer. The Department is aware of the concerns of the catfish 
industry and believes that a greater understanding of the various 
competitive factors involved best serves as a platform for future 
action should that be deemed the appropriate response. USDA is working 
with an interagency working group, under USTR, to discuss and analyze 
various issues and options pertaining to the catfish industry's 
concerns about increasing imports from Vietnam. In part due to the U.S. 
industry's concerns and issues raised under the catfish interagency 
working group, the U.S. Food and Drug Administration has issued an 
import alert requiring that catfish from Vietnam be labeled with its 
common or usual name, not simply ``catfish.'' This FDA alert was issued 
in response to Vietnamese exports being mislabeled as ``catfish'' even 
though U.S. common or usual name requirements do not permit that name 
for the Vietnamese species. We are hopeful that the recent FDA import 
alert has been effective and will eliminate the need for further 
actions. Other possible trade remedies might include: Requesting the 
U.S. International Trade Commission to conduct a Section 332 fact-
finding investigation; filing an antidumping investigation; or filing a 
Section 406 non-market safeguard investigation.
                                 ______
                                 

              Questions Submitted by Senator Arlen Specter

                       byrd amendment on dumping
    Question. The fiscal year 2001 Agriculture Appropriations bill 
included financial assistance to industries which are the victims of 
continued dumping and subsidization by our nation's trade partners. It 
required that antidumping and countervailing duties collected by U.S. 
Customs be set aside for grants to U.S. producers for certain purposes, 
including research and development, equipment, and health care and 
pension benefits. This legislation was expected to alleviate some of 
the hemorrhaging taking place in the agriculture industry, without 
modifying the circumstances in which antidumping or countervailing 
duties may be imposed or the amount of such duties.
    What actions are the Administration taking to return antidumping 
and countervailing duties collected under this legislation to 
petitioners in the agriculture industry who sought relief from 
continued dumping and subsidization?
    Answer. The U.S. Customs Service in the Treasury Department is 
responsible for implementation of the Byrd amendment. We understand 
that it is presently completing draft implementing regulations that 
will be reviewed by the Treasury Department and will then be made 
available for public comment.
    Question. Concerns have been raised that our competitors in the 
World Trade Organization intend to challenge this legislation since 
they allege it is inconsistent with the principles of the General 
Agreement on Tariff and Trade of 1994 (GATT). In response to these 
concerns, I sent a letter, along with 13 of my colleagues, to President 
Bush urging the Administration to support this legislation on February 
14, 2001. Are these concerns valid and what actions are the 
Administration taking to support this measure?
    Answer. We believe the Byrd amendment is fully consistent with our 
international obligations. If a challenge is brought, the U.S. 
government will vigorously defend the law. So far, there have been no 
requests for formation of a WTO dispute settlement panel.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                 dairy export incentive program (deip)
    Question. The President's budget provides for a slight increase in 
the Dairy Export Incentive Program from the previous year. However, it 
is my understanding there are approximately 40,000 tons of nonfat dry 
milk awards that had been allocated under DEIP, but for some reason 
were never shipped. Although industry requests had been made for this 
tonnage to be reallocated, the previous Administration had taken the 
position that a reallocation would be in violation of the United States 
WTO commitments. Further, since the Article 9 ``rollover'' authority 
expired on June 30, 2000, these unshipped quantities cannot be made 
available under DEIP.
    Is Article 9 ``rollover'' authority expressly tied to previously 
allocated but unshipped tonnage in addition to previously unallocated 
tonnage?
    Answer. Based on the U.S. methodology for reporting on export 
subsidy reduction commitments, the rollover authority applies only to 
previously unallocated tonnage. The U.S. has already used the maximum 
flexibility allowable under Article 9 ``rollover'' for nonfat dry milk 
by bringing forward DEIP allocations un-awarded in previous years prior 
to the June 30, 2000, expiration of that provision.
    Question. Does the current Administration take the view that a 
reallocation of unshipped tonnage under DEIP would be a violation of 
our World Trade Organization (WTO) commitments and if so, what action 
will USDA take to better ensure that all allocations are actually 
shipped?
    Answer. Authorizing the export of awarded but unshipped dairy 
product tonnage would be inconsistent with the established U.S. 
methodology for reporting export subsidies to the WTO and would likely 
be viewed by our trading partners as an attempt to circumvent our 
subsidy reduction commitments. We are now engaged in negotiations in 
the WTO to further liberalize trade in agricultural products, including 
the elimination of export subsidies. Taking steps that would be viewed 
by many as a circumvention of our current export subsidy commitments 
would be detrimental to our efforts in those negotiations. The 
Department is reviewing whether re-announcement of canceled tonnage 
within the confines of an allocation year can be accomplished. If it is 
decided to modify the DEIP operations to allow for this, it is expected 
that this action would alleviate the majority of any problems with 
unshipped tonnage.
                        international trade/mpc
    Question. I appreciate your statements on the importance of trade 
to the agriculture sector and I agree that we must stay vigilant to 
protect our place in those markets. However, we must be careful not to 
rely too heavily on exports, as we learned in recent years following 
the Asian economic collapse. U.S. agriculture must not be left to the 
fragile whims of foreign economies. One trade issue that currently 
faces the dairy industry is the dramatic increase in Milk Protein 
Concentrate (MPC) imports.
     To what extent are Milk Protein Concentrates (MPCs) displacing 
U.S. dairy products in domestic markets?
    Answer. We have no hard quantitative data as to what products are 
manufactured using imported MPCs. A GAO study suggested a rather wide 
range of products with the higher protein MPCs directed towards health 
and nutrition foods. Having said that, it is our understanding that 
imported MPCs primarily substitute for nonfat dry milk (NDM) as a 
source of protein in beverage and food processing uses. MPC imports 
would, therefore, to some extent displace NDM. However, currently and 
in recent years, the CCC purchase price places a floor under domestic 
NDM prices. Therefore, we believe imported MPCs have little if any 
effect on U.S. dairy producer prices at present.
    Question. Does USDA take the position that MPCs are subject to 
review under the WTO and if not, will USDA take actions to ensure that 
they become subject to such review.
    Answer. Milk Protein Concentrates are subject to a U.S. tariff 
commitment in the WTO to limit the import duty to 0.37 cents per 
kilogram. At the time of the Uruguay Round, this product was 
specifically provided for in our tariff schedule and was not subject to 
any import quotas of the type that were converted to tariff rate quotas 
(TRQs) under that agreement. Consequently, MPCs were not included in 
our dairy TRQs. The United States expects other countries to adhere to 
their international market access commitments just as other countries 
expect the United States to comply with our commitments. Changes in 
these commitments would require agreement with affected countries on 
compensation. Consequently, changes to these international obligations 
must be considered carefully, within the context of our overall World 
Trade Organization commitments.
    Question. If the Bush Administration is not willing to take a 
strong stand to stop MPCs, which can devastate the U.S. dairy economy, 
what signals does that send to our trading partners about our 
willingness to stand firm in the interest of U.S. agriculture?
    Answer. As we have indicated, MPC imports have not been limited by 
quota and, therefore, could not have been included in our dairy TRQs 
when these were created during Uruguay Round negotiations. Revising 
commitments such as these require the agreement of our trading 
partners, generally through a process of consultation and negotiation. 
We will continue to stoutly defend the interests of U.S. agriculture in 
international negotiations. By adhering to our own commitments, we 
signal to our trading partners our firm expectation that they also 
abide by the commitments they have made with us.
                       emergency farm assistance
    Question. Mr. Shipman, you mention that the fiscal year 2002 budget 
includes $5.6 billion for natural emergencies and an additional amount 
totaling $1 trillion over the next ten years for other unforeseen 
needs. It is my understanding that the $5.6 billion would be to cover 
all emergency responses, government-wide.
    What mechanism is in place to determine how much of the $5.6 
billion would be allocated to agricultural related losses? Would 
assistance have to be delayed until the end of fiscal year 2002 before 
any allocations could be made?
    Answer. The $5.6 billion National Emergency Reserve would provide 
for additional needs arising from major disasters above and beyond 
normal and average needs. Through disaster related programs such as 
USDA's fire fighting program and FEMA's disaster assistance, the budget 
provides for average funding needs related to disasters. The allocation 
of funds from the Emergency Reserve would be proposed by the President 
and acted upon by the Congress. USDA would monitor disaster related 
conditions and needs related to its programs to assure timely 
assistance, and work with the Administration and Congress to expedite 
assistance from the National Emergency Reserve.
    Question. What if natural disaster losses far exceed $5.6 billion? 
How much of the $1 trillion could be made available immediately?
    Answer. In addition to the National Emergency Reserve, the 
President's Budget provides an additional amount totaling $1 trillion 
over the next ten years for a contingency reserve to allow for 
unanticipated priority spending needs, including emergency farm 
economic and disaster assistance. USDA would continue to work closely 
with the Administration and Congress to expedite assistance in the 
event that natural disaster losses exceed $5.6 billion.
    Question. How does USDA suggest that farm market loss assistance, 
if necessary, be allocated, especially for commodities that are not 
normally associated with ongoing USDA farm programs? Would you support 
assistance through some counter-cyclical formula, or would you prefer 
``freedom-to-farm'' style payments that are not necessarily tied to 
actual need?
    Answer. In terms of emergency assistance to be provided before a 
new farm bill is developed and put in place, we believe it will be 
necessary to assess the needs for assistance as they emerge and to 
balance that against the time available and to take into consideration 
administrative feasibility. Market loss assistance for the major 
program crops has been provided utilizing the production flexibility 
contract formula the past 3 years. This procedure can be utilized by 
the Department to deliver market loss assistance in a very timely way 
on short notice without the need for a time consuming and burdensome 
signup process. However, as you note, this approach does not 
efficiently target producers of other commodities when there may be 
special needs. For the longer term, we would like to work with Congress 
in developing a new Farm Bill which will provide an adequate safety net 
so that ad hoc emergency market loss assistance would not be necessary. 
In terms of the objectives served by market loss assistance, some form 
of counter-cyclical support, whether it be based on the marketing 
assistance loan program and/or other formula, should probably be 
considered as a component of the safety net along with de-coupled 
payments along the lines of the current program. We will be reviewing 
approaches for consideration in the coming weeks and look forward to 
further discussions with Congress during the Farm Bill process.
    Question. How would USDA respond to emergency needs that require a 
response this fiscal year?
    Answer. As we discussed in the previous question, the short time 
available to provide any assistance during the fiscal year, would 
dictate a careful look at administrative feasibility as a limiting 
factor on the type of assistance that could be delivered this year if 
the need arises.
                         foot and mouth disease
    When Secretary Veneman testified before us last week, I reminded 
her of the special importance of preventing an outbreak of Foot and 
Mouth Disease (or other serious animal disease) to a State like 
Wisconsin where the dairy industry, and it associated reliance on 
animal health, is so important to the State and regional economy. Since 
our hearing last week, Secretary Veneman has suggested that if an 
outbreak were to occur in this country, that USDA would provide 
compensation.
    Question. In what form might that compensation take shape, and 
further, in a State like Wisconsin, would that compensation also cover 
losses such as dairy production losses that would be in addition to the 
actual loss of the dairy herd?
    Answer. USDA has developed a compensation policy with the Office of 
Management and Budget and with input from other interested parties. The 
goal of this policy is to ensure that an outbreak is located and 
diseased or exposed animals are destroyed as soon as possible. For 
that, we need the full cooperation of all producers. For animals 
depopulated to eradicate a disease, USDA has traditionally paid an 
indemnity approximating the fair market value of the animals. We intend 
to provide compensation for the fair market value of animals 
depopulated due to FMD, possibly including other specific direct costs 
incurred by producers. We will provide more comprehensive information 
on our compensation policy in the near future.
                     global school feeding program
    Question. Former Senators George McGovern and Bob Dole have been 
actively supporting a Global School Feeding Program as an important 
step to improve nutrition, education, and ultimately, life in 
underdeveloped parts of the world. This year, USDA is providing $300 
million for the Global Food for Education Initiative, consistent with 
the vision of Senators McGovern and Dole.
     Does the Bush Administration continue to support this effort?
    Answer. The Department is in the process of implementing the pilot 
program. Decisions about further programming will depend on an 
evaluation of the success of the pilot in meeting its stated 
objectives.
    Question. Does USDA have authorization to continue the activity 
begun under the previous Administration in the absence of Congressional 
action?
    Answer. The Department is carrying out the pilot program under the 
authority of section 416(b) of the Agricultural Act of 1949. Section 
416(b) is permanent authority which permits the Secretary of 
Agriculture to make available CCC-owned commodities for donation 
overseas.
                                 ______
                                 

               Questions Submitted by Senator Tom Harkin

                        export credit guarantees
    Question. I wrote Secretary Veneman and Secretary O'Neill last 
month expressing my concern about the apparent readiness of the U.S. to 
accede to a proposal in the OECD to scale back substantially our GSM 
export credit guarantee programs. The OECD proposal would essentially 
eliminate the long-term GSM-103 program, cut roughly in half the time 
allowed for repayment of other GSM credit and increase premiums and 
fees for GSM credit guarantees.
    The GSM export credit guarantee programs are a critically important 
part of our nation's efforts to facilitate agricultural exports. For 
fiscal 2000, the GSM programs supported $3.8 billion in export credit, 
but the actual Federal outlays were only a fraction of that amount at 
$200 million. In addition, the U.S. spent about $200 million overall on 
the Market Access Program, the Foreign Market Development Program, the 
Export Enhancement Program and the Dairy Export Incentive Program.
    By contrast, the EU alone spends about $6 billion a year on direct 
export subsidies, and foreign governments spend some $230 million a 
year on market promotion--not counting various other export subsidizing 
policies. So I am very concerned that we not give up what is really our 
only export supporting program of any magnitude without getting 
concessions from the EU on export subsidies and from other countries on 
government trading enterprises.
     What can you tell me about the status of these negotiations and 
whether the U.S. is still prepared to accept the Organization for 
Economic Cooperation and Development (OECD) proposal?
    Answer. The United States and all other participants to these 
negotiations, except Canada, have accepted the draft proposal. Because 
the Canadians have not yet conveyed their intention to accept or reject 
the proposal, discussions in the OECD have not been concluded. We are 
very aware of the concerns expressed by members of Congress on this 
matter. We are also aware that most sectors of U.S. agriculture who 
currently benefit from the GSM program support our acceptance of the 
current proposal under discussion in the OECD. Our common goal, shared 
with both Congress and the agricultural community, is to assure the 
continuation of these GSM programs and maximize their benefit to U.S. 
agriculture. The U.S. Government has made clear that we will not accept 
any further changes in the draft proposal.
           conservation reserve program technical assistance
    Question. The fiscal year 2002 Budget request contains a provision 
that would direct the NRCS to provide technical assistance for the 
Conservation Reserve Program (CRP), a conservation program funded by 
the Commodity Credit Corporation (CCC), out of its Conservation 
Operations Account, instead of receiving reimbursement from the CCC. I 
am concerned about this change. I fear that this dangerous approach to 
funding conservation technical assistance would force NRCS to redirect 
staff to those areas of the country that have the most CRP 
participation at the cost of other programs. Moreover, this policy may 
leave some counties in the U.S. without a basic program of conservation 
assistance; leave many farmers and ranchers without a source of 
assistance to help with nutrient management planning, soil erosion 
assistance, and water quality issues, which have been the cornerstone 
of conservation on private lands; and seriously impact the ability of 
the agency to respond with disaster assistance in the Emergency 
Watershed Program.
    Has the Department considered the consequences and long-term 
implications of funding Farm Bill program implementation with 
Conservation Operations funding?
    Answer. Under current law, the Conservation Reserve Program is 
authorized through calendar year 2002. Commodity Credit Corporation 
funds to reimburse NRCS for costs of providing technical assistance in 
support of the CRP are subject to the Section 11 cap on reimbursements 
to State and Federal government agencies. There is not sufficient 
funding within the cap to cover the CRP technical assistance costs 
estimated to be incurred by NRCS. The proposal to use Conservation 
Operations funding for CRP technical assistance reflects a request for 
funding that the Congress has appropriated in recent years through 
emergency funding in order to prevent any disruption of CRP activities. 
The Department will consider a longer term solution as we develop 
proposals for the new Farm Bill.
    Question. Has the Department consulted with its own General Counsel 
on whether NRCS has legislative authority under Conservation Operations 
to perform work on the CRP?
    Answer. Yes, the Department's General Counsel has been consulted on 
the proposed language change for the Conservation Operations account.
             foreign market development cooperator program
    Question. Competitors of the United States in agricultural exports 
are shifting more resources into market development activities because 
they are ``green box'' programs under the WTO rules. The EU has 
increased market development 21 percent and the Cairns Group 110 
percent between 1995 and 1998.
    For fiscal 2002, the President's budget the Cooperator Program 
would allocate $27.5 million, which is $6 million below the current 
marketing plan level of $33.5 million. (For every Federal dollar the 
cooperators receive from the Federal government, producers match $1.30 
through checkoff and other funds.)
    How can U.S. farmers hope to compete in international markets when 
they are provided less resources for market development than farmers in 
other countries, and even less than the U.S. provided last year?
    Answer. There are many policy and macroeconomic factors that affect 
our producers' ability to compete in international markets. However, as 
agricultural systems become more global in scope and more responsive to 
market forces, the role of market development is expected to grow since 
it stimulates foreign demand and differentiates U.S. products from 
those of our competitors. With 96 percent of the world's population 
outside the United States, stimulating that demand is a major challenge 
but one that can pay big dividends to producers in the form of higher 
exports and increased farm income.
    Our competitors and their producer groups have already recognized 
this. We estimate they have collectively increased their market 
development commitment by 50 percent since the Uruguay Round (1995) to 
over $1 billion a year. In contrast, the total U.S. market development 
commitment has grown by only a fraction since 1995. As a result, the 
market development ``investment'' gap is growing which concerns us 
greatly due to its implications for long term competitiveness.
    In response to this investment gap, USDA has encouraged U.S. 
producer groups that participate in its main market development 
programs--the Market Access Program (MAP) and the Foreign Market 
Development program (FMD)--to increase their financial commitment to 
this effort. Those that do are rewarded through the MAP and FMD program 
allocation processes. The response by program participants has been 
impressive, especially in light of the difficult financial situation 
many U.S. producers find themselves. For MAP, U.S. industry 
contributions rose to a record 95 percent of U.S. government funding in 
2000 (or 95 cents of industry funds for every dollar in U.S. government 
funds)--up from just 30 percent in 1992. For the FMD program, industry 
contributions stand at a near record 130 percent, up from 75 percent in 
1992. Statistics like these demonstrate producers' commitment to market 
development and their willingness to share in its cost.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

                                food aid
    Question. Secretary Veneman has stated: ``The budget includes a 
commitment to take a further look at the USDA's foreign food assistance 
programs to be sure they are effective in achieving their objectives. 
The study has not yet been designed . . . we want to ensure that these 
programs significantly benefit farmers, target necessary humanitarian 
feeding needs and avoid adverse commercial impacts.''
    Family farmers produce a safe and abundant food supply for this 
country and the world and then are told by the marketplace that it is 
of little value. At the same time, hundreds of millions of people 
around the world still go to bed hungry every night. I think this 
disconnect is atrocious, and have always been a strong advocate of this 
nation's food assistance programs. I am all for improving our food 
assistance programs.
     Could you explain further the goals of the Administration's 
proposed study of the Foreign Food Assistance programs?
    Answer. The goals that have been identified to date include an 
evaluation of the continued effectiveness of U.S. food assistance 
programs. The study will look at program structures and effectiveness, 
administrative structure, and the decision-making processes.
          surplus commodity program 416(b) and public law 480
    The U.S. continues to hold grain and soybean carry over stocks at 
record high levels and farm-gate prices are at historic lows. This 
situation continues to destabilize the U.S. agricultural economy.
    The Administration's budget estimates 2001 expenditures for Public 
Law 480 to be $1.107 billion. 2000 expenditures were $1.293 billion. 
Section 416(b) cannot be relied upon to make up the difference since, 
as the budget states, the types and levels of commodities vary year-to-
year and often are not available at all from the CCC inventory. Yet, 
the Administration is suggesting a cut of $112 million for the Public 
Law 480 account from 2001 estimates and $298 million from actual 2000 
expenditures.
    Question. How will the U.S. maintain its commitments and be 
prepared to meet emergency needs without maintaining a level of funding 
equal to previous years?
    Answer. One of the objectives of the fiscal year 2002 budget set by 
the President is to slow the growth of Federal spending. Accordingly, 
some programs are proposed to be continued at current funding levels. 
The Public Law 480 foreign food assistance programs have proposed 
budget authority at the same level provided by Congress in fiscal year 
2001. Our ability to provide donations of food commodities under the 
authority of Section 416(b) in fiscal year 2002 will be determined in 
large part by the availability of domestic commodity surpluses. The 
domestic supply situation will not be known until the fall, and at that 
point the Administration can be expected to make a decision on the 
level and extent of section 416(b) donations in 2002.
                                 ______
                                 

        Question Submitted to the Agricultural Marketing Service

               Question Submitted by Senator Tim Johnson

                lamb meat adjustment assistance program
    Question. The most common question on the lamb meat adjustment 
assistance program I receive from SD sheep producers is whether USDA 
make any adjustments to the year two or three programs for feeder and 
slaughter lambs, suggesting that the standards for the slaughter lamb 
quality should be expanded to include a wider range of lamb carcasses 
including yield grade 3 lambs with the current standard of yield grade 
2 lambs only. The average qualifying percentage of lamb so far is less 
than 30 percent.
    Do you have any thoughts on this?
    Answer. There will most likely be no change in the standards to 
include yield grade 3 lambs in the year three programs for feeder and 
slaughter lambs. The purpose of the program was to design assistance 
measures to help the industry improve its competitiveness and to 
facilitate efforts to adjust import competition as outlined in the 
petition filed before the U.S. International Trade Commission (USITC). 
Thus, payments must continue to be limited to yield grade 2 if they are 
to serve as an incentive for the production of higher quality, more 
competitive lambs. Year three payments may be incorporated, if 
necessary, to assure that the program does not over-spend the funds 
allocated.
                                 ______
                                 

               Questions Submitted to the Chief Economist

                Questions Submitted by Senator Herb Kohl

                              dairy policy
     Question. United States daily policy continues to include features 
that are particularly harmful to the Upper Midwest, which is one of the 
primary dairy production areas in the country. One component of this 
flawed policy is the introduction of regional dairy compacts such as 
the one currently in place in the Northeast. To make matters worse, the 
House of Representatives just this week introduced legislation to 
expand dairy compacts to other States.
    President Bush wants to establish the ``Free Trade Area of the 
Americas'' which would be a comprehensive free trade agreement between 
the 34 democracies in the Western Hemisphere. We have all heard the 
speeches and we have all seen the photo opportunities. I strongly 
suggest that before President Bush seeks free trade among 34 countries, 
he guarantees free trade among the 50 United States. We should support 
free trade at home just as strenuously as we do internationally.
    Last year, Congress again provided financial assistance to dairy 
producers suffering from historical low market prices. While prices 
have rebounded somewhat, they are still far below the costs of 
production and Wisconsin continues daily to lose dairy farmers.
    Does the Bush Administration believe that it is important to move 
agricultural products freely throughout the United States?
    Answer. The Bush Administration firmly believes that agricultural 
products should move freely throughout the United States and throughout 
the world, and the Administration is fully committed to enforce all 
existing laws pertaining to the movement of agricultural products in 
interstate commerce. I would note that no court has found the Northeast 
Interstate Dairy Compact to be in violation of any State or Federal 
law.
    Question. Please provide your thoughts on the best way to achieve a 
national dairy policy that treats all producers fairly and 
meaningfully, that does not send improper market signals, and that 
minimizes the different treatment of producers who operate in different 
regions of the country.
    Answer. There is no question that dairy policy has been extremely 
controversial, with many producers feeling that they are being 
disadvantaged by the current system. In addition, some milk processors 
believe the current system does not meet their needs. Over the next few 
months, the Administration will develop its recommendations for the 
2002 Farm Bill. In that process, we will actively seek out the advise 
and counsel for the Congress and the dairy industry and make a 
concerted effort to reach a consensus on dairy policy.
    Question. Would you please comment on S. 294, the legislation I 
introduced along with Senator Santorium to establish a counter-cyclical 
national dairy program?
    Answer. Many farm groups have proposed establishing counter-
cyclical programs in which farm program payments would vary inversely 
with the level of market prices. In some instances, the proposed 
programs would increase considerably farm program outlays. Furthermore, 
the amount of aid provided to producers under these proposed programs 
and other programs that would continue could exceed our current World 
Trade Organization (WTO) commitment on production distorting support, 
which would likely decline under a new trade agreement. These are 
vitally important considerations that go beyond dairy policy, but 
encompass all aspects of farm policy. The Bush Administration is 
committed to developing a 2002 Farm Bill proposal that meets the needs 
of all producers but also meets spending targets and is consistent with 
current WTO obligations and the Administration's proposal for future 
trade reforms.
    The Administration does not support S. 294, as drafted, for the 
following reasons. First, the bill would provide payments to producers 
to compensate for low milk prices in fiscal year 2000. These payments 
would be in addition to emergency assistance already provided by 
Congress to compensate for low milk prices in 2000 in the fiscal year 
2001 Agriculture and Related Agencies Appropriations bill. Second, S. 
294 triggers payments on all of a producer's milk production, not to 
exceed 26,000 hundredweight, based on the Class III milk price for the 
previous year. While the Class III price may be low, the prices of 
other classes of milk may not. Thus, the triggered payments may not be 
commensurate with the level of income producers receive from the 
marketplace. Lastly, the Administration has several concerns regarding 
the supply management provision of the bill in which producers may 
receive a bonus payment if they do not increase production from the 
previous year.
                                 ______
                                 

            Question Submitted to the Risk Management Agency

             Question Submitted by Senator Bryon L. Dorgan

  crop insurance coverage of unharvested sunflowers and corn in north 
                                 dakota
    Question. Wet weather starting with rain the last week in October 
and ending with November snowfalls caused over 100,000 acres of 
sunflowers and corn to be left in ND fields as of November 30, 2000 and 
December 10, 2000. These are the respective dates harvest is to be 
completed in the Crop Insurance contracts. Despite an agreement I 
reached with the Risk Management Agency early last January, some 
farmers have had the appraised amount of the crop left in the fields 
charged towards their insurance coverage.
    Six weeks of rain and snow at the end of the sunflower and corn 
harvest prevented the completion of harvest. This weather occurred 
during the insurance period--and should have been cause for leniency 
when considering losses. Many fields contained enough crop so there 
wasn't any payment of indemnity based on a November 30 or December 10 
adjustment. The contract was closed out, and, in some cases the crop 
has been lost. The end result is the same as if a hail storm had wiped 
the crop out during the summer. Some harvesting did take place after 
the Contract Harvest Date and was an indication that farmers were 
interested in getting the crop--not collecting the insurance. Farmers 
who bought crop insurance in good faith deserve coverage on this lost 
production. Procedure does exist in RMA rules to extend coverage on a 
case by case basis--and would have been a safeguard against fraud or 
abuse. This insurance is too costly to have coverage denied when the 
bad weather that prevented harvest occurred during the insurance period 
and the end result was that some of the crop was ultimately lost this 
spring. Enclosed are pictures of one of the corn fields in question 
under water this spring. (Note: RMA did not receive the picture.)
    Can you assure me that the RMA will look into this and resolve this 
issue fairly? Don't you think a farmer who has tried to harvest his 
crop--but has been prevented from doing so by six weeks of rain and 
snow--ought to receive full crop insurance if the crop is ultimately 
lost?
    Answer. Senator, RMA appreciates that some farmers were adversely 
impacted by bad weather at the end of last year and that some producers 
were unable to harvest their crops by the ``end of the insurance 
period'' which is stated in their crop insurance policy. Because of the 
questions you raised on this issue RMA has been reviewing our policies 
and procedures to ensure that producers are treated fairly in these 
cases. However, insurance contracts are between insurance companies and 
farmers, not RMA and it is the responsibility of the companies to 
ascertain the individual facts for each producer and apply the policy 
provisions correctly and consistently.
    RMA did issue additional guidance for the 2000 crop year as a 
result of your inquiries that gave companies sufficient flexibility to 
address the late season weather conditions, while taking into account 
each producer's situation on a case by case basis. Insurance companies 
have a responsibility to determine if any losses were caused by an 
insured peril or if the delays in harvesting were due to other 
uninsurable circumstances. In discussions with the companies, the issue 
of program integrity was raised regarding individual producers that had 
been identified as having a problem with a late season harvest. RMA 
knows that you fully support the emphasis on contract compliance in 
order to safeguard the program for those farmers who have legitimate 
insurable losses.
    RMA understands that the insurance companies have resolved this 
matter with most of the farmers affected by the late season weather 
conditions. However, there remain a few farmers for which this issue 
has not been fully resolved. RMA will continue to monitor this issue 
and will review the facts of any individual producer's specific claim 
to ensure that the policy was correctly administered by the insurance 
provider.

                          Subcommittee Recess

    Senator Cochran. Our next hearing is scheduled for 
Thursday, May 10, at 10 o'clock in the morning in this room, 
138, the Dirksen Senate Office Building. At that time we will 
hear from witnesses from the Department of Health and Human 
Services on the President's budget request for the Food and 
Drug Administration.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 11:37 a.m., Thursday, May 3, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
May 10.]


AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              


                         THURSDAY, MAY 10, 2001

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Bond, and Johnson.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

STATEMENT OF BERNARD SCHWETZ, D.V.M., Ph.D., ACTING 
            PRINCIPAL DEPUTY COMMISSIONER
ACCOMPANIED BY:
        DR. LINDA SUYDAM, SENIOR ASSOCIATE COMMISSIONER
        JEFFREY WEBER, ACTING SENIOR ASSOCIATE COMMISSIONER FOR 
            MANAGEMENT AND SYSTEMS
        KERRY WEEMS, ACTING DEPUTY ASSISTANT SECRETARY FOR BUDGET, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES
        JANET WOODCOCK, M.D., DIRECTOR, CENTER FOR DRUG EVALUATION AND 
            RESEARCH
        STEPHEN SUNDLOF, D.V.M., Ph.D., DIRECTOR, CENTER FOR VETERINARY 
            MEDICINE
        KATHRYN ZOON, Ph.D., DIRECTOR, CENTER FOR BIOLOGICS
        JOSEPH A. LEVITT, CENTER FOR FOOD SAFETY AND APPLIED NUTRITION

               OPENING STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. The subcommittee will please come to 
order.
    Today I am pleased to convene a meeting of our subcommittee 
to continue our hearings on the fiscal year 2002 budget 
submitted by the President for Agriculture, Rural Development, 
and Related Agencies. This morning we are pleased to welcome 
witnesses from the Food and Drug Administration in the 
Department of Health and Human Services to present the portion 
of the budget that relates to the activities under the 
jurisdiction of the Food and Drug Administration.
    This morning specifically we welcome the Acting Principal 
Deputy Commissioner of FDA, Dr. Bernard Schwetz. He is 
accompanied by Linda Suydam, Senior Associate Commissioner of 
the FDA; Jeffrey Weber, FDA's Acting Senior Associate 
Commissioner for Management and Systems; and Kerry Weems, 
Acting Deputy Assistant Secretary for Budget of the Department 
of Health and Human Services.
    The committee is well aware of the Food and Drug 
Administration's achievements and challenges. Not only must the 
agency ensure that life-saving and other beneficial products 
and devices are brought to the market as quickly as possible, 
but it must also protect the public's health and safety by 
making sure these products are safe and effective. Its 
responsibility extends from foods to medical devices to animal 
drugs and blood products. FDA not only regulates domestic 
products, but must ensure that imports of these same products 
are equally safe and effective for the public use. It is a very 
challenging task, even more so because of a marketplace, which 
is not only growing rapidly, but becoming increasingly 
sophisticated and complex.
    We appreciate the attendance of other Senators this 
morning. I am going to recognize them for any opening 
statements that they might wish to make at this point, and then 
we will invite our witnesses to summarize their written 
testimony, which will be made a part of the record in full.
    Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. I join 
with you in welcoming Dr. Schwetz and colleagues and say, as I 
think you and all Americans would express, how much we 
appreciate the tremendous work that the FDA does day in, day 
out, year in, and year out to ensure that we have the safest 
food supply, the safest medical systems in the world. We have 
the right, I believe, to take pride in what you are doing, and 
we want to ensure that we provide you the resources to continue 
your good work to ensure the highest standards of safety.
    I have a particular interest in one area. I notice on page 
2 of your testimony submitted for the record, Dr. Schwetz, you 
point out the work you are doing with bioengineering of plants 
and animals. Plant biotechnology is something that has 
tremendous potential for the future. I have talked to 
scientists who tell me that really this is perhaps the third 
technological revolution after the Industrial Revolution, the 
Information Technology Revolution. We have the opportunity to 
make significant strides in improving human nutrition, limiting 
impacts on the environment and the use of harsh chemicals, and 
ensuring that we deliver, perhaps even through nutraceuticals, 
the kinds of vaccines and other treatments that are needed 
particularly throughout the third world.
    At the same time, we have seen, beginning in Europe and 
spreading somewhat into this country, an hysterical attack by 
what I would call, in some instances, modern day Luddites, in 
other instances, simply farmers in other countries who do not 
want to see our farmers continue to maintain and build on the 
technological edge they have in producing food more efficiently 
and more nutritiously. In this country, there are those who 
represent competing food groups who are financing this 
hysteria, plus the usual group of suspects who are simply out 
making money off of spreading false information.
    But you have taken a strong stand with respect to the 
testing and the regulation of biotechnology, assuring that 
science and not politics leads the way. If you find something 
that does have an allergen or if you find a problem with it, we 
need to know. We want to make sure that product does not reach 
the market or does not reach the market without adequate labels 
or whatever protections you think are important. You have to 
answer the fundamental question: Is it safe or is it not safe 
and under what conditions? I think that your continued working 
doing that and using the very best science available is 
extremely important to our scientific advances and to 
continuing to improve the human condition throughout the world.
    I predict some day, when the benefits of this technology 
emerge very clearly on behalf of human health and the 
environment, we will have to send out a search party to try to 
find members of the nay-sayer community who have been so 
vociferous in opposing this because they do not understand it. 
I do not understand it, but I know what it can do. And I depend 
upon you to make sure that what it does is healthy. I commend 
you for it. It is vitally important.

                      Generic Animal Drug Producer

    I will have some very specific questions to submit on 
behalf of the record, Mr. Chairman, if you do not mind.
    But I do have to raise one particular matter that I wish 
you would look into that is very serious in my State. It 
relates to the regulation of a particular generic animal drug 
producer in Missouri called Phoenix Scientific. I do not expect 
you to comment on it, and I know this is a regulatory matter, 
but I am hearing from a desperate company that is about to go 
out of business because of regulations. If there is something 
wrong, they need to know. If it is excessive regulatory 
inquiry, that is something that you need to look at, I think, 
from the headquarters.
    I have no way of knowing, without all the facts of the 
matter, what the problems are, but I do know that the company 
reports to have had no lawsuits, no recalls, no accidents, no 
animal deaths, no negative tests on sanitary conditions, no 
previous enforcement actions against it. And as we hear from 
veterinarians in the area of northwest Missouri they serve, 
they say they get fine products and they do not know why they 
cannot get them.
    The company is desperate. They have hired regulatory 
consultants. They are bombarding me. Their workers are calling 
us saying, we are about to lose our jobs. This company is the 
sole producer of products that livestock people use, and 
veterinarians tell me they cannot get the product anymore.
    If there is a legitimate problem, it is hard to imagine why 
it has taken 2 years of regulatory investigation not to come up 
with a specific answer or a clear-cut series of directions as 
to what they must do to resolve them. According to what they 
tell us, the regulators have not even outlined the changes the 
company needs to make to be deemed in compliance.
    Now, I know that the Kansas City district has had a 
dramatic increase in enforcement actions overall in the last 
year relative to the previous 10. I do not know whether that 
would indicate you were not doing an adequate job for the 
previous 10 years or if they are overdoing it now, but months 
and months have passed with no resolution. The company 
obviously has an incentive to fix the problems that are 
preventing them from producing and selling and earning the 
money they need to pay the wages. The company is losing money. 
Farmers soon will be without the products. The employees are 
concerned.
    I would just ask that you take a top level look at this to 
find out if there are problems that need to be resolved, then 
lay them out and let them know what needs to be done to make 
sure that they meet their legal obligations to ensure animal 
safety. But also, I ask that you ensure that the inspectors 
conduct their responsibilities in a fair, impartial and 
expeditious manner.
    I apologize for having to take up the time of the 
committee, but it is a serious question. And I thank the 
chairman.
    Senator Cochran. Thank you, Senator.
    Senator Johnson.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Well, thank you, Mr. Chairman. I will 
submit a full statement for the record.
    I would like to just comment briefly here this morning at 
the outset.
    First, I welcome obviously Dr. Schwetz, as well as the 
other members of the panel, as well as Dr. Sundlof, who I had 
an opportunity to meet with earlier in my office this past week 
or so.
    My primary concerns on the hearing today revolve around the 
Office of Generic Drugs at the FDA, as well as the Center for 
Veterinary Medicine. About a month ago, I met with Dr. Sundlof 
to discuss FDA actions to prevent BSE, or mad cow disease, in 
the United States. I look forward to testimony and your 
insights and the progress that FDA has made since our meeting.

                                  BSE

    I am pleased that FDA's 2002 budget request of $1.4 billion 
represents a significant increase over 2001.
    In our discussion with Dr. Sundlof, we discussed the FDA 
1997 rule that U.S. rendering plants and feed mills ban the 
mixing of animal protein in manufactured ruminant feed and that 
feed mills apply cautionary labels on feed products with 
ingredients that may contain non-approved mammalian protein. In 
that meeting, FDA made an assurance to inspect 100 percent of 
all feed mills in addition to reinspection of feed mills that 
were found to be out of compliance with the ban by September 30 
of this year. I am pleased that the testimony today includes a 
commitment to do just that.
    During our meeting, it was reported that over 1,000 feed 
mills are licensed under the FDA and that 16 percent failed to 
prevent the commingling of bone and meat material in ruminant 
feed and 12 percent failed to issue warning labels on feed 
containing material prohibited for ruminant feed.
    Today livestock producers in my State of South Dakota and 
across the country are being asked to certify that they are not 
feeding prohibited material to cattle and sheep to prevent an 
outbreak of mad cow disease. If any feed mills and others are 
knowingly avoiding compliance with the FDA's rule, it creates 
serious marketing uncertainty for cattle and sheep producers 
and feeders who might unfairly be held accountable for 
unknowingly using feed in ruminant material.
    So, I look forward to comments on how the FDA will assure 
that feed mills and renderers do, in fact, comply with the ban 
by your prescribed time table of September 30, 2001, and also 
given the fact that the FDA contracts with States to inspect 
feed mills and rendering plants and that up to 80 percent of 
all inspections are done by State officials and not the FDA, I 
am interested in this collaborative effort and how effective 
and airtight it really is.

                         Generic Drug Approvals

    A second matter that I will be interested in today has to 
do with the Office of Generic Drugs and my concern about access 
to affordable and safe prescription drugs. I am concerned with 
a number of applications for generic drug approvals that will 
be coming before the Office of Generic Drugs in the future and 
whether or not the OGD will have sufficient resources to meet 
the statutory 180-day time frame necessary for approval of 
these applications.

                          Prepared Statements

    I am also concerned about allegations of conflicts of 
interest within the FDA advisory committee and any comments 
that might be had there.
    So, Mr. Chairman, thank you for holding this very timely 
hearing and I look forward to the testimony today.
    [The statements follow:]

               Prepared Statement of Senator Tim Johnson

    Thank you Chairman Cochran, Ranking Member Kohl and members of the 
subcommittee, I am pleased to participate in today's hearing on the 
fiscal year 2002 budget request for the Food and Drug Administration 
(FDA).
    I welcome Dr. Bernard Schwetz, Acting Principal Deputy FDA 
Commissioner, as well as other FDA officials here today including Dr. 
Stephen Sundlof, Director of FDA's Center for Veterinary Medicine. One 
month ago I met with Dr. Sundlof to discuss the actions taken by FDA to 
prevent an outbreak of Bovine Spongiform Encephalopathy (BSE also known 
as ``mad cow'' disease) in the United States. I discovered a great deal 
from that encounter and I look forward to your insight on the progress 
FDA has made since our meeting to strengthen existing safeguards that 
keep BSE out of our country.
    Mr. Chairman, the day-to-day operations of FDA reach every single 
American person, it is clear this agency has an awesome responsibility. 
I am pleased FDA's fiscal year 2002 budget request of $1.4 billion 
represents an increase of $123 million over fiscal year 2001. Congress 
and the American people expect FDA to protect our health and promote 
our well-being and today, I would like to focus on a few of these 
timely and critical matters under FDA's jurisdiction.
    Commissioner Schwetz, earlier this year I wrote you a letter 
requesting a meeting concerning FDA efforts to prevent the occurrence 
of BSE in the United States. Given the confusion tied to the effects of 
BSE in Europe, I believe it is imperative that Congress and the FDA 
make every attempt now to ensure that domestic feed supplies, livestock 
herds, vaccines, and meat products remain safe for the consuming 
public.
    As I mentioned earlier, I was pleased that on April 5, Dr. Stephen 
Sundlof, Director of FDA's Center for Veterinary Medicine, met with me 
to discuss the efficacy of a 1997 FDA rule that U.S. rendering plants 
and feed mills end the mixing of animal protein in manufactured 
ruminant feed, and that feed mills apply cautionary labels on feed 
products with ingredients that may contain ``non-approved'' mammalian 
protein.
    In this meeting, FDA made an assurance to inspect 100 percent of 
all feed mills--in addition to re-inspections of feed mills that were 
found to be out of compliance with the ban--by September 30 of this 
year. This comprehensive inspection approach should help ensure that 
prohibited animal meat and bone material is not being mixed with 
ruminant (cattle, sheep, goat) feed. I am especially pleased to 
recognize that your testimony today supports the commitment you made in 
our meeting. Because it is believed BSE was first caused in the United 
Kingdom when sheep meat and bone meal was fed to cattle, it is 
imperative that FDA take precautions to guarantee that domestic feed 
supplies are not ``contaminated.''
    During our meeting, Dr. Sundlof reported to me that of U.S. 
renderers inspected by FDA, 10 percent failed to prevent the co-
mingling of meat and bone material in potential feedstuffs and 11 
percent failed to properly affix labels or other precautionary 
statements to products containing prohibited material.
    Additionally, over 1,000 feed mills are licensed under the FDA, and 
16 percent of these licensed feed mills failed to prevent the co-
mingling of bone and meat material in ruminant feed and 12 percent 
failed to issue warning labels or notifications on feed containing 
material prohibited for ruminant feed. Today, livestock producers in 
South Dakota and across the country are being asked to certify that 
they are not feeding prohibited material to cattle and sheep in an 
effort to prevent an outbreak of mad cow disease. If any feed mills and 
others are knowingly avoiding compliance with FDA's rule, it creates 
serious marketing uncertainty for cattle and sheep producers and 
feeders who might unfairly be held accountable for unknowingly using 
feed with ruminant material. Current conditions warrant that anything 
less than full compliance with this rule is unacceptable, so I look 
forward to your comments on how FDA will assure that feed mills and 
renderers comply in a meaningful way by your prescribed timetable of 
September 30, 2001.
    I also discovered from Dr. Sundlof that FDA contracts with 
individual States to inspect feed mills and rendering plants, and that 
remarkably up to 80 percent of all inspections are done by State 
officials and not the FDA. I am curious to learn how effective this 
collaborative effort really is, and I believe this subcommittee should 
explore the need to make certain that FDA has enough resources and 
people to do inspections, or, that we have sufficient funds to provide 
States with compensation for their efforts.
    However, I am pleased that FDA made BSE prevention efforts a top 
priority in their fiscal year 2002 budget request. Indeed, FDA has 
targeted $15 million in the fiscal year 2002 budget request to protect 
consumers against the variant Creutzfeldt-Jakob disease (vCJD), a fatal 
disease in Europe linked to BSE. FDA has also tapped a contingency fund 
within it's Center for Veterinary Medicine to re-program $2.4 million 
in fiscal year 2001 to conduct the inspections and reinspection of feed 
mills and renderers.
    Beef cattle production represents the largest segment of South 
Dakota's agricultural economy. If mad cow disease or Foot and Mouth 
Disease (FMD) were to invade South Dakota or the U.S., the effects 
could be monumental. It is simply incumbent upon Congress and the FDA 
to identify whether or not current BSE safeguards are being followed in 
a serious way. Proactive measures now will reassure consumers and 
livestock producers that our ruminant feed products, domestic livestock 
herds, and food supplies are safe.
    South Dakotans and others across the country are also concerned 
about access to affordable and safe prescription drugs, and FDA's 
Office of Generic Drugs (OGD) is charged with the responsibility of 
approving and marketing new generic drugs as patents on brand-name 
drugs expire. Over the next five years, the patents on approximately 
$34 billion in sales of brand drugs will expire. Studies have indicated 
a generic drug typically enters the market priced 30 percent less than 
the brand product and consumer savings increase up to 80 percent on 
average after two years. This translates into significant savings to 
consumers and health care programs such as VA, Defense, Medicaid, and 
Medicare. In fact, consumers stand to save over $5 billion as patents 
on a number of blockbuster drugs expire.
    However, I believe more should be done to make health care 
providers, managed care organizations, health insurers and consumer 
organizations better informed about the safety and equivalency 
requirements for generic drugs. Lack of knowledge and awareness about 
generic drugs reduces the likelihood that these groups will recommend 
or use generic drugs when they are available as a substitute to brand 
products. Furthermore, preconceived concerns about the quality of 
generic drugs, although unwarranted, can adversely impact patients' 
treatment programs. It believe these constituencies need to know that 
the equivalency between generics and brand products will lead to 
greater health care savings. In fact, studies have indicated that a 1 
percent increase in the use of generic drugs will result in over $1 
billion in savings to consumers and health care providers. Moreover, 
due to the number of brand patents due to expire, I am concerned with 
the extraordinary number of applications for generic drug approvals 
that will come before the Office of Generic Drugs in the future and 
whether or not the OGD will have sufficient resources to meet the 
statutory 180-day timeframe necessary to approve these generic 
applications. Lack of adequate scientific personnel prolongs delays to 
the approval process resulting in lost savings to patients and health 
care providers. I look forward to your insight on the OGD's capacity to 
handle this workload.
    Finally, I am concerned about the potential for conflicts-of-
interest within FDA Advisory Committees. Your testimony states that, 
``research expenditures by the pharmaceutical industry alone have 
tripled since 1990. More and more complex products, which arrive at 
FDA's gate for preclinical and clinical studies design consultation, 
for marketing application review, and, for post-approval continuing 
reassessment are products of the growing NIH research budget and of 
academic and industry research fueled by NIH. We will ensure that FDA 
will not become a bottleneck in getting these public health 
breakthroughs to the public while serving as the trusted, independent, 
efficient gatekeeper it is now.''
    However, in recent years, questions have been raised regarding the 
nature of the FDA Advisory Committee decision making process, and 
whether FDA Advisory Committee actions are truly independent. In fact, 
the Los Angeles Times did a series of articles on FDA advisory 
committees and the conflicts-of-interest that are pervasive among 
members of the committees. The findings included that some FDA advisory 
committee members are allowed to remain as consultants or researchers 
for the same companies whose products they are evaluating. In the case 
of Rezulin, which was pulled from the market last March due to its 
alleged connection with nearly 400 deaths, it was noted that FDA 
officials collaborated closely with the makers of the drug, providing 
``inside information and favors at critical moments throughout the 
development and marketing of Rezulin.'' To the agency's credit, FDA 
released an internal report acknowledging that the agency committed 
``possible missteps'' in its handling of this case. Nonetheless, I 
believe it is imperative that FDA make assurances to Congress--and the 
American public--that these apparent conflict-of-interest questions 
will be addressed in a straightforward fashion. We must have confidence 
that the public's trust is not being violated, nor their health 
jeopardized, by these advisory committees.
    Thank you Mr. Chairman, this concludes my opening statement.
                                 ______
                                 

                Prepared Statement of Senator Herb Kohl

    Thank you, Senator Cochran. It is good to be here this morning. Dr. 
Schwetz, thank you for coming to testify, and I look forward to hearing 
from you regarding the 2002 budget for the Food and Drug 
Administration.
    FDA has a mandate that touches the lives of nearly every American, 
every day. Monitoring and ensuring the safety of more than one 
trillion' dollars worth of consumer products, including nearly all food 
and medicine, is no small task. And you are doing a good job, evidenced 
by the fact that 80 percent of Americans gave the FDA a favorable 
rating in a recent survey.
    However, times are rapidly changing, and for you to continue doing 
a good job, you must remain at the forefront of the changes. The boom 
in medical technology, the advances in drug development, the 
globalization of the marketplace, the outbreak of animal diseases and 
high-technology agriculture--including the introduction of milk protein 
concentrates--all require greater knowledge and attention from a first-
class workforce than ever before.
    The President's fiscal year 2002 budget provides $1.414 billion for 
FDA, an increase of $123 million over fiscal year 2001. While a nine 
percent budget increase is commendable, especially when the overall 
Federal budget is very lean, it is necessary to keep consumers safe.
    Of this increase, $40 million is necessary to meet mandatory cost-
of-living and pay related increases for FDA employees. Over the past 
eight years, FDA has had to absorb $284 million for these mandatory 
costs, causing staffing levels in program areas not funded by user fees 
to decrease by 10 percent. This means 10 percent fewer scientists, 
physicians, nurses and other public health specialists working to 
ensure that the food our families eat, and the medicine our children 
and parents take, is safe. Taking this into consideration, $40 million 
seems like a small price to pay to ensure the retention of top-notch 
employees.
    The globalization of today's marketplace has increased the number 
of foreign-produced imports FDA is charged with regulating from 1.5 
million in 1992 to approximately 6 million in 2000, totaling $80 
billion worth of products. Currently, FDA has the ability to inspect 
less than one percent of these products. This is a fact that I find 
alarming. While I realize that it is impossible and truly unnecessary 
to inspect 100 percent of all products imported into the United States 
and purchased by consumers, I think that one percent is a number that 
must be raised. The President's budget has requested $25 million to 
prevent substandard products from reaching the U.S. market, whether 
they are imported or produced here at home. Again, this seems like a 
small amount to ensure the safety of $1 trillion worth of food and 
health-care products. I am interested to hear what you think is an 
adequate amount of products to be inspected, and how much money is 
necessary to inspect that amount.
    Dr. Schwetz, I applaud the FDA for doing an exceptional job of 
protecting the public and keeping consumer confidence high, something 
we enjoy in the U.S. that many other countries in the world do not. FDA 
holds its products to the highest standards of approval, and we hold 
you to that same standard. Mr. Chairman, I look forward to working with 
you to make sure that FDA's budget this year enables the Agency to 
continue keeping American consumers safe.
                                 ______
                                 

            Prepared Statement of Senator Richard J. Durbin

    The Food and Drug Administration is one of the most important 
government agencies we have here in America. It is charged with 
overseeing the safety of nearly 25 percent of our economy today. From 
complex medical devices such as heart pacemakers to the safety of a 
teething ring that a baby sucks on.
    Over the past few years, many industries regulated by the FDA have 
invested enormously in bringing new products to development and we here 
in Congress have been committed to increasing resources for scientific 
research including the search for new medications, at NIH. Couple those 
with the completion of the decoding of the human genome and you can see 
how the workload for FDA has been growing exponentially.
    Furthermore, with increased globalization of trade and movement of 
both individuals and commercial products, FDA is challenged even more 
to maintain the highest standards for protection of the public from 
harm.
    At a time when the agency's workload is clearly expanding, 
unfortunately, its staffing levels have fallen. The agency has had to 
absorb unfunded pay raises and other inflationary costs without 
additional funding for several years. So I am happy to see that this 
year's budget does include $40 million for pay-raises and COLAs for 
agency staff.
    As you know, I have had a long interest in food safety. The United 
States has been blessed with one of the safest and most abundant food 
supplies in the world. Yet food-borne illness is recognized as a 
significant public health problem in our country. The Centers for 
Disease Control and Prevention estimate that 76 million illnesses, 
325,000 hospitalizations, and 5,000 deaths are caused by food-borne 
pathogens annually.
    We have the science and know-how to make our food supply even 
safer. And as the public learns of global threats to food and animal 
safety--diseases like ``mad cow'' and foot and mouth--and new, 
unfamiliar technologies--like genetically engineered crops and 
animals--we need to make sure that public confidence in food safety 
remains high.
    I recently announced that I will soon introduce the National Food 
Security and Safety Act to strengthen our national defenses against mad 
cow disease and related threats. This bill will apply sound science and 
good common sense to make our borders more secure, improve our 
surveillance activities, and remove from the food supply--for humans 
and animals--some animal-derived materials that could potentially 
spread mad cow. We'll also get these same materials out of non-food 
items, like cosmetics and medicines.
    I also plan to reintroduce the Genetically Engineered Foods Act. 
While I strongly support biotechnology, I've seen farmers in Illinois 
and throughout the country get hurt by some grave mistakes. We must be 
able to better assure farmers of an available market for biotech crops, 
and assure consumers of the safety and effective oversight of this new 
technology. My bill will accomplish both these aims.
    All food safety threats--whether salmonella or mad cow--are made 
more difficult to manage by our highly fractured food safety system. 
Serious questions have been raised about the ability of the current 
regulatory system to ensure the safety of the food supply and to manage 
emerging hazards and new technologies. This system was devised nearly 
one hundred years ago, when the food system looked very different than 
it does today. Now, in addition to a domestic food industry with tens 
of thousands of processors all over the country, a vast quantity of 
food is being imported to our country.
    Currently, Federal oversight for food safety is fragmented with at 
least 12 different Federal agencies, 35 different laws governing food 
safety, and 28 House and Senate subcommittees with food safety 
oversight. With overlapping jurisdictions and scattered 
responsibilities, Federal agencies often lack accountability on food 
safety-related issues.
    For that reason, I will also be reintroducing the Safe Food Act. 
This legislation would unite food safety and inspection activities in a 
single agency with a clear mission to protect the public health. While 
most people acknowledge that the current fragmented food safety system 
must be streamlined and modernized in order to meet the needs of 
consumers, the details of a new structure need to be developed in an 
open, participatory process that builds confidence on the part of all 
who will deal with that agency.
    Food safety is vital to protect the health and well being of the 
American public and the food industry. And our food safety system is 
tested each and every day when millions of Americans sit down to eat. 
One of the best things we can do to protect the public health and save 
lives is unite federal food safety activities in one agency.
    Unfortunately, despite the expectation that we would see the first 
federal budget to coordinate food safety spending activities across a 
range of agencies, the fiscal year 2002 budget proposed by the Bush 
Administration maintains the status quo--business as usual. Proposed 
food safety spending continues to be doled out and dispersed among the 
varied agencies, which share jurisdiction over the various elements of 
Federal food safety responsibility. In August 1998, a Cabinet-level 
council of regulators was tasked under Executive Order 13100 to develop 
a unified food safety budget designed to streamline and channel 
resources to areas of greatest need. It looks like an important 
opportunity might have been missed to critically evaluate food safety 
spending in a cohesive way.
    Food Chemical News (4/16/01) reported ``USDA's Food Safety and 
Inspection Service has once again sought the lion's share of inspection 
funding, primarily because meat plants have a congressional mandate to 
be continuously inspected. Given what has been requested for FDA for 
fiscal year 2002, those programs will undoubtedly struggle to make ends 
meet, even though that agency is charged with regulating the vast 
majority of food products, some of which pose as much risk as meat and 
poultry. Some of these gross disparities were supposed to be addressed 
in this budget cycle, as federal regulators were supposed to work 
together to weigh the risks posed by various foods and target resources 
accordingly--at least as far as the law would allow. Turf battles were 
supposed to be set aside and a federal vision of food safety regulation 
was supposed to emerge. What happened?''
    I want to work with the Administration to design and implement a 
more streamlined system--and budget--to strengthen food safety and 
better protect public health. I hope the Department will continue to 
explore this idea and work with me on ensuring that our food supply is 
the safest in the world.
    On a less positive note, I would like to mention my dissatisfaction 
with the agency's responsiveness in two areas. First, when I was 
Chairman of the Agriculture Appropriations committee in 1994, I placed 
a requirement in the fiscal year 1995 report accompanying the bill to 
require the agency to set up a gene therapy tracking system for 
individuals. This had been sought by patient groups representing those 
most likely to be included in gene therapy trials. FDA moved while I 
was chairman to begin developing such a tracking system, but since 
then, they seem to have forgotten the fiscal year 1995 requirement.
    Following the tragic death of Jesse Gelsinger, it was discovered 
that we have a myriad of problems with gene therapy trials. These 
problems highlighted the need for an effective tracking system. So last 
year at this FDA budget hearing, I asked FDA to tell me about their 
plans for instituting this system and I received a ``non-answer.''
    With Chairman Cochran's assistance, we placed a requirement in this 
year's appropriations bill for FDA to submit a full budget and 
implementation plan by the end of January. The agency missed the 
deadline and I extended it to April 1st. However, the report the agency 
sent up was entirely inadequate. It did not contain a budget nor did it 
contain a detailed plan for implementation.
    I am still waiting for a reply and am very dissatisfied with the 
agency's foot-dragging. It is very difficult for Congress to provide 
the agency the funding it needs if it will not give us details of the 
likely expenses of addressing areas of concern.
    In addition, in January I requested similar information on the 
budget resources necessary for full implementation of the new tissue 
safety regulations. I have yet to receive a reply to that letter.
    As I said earlier, I am happy to see the agency receive new staff 
resources but am extremely disturbed by the agency's lack of 
responsiveness in these two areas that are of grave concern to the 
public. Such foot dragging is neither necessary nor acceptable. I hope 
we can expect a new attentiveness to these issues in the coming weeks.
    Mr. Chairman, I am pleased to have this opportunity to discuss 
these important issues today, and I look forward to working with you as 
we craft the coming year's budget for this critical agency.

    Senator Cochran. Thank you, Senator.
    Dr. Schwetz, we welcome you again to the committee. You may 
proceed.
    Dr. Schwetz. Good morning. Thank you very much.
    Mr. Chairman and members of the committee, I am Bernard 
Schwetz, the Acting Principal Deputy Commissioner of the U.S. 
Food and Drug Administration. I would like to introduce my 
colleagues: Dr. Linda Suydam, Senior Associate Commissioner of 
the FDA; Mr. Jeff Weber, Acting Senior Associate Commissioner 
for Management and Systems of the FDA; and Mr. Kerry Weems, the 
Acting Deputy Assistant Secretary of the Department of Health 
and Human Services. We are honored to have this opportunity to 
discuss the challenges facing the FDA.
    You have seen my written testimony describing many of the 
agency's recent accomplishments, and I do not intend to address 
them in depth today.

                   Science and Technology Challenges

    What I would like to discuss with you is FDA's role in 
today's rapidly changing scientific environment and the 
challenges we face in answering the increasingly complex 
questions that arise as we review these new technologies. FDA's 
challenges fall into four distinct but interrelated areas. 
First, innovations in science and technology are transforming 
the types of products FDA regulates and the speed at which they 
are generated. Second, consumers' demand for access to reliable 
health information is growing dramatically. The third challenge 
I will discuss is the increasing globalization of essentially 
all aspects of the industries and products that we oversee. And 
finally, our responsibility to quickly address emerging public 
health threats. So, let me expand on each of these areas.
    First, substantial Government and private sector 
investments in biomedical research are resulting in hundreds of 
new and innovative products that are either in the R&D pipeline 
or have already arrived at the agency. To put it into 
perspective, consider that research expenditures by the 
pharmaceutical industry alone have more than tripled over the 
last decade. Likewise, bipartisan efforts are doubling the 
budget of NIH. As new products are generated by the academic 
and industry research, fueled by NIH, they must be evaluated by 
FDA staff with the scientific expertise to assess their 
benefits and risks. We want to ensure that FDA will not become 
a bottleneck in getting safe and effective products and 
therapies to the public.

                              Public Trust

    FDA's second challenge, maintaining the public's trust and 
confidence, is illustrated by the issues that arise with the 
successful mapping of the humane genome. This astonishing feat 
of modern science has generated both hope and concern 
throughout the scientific community and the public with the 
promise of new genetic tests, gene-based designer drugs, and 
comprehensive genomics-based health care. To make the right 
science-based public health decisions, FDA's scientists must be 
on the leading edge in their specific scientific disciplines.

                             Globalization

    The third challenge I mentioned is the globalization of 
industry, a trend that is expanding FDA's role in protecting 
and promoting the health of Americans, as we strive to assure 
the safety of products grown or manufactured overseas for sale 
in the United States.
    Finally, FDA faces the daily challenge of integrating its 
current workload with the challenge of emerging public health 
threats such as BSE, or mad cow disease.
    FDA's fiscal year 2002 budget requests a total of $1.4 
billion, an increase of $123 million over fiscal year 2001. The 
increases are targeted to specific initiatives, including BSE, 
food safety, and human subject protection. This request 
includes a total of $204 million in user fees. $20 million of 
this amount is for new user fees, for which authorizing 
legislation is needed.

                           Professional Staff

    FDA's greatest resource is our staff. The professional 
workforce necessary to meet our public health mission requires 
a focus on the scientific principles upon which our decisions 
are based. In fiscal year 2002, FDA is requesting $40 million 
to fund mandatory pay-related increases. This increase will 
allow FDA to maintain current levels of performance and improve 
the drug review process.

                                  BSE

    One of our major challenges is preventing the entry of BSE, 
or mad cow disease, into the U.S. FDA has been vigilant in this 
area for many years, and so far we have seen no cases of BSE in 
the U.S. We are working hard, in conjunction with other 
Federal, State, and private sector groups, to keep BSE out and 
we are prepared to prevent its spread if there ever is a case 
in cattle in this country. FDA is requesting a $15 million 
increase to support BSE activities.

                        Imports and Inspections

    Inspections and imports represent another challenging area. 
Although we inspect manufacturing facilities prior to approval 
of new drugs and devices, today FDA performs routine 
inspections of only 28 percent of drug facilities and 16 
percent of high-risk medical device facilities each year. FDA 
currently inspects overseas medical device firms only once 
every decade. From a safety perspective, this is unacceptable.

                           Imported Products

    Imported products also represent a challenge. The majority 
of active pharmaceutical ingredients marketed in the United 
States are manufactured overseas. In addition, the importation 
of food from other countries has been growing rapidly over the 
past decade and continues to grow. In fiscal year 2002, we 
expect to receive 7 million food import entries. FDA physically 
inspects less than 1 percent of all imported FDA regulated 
products. To restore this capacity, FDA is requesting $25 
million for imports and inspections. This includes $14.7 
million in new import fees. This increase will allow us to 
improve public confidence in the standards of imported drugs, 
biologic, and device products.

                             FDA Approvals

    In the area of medical products, FDA reviewed over 17,000 
applications for drug, biologic, and device products in the 
year 2000. Of these, 97 percent were approved. 160 of these 
approvals were for products that had never previously been 
marketed in any form in the United States Many of these 
products represent advances in the prevention, diagnosis, and 
treatment of serious and life-threatening diseases.
    At the same time, FDA's responsibilities do not end with 
product approval, but continue throughout the entire product 
life cycle. Therefore, new product approvals lead to another 
set of challenges, monitoring adverse event reports for 
marketed products and taking appropriate action when necessary 
and reducing the incidence of medical errors. We are developing 
a systems approach for this issue, requesting $10 million in 
funding to support adverse event reporting.

                            Clinical Trails

    FDA is also responsible for protecting patients involved in 
clinical trials and ensuring that the data gathered from these 
trials concerning the safety and effectiveness of a product are 
accurate. Many of the products we may later approve require 
testing in humans prior to marketing, and the protection of 
human subjects in clinical trials is an ongoing challenge for 
us. We are requesting an increase of $10 million to increase 
the number of inspections and, in particular, target high-risk 
clinical trials.

                              Food Safety

    Touching briefly on another challenge, we have made major 
improvements in food safety, from decreasing the incidence of 
food-borne illness to developing mechanisms to monitor 
antimicrobial resistance. And yet, an estimated 76 million 
Americans get sick from food-borne illnesses each year, and 
more than 5,000 die as a result. We are requesting $14.7 
million for food safety activities. A portion of this amount, 
$5.3 million represents new fees for export certification. When 
added to the other food safety related activities included 
under our other priorities, 16 percent of our requested 
increase will be for supporting FDA's food safety 
responsibilities.

                         Infrastructure Support

    The final challenge I will mention is our commitment to 
ensuring that our staff has the tools necessary to meet the 
agency's public health mission. We are requesting resources to 
complete the move of our Center for Drug Evaluation and 
Research to the new headquarters facility at White Oak, to 
complete construction of the new Los Angeles laboratory, and to 
begin acquisition of a new financial management system.

                           Prepared Statement

    Let me end my comments by emphasizing the importance of 
science to FDA's mission. The number and complexity of products 
and issues coming before FDA demand that the agency have the 
very best scientific capability to evaluate them. FDA must have 
a critical mass of top-notch scientific and medical expertise 
to assess these products and answer new questions. As the 
gatekeeper for new products and technology, FDA has a decisive 
impact on their safety, effectiveness, and the speed of their 
availability to the public.
    Mr. Chairman this concludes my statement. My colleagues and 
I will be happy to answer any questions that the committee has 
today.
    [The statement follows:]

                 Prepared Statement of Bernard Schwetz

    Mr. Chairman, members of the Committee, my name is Bernard Schwetz 
and I am honored to be sitting before you today. As the Acting 
Principal Deputy Commissioner for the Food and Drug Administration, I 
appreciate the opportunity to discuss some of the accomplishments, as 
well as the challenges FDA faces in the new century. It's fair to say 
that this new century presents FDA with unprecedented challenges:
  --the rapid transformation of the science and technology that 
        generates the products FDA must regulate;
  --increasing expectations of consumers with changing demographics and 
        consumption habits to easily obtain medical and risk-related 
        information;
  --the expanding and evolving composition of global trade and 
        production; and,
  --emerging public health threats.
    The United States is leading the world into an era of scientific 
achievements that can yield unprecedented gains for human health and 
nourishment. Industry's research and development pipelines abound with 
blueprints for hundreds of new and innovative products and processes 
that can literally transform life's experience, as we have known it. 
Such marvels of science as cell and gene therapy; genomics-based drugs; 
surgical robotics; and bioengineered plants and animals are in sight or 
within our grasp, and their potential for saving lives, improving the 
quality of life and enhancing the economy is enormous. But it also must 
be recognized that their potential for harm is enormous, if these new 
technologies are not appropriately overseen by individuals who 
understand them as well as by their proponents.
    For many of these revolutionary products, the greatest hurdle is 
not in the realm of technology, but in the consumers' distrust of their 
dramatically different performance and features. The critical task of 
overcoming this formidable obstacle at the onset of the new age of 
technology is one of FDA's greatest challenges. The public expects that 
food set on the family table will be safe and wholesome; that new 
medical products, drugs, biologicals, and medical devices, available in 
a timely manner, will have demonstrated real benefits that outweigh 
their known risks; and, that the product information will be useful and 
understandable. To meet such high expectations, FDA must continually 
earn and re-earn, with each new technology, the trust of consumers. 
Day-in and day-out, this proud Agency must prove that it is up to this 
daunting challenge. A most recent example involves our efforts to 
manage the threat of Bovine Spongiform Encephalopathy (BSE or ``mad cow 
disease'') that has cost the European community billions of dollars, 
almost 100 lives, and has undermined the trust of Europeans in their 
governments.
    A recent survey of five Federal regulatory agencies conducted by 
the Pew Research Center and Princeton Research Survey Associates, found 
that from 72 to 85 percent of consumers, health professionals, 
patients, and industry representatives said they trusted FDA to make 
the right decisions. The results placed FDA at the top of the survey's 
charts, with an overall favorable rating above 80 percent, more than 
twice the approval rate of government agencies in general. While we 
take great pride in such numbers and what they represent, technology is 
moving too swiftly for us to be content.
    Each year presents even more challenges for FDA. Issues are 
increasingly complex and the breadth of FDA's responsibility ever 
expanding. While many of our constituents primarily focus on the 
product marketing application review process, it has become 
increasingly clear that FDA's eye must be equally focused on the full 
life cycle of all the products we regulate--post market as well as pre-
market activities and developments. The changes and challenges facing 
us were never so apparent then when the successful mapping of the human 
genome was announced late last year. This has brought us to the 
threshold of a frontier that promises to transform the diagnosis, 
treatment and even prevention of diseases that today still cripple many 
in our society. Francis Collins, Director of the National Human Genome 
Research Institute at NIH, recently made a number of predictions about 
where genome research could lead in the next three decades. His 
forecast for the next ten years includes such things as genetic tests 
for a dozen medical conditions, and preimplantation genetic diagnosis, 
with primary care physicians practicing genetic medicine. There are 
hundreds of genetic tests under development and available in the United 
States. Only eight have been submitted to and approved by FDA. In 20 
years, Dr. Collins predicts the availability of gene-based designer 
drugs to treat diabetes and hypertension, and cancer therapy precisely 
targeted to a tumor's molecular fingerprint. For FDA this means 
coordinating drug and genetic diagnostic development hand-in-hand. In 
30 years, it's likely that comprehensive genomics-based health care 
will be the norm. Products will need to evolve from the research 
laboratory to well characterized therapeutics with established safety 
and effectiveness. To make these critical judgments, requires that FDA 
scientists remain on the leading edge in their specific scientific 
disciplines.
    Substantial resources are needed to carry out FDA's mission. 
Research expenditures by the pharmaceutical industry alone have more 
than tripled since 1990. More and more complex products, which arrive 
at FDA's gate for preclinical and clinical studies design consultation, 
for marketing application review, and, for post-approval continuing 
reassessment are products of the growing NIH research budget and of 
academic and industry research fueled by NIH. We will ensure that FDA 
will not become a bottleneck in getting these public health 
breakthroughs to the public while serving as the trusted, independent, 
efficient gatekeeper it is now. Today, I would like to highlight some 
of FDA's many accomplishments of the past year that impact all 
Americans and touch on the new and challenging responsibilities of the 
twenty-first century.
                              food safety
    Over the course of the past several years, with your support, the 
FDA has made great strides in improving the safety of the nation's food 
supply. Through a food borne illness surveillance system known as 
FoodNet (partially funded through FDA), the CDC has documented 
reductions in food borne illness for a number of important food 
pathogens. These reductions reflect the hard work of not just FDA, but 
other Federal agencies, and our State and local counterparts.
    The FDA has always maintained that the strength of our regulatory 
program comes from the underlying science base. Last winter, we 
published two draft risk assessments addressing listeria and vibrio 
parahemalytics and we have since held public meetings to hear public 
reaction to them. These risk assessments are also enabling FDA to play 
a leadership role internationally.
    The safety assessment of antimicrobial drugs for use in food-
producing animals includes monitoring for the development of 
resistance. Monitoring is done through the National Antimicrobial 
Resistance Monitoring System (NARMS), which was initiated in l996 as 
collaboration between the FDA, the Centers for Disease Control, and the 
United States Department of Agriculture. Its purpose is to 
prospectively monitor the antimicrobial resistance of human, animal, 
and animal product isolates of selected enteric bacteria. NARMS data 
have been used to initiate field investigations of outbreaks of illness 
marked by a pathogen which displayed an unusual antimicrobial 
resistance pattern; assess the human health impact of fluoroquinolone 
use in poultry; stimulate research in molecular characteristics of 
resistance emergence and transfer; and, improve our knowledge of risk 
factors associated with the development of an antimicrobial-resistant 
infection. NARMS data have also triggered broader research projects of 
prudent antimicrobial use in animals and in the role of the environment 
in the emergence and spread of antimicrobial resistance.
                            medical products
    During this past year, FDA's three major human medical product 
centers, the Center for Drug Evaluation and Research, (CDER), the 
Center for Biologics Evaluation and Research, (CBER), and the Center 
for Devices and Radiological Health, (CDRH), demonstrated strong 
scientific expertise and efficiency by reviewing over 17,100 marketing 
applications for drug, biologic, and device products. The outcome of 
these reviews was that approximately 16,600 total products were found 
to have the required scientific data for approval for marketing in the 
United States. Of these, there were 160 approvals of medications and 
medical devices that had never previously been marketed in any form in 
the USA. Many of these approvals represent an impressive advance in the 
prevention, diagnosis and treatment for serious and life-threatening 
diseases.
    Groups that particularly benefit from these approved medications 
and medical devices include cancer patients, patients with heart 
disease, children, women, and the elderly. In addition, FDA's approvals 
strengthened surgical flexibility with several state-of-the-art devices 
that reduce the risks of complex surgical procedures.
                            cancer patients
    Several products approved contributed to the prevention, early 
diagnosis or treatment of cancer, the second deadliest disease in the 
United States affecting eight million Americans. Two of the new cancer 
medications, Trisenox and Mylotarg, were approved for cancers of the 
white blood cells. For women, Nolvadex (tamoxifen citrate) was approved 
last year for a new use to reduce the risk of invasive breast cancer 
with preinvasive cancer of the mammary ducts.
    Three of the cancer treatments approved were medical devices. A 
laser system was approved that enhances a physician's ability to 
distinguish small harmless growths from pre-cancerous growths in the 
colon. A surgical sealant was approved for sealing air leaks in lungs 
following the removal of cancerous tumors. A third device, for early 
cancer diagnosis, is the first mammography system that produces digital 
images on a solid-state receptor instead of analog images on a 
radiographic film. Early diagnosis remains the best weapon against 
breast cancer, which annually affects 180,000 women--of which 
approximately twenty-five percent die of the disease.
    An example of the cutting-edge research currently being conducted 
that will transform the way we diagnosis and treat cancer is the FDA/
NIH Tissue Proteomics Program which is the only one of its kind in the 
world. This joint effort of CBER and the National Cancer Institute 
(NCI) focuses on the development and use of proteomic tools for the 
early detection of cancer and other diseases. The project's 
accomplishments include the development of methods for early disease 
detection, the identification of new therapeutic targets and the 
discovery of new biomarkers for drug-induced patient toxicity. This 
bench-to-bedside model has resulted in a first-of-its-kind clinical 
trial that incorporates a ``proteomic portrait'' of the disease in 
human tissue that could lead to customized, patient tailored 
therapeutics. Currently, this research has identified over 150 proteins 
that are aberrantly expressed in human prostate, lung, breast, ovary, 
esophageal, and colon cancer. Furthermore, a new artificial-
intelligence computer software system has been invented and developed 
to reveal protein patterns that can be used as surrogate markers of 
therapeutic efficacy, toxicity and early disease detection.
    This is but one example of the work being conducted also at CDER, 
NCTR, and CFSAN concerning predictive modeling and standards 
modification using common databases and computational science.
                          children and infants
    Several new products approved last year for pediatric and obstetric 
use were either specifically designed for the youngest patients or were 
adult drugs now approved also for use in children. Approvals included: 
the OxiFirst Fetal Oxygen Saturation Monitoring System, which 
represents the first major technological development in fetal 
monitoring in three decades; Prevnar, a pneumococcal vaccine for 
infants and toddlers under the age of two which was designed to prevent 
invasive diseases caused by Streptococcus pneumoniae, including 
bacteremia, an infection of the blood stream that affects about 35,000 
infants and toddlers in the U.S., and meningitis, an infection of the 
lining of the brain or spinal cord that is diagnosed in about 17,500 
infants a year; and, Pulmicort Respules (budesonide inhalation 
suspension), the first anti-inflammatory corticosteroid formulated for 
inhalation using a nebulizer in the 1-8 year-old age group.
                                 women
    FDA approved several other products to treat diseases that either 
exclusively or predominantly affect women. Remicade (inflixmab) was 
approved for the reduction in signs and symptoms of rheumatoid 
arthritis, which affects more than 8 million Americans, three-fourths 
of whom are women. Another approval was Novantrone, for the treatment 
of advanced or chronic multiple sclerosis. The disease affects up to 
350,000 Americans, 66-75 percent of whom are women.
    FDA also continued successfully working with the States and the 
American College of Radiology to monitor mammography facilities. This 
successful partnership helps assure high quality mammography services 
to women.
                    cardiac patients and the elderly
    Examples of new products for patients with heart disease and the 
elderly include several novel devices and important medications. Two of 
the devices use catheters to deliver radiation inside a coronary stent 
following the reopening of a blocked artery. The radiation helps reduce 
the risk of new tissue growth inside the coronary stent and the 
resulting repeated narrowing of the artery. Among the products designed 
primarily for the elderly, Visudyne (verteporfin for injection) is the 
first therapy to slow vision loss in people with the classic type of 
``Wet Age-Related Macular Degeneration.''
                                diabetes
    FDA has recently approved the first minimally invasive glucose 
meter (the Minimed System) for use in monitoring patients with 
diabetes. Most recently, FDA has approved the first non-invasive device 
used to detect trends and track patterns in glucose levels in adults. 
The device is used together with finger prick blood tests to monitor 
glucose blood levels. FDA and industry scientists need to continue to 
work together to make sure that the accuracy of the new devices is high 
enough for reliable home use.
                     drugs for resistant infections
    Another important product that passed the FDA's rigorous review for 
safety and effectiveness last year included the first drug of a new 
class of antibiotics that addresses treatment for the emerging serious 
public health threat of vancomycin-resistant bacterial infections.
                state of the art robotic medical devices
    Finally, I am happy to report the approval by our Center for 
Devices and Radiologic Health of a promising new surgical system that 
incorporates cutting-edge robotics technology.
    These products are only a small sample of the new drugs, biological 
products and medical devices the agency approved last year in its role 
of public health promoter. In addition, CDER issued 244 approvals of 
generic counterparts of original drugs. Generic drugs substantially 
reduce the cost of purchasing pharmaceuticals by typically offering 
price discounts from 50 percent to 75 percent. Similarly, CDRH cleared 
for market almost 3,500 so-called 510 (k) devices, products that are 
similar to devices already on the market.
    In addition to approving a host of important new medical products 
in 2000, FDA has continued not only to meet--but also to exceed--
virtually all of its product review and product development 
consultation performance goals under the Prescription Drug User Fee Act 
(PDUFA). For example, for the fifth straight year, FDA reviewed 100 
percent of PDUFA marketing applications within the time frames agreed 
with Congress. Because of this review efficiency and thoroughness, last 
year, FDA approved 20 products classified as priority drugs--drugs that 
have a real benefit beyond existing therapies--in the median time of 
only 6 months. Moreover, although PDUFA goals specify review times and 
not approval times, actual approval times (FDA review time plus the 
time it takes companies to answer deficiencies identified by FDA) have 
decreased around 60 percent since the program started.
                 blood safety and regulation of tissues
    Each year more than 3 million Americans receive donated blood. 
While blood and blood-derivatives can be life saving, they can transmit 
undetected infectious disease. Assuring the safety of and preventing 
shortages in, the blood supply continues to be one of FDA's priorities.
    Tissues have long been transplanted in medicine for widespread uses 
such as skin replacement after severe burns, tendons and ligaments to 
repair injuries, heart valves to replace defective ones, corneas to 
restore eyesight, and the use of human semen and implantation of eggs 
to help infertile couples. In recent years, scientists have developed 
new techniques, many derived from biotechnology, that enhance and 
expand the use of human cells and tissues as therapeutic products. 
These new techniques hold the promise of some day providing therapies 
for cancer, AIDS, Parkinson's Disease, hemophilia, anemia, diabetes, 
and other serious conditions. A GAO report, published in December 1997, 
supported strengthening requirements for tissue establishments. In 
January 2001, the Office of Inspector General published two reports, 
``Informed Consent in Tissue Donation, Expectations and Realities'', 
and ``Oversight of Tissue Banking''. The latter report recommended that 
FDA expedite the publication of its regulatory agenda that requires 
registration of tissue banks, enhanced donor suitability screening and 
testing, and the use of good tissue practice. It also recommended that 
FDA increase the number of inspections of tissue establishments 
performed to enhance oversight.
    FDA strengthens its public health promotion role in many other ways 
such as (1) refusing to approve products not shown to have real 
benefits that outweigh their known risks; (2) assuring adequate 
information on appropriate use for approved products; and, (3) 
monitoring and continually reassessing new data that are developed 
after products go on the larger general market in the U.S. Last year, 
FDA also issued 125 draft and final guidance documents to clarify 
requirements and facilitate industry's compliance with FDA's product 
efficacy, safety and quality standards.
                   global trade and global production
    FDA has also worked closely with international organizations to 
harmonize requirements and standards for the products we regulate. This 
work recognizes not only the international nature of our regulated 
industries but also our collective need to share expertise concerning 
new products in both the pre- and post-approval phases across all 
borders.
    FDA is the recognized gold standard. Our regulatory approaches are 
often cited by officials in other countries. For example, in the wake 
of recent European food crises, including BSE and dioxin in meat and 
dairy products, European Commission President Romano Prudi advised the 
European Parliament that one way to prevent more food crises in the 
future would be to establish a European food agency modeled on the FDA. 
Numerous foreign delegations have visited FDA over the past year to 
discuss food safety regulation.
    FDA is a leader in international food safety harmonization efforts 
through the Codex Alimentarious, and has worked with WHO and FAO to 
increase the profile of food safety issues around the globe.
    In the area of drugs and biologicals, we now have more than 50 
guidances that have been agreed-upon by FDA, its counterpart agencies 
in the European Union, Canada, and Japan, and the innovator drug and 
biologic industries in these countries. These guidelines cover very 
specific topics regarding drug and biologic pre-clinical and clinical 
testing, manufacturing, post-approval continual reassessment and 
regulatory submissions. One major advance in this effort has been an 
agreement on the content of periodic safety updates on approved 
products. With this agreement, we can now be assured that regulators in 
those regions will be able to receive the same safety information at 
the same time about products being marketed in their countries. In 
addition, we have agreed on electronic format and transfer standards to 
facilitate and to make even more efficient the electronic transfer of 
safety information between companies and regulatory agencies in these 
regions.
    This terminology allows even more efficient and more accurate 
transfer of new post-approval safety data around the globe and 
facilitate better, more informed public health decisions about the 
ongoing safety profile of marketed products. Most recently, through 
this process, known as the International Conference on Harmonization 
(ICH), we have reached agreement on ``A Common Technical Document'' 
that will standardize the format for the major portions of a marketing 
application across these regions. With such a core document, a 
pharmaceutical or biologic firm seeking approval of a product in one or 
more of the participating countries will be able to submit essentially 
the same document to each country. The influence of ICH is now 
spreading even beyond the original regions as other nations build their 
regulatory infrastructures and use the ICH guidances as their own 
standards.
    We've also made progress in the realm of international 
harmonization of medical devices. Along with our counterparts from the 
EU, Japan, Canada, and Australia, we are developing protocols that will 
permit harmonization among these five entities and their regulation of 
medical devices.
    In the spirit of transparency, FDA's website, launched in 1995, 
provides another essential way of exposing the agency to the public we 
serve. Materials posted on the web include materials to be discussed at 
upcoming advisory committees, enforcement actions, talk papers, 
speeches, and educational information. Our website has received 
numerous awards from such quarters as Popular Science magazine, the Dow 
Jones Business Director, and Tufts University's Nutrition Navigator. 
Moreover, it is linked to 8,000 other health, consumer, medical, and 
educational websites.
    These kinds of activities help prepare us for the global 
environment in which most of the products we oversee now exist. This 
helps us to more successfully bridge differences in government, 
language, and culture. In short, they prepare us for what is to come by 
providing a blueprint for harmonization around the world. This 
globalization of product development, testing, and ultimately trade, 
further highlights the need for a strong and robust FDA. As trade 
agreements and policies are negotiated, the maintenance of strong 
public support requires that a scientifically strong regulatory agency 
have a forceful voice in those discussions on matters that will affect 
the health of the American public.
                               challenges
    Despite the significant strides made in the public health arena 
over the past few years, FDA faces formidable challenges in the near 
future. I would like to highlight some of these for you today. FDA's 
fiscal year 2002 request totals $1.414 billion, an increase of $123 
million over fiscal year 2001. The increases over fiscal year 2001 are 
targeted to specific initiatives to include: funds to prevent the 
spread of mad cow disease; to expand food safety activities; and, to 
protect human subjects in clinical trials. In addition, of the funds 
requested, $204 million will be derived from industry-specific user 
fees, including $20 million in new fees for food export certificates 
and import operations.
                      our most important resource
    Cutting edge science and technology are providing us with new 
opportunities and challenges every day. Over the past few decades we 
have seen large investments by both the public and private sector in 
biomedical research and biotechnology that will result in the 
development of an abundance of new products that need to be assessed 
before entry into the marketplace and during their use. As these 
products enter the marketplace, they should change the very face of 
health care in America and should help us all lead longer, healthier 
lives. They should also bring enormous economic benefits by reducing 
the cost of health care. Having a high performing, science-based 
regulatory agency to render decisions regarding the safety and efficacy 
of these products reaps great public health benefits for all of us.
    In fiscal year 2002, FDA requests $40,000,000 to fund mandatory 
pay-related increases. This increase for base resources focuses on pay 
adjustments because personnel are so essential to accomplishing the 
Agency's mission. These resources will enable FDA to maintain current 
levels of performance, and to continue to improve the drug review 
process. Payroll increases are needed to cover about half of the staff 
involved in the drug application review process not supported by PDUFA 
user fees; to improve the ability to assure the safety of regulated 
products; to inspect and investigate domestic and foreign 
manufacturers; and, to participate in Mutual Recognition Agreements 
with countries to establish global standards for foods and 
pharmaceuticals. We need now, more than ever, your continued support to 
assure FDA is ready to respond to these challenges. Bovine Spongiform 
Encephalopathy (BSE)
    BSE is one of a group of progressive degenerative neurological 
diseases known as transmissible spongiform encephalopathies (TSEs). BSE 
is a TSE of cattle. TSE diseases are always fatal. There are six TSE 
diseases that affect humans, of which Creutzfeldt-Jakob disease (CJD) 
and variant Creutzfeldt-Jakob disease (vCJD) are best known. vCJD is 
believed to be transmitted to humans by the consumption of food 
products contaminated with the agent of BSE.
    Since the BSE epidemic began in 1986, more than 176,000 cases of 
BSE have now been confirmed in Great Britain. To date, over 90 human 
lives have been lost in Europe due to vCJD. Now cases of BSE in cattle 
have also been reported in other European countries. Here in the United 
States, we have been fortunate. To date, BSE has not been detected in 
our cattle herds and we have not had any patients diagnosed with vCJD. 
Based on the UK experience, if BSE were to be encountered in the U.S., 
it would have not only an obvious potential impact on our public 
health, but also a monumental impact on our beef industries, with 
initial U.S. revenue losses estimated to reach over $15 billion. To 
protect consumers, it is essential to implement and monitor a multi-
layered safeguard system to ensure that BSE regulations and guidance 
principles are followed. BSE has a potential impact on many biological 
products such as vaccines, cells or cell-derived products, and blood. 
It is important for the FDA to have an active research, review and 
inspection program to assure product safety.
    Bovine-derived materials have traditionally been used in the 
manufacture of many biological products, including vaccines. To date, 
there are no reports of BSE contamination of pharmaceutical or 
biological products. To minimize the possibility of contamination in 
such products, the FDA recommended in the Federal Register on August 
29, 1994, and again in 1996, that manufacturers not use materials 
derived from cattle that were born, raised, or slaughtered in countries 
where BSE is known to exist. The FDA referred manufacturers to the 
listing of such countries that is maintained by the U.S. Department of 
Agriculture.
    In addition to FDA's regulation which prohibits the feeding of 
mammalian protein to ruminant animals, the Animal and Plant Health 
Inspection Service (APHIS), of the United States Department of 
Agriculture, has placed restrictions banning the importation of live 
ruminants and certain ruminant products from thirty-one countries. FDA, 
in conjunction and cooperation with APHIS, has issued a series of 
import alerts and bulletins regarding products, which FDA regulates. 
Many products regulated by FDA contain these banned substances and it 
is important to enhance and make as comprehensive as possible our BSE 
monitoring system to identify products that may pose a health risk and 
ensure they do not enter the U.S. FDA has also issued guidelines to 
Blood Centers to exclude potential donors who have spent six or more 
cumulative months in the U.K. between January 1, 1980 and December 31, 
1996, from donating blood. At the Transmissible Spongiform 
Encephalothies Advisory Committee (TSEAC) in January 2001, the 
Committee recommended the deferral of donors who lived in France, 
Ireland or Portugal for a period of ten years between 1980 and the 
present. We need to continue to monitor BSE activities and revise our 
current policies as needed based on new information.
    The focus for FDA and its partners in other agencies has been 
prevention. Using the best science known at this time, the U. S. has an 
aggressive multi-faceted program in place to try to prevent the 
establishment and spread of BSE. The Agency has committed to inspecting 
100 percent of all feed mills, plus re-inspections of those 
establishments not in compliance by the end of fiscal year 2001. Within 
the planned resources, this would have been impossible. FDA has looked 
internally at several other sources to redirect to BSE needs. We have 
tapped into the FDA contingency fund for the first time in several 
years plus moved priorities within the field portion of the Animal 
Drugs and Feeds program. BSE is a high priority, and the Agency is 
working to meet its commitments.
    To prevent exposure of American citizens and food animals to the 
agent of BSE, the Agency is requesting $15,000,000 in fiscal year 2002 
for needed BSE activities. With this funding, FDA will increase 
monitoring of imports to ensure prohibited materials do not enter the 
United States; conduct targeted BSE inspections of all renderers and 
licensed and non-FDA licensed feed mills handling prohibited material, 
such as meat and bone meal on a yearly basis; provide training to 
Federal and State inspectors on the current BSE situation; conduct 
market studies to identify food, dietary supplements, and cosmetic 
products containing spinal cord and other at risk products; conduct 
research on Chronic Wasting
    Disease (a TSE), which affects elk, deer, and other domestic game 
and pen-reared animals in the United States; and, conduct follow-up 
education on for-cause inspections of biological products, blood, and 
vaccines.
                   imports and inspections activities
    FDA is responsible for ensuring the safety of products produced and 
distributed by more than 100,000 domestic establishments. The Agency 
uses its inspectional authority, as directed by statute, to provide 
this assurance. For many establishments, the law requires FDA to 
conduct inspections at specified time intervals, such as once every two 
years. Resource constraints over the past several years have seriously 
impaired FDA's ability to meet its statutory biennial inspection 
requirements. By fiscal year 2002, FDA will be responsible for ensuring 
the safety of almost 7 million line entries of imported products that 
cross our borders annually. The sources of many of these entries are 
diversified and include an increasing number of products from countries 
that are typically categorized as emerging economies, with developing 
regulatory infrastructures. FDA conducts sampling and end point product 
testing as a means of determining that imports have been properly 
produced.
    To restore this seriously impaired capacity, FDA must increase 
foreign and physical port inspections and oversight of foreign 
producers to be able to maintain the safety of products on the market 
that we believe Americans expect and demand, additional funding of 
$25,000,000 is requested for imports and inspections. This includes 
$10,300,000 in budget authority and $14,700,000 in new import user 
fees. With this funding, FDA will increase inspections of domestic 
medical device manufacturers; surveillance of imported tissues and 
other imported biological products; sample analyses of domestic and 
imported drug products; criminal investigation of fraudulent drug 
imports; and, sample collection, analysis, and field exams of imported 
foods and dietary supplements. This increase will also allow us to 
improve public confidence in the standards of drugs, biological, and 
device products imported from the European Union, and intensify drug 
inspections in developing countries. FDA plans to expand import entry 
review resources to keep pace with the increase in line entries and 
modernize the OASIS import data processing system to provide import 
reviewers with more rapid and direct access to information necessary 
for entry decisions.
    Inspections and import surveillance are the primary means of 
assuring the safety of marketed products. Consumers rely on the FDA to 
prevent dangerous and unreliable products from entering into commerce. 
Despite a decrease in the overall number of inspections, in fiscal year 
2000, FDA conducted 880 foreign inspections, which represented a 
twelve-percent increase over fiscal year 1999. However, FDA physically 
examined less than one percent of all entries offered for import into 
the United States. While the FDA continues to undertake initiatives to 
improve the safety of imported products, there is often no substitute 
for physically examining these products.
           reduced adverse events related to medical products
    FDA is responsible for ensuring that the benefits of approved 
products continue to outweigh their newly discovered risks after 
product approval. Historically, the Agency has primarily relied upon a 
voluntary, passive reporting system in which consumers, manufacturers 
and health professionals submit reports of suspected adverse product 
reactions to FDA or the manufacturers of the products who then, by 
regulation, must submit the reports to FDA. This voluntary system was 
designed primarily to signal the possible existence of new rare, but 
serious, side effects of marketed products, which are most often of a 
frequency that they could never be detected in routine clinical trial 
programs because of the size limitations of most product development 
clinical trial programs. About 1-3 percent of the total number of 
products approved each year have had to be removed later because of 
rare, but serious, new side effects discovered through this system. 
Each year FDA receives more than 350,000 of these kinds of reports of 
suspected product adverse reactions. These reports must be 
investigated, analyzed and acted upon promptly. While we have invested 
heavily in making this system more efficient, there are areas of post-
approval product injury of which we believe we should be focusing to 
improve our abilities to make medical products safer.
    For example, not all safety issues relate to direct toxicity of the 
medical product. Some product related injuries are the result of 
inappropriate use or erroneous use of the product, which, if it had 
been used properly would not have resulted in injury. The Department of 
Health and Human Services established a Patient Safety Task Force to 
integrate the collection of data on medical errors--including 
medication errors- to coordinate research and analysis efforts and, to 
collaborate on reducing the occurrence of injuries that result from 
medical errors. The task force's goal is to reduce medical errors by 
fifty percent over five years through the development of a coordinated, 
easy to use, confidential reporting system which will minimize the 
burden of reporting suspected medical errors or conditions that might 
result in medical errors. Biological product safety is also of concern, 
including vaccine safety, infectious disease risks, and blood and 
tissue safety to name a few.
    To meet some of these challenges, FDA is adopting a systems 
approach, of which the most significant component is the identification 
of and response to adverse events that are reported in the U.S. With an 
increase in funding of $10,000,000, FDA plans to hire staff to analyze 
and evaluate the adverse event reports and determine appropriate 
responses; speed the identification and reporting of adverse events by 
enhancing existing data systems and linking them with other health care 
databases for reports involving medical devices, drugs and biologics; 
educate consumers and health care professionals on the importance of 
preventing and reporting medical errors; and, initiating a modernized 
AER system for dietary supplements. FDA plans to increase the number of 
annual inspections of clinical trials by more than 20 percent with an 
emphasis on high-risks trials.
    Many patient deaths and injuries are associated with the use of 
FDA-regulated medical products. In medical devices, we estimate there 
are about 300,000 injuries related to device misuse annually, and we 
believe most of these errors are avoidable user errors that could and 
should be corrected. The FDA believes that roughly half of these deaths 
and injuries can be avoided by fully implementing its strategies. 
Thousands of lives and billions of dollars can be saved.
   protecting volunteers and the integrity of data in clinical trials
    FDA is responsible for protecting patients involved in clinical 
trials, and ensuring that the data gathered from these trials 
concerning the safety and effectiveness of a product are accurate when 
included in the product application. To do this, FDA inspects 
stakeholders in all areas of the clinical trial process--manufacturers, 
clinical investigators, institutional review boards (IRB), and 
contractors to ensure that the data FDA receives are accurate and 
reliable.
    Enhanced protection for human research subjects becomes more 
complex not only with the increasingly complex nature of the products 
being tested, but also with the increasing complexity of the design of 
clinical trials, the numbers of research projects and study volunteers 
and the diversity of patient populations included in clinical trials 
increases. The death of a volunteer subject in a gene therapy study has 
triggered considerable public concern in this area.
    Gene therapy involves the treatment of genetic diseases by trying 
to replace a defective gene. As the field has developed, it has 
expanded to include a broad range of different potential therapeutic 
interventions. FDA's scientific leadership in this area was no more 
evident than when earlier this year, researchers from our biologics 
program were able to verify that a vaccine used in a gene therapy 
protocol at St. Jude Children's Research Hospital contained no traces 
of HIV as previously suspected.
    FDA, whose product reviews depend on the validity of clinical trial 
data, monitors the entire system. The Agency conducts about 1,200 
trial-associated inspections per year (1,100 domestic and 100 foreign), 
some of which involve extensive interviews with IRB members and 
examination of their records, procedures, and responsiveness to 
participants' concerns. FDA's efforts to protect human subjects 
generally emphasize education, outreach, and training programs for 
investigators and members of the IRBs.
    FDA is requesting an increase in funding of $10,000,000 to increase 
the number of inspections by one-third, and in particular, target high-
risk clinical trials. Inspections will cover clinical investigators, 
IRBs, sponsors, monitors, and contract research organizations. This 
increase will also focus on increasing scientific and regulatory 
training for FDA investigators to make them more efficient and 
effective; improving the inspection process for IRBs; and, enhancing 
follow-up compliance activities. We are also requesting funds to 
support the expansion of Medsun. We are establishing a network of 
hospitals to give statistically reliable data on device use and misuse. 
This will provide FDA and the community good feedback when problems 
occur.
    Of the 1,200 trial-based inspections conducted annually, 600 are 
clinical inspections. This figure represents only two percent of the 
30,000 clinical sites involving FDA-regulated products. The remaining 
inspections include Institutional Review Boards (300), sponsors/
contract research organizations (75), and non-clinical (100) studies. 
While the Agency understands it cannot inspect every clinical study, 
added funds will enable FDA to increase its inspections and lower the 
risks to volunteers in clinical studies.
                              food safety
    Each year, an estimated 76 million Americans get sick, more than 
300,000 are hospitalized, and 5,000 die as a result of foodborne 
illnesses. The populations at greatest risk of serious illness are 
primarily the very young, the elderly, pregnant women, and those with 
compromised immune systems. The Centers for Disease Control and 
Prevention, (CDC) estimate that foodborne illnesses cost the nation 
more than $8 billion annually in medical expenses and lost 
productivity.
    With your support over the past several years, FDA has made great 
progress in developing an integrated national food safety system. 
Working in collaboration with the Centers for Disease Control and 
Prevention, U.S. Department of Agriculture and State and local 
governments, we have put in place important prevention programs and, 
when food borne illnesses occur, we are identifying outbreaks of food 
borne illness earlier, translating into fewer deaths and illnesses. 
FDA's prevention programs include our seafood HACCP program, our Good 
Agricultural Practices program for fresh produce, our program for fresh 
sprouts, a greatly expanded import surveillance program, and a new 
HACCP program for fresh fruit and vegetable juices. These programs are 
science-based and are supported by a rigorous foundation of high 
quality research and risk assessment.
    Although the U.S. food supply is among the world's safest, an 
increase in the variety of foods and convenience items has brought 
accompanying concerns about public health. In addition, the 
complexities of the food industry, from production to packaging, to 
shipping, are increasing.
    The multi-agency Food Safety Initiative (FSI) initially focused on 
reducing the number of illnesses caused by microbial contamination of 
food and water. Recent efforts towards achieving this goal have 
included increased efforts in reducing Listeria monocytoges 
contamination and the development of inspection and testing programs 
for shell eggs to reduce the risk of Salmonella enteritidis illness 
will be necessary.
    We must also position ourselves to broaden the original focus of 
the FSI from only microbial contamination to include chemical 
contaminants and pesticide contamination, and other food hazards as 
well including food allergens.
    Over fifty bioengineered foods are now marketed in the United 
States, most of which contain improvements that resist pests or 
herbicides. USDA oversees the planting and field trials of the crops, 
EPA has oversight of the pesticides that are engineered into crops, and 
FDA evaluates the food safety and nutritional aspects of the food. 
Although drugs produced using biotechnology have been widely accepted, 
the topic of bioengineered foods has generated much controversy, 
particularly about whether these foods should be labeled as genetically 
modified
    The latest concern has been over the strain of bioengineered corn, 
reported in several food products than were never approved by EPA for 
that use. Currently, FDA has a voluntary process through which 
companies marketing bioengineered foods consult with the agency on 
safety and other regulatory issues prior to marketing. Recently, we 
issued a proposed rule to make the voluntary process mandatory and to 
require companies to provide sufficient data to establish that the 
bioengineered food is as safe as its conventional counterpart. FDA also 
issued guidance for public comment as the appropriate labeling for 
foods developed through biotechnology. However, in response to growing 
public concerns over bioengineered foods, and concerns about our 
current process, additional strong scientific expertise is needed in 
this area to increase our oversight and our laboratory analysis 
capabilities.
    In fiscal year 2002, FDA requests a total increase of $14,700,000 
for food safety activities, of which $9,400,000 is budget authority and 
$5,300,000 represents new fees for export certification. With the 
additional funding, FDA will:
  --Expand the scope of food safety inspection beyond microbial 
        contamination of foods to include chemical and pesticide 
        contamination as well as to prevent cross-contamination with 
        food allergens;
  --Develop inspection and testing programs for shell eggs to reduce 
        the risk of Salmonella enteriditis illness;
  --Develop, in conjunction with NCTR, new methodologies to identify 
        adverse effects of genetically modified foods, drug residues in 
        foods and antibiotic-resistant strains of bacteria, using new 
        molecular biomarkers and methods identified through genomic and 
        proteomic technologies; and,
  --Develop new risk assessment methods in collaboration with NCTR. New 
        approaches will be validated for incorporating model 
        uncertainties into microbial risk assessment.
    Through a combination of FDA and State contract inspections, 
domestic firms that produce products at high risk of microbiological 
contamination have been inspected more frequently. Several years ago, 
such firms were inspected on the average of only once every three to 
four years. In fiscal year 2000, FDA inspected over 90 percent of the 
6,250 high-risk establishments. In fiscal year 2001, the Agency expects 
to inspect 90-100 percent of high-risk establishments.
    Section 801 (e)(4)(B) of the Federal Food, Drug and Cosmetic Act 
authorizes the recoupment of fees of up to $175 for export certificates 
for drugs, animal drugs and devices. This section, however, does not 
cover the collection of user fees for export certificates for foods. 
FDA spends millions of dollars in food safety resources to support the 
specific needs of U.S. food exporters. The enactment of food export 
certification user fees will allow FDA to devote more attention and 
resources to food safety activities benefiting the entire population.
                         infrastructure support
    GSA is in the process of consolidating many of FDA's headquarter 
facilities at the former site of the Naval Surface Warfare Center in 
White Oak, Maryland. Under the first phase of this project, the Center 
for Drugs Evaluation and Research (CDER) laboratory building is 
scheduled for completion in fiscal year 2002. While GSA is responsible 
for the construction of this multi-year project, FDA is responsible for 
the actual move of staff and equipment, as well as certain 
telecommunication and equipment costs. FDA is requesting $6,000,000 for 
one-time costs to equip and occupy the CDER laboratory portion of the 
facility.
    With the support of Congress, the construction of the new Los 
Angeles laboratory, which analyzes twenty-five percent of all imported 
food samples, is now underway. To complete the project on time and move 
from the present facility by March 2003, when our lease expires, FDA is 
requesting $3,000,000 for a total of $23,000,000 to complete 
construction of the new laboratory.
    DHHS has also formed a financial working group to oversee 
streamlining of financial operations in an effort to enhance 
coordination, eliminate duplication of effort and develop unified 
approaches to financial management. To further improve the Agency's 
financial management, FDA is requesting $8,300,000 to begin initial 
acquisition and implementation of a new financial system. The Agency is 
working to minimize costs by taking advantage of work already performed 
by other DHHS agencies similar to FDA in scope and transaction volume.
    FDA is also requesting an increase in current user fees to enhance 
the review process of new human drugs and biological products and 
established fees for applications, establishments and approved 
products. The fiscal year 2002 budget request includes $204 million in 
user fees. Of this amount $20 million are new fees for which 
authorizing legislation is needed--$15 million for import activities 
and $5 million to provide certifications requested by food exporters. 
Drug and device exporters already cover such costs. PDUFA includes a 
total of $162 million, which includes an increase of $12 million for 
review of drug and biologic applications. MQSA includes $.5 million for 
inflation.
                                closing
    I thank you for the opportunity to share with you the breadth of 
FDA's responsibilities. FDA touches the life of every citizen through 
the medicines we take or feed for our animals, the blood products we 
may need one day, through the food we eat, the cosmetics we use, and, 
the medical devices in use today. Americans expect FDA to remain 
vigilant, to promote their health and well being, and to protect them 
from unacceptable hazards to our population at large, and to assure 
that they are adequately informed about the myriad hazards about which 
they will have to decide as individuals whether or not they are willing 
to accept. Significant investments must be made to keep this agency 
strong and at the forefront of the science upon which its regulatory 
mandate is based. The returns on that investment will be an agency that 
is equal to the challenges it faces and able to keep the confidence and 
trust of the American public. A strong FDA is clearly good for the 
consumer and industry alike, which in turn is good for the economy and 
health of our great nation. I appreciate your interest and continued 
support of the agency and its public health mission. This year is 
expected to be another exciting one for the Agency and I look forward 
to working with you as we face the challenges ahead.

    Senator Cochran. Thank you very much, Dr. Schwetz. We 
appreciate your cooperation with our committee and the detail 
in which you present your budget request this morning.

                              BSE Funding

    I notice that in connection with the mad cow disease, or 
BSE, issue that the budget requests $15 million in additional 
funds to protect against illness associated in Europe with the 
consumption of meat with BSE, or mad cow disease. What 
activities will the agency emphasize during this next year with 
these additional funds?
    Dr. Schwetz. The additional funds will help us cover 
several areas. Clearly one of them is to be sure that we 
continue the inspection of those facilities that are potential 
sources of getting ruminant proteins into other ruminants. So, 
a fair amount of it will go for our inspection capabilities for 
rendering plants, for feed mills, and for protein blenders that 
could be the source of a problem.
    We work with the States to get this job done. We talked in 
the past about getting through 100 percent of the inspections 
by September, but that is not the end of the need. The need is 
for us to be inspecting these sites on a continual basis, so 
the additional money allows us to have more money go through to 
the States to get the inspections done, and more people within 
the FDA to continue to do the inspections.
    Another part of it has to do with education and 
communication with the people out there who need to know more 
about what the 1997 regulation actually means and how serious 
we are about implementing it. We still are encountering people 
who should know what the 1997 rule said who do not seem to know 
all the details of what is expected under that rule. So, part 
of the money will go for continuing to educate the people who 
need to know about the problems of keeping records, of 
commingling feeds, of labeling feeds in the feed mills and 
rendering plants so that we avoid exposure.
    Another part of it has to do with research. It is amazing, 
for as long as this kind of a disease has been around, that we 
do not know more about the cause of the disease and how it is 
transmitted from one animal to another, in some cases from one 
species to another. We do not have adequate methods yet for 
being able to very easily detect the presence of ruminant 
protein in feed products. So, that is one of the areas of 
research.
    Another one has to do with being able to identify the 
prions in materials that might be contaminated with the prion 
that is associated with spreading the disease.
    So, between inspections, additional educational activities, 
and research, those represent the kinds of major activities 
that we will be moving forward on.

                           Import Inspections

    Senator Cochran. While FDA has responsibilities for 
examining and inspecting imports, it is clear that the import 
numbers are increasing. We are importing so much more 
foodstuffs and other items that require inspection or are 
subject to our inspection laws. I wonder how FDA is able to 
cope with these increases, and I wonder whether the funding 
proposed in the next year's budget will give you a better 
opportunity to physically inspect and examine more of the 
entries being offered for import into the United States?
    Dr. Schwetz. Additional money that we are asking for will 
certainly improve our ability to deal with import questions. 
The money is not the only thing, though, that we depend on for 
improving our ability to manage imports coming into the 
country. The money, of course, will help to put more FDA people 
in those situations at ports of entry or outside the United 
States to help ensure inspections outside the United States, as 
well as at the import sites.
    In addition, we are working with a number of other groups 
who can help us to manage the risk that imports represent. We 
continue to work closely with Customs and with USDA, so that we 
use some of the capabilities that they have to help us with 
import alerts, and with the inspections at borders. They are 
very willing to help us. So, part of the strategy for the 
future to improve our ability to manage the import concern has 
to do with working more closely with Customs and with USDA to 
use the civil money penalties that they have and to use 
databases that they have.
    We are trying to move up on knowing for sure who the 
problem importers are and be able to deal with them more 
effectively so that when a shipment comes in from a foreign 
company, or organization, that has a history of violations, 
that we are able to deal with them more quickly than we can 
today by virtue of having better record systems to be able to 
alert the inspectors immediately that this is a shipment of 
potential concern and deal with it accordingly.
    We are trying to mark imports that come in that are not 
allowed to be imported so that they are more easily identified 
from the standpoint of coming to another port and coming into 
the country through another site.
    So, there are a number of things that this money will help 
us do, everything from more people to more infrastructure, 
working with other countries to develop the capabilities of 
doing inspections by some of their people through agreements on 
equivalency of inspections. So, there are a number of different 
fronts that we are working on, but clearly having the resources 
to put more FDA people behind this is very important.

                    Product withdrawals--Post Market

    Senator Cochran. You also have responsibilities for what is 
called postmarket surveillance. These are related to drugs in 
one instance which come onto the market and are available to 
patients more quickly in greater number now than ever before. 
You mentioned in your statement that 1 to 3 percent of products 
approved each year have to be removed from the market because 
of serious side effects that are discovered after they are in 
the marketplace. Is this a fairly usual percentage, or is this 
increasing? Are you troubled by this factor, and do you need 
more support in this area from the budget point of view?
    Dr. Schwetz. We are troubled anytime a product has to be 
withdrawn from the market because it suggests that one of 
several things happened.
    First of all, we cannot collect enough data ahead of time 
to assure that every product that is approved will be safe 
under all conditions of use. So, it means that we did not quite 
have enough information yet and we learned more as we expanded 
from a small group of maybe tens of thousands of people to 
millions of people. There are rare events that you discover 
when you scale up to a larger level of use.
    It could mean that we did not anticipate some conditions of 
use or some health conditions in which a product might be used, 
and we learn more after the product is approved than we learned 
about it during premarket as we watch for those adverse events. 
So, anytime an adverse event happens, it is important to us.
    But there are more drugs for which adverse events are being 
recognized now and more drugs that are being withdrawn, but the 
percentage of new drugs that are approved that are withdrawn 
has not increased over the last 20 to 30 years. The increase 
reflects the larger number of drugs being approved, not that 
the drugs being approved are more dangerous than they were 
before or that we are looking harder for effects. We are 
looking hard for whatever we can use to evaluate the safety of 
drugs after they are approved. But on a percentage basis of 
approvals, the withdrawals have stayed the same for the last 
two or three decades.

                          Prescription to OTC

    Senator Cochran. There was a story in the morning paper 
about drugs that were once described as having serious side 
effects and requiring prescriptions now should be considered as 
over-the-counter medicines because the side effects are not 
nearly as serious as the FDA or somebody said they were. What 
is your reaction to that problem, and is the FDA monitoring 
that to make sure that prescription drugs are not continued to 
be recognized as prescription drugs if the reason for it, in 
the first place, is no longer appertaining to those drugs?
    Dr. Schwetz. Well, usually the manufacturers come forward 
and request that a drug, for which there is now a considerable 
amount of clinical experience, be considered for a switch from 
prescription to over-the-counter. So, it is something that we 
have looked at for many drugs, and a lot of drugs that were 
prescription are now over-the-counter. So, it is a usual 
practice for drugs where the consequences of taking them 
represent minimal health risks.

                          Dietary Supplements

    Senator Cochran. This is my last question, too. I assure my 
colleague, Senator Johnson, I am going to stop asking questions 
here.
    You recently came down to the University of Mississippi, 
and I was fortunate enough to be able to be there and hear you 
deliver the annual Hartman lecture that is sponsored by the 
university's pharmacy school. You talked about dietary 
supplements and the challenges being faced with regulation or 
non regulation in that area. FDA has warned the public that 
there could be risks involved that consumers may not be able to 
discern. You noted some adverse event reports for certain 
supplements and noted that they were worrisome.
    Could you tell us, in summary, what are the risks to the 
consumers in our country that stem from taking dietary 
supplements? How can they be assured that these are safe and 
whether or not the public needs to be warned in some formal way 
about the risks involved?
    Dr. Schwetz. Some dietary supplements clearly are safe and 
are beneficial to a lot of people. But as you point out, there 
are concerns for some of the dietary supplements from the 
standpoint of a number of aspects that they might be causing 
harm.
    One of them is that some dietary supplements are known to 
interact with drugs that are being given to a patient for a 
specific disease, and they might change the availability of 
that drug that is being given to actively treat a disease. A 
dietary supplement in combination with that might make the drug 
less bioavailable or it might cause metabolic changes so that 
the drug that you are expecting to have a beneficial effect is 
in a different form because of a change in metabolism related 
to the presence of a dietary supplement. So, the interaction 
with other drugs that are being taken or other substances that 
are being taken, even if it might not be a drug, is one 
concern.
    Secondly is the inherent toxic properties of some of the 
components of dietary supplements themselves. So, there are 
components of some dietary supplements where you might expect 
that you would see a toxic effect to the nervous system or to 
the kidneys or the liver or whatever the target organ might be.
    Another concern about dietary supplements is that they are 
derived from plants that grow under widely varying conditions, 
and we have known for many years that in times of drought, for 
example, there are chemicals in plants that are not there in 
good growing conditions. The possibility exists that some of 
those toxic materials might find their way into some of the 
batches of dietary supplements.
    The other concern is that people rely on dietary 
supplements when they should be seeking a more aggressive form 
of therapy. We are concerned if a person takes a dietary 
supplement to treat a problem when in fact they should be 
seeking more serious medical care.
    One of the things that we have been working on to prevent 
some of these surprises is the use of Good Manufacturing 
practices to help standardize the manufacturing processes for 
these products. One of the dangers that I talked about when I 
was at Ole Miss is the fact that quality control is not as 
tight as we would like it to be. It is not as tight as it is 
for drugs. So, in many cases we do not know for sure what the 
active ingredient is in a dietary supplement that accounts for 
its effect. In addition, we do not know if the amount that was 
in this batch is also going to be in the next batch and the 
next one. So, Good Manufacturing practices will help that.
    The other thing that we are working on and that is part of 
the 2002 budget is having a greater capability for tracking 
adverse events that might be associated with dietary 
supplements. There was a recent report that suggested that one 
of the things the FDA should have is a more extensive 
capability for tracking adverse events from dietary supplement 
use. So, that is something that we are also working on.
    Senator Cochran. Thank you very much. A very interesting 
response.
    Senator Johnson.

                         Generic Drug Resources

    Senator Johnson. Well, yes, thank you, Chairman Cochran.
    Dr. Schwetz, over the next 5 years the patents on about $34 
billion in sales of brand drugs are going to expire, and 
studies have indicated that generic drugs typically enter the 
market priced about 30 percent less than the brand product, and 
consumer savings increase up to 80 percent on average over 2 
years. A 1 percent increase in use of generic drugs will result 
in about $1 billion in savings to consumers and health care 
providers, we are told.
    But with this extraordinary number of applications for 
generic drug approvals that will come before the Office of 
Generic Drugs in the future, I wonder whether the OGD will have 
sufficient resources to meet the 180-day statutory time frame 
necessary to approve these generic applications.
    How do you anticipate the Office of Generic Drugs managing 
the prospect of a significant influx of abbreviated new drug 
applications, and has the administration requested an increase 
in resources to meet the demand? And do you feel that the FDA 
ought to be more aggressively involved in consumer education 
programs designed to increase the public awareness of generic 
drug options?
    Dr. Schwetz. Thank you for your questions because we are 
trying to improve our timely review of the generic drugs. There 
is a request for additional money to provide pay costs for our 
people to get work done more quickly than we have in the past 
to try to meet our statutory requirement. So, part of it is 
having enough people to get the job done.
    One of the reasons we are working so hard for the pay 
related increases this year is that when we put more money into 
a program, like generic drugs, the money is actually used for 
that program as opposed to paying the mandatory salary and 
inflation needs, as we have in the past, where it may look like 
we have put more money in it, but actually what we are doing is 
paying the salaries of the people who are there. Over those 
years, we have actually lost people from the agency to be able 
to do some of these tasks. So, the mandatory pay increase will 
help that, plus any amount of money that would be available to 
help hire additional scientists and physicians to do this work.
    Part of it is also to tap into databases that will give us 
additional information about the effects of these drugs under 
use conditions.
    In addition to getting more data and more people, as you 
point out, we are making an effort to have more information go 
out to the public to increase confidence in generic drugs. It 
is our desire to make more information available to the public 
to allow the people to decide whether they want to use generics 
or not.
    Senator Johnson. How are you doing that?
    Dr. Schwetz. It is probably best to ask Dr. Woodcock, the 
head of our Center for Drugs, to expand in more detail on how 
that will happen. Janet?
    Dr. Woodcock. Good morning. There are several information 
campaigns that we are embarking on. One is directed to 
consumers to inform them of basically the scientific basis for 
making generic drugs available because there is quite a belief 
out there amongst the patient population that they are not as 
good and that they would be getting an inferior product. And we 
really think we can stand behind the generic drugs that we 
approve, that they are pharmaceutically equivalent to the 
innovator product.
    Another large group of people we need to reach better is 
the pharmacy community because they still maintain the belief, 
in some cases, that generic drugs are inferior. So, we need to 
target toward them more scientific information on how we do 
these approvals so they understand the scientific basis for 
generic drugs.
    Senator Johnson. Is the President's proposed budget 
adequate for this purpose, or do we need to be looking at that 
as this committee examines the FDA budget?
    Dr. Woodcock. We are beginning these campaigns now in the 
current fiscal year and we hope we will able to continue them 
within the President's budget next year.

                        BSE Enforcement Actions

    Senator Johnson. Thank you.
    Just one last question. I appreciate Dr. Schwetz's 
discussion of this issue. Let me just follow on a little bit on 
the BSE issue, and that is to the steps that the FDA is willing 
to take if a feed mill or rendering plant does not meet your 
September 30 deadline for compliance with your feed mixing ban 
and whether the reprogrammed funds, $2.4 million in 2001 within 
the FDA's Center for Vet Medicine, will be sufficient to handle 
these aggressive inspection and reinspection plans.
    Dr. Schwetz. Yes, they are sufficient from the standpoint 
that we react to the most egregious problems that we have. So, 
the money that we have available will certainly be used for 
those situations that represent the greatest risk of BSE being 
spread. But since we used money from the contingency fund, and 
money from other agency activities to do more inspections and 
other work on mad cow disease this year, the additional money 
that we are asking for will help to replenish some of those 
activities and let them go on as they were before, and allow us 
to do new things on mad cow disease as well.
    Senator Johnson. And as to what happens to plants that do 
not meet the September 30 deadline?
    Dr. Schwetz. I would ask if Dr. Sundlof could help to 
answer that question.
    Dr. Sundlof. Thank you and thank you, Senator Johnson.
    We have stepped up some of the enforcement actions against 
firms that continue to fail or fail in the first place to 
comply with the rule, and now we are going to direct warning 
letters. As soon as we get to a firm that we find out of 
compliance, they immediately get a warning letter.
    There were about 834 firms that we found to be out of 
compliance. On reinspection, we are finding about 93 percent of 
those are now in compliance on second inspection. That means 
that there is still 7 percent of those firms that are not in 
compliance. We have issued 31 recalls now of feed. So, we are 
really stepping up the enforcement aspect of the 1997 rule. 
With the funds that will be available in the next fiscal year, 
we intend to increase that even more.
    We are putting all of the information on the firms that 
were inspected on our website. So, anybody can go to our 
website now and find out which firms are in compliance, and 
which firms are not in compliance. We think that is going to 
have immeasurable impact on bringing people around to 
compliance with the rule.
    Senator Johnson. Well, I appreciate your testimony on this. 
While I think that the FDA has acted in a very timely, 
aggressive manner, it cannot be, I think, overstated how 
catastrophic an occurrence of BSE in the United States would be 
to the livestock industry and to our agricultural economy in 
general. So, I look forward to continuing to work with you on 
these issues. Thank you.
    Mr. Chairman, I yield back.

                         Importation of Catfish

    Senator Cochran. Thank you very much, Senator Johnson.
    There is one parochial issue in our State of Mississippi 
that I am going to ask you about now. We have a flourishing 
catfish industry in our State. It has grown very much over a 
long period of time. They are encountering difficulty with 
import competition from Southeast Asia, particularly Vietnam, 
of seafood products that are labeled as if they are the same 
products as grown in our domestic catfish farms in Mississippi 
and other States. The problem is that while FDA sent out an 
import alert calling attention to misbranded seafood and 
possibly the presence of Salmonella, there is some question 
about whether these alerts have been effective and whether the 
interdiction of improper shipments of seafood have been 
effective to protect the consuming public or to fully advise 
the consumers what they are buying.
    My question is whether the proposed budget for FDA's Center 
for Veterinary Medicine, Office of Surveillance and Compliance 
provides the funding to facilitate the development of a 
methodology and technology necessary for the proper testing of 
import tolerances for banned substances? And does FDA's Office 
of Seafood have the resources it needs to address the 
increasing volume of imported seafood both at the border and in 
the U.S. marketplace?
    Dr. Schwetz. The increases in budget certainly move us in 
the direction of being able to do more than we have in the 
past. Regarding the possibility of more accurately being able 
to detect catfish that are some other varieties of catfish 
coming in from foreign countries than what we would call 
catfish here, I would ask Mr. Levitt if he would provide 
additional help on that.
    Senator Cochran. Mr. Levitt, you may come forward.
    Mr. Levitt. Thank you.
    As you point out, there are responsibilities both for my 
center, the Food Center, and for the Center for Veterinary 
Medicine. The import alert, as you correctly point out, is 
designed to try and be sure American consumers know what they 
are buying and if there are differences in the kind of fish, 
they are readily apparent to consumers. Again, as Dr. Schwetz 
said, the money we have for greater surveillance over imports 
will move us in that direction, but also the numbers, you have 
to realize, of imported foods, as well as all of our products, 
are growing dramatically. We have seen over the last 8 years a 
quadrupling in the number of food imports in the United States. 
So, we are continuing to do, as Dr. Schwetz pointed out, a 
number of different things to address that. Part of that is 
through the import alert, looking to be sure that the fish is 
properly labeled and identified for the consumer. So, we will 
be able to do more of what you are asking.

                       Patient Safety Task Force

    Senator Cochran. Dr. Schwetz, you indicate in your 
testimony that the Department has established a patient safety 
task force to integrate the collection of data on medical 
errors with a goal of reducing medical errors by 50 percent 
over a 5-year period. What is the FDA's role in this effort and 
what kind of baseline, if any, has the task force established 
for measuring progress in meeting its goal?
    Dr. Schwetz. I will let Dr. Woodcock expand on the answer 
to that, but there are a number of ways that we are trying to 
prevent medical errors. For example, whether or not a name that 
is requested for a new drug is a name that looks like other 
drugs and could cause confusion. The fact that information on 
labels might not be clear enough to have people read the label 
quickly and draw the right conclusion. If they are only going 
to read part of the label, do they read the part of the label 
that conveys the most critical information at the very 
beginning. Once someone says they have read the label, have 
they really drawn the wrong conclusion or the right conclusion 
from what they have seen? So, there are a number of things.
    As we test these kinds of new labels and new drug names on 
groups of people who have not been involved in the review of 
the drug itself, but are kind of naive to the information, we 
are trying to improve the quality of information that there is 
that users would eventually have, either physicians or other 
people in health care or the consumer himself, so that the 
right conclusion is drawn from the information.
    But, Dr. Woodcock, would you expand more?
    Senator Cochran. Dr. Woodcock.
    Dr. Woodcock. Certainly. The collaboration amongst the four 
agencies is basically intended to make sure no information is 
lost. I think the best way to explain this is by an example.
    The Agency for Health Care Quality Research is pursuing 
reporting of medical errors, as you know. One of the defined 
medical errors that might be reported into those systems is a 
malfunction of a medical device. We want to make sure that when 
errors or problems like that are reported into State or Federal 
reporting systems, not to the FDA, that the FDA can respond 
because we know about them. A malfunctioning device is really 
under the purview of the Center for Devices. It is something 
the Device Center would have to take action on to improve the 
design of that device or have better warnings and precautions 
around it or maybe even take it off the market.
    So, the concern is with the interest in reporting systems 
for medical errors--medical errors are not as straightforward 
as one might think and often they involve a regulated product. 
For example, blood is another good example of where there are a 
lot of errors involved in administering blood, some of them 
fatal, but they involve the Biologics Center, the way blood 
banks operate, the way blood is labeled and so forth.
    So, we are trying to reduce duplication of reporting 
requirements on facilities, as well as make sure the 
information is shared with the relevant parties so they can 
take whatever responsibility they have.

                           Blood Action Plan

    Senator Cochran. Thank you.
    That leads to an observation. In fiscal year 1998, in the 
appropriations bill, there was a statement of managers dealing 
with development of a blood product tracking system, a 
notification system. FDA issued an advance notice of rulemaking 
in 1999, but as I understand it, it has not completed the 
implementation of a blood products safety mechanism. I am told 
that manufacturers have sought to establish a voluntary 
notification system through a third party that has had some 
problems.
    A lack of confidence in the system has resulted in poor 
enrollment by the hemophilia community.
    My question is what will the FDA do to move forward to 
finalize its proposed rule to require manufacturer tracking of 
blood-derived products and prompt patient notification of 
adverse events?
    Dr. Schwetz. I would ask if Dr. Zoon could answer that 
question.
    Dr. Zoon. Thank you very much for the opportunity.
    As you know, the agency has been working on a blood safety 
action plan, and this has been in coordination with but the 
National Institutes of Health and the Centers for Disease 
Control. One element of that blood action plan did involve the 
advanced notice of proposed rulemaking that you have mentioned. 
This part of the blood action plan, as you also alluded to, is 
currently being conducted on a voluntary basis by the industry. 
We are very interested in moving this initiative forward. There 
are multiple competing parts of the blood action plan, but this 
is one that we appreciate your interest in and will look into 
its status and move it along.

                                 NARMS

    Senator Cochran. Thank you very much.
    FDA has been analyzing the effects of antibiotic use in 
food-producing animals through the National Antimicrobial 
Resistance Monitoring System, specifically looking at 
antimicrobial resistance. What agency decisions or priorities 
have been affected by use of this National Antimicrobial 
Resistance Monitoring System and the data that has been 
collected?
    Dr. Schwetz. The data from NARMS have helped to support 
decisions within the agency now and during this past year. The 
data we are collecting through this monitoring system give us a 
good baseline of information upon which to make decisions on 
other drugs where we are just beginning to collect information 
and new drugs that will be approved in the future that have 
antibiotic activity.
    During this past year, we have been tracking the 
information through this NARMS system. What we find from the 
use of fluoroquinolone drugs in the poultry industry and the 
increased incidence of antibiotic resistance that we saw with 
Campylobacter led to the statement by the agency that we were 
withdrawing the approval of fluoroquinolones in the poultry 
industry. So, that is one example of where the data have helped 
us to review information that led us to do a risk assessment of 
fluoroquinolone use and, in the specific case of poultry, to 
make a decision that we should withdraw the approval of it. It 
can still be used in other farm species but not in poultry.
    We have also begun to look at information, or other 
antibiotics and the use and their correlation with what we are 
seeing in NARMS. One that we are looking at right now is a drug 
called virginiamycin, which has a human drug counterpart. We 
are looking at the information. We are reviewing what is 
available on virginiamycin as another candidate that might be 
increasing antibiotic resistance, and eventually if we have 
enough information, we may do a risk assessment of the impact 
on humans. That is another example of where we will be doing 
that.
    Senator Cochran. We had a hearing exploring this in another 
setting last year and we learned an awful lot about how 
antimicrobial resistance was becoming a very, very serious 
problem, not just from the animal feed standpoint, but the 
prescription of drugs that are unnecessary in a lot of cases. 
Somebody has a cold and they go see the doctor and he gives 
them an antibiotic, and they may be suffering from a sinus 
condition that is not an infection and would not respond to 
that drug when it was given. But that is what the patient 
wants. That is what the doctor prescribes.
    It has so many aspects. Sometimes we do concentrate in one 
area and forget about the other things that can be changed that 
will help deal with the problem too. But these are very serious 
problems and very challenging areas, I am sure, of inquiry. The 
more we know about it, the better off we will all be. Right?
    Dr. Schwetz. Yes.
    Senator Cochran. Or so we hope, anyway. If we have got 
sense enough to act on the facts rather than our suspicions.

                         Infrastructure Funding

    Last year we provided funding in the buildings and 
facilities area of the budget for the first phase of 
construction of the new Los Angeles laboratory. I know that was 
a high priority on the FDA's wish list, and I am curious to 
know what progress is being made on the project.
    Dr. Schwetz. There has been considerable progress made on 
the Los Angeles laboratory. Thank you all for your support to 
keep this moving. The $3 million that is proposed in the budget 
for 2002, plus the $20 million that we have received already 
has gotten us started, and will bring the Los Angeles 
laboratory to completion. This is a very important lab for us 
because about 25 percent of the foods that we inspect that come 
into the country come through that laboratory. So, we are 
making good progress on completing that.
    Senator Cochran. Another budget request that deals with 
equipment and laboratories is the $6 million requested to equip 
and occupy a new laboratory for the Center for Drug Evaluation 
and Research as part of the agency's long-range move to a 
consolidated headquarters in Maryland. Is that project on 
schedule, and will all of the $6 million be needed in the next 
fiscal year?
    Dr. Schwetz. That project is moving. The ground breaking 
for the Center for Drug facility happened last fall. So, the 
GSA funding is what is going to build that building, and the $6 
million that is in our budget will help to move the Center for 
Drugs people into that facility as the first phase of 
consolidating all of our activities out there on that campus, 
all of the activities that relate to the medical products, the 
Center for Drugs, the Center for Devices, the Center for 
Biologics. Eventually the FDA Office of the Commissioner would 
be there and the headquarters for the Office of Regulatory 
Affairs, the field operation. So, eventually we are going to be 
bringing all of that onto that campus.
    I would ask Mr. Weber if he would offer any additional 
information about whether this is on time or not.
    Mr. Weber. The project is on time. The community is very 
supportive and I think they are making sure that the project 
stays on time. We are expecting to move in between the end of 
2002 and the beginning of 2003. Some of the funds would be 
needed before the staff moves in for telecommunications costs 
and things like that, and the money is being requested as 2-
year funds so that if some of the project is funded in 2003, we 
would have the money carried over for that purpose.
    Senator Cochran. I appreciate very much your attendance at 
the hearing this morning and the response to our questions and 
the cooperation with members of our subcommittee in answering 
their special areas of concern.

                     Additional Committee Questions

    We will continue to review the budget and we may submit 
questions in writing that we did not ask this morning. We hope 
that you will be able to respond to them in a timely fashion.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

     bovine spongiform encephalopathy (bse) or ``mad cow disease''
    Question. ``Mad Cow Disease'', or BSE , is of great concern today. 
Please describe FDA's role with respect to protecting this country from 
the threat of BSE, in terms of what activities FDA undertakes, and 
which regulated products BSE may affect.
    Answer. One of the goals of FDA's activities regarding 
transmissible spongiform encephalopathies, or TSEs, is to minimize the 
risk of the introduction of bovine spongiform encephalopathy, or BSE, 
into U.S. cattle, and to minimize the risk of amplification of BSE in 
the U.S. cattle herd, if BSE were ever to be found in U.S. cattle. On 
August 4, 1997, FDA's regulation entitled ``Substances Prohibited From 
Use in Animal Food or Feed; Animal Proteins Prohibited in Ruminant 
Feed'', 21 CFR 589.2000, became effective. The purpose of the rule is 
specifically to meet this goal. FDA has developed a three-pronged 
approach in its efforts to realize 100 percent compliance with the 1997 
feed rule.
    The first prong is education. Providing education for both licensed 
and non-licensed feed mills, as well as State and Federal inspectors 
conducting FDA inspections, helps to ensure a full understanding of the 
feed rule and increases compliance. State feed control officials and 
trade organizations representing renderers, feed mills, and other parts 
of the organizations representing renderers, feed mills, and other 
parts of the livestock feeding industry have played a large role in 
helping to educate groups within the feed industry. The FDA has also 
conducted more than 25 individual training sessions for FDA district 
and State personnel.
    The second prong is a strong and visible inspection presence. FDA's 
goal is to inspect 100 percent of all known renderers, protein 
blenders, and feed mills, and to inspect as many ruminant feeders as 
possible. The Agency has coordinated inspections with State feed 
control officials so that all firms found in violation will be re-
inspected to confirm that corrective actions have been implemented. FDA 
plans to continue to monitor the status of compliance with the rule by 
firms handling prohibited material, such as meat and bone meal, by 
maintaining an on-going inspection and reinspection program. In 
addition, FDA plans to continue to monitor the status of the industry 
for compliance with the rule by inspection and implementation of a 
sampling program to check for the presence of prohibited proteins in 
ruminant feeds.
    The third prong is enforcement action. FDA is prepared to initiate 
enforcement action, under the Federal Food, Drug, & Cosmetic Act, FFD&C 
Act, to ensure compliance with the feed rule. Actions may include 
issuance of warning letters, product seizures, injunctions, or 
prosecutions, in addition to firm-initiated recalls to remove 
adulterated or misbranded products from the market place.
    In addition, FDA is enhancing its vigilance at U.S. ports of entry 
for regulated products which BSE may affect, such as animal protein, 
including feeds. Other regulated products BSE may affect are gelatin-
containing products for oral consumption, such as candy and capsules, 
as well as cosmetics and dietary supplements. FDA issued an Import 
Alert on January 20, 2001, and a new Import Bulletin on March 1, 2001. 
These new documents provide a detailed second-line system for 
identifying at the ports products about which FDA has potential BSE 
concerns. FDA has coordinated its actions with Customs and USDA's 
Animal and Plant Health Inspection Service, APHIS. It is important to 
note that the FDA, as well as Customs, and APHIS, are dependent upon 
the import community, which includes brokers, importers, and shippers, 
for the entry and manifest data with which to identify products 
consisting of, or containing, materials of concern from BSE and BSE-
high-risk countries. Products which are not declared correctly or are 
described by importers or brokers so as to hide their animal origin or 
country of origin, may not be detected through FDA import monitoring.
    In order to achieve and maintain a sufficient level of accuracy in 
data on products submitted for importation into the U.S., FDA has 
trained importers and brokers in the submission of such data and 
periodically evaluated the quality of such data by company data 
submitted with original entry documents, These are labor intensive 
activities, and our resources are severely limited.
    Question. FDA recently sought and received an apportionment of $2.4 
million in unobligated contingency funds appropriated in fiscal years 
1990 and 1991 to reimburse FDA for ``extraordinary costs'' associated 
with the BSE threat. What are the ``extraordinary'' costs associated 
with BSE which caused FDA to use the contingency fund?
    Answer. The extraordinary costs related to the BSE threat were not 
provided for in budget estimates, because of the nature of the way this 
issue evolved during the current fiscal year. The Animal Drugs and 
Feeds program is relatively small in size and the use of this Fund 
provides a way to deal with this emergency without disruption of 
important ongoing programs. The unusual costs related to the BSE threat 
include supplies, travel, and contracts, including contracts with the 
States to do product screening and inspections.
    Question. The statute requires that emergency contingency 
appropriations be available only ``to meet unanticipated costs of 
emergency activities not provided for in budget estimates'' and ``after 
maximum absorption of such costs within the remainder of the account''. 
Please specify how the FDA activities associated with the BSE threat 
were determined to have met each of these two requirements.
    Answer. In order for FDA to deal with the unanticipated need to 
screen certain products to prevent BSE, we have been able to reassign 
some of our existing staff from relatively lower-priority work to the 
BSE-related work.
    Question. How does the total level of funding for BSE-related 
activities proposed for fiscal year 2002 compare with the levels 
provided for each of fiscal years 2000 and 2001? Please provide a 
comparison of the activities associated with BSE undertaken in each of 
fiscal years 2000 and 2001 and proposed for fiscal year 2002, including 
the level of funding and staff years for each activity.
    Answer. In fiscal year 2000 FDA spent approximately $3.8 million on 
TSE related activities. These activities included: Statutory and non-
statutory inspection of feed mills, renderers, and producers, through 
the use of FDA and State contract inspections; conducting research on 
blood and blood products; developing regulations to screen and test 
blood donors for BSE/CJD; reviewing and approving vaccines and 
therapeutic biologic products of which many use human or animal 
materials in production; and, conducting applied regulatory research to 
understand TSEs.
    In fiscal year 2001 FDA had planned on spending approximately $3.8 
million, but given the recent events related to BSE in Europe, FDA has 
had to adjust its plan within the animal drugs and feeds programs. 
Adding to the base resources from fiscal year 2000, FDA will internally 
shift resources from lower priority programs to cover domestic 
inspections and import entry review and import label examinations. In 
fiscal year 2001 FDA also tapped into the contingency fund for one time 
funds of $2.4 million. These funds covered additional State contracts 
for domestic inspections, training for FDA employees, and importers, 
scientific equipment for laboratory analysis, methods development and 
validation, IT enhancements, market studies to identify food and 
cosmetic products containing specific risk products, and overtime and 
travel costs incurred by the field. In fiscal year 2002 FDA has 
requested an additional $15.0 million for BSE activities.
    [The information follows:]
Foods Program, $1.1 million
    Expand work efforts to identify food and cosmetic products 
containing brain, spinal cord, and other specific risk materials 
(SRMs); the origin of the animal; and country of origin;
    Research the risk factors and mechanism for CWD which affects elk, 
deer and other domestic game/pen-reared animals;
    Participate in international BSE meetings to ensure safety of the 
U.S. food supply; and
    Provide up-to-date information on the emerging public health issues 
to the public.
Biologics, $0.5 million
    Address the potential BSE threat to the safety of biological 
products. Two biological product areas affected include the safety of 
the blood supply and the safety of vaccines derived from bovine-sourced 
material.
Animal Drugs and Feeds $13.1 million ($2.2 million Center, $10.9 
        million Field)
    Conduct targeted BSE inspections of all renderers and licensed and 
non-FDA licensed feed mills handling prohibited material, such as meat 
and bone meal on a yearly basis, and conduct reinspections of those 
with compliance deficiencies, taking appropriate enforcement actions 
for repeated or egregious violations;
    Leverage with State agencies by funding approximately 4,000 
contract inspections of feed mills and renderers, and conduct 
compliance, follow-up, and audit inspections to State contracts;
    Review and evaluate field inspection data and take enforcement 
action when necessary;
    Develop a domestic sampling plan, collecting and analyzing 600 
domestic feed, and feed component samples for BSE related contaminants. 
In addition, the Animal Drugs and Feeds Program will increase the 
number of import samples by 600. This sampling plan will ensure proper 
labeling of animal feeds and feed components;
    Provide intensive line entry and label review, when appropriate, of 
an anticipated 175,000 import line entries for use in domestic commerce 
for the Animal Drugs and Feeds Program by expanding import staff by 17 
FTE;
    Conduct additional training for Federal and State inspectors on the 
BSE feed regulation, update them on the current European Union 
situation, Animal Plant and Health Inspection Service (APHIS) authority 
and approach, and what to look for and how and when to sample;
    Develop and validate detection methods for BSE, collaborating with 
experts and foreign scientists to assist in developing BSE methods;
    Modernize the existing information technology infrastructure to 
facilitate electronic inspection reporting and information collection 
and distribution; and,
    Educate industry and the general public on BSE through public 
meetings, publications, and FDA's website.
Other Activities, $0.3 million
    Provide advice and counsel on legal matters, render opinions, and 
support rulemaking proceedings, legislative matters, policy 
deliberations, and domestic and international negotiations; and,
    Provide litigation support for enforcement, defensive and third-
party matters.
                              blood safety
    Question. The conferees, in the statement of managers accompanying 
the fiscal year 1998 appropriations Act, requested that FDA move 
forward with development of a blood product tracking and notification 
system. FDA issued an advanced notice of proposed rulemaking in August 
1999, but it has not completed implementation of this important blood 
product safety mechanism. When will the FDA move forward to finalize 
its proposed rule to require manufacturer tracking of blood-derived 
products and prompt patient notification of adverse events?
    Answer. The advance notice of proposed rulemaking, or ANPR, 
``Plasma Derivatives and Other Blood-Derived Products; Requirements for 
Tracking and Notification,'' was published on August 19, 1999, in the 
Federal Register. The development of the final rule on the blood 
product tracking and notification system is part of Blood Action Plan 
in coordination with the National Institutes of Health and the Centers 
for Disease Control and Prevention. There are competing parts of the 
Action Plan. Programs for notifying recipients in cases of issues 
related to blood product quality and safety are presently voluntary. 
FDA is expediting this rulemaking process. Comments to the ANPR have 
been organized and are being reviewed. We anticipate that the proposed 
rule will be published by June 2002, and the final rule will be 
published by August 2003.
                     application review performance
    Question. You indicate that there has been sustained high 
performance in application review for prescription drugs, particularly 
for new drugs. Yet, the performance is not as high--in fact, far below 
statutory requirements--in other product areas. Where do you see gaps 
in application review, and is closing those gaps a priority?
    Answer. There are four types of applications where there are or 
could be significant gaps in review performance. We are trying to close 
the performance gaps for all of these applications by using additional 
resources when available, redirecting resources to higher priority 
applications, and by improving the review process.
    During fiscal year 2000, FDA approved 232 Abbreviated New Drug 
Applications, ANDAs. This is an increase over the 198 approved last 
fiscal year. Of these, several represent the first time a generic has 
been approved for a product. Significant strides were made toward a 
paperless review environment. With $1.5 million in funding earmarked 
for satisfying information technology needs, FDA purchased upgraded 
hardware and software, and contractual support for the review of 
electronic submissions.
    Beginning in January 1997, FDA implemented a procedure to reduce 
approval times by allowing reviewers to utilize a facsimile amendment. 
Facsimile amendments are requests from reviewers to applicants for 
clarification/resolution of minor deficiencies. This procedure resulted 
in review times exceeding 6 months, but shortened overall approval 
times. In June 2000, a slight modification to the facsimile amendment 
procedure was made and this modification to the procedure will better 
enable FDA to act upon its target percentage of ANDAs within 6 months.
    The inability of FDA to meet the 6-month goal is also a function of 
the existing backlog of chemistry and microbiology reviews. To address 
these backlogs, FDA restructured the review process, added reviewers, 
and added project managers. FDA believes that these initiatives will 
reduce the chemistry and microbiology backlog allowing reviewers to get 
to the applications sooner and lessen the effect of the facsimile 
amendments on the 6-month review goal.
    It is widely recognized that meeting the current statutory time 
frame is an unrealistic goal for all food and color additive petitions, 
especially the more complex ones. The impracticability of the current 
time frame was acknowledged in the report from the June 1995 House 
hearing, and a recommendation to change the time frame to, 360 days of 
receipt, was included in the Agency's testimony before the House 
Committee on Government Reform and Oversight in 1996.
    Since the 1995 and 1996 hearings, the Food and Drug Modernization 
Act, FDAMA established a notification process for food contact 
substances. The premarket notification program began to fully operate 
on January 18, 2000. Several factors will influence future performance 
in reviewing food and color additive petitions within 360 days. The 
most important of these factors is the implementation of the new 
premarket notification process. By fiscal year 2001, we expect that 
many of the simpler food additive petitions that can be completed 
within 360 days will be filed under the notification program and thus 
decrease the workload for food and color additive petitions. However, 
since the remaining petitions are likely to be more complex and take 
more time to review, Agency performance may decline initially. 
Similarly, the premarket notification program may also initially 
increase the fraction of pending petitions that are overdue because 
many recently submitted petitions for food contact substances will have 
been converted to notifications. Once the notification and the petition 
review processes are well established, FDA expects performance on food 
and color additive petitions to increase substantially toward full 
performance in succeeding years beginning in fiscal year 2002.
    The Animal Drugs and Feeds Program does not have sufficient 
resources to review and act on all new animal drug application actions 
received within the statutory time frame of 180 days. Recent resource 
increases in the drug review area will allow the Center for Veterinary 
Medicine, CVM to recruit and hire review scientists. These increased 
personnel resources will boost our compliance rate from 75 percent in 
fiscal year 2001 to 80 percent in fiscal year 2002.
    In fiscal year 2000, FDA performance was 96 percent for the 
premarket device applications received in the first six months. The 
performance strategy is to redirect resources from low-risk to high-
risk devices. Also, efforts such as early meetings with manufacturers, 
modular review, streamlined reviews, and product development protocols 
have resulted in faster reviews. PMA submissions will continue to 
increase in fiscal year 2001 and fiscal year 2002 due to technology 
advances, increased use of computerized and miniaturized devices. 
Therefore, it is expected that fiscal year 2002 will not only be a year 
of more submissions but submissions will require multiple reviewers 
with different areas of expertise. Reviews will be more complex and 
take even more science time. This could adversely affect review 
performance in the future.
    I would be happy to provide the information requested arrayed 
according to application type, relevant statute, and fiscal year 2000 
performance.
    [The information follows:]

------------------------------------------------------------------------
                                                           Fiscal year
                                                               2000
            Time frame               Relevant statute    performance \1\
                                                            (percent)
------------------------------------------------------------------------
Review abbreviated new drug        FFD&C Act Sec.                     56
 applications (ANDAs) within 180    505(j).
 days. (Drugs) \2\.
Review Food and color additive     FFD&C Act Sec.                     77
 petitions within 360 days          409(c)(2) for food
 (Foods). Goals are based on 360    additive petitions
 days. The statute provides for     and & Sec.
 90 days with one additional 90-    721(d)(1) for color
 day extension for a total of 180   additive petitions..
 days. \3\.
Review new animal drug             FFD&C Act Sec.                     74
 applications (NADAs) &             512(c)(1).
 abbreviated new animal drug
 applications (ANADAs) within 180
 days. (Veterinary Drugs).
Review premarket approval          FFD&C Act Sec.                    96
 applications (PMAs) within 1800    515(d)(1)(A).
 days. (Devices).
------------------------------------------------------------------------
\1\ Potential performance computes the percent that we will reach if all
  the currently pending within goal submissions are given within goal
  reviews. Current performance figures may appear low since the fiscal
  year 2000 cohort is just reaching goal date maturity.
\2\ FDA is required to take an action on generic drug applications
  within 180 days. FDA had a goal of reviewing 60 percent of
  applications in fiscal year 1999. That goal was not met, in part, due
  to a procedure that held applications open while the firm responded to
  deficiencies in the final stages of review. This approach has been
  revised. The goal for fiscal year 2000 is 45 percent, 50 percent for
  fiscal year 2001, and 55 percent for fiscal year 2002. Performance
  data for fiscal year 2000 will not be available until 180 days after
  the close of fiscal year 2000. However, based on preliminary
  estimates, it appears FDA will meet its goal of 45 percent for fiscal
  year 2000.
\3\ The statutory requirement--FD&C Act Section 409(c)(2)--for action on
  a food additive petition is ninety days, with one additional ninety-
  day extension for a total of 180 days. (A similar provision for color
  additives is found in FD&C Act Section 721(d)(1).) Nevertheless, for
  these petitions, application review goals are based on 360 days as
  recommended by House Report 104-436. During the period January 1, 2000
  to September 30, 2000, FDA completed the safety evaluation within 360
  days on: 5 of the 5 food additive petitions received in fiscal year
  1999 that qualified for expedited review--those that are expected to
  have a significant impact on food safety. In addition, FDA completed
  the safety evaluation within 360 days on 59 of the 77 food and color
  additive petitions received in fiscal year 1999 that did not qualify
  for expedited review.

    Question. Using the fiscal year 2002 request as a base, what 
additional amount of funding and number of staff years would be 
required to allow FDA to meet the statutory requirements?
    Answer. The Agency is currently in the process of developing long-
range estimates for resource needs associated with closing the gap 
between current performance and meeting statutory requirements. The 
estimates will include: a range of estimated resources, assumptions in 
determining the estimate, and caveats that indicate what types of 
uncertainties or changes would alter the estimates.
                                devices
    Question. Section 515(d) of the Federal Food, Drug, and Cosmetic 
Act requires FDA to approve or deny a PMA within 180 days. The FDA 
budget justification indicates that the statutory requirement is to 
review 100 percent of PMA first actions within 180 days. Is this in 
fact the agency's view? What is the difference between ``first action'' 
and approving or denying an application?
    Answer. Section 515(d) of the Federal Food, Drug, and Cosmetic Act 
requires FDA to approve or deny premarket approval application, or PMA, 
within 180 days. It is FDA's goal to meet the statutory time frame. 
This includes completing our review and first action within 180 days. A 
first action includes the final action of approving or denying an 
application. First actions also include interim decision letters in 
which FDA lists additional information that is required from the PMA 
applicant in order to make the application approvable. These interim 
first actions include approvable, not approvable, and major deficiency 
letters. Not approvable and major deficiency letters cause the 180-day 
review clock to restart, that is it is reset to zero, when the PMA 
applicant submits responses to these letters. An approvable letter 
temporarily stops the clock while the applicant prepares a response, 
and the clock resumes running when we receive the response.
    Question. What additional funding would FDA require from the 
President's fiscal year 2002 budget request to meet statutory review 
times for medical devices. Please provide a detailed justification of 
the estimate provided, along with an explanation as to how the 
additional funds would be used to meet statutory review times.
    Answer. FDA expects to expend the same level of funding in fiscal 
year 2002 as in fiscal year 2001 for medical device reviews, plus 
corresponding pay increases in fiscal year 2002 associated with this 
function. The Agency is currently in the process of developing long 
range estimates for resource needs associated with medical device 
reviews. The estimates will include: a range of estimated resources, 
assumptions in predicting the number of anticipated applications and 
associated establishment inspections, and caveats that indicate what 
types of uncertainties or changes would alter the estimates.
    Question. Please provide for each of the last 5 fiscal years the 
dollar amount and full-time equivalent (FTE) positions that have been 
expended at the Center for Devices and Radiological Health (CDRH) on 
premarket review for each of the following: 510(k) submissions, PMAs, 
PMA supplements, IDEs, IDE supplements, IDE amendments, and HDEs.
    Answer. I would be happy to provide for the record, a table showing 
the FTEs and dollars expended by CDRH on premarket review for five 
years: Fiscal years 1996-2000. Please note that CDRH includes HDEs with 
PMAs and PMA supplements in its data tracking, so data are not 
available for HDEs alone. Also, CDRH does not track IDE Amendments 
alone; they are counted with all IDEs.
    [The information follows:]

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
                                                ----------------------------------------------------------------
                Review activity                      1996         1997         1998         1999         2000
                                                ----------------------------------------------------------------
                                                 FTE  Amount  FTE  Amount  FTE  Amount  FTE  Amount  FTE  Amount
----------------------------------------------------------------------------------------------------------------
510(k).........................................  243  $19.9   185  $16.0   184  $16.6   166  $15.2   154  S15.3
PMAs \1\.......................................  113    9.5   158   13.2    95    8.7    98    9.5   109   10.7
PMA Supplements \2\............................   31    2.6    19    1.7    39    3.5    46    4.3    49    5.1
IDEs \3\.......................................   53    4.3    55    4.5    59    5.1    53    4.9    46    4.5
IDE Supplements................................   32    2.7    35    2.7    41    3.6    36    3.4    46    4.5
----------------------------------------------------------------------------------------------------------------
\1\ Includes amendments and HDEs--separate data for HDEs are not available.
\2\ Includes HDEs--separate data for HDEs are not available.
\3\ Includes IDE amdements--separate data for IDE amendments are not available.

    Question. Please provide for each of the last 5 fiscal years the 
dollar amount and FTEs that have been expended on educational 
activities for reviewers and CDRH participation in standards 
development.
    Answer. I would be happy to provide for the record a table showing 
the FTEs and dollars expended by CDRH during fiscal years 1996-2000 for 
the activities you requested. Please note that CDRH did not collect 
separate data on educational activities for reviewers from fiscal years 
1996-1998. Also, please note that medical device standards activities 
include development of international standards, and domestic mandatory 
and domestic voluntary standards under the Medical Device Authority.
    [The information follows:]

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
                                                ----------------------------------------------------------------
                    Activity                         1996         1997         1998         1999         2000
                                                ----------------------------------------------------------------
                                                 FTE  Amount  FTE  Amount  FTE  Amount  FTE  Amount  FTE  Amount
----------------------------------------------------------------------------------------------------------------
Educational Activity \1\.......................  N/A    N/A   N/A    N/A   N/A    N/A    12   $1.1    13   $1.2
Standards Development..........................   43   $3.8    65   $5.2    74   $7.1    70    7.2    53    5.6
----------------------------------------------------------------------------------------------------------------
\1\ There are no comparable data on educational activities in CDRH prior to fiscal year 1999.

    Question. Please provide for each of the last 5 fiscal years the 
dollar amount and FTEs that have been expended on the following: 
domestic inspections, foreign inspections, post-market surveillance, 
MedSUN, device tracking, bioresearch monitoring, and medical device 
reporting requirements.
    Answer. For the record, I will provide a table showing FTEs and 
dollars expended by FDA's Center for Devices and Radiological Health, 
or CDRH, during fiscal years 1996-2000 for the activities you 
requested. To clarify the table, let me explain CDRH does not collect 
separate data on resources expended for investigations. This 
information is collected under the heading, ``Quality Systems/
Certification.'' Other activities included in the category are 
footnoted on the table. MedSUN and Medical Device Reporting 
Requirements data are not tracked separately, but are combined into a 
single adverse event reporting category. MedSUN was a pilot program 
through fiscal year 2000 and fiscal year 2001 is its first year of 
implementation.
    [The information follows:]

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
                                                ----------------------------------------------------------------
                    Activity                         1996         1997         1998         1999         2000
                                                ----------------------------------------------------------------
                                                 FTE  Amount  FTE  Amount  FTE  Amount  FTE  Amount  FTE  Amount
----------------------------------------------------------------------------------------------------------------
Quality Systems/Certification..................   33   $2.7    25   $2.1    20   $1.8    18   $1.6    17   $1.6
Postmarket Surveillance........................   57    5.5    36    3.4    38    3.3    36    3.8    19    2.1
Adverse Event Reporting (incl MedSUN & Medical    36    3.8    44    4.4    37    4.4    37    5.1    38    5.8
 Device Reporting Requirements.................
Device Tracking................................    1    1.0     1     .1     1     .1     1     .1     1     .1
Bioresearch Monitoring.........................   22    1.7    22    1.7    23    2.1    20    1.7    20    1.9
----------------------------------------------------------------------------------------------------------------

    Question. Please provide for each of the last 5 fiscal years the 
dollar amount and FTEs that have been expended on non-review scientific 
activities.
    Answer. For the record, I will submit a table with the FTE and 
dollars expended by CDRH on medical device non-review scientific 
activities.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
                                                ----------------------------------------------------------------
                    Activity                         1996         1997         1998         1999         2000
                                                ----------------------------------------------------------------
                                                 FTE  Amount  FTE  Amount  FTE  Amount  FTE  Amount  FTE  Amount
----------------------------------------------------------------------------------------------------------------
Non-Review Scientific Activities...............   75   $8.1    73   $6.3    79   $7.5    78   $8.7    67   $8.9
----------------------------------------------------------------------------------------------------------------

    Question. Please provide for each of the last 5 fiscal years the 
dollar amounts that have been expended at CDRH on contracting with 
outside experts to assist in the review of each of the following types 
of submissions: 510(k)s, PMAs, PMA supplements, IDEs, and HDEs.
    Answer. When funding levels and circumstances permit, FDA uses its 
authority to contract out with outside technical expertise when such 
expertise is needed. For example, in fiscal year 2000, FDA hired 70 
Special Government Employees to participate on the medical devices 
advisory committees. FDA has a Document Control Contract for 
maintaining the physical integrity of such documents as IDE, 510(k), 
and PMA submissions. A scanning contract is used to convert medical 
device and radiological health documents to electronic form to improve 
document storage and retrieval. FDA has also contracted with the Oak 
Ridge Institute for Science and Education, or ORISE, fellowship program 
to recruit experts to participate in reviews. FDA has allocated fiscal 
year 2001 funds to continue these contracts. I would be happy to 
provide for the record a chart that shows the expenditures for the 
Medical Device Advisory Committees, the Scanning Contract and the 
Document Control Contract for the past five years. We cannot break down 
these amounts by application type since they support the entire device 
review process.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                  Medical device                     Document
                           Fiscal year                               advisory        Scanning         control
                                                                    committees       contract        contract
----------------------------------------------------------------------------------------------------------------
1996............................................................           $.450           $.373            $1.2
1997............................................................            .486            .375             1.0
1998............................................................            .581            .450             1.1
1999............................................................            .474        \1\ .000             1.1
2000............................................................        \2\ .594            .459             1.1
----------------------------------------------------------------------------------------------------------------
\1\ There were sufficient multiyear funds in the fiscal year 1998 contract to perform this operation through
  fiscal year 1999.
\2\ Salary cap for Advisory Committee members increased from $150.00 to $389.80 per day.

    Question. What level of funding is proposed in the fiscal year 2002 
budget for review, oversight, and enforcement activities of users and 
manufacturers of all reprocessed medical devices, as compared to the 
level provided in each of fiscal years 2000 and 2001?
    Answer. FDA expects the Medical Device program to expend about $2.8 
million on reprocessing and reuse of single use devices. In fiscal year 
2001 FDA requested and received $2.8 million for medical device reuse 
to be allocated for premarket review, enforcement, and oversight 
activities related to users and manufacturers of all reprocessed 
medical devices. FDA has been staffing up to handle the anticipated 
workload and believes that the current budget allocations should be 
sufficient to handle the 510(k) submissions that we receive.
         prescription drug user fee act (pdufa) reauthorization
    Question. The user fee program for prescription drug review (PDUFA) 
is authorized through this fiscal year. What are the agency's primary 
concerns in negotiating the next phase of PDUFA?
    Answer. The Administration is currently in the process of reviewing 
PDUFA II. While prescription drug user fees have been successful in 
improving FDA's ability to review new drugs for safety and efficacy 
quickly, we are evaluating the program to identify potential 
improvements to PDUFA II. We look forward to working with Congress and 
industry as we move closer to the sunset date for PDUFA II.
                        post-market surveillance
    Question. FDA evaluates the safety and nutrition of bioengineered 
foods, and last month issued a proposed rule to make the voluntary 
consulting process mandatory. What information would the FDA require 
from firms wishing to market bioengineered foods? What benefit would be 
gained from this data?
    Answer. Under the proposed rule, FDA would require that a notifier 
attest that the food is as safe as comparable food is lawful, and 
justify that statement in a narrative. FDA would also require that a 
notifier identify any uses that may be unsuitable. The data and 
information FDA would require under the proposed rule would enable FDA 
to assess on an ongoing basis whether plant-derived bioengineered foods 
are as safe as their conventional counterparts, do not contain 
unapproved food additives, and if the names of the foods are 
appropriate in light of any compositional changes to the food. A 
summary of what the proposed rule from January 18, 2001, would require 
of the data and information is provided for the record.
    [The information follows:]
                    summary of data and information
    1. the identity and source of introduced genetic material;
    2. the function of substances that will be present in the food as a 
result of the introduced genetic material;
    3. intended changes to the composition of the food;
    4. how the food was developed;
    5. genes, if any, that encode resistance to an antibiotic;
    6. the potential that proteins introduced into the food will be 
allergenic; and,
    7. levels of significant nutrients and naturally occurring 
toxicants.
    Question. FDA inspects an extremely small fraction of imported 
products, the majority of which are foods. The agency also conducts 
inspections of foreign exporting firms and equivalency audits of 
foreign regulatory systems in many product areas. What is FDA's import 
strategy? What mix of activities would best assure the safety of 
imported products? Are we heading in that direction and making 
appropriate investments?
    Answer. FDA has multiple strategies given the different types of 
products and commodities the Agency regulates. All FDA's Centers have a 
component which develops compliance programs and assignments specific 
for imported products under the jurisdiction of that Center and in 
consultation with the Office of Regulatory Affairs, ORA. The best mix 
of ORA activities is: a combination of foreign inspections; field 
examinations and sample analyses; investigations of substituted, 
substandard or smuggled goods; analysis of epidemiological data; and 
evaluations of U.S. Customs house brokers, filers, to ensure integrity 
of data submitted to U.S. Customs Service and FDA via ACS/OASIS. Also 
import alerts and bulletins may be proposed by the Centers specific for 
imported products when emerging issues and problems become evident. 
Additionally, activities which promote equivalency, known as Mutual 
Recognition Agreements and Memorandum of Agreement, are a key component 
for assurance of the safety of imported products. However, overall 
import enforcement activities play a key role as well. To strengthen 
FDA's import enforcement, there have been a series of training courses 
for field import personnel held in 2000-2001 to promote interaction 
with U.S. Customs Service and effective enforcement through the 
application of U.S. Customs laws and regulations.
                              food safety
    Question. Congress has provided FDA with substantial food safety 
resources during the past 4 years. Can you outline some of the 
accomplishments achieved with these resources?
    Answer. Resources provided to FDA have allowed us to change the way 
we conduct our business of ensuring a safe food supply and to make many 
changes to improve the public health. We have focused our attention on 
the big-picture public health goal of reducing foodborne illness and a 
much more comprehensive ``farm-to-table'' approach. These efforts have 
allowed FDA to make considerable progress in reducing foodborne illness 
and antimicrobial resistance. FoodNet data show an overall reduction of 
20 percent for foodborne illness for selected pathogens. With the 
resources provided we have been able to step up our efforts to ensure 
that FDA-regulated products comply with consumer protection laws and 
regulations enforced by the agency. For example, last year we increased 
our ``high-risk'' food inspections by 90 percent over the previous 
year. We have advanced the public health with our education efforts 
targeted to consumers who are more susceptible to certain risks by 
giving them the information they can use to make an informed choice. We 
taken great strides forward in our public-private partnerships with 
industry, academia and Federal and State governments in putting forth 
four simple food safety messages for consumers. In collaboration with 
our scientific business partners we have made important strides toward 
better scientific data, methods and models. The overall accomplishments 
are many.
    With the continued support of the Congress in fiscal year 2002, we 
anticipate further gains in additional reductions in foodborne illness, 
including illness from chemical and pesticide contamination. A summary 
will be provided for the record.
    In overseeing seafood safety, last year alone FDA issued 148 
warning letters and an injunction, against firms for noncompliance with 
the seafood HACCP regulations. FDA has been able to detect outbreaks 
quicker and to provide coordinated investigations using PulseNet. 
Examples of outbreaks where the capability of PulseNet was used 
include: shingella sonnei in five-layer bean dip; salmonella 
typhimurium in clover sprouts; and salmonella baildon in tomatoes. The 
National Antimicrobial Resistance Monitoring System, NARMS, has been 
expanded substantially. NARMS monitors the emergence and spread of 
resistance in enteric bacteria and helps to ensure the continued safety 
and effectiveness of veterinary antimicrobials. NARMS data has been 
used to:
    [The information follows:]
NARMS Data Usage
    Initiate field investigations of outbreaks of illness marked by a 
pathogen that displayed an unusual antimicrobial resistance pattern;
    Assess the human health impact of fluoroquinolone use in poultry;
    Stimulate research in molecular characteristics of resistance 
emergence and transfer;
    Prove our knowledge of risk factors associated with the development 
of an antimicrobial-resistant infection; and
    Trigger broader research on the prudent antimicrobial use in 
animals and the role of the environment in the emergence and spread of 
antimicrobial resistance.
In addition, the Agency has
    Developed a document, ``Multi-state Foodborne Outbreak 
Investigations: Guidelines for Improving Coordination and 
Communication'';
    Published a final rule designed to improve the safety of fruit and 
vegetable juices;
    Established procedures to prevent distribution of unsafe imported 
food by requiring that shipments from ``bad actor'' importers be held 
in a secure storage facility at the importers' expense until released 
by FDA;
    Published a proposed rule that will require marking food shipments 
refused for safety reasons to indicate that the product was denied 
entry in the U.S.;
    Collaborated with the National Science Teachers Association and 
created a professional development program for teachers and a 
supplementary science curriculum to encourage safe food handling 
behaviors on the part of students, many of whom work in food service 
establishments;
    Began a prioritized review of new and previously approved 
antimicrobial drugs for use in animals, especially those used for sub-
therapeutic purposes, and develop training and guidance for the 
regulated industry in conducting pre-approval studies;
    Finalized the FDA framework document ``A Proposed Framework for 
Evaluating and Assuring the Human Safety of the Microbial Effects of 
Antimicrobial New Animal Drugs Intended for Use in Food Producing 
Animals.'';
    Expanded efforts to determine how use of antimicrobial agents in 
food-producing animals contributes to the selection and spread of 
multi-resistant bacteria in human food and anima feeds; and,
    Initiated a pilot study with Mexico on monitoring system for 
antimicrobial resistance in Salmonella.
Specifically, in the areas of research and risk assessment FDA
    Completed a draft risk assessment on the estimated public health 
risk associated with eating raw oysters containing Vibrio 
parahaemolyticus;
    Completed a draft risk assessment on the potential relativerisk of 
listeriosis from eating certain ready-to-eat foods;
    Developed a method, being used by FDA as well as CDC, for detecting 
Cyclospora and providing the first isolation of the pathogen from food 
product associated with human illness;
    Completed research to demonstrate that surface heating of apples is 
not an effective method of improving the safety of apple juice;
    Demonstrated that temperature plays a critical role in inactivation 
of common types of Clostridium botulinum spores during high pressure 
processing;
    Demonstrated that pulsed electric field energy and heat work 
together in the destruction of Listeria monocytogenes;
    Developed a method to characterize new and unusual strains of 
pathogenic E. coli.
    Conducted studies that indicate that poultry products may serve as 
reservoirs of fluoroquinolone-resistant Campylobacter spp;
    Conducted research that indicates that FDA may need to standardize 
the identification techniques used to characterize the components of 
competitive exclusion products used to pre-infect chickens, preventing 
adverse bacterial infections;
    Conducted research on bacteria contained in commercial competitive 
exclusion products that contain vancomycin-resistant genes;
    Developed statistical models for microbial risk assessment and 
submitted them for publication;
    Conducted a quantitative risk assessment that modeled the human 
health impact of fluoroquinolone-resistant Campylobacter infections 
associated with consumption of chicken. The risk assessment showed that 
development of resistance in food-producing animals has an impact on 
human health by compromising the effectiveness of human medicines;
    Improved methods for the detection of Vibrio parahaemolyticus and 
transferred the technology to FDA and State regulatory laboratories;
    Continued research on dose-response modeling of microbial risk 
assessment;
    Continued studies on the measurement of the effect of low level 
antibiotic residues on the human intestinal flora; and,
    Continued efforts towards developing a protocol to look at 
probiotic (viable bacterial cultures that are beneficial to the host) 
effects on the host organism's defenses.
    Question. For fiscal year 2001, the Committee indicated that FDA 
was to provide $2,000,000 as the annual base level of funding for the 
National Center for Food Safety and Technology, NCFST, and to provide 
an additional $1,000,000 to the Center for collaborative research in 
support of the President's food safety initiative. Please provide an 
update on the activities being carried out by NCFST and a status report 
on the fiscal year 2001 funding for the Center.
    Answer. The Agency provided $2,993,400, which reflects enacted 
levels adjusted for the 0.22 percent rescission to support the National 
Center for Food Safety and Technology's, NCFST, collaborative research 
in food safety among government, academia, and private industry. NCFST 
is the nation's only research consortium of industry, government, and 
academia to address the food safety implications of emerging 
technologies in food processing, packaging, biotechnology. The NCFST is 
a cost effective resource for developing and exploring new 
technologies. By spreading the cost and risk of doing research, 
companies can control their costs while putting themselves on the 
cutting edge of new technology developments. For the record we will 
provide some recent accomplishments of the Center.
    [The information follows:]
                         center accomplishments
    1. Irradiation Task Force.--Research at NCFST involving twenty meat 
processors and plastic packaging companies resulted in data to support 
a petition to FDA to allow the safe use of plastic polymers for use 
with E-beam irradiation. This work received temporary approval enabling 
industry to launch irradiated hamburger which was free of the harmful 
pathogen E. coli O157:H7.
    2. Alfalfa Sprouts Task Force.--The NCFST worked with the 
International Sprout Growers Association to develop Good Manufacturing 
Practices, testing protocols, seed certification and intervention 
processes to make safe sprouted products. Since the implementation of 
these guidelines, the incidence of outbreaks attributed to alfalfa 
sprouts has been significantly reduced.
    3. Aseptic Processing of Foods with Particles.--The NCFST is 
recognized as a world leader in the area of aseptic processing of 
foods. This new technology will allow food processors to make ``fresh-
like'' soups and stews that rival home-made.
    4. Department of Defense Dual Use of Science and Technology 
(DUST).--Five member companies of the Center recently received a grant 
from the Department of Defense to conduct the science necessary to 
validate the use of High Pressure Processing to sterilize foods. This 
pioneering technology makes it possible to process foods with minimal 
changes to the fresh character of the product and thus provide improved 
military rations. It will also have significant commercial 
applications.
    Question. What level of funding is included in the fiscal year 2002 
budget request for the National Center for Food Safety and Technology?
    Answer. In fiscal year 2002, FDA plans to expend $3,000,000 in 
support of the National Center for Food Safety and Technology's, NCFST, 
collaborative research activities. The fiscal year 2001 rescission of 
.22 percent reduced the $3.0 million fiscal year 2001 Appropriations by 
$6,600. This collaborative research effort between government, 
academia, and private industry supports the food safety implications of 
emerging technologies in food processing, packaging, biotechnology. The 
NCFST is a cost effective resource for developing and exploring new 
technologies. By spreading the cost and risk of doing research, 
companies can control their costs while putting themselves on the 
cutting edge of new technology developments.
    Question. How much is included in the fiscal year 2002 budget 
request for FDA activities in support of Codex Alimentarius, as 
compared to the fiscal year 2001 level?
    Answer. FDA expects to expend around $1.8 million in fiscal year 
2001 and approximately $2.1 million in fiscal year 2002 for its work 
associated with the Codex Alimentarius.
    Question. Please give us an update on activities conducted by FDA 
in support of Codex Alimentarius.
    Answer. Codex participants recognize the U.S. as a worldwide leader 
when it comes to accomplishing Codex's mission. Most recently FDA 
participated in the development of the Principles and Guidelines for 
Microbiological Risk, and assessing risks concerning Listeria in ready 
to eat foods. FDA further assisted Codex with the formulation of 
guidelines for bioengineered foods and the labeling of such products. 
In reference to a country's control over imports, FDA provides 
technical guidance for the Judgement of Equivalence of Food Import/
Export Systems along with developing guidelines for the Food Import 
Control Systems. Finally, FDA chairs the working group developing the 
General Standard for Food Additives that involves a comprehensive 
review of the safety and use of substances added to food directly 
generally. FDA recognizes that public interest in Codex is very 
significant and tries to keep interested parties informed as much as 
possible via regular emails, mail and public meetings.
                      proposed transfer authority
    Question. The fiscal year 2002 budget proposes to include FDA in 
the Department of Health and Human Services (DHHS) departmental 
transfer authority. The budget justification indicates that this 
transfer authority will allow DHHS to assist the FDA in responding to 
emerging public health issues. Please give some examples.
    Answer. The transfer authority would be a mechanism for providing 
funding to allow FDA to respond quickly and efficiently to emerging 
health issues. Examples of this type of health issue include product 
tampering such as Tylenol and baby food, and breast implant tissues. 
Another example would be the expenses FDA has incurred during Fiscal 
2001 for efforts to prevent BSE in this country. For this fiscal year, 
we were able to use some Contingency Fund funds that were appropriated 
in past years.
    Question. Also, the proposed transfer authority would not only 
allow DHHS to transfer funding to FDA but from FDA. What is the 
justification for allowing DHHS to transfer funds from FDA?
    Answer. Language authorizing this transfer is proposed for 
inclusion in the Labor, Health and Human Services, Education and 
Related Agencies Appropriation Act general provisions. This would give 
the Secretary of DHHS authority to transfer funds to meet pressing 
needs in FDA, or in other DHHS components as the case may be, even 
though FDA's appropriations are in a different appropriations bill than 
most of the DHHS components.
                         excess fee collections
    Question. The fiscal year 2002 budget proposes new salaries and 
expenses appropriations account language which would provide FDA the 
authority to credit to the account PDUFA fees that may have been 
collected in excess of the amounts appropriated in a previous year. 
Have such excess collections occurred in past years? Please indicate 
the amount in each of the past three fiscal years. Also, please 
identify the amount in excess collections projected to be available for 
fiscal year 2002.
    Answer. I will be happy to provide that information. During the 
first five years of the Prescription Drug User Fee Act the Act 
authorized the collection amount to be increased by inflation and set a 
collection limitation not to exceed the amount in the appropriating 
legislation. If the fees for applications being submitted to agency 
exceeded the amount appropriated, prorated refunds were provided to the 
drug companies. Such excess collections were refunded for three years--
1994, 1996, and 1997. FDAMA amended PDUFA to give FDA the ability, 
after 1997, to keep any fees above the appropriation limitation and 
specified that any excess collection amount should offset the amount of 
fees to be collected in future years. The purpose of the fiscal year 
2002 appropriation language change is simply to have the appropriation 
language parallel the authorizing language. So far the only fiscal year 
in which fee collections have exceeded the specified appropriation 
amount is fiscal year 1998, and the amount collected in excess of 
appropriations was $324,776. However, several requests for refunds or 
waivers are pending against this balance, and FDA will not know for 
certain if excess collections have been realized until all of these 
claims have been decided. The amount of excess collections is noted 
below in a table being submitted for the record. The table represented 
is as of September 30, 2000, and is updated annually with the 
Collections Realized in FDA's Financial Report required by the 
Prescription Drug User Fee Act of 1992 as amended by the Food and Drug 
Administration Modernization Act of 1997.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                                                                                     Potential
                                                                    Collections     Collection       offset to
                           Fiscal year                               realized         ceiling         future
                                                                                                    collections
----------------------------------------------------------------------------------------------------------------
1998............................................................    $117,446,776    $117,133,000        $324,776
1999............................................................     122,011,516     132,273,000  ..............
2000............................................................     137,698,948     145,434,000  ..............
2001............................................................   Not Available     149,273,000   Not Available
2002............................................................   Not Available     161,716,000   Not Available
----------------------------------------------------------------------------------------------------------------

                     clinical pharmacology program
    Question. What level of funding is included in the fiscal year 2002 
budget request for the Clinical Pharmacology Program?
    Answer. FDA expects the Clinical Pharmacology Program to be funded 
at $500,000 in fiscal year 2002, the same level as fiscal year 2001.
    Question. Please explain the importance of this program to FDA.
    Answer. The Clinical Pharmacology Program provides financial 
assistance to investigators who conduct research as part of their 
clinical pharmacology training program. This program is funded through 
cooperative agreements. I will be happy to provide a more specific 
description of the Clinical Pharmacology Program for the record.
    [The information follows:]
    Specific goals important to the public health include:
  --Advancing scientific knowledge of mechanisms of in vitro/in vivo 
        metabolism/drug interactions;
  --Characterization of individual exposure-response to drugs; and,
  --The effect of age, gender, and race on drug disposition and 
        exposure response relationships. Projects that fulfill any one 
        or a combination of the following specific objectives are 
        considered for funding;
  --Mechanistic understanding of drug-drug, drug-food, and drug-non-
        prescription product interactions;
  --Research to develop and evaluate biomarkers, and noninvasive 
        imaging as a way to assess safety and efficacy;
  --Computer modeling and clinical trial simulations: evaluation of 
        clinical study designs to confirm drug safety and efficacy;
  --Evaluation of techniques in gender, age, race, and liver/kidney 
        function-specific differences in drug response and drug 
        interactions;
  --Development of electronic databases to capture key metabolism/drug 
        interaction data and provide a linkage to an expert system to 
        assist the New Drug Application (NDA) review; and
  --Research to define the clinical pharmacology characteristics of 
        complex drug substances to assure proper use, define the 
        biopharmaceutical characteristics of the active ingredients, 
        and develop ways to establish equivalency of dosage forms to 
        establish standards.
    Question. What cooperative agreements are being supported with the 
funding provided for the program for fiscal year 2001? Please indicate 
the level of funding for each.
    Answer. In fiscal year 2001, FDA awarded $500,000 in clinical 
pharmacology grants to Indiana University. Indiana University was the 
grantee recipient as well in fiscal year 2000 in the amount of 
$459,992. Previous grantees in this program include: University of 
Illinois at Peoria, Meharry Medical College, State University of New 
York at Binghamton, and the Mayo Clinic.
                        office of generic drugs
    Question. Please identify the level of funding and number of staff 
years requested for fiscal year 2002 for the Office of Generic Drugs, 
as compared with the fiscal year 2001 levels.
    Answer. For fiscal year 2001, FDA projects to expend an estimated 
$15.4 million for the Office of Generic Drugs--OGD, including the 
support of 143 Full-Time Equivalent positions. The Agency did not 
request a specific increase for OGD in fiscal year 2002, but plans to 
devote the same number of staff in fiscal year 2002 as in fiscal year 
2001. Additional funds in fiscal year 2002 will come from the requested 
increase for pay raises. The Office of Generics would receive 
approximately $0.8 million of the $40 million requested increase in 
pay.
    Question. Please provide the level of funding and number of staff 
years provided for the previous four fiscal years (fiscal year 1998 to 
fiscal year 2001) for the Office of Generic Drugs. If these dollar 
levels or number of staff years differ from the increases earmarked by 
the Congress, please provide an explanation as to why there is a 
difference.
    Answer. For the record we are providing a table of funding and FTE 
levels, including operating funds that have been available specifically 
to the Office of Generic Drugs, OGD.
    [The information follows:]

----------------------------------------------------------------------------------------------------------------
                                            Actual/planned
         Fiscal year             Actual/     expenditures      Congressionally appropriated funds included in
                               planned FTE     (amount)                       fiscal year total
----------------------------------------------------------------------------------------------------------------
1998.........................          123          $9,997  +$1.0 million for the Office of Generic Drugs to
                                                             assist with accelerated approvals (House Report 105-
                                                             178).
1999.........................          130          11,217  +$1.0 million for the Office of Generic Drugs
                                                             (Conference Report 105-763)
2000.........................          134          14,733  +$1.8 million ($1.9 million for the Office of
                                                             Generic Drugs [Senate Report 106-80] minus fiscal
                                                             year 2000 Budget Recission).
                                                            +$1.5 million in Tobacco reprogramming funds (one-
                                                             time funding) for Information Technology purchases
                                                             in fiscal year 2000.
2001.........................          143      \1\ 15,362  +$1.2 million for the Office of Generic Drugs to
                                                             reduce generic drug application review and approval
                                                             times (Conference Report 106-948).
----------------------------------------------------------------------------------------------------------------
\1\ Planned.

                           proposed reduction
    Question. The budget justification indicates that the fiscal year 
2002 salaries and expenses request includes a reduction of $1,497,000 
from the fiscal year 2001 appropriation. Please identify and provide an 
explanation for this proposed reduction.
    Answer. FDA's fiscal year 2001 appropriations contained language 
directing FDA to provide $1.5 million for a contract with the New 
Mexico State University's (NMSU) Physical Science Laboratory (PSL) to 
establish a lab for conducting ``rapid screening analyses'' of fresh 
fruits and vegetables (imported and domestic) for microbial 
contamination. FDA is providing a contract in the amount of $1,497,000, 
adjusted for the .22 percent recission with New Mexico State 
University's Physical Science Laboratory (NMSU/PSL). The NMSU Project 
Manager and FDA agreed that the project should focus on method 
evaluation of rapid testing methods. These would include micro and 
biochemical lab tests as well as evaluation of field test kits for our 
investigators. While the lab is not ready to handle regulatory samples 
it could be used to gather data in evaluation of rapid testing methods. 
The lab's work will help in the goal of reducing the time that it takes 
for perishable products to go from harvest to market. In order to allow 
for time to evaluate the work of the laboratory, no resources are 
requested for this project in fiscal year 2002.
                             new user fees
    Question. The fiscal year 2002 budget proposes new user fees for 
import operations and food export certification, estimated to bring in 
$14.7 million and $5.3 million, respectively. What discussions has the 
Department and/or agency had with industry on these new user fee 
proposals?
    Answer. FDA believes user fees can be used to accelerate 
performance as long as strategic plans, performance measures, and goals 
are an integral part of any user fee proposal. The user fees being 
proposed here can be implemented within a reasonable timeframe. For 
example, discussions have taken place with industry in the past with 
regards to Export certification fees, so it is believed this can be 
implemented in a short time span. The imports fee would most likely 
require longer discussions with our stakeholders. However, we believe 
the importer/broker community would benefit greatly by the faster turn-
around times, elimination of large volumes of paperwork and reduced 
costs of doing business.
    Question. When will these legislative proposals be submitted to the 
Congress for consideration and what success do you believe they will 
have?
    Answer. The proposals are currently undergoing clearance by the 
administration.
    Question. The budget justification indicates that if the proposed 
new user fees for imports are not authorized and implemented, a larger 
portion of the budget authority will be needed to support the import 
program. Does this mean that the Administration would submit a budget 
amendment requesting additional funds or that you would simply 
reprioritize within the existing fiscal year 2002 appropriations 
request to provide additional support for the import program?
    Answer. It means the Agency could reprioritize within the existing 
fiscal year 2002 appropriations request for inspections to provide 
additional support for the import program. No budget amendment will be 
requested if the user fees are not authorized.
              adverse events reporting/``medical errors''
    Question. An increase of $6.8 million was provided for fiscal year 
2001 for improvements to FDA's current system of post-market 
surveillance to identify adverse events associated with products on the 
market. Would you please give us an update on the status of this 
effort. What is the total amount of funding being provided for fiscal 
year 2001 for adverse events reporting?
    Answer. The Agency allocated the $6.785 million to the human drugs, 
biologics, and medical device programs in fiscal year 2001 for the 
purpose of improving the reporting and analysis of adverse events. The 
fiscal year 2001 increase to the post-market surveillance activities 
related to adverse event reports, brings the total funding level in 
fiscal year 2001 to an estimated $48 million. FDA receives over 250,000 
total for all products adverse event reports associated with 
pharmaceuticals each year. Over one-third of these adverse events are 
judged to be preventable. FDA implemented a new version of the 
pharmaceutical Adverse Event Reporting System, or AERS, in January 2001 
which allows for state-of-the-art analytic capabilities. A priority in 
2001 is to develop and propose new regulations requiring electronic 
submission of adverse event reports by manufacturers, expanding the 
current pilot program. I would be happy to provide for the record a 
summary of how the fiscal year 2001 increased funding will be used.
    [The information follows:]
Fiscal year 2001 Funding for Adverse Events
    Access drug utilization databases that can provide FDA with data on 
patient drug use acquired by individuals in an ambulatory care or 
inpatient setting;
    Implement a pharmaceutical marketing database service contract that 
will provide data regarding current and long-term trends in drug and 
biologic utilization and prescriptions;
    Design and develop up-to-date reporting systems that permit 
manufacturers of biological products to report problems, product 
defects, and potential adverse reactions to the Agency;
    Train field staff to improve information gathered through 
investigation of consumer complaints and to upgrade the field data 
system to provide consumer complaint data that complements ACERS. 
Reporting systems include collection of error and accident events that 
occur during manufacturing processes or storage of products from blood 
product manufacturers and blood banking facilities; and
    Further develop the Medical Product Surveillance Network (MedSUN). 
The idea of a Sentinel User Reporting System originated with a 
provision in the fiscal year 1997 Food and Drug Administration 
Modernization Act. MedSUN helps correct the severe under-reporting of 
adverse events by user facilities, and improves the quantity and 
quality of data received from the user community. The funds will be 
used to expand the program by an additional 25 hospitals, and possibly 
15-30 nursing homes. Recruitment of facilities will begin this summer. 
Funds also are being used to develop the MedSUN database, which will 
give FDA the ability to analyze the causes and contributing factors 
associated with the adverse events, and to provide feedback to device 
manufacturers.
    Question. The fiscal year 2002 budget requests an additional $10 
million to improve FDA's system for monitoring adverse events 
associated with marketed products. What activities will be undertaken 
with the additional funds requested? Please indicate the total fiscal 
year 2002 funding requested, by activity, as compared with the fiscal 
year 2001 base funding level.
    Answer. In fiscal year 2002, FDA requests an increase in funding of 
$10 million to safeguard patients against adverse events associated 
with the use of drugs, biological agents, medical devices, foods and 
dietary supplements by improving FDA's systems for monitoring marketed 
products. Many patient deaths and injuries are associated with the use 
of FDA-regulated medical products. The FDA believes that roughly half 
of these deaths and injuries can be avoided by fully implementing its 
strategies. Thousands of lives and billions of dollars can be saved. We 
would be happy to provide a list of specific adverse event or patient 
safety goals for each programmatic increase in fiscal year 2002. The 
Agency is also providing base resource information per your request.
    [The information follows:]
Human Drugs Program
    5. Complete FDA's new on-line adverse event reporting system 
(ACERS) for drugs and Biologics, and provide rapid assessment of 
injuries and deaths associated with the use of these products;
    6. Develop links to hospital-based information systems to better 
support hospital staff working on the ``front lines'' of patient 
safety. This includes improving the reporting systems to address under-
reporting and incomplete reporting of medical errors, as well as 
increased use of other electronic systems to monitor problems with use 
of drug products. Access to drug utilization databases can also provide 
the Agency with data on patient drug use by individuals in an 
ambulatory care or inpatient setting;
    7. Increase FDA's capacity to do the multi-factor analysis 
necessary to correctly identify the sources of safety problems and 
potential solutions. This includes establishing links to safety 
databases maintained within community-level healthcare delivery systems 
and regional-level safety surveillance systems, and adding to expertise 
in medical epidemiology and statistical analysis;
    8. Develop linkages to government and private health care 
databases. Access to broad-based health information databases will 
allow for more rapid exploration of potentially serious drug-related 
problems and more rigorous investigations than currently possible;
    9. Expand educational and training programs for health care 
providers and the public to promote the safe use of products;
    10. Investigate reported errors and develop error reduction 
strategies with manufacturers and the medical community; and,
    11. Upgrade field investigational data systems to complement agency 
error tracking systems, and to provide better information on the 
incidence of medical errors.
 Biologics Program
    8. Expand and upgrade the current Biological Product Deviation 
Reporting System (BDR). This system contains reports from the product 
manufacturer of any event associated with the manufacturing of a 
biological product, including testing, processing, packing, labeling, 
and storage, or with the holding or distribution of a licensed 
biological product in which the safety, purity, or potency of a 
distributed product may be affected.
    9. Expand the monitoring of reports from the Vaccine Adverse Event 
Reporting System (VERS), MIDWATCH and hospital fatality reports for 
biologic related cases. FDA proposes to link to existing external data 
sources held by both private and government organizations. For example, 
emergency rooms, poison control centers, health care systems, and the 
Centers for Disease Control and Prevention, all collect important 
information on adverse reactions.
    10. Explore the feasibility of utilizing the Medical Errors 
Reporting System for Transfusion Medicine (MARS-TM) to perform data 
aggregation and analysis for ACERS. MARS-TM was developed under NIH 
funding and could serve as the model for the FDA blood error reporting. 
MARS-TM encourages non-punitive reporting with a well-defined codified 
method of reporting.
Medical Devices Program
    11. Maintain the existing 100 facilities in the program, which 
includes both hospitals and nursing homes;
    12. Recruit between 75-100 new user facilities and expand the 
program to include other types of user facilities such as ambulatory 
care surgical centers; and,
    13. Expand data analytic capability, and outreach and feedback 
opportunities to the medical community, industry, and other 
stakeholders.
Foods Program
    14. Consolidate five existing Adverse Event systems within the 
Foods Program into one comprehensive, center-wide system to capture and 
evaluate consumer adverse event reports for foods, food and color 
additives, cosmetics, and dietary supplements;
    15. Develop external interfaces with the Agency wide Field 
Accomplishments Tracking System (FACTS) and ACERS to share data; and,
    16. Supply system users with classification, indexing, research and 
management tools, and materials for the evaluation of adverse events.

                          FDA RESOURCES DEVOTED TO AERS/MEDICATION ERROS/PATIENT SAFETY
----------------------------------------------------------------------------------------------------------------
                                                    Estimated fiscal year 2001      Requested fiscal year 2002
                                                 ---------------------------------------------------------------
                                                        FTE           Amount            FTE           Amount
----------------------------------------------------------------------------------------------------------------
CFSAN...........................................              10          $1,900              14          $2,900
CDER............................................              93          24,500             107          28,100
CBER............................................              17           1,700              25           3,700
CVM.............................................               9           1,600               9           1,600
CDRH............................................              48           8,500              48          10,500
ORA.............................................              75           7,100              81           8,100
Other Act.......................................              16           2,800              19           3,200
                                                 ---------------------------------------------------------------
      Total.....................................             268          48,100             303          58,100
----------------------------------------------------------------------------------------------------------------

                               biologics
    Question. What is the status of regulations that would require the 
release of what is now confidential information from biological 
investigational new drug applications involving gene therapy and 
xenotransplantation? Concern has been expressed that this proposal goes 
too far, in that it would require the release of trade secret and 
confidential commercial information that could jeopardize the 
proprietary nature of research protocols. Also, is there coordination 
of this proposal with NIH guidelines involving gene therapy? What is 
the justification for two agencies of DHHS reviewing gene therapy 
protocols?
    Answer. On January 18, 2001, FDA published a proposed rule 
entitled, ``Availability for Public Disclosure and Submission to FDA 
for Public Disclosure of Certain Data and Information Related to Human 
Gene Therapy or Xenotransplantation.'' In response to that proposed 
rule, approximately 280 public comments-currently 136 written comments 
and 145 electronic comments were submitted-have been initially reviewed 
and summarized. FDA will convene a task group to consider these 
comments; determine what changes to the rulemaking should be made in 
response to the comments; write responses to all comments; and agree 
upon a timeline to complete these tasks. In general, the public 
commented that more information should be made public, while some but 
not all of the industry, commented that too much confidential 
information would be made public under the rule. FDA is meeting and 
corresponding with the Office of Biotechnology Activities, National 
Institutes of Health--the NIH--regularly to assure that our efforts are 
coordinated.
    The FDA and NIH have different roles and responsibilities with 
regards to gene therapy. As with any clinical trial involving a drug or 
a biologic, FDA has clear responsibilities for the regulatory oversight 
of gene therapy clinical trials; that is, to assure the safety, purity, 
potency and efficacy of gene therapy products. In particular, 21 Code 
of Federal Regulations 312.22 (a) says, ``FDA's primary objectives in 
reviewing an IND are, in all phases of the investigation, to assure the 
safety and rights of subjects, and, in Phase 2 and 3, to help assure 
that the quality of the scientific evaluation of drugs is adequate to 
permit an evaluation of the drug's effectiveness and safety.''
    Additionally, in 1984 and 1986, the Federal government proposed, as 
part of a coordinated policy for biotechnology, that the NIH's 
Recombinant DNA Advisory Committee, the RAC, would review recombinant 
DNA gene therapy products used in human clinical trials.
    Question. What is the proposed FDA fiscal year 2002 budget for 
review of gene therapy, as compared to the fiscal year 2001 level?
    Answer. FDA's fiscal year 2002 budget request includes $500,000 for 
gene therapy. In fiscal year 2001 FDA is devoting one time funding of 
$750,000 for the gene therapy data base.
    Question. FDA has indicated that it is developing guidances on 
growth hormone and human insulin drug products. Will these guidances 
require clinical trials for effectiveness? Would these products be 
approved for safety and effectiveness? If only for safety, what is 
FDA's statutory authority to approve products for safety only?
    Answer. FDA is developing guidances on growth hormone and human 
insulin drug products to describe what scientific and technical 
information should be submitted in applications for these drugs. These 
guidances are not yet ready or publication. When they are completed, 
they will be published in draft for public comment. There are a number 
of technical and scientific issues still to be resolved in determining 
what information sponsors should submit for FDA to assess whether 
growth hormone and human insulin products are safe and effective.
                   fiscal year 2001 funding increases
    Question. Would you please give us an update on the status of each 
of the following activities for which increased appropriations were 
provided for fiscal year 2001:
  --$5.0 million for enforcement of Internet drug sales;
  --$5.0 million for counter-bioterrorism activities;
  --$9 million for inspections;
  --$30 million for food safety;
  --$1 million for dietary supplements;
  --$1 million for orphan product grants;
  --$1.2 million for the Office of Generic Drugs;
  --$22.879 million for premarket review; and
  --$6.8 million for adverse events reporting.
    Answer. I would be happy to provide that information for the 
record.
    [The information follows:]
Internet Drug Sales $5.0 million for enforcement
    In fiscal year 2001, FDA's overall goal is to reduce the illegal 
promotion, sales, and distribution of approved and unapproved 
prescription pharmaceuticals via the Internet. FDA enhanced its 
enforcement effort of Internet sites that violate Federal laws relating 
to prescription drugs, and has undertaken a greater public education 
campaign to help consumer's shop wisely for approved pharmaceuticals 
online.
    FDA's strategy focuses on putting a halt to illicit or illegal 
activity by identifying the pharmaceutical Internet sites that pose the 
greatest threat. The Agency is using prevailing Internet hardware and 
software to carry out surveillance and investigative activities and 
focuses on sites identified by FDA investigators and consumers via 
FDA's Internet site (http://www.fda.gov/oc/buyonline/
buyonlineform.htm). FDA is supporting a rapid response team to deal 
with these sites. FDA is working closely with State regulatory 
officials and other Federal agencies to leverage resources and expedite 
the process of eliminating fraudulent activity on Internet sites. The 
Agency also works with the U.S. Customs Service, the Drug Enforcement 
Administration, and the Postal Service to monitor prescription drug 
imports coming into this country from all sources.
Countering Bioterrorism +$5 million
    FDA is an important contributor to the Nation's capability to 
respond to potential chemical and biological threats from bioterrorism. 
FDA's role includes assuring that new vaccines and drugs are safe and 
effective, safeguarding the food supply, and conducting research for 
diagnostic tools and treatment of disease outbreaks. Unlike other DHHS 
agencies that are participants in the Administration's anti-
bioterrorism initiative, FDA plays a critical but less visible role 
with respect to its programs. Whether the issue is the development and 
use of rapid diagnostics to quickly identify a suspected biological 
agent or the capability to make available and administer large 
quantities of a vaccine or drug to counter the effects of a bioweapon, 
FDA's research is the linchpin that makes it possible for the Centers 
for Disease Control and Prevention (CDC), the National Institutes of 
Health (NIH), the Office of Emergency Preparedness (OEP), the 
Department of Defense (DOD), and others to carry out such activities.
    FDA conducts research on the development of new analytical 
approaches and methodologies, and determines if new products provide 
needed benefits without causing adverse side effects that would 
outweigh those benefits. This research includes both laboratory and 
non-laboratory investigation to support FDA regulatory responsibilities 
both immediately, and in the long-term. With the fiscal year 2001 
funding, FDA will:
            Foods
    Conduct research to develop rapid methods of detection of 
biological agents, such as anthrax, that could be used by terrorists. 
Techniques will be developed to confirm the results of less specific 
detection methods. These detection methods will provide necessary 
surveillance tools needed for monitoring programs.
            Human Drugs
    Participate in the planning and coordination of public health 
responses to bioterrorist attacks.
    Prepare field staff to safely seize, remove, and dispose of 
contaminated products by developing procedures and providing 
appropriate facilities and equipment.
    Develop inspection methods and procedures to assure the safety of 
regulated products at manufacturers' facilities and other 
establishments.
            Biologics
    Engage in activities contributing to the expeditious development 
and licensure of new vaccines for anthrax and smallpox and the 
associated vaccinia immune globulin products used to treat or prevent 
serious vaccinia infections brought on by the smallpox vaccine.
    Improve scientific expertise in monoclonal antibody therapies, new 
approaches in the use of biotherapeutics, animal and human derived 
immune globulins in the treatment of viral and bacterial diseases as 
well as emerging infectious diseases. Antibodies are immune-system 
proteins that attack foreign invaders like germs, or that neutralize 
substances the body is over-producing. Monoclonal antibodies are 
artificial, highly purified antibodies, made by combining animal and 
human genetic material, that work with exquisite precision in small 
doses. This will enhance our ability to identify, treat and test for 
previously unrecognized threats.
    --Develop regulatory models to accommodate the need for 
preparedness in the case of an emergency attack. For example, 
procedures and protocols are being developed to enable the use of 
investigational new drugs in as highly controlled, safe manner for 
particular emergency situations, such as responding to a bioterrorist 
attack that exposed individuals to the agent that causes anthrax. These 
products must be reviewed and approved prior to large-scale productions 
necessary to create and maintain a stockpile. Staff must guide the 
products through the regulatory process, including the manufacturing 
process, preclinical testing, clinical trials, and the licensing and 
approval process. This process is extremely complex and early 
involvement by staff is critical to the success of the expedited review 
process.
    Participate in the planning and coordination of public health 
responses to bioterrorist attacks.
    Develop inspection methods and procedures to assure the safety of 
regulated products at manufacturers' facilities and other 
establishments.
            Animal Drugs
    Explore ways to prevent microorganism and toxic chemicals including 
pesticides from entering animal feeds and food-producing animals. 
Develop methods for detecting the presence of pathogenic microorganisms 
and/or the toxins produced by the microorganism to effectively identify 
a threat and respond appropriately.
            Medical Devices
    Prepare expert reviewers for a significant increase in the number 
of premarket submissions, (many as IDE applications) as the 
bioterrorism response program progresses.
    Monitor and evaluate the public health needs and impact of products 
used in conjunction with bioterrorism response (in vitro diagnostic 
devices, portable ventilators, syringes, gloves, and other standard 
equipment
            NCTR
    Expand the mass spectrometry-based approaches to identify 
biomarkers of toxicity associated with biological warfare agents. This 
technique will significantly increase the ability to rapidly identify 
and characterize biological agents that could be used as weapons.
    Develop novel techniques to identify new bacteriological and 
chemical contaminants in the food supply. These techniques can 
crossover to provide methods of assessment for potential biochemical 
terrorist tools. Maintaining currency in analytical techniques will 
ensure the American public has the best and most accurate tools to 
fight food borne disease as well as identify biological warfare agents.
Office of Regulatory Affairs--$9 million for inspections
    FDA is utilizing the additional funding to make modest improvements 
in statutory inspection coverage through additional FDA inspections and 
the use of leveraging and expanding existing State contracts. The 
requested funds will prevent the FDA from falling behind the fiscal 
year 2000 level of inspectional effort and to offset absorptions of 
inflationary increases. FDA will:
  --Conduct more inspections for Human Drugs, Biologics, Animal Drugs 
        and Medical Devices, where the law requires specific inspection 
        frequency;
  --Expand State contracts to further leverage inspectional coverage in 
        all program areas; and
  --Improve the existing levels of annual inspectional coverage.
Food Safety $30 million
    The funding has allowed FDA to make considerable progress in 
reducing foodborne illness and antimicrobial resistance. FoodNet data 
show an overall reduction of 20 percent for foodborne illness for 
selected pathogens. With the resources provided we have been able to 
step up our efforts to ensure that FDA-regulated products comply with 
consumer protection laws and regulations enforced by the agency. In 
fiscal year 2001 we increased our ``high-risk'' food inspections by 90 
percent over the previous year. We have advanced the public health with 
our education efforts targeted to consumers who are more susceptible to 
certain risks by giving them the information they can use to make an 
informed choice. Other activities in 2001 include:
  --Expand domestic inspections to ensure annual inspections of all 
        high-risk food establishments and enhance laboratory 
        capabilities for the analytical support associated with 
        inspectional activity;
  --Implement State audit programs to ensure consistent application of 
        regulations and develop consistent nationwide standards for on-
        farm preventive controls for egg producers and food handling 
        practices at retail;
  --Implement the Hazard Analysis Control Point (HACCP) system for 
        fruit and vegetable juices;
  --Develop and evaluate on-farm intervention strategies and/or 
        technologies to improve testing methodologies for Salmonella 
        Enteriditis (SE) on the farm and in eggs, evaluate commercial 
        processing technologies and practices, and conduct research to 
        understand the ecology and epidemiology of SE in the hen and 
        farm environment;
  --Complete the National Antimicrobial Resistance Monitoring System 
        (NARMS) by adding national and international data collection 
        sites as well as including major species of micro-organisms 
        that cause foodborne disease;
  --Expand support and expertise in molecular methods that can be used 
        to rapidly identify markers of toxicity of foodborne pathogens; 
        and
  --Develop new methods for routine surveillance of fluoroquinolone 
        resistant Salmonella and Campylobacter to provide the data 
        needed to make informed risk decisions concerning the use of 
        quinolone-based antimicrobials in poultry and antibiotic 
        resistance.
Dietary Supplements $1 million
    FDA is currently collaborating with the National Center for Natural 
Products Research in Oxford, Mississippi to review botanicals in 
dietary supplements. The ability to identify and analyze specific 
components in ingredients, including botanical ingredients and in 
finished products is an essential component of research and regulatory 
programs directed at ensuring the safety and effectiveness of dietary 
supplements.
Orphan Grants $1 million
    The Orphan Grants program has $12,514,000 available for grants in 
fiscal year 2001, an increase of $1,000,000 over fiscal year 2000. 
Activities in the Orphan Drugs Program have included the receipt of 69 
applications of which four were considered non-responsive leaving 65 
for review.
Office of Generic Drugs $1.2 million
    The increase was used to annualize the positions added in fiscal 
year 2000 and add several additional FTE. Several of these staffers are 
already on-board, fully trained, and demonstrating high levels of 
productivity. With this additional increase, all chemistry reviewer 
vacancies are currently filled. The Office of Generic Drugs, OGD, 
continues to refine the review process to increase efficiency. The 
Agency is exploring ways to increase resources devoted to information 
technology for the review of generic drug applications. The OGD is 
attempting to close the gap between the performance at 180 days and the 
significant increase in overall performance at 210 days so that the 
first action is taken within the statutory time frame. We also plan to 
revise the current system for amendment designation, major versus 
minor, to improve total review times.
Premarket Review $22.879 million
    FDA's increase for premarket review was used to strengthen the 
science base focusing on efficiencies in the premarket application 
review program. FDA must have well-trained scientific experts current 
with cutting edge technology. Additional activities include:
  --Enhance scientific capabilities to better manage risks associated 
        with emerging biotech foods. FDA and industry have consulted on 
        approximately 40 new bioengineered food products to date;
  --Expedite reviews of generic drugs;
  --Reduce review times for animal drugs for quicker market access;
  --Improve the safety of children's vaccines through the National 
        Vaccine Safety Program, NVSP, which will reduce the risk of 
        disease transmission through vaccines;
  --Improve the quality and safety of the nation's blood supply with 
        better diagnostic tests that reduce the threat of emerging 
        blood-borne infectious diseases being transmitted through 
        blood;
  --Improve pandemic flu activities to reduce the incidence and 
        severity of influenza;
  --Increase product review activities and develop standards for high-
        risk medical device re-use applications for reprocessed devices 
        meant for single use.
Adverse Event Reporting $6.8 million
    FDA is working with Departments across the Federal government to 
improve health care through the prevention of medical errors and 
enhancement of patient safety. The agency will continue to increase its 
capabilities to protect patient safety. With the additional $6.8 
million, FDA has been able to speed initiatives to further reduce 
medical errors by:
  --Expanding the capacity for active surveillance of problems with 
        medical products through the Adverse Event Reporting Systems;
  --Developing links to hospital-based information systems, to better 
        support hospital staff working on the ``front lines'' of 
        patient safety. This includes improving the reporting systems 
        for blood errors and accidents, continued implementation of the 
        Medical Device Surveillance Network (MedSUN) to address under-
        reporting and incomplete reporting of medical device problems, 
        and to extend its capacity to include drug reports, as well as 
        increased use of other electronic systems to monitor problems 
        with use of drug products;
  --Increasing the capacity to do the multi-factor analysis to 
        correctly identify the sources of safety problems and potential 
        solutions. This includes establishing links to safety databases 
        maintained within community-level healthcare delivery systems 
        and regional-level safety surveillance systems, and adding to 
        expertise in medical epidemiology and statistical analysis;
  --Increasing FDA's capacity to act on safety findings, including 
        better risk communication to providers and patients who use 
        medical products; regulatory steps to correct product design 
        and manufacturing problems; and partnerships with other health 
        agencies and health care organizations;
  --is will reduce the existing backlog of reports and improve the 
        quality of assessing and managing risk identified from AERS 
        reports related to animal drugs.
                 fiscal year 2001 and 2002 base funding
    Question. Please provide the fiscal year 2002 base funding and 
staff year levels for each of the activities listed above, as compared 
to the fiscal year 2001 level.
    Answer. I would be happy to provide the requested base funding 
levels for each of the above activities in fiscal year 2001 and fiscal 
year 2002.
    [The information follows:]

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                    Estimated fiscal year 2001      Requested fiscal year 2002
                  Activity \1\                   ---------------------------------------------------------------
                                                      Amount            FTE           Amount            FTE
----------------------------------------------------------------------------------------------------------------
Internet drug sales.............................           $10.6              90           $10.9              90
Counter-bioterrorism activities.................             7.0              46             7.4              46
Imports and Inspections.........................           341.8           3,143           366.8           3,238
Food safety.....................................           335.9           2,588           350.6           2,655
Dietary supplements.............................             5.9              46             6.9              50
Orphan product grants...........................            12.5  ..............            12.5  ..............
Office of Generic Drugs.........................            15.4             143            16.1             143
Premarket review \2\............................           560.6           4,411           587.2           4,429
Adverse events reporting........................            48.0             268            58.0            303
----------------------------------------------------------------------------------------------------------------
\1\ Several of these activities are cross-cutting.
\2\ Premarket review accounts for all premarket-related activities.

             cost of relocating to the new fda headquarters
    Question. The fiscal year 2002 budget requests an additional $6 
million to equip and occupy a new laboratory for the Center for Drug 
Evaluation and Research as part of the agency's long-range move a 
consolidated headquarters in Maryland. Please identify each of the 
costs, by fiscal year, associated with FDA long-range move to its 
consolidated headquarters.
    Answer. FDA is currently in the process of developing long-range 
estimates of expenses associated with the move to the new consolidated 
headquarters in Maryland. The fiscal year 2002 Budget includes $9 
million in GSA funding for additional planning for the consolidated 
facilities at White Oak. We will have a better idea of long-range 
estimates for the move to consolidated facilities in White Oak after 
the completion of the fiscal year 2003 Budget process.
                      financial management system
    Question. The fiscal year 2002 budget requests an increase of $8.3 
million to allow FDA to begin the development of an advanced financial 
management system as part of the Department of Health and Human 
Services' effort to replace its existing systems. Does the $8.3 million 
requested represent the full cost of ``developing'' this system?
    Answer. The Joint Financial Management Improvement Program, JFMIP, 
guidelines require that FDA purchase an off-the-shelf financial system 
that is fully developed. In addition to purchasing the software, FDA 
will need to acquire the computer hardware, perform training for staff, 
develop various interfaces to other HHS systems such as payroll, 
develop a security plan for the new system, perform data conversion and 
migration from the old systems and acquire contractor support to assist 
FDA in the implementation. The fiscal year 2002 Budget request of $8.3 
million will begin initial acquisition and implementation of the new 
financial management system. Funding to complete the project will be 
requested in subsequent fiscal years.
    Question. What is the total cost of this effort? Please identify 
the investment which will be required in each future fiscal year.
    Answer. Estimates of future funding requests for the cost of the 
new financial management system are currently under development. 
Funding to complete the project will be requested in subsequent fiscal 
years.
    Question. Is FDA's investment contingent on the funding provided to 
other Department of Health and Human Services' agencies for this new 
system?
    Answer. No. FDA's investment is not contingent on the funding of 
other HHS agencies. However, FDA is working in cooperation with HHS and 
other agencies in the selection and implementation of the FDA's new 
financial system in order that HHS has a unified and/or integrated 
financial system.
                                 ______
                                 

           Questions Submitted by Senator Christopher S. Bond

                  use of single rh use medical devices
    Single use medical devices devices designed--manufactured and FDA 
approved for use on one patient in one procedure--are misused every day 
in this country. Rather than being discarded after use in one patient, 
many of these devices are subjected to under-regulated and inadequate 
cleaning procedures and are then used on other patients. Single use 
medical devices are bound to fail and compromise patient safety when 
stretched beyond the limits of their design by reprocessing. Such 
medical device misuse has already led to serious health quality issues 
including blindness, thermal burns, infections, and heart 
complications. Each of these medical errors was preventable. Had the 
disposable medical devices used on these patients been discarded after 
their first use, these injuries would not have occurred.
    Despite its review of numerous scientific studies demonstrating the 
serious risks associated with reprocessing, including several studies 
conducted by the Agency itself, FDA has failed to meaningfully enforce 
key patient safety provisions of the Food, Drug, and Cosmetic Act 
(FFDCA) and, as a result, has failed to prevent foreseeable medical 
errors. In response to substantial Congressional and public pressure 
(including an August 2000 Senate Labor Committee hearing, and a 
February 2000 House Commerce Committee oversight hearing), FDA has 
recently published enforcement guidance on the regulation of single use 
device reprocessing. This guidance, while a step in the right 
direction, continues to permit the use of many unsafe reprocessed 
devices on American patients for example, the reuse of biopsy forceps 
(devices inserted into the body and through the colon to obtain tissue 
samples) developed and approved by FDA for single use only continues to 
go unregulated. To ensure patient safety, FDA must fully enforce both 
the letter and spirit of the law.
    Question. Dr. Schwetz, can you please comment on FDA's progress in 
implementing its strategy to regulate the practice of reprocessing and 
reusing medical devices that are labeled and approved by FDA for single 
use only?
    Answer. On August 14, 2000, FDA issued a guidance document entitled 
Enforcement Priorities for Single-Use Devices Reprocessed by Third 
Parties and Hospitals. This guidance finalizes FDA's policy on how it 
intends to regulate entities that reprocess single-use devices for 
reuse and sets forth the Agency's priorities for enforcing these 
requirements.
    On February 14, 2001, FDA began enforcing premarket submission 
requirements for all Class III single-use devices that are reused. 
Beginning on August 14, 2001, FDA intends to enforce premarket 
submission requirements for all non-exempt Class II devices. Beginning 
on February 14, 2002, FDA intends to enforce premarket submission 
requirements for all non-exempt Class I single-use devices that are 
reused.
    In addition to the premarket requirements, third party reprocessors 
have always been subject to Agency requirements for: Registration and 
Device Listing; Medical Device Reporting; Medical Device Tracking; 
Medical Device Corrections and Removals; Quality System Regulation; and 
Labeling. Beginning on August 14, 2001, FDA intends to enforce these 
requirements for all hospitals that reprocess single use devices.
    FDA is conducting extensive outreach to inform entities, such as 
hospitals, of the Agency's reuse policy. We have met many times with 
third party reprocessors and other interested parties to discuss this 
policy. On December 13, 2000, the Agency sponsored an interactive 
satellite teleconference entitled Reprocessing Single-Use Devices in 
Hospitals: A Primer on FDA Requirements. One of the main purposes of 
the teleconference was to describe FDA's regulatory requirements in 
plain language for hospital reprocessors. Examples of what the Agency 
has done in the past year to implement the reuse policy are provided 
for the record.
    [The information follows:]
Agency Examples of Reuse Policy
    Pilot training program to inspect hospital reprocessors.--We have 
developed a 2-day pilot program to train a cadre of experienced FDA 
field investigators to inspect hospitals that reprocess single-use 
devices. This pilot program will form the basis for the formal training 
program that is scheduled for fall 2001 for 40 to 50 FDA investigators.
    --Pilot GMP inspection program for hospital reprocessors.--We have 
developed a pilot Good Manufacturing Practice (GMP) inspection program 
for hospitals that reprocess single-use devices. The primary purpose of 
the pilot inspection is to provide hospital inspection training for FDA 
field investigators. Hospitals also may benefit because they will be 
given feedback on their facility's current ``state of compliance'' with 
FDA's requirements for device manufacturers. The Agency issued a letter 
seeking volunteers from the hospital community. Among the organizations 
that were invited to participate are the American Hospital Association, 
the Joint Commission on the Accreditation of Healthcare Organizations, 
ECRI (a technology assessment firm that services thousands of hospital 
clients), and the International Association of Healthcare Central 
Service Material Management. We are waiting for responses. We expect to 
begin a regular inspection program in October 2001 and will use 
information from FDA's registration and listing database to schedule 
these inspections.
    Federal Register notice on proposed voluntary survey of 
hospitals.--On April 30, 2001, FDA published a notice in the Federal 
Register seeking public comment on the Agency's proposed voluntary 
survey of hospitals to collect information on the extent and nature of 
current practice of reprocessing single-use devices in these 
institutions. The notice has a 60-day comment period.
    Letter to hospitals on FDA's reuse policy.--We issued a second 
letter, the first letter was mailed in fall 2000, to U.S. hospitals 
reminding them of the Agency's intent to actively regulate hospitals 
that reprocess single-use devices as manufacturers. The letter also 
provided a timetable of when we intend to begin enforcing the 
requirements and informed hospitals of regulatory actions that we may 
take against non-compliant hospitals.
    Guidance on reporting adverse events as device manufacturers.--FDA 
issued a document entitled ``Guidance on Adverse Event Reporting for 
Hospitals that Reprocess Devices Intended by the Original Equipment 
Manufacturer for Single Use.'' This guidance document describes the 
Medical Device Reporting, MDR, requirements for hospital reprocessors 
of single-use devices and provides guidance on how to complete the 
Mandatory MedWatch report form 3500A as device manufacturers.
    Premarket applications for reprocessed single-use devices.--In 
keeping with the enforcement timetable FDA established in its guidance, 
on February 14, 2001, the Agency received several premarket 
applications, PMAs, from third party reprocessors to reprocess cardiac 
ablation catheters, devices are used to treat certain cardiac 
conditions. The applications are currently undergoing review. We 
anticipate rendering final decisions on the applications by August 14, 
2001.
    Inspections of third party reprocessors.--The Agency is on schedule 
in its efforts to inspect all third party reprocessors in the U.S. this 
year. The main focus of these inspections will be manufacturing/
reprocessing controls that are required to be in place in accordance 
with FDA's Quality System Regulation. We intend to pursue enforcement 
action, as appropriate, against any reprocessor that continues to 
distribute reprocessed Class III devices that are not the subject of a 
pending or approved premarket application.
    Outreach program.--We continue to support an extensive outreach 
program to inform hospitals and health care providers of the Agency's 
reuse policy. For example, in the past year the Agency accepted over 25 
invitations to speak at professional association meetings on the 
Agency's reuse policy. FDA also sponsored two 2-day workshops for 
hospital and third party reprocessors on FDA's reuse policy in May 
2001.
    Meetings with single-use device reprocessors.--FDA has held 
numerous meetings with representatives of reprocessing companies to 
discuss premarket requirements for used single-use devices.
    Question. There is one category of products in particular that 
generated the Senate's interest in this issue--specifically the reuse 
of biopsy forceps. In FDA's original guidance, the Agency classified 
the reuse of these products as ``high risk'' because of concerns that 
they could not be adequately reprocessed without significant risk to 
patients for infections, and significant concerns with respect to the 
effectiveness of the products after multiple uses. What specific steps 
has FDA taken to ensure that the public is being protected from the 
reuse of biopsy forceps? Since the Agency has stated that the reuse of 
biopsy forceps is a ``high risk,'' why hasn't FDA required premarket 
submissions to ensure that reprocessed forceps are in fact safe for 
patients?
    Answer. In accordance with the device classification scheme 
established in section 513 of the Federal Food, Drug and Cosmetic Act, 
non-electric biopsy forceps intended for use in gastrological and 
urological procedures are classified as class I devices, per 21 CFR 
Sec. 876.1075(b)(2). As such, they are subject to a wide range of 
general controls designed to ensure safety and effectiveness, including 
registration, listing, medical device reporting, tracking, corrections 
and removals, quality systems, and labeling. All manufacturers, 
including reprocessors, are subject to these requirements, which can be 
enforced through warning letters, seizures, injunctions, civil money 
penalties, recalls, and even criminal prosecutions. FDA's August 22, 
2000 guidance document entitled Enforcement Priorities for Single-Use 
Devices Reprocessed by Third Parties and Hospitals, reemphasized that, 
like other manufacturers, third party reprocessors are subject to these 
requirements, and announced FDA's intent to phase in over one year 
active enforcement of these general controls for hospital reprocessors, 
against whom FDA has not historically pursued active enforcement. In 
accordance with these legal authorities, FDA has inspected a major 
third-party reprocessor of non-electric biopsy forceps and is working 
to resolve problems found in its cleaning and sterilization processes. 
FDA will inspect all third-party reprocessors this fiscal year. FDA is 
and has been committed to enforcing the statutory safeguards to 
minimize potential risk. At this time, we are not aware of any data 
that link the reprocessing of non-electric biopsy forceps to specific 
adverse events in patients.
    Non-electric biopsy forceps, like the majority of class I devices, 
are exempt from the premarket notification requirements of section 
510(k) of the act, subject to the limitations in 21 CFR Sec. 876.9. FDA 
is currently considering a citizen's petition requesting the Agency to 
amend its regulation so as to limit the exemption to forceps that are 
produced by an original equipment manufacturer for single use or are 
originally labeled and designed for multiple uses. We are presently 
considering the petition. Among the factors we will consider are the 
risks presented by the device, and what regulatory controls will most 
appropriately ensure the safety and effectiveness of the device.
                             pma statistics
    Question. According to FDA's enforcement guidance for single use 
device reprocessing, reprocessors were required to submit PMAs for 
Class III devices by February 14, 2001. How many reprocessor PMAs has 
FDA received? How many were considered sufficiently complete to proceed 
to substantive review? What devices are covered by those PMAs? Has FDA 
approved any reprocessor PMAs?
    Answer. As of May 24, 2001, the Center for Devices and Radiological 
Health, CDRH has received five PMAs for reprocessed devices. All five 
PMAs were for Cardiac Ablation Catheters. Four of these five PMAs were 
filed. One of the four PMAs is under review and we have asked questions 
of the other three applicants and are waiting on that additional 
information. None has been approved at this time.
                           enforcement issues
    Question. Now that the premarket enforcement period for single use 
device reprocessing has begun, what activity has FDA undertaken to find 
and stop the reprocessing of Class III devices absent a filed PMA?
    Answer. FDA intends to inspect all third-party reprocessors this 
fiscal year. A multi-district assignment issued on December 21, 2000 
identified eight firms to be inspected. A second multi- district 
assignment to inspect additional firms will be issued shortly.
    FDA will begin inspecting hospitals after August 14, 2001, to 
evaluate their compliance with premarket submission requirements and 
the requirements of the Quality System regulation.
    Several PMAs have been received from third-party reprocessors, and 
reviews are underway. One PMA was not filed because it did not meet our 
threshold review requirements. We notified the firm whose PMA was not 
filed that it cannot legally introduce these devices into interstate 
commerce until such time as they are the subject of an approved PMA or 
an approved investigational device exemption application and that 
marketing these devices without such approvals could result in 
enforcement action.
                           reviewer guidance
    Question. According to the enforcement guidance on single use 
device reprocessing, reprocessor PMA's for Class III devices were to 
have been filed by February 14, 2001. I understand that FDA's planned 
guidance document for reviewers and industry regarding the unique 
features that must be included in a reprocessor 510(k)/PMA has been 
delayed. When will the guidance be issued? In the absence of the 
guidance document, what standards are FDA reviewers using to review 
reprocessor PMA's.
    Answer. The draft guidance document for reviewers and industry was 
posted on the CDRH web site on May 24, 2001. Although FDA is giving the 
public 90 days to comment on the draft, the guidance reflects current 
policies and recommendations on premarket regulatory and technical 
issues. The overriding principle of the guidance is that FDA intends to 
treat OEMs and reprocessors in the same way with respect to meeting 
premarket requirements. Most of the standards and guidance documents 
referred to in the draft guidance are already available to FDA 
reviewers and the public through FDA's Reuse Web Site.
                           approval standard
    Question. FDA has been accused of lowering the data standard for 
medical devices entering the U.S. market so that reprocessing of single 
use devices can continue. My understanding is that the legal minimum 
for 510(k) clearance of a device is that the device be at least as safe 
and effective as a legally marketed device. With respect to reprocessed 
single use devices, my understanding is that FDA has declared that 
these devices should be ``as safe and effective as possible.'' Has the 
FDA established two different standards? If so, why?
    Answer. FDA has not changed the review standard for a 510(k) 
clearance. Devices cleared for market through the premarket 
notification 510(k) process must be as safe and effective as a legally 
marketed device. There are no additional regulatory requirements for 
reprocessed single use devices, or SUD, submissions, nor are there 
special allowances for these submissions.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                 research/regulatory funding priorities
    Question. As I'm sure you are aware, the President's fiscal year 
2002 budget requests an increase of $2.75 billion, or 13.5 percent, for 
the National Institutes of Health. This is the fourth installment of a 
five-year plan to double the NIH budget. Private pharmaceutical 
companies invested nearly $50 billion in research and development in 
fiscal year 2001, and the trend continues to rise. As the Agency 
charged with reviewing these new products to determine whether they are 
safe for public consumption and use, you have and will continue to face 
great pressure to work expeditiously, making new and improved drugs and 
medical devices available to the public as quickly as possible.
     In view of the FDA budget request, do the substantial increases in 
funds for basic research conflict with the government's ability to 
approve the products that will result from that research in a timely 
manner?
    Answer. As new products are generated by the academic and industry 
research, fueled by NIH, they must be evaluated by FDA staff with the 
scientific expertise to assess their benefits and risks. We want to 
ensure that FDA will not become a bottleneck in getting safe and 
effective products and therapies to the public. The number and 
complexity of products and issues coming before FDA demand that the 
agency have the very best scientific capability to evaluate them. FDA 
must have a critical mass of top-notch scientific and medical expertise 
to assess these products and answer new questions.
    Question. Do you work with the NIH to streamline the process 
between the development of new drugs and your responsibility to approve 
and monitor them?
    Answer. We frequently discuss preclinical toxicology requirements, 
general concepts of clinical development plan design, and new endpoints 
pertinent to new classes of drugs with various institutes at NIH.
    Question. Please summarize the actions being taken to ensure that 
FDA will be prepared when all of the R&D research pays off.
    Answer. Although we are aware that there is an increase in research 
and development for new drugs that may lead to new technologies, it is 
difficult to predict the submission rates for new drug applications. 
However, we continue to streamline our process to meet our review goals 
as we have in the past. FDA has been actively working on streamlining 
our internal policies and procedures by moving to a paperless 
environment. Examples of some of our accomplishments are provided for 
the record.
    [The information follows:]
    Expanded the Electronic Document Room to manage the receipt and 
handling of full electronic new drug applications. Slightly over 50 
percent of original new drug applications received in CDER now include 
sections that are submitted electronically. In fiscal year 2000, CDER 
received over 500 electronic submissions, including full new drug 
applications, supplemental new drug applications, and amendments. There 
has been a 50 percent decrease in the average number of paper volumes 
per new drug application submission since the start of electronic 
submissions in 1997.
    Drafted guidance on Providing Regulatory Submissions in Electronic 
Format--Abrieviated New Drug Applications, ANDA. Developed software to 
convert proprietary formats to XML so submissions can be archived.
    Published final guidance Providing Regulatory Submissions in 
Electronic Format--Prescription Drug Advertising and Promotional 
Labeling in January 2001.
    Drafting guidances on Providing Regulatory Submissions in 
Electronic Format--Postmarketing Expedited Safety Reports; Providing 
Regulatory Submissions in Electronic Format--Annual reports; Providing 
Regulatory Submissions in Electronic Format--IND and Providing 
Regulatory Submissions in Electronic Format--Annual reports.
    Drafting guidance on Providing Regulatory Submissions in Electronic 
Format--Drug Registration and Listing. This project involves the 
collection of information using a web-based system. In addition, a 
proposed rule is being drafted that would require the submission of 
this information in electronic format.
    Finalizing a proposed rule that would require sponsors to submit 
certain labeling content electronically to the Agency for review. 
Interested parties will have an opportunity to comment.
    Receiving electronic postmarketing adverse event reports under a 
pilot submission program. A number of sponsors have successfully sent 
reports electronically that have been directly transferred to a 
database. The agency is also preparing regulations to require all 
adverse event reports from industry to be submitted electronically.
                           import inspections
    Question. Global trade has more than tripled the number of 
shipments of FDA regulated imports from about 1.5 million in 1992 to 
six million in 2000. However, according to your own reports, FDA only 
has the ability to sample less than one percent of all regulated 
products offered for imports.
    How many products should be inspected for it to be an acceptable 
amount?
    Answer. The Agency is currently in the process of determining the 
amount of samples necessary in various product categories to determine 
whether we have a sufficient and acceptable statistical sample of 
products. The estimates will include: a range of the estimated number 
of products, assumptions in predicting the number of anticipated 
products being imported into the U.S., and caveats that indicate what 
types of uncertainties or changes would alter the estimates.
    Question. How much money would be necessary to ensure this is 
possible?
    Answer. Once FDA calculates an estimated number of samples 
necessary to determine whether it has a sufficient and acceptable 
statistical sample of imported products, the Agency will then attempt 
to determine the additional cost to the existing import program. The 
estimates will include: a range of the estimated estimated resources, 
assumptions in determining the cost estimate, and caveats that indicate 
what types of uncertainties or changes would alter the estimates.
                            mad cow disease
    Question. As I'm sure you know, over the past several years, ``mad 
cow disease'' has infected more than 180,000 cattle in Europe and parts 
of Asia. With animal diseases such as this occurring, it seems that 
sampling less than one percent of all imports leaves a large gap 
through which BSE infected animal feed or other products could enter 
the U.S.
    While I applaud FDA for its increased investment in preventing BSE 
from entering the United States, what is being done to prevent BSE from 
entering the United States via banned animal protein that has been 
diverted from its originating country to a third-party country we do 
not currently consider a threat?
    Answer. The regulations governing products of animal origin which 
pose a risk of harboring disease agents are primarily enforced by the 
U.S. Department of Agriculture, USDA. In cooperation with USDA, FDA has 
directed its field personnel to be alert to the potential importation 
of BSE material and to provide entry notification to local USDA 
officials. If a product moves from its country of origin, through a 
second country and is relabeled as a product of the second country, 
without any processing occurring in the second country, that is a 
violation of U.S. Customs Country of Origin rules. If the product is 
processed in the second country, not only is it proper to be declared 
as a product of the second country, but generally speaking, U.S. 
Customs Service regulations require such a declaration.
    FDA is currently developing a proposed rule to amend FDA 
regulations to prohibit the use of materials derived from ruminant 
animals in FDA regulated products. The proposed prohibition will apply 
to the use of materials derived from ruminant animals born, raised, or 
slaughtered in certain countries and to the use of materials that have 
been processed or manufactured in a facility where materials derived 
from ruminant animals born, raised, or slaughtered in certain countries 
are also processed or manufactured. The proposed rule will require 
manufacturers of drugs and biological products for human and animal use 
and medical devices, to certify regarding the use of materials derived 
from ruminant animals in the manufacture of their products.
    Question. Is FDA currently working to identify any third-party 
countries that may be importing materials containing BSE received from 
a prohibited country?
    Answer. FDA has not identified any specific third party countries 
that may be importing materials containing BSE received from a 
prohibited country at this time. Currently, efforts have focused on 
products from the BSE affected or at-risk countries identified by U.S. 
Department of Agriculture's Animal Plant Health Inspection Service, 
APHIS. Should FDA become aware of such practices, we may consider 
expanding current import alerts and bulletins dealing with BSE to these 
countries or firms in other countries as well.
    The FDA Office of Criminal Investigations, OCI, is on the record 
with written communication exchanged with the Federal Bureau of 
Investigation, FBI, U.S. Customs Service, Interpol, and the U.S. 
Department of Agriculture, Office of the Inspector General, requesting 
immediate notification of any information received suggesting 
prohibited BSE ruminant material may make its way into U.S. commerce by 
any means. OCI is an active participant in the USDA law enforcement 
working group on foreign animal diseases. OCI is also an active member 
of the Permanent Forum on International Pharmaceutical Crime, PFIPC. 
Some of the European members of PFIPC have responsibilities extending 
to foods and are heavily involved in BSE issues at this time. They have 
been asked to advise OCI immediately on receipt of any information 
indicating contaminated material may be finding its way to the U,S. OCI 
provides follow up on any allegations of a criminal nature. Plans are 
underway to obtain direct access to classified channels of 
communication to augment our other sources.
    Question. If not, are there plans to do so? If so, what 
communications are taking place to ensure these products do not enter 
the U.S. market?
    Answer. FDA has been communicating extensively with the U.S. 
Department of Agriculture, USDA, the Food Safety Inspection Service, 
FSIS, the Department of Defense, DOD and the Animal Plant and Health 
Inspection Service, APHIS, regarding BSE issues. On March 12, 2001 a 
meeting was held with USDA, FDA, and the Center for Disease Control, 
CDC. One of issues discussed regarding imports was third country 
movements. Most, if not all countries, have recognized the threat from 
bovine materials contaminated with the BSE agent and have instituted 
import restrictions. Coupled with the extraordinary actions taken by 
the European Union, EU to identify and destroy BSE-contaminated 
animals, the importation and transhipment of contaminated products 
while still a risk, is a low one.
    FDA has issued import alerts and bulletins to review all bulk and 
finished products that contain bovine risk material from BSE-identified 
countries and to refer those imports to APHIS for disposition and 
prevent them from entering the U.S.
    No warning letters have been issued in connection with possible 
shipments of ruminant material from BSE at-risk countries. When FDA 
determines that a product offered for import into the U.S. appears to 
be adulterated or misbranded the usual course of action is Refusal of 
Admission per section 801 of the Food, Drug and Cosmetic Act, rather 
than issuance of a Warning Letter. In the case of products with the 
potential for BSE contamination for which both agencies have 
jurisdiction, FDA's cooperative enforcement program with APHIS calls 
for FDA to back-up APHIS's initial manifest review, and to coordinate 
regulatory action with APHIS on any products which may contain ruminant 
material from BSE at-risk countries. To date, no such refusals have 
been issued.
                          fda staffing levels
    Question. I mentioned earlier that over the past eight years, FDA 
has had to absorb $284 million for mandatory cost-of-living and pay-
related increases for FDA employees. This has resulted in a ten percent 
decrease in staffing levels in program areas not funded by user fees.
    Please describe to this Subcommittee the effect this shortage of 
funds has had on FDA's ability to fulfill its mission, and give 
specific examples.
    Answer. In order to fulfill our mission, we need a workforce able 
to meet our needs in any given situation. The Agency has acheived 
efficiencies by reducing non-payroll operating costs as much as 
possible, limiting travel, supplies, and equipment. The Agency has also 
reduced extramural research and methods development projects. From 
fiscal year 1995 through fiscal year 2000, non user-fee full time 
employees have declined from about 8,800 to 7,900.
    Question. Will the $40 million increase in the President's budget 
to help pay for cost-of-living increases allow FDA to replace any of 
the staff it has lost over the past decade?
    Answer. Since 1993 the Agency has lost 1,000 non-user fee 
positions. These will not be recovered with this pay increase. The $40 
million will, however, allow FDA to maintain the same staffing levels 
in fiscal year 2002 as fiscal year 2001.
    Question. How much money is necessary to bring staffing levels up 
to an amount that enables FDA to reach its peak performance, especially 
in light of the increases in applications to come?
    Answer. The Agency is currently in the process of developing long-
range estimates for resource needs associated with closing the gap 
between current performance and meeting statutory requirements as well 
as other high priority areas at the Agency where FDA is not reaching 
peak performance. The estimates will include: a range of estimated 
resources, assumptions in determining the estimate, and caveats that 
indicate what types of uncertainties or changes would alter the 
estimates.
    Question. To what extent does the number of FDA personnel 
approaching retirement age pose a threat to the agency's ability to 
continue its mission?
    Answer. The FDA is facing a challenging pattern of workforce change 
and turnover. The U.S. Office of Personnel Management, OPM projects 
that about 293,000 full-time, executive branch employees, or19.2 
percent of the civil service workforce will retire through 2005. FDA's 
recent workforce planning report indicates more than 30 percent of 
agency personnel will be retirement eligible by December 2005. The 
percentages for chemists, almost 40 percent, and consumer safety 
officers, 35 percent, are significant. FDA has been working for the 
last year and a half on developing a strategic workforce plan that 
addresses how to fill the void resulting from anticipated retirements 
through succession planning, development of leadership skills, and 
recruitment of critical occupations. Provided for the record is a 
graphic of this information.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Question. How is FDA conducting recruitment to attract new 
employees?
    Answer. In March 2000 FDA formed a Recruiting Council comprised of 
representatives from all FDA centers and offices. The council members 
have been provided training on recruiting and pay incentives such as, 
Recruitment, Retention, and Relocation bonus incentives; Student Loan 
Repayment Program; Special Salary Rates; hiring at above-the-minimum-
rate; and many other pay benefits. They have also been trained on all 
aspects of benefits and in Quality of Work Life issues such as 
flexiplace, flexible tours of duty, transit subsidy and childcare 
subsidy. Special training has been provided for appointing authorities 
in Titles 5, 38, and 42, including Special Appointing Authorities, 
Career Intern Appointing Authorities, Presidential Management Intern 
authorities, and many other topics. They have also been given Diversity 
Recruiting Training. On-line job fairs have been initiated. Attendance 
at local job fairs has been shared and resources utilized well. In 
addition, the Council consolidates advertising and recruitment efforts 
to maximize opportunities for the FDA. As a result, the agency is 
hiring more well-qualified employees. In addition FDA plans to develop 
a resume database of employees and external experts in key skill areas, 
including those who are available on a part time, temporary, or 
contract basis. A list of other FDA plans is provided for the record.
    [The information follows]
Other FDA Plans for Hiring Staff
    Utilize internships as a way to introduce new ideas and 
perspectives;
    Expand and further promote developmental opportunities and 
incentives such as tuition reimbursement and payment of college loans;
    Create an emergency preparedness staffing model to fund special 
recruiting efforts;
    Adopt a ``life event'' recruiting strategy, focusing on attracting 
potential employees during natural transitions, such as recent college 
graduates and private sector retirees, and,
    Develop innovative ways to speed up the FDA hiring and decision-
making process.
    Question. Are there any FDA employment policies, such as mandatory 
weekend employment, that might serve as discouragement to new 
employees?
    Answer. No, there are currently no policies of this type. We are 
very employee oriented in FDA and have developed many family friendly 
policies designed to help employees balance work and home life. We 
believe these policies encourage employees to work at FDA. However, 
there are some job requirements that may result in changes to our work 
policies in the future. For example, fresh seafood and produce are 
entering our major ports 7 days a week, 24 hours a day. The agency's 
responsibility to the public is to accomplish inspections that ensure a 
healthy food supply while handling perishable products as quickly as 
possible. Unnecessary delays resulting from the inspection process 
would impede commercial distribution and add to deterioration of 
perishables or other possible health hazards. Our goal, to the extent 
of our resource limitations, is to protect the public health while not 
impeding commerce and distribution of products throughout the U.S. To 
accomplish this goal we need the availability of laboratory staffs to 
receive and analyze samples. Since these imports arrive on a 24/7 
schedule we are required to have a corresponding presence at import 
sites similar to U.S. Customs Service and USDA. We have been able to 
partially cover these requirements by asking for volunteers and paying 
overtime for the work. Unfortunately, the need for this type of 
coverage will grow. We will no longer be able to provide overtime. In 
those situations we may have to extend the workweek and include weekend 
and/or evening work schedules. We are currently discussing extending 
the workweek hours to address this growing operational need with the 
National Treasury Employees Union.
                       milk protein concentrates
    Question. As you know, I along with other Members of Congress last 
year requested the General Accounting Office to do an investigation and 
provide a report to Congress on the issue of milk protein concentrate 
importation and use in this country. One of the things highlighted by 
that report was the degree to which FDA is not enforcing the current 
standards of identity for cheese. This is very troubling to me and begs 
the question of what other regulations FDA is choosing not to enforce.
    First, is this a question of having adequate resources or are you 
making a policy decision to ignore these standards.
    Answer. FDA does not focus resources specifically on illegal use of 
Milk Protein Concentrates, MPC's. Use of MPC's would be dealt with 
during routine firm inspections under one of the compliance programs 
covering food composition, standards, labeling, or economics. Current 
priorities are focused on food safety. The use of MPC's in cheese is a 
labeling and composition matter that is not a high priority unless it 
could be linked to food safety. FDA devotes about one FTE to cheese 
standards of identity.
    Question. Can you tell this Subcommittee to what extend you are 
currently inspecting plants for illegal use of MPC? What are you 
findings?
    Answer. FDA does not focus resources specifically on illegal use of 
MPC's. Use of MPC's would be dealt with during routine firm inspections 
under one of the compliance programs covering food composition, 
standards, labeling or economics.
    Question. What plans do you have to adequately enforce these 
important standards?
    Answer. FDA is presently considering whether further resources 
might be devoted to ascertaining whether domestic or imported MPC's are 
being used in the manufacture of standardized products where such usage 
would not be permitted by the appropriate standards. However, use of 
MPC's is not considered a food safety issue. FDA resources currently 
focus on firms that manufacture products at high risk of contamination 
with foodborne pathogens.
                           prescription drugs
    Question. Please summarize the type of activities FDA is engaging 
in, such as accelerating the approval of generic drugs, to contain the 
costs of prescription drugs.
    Answer. We continue to refine the review process to increase 
efficiency. We are able to accept more electronic submissions to 
streamline the review process. The number of new staff hired in the 
last fiscal year are now fully trained and are demonstrating high 
levels of productivity. We continue to examine every aspect of the 
review process to try to identify problem areas to be addressed. We 
also plan to revise the current system for amendment designation, major 
versus minor, to improve total review times. While FDA does not have 
the responsibility to contain costs of drugs, we are doing everything 
to get generics to the market quicker. Other changes are also being 
explored.
                          combination products
    Question. It is suggested that many developing products will fall 
into this category, which are products that are both a device and a 
drug or biologic.
    Does FDA have a process in place for timely review of these 
applications?
    Answer. Yes, FDA does have processes in place for the timely review 
of product applications for combination products.
    Question. How do the various centers coordinate review of these 
products?
    Answer. There are intercenter agreements for determining which 
Center has primary jurisdiction over particular types of combination 
products. For example, the Center for Biologics Evaluation and 
Research, CBER, has a number of standard operating procedures and 
policies, SOPPs, pertaining to various aspects of combination-product 
license applications processing. The SOPP subjects range from the 
administrative processing of license applications to the review and 
issuance of license-application action letters. One of CBER's SOPP's 
outlines the procedures for interoffice license application review 
consultation. The procedures outlined in that SOPP apply to intercenter 
consultation of combination-product license applications.
                     premarket application reviews
    Question. What level of resources would be needed for FDA to meet 
statutory deadlines for third party review for premarket applications?
    Answer. FDA expects to expend the same level of funding in fiscal 
year 2002 as in fiscal year 2001 for third party review reviews of 
medical devices, plus corresponding pay increases in fiscal year 2002 
associated with this function. The Agency is currently in the process 
of developing long range estimates for resource needs associated with 
medical device reviews. The estimates will include a range of estimated 
resources, assumptions in predicting the number of third party reviews, 
and caveats that indicate what types of uncertainties or changes would 
alter the estimates.
    FDA is working with the medical device industry to increase 
industry's use of third parties to review premarket applications for 
low to moderate-risk devices. FDA has accredited twelve third parties, 
seven of which have reviewed three or more 510(k)s. The program now has 
674 eligible devices. This represents a 300 percent increase in the 
number of eligible devices, and includes all Class I and Class II 
devices regulated by the Agency that meet the statutory criteria for 
review by Accredited Persons. In fiscal year 2000, FDA received 47 
510(k)s with a third-party review compared to 32 510(k)s received in 
fiscal year 1999. This increase represents only 3 to 4 percent of 
510(k)s that were eligible for review. FDA anticipates that the 
expansion will generate wider use of the third party review program in 
fiscal year 2001.
    Question. Is FDA contracting out the review of applications?
    Answer. When funding levels and circumstances permit, FDA uses its 
authority to contract with outside technical expertise when such 
expertise was needed. For example, in fiscal year 2000, FDA hired 70 
Special Government Employees to participate on the medical devices 
advisory committees. FDA has also contracted with the Oak Ridge 
Institute for Science and Education fellowship program to recruit 
experts to participate in reviews. FDA continues to contract with other 
experts when the need arises.
                        import user fee proposal
    Question. Would the import user fee proposal affect the ability of 
U.S. device manufacturers to have ready access to bulk supplies and 
biomaterials procured from foreign sources? To what extent?
    Answer. No, the import user fee will not affect the ability of U.S. 
device manufacturers to have ready access to bulk supplies and 
biomaterials procured from foreign sources.
                          white oak relocation
    Question. Was a cost comparison conducted to determine if FDA space 
could be located from the private sector at a lower cost than through 
GSA?
    Answer. The General Services Administration, GSA, prepared a report 
to the House Economic Development, Public Buildings, Hazardous 
Materials and Pipeline Transportation Subcommittee. The report provided 
background information on the project as well as a comparison between 
the cost of leasing to the cost of government construction. Over a 30-
year period the analysis shows a cost advantage for Government 
construction. For FDA, however, there are other benefits to capital 
funding for government construction.
    A large portion of the Agency's space is constructed as laboratory 
space. As highly specialized space, laboratories require significant 
investment in capital improvements to the space for scientific and 
life-safety purposes. The capital investment in the laboratory areas 
drives the cost of the space much higher than standard office space. 
Because of this additional investment in the space the longer the 
government stays in its space the more cost effective it becomes. 
Competition in contracting requires that the Government recompete its 
leases periodically and this can result in the relocation from its 
facilities before its investment is fully amortized.
    In addition, administrative budget guidelines calls for up front 
scoring of major lease acquisitions. The high cost of laboratory space 
would result in a lease that would score as capital authority. In the 
past the Office of Management and Budget has not approved capital lease 
authority, because it results in the government essentially paying for 
assets through a lease.
    Question. What are the conditions of current FDA locations that 
would be relocated to White Oak?
    Answer. FDA Headquarters is located in 40 buildings in 18 
locations. While the Agency has managed to improve the quality of many 
of its offices, its laboratories are still in need of improvement. The 
Centers to be located in Prince George's County are effectively 
consolidated or construction is underway to replace their laboratories. 
Of the remaining Centers to be located in Montgomery County, CBER 
laboratories are housed on the National Institutes of Health campus and 
a private sector leased building and CDRH laboratories are located in 
approximately five buildings that are closely grouped in the Parklawn 
building vicinity. For the record I will provide the problems with 
these buildings.
    [The information follows:]
Flexibility
    Lab buildings, with the exception of MOD 1 in the Beltsville/Laurel 
facility, are unable to respond quickly or economically to changing 
programs/priorities or scientific/technical changes.
    Modularity and a correspondingly flexible utility distribution 
network that permits maximum adaptability is non-existent in all older 
buildings.
    Mechanical and electrical systems in older buildings cannot 
accommodate increased demands posed by modern laboratory operations and 
provide no capacity or flexibility for future loads.
    Older buildings cannot be renovated or upgraded efficiently or 
economically.
Health And Safety
    Overcrowding in laboratories present a definite safety hazard.
    Poor ventilation in several of the buildings presents potential 
health or safety problems and may jeopardize animal health and hence 
compromise experiments.
    Renovation of some buildings to bring them up to current codes and 
standards is not possible because of inherent design deficiencies. 
Health and Safety upgrades generally are constrained by building 
layouts that are not designed for FDA's complex, modern laboratory 
requirements.
Quality of Environment
    Overcrowded conditions are a major detractor to a quality 
workplace.
    Location of buildings does not foster the proper opportunities for 
communication between colleagues or disciplines.
    HVAC systems in many lab buildings are marginal or totally 
inadequate, resulting in poor ventilation, inadequate filtration of 
incoming air and the short circuiting between building exhausts and air 
supply intakes.
                        antimicrobial resistance
    Question. Please provide an update on the activities of the 
National Antimicrobial Resistance Monitoring System and include any 
observations regarding the problems of antimicrobial resistance and a 
public health issue as related both to animal drug use and human drug 
use.
    Answer. The National Antimicrobial Resistance Monitoring System, or 
NARMS, monitors development of antimicrobial resistance of zoonotic 
enteric pathogens, or bacteria, from human and animal clinical 
specimens, healthy farm animals, and carcasses of food-producing 
animals at slaughter. Its purpose is to prospectively monitor the 
antimicrobial resistance of human, animal, and animal product isolates 
of selected enteric bacteria. Both human and animal isolates are tested 
since antimicrobial resistance is a food safety and human public health 
issue. The food safety hazard derives from the fact that if resistant 
enteric bacteria are present on the food, there is the possibility that 
people will become ill from those bacteria and any needed treatment may 
be difficult or protracted due to the resistance to selected 
antibiotic. The public health hazard derives from the misuse and 
overuse of antimicrobials leading to the emergence of drug-resistant 
bacterial strains. The continuing emergence of difficult to treat or 
untreatable secondary infections acquired in the hospital threaten the 
lives of hospitalized individuals and those with chronic conditions, as 
well as adding considerably to health care costs. The NARMS program is 
designed to identify trends over time in antimicrobial susceptibility 
and to identify areas for further investigation.
    NARMS is expanding greatly in fiscal year 2001. Improvements to 
NARMS will enhance FDA's ability to protect public health, as well as 
provide the animal drug industry a source of baseline data for pre-
approval studies on resistance. Enhancements to NARMS include the 
addition of new sources and increased numbers of isolates, expansion of 
new veterinary sentinel sites to ten and inclusion of retail food 
samples to increase the geographic distribution of the samples. In 
addition, FoodNet sites and ten State public health laboratories 
participating in NARMS will also receive increased funding to submit 
isolates, and an additional nine Food Net sites will begin to 
participate in NARMS in late 2001. FoodNet is a surveillance system 
that provides a network for responding to new and emerging foodborne 
disease outbreaks of national importance, monitoring the burden of 
foodborne diseases, and identifying the sources of specific foodborne 
diseases.
    Each NARMS testing site will have the expertise of a molecular 
biologist to facilitate associated analytical microbiological research 
on the NARMS isolates, including molecular characterization. We also 
plan to expand the list of pathogens to be monitored by means of 
increased funding to the States and adding retail food sample 
collection. Moreover, the expansion and visibility of the NARMS program 
have increased both the demand for and the complexity of reporting 
results in a timely manner. To accommodate this demand, FDA has 
increased the resources provided to each testing site to facilitate 
efficient database management, increased frequency of reporting, and 
timely report generation. The expansion of NARMS has also identified 
the need to add a third testing site in order to handle the increased 
number of isolates. This requires that the exact same testing methods 
and isolate handling procedures be used as currently is done at the CDC 
and USDA facilitates. Because of this, FDA's Center for Veterinary 
Medicine, Office of Research microbiology facility has been selected to 
isolate, identify, and susceptibility test the retail food samples. In 
addition, in fiscal year 2002 we plan to expand the collection and 
testing of retail food, which began in fiscal year 2001 as a pilot 
project.
    FDA plans to enhance our collaboration with international 
surveillance sites. On the international side. FDA continues to support 
a similar system to NARMS in Mexico. In fiscal year 2000, FDA began a 
pilot study with Mexico on a moniatoring system for antimicrobial 
resistance in Salmonella. Preliminary findings from the pilot study 
indicate a moderate carriage rate of Salmonella among healthy children 
in Mexico, but the isolates tend to be sensitive to all antibiotics 
tested. Veterinary schools in three Mexican States desire to join the 
project. As a first step veterinarians are now in training at the 
hospitals to develop expertise in isolation and identification 
procedures. FDA is also supporting a World Health Organization training 
course on the surveillance of Salmonella and antimicrobial resistance 
in foodborne pathogens to be held July 2-13, 2001 in Merida, Mexico. 
Representatives from human and veterinary hospitals from 11 countries 
from Mexico, Central, and South America will receive training in 
standardized laboratory methods for the isolation, identification and 
antimicrobial susceptibility testing of foodborne Salmonella and the 
interpretation of results. The long-term objective of the course is to 
lay the foundation for participation in a regional laboratory network 
for the surveillance of foodborne disease and antimicrobial resistance 
in foodborne bacteria.
    NARMS data was used in the development of FDA's Campylobacter risk 
assessment as revised January 5, 2001. Based partly on the results of 
the Campylobacter risk assessment, FDA's Center for Veterinary Medicine 
proposed to withdraw approval of the new animal drug application for 
use of the fluoroquinolone antimicrobial drug enrofloxacin in poultry. 
CVM has determined that the drug is not been shown to be safe under its 
approved conditions of use. The proposed withdrawal is based on several 
determinations. First, that the use of fluoroquinolones in poultry 
causes the development of fluoroquinolone-resistant Campylobacter in 
poultry. Second, that this fluoroquinolone-resistant Campylobacter is 
transferred to humans and is a significant cause of the development of 
fluoroquinolone-resistant Campylobacter infections in humans. Finally, 
that fluoroquinolone-resistant Campylobacter infections are a hazard to 
human health.
                            consumer safety
    Question. Please provide an update on the activities of the Patient 
Safety Task Force and include incidents of suspected product adverse 
reactions and preventable medical errors.
    Answer. Preventable patient deaths and injuries associated with the 
use of medical products are an important public health concern. A 
summary of actions is provided for the record.
    The Final Summary of Food and Drug Administration Action Items: 
Doing What Counts for Patient Safety: Federal Actions to Reduce Medical 
Errors and Their Impact.exemplifies FDA's dedication to preventing 
patient harm and improving patient safety. For fiscal year 2000, 
approximately 275,000 suspected product adverse reactions were reported 
to the Center for Drug Evaluation and Research's, CDER's Adverse Events 
Reporting System, AERS. Of the 275,000, 2800 were reports of medication 
errors. Since 1994, CDER has received approximately 15,000 reports of 
medication errors. Approximately 50 percent of these reports were 
related to the naming, labeling and/or packaging of drug products. 
There is a 69 percent morbidity rate, including a 10 percent fatality 
rate associated with these preventable medication errors.
    [The information follows:]
Patient Safety Task Force Activities
    National Summit on Drug Safety and Other National Meetings; Report 
to the Public on the Safety of Drugs, Devices, and Biologics; Expand 
Mandatory Reporting of Errors to All Registered Blood Establishments; 
Initiate Programs to Develop Additional Standards for Drug Names; 
Initiate Development of Packaging Standards to Prevent Dosing and Drug 
Mix-ups; Develop New Label Standards for Drugs to Address Errors 
Related to Medications; Implement Phase II of MeDSuN; Intensify Efforts 
to Ensure Manufacturers Follow Standards; Provide Access to Databases 
Linked to Healthcare Systems; Complete Online Adverse Drug Event 
Reporting System; Strengthen FDA's Analytic and Investigative Capacity; 
and, Strengthen FDA's Outreach Activities and Collaboration with 
Federal Agencies.
    Question. Please provide an update on activities related to the 
1988 Clinical Laboratory Improvement Amendments.
    Answer. FDA has been responsible for determining the appropriate 
test complexity categorization of commercially-available test systems 
since January 2000, when this function was transferred to the agency 
from the Centers for Disease Control and Prevention, CDC. To date, we 
have completed more than 1,000 categorizations. These have included 
more than 150 waiver determinations. Waived tests are simple, and have 
an insignificant risk of an erroneous result. Although the vast 
majority of these waiver assignments have represented additions to 
waiver test categories already introduced by the CDC, several high 
profile new analytes have been waived, including two immunoassays for 
direct detection of influenza virus and a test for alanine amino 
transferase, or ALT.
    The agency has sponsored a public workshop seeking input on the 
waiver process and has issued a draft guidance for public comment which 
is available on the CDRH website. FDA has presented guidance on 
recommended new directions at the February 2001 Clinical Laboratory 
Improvement Amendments Committee, or CLIAC, meeting and hopes to 
finalize this guidance this summer.
                             agro-terrorism
    Question. If an outbreak of BSE or Foot and Mouth Disease were to 
occur in the United States, it would be devastating to my State, and 
the economy of the entire country would suffer greatly. Recent news 
reports have cited how easily one of these animal diseases could be 
intentionally introduced into the country.
    Please explain what the possibility is of someone intentionally 
introducing an animal disease in this country that could devastate the 
U.S. economy or have serious public health implications.
    Answer. There is a real danger from the intended introduction of 
Bovine Spongiform Encephalopathy, or BSE, and Foot and Mouth Disease, 
or FMD, or other animal diseases into the United States. We acknowledge 
that the possibility that these and other foreign diseases would be 
devastating to U.S. agriculture and the economy if introduced into the 
U.S. due to the number of travelers returning from abroad, or visiting 
the U.S. each day. In addition, because of the volume of imported 
products, and the limited resources available for inspection, there are 
many possible ways for the intentional introduction of these diseases 
into the U.S.
    Question. What actions are being taken by FDA to ensure that this 
does not happen? Please provide specific examples, including weaknesses 
of current preventive programs.
    Answer. FDA works closely with the United States Department of 
Agriculture, or USDA, and State agricultural and veterinary agencies on 
implementation of the Bovine Spongiform Encephalopathy, or BSE, 
regulation and on controlling imported products that might introduce 
BSE into the U.S. FDA issues import alerts and bulletins, carries out 
import inspections at the border and airports, and inspects domestic 
manufacturers. The Agency also contracts with the States, who have 
conducted approximately 80 percent of the domestic inspections under 
the BSE regulation. FDA worked closely with the USDA in developing the 
import alerts and bulletins issued by FDA to ensure all animal products 
that might contain the BSE agent are identified and listed in the 
alerts or bulletins and are prevented from entering the U.S.
    FDA is also a member of domestic and international working groups, 
and chairs the Senior Executive Interagency Steering Committee. A major 
goal of these groups is to ensure that imports of products potentially 
contaminated with BSE do not get into the U.S. The Senior Executive 
Interagency Steering Committee assures coordination among agencies, 
especially in three main areas: integrated contingency planning in case 
BSE or variant Creutzfeldt-Jakob Disease, or vCJD, disease is found in 
the U.S; identification of and response to potential vulnerabilities in 
the U.S. to BSE and vCJD; and coordination of risk communication plans 
by the various agencies. For the record we are providing a list of 
organizations that participate in the Senior Executive Interagency 
Steering Committee.
    A Tri-country group of officials from the U.S., Canada, and Mexico 
has been meeting for three years on this issue. The U.S. hosted the 
first meeting in 1998 and is scheduled to host the meeting this year. 
The Tri-country group is comprised of technically trained individuals 
who know the day-in and day-out workings of the programs of their 
agencies. The group has been successful in harmonizing import policies 
and each member has implemented the last two import bans issued by the 
USDA.
    An interagency working group on BSE started in 1996 is comprised of 
representatives from USDA's APHIS, FSIS, Agricultural Research Service, 
or ARS, FDA, NIH, CDC, and DOD. This group shares information, 
evaluates ideas and issues, and makes recommendations to participating 
agencies. Although import issues have long been addressed in the 
interagency working group and agencies have coordinated actions on 
import issues, to further strengthen coordination of import issues, an 
import subgroup to the interagency workgroup was formed to investigate 
and make recommendations relating to import issues. On January 17, 
2001, FDA attended the initial meeting of the import subgroup, which 
consists of representatives from APHIS, FDA and Customs, to enhance 
joint procedures to prevent the importation of BSE material into the 
U.S.
    FDA reviews entries of FDA-regulated products that consist of, or 
may contain, BSE risk products of animal origin and works with APHIS to 
ensure that such products do not enter the U.S. FDA is continuing to 
review its own admissibility requirements for FDA-regulated products 
that could pose a BSE-related risk.
    FDA coordinates activities among Customs, USDA, APHIS and FDA, and 
is leading the efforts for developing procedures for multi-agency 
operations. FDA has provided FDA-product codes used in OASIS entry 
screening, to APHIS for their review, and has facilitated APHIS review 
of Customs HTS codes, used in Customs entry screening, which resulted 
in Customs issuing a directive to Customs field personnel on January 4, 
2000, identifying specific HTS codes for products subject to the APHIS 
prohibition.
    FDA, APHIS, and Customs have coordinated their response to the 
potential importation of BSE-related products. After APHIS issued their 
prohibition on the importation of BSE materials on December 7, 2000, 
FDA issued Import Bulletin 71B-02 requesting that FDA's field offices 
notify their local APHIS offices of any import suspected of containing 
BSE material. FDA issued a new Import alert on January 20, 2001, and a 
new Import Bulletin on March 1, 2001. These new import documents 
provide a detailed system for identifying at the ports products about 
which FDA has potential BSE concerns.
    In addition, FDA has conducted two conference calls open to all 50 
States including State veterinary and agricultural agencies in January 
and April to discuss the BSE issue. Both FDA and USDA participated in 
the call. FDA has met with the National Association of State 
Departments of Agriculture and American Association of Feed Control 
Officials to discuss the FDA regulation on prohibited materials and 
BSE, other Transmittable Spongiform Encephalopathies, and Foot and 
Mouth Disease. The FDA is also conducting two seminars on feed 
contamination issues including BSE during the week of May 1st in Texas 
and May 14th in Minnesota. Over 100 feed control officials from all 50 
States attended.
    It is important to note the FDA, as well as Customs and APHIS, are 
dependent upon the import community, which includes brokers, importers, 
and shippers, for the entry and manifest data with which to identify 
products consisting of, or containing, materials of concern from BSE 
and BSE-high-risk countries. A weakness in the system is that products 
which are not declared correctly or are described by importers or 
brokers so as to hide their animal origin or country of origin may not 
be detected though FDA import screening. Furthermore, the sheer volume 
of imported FDA-regulated products precludes the Agency from physically 
examining every entry into the U.S.
    FDA will continue to aggressively enforce its regulations and work 
closely with those in the cattle and feed industries to minimize the 
risk of BSE introduction or spread in U.S. cattle herds. FDA will 
develop new guidance and regulations as the scientific knowledge about 
BSE expands. Working together with many counterpart agencies in the 
United States and around the world and with various industry and 
consumer groups, FDA will continue to protect the health of Americans 
and American cattle herds.
    [The information follows]
Participates of the Senior Executive Interagency Steering Committee
    The Department of Health and Human Service's Assistant Secretary 
for Science Policy; FDA; Centers for Disease Control and Prevention; 
National Institutes of Health, NIH; USDA's Animal Plant Health 
Inspection Service, APHIS; Foreign Agricultural Service; Food Safety 
and Inspection Service, FSIS; White House Office of Science and 
Technology Policy; U.S. Trade Representative; U.S. Customs; Department 
of State; Department of Defense; National Association of States 
Departments of Agriculture; National Association of Chief Livestock 
Health Officials; and Association of American Feed Control Officials.
                             latex allergy
    Question. It has been brought to my attention that as many as 18 
million Americans suffer from a latex allergy, and workers in 
environments where latex gloves are commonly used are at a higher risk 
for developing a latex allergy. It has also been brought to my 
attention that latex proteins may be transferred onto food products 
when food handlers wear latex gloves.
    Does the use of disposable latex gloves in food preparation and 
handling violate Section 402(a)(1) of the FDA Food Regulations? Please 
explain your conclusion?
    Answer. Natural rubber latex (NRL) is approved for use in food 
contact situations. Therefore, the use of NRL gloves does not presently 
cause a food to be adulterated under section 402(a)(1). Nevertheless, 
we are concerned with reports from latex-sensitive individuals 
reporting adverse physical reactions from consuming food that has been 
in contact with gloves made from NRL. FDA is collecting additional 
information on this and is actively reviewing its policy on the use of 
disposable NRL gloves in food operatoins. In the meantime, FDA has 
advised the food industry to consider this information when deciding 
whether to use NRL gloves in food preparation.
    As background, the Food and Drug Administration has jurisdiction 
over the use of NRL in food contact situations under the food additive 
provisions in section 409 of the Federal Food, Drug, and Cosmetic Act, 
FFDCA. Under section 201(s) of the FFDCA, components of food-contact 
articles are considered food additives if they migrate or are 
reasonably expected to migrate to food as a result of their intended 
use. The use of a food additive, like NRL in the production of food 
service gloves, must be determined to be safe by the FDA before it may 
be used in food, or become a part of food from processing, packaging, 
transporting or holding the food.
    The food additive regulations describing the conditions under which 
NRL may be safely used, are found in 21 CFR 177.2600 Rubber articles 
intended for repeated use. This regulation, listing ``natural rubber,'' 
was promulgated on February 1, 1963 in accordance with section 409 of 
the Federal Food, Drug and Cosmetic Act, FFDCA. It has been FDA's 
position over the years that, provided the compositional requirements 
of the regulation are met, the use of natural rubber as a component of 
food service gloves is in conformity with 21 CFR 177.2600, and is not 
an unsafe food additive. Nevertheless, as we evaluate the reports of 
adverse reactions from latex-sensitive individuals as noted above, we 
will also consider the relevance of that information to the safe use of 
the food additive.
    Question. What steps has the FDA Center for Devices and 
Radiological Health taken to determine that the proposed maximum levels 
for medical glove powder and extractable latex proteins retained in 
medical gloves are safe for patients and workers?
    Answer. The recommended limits of extractable protein and glove 
powder set forth in FDA proposed rule are not intended to be viewed as 
safe levels for all individuals in all circumstances. Rather, the 
recommended limits were meant to provide a way to indicate the level of 
protein and powder, allowing the consumer to make informed decisions. 
These recommended limits reflected the premise that lower protein and 
lower powder levels would reduce adverse health effects and state-of-
technology considerations affecting glove properties, such as shelf 
life and strength, market availability, and cost.
    We know of no way, with current scientific knowledge, to determine 
a protein threshold level that would be safe for all users and would 
not trigger any allergic reactions. Based on known mechanisms of 
allergy induction, allergy development is recognized as a gradual 
process and the response is considered dose-dependent. A large body of 
published literature demonstrates a correlation of the duration and 
intensity of exposure to natural rubber latex, NRL and the prevalence 
of NRL sensitivity. We have concluded that scientific knowledge does 
adequately show reduced exposure to NRL allergens would benefit users, 
minimizing the risk of sensitization and allergic reactions in 
sensitized individuals.
    Cornstarch, which meets the specification for absorbable dusting 
powder in the United States Pharmacopoeia, is probably the most common 
lubricant for medical gloves. Cornstarch alone is not known to be a 
common allergen. However, cornstarch can adsorb some soluble proteins 
during the processing of gloves. The amount of protein binding has been 
shown to decrease with decreasing quantities of soluble protein and 
powder present. For this reason, FDA is encouraging glove manufacturers 
to reduce the amount of protein and powder remaining on medical gloves.
    FDA also recognizes that glove powder is composed of particles that 
may cause foreign body reactions. Published studies and case reports 
identify adhesion and granuloma formation as a recognized complication 
associated with the introduction of glove powders into body cavities 
and suggest that clinically significant complications may not be rare. 
For this reason, FDA is encouraging glove manufacturers to reduce the 
amount of powder remaining on medical gloves.
    We are now preparing a final regulation, which will reflect our 
response to comments received on the proposed rule, and our review of 
recently-adopted standards, such as ASTM D-3577, Standard Specification 
for Rubber Surgical Gloves, and ASTM D-3578, Standard Specification for 
Rubber Examination Gloves.
    Question. Please provide me with an update on all activities taken 
by FDA to study safety issues associated with latex, including 
disposable latex glove use in food handling and preparation and the 
medical field.
    Answer. FDA's Center for Food Safety and Applied Nutrition, CFSAN, 
is actively reviewing its policy on the use of disposable NRL gloves in 
food operations. CFSAN has received anecdotal information from latex-
sensitive individuals reporting adverse physical reactions after 
consuming food that may have been in contact with NRL gloves. CFSAN has 
acted on this public health concern and added a caution in the model 
guidelines for retail food service operations--the 1999 Food Code--that 
says ``This information should be taken into consideration when 
deciding whether single-use gloves made of latex will be used during 
food preparation.''
    ``Healthy People 2010,'' the Surgeon General's national initiative 
that outlines a comprehensive nationwide health promotion and disease 
prevention agenda, has also addressed this concern. FDA led the 
development of the food safety objectives for the initiative, and 
specifically mentioned allergy risks associated with food, including 
the use of latex gloves.
    To gain additional information regarding allergic reactions 
possibly due to the ingestion of food contaminated by NRL protein in 
retail settings, CFSAN has been collecting reports of such reactions 
from consumers who have contacted the Agency. CFSAN has contacted one 
of the latex allergy consumer interest groups, Latex Allergy Support 
Team and Information Coalition, Inc., to obtain its recommendations. 
CFSAN has also contacted Health Canada and the European Union to learn 
how they are dealing with NRL glove use in food operations. We are 
continuing to review research data.
    Regarding the use of NRL gloves as medical devices, the Agency has 
conducted its own research; alerted the medical community; collaborated 
with manufacturers and private standards groups in lowering the level 
of latex proteins in medical device products; published a final rule 
requiring labeling of medical devices containing latex; and published a 
proposed rule reclassifying surgeon's and patient examination gloves. 
FDA has also encouraged companies to manufacture latex products 
containing the lowest possible protein levels, and to indicate these 
lower levels as established by a test developed by the American Society 
of Testing and Materials. With respect to concerns that FDA might ban 
powdered natural rubber latex, NRL, surgical and examination gloves, 
the risks posed by them do not meet the legal standard for banning a 
medical device. While FDA encourages the development of suitable 
substitutes, with effective barrier properties for NRL medical gloves, 
FDA recognizes that NRL affords a combination of qualities difficult to 
duplicate in a synthetic material. This combination of qualities 
supports the continued availability and selection of NRL medical gloves 
by users and purchasers as appropriate for their needs.
    A large body of data has been generated through years of NRL glove 
use demonstrating their performance. With new synthetic materials, the 
data are limited. The Agency also recognizes that substitutes for NRL 
possess positive and negative attributes.
    FDA is currently participating in a multi-center study, part of 
which will assess the effects of, various conditions of storage, 
materials with which gloves may come into contact, and fatigue and 
abrasion on medical gloves. The results of this study should provide 
additional information on the performance characteristics of both NRL 
and synthetic medical gloves.
                                 ______
                                 

             Questions Submitted by Senator Byron L. Dorgan

                          drug importation law
    Question. As you know, Congress last year overwhelmingly passed the 
Medicine Equity and Drug Safety Act (MEDSA), which would allow United 
States pharmacists and wholesalers to import FDA-approved medicines 
from other countries at lower prices and pass the savings along to 
their customers. Congress also at that time appropriated FDA $23 
million in fiscal year 2001 for beginning to carry out this law.
    I understand the Secretary of Health and Human Services has not yet 
made a decision about implementing this new law. Is that still the 
case?
    Answer. Yes, this is still the case. Before the Secretary of Health 
and Human Services makes a recommendation to the President about 
implementing the human drug importation program, he needs to have a 
complete and thorough analysis of both the health safety and cost-
saving components of program. Those analyses are on-going.
    Question. Last year, the FDA estimated that the second year (fiscal 
year 2002) cost of implementing MEDSA to be $22.5 million. Yet the 
President's fiscal year 2002 budget provides only $2.95 million for 
MEDSA implementation. Should the HHS Secretary decide to move forward 
with implementation of MEDSA, would FDA have the resources it needs for 
an importation program?
    Answer. The Secretary expects to advise the Administration on 
recommendations for addressing MEDSA soon. The nature of this 
recommendation will dictate the resources involved. Once this decision 
is made, we will be in a better position to determine the resources 
involved in a reimportation program.
                   drug importation by drug companies
    Question. In 1999, Americans consumed $13.1 billion in 
pharmaceutical products imported by drug companies. These prescription 
drugs and other medicines came from countries ranging from Canada ($697 
million) and the United Kingdom ($2.2 billion) to China ($391 million), 
Japan ($1.3 billion), and Mexico ($222 million).
    Given that some FDA officials apparently have concerns that these 
same drugs imported by U.S. pharmacists and wholesalers would be 
unsafe, would the FDA support changing current law to also prevent 
pharmaceutical companies from importing medications? Or at the very 
least, should pharmaceutical companies be required to meet the same 
stringent record-keeping and testing requirements that U.S. pharmacists 
and wholesalers would be required to meet under MEDSA?
    Answer. Currently, section 801(d)(1) of the Federal Food, Drug, and 
Cosmetic Act prohibits the importation, by anyone other than the 
manufacturer, of prescription drugs and insulin manufactured in the 
United States and exported. Thus, reimportation, other than as stated 
above, is not legal. Congress enacted this law to protect the public 
from prescription drugs that may have been improperly stored and 
handled abroad and to reduce opportunities for importation of 
counterfeit and unapproved prescription drugs. Some imported 
medications, even though they bear the name of a U.S. approved product, 
may, in fact, be counterfeit versions that are unsafe or even 
completely ineffective. FDA would support the law as enacted by 
Congress, however, appropriate resources would be required to 
effectively implement the law.
                     inspection/testing of imports
    Question. I see that according to the FDA's fiscal year 2002 Budget 
Overview, the FDA inspects less than 1 percent of all imported products 
(food, medicine, medical devices, and other products under its 
jurisdiction) brought into the U.S., and I understand that your 
sampling and end-point product testing is also minimal.
    It is my understanding that the cost estimate provided to the 
Appropriations Committee last year by the FDA assumes 100 percent 
review of the documentation for prescription drugs imported under MEDSA 
and authenticity/counterfeit testing on 10 percent of imported 
medicines, just to name a few of the assumptions behind the safeguards 
in MEDSA. It appears that these requirements are more stringent than 
those for other imported products.
    You raised concern in your testimony that the FDA has a ``seriously 
impaired capacity'' to conduct inspections and testing on imported 
products. Given that medicines imported under MEDSA would receive 
considerably more oversight, couldn't American consumers have more 
confidence in the safety of products imported under MEDSA than they do 
in the safety of other products imported under the FDA's oversight?
    Answer. The provisions of MEDSA call for safeguards to be in place 
that coincide with existing regulations, specifically sections 501, 
502, and 505 of the FFD&C Act. In addition to these measures, MEDSA 
calls for pedigree documentation and testing in attempt to ensure the 
safety and effectiveness of imported pharmaceuticals. These proposed 
actions are more stringent, in some cases, than current surveillance 
practices for some FDA products, but the nature of the product is 
warranted under these circumstances. FDA believes that current Good 
Manufacturing Practices--GMPs--are the best way to help assure the 
quality and safety of FDA approved products, and the Agency cannot 
assure compliance with GMPs under this system. Sampling and testing a 
pharmaceutical product alone will not provide the assurance that a 
product is safe and effective. Either way, the Secretary of Health and 
Human Services has yet to make a final decision as to whether the 
implementation of MEDSA will ``pose no additional risk to the public's 
health and safety.''
           violations of the prescription drug marketing act
    Question. I've been told by the FDA in the past that the 
Prescription Drug Marketing Act prohibits the re-importation of a 
prescription drug or insulin that was manufactured in the United States 
except by the manufacturer. It has come to my attention that a number 
of foreign-based organizations have begun targeting U.S. medical 
professionals (doctors, pharmacists, etc.) to have them purchase 
prescription medicines from Canada on their patients' behalf. See 
attachments
    Does this kind of effort violate the Prescription Drug Marketing 
Act? If yes, what steps is the FDA taking to stop this practice? If 
not, how is this practice different than what would be allowed under 
the Medicine Equity and Drug Safety Act (other than the fact that there 
are none of the safeguards that MEDSA contains)? How can the FDA allow 
this practice to continue and at the same time maintain that 
importation of prescription drugs by pharmacists under MEDSA would be 
unsafe?
    Answer. This is a very complex legal question. If the prescription 
drugs or the insulin are manufactured overseas, and covered by an 
approved NDA, importation into the U.S. would not violate PDMA. Such 
importation may, however, violate other provisions of the Food, Drug 
and Cosmetic Act, FD&C. Only drugs manufactured in the U.S., exported, 
and then offered for reimportation are prohibited from entry in the 
U.S. except in the case of a medical emergency and with the permission 
of the FDA.
    MEDSA would have permitted the entry of U.S. manufactured 
prescription drugs back into the U.S. provided the drugs were approved 
for marketing in the U.S., in addition to other testing and 
documentation requirements. If the drugs are manufactured domestically 
and shipped to Canada, it would be a violation for anyone, doctor or 
patient, to reimport these drugs, absent implementation of MEDSA. 
Furthermore, in most cases, drugs under this scenario would not meet 
all of the prongs of the personal importation policy, such as no 
foreign versions of FDA approved drugs.
    The targeting of U.S. physicians to purchase Rx drugs from Canada 
for use by the physicians' patients would be prohibited by 801(d) of 
the FD&C Act if the drugs are of U.S. origin and there is no documented 
medical emergency or if they are unapproved drugs being imported into 
the U.S.
                       global trade/harmonization
    Question. I was pleased to read in your testimony about the 
progress that the FDA has made towards harmonizing drug safety 
regulations, which will help to facilitate global trade.
    While I'm glad that FDA is working towards harmonization that will 
ultimately make the global market work better for drug companies and 
make the FDA's regulatory job easier, how would harmonization 
ultimately benefit consumers if they continue to be denied access to 
lower priced pharmaceuticals from other countries?
    Answer. Global harmonization of regulatory requirements should make 
drug development more efficient for drug companies, resulting in more 
drugs available, faster approvals, and possibly lower costs for United 
States consumers. However, harmonization does not directly address the 
reasons for differences in drug prices in different countries.
                                 ______
                                 

            Questions Submitted by Senator Richard J. Durbin

                gene therapy individual tracking system
    Question. FDA after 7 years has not yet complied with Congress' 
direction to set up an individual gene therapy tracking system, can the 
agency explain this delay?
    Answer. No existing system satisfied the requirements of the gene 
therapy database. Therefore, a new system must be developed. Since FDA 
shares with NIH, through the Office of Biotechnology Activities, OBA, 
the responsibility for oversight and safety of gene transfer research, 
FDA has been working closely with NIH to develop and implement a common 
database. This collaboration will result in a system that meets the 
needs of both NIH and FDA. Development of a new system is complex, and 
system development coordination between two agencies lengthens the 
development process. A joint system will save resources. Also, 
Secretary Thompson is committed to coordinating information technology 
throughout HHS to gain efficiencies and avoid redundancy.
    Question. When is FDA planning on modifying their proposal so that 
it meets the congressional intent of tracking patients rather than 
merely being an adverse events monitoring system?
    Answer. The gene therapy database will support collection of data 
on gene therapy product that can be analyzed for safety trends. 
Consideration of the appropriate information to be collected in long-
term follow-up and how to facilitate collection of this information, is 
still underway. FDA sought the guidance of the Biological Response 
Modifiers Advisory Committee, BRMAC, on these issues in November 2000, 
and will seek further guidance on the revised proposal for long-term 
follow-up with the BRMAC. Data collection and submission will be the 
responsibility of sponsors of gene therapy trials who have applications 
with the FDA, and of investigators and institutions that the NIH 
oversees through the NIH Guidelines. Guidance is being developed to 
facilitate submission of data in an appropriate format and it is 
anticipated that investigators at the clinical site will be able to 
enter data directly into the database.
    Question. Given the death of Jesse Gelsinger and the myriad of 
problems that have been found with gene therapy trials, shouldn't this 
be getting priority treatment from FDA and shouldn't the agency be 
meeting the congressionally mandated time-frames?
    Answer. FDA does take very seriously our regulation of gene therapy 
clinical trials, as well as all clinical trials. The events associated 
with the death of Jesse Gelsinger did receive priority treatment within 
FDA. We believe we already do have a sound regulatory system in place 
for monitoring gene therapy clinical trials and clinical trials for 
other regulated products. Substantial progress has already been made on 
the development of a database and plans are proceeding under the 
direction of a steering committee involving both agencies, including 
individuals experienced with the Adverse Event Expedited Reporting 
System, AdEERS, and the National Xenotransplantation Database, NXD 
efforts.
    Question. When can the committee expect that FDA will actually 
provide us with a full budget and detailed implementation plan for the 
gene therapy individual patient tracking system?
    Answer. A preliminary report was submitted on March 31, 2001. An 
amended report, including a cost estimate and development schedule is 
currently under review within the Administration and is expected to be 
submitted shortly.
       reuse of medical devices picked out of medical trash cans
    Question. I understand that most single use devices reprocessors 
set up bins in operating/procedure rooms for collection of contaminated 
devices. Hospital personnel then place certain used devices in these 
bins for reprocessing. However, I have recently heard, that at least 
one reprocessor has rented space in a medical waste facility where 
reprocessor employees open used sharps containers and waste bins to 
sort for devices to reprocess.
    Is FDA aware of this practice? Does the agency think it is 
acceptable that anyone would be digging through medical waste to pick 
out medical equipment for recycling?
    Answer. FDA is not aware of any commercial reprocessor, that is a 
third party reprocessor, currently renting space in a medical waste 
facility where employees open used sharps containers and waste bins to 
sort for devices to reprocess. We are, however, aware that in 1999, 
Alliance Medical Corporation, a commercial reprocessor, maintained a 
decontamination station in Apopka, Florida, where employees opened 
sharps containers to collect devices for reprocessing and reuse. These 
devices were sorted and cleaned at the Apopka facility and then were 
sent to Alliance's Phoenix, AZ facility for further processing.
    When we learned of the activity occurring at Apopka, we immediately 
inspected the facility on November 17-19, 1999. Apparently, Alliance 
leased a room within the facilities of Stericycle/BFI Waste Systems 
where sharps containers were collected from local hospitals. The 
investigator determined that two Alliance personnel were assigned to 
sort and clean medical devices collected in disposable sharps 
containers. While performing these tasks, the employees were required 
to wear protective clothing, including surgical masks, safety goggles, 
latex gloves, heavy-duty gloves, gowns, foot covers, and hair covers. 
The devices were placed into two piles--one pile for devices found to 
be acceptable for reprocessing by Alliance and the second pile for 
devices unacceptable for reprocessing. The devices in the acceptable 
pile were cleaned and shipped to Alliance's Phoenix site for further 
processing. Devices in the unacceptable pile and the emptied disposable 
sharps containers were given to Stericycle/BFI to destroy by 
incineration.
    At the conclusion of the inspection, FDA issued a list of 
Inspectional Observations that noted seven serious violations. As a 
result of the inspection, FDA issued a Warning Letter, dated December 
23, 1999 to Alliance Medical. In a follow up inspection of the 
facility, on January 27, 2000, we determined that the objectionable 
conditions were corrected, however, Alliance Medical closed their 
Apopka facility last year.
    Question. If not, what is the agency doing to stop this activity?
    Answer. When we learned of the activity, like the one which 
occurred at Apopka, we immediately inspected the facility and issued a 
list of Inspectional Observations that noted seven serious violations. 
Further, as a result of the inspection, FDA issued a Warning Letter 
siting these violations. A followup inspection was then conducted to 
see if the objectionable conditions were corrected.
               the dangers of contaminated biopsy forceps
    Question. FDA has previously described single use biopsy forceps as 
a device that is ``high risk to reprocess.'' Nonetheless, reprocessed 
biopsy forceps have not been required to demonstrate that they are 
indeed safe and clean after reprocessing. Recognizing the potential 
harm from unclean forceps, FDA stated that it would consider regulation 
of such devices on a case-by-case basis. Over seven months ago, a 
citizen petition was filed requesting that FDA better regulate 
reprocessed biopsy forceps.
    Has FDA responded to this petition?
    Answer. FDA is currently considering, and has not yet responded to, 
the citizen petition requesting a change in the exemption status for 
non-electric biopsy forceps.
    Question. Will FDA require premarket submissions to show the safety 
of reprocessed single use biopsy forceps?
    Answer. FDA is currently considering the citizen petition 
addressing this issue, and has not yet decided how this issue should be 
resolved. We will be pleased to provide an update on this matter once 
we have responded to the petition.
      science used to review the safety of reused medical devices
    Question. The medical device trade press reported that one single 
use device reprocessor submitted an application for approval for a 
reprocessed Class III device which relied on 13 year old medical 
literature for its clinical studies.
    Is this type of literature typically considered acceptable for 
original device premarket approvals?
    Answer. Premarket approval, or PMA, applications must contain valid 
scientific evidence that supports the safety and effectiveness of the 
device. Valid scientific evidence includes scientific literature 
applicable to the device under review. FDA has received PMAs that 
contain literature as the primary valid scientific evidence to 
demonstrate reasonable assurance of the safety and effectiveness of the 
device. However, for most PMAs, prospective clinical information is 
necessary to determine the safety and effectiveness of devices and we 
expect that PMAs for reprocessed devices to meet the same data 
requirement as the original devices.
    Question. Will it be considered acceptable for reprocessed device 
premarket approvals?
    Answer. PMAs for reprocessed devices are subject to the same data 
requirements as the original devices. The specific data requirements 
will vary, depending on the device and the risks it presents.
                            testing for cjd
    Question. Several news articles have reported deaths from CJD that 
may be tied to contaminated surgical instruments. One such article was 
from March last year, reporting out of Denver, Colorado. Another was in 
October last year in New Orleans.
    What is the FDA doing to ensure that all reused medical devices are 
sterilized in a manner that would eliminate potential CJD 
contamination?
    Answer. At this time, there is no scientific consensus that there 
is a proven method to decontaminate and sterilize medical devices and 
absolutely ensure total elimination of the CJD prion under all 
circumstances. The best available evidence at this time indicates CJD 
prions on medical devices can be inactivated if rigorous procedures are 
followed. The World Health Organization, or WHO, recommends, for 
example, that the device be immersed in sodium hydroxide and heated in 
a gravity displacement autoclave at 121  deg.C for 30 minutes; cleaned; 
rinsed in water, and subjected to routine sterilization. Not all 
devices can withstand this treatment.
    FDA shares Senator's concern regarding potential exposure of 
patients to Creutzfeldt-Jakob disease, or CJD, as a result of 
inadequate or improper decontamination and sterilization of medical 
devices. However, we wish to emphasize that our concern is not limited 
to the reuse of single use devices but also extends to reusable, 
multiple use, medical devices. We are most concerned about medical 
devices that are used on known or suspected CJD patients that come in 
contact with high infectivity tissues such as brain, spinal cord, and 
eyes. It appears that the highest risk medical devices are surgical 
instruments used in neurosurgery and in ophthalmology procedures.
    FDA has convened a work group to identify medical devices that are 
high risk for transmission of the CJD prion and to evaluate the 
adequacy of existing CJD guidelines for decontaminating and sterilizing 
medical devices. The work group includes representatives from other FDA 
centers as well as from the Centers for Disease Control and Prevention. 
The work group has identified infection control guidelines for handling 
CJD contaminated devices published by the WHO, draft guidelines 
published by Canada's Laboratory Center for Disease Control, and other 
guidance published by various professional associations. While there 
are many similar recommendations in these guidelines, there also are 
some conflicting recommendations. The majority of the CJD guidelines 
recommend disposing any CJD contaminated medical device whose materials 
or other characteristics prevent it from undergoing the above 
procedure.
    One of the most critical factors in preventing CJD transmission 
among patients is the hospital's access to, and proper use of, 
appropriate autoclaving equipment.
    Question. Does the agency have confidence in the ability of 
reprocessors to eliminate prions through such sterilization?
    Answer. FDA is reasonably confident that any commercial reprocessor 
who passes FDA's good manufacturing practice inspection should be able 
to follow the World Health Organization recommendations for 
decontaminating devices, or similar guidelines. This does not 
necessarily ensure that all prions will be eliminated, because at this 
time, there is no scientific consensus that there is a proven method to 
decontaminate and sterilize medical devices and absolutely ensure total 
elimination of the CJD prion under all circumstances.
   standards for demonstrating safety and efficacy of reused devices
    Question. The general principle behind this requirement was that a 
reused device should meet the same standards that a new device is 
required to meet. The public expects that all medical devices that they 
may be subjected to would meet the same high FDA standard for safety 
and efficacy.
    I have recently been troubled by reports that the FDA may not 
require reprocessor's PMAs to be of the same high standard as 
innovators' PMAs. The trade press has been suggesting that FDA may 
allow reprocessors to submit one application for a wide variety of 
devices within a certain category. As the agency, I am sure is aware, 
small changes in a device may alter its' properties including its 
ability to be safely cleaned substantially.
    Will the FDA require a PMA for each different model of reprocessed 
device?
    Answer. FDA will consider each type of reprocessed device on an 
individual basis. Some models of devices are so similar that these can 
be combined in a single PMA. Only closely related variations of the 
same type of device should be grouped in one submission or application. 
FDA advises reprocessors to examine device groupings that original 
equipment manufacturer's have developed in previous submissions as 
models that may be useful in considering the groupings of reprocessed 
single use devices. In these situations, data and information in the 
submission or application must support the safety and effectiveness of 
the entire group of devices in a PMA submission.
    Question. Will the standards be identical to those required for 
OEMs?
    Answer. Yes, the scientific standards for approval or clearance of 
a reprocessed single-use device will be the same as those for an 
Original Equipment Manufacturer, OEM. Any person who engages in 
activities triggering the Act's premarket requirements must comply with 
all applicable provisions of the Act. When a reprocessor, whether a 
third party or a hospital engages in reprocessing of a single-use 
device, it is responsible for submitting premarket submissions and 
proposed labeling, if applicable, to the FDA. FDA will review these 
submissions on the same basis, and using the same criteria, that would 
apply if the reprocessor were an OEM.
                              orphan drugs
    Question. This grants program is really the only hope for those 
Americans who suffer from one of the many rare diseases. Many of these 
diseases are fatal.
    With the completion of the genome project, it must be expected that 
the Orphan drug program will receive a lot of new applications. Since 
by definition these diseases are rare, they are unlikely to have a lot 
of corporate sponsorship and therefore, the orphan drug product grants 
are very important to encourage development of cures for rare diseases.
    Given the expectation of increased numbers of applications, has the 
FDA increased the level of funding in their budget request over and 
above last year's $12.54 million.
    Answer. The funding level of the Orphan Grants Program increased in 
2001 by $1 million for a total of $12.5 million. In fiscal year 2001, 
the Agency will award $12,514,000 for orphan product grants. No 
additional increases are planned in fiscal year 2002.
    Currently, the orphan drug product grant money is only available to 
researchers after they have received approval for their investigational 
new drug. This can act as a barrier to some researchers because they do 
not have funding for the research necessary for the initial submission.
    Question. Would FDA support legislative changes that would allow 
grant money to also be used to develop the new IND?
    Answer. Under the orphan products grant program, funding is 
presently limited to human clinical studies under a valid Investigation 
New Drug exemption. This has served and continues to serve a critical 
need in orphan product development. Appropriations for this FDA program 
are limited and not all meritorious applications can be funded. We do 
not believe that broadening eligibility for these funds to drugs that 
are not yet being investigated under a valid IND is appropriate at this 
time.
                             generic drugs
    The Drug Price Competition and Patent Term Restoration Act of 1984, 
commonly known as Hatch-Waxman lay the ground work for encouraging the 
availability of lower-cost generic drugs. One of its provisions 
encouraged would be generic manufacturers to challenge the validity, 
enforceability or infringement of a patent on a drug by providing the 
generic challenger 180-days of marketing exclusivity. This provision 
has been gutted by an agency interpretation of the ``pediatric 
exclusivity'' provisions of the Food and Drug Administration 
Modernization Act of 1997 (FDAMA), which allows for the generic's 
exclusivity to run concurrently with an innovator's pediatric 
exclusivity rather than consecutively. The 1984 law at 21 U.S.C. 
355(j)(5)(b)(iv) reads, ``if the application contains a certification 
described in subclause (IV) of paragraph 2(A)(viii) and is for a drug 
for which a previous application has been submitted under this 
subsection concerning such a certification, the application shall be 
made effective not earlier than one hundred eighty days after--
  --The date the Secretary receives notice from the applicant under the 
        previous application of the first commercial marketing of the 
        drug under the previous application
  --The date of a decision of a court in an action described in clause 
        (iii) holding the patent which is subject of the certification 
        invalid or not infringed''.
    Question. Given the use of the words ``not earlier than'' above, 
would not a reasonable interpretation be that the agency has discretion 
to allow for the 180 days to start later ie., after the pediatric 
exclusivity has expired?
    Answer. To date, FDA has not encountered a situation where 
pediatric exclusivity and 180-day generic exclusivity have actually 
overlapped. FDA has, however, received numerous comments from members 
of Congress, industry, and the general public, opining on the proper 
interpretation of the intersection of these two provisions should such 
a situation arise. In response to the widespread public interest in 
this subject, FDA opened a public docket to receive comments on the 
intersection of pediatric exclusivity and 180 day exclusivity and more 
particularly on the question of whether the two provisions should run 
concurrently or consecutively. When the docket closes, FDA will 
consider the letters, comments, statute, legislative history, and 
relevant court cases to develop an agency position on this complex 
question of statutory interpretation.
                             tissue safety
    Question. How much have you set aside in this budget request for 
the implementation of the new tissue rules?
    Answer. In fiscal year 2002, FDA estimates the Agency will dedicate 
$4.35 million to the regulation of human tissue. The funds include 
costs associated with field inspections, medical device and biologics' 
expenditures, and systems costs. The majority of this money will be 
used to implement the new tissue rules. This is part of the President's 
fiscal year 2002 budget request for FDA.
    FDA published three proposed rules to implement the proposed 
approach that included requirements for establishment registration and 
product listing; donor suitability determination; and good tissue 
practices. FDA issued the final rule for establishment registration and 
product listing on January 19, 2001. Under the final rule, 
establishments involving conventional tissues, such as bone, sin and 
corneas were required to register and list their products by May 4, 
2001, and new establishments must register and list within 5 days after 
beginning operations. Establishments that manufacture non-conventional 
tissue, such as hematopoietic stem cells, are required to register and 
list beginning January 19, 2003. The proposed rules for the donor 
suitability determination and good tissue practice have not been 
finalized.
    Question. I sent a letter asking for this budget information in 
January, when do you think FDA is likely to respond?
    Answer. The Agency's response to your letter of January 9, 2001 to 
Dr. Henney requesting information on the cost to the FDA of fully 
implementing regulations regarding human cellular and tissue-based 
products will be forwarded soon. We apologize for the delay in 
responding.
    It has come to my attention, that one tissue processing company is 
engaged in the practice of pooling multiple samples of tissue from 
multiple donors. This may be extremely hazardous and could transmit 
disease to a large number of individuals. The tissue processing 
company, RTI received a waiver from New York to continue this practice.
    Question. Does the FDA agree that it would be very unwise to allow 
any waivers to tissue processors to allow them to pool samples from 
many different individuals? I hope that FDA can firmly commit to 
avoiding such an approach.
    Answer. FDA has concerns about the practice of pooling tissues from 
multiple donors during processing. In general, FDA believes that the 
risks associated with pooling tissues from multiple donors appear to 
far outweigh any identified medical benefits. Risks include exposure 
and possible cross-contamination from one tissue to another tissue of 
such infectious disease agents as viruses, enveloped and non-enveloped, 
bacteria, fungi, and prions, including known and emerging infectious 
agents. This could result in exposure of many more recipients than 
would occur from a single contaminated donation. Additionally, pool 
processing of tissues would make it difficult or impossible to 
investigate a problem with donated tissues based on an adverse reaction 
in a recipient because the investigation would need to deal with a 
large number of donations and a large number of other recipients. Due 
to these considerations, FDA's January 8, 2001, proposed rule Current 
Good Tissue Practice for Manufacturing of Human Cellular Tissue-Based 
Products; Inspection and Enforcement, provides that human cells and 
tissue shall not be pooled, that is, placed in physical contact or 
mixed in a single receptacle, during manufacturing. However, the 
proposed rule would permit an establishment to request an exemption or 
alternative from any donor suitability or good tissue practice 
requirement. FDA's Director of the Center for Biologics, Evaluation and 
Research, CBER, would have the discretion to grant an exemption or 
alternative based on a finding that such action is consistent with the 
goals of preventing the introduction, transmission, and spread of 
communicable disease and that scientific supporting documentation 
justifies the exemption and the proposed alternative satisfies the 
purpose of the requirement. FDA currently is reviewing comments to this 
proposed rule.
                            latex allergies
    Question. Latex allergies have been on the increase over the past 
few years. Deaths associated with latex allergies have been reported to 
FDA.
    It has recently been found that when food handlers use latex gloves 
and in particular powdered gloves that some of the latex proteins can 
contaminate the food. This is very problematic for someone who is 
highly allergic to latex.
    Arizona is the first State to modify their food code to prohibit 
the use of latex gloves by food handlers. The State did an economic 
analysis of the alternatives to latex gloves including vinyl gloves and 
found that restaurants and other establishments would not have their 
expenses increased by moving to vinyl rather than latex gloves. Rhode 
Island and Michigan are now considering following Arizona's lead.
    Is FDA aware of the increasing problem of latex allergies and the 
problems suffered by those who are exposed to latex due to food 
handlers wearing latex gloves?
    Answer. Yes, FDA is aware that NRL gloves have been reported to 
cause allergic reactions in some individuals who wear latex gloves 
during food preparation and even in individuals eating food prepared by 
food employees wearing latex gloves. In the latter group, three reports 
suggest a severe reaction. FDA has received newspaper and journal 
articles, anecdotes from latex-sensitive people, government pamphlets, 
and other information on the emerging health problem of latex 
allergies. We are aware of experimental and clinical data that 
demonstrate: natural latex proteins can be allergenic; natural latex 
proteins bind to cornstarch; and, aerosolized powder from NRL gloves is 
allergenic and can cause respiratory allergic reactions. Published 
studies indicate that airborne glove powder may be an agent for 
sensitizing non-allergic individuals. In general, prolonged, chronic 
exposure is required to become sensitized to NRL, although genetic 
predisposition plays a role. One literature report concludes that NRL 
proteins may be rapidly transferred to objects by contact with powdered 
latex gloves.
    The occurrence of allergic reactions to latex proteins through 
prolonged and repeated exposure to the skin, and through repeated 
inhalation, is well documented. While the majority of published reports 
in the peer-reviewed medical literature describe allergic reactions to 
NRL, the Agency is aware of three published reports that describe 
serious allergic reactions in persons following the consumption of food 
allegedly contaminated with NRL protein. We are currently gathering and 
evaluating reports of allergic reactions to food that has been in 
contact with latex products and plan to report the status of that 
investigation at the 2002 Conference for Food Protection.
    Question. Is FDA aware that Arizona has now banned the use of latex 
gloves by food handlers?
    Answer. Yes. A press release from Arizona announcing the approval 
of its new food safety requirements was issued on April 23, 2001. The 
new rules will become effective on October 3, 2001 and are the first 
update in 25 years to the Arizona requirements for food safety in 
restaurants and other food establishments. The new rules are a result 
of a three-year collaborative effort between government agencies, 
including FDA, food service industry representatives, school districts, 
and other concerned parties.
    The new Arizona food service regulation requires people in food 
establishments handling foods that are ready-to-eat without additional 
cooking must use utensils or non-latex gloves when touching the food to 
prevent contamination.
    Question. What is FDA doing to solve this problem nationwide?
    Answer. FDA has acted on the public health concerns regarding the 
use of latex gloves by alerting the food service industry through Food 
Code activities, of the potential for serious adverse reactions in 
latex-sensitive individuals. As background, FDA has provided for over 
50 years assistance to local, State, tribal, and federal jurisdictions 
that directly regulate food establishments at the retail level. One of 
the important ways the FDA, along with the Food Safety Inspection 
Service and the Centers for Disease Control and Prevention, performs 
that function is through the development of the Food Code. The Food 
Code consists of model requirements for safeguarding public health and 
ensuring food is unadulterated and honestly presented when offered to 
the consumer.
    Regarding activities taken by FDA to study safety issues associated 
with latex, including disposable latex glove use in food handling and 
preparation, FDA's Center for Food Safety and Applied Nutrition, CFSAN, 
is actively reviewing its policy on the use of disposable NRL gloves in 
food operations. A thorough examination of the use of disposable 
natural rubber latex gloves will be conducted as a part of this review.
    ``Healthy People 2010,'' the Surgeon General's national initiative 
that outlines a comprehensive nationwide health promotion and disease 
prevention agenda, has also addressed this concern. FDA led the 
development of the food safety objectives for the initiative, and 
specifically mentioned allergy risks associated with food, including 
the use of latex gloves.
    In April 2000, safety concerns of the use of latex gloves was an 
agenda item at the Conference for Food Protection, CFP. The Conference 
holds a biennial meeting of Federal, State, industry, consumer, and 
academia representatives who strive to assure the adoption of science-
based criteria for the preparation, service, or sale of safe food at 
the retail level.
    A request was brought forth to the 2000 Conference to ban the use 
of latex gloves in retail food facilities. CFSAN representatives 
suggested that food facilities consider supplying gloves made of 
alternative materials for use by their food workers to protect food 
workers themselves from possible latex sensitivity, and to prevent the 
possible transmission of latex proteins via food to latex-sensitive 
consumers. The CFP final recommendation was for FDA to find out more 
information on the use of latex gloves in the retail food setting and 
report back to the Conference at its 2002 meeting. The FDA plans to 
report the status of its policy review at that meeting.
    Question. Does FDA have the authority to ban the use of latex 
gloves by food processors and food handlers including those in 
restaurants?
    Answer. Natural rubber latex (NRL) is an approved food additive 
under 21 CFR 177.2600 Rubber articles intended for repeat use. As such, 
NRL may be used in the manufacture of gloves used by food processors 
and food handlers, including those in restaurants. If FDA had a basis 
for concluding that the natural rubber latex in the gloves was not a 
safe food additive, it could propose the issuance of a regulation 
amending or repealing the regulation, in whole or in part. If FDA 
repealed the food additive regulation related to the use of NRL in the 
manufacture of gloves used by food processors and food handlers under 
section 409 of the Federal Food Drug and Cosmetic Act (21 U.S.C. 348), 
the use of NRL for such purpose would be deemed to be unsafe, and thus, 
unlawful under the Act.
    The agency is examining available information on potential risks of 
allergic responses to NRL from use in latex gloves worn by food service 
workers. To date the agency does not have sufficient evidence to 
propose to repeal the regulation in 21 CFR 177.2600 as to such use nor 
has anyone petitioned the agency to take such action. The agency has 
added a caution in the model guidelines for retail food service 
operations--the 1999 Food Code.
                     genetically modified organisms
    Question. What is FDA doing to go beyond its current regulatory 
proposal for the regulation of genetically engineered crops to prepare 
for the arrival of more complex biotech foods? Some examples of these 
are: genetically engineered salmon; modified farm animals like pigs or 
cows; or foods engineered to produce drugs, or high dosages of 
vitamins.
    Answer. Biotechnology researchers and companies are turning to 
animals to be both the manufacturing sites for biotechnology products 
and the recipients of biotechnology-derived products. Both areas are on 
the upswing and FDA has been working with a fledgling industry 
providing up-to-date communications to a concerned public.
    Genetically engineered animals contain new animal drugs. Under the 
Federal Food, Drug and Cosmetic Act, FFDCA, a ``drug'' includes 
``articles . . . intended to affect the structure or any function of 
the body of man or other animals''. Because an introduced genetic 
construct will of necessity ``affect the structure or . . . function'' 
of a genetically engineered animal, the genetic construct is a 
``drug.'' The genetic construct may also produce a protein that is a 
drug. Use of a new animal drug is considered ``unsafe'' under the FFDCA 
unless the FDA has approved an application for that particular use. 
Thus, unlike genetically engineered crops, genetically engineered 
animals are subject to the new animal drug approval process This 
process requires that sponsors demonstrate the safety of the new animal 
drug to both the animal and, for food-producing animals, to humans who 
eat the animal.
    The use of animals from food-producing species in the production of 
diagnostic kits and other biomedical products includes a special 
responsibility to plan for the ultimate disposition of culled animals. 
If animals are milked or they produce offspring, the planning should 
address safe disposition of the milk and offspring as well. Even though 
these animals are food species and are sometimes being grown in a farm-
like setting, they may not be suitable for use as human food or to be 
rendered and processed into an animal feed component.
    Ag-Biotech animals and products are coming closer to commercial 
feasibility and there has been a corresponding need by FDA to identify 
and to assist developers through the regulatory process. The public is 
becoming increasingly aware of these products as well, and FDA has 
given large numbers of presentations to scientific and industry 
associations and the press in the past year. Perhaps the best known 
example of a developing ag-biotech product is the growth hormone-
enhanced Atlantic salmon, currently under review at FDA. There is 
similar research ongoing in other fish species, invertebrates, 
chickens, pigs, goats, and cattle worldwide. There are corresponding 
increases in inquiries at the FDA for investigational applications and 
increased outreach to researchers who may not be aware of the need to 
obtain pre-market approval for their genetically engineered animals.
    FDA is requiring that the company proposing to market the 
genetically engineered salmon provide data that its salmon is safe for 
human consumption, and safe for the environment. FDA is contracting 
with the National Academy of Sciences/National Research Council to 
examine risks and risk assessment methods for animal biotechnology 
products. An expert committee of the National Research Council's 
Standing Committee on Biotechnology, Food and Fiber Production and the 
Environment will meet three times and include a public meeting to 
gather information and then prepare a brief consensus report 
identifying risk issues concerning products of animal biotechnology. 
The committee will probably include a review of animal cloning, use of 
viral vectors in genetically engineered animals, and other pressing 
scientific issues in animal biotechnology.
    Question. Does the agency have resources adequate to the task as 
these foods begin to approach market?
    Answer. The Animal Drugs and Feeds requested increase of $200,000 
in animal biotechnology for fiscal year 2002 will resource the first 
step in a program as these foods begin to approach market. With funds 
requested in fiscal year 2002, we will prepare guidances for industry 
explaining that animal biotechnology products are subject to premarket 
approval as new animal drugs and describing the information required to 
show safety and effectiveness for this class of products. In addition, 
as part of our surveillance efforts, FDA plans to develop an inventory 
of firms that are developing products derived from bioengineered 
animals.
    As more steps are taken, we will evaluate our need for additional 
resources. Additional steps needed as product lines begin to develop 
could include research and the development of guidance on whether 
various lines of transgenic animals can be safely crossbred and if so, 
how these crosses will be tracked; detection of unapproved transgenes 
in imported foods derived from animals, including seafood; evaluation 
of and monitoring of the effectiveness of various environmental 
containment strategies for genetically engineered fish and shellfish, 
birds, etc., that could become feral and become established in the 
environment.
    Biotechnology products in animals are diverse and currently mostly 
in the concept phase. The Animal Drugs and Feeds Program is currently 
spending, and will continue to need to spend, resources working with 
these entrepreneurs and scientists to address food safety, public 
health and environmental safety as these new companies and product 
lines are born.
                          mad cow disease/bse
    Question. As you know, I announced last month that I will be 
introducing legislation soon to strengthen our national defenses 
against the possible introduction of BSE (mad cow disease). One 
question that arises in preparing the bill is this:
    Given the need for coordination of our programs at the border, at 
feed mills and farms, and with our surveillance efforts, is there a 
need to identify a single, lead agency on mad cow issues?
    Answer. No, the current comprehensive effort is working well, with 
FDA continuing to work closely with USDA, State agricultural and other 
State agencies on implementation of the BSE regulation and on 
controlling imported products that might introduce BSE into the U.S. 
The Agency also contracts with the States, who have conducted 
approximately 80 percent of the inspections under the BSE regulation. 
FDA worked closely with USDA in developing the import alerts and 
bulletins issued by FDA, to ensure all animal products that might 
contain the BSE agent are identified and listed in the alerts and 
bulletins and are prevented from entering the U.S.
    FDA is also a member of domestic and international working groups, 
and chairs the Senior Executive Interagency Steering Committee. A major 
goal of these groups is to ensure that imports of products potentially 
contaminated with BSE do not get into the U.S. The Senior Executive 
Interagency Steering Committee assures coordination among agencies, 
especially in three main areas: integrated contingency planning in case 
BSE or variant Creutzfeldt-Jakob Disease, or vCJD, disease is found in 
the U.S; identification of and response to potential vulnerabilities in 
the U.S. to BSE and vCJD; and coordination of risk communication plans 
by the various agencies. The following organizations participate in the 
Senior Executive Interagency Steering Committee: Department of Health 
and Human Services Assistant Secretary for Science, FDA, CDC, NIH, 
USDA's APHIS, Foreign Agricultural Service, FSIS, White House Office of 
Science and Technology Policy, U.S. Trade Representative, U.S. Customs, 
Department of State, DOD, National Association of States Departments of 
Agriculture, National Association of Chief Livestock Health Officials, 
Association of American Feed Control Officials.
    An interagency working group on BSE started in 1996 with USDA's 
APHIS, FSIS and Agricultural Research Service, or ARS, FDA, NIH, CDC, 
and DOD represented. The purpose of the group is to share information, 
evaluate ideas and issues, and take suggestions back to participating 
agencies.
    FDA continues to coordinate activities among U.S. Customs, USDA/
APHIS and FDA, and is leading the efforts for developing procedures for 
multi-agency operations. From our experience the level of communication 
among these groups is excellent. A single, lead agency is not 
necessary.
    Question. And if so, which agency should that be?
    Answer. Although we believe a single lead agency is not necessary, 
if one is to be formed, it should be an agency that already deals with 
public health matters such as one of the agencies most experienced in 
these matters in DHHS.
              national center for food safety & technology
    Question. FDA provides scientific and administrative personnel, 
laboratory and pilot plant equipment, and funding to the National 
Center for Food Safety and Technology (NCFST) located near Chicago, 
Illinois. NCFST is a unique research consortium of scientists from 
academia, FDA, and food related industries. Funds to run the Center are 
also provided by the Illinois Institute of Technology.
    How much of your propose budget is to be designated for NCFST? How 
does that compare to previous funding levels?
    Answer. In fiscal year 2002, FDA plans to expend $3,000,000 in 
support of the National Center for Food Safety and Technology's--
NCFST--collaborative research activities. This collaborative research 
effort between government, academia, and private industry studies the 
food safety implications of emerging technology in food processing, 
packaging, and biotechnology. The NCFST is a cost effective resource 
for developing and exploring new technologies. By spreading the cost 
and risk of doing research, companies can control their costs while 
putting themselves on the cutting edge of new technology developments.
    NCFST's Internet web-site includes an announcement, ``Hire Our 
Graduates.'' The Master of Science degree program in food safety and 
technology or food process engineering educates students to be food 
safety experts for the private sector and for Federal and State 
regulatory agencies.
    Question. How many of NCFST's graduates are electing public service 
careers?
    Answer. The NCFST Masters Degree programs in Food Safety and 
Technology and in Food Process Engineering are relatively new. To date 
there have been two major categories of graduates from the programs: 
foreign students and part-time students already employed by industry. 
Most of the foreign students have returned to their native countries 
where they are putting the food safety training gained in the graduate 
program to use enhancing technological development in and safety of 
their countries' food supplies and exports. Part-time students have all 
been employed while participating in the graduate program; most in the 
food industry. Thus, NCFST has had no graduates available for placement 
with either FDA or USDA. They are in the process of stepping up 
recruitment of new students, particularly students that will feed into 
the U.S. job market, including FDA.
    Question. Are FDA's salaries competitive to attract these highly 
skilled graduates to the Federal workforce?
    Answer. We have no information on salaries earned by students 
returning to their native countries or by students already employed in 
the food industry that might me useful in determining salary 
comparability of the graduates to the Federal workforce.
                                tobacco
    Question. I am disturbed by reports that two tobacco companies are 
preparing to market a new tobacco product that they are calling a 
cigalette. It is basically candy a mint-flavored tobacco lozenge packed 
with nicotine. The companies are making health claims about this 
product-contending it is a reduced-risk alternative to traditional 
cigarettes.
    These are excerpts from a press release on Star Scientific's web 
site:
    ARIVA(TM) also is directed to conventional smokeless product users 
who want the option of choosing a smokeless tobacco product that 
contains less cancer-causing toxins (TSNAs) than conventional products, 
while avoiding the need to expectorate.''
    ``Mr. Perito added that several highly respected independent 
scientific and public health consultants, as well as members of the 
company's Scientific Advisory Board, had urged Star to accelerate the 
development of non-combustible tobacco products so as to provide adult 
tobacco users smokeless tobacco product choices that significantly 
reduce exposure to the cancer-causing toxins that are delivered in all 
conventional cigarette products (TSNAs).
    Are you familiar with this product? Will the FDA assert its 
jurisdiction under the Food, Drug and Cosmetic Act?
    Answer. While FDA has limited information about the product ARIVA 
obtained from news sources and Star Scientific's web site, the agency 
has asked the company to provide more. A company official has assured 
FDA that Star Scientific will provide the agency the requested 
information before the company test markets the product. The official 
declined to provide the information immediately but indicated that he 
would do so six to eight weeks before test marketing commences latter 
this year. The agency will carefully review the information it receives 
and determine whether it has jurisdiction over this product.
    As we all now know, the tobacco industry has repeatedly made claims 
of reduced risk that later proved to be unfounded, deceptive and, in 
far too many cases, lethal. ``Light'' cigarettes that boasted lower 
levels of tar in cigarette smoke were introduced in the 1960's with 
claims of less risk to smokers. In fact, the introduction of ``lights'' 
did not improve public health and may in fact have resulted in an 
increase in the incidence of disease.
    Today we face an increase in an entire new generation of products 
that promise to give smokers a safer alternative to quitting or not 
starting. In light of the IOM report, we know there is inadequate 
evidence to support these conclusions.
    Question. What actions is the FDA taking to protect Americans 
against new deceptions that could cost even more lives?
    Answer. In Brown and Williamson v. FDA, the Supreme Court limited 
FDA's ability to take action regarding tobacco products. As pointed out 
in the recent IOM report, A Blowing Smoke, a great deal more 
information is needed to determine the scientific validity of the 
reduced risk claims that appear on certain products being introduced to 
the market. The agency would take appropriate action if we determine 
that any such products fall under our jurisdiction.
                                 ______
                                 

               Questions Submitted by Senator Tim Johnson

                     fda's office of generic drugs
    Question. How do you anticipate the Office of Generic Drugs 
managing the prospect of a significant influx of abbreviated new drug 
applications, and has the administration requested an increase in 
resources to meet this demand?
    Answer. It is difficult to predict the submission rates for 
Abbreviated New Drug Applications, ANDA's. Currently, there is no 
expectation for a substantial increase in submission of ANDA's. 
However, we continue to streamline our processes to enhance the generic 
drug review process. We are able to accept more electronic submissions 
to streamline the review process. The new staff hired in the last 
fiscal year are now fully trained and are demonstrating high levels of 
productivity. We continue to examine every aspect of the review process 
to try to identify problem areas to be addressed. We also plan to 
revise the current system for amendment designation, major versus 
minor, to improve total review times. Other changes are also being 
explored.
    Question. Furthermore, does the administration plan on investing in 
a consumer education program designed to increase the awareness and 
safety of FDA approved generic drugs?
    Answer. In fiscal year 2001 we have embarked on several information 
campaigns directed at consumers and the pharmacy community. There is a 
belief among segments of the patient population that generic drugs are 
not as good as innovator products. In order for consumers to understand 
how we approve generic drugs, we need to provide more information so 
they understand the scientific basis behind our decisions. We want 
consumers to know that we stand behind the generic drugs that we 
approve and that they are pharmaceutically equivalent to the innovator 
product.
           fda efforts to prevent bse or ``mad cow'' disease
    Question. First, can you or Dr. Sundlof provide the subcommittee 
with an update on the compliance rate of U.S. feed mills and renderers 
w/the FDA feed mixing ban?
    Answer. As of May 23, 2001 the out-of-compliance rate is 24 percent 
for those firms known to be handling prohibited material as of their 
last inspection. These include renderers, feed mills and protein 
blenders.
    Question. What steps is FDA willing to take if any feed mill or 
rendering plant does not meet your September 30, 2001 deadline for 
compliance with the FDA ``feed mixing ban?''
    Answer. FDA's goal is to inspect 100 percent of renderers, protein 
blenders and feeds mills and to inspect as many ruminant feeders as 
possible. We hope to realize 100 percent compliance with the 1997 feed 
rule. FDA is prepared to initiate enforcement action as appropriate 
under the Federal Food, Drug and Cosmetic Act, to ensure compliance 
with the feed rule. Actions will be taken at a level that corresponds 
to the risk to public health, and may include issuance of warning 
letters, product seizure, injunctions, or prosecution, in addition to 
firm-initiated recalls to remove adulterated or misbranded products 
from the market. The States also may initiate enforcement actions, and 
FDA will work in cooperating with its State counterparts.
    Question. Will the re-programmed funds ($2.4 M in fiscal year 2001) 
within FDA's Center for Veterinary Medicine be sufficient to handle the 
inspections and reinspection?
    Answer. In fiscal year 2001, FDA has planned on spending 
approximately $3.8 million, but given the recent events related to BSE 
in Europe, FDA has adjusted its plan. FDA has internally shifted 
resources from lower priority programs to cover domestic inspections, 
import entry review, and import label examinations. In fiscal year 2001 
FDA also tapped into the Contingency Fund for one-time funds of $2.4 
million to support usual costs of BSE-related activities. These funds 
covered additional State contracts for domestic inspections, training 
for FDA employees, and importers, scientific equipment for laboratory 
analysis, methods development and validation, IT enhancements, market 
studies to identify food and cosmetic products containing specific risk 
products, and overtime and travel costs incurred by the field. FDA 
believes the total fiscal year 2001 spending for BSE activities will be 
approximately $14.0 million. We expect this will be sufficient to 
complete 100 percent inspection of all feed mills, renderers and 
protein blenders by the end of fiscal year 2001 as well as re-
inspection of facilities found non-compliant with the 1997 feed 
regulation.
    The Agency has requested an additional $15.0 million for fiscal 
year 2002 for BSE activities. With $13.100 million requested by the 
Animal Drugs and Feeds program.
           fda advisory committees' ``conflict of interest''
    Question. In the testimony you have submitted to the subcommittee, 
you stated that, ``Research expenditures by the pharmaceutical industry 
alone have tripled since 1990. More and more complex products, which 
arrive at FDA's gate for preclinical and clinical studies design 
consultation, for marketing application review, and, for post-approval 
continuing reassessment are products of the growing NIH research budget 
and of academic and industry research fueled by NIH. We will ensure 
that FDA will not become a bottleneck in getting these public health 
breakthroughs to the public while serving as the trusted, independent, 
efficient gatekeeper it is now.'' However, in recent years, concerns 
have been raised about the truly ``independent'' nature of the 
activities of FDA Advisory Committees. In fact, the Los Angeles Times 
did a series of articles on FDA advisory committees and the conflicts-
of-interest that are pervasive among members of the committees. The 
findings included that some FDA advisory committee members are allowed 
to remain as consultants or researchers for the same companies whose 
products they are evaluating. In the case of Rezulin (rez-uh-lin), 
which was pulled from the market last March due to its alleged 
connection with nearly 400 deaths, it was noted that FDA officials 
collaborated closely with the makers of the drug, providing ``inside 
information and favors at critical moments throughout the development 
and marketing of Rezulin.'' To the agency's credit, FDA released an 
internal report acknowledging that the agency committed ``possible 
missteps'' in its handling of this case.
    However, what assurances can you give this subcommittee that your 
budget request will help FDA address these apparent conflicts of 
interest in the drug approval process so that we can be assured that 
the public's trust is not being violated, nor their health jeopardized, 
by these advisory committees?
    Answer. All government advisory committees are regulated by the 
Federal Advisory Committee Act of 1972. FDA adheres to a comprehensive 
and detailed program with multiple levels of review to ensure that the 
agency receives up-to-date, unbiased opinions from its advisory 
committee members. FDA engages in a vetting process that takes action 
on every reported financial interest. The majority of conflict of 
interest waivers are granted for relatively minor financial interests 
often unrelated to the matter before the committee. Whenever a conflict 
of interest waiver is granted, it is publicly announced at the 
beginning of the meeting and becomes part of the official record. In 
addition, the screening process and the criteria used to determine if a 
waiver should be granted are documents that can be publicly released. 
Members with conflicts of interest that exceed the agency guidelines do 
not participate in the advisory committee meeting.
    FDA's conflict of interest program for advisory committee members 
is subject to review by the Department of Health and Human Services and 
the United States Office of Government Ethics, OGE. During the most 
recent audit of our conflict of interest program, OGE reported that not 
only is FDA's program a sound one that met all requirements, but that 
it should be regarded as a model for other Federal agencies. Finally, 
it should be noted that the opinions of the advisory committees are not 
binding on the agency, and the final decision whether to approve a drug 
or not lies with FDA.
    Question. And, in your opinion, what can FDA do to increase 
transparency in the drug approval process to ensure that FDA continues 
to be the independent, efficient gatekeeper that you perceive it to be?
    Answer. We believe that FDA has already made progress in increasing 
the transparency in the drug approval process. The advisory committee 
procedures for the Center for Drug Evaluation and Research, CDER are 
designed to facilitate public participation at open advisory committee 
meetings. For example, unless it is otherwise exempt from disclosure 
under applicable laws, written information provided to members of an 
advisory committee in connection with an open advisory committee 
meeting convened by CDER is made available for public inspection and 
copying before or at the time of that meeting. CDER currently discloses 
these documents on the FDA Home Page at the following address: 
www.fda.gov/ohrms/dockets/ac/acmenu.htm. In addition, we also attempt 
to publicize on our internet site all relevant information about drug 
approvals. This may include information directed to the consumer in 
plain language or directed to health care providers. FDA also continues 
to invest resources in public information efforts with the goal of 
providing complete and accurate information to the American public in 
as timely a manner as possible.
                              flu vaccine
    Question. In recent months, I, along with Senator Wyden and several 
colleagues in the House of Representatives, requested the GAO to 
conduct a study on the most recent shortage of influenza vaccine during 
the 2000-2001 flu season. This report is due to be released shortly and 
I hope that it will provide some insight as to what improvements can be 
made and what lessons can be learned from the experiences of the past 
year.
    Fortunately, in SD, we were spared a large-scale epidemic but the 
shortage of influenza vaccine left many high risk individuals without 
any access to vaccine. In fact, several health care facilities that 
deal almost entirely with high risk individuals reported to my office 
of having to pay as much as 3 to 10 times higher prices per dose 
through secondary distribution channels in order to have any supply at 
all.
    When looking into the challenges of last year, it appears that 
there was little communication between agencies and jurisdictions, 
including the FDA, CDC, and State health officials, on what 
contingencies were in place to deal with a shortage as large as the one 
experienced last year.
     Can you offer any insights as to what role the FDA can and is 
playing in the development of an action plan to deal with possible 
future shortages of this and other vaccines, many of which have a 
tremendous impact on the health outcomes of our nation's most 
vulnerable populations?
    Answer. The demand for influenza vaccines has been increased by the 
general acceptance that inactivated influenza vaccines are safe and 
effective, by the recognition that increased risk for complications 
from influenza infection is related to both age and underlying medical 
conditions, and by the implementation of federal reimbursement for 
vaccine for Medicare beneficiaries. The supply of vaccine is dependent 
upon, among other things, the capacity and interest of pharmaceutical 
companies to manufacture the vaccines. The supply has increased from 
approximately 20 million doses per year in the mid 1980's to 
approximately 80 million doses per year by the late 1990's. Production 
of the vaccines is unique among vaccine products in that the viruses in 
the influenza vaccine are changed on a frequent basis and the time for 
making each year's new vaccine and distributing the vaccine for use is 
fixed at 6-8 months. Influenza viruses are constantly evolving to 
escape immunologic inhibition, which requires change in the vaccine to 
ensure vaccine effectiveness. Each change in vaccine virus means that 
manufacturers must work rapidly to determine how to optimize yield of 
the new virus. In addition, the Center for Biologics Evaluation and 
Research must make reagents to permit standardization of the potency of 
the vaccines.
    This past year, one of the influenza vaccine manufacturers, 
Parkedale, stopped producing and marketing vaccine; this was, 
presumably, a business decision. We will provide for the record a list 
of those actions being taken to ensure against a possible future 
shortage of the flu vaccine as well as other vaccines.
    [The information follows:]
Actions Being Taken to Ensure Against Future Vaccine Shortages
    Advise national and international public health groups such as the 
World Health Organization WHO, the Centers for Disease Control and 
Prevention, CDC, the National Institutes of Health, and the National 
Vaccine Program Office for the purpose of selecting new influenza 
viruses to be used in vaccine manufacturing. Every year in January, 
CBER's Vaccines and Related Biological Products Advisory Committee 
meets to make United States Public Health Service recommendations for 
the strains to be used in making vaccines and inform manufacturers of 
the choices;
    Perform serologic testing to determine whether current vaccines 
produce antibodies that can inhibit the new influenza viruses 
considered for use in vaccines;
    Work with manufacturers throughout the year to collect information 
on the capability of new influenza viruses to be used for large-scale 
production of influenza virus vaccines;
    Perform applied research to develop reassortant influenza viruses 
adapted to grow better in eggs than the naturally occurring viruses. 
The high growth reassortants help to increase the yield influenza virus 
in each batch produced and reduce the time required for large- scale 
manufacturing;
    Produce, calibrate, and distribute reagents to be used in 
determining the potency of vaccines. For each new virus included in 
vaccine, the reagents include a virus-specific preparation of influenza 
antigens and a virus specific antiserum. CBER also provides the 
antiserum to CDC and WHO for national and international surveillance of 
influenza viruses;
    Test on all influenza vaccines used in the United States. The 
testing is emphasized during early production steps to avoid later 
rejections of material. All manufacturers' working seed viruses are 
tested by CBER to ensure that the antigenic characteristics of the 
viral hemagglutinin match the recommended reference virus. Approved 
seed viruses are used to produce monovalent components of the trivalent 
vaccine. Monovalent vaccines are tested by the manufacturers and CBER 
for potency, and the results from both are used to assign a potency 
value to each monovalent component for use in formulation of trivalent 
vaccine;
    Conduct complete reviews of all lot-release submissions for the 
influenza virus vaccines;
    Work with manufacturers of virus vaccines to develop additional 
vaccines that may be used in the future such as live-attenuated 
influenza virus vaccine and purified protein hemagglutinin vaccine 
produced by recombinant DNA technology; and,
    Facilitate manufacturing changes that increase vaccine production.
                     direct to consumer advertising
    Question. A New York Times article from earlier this week cited a 
study by the National Institute for Health Care Management that 
spending on prescription drugs increased by almost 19 percent last 
year, to $132 billion. This study further noted that, ``the recent rise 
in pharmaceutical spending is due, in large measure, to the growth in 
sales of a relatively small number of medicines. Most of these drugs 
are blockbusters many Americans have come to know by name and see 
advertised more and more.''
    As you well know, due to FDA's rule change on direct-to-consumer 
advertising approximately four years ago, television ads for 
prescription drugs are now very common. In fact, pharmaceutical 
companies spent an estimated $1.7 billion on TV ads in 2000, 50 percent 
more than what they spent in 1999, more than double the 1998 amount. 
Interestingly, the United States is only one of two countries (New 
Zealand is the other) where prescription drugs are aired during prime 
time television hours. Proponents of the FDA's policy shift say it 
creates a more informed patient because viewers see the ads, then have 
an intelligent give-and- take with a doctor. Critics say the shift 
creates more business for pharmaceutical companies by encouraging 
patients to seek out expensive, potentially dangerous drugs that they 
know little about.
    In fact, of the estimated 200 television drug spots aired since the 
1997 FDA rule change, the agency has cited 32 for non-compliance and 
has asked the companies to change all or part of the ads.
    In your testimony, you stated that, ``. . . it has become 
increasingly clear that FDA's eye must be equally focused on the full 
life cycle of all the products that we (FDA) regulate--post market as 
well as pre-market activities and developments''.
    Therefore, what assurances can you give us that the FDA is 
monitoring direct to consumer advertising of prescription drugs?
    Answer. Since issuing the 1997 draft guidance on broadcast, TV, 
radio, and telephone advertisements, the Division of Drug Marketing, 
Advertising and Communications, DDMAC, has had in place a process that 
alerts reviewers to submission of broadcast advertisements, and 
prioritizes and expedites their review. In addition, most product 
sponsors voluntarily submit their broadcast advertisements for review 
and comment prior to using them. Thus, there are relatively few 
product-claim TV and radio advertisements that DDMAC has not seen and 
commented on at some point in their production. We believe that the 
high degree of use of this voluntary, prior-review system, together 
with our prioritizing review of mandatory submissions, assures us of a 
highly effective level of monitoring of broadcast advertisements.
    Question. Furthermore, is the FDA completing any analysis or study 
of the impact the 1997 rule change has had on prescription drug prices 
and spending?
    Answer. In 1997 FDA published a draft guidance, not a rule change. 
In the final guidance we stated that we would assess the impact on the 
public health. Since FDA does not regulate pricing, our surveys will 
not measure this factor.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    Question. User Fees The President's budget includes an increase in 
current user fees to enhance the review process for new human drugs and 
biological products, and an increase in existing fees for applications, 
drug producers, establishments, and approved products.
    What enhancements will be made to the review process, and what 
effect will these enhancements have on the length of time it takes for 
review and approval?
    Answer. The agency is committed to performance goals for fiscal 
year 2002 that are detailed in an attachment to a November 12, 1997 
letter from the Secretary of Health and Human Services and referred to 
in the legislation that reauthorized PDUFA. Those goals include the 
review of 90 percent of priority applications within 6 months, 90 
percent of standard applications within 10 months, and 90 percent of 
manufacturing supplements requiring prior approval in 4 months.
    Question. What effect will increased user fees have on the cost of 
the approved products?
    Answer. These increased fees are not expected to have any impact on 
the cost of approved products. The value of FDA review activities to 
industry far weighs the cost of the fees. According to the most recent 
data, for 1998, reported by the Pharmaceutical Research and 
Manufacturers Association, PhRMA, in its Pharmaceutical Industry 2000 
Profile, 4.4 percent of total spending on U.S. industry R&D was 
allocated to ``Regulatory: IND and NDA''. This corresponds to a total 
of $757.79 million, out of a total of $17.22 billion in U.S. industry R 
& D spending that year. PDUFA fees paid by industry in 1998 totaled 
$117.12 million, about 15 percent of the amount industry attributes to 
``Regulatory: IND and NDA'', and less than 1 percent, 0.006, of U.S. 
industry spending on drug R&D. Fee collections in fiscal year 2000 
totaled $145.98 million, and this again represents less than 1 percent 
of the PhRMA estimated spending of $22.48 billion by U.S. industry in 
2000. Despite the fact that user fees represent only a tiny fraction of 
R & D costs, the PDUFA program is a significant factor in increasing R 
& D cost-efficiency. Industry researchers have cited the FDA review 
processes and efficiency as the world benchmark. According to the 
Outlook 2001 report published by the Tufts Center for the Study of Drug 
Development, focused consultation with the FDA during the drug 
development process has been shown to help shorten clinical development 
times. The value to industry is reflected in the volume of company 
requests for meetings for consultation with FDA during drug 
development. Approximately 1,500 such meetings were requested and 
scheduled in fiscal year 1999 and more than 1,100 meetings were 
requested and scheduled in fiscal year 2000. The FDA reviewers' 
preparations and follow-up to these meetings are performed in addition 
to the work performed for review of submitted applications.
                            food irradiation
    Question. The Food and Drug Administration has been identified as 
the government agency, in the United States, with the responsibility of 
reviewing a proposed revision to food irradiation standards put forth 
by the Codex Alimentarius Commission's Committee on Food Additives and 
Contaminants. Concern has been expressed to me that the proposed 
revisions may undermine food safety in the United States.
    What efforts is the FDA undertaking to ensure that food safety 
standards in the United States will not be compromised because of 
international agreements?
    Answer. FDA undertakes a variety of efforts to ensure that food 
safety standards in the United States will not be compromised because 
of international agreements. These efforts include the Agency's active 
participation in relevant international standard setting organizations 
such as the Codex Alimentarius Commission. FDA's decision to 
participate in these types of organizations is based on the assumption 
that there exists a unique opportunity for the United States to join 
the international community in formulating and harmonizing food 
standards and ensuring their global implementation. FDA's 
participation, in the Codex for example, also allows the Agency to play 
a role in the development of codes governing hygienic processing 
practices and recommendations relating to compliance with those 
standards.
    FDA also believes that activities aimed at improving foreign food 
and cosmetic regulatory systems and product safety can also improve the 
agency's ability to fulfill its public health mission and statutory 
obligations here in the United States. FDA intends to play an active 
role in appropriate international forums and to strike a balance 
between its public health mandate and other international issues 
identified by FDA's stakeholders. FDA's participation in the 
international arena has had and continues to have a very positive 
impact on the ability of FDA to protect the health of American 
consumers. The Agency's regulatory and scientific expertise has been 
instrumental in enhancing the strength of international standards for 
foods and cosmetics and in improving the foreign regulatory systems 
that oversee the production and safety of products exported to the 
United States.
    The FDA will continue to implement the food safety standard 
established by the Federal Food, Drug, and Cosmetic Act. A food that 
has been intentionally subjected to radiation is not allowed for sale 
in the United States unless the use of radiation was in conformance to 
an authorizing regulation issued by the FDA. The FDA only issues such 
regulations if evidence shows that the use of radiation is safe.
    The Sanitary and Phytosanitary Agreement, SPS Agreement, of the 
GATT encourages WTO member states to base their sanitary and 
phytosanitary measures for food safety on standards developed by the 
Codex Alimentarius Commission. This agreement, however, does not 
require countries to change their level of protection for human health. 
In sum, Codex Standards are non-binding international guidelines that 
WTO member states should consider when maintaining or establishing 
measures to protect public health.
    The current Codex Standard for Irradiated Foods, adopted in 1983, 
recommends approval of foods irradiated to an average dose of 10 kGy. 
Current FDA regulations on irradiated food generally allow a dose less 
than that of the Codex Standard although FDA allows a higher dose for 
spices and for meats consumed in the NASA space flight program. The 
32nd and 33rd sessions, 2000 and 2001, of the Codex Committee on Food 
Additives and Contaminants, CCFAC, discussed proposed draft revisions 
to the Codex General Standard for Irradiated Foods. The proposed 
revisions would remove the restriction on the maximum dose, based on a 
1997 report of an expert panel convened by the World Health 
Organization. FDA scientists have participated in those discussions. 
The 33rd CCFAC agreed to forward amended revisions to the 24th session 
of the Codex Alimentarius Commission for preliminary adoption at Step 5 
in the 8 step Codex standard elaboration process. The current draft 
revision of this standard is contained in the report of the 33rd 
Session of the CCFAC, ALINORM 01/12A, Appendix VII, which is available 
from the Codex Alimentarius Website, http://www.codexalimentarius.net/.
    FDA supports the Codex goal of developing international standards 
and participates in discussions to ensure that standards are science-
based. While considering Codex Standards, FDA will continue to 
implement the food safety standard established by the Federal Food, 
Drug, and Cosmetic Act.
                              food safety
    Question. I am concerned that the FDA reports that microbial food-
borne disease causes approximately 76 million illnesses, 325,000 
hospitalizations, and 5,000 deaths each year. Despite these figures, 
the number of inspections that the FDA performs has fallen steadily 
during the last 25 years. The President's budget request would only 
allow inspection at ninety-five percent of domestic firms.
    What level of funding would allow the FDA to perform inspections at 
all domestic firms?
    Answer. FDA is currently in the process of developing long range 
estimates for resource needs associated with the inspection of all 
domestic food establishments. The estimates will include a range of 
estimated resources needed to conduct the inspections, assumptions in 
determining the cost estimate, and caveats that indicate what types of 
uncertainties or changes would alter the estimates.
    Question. How does the FDA justify a request that intentionally 
falls short of inspecting all domestic firms?
    Answer. FDA believes that food safety funding needs to continue to 
be a multi-year effort. FDA's request recognizes that finite resources 
are available and focuses on highest risk. This budget is needed to 
maintain that focus. As resources permit, we can inspect medium/low 
risk establishments with greater frequency.
    Inspections, while important, need to be viewed within a broader 
food safety program. We complement our inspection coverage with 
surveillance activities, research and risk assessment, and educational 
activities at all levels, consumers, industry, manufacturers, and 
processors, to provide a complete food safety program to ensure the 
U.S. food supply remains the safest in the world.

                         Conclusion of Hearings

    Senator Cochran. This concludes today's hearing. Additional 
hearings are scheduled by the subcommittee. Our next hearing 
will be on Thursday, May 17, at 10 o'clock in the morning, here 
in room 138 of the Dirksen Senate Office Building. At that 
time, we will hear from Federal, industry, and local witnesses 
on the subject of market concentration in agriculture. Until 
then, the subcommittee stands in recess.
    [Whereupon, at 11:07 a.m., Thursday, May 10, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
to the call of the Chair.]


AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    MATERIAL SUBMITTED BY AGENCIES NOT APPEARING FOR FORMAL HEARINGS

    [Clerk's note.--The following agencies of the Department of 
Agriculture did not appear before the subcommittee this year. 
Chairman Cochran requested these agencies to submit testimony 
in support of their fiscal year 2002 budget request. Those 
statements follow:]

                       DEPARTMENT OF AGRICULTURE

                        Rural Utilities Service

    Prepared Statements of Blaine D. Stockton, Acting Administrator

    Mr. Chairman, Members of the Committee, it is a pleasure to present 
to you the President's fiscal year 2002 Budget request for the Rural 
Development Mission Area of USDA.
    The Rural Development Mission area was established in 1994 by the 
Federal Crop Insurance Reform and Department of Agriculture 
Reorganization Act. The mission area consists of three agencies, the 
Rural Business-Cooperative Service (RBS), the Rural Housing Service 
(RHS), and the Rural Utilities Service (RUS). These agencies are 
responsible for delivering programs authorized by the Consolidated Farm 
and Rural Development Act, the Farm Security Act of 1985, the Rural 
Electrification Administration Act of 1936, the Cooperative Marketing 
Act of 1926, the Agricultural Marketing Act of 1946, the Housing Act of 
1949, and the Rural Economic Development Act of 1990, as amended. The 
mission area also administers the rural portion of the Empowerment 
Zones and Enterprise Communities (EZ/EC) Initiative and the National 
Rural Development Partnership, a nationwide network of rural 
development leaders and officials. This listing of responsibilities is 
suggestive of the remarkably wide variety of responsibilities in Rural 
Development's purview, to improve the quality of life for rural 
Americans.
    Rural Development assists rural individuals, communities, and 
businesses obtain the financial and technical assistance needed to 
address their diverse and unique needs. This financial and technical 
assistance may come solely from Rural Development or be combined with 
assistance from one of the numerous public and private organizations 
involved in the development of rural communities. Rural Development 
agencies deliver over 40 different loan, loan guarantee, and grant 
programs in the areas of business development, cooperative development 
housing, community facilities, water supply, waste disposal, electric 
power, and telecommunications, including distance learning and 
telemedicine. Rural Development staff also provide technical assistance 
to rural families and community leaders to ensure success of those 
projects it has financed. In addition to their loan-making 
responsibilities, Rural Development staff are also responsible for the 
servicing and collection of a loan portfolio that exceeds $80 billion.
    Rural Development's impressive aggregate statistics display one 
dimension of the successes of the program funding the Committee has 
provided. However, statistics do not reveal the human side of these 
successes. Later, in testimony from the agencies, you will hear clearly 
how the program funding the Committee provides dramatically improves 
the lives of rural Americans. These success stories are remarkable.
                    rural development budget request
    Mr. Chairman, the President's commitment to improving rural America 
is reflected in the budget request for fiscal year 2002. The Rural 
Development budget request for program level is $12.4 billion, 
supported by budget authority of $2.4 billion. This reflects the 
commitment to maintain program performance at current levels. Special 
one- time supplemental funding provided last year is not requested, nor 
is continuation of several small pilot projects, since they generally 
can be funded under existing authorities. I will now discuss the 
requests for specific programs.
                         rural housing service
    The budget request for the programs administered by the Rural 
Housing Service (RHS) totals $5.8 billion. This commitment will improve 
housing conditions in rural areas, and in particular improve 
homeownership opportunities. The request for single family direct and 
guaranteed homeownership loans totals $4.2 billion, which will assist 
55,800 households who are unable to obtain credit elsewhere to purchase 
a home of their own. This level of construction activity will stimulate 
almost 36,000 jobs in rural areas. The RHS request includes $32 million 
for housing repair loans and almost $30 million for housing repair 
grants, which will be used to improve 12,000 existing single family 
houses, mostly occupied by low income elderly residents.
    We are proposing a multi-family housing request of $114 million for 
direct loans, almost $100 million for guaranteed loans, $43 million for 
farm labor housing loans and grants, and about $694 million in rental 
assistance. These program levels support construction of new units and 
rehabilitation of existing units, many of which are occupied by female 
heads of households, generally elderly females or single mothers, with 
annual incomes averaging under $8,000. In addition, the budget includes 
$694 million for rural Rental Assistance payments. These payments are 
used to reduce the rent in rural rental housing projects, to no more 
than 30 percent of the income of very low-income families. This level 
of funding will provide rental assistance to approximately 43,000 
households, most of which would be used for renewing expired contracts 
in existing projects.
    The request for community facilities funding totals almost $250 
million for direct loans, $210 million for guaranteed loans, almost $13 
million for grants, and just under $6 million to continue the Rural 
Community Development Initiative (RCDI). Community facilities programs 
finance rural health facilities, child care facilities, fire and safety 
facilities, jails, education facilities, and almost any other type of 
essential community facility needed in rural America. These funds will 
support 4,000 beds in new or improved elder care facilities, 180 new or 
improved health care facilities, 170 new or improved fire and rescue 
facilities, 90 new or improved child care centers, and 70 new or 
improved schools.
                  rural business-cooperative services
    One key to creating economic opportunity in rural areas is the 
development of new business and employment opportunities. But, local 
lending institutions frequently do not have the capacity or capital 
needed to sustain local businesses and generate new growth in rural 
areas. Rural Business-Cooperative Services (RBS) programs, particularly 
the Business and Industry (B&I) loan guarantee program, were enacted to 
supplement the efforts of local lending institutions in providing the 
capital.
    Based on recent experiences, we expect that every dollar of Rural 
Business Enterprise Grant funding will be leveraged with $2.40 of 
funding from other sources, while each dollar of Intermediary Relending 
Program funds will be leveraged with $3.76 from other sources.
    The RBS budget request for fiscal year 2002 totals just over $1.1 
billion, the bulk of which represents $1 billion for the B&I loan 
guarantee program. This level of funding for the B&I program alone will 
create or save over 28,000 jobs in rural America. Almost $41 million is 
requested for the Rural Business Enterprise Grant program, $3 million 
for the Rural Business Opportunity Grant program, $38 million for the 
Intermediary Relending Program, almost $15 million for Rural Economic 
Development loans, over $6 million for Rural Cooperative Development 
Grants, and just under $15 million for Empowerment Zone and Enterprise 
Community Grants, for communities designated in the second round of 
this program. In total, this program level should create or save over 
71,000 rural jobs.
                        rural utilities service
    The Rural Utilities Service (RUS) provides financing for electric, 
telecommunications, and water and waste disposal services that are 
essential for economic development in rural areas. The level requested 
for programs administered by the RUS is $4.9 billion, which is 
comprised of $2.6 billion for electric loan programs, $495 million for 
rural telecommunication loans, $300 million for Distance Learning and 
Telemedicine loans, $27 million for Distance Learning and Telemedicine 
grants, $884 million for direct and guaranteed Water and Waste Disposal 
loans, and $529 million for Water and Waste Disposal Grants, and $4 
million for Solid Waste Management Grants.
    Contingent upon the enactment of authorizing legislation, 
approximately $2 million may be available for a loan and grant program 
to finance broadband transmission and local dial-up Internet service in 
rural areas. This will improve access to high speed, high capacity data 
transmission to under-served rural areas. It is estimated that about 10 
percent of rural areas lack local Internet service.
    The Electric program funding will benefit about 2.8 million 
consumers from systems improvement, through upgrading almost 190 rural 
electric systems. Approximately 60,000 jobs will be created as a result 
of facilities constructed with Electric program funds. Almost 50,000 
new subscribers will receive telecommunications service, over 200,000 
existing subscribers will receive improved service, and about 16,000 
jobs will be generated as a result of facilities constructed with 
Telecommunications funds. Under the Distance Learning and Telemedicine 
programs, approximately 300 schools will receive distance learning 
facilities and 150 health care providers will receive telemedicine 
facilities. Over 42,000 jobs will be generated as a result of 
facilities constructed with water and waste disposal program funds, as 
600 rural water systems and about 330 rural waste systems are developed 
or expanded in compliance with the Safe Drinking Water Act and Federal 
and State environmental standards.
    The Rural Telephone Bank (RTB) was established in 1972 to provide a 
supplemental source of credit to help establish rural telephone 
companies. This has proved to be remarkably successful, and efforts 
have been underway to privatize the bank. In 1996, the RTB began 
repurchasing Class ``A'' stock from the Federal government, thereby 
beginning the process of transformation from a Federally-funded 
organization to a fully privatized banking institution. The fiscal year 
2002 budget reflects the Administration's commitment to a fully 
privatized RTB that does not require Federal funds to finance the loans 
it makes. The 2002 Budget does however, include administrative funds 
for developing a detailed plan for privatization for legal support and 
to administer the existing loan portfolio.
                        administrative expenses
    These requested program levels provide ambitious targets for 
accomplishments, for which the Committee will be proud. However, 
delivering these programs to the remote, isolated, and low income areas 
of rural America requires administrative expenses sufficient to the 
task. Over the last several years, Rural Development has administered 
growing program levels, and new programs, with a stable level of Salary 
and Expense (S&E) funding. From fiscal year 1996 through fiscal year 
2000 Rural Development's annual program levels increased by 43 percent. 
Over that same period Rural Development's S&E appropriation increased 
1.4 percent. Although no Reductions in Force were implemented, Rural 
Development curtailed employment, and Full Time Equivalent (FTE) 
staffing fell 15 percent. But, in spite of lower employment, salary and 
benefits requirements took a larger and larger share of the total S&E 
available. In 1996, salary and benefits for employees took 70 percent 
of the total S&E. By 2000, with 1,168 fewer FTEs used, salary and 
benefits took 78 percent of S&E. With S&E rising only 1.4 percent, less 
was available for everything else, including travel, training, 
supplies, etc., to support loan underwriting; and servicing and 
automated systems development.
    For all these reasons, we urge the committee to fund the 
President's fiscal year 2002 requested for S&E of $596 million. Rural 
Development is very appreciative of the funding provided in the fiscal 
year 2001 appropriation for automated financial systems development, 
and funding the President's requests will allow Rural Development to 
continue to support the development of systems for guaranteed loans, 
multi-family housing loans, Rural Utilities Service systems 
modernization, and the Program Funds Control System. This funding will 
allow Rural Development to continue to address long delayed automated 
systems development needs, but these are major projects and will not be 
completed in one year. Rural Development's loan portfolio exceeds $80 
billion and funding is a joint venture requiring both adequate program 
and administrative funding. One cannot be achieved without the other.
    Mr. Chairman, Members of the Committee, this concludes my formal 
statement. The Acting Administrators and I would be glad to answer any 
questions you may have. Thank you for the opportunity to appear before 
you to discuss the Rural Development budget request.
                                 ______
                                 
    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to present the President's fiscal year 2002 budget for the 
Rural Utilities Service (RUS). We appreciate the work and support you 
and the other members of this subcommittee have provided for a strong, 
dependable infrastructure in the rural United States.
    All aspects of a rural society work together to make a strong 
nation. Safe, affordable, modern utility infrastructure is an 
investment in economic competitiveness and serves as a fundamental 
building block of economic development. Technology, regulatory, and 
market structure changes, combined with an aging utility infrastructure 
are occurring in the electric, telecommunications, and water sectors. 
Without the help of USDA through the RUS programs, the citizens of 
rural communities will have a more difficult time-sharing in the basic 
quality of life.
    The nearly $42 billion RUS loan portfolio includes investments in 
approximately 2,000 electric and telecommunications systems and 7,500 
small community and rural water and waste disposal systems serving 
rural America. This local/Federal partnership is an ongoing success 
story. Eighty percent of the Nation's landmass continues to be rural, 
encompassing 25 percent of the population. In a fragile economy, this 
infrastructure investment spurs economic growth, creates jobs and 
improves the quality of life in Rural America.
                       responsive and responsible
    The proposed budget will enable RUS to continue to respond to the 
demand in rural America to meet the needs brought on by the rapidly 
changing markets and technologies. The ability of borrowers to respond 
quickly to changing conditions is a key to the public-private 
partnership between RUS and its borrowers. RUS continues to streamline 
policies and offer borrowers more flexibility in financing, while 
ensuring safe, reliable modern utility service to rural Americans.
                            electric program
    The RUS Electric Program budget proposes $3.7 million in budget 
authority to support a program level of $2.62 billion. The President's 
Budget requests $3.6 million in budget authority for a hardship program 
level of $121.1 million. The budget proposal provides a $294 million 
funding level for the municipal rate loans, a $500 million funding 
level for Treasury rate loans, and $1.6 billion funding level for 
guaranteed loans through the Federal Financing Bank, which do not 
require any subsidy budget authority. In addition, the budget proposal 
provides $80,000 in budget authority for a $100 million loan guarantee 
program for private sector loan guarantees. To more effectively manage 
both the telecommunications and electric programs and to respond to 
borrower needs, we are requesting the budget authority be provided in a 
single, unrestricted amount for electric and telecommunications 
programs.
    RUS is also working with power supply borrowers to secure badly 
needed peak power and transmission needs. As you each are aware, our 
demand for generation and transmission has outgrown capacity.
    A good example of how RUS electric programs can affect the quality 
of rural communities is in Douglassville, Texas. Bowie-Cass Electric 
Cooperative of Douglassville developed a construction work plan 
totaling $17,872,000 to construct new facilities, extend service to 
approximately 3,800 new customers and improve existing facilities. Of 
this, RUS electric program loan funds will provide financing in the 
amount of $6,300,000, which will leverage $2,700,000 of supplemental 
financing, $72,000 in aid to construction contribution and $8,800,000 
of the Cooperative's generated funds. A portion of these funds will be 
used to extend service to a new Skills Center in the State that will 
employ 10-15 people. This center will work with local colleges to 
produce the highly skilled technicians the employers of the area 
require. Without this type of training, employers in this rural area 
would be faced with employee shortages and might be forced to relocate.
        facilitating advanced telecommnications in rural america
    The uniform deployment of advanced telecommunication technologies 
in urban and rural areas alike has been recognized as a must if the 
nation is to achieve the greatest return on its infrastructure 
investment. In 1993, Congress passed the Rural Electrification Loan 
Restructuring Act (RELRA), which mandated that all future RUS financed 
telecommunications infrastructure be capable of supporting data 
transmission at a minimum rate of one megabit-per-second--or at 
broadband service levels. As a result, RUS financing provided since the 
passage of that important act has resulted in increased investment in 
advanced technologies for rural areas served by RUS borrowers. Since 
receiving this mandate:
  --The deployment by RUS borrowers of fiber optic cable has doubled, 
        representing one in every ten miles of cable in rural local 
        loops financed by RUS.
  --RUS has financed $1.5 billion in fiber optic facilities and $1.1 
        billion in digital switching systems and enhanced feature 
        software.
  --And today, RUS financed borrowers provide 99 percent digital 
        switching.
    RUS will continue to finance only telecommunications plants that 
can be characterized as ``no roadblocks to broadband'' and, as such, is 
compatible with the Telecommunications Act of 1996, especially the 
universal service principles of Section 254 and the encouragement for 
broadband of Section 706. While significant progress is being made in 
the deployment of advanced telecommunications technologies in rural 
areas, RUS will continue to focus on the challenges remaining in 
providing rural access to the digital economy and its benefits:
  --serving the unserved and underserved;
  --keeping pace with new industry changes in a competitive market; and
  --addressing special needs of economically distressed regions and 
        those areas with limited resources, such as our Native American 
        communities.
                    water and environmental programs
    This budget seeks $530 million in budget authority for Water and 
Waste Disposal (WWD) grants; $3.5 million in budget authority for solid 
waste management grants; and $56 million in budget authority to support 
over $809 million in WWD direct loans and $75 million in guaranteed 
loans.
    The budget request earmarks $20 million for Colonias along the 
U.S.-Mexico border, $16.2 million for technical assistance and training 
grants, $9.5 million for the circuit rider technical assistance 
program, $20 million for rural Alaskan villages, and $27 million in 
budget authority for loans and grants in Federally designated 
Empowerment Zones and Enterprise Communities. Our budget request will 
also allow third-party service providers such as rural water circuit 
riders to make over 56,000 water and wastewater system contacts to 
communities needing technical assistance and, through a clearinghouse 
effort, take more than 20,000 telephone calls and an estimated 11,000 
electronic bulletin board and web site contacts.
    As a result of WWD strong technical assistance efforts, both from 
staff and third-party service providers/contractors, loan delinquency 
and loan losses will remain low. Currently, only 1 percent of 
approximately 7,600 borrowers are delinquent. Since the inception of 
the water and waste disposal program, less than 0.1 percent of the 
amount loaned has been written off.
    WWD programs improve the quality of life and health of an estimated 
1.4 million Americans in needy communities each year by providing 
access to clean, safe drinking water. In addition, new or improved 
waste disposal facilities are provided to an estimated 500,000 people 
living in rural areas. A field network of Rural Development employees 
deliver the program through ``hands-on'' technical and financial 
assistance under the Rural Community Advancement Program.
    A project funded in Columbus, New Mexico illustrates the kind of 
impact the program can have. Columbus is a small-incorporated community 
on the border with Mexico in Southern Luna County, which had no 
existing wastewater treatment infrastructure. The low-income (MHI = 
$10,781) predominately Hispanic population was served by septic tanks, 
cesspools, and in some cases privies. Ground water contamination was a 
major concern. The Village owns a small industrial park, which is 
largely empty, but does house US Customs and a 24-unit Multi- Family 
Housing project funded by RHS/USDA. It was served by a small-
dilapidated lagoon sewer plant. EPA found it in non-compliance and was 
threatening large daily fines. RUS provided two Section 306C Colonias 
grants totaling $1,936,600 which were combined with a $300,000 
Community Development Block Grant to build a gravity flow sewer 
collection system along with a lagoon wastewater treatment facility 
serving the Village. A small part of the project upgraded and expanded 
the plant at the industrial park, providing safe wastewater treatment 
to the RHS apartment complex along with others. Part of the new system 
plant included constructive wetlands, which provide a safe haven for 
waterfowl and migrating birds. As an unforeseen benefit, a small 
rowboat provided through the project ended up being used during severe 
flooding conditions to rescue families from their flooded properties, 
one of which had 12 family members stranded on the roof of their mobile 
home. Columbus has recently received additional CDBG funds and is now 
expanding the collection system to serve the fringe areas of the 
community.
    The Water and Waste Disposal program has been very successful since 
its inception over 60 years ago. A total of over $25 billion in 
financial assistance has been provided, about 70 percent of that in the 
form of loans; approximately 45 percent of the total has been provided 
during the past 10 years. Indications suggest, however, that needs for 
water and waste disposal systems are still significant and are likely 
to grow as a result of expanding population in rural areas, changes to 
water quality standards, drought conditions, and similar factors. The 
application backlog for assistance continues to total about $3 billion 
each year. Over the last three years RUS has assisted 1,124 borrowers 
in moving up to commercial credit in accordance with its graduation 
requirement. The loans paid off as a result of this effort totaled 
nearly $680 million.
                     outreach to the needest people
    RUS strives to increase its program outreach, participation, and 
delivery to the most needy rural people. This goal addresses the heart 
of our mission. We combine our technical and financial resources to 
reach out and assist those communities, tribes and other groups with 
limited resources. The RUS outreach efforts have touched the vast 
expanse of our country-from rural Alaskan Villages to Colonias along 
the U.S.-Mexico border communities in the Mississippi Delta and the 
great needs of Native Americans.
    Since the earliest days of rural electrification, this agency has 
focused special attention on tribal communities. One of our earliest 
electric borrowers was the Navajo Nation. In telecommunications, five 
out of the seven tribally owned telephone companies are RUS borrowers. 
The significant RUS investments in utilities in Alaska provide service 
to some of the most remote native Alaskan villages.
    RUS investments in drinking water and wastewater projects serving 
tribal and rural Alaskan communities have increased by nearly 400 
percent since fiscal year 1993, and continue to grow. RUS is uniquely 
dedicated to helping unserved and under-served communities. Nearly 
sixteen million dollars were earmarked in fiscal year 2001 to benefit 
Native Americans. For fiscal year 2002, the President's proposed budget 
earmarks $24 million for Native Americans, of which $15.75 million is 
proposed to be used for water and waste disposal loans and grants. 
Additionally, we are intensifying coordination of funds with the Indian 
Health Service and State and other Federal agencies.
                       telecommunications budget
    This year's budget proposes $300 million in Treasury rate loans and 
$120 million in loan guarantee authority. This $420 million in loans 
can be provided for a minimal subsidy cost of $300,000. In addition, 
the budget proposes $1.7 million in budget authority to support $75 
million in hardship loans to the poorest, neediest, and highest cost to 
serve areas.
    The budget also reflects the Administration's commitment to 
privatize the Rural Telephone Bank and therefore, does not request any 
budget authority to support lending for fiscal year 2002. This will 
result in a $3.8 million savings in budget authority. Today, the bank 
operates as a supplemental lender to entities eligible to borrow funds 
from the RUS program. A privatized bank would be able to expand or 
tailor its lending practices to go beyond the current limitations 
imposed as a government lender, as well as use its substantial loan 
portfolio and cash reserves to extend favorable credit and terms to 
smaller, rural companies. Privatization, therefore, should be pursued 
in a manner consistent with the bank's enabling legislation so that it 
continues as a private lender that helps meet the growing capital 
demands of the rural telecommunications industry.
                   distance learning and telemedicine
    Distance learning and telemedicine technologies are having a 
profound impact on the lives of rural residents. The Distance Learning 
and Telemedicine (DLT) program administered by RUS is helping to 
facilitate the deployment of advanced technologies to our rural schools 
and health care centers. By assisting rural schools and learning 
centers in gaining access to improved educational resources over 
advanced broadband networks rural students and teachers have access to 
educational opportunities not available before. And by assisting rural 
hospitals and health care centers in gaining access to improved medical 
care by linking to urban medical centers for clinical interactive video 
consultation, distance training of rural health care providers, 
management and transport of patient information, and access to medical 
expertise and library resources health care in rural areas takes on a 
whole new dimension. Building on advanced telecommunications 
infrastructure, distance learning and telemedicine initiatives are not 
only improving the quality of life in rural areas, but are making 
direct contributions to promoting electronic commerce in rural areas. 
Telemedicine projects are providing new and improved health care 
services and benefits to rural residents, many in medically under-
served areas. Distance learning projects provide funding for computers 
and Internet hookups in schools and libraries and promote confidence 
in, and understanding of, the world-wide-web and its benefits to 
students and young entrepreneurs. Since this program's inception in 
1990, nearly $94 million in grants and over $12 million in loans have 
been made in 383 projects across the US, from rural Upstate New York to 
the Mississippi Delta, and from the Great Plains to the isolated 
valleys of California. Projects have been funded in 44 states and three 
territories, including 49 projects totaling nearly $14.5 million that 
benefit Native Americans and their tribal communities.
    Maverick County is one of the poorest counties in Texas and the 
nation. The hospital district does not have enough beds for the demands 
of the community and there is a severe shortage of nurses to staff more 
patient beds. Ninety percent of the clinic patients have household 
incomes below poverty level. Grant funds--in the amount of $326 
thousand--provided by RUS have provided telemedicine and distance 
learning capabilities between Fort Duncan Medical Center and the new 
Rosita Valley Clinic serving the colonias in Maverick County and the 
Traditional Kickapoo Tribe of Texas. As a result, the project expects 
to complete 1,200 interactive telemedicine consults annually and to 
increase the number of patients receiving specialized medical care by 
25 percent. A second grant has also been awarded in the amount of $348 
thousand to expand the project. This second phase will provide 
additional personnel and equipment to include the communities of Eagle 
Pass, Quamado, Seco Mines, El Indio, and the Kickapoo Indian 
Reservation. Over 36,000 residents will benefit!
    For the DLT program, the budget proposes $300 million in Treasury 
rate loans, at a zero subsidy cost, and $24.945 million in grants.
    grants and loans to provide rural towns with broadband services
    Through a one-year pilot program, Congress made $2 million in 
grants and $100 million in treasury rate loan funds available to 
encourage telecommunications carriers to provide broadband service, and 
local dial-up Internet Service to rural consumers where such service 
does not currently exist. This program will provide grants and loan 
funds, on an expedited basis, to communities of up to 20,000 
inhabitants. Loans are made at the Treasury rate of interest for a 
period equivalent to the life of the financed assets, not to exceed 10 
years.
    Due to the need for this program, the budget includes $2 million in 
grants and $100 million in lending authority, at zero subsidy costs, to 
implement permanent authority. Broadband networks in small, rural towns 
will facilitate economic growth and provide the backbone for the 
delivery of increased educational opportunities over state-of-the-art 
telecommunications networks.
    In the rural Mississippi counties of Okibbeha and Winston, there 
were no prospects for the delivery of broadband communications services 
until an RUS loan--in the amount of $3.3 million from the Broadband 
pilot program--was approved for Wireless Land Technologies, Inc. Funds 
are being used to provide broadband data services over a wireless 
network connection to the local communities, benefiting over 3,000 
subscribers in the first two years. In addition, the technology 
provides the platform for the delivery of telemedicine services. Four 
medical centers in the service area will operate on a Virtual Private 
Network and connect to other health care and medical institutions. 
Through this network, these medical centers will share resources and 
medical expertise in administering patient care. As an added benefit, 
local businesses requiring secure data connections may also use this 
type of network.
                                 ______
                                 

                     Agricultural Research Service

         Prepared Statement of Dr. Floyd P. Horn, Administrator

    Mr. Chairman, and members of the Subcommittee, I appreciate the 
opportunity to represent the Agricultural Research Service (ARS) and to 
present our budget for fiscal year 2002. As you know, Mr. Chairman, as 
the principle intramural scientific research agency of the U.S. 
Department of Agriculture, our mission is to develop new knowledge and 
technology, and disseminate information essential to solving 
agricultural problems that are broad in scope and have a high national 
priority. ARS is a problem-solving agency, dedicated to sustaining a 
viable food and agricultural economy; preserving our environment; 
enhancing human health and nutrition; and ensuring affordable, 
abundant, high quality food and fiber for the American consumer. ARS 
helps ensure that our farmers and ranchers and the agricultural 
industry overall, remain competitive in both domestic and world 
markets. In addition, ARS conducts research to support Federal action 
and regulatory agencies and provides scientific expertise and resources 
to the Executive Branch and Congress. The fiscal year 2002 budget is 
responsive to this mission.
                fiscal year 2002 budget recommendations
    Let me now turn to our budget recommendations for fiscal year 2002. 
The President's budget for ARS research is $915,591,000, an increase of 
$18,756,000 over fiscal year 2001. The Budget also proposes a fiscal 
year 2002 funding level for the ARS Buildings and Facilities account of 
$30,462,000.
    Mr. Chairman, as in previous years, this budget proposes the 
termination of prior year earmarked research projects which will enable 
the redirection of resources to higher priority research initiatives. 
The Administration believes that taxpayers' dollars must be spent on 
the highest priority needs of national significance. The savings 
achieved through the proposed terminations, $34,282,000, will be 
applied to the agricultural research initiatives recommended by the 
President. The initiatives proposed in this budget include:
  --Emerging and Exotic Diseases and Pests of Plants and Animals
  --Agricultural Genomes/Bioinformatic Tools
  --Invasive Species (Weeds/Pests)
  --Biotechnology Risk Assessment
  --Biobased Products and Bioenergy
Emerging and Exotic Diseases and Pests of Animals ($5,000,000)
    Emerging diseases are caused by previously unidentified pathogens 
or new manifestations of ``old'' diseases that appear in animal 
populations. Reemergence of known diseases often occur after long 
quiescent periods or upon introduction of a new pathogen into a native 
animal population in a new geographical area. Microbial pathogens are 
continually adapting to new ecological niches. Exotic pathogens and 
pests, once introduced into a new geographic area, can explode into an 
epidemic due to the absence of effective control measures such as 
vaccines, drugs, lack of resistance in host animals, and limited 
resources to effectively manage the spread of these pathogens.
    The globalization of trade, increased international travel of 
people and movement of goods, and changing weather patterns provide new 
opportunities for the emergence and spread of infectious diseases such 
as bovine spongiform encephalopathy (BSE), also referred to as ``mad 
cow disease'' in Europe. BSE outbreaks in the United Kingdom and Europe 
have required the destruction of huge numbers of animals to control the 
disease outbreaks, and have caused billions of dollars of economic loss 
due to domestic and international trade embargoes. The human form of 
mad-cow disease, Creutzfeldt-Jakob disease, has claimed a number of 
lives. Research to improve methods of rapid and accurate detection, and 
new means to control emerging and or exotic pathogen threats are 
urgently needed to prevent economic losses and maintain animal well-
being.
    Specific program thrusts to be undertaken with the proposed funds 
include investigations to determine the nature and transmission of the 
BSE agent; the detection and diagnosis of BSE in live animals; and 
methods to develop environmentally friendly and inexpensive but safe 
disposal of carcasses and feedstuffs.
Emerging and Exotic Diseases and Pests of Plants ($1,782,000)
    Emerging and exotic plant diseases are increasingly becoming a 
serious problem in the United States. Their emergence or re-emergence 
is attributed to the introduction of pathogens into new geographic 
regions, modifications of environments that favor disease, changes in 
crop management practices, and genetic shifts in pathogen populations.
    Effective plant disease control depends on accurate and timely 
detection and identification of new pathogens. Preventing the 
introduction of exotic pathogens and controlling existing ones will not 
only safeguard the nation's crops but preserve the U.S.' export 
markets.
    ARS will use the proposed increase to develop more sensitive and 
accurate biological methods to rapidly identify and control plant 
pathogens, such as plum pox, Pierce's disease, and karnal bunt. The 
Agency will also conduct research to improve plants' genetic resistance 
by incorporating that resistance into the plant through conventional 
breeding and genetic engineering.
Biotechnology Risk Assessment ($3,000,000)
    Last year, the National Academy of Sciences issued a report which 
raised some concerns regarding pest resistant crops, particularly 
genetically-engineered ones. What are the long-term ecological impacts 
of genetically-engineered crops? What are the effects of pest protected 
transgenic crops on nontarget species? How can the buildup of resistant 
pest populations be prevented?
    With the proposed increase, ARS scientists will identify the 
potential risks of biotech crops. The research will reduce the risks 
associated with gene transfer from biotech crops to other species and 
the buildup of resistant pest populations. In addition, allergenic 
proteins in vegetables will be reduced, and the nutritional qualities 
of biotech food products will be improved.
Bioinformatic Tools to Support Agricultural Genomics ($4,500,000)
    U.S. agriculture faces formidable challenges, from emerging and 
exotic diseases and pests, water and soil pollution and degradation, 
new environmental regulations, climatic extremes, to the extinction or 
inaccessibility of genetic resources. These challenges must be met by 
harnessing the inherent potential of genetic resources.
    More rapid and efficient methods are needed to manipulate the 
useful properties of genes and genomes. Current methods rely on ever 
more accurate and comprehensive knowledge of genomic organization to 
efficiently characterize genes and elucidate their function. Genomics 
and biotechnology are vital for increasing the quality and safety of 
food products, developing improved crops and production efficiency, 
improving the accuracy of genetic selection, and identifying the genes 
responsible for disease and parasite resistance in animals and plants.
    With the proposed increase, the agency will develop bioinformatic 
tools and provide database support for all of ARS' animal, and plant, 
and microbial research programs. The bioinformatic tools will be used 
to analyze information from different databases and compare information 
within and across species. The large quantity of data that will be 
stored in databases will represent a quantum leap in developing 
technologies and information needed to address present and future 
agricultural problems.
Invasive Species ($5,000,000)
    Invasive weeds and pests cost the United States a staggering $122 
billion per year. Weeds reduce crop yields by about 12 percent and 
forage yields by 20 percent. Nearly half of the threatened and 
endangered plant species in the U.S. are at risk because of invasive 
weeds. Arthropod (insects and mites) pests destroy 13 percent of crop 
production.
    ARS will use the proposed increase to develop classical and 
augmentative biological control approaches, and areawide integrated 
pest management pilot tests for controlling invasive weeds and 
arthropod pests. In addition, the agency will conduct explorations in 
Europe, Africa, South America, Asia, and Australia to find natural 
enemies of particularly troublesome arthropod pests (e.g., Asian 
longhorned beetle, glassy-winged sharpshooter, pink hibiscus, mealybug, 
and imported fire ant) and weeds (e.g., leafy spurge, saltcedar, water 
hyacinth, kudzu, and melaleuca).
    Also with the proposed increase, an Internet-based information 
management system will be established with connections to the eight 
Federal agencies responsible for controlling invasive species. This 
system will facilitate program coordination and implementation of the 
National Invasive Species Management Plan which was recently adopted by 
the eight agencies through the National Invasive Species Council. The 
National Agricultural Library houses the national website and will 
assist with managing this information flow between cooperators.
Biobased Products and Bioenergy ($15,000,000)
    Development of biobased industries that use trees, crops, 
agriculture, and aquatic resources to make commercial products 
including fuels, electricity, chemicals, adhesives, lubricants, 
composites, and building materials is a priority for the 21st century.
    By expanding the development of biobased products and bioenergy, 
the demand for agricultural commodities will be increased which in turn 
will strengthen farm product prices and raise farm income. The products 
will generate new opportunities for business development and employment 
in rural America. Air pollution and greenhouse gas emissions will 
decrease. And U.S. dependence on imported oil will be reduced.
    ARS will use the proposed increase to improve the conversion of 
agricultural materials and wastes to biofuels. Converting agricultural 
materials and wastes to biofuels and coproducts will be improved by 
developing processing technologies needed to create 21st century bio-
refineries. Improvements in fundamental biochemical knowledge and 
technology breakthroughs will broaden the range of useful agricultural 
feedstocks from which bio-refineries can produce inexpensive biofuels 
and viable biobased products.
    Researchers will also develop new technologies to produce biobased 
products from agricultural commodities and byproducts. Through 
fundamental breakthroughs in biocatalysis, fermentation, biotechnology, 
and separation processes, new biobased products will be developed 
having novel functional properties for applications previously 
unattainable or met only by petroleum-derived or other nonbiobased 
products. New biobased products include biodegradable polymers, 
absorbents, coatings, lubricants, and imported gum substitutes.
Proposed fiscal year 2002 Pay Costs
    The President is proposing an increase of $18,756,000 for the 
anticipated fiscal year 2002 pay raise. These funds are critical for 
the agency to conduct an effective and responsive research program. 
Absorption of these costs would lead to reductions in the number of 
scientists and support personnel, and in equipment and supplies 
essential to carrying out the country's agricultural research 
priorities.
Proposed fiscal year 2002 Program Decreases
    The President is proposing the elimination of a number of research 
projects totaling $34,282,000 which were added to the fiscal year 2001 
appropriation bill. Taxpayer dollars should be used for the highest 
priority programs that meet critical national needs. The programs being 
proposed for elimination, while useful, do not meet these criteria. The 
savings achieved from the eliminated projects will be redirected to 
finance the high priority research initiatives recommended in the 
President's budget.
      proposed fiscal year 2002 buildings and facilities increases
    In order to attract and retain top scientists, solve the Nation's 
most critical agricultural problems, and address the research needs and 
priorities of the 21st century, ARS must have modern, state-of-the-art 
laboratories and facilities. Outdated, deteriorating laboratories 
adversely impact the quality of the research conducted. Many of the 
agency's laboratories were constructed half a century ago. Some are 
much older. They are in immediate need of major repair, renovation, or 
modernization. As part of its modernization program, ARS is requesting 
a total of $30,462,000. These funds will be used for the following 
facilities:
Plum Island Animal Disease Center, Greenport, New York ($3,762,000)
    Plum Island is the only site in the United States where research 
can be carried out on highly contagious animal diseases, such as foot 
and mouth disease. The center is also used by APHIS, which performs 
diagnostic work on foreign animal diseases that are an ongoing threat 
to U.S. livestock. In 1989, ARS and APHIS began to develop a long range 
plan for the modernization of their facilities at Plum Island. As part 
of the ongoing modernization program, ARS is requesting $3,762,000 for 
construction of coastal erosion control measures, improvements to the 
potable water distribution system, and clean-up of a construction 
debris site.
Regional Research Centers ($15,300,000)
    ARS' regional research centers were built in the 1930s. Investment 
in these centers is essential for ARS' scientists to conduct research 
which leads to a safer food supply, and new agricultural products and 
new uses for agricultural commodities.
  --Western Regional Research Center (WRRC), Albany, California 
        ($3,800,000).--In fiscal year 2002, ARS is requesting $3.8 
        million for Phase 2 construction of the Research and 
        Development Facility. Phase 2 will consist of renovation of 
        interior space, and plumbing systems.
  --National Center for Agricultural Utilization Research (NCAUR), 
        Peoria, Illinois ($6,500,000).--In fiscal year 2002, $6.5 
        million for Phase 1 construction is requested. Work will 
        include an upgrade of HVAC and electrical systems, installation 
        of a sprinkler system, and a stairway. Initially, bays on the 
        west end of the Central Wing will be renovated and designed for 
        expansion and tie-in with subsequent bays to minimize 
        disruption of research during construction.
  --Eastern Regional Research Center (ERRC), Wyndmoor, Pennsylvania 
        ($5,000,000).--In fiscal year 2002, ARS is requesting $5 
        million for construction of Phase 7 (Chemical Wing) and design 
        of Phases 8 and 9 (Power Plant and Engineering Research 
        Laboratory). Construction of Phase 7 will include renovation of 
        interior space, and replacement of mechanical, electrical and 
        plumbing systems.
Abraham Lincoln National Agricultural Library ($1,800,000)
    The National Agricultural Library is one of four national libraries 
in the United States and the largest agricultural library in the world. 
In 1991, the Library completed a comprehensive facility condition study 
which identified a number of building deficiencies. To continue the 
repair and modernization of the Library, ARS is requesting $1,800,000 
to upgrade major electrical distribution deficiencies.
U.S. National Arboretum ($4,600,000)
    The Arboretum was established by an Act of Congress in 1927 as a 
center for research and education in the plant sciences. Since 1958, 
the Arboretum has been open to the public. Many of the Arboretum's 
building systems have reached or passed their useful life expectancy. 
As part of the modernization of the Arboretum, ARS is requesting 
$4,600,000 for continuation of the greenhouse complex renovation, 
design of a new main entrance, and design of the administration 
building modernization.
Western Human Nutrition Research Center, Davis, California ($5,000,000)
    In 1996, ARS decided to move its Western Human Nutrition Research 
Center to the campus of the University of California at Davis. The 
purpose of the move was to link ARS' nutrition research with the 
University's Departments of Nutrition and Food Science and Technology, 
its College of Agricultural and Environmental Sciences, and its Schools 
of Medicine and Veterinary Medicine. To date, the Congress has 
appropriated $20,350,000 for the new center. Since the original cost 
estimates were developed, construction costs have escalated beyond the 
anticipated rate of inflation. ARS is requesting an additional 
$5,000,000 to complete the center as originally planned.
                                summary
    I believe the fiscal year 2002 budget the President is recommending 
will address many of this Nation's most critical agricultural research 
priorities. There is no question as to the growing importance of ARS' 
research programs--in the face of increased concerns over the safety of 
our food supply; and the emergence or re-emergence of mad-cow disease, 
foot-and-mouth disease, and other highly infectious animal and plant 
diseases. And other concerns, such as how to increase production 
without harming the environment, or how to revitalize rural America--
agricultural research is at the threshold of providing solutions. I 
believe, as I'm sure this Committee believes, that agricultural 
research is vitally important to our Nation's well-being today more 
than ever before.
                                 ______
                                 

                   Rural Business-Cooperative Service

    Prepared Statement of William F. Hagy III, Acting Administrator

    Mr. Chairman and members of the Subcommittee, I am pleased to 
appear before you today to present the Administration's fiscal year 
2002 Budget for the Rural Business-Cooperative Service (RBS).
    Mr. Chairman, the programs and services of RBS, in partnership with 
other public and private sectors, continue to improve the economic 
climate of rural areas through the creation or preservation of 
sustainable business opportunities and jobs in rural America. RBS 
continues to target its resources to farmers and to the under-served 
rural areas and populations. RBS programs fall into two broad 
categories; loan and grant programs to assist rural businesses, and 
programs of assistance to farmers and other rural residents organized 
on a cooperative basis.
    The programs of RBS help close the gap in opportunity for these 
under-served rural areas and populations, bringing them closer to 
sharing fully in the nation's economic growth. The $1.1 billion 
requested in this budget for RBS programs will assist in creating or 
saving about 71,600 jobs and providing financial assistance to more 
than 2,700 businesses.
    The functions of our cooperative programs are authorized under both 
the Cooperative Marketing Act of 1926 and the Agricultural Marketing 
Act of 1946. Our programs serve as the focal point of national activity 
to help farmers help themselves by providing the necessary advice and 
assistance. Examples of recent research and technical assistance 
include:
  --Equity Management Options for Midwest Dairy Cooperatives with Aging 
        Membership.--This project addresses the concern of Midwest 
        dairy cooperatives that their aging dairy farmer membership 
        were expected to retire from dairying and would take their 
        cooperative equity with them at rates that would exceed the 
        cooperatives' ability to replace that equity. The study 
        identifies 12 options on a continuum toward permanent equity 
        programs, including transitional options that would allow for 
        gradual equity program changes.
  --Pork America.--Cooperative Services has provided technical 
        assistance to Pork America since their formation a year ago. 
        The organization is attempting to supply pork to several under-
        served value-added markets and is investigating the acquisition 
        of a processing plant.
             business and industry guaranteed loan program
    For the Business and Industry (B&I) Program, the fiscal year 2002 
budget includes $27.4 million in budget authority to support $1.0 
billion in Guaranteed Loans. This is an increase in budget authority 
compared to last year. To offset some of the increase in loan subsidy 
necessary to support the $1.0 billion program funding level, an 
increase in guarantee fees from 2 percent to an equivalent of 3.25 
percent is included as part of this request.
    We are again making available $200 million for financing for 
cooperative businesses. Priority will continue to be given to projects 
involving farmer-owned, value-added cooperatives. This provides a means 
of helping farmers keep more of the income generated by their product. 
In addition, this financing is available for guarantees of individual 
farmer's purchase of cooperative stock in a start-up cooperative 
established for value-added processing of an agricultural commodity 
raised by the individual farmer stockholders. With the proposed level 
of funding of $1.0 billion, we estimate that this program will create 
or save about 28,400 jobs; but, equally as important under this 
guaranteed loan program, we are able to partner with local lenders in 
providing financing for rural businesses and thus contribute to the 
building of community economic stability. This program allows lenders 
to better meet the needs of rural businesses. Through the lender's 
reduced exposure on guaranteed loans, they are able to meet the needs 
of more businesses at rates and terms the businesses can afford.
    To illustrate how this program has improved the economic climate in 
an under-served area of rural America, I would like to share a success 
story from Missoula, Montana. RBS issued a Business and Industry loan 
guarantee, totaling $2,104,340, to Valley Bank of Belgrade, Montana, to 
assist American Eagle Instruments, Inc., and American Eagle Properties, 
LLC, (American Eagle) of Missoula, Montana. American Eagle used the 
financial assistance to expand their business for the development and 
sale of high tech lubricants, cleaners, and anti-microbial products 
used in the dental industry. As a result of the financing, American 
Eagle increased employment to 90 full-time employees, up from 70 full-
time employees. The wages received by the employees, in addition, 
exceed the State average. American Eagle has expanded to be the fastest 
growing hand dental instrument business in the world, performing in the 
top 5 percent of the dental industry. This business has expanded 
through the United States and 40 major foreign countries.
               business and industry direct loan program
    The fiscal year 2002 budget does not include funding for the B&I 
Direct Loan Program. This program has been authorized at $50 million 
each fiscal year since fiscal year 1997, but has yet to utilize the 
full amount of the authorization. Furthermore, the subsidy rate in 
fiscal year 1997 through fiscal year 2000 was a negative subsidy. 
Starting in fiscal year 2001, a positive subsidy rate of 6 percent was 
due to a larger than anticipated default rate. The projected subsidy 
rate for fiscal year 2002 was calculated to be 28 percent, due to 
substantially higher than anticipated default rates. It was concluded 
that the program should not be funded in fiscal year 2002, since the 
higher default rate indicated that the program was not meeting the 
intended purpose of providing long-term, stable jobs in rural America.
                     intermediary relending program
    The fiscal year 2002 Budget also includes $16.5 million in budget 
authority to support over $38 million in loans under the Intermediary 
Relending Program (IRP). The initial investment of this proposed level 
of funding will create or save an estimated 8,600 jobs, but, because 
these funds, over the 30-year loan term, are re-loaned three or four 
times by the intermediary, we estimate that over 29,200 jobs will 
eventually be created or saved.
    The President's Budget also provides that $4.0 million in requests 
for IRP loans shall be for Native Americans and $8 million for IRP 
loans for the Mississippi Delta region.
    The IRP regulation was revised in 1998 and is now more user-
friendly. It authorizes the Rural Development State Offices to process 
applications at the State level rather than submitting them to the 
National Office for processing. This change has accelerated the 
application process and allows State Offices to provide immediate 
feedback to borrowers concerning their applications. Participation by 
other private credit funding sources is encouraged in this program, 
since this program requires the intermediary to provide, at a minimum, 
25 percent in matching funds. The demand for this program continues to 
be strong, To illustrate the benefits IRP provides to rural America, I 
would like to share with you a success story from Humboldt County, 
Illinois.
    Corn Belt Power Cooperative, a generation and transmission 
cooperative for 10 rural electric cooperatives, applied for funds to 
establish a revolving loan fund to assist with job creation and 
community development in north central Iowa. The initial lending of $1 
million ($800,000 IRP funds and $200,000 matching funds) was disbursed 
to six projects within 12 months of closing. Loan funds were used for 
the purchase of new equipment, construction of a new building for a 
business start-up, expansion of an existing building to accommodate a 
growing company, community infrastructure needs, and an assisted living 
facility. The IRP funds were leveraged with public and private sector 
funds and owner equity to make each project happen. The projects were 
located in five different communities in the intermediary's service 
territory. As a result of this relending activity, 16 jobs have been 
created and 35 jobs were saved.
                rural business enterprise grant program
    For the Rural Business Enterprise Grant (RBEG) Program, the fiscal 
year 2002 Budget includes almost $41 million. We anticipate that this 
level of funding will create or save over 11,100 jobs. The purpose of 
this program is to assist small and emerging businesses. The small 
amount of funds we typically invest in a project, on a dollar-for-
dollar basis, on an average, generates another $2.40 in private 
capital. Among the many eligible grant purposes under this program is 
the establishment of a revolving loan fund by the grantee to support 
small and emerging business development in rural areas.
    For example, a $715,360 RBEG was awarded to the Rosedale-Bolivar 
County Port Commission in Rosedale, Mississippi. The Commission 
operates a publicly owned river-port terminal, created to allow many 
smaller companies to utilize water transportation that cannot afford 
either the large capital expenditures for marine facilities or do not 
move enough tonnage for a dedicated specialized terminal. The RBEG was 
leveraged with $718,840 of other capital. RBEG funds were used for 
enhancement to the port, including construction of a dry bulk unloading 
facility, rehabilitation of an elevated water tank, and for purchase of 
a 30,000 pound forklift in an effort to attract new small emerging 
businesses to this economically depressed area. This port is located in 
the Mississippi Delta and is a part of the Mid-Delta Empowerment Zone 
Alliance (MDEZA).
    As a result of this grant, 38 jobs were created at the Rosedale-
Bolivar Port. With improvements in place, the Bolivar County Board of 
Supervisors has approved leases for two additional small businesses 
which will create an additional 70 to 75 jobs. Both of these two new 
businesses are female, minority-owned.
                rural economic development loan program
    The fiscal year 2002 Budget requests almost $15 million in Rural 
Economic Development Loans. This program represents a unique 
partnership, since it directly involves the rural electric and 
telecommunications borrowers in community and economic development 
projects. These borrowers are the intermediaries through which the 
funds are invested locally. In fiscal year 2000, each dollar invested 
through these programs attracted an additional $4.56 in other capital. 
This loan program, primarily used for economic development activities, 
provides a zero-interest loan to the cooperative, which guarantees 
repayment of the loan to the Government.
    To illustrate the benefits of this program, I would like to share 
with you a success story from New England, North Dakota. A $400,000 
zero-interest 10-year loan was provided to Slope Electric Cooperative, 
Inc. (Slope), in New England, North Dakota. Slope, in turn, relent the 
loan at zero-interest for a 10-year period to the City of Hettinger, in 
Adams County, to assist in constructing a building and purchasing 
equipment to be leased to Killdeer Mountain Manufacturing (KMM).
    KMM is a successful company headquartered in Killdeer, North 
Dakota, approximately 100 miles north of Hettinger, that employs 90 
people in manufacturing high performance electronic assemblies. 
Utilizing the building and equipment provided by the City of Hettinger, 
KMM will establish a satellite location in Hettinger that will be used 
for light contract manufacturing work. This satellite location, 
currently under construction, will create 35 new full-time job 
opportunities for Hettinger and Adams County residents. Adams County is 
located in the South West Rural Economic Area Partnership (REAP) Zone.
                rural business opportunity grant program
    The fiscal year 2002 budget includes almost $3 million for Rural 
Business Opportunity Grants to provide much-needed technical assistance 
and capacity building in rural areas. One of the most significant non-
capital needs in most rural areas is the capacity to develop the 
economic and community development strategies necessary to attract 
private investment capital and Federal and State assistance. The vast 
majority of rural communities are served by part-time officials who do 
not have the time or necessary training to compete with large 
communities for funding that may be available to them. The funds 
requested under this program will aid in providing that invaluable 
assistance to allow communities to take the first step in assisting 
themselves.
    To illustrate this, grant assistance under this program, in the 
amount of $114,600, was provided to the Southernmost Illinois Delta 
Empowerment Zone, Inc., located in Ullin, Illinois. This area has 
experienced the loss of over 150 jobs in the last 3 years. The Rural 
Business Opportunity Grant funds are being used to provide credit 
counseling, revolving loan fund financial assistance and 
administration, development of training programs, and to identify 
potential business and economic development opportunities in the 
Empowerment Zone area. Rural Cooperative Development Grant Program for 
the Rural Cooperative Development Grants (RCDG) Program, the fiscal 
year 2002 budget requests $4.5 million. Included in this amount, over 
$1.5 million would be used for projects which focus on assistance to 
small minority producers through their cooperative businesses.
    This program complements our internal National and State Office 
technical assistance efforts by encouraging the establishment of 
centers for cooperative development. They provides expertise for 
conducting feasibility analysis, outreach, and other forms of technical 
assistance for new developing cooperatives.
    An example of an RCDG is the Ala-Tom RC&D in Alabama. Four new, 
limited resource, and minority farmers' cooperatives were formed and 
continue to receive technical assistance in marketing techniques, 
governance structure, and cost-reduction strategies. They are the 
Southern Beef Growers' Cooperative, Southeastern Rabbit Cooperative, 
West Alabama Retail Cooperative, and West Alabama Farmers' Cooperative. 
Membership in these new cooperatives ranges from 30 to 100 farmers 
each.
        appropriate technology transfer for rural areas program
    The Appropriate Technology Transfer for Rural Areas (ATTRA) program 
provides technical information to producers and their advisors on the 
best sustainable production practices. A budget request of almost $2 
million is requested. This funding would support direct responses to 
over 16,000 inquiries from agricultural producers, extension personnel, 
and others on sustainable practices that reduce dependence on chemicals 
and is more environmentally friendly. ATTRA funding also provides 
support for a website that provides such information.
       rural empowerment zones and enterprise communities grants
    For the Rural Empowerment Zones and Enterprise Communities, the 
President's fiscal year 2002 Budget requests almost $15 million to 
provide grants to the 5 Rural Empowerment Zones and 20 Rural Enterprise 
Communities delegated under Round II of this initiative. The purpose of 
the initiative is to target Federal, State, and local resources to low-
income rural areas to demonstrate that innovative, comprehensive, and 
strategic alliances between private, public, and non-profit entities 
can work in concert to improve the economic strength of rural 
communities.
                         salaries and expenses
    Before closing, I would like to urge the Committee to provide the 
requested funding for Rural Development Salaries and Expenses. Managing 
a $5.1 billion portfolio and providing service-oriented cooperative 
program of research or technical assistance is a joint venture 
requiring both adequate program and Administrative funding. One cannot 
be achieved without the other.
    Mr. Chairman, this concludes my formal statement on the fiscal year 
2002 Budget. I would be happy to respond to any questions the 
Subcommittee may have regarding the Rural Business-Cooperative Service 
programs of the Rural Development mission area.
                                 ______
                                 

                 Natural Resources Conservation Service

              Prepared Statement of Pearlie S. Reed, Chief

    Thank you Mr. Chairman and members of the Committee for the 
opportunity to provide a summary of our 2002 budget request. 
Conservation is important to me. I've spent most of my life and my 
professional career devoted to addressing environmental problems and 
helping farmers and ranchers get sound conservation on the ground. The 
dedicated employees of the Natural Resources Conservation Service have 
made and continue to make a significant contribution in helping our 
Nation's land stewards conserve our vital resources.
    I want to thank the Committee members for your support during the 
fiscal year 2001 appropriations process. I promise you that I will do 
my best to make sure NRCS effectively and efficiently delivers the 
conservation programs and projects we have been directed to implement. 
Your support means a healthier land and cleaner water for people all 
across America. Through conservation technical assistance we have been 
able to help land owners and operators install waste management systems 
and conservation buffers; improve irrigation efficiencies; enhance 
nutrient and pest management; control erosion; reduce salinity in the 
soil and water; and increase wetlands and wildlife habitats across this 
country.
    Mr. Chairman, the fiscal year 2002 President's budget maintains or 
increases funding for most NRCS discretionary conservation programs, 
eliminates funding for conservation programs that have reached their 
statutory limitations, and proposes funding emergency programs from the 
President's National Emergency Reserve when natural disasters or 
emergencies occur.
                         discretionary funding
    Overall, NRCS discretionary conservation programs reflect:
  --Increased funding for mandatory pay raises of $21.7 million;
  --Increased funding of $44 million for conservation technical 
        assistance in support of the Conservation Reserve Program 
        previously reimbursed through the Commodity Credit Corporation 
        (CCC);
  --Decreased funding of $109.8 million for Emergency Watershed 
        Protection Program typically funded by supplemental funding;
  --Decreased funding of $6.3 million for the elimination of funding 
        for the Forestry Incentives Program; and,
  --Decreased funding of $2.3 million for the elimination of funding 
        for American Heritage Rivers and Urban Resources Partnership.
    Mr. Chairman, the budget details for the NRCS discretionary 
conservation programs are as follows.
Conservation Operations
    The fiscal year 2002 budget request proposes a net increase of 
$60.9 million from the fiscal year 2001 adjusted appropriations level 
of $712.5 million. This increase is essential for NRCS to keep our 
field employees on board.
    Specifically, the budget includes a $44 million increase for 
providing technical assistance for Conservation Reserve Program 
participants. This technical assistance was previously reimbursed from 
the Commodity Credit Corporation (CCC). The budget also includes an 
additional $19.1 million for mandatory pay increases. These increases 
are partially offset by a one-time decrease of $2.2 million for 
termination of agency activities supporting the Urban Resources 
Partnership effort and American Heritage Rivers Initiative.
    The $44 million proposed for technical assistance funding in 
support of the Conservation Reserve Program will enable the enrollment 
of 2.24 million acres in CRP under a general signup, the farmable 
wetlands pilot, and continuous signup activities. The funding change is 
needed because there are insufficient funds under the CCC Section 11 
funding cap and Congress has had to provide supplemental funding for 
several years to fund this important workload.
     The budget proposes to continue performing work at the fiscal year 
2001 level for Animal Feeding Operations (AFO) related workload. The 
NRCS workload analysis reports show that there are approximately 
272,500 AFOs in this country that need to develop or revise their waste 
management plans. NRCS is providing leadership and technical assistance 
in addressing the AFO related environmental concerns. Specifically, 
NRCS has helped to establish the nutrient management technical 
standards, developed the standards for the comprehensive nutrient 
management plans needed for AFO and is helping producers implement 
components of the plans. In fiscal year 2002, the AFO related workload 
will focus on the direct planning and application stage.
    In fiscal year 2001, Congress provided $18 million for the Grazing 
Land Conservation Initiative, a $1 million increase in funding from 
past years. The fiscal year 2002 budget proposes to continue funding at 
that level. With the $18 million level, NRCS is able to maintain staff 
needed to provide only priority technical assistance to private grazing 
landowners and managers.
    In recent years, public concern for the environment and demand for 
NRCS technical assistance has grown significantly. The public concerns 
have included such issues as: pollutants from animal feeding 
operations; improper application of pesticides and fertilizers; 
inadequate nutrient management; agricultural air quality; continued 
excessive soil erosion on some lands and the resulting sedimentation; 
non-point sources of water quality degradation; the loss of prime and 
important farmlands; and invasive species on agricultural lands.
    Few farmers and ranchers are able to respond to these public 
concerns without technical assistance from their local NRCS field 
office. Conservation Operations funding provided through the 
conservation technical assistance, soil survey, snow survey and water 
supply forecasting, and plant materials programs directly support local 
level technical assistance. We are able to provide one-on-one 
assistance with private land owners, farmers, ranchers and operators 
using up-to-date scientific information and techniques, detailed 
conservation plans, soils information, water supply information and 
plant science technology.
    Mr. Chairman, NRCS would be able to continue this valuable 
assistance under the President's budget proposal.
Watershed and Flood Prevention Operations
    For fiscal year 2002, the proposed budget provides approximately 
$10 million for Flood Prevention Operations under the Public Law 534 
authorities and $90 million for Small Watershed Operations under Public 
Law 566 authorities. The proposal represents an increase of $1.2 
million for pay costs, offset by a decrease of approximately $110 
million for no new funding for the Emergency Watershed Protection 
Program (EWP).
    Public Law 534 Flood Prevention Operations. Activities in this 
funding category are authorized in 11 specific flood prevention 
projects covering approximately 35 million acres. Under the fiscal year 
2002 budget proposal, $10 million will be provided for eligible high 
priority subwatershed projects that contribute to solving water quality 
and other environmental problems.
    Public Law 566 Small Watershed Operations. In cooperation with 
local sponsoring organizations, State and other public agencies, NRCS 
provides technical and financial assistance to voluntarily plan and 
install watershed-based projects on private lands. Under the fiscal 
year 2002 budget proposal, $90 million will be used to implement a 
watershed approach to a broad range of conservation issues, including 
water quality improvement, wetland restoration, agricultural water 
management, stream restoration, fish and wildlife habitat improvement 
and soil quality improvement. During fiscal year 2002, we estimate that 
over 500 projects will remain active and a minimum of eight new 
projects will be approved.
    Emergency Watershed Protection.--After the government wide 
rescission was applied, EWP was funded in the amount of $109.758 
million for fiscal year 2001. Of this amount $21.952 million is for 
technical assistance, $52.883 million for financial assistance, and 
$34.923 million for the purchase of floodplain easements. The fiscal 
year 2002 Budget proposes to fund any assistance needed through the 
National Emergency Reserve.
    Of all EWP funds available, including carry over funds, in fiscal 
year 2001 to repair damages to waterways and watersheds resulting from 
natural disasters, NRCS has committed over $170 million to all 50 
states, Puerto Rico and the Pacific Basin. There are currently 104 
ongoing projects in 40 states. NRCS has exhausted available funds for 
any new disaster or emergency activity in fiscal year 2001.
    Aging Watershed Infrastructure.--The fiscal year 2000 and fiscal 
year 2001 appropriations bills included authorization to use $8 million 
each year of EWP funds for pilot rehabilitation projects in Ohio, New 
Mexico, Mississippi, and Wisconsin. Fifteen dams in 10 watershed 
projects were selected in these four States to demonstrate the variety 
of alternatives that will be involved and issues that will be 
encountered with rehabilitation, as well as the many benefits. The 
planning is complete on all projects, designs are in progress, and 
implementation should begin this summer.
Watershed Surveys and Planning
    The President's fiscal year 2002 budget proposal would essentially 
continue activities at a slightly increased level of $116 thousand over 
the adjusted fiscal year 2001 appropriated level of $10.844 million. 
This represents an increase for mandatory pay increases partially 
offset by a one-time decrease for technical assistance activities 
associated with the American Heritage Rivers Initiative. As in fiscal 
year 2001, these funds will be used to make cooperative river basin 
studies, floodplain management studies, floodplain insurance studies, 
and provide assistance to sponsoring local organizations in developing 
plans on watersheds.
Resource Conservation and Development (RC&D)
    Mr. Chairman, the RC&D program plays a vital role in rural 
communities. NRCS works in partnership with local volunteers organized 
as Resource Conservation and Development Councils representing multi-
county areas. Council members consist of public and private sector 
sponsors and other local organizations. The RC&D program was 
established to encourage and improve the capability of State and local 
units of government and local nonprofit organizations in rural areas to 
plan, develop, and implement programs for resource conservation and 
development. RC&D areas are sponsored by Council members who carry out 
the goals of the RC&D area plans.
    Currently, 348 USDA designated RC&Ds serve 2,492 counties in all 
fifty States, the Caribbean, and the Pacific Basin. This represents an 
increase of 33 new councils from fiscal year 2000. Designated areas 
serve approximately 82 percent of the counties in the United States. In 
addition, NRCS currently has 27 application areas awaiting funding or 
designation.
    In fiscal year 2001, NRCS received $41.923 million in direct 
appropriation including the government wide rescission impact and $1 
million from the Fund for Rural America for a total program level of 
$42.923 million. The President's budget proposes an increase of $1 
million to support mandatory pay increases.
       commodity credit corporation funded conservation programs
    Several of the conservation programs funded from the Commodity 
Credit Corporation will have reached their fully authorized levels by 
the end of fiscal year 2001. They include the Wetlands Reserve Program, 
Wildlife Habitat Incentives Program, Farmland Protection Program, and 
Soil and Water Conservation Assistance. The President's budget does not 
include any proposal to extend those programs, the Administration will 
be working closely with congress throughout the next Farm Bill's 
development to reauthorize high priority conservation programs. While 
the following highlights the fiscal year 2002 budget proposals and 
recent program accomplishments for the CCC funded conservation 
programs.
Environmental Quality Incentives Program
    In fiscal year 2001, EQIP received $174 million from the 
Agriculture Appropriations Act and $26 million, in supplemental 
appropriations, from the Omnibus Appropriations Act. EQIP funding 
provided by the Omnibus Appropriations Act were subject to the 
rescission, so the total funding available for EQIP in fiscal year 
2001, is approximately $199.943 million.
    The fiscal year 2002 funding request of $174 million reflects the 
same level of funding provided by the Agricultural Appropriations Act 
of 2001.
    Since inception in 1997, over 2,150 conservation priority areas 
have been nominated and over 1,350 priority areas have received funding 
in at least one of the last four years. Over 180,000 contracts have 
been entered into EQIP, providing important conservation measures on 
over 34 million acres across this country.
    During the past four years, almost $597 million was obligated to 
producers as financial assistance to install conservation systems and 
practices to address locally identified resource issues. Of this 
amount, approximately $300 million went to assist with animal waste 
management, grazing management, and irrigation water management. These 
funds have helped farmers and ranchers install waste storage systems, 
waste management systems and nutrient management practices on over 16 
million acres. Grazing lands resource concerns were addressed with 
cost-share assistance on 84 million feet of fencing, 1.2 million acres 
of pasture and hay planting, and almost 1.7 million acres of brush 
management. Additionally, EQIP assisted farmers and ranchers throughout 
the country with upgrading irrigation systems and the establishment of 
irrigation water management to reduce drain on water supplies, reduce 
salinity load in the Colorado River Basin and improve farming 
operations. The remaining $297 million was used to address a variety of 
locally identified resource issues and concerns including soil erosion 
control which benefits water quality and sustained soil productivity; 
forest land and forest fire fuel management, upland and wetland 
wildlife management, habitat restoration and improvement and farmland 
protection.
    The budget proposal would continue to address these important 
conservation concerns.
Wetlands Reserve Program
    The Wetlands Reserve Program (WRP), originally authorized by the 
Food Security Act of 1985 and subsequently amended by the 1990 and 1996 
Farm Bills, is a voluntary program that provides technical and 
financial assistance to eligible landowners to address wetland, 
wildlife habitat, soil, water, and related natural resource concerns on 
private lands in an environmentally beneficial and cost effective 
manner.
    The fiscal year 2001 Appropriations Act increased the maximum 
number of authorized enrollment acres for the program by 100,000 acres 
to 1,075,000 acres. By the end of fiscal year 2001, program activity 
will have reached this limitation.
    Landowners are provided three program participation options: (1) 
short-term 10-year cost-share agreement restorations; (2) mid-term 30-
year conservation easement restorations; and (3) permanent easement 
based restorations. Financial assistance in the form of easement 
payments and restoration cost-share assistance is included. Technical 
restoration and management assistance is also provided.
    Mr. Chairman, in fiscal year 2001, NRCS anticipates enrolling 
140,000 acres into WRP using $181.8 million for financial and technical 
assistance. The President's budget request does not include a request 
to increase acreage enrollment at this time, but this will be included 
in the upcoming farm bill debate.
Agricultural Management Assistance Program
    The Agricultural Management Assistance Program (AMA) is authorized 
by the agriculture Risk Protection Act of 2000 (ARPA). The program 
provides cost-share assistance to producers to construct or improve 
water management structures or irrigation structures; plant trees for 
windbreaks or improve water quality; and mitigate crop failure risks 
through production diversification or resource conservation practices, 
including soil erosion control, integrated pest management, or 
transition to organic farming. AMA also provides cost-share assistance 
to producers to enter into futures, hedging, or options contracts in a 
manner designed to help reduce production, price, or revenue risk; and 
enter into agricultural trade options as a hedging transaction to 
reduce production, price, or revenue risk.
    ARPA provides $10 million annually through the CCC for AMA cost-
share assistance in 10-15 States, as determined by the Secretary, in 
which participation in the Federal Crop Insurance Program is 
historically low. The fifteen states selected by the Secretary to 
participate in the program are Connecticut, Delaware, Maine, Maryland, 
Massachusetts, Nevada, New Hampshire, New Jersey, New York, 
Pennsylvania, Rhode Island, Utah, Vermont, West Virginia, and Wyoming. 
In 2001, NRCS will receive $6 million in AMA funding with the balance 
going to Risk Management Agency and Agricultural Marketing Service.
    The President's budget assumes continuation of the program into 
fiscal year 2002 as authorized by law. The distribution of these funds 
will be determined by the Secretary at a later time.
One-time fiscal year Funding
    The Agriculture Risk Protection Act of 2000, as amended by the 
Agriculture Appropriations Act, 2001 and Omnibus Appropriations Act, 
2001, provided new funding for Soil and Water Conservation Assistance 
(SWCA) and additional funding for the Wildlife Habitat Incentives 
Program (WHIP) and Farmland Protection Program (FPP) in fiscal year 
2001.
    WHIP provides cost-sharing for landowners to apply an array of 
wildlife practices to develop habitat that will support upland 
wildlife, wetland wildlife, threatened and endangered species, 
fisheries, and other types of wildlife. In fiscal year 2001, additional 
WHIP funding includes $664,875 paid from carryover balances and $12.5 
million from ARPA. It is anticipated the NRCS will enroll 365,000 acres 
in long-term wildlife habitat agreements that provide benefits to 
upland acres, wetland acres, and acreage being threatened or with 
endangered species.
    FPP provides cost-share for acquiring conservation easements or 
other interests to limit conservation of agricultural lands to non-
agricultural uses. FPP acquires perpetual conservation easements on a 
voluntary basis on lands with prime, unique, or other productive soil 
that presents the most social, economic, and environmental benefit. 
NRCS has received 100 proposals covering 778 farms and 174,800 acres 
with a total easement value of $303 million. Requests for Federal 
dollars have exceeded $116 million. While no decisions have been made 
to date, NRCS anticipates obligating all of the $17.5 million available 
for FPP by the end of fiscal year 2001.
    SWCA provides cost-share and incentive payments to farmers and 
ranchers to address threats to soil, water, and related natural 
resources in areas not designated as national conservation priority 
areas. These voluntary efforts provide proven soil and water 
conservation practices on farms and ranches with an emphasis on 
conserving water or improving water quality. The program will provide 
$20 million in fiscal year 2001 for cost-share and incentive payments 
to farmers and ranchers. Signup activities are expected to be completed 
in fiscal year 2001.
    The President's budget does not propose additional funding for 
these programs.
                   conservation through partnerships
    Mr. Chairman, as you know, NRCS has operated since its creation 
through voluntary cooperative partnerships with individuals, state and 
local governments, and other Federal agencies. That partnership is as 
important today as it ever was. In fact, it may be even more important, 
if we are to meet the challenging conservation problems facing our 
Nation's farmers and ranchers.
    NRCS has worked with more than 5 million farmers, ranchers, 
producers, operators, and private landowners as well as local 
communities to help them conserve their natural resources by gaining 
knowledge about new conservation problems and solutions, by providing 
guidance and advice, and by developing and helping implement 
conservation plans. NRCS does this by working with nearly 3,000 local 
conservation districts that have been established by state law and with 
American Indian Tribes and Alaska Native Governments.
    State and local governments contribute substantially to the 
conservation effort, with both people and funding to complement NRCS 
technical and financial assistance. Approximately 7,400 FTE of 
assistance is provided annually by NRCS partners and volunteers. In 
addition, state and local governments match dollar for dollar, for 
every one Federal dollar provided for conservation. And Americans have 
generously given their time to volunteer with NRCS as part of the Earth 
Team Volunteers effort. In fiscal year 2000, approximately 38,000 
people volunteered their time locally, working approximately 430 FTE.
    And we work closely with other Federal agencies such as our sister 
agencies in the Department of Agriculture, the Forest Service, Farm 
Service Agency, and Rural Development, as well as Agricultural Research 
Service, Cooperative State Research, Education and Extension Service 
and other Departments, including the Environmental Protection Agency.
    Good conservation doesn't just happen. It takes all of us, 
including Congress, working together to make it happen. This concludes 
my statement, Mr. Chairman. I will be glad to answer any questions.
                                 ______
                                 

                        Office of Communications

Prepared Statement of Kevin Herglotz, Acting Director of Communications

    Mr. Chairman and members of the Subcommittee, I am pleased to 
discuss the fiscal year--fiscal year 2002 budget request for the 
Department of Agriculture's Office of Communications.
    When Congress wrote the law establishing the U.S. Department of 
Agriculture in 1862, it said the department's ``general designs and 
duties shall be to acquire and to diffuse among the people of the 
United States useful information on subjects connected with agriculture 
in the most general and comprehensive sense of the word.'' The Office 
of Communications coordinates the implementation of that original 
mandate.
    The Office of Communications coordinates communications with the 
public about USDA's programs, functions, and initiatives. It is a 
crucial link in the Department's efforts to protect and inform 
consumers by providing information on a broad range of topics such as 
food safety and issues that may affect consumer confidence or cause 
concern such as Foot and Mouth Disease (FMD) and bovine spongiform 
encephalopathy (BSE). It also coordinates the communications activities 
of USDA's seven major mission areas in their efforts to provide timely 
and accurate information to the general public and the Department's 
other constituencies, and provides leadership for communications within 
the Department to USDA's employees.
    The Office of Communications is adopting new technologies to meet 
the increased demands for information. Using the Internet's world wide 
web, radio, television and teleconference facilities, we are able to 
ensure that the millions of Americans whose lives are affected by 
USDA's programs receive the latest and most complete information. The 
Office of Communications' 5-year strategic goal is:
    To support the Department in creating a full awareness among the 
American public about USDA's major initiatives and services. This is 
essential to providing effective information services and efficient 
program delivery and should result in more citizens-especially those in 
under served communities and geographic areas-availing themselves of 
helpful USDA services and information.
     The Office of Communications will continue to take an active part 
in policy and program management discussions by coordinating the public 
communication of USDA initiatives. We will continue to provide 
centralized operations for the production, review, and distribution of 
USDA messages to its customers and the general public. We will also 
monitor and evaluate the results of these communications. Staff will be 
instructed in using the most effective and efficient communications 
technology, methods, and standards in carrying out communications 
plans.
    We intend to improve communications with USDA employees, especially 
those away from headquarters. This will enhance their understanding of 
USDA's general goals and policy priorities, programs and services, and 
cross-cutting initiatives.
    Our office will also work hard to meet our performance goals and 
objectives. We will work to communicate updated USDA regulations and 
guidelines, conduct regular training sessions for USDA communications 
staffs about using communication technologies and processes to enhance 
public service, foster accountability for communications management 
performance throughout USDA, and continue to work to create a more 
efficient, effective and centralized Office of Communications. 
Increasing availability of USDA information and products to under 
served communities and geographic areas through USDA's outreach efforts 
is integral to our performance efforts. The Office of Communications 
will also provide equal opportunity for employment and promote an 
atmosphere that values individual differences.
                    fiscal year 2002 budget request
    The Office of Communications is requesting a budget of $8,894,000. 
This is a net increase of $290,000 over our fiscal year 2001 budget. 
The net increase includes $72,000 for annualization of the fiscal year 
2001 pay raise and $218,000 for the anticipated fiscal year 2002 pay 
raise.
    Our central task is to ensure the development of communications 
strategies which are vital to the overall formation, awareness and 
acceptance of USDA programs and policies. Since more than 91 percent of 
the Office of Communications' obligations are for salaries and 
benefits, this increase is vital to support and maintain staffing 
levels for current and projected demands for our products and services. 
Since our current budget leaves little flexibility for absorbing 
increased costs, the Office of Communications cannot absorb these 
additional salary costs without placing severe constraints on daily 
operations. This could result in an unacceptable decrease in the Office 
of Communications' ability to support the Secretary in providing timely 
and accurate information to the public, the media, business and other 
constituencies. When dealing with issues such as Foot and Mouth Disease 
(FMD), bovine spongiform encephalopathy (BSE), forest fires, floods or 
issues of food safety, the Secretary needs every available resource to 
communicate with the media, the Department's constituencies and our 
international partners. Reductions in OC's capabilities caused by a 
loss of the proposed salary costs would diminish the Secretary's 
ability to respond to the local, national and international issues that 
confront the Department today and directly affect significant portions 
of the American public.
    This concludes my statement, Mr. Chairman. I will be pleased to 
respond to any questions.
                                 ______
                                 

                     Office of the General Counsel

   Prepared Statement of James Michael Kelly, Acting General Counsel

                              introduction
    Mr. Chairman and members of the Subcommittee, I am pleased to have 
this opportunity to provide you with an overview of our agency and to 
address some of the current activities and issues facing the 
Department.
                                mission
    The Office of the General Counsel (OGC) is the law office for the 
Department. As an independent, central agency within the Department, 
OGC provides legal advice and services to the Secretary of Agriculture 
and other officials of the Department of Agriculture with respect to 
all USDA programs and activities.
                              organization
    OGC's services are provided through 12 Divisions in Washington and 
18 field locations. The headquarters for OGC is located in Washington, 
D.C. The Office is directed by a General Counsel, a Deputy General 
Counsel, a Director for Administration and Resource Management, and six 
Associate General Counsels. The attorneys located in headquarters are 
generally grouped in relation to the agency or agencies served. Our 
field structure consists of five regional offices, each headed by a 
Regional Attorney, and 13 branch offices. The field offices typically 
provide legal services to USDA officials in regional, State, or local 
offices.
                     current activities and issues
              international affairs and commodity programs
    During this past year, OGC has provided significant legal 
assistance to officials of numerous offices in the Department regarding 
domestic commodity programs and international affairs matters affecting 
agriculture. Primarily, these officials are from the Farm Service 
Agency (FSA) and the Foreign Agricultural Service (FAS). For FSA, OGC 
has provided significant assistance with respect to income, commodity, 
conservation and disaster assistance programs. These activities 
involved the clearance of approximately 50 regulations supporting 
programs that have expenditures of approximately $10 billion. These 
diverse programs included assistance for producers of tobacco, cotton, 
cranberries, apples, potatoes, livestock, dairy products and honey. OGC 
attorneys devoted significant resources in dealing with numerous 
Commodity Credit Corporation (CCC) activities. This included: (1) the 
establishment of a payment-in-kind land diversion program involving CCC 
inventories of sugar; (2) a bio-fuel program to encourage the 
additional use of agricultural commodities in the production of fuel 
additives; and (3) a pilot program which permits the nation's elderly 
low-income population to purchase fresh fruits and vegetables at 
farmers' markets.
    OGC has supported the work of FAS in the implementation of a number 
of major international trade and foreign assistance initiatives. Our 
involvement in the international trade area includes enforcement of the 
commitments received in the Uruguay Round Agreements and preparations 
for a new round of World Trade Organization (WTO) negotiations to 
strengthen international trading rules and address specific issues such 
as credit and credit guarantees and expanded free trade in the 
Americas. During fiscal year 2001, OGC was involved in the current 
round of WTO Agriculture Agreement negotiations. In addition, OGC was 
and will continue to be involved in negotiations to create a Free Trade 
Area of the Americas. OGC also continued its work with USDA agencies on 
issues arising in connection with the revised International Plant 
Protection Convention, a multilateral convention aimed at promoting 
international cooperation to control and prevent the spread of harmful 
plant pests.
    OGC will continue to be actively involved in the enforcement and 
application of present international trading rules. During the past 
year, OGC participated in WTO consultations, panel consideration, 
appeals, and arbitrations involving various trade disputes. These 
included: (1) Japanese phytosanitary issues; (2) Canadian dairy export 
subsidies; (3) ensuring the European Union's compliance with the WTO 
decision striking the ban on imports of meat produced with growth-
promoting hormones; (4) access to South Korean markets for U.S. beef; 
(5) defending U.S. safeguard actions on lamb meat and wheat gluten; (6) 
Canadian antidumping and countervailing duty actions against U.S. corn; 
(7) the imposition of countervailing duties by Chile on U.S. milk 
powder; and (8) consultations with Mexico on access for avocados.
    OGC is extensively involved in providing legal advice for the 
export credit, supplier credit, and facilities guarantee programs. OGC 
continues to be extensively involved in negotiations on export credits 
and credit guarantees in agriculture taking place under the auspices of 
the Organization for Economic Cooperation and Development. OGC also 
provides extensive legal advice and review for the International 
Cooperation and Development Division of FAS regarding their 
international agricultural cooperative efforts and arrangements.
    During the past year, OGC has been involved in the implementation 
of a large number of foreign assistance agreements donating 
agricultural commodities, including surplus commodities acquired by 
CCC. These agreements are under Title I of Public Law 83-480, section 
416(b) of the Agricultural Act of 1949, and the Food for Progress Act. 
The implementation of these agreements involves extensive review of 
draft agreements, commodity procurement, ocean transportation issues, 
and cargo loss and damage claims. In connection with these assistance 
programs, OGC extensively participated in developing the framework for 
instituting the Global Food for Education Initiative involving the 
donation of CCC stocks of agricultural commodities abroad. We expect 
the demand for legal services in connection with FSA, FAS, and CCC 
activities to increase in fiscal year 2002, especially in the 
preparation for new omnibus farm legislation.
                      food and nutrition division
    With respect to USDA's domestic food assistance programs, OGC has 
been heavily involved in efforts related to the review of proposed 
legislation and the implementation and enforcement of new legislation 
aimed at welfare reform and other program improvements, as well as the 
ongoing program integrity and compliance initiatives. We expect the 
demand for legal services in connection with these activities to remain 
constant in fiscal year 2001 and 2002.
    More specifically, during this past year, OGC attorneys worked 
closely with the Food and Nutrition Service (FNS) to implement the 
provisions of the Agriculture Research, Extension, and Education Reform 
Act of 1998 (AREERA), Public Law 105-185; the William F. Goodling Child 
Nutrition Reauthorization Act of 1998 (Goodling Act), Public Law 105-
336; the Balanced Budget Act of 1997 (BBA), Public Law 105-33; and the 
Illegal Immigration Reform and Immigrant Responsibility Act of 1996 
(Immigration Reform Act), Division C of Public Law 104-208, the 
Electronic Benefit Transfer Interoperability and Portability Act of 
2000 (Public Law 106-171), the Agricultural Risk Protection Act of 2000 
(Public Law 106-224), and the Grain Standards and Warehouse Improvement 
Act of 2000 (Public Law 106-472). OGC provided assistance in connection 
with the implementation of the food stamp administrative payment 
reduction and alien eligibility provisions of AREERA, the legislative 
changes to the Child Nutrition Programs intended to ensure integrity in 
program administration brought about by the Goodling Act, and 
continuing assistance with implementation of BBA provisions regarding 
funding of food stamp education and training activities.
    In connection with the Immigration Reform Act, OGC is representing 
USDA's interests in ongoing inter-agency discussions aimed at providing 
a uniform and predictable test for determining when the receipt of 
benefits renders an alien deportable, inadmissable or ineligible for 
adjustment of alien status as a result of being likely to become a 
public charge. OGC provided counsel on proposed legislation to provide 
capped Federal funding for State costs incurred for switching and 
settling interstate transactions under the requirement that electronic 
food stamp benefits be interoperable among States by October 1, 2002. 
OGC assisted in the formulation of legislation which enhances the 
exchange of information regarding participants in the National School 
Lunch Program (NSLP) with State health officials for the purpose of 
identifying children eligible for State children's health insurance 
programs.
    OGC assisted in the development of legislative proposals to provide 
additional commodities to schools under the NSLP, to provide new 
administrative review procedures for institutions suspended from 
participation in the Child and Adult Care Food Program (CACFP), and to 
establish standards for proof of residency for individuals living in 
remote Indian or Native villages under the Special Supplemental 
Nutrition Program for Women, Infants, and Children (WIC). OGC also 
provided counsel with regard to a Department of Defense legislative 
proposal to create a subsistence benefit program to replace food stamp 
benefits for military personnel.
    During fiscal year 2001, OGC assisted in the defense of Food Stamp 
Program litigation challenges raised by potential food stamp 
participants concerning State implementation of certain welfare reform 
provisions initiated by the Personal Responsibility and Work 
Opportunity Reconciliation Act of 1996 (PRWORA), Public Law 104-193. 
These issues concerned State food stamp policies with respect to 
applicant awareness and access to the Food Stamp Program. OGC is also 
assisting in the defense of a class action lawsuit in New York State 
which challenges the implementation of the Debt Collection Improvement 
Act with regard to food stamp recipients. With respect to the Child and 
Adult Care Food Program, OGC has been working with counsel for several 
States in pursuing Federal and State administrative claims arising from 
audits performed by the Department's Office of Inspector General.
    The implementation of the alien provisions of the PRWORA continues 
to generate litigation in several States. These lawsuits have, thus 
far, been successfully defended in the lower courts. Several cases are 
currently pending before appellate courts and the first petition for 
certiorari has been filed with the United States Supreme Court. These 
include: (1) a challenge to the constitutionality of a statutory 
provision which makes convicted drug felons ineligible for benefits 
under the Food Stamp Program; (2) a favorable decision upholding the 
award of a $1.3 million False Claims Act (FCA) judgement against a 
retail food store owner who had previously been convicted of 
trafficking in food stamps and who claimed that the FCA judgement, on 
top of the criminal sanctions, violated the double jeopardy and 
excessive fines clauses of the U.S. Constitution; (3) a favorable 
appellate court decision upholding the Secretary's formula for 
calculating civil money penalties against retail food stores that 
violate Food Stamp Program rules in the face of arguments that the 
formula violated the Administrative Procedure Act and the due process 
clause of the Constitution; (4) a decision upholding a statutory 
provision that makes suspension of retail food stores effective upon 
receipt of the notice of disqualification and provides immunity from 
damage actions based on losses sustained during administrative review 
in instances where the disqualification is reversed; and (5) the use of 
a cy-pres fund, a little used legal mechanism under which a fund is 
created to benefit a class of plaintiffs, in general, to avoid the 
necessity of determining claim amounts on an individual basis, in the 
settlement of a case in which $2.3 million was made available to public 
and private food banks to purchase commodities for the hungry.
    OGC reviewed an extensive revision of the Food Stamp Program 
regulations related to the attribution of the income of sponsors to 
sponsored aliens and an exhaustive revision of the Program's new 
application processing rules required by the implementation of the 
PRWORA. OGC reviewed and assisted in the development of new provisions 
regulating the participation of vendors in the WIC program, including 
provisions requiring more frequent State review of vendor compliance 
and the identification of vendors representing a high risk for program 
violations. OGC provided counsel on the availability of a portion of 
the Federal funds (provided in connection with meals) for use by 
sponsors of child care centers to recover their administrative costs in 
the CACFP. OGC provided assistance to the Office of Inspector General 
in developing an audit regarding a major CACFP day care sponsor in 
order to simplify the audit findings and respond to issues likely to be 
raised in anticipated litigation arising out of the audit. OGC also 
provided assistance to USDA and Food and Drug Administration officials 
in developing a consistent approach to the safety issues inherent in 
the use of banked human breast milk and to determine when and how such 
milk may be used in the WIC program. OGC continued to address numerous 
issues arising from the nationwide rollout of electronic benefit 
transfer (EBT) in the Food Stamp Program and demonstrations of the use 
of EBT in other food assistance programs. OGC also reviewed proposed 
legislation to require interoperability of EBT cards among States 
implementing EBT systems.
                   regulatory and marketing programs
    Providing strong legal support to the Department's food safety and 
inspection programs has been and will continue to be one of OGC's top 
priorities. We continue to work closely with Food Safety and Inspection 
Service (FSIS) on the implementation of the Hazard Analysis and 
Critical Control Points (HACCP)/Pathogen Reduction rule and on the 
HACCP-based pilot programs to test new inspection models that the 
agency believes will lead to more effective inspection and better use 
of scarce resources. In that regard, we worked with the Department of 
Justice, on a remand from the Court of Appeals, to successfully defend 
the validity of the HACCP rules and FSIS' authority to test redesigned 
inspection models in a case brought by the American Federation of 
Government Employees, the Community Nutrition Institute, and several 
FSIS meat inspectors. In a decision issued on January 17, 2001, the 
District Court found that the modified inspection procedures satisfied 
the Federal Meat Inspection Act and the Poultry Products Inspection 
Act.
    We also provide comprehensive legal support to FSIS' rulemaking 
activities. In the recent past, we have worked with FSIS staff on the 
residue policy regarding carcass disposition; the policy regarding 
E.coli 0157:H7 contamination of beef products; shell egg and egg 
products inspection regulations; performance standards for online 
antimicrobial reprocessing; sharing recall information with state and 
other federal agencies; and regulations governing retained water in 
meat and poultry products.
    In the past year, OGC has provided extensive legal services to the 
Agricultural Marketing Services (AMS) in various matters and will 
continue to work closely with AMS in the year ahead. OGC continues to 
provide assistance in the reform and consolidation of federal dairy 
marketing orders. A proposed rule on Class III and IV pricing was 
issued in May 2000. AMS issued an interim final rule in November 2000. 
OGC continues to work on litigation on these pricing regulations and it 
is anticipated that a final rule will be issued in January 2002.
    The organic standards program continued to be an OGC priority. We 
provided extensive legal services working with AMS officials as they 
developed a final rule implementing the Organic Foods Production Act of 
1990. On December 21, 2000, a final rule was published that would 
establish a National Organic Program under that Act. Currently, we are 
working with the organic program staff in connection with a variety of 
issues relating to implementation of the program. We will continue to 
work with AMS as this program is further implemented.
    The Commodity Promotion, Research, and Information Act of 1996 
provides general authority for the Secretary to issue orders 
establishing new research and promotion programs. Prior to enactment of 
this statute, research and promotion programs were authorized under 
individual statutory authorities. The 1996 Act provides authority to 
tailor a program according to the individual needs of an industry. We 
are currently providing legal services to AMS in connection with 
industry-funded promotion, research and information programs 
implemented under this Act. To date programs for blueberries and 
peanuts have been established. Further, representatives of the apple, 
mango, and sweet corn industries have expressed interest in 
establishing programs. We will continue to work with AMS as these new 
research and promotion programs are proposed. We have continued to 
provide extensive legal services to AMS in connection with changes to 
the honey program as a result of the 1998 amendments to the Honey 
Research Promotion and Consumer Information Act and proposed changes to 
the watermelon program under the Watermelon Research and Promotion Act. 
OGC also is working with AMS in the development of a research and 
promotion program under the recently enacted Haas Avocado Promotion, 
Research and Information Act 2000.
    OGC provided extensive legal services to AMS in connection with 
implementation of the Livestock Mandatory Reporting Act of 1999. OGC 
assisted AMS staff in drafting a proposed rule that would establish a 
mandatory program of reporting market information regarding the 
marketing of cattle, swine, lambs, and products of such livestock. A 
final rule was published in the Federal Register on December 1, 2000. 
This program provides information on pricing, contracting for purchase, 
and supply and demand conditions for livestock, livestock production, 
and livestock products. OGC also worked extensively with AMS in the 
development of a new inspection and certification program for equipment 
used in the slaughter, processing, and packaging of livestock and 
poultry products. A final rule concerning this program was published in 
the Federal Register on January 5, 2001.
    Safeguarding the animal and plant health of the United States is a 
matter of paramount importance to the Department. OGC has partnered 
effectively with the Animal and Plant Health Inspection Service (APHIS) 
for many years in carrying out these program responsibilities and will 
continue to do so in the future. APHIS' responsibilities have become 
vastly more complex, requiring not just effective safeguarding 
measures, but programs to ensure the safe and smooth entry of people 
and goods into the United States, and the facilitation of agricultural 
trade in compliance with our international obligations. Similarly, 
OGC's responsibilities and the demands for timely and effective legal 
support of APHIS inspection and regulatory activities have increased as 
well. A new Plant Protection Act was passed in June, 2000. We worked 
very diligently with APHIS as the bill moved through the legislative 
process, and our attorneys are working just as hard in assisting APHIS 
with implementation of the new law. In addition, we have been 
extensively involved in APHIS' response to the Safeguarding review of 
its Plant Protection and Quarantine activities conducted by the 
National Plant Board. This has entailed detailed analysis of and 
responses to over 320 recommendations regarding APHIS' activities and 
how they are performed.
    We have an exceptional relationship with APHIS program officials 
and with their regulation development staff, and we have worked very 
closely with them in connection with an array of rulemaking activities 
that included rules for the movement of certain land tortoises with 
ticks that are vectors of Heartwater disease, the regulation of sheep 
and goats for scrapie, and rules dealing with bovine tuberculosis and 
pseudorabies in swine. On the plant side, we have assisted with 
regulations for Plum Pox in Pennsylvania, citrus canker in Florida, 
noxious weeds, and the glassy winged sharpshooter. With our help, APHIS 
developed an advance notice of proposed rulemaking concerning 
regulation of horses due to Equine Viral Arteritis under the animal 
quarantine laws. In connection with the facilitation of international 
trade, our attorneys provided very effective support for APHIS 
activities related to the development of rules that will allow new 
commodities to enter U.S. markets while ensuring that America's 
agricultural resources are not impaired and that plant and animal 
health in the U.S. are not compromised. These regulations have included 
requirements for an array of commodities ranging from fruits and 
vegetables to animals and animal products. They include the regulation 
of animals and animal products due to bovine spongiform encephalopathy 
(BSE) or Mad Cow Disease, Regionalization of the European Union due to 
Classical Swine Fever, citrus from Argentina, the regulation of solid 
wood packing material, the importation of artificially dwarfed plants, 
invasive species, and accreditation of laboratories for certification 
of seed for export.
    Our attorneys have also dedicated substantial resources to 
defending APHIS program activities and regulations in the federal 
courts, including a challenge to the Department's authority to order 
disposal of sheep in Vermont which were diagnosed with a transmissible 
spongiform encephalopathy (TSE), and a challenge to APHIS regulations 
allowing the importation of citrus from Argentina. We also handled a 
variety of administrative cases on behalf of APHIS to enforce its 
regulations. These cases have included prosecutions for violations of 
the standards for accredited veterinarians, the illegal importation of 
plant and animal products, violations of the regulations governing the 
interstate movement of various plants, animals and plant and animal 
products, and the falsification of phytosanitary certificates.
    During fiscal year 2001, OGC anticipates expending substantial 
resources in connection with the Horse Protection Act Program. OGC 
attorneys serve as agency counsel in administrative enforcement actions 
bought under this statute, and in fiscal year 2000, OGC initiated 17 
enforcement cases. We anticipate that the number of enforcement actions 
will increase in fiscal year 2001. In addition, OGC anticipates 
providing assistance and counsel to APHIS in connection with the 
training of Veterinary Medical officers working in the Horse Protection 
Program, and in the drafting, implementation and legal defense of 
APHIS's annual Operating Plan for the horse show season.
    OGC provided substantial legal resources to APHIS in connection 
with enforcement of the Animal Welfare Act. In fiscal year 2000, OGC 
initiated 42 administrative enforcement cases. We expect that the 
number of enforcement cases will not diminish in fiscal year 2001. We 
also provided drafting assistance to APHIS in a number of rulemaking 
dockets concerning marine mammals held in captivity, confiscation of 
suffering animals, and licensing requirements for applicants.
    In the Trade Practices area, we provide legal services under the 
Packers and Stockyards Act (P&S Act), the Perishable Agricultural 
Commodities Act (PACA), and the Capper Volstead Act and serve as the 
liaison for the Department under the Memorandum of Understanding 
between the Department, the Federal Trade Commission and the Department 
of Justice. Of special note this year under the P&S Act, we are 
litigating two enforcement cases against large packers alleging 
violations of the Act. Our complaint against Excel Corporation alleges 
that the packer engaged in an unfair practice when it changed the 
formula by which it calculated lean percent in slaughter hogs, a 
calculation that directly affected the price the packer paid to 
producers, without telling producers of the change. As a result of the 
change, the packer paid lower prices for 80 percent of the hogs it 
purchased. In the second case, the complaint alleges that Farmland 
National Beef Packing Company (Farmland) subjected a feedlot to an 
unreasonable prejudice or disadvantage by retaliating, changing its 
buying practices (and failing to buy at all) after the feedlot manager 
criticized the packer in a letter to a farm journal. The hearing in the 
Excel case has been completed and the briefing will be completed by 
September 2001; the Farmland hearing will be completed sometime this 
summer. In addition, we are assisting the Packers and Stockyards 
Programs (P&SP) of the Grain Inspection, Packers and Stockyards 
Administration (GIPSA) in its regulatory initiatives, including a 
series of regulations to clarify the requirements of the Packers and 
Stockyards Act with regard to recordkeeping and contract disclosure. 
OGC also referred a case against Perdue, Inc. to the Department of 
Justice alleging that Perdue had violated the P&S Act by its actions 
regarding the placement of producers on a rider production contract 
without meeting the contractual conditions precedent to the use of that 
contract. DOJ filed the complaint in that case and the case was settled 
with Perdue's agreement to clarify the conditions under which the rider 
contract would be used and the meaning of the terms the contract 
employs. As a result of last year's General Accounting Office report 
recommending changes in P&SP's investigation procedures in competition 
cases, OGC has agreed to work closely with P&SP on the process by which 
its investigations are planned and implemented and to assign attorneys 
to work with agency investigators in the initial stages of case 
development and investigation. Congress provided additional resources 
to OGC for the staffing necessary to provide these additional legal 
services, and OGC's participation in the early stages of P&SP's case 
investigation is now beginning.
    OGC has provided significant legal resources to the PACA program 
this year, with a special emphasis on cases arising out of Operation 
Forbidden Fruit, the investigation and indictment of a number of 
federal inspectors and produce wholesalers for altering inspection 
documents as a result of bribes. A large number of reparation cases, 
cases between private parties that are determined by the Secretary, 
have been filed seeking damages as a result of the altered inspection 
documents. Again this year, we have provided significant legal 
resources in the preparation of cases alleging that produce companies 
have misrepresented the kind or quality of produce they are selling. In 
one case, the Department alleges that an apple distributor 
misrepresented the variety of apple it shipped to retailers in more 
than two hundred transactions.
    Also of significance in the Trade Practices area this year, OGC 
continues to act as liaison to the Department of Justice and the 
Federal Trade Commission on competition issues, pursuant to the 
Memorandum of Understanding between the three agencies. OGC expedites 
the provision of data or expertise to the Department of Justice (DOJ) 
on agricultural issues as DOJ or the FTC investigates firms or reviews 
mergers or acquisitions of agricultural businesses. OGC is also working 
closely with the FTC and DOJ to train investigators and economists of 
the Department's Packers and Stockyards Programs (P&SP) in 
investigative techniques and case preparation as recommended by the 
September GAO report on P&SP's investigation of competition cases.
                           rural development
    OGC also provides legal services to USDA agencies which manage some 
of America's largest loan portfolios. OGC continues to be heavily 
involved in debt collection and farm foreclosure actions with many 
debts going back to the emergency loan program of the 1980's. OGC 
continues to defend several lawsuits involving hundreds of multifamily 
housing projects whose owners want to prepay their loans and thereby 
remove a significant number of low income housing units from rural 
America. We continue to provide assistance to the Farm Service Agency 
and other agencies within the Rural Development mission area in 
implementing the Debt Collection Improvement Act of 1996, specifically 
involving credit reporting, electronic transfer of funds, offset, and 
cross servicing. OGC continues to work with the Rural Business-
Cooperative Service (RBS) in reviewing most of their cooperative 
agreements and in improving their cooperative agreement process. We 
have also been working with RBS' Office of Community Development in the 
designations of Empowerment Zones and Communities. We are working to 
resolve an increasing number of major defaults on Business and Industry 
loans. We also are now working with the Rural Housing Service (RHS) in 
implementing the Housing Administration Grant Program for Agriculture 
and Seafood Processor Workers authorized under Public Law 106-387.
    Also in the Rural Development area, OGC successfully assisted RHS, 
which worked in conjunction with the Department of Housing and Urban 
Development and the Department of Veterans Affairs to streamline the 
housing loan application process for Native American borrowers on 
Indian Reservations.
    Implementation of the Agriculture Risk Protection Act of 2000 has 
increased the responsibilities of the Risk Management Agency. 
Compliance efforts will be enhanced, requiring extensive legal service 
to develop administrative cases against producers, agents, loss 
adjusters, and reinsured companies. Millions of dollars are now 
available for contracting and reimbursement, all of which will require 
a significant time for legal review. RMA continues to implement new 
risk management programs developed by the private industry to expand 
the number of producers covered under that safety net.
    We continue to work with Department officials to reduce regulatory 
burdens, eliminate obsolete or unnecessary regulatory requirements, and 
streamline regulations, particularly in the areas of rural, farm and 
utility lending. For example, OGC has worked extensively with FSA over 
the past year to rewrite all of their Farm Loan Programs loan making 
and servicing regulations to reduce regulatory burdens where possible 
and to clearly state agency policy. We are assisting RHS in 
streamlining and rewriting loan making and servicing regulations for 
their multiple family housing loan program and their environmental 
regulations. Our efforts on these long-range projects will continue 
into fiscal year 2002.
    The need for legal services by the rural utility programs of the 
Rural Utilities Service (RUS) and the Rural Telephone Bank (RTB) 
increased significantly during fiscal year 2000 as RUS made significant 
changes in existing financing programs and implemented a number of new 
programs. The changes included development of regulations changing the 
basic lending policies in the telecommunications program, the 
development of fast track financing for certain categories of new 
generation facilities, the implementation of a loan and grant pilot 
programs for funding broadband telecommunications facilities in rural 
areas, and the implementation of a fundamentally new treasury rate loan 
program. In addition, RUS experienced dramatic growth in its existing 
lending programs, with the electric program experiencing an increase of 
over a $1 billion targeted to financing new generation capacity.
    Substantial legal services continued to be required in the 
documentation of RUS loans and grants, in servicing and collection 
issues associated with the $38 billion RUS electric and 
telecommunications loan portfolio, and with a series of projects that 
responded to the dynamic changes occurring in the electric and 
telecommunications industries. The demands for legal services from 
RUS's power supply financing program have been particularly dramatic as 
OGC and RUS worked on financing requests for some 25 power supply 
projects totaling in excess of $2.5 billion. To respond to this growth, 
OGC helped RUS and a private market lender develop fast track financing 
for combustion turbines. OGC played a key role in developing the 
agreement, implementing documents and a programmatic environmental 
analysis for combustion turbines that will greatly streamline the 
environmental procedures.
    OGC worked closely with RUS on a number of complex projects 
reflecting the changing electric industry including mergers and 
alliances, corporate reorganizations, the unbundling of transmission, 
generation, and distribution services, the restructuring of existing 
power supply arrangements and the development of the new power 
marketing arrangements. These projects frequently involve RUS loans and 
guarantees or lien accommodations of hundreds of millions of dollars 
and require the development of complex new contractual and security 
arrangements.
    Legal services were required to implement a newly authorized 
treasury rate loan program targeted to distribution borrowers and to 
advise and assist RUS on a series of distribution projects reflecting 
the changing electric industry. Borrowers in a number of states have 
been undertaking to restructure and rationalize their retail operations 
through the sale or exchange of facilities and service territory. Among 
other matters, the projects often required substantial revision in the 
terms of the RUS required wholesale power contracts, in the security 
arrangements for RUS loans, and in the governing structure of the 
surviving entity.
    In the area of loan collection activities, OGC provided legal 
support for a number of projects involving financially troubled 
borrowers. OGC worked closely with RUS to develop both a corporate and 
financial restructuring of the borrowers that protected the 
government's financial and programmatic interests. State retail 
competition legislation has made this project particularly problematic.
    In the RUS telecommunications program, OGC worked closely in the 
development of a series of new policies and regulations addressing many 
industry changes including, for example, the definition of adequate 
telecommunications service, the convergence of technology, and the new 
structures for delivering telecommunications services. New programs 
requiring the development of procedures and implementing documents 
included the weather radio grant program, and the broadband loan and 
grant pilot program. OGC also provided legal services in connection 
with the operations of RTB on a range of matters including the 
privatization of the RTB and the capital structure and the rights of 
certain classes of stockholders of RTB.
    In the RUS water and waste program, legal services were required in 
connection with a number of cases in litigation in which municipalities 
and other public bodies seek to condemn or otherwise take water and 
waste systems financed by RUS notwithstanding federal statutory 
protections afforded those systems.
                           natural resources
    In the natural resources area, the Natural Resources Division and 
OGC Field Offices have been involved in a number of extremely 
significant undertakings concerning national forest management and 
natural resources conservation programs. We also assisted two of our 
client agencies, the Forest Service and the Natural Resources 
Conservation Service, daily in support of their program missions.
    We have provided assistance nationally to the Natural Resources 
Conservation Service (NRCS) in administering a number of conservation 
programs, on private or other non-Federal farm, pasture and non-
industrial forest lands, including the Highly Erodible Land and Wetland 
Conservation Programs, Environmental Quality Incentives Program, 
Wetland Reserve Program, Farmland Protection Program, and the Emergency 
Watershed Protection Program.
    OGC also continues to provide legal counsel to NRCS in the 
enforcement of the highly erodible land and wetland conservation 
compliance provisions of the Food Security Act of 1985. OGC assists 
NRCS in determinations for enforcement and for granting statutorily-
authorized variances. OGC defended the agency in administrative appeals 
and lawsuits challenging the implementation of the conservation 
provision of the Food Security Act.
    Additionally, OGC continues to provide legal services in support of 
the Wetlands Reserve Program (WRP). As of the end of fiscal year 2000, 
that program has acquired easements on 935,001 acres. OGC reviews 
titles for easement acquisitions, as well as restoration contracts.
    OGC provided legal counsel to the NRCS in promulgating the 
agricultural pollution and natural resources conservation elements of 
the President's Clean Water Action Plan, including the joint EPA/USDA 
Strategy for Animal Feeding Operations, and in defending those elements 
in litigation. OGC also assisted NRCS and the Forest Service in 
reviewing the regulations promulgated by the Environmental Protection 
Agency under the Clean Water Act for total maximum daily loads of 
pollutants. The increasing concern and focus on water quality matters, 
particularly regarding non-point sources of pollution, have required a 
substantial increase in the level of legal services that we provide to 
the Forest Service and the Natural Resources Conservation Service.
    In the forest management program area, OGC provided litigation 
support to the Department of Justice in collecting millions of dollars 
in damages owed the government by defaulting timber sale purchasers. 
OGC provided assistance to the Department of Justice in the second 
trial of a case concerning the collection of millions of dollars in 
damages owed the government. OGC also assisted in limiting contractual 
damages payable by the client agency for environmentally protective 
actions. OGC provided legal assistance on the defense of approximately 
35 lawsuits challenging timber sale suspensions, modifications and 
cancellations and alleging the right to takings compensation pursuant 
to the Fifth Amendment to the U.S. Constitution. OGC provided legal 
assistance on two matters involving the Sustained Yield Management Act 
of 1944, a statute that provides the authority for the Secretary to 
establish sustained yield units on national forest land for the 
continuous supply of timber and forest products in order to provide for 
community stability.
    The nationally controversial timber sale program in Alaska 
continues to require significant legal services. Attorneys in both the 
Washington office and the Juneau field office are assisting with 
litigation claims of $1.5 billion arising from denial of contract 
claims on the Alaska Pulp Corporation (APC) 50-year timber sale 
contract on the Tongass National Forest. APC's aggressive litigation 
stance required the commitment of significant OGC time and resources to 
defend against its $1.5 billion claim and the related massive discovery 
effort. Expert discovery on damages issues is scheduled to begin on 
June 1, 2001. It is expected that the damages phase of the litigation 
will be as time/resource-intensive as the liability phase.
    OGC provided legal advice and assistance to the Forest Service 
regarding implementation of stewardship contract pilot projects aimed 
at harvesting timber while simultaneously advancing forest resource 
management objectives. Under these stewardship contracts, timber is 
harvested and contractors provide services designed to achieve land 
management goals, including road & trail maintenance, watershed 
restoration and restoration of wildlife habitat.
    OGC advised on planning issues with respect to those forest plans 
currently undergoing revision. The number of revisions should increase. 
Compliance with the Quincy Library Group pilot project (section 401 of 
the fiscal year 1999 Interior Appropriations Act, Public Law 105-277) 
and Sierra Nevada framework also requires continuing OGC advice. OGC 
also provided and will continue to provide substantial assistance to 
the Department and the Forest Service related to revision and 
implementation of the land and resource management planning regulations 
and various transportation and roads initiatives. In addition, 
providing preventive law advice to harmonize Endangered Species Act 
(ESA) compliance with the procedural requirements of the National 
Environmental Policy Act (NEPA) and the National Forest Management Act 
(NFMA) requires continued OGC attention, particularly with respect to 
taking into account new information and coordinating management 
decisions for wide-ranging species such as salmon, Indiana bats and 
lynx. OGC continues to advise on interagency efforts, such as 
streamlining ESA and NEPA compliance, wildland fire management, and the 
application of the Migratory Bird Treaty Act. Approximately 100 cases 
are pending challenging Forest Service decisions on NEPA, NFMA and ESA 
grounds, and the current trend of increased litigation is expected to 
continue. OGC assistance is also provided for project administrative 
appeals, hundreds of which are filed each year.
    In real property matters, OGC provides extensive legal assistance 
to the Forest Service and the Natural Resources Conservation Service. 
In fiscal year 2000, over $300 million was appropriated to USDA 
agencies for the acquisition of lands and interests in lands. These 
land transactions involve considerable legal involvement in 
contracting, title work and closing. Additionally, legal counsel is 
provided for the entire spectrum of real estate matters related to the 
National Forest System including title claims, trespass, appraisal, 
survey, special use authorizations and similar issues.
    OGC provides legal services regarding land title claims involving 
private parties, Indian tribes and pueblos, and state and local 
governments. These claims arise variously under treaties, Spanish land 
grants, and statutory grants by Congress. Last year, OGC participated 
in the successful settlement of land claims of the Pueblo of Santo 
Domingo through enactment of Public Law 106-425. Other settlements are 
in active negotiation.
    In July, 2000, the Forest Service completed the single largest land 
acquisition ever undertaken with funds appropriated from the Land and 
Water Conservation Fund. The Baca Ranch in the State of New Mexico was 
acquired for $101 million and designated by Congress as the Valles 
Caldera National Preserve. The Preserve is a 97,000 acre area 
surrounded by the Santa Fe National Forest and contains nationally 
significant scenic, geologic and wildlife resources. OGC handled the 
complex contractual elements of the acquisition as well as providing 
counsel for the authorizing legislation. OGC will continue to provide 
legal advice and assistance to the Valles Caldera Trust related to 
management of the Preserve.
    Additionally, OGC has provided an increasing amount of advice to 
the Forest Service in its activities related to hydro power projects, 
in part due to the approximately 200 relicensing proceedings before the 
Federal Energy Regulatory Commission (FERC) occurring in the next 10 
years for projects located on National Forest System (NFS) lands. OGC 
is assisting the Forest Service in its efforts to obtain fair market 
value for the use of national forest lands for these hydro power 
projects.
    In the minerals area, OGC provided extensive legal services to the 
Forest Service in identifying needed changes to the regulations 
governing the mining of metals on the tens of millions of acres of land 
administered by that agency which are subject to the United States 
mining laws. OGC also continued to devote significant resources to 
defending an administrative challenge to the validity of numerous 
mining claims in a National Recreation Area (NRA) and to defending a 
related lawsuit alleging that a statute effected a taking of related 
mining claims in the NRA. OGC also furnished substantial assistance on 
issues pertaining to the United States mining and mineral leasing laws 
arising from a rule which would bar the construction or reconstruction 
of roads in inventoried roadless areas.
    In Congressional matters, OGC provided extensive assistance in 
drafting legislation relating to the Administration's fiscal year 2001 
budget for the Forest Service, including the HIRE proposal to establish 
a mandatory appropriation to fund ecosystem restoration projects and to 
create jobs for local workers. OGC reviewed and analyzed numerous 
provisions of the 2001 Department of the Interior and Related Agencies 
Appropriations Act, including Title IV funding for hazardous fuel 
reduction activities. OGC furnished substantial legal assistance in 
drafting, reviewing, and implementing legislation stabilizing payments 
to states by decoupling them from forest receipts.
    In the recreation area, OGC continued to provide extensive 
assistance to the Department of Justice in the successful defense of 
the Forest Service's noncommercial group use regulation. Nine federal 
district courts and four federal courts of appeals have upheld the 
constitutionality of the regulation under the First Amendment. OGC also 
provided legal assistance in the development of a final cost recovery 
rule for the special uses program. Additionally, OGC analyzed the 
treatment of broadcasting revenue associated with the use of NFS lands 
for the 2002 Winter Olympics under the new Ski Area Permit Fee Act; 
developed a policy for authorizing target ranges on NFS lands that 
addresses public safety and resource protection; and crafted national 
agency policy on indemnification, insurance, and other liability issues 
arising in connection with the special uses program. OGC is also 
coordinating all types of legal issues and litigation pertaining to 
management of off-highway vehicle use on NFS lands.
    OGC provided substantial assistance to the Department on issues 
relating to compliance with applicable pollution control laws. In 
particular, OGC assisted the USDA Hazardous Materials Policy Council 
and the USDA Hazardous Materials Management Group in carrying out the 
hazardous materials management program. In addition, OGC provided 
assistance and advice to the Department and the Forest Service on the 
cleanup of hazardous materials sites on NFS lands. OGC represented the 
Forest Service, along with the Department of Justice, in negotiations 
with non-federal parties responsible for the cleanup of contamination 
on National Forest System lands. OGC also played a substantial role in 
advising the Department on compliance with applicable pollution control 
standards, including negotiating compliance agreements with the United 
States Environmental Protection Agency (EPA) and State environmental 
enforcement agencies. OGC also provided the Department with advice to 
protect the Department's interests regarding hazardous materials issues 
which arose in the context of land transfers and acquisitions. Finally, 
OGC provided significant legal services in connection with pollution 
control legislative proposals, including Superfund Reauthorization.
                          general law division
    The General Law Division (GLD)provided extensive legal services to 
the FS in determining the consistency of mineral development with 
statutes governing millions of acres of land acquired under New Deal 
programs, successfully challenging the validity of mining claims for 
more than 1,000 acres of land in a National Recreation Area, and in 
determining a company's right to dispose of mining waste on NFS lands.
    As the new Administration and Congress engage in new initiatives to 
make the delivery of services more efficient, streamlined, and customer 
friendly, we anticipate greater demands in the division. These range 
from providing legal services regarding personnel and labor matters, 
the Freedom of Information Act and the Privacy Act, and debt collection 
initiatives; to providing legal support for creative approaches for 
conducting Department activities. GLD has been called upon with 
increasing frequency, to address, a number of issues relating to the 
time availability of funds, augmentation of appropriations, compliance 
with the Antideficiency Act, and the transfer of appropriations. At the 
same time, GLD is fielding a steady stream of requests for legal advice 
in such fiscal matters as the use of appropriated funds for travel; 
leasing of real property; advisory and assistance services; personal 
services; and meals, refreshments, and miscellaneous items. GLD will 
continue to advise USDA agencies on the proper use of instruments 
(contracts, grants, cooperative agreements, and memoranda of 
understanding), and the terms and conditions necessary to document 
agency transactions and fiscal obligations.
    We anticipate additional demand on GLD resources arising out of 
requests to assist USDA agencies, especially the research agencies, in 
working with the Congress on the upcoming Farm Bill. In addition, GLD 
will provide assistance to the Office of the Chief Financial Officer on 
its implementation of the Federal Activities Inventory Reform Act of 
1999, in the performance of reviews of Government activities under OMB 
Circular A-76, and in the implementation of the Federal Financial 
Assistance Management Improvement Act of 1999. GLD also will continue 
to assist the Office of Inspector General (OIG) and USDA program 
agencies in resolving legal issues arising out of OIG audits and 
investigations.
    With regard to the procurement of property and services, GLD will 
devote substantial resources to assist the Chief Information Officer to 
improve information technology management in the Department, with some 
emphasis in the areas of computer privacy and cyber-security. GLD will 
continue to provide legal support to all USDA agencies in procurement 
and property matters such as complying with the numerous socioeconomic 
policies and the competition requirements applicable to orders against 
other agency or government-wide contracts. GLD will work with 
contracting officials to support the research, development, acquisition 
and use of bio-based products, including alternative fuels. Also, GLD 
will continue to provide an enhanced level of legal representation of 
USDA agencies in protests filed with the General Accounting Office. GLD 
also will continue to represent USDA agencies in contract claims 
brought before the Agriculture Board of Contract Appeals and serve as 
agency counsel assisting the Department of Justice in contract claims 
before Federal courts. In property matters, there has been an increase 
in the requests for GLD assistance concerning the responsibilities and 
costs to the Department for the operation and maintenance of its 
facilities, security issues, workplace violence, and bioterrorism and 
other emergency preparedness plans.
    GLD will continue to provide a sustained rate of legal services to 
the National Appeals Division (NAD) regarding procedural, Equal Access 
to Justice Act (EAJA) and general administrative law matters. It 
provides information to the field and coordination of OGC litigation 
nationwide and assists the Department of Justice in cases seeking 
judicial review of NAD decisions in Federal courts. Legal issues 
include those arising from the NAD organic statute and NAD regulations, 
such as exhaustion of administrative remedies, jurisdiction of the 
district courts, implementation and effective dates of NAD 
determinations, and applicability of other laws, such as EAJA and the 
Administrative Procedure Act, to NAD proceedings.
    GLD will continue to provide ongoing advice to the research, 
education, and economics (REE) agencies of USDA with respect to the 
implementation and administration of their programs and activities, 
including both competitive and non-competitive assistance programs. 
This will involve the review of Federal Register notices, grant 
solicitations, and rulemakings, as well as the issuance of legal 
opinions on such issues as the scope of statutory authorities and 
eligibility requirements. GLD will also assist REE with intellectual 
property issues associated with bringing the benefits of research 
results to the public.
    GLD will continue to provide advice to USDA agencies regarding 
affirmative action and minority preference programs as the law and 
Government regulations, particularly in the procurement sector, 
continue to evolve in this area. It also will continue to provide 
advice relating to outreach to disaffected groups, particularly the 
outreach to socially disadvantaged farmers.
    With regard to general litigation, GLD anticipates that more 
reverse Freedom of Information Act (FOIA) cases involving exemption 
b(6) will be filed. GLD has defended several suits in which the 
Department is sued in one jurisdiction to prevent the release of 
information claimed to be exempt as privacy-protected while at the same 
time the Department is sued, or is under threat of a suit, in another 
jurisdiction for failing to release the same or similar information. 
GLD is also defending increasing numbers of FOIA suits in which there 
has been no response to an initial FOIA request or there has been no 
response to a FOIA appeal. These suits are difficult because of the 
need to gather and review documents which have not been reviewed by GLD 
at an earlier stage and to do so within the time constraints imposed by 
litigation. GLD anticipates that these trends will continue and 
significant legal resources will be required to defend these suits.
    GLD will continue to advise agencies regarding ethics, personnel, 
benefits, and other matters. However, we anticipate devoting more legal 
resources to these areas in the next year to assist new appointees in 
the Department.
                          legislation division
    OGC continues to provide legislative drafting and related 
assistance to the Department and Congress on major legislative 
activities that involve the Department and its programs. Extensive 
assistance was provided to Departmental policy officials and 
Congressional staffs in drafting and analyzing various legislative 
proposals recently enacted by Congress, including crop insurance reform 
and plant protection legislation enacted as part of the Agricultural 
Risk Protection Act (Public Law 106-224) and disaster relief for 
farmers and appropriations provisions contained in Agriculture, Rural 
Development, Food and Drug Administration and Related Agencies 
Appropriations Act, 2001 (Public Law 106-387) and in the Consolidated 
Appropriations Act, 2001 (Public Law 106-554). In addition, we are 
planning to participate in the preparation of legislation in support of 
the President's fiscal year 2002 budget request for the Department.
                          litigation division
    Litigation Division attorneys, in cooperation with attorneys from 
DOJ and other divisions in OGC, presented USDA's position in appellate 
courts. These efforts led to the D.C. Circuit Court upholding a 
decision of the Secretary to revoke a license issued under the 
Perishable Agricultural Commodities Act after the licensee engaged in 
commercial bribery. The Fifth Circuit Court, sitting en banc, found 
that a district court exceeded its jurisdiction by entertaining a 
generalized challenge to management practices in four National Forests. 
The D.C. Circuit held that the Forest Service could impose conditions 
on a hydroelectric power license issued by the Federal Energy 
Regulatory Commission which included a plan to promote the growth of 
wild rice in lakes in a National Forest. The U.S. Supreme Court is 
hearing a case challenging assessments charged against mushroom 
producers which fund an advertising program designed to increase 
consumption of mushrooms.
                              civil rights
    The Secretary wants to ensure that all of our customers and 
employees are treated with dignity and respect, and are afforded equal 
employment opportunity (EEO) and equal access to all USDA programs. 
Critical to the achievement of these goals was the creation, in 1998, 
of the Civil Rights Division (CRD) within OGC. Staffed with attorneys 
with specialized expertise in civil rights and EEO law, CRD is charged 
with providing legal services to the Secretary and all agencies of the 
Department on civil rights and EEO issues.
    CRD has maintained a stellar litigation record while also providing 
prompt and sound legal advice to our client agencies. However, as CRD's 
reputation continues to improve, the demands on the office only 
increase. CRD's litigation duties currently include 7 program class 
actions and 10 employment class actions, each at different stages in 
the litigation process. The requested damages in these class actions 
could cost USDA upwards of $21.0 billion.
    CRD represents USDA in the defense of six class action program 
complaints currently pending in Federal district court. CRD also played 
a critical role in the settlement of the Pigford/Brewington litigation. 
The settlement helped the Department to reinvigorate its efforts to 
become a Federal civil rights leader in the 21st century. CRD has taken 
the leading role in ensuring that USDA meets its commitments under the 
Pigford/Brewington consent decree, particularly with respect to the 
production of relevant documents and necessary legal analyses related 
to each claim filed pursuant to the consent decree, as well as ensuring 
the Department's compliance with adjudicator and arbitrator decisions. 
CRD is working with FSA and DOJ to develop timely and appropriate 
Government responses to claims filed by eligible farmers.
    Key to settlement of the Pigford and Brewington cases was the 1998 
enactment of the waiver of various statutes of limitations, that allows 
farmers with long-standing discrimination complaints to have their 
claims finally heard. CRD and OGC field offices are representing the 
Department in the 60 cases in which a hearing has been requested. With 
respect to farmer discrimination claims not covered by the Pigford and 
Brewington settlement, CRD works with the USDA Office of Civil Rights 
(CR) to ensure that all claims receive expeditious and fair 
consideration, within the bounds set by applicable law.
    With respect to the ongoing implementation of the Pigford consent 
decree, we anticipate that several thousand additional Track A claims 
will be filed. CRD attorneys must review the agency response on each 
claim prior to submission to the adjudicator. In addition, several 
hundred more Track B hearings will take place. CRD attorneys must 
assist the Department of Justice (DOJ) attorneys in their 
representation of the agency; including assisting DOJ with document 
discovery, identification of similarly situated white farmers, and 
responses to interrogatories. Furthermore, CRD will have the primary 
Departmental role in the Monitor review process. All claimants can 
petition the Monitor to reevaluate their claims and CRD will need to 
file a response to each petition. We anticipate that most of the 
roughly 8,000 claimants whose claims were denied may seek Monitor 
review. Thus, CRD will need to file a written response to each of these 
petitions. In addition, for cases in which the government seeks Monitor 
review of a claim, CRD will prepare the Government's petitions for 
Monitor review. We anticipate several hundred individual petitions may 
be filed by the Government.
    CRD also represents USDA in the defense of six class action 
employment complaints pending before the Equal Employment Opportunity 
Commission (EEOC). To date, only one of these complaints has been 
certified by EEOC to proceed as a class action. In addition, CRD is 
representing USDA in the defense of two additional class action 
employment complaints currently on appeal before EEOC's Office of 
Federal Operations. In recent years, CRD has settled two employment 
class action complaints under which individual complainants are 
currently pursuing their claims.
    Recent years have seen a drastic increase in the demand for CRD's 
litigation services in a number of formal individual complaints filed 
by USDA employees with the EEOC. For example, 783 formal complaints 
were filed with USDA during fiscal year 2000, and there are nearly 
1,872 active EEO cases pending throughout USDA. CRD continues to carry 
a full workload of complex and politically sensitive individual EEO 
cases involving either issues of first impression or disputes over 
positions at the highest levels within USDA. CRD litigates these cases 
on behalf of the Department without the assistance of DOJ. These 
individual cases require constant attention, travel across the country, 
and interaction with senior management officials throughout USDA.
    In addition to its primary litigation responsibilities, CRD 
continues to assist DOJ in the litigation of numerous individual civil 
rights cases in both the employment and program areas pending in 
Federal district court. The Assistant U.S. Attorneys (AUSAs) and/or DOJ 
attorneys serve as lead counsel, but they are requiring an ever-
increasing amount of litigation support from CRD, including draft 
answers, full litigation reports, dispositive motions, discovery 
responses, witness preparation, and deposition and trial participation.
    To address other employment issues, CRD will intensify its efforts 
to provide training and technical assistance to OGC field attorneys and 
to Department officials, civil rights directors, and employee relations 
specialists. The goal is to identify and address EEO obstacles before 
they elevate into litigation. Where issues are identified, CRD will 
bring the concerns to the attention of appropriate Department 
officials, with legal analysis and recommendations for resolution.
                    fiscal year 2002 budget request
    For fiscal year 2002, OGC is requesting an increase of $1,116,000 
is for the anticipated fiscal year 2002 pay raise. This critically 
important increase is needed to support and maintain current staffing 
levels to meet the current and projected increased demand in delivering 
legal advice, training, appeal and litigation legal services to 
agencies. Approximately 92 percent of OGC's budget is in support of 
personnel compensation, which leaves no flexibility for absorbing pay 
cost increases. Unlike large program agencies which have more 
flexibility concerning budget implementation, OGC can only absorb this 
increase by reducing staff.
                                closing
    That concludes my statement. We very much appreciate the support 
this Subcommittee has given us in the past. Thank You.
                                 ______
                                 

                 Office of the Chief Financial Officer

Prepared Statement of Patricia E. Healy, Acting Chief Financial Officer

    Mr. Chairman and members of the Subcommittee, I am pleased to 
present the fiscal year 2002 budget request for the Office of the Chief 
Financial Officer (OCFO) and the Department's Working Capital Fund 
(WCF).
    OCFO includes a headquarters staff responsible for leadership and 
oversight of USDA financial management, and a staff in New Orleans, 
Louisiana, which processes payroll and administrative data for more 
than 40 departments, independent agencies, and congressional entities 
and provides the record-keeping services for the Government-wide Thrift 
Savings Plan (TSP).
    Throughout fiscal years 2000 and 2001, USDA has continued to make 
significant progress towards improving its financial credibility and 
accountability. The following examples give you a glimpse of our 
progress:
    Financial Statements.--For the second consecutive year, USDA 
submitted its consolidated financial statements to the Office of 
Management and Budget (OMB) by the March 1 deadline. We have also been 
working on automating the statement preparation process to improve 
efficiency and consistency of data processing. USDA has six stand-alone 
audits, three of which--the Food and Nutrition Service (FNS); the Rural 
Telephone Bank; and the Federal Crop Insurance Corporation--received 
unqualified or ``clean'' audit opinions. Of the remaining three stand-
alone audits--Rural Development (RD), the Forest Service (FS), and 
Commodity Credit Corporation (CCC)--significant progress has been made 
in improving their audit results. OCFO is working closely with RD, Farm 
Service Agency (FSA) and CCC on a credit reform working group, 
comprised of these agencies, the Office of Inspector General, and the 
General Accounting Office (GAO) as an advisor, to address the credit 
reform issues keeping these agencies from a clean opinion. We are also 
working closely with the Forest Service on its plans for financial 
management improvements. We are hopeful that these efforts will result 
in an improved USDA consolidated financial statement audit opinion for 
fiscal year 2001.
    Debt Collection.--USDA debt constitutes about 37 percent of all 
non-tax debt owed to the Federal Government. The $104.8 billion 
portfolio includes loans for rural housing units, rural utilities, farm 
operating and disaster assistance, international export and 
development, and rural business enterprises. During fiscal year 2000, 
USDA collected $188.0 million in delinquent debt through Treasury's 
Administrative Offset Program and other debt collection tools. This 
figure represents a 38 percent increase over the $136.2 million 
collected in fiscal year 1999, a 100 percent increase over the $93.9 
million collected in fiscal year 1998, and a 163 percent increase over 
the $71.5 million collected in fiscal year 1997. In addition, the 
fiscal year 2000 delinquent receivables totaled $6.3 billion, a 
decrease of nearly 16 percent from the $7.5 billion collected in fiscal 
year 1997. Collections of delinquent USDA debt have almost tripled 
(from $63.2 million to $188.0 million) since 1996 as a result of the 
Debt Collection Improvement Act of 1996 (DCIA) and a greater reliance 
on referring debts for Treasury offset, cross-servicing, Internal 
Revenue Service (IRS) 1099 reporting, and internal/external offset 
programs.
    Integrated Financial Management System.--USDA continues to make 
significant progress in implementing the Foundation Financial 
Information System (FFIS), the cornerstone of financial management and 
administrative systems improvements at USDA. The success of USDA in 
implementing the system according to the aggressive schedule that we 
committed to in fiscal year 1999 led us to accelerate the 
implementation schedule for fiscal year 2000. As a result, four major 
agencies, the Animal and Plant Health Inspection Service (APHIS), the 
Rural Development (RD) agencies, the Farm Service Agency (FSA) and the 
Natural Resources Conservation Service (NRCS), were all implemented on 
October 1, 2000. Three of these agencies were implemented ahead of 
schedule. Work is on schedule to implement eight agencies on October 1, 
2001. These are: Agricultural Research Service (ARS); Cooperative State 
Research, Education, and Extension Service (CSREES); Economic Research 
Service (ERS); National Agricultural Statistics Service (NASS); 
Agricultural Marketing Service (AMS); Food and Nutrition Service (FNS); 
the Office of the Inspector General (OIG); and Departmental 
Administration (DA) and Staff Offices, including the Working Capital 
Fund (WCF). Currently 78 percent of the USDA workforce is served by 
FFIS. Final implementation will occur on October 1, 2002 with Grain 
Inspection, Packers & Stockyards Administration (GIPSA) and Foreign 
Agricultural Service (FAS).
    Government Performance and Results Act (GPRA).--In fiscal year 
2000, USDA issued a restructured strategic plan for fiscal year 2000-
2005 focused on five overall USDA goals that cross organizational lines 
in the Department. The OCFO led the Department-wide Planning Team that 
developed the new plan using a corporate management approach to 
strategic planning. As a result, the previous strategic plan, which 
consisted of 30 different agency plans, has been replaced by a 
streamlined plan written in plain language. The strategic plan, as well 
as the fiscal year 2002 performance plan, reflect a corporate approach 
to performance management.
    National Finance Center.--The OCFO's National Finance Center (NFC) 
in New Orleans processes payroll for approximately 460,000 employees in 
the Federal civilian workforce and provides record-keeping services for 
the $92 billion Thrift Savings Plan, a 401(k) type plan, for 2.5 
million Federal employees. NFC is currently working with the Federal 
Retirement Thrift Investment Board to add the Small Capitalization 
Stock Investment (S) Fund and the International Stock Investment (I) 
Fund to the current record-keeping system, maintained by NFC, effective 
May 1, 2001.
    These examples represent progress that will continue only if we 
receive the necessary resources to establish the framework in which we 
will lead, direct, and coordinate USDA's financial management 
priorities to satisfy congressional mandates and provide the Secretary, 
the Congress, and program managers with credible financial information 
on which they can base decisions.
                    fiscal year 2002 budget request
    Mr. Chairman, OCFO is requesting a fiscal year 2002 budget of 
$5,335,000, an increase of $175,000 over fiscal year 2001. The OCFO 
staff funded through the appropriation has little flexibility to absorb 
pay and other cost increases. The requested pay cost increase of 
$175,000 is needed to maintain the current staff level for leadership 
and oversight of financial management at USDA. The maintenance of this 
budget level is critical if we are to devote the necessary staff and 
resources to work on the following priorities:
    Lead the Corporate Administrative/Financial Systems Strategy 
Implementation.--In fiscal year 2000, the Chief Financial Officer, 
working with the Chief Information Officer and Assistant Secretary for 
Administration, led the Corporate Administrative Systems Executive 
Committee tasked with developing a corporate strategy for 
administrative/financial systems. The Committee met extensively over a 
six-month period to examine the eight corporate systems identified as 
most critical for the successful operation of USDA. The Committee 
evaluated each system component, the criticality of the system to the 
Department's overall administrative/financial operations, and the 
urgency of the need to have the functionality implemented. The systems 
in the corporate strategy and their priorities for implementation are: 
accounting/budget execution, telecommunications infrastructure/
security, procurement; payroll, human resources, travel, property, and 
budget formulation.
    These systems require the OCFO to work with the agencies to review 
their current business practices to ensure that these systems will 
produce accurate, timely and reliable data. Currently, program 
managers, policy officials, members of Congress, and other stakeholders 
do not always have the reliable and timely information needed to 
support essential program and financial management decisions, as well 
as develop, monitor, and report on performance plans and their goals 
and objectives, as required by GPRA.
    The fundamental objective is to complete the necessary 
implementation of these systems within five years. A constraint in our 
ability to implement the corporate strategy has been the availability 
of funding. We are grateful to the Appropriations Committees of the 
Senate and House for the language provided in last year's bill allowing 
the Secretary of Agriculture, with the Committees' approval, to 
transfer unobligated balances of appropriated funds to the Working 
Capital Fund for the acquisition of plant and capital equipment 
necessary for the delivery of financial, administrative, and 
information technology services of primary benefit to the agencies of 
the Department of Agriculture. We will be providing a plan to the 
Committees shortly to seek this approval. This plan will address our 
resource requirements for the corporate strategy.
    Implement Information Infrastructure.--Consistent with the 
corporate systems strategy, OCFO will successfully complete the 
implementation of the Foundation Financial Information System (FFIS) on 
schedule. As its name implies, FFIS is intended to be the foundation 
for all the corporate systems initiatives. When FFIS is linked to other 
critical corporate systems, USDA will be able to obtain the corporate 
information required to more effectively manage operations. When fully 
implemented, FFIS will include integrated budget execution and 
accounting as well as a financial data warehouse with a powerful 
reporting capability. It will also include a tool to help the 
Department reconcile its cash accounts to Treasury records, a major 
audit finding. The reliable, accurate data provided in FFIS records, 
coupled with the powerful reporting tool, will increase USDA's ability 
to monitor operations and report results.
    Improving the USDA Audit Opinion.--In order to lead USDA to a clean 
opinion, we intend to focus our efforts on the USDA component agencies' 
audit opinions on their stand-alone statements. In addition, OCFO will 
work with all USDA agencies to ensure they address overall improvements 
in financial management and data integrity. We will continue to focus 
on improvements in four areas--implementation of the Federal Credit 
Reform Act of 1990, reconciling Fund Balances with Treasury accounts, 
addressing weaknesses in the Forest Service's financial accounting and 
reporting, and correcting material internal control weaknesses as 
outlined in auditors' reports. USDA has made significant progress in 
these areas in the past two years. With sufficient resources and focus 
by all management layers throughout USDA, we expect to see the results 
in improved and sustainable financial management processes with, as a 
by-product, an improved audit opinion.
    Enhancing and Improving NFC Operations.--The National Finance 
Center (NFC) is a centralized administrative/financial processing and 
automated information systems operation supporting USDA and Government-
wide operations. In both fiscal year 2001 and fiscal year 2002, NFC 
will expand its role in support of the Federal Retirement Thrift 
Investment Board with the introduction of additional investment options 
and the implementation of the military into the Thrift Savings Plan. 
Additionally, NFC has been selected to develop and pilot a 
reconciliation process for the Office of Personnel Management to 
reconcile Federal employee health benefits subscriptions.
    In fiscal year 2002, NFC will transition to support the 
implementation of the USDA's FFIS, while using activity-based costing 
as a mechanism for developing a new process for direct billings to 
clients. Additionally, the NFC will continue to stabilize the processes 
implemented to support cash reconciliation and strengthen its 
capabilities in that area. These initiatives will provide streamlining 
of processes and will institutionalize improved financial management 
practices to ensure that the OCFO's NFC operation meets the challenges 
of Government financial management in the 21st century.
                          working capital fund
    As we have noted in the past for the Committee, the Working Capital 
Fund serves as the Department's primary financing mechanism for 
centrally managed financial, administrative, and information technology 
services. It supports more than 20 distinct activity centers across 
five Department-level organizations, and does so effectively and 
efficiently as evidenced by the volume of service we provide to our 
USDA agencies and the high demand for our WCF services from agencies 
outside of USDA. As mentioned previously, the Congress provided the WCF 
with increased flexibility as part of the fiscal year 2001 
appropriations legislation enacted last fall. The Secretary was granted 
the authority to transfer unobligated fund balances for the purpose of 
funding through the WCF, acquisition of plant and capital equipment 
necessary for the delivery of financial, administrative, and 
information technology services. No funds will be transferred under 
this authority until a proposal is presented to and approval granted by 
both Committees on Appropriations. We are working to prepare a 
comprehensive proposal to use funds under this authority and look 
forward to discussing the issue further with you and your staffs.
    The Congress has provided us the means to address other needs in 
the corporate area as well. Fiscal year 2001 appropriations language 
granted USDA the authority to use proceeds from purchase card rebates 
to invest in systems and processes of general benefit to the 
Department. We are using this authority to reinvest in procurement and 
related systems. In fiscal year 2002, pilot projects to determine the 
best approach and system to employ for procurement services will be 
partially funded through these rebates. While the rebates will only 
fund part of our needs (approximately $3 million in fiscal year 2001), 
we appreciate the cooperation of the Congress in using these rebates, 
which arise from the use of the procurement credit card, to fund our 
investment efforts, especially those of the procurement system. I hope 
that the Congress will renew both the language to allow transfers of 
unobligated balances and the language to allow transfers of rebate 
proceeds so that we may continue to invest in these financial and 
administrative systems which are so critical to USDA operations in the 
future.
    Concerning our recurring operations, I am pleased to report that we 
are continuing to deliver timely, quality service to our USDA agencies 
and non-USDA clients in a cost-effective manner. We are especially 
proud of the cooperative efforts of WCF management, activity managers, 
and agencies represented on our WCF Executive Committee in holding down 
costs of service.
    Mr. Chairman, we have a shared responsibility to ensure that we can 
meet the needs of our agencies as they address the needs of the 
American farmer and agricultural community, and ensure financial 
accountability and effectiveness. I look forward to working with you 
and the members of this Committee to ensure that those needs are met. 
The resource estimate that I have presented to you is our commitment to 
fulfilling our responsibilities. Thank you, Mr. Chairman. I welcome any 
questions the Committee might have.
                                 ______
                                 

                National Agricultural Statistics Service

        Prepared Statement of R. Ronald Bosecker, Administrator

    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to submit a statement for this Committee's consideration in 
support of the fiscal year 2002 budget request for the National 
Agricultural Statistics Service (NASS). This Agency now conducts the 
Census of Agriculture which was begun in 1840, and the agricultural 
statistics program created in 1842. Both programs support the basic 
mission of NASS, which is to provide factual information for and about 
the Nation's food and agricultural industry.
    As American farms and ranches have progressed to making greater use 
of agricultural science and technology, the need for more detailed 
information has increased. The periodic surveys and censuses conducted 
by NASS contribute significantly to the overall information base for 
agricultural producers, handlers, processors, wholesalers, retailers, 
and ultimately, consumers. Voids in relevant, timely, accurate data 
contribute to wasteful inefficiencies throughout the entire production 
and marketing system.
    The most critical complaints received by NASS occur when there is 
an absence or shortage of official data available for a commodity, and 
therefore that segment of agriculture is forced to operate with 
insufficient information. Recent energy crises have focused immediate 
attention on the need for additional energy costs and supply data to 
measure the effect, and potential effect, on agriculture. NASS is 
cooperating with the Office of Energy and New Uses (USDA, Office of the 
Chief Economist) and the Energy Information Agency (U.S. Department of 
Energy) to collect data related to the energy supply and price problems 
and the effect on agricultural production and costs. Environmental 
concerns have meant that entirely new surveys are needed to accurately 
measure the chemicals used by the food and fiber industry. The 
globalization of agricultural commodity markets also increases the 
demand for relevant, accurate, timely, and impartial statistical 
information to assist those who sell U.S. agricultural commodities 
worldwide. For example, information concerning genetically engineered 
crops and crop varieties will enable the United States to better 
compete in the world market.
    The crop, livestock, and other related statistics are provided by 
NASS throughout the year, in cooperation with each State Department of 
Agriculture. This program, which began in 1917, has served the 
agricultural industry well and is often cited by others as an excellent 
model of successful State-Federal cooperation. The addition of the 
Census of Agriculture has strengthened NASS's partnership with its 
State cooperators. This joint State-Federal program helps meet State 
and national data needs while minimizing overall costs by consolidating 
both staff and resources, eliminating duplication of effort, and 
reducing the reporting burden on the Nation's farm and ranch operators. 
The success of this partnership was demonstrated when NASS, through its 
State-Federal cooperation, was able to complete the 1997 Census of 
Agriculture in almost half the time of previous censuses, increase the 
total response, and, through the use of a toll-free number, better 
respond to questions from farmers and ranchers completing the census 
questionnaires. NASS's 46 field offices, which cover all 50 States (New 
England States are combined) and Puerto Rico, support the five goals 
and outcomes in the Research, Education, and Economics (REE) mission 
area strategic plan by providing statistical information that serves 
national, State, and local data needs.
    NASS statistics contribute to providing fair markets where buyers 
and sellers alike have access to the same official statistics. This 
prevents markets from being unduly influenced by ``inside'' information 
which might unfairly affect market prices for the gain of an individual 
market participant.
    With the enactment of the Federal Agriculture Improvement and 
Reform Act of 1996 and the pending work on the farm bill, the demand 
for agricultural statistics has increased as producers rely heavily on 
market information to make production decisions. Empirical evidence 
indicates that an increase in information improves the efficiency of 
commodity markets. Information on the competitiveness of our Nation's 
agricultural industry will become increasingly important as producers 
rely more on the world market for their income.
    NASS's agricultural statistics are used throughout the agricultural 
sector to evaluate supplies and determine competitive prices for world 
marketing of U.S. commodities, which directly supports Goal 1 of the 
REE Strategic Plan: Ensure Americans an agricultural system that is 
highly competitive in the global market.
    Through new technology, the products produced in the United States 
are changing rapidly. This also means that the agricultural statistics 
program must be dynamic and able to respond to the demand for coverage 
of newly emerging products. For example, genetic engineering technology 
is producing new commodity varieties, such as BT corn and cotton, and 
Roundup Ready soybeans. NASS has responded to data user requests for 
information on genetically modified crops to help assess the magnitude 
and impact of these new varieties.
    Not only are NASS statistical reports important to assess the 
current supply of and demand for agricultural commodities, but they are 
also extremely valuable to farm organizations, commodity groups, and 
public officials who analyze agricultural policy, foreign trade, 
construction, and environmental programs, research, rural development, 
and many other activities. NASS numbers are scrutinized very closely by 
producers, agribusinesses, industry analysts, economists, investors, as 
well as government policy makers. As a result of their analysis, major 
decisions are made that affect the Nation's agricultural economy.
    All reports issued by NASS's Agricultural Statistics Board are made 
available to the public at previously announced release times to ensure 
that everyone is given equal access to the information. NASS has been a 
leader among Federal agencies in providing electronic access to 
information. All of NASS's national statistical reports and data 
products, including graphics, are available on the Internet, as well as 
in printed form. Customers are able to electronically subscribe to NASS 
reports by clicking on the appropriate release. A summary of NASS and 
other USDA statistical data are produced annually in USDA's 
Agricultural Statistics, available on the Internet through the NASS 
Home Page, on CD-ROM disc, or in hard copy. Each of NASS's 46 field 
offices have Home Pages on the Internet, which provide access to 
special statistical reports and information on current local commodity 
conditions and production.
    Beginning in fiscal year 1997, NASS received funding directly for 
the Census of Agriculture which is conducted every 5 years. The 
transfer of the responsibility for the Census of Agriculture to USDA 
streamlines Federal agricultural data collection activities and has 
improved the efficiency, timeliness, and quality of the census data.
    Statistical research is conducted to improve methods and techniques 
used in collecting and processing agricultural data. This research is 
directed toward providing higher quality census and survey data with 
less burden to respondents, producing more accurate and timely 
statistics to data users, and increasing the efficiency of the entire 
process. For example, NASS has been a leader in the research and 
development of satellite imagery to improve agricultural statistics. 
The NASS statistical research program strives to improve methods and 
techniques for obtaining agricultural statistics with an acceptable 
level of accuracy. The growing diversity and specialization of the 
Nation's farm operations have greatly complicated procedures for 
producing accurate agricultural statistics. Development of new sampling 
and survey methodology, along with intensive use of telephone and face-
to-face contacts and computer technology enable NASS to keep pace with 
an increasingly complex agricultural industry. Considerable new 
research will be directed at improving the 2002 Census of Agriculture.
    Major Activities of the National Agricultural Statistics Service 
(NASS) The primary activities of NASS are to conduct periodic surveys 
each year and the Census of Agriculture every 5 years to meet the 
current data needs of the agricultural industry. The periodic surveys 
include the collection, summarization, analysis, and publication of 
reliable agricultural forecasts and estimates. Farmers, ranchers, and 
agribusinesses voluntarily respond to a series of nationwide surveys 
about crops, livestock, prices, chemical use and other agricultural 
activities each year. Periodic surveys are conducted during the growing 
season to measure the impact weather, pests, and other factors have on 
crop production. Frequent surveys are also needed for food products 
that are perishable. Many crop surveys are supplemented by actual field 
observations in which various plant counts and measurements are made. 
Administrative data from other State and USDA agencies, as well as data 
on imports and exports, are thoroughly analyzed and utilized as 
appropriate. NASS prepares estimates for over 120 crops and 45 
livestock items which are published annually in almost 400 separate 
reports.
    The Census of Agriculture provides national, State, and county data 
for the United States on the agricultural economy every 5 years, 
including: number of farms, land use, production expenses, farm product 
values, value of land and buildings, farm size and characteristics of 
farm operators, market value of agricultural production sold, acreage 
of major crops, inventory of livestock and poultry, and farm irrigation 
practices. The Census of Agriculture is the only source for this 
information on a local level which is extremely important to the 
agricultural community. Detailed information at the county level helps 
agricultural organizations, suppliers, handlers, processors, and 
wholesalers and retailers better plan their operations. Important 
demographic information supplied by the Census of Agriculture also 
provides a very valuable data base for developing public policy for 
rural areas.
    Nearly two-thirds of NASS's staff are located in the 46 field 
offices; 25 of these offices are collocated with State Departments of 
Agriculture or land-grant universities. NASS's State Statistical 
Offices issue approximately 9,000 different reports each year and 
maintain Internet Home Pages to electronically provide their State 
information to the public.
    NASS has developed a broad environmental statistics program under 
the Department's water quality and food safety programs. Until 1991, 
there was a complete void in the availability of reliable pesticide 
usage data. Therefore, in 1991 NASS cooperated with other USDA 
agencies, the Environmental Protection Agency (EPA), and the Food and 
Drug Administration, to implement comprehensive chemical usage surveys 
that collect data on certain crops in selected States. EPA uses the 
state and national level actual survey chemical data, rather than worst 
case scenarios, in the quantitative usage analysis for a chemical 
product's risk assessment. Beginning in fiscal year 1997, NASS also 
began survey programs to acquire more information on Integrated Pest 
Management (IPM), additional farm pesticide uses, and post-harvest 
application of pesticides and other chemicals applied to commodities 
after leaving the farm. These programs have resulted in significant new 
chemical use data, which are important additions to the data base. 
Surveys conducted in cooperation with the Economic Research Service 
also collect detailed economic and farming practice information to 
analyze the productivity and the profitability of different levels of 
chemical use. American farms and ranches manage half the land mass in 
the United States, underscoring the value of complete and accurate 
statistics on chemical use and farming practices to effectively address 
public concerns about the environmental effects of agricultural 
production. NASS's chemical use survey programs support both Goals 2 
and 4 of the REE Strategic Plan which relate to ensuring an adequate 
food and fiber supply and the promotion of food safety, and enhancing 
the quality of the environment.
    NASS conducts a number of special surveys as well as provides 
consulting services for many USDA agencies and other Federal, State, 
and private agencies or organizations on a cost-reimbursable basis. 
Consulting services include assistance with survey methodology, 
questionnaire and sample design, information resource management, and 
statistical analysis. NASS has been very active in assisting USDA 
agencies in programs that monitor nutrition, food safety, environmental 
quality, and customer satisfaction. In cooperation with State 
Departments of Agriculture, land-grant universities, and industry 
groups, NASS conducted 111 special surveys in fiscal year 2000 covering 
a wide range of issues such as farm injury, nursery and horticulture, 
farm finance, fruits and nuts, vegetables, and cropping practices.
    NASS provides technical assistance and training to improve 
agricultural survey programs in other countries in cooperation with 
other Government agencies on a cost-reimbursable basis. NASS's 
international programs focus on developing countries, such as those in 
Asia, Africa, and Central and South America, as well as emerging market 
countries in Eastern Europe. Accurate information is essential in these 
countries for the orderly marketing of farm products. NASS works 
directly with countries undergoing the transition from centrally-
planned to market economies by assisting them in applying modern 
statistical methodology, including sample survey techniques. This past 
year, NASS provided assistance to China, Ecuador, Ethiopia, Kazakhstan, 
Mexico, Nicaragua, Russia, South Africa, Ukraine, and Venezuela and 
received approximately $1.1 million in reimbursements for these 
services.
    NASS annually seeks input on improvements and priorities from the 
public through: displays at major commodity meetings, data user 
meetings with representatives from agribusinesses and commodity groups, 
special briefings for agricultural leaders during the release of major 
reports, and through numerous individual contacts, especially those 
made at the grass roots level through NASS's 46 field offices. As a 
result of these activities, the Agency has made adjustments to its 
agricultural statistics program, published reports, and electronic 
access capabilities to better meet the statistical needs of customers 
and stakeholders.
                         fiscal year 2002 plans
    The fiscal year 2002 budget request is for $113,786,000. This is a 
net increase of $13,236,000 from the fiscal year 2001 current estimate.
    The fiscal year 2002 request includes increases for cyclical 
activities associated with the Census of Agriculture ($10,000,000), 
improvements to computer security to assure the integrity of market 
sensitive data prior to official release ($500,000), and funding for 
increased pay costs ($2,736,000).
    A net increase of $10,000,000 and 51 staff-years for the Census of 
Agriculture.
    The 2002 Census of Agriculture budget request is for $25,000,000. 
This includes an increase of $10,000,000 and 51 staff-years for 
increased activities associated with the 2002 Census of Agriculture. 
The funding increase addresses necessary preparations for the 2002 
Census of Agriculture, which will be mailed in December 2002. This is 
the third year in a five-year funding cycle for the 2002 Census. 
Preparations include specific list building activities; formulation of 
data collection plans targeted for American Indian and minority farm 
operators; equipment installation and testing; census mail list 
development; printing over three million questionnaires, letters, and 
reference materials; completion of final specifications, development, 
and testing procedures for data collection, processing, and analysis 
phases of the census; completion of publicity and outreach plans and 
printing of materials; and determination of final census data products 
design, mix, and production schedules. NASS will also work to improve 
information technology infrastructure for the field offices to ensure 
maximum efficiency.
    An increase of $500,000 is requested for continued development of 
NASS Computer Security Architecture.
    There is a growing need for cyber-security given the increased 
incidences and threats of the loss, misuse, unauthorized access to, or 
modification of information on computer systems. The level of 
sophistication displayed by hackers and others also supports the need 
for security reforms, such as the implementation of early warning 
systems for attacks, intrusions, and viruses. Intrusion detection and 
monitoring software would allow NASS security staff to review access 
attempts, create audit trails, and monitor system connection for 
validity. Continued progress in critical cyber-security issues would 
also ultimately lead to reduced time associated with system access for 
both the end users and security administrators. Cyber-security has 
replaced Year 2000 as the top priority in the information technology 
community. Information security is of vital importance to maintain 
NASS's credibility given the market sensitivity of the reports released 
as well as the confidential nature of the data collected by NASS from 
the Nation's farmers, ranchers, and agribusinesses.
    This concludes my statement, Mr. Chairman. Thank you for the 
opportunity to submit this for the record.
                                 ______
                                 

                     Agricultural Marketing Service

     Prepared Statement of Kenneth C. Clayton, Acting Administrator

    Mr. Chairman and Members of the Committee, I am pleased to have 
this opportunity to represent the Agricultural Marketing Service in 
presenting our fiscal year 2002 budget proposal.
                                mission
    AMS activities are an integral component of USDA-wide efforts to 
assist the U.S. agricultural industry in marketing their products and 
in finding ways to improve their profitability. AMS' mission is to 
facilitate the marketing of agricultural products in the domestic and 
international marketplaces, ensure fair trading practices, and promote 
a competitive and efficient marketplace to the benefit of producers, 
traders, and consumers of U.S. food and fiber products. We accomplish 
this mission through a variety of activities funded from appropriations 
and from fees charged for services. In providing services such as 
market reporting and grading, we are able to maintain close contact 
with our customers, making us aware of their concerns. Furthermore, 
since most of our user-funded services are voluntary, we must remain 
conscious of cost while being responsive to customer needs.
    To improve marketing and better serve the needs of farmers and 
producers in 2002, we are proposing to initiate two new activities. The 
first initiative will allow AMS to support the international marketing 
of agricultural products through greater participation in the 
development of international standards. The second initiative addresses 
the effect of bioengineering on the domestic and international 
marketing of food, fiber and seed. However, before I discuss our 
proposed increases for fiscal year 2002 in more detail, I would like to 
briefly describe some of the marketing issues facing U.S. farmers and a 
few of AMS' recent and very significant accomplishments in fiscal year 
2001.
                         agricultural marketing
    U.S. agriculture is facing continual and rapid changes in the 
structure of the industry, domestic and international consumer 
preferences, the types of support programs being offered by the 
government, new production methods, and greater dependence on export 
markets. The trend toward consolidation in some industries, and 
contracted production in others, threatens market competition. Farmers, 
particularly small, limited resource farmers, need more marketing-
related assistance as Federal price supports decline. Consumer 
preferences and concerns affect the sales of food and fiber products. 
Recently, consumers have become increasingly concerned over the 
implications of bio-engineered agricultural products. Although global 
marketing offers new opportunities for American agricultural producers, 
those opportunities may be burdened by new requirements and 
restrictions.
                         mandatory market news
    Concern about livestock industry concentration and price discovery 
in the marketplace led to the Livestock Mandatory Reporting Act in 
October 1999. AMS began implementing the Mandatory Market News Program 
on April 2. This program directly supports agricultural trading by 
requiring large packers and importers to report to AMS the details of 
their transactions involving purchases of livestock, as well as sales 
of boxed beef, boxed lamb, lamb carcasses, and imported boxed lamb 
cuts. We estimate that 80 to 90 percent of the volume of all cattle, 
boxed beef, slaughter hogs, sheep, lamb meat, and imported lamb traded 
will be covered by the mandatory market reporting program. 
Implementation of a reporting program of this size required development 
of a new electronic collection and report generating system. We 
developed and tested this electronic reporting system with industry 
participation. Since this is the first regulation that requires the 
industry to electronically report proprietary information on daily 
market transactions, we have conducted informational meetings for 
packers to provide instructions and training on the electronic data 
transfer process.
                        national organic program
    The implementation phase of the National Organic Program is now 
underway. The organic industry, State governments, and consumers urged 
passage of the Organic Foods Production Act. The purpose of the Act is 
to establish a national standard for organic production and handling, 
to assure consumers that standards are met, and to facilitate trade. 
AMS published the final rule for the program in December and the 
program's 18-month implementation period began April 21. During the 
next 18 months, program staff will develop training materials, assist 
the National Organic Standards Board in reviewing additional allowed 
and prohibited substances for inclusion on the National List, and begin 
the process of accrediting the certifying agents. Program employees are 
conducting accreditation workshops to train State and private 
certifying agents on the requirements for accreditation under the 
National Organic Program. After the certifying agents submit their 
applications and the program completes its acceptance process, AMS will 
announce the first accreditations in late April 2002. AMS expects to 
accredit 40 certifying agents in April 2002 and a total of 59 agents by 
the end of the implementation period. After the implementation period, 
these accredited certifying agents will be required to follow the 
national organic standard and related procedures.
    We are preparing the administrative procedures to distribute the 
certification cost share funding provided under the Agricultural Risk 
Protection Act of 2000 through agreements with the 15 States targeted 
for the program. These funds, intended to defray some of the 
certification costs, will be distributed to organic producers in the 
targeted States who request cost share reimbursement and whose 
production operations are inspected and certified between December 2000 
and October 2002 by an approved certifier. All of the payments are to 
be made by November 2002.
                      microbiological data program
    The new Microbiological Data Program--MDP--responds to consumer 
concerns by ensuring the quality and wholesomeness of the food supply 
in the United States. The program provides information about microbial 
pathogens and indicator organisms on fresh fruits and vegetables. The 
data will be provided to the Centers for Disease Control, Food and Drug 
Administration, USDA's Agricultural Research Service, and State 
Departments of Agriculture. Collection and testing of produce samples 
began in April. During 2001, the program will test samples of lettuce, 
tomatoes and celery for E.coli, Salmonella, and Listeria monocytogenes. 
Other commodities and organisms will be tested in rotation. State 
inspectors who collect samples for the Pesticide Data Program also 
collect samples for the MDP. The collection sites are the same for both 
programs--large distribution centers and terminal markets. State 
inspectors from California, Colorado, Florida, Maryland, Michigan, New 
York, Ohio, Texas, Washington, and Wisconsin will collect a total of 62 
samples per commodity per month. For quality assurance, the MDP staff 
is developing and implementing a program that monitors operating 
procedures, methods performance, verification procedures and the 
proficiency of check samples. Test results from the eight participating 
State laboratories and the AMS laboratory will be analyzed, summarized, 
and reported by AMS. If necessary, the laboratories will provide 
immediate notification to CDC and FDA.
                         pesticide data program
    In support of the Food Quality Protection Act, AMS' Pesticide Data 
Program began its new Water Monitoring Survey in March. The Pesticide 
Data Program--PDP--generates data on dietary exposure to pesticide 
residues on foods to verify and assure the consumer of wholesomeness. 
Water survey data is needed by EPA to estimate dietary exposure to 
pesticides through drinking water. To gather the data needed, the 
program will collect and analyze drinking water samples from municipal 
water treatment facilities. This year, finished drinking water samples 
are being collected from community water systems in New York and 
California by the United States Geological Survey--USGS. USGS will 
collect approximately two samples per month at each of 11 sites in New 
York State and 10 sites in the San Francisco area. Sampling may be 
increased to weekly during months when agricultural use of pesticides 
is high and reduced to monthly when pesticide use is low. AMS will 
provide the data to EPA for risk assessments on safety and regulatory 
decisions about pesticides. The program will implement quality 
assurance and quality control measures to verify analytical results and 
capture as much data as possible on the target pesticides identified by 
EPA. The testing laboratories will send the water data to PDP 
headquarters, which will annually release the collected data in a 
summary report.
              federal-state marketing improvement program
    The Federal-State Marketing Improvement Program--FSMIP--increased 
its support of small, limited-resource farmers this year. Small farmers 
need increased help in developing their marketing opportunities. The 
FSMIP program offers matching grants funding to States to stimulate 
innovative product development and marketing approaches, and an 
opportunity to disseminate those results quickly. The additional grants 
funding provided in 2001 is being made available to States for projects 
that focus on identifying direct marketing opportunities for small 
farmers and agribusiness, export-oriented research and technical 
assistance to small farmers, and sustainable agricultural production 
and marketing and increased utilization of bio-based industrial 
products.
                            budget proposal
    For fiscal year 2002, we are requesting a total budget increase of 
$5 million for our two new marketing initiatives--Global Market 
Expansion and Biotechnology.
Global Market Expansion
    An additional $1 million for an AMS Global Market Expansion program 
will allow AMS to strengthen export opportunities for U.S. producers by 
expanding our participation in international standards development. 
Agricultural product standards provide the commercial language upon 
which trade is based. These standards can facilitate trade within and 
among countries if properly and fairly developed, but may be used as 
non-tariff trade barriers when other forms of trade protection come 
under close scrutiny. We propose to increase our involvement in 
standards activities at the fundamental development stage to ensure 
that U.S. interests are considered before final standards are 
established. Due to our technical expertise, AMS has been asked to 
assist U.S. producers, the Foreign Agricultural Service, the Food and 
Drug Administration, and other agencies in addressing agricultural 
product standards issues. The standards developed through the various 
international standards setting organizations typically find wide 
commercial application and provide the basis for dispute settlement at 
the World Trade Organization.
    The agency has participated in standards setting meetings as 
resources have allowed. We have also made efforts to engage industry 
sectors in this work, including meeting preparation and attendance. 
While we have achieved success in several commodity areas, much work 
remains to be done. This initiative will allow AMS technical experts to 
participate in the full range of standards setting forums that require 
U.S. attention.
    Increased participation will result in additional opportunities to 
influence the content of international standards so they are inclusive 
of, and even favorable to, U.S. products and production methods. This 
initiative will also allow AMS to cooperate with the domestic industry 
in studies and projects aimed at better identifying the types and 
content of product standards that would be most useful in supporting 
export trade.
    One international forum is the United States Organization for 
Economic Cooperation and Development Seed Schemes, which is the 
critical body for the development and maintenance of genetic purity and 
quality standards for the certification of seed in international trade. 
An interagency task force proposed that AMS increase its participation 
in Seed Schemes meetings by serving as the U.S. Designated Authority 
and by administering the program. This initiative provides the 
resources needed by AMS to function in this expanded capacity.
    This budget request does not duplicate, but complements, the 
programs and responsibilities of the Foreign Agriculture Service and 
other Federal agencies. AMS provides unique technical expertise 
concerning the development and maintenance of agricultural product 
standards. Our participation supports the foreign market promotion and 
policy responsibilities of other agencies. AMS' program will be staffed 
in the United States and will not require any overseas personnel 
assignments.
    In summary, this initiative will strengthen export opportunities 
for U.S. producers through increased AMS participation in international 
standards. It will result in better representation of U.S. agricultural 
interests in international standards and help to avoid non-tariff trade 
barriers and enhance FAS' marketing efforts on behalf of U.S. 
agriculture.
Biotechnology
    Our $4 million request for Biotechnology would allow us to address 
the rapidly increasing importance of genetically modified organisms in 
agriculture. Consumer preferences--both domestic and foreign--are 
requiring commodity firms and food companies to preserve the identity 
and voluntarily label non-bio-engineered crops and foods. Some 
countries have instituted labeling requirements for biotech foods. To 
meet the industry's need to differentiate bio-engineered from 
conventional crops, AMS proposes to capitalize on agency expertise to 
provide biotech/non-biotech verification and quality assurance services 
for the seed, fruit and vegetable industries. The Federal Seed Act 
protects the interests of growers by regulating the labeling of seed in 
interstate commerce. To meet the regulatory requirements of the Act, 
which require that we ensure that seed varieties are correctly labeled, 
AMS must develop the program's capacity to verify biotech and non-
biotech properties in seed. We propose to expand our laboratory and 
field programs to enable us to test seed varieties for claims of bio-
engineered or non-bio-engineered properties. Once seed testing 
procedures have been established, we will conduct training workshops 
for seed analysts in state laboratories throughout the United States on 
the testing procedures. The response to a recent request for public 
comment indicated a strong industry interest in seed testing using DNA-
based technology to identifying genetically engineered seeds.
    For fruits, vegetables and nuts, we propose to implement a 
voluntary, audit-based quality assurance service designed to verify 
that farms or processing facilities meet accepted standards for 
excluding the presence of genetically modified organisms. This program 
will allow certified participants to meet non-modified organism 
requirements in the U.S. and abroad. AMS will develop guides and 
training materials on genetically modified and non-modified organisms 
for growers, processors, and other interested parties.
    We also propose to establish a laboratory testing program that will 
focus on biotech methods development and laboratory accreditation 
services to support verification of biotech and non-biotech claims for 
fruits, vegetables and nuts. We will coordinate this laboratory program 
with GIPSA's biotech activities for grain.
    For this initiative, AMS will require appropriated funding to set 
up and start the program. Once the quality assurance service and 
laboratory functions are fully established, AMS may be able to recover 
a portion of the costs through user fees. Regulatory activities under 
the Federal Seed Act would continue under appropriated funding.
                         budget request summary
    That concludes our budget presentation for fiscal year 2002. By 
fund, our total budget includes $71.4 million for Marketing Services, a 
program increase of $5 million above current services funding, $1.3 
million for FSMIP grants under Payments to States, and $23.7 million in 
Section 32 Administrative funds. Our budget request includes a pay cost 
increase of $1.2 million for Marketing Services.
    This request will allow AMS to build on its strengths to assist the 
agricultural industry by facilitating domestic and international 
marketing.
    Thank you for this opportunity to present our budget proposal.
                                 ______
                                 

               Animal and Plant Health Inspection Service

         Prepared Statement of Dr. Craig A. Reed, Administrator

    Mr. Chairman and members of the Committee, ``Protecting American 
Agriculture'' is APHIS' motto. It also succinctly and accurately 
describes our mission. American farms and related agricultural 
industries are the healthiest and most productive in the world. As a 
result, all Americans--urban, suburban, and rural--enjoy an abundant 
and affordable food supply filled with a wide variety of products. 
Agriculture provides an enormous contribution to the U.S. economy. USDA 
economists calculate that each dollar earned from agriculture exports, 
stimulates another $1.32 in business activity for the economy. In all, 
more than 23 million jobs--17 percent of the civilian workforce in 
America--are involved in some phase of growing and distributing food 
and clothing world-wide. The United States agricultural industry 
dominates national markets, and those found abroad. We help to maintain 
this advantage by:
  --Safeguarding animal and plant resources from exotic invasive pests 
        and diseases,
  --Monitoring and managing agricultural pests and diseases existing in 
        the United States,
  --Resolving and managing trade issues related to animal or plant 
        health, and
  --Ensuring the humane care and treatment of animals.
  --We remain steadfast in our efforts to provide the Nation with safe 
        and affordable food and fiber. Without APHIS protecting 
        America's animal and plant resources from agricultural pests 
        and diseases, threats to our food supply could be devastating. 
        For example, left unchecked, Mediterranean fruit fly and foot-
        and-mouth disease--two major agricultural health threats--would 
        cause production and marketing losses of several billions of 
        dollars annually in this country. These and other threats are 
        real. In fiscal year 2000, under the authority provided by the 
        Congress, the Secretary transferred $220 million to APHIS for 
        emergency programs. The experience of fiscal year 2000 alone 
        shows us that failing to invest in a comprehensive safeguarding 
        system will inevitably lead to large Federal expenditures and 
        devastating losses for American farmers.
    In recent years, the scope of APHIS' function of protecting U.S. 
agriculture has expanded beyond pest and disease management. Because of 
our technical expertise in assessing and regulating the risks 
associated with agricultural imports, APHIS has assumed a new trade 
support role. Now the agency must respond to other countries--animal 
and plant health import requirements and negotiate science-based 
standards to ensure that America's agricultural access to foreign 
markets, worth over $50 billion annually, is protected from unjustified 
trade restrictions. The American people and the Congress, have directed 
us to expand our protection role to include wildlife damage management, 
the welfare of animals, human health and safety, and ecosystems 
vulnerable to invasive pests and pathogens. In carrying out our diverse 
protection responsibilities, we make every effort to address the needs 
of all those involved in the U.S. agricultural sector, especially small 
farms. Congress has passed several laws that give APHIS the authority 
to implement our safeguarding mission. In 2000 the Plant Protection 
Act, as part of the Agriculture Risk Protection Act, expanded and 
consolidated various plant protection activities, widening the scope 
for APHIS' involvement in plant health. The Act gives USDA the 
authority to establish more effective deterrents against smuggling. It 
puts real teeth in our enforcement efforts program. We will be able to 
assess larger fines, secure subpoenas, and prosecute serious offenders 
in Federal Court.
    To respond to the threats to U.S. agriculture, both newly emerging 
and ongoing, APHIS applies a variety of strategies toward five goals. 
This statement addresses the five APHIS goals and examines the programs 
we use to complete our mission. It provides recent activities, 
accomplishments, and challenges for the programs.
    Goal 1.--To safeguard U.S. animal and plant resources against 
introductions of exotic invasive pests and diseases, while meeting 
international trade obligations.
    Keeping agricultural pests and diseases out of this country is the 
linchpin for a healthy and productive farm and agricultural industry 
related economy. We have inspectors at foreign locations and at our 
borders vigilantly watching for pest and disease intrusions. We also 
work closely with stakeholders and producers to keep exotic pests and 
diseases out.
    In October 2000, APHIS began reviewing recommendations from a 
National Plant Board Safeguarding Report. These recommendations 
recognize that globalization has increased APHIS' challenges in 
safeguarding America's agriculture resources. The report covered the 
collection and use of international information, potential risk 
pathways, and areas where we need to improve our risk mitigation 
efforts. In fiscal year 2001, we will continue to review 
recommendations for implementation. APHIS animal health officials are 
currently conducting a similar study to identify the needs and 
directions of the Agency's animal health efforts.
    One strategy we employ to safeguard against the introduction of 
foreign diseases and pests is to help identify, control, or eradicate 
exotic agricultural health threats where they originate--outside the 
United States. APHIS has made several improvements in the past year. 
The foreign animal disease (FAD)/foot-and-mouth disease (FMD) program 
has expanded its scope from the traditional role of preventing FMD 
outbreaks overseas. We are improving surveillance of other FADs to 
ensure that the U.S. is prepared to address the threat of disease entry 
into the U.S. We are working with officials in Central and South 
America as well as in Asia, Europe, and Africa, where increased 
international trade presents new threats of introduction of FADs. APHIS 
officials are attempting to improve the infrastructure in these regions 
to allow them to respond quickly to outbreaks of FADs and manage them 
where international trade is involved. As of April 12, 2001, 70 Federal 
and State veterinarians and two animal health technicians have been 
deployed to the UK to provide technical assistance to their FMD 
eradication efforts. To intensify our efforts to keep FMD out of the 
U.S., our Agricultural Quarantine Inspection--User Fee program has 
increased international passenger arrival inspections using an 
additional $13.5 million in fiscal year 2001 and an estimated $18.6 in 
fiscal year 2002 from available user fee collections to fund additional 
inspection personnel and detector dog teams. The cattle tick program is 
a specific example of our efforts to safeguard against incoming animal 
disease threats. The program's focus is to identify tick incursions and 
quickly prevent their spread. In the past year, the program had to 
rapidly react to incursions from Mexico into Texas caused by low water 
levels in the Rio Grande. APHIS placed 45 premises under quarantine in 
fiscal year 2000 to prevent the spread of the tick.
    Perhaps our most impressive effort to prevent the entry of an 
animal health threat is the screwworm program, which has successfully 
driven the pest seven countries south of the U.S. border. In the past 
year, Costa Rica has been declared as screwworm-free. The program there 
as well as in Nicaragua is now shifting toward monitoring and 
surveillance for screwworms and other FADs. The focus of the screwworm 
program is now in Panama, where the Joint U.S.-Panama Commission for 
the Eradication of Screwworm is actively releasing sterile flies 
throughout the entire country, with great progress toward eradication. 
The program will eventually establish a screwworm barrier in Panama, at 
the continent's narrowest point, where it is most cost-effective. To 
this end, the Joint Commission plans to build a new sterile screwworm 
facility in Panama and is currently engaged in securing financing.
    APHIS also has important plant health programs in other countries, 
which prevent the introductions of pests and diseases that would 
threaten the fruit and vegetable markets in the U.S. The fruit fly 
exclusion and detection (FFED) program currently has an enormous effort 
ongoing in Mexico and Guatemala to reduce the Mediterranean fruit fly 
(Medfly) outbreaks that have threatened the U.S. citrus and other 
industries with billions of dollars in damage since 1998. The program 
has relied on emergency fund transfers to re-establish a Medfly barrier 
in Guatemala at a more sustainable location. We have increased sterile 
Medfly production and are using a variety of methods to deal with the 
threat in the long run. This program provides significant protection 
for the citrus industry in Florida and California, where APHIS and the 
States have faced emergency situations. We are working within our 
borders as well. One example is the Medfly Preventative Release Program 
and detection efforts in California. APHIS will continue to use sterile 
flies in fiscal year 2001 to prevent the establishment of most wild fly 
introductions and to allow us to more easily manage smaller scale 
outbreaks. The FFED program has effectively used more environmentally 
friendly organic baits in large-scale operations in Guatemala, and has 
been trying the new methods in our domestic operations.
    Another strategy APHIS uses to safeguard against introductions of 
pests and diseases from overseas is to ensure a high rate of compliance 
with APHIS quarantine regulations. The responsibility of the 
agricultural quarantine and inspection (AQI) program, which protects 
U.S. agriculture at the borders, has increased with the expansion of 
international trade and travel. We expect to add more inspectors in 
fiscal year 2001. To pay for these anticipated staff increases beyond 
that reflected by volume of traffic, APHIS adjusted the AQI user fee 
schedule to reflect the increasing need. For the part of the program 
not funded by user fees, we are using the increased appropriation the 
Committee provided for fiscal year 2001. We have begun using a more 
scientific staffing model, which focuses more on risk level and less on 
port volume. Using this staffing model, which has received considerable 
industry support, we can better ensure that we have our people 
strategically positioned to prevent the entry of restricted products. 
We now staff bridges at most U.S.-Mexico ports of entry 18 hours a day, 
with at least 3 shifts every day. The next major step we must take is 
to more vigorously pursue violators of the quarantine regulations. 
Static funding from fiscal year 1992 to fiscal year 2001 in our animal 
and plant health regulatory enforcement program has eroded our ability 
to keep up with violations. The time needed to complete investigations 
has more than doubled in the past eight years. Even so, APHIS conducted 
938 investigations involving plant quarantine violations in fiscal year 
2000, resulting in $325,000 in fines. We anticipate this will increase 
in fiscal year 2001 with passage of the Plant Protection Act. In 
addition, we continue to investigate animal health and animal care 
program violations. The addition of animal care inspectors will 
undoubtedly increase the number of violations we detect and should 
pursue.
    A pending issue that may be detrimental to APHIS' quarantine 
activities is the reduction in production of methyl bromide under new 
EPA regulations. We require some imports to undergo methyl bromide 
treatment before entering the U.S. While quarantine activities should 
be exempt from the production restrictions, the EPA has not published 
regulations allowing for the extra production. Without adequate supply, 
ports will have to turn away agricultural products at the border or 
destroy them. These actions could damage trade relations with our 
partners.
    Another strategy we employ to meet our safeguarding goal is to 
foster a trade environment that allows for a common understanding of 
international agricultural health standards, a free flow of risk-
assessment information, and quick resolution of technical trade barrier 
issues. The trade issues resolution and management program, formerly 
the sanitary/phytosanitary program, resolves import and export trade 
issues involving the health of U.S. agriculture. APHIS officials 
overseas participate in negotiations that ensure market access for U.S. 
products that may face restrictions for sanitary and phytosanitary 
reasons, as well as ensure that imports from other countries do not 
threaten the health of U.S. agriculture. More often, as international 
agreements have removed traditional barriers to trade, countries rely 
on sanitary or phytosanitary restrictions to prevent free access to 
competing products. These health measures may be arbitrary and not 
science-based, so APHIS' technical experts must be involved in trade 
negotiations to assure that U.S. agricultural products receive fair 
consideration. In the past year, our officials played key roles in 
advancing U.S. strategic interests regarding the development of 
standards for genetically modified organisms and wood packing 
materials, among other issues, with the International Plant Protection 
Convention, which sets international standards for plant health. APHIS 
officials also worked with the Office International des Epizooties, the 
recognized international standard-setting body for animal health, to 
develop standards on diseases such as bluetongue and bovine spongiform 
encephalopathy, as well as setting international guidelines for 
regionalizing diseases for trade purposes. APHIS officials also played 
key roles in bilateral negotiations that opened up market access for 
several U.S. commodities, including peaches, nectarines, and plums in 
Mexico, and nectarines in Japan. We successfully negotiated with China 
to open its tobacco market, while other U.S. industries began to export 
to that enormous potential market in fiscal year 2000. All of this new 
trade presents challenges and opportunities for APHIS. APHIS, under the 
U.S.'s World Trade Organization obligations, is also responsible for 
quickly evaluating requests for agricultural imports. We currently have 
over 200 requests pending. Also, to prevent disease incursions into the 
U.S., our officials will continue to work in fiscal year 2001 with 
foreign agriculture officials to determine the presence of pests and 
diseases, enabling us to make accurate assessments of the risks of 
certain products from trade partners.
    The Import Export program also fulfills our obligation to 
facilitate trade while ensuring that we protect U.S. livestock, 
poultry, and wildlife from incursions of exotic pests and diseases. 
Through bilateral negotiations, APHIS officials expanded markets for 
certain animal products to China, Mongolia, Lebanon, and Australia in 
fiscal year 2000, and are currently negotiating with Brazil and 
Argentina to revise export protocols. The Import/Export program 
officers also reviewed requests for import of avians, as well as 
livestock. Cattle imports into the U.S. nearly doubled in fiscal year 
2000. The program restricted imports from the UK following an outbreak 
of Classical Swine Fever there in fiscal year 2000. With regard to the 
foot-and-mouth disease (FMD) threat, effective January 15, 2001, we 
removed the UK from the list of FMD-free countries. As of April 13, 
2001, we began requiring that used farm equipment be certified free of 
all dirt and other particulate matter. In December 2000, we prohibited 
all imports of rendered animal protein products, regardless of species, 
from Europe. This decision followed the recent determination by the 
European Union that feed of non-ruminant origin was potentially cross-
contaminated with the bovine spongiform encephalopathy agent.
    APHIS is trying to facilitate animal trade through a veterinary 
equivalency agreement with the European Union (EU). Since signing a 
Red-Meat Agreement in 1992, the two parties have been attempting to 
further ease trade restrictions by recognizing equivalency between EU 
and U.S. sanitary measures. We completed a risk assessment to address 
EU concerns about recognizing the status of their states separately, 
rather than as a single unit, when disease may not be present in every 
state. This year, we are completing a supplemental risk assessment, 
based on industry comments and concerns over disease potential.
    Goal 2.--To minimize agricultural production losses and export 
market disruptions by quickly detecting and responding to new invasive 
agricultural pests and diseases or other emerging agricultural health 
situations.
    Exotic agricultural pest and disease incursions can cause 
significant damage initially, but also can cause catastrophic damage if 
left undetected very long. Our program priorities include early 
detection activities and accelerated eradication when there are 
emergency outbreaks.
    APHIS strategies to achieve this goal revolve around a cooperative 
relationship with States, academe, animal and plant industry 
stakeholders, and international organizations. On the plant side, 
APHIS--Pest Detection program works toward quick detection and 
mitigation of exotic plant pests through the Cooperative Agricultural 
Pest Survey. The survey is a partnership with States to coordinate data 
collection on incipient infestations of exotic plant pests with the 
potential to cause economic losses. The program's database system helps 
the participants to track the spread of pests and plan their control. 
The Pest Detection program detected 459 new plant pests in fiscal year 
2000, up from 334 in fiscal year 1999, yielding valuable information 
for the control of emerging pest threats in the U.S. APHIS also 
controls plant pest threats through the aforementioned Fruit Fly 
Exclusion and Detection program, which partners with States to control 
incursions of fruit flies into the U.S.
    APHIS addresses animal pests and diseases through the Animal Health 
Monitoring and Surveillance program. In fiscal year 2000, we increased 
our investigations of suspected foreign animal diseases from 336 to 
385. The Agency also participated in 18 state level test exercises to 
improve responses to disease incursions, conducted training for 
veterinarians to recognize foreign animal diseases, and provided 
technical assistance to various countries and states dealing with 
animal disease outbreaks. This included an outbreak of tropical bont 
tick in St. Croix and an outbreak of rabbit calicivirus disease in 
Iowa. In November 2000, APHIS officials and their counterparts in 
Canada and Mexico participated in a tripartite exercise simulating an 
FMD outbreak. This exercise tested APHIS' ability to share critical 
disease--related information with their North American partners and 
evaluated the Agency's emergency response plans as they relate to 
activating the FMD vaccine bank. APHIS led efforts to control the West 
Nile Virus outbreak among U.S. livestock and responded quickly to the 
detection of a screwworm positive horse in Florida. The National Animal 
Health Monitoring System delivered objective information addressing 
animal health as it pertains to U.S. trade, agricultural productivity, 
public health, and on-farm quality assurance. The program provided 
studies or risk assessments to commodity groups, state governments, 
academic institutions, and other federal agencies for equine diseases, 
possible diseases in eggs, and completed the first phase of a swine 
study in fiscal year 2000. The program conducted studies on Johne's 
Disease, brucellosis, and tuberculosis, as well as various poultry 
diseases. Our fiscal year 2001 plans include expanding the Johne's 
disease program by including a quality surveillance and certification 
program as well as continued pseudorabies surveillance.
    Another strategy to achieve this goal is to partner with States and 
industry stakeholders to develop an appropriate, measured response 
capability for outbreaks of invasive pests and diseases in the United 
States. Through the Emergency Management System, APHIS tries to improve 
the ability of the U.S. to handle animal health emergencies, from 
natural disasters, and accidental or deliberate introductions of FADs. 
In fiscal year 2000, APHIS held two workshops for private and state 
veterinarians on animal health emergencies and diseases. We also 
drafted measures for state participants in responding to an animal 
health emergency. In fiscal year 2001, our plans include entering into 
cooperative agreements for emergency management activities, placing 
emergency managers in the field, training, and providing technical 
assistance to foreign countries currently battling foreign animal 
diseases such as FMD.
    In fiscal year 2000, we responded to several emergency situations 
that arose in the U.S. The Asian Longhorned Beetle entered the U.S. 
through wood packing materials from China, and soon spread throughout 
several locations from New York and Chicago. The pest threatens $41 
billion dollars of trees and thousands of acres of forest land in the 
U.S. So far, we can control it only by removing and destroying infested 
trees, but with our colleagues in ARS we have been concentrating on 
developing new methods. In fiscal year 2001, we received $49.6 million 
in emergency funding transfer from the Commodity Credit Corporation to 
continue these efforts. We also responded to an outbreak of Plum Pox 
virus, in several peach orchards in Pennsylvania. USDA declared an 
emergency, and APHIS moved quickly to eradicate the disease and monitor 
for its possible spread before it could damage the entire U.S. stone 
fruit industry. We will continue national survey and tree removal 
activities in fiscal year 2001. We also worked with the State of 
Florida to control an outbreak of Citrus Canker, a devastating disease 
which spreads rapidly and reduces the fruit production of citrus trees. 
APHIS provided technical assistance and conducted regulatory, survey, 
and planning activities. With additional emergency funding, we will 
continue these cooperative activities in fiscal year 2001. Left 
unchecked, losses from citrus canker in Florida could total $200 
million per year.
    Another example of APHIS' quick response to potential threats in 
fiscal year 2000 involved the discovery of six sheep in Vermont which 
tested positive or suspect for the transmissible spongiform 
encephalopathy (TSE) marker. TSEs are chronic, fatal diseases affecting 
the central nervous system of certain mammalian species. TSEs are found 
in sheep and goats as scrapie, in deer and elk as chronic wasting 
disease, and in cattle as bovine spongiform encephalopathy (BSE). We 
moved quickly to dispose of the positive/suspect animals. In addition, 
we offered to purchase and dispose of the remaining sheep in the 
affected flocks to minimize the risk of disease spread. The flocks had 
been imported from Belgium before we imposed restrictions of animal 
imports from Europe in response to BSE outbreaks. In March 2001, under 
authority of the U.S. District Court, we removed 360 quarantined sheep 
from two private Vermont farms. The sheep were transported to our 
National Veterinary Services Laboratories in Ames, Iowa, where they 
were humanely euthanized. Tissue samples will be collected from the 
sheep for diagnostic testing. The owners will be compensated for the 
fair market value of the sheep.
    Goal 3.--To minimize risks to agricultural production, natural 
resources, and human health and safety by effectively managing existing 
agricultural pests and diseases and wildlife damage in the United 
States.
    We have been fighting agricultural pests and diseases in this 
country for a long time. While some programs are ultimately successful, 
it is arduous to achieve complete eradication. Nevertheless, the 
economic benefits accrued to producers and less dependance on 
environmentally invasive chemicals makes eradication worthwhile. 
Managing wildlife conflicts also has significant economic and human 
health and safety benefits.
    One strategy to achieve this goal is to conduct cooperative 
programs for control or eradication of ongoing regional and national 
agricultural health problems. We have several ongoing programs to 
manage the spread of selected agricultural pests and diseases, many of 
which have plagued American farmers for a century or longer. The Boll 
Weevil Eradication Program (BWEP) aims to eradicate the pest from all 
cotton-growing areas of the U.S. and Northern Mexico by 2004. In fiscal 
year 2000 the program added the Rolling Plains region of Texas to the 
list of 12 eradicated areas since 1983. Surveillance activities 
continued in these areas while other programs in the Southeast and 
Southwest progressed. The BWEP began with cotton grower foundations, 
States, and other non-Federal sources contributing 70 percent of the 
total cost per year and APHIS contributing the remaining 30 percent. 
Contributions from non-Federal sources increased to 87 percent in 
fiscal year 1998 and to 96 percent in fiscal year 2000. The program 
expects to spend about $274 million in fiscal year 2001, and APHIS' 
cost share will increase to about 26 percent because of the $64 million 
increase in the program's appropriation. We will use these additional 
funds to retire debt and increase our cost share with eight States, 
largely in Texas and Mississippi.
    Pseudorabies, a serious swine disease, costs pork producers 
nationwide over $30 million annually and poses a constant threat to the 
$30 billion pork industry. APHIS began a cooperative State-Federal 
pseudorabies eradication program in 1989. From 1992 to the end of 1998, 
the number of infected herds dropped from approximately 8,000 to just 
over 1,000. At that time, APHIS was struggling to make further progress 
against pseudorabies, and producers were suffering the effects not only 
of the disease, but also of record low market prices. As a result, in 
January 1999, the Secretary transferred emergency funding to APHIS to 
establish the Accelerated Pseudorabies Eradication Program (APEP). APEP 
has substantially furthered the goal of eradicating this serious 
disease from the Nation's swine population. Under APEP, over 1,000 
infected herds--or about 1.2 million swine--have been depopulated in 18 
months, with more than $80 million in indemnity paid to affected 
producers. As of April 1, 2001 there were only 95 infected herds in the 
U.S., and only Iowa faces major infection at this time.
    Bovine tuberculosis (TB) is a contagious, infectious, and 
communicable disease that can be fatal in both animals and humans. 
APHIS has been working to eradicate it since 1917. We still face three 
major obstacles to lowering the incidence of new infection in domestic 
cattle herds. These are undetected infected captive cervid (deer) 
herds; persistent infections in El Paso dairies; and infected wild deer 
in Michigan that are the probable source of TB transmission to domestic 
livestock. In recent years, we have worked successfully to include 
captive cervids in the TB eradication program through regulatory 
amendments. APHIS is working with the State of Texas and the El Paso 
milk producers to build a buffer zone between the U.S. and Mexico in 
the El Paso region. To eliminate the last vestiges of the disease, we 
are working with Michigan in order to identify and eradicate TB from 
all domestic species and assisting the state in the eradication from 
wild deer populations. If we had not acted, these reservoirs of TB 
inevitably would have led to reinfection in other states.
    I am pleased to report tremendous success with the brucellosis 
eradication program. We are on the brink of victory in a battle that 
has lasted for seven decades. Over the past century, brucellosis caused 
abortions, infertility, and lowered milk production in cattle and 
bison, and resulted in devastating losses to U.S. farmers. Now, thanks 
to an enhanced cooperative Federal-State-industry effort, we are 
eliminating the last pockets of infection. With Oklahoma joining Class 
Free status, there are 47 States enjoying this designation. For the 
first time, there are no known infected herds in the United States. 
Brucellosis has a variable, sometimes quite lengthy incubation period, 
and it would not be too surprising if we eventually find another 
infected herd. We are prepared to aggressively pursue any newly 
infected herds to eliminate the disease as quickly as possible. We 
cannot declare the United States officially brucellosis free until all 
States reach Class Free status. States must go a full year without 
disclosing any newly infected herds, and must also meet certain 
surveillance criteria to meet the standards for Class Free Status. Once 
the remaining States--Florida, Missouri, and Texas--reach Class Free 
status, we will officially declare the U.S. free of brucellosis. To 
ensure there is no reoccurrence, we will continue surveillance for 5-10 
years.
    While we have made great strides in eradicating boll weevils, 
cotton growers face other threats. The goal of the pink bollworm 
program is to contain the pest to the southwestern portion of the 
Cotton Belt (Texas, Oklahoma, and the States to the west), while 
rearing and releasing sterile moths to prevent the pest from becoming 
established in the San Joaquin Valley of California. APHIS produced 
approximately 867 million sterile moths at the Phoenix, Arizona, 
rearing facility for incremental releases in the San Joaquin Valley. 
The program continued to improve rearing efficiency and maintained 
production using less diet material, thereby reducing cost. In 
addition, program cooperators monitored over 13,200 traps in the San 
Joaquin Valley to detect any new introductions of pink bollworm. In 
fiscal year 2001, we will continue sterile moth releases to prevent 
native moths, which migrate into the San Joaquin Valley from the South, 
from mating successfully. This prevents the pest from becoming 
established in nearly one million acres of high yielding cotton.
    Another tool in protecting American agriculture is Federal 
leadership in managing problems caused by wildlife--to reduce damage 
caused by wildlife to the lowest possible levels, while, at the same 
time, reducing wildlife mortality. Aquaculture, the farming of fish, 
shellfish, and plants, is a nearly $1 billion industry in the United 
States. U.S. aquaculture accounts for more than 180,000 jobs and has an 
economic impact of more than $5.5 billion annually. APHIS continues 
efforts to reduce fish-eating bird damage by providing assistance, 
loaning damage abatement equipment, and conducting wildlife damage 
assessments for aquaculture producers including catfish and bait fish 
farmers. Also, with an organized roost dispersal effort, we reduced the 
estimated 70,000 cormorants in the Delta catfish production region by 
approximately 70 percent in fiscal year 2000. In fiscal year 2001, we 
will continue telemetry studies on depredating species of wildlife in 
the Southeast.
    By its very nature, wildlife is highly dynamic and mobile and can 
damage agricultural and industrial resources. It poses risks to human 
health and safety and affects other natural resources. The wildlife 
services operations program resolves problems that occur when human 
activity and wildlife conflict with one another. For example, 
blackbirds migrating through the Great Plains cause several millions of 
dollars of damage every year to grain crops and livestock feed. They 
destroy nearly $10 million in sunflower crops alone, mostly in South 
Dakota and North Dakota. APHIS has been providing assistance in the 
form of dispersal techniques and habitat management. Wildlife also 
spread rabies, which poses a serious threat to livestock, wildlife, and 
pets, as well as human health. APHIS has been cooperating with the 
State of Texas since 1995 to stop the spread of rabies in coyotes and 
gray foxes. Since 1997, we have worked with the States of Ohio, 
Vermont, and New York to prevent the spread of rabies in raccoons. In 
addition to appropriated funding, APHIS recently received $4.2 million 
in emergency funding transferred from the Commodity Credit Corporation 
to reestablish barriers that have broken down and to expand those that 
are inadequate. This funding will provide only temporary action; a long 
term commitment is required if we are to control the spread of rabies.
    The U.S. Fish and Wildlife Service has been reintroducing gray 
wolves, as a federally listed threatened species, into areas where 
their populations were depleted, including the Yellowstone ecosystem 
and central Idaho. Also, naturally occurring gray wolf populations in 
the Great Lakes region have been expanding southward through Minnesota 
and into Wisconsin and Michigan. Environmental groups are pushing to 
reintroduce wolves into additional locations, including the southern 
Rocky Mountain region and the New York/New England area. These 
expanding populations have had an impact on livestock with an 
increasing number of depredations from wolves. Since the gray wolf is a 
protected threatened species Federal law limits producers in the 
methods they may use to control predation. They must rely on Federal 
entities such as APHIS to assist them in implementing wildlife damage 
control activities. The requests for assistance in managing wildlife 
hazards at airports and military air bases also continue to increase. 
Airports report approximately 3,600 wildlife strikes to civil aircraft 
each year, and the U.S. Air Force alone reports more than 2,500 
strikes. In fiscal year 2000, APHIS personnel provided wildlife hazard 
management assistance to 418 airports and military air bases.
    Goal 4.--To ensure the humane care and treatment of animals covered 
under the Animal Welfare Act and various laws protecting horses.
    The public is concerned about the health and well-being of animals 
held in captivity. Our response is to establish minimum standards for 
the humane care and treatment of animals used for research or 
exhibition purposes, sold as pets at the wholesale level, or 
transported by common carrier, and to carry out inspections to ensure 
high levels of compliance with those standards. We continue to focus 
resources on conducting quality inspections under the AWA at USDA 
licensed and registered facilities. The animal welfare program uses a 
risk based inspection system that concentrates activities on facilities 
where animal welfare concerns are the greatest. With the funding 
increase in fiscal year 2000, APHIS hired and began training eight new 
animal care inspectors. We anticipate adding at least eight more 
inspectors in fiscal year 2001.
    There is an increase in public concern regarding the pain and 
distress experienced by animals used in research facilities, an issue 
which could greatly impact the biomedical research community. The AWA 
requires research facilities to report annually to the Secretary 
information on procedures likely to produce pain or distress in any 
animal which we report in our Annual Report to Congress. In the past, 
reporting has focused on painful procedures and largely ignored 
distressful procedures, despite the equal emphasis for both in the Act 
and regulations. Additionally, the current reporting categories are 
based on the use, or non-use, of pain relieving medications rather than 
on the actual level of pain or distress perceived by the animals. To 
better clarify the expectations for minimizing distress as well as 
pain, we have sought public input and received approximately 2,800 
comments from interested groups, the general public, biomedical 
researchers, and interested parties internationally. We now must 
evaluate the comments before deciding on whether or not to initiate a 
rulemaking change.
    The humane care and treatment of elephants is receiving growing 
focus from animal concern groups and the media. APHIS has settled 
several high profile cases involving the care and treatment of 
elephants in Oregon and El Paso zoos as well as with a circus. APHIS 
received over 230 comments in response to a draft Policy on Training 
and Handling of Elephants and Other Potentially Dangerous Animals. 
While the policy is technically an internal document for APHIS use, the 
issue is of sufficient public interest and importance to warrant public 
input. We are currently reviewing the comments to determine whether 
there are any valid scientific or other reasons to modify the proposed 
policies and expect to publish a final version in the summer of 2001.
    We also establish and monitor compliance with standards protecting 
horses being exhibited in shows or transported to slaughter and educate 
regulated entities and individuals to encourage compliance with animal 
welfare regulations in our horse protection program. The Horse 
Protection Act (HPA) originally enacted by Congress in 1970, is 
intended to eliminate ``soring,'' the practice of inflicting injury on 
a horse's front feet for the purpose of accentuating a high stepping 
gait. Since 1996, APHIS has worked with the horse industry 
organizations certified under the HPA to develop a partnership whereby 
they can assume greater responsibility for self-regulation. APHIS has 
developed a multi-year plan beginning with the 2001 horse show season. 
However, we are concerned that several horse industry organizations 
will not agree with the plan. Also, we are now faced with a legal 
challenge to the plan from the American Horse Protection Association 
regarding APHIS' authority to delegate enforcement functions to the 
industry groups. Such ongoing controversy has made our job more 
difficult, but we remain committed to working with the industry to 
enforce the HPA.
    Goal 5.--To develop and apply scientific methods that benefit 
agricultural producers and consumers, protect the health of American 
animal and plant resources, and sustain agricultural ecosystems. APHIS 
has established laboratories and applied science and technology centers 
to achieve this goal and to help achieve the other APHIS Goals.
    Good science must be the strong base of everything we do in APHIS. 
We provide diagnostic services, products, and training to support 
animal disease surveillance, prevention, control, and eradication 
programs. Our veterinary diagnostics program provides assistance to 
State and other Federal agencies and laboratories, educational 
institutions, and foreign governments in the diagnosis of animal 
diseases. In fiscal year 2000, our National Veterinary Services 
Laboratories (NVSL) in Ames, Iowa, diagnosed cases of equine 
encephalitis during the West Nile virus outbreak in the northeastern 
United States. NVSL also diagnosed rabbit calicivirus during an 
outbreak in Iowa, the first time that disease had been identified in 
the United States. Also, NVSL developed a panel of over 25 defined 
sheep sera used to control quality and validate serodiagnostic methods 
for ovine Johne's serodiagnosis. Previously, the United States had no 
tested battery of defined sheep antisera for the standardization of 
Johne's Disease (paratuberculosis) testing in sheep. All told, NVSL 
received and tested 69,736 diagnostic submissions in fiscal year 2000, 
including 5,526 for import/export testing and 3,500 for avian influenza 
surveillance. NVSL also received 7,649 dip vat samples tested for 
pesticide concentration in support of the cattle tick program. In 
addition, NVSL received 2,303 brains to test for bovine spongiform 
encephalopathy (BSE) in support of BSE surveillance, which is the 
largest single-year total since surveillance began in 1990. This 
allowed NVSL to confirm to the U.S. public and trading partners that 
the United States is BSE-free. This function has become increasingly 
important as information and misinformation about BSE becomes 
widespread.
    During fiscal year 2000, NVSL's Foreign Animal Disease Diagnostic 
Laboratory at Plum Island, New York, received and tested 724 diagnostic 
submissions. These represented 120 suspect foreign animal disease 
investigations; 38 import tests; 7 safety tests; 9 reference cases, 
including materials received from the Agricultural Research Service, 
foreign countries, and collaborative projects; and 550 classical swine 
fever surveillance (CSF) submissions. As risk of introduction of CSF 
remains high with uncontrolled outbreaks in the Caribbean and other 
areas, NVSL surveillance activities have shown that the United States 
is still free from this disease.
    We provide new tools and technologies to improve wildlife damage 
management through our Wildlife Services Methods Development program. 
The National Wildlife Research Center (NWRC) is the only research 
facility in the world specifically designed for developing and 
implementing methods to resolve wildlife conflicts with humans and 
agriculture. The NWRC dedicates 75 percent of its budget to developing 
nonlethal methods for effective, practical, and socially-acceptable 
methods of wildlife damage management. This helps ensure that high-
quality technical and scientific information on wildlife damage 
management is available for the protection of crops, livestock, natural 
resources, property, and public health and safety. NWRC researchers 
conduct numerous activities, including the improvement and maintenance 
of current pesticide registrations, and researching new or improved 
methods for more effective management of wildlife damage.
    NWRC, through an agreement with the General Services Administration 
and funding received in fiscal year 1999, is continuing construction of 
its state-of-the-art wildlife management research facility and national 
headquarters on the Foothills Campus of Colorado State University in 
Fort Collins, Colorado. APHIS is completing design work on a new 
Support Wing, an addition to the existing indoor Animal Research 
Building, which will be ready for occupancy in fiscal year 2002.
    During fiscal year 2000, NWRC, through additional field and 
laboratory data, increased the APHIS Emergency Use Permit registration 
for acetaminophen as a toxicant for brown tree snake control on Guam 
from 300 to 2,000 baits per night. Researchers continued to make 
progress toward development of contraceptives for non-lethal wildlife 
damage management. Researchers are testing single shot PZP and GnRH 
immunocontraceptic vaccines in white-tailed deer at Pennsylvania State 
University. During fiscal year 2000, NWRC began research on nicarbazin, 
a potential contraceptive for controlling Canada goose populations 
where they are causing safety, health, or nuisance problems. Based on 
the preliminary successes observed in multiple laboratory and field 
studies, NWRC will conduct additional studies. Scientists continued the 
development of selective, humane wildlife capture devices to increase 
efficiency and reduce animal injuries associated with capture and 
restraint of coyotes. NWRC has continued experiments with tastes, 
odors, and physical or visual cues to improve coyote attraction to 
baits and delivery devices for chemical agents, and to identify 
potential chemical repellents and other predation deterrents. The 
Center has recently established a genetics laboratory to examine 
genetic relationships among individual coyotes.
    NWRC works hand in hand with the wildlife services operations 
program by continuing to expand its research efforts to develop and 
improve methods for managing blackbird damage to rice and sunflowers. 
Biologists are cooperating with agricultural industry groups to 
determine the effects of blackbird control methods on the environment, 
including non-target species. Also, NWRC has undertaken multi-year 
research projects at various airports in the United States to reduce 
the threat to human safety occurring when wildlife collide with 
aircraft or are pulled into jet engines. Scientists have researched 
turf management, nonlethal repellents, and dispersal techniques to 
minimize strikes by gulls, waterfowl, turkey vultures, hawks, and other 
species that threaten aviation safety.
    Another strategy is to facilitate, monitor, and regulate 
environmentally responsible development of biotechnology-derived 
products for the benefit of agricultural producers and consumers. 
Within the last decade, we have seen incredible advances in many 
scientific areas. Some of the most visible of these advances occurred 
in the realm of agricultural biotechnology. Along with the Internet and 
the mapping of the human genome, the introduction of genetically 
engineered fruits and vegetables was one of the most significant 
scientific stories of the 1990's. APHIS, the Environmental Protection 
Agency (EPA), and the Food and Drug Administration (FDA) are 
responsible for regulating agricultural biotechnology in the United 
States. APHIS regulates the development and field testing of certain 
genetically engineered organisms, primarily new plants and plant 
products, to ensure that they are as safe to use in agriculture as 
traditional varieties. Since 1987, we have overseen more than 7,000 
field trials of new, biotechnology-derived plant varieties at 35,000 
sites. Since 1993, APHIS' through our biotechnology regulations--has 
ensured the safe development, testing, and subsequent regulatory 
release of more than 50 new genetically engineered plants, including 
chicory, corn, potatoes, soybeans, and tomatoes. Along with the EPA and 
FDA, APHIS has ensured that these products--many of which are 
engineered for herbicide tolerance, insect-resistance, or disease-
resistance--will not harm agriculture, the environment, or human 
health. For example, APHIS was involved in the issue concerning the 
production of Starlink, a strain of corn genetically engineered to have 
pesticide properties. We deregulated Starlink before the EPA restricted 
its use to animals due to possible allergenic properties to humans. 
Whether the Starlink Cry9C protein is a potential allergen requires 
additional research. To allay public concern both domestically and 
internationally about Cry9C in this year's hybrid seed corn, we 
assisted other Departmental agencies in the disposal of the seed corn 
by environmentally friendly means. Our officials have met the 
challenges posed by rapidly evolving technology and consistently base 
their regulatory decisions on the most current scientific information. 
To obtain the best independent, technical, and scientific data 
pertaining to biotechnology, APHIS officials have consulted with 
scientists and regulators both in the United States and abroad. They 
have also performed extensive searches of a wide variety of scientific 
literature and participated in biosafety workshops and international 
symposia.
    We comply with environmental analysis and reporting requirements 
and institutionalize a responsible environmental ethic in APHIS 
programs. In the environmental protection area, our National Monitoring 
and Residue Analysis Laboratory (NMRAL) in Gulfport, Mississippi, 
continued to support boll weevil, citrus canker, Asian longhorned 
beetle, Oriental Fruit Fly, MFF, and Medfly programs in fiscal year 
2000. NMRAL provided sampling and analysis of worker exposure to 
chemicals both at the laboratory and at port facilities and laboratory 
analysis for pesticide residues and for industrial chemicals, and 
analysis for pesticide residues in food commodities for the 
Agricultural Marketing Service's Pesticide Data Program. NMRAL 
conducted 5,987 analyses in fiscal year 2000, of which slightly more 
than half, or 3,094, supported APHIS programs; the remainder we 
performed for other agencies on a reimbursable basis. APHIS manages and 
coordinates the preparation of environmental assessments (EA), 
environmental impact statements (EIS), environmental analyses, 
biological consultations, and related technical documents for 
operational programs. In fiscal year 2000, we completed 30 EAs, 28 
biological consultations, and 1 EIS, in compliance with the 
requirements of the National Environmental Policy Act and other Federal 
environmental laws, regulations, and executive orders.
    We also protect animal health by ensuring the purity, potency, 
safety, and efficacy of veterinary biological products. Veterinary 
biologics program activities include licensing veterinary biological 
products, inspecting licensed manufacturing facilities, testing samples 
of licensed products, and issuing permits for product importation. For 
example, we issued 3,843 official certificates in fiscal year 2000 that 
indicate licensed production and testing facilities and products have 
met or exceeded marketing requirements. The regulated industry used 
these certificates to register their products for sale in foreign 
countries. The confidence that foreign regulators have in the U.S. 
veterinary biologics licensing, testing, and inspection system is 
reflected in their readiness to accept our products. APHIS continued 
efforts to reduce trade barriers that limit the sale of veterinary 
biological products overseas. Officials continued discussions with 
representatives of the European and U.S. biologics industries and with 
regulatory officials from the European Union regarding a Mutual 
Recognition Agreement concerning the marketing of veterinary biologics. 
Interaction with Canadian regulatory officials continued under the 
Canada-United States Trade Agreement and the North American Free Trade 
Agreement. We held meetings with regulatory officials from Australia, 
the European Union, and Germany to facilitate exchange of information 
and encourage discussion of regulatory issues. Such discussions led to 
Brazil lifting a temporary suspension of trade in U.S. ostriches and 
horses because of West Nile virus in the U.S. Other negotiations 
achieved a memorandum of understanding with Chile on imports of U.S. 
fish eggs early in fiscal year 2000.
                           our budget request
    With the tremendous expansion of travel and trade, we must make 
every effort to keep exotic pests and diseases from entering the United 
States. Pest and disease threats are always looming. These threats 
become more real with the actual foot-and-mouth disease outbreaks in 
the United Kingdom and elsewhere. In our Agricultural Quarantine 
Inspection--appropriated program, an increase of $5.6 million will 
increase inspections for high-risk Canadian border ports, pre-departure 
activities in Hawaii, and expanded border activities in Laredo and 
Pharr, Texas. An increase of $2.5 million in our trade issues 
resolution and management program will help resolve overseas barriers 
to trade and participate in international standard-setting activities. 
We also will use the increase to conduct import and export risk 
assessments to protect U.S. animal agriculture from pest and disease 
threats caused by imports and to support U.S. export requests.
    We are requesting a $196.8 million increase to continue eradication 
efforts in programs that were initially funded from the Commodity 
Credit Corporation (CCC). These eradication programs include--
Mediterraniean fruit fly in Mexico with an increase of $23.2 million in 
our fruit fly exclusion and detection program; an increase of $37 
million for citrus canker, an increase of $49.7 million for Asian long-
horned beetle, an increase of $4 million for Pierce's disease, and an 
increase of $5.1 million for plum pox virus, all requested in our 
emerging plant pest program; an increase of $30.4 million for 
pseudorabies; an increase of $17.9 million for scrapie; an increase of 
$12.9 million for tuberculosis; and an increase of $16.5 million for 
rabies requested in our wildlife services operations program. We did 
not feel it was appropriate to continue to rely on CCC funding when it 
became apparent that these programs would require more than 2 years to 
complete. The use of CCC emergency funding is appropriate for 
unexpected events, when other budgetary tools cannot meet emergency 
needs within critical time frames. However, in cases in which the 
eradication of a particular infestation will take several years, and 
funding needs can be anticipated and planned for, the use of emergency 
funds for future years in no longer appropriate.
    Our budget also requests an increase of $15.4 million for pay 
costs. This increase will enable us to maintain current staffing 
levels. Our staffing is what allows us to continue our exclusion, 
monitoring, scientific, animal care, and wildlife activities that help 
protect our American agriculture.
                               conclusion
    Emerging animal and plant health issues, and their real or 
perceived impacts on public health and American economic interests, 
will require increasingly sophisticated and appropriate scientific 
expertise. Before we can control outbreaks of foreign pests and 
diseases such as citrus canker, Asian longhorned beetle, and West Nile 
virus, we must understand the biology underlying them. New emergency 
management responsibilities, threats from bioterrorism, and pressures 
against use of biotechnology-derived products require new decision 
models based on assessment of risk. APHIS must develop and use the 
latest scientific methods and technologies and work closely with 
scientists around the world to anticipate and understand the nature of 
emerging health threats to agriculture, wildlife, and people.
    ``Globalization'' will continue to challenge APHIS--capacity to 
carry out its mission. Implementing and complying with new rules of 
trade (e.g., scientific risk assessments, equivalency, transparency, 
regionalization, and dispute settlement) create new responsibilities 
and demands for services that threaten to outstrip APHIS' current 
resources. Improved transportation technologies increase the movement 
of animal and plant pests and diseases. Dramatic increases in 
international travel, trade, and containerized cargo make total 
reliance on traditional inspection procedures impractical. We must 
continue to update detection methods, prevention strategies, monitoring 
systems, and response actions.
    American society's expectations of the Federal Government and 
APHIS' role create many management challenges. Demands for our services 
continue to rise. Some are demanding that APHIS become involved in new 
issues beyond the scope of our traditional mandate. For example, the 
agency is now being asked to address general animal welfare issues 
(beyond those authorized under current legislation) and to develop 
nonlethal wildlife control methods, as more people move into rural 
areas. At the same time, Americans are looking for a balance between 
pragmatic solutions to problems and the protection of the environment 
and the welfare of animals. APHIS will continue to update strategies 
and methods to ensure that programs are practical, timely, 
environmentally sound, humane, and socially acceptable.
    The Internet and other advances in communication technologies have 
increased the public's expectations for information. Everyone demands 
quick access to information about APHIS' services, technical 
assistance, and regulations. At the same time, there is a growing 
distance between much of the general public and the agriculture 
community. As our society moves further away from its agrarian roots, 
there is a corresponding decrease in the understanding of, and 
appreciation for, the basic APHIS mission of protecting and promoting 
animal and plant health. Education and public awareness become 
increasingly important as APHIS builds support for its programs.
    I will be happy to answer any questions.
                                 ______
                                 

                      Office of Inspector General

       Prepared Statement of Roger C. Viadero, Inspector General

                       introduction and overview
    Good morning, Mr. Chairman and members of the Committee. I am 
pleased to have this opportunity to visit with you today to discuss the 
activities of the Office of Inspector General (OIG) and to provide you 
with information on our audits and investigations of some of the major 
programs and operations of the U.S. Department of Agriculture (USDA).
    Before I begin, I would like to introduce the members of my staff 
who are here with me today: Jim Ebbitt, Assistant Inspector General for 
Audit; Greg Seybold, Assistant Inspector General for Investigations; 
and Del Thornsbury, Director of our Resources Management Division. I 
also want to thank the Committee for its support during my tenure as 
Inspector General. We have tried to work closely with you, and I hope 
we have been able to address some of your concerns.
    I am proud to say that, in fiscal year 2000, we continued to more 
than pay our own way. In the audit arena, we issued 110 audit reports 
and obtained management's agreement on 743 recommendations. Our audits 
resulted in questioned costs of nearly $95 million. Of this, management 
agreed to recover more than $47 million. In addition, management agreed 
to put another $268 million to better use. Equally as important, 
implementation of our recommendations by USDA managers will result in 
more efficient and effective operations of USDA programs.
    OIG investigations resulted in $175.9 million in fines, 
restitutions, other recoveries, and penalties during the year. Our 
investigative staff completed 553 investigations, obtained 481 
indictments and 459 convictions, and made 2,616 arrests.
    While I am very proud of the accomplishments of this organization 
over the past year, I must add that our results could be much more 
dramatic. Although I am very appreciative for the increase we received 
this fiscal year, the overall continuous erosion of our budget in the 
past 7 years in constant dollars continues to severely limit what we 
can accomplish. During this time, we have had to decrease our staff by 
over 150 positions--approximately 20 percent--to offset this erosion. 
Such a decrease in OIG's audit and investigative staffs results in a 
decline in our ability to ensure that the taxpayers' dollars, which you 
appropriate for the Department of Agriculture, are protected from 
external criminal enterprises, internal corruption, and improper 
stewardship.
    Adequate funding and staffing for our office make good sense and 
are very cost effective in view of the money we save the taxpayers. 
While I recognize there is a fierce competition for the Government's 
limited resources, I believe OIG must be viewed differently from the 
program delivery missions, in that we are often the last line of 
defense against compromise of the Department's program delivery and are 
a significant contributor to the creation of a Government that is 
accountable and productive. Every OIG special agent and auditor who 
cannot be hired as a result of the constant erosion of our budget 
results in ``one less cop on the beat'' in every agriculture 
neighborhood across this country. This makes for tough decisions on my 
part. Which agriculture neighborhood should we leave vulnerable to 
criminal victimization by shifting our thin line of law enforcement 
resources to only the highest agricultural priorities? This is a real 
choice I am forced to make daily because I simply do not have 
sufficient resources to cover the entire agriculture community. As 
such, I request that our proposed funding level be approved without 
reduction.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    We work closely with the Department's agencies through our audit 
work and criminal investigative efforts to ensure that appropriated 
funds are used efficiently and effectively and program benefit dollars 
go to those recipients intended by Congress. Generally, we audit and 
investigate the largest dollar fraud cases since our staffing levels 
will not allow us to do more. This means there are usually a large 
number of fraud cases we do not have the staffing to address and which, 
therefore, must be referred to the agencies to pursue through 
administrative remedies. However, the agencies do not have resources to 
address all of these cases, and even more importantly, many of them 
should not be handled administratively since they involve fraud. Thus, 
the underlying result is that a significant amount of criminal activity 
is not being addressed. This makes it very difficult to turn the tide 
of fraud in any particular program area. Additionally, in our most 
recent audit planning seminar, we identified 30 staff-years of work in 
high priority areas we had to drop from our audit program because we 
did not have staff available to perform the work. Similarly, we 
continue to carry a backlog of nearly 750 pending, inactive 
investigative cases--nearly 30 percent of our total caseload--which we 
cannot address in addition to our normal caseload of approximately 
2,000 active cases.
    Our current staffing level also restricts our ability to pursue 
criminal investigations proactively, generally limiting us to one or 
two program areas of proactive work per fiscal year. Nevertheless, we 
continue to work closely with USDA agency officials to address key 
issues and expand joint operations with other Federal, State, and local 
law enforcement and audit agencies to broaden the impact of our work. 
Working together, our staffs identify program weaknesses and program 
violators.
    In my testimony today, I will address the most crucial issues 
facing the Department and why it is essential that OIG be funded at the 
level requested.
    The safety and wholesomeness of agricultural products provided to 
the public is our primary concern. OIG is committed to ensuring the 
health and safety of the American consumer as it relates to 
agricultural products. Additionally, we will focus our efforts on 
employee integrity, financial integrity, and information technology and 
computer security issues, including new statutory requirements such as 
the Government Information Security Reform Act. That legislation 
requires annual reviews, beginning in fiscal year 2001, of the 
Department's information security program, most notably an evaluation 
of the effectiveness of security control techniques for a sample of the 
systems. We need the necessary resources to broaden our scope of work 
in these areas and pursue an audit and investigative enforcement 
strategy resulting in the greatest impact on these critical programs.
                  audit and investigations activities
                           health and safety
    Our audits and investigations continue to identify problems in 
domestically produced foods including contaminated food, misbranded 
products, and uninspected meat or other products. We also are seeing an 
increase in problems in imported food products or other commercial 
shipments legally imported into the United States, as well as shipments 
smuggled into the United States containing banned products and, 
frequently, dangerous pests. OIG's resources, especially our 
investigative resources, are increasingly overextended. OIG is often 
required to pull its special agents from current investigations of 
large dollar frauds in USDA's benefits and loan programs to investigate 
criminal activity that threatens the health and safety of the public.
    We must also address domestic and international criminal terrorist 
threats to the security of our Nation's food supply. This problem has 
been recognized as a major concern by the Department of Justice (DOJ) 
and Congress, as well as OIG. Threats of intentional biological 
contamination of food products for extortion or ideological motives 
victimize and disrupt the food production and distribution systems of 
this country. Immediate response to emergency situations impacting USDA 
personnel, programs, and operations, as well as regulated industries, 
requires the specific, unique law enforcement expertise of USDA OIG.
    Recently, successful prosecutions of criminal enterprises have 
included a multiagency sting operation in San Francisco, which netted 
three importers who attempted to bribe a Government official to 
expedite the entry of their food shipments from Hong Kong into the 
United States without the required inspections. The other two importers 
pled guilty, one to receipt of adulterated food in interstate commerce 
and the other to importing adulterated product and bribery. A Federal 
jury found the third importer guilty of bribery, money laundering, 
smuggling, entry of adulterated foodstuffs, and conspiracy. He was the 
leader and organizer of this criminal activity and had obstructed 
justice by providing false testimony at his trial. Because of the 
serious risk to public health and safety caused by the smuggling of 
salmonella-laden seafood into the country, the judge also granted the 
Government's motion for upward departure from sentencing guidelines. 
This case resulted from work initiated by the San Francisco Interagency 
Import Task Force, which has been targeting firms involved in illegally 
importing plants and animals that may present a threat to America's 
food supply. This investigation alone cost OIG approximately $350,000 
in personnel, travel, and equipment costs.
    Based on notification by the California Department of Food and 
Agriculture that a Los Angeles agricultural products import firm may 
have smuggled tons of Mexican sweet limes into the United States, we 
initiated a joint criminal investigation with the U.S. Customs Service. 
In June 2000, a 27-count indictment was filed, charging three 
individuals and two firms with conspiracy, smuggling, and aiding and 
abetting. Two of the three indicted subjects have been arrested, with 
one awaiting trial and one convicted on charges relating to the 
transport of various agricultural products, including Mexican sweet 
limes, into California from Mexico. Laboratory examination showed that 
a substantial portion of the illegally imported Mexican sweet limes was 
infested with Mexican fruit fly larvae.
    We are also concerned with the large number of repeat offenders 
that USDA and State regulatory agencies have to deal with on a regular 
basis. Civil fines and administrative sanctions have simply become an 
additional ``cost of doing business'' for those repeat offenders who 
seek to skirt the dedicated efforts of the Department's regulatory 
agencies. These cases involve the smuggling of agricultural products, 
illegal meat processing operations, the deliberate introduction or 
threatened introduction of biological agents to attack this Nation's 
food supply, and assaults on employees in the Department's regulatory 
agencies as they carry out their official duties.
    For example, in one recent ongoing investigation, an anonymous 
letter containing an unknown powder alleged to be anthrax was sent to 
the owner of a federally inspected meat plant. Fortunately, the powdery 
substance was benign; however, it caused great concern for those plant 
employees who were exposed to the substance. It also caused economic 
disruption to the operation of the plant, which was forced to close for 
a half day until the identity of the substance could be determined 
through laboratory testing and the meat plant could be properly 
decontaminated. This hoax cost the plant thousands of dollars in lost 
production, hospital costs, and destroyed product. We cannot put a 
price tag on the anxiety caused to the plant employees while they 
wondered if they had been truly exposed to anthrax.
    In another recently completed investigation, we identified a 
corporation smuggling prohibited uninspected meat products into the 
United States. The foreign country where these meat products originated 
is prohibited from exporting them into the United States due to 
numerous livestock diseases, such as foot-and-mouth disease, and 
sanitation concerns in their manufacturing plants. Such products pose a 
serious health hazard to the general public and livestock industry in 
America. On five previous occasions, the company had been caught by two 
separate USDA regulatory agencies smuggling these illegal meat products 
into the United States. On each of these occasions, the products were 
destroyed, and the company received a small fine. Recently, my office 
received information that the corporation was again importing these 
illegal, dangerous products. We have initiated a criminal investigation 
with DOJ to put an end to this flagrant skirting of the USDA regulatory 
process and ensure the protection of the public's health.
    While we continue to respond as quickly as we can, I am concerned 
that our efforts to respond to these incidents are severely hampered by 
a lack of personnel; proper protective equipment, such as biohazard 
suits and breathing equipment to ensure the health and safety of our 
staff, and specialized forensic equipment to gather evidence samples; 
and funding for specialized training on how to recognize and properly 
handle biohazardous materials.
    In addition to our investigative work, we have completed a series 
of audits to determine if the Food Safety and Inspection Service (FSIS) 
has successfully implemented the new science-based Hazard Analysis and 
Critical Control Point (HACCP) system for inspecting meat and poultry 
in the United States. Our initial review included the implementation of 
HACCP, laboratory analyses, foreign imports, and the compliance program 
that carried over from the previous system. We found that while FSIS 
had taken positive steps to secure the safety of meat and poultry 
products, more needs to be done in all four areas reviewed. Overall, we 
concluded FSIS had reduced its oversight to less than what is prudent 
and necessary for the protection of the consumer.
    Based on these findings, we made numerous recommendations to FSIS 
for program improvement, and it has agreed to implement those 
recommendations. However, because FSIS' record in fulfilling promises 
of implementation is weak, we need a continued audit presence to 
monitor and ensure implementation of the recommendations. In addition, 
we are expanding our audit review of FSIS' program on meat and poultry 
products imported to the United States. We are also performing 
additional work to assess the equivalency determinations FSIS makes of 
foreign countries' inspection systems and to determine if FSIS' 
reinspection of foreign imports is working as intended. Even as we 
begin this work, we are worried that we will be unable to complete both 
this new audit and monitor implementation of the earlier 
recommendations with current staffing levels. We are concerned that if 
we are not able to do adequate monitoring and FSIS does not implement 
these recommendations, the U.S. food supply will be at risk.
Antismuggling Program
    The escalation of smuggling activity involving food products has 
forced us to shift our resources to this arena. Such smuggling brings 
high dollars in underground ``black market'' commerce and is an 
increasingly serious problem to the Nation and especially to the 
economy of many agricultural States. Smuggling can and has resulted in 
the introduction of harmful exotic plant and animal pests, diseases, 
and invasive species which harm America's crops, forests, food supply, 
livestock, wildlife, and domestic animals, as well as the health of the 
American consumer. Such illegal activity can cost billions of dollars 
in destroyed crops and undermined agricultural markets--both foreign 
and domestic--and result in lost jobs, as well as create a serious 
health threat to the American consumer.
    To combat the ever-increasing smuggling activities, OIG has 
developed a three-pronged strategic approach which relies heavily on an 
expanded relationship with State, local, and Federal agriculture and 
law enforcement agencies. However, our antismuggling program has been 
limited due to our lack of resources, which I have described 
previously. Additional staffing is needed for these proactive 
initiatives, along with the necessary specialized law enforcement 
equipment.
    We also audited APHIS' Plant Protection and Quarantine (PPQ) 
practices for inspecting air and ship cargos and passengers arriving at 
the Miami and Ft. Lauderdale, Florida, ports. We identified 
vulnerabilities and weaknesses which increased the risk of prohibited 
products and pests entering the United States. OIG observed that PPQ 
inspectors did not inspect cargo ships upon arrival; did not inspect 
the baggage of 75 percent of arriving international airline passengers 
and 99 percent of cruise ship passengers arriving from foreign 
locations; did not assess fines as a deterrent against airline and 
cruise ship passengers found to have prohibited agricultural items in 
their possession when entering the United States; did not select 
samples of perishable cargo for inspection but, instead, allowed 
brokers to select the samples; nor did they ensure that caterers met 
all foreign arriving aircraft immediately upon arrival to remove, in 
seal-proof containers, any food or nonfood garbage.
    We recommended that APHIS assess penalties when warranted and 
determine if higher inspection fee rates were necessary to provide for 
sufficient resources. We recognize, as does APHIS, that inspections are 
resource-intensive, and that risks need to be assessed to determine 
where scarce resources should be directed. APHIS believes that airports 
handling international passengers pose the greatest risk. However, it 
has not presented OIG with a risk assessment that supports that 
contention, nor has it presented an assessment indicating additional 
staffing is needed because risks are inherent at both airports and 
seaports.
    Because of this audit and our concern with the smuggling into the 
United States of prohibited products, we have begun a broad-based 
review, evaluating APHIS' policies and procedures for identifying and 
assessing risk among the various agricultural goods imported into the 
United Sates. We also are reviewing the interaction between APHIS and 
the U.S. Customs Service to review the measures employed to detect 
pests that may enter the United States in both agricultural and 
nonagricultural related products. Our goal is to make recommendations 
that will help APHIS do its job better.
                           employee integrity
    A continuing priority for OIG is the investigation of criminal acts 
committed by USDA employees. We have identified approximately 55,000 
USDA employees whose positions place them in direct contact with the 
public on a regular basis, doing everything from inspecting meat and 
grading produce to providing loans and other program benefits. The only 
way to maintain the confidence of the taxpayers, consumers, and 
producers who use or rely on the Department's services is to know that 
USDA has a trusted and dedicated work force. And, while we want to 
emphasize that the evidence shows, and we firmly believe, that the 
highest percentages of these employees do their job with the utmost 
integrity, to maintain that trust, internal controls must be in place 
and operating. To quote a great American, Dwight D. Eisenhower, ``the 
unaudited deteriorates.''
    One case that demonstrates a situation where those controls broke 
down is our continuing investigation of the scheme by which 
Agricultural Marketing Service (AMS) graders accepted bribes from 
produce wholesalers at the Hunts Point Market in New York City in 
return for downgrading produce. It also graphically demonstrates how 
corruption can have a major impact on the daily commerce of this 
country. This kind of investigation is very staff intensive and 
requires the use of specialized technical equipment, such as listening 
devices that are wired into the electrical system for long distance 
coverage. We currently have a significant number of corruption 
investigations similar to this one. This is an area where we must be 
ever vigilant, and where we simply must have the right tools and 
sufficient staffing to stop corrupt USDA employees from continuing 
their criminal activities.
                          financial integrity
    While some of the Department's agencies have achieved success with 
their financial systems and received clean financial opinions, other 
major systems have not. The Food and Nutrition Service (FNS), the Risk 
Management Agency (RMA), and the Rural Telephone Bank received 
unqualified opinions in fiscal year 2000, which means their financial 
statements fairly presented their financial position. But the Forest 
Service (FS) and the Commodity Credit Corporation (CCC) were unable to 
complete their financial statements in time for us to audit them by the 
legislatively mandated timeframe of March 1. Also, Rural Development 
has not been able to properly determine the cost of their loan 
programs. Thus, it received a qualified opinion.
    The individual conditions of the agencies when taken together mean 
that for the past 7 fiscal years--1994 through 1999 and in our just 
released audit for 2000--we have issued a disclaimer of opinion on the 
Department's consolidated financial statement. This disclaimer means 
that the Department overall does not know whether it correctly reports 
all collected monies, the cost of its operations, or other meaningful 
measures of financial performance. Most importantly, some USDA managers 
do not have reliable financial information regarding how much has been 
spent on the cost of program operations and are being forced to make 
decisions ``in the dark'' without solid financial data. Not only can 
flawed decisions result, but the integrity of program dollars is put at 
risk of misuse or theft. Given USDA's annual budget authority of about 
$82 billion dollars in fiscal year 2001, the importance of having a 
strong financial reporting capability cannot be overstated.
    The main problems that USDA has to solve to improve its financial 
accounting which will result in improved opinions on these financial 
statements include: FS needs to improve its accountability and 
evaluation of its assets; Rural Development, CCC, and the Farm Service 
Agency (FSA) need to perfect models and gather the necessary data to 
support implementation of the model that will accurately reflect the 
costs of their loan programs; and the Department needs to complete 
implementation of its new accounting system--the Foundation Financial 
Information System.
    These major problems contribute to conditions that keep the 
Department from achieving a clean audit opinion. For example, we have 
been unable to substantiate the Department's fund balance with the 
Department of Treasury reported at over $38 billion. This account 
represents monies that can be spent in the future for authorized 
transactions. Last year we reported that Treasury records and the 
Department's records were out of balance by $5 billion. At the close of 
fiscal year 2000, the difference had been reduced to about $450 
million. In other words, the Department still has reported differences 
with Treasury of this amount, $450 million, and does not know the 
reason why. Think of this in terms of your personal checking account. 
Your check register says one thing but the bank says you spent a higher 
amount, and you cannot figure out the difference.
    FS has been impaired by a lack of accountability over its assets. 
Historically, it has not been able to develop a meaningful asset 
valuation because it did not know what assets had been acquired, when 
the assets were obtained, or how much they cost. While FS has improved 
in recording assets, asset valuation continues to be a problem. To 
overcome this problem, FS needs to undertake an extraordinary level of 
effort to establish accountability and develop acceptable accounting 
records in order for agency management to fulfill its financial 
management and stewardship responsibilities.
    While the Department is working toward overcoming past encumbrances 
to an unqualified audit opinion, aggressive action is still needed to 
foster meaningful financial management as soon as possible. All of this 
activity significantly impacts OIG's resources. We have had to devote 
far more effort to the legislatively mandated audits of financial 
statements than envisioned by Congress because of the systemic 
weaknesses that have generated unauditable statements. While it may 
seem paradoxical, the demand on our resources will actually increase--
not abate--as the Department moves closer to auditability because we 
will have much more to audit than we have had in the past. For the 
fiscal year 2000 financial statement audits, we scheduled more than 70 
auditors--over one-third of our audit staff--full time, for these 
audits. We estimate that the workload demands will require us to 
increase our financial staff to 90 auditors--about 40 percent of our 
audit staff--as we begin the fiscal year 2001 financial audits. In the 
absence of additional staff, critical program activity will go 
unaudited as we fulfill our statutory financial audit requirements. 
Additionally, these audits require the use of specialized data-mining 
software along with expert training for the auditors who use it. If 
these critical resource issues are not addressed, our ability to 
complete the statutory financial statement audits will erode, and we 
will not be able to audit other high-priority areas.
                    information resources management
Computer Security
    Our fourth area of major concern is securing the availability, 
accuracy, and privacy of information in the Department's information 
technology systems. This remains a significant challenge for the 
Department. USDA agencies continue to expand their use of the Internet 
to provide services and information to the public, commonly referred to 
as ``e-government.'' E-government offers extensive possibilities for 
the Department to improve its delivery of services, collect 
information, and manage its operations. USDA has numerous information 
assets that include market-sensitive data on the agricultural economy 
and commodities, signup and participation data for programs, personal 
information on customers and employees, and accounting data. These 
information and related systems face unprecedented levels of risk from 
intentional or accidental disruption, disclosure, damage, or 
manipulation.
    Based on our audits, we believe significantly more action is needed 
to strengthen departmentwide information security. While the Department 
has been responsive to our recommendations, initiating prompt fixes to 
the vulnerabilities we have reported, additional work must be done. We 
have only been able to look at a few of the hundreds of systems within 
the Department. Information in USDA databases is market sensitive and, 
if misused, could cause economic chaos and harm prices farmers receive. 
USDA also operates the National Finance Center (NFC) in New Orleans. 
NFC pays salaries and other expenses exceeding $23 billion each year. 
It also houses the database for the Thrift Savings Program, which has 
assets of over $100 billion. We must ensure all of these assets are 
safeguarded and information is protected.
    The demands on OIG's resources in this area are increasing 
significantly. As I mentioned earlier, Congress passed the Government 
Information Security Reform Act, requiring annual reviews beginning 
this year of the Department's information security program. Each review 
must include an evaluation of the effectiveness of security control 
techniques for a sample of the Department's systems. These audits are 
extremely complex and costly because the auditors need specialized 
training and sophisticated software to perform them. At current funding 
levels, OIG will be hard-pressed to fulfill this legislative mandate.
    When we have been able to do work ``up front'' on computer systems, 
it has resulted in a success for the agencies developing the systems. 
We did this with FNS and the States as they were implementing 
Electronic Benefits Transfer (EBT) systems in the Food Stamp Program 
(FSP) and, as a result, EBT is a success for us and FNS as well as the 
States. It is now much easier to detect retailers who harm the program 
by buying benefits at half their cost or less, rather than selling 
food. With EBT, you can more readily pinpoint when and where this 
happens.
    Currently, 41 States and the District of Columbia use EBT systems. 
Thirty-seven of the systems have been implemented statewide, and 
approximately 74 percent of food stamp benefits, estimated at $12.6 
billion for fiscal year 2001, are issued through such systems. During 
fiscal year 2000, we completed reviews in Florida, Louisiana, North 
Dakota, South Dakota, and Utah and found all systems have been 
successfully implemented.
    All EBT systems to issue food stamp benefits must be in place by 
October 2002. To date, one-quarter of the benefits are not under an EBT 
system, and some States are either only partially under EBT or are in 
the process of converting. Some, such as California, Michigan, 
Mississippi, New York, and Virginia, have significant caseloads which 
will greatly affect their conversion. Thus, we must remain proactive in 
our approach to reviewing systems as they are implemented when 
adjustments and changes are more easily addressed.
                   other major challenges facing usda
Food, Nutrition, and Consumer Services
    The national food stamp certification error rate for fiscal year 
1999, the last year completed, stands at 9.9 percent; while lower than 
in 1998, it still accounts for dollar-issuance errors of about $1.6 
billion, with overissuances being $1.1 billion of that amount. Yet, the 
number of dollars issued and participating households are going down. 
School districts are also finding high rates of error in households 
certifying their eligibility for free or reduced-price lunches. Recent 
statistics assembled by FNS for some selected States showed an error 
rate of about 20 percent. In Illinois alone, OIG found this accounted 
for excess program outlays of about $31 million in 1 school year. Other 
U.S. departments, such as Education and Health and Human Services, also 
use the school lunch data as a basis for distributing program funds, so 
the impact goes far beyond USDA. These areas need our attention, but we 
simply do not have the resources necessary to address this issue now.
Operation Talon
    For more than 3 years, OIG has coordinated a nationwide law 
enforcement initiative dubbed ``Operation Talon,'' which has resulted 
in the arrest of over 7,000 fugitive felons. This initiative, which has 
been carried out in conjunction with other law enforcement agencies and 
State social service agencies across the country, was designed to 
identify, locate, and apprehend dangerous and violent fugitive felons 
who may also be illegally receiving benefits through FSP. Operation 
Talon has grown into a nationwide dragnet, currently encompassing 
fugitives wanted in 29 States, as well as Federal fugitives sought by 
the U.S. Marshals Service. The more serious offenses for which 
Operation Talon fugitive arrests have been made include 32 arrests for 
homicide; 48 for sex offenses, including rape and child molestation; 15 
for kidnapping/abduction; 390 for assault; 213 for robbery; and 1,604 
for drug/narcotic offenses. A number of States are removing arrested 
fugitives from their food stamp rolls, resulting in an estimated 
average savings to FSP of over $12.6 million. We have managed to 
leverage our success through the use of targeted asset forfeiture funds 
to pay for overtime costs and special equipment needs of the State and 
local law enforcement agencies participating in Operation Talon. 
However, since its inception 3 years ago, this program has cost OIG 
over $4.3 million in direct appropriated funds to spearhead Operation 
Talon in neighborhoods across America.
                             crop insurance
    Based on our prior audit efforts, we believe the management of the 
Department's crop insurance programs will continue to provide 
challenges. Congress recognized the need for Federal Crop Insurance 
Program reform when it passed the Agricultural Risk Protection Act of 
2000 (ARPA). This Act requires the Secretary to reduce the potential 
for fraud, waste, and abuse in the program by mandating the exchange 
and comparison of relevant information received by RMA and FSA in the 
conduct of their respective production agriculture programs. Our audits 
have indicated weaknesses in the research and development of new types 
of crop insurance policies; conflicts of interest involving the 
insureds, insurance agents, and the loss adjusters; noncompliance with 
loss claim procedures by the loss adjusters; and inadequate quality 
control reviews by the insurance companies.
    To meet that congressional mandate, RMA and FSA have established 
working groups to implement the provisions of ARPA, including data 
reconciliation, FSA assistance in monitoring crop insurance programs, 
and RMA consultation with State FSA committees in formulating crop 
insurance policies and plans of insurance. Currently, OIG is assisting 
these working groups as they develop the framework to implement the 
congressional mandate. As RMA and FSA implement these controls, we will 
need to monitor and test them to ensure they are adequate and 
functioning as intended and provide timely feedback to RMA and FSA. We 
believe this proactive approach and working with the agencies early on 
will be more effective and result in greater cost savings to the 
Government than trying to recover incorrect payments.
                   business and industry loan program
    In fiscal year 2000, delinquency rates rose sharply in the Rural 
Business-Cooperative Service's Business and Industry (B&I) guaranteed 
loan program. Fiscal year 2001 funding in this program increased to 
over $3 billion, tripling fiscal year 2000 levels. We believe the 
Department is facing the possibility of a dramatic increase in 
financial losses to the Government in this area. Factors, such as the 
growing presence of unregulated financial organizations--or 
nontraditional banks--with unorthodox financing and servicing 
arrangements that can mask delinquencies until a total financial 
failure occurs, make some of these loans even riskier to the 
Department.
    Ongoing nationwide audit work in this area is disclosing 
significant problems. We are expanding our efforts into a special 
initiative to assess the extent of this burgeoning problem and will 
make appropriate recommendations for needed legal, regulatory, and 
administrative changes.
    In prior years, we audited defaulted B&I loans whenever the loss to 
the Government exceeded $3 million. Frequently, these audits prevented 
USDA from paying fraudulent claims. However, staffing shortages now 
prevent our audit of all but the most egregious loss claims. Additional 
resources would allow more audits in this high-risk area and identify 
potentially fraudulent and abusive loss claims, resulting in the 
prevention of substantial funds from ever leaving the Department in 
payment of fraudulent claims.
                         rural housing program
    The Department's Rural Housing Program is another effort which will 
continue to need attention by the Department. The American 
Homeownership and Economic Opportunity Act of 2000 was signed into law 
on December 27, 2000. It strengthened the ability of Rural Development 
to seek prosecution of individuals, both civilly and criminally, who 
abuse and defraud the Multi-Family Housing Program. Many of the reforms 
enacted will directly address the problems found in our nationwide 
initiative with the Rural Housing Service that identified and 
documented significant abuse and fraud in the Multi-Family Housing 
Program.
    We are continuing substantial audit and investigative efforts in 
this area to include cooperative efforts with DOJ to encourage 
acceptance of these cases for prosecution. The passage of the new 
legislative authority significantly increases the chances for 
successful prosecution.
                               conclusion
    We are proud of our record and accomplishments at OIG. We 
continually assess where the risks for waste, fraud, and abuse are in 
the Department and direct our limited resources to those we judge to be 
at the highest risk. The question is, do we have sufficient resources 
to address all or even the majority of those area that are vulnerable 
and at risk? As I have indicated today, the answer is clearly, no.
    This concludes my statement, Mr. Chairman. I appreciate the 
opportunity to appear before you today and would be pleased to respond 
to any questions you may have at this time. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

                   Food Safety and Inspection Service

          Prepared Statement of Thomas J. Billy, Administrator

    Mr. Chairman and Members of the Subcommittee, I am pleased to have 
the opportunity to submit a statement for the record on the current 
status of Food Safety and Inspection Service (FSIS) programs and on the 
fiscal year 2002 budget for food safety within the U.S. Department of 
Agriculture.
    Let me begin by saying that the risk-based modernization of the 
meat, poultry, and egg products inspection programs begun in 1996 has 
resulted in significant food safety improvements. Reductions in the 
prevalence of many microbiological contaminants, such as Salmonella, 
have occurred across all categories of meat and poultry products, and 
these have been accompanied by reductions in foodborne illness. These 
improvements would not have been possible without the consistent 
support of you, Mr. Chairman, and the Members of the Subcommittee. This 
support has enabled FSIS to complete implementation of the Pathogen 
Reduction/Hazard Analysis and Critical Control Points (HACCP) Systems 
rule and to consolidate the resulting gains into a sound plan for the 
future.
    With HACCP in place, FSIS now has two major goals--first, to 
determine how we can assist in improving the quality and effectiveness 
of industry food safety programs, including HACCP, and second, to 
determine how FSIS can improve its effectiveness as a public health 
regulatory agency. We've identified five major areas of focus related 
to these goals.
    The first area involves the Agency's infrastructure and resources. 
FSIS' infrastructure needs to be improved to allow its workforce to 
carry out its regulatory responsibilities more effectively and 
efficiently. This is a very broad area that encompasses the assignment 
of work, increasing expertise and training, and enhancing data analysis 
and decision-making, communication, and workplace environment. Making 
these improvements requires a reevaluation of where and how the Agency 
executes its programs and utilizes its resources. This assessment is 
underway, and I will elaborate on its details later on in this 
statement.
    The second area of focus supporting our future goals is in the 
design and effectiveness of a risk-based food safety and inspection 
program. This area includes aspects of our modernization strategy that 
have been on a slower track due to our intensive focus on HACCP and 
Pathogen Reduction implementation. Regulatory reform, in-plant staffing 
patterns, residue control in a HACCP environment, and overall 
improvements in the Agency's ability to respond to future food safety 
problems will receive considerable attention as we move forward.
    Third, the Agency is committed to improving the workplace 
environment for its employees. This includes improvements in worker 
safety, quality of work life, and workforce diversity.
    Fourth, FSIS must focus its training and education needs on the 
scientific rationale for regulatory decisions and commit to whatever 
means are necessary within available resources to make training and 
education available to all employees.
    And finally, we will focus on improving how we communicate within 
the Agency and with the regulated industry. FSIS needs to ensure that 
its rules, procedures, and other regulatory information are clear, 
complete, easily understood, and accurate.
    This gives you a brief synopsis of our recent successes and 
thoughts on the Agency's future. I will elaborate on our future plans 
later in my statement, but before I do, let me first provide some 
context to the importance of these plans by briefly reviewing the 
mission and history of FSIS.
                             fsis overview
    The mission of FSIS is to ensure that the Nation's commercial 
supply of meat, poultry, and egg products is safe, wholesome, and 
correctly labeled and packaged, as required by the Agency's authorizing 
statutes. The FSIS Strategic Plan for 2000-2005 calls for a further 25 
percent reduction in the number of foodborne illnesses resulting from 
consumption of products the Agency regulates. Although existing public 
health data make it difficult to isolate specific contributions to 
achieving an overall reduction in foodborne illness, we can and do take 
specific action to control and monitor the prevalence of the foodborne 
hazards that can cause illness. Our goal is therefore to protect the 
public health by significantly reducing the prevalence of foodborne 
hazards in meat, poultry, and egg products.
    FSIS has a long, proud history of protecting the public health. 
Although the Agency under the current name was established by the 
Secretary of Agriculture on June 17, 1981, its history dates back to 
1906.
    In 1890, the U.S. passed a meat inspection law to assure European 
markets that meat from the United States was safe. However, the Meat 
Inspection Act of 1906 signaled the real beginning of domestic 
inspection in the United States. A year earlier, Upton Sinclair 
published his book, The Jungle, portraying unsanitary conditions in 
Chicago slaughterhouses. The book caused a public and political outcry. 
Meat sales around the country dropped nearly a third. With the 1906 Act 
began a system of continuous daily inspection in slaughterhouses using 
organoleptic (sight, smell, touch) inspection to detect unsanitary 
conditions and adulterated products. Poultry inspection began in 1926, 
on a voluntary basis, and in 1957, Congress passed the Poultry Products 
Inspection Act, which established mandatory, daily, continuous 
inspection of poultry products. Since 1994, FSIS has had additional 
food safety responsibilities under the Egg Products Inspection Act.
    FSIS published the landmark Pathogen Reduction/Hazard Analysis and 
Critical Control Point (HACCP) Systems rule on July 25, 1996. The rule 
addresses the limitations of the original organoleptic inspection 
system in dealing with the problem of pathogenic microorganisms 
(harmful bacteria) on meat and poultry products. The rule clarifies the 
respective roles of government and industry in food safety, and therein 
makes better use of government resources in addressing food safety 
risks. Industry is accountable for producing safe food. Government is 
responsible for setting appropriate food safety standards, maintaining 
vigorous inspection to ensure those standards are met, and maintaining 
a strong enforcement program to deal with plants that do not meet 
regulatory standards.
                             infrastructure
    With HACCP in place, FSIS has reached a major milestone in the 
evolution of the Nation's food safety and inspection program. The HACCP 
rule is not simply a new regulation, but a new way of doing business 
that enables FSIS to focus its attention and resources on the most 
significant food safety hazards. It serves to prevent food safety 
hazards rather than catching them after the fact. And HACCP never goes 
out of date, because it can be adapted as new scientific information 
comes along. Thus, HACCP serves as a foundation for continual 
improvement.
    As I mentioned earlier, one major area for improvement is to 
strengthen the FSIS infrastructure to better support HACCP. This is 
necessary in order to ensure that we focus our inspection efforts on 
those aspects of meat, poultry, and egg product production that present 
the greatest food safety concern. This requires FSIS to rethink its 
approaches to both slaughter and processing inspection. The Agency has 
launched a number of initiatives to do so. Before I describe them, let 
me first briefly review with you the major functions of USDA's food 
safety program. Each of these functions bears further elaboration, 
which I will do later as I describe current and planned initiatives 
associated with each.
Meat, Poultry, and Egg Inspection Activities
    As you know, FSIS is a large agency, with approximately 10,000 
employees. This includes more than 7,600 inspection personnel stationed 
in approximately 6,000 meat and poultry plants who inspect more than 
8.5 billions birds, 133 million head of livestock, and 3.5 million 
pounds of liquid egg products annually. In fiscal year 2000, FSIS 
facilitated the export of an estimated 10 billion pounds of meat and 
poultry to approximately 100 countries throughout the world and began 
work on a new system to automate the certification of meat and poultry 
exports. Agency personnel also inspected 3.7 billion pounds of imported 
meat and poultry from 31 countries, of which 9 million pounds were 
refused entry into the United States. Eight million pounds of egg 
products were imported from Canada, of which 423 pounds were refused 
entry. Canada, and The Netherlands, remain the only countries certified 
to export egg products to the United States, and The Netherlands 
exported no egg products to this country last year. Mexico applied for 
export eligibility in fiscal year 2000.
    To ensure the safety of imported products, FSIS maintains a 
comprehensive system of import inspection, linking all U.S. ports of 
entry through a central computer system. This allows FSIS to establish 
compliance histories for countries and plants exporting to the U.S. and 
to communicate instantly among ports when problems are found at any 
individual port of entry. This system is one part of FSIS' efforts to 
verify the effectiveness of foreign inspection systems and also to 
support our sister agency, the Animal and Plant Health Inspection 
Service (APHIS) in preventing the entry of meat or poultry products 
that present an animal disease threat to U.S. livestock.
    In light of recent events in Europe, the manner in which FSIS 
certifies foreign programs as possessing public health safeguards that 
are ``equivalent'' to the U.S. program is a subject of heightened 
interest. Annually, we review all foreign inspection systems in 
countries eligible to export meat and poultry to the U.S. In fiscal 
year 2000, FSIS reviewed the documentation of and performed on-site 
audits in 31 countries exporting meat and poultry products to the 
United States and was satisfied that each country had implemented 
Sanitation Standard Operating Procedures (SSOPs), HACCP systems, and 
Salmonella testing programs.
    FSIS is also responsible for assessing State inspection programs 
that regulate meat and poultry products that may be sold only within 
the State in which they were produced. The 1967 Wholesome Meat Act and 
the 1968 Wholesome Poultry Products Act require State inspection 
programs to be ``at least equal to'' the Federal inspection program. If 
a State chooses to end its inspection program or cannot maintain the 
``at least equal to'' standard, FSIS must assume responsibility for 
inspection. There are currently 27 states that have a state meat or 
poultry inspection program and operate under cooperative agreements 
with FSIS. In these states, Federal funding is provided for up to one-
half of the state's cooperative inspection program as long as the State 
maintains a program ``at least equal to'' the Federal program.
    In the past few years, some states have decided to re-establish 
inspection programs. Minnesota established a state inspection program 
on October 1, 1998, followed by North Dakota on October 1, 2000, and 
Missouri on January 1, 2001. The only state to terminate its inspection 
program in recent years was Alaska, which ended its state program on 
July 30, 1999. In fiscal year 2000, FSIS reviewed 87 state-inspected 
establishments in 13 states.
    Another part of the FSIS food safety program involves our three 
multidisciplinary laboratories, which conduct laboratory testing for 
microbiological contamination, chemical and antibiotic residues, 
pathological conditions, processed product composition, and economic 
adulteration. FSIS performed tests on more than 371,000 product samples 
in fiscal year 2000.
    FSIS also conducts compliance and enforcement activities to address 
situations where unsafe, unwholesome, or inaccurately labeled products 
have been produced or shipped. The objective of these activities is 
two-fold--one, to make a critical appraisal of compliance with meat and 
poultry regulations, and two, as a result of certain critical 
appraisals, to take enforcement action where necessary. In fiscal year 
2000, more than 50,000 compliance reviews were conducted. As a result 
of these reviews and other activities, approximately 28 million pounds 
of meat, poultry, and egg products were detained for noncompliance with 
the respective laws, and eight criminal convictions were obtained 
against firms and individuals for violations of the meat and poultry 
inspection laws. In addition, industry voluntarily recalled more than 5 
million pounds of meat, poultry, and egg products.
    With the shift in recent years toward greater mass production and 
distribution of food, and greater globalization in food trade, the 
identification and tracking of potential food hazards has become a much 
more complex activity. In response, FSIS has developed strong 
partnerships with state, local, and foreign public health agencies and 
stakeholders to better coordinate the investigation of and response to 
food safety hazards and outbreaks of foodborne illness. These 
partnerships are vital to FSIS' ability to effectively perform its 
public health mission.
    Given the strength of the economy in recent years, and commensurate 
increases in industry growth, FSIS has been challenged in its ability 
to hire and train enough qualified personnel to meet growing demands 
for in-plant inspectors, while at the same time ensuring a full 
conversion of all plants to HACCP-based operations. We are grateful, 
Mr. Chairman, that in fiscal year 2000, Congress provided FSIS with an 
additional $11 million, which we used to hire 203 new, permanent, full-
time (PFT) inspectors in meat and poultry slaughter plants. This 
funding also enabled us to add other-than-permanent staff years to the 
inspection work force in order to provide plants with relief personnel 
on an as-needed basis. This additional hiring activity enabled FSIS to 
meet its targeted inplant employment level of 7,610 in fiscal year 
2000--a minimum level that the Agency, within current baseline funding, 
plans to maintain to satisfy industry's expected demand for increased 
inspection services throughout fiscal year 2001 and fiscal year 2002. I 
would like to point out, Mr. Chairman, that as of March 31--the end of 
the second quarter of fiscal year 2001--FSIS in-plant employment had 
reached 7,630.
Field Automation
    The Agency's Field Automation and Information Management (FAIM) 
initiative is the major vehicle by which FSIS is providing its 
workforce with the technology tools to support HACCP-based regulatory 
determinations and actions in the field.
    The end of fiscal year 2000 represented a milestone for the Field 
Automation and Information Management (FAIM) initiative. FSIS completed 
implementation of the Federal FAIM initiative on schedule and under 
budget. In fiscal year 2001, FAIM is beginning a cycle of replenishing 
original equipment. That cycle will continue in fiscal year 2002.
    In its first five years, FAIM distributed more than 4,200 desktop 
and notebook computers and trained more than 5,400 FSIS inspection 
personnel. An automation program of this scope demands ongoing support 
activities to realize gains from the initial investment. Each FAIM user 
must be provided with technical support, hardware maintenance, 
telecommunications, supplies, and an expanded collection of software 
applications and computer-based training. Employee turnover means 
training new people.
    The replenishment cycle includes replacing hardware and peripherals 
that were purchased five years ago. While the recommended replacement 
schedule for office computers is every three years, FAIM has stretched 
its cycle to five years. For FSIS inspection personnel to continue 
running standard operating systems and software applications, their 
systems must be replaced with newer equipment.
New Statutory Requirements
    As part of the fiscal year 2001 Appropriations Act, FSIS acquired 
additional regulatory responsibilities in the form of mandatory ratite 
and squab inspection. The Agency has begun the process of converting 
the current voluntary program to a mandatory one. An interim final rule 
is being developed to ensure that appropriate regulations are in place 
on April 26, 2001, the statutorily established date of enactment.
        targeting risk in the food safety and inspection program
    A key component of FSIS' effort to increase the resources available 
to support HACCP is the implementation of the HACCP-based Inspection 
Models Project, or HIMP. As the Committee may know, HACCP alone does 
not change the role of the slaughter inspector. Under HIMP, FSIS has 
been developing new models for slaughter inspection that better define 
what FSIS inspection personnel and industry should do under the HACCP-
based system. For the past two years, volunteer plants are extending 
their HACCP and other process control systems to cover certain sorting 
activities that had been done by FSIS inspectors. Plants having such 
systems in place to prevent meat and poultry products that are unsafe 
or unwholesome from entering the food supply are also required to meet 
FSIS performance standards for food safety and other consumer 
protections and carry out these activities under FSIS inspection and 
verification. Based on preliminary data, this system of establishment 
controls and Agency inspection shows great promise for increased food 
safety. The new system, which the HIMP project is intended to test, 
allows slaughter establishments greater flexibility in meeting their 
responsibilities under the Pathogen Reduction/HACCP regulations and 
permits FSIS to deploy its inspectors more effectively.
    To begin the process of better defining what inspection personnel 
and industry should do under HACCP, on June 10, 1997, FSIS published a 
Federal Register notice explaining the HIMP project and soliciting 
public input. Four public meetings have since been held to obtain 
feedback on draft inspection models, review diseases and conditions 
identified by the Agency as posing food safety risks, clarify new 
inspection procedures and performance standards developed through the 
project, and review preliminary industry performance data.
    As the Subcommittee members are aware, a group of FSIS inspectors, 
their union, the American Federation of Government Employees (AFGE), 
and a consumer group filed a lawsuit challenging the HIMP project. On 
June 30, 2000, the District of Columbia Circuit Court of Appeals ruled 
that the type of ``oversight inspection'' performed by Federal 
government inspectors in HIMP plants violated the FMIA and PPIA.
    Following the Court of Appeals' ruling, FSIS, in September 2000, 
redesigned the HIMP project to position an FSIS carcass inspector in a 
fixed location on each slaughter line. The most recent court decision, 
in January 2001, found that the redesigned HIMP inspection model met 
statutory requirements. The union has appealed this latest decision, 
but plants continue to operate under the HIMP pilot.
    As the redesigned inspection models run in HIMP plants, the Agency 
is collecting data to determine HIMP's achievements. FSIS will evaluate 
the models to ensure that the modification to include a stationary 
carcass inspector has been effective.
    Results to date are encouraging. In the 16 plants counted in the 
agency's baseline plant performance review, the traditional system 
achieved a 0.1 percent rate for infectious conditions and a 1.5 percent 
rate for fecal contamination. Under the Models Project, in which plant 
sorters address these defects with FSIS verification inspection, those 
numbers have been reduced to an average of nearly zero and 0.2 percent 
respectively. In every category, important food safety gains have been 
achieved.
    If data continue to show food safety gains, the Agency plans to 
continue the HIMP project and expects to amend its regulations on 
inspection of young chickens to incorporate the model system of 
inspection. Should this system prove successful, we will investigate 
similar changes in the inspection of the slaughter of other species 
based on the results of the model.
    As for processing inspection, traditionally, the Agency made 
assignments of processing inspectors based on factors such as the 
physical size of the establishment, the volume of production, and the 
complexity of the processing operation--complexity referring to the 
level of technology involved with or overall sophistication of a 
process, rather than the relative level of food safety hazard it 
presented.
    FSIS believes that its efforts could be more effective and 
efficient if assignments were based on a risk analysis system. FSIS is 
exploring ways to link the degree of risk presented by products 
produced by an establishment to the frequency and intensity of 
inspection that establishment would receive. Under a risk-based system, 
an establishment's compliance history could also play a role in 
determining inspectors' assignments.
    FSIS is in the early stages of developing such a system and is 
committed to deal with this issue through a public process over the 
course of the next year. As directed in the fiscal year 2001 
Appropriations Act conference report, the Agency developed and 
submitted to Congress on March 5, 2001, a report on its efforts to 
evaluate opportunities for greater flexibility in the allocation of 
processing inspection resources. Additionally, a public meeting is 
planned for June to discuss this project in the broader context of 
FSIS' efforts to establish improved approaches to regulation.
Regulatory Reform
    The Agency's evaluation of HACCP also includes an ongoing effort to 
review existing regulations. During the last several years, FSIS has 
been reviewing its regulations to eliminate duplication and 
inconsistency with its own and other agencies' regulations, and to 
revise its numerous ``command-and-control'' regulations. The review 
effort is targeted at improving the consistency of the regulations with 
the July 25, 1996, Pathogen Reduction/HACCP rule.
    Since 1995, FSIS has published a series of final rules that 
contributes to the accomplishment of regulatory reform by: removing 
command-and-control requirements for label approval; eliminating 
requirements for partial quality control programs; consolidating the 
listings of food ingredients permitted for use in meat and poultry 
products and expanding the permitted uses of food irradiation; 
consolidating, streamlining, and reducing to performance standards the 
sanitation requirements for meat and poultry establishments; replacing 
with performance standards the command-and-control requirements for 
processing certain meat and poultry products; eliminating required 
prior approval of blueprints and equipment for meat and poultry 
establishments; prescribing a single set of rules of practice governing 
Agency enforcement actions under the Federal Meat Inspection Act and 
the Poultry Products Inspection Act; and eliminating remaining 
requirements for partial quality control (PQC) programs in meat and 
poultry processing plants.
    In the fiscal year 2001 Appropriations Act conference report, 
Congress directed FSIS to report on a variety of topics related to its 
regulatory reform and rulemaking activities, as well as matters 
involving in-plant staffing, workforce training, and the role of 
microbiological criteria in the production and regulation of meat and 
poultry products. FSIS has completed, or is nearing completion, most of 
these reports and many have already been submitted to Congress.
Residue and Microbiological Testing
    Integral to both efforts to build a HACCP-based infrastructure and 
design an improved food safety program are initiatives that enhance the 
FSIS science program--particularly the risk assessment, analytical, and 
laboratory support activities that form its core. The information 
obtained from these activities provides an indispensable framework 
within which the Agency controls and reduces the incidence of foodborne 
illness in the United States.
    While FSIS' HACCP regulations list chemical contamination, 
pesticides, and drug residues as sources of food safety hazards, the 
Agency did not change its approach to residues with the implementation 
of HACCP. Bringing residue control under HACCP has the potential to 
provide even more public health protection than the current approach. 
Under HACCP, it is the establishment that assesses the hazards and 
decides how it will control them. FSIS will be responsible for 
verifying that the plant's controls are working.
    FSIS began the process of bringing residue control under HACCP with 
a public meeting held last December. The meeting highlighted a number 
of advantages of such a change, but it also raised a number of 
questions that the Agency will have to consider in deciding how to 
proceed.
    Another priority for our residue control program is implementing 
changes that bring it into compliance with European Union (EU) residue 
testing requirements for exporting meat products to EU member 
countries. During fiscal year 2000, FSIS began a major effort in this 
regard, and further work is planned in fiscal year 2002 to complete the 
process. I will discuss this initiative later in my statement when I 
review the increases requested in the proposed fiscal year 2002 FSIS 
budget.
    In the area of microbiology, we are doing sampling as a means of 
verifying the effectiveness of plants' HACCP plans. FSIS has 
established performance standards for Salmonella to measure whether 
plants are successful under HACCP in controlling pathogens. Recent data 
for large, small, and very small meat and poultry slaughter plants show 
a significant decrease in the prevalence of Salmonella as compared to 
pre-HACCP baseline data.
    The establishment of baseline profiles for meat and poultry will 
provide a yardstick for measuring the effectiveness of changes over 
time. In fiscal year 2000, we finished baseline testing for 
Campylobacter testing in raw chicken carcasses.
    The members of the Subcommittee are well acquainted with the 
lawsuit filed by Supreme Beef Processors (Supreme) in November 1999. 
This lawsuit was filed to enjoin USDA from suspending inspection 
services at Supreme's operations after the company failed the 
Salmonella performance standard for the third consecutive time. Under 
the Pathogen Reduction/HACCP rule, three consecutive failures to meet 
the performance standard constitutes failure to maintain sanitary 
conditions and results in the suspension of inspection services.
    Following the issuance of a temporary restraining order and a 
preliminary injunction prohibiting USDA from suspending inspection 
services, the Court issued a decision on May 25, 2000. The Court held 
that USDA exceeded its statutory authority in issuing and seeking to 
enforce the Salmonella performance standard. The Court found that, 
under 21 U.S.C. 601 (m)(4), meat is adulterated only when USDA finds 
that the conditions of the establishment are insanitary. However, the 
presence of Salmonella on the end product cannot be used to determine 
whether the establishment is insanitary because the presence of 
Salmonella is not ``solely--or even substantially--dependent upon the 
sanitation in a grinder's establishment.'' The Court rejected USDA's 
argument that controls over incoming raw products are important 
sanitation measures, and that the lack of adequate controls constitutes 
insanitary conditions. USDA appealed the decision on September 9, 2000. 
On September 26, 2000, Supreme filed a voluntary Chapter 11 bankruptcy 
petition in the United States Bankruptcy Court for the Eastern District 
of Texas. The Court of Appeals immediately issued an order staying the 
appeal due to Supreme's bankruptcy petition. The parties filed briefs 
and the Court of Appeals subsequently lifted the stay. FSIS' reply to 
the initial filing of briefs will be issued shortly.
                         workplace environment
    As mentioned earlier in this statement, the Agency is working on 
improving the workplace environment, most importantly its safety, and 
establishing a common civil rights understanding among all employees. 
In October 2000, FSIS completed the mandatory civil rights training of 
all its employees. As of September, all non-inplant employees had 
completed sexual harassment training delivered over the Internet. By 
the end of the current fiscal year, our non-inplant employees will have 
completed special emphasis training on the unique concerns of women, 
minorities and persons with disabilities in the same manner. We also 
have identified and are now addressing workplace issues that contribute 
to employee dissatisfaction and lower productivity, including issues of 
workplace violence which, this past year, manifested themselves in a 
most tragic manner for the Agency and have created an intensified focus 
on the safety and health of the FSIS workforce.
    On June 21, 2000, two FSIS compliance officers and a California 
Department of Food and Agriculture investigator were shot and killed in 
a San Leandro, California, sausage-processing plant. Another California 
inspector escaped with his life. These officials were conducting a 
joint review of the plant because it was suspected of violating both 
Federal and state meat inspection laws. In response to this tragedy, 
FSIS has formed an internal task force of employees from throughout the 
Agency to make recommendations for preventing violence in the plants we 
regulate. Additionally, the Milbank Memorial Fund is studying, under 
cooperative agreement with the Agency, the causes of violence and 
conflict in the food safety workplace. The Fund is bringing together 
leaders from industry, consumer groups, FSIS, labor, and employee 
organizations to examine how these groups can better relate to one 
another given the respective and sometimes competing roles they play in 
the food safety environment. A report of the Fund's findings is 
expected to be released in the next few weeks.
 upgrading education, training and professional skills in the workforce
    Another way in which FSIS seeks to maximize its effectiveness as a 
regulatory public health agency is by increasing the scientific 
expertise of its workforce. Since the implementation of the Pathogen 
Reduction/HACCP rule, the Agency's frontline workforce needs a broader 
scientific and analytical background in order to verify Pathogen 
Reduction/HACCP requirements and deal more effectively with high 
priority and emerging food safety hazards.
    To assess the knowledge and training requirements of our future 
workforce, FSIS formed the Workforce of the Future Steering Committee 
in July 1999 to oversee our workforce planning activities and to guide 
this transition of the workforce. We established the FSIS Training and 
Education Committee for 2001 and Beyond (TEC 2001) to examine our 
current education and training activities, conduct an assessment of 
Agency needs, develop an education vision for the Agency, and develop a 
strategy for educating and training our employees for the 21st century. 
TEC 2001 is focusing education and training on the scientific and legal 
basis for making regulatory determinations and implementing statutory 
authorities. In addition, TEC 2001 is exploring partnerships with 
stakeholder groups such as industry, international trading partners, 
state and local agriculture and public health agencies, and academia to 
provide for shared food safety education opportunities.
    One of FSIS' workforce initiatives is the Consumer Safety Officer 
(CSO). The CSO is a professional position requiring a general 
scientific background. FSIS believes that introducing into the 
frontline workforce CSOs with scientific and analytical skills will 
improve our ability to fully modernize our inspection system. We are 
grateful for your allowing us the opportunity to begin introducing CSOs 
into meat and poultry plants in fiscal year 2001. Our goal is to 
position 35 CSOs in in-plant settings by the end of the fiscal year.
    By way of review, CSOs will support in-plant inspection personnel 
in verifying HACCP system adequacy; facilitate industry innovation, 
outbreak prevention and containment; apply risk analysis; improve 
compliance through effective communication with industry; and address 
unique problems that require a comprehensive, interdisciplinary 
approach. Additionally, CSOs focus particular attention on assisting 
small and very small plants in the design and implementation of HACCP 
plans, Sanitation SOPs, E.coli monitoring plans, and microbiological 
control strategies. In doing so, CSOs help FSIS comply with the Small 
Business Regulatory Enforcement Flexibility Act (SBREFA), which 
requires that Federal agencies act to mitigate the adverse impact of 
new regulations on small business by providing them assistance and 
guidance.
    In February 2000, FSIS provided a report to Congress on its plans 
to introduce the CSO occupation into the Agency much more gradually 
than originally planned, to minimize relocation and other costs. In 
February of this year, the Agency completed a survey of inspection 
personnel and has determined how many of these and other employees now 
satisfy the educational requirement for the CSO occupation.
                    communication with stakeholders
    I've discussed the ``regulatory'' part of our activities, but our 
``public health'' role also includes extensive communication with 
stakeholder groups. Our communication programs seek to increase 
understanding by these groups of our mission, authority, regulations, 
and procedures.
Consumer and Food Safety Education
    Primary among our stakeholders are consumers. FSIS education 
programs are designed to prevent foodborne illness. We develop outreach 
materials and activities based on current scientific and consumer 
research, social marketing, and educational research. Some programs 
target consumers who are at greatest risk from foodborne illness--the 
very young, the elderly, pregnant women, people who have chronic 
diseases, and people with compromised immune systems.
    Among these activities, the USDA Meat and Poultry Hotline has for 
15 years provided a toll-free national service to consumers, 
information multipliers and professionals with questions about safe 
preparation of meat, poultry, and other foods, and foodborne illness 
prevention. In fiscal year 2000, the Hotline handled more than 86,000 
calls.
    We also reach out to consumers and others with food safety 
education campaigns. In May 2000, we launched the Thermy<SUP>TM</SUP> 
campaign to promote the use of food thermometers in the home. Millions 
of consumers already have seen the message. Partnerships are being 
developed to put Thermy<SUP>TM</SUP> on point-of-purchase packages and 
exhibits. Several large grocery store chains launched their own 
thermometer promotions during fiscal year 2000.
    Another highly successful campaign, Fight BAC__<SUP>TM</SUP>, has 
reached millions and shows no signs of slowing. The Partnership for 
Food Safety Education, made up of Federal agencies, industry 
organizations, and consumer groups, combined resources for this 
campaign. The Partnership formed an alliance with Wal-Mart to launch a 
promotion in approximately 800 Wal-Mart Stores across the country on 
September 9, 2000.
    We strive to reach not only consumers, but also health 
professionals. One achievement of which we are extremely proud is the 
publication of Diagnosis and Management of Foodborne Illnesses, A 
Primer for Physicians. This set of publications was produced in 
cooperation with the American Medical Association (AMA), the Centers 
for Disease Control and Prevention (CDC), and the Food and Drug 
Administration (FDA), and provides physicians with information on 
diagnosing, treating, and reporting diarrheal foodborne illness. 
Physicians can earn three hours of continuing medical education credit 
with this primer. Response to the primer's release in January 2001 was 
enthusiastic. All three agencies and the AMA have received thousands of 
requests for it.
Federal, State, and Industry Partnerships
    FSIS works closely with State and local public health and food 
safety authorities, as well as with sister Federal agencies, such as 
FDA and the CDC, to coordinate food safety strategies and emergency 
response activities.
    Nationwide surveillance of foodborne illness outbreaks is a long-
standing example of interstate cooperation that is coordinated by FSIS 
and CDC. Under an agreement between the two agencies, CDC conducts 
active population-based surveillance of foodborne diseases. This 
involves the on-going and systematic collection of foodborne illness 
data to detect outbreaks and monitor disease trends and patterns. Data 
collected are used to determine the need for public health emergency 
response and to assess the effectiveness of efforts to prevent 
foodborne disease and outbreaks over time.
    In fiscal year 2000, the Foodborne Diseases Active Surveillance 
Network (FoodNet) grew to nine states with the addition of Colorado. 
Approximately 28 million Americans are now covered by the system. A 
companion system, the PulseNet computerized database, matches the DNA 
fingerprint of foodborne diseases and accelerates the traceback process 
to the source of the contamination. PulseNet has been especially 
successful in identifying dispersed illnesses with potentially common 
sources of implicated product and alerting the regulatory agencies so 
that they can take appropriate action.
    FSIS also participates each year in the Conference for Food 
Protection (CFP). The CFP provides a bi-annual forum for Federal, 
State, and local government representatives to meet with industry, 
academia, and consumers on recommended changes to the Food Code. FSIS 
collaborates with FDA on publication of the Code in order to provide 
Federal guidance to the States and others with regulatory 
responsibility for retail food safety. Adoption of the Code increases 
uniformity of food safety regulation among jurisdictions, which 
benefits both commerce and consumers.
    To augment its sponsorship of the Food Code, FSIS has partnered 
with the Association of Food and Drug Officials (AFDO) and the 
University of Florida to develop and pilot a train-the-trainer course 
on safe meat and poultry processing at retail. Because the increasing 
amount of processed meat and poultry produced at retail is exempt from 
Federal inspection, State and local agencies must ensure food safety in 
retail environments. Until recently, however, little or no training was 
available to State and local inspectors who oversee retail activity. 
Beginning in fiscal year 2001, AFDO is offering the course nationwide 
through its network of regional affiliates with a goal of training as 
many as possible in the elements of HACCP-based safe meat and poultry 
processing.
    Another established FSIS partnership is that which it maintains 
with animal producer groups at the State level. The Animal and Egg 
Production Food Safety (AEPFS) program is a non-regulatory program 
whose principal purpose is to: (1) educate producers about the impact 
of the farm-to-table initiatives of the Pathogen Reduction/HACCP 
regulation and, (2) coordinate efforts to identify and encourage the 
adoption of practices that reduce or prevent human pathogens from 
developing in or on animals and eggs submitted for processing.
    AEPFS carries out its mission through the use of cooperative 
agreements, contracts, interagency task groups, external cooperative 
activities, guidance materials, and speeches. Its funding is used to 
develop animal and egg production food safety partnerships in 
cooperation with state animal health officials, FDA, and the Animal and 
Plant Health Inspection Service Partnerships are in place with 24 
states in such areas as quality assurance, residue avoidance, animal 
waste management, records management, managed culling practices, herd 
health hygiene, biosecurity, and proper sanitation in the production, 
transportation, and marketing of food animals.
    AEPFS is working with its counterparts in USDA's APHIS to develop 
the role of FSIS veterinarians in performing surveillance for foreign 
animal diseases, including Bovine Spongiform Encephalopathy (BSE) and 
Foot and Mouth Disease (FMD). The program is also focusing on improved 
coordination with other Federal, State, and foreign veterinary and 
public health agencies to ensure that both disease threats do not 
affect domestic food animal populations.
Codex Alimentarius Commission (Codex)
    FSIS also plays a leading role in the United States' participation 
in global dialogue on the setting of international food safety 
standards. The GATT Uruguay Round Agreements Act designated USDA as the 
lead agency for U.S. participation in the sanitary and phyto-sanitary 
standard setting activities of the Codex Alimentarius Commission. FSIS 
coordinates USDA's participation in these activities. Through notices 
published in the Federal Register, FSIS advises the public of the 
standard-setting activities of the Commission, as well as of the dates 
and agendas of its meetings.
    Codex plays an important role in FSIS' ability to fulfill its 
mission. First, its sanitary and phytosanitary standard-setting 
activities protect consumers by improving food safety. Second, these 
activities help ensure that sound science is the basis for establishing 
international food safety standards. In this way, Codex helps 
facilitate fair trade in agricultural products.
    Codex has grown in importance since it was designated as one of the 
three international standard-setting organizations whose health and 
safety standards serve as key reference points in settling trade 
disputes under the Agreement on Sanitary and Phytosanitary Measures. 
Currently, 165 nations, representing 98 percent of the world's 
population, are members of Codex.
    As an active member of Codex, the United States has the opportunity 
to make the international food safety standard setting process work 
better. We have taken the position that Codex is the existing 
organization that the world's governments should use to discuss food 
safety issues and especially to set standards. We have also proposed 
changes in many areas where we believe that progress is needed. As 
chairman of Codex, I have proposed five major priorities for improving 
the Codex process.
    First, is the fundamental importance of science-based decision 
making. Codex health and safety standards must continue to be based on 
sound science and risk analysis.
    Second, we need to improve the efficiency and speed of the Codex 
process.
    Third, we must ensure that Codex has adequate technical and 
financial support from its parent organizations--the World Health 
Organization (WHO) and Food and Agricultural Organization (FAO).
    Fourth, is the importance of increasing and strengthening the 
participation of developing countries in Codex.
    Finally, Codex should work toward achieving broader participation 
by non-governmental organizations (NGOs) in order to ensure that Codex 
positions have the broadest possible support and acceptance.
    Codex received an additional $1 million in funding in fiscal year 
2001, for which I again wish to thank the Subcommittee. The U.S. Codex 
Office has designated these funds for three types of activities:
    (1) Outreach: The U.S. frequently finds itself taking positions on 
issues that are directly in conflict with the positions that have been 
taken by other government groups. The voting system in Codex assigns 
one vote per country, regardless of size. We believe that if other 
countries, especially developing countries and countries in this 
hemisphere, understood the technical reasons for the U.S. positions, we 
would be able to count on more allies in the Codex sessions. Therefore, 
we are using these funds to increase our contacts and activities with 
these countries.
    (2) U.S. Hosted Meetings: In the past, the U.S. Codex Office has 
had to approach various U.S. agencies, on an ad hoc basis before each 
meeting, to ask for the necessary funds to conduct the meeting.
    (3) Delegate Training: U.S. delegates and alternates to Codex 
meetings are generally technical experts who are highly regarded in 
their fields, but who have little experience in international diplomacy 
and cross-cultural interactions. A third portion of the budget is being 
used to conduct training sessions for U.S. delegates that will enable 
them to be more effective representatives of the U.S. position.
    Mr. Chairman, this Committee's support of Codex and FSIS' role in 
it has made a tremendous difference in the credibility of U.S. 
leadership in the setting of worldwide food safety standards. I thank 
you for that support and assure you that it will be instrumental in 
accomplishing the goals I've outlined above for the future of the 
organization. These action items will be discussed later this year at 
the 24th Session of the Codex Alimentarius Commission, scheduled for 
July 2-7 in Geneva, Switzerland, and at the first Global Forum of Food 
Safety Regulators, taking place in October in Bangkok, Thailand. For 
this Global Forum, the FAO and WHO have proposed four possible agenda 
items: experiences in the reduction of foodborne hazards; global food 
safety emergency communications; precaution in risk management; and 
consumer information and participation.
Response to Office of Inspector General (OIG) Findings
    Before I move on to the Agency's budget request for fiscal year 
2002, I want to make you aware of the FSIS responses to reports and an 
investigation by USDA's Office of Inspector General.
    During fiscal year 2000, USDA's Office of Inspector General 
initiated a series of audits of FSIS to determine whether the Agency's 
meat and poultry inspection program remains effective under HACCP. 
These audits covered HACCP in general, the laboratory program, import 
inspection and foreign program reviews, and compliance activities.
    With respect to the FSIS laboratory and quality assurance program, 
OIG's report was generally complimentary of the timeliness and accuracy 
of FSIS' testing for pathogens, residues, food chemistry, and species 
identification on meat and poultry product samples. However, the report 
recommended that FSIS institute stronger procedures and controls to 
ensure that all regulated meat and poultry establishments are subject 
to product testing, and that the Agency work to improve the response of 
inspection personnel to requests for product samples from inspected 
establishments. Additionally, it stated that FSIS should strengthen its 
quality assurance programs to ensure that all FSIS and accredited 
laboratories used by the Agency are in full compliance with applicable 
standards and are producing valid and supportable analytical results.
    FSIS generally concurs with the findings and recommendations made 
by the Inspector General with respect to its laboratory and quality 
assurance operations, but has communicated to OIG that its report 
prematurely uses the International Organization for Standardization 
(ISO) Guide 17025 as a standard for FSIS laboratories, and that the 
Agency's current standards are valid and are still being met. However, 
to maintain high laboratory standards and as part of its effort to 
expand and upgrade its laboratory capacity in response to European 
Union requirements, FSIS has initiated the ISO 17025 accreditation 
process. This effort, which comprises a major portion of our fiscal 
year 2002 budget request, will, upon completion, address most of the 
issues identified by the OIG in its report.
    Second, FSIS is reviewing several federally-inspected 
establishments in New York and New Jersey to ensure that meat and 
poultry products produced in those establishments are safe and 
wholesome. These reviews support an ongoing investigation by the USDA 
Office of Inspector General regarding allegations of plants operating 
without proper inspection. The OIG is also investigating whether the 
Agency took proper safeguards last summer during a lengthy 
refrigeration failure at a plant in New York City. The FSIS reviews 
will focus on examining HACCP systems and Sanitation Standard Operating 
Procedures to determine whether each facility has a HACCP and SSOP plan 
in place that is effective and ensures the production of safe food for 
consumers. This review involves establishments in the New York 
metropolitan area. I believe that the FSIS workforce and the vast 
majority of the plants we inspect work very hard to ensure the safest 
meat and poultry products possible for the American public.
                    fiscal year 2002 budget request
    The FSIS budget request for fiscal year 2002 supports the Agency's 
goals for the HACCP food safety environment. It provides us with the 
resources needed to improve the quality of industry food safety 
programs, while also not imposing user fees of any kind. This budget 
request helps us complete the transition to a modern, public health 
regulatory agency.
    For fiscal year 2002, FSIS is requesting $715.5 million, a net 
increase in appropriated funds of $20.3 million. Of the $20.3 million 
proposed increase in the budget, $18.4 million is for pay and benefit 
increases. FSIS employee salary, benefits, and inspector travel between 
plants takes up nearly 90 percent of the FSIS budget. Federal and State 
pay raises, benefits, and increases in health insurance and retirement 
benefit costs have a serious effect on our ability to staff plants if 
not fully funded.
    FSIS' fiscal year 2002 budget also includes a request for $875,000 
for the Grants-to-States program, primarily for increased pay costs at 
the state level. It is imperative that states are fully funded for 
their share of the cooperative programs to permit continued cooperation 
with the states toward a more closely coordinated national food safety 
program.
    Earlier I mentioned concerns about the safety of imported meat and 
poultry. These concerns accompany increased requests by foreign 
countries to export meat and poultry products to the United States. 
Because of this, we are requesting an increase of $699,000 and three 
staff years in fiscal year 2002 to bolster our efforts to assure the 
continuing equivalence of foreign inspection systems. FSIS has a 
fundamental statutory responsibility to assure the equivalence of 
foreign production systems for all imported meat, poultry, and egg 
products entering commercial channels of distribution. Increased 
comprehensive reviews of foreign inspection programs will verify system 
equivalence and provide opportunities to reinforce HACCP requirements 
through the outreach and education element of the reviews. The 
requested resources are necessary to adequately staff our annual 
program of comprehensive foreign program reviews and to meet the 
growing need for more complex initial eligibility reviews.
    In fiscal year 2000, the Agency completed routine audits of 
establishments, laboratories conducting residue and microbiological 
analyses, and government inspection systems in 31 countries. In 
addition, an initial verification audit was performed in one country 
requesting equivalence status. To assess the equivalence of the 
systems, reviews focused on five risk areas: sanitation, animal 
disease, residue controls, slaughter/processed product controls, and 
enforcement controls. In addition, for each audit, we evaluated HACCP 
programs, Sanitation SOPs, and generic E. coli and Salmonella testing 
procedures. FSIS also conducted Canadian audits under the United States 
and Canada Free Trade Agreement (CFTA).
    While FSIS conducts a residue monitoring program for meat and 
poultry produced in the United States, the EU requires additional 
residue testing for certain hormones, animal drugs, and other compounds 
in meat that it imports. Currently, there are no Federal or private 
laboratories in the U.S. that have on-going residue testing programs or 
capacity to meet the EU requirements. We are therefore also requesting 
an increase of $4,301,000 and 13 staff years to expand residue testing 
of meat products to meet the EU requirements.
    In recent years, the EU has attempted to stop the import of U.S. 
meat products because FSIS does not maintain a mechanism for permanent, 
uninterrupted testing and analysis of some chemical compounds. 
Additionally, since 1990, the EU has blocked the importation of most 
U.S. beef products because they might contain hormone residues. During 
the past three years, meat exports to Europe; primarily pork, 
horsemeat, and non-hormone treated beef; have decreased. These exports 
decreased by almost 20 percent from 2000 to 2001 alone. Future exports 
are in further jeopardy, due to EU assessments of the inadequacy of the 
FSIS National Residue Program (NRP). In the last three years, we have 
increased significantly the number of compounds tested in the NRP. 
However, we have also prioritized and rotated the sampling and analysis 
of some chemical compounds that we judge to have important public 
health significance. For example, several EU-required compounds are 
ranked as high-priority compounds in FSIS' ranking profile, but FSIS 
lacks the capacity to permanently incorporate regular testing of these 
substances into the NRP. Other compounds that the EU requires testing 
for, such as Nitroimidizoles, are not considered by FSIS to be high 
food safety priorities. In other cases, FSIS plans to test for EU--
required compounds, but at sample volumes insufficient to satisfy EU 
requirements.
    FSIS does not presently have the laboratory capacity to test for 
the compounds prescribed in EU Council Directive 96/23/EC Annex I 
(Groups A and B). This directive prescribes the compounds for which 
testing must be conducted in order to export meat products to Europe. 
FSIS has assured that U.S. product can still be exported to the EU, and 
is in compliance with EU requirements, by making arrangements for 
residue testing of U.S. products at independent laboratories in the 
Netherlands and Canada.
    Laboratory capacity is the NRP's chief limiting factor in testing 
for these compounds on a permanent basis. To immediately carry out the 
additional testing needed to satisfy EU requirements, we must modify 
FSIS laboratories. Currently, unusable space can be modified to house 
additional equipment, provide needed storage and refrigeration space, 
and to provide space for the additional chemists required to supplement 
the NRP's existing analytical methods expertise. The NRP needs 
additional analytical methods and equipment, such as more sophisticated 
mass spectrometers, extraction manifolds, gas- and liquid-
chromatographs, graphite and muffle furnaces, a drying oven, and an 
acid fume hood, to comply with EU requirements. We also need to add 
chemists and laboratory support specialists, as well as a chemical 
engineer, to the NRP's current staff.
    An essential element of expanding the NRP to meet EU requirements, 
as well as meeting Agency needs for a credible laboratory program, is 
the accreditation of FSIS laboratories under International Standards 
Organization (ISO) Standard 17025. This accreditation will demonstrate 
and document the competency and credibility of the NRP according to 
internationally recognized standards. FSIS began the ISO accreditation 
process in late 1997 and anticipates its completion in fiscal year 
2002. Expansion of the NRP to comply with EU requirements increases the 
scope of activities to be certified as part of the Agency's ISO 
accreditation process. As a result, this request also includes funding 
to complete ISO accreditation and to fund the extensive audits required 
to finalize certification.
                               conclusion
    Mr. Chairman, this concludes my prepared statement. Thank you for 
your continued support. Thank you also for the opportunity to submit 
testimony to the Subcommittee on how FSIS is working with Congress and 
other partners to become a risk-based regulatory public health agency 
that can better assure the safety of meat, poultry, and egg products 
for American consumers.
                                 ______
                                 

                       Food and Nutrition Service

      Prepared Statement of George A. Braley, Acting Administrator

    Thank you, Mr. Chairman and members of this Subcommittee, I am 
George Braley, the Acting Administrator of the Food and Nutrition 
Service (FNS). In my normal role as the Associate Administrator for the 
Food and Nutrition Service, I have, from time to time, appeared before 
the Subcommittee. I wish to thank you and the other Subcommittee 
members for the opportunity to submit my witness statement which will 
address the key aspects of the fiscal year 2002 budget request for FNS.
                          2002 budget request
    FNS requests $36.6 billion in new budget authority for fiscal year 
2002, a level that will maintain the Nation's nutrition assistance 
safety net. The nutrition assistance programs are essential to fighting 
hunger and improving nutrition for children and low-income people. The 
request meets the priorities described in both USDA's strategic plan 
2000-2005, and Fiscal Year 2002 Annual Performance Plan. These plans 
focus the programs on results--results in improving food security and 
nutrition for the people they serve, and results in providing strong 
stewardship for the taxpayer investment in nutrition assistance.
    The fiscal year 2002 request includes funds to fully support all of 
the FNS Federal nutrition assistance programs.
                           food stamp program
    The Food Stamp Program continues to serve the Nation as the primary 
source of nutrition assistance for low-income Americans. The program's 
mission is to ensure that low-income Americans have access to a 
nutritious, healthful diet. By providing nutrition assistance and 
promoting healthy food choices, the Food Stamp Program can improve the 
nutritional status of low-income individuals, protect their health, and 
strengthen the food and agricultural economy.
    We are requesting $22.0 billion for the Food Stamp Program in 
fiscal year 2002. This request is sufficient to serve an average of 
18.4 million people each month with an average monthly benefit of 
$78.35 per person. The cost of the Thrifty Food Plan--the basis for 
determining food stamp benefits--is projected to rise about 3.1 percent 
from fiscal year 2001 to fiscal year 2002. Participation is projected 
to rise by about 805,000 people, reflecting a slight increase in 
projected unemployment rates (an indicator of the population eligible 
for benefits). The projected increase in participation, coupled with 
the projected increase in average monthly benefits (from $74.88 in 
fiscal year 2001), results in a $1 billion increase in benefit costs 
above the current estimate for fiscal year 2001.
    The projections are based on current economic forecasts from the 
Office of Management and Budget. To guard against unforeseen changes in 
economic conditions, our request includes a benefit reserve of $1 
billion, a $900 million increase over fiscal year 2001. This benefit 
reserve will ensure that funds are quickly available if participation 
increases faster than expected, thereby ensuring the program's ability 
to get food to people who need it.
    Also included under the Food Stamp account is $100 million 
authorized for the purchase of commodities for The Emergency Food 
Assistance Program and $1.3 billion to fund the Nutrition Assistance 
Program for Puerto Rico. Our request also includes $72.8 million for 
the Food Distribution Program on Indian Reservations (FDPIR), a slight 
reduction from fiscal year 2001 reflecting a decline in inventory 
purchases and non-continuation of a one-time $3 million bison purchase 
made in fiscal year 2001. The FDPIR provides benefits to eligible needy 
persons living on or near Indian reservations and is authorized by the 
Food Stamp Act. The budget estimates that participation in the program 
during fiscal year 2002 will average 120,360 persons monthly, a slight 
increase from fiscal year 2001.
                        child nutrition programs
    The purpose of the Child Nutrition Programs is to assist State and 
local governments in providing healthful, nutritious meals to children 
in public and nonprofit private schools, child care institutions, 
including family day care homes and summer recreation programs. FNS is 
requesting $10.1 billion--a 5.7 percent increase above the fiscal year 
2001 estimate. We estimate that in fiscal year 2002, the requested 
funds, plus about $344 million in projected carryover funds available 
from fiscal year 2001, will support:
  --4.7 billion meals in the School Lunch Program;
  --282 million snacks in the After School Snack Program;
  --1.4 billion meals in the School Breakfast Program;
  --1.8 billion meals in Child Care Centers and Day Care Homes;
  --152 million meals in the Summer Food Program; and
  --120 million half pints of milk in the Special Milk Program.
    Due to predicted increases in school enrollment in fiscal year 
2002, average daily participation in both the National School Lunch 
Program (NSLP) and the School Breakfast Program (SBP) are projected to 
be somewhat higher than in fiscal year 2001--an increase estimated to 
be 1.4 percent in the NSLP and about 3.7 percent in the SBP. The 
combination of increased meal reimbursements and the projected growth 
will require a fiscal year 2002 increase of $382 million over fiscal 
year 2001.
    In the Child and Adult Care Food Program, we project a 3.3 percent 
increase (59 million) in meals served over fiscal year 2001. The 
increase in the per meal subsidy and the projected growth in 
participation will require an additional $112.4 million in fiscal year 
2002 over fiscal year 2001.
    Included as part of our child nutrition request is $2 million for a 
school lunch integrity program that will (1) examine the current 
application and application verification processes for school meals 
programs and (2) explore potential alternatives to the current process.
               school meals initiative and team nutrition
    The School Meals Initiative for Healthy Children regulation updated 
the nutrition standards for school meals and recognized the importance 
of training and technical assistance for school food service 
professionals and nutrition education for students. To implement this 
regulation, the Food and Nutrition Service established the Team 
Nutrition Initiative, a comprehensive, structured plan for improving 
the nutritional standards of school meals as well as creating an 
environment in the school cafeteria, in the classroom and in the 
community that fosters good dietary practices among children and their 
families. This initiative involves schools, parents and the community 
in efforts to continuously improve school meals and to promote the 
health and education of about 50 million school children in more than 
97,000 schools Nationwide. Team Nutrition works to change current 
behaviors to be more supportive of healthy eating and physical activity 
through (1) training and technical assistance for school food service 
professionals, (2) interactive nutrition education for children and 
their parents and (3) support for school and community leaders. These 
strategies are accomplished through direct Federal operations as well 
as grants to State agencies. In fiscal year 2002, we are requesting a 
total of $10 million for Team Nutrition, the same level appropriated 
for fiscal year 2001.
special supplemental nutrition program for women, infants, and children 
                                 (wic)
    The purpose of the WIC Program is to improve the health of low-
income nutritionally at-risk, pregnant, breastfeeding and postpartum 
women, infants and children up to their fifth birthday. WIC 
participants receive three primary benefits: nutritious food packages 
designed to supplement their diets; nutrition education intended to 
improve their nutrition practices; and referrals to other critical 
health and social services.
    We are requesting $4.1 billion in fiscal year 2002, an increase of 
$94 million over fiscal year 2001, to provide nutrition education and 
food benefits to a monthly average of 7.25 million needy women, infants 
and children.
                 wic electronic benefit transfer (ebt)
    FNS is engaging in activities complementary to the Food Stamp 
Program to advance EBT and Electronic Service Delivery (ESD) system 
development to improve program benefit delivery and client services for 
the WIC Program. Our WIC Program request for fiscal year 2002 includes 
$6 million which will be dedicated to EBT development. Our goal is to 
successfully implement EBT/ESD in States that have embarked on 
planning/pilot testing and eventually expand EBT/ESD development to 
additional States. The following describes some of the progress in each 
of the projects:
    Michigan is in the final stages of its contract negotiations with 
its contractor, Citibank, for an 18-month pilot which will demonstrate 
a new hybrid approach for WIC electronic service delivery. System 
testing is expected to occur sometime toward the end of 2001.
    New Jersey continues to plan for an ESD pilot which will include 
partnerships with managed care providers, HMO's and other entities. A 
final Request for Proposal for EBT services is expected to be released 
in 2001.
    New Mexico and Texas have completed a joint procurement for WIC EBT 
services. New Mexico plans to launch their pilot in August 2001, and 
Texas in February 2002. Texas and New Mexico have chosen an alternative 
strategy for development, which includes in-house development for EBT 
processing, supported by EBT contracted services.
    Ohio launched its off-line, smartcard EBT pilot in the Dayton, Ohio 
area on October 16, 2000, in conjunction with existing off-line chip 
card technology already in place for the Ohio Food Stamp Program. The 
WIC pilot is expected to run through July 2001, at which time Ohio may 
continue current pilot operations or expand the pilot beyond the Dayton 
area.
    PARTNERS (Maine, New Hampshire, Vermont, Massachusetts, Rhode 
Island, and Connecticut) continues planning a multi-State, multi-
program procurement for pilots in all six States. PARTNERS plans to 
utilize hybrid card technology (on-line magnetic stripe and off-line 
integrated circuit chip/smart card) to deliver WIC food benefits as 
well as maintain and exchange health services information in 
partnerships with a variety of health service providers. The next step 
is to procure the services of a contractor for the design, development, 
and implementation of the pilots, and to procure a contractor for an 
independent evaluation of the pilot projects.
    Wyoming EBT includes WIC and Food Stamps sharing the same 
electronic service delivery smartcard and retailer platform. Food 
Stamps is 100 percent rolled out with WIC at about 80 percent. WIC 
expects to complete its roll-out of the system in the fall of 2001. 
Wyoming WIC is also seeking partnerships with other health agencies for 
cost containment purposes.
    Nevada, Wyoming and North Dakota (Health Passport Project)--This is 
a field demonstration project of the Western Governor's Association to 
demonstrate the use of an individual, secure portable electronic health 
record using smartcard technology. Seventeen programs (including WIC) 
are linked through an application program interface to manage the 500 
``common data'' elements across programs in a smartcard.
                 wic farmers' market nutrition program
    The WIC Farmers' Market Nutrition Program (FMNP) provides WIC 
participants access to fresh fruits and vegetables while also expanding 
the awareness and use of farmers' markets by consumers. The requested 
level of $20 million for fiscal year 2002 is the same as the fiscal 
year 2001 level. In fiscal year 2001, three new State agencies were 
approved to participate in the FMNP. Currently 41 State agencies are 
participating in the program.
                     commodity assistance programs
    The Commodity Assistance Programs include funding for the Commodity 
Supplemental Food Program (CSFP) and administrative funding for The 
Emergency Food Assistance Program (TEFAP). Our budget request for 
fiscal year 2002 includes:
  --$95.0 million for the women, infants, and children and elderly 
        caseload in CSFP; and
  --$45 million for TEFAP State and local agency administrative 
        expenses in addition to the $100 million for commodity 
        purchases available in the Food Stamp account providing for a 
        total program of $145 million.
    The CSFP level requested for fiscal year 2002 will support 
projected average monthly participation of 94,400 women, infants and 
children as well as a projected average monthly participation of 
355,600 elderly. The request of $95.0 million (the same as appropriated 
in fiscal year 2001), in conjunction with use of about $4 million in 
inventory, will allow for a total program of about $99 million in 
fiscal year 2002 which will support the increase in participation of 
about 23,000 participants per month. Any unobligated balances at the 
end of the current fiscal year will, at the beginning of fiscal year 
2002, be subject to recission.
                   nutrition program for the elderly
    Our request for the Nutrition Program for the Elderly (NPE) is 
$149.7 million, the same as the fiscal year 2001 level. Public Law 106-
501, the Older Americans Act of 2000 enacted November 13, 2000, 
required that each grantee or State receive a proportion of available 
funds equal to the proportion of meals served by that grantee or State 
in the preceding fiscal year. In previous fiscal years (prior to fiscal 
year 2001), NPE was funded on a payment per meal basis. The requested 
level will support in fiscal year 2002 about the same number of meals 
served in fiscal year 2001.
                      food program administration
    Our Food Program Administration (FPA) request for fiscal year 2002 
is $127.5 million--an increase of $8 million over fiscal year 2001. 
Almost $4 million of the requested increase is to provide for pay costs 
of the agency staff and management personnel funded from this account. 
Additionally, we are requesting an increase of $1.8 million with which 
to improve FNS' information technology capacity. We expect the majority 
of States--perhaps as many as 75 percent--to begin to replace or update 
the large automated systems which are critical to the successful 
delivery of agency programs. Each year, FNS provides upwards of $300 
million in support of State systems. This requested increase will 
provide for a needed increase in agency oversight and review of State 
agency documentation activities and expenditures.
    Also requested as part of the increase is $200,000 for support of 
improved work force diversity and succession planning. FNS sorely needs 
these resources to support implementation of a human capital management 
strategy that addresses serious leadership, retention and succession 
concerns. Agency projections are that about 80 percent of the career 
senior leaders and about 30 percent of the total work force could 
retire within five years. FNS must address this serious challenge.
    Since FNS is the most appropriate agency to perform program and 
performance assessments that respond directly to the needs of agency 
program policy makers and managers, our request includes $3 million of 
the overall $12 million USDA nutrition research request. Such 
assessments are essential to ensuring that the FNS programs achieve 
their missions effectively. These operational assessments provide the 
foundation for strategic planning, program outcome measurement and 
program innovation needed to respond to emerging issues and problems 
and support effective stewardship of the substantial taxpayer 
investment in nutrition assistance.
                               conclusion
    The mission of FNS is to increase food security and reduce hunger 
in partnership with cooperating organizations by providing children and 
low-income people access to food, a healthful diet, and nutrition 
education in a manner that supports American agriculture and inspires 
public confidence. This fiscal year 2002 budget request reflects our 
commitment to the achievement of this mission. We also believe that our 
request for $36.6 billion is crucial to continue efficient program 
operations. Mr. Chairman, this summarizes the FNS fiscal year 2002 
budget request. I will be happy to answer questions that you or other 
members of the Subcommittee may have.
                                 ______
                                 

                       National Appeals Division

            Prepared Statement of Norman G. Cooper, Director

    Mr. Chairman and members of the Subcommittee, I am pleased to 
appear before you to discuss the fiscal year 2002 budget request for 
the National Appeals Division.
                              introduction
    The National Appeals Division (NAD) was established by the 
Secretary of Agriculture pursuant to the Reorganization Act of 1994. 
The Act consolidated the appellate functions and staffs of several USDA 
agencies under a single administrative appeals organization. NAD 
appeals involve program decisions of the Farm Service Agency, the Risk 
Management Agency, the Natural Resources Conservation Service, and 
Rural Development agencies. In addition, in states covered by the 
United States Court of Appeals for the Eighth Circuit, NAD Hearing 
Officers adjudicate and the Director makes final determinations on 
applications for fees under the Equal Access to Justice Act (EAJA). NAD 
is headquartered in Alexandria, Virginia, and has regional offices 
located in Indianapolis, Indiana; Memphis, Tennessee; and Lakewood, 
Colorado. NAD's staff of 133 includes 75 hearing officers.
                                mission
    Our mission is to conduct evidentiary administrative appeals 
hearings and reviews arising out of program decisions of certain USDA 
agencies. Our strategic goal is to conduct independent evidentiary 
hearings and issue timely and well-reasoned determinations which 
correctly apply USDA laws and regulations. NAD's mission is statutorily 
specific, but its operation is dynamic and challenging, given the 
complexities of changing laws, regulations and policies affecting USDA 
program decisions.
    We are also requesting $372,000 for pay costs in order to maintain 
current staffing levels. There is little flexibility for absorbing 
additional costs. NAD would be adversely impacted in its ability to 
execute its mission without the increase for pay costs.
    That concludes my statement, and I look forward to working with the 
Committee on the 2002 National Appeals Division budget.
                                 ______
                                 

                       Economic Research Service

          Prepared Statement of Susan E. Offutt, Administrator

    Mr. Chairman and members of the Committee, I am pleased to have the 
opportunity to present the proposed fiscal year 2002 budget for the 
Economic Research Service (ERS).
                                mission
    The Economic Research Service provides economic and other social 
science research and analysis on efficiency, efficacy, and equity 
issues related to agriculture, food, natural resources, and rural 
development to improve public and private decision making.
                                 budget
    The Agency's request for 2002 is $67.2 million, a net increase of 
$1.3 million from the 2001 appropriation. The net increase consists of 
four parts: a $1.2 million increase for the purchase and dissemination 
of retail meat prices; a $.6 million increase for economic analysis and 
expert witness litigation support for the Pigford Consent Decree; a 
$1.5 million increase for pay costs; and a $2 million decrease for 
performance and program assessments related to the administrative 
responsibilities of running the food assistance programs. Funding for 
these performance and program assessments in 2002 is included in the 
Food and Nutrition Service (FNS) budget.
                ers contributions to mission area goals
    ERS shares five general goals with its fellow agencies in the 
Research, Education, and Economics (REE) mission area: (1) a highly 
competitive agricultural production system, (2) a safe and secure food 
supply, (3) a healthy and well nourished population, (4) harmony 
between agriculture and the environment, and (5) enhanced economic 
opportunity and quality of life for all Americans. These goals are 
fully consistent with the U.S. Department of Agriculture mission.
Goal I: The agricultural production system is highly competitive in the 
        global economy
    ERS helps the U.S. food and agriculture sector effectively adapt to 
changing market structure and post-WTO and post-NAFTA trade conditions 
by analyzing the linkages between domestic and global food and 
commodity markets and the implications of alternative domestic and 
international policies on competitiveness. ERS economists analyze 
factors that drive change in the structure and performance of domestic 
and global food and agriculture markets; provide economic assessments 
of structural change and competition in the food industry; analyze how 
global environmental change, international trade agreements, and 
foreign trade restrictions affect U.S. agricultural production, 
exports, imports, and income; and provide economic analyses that 
determine how fundamental commodity market relationships are adjusting 
to changing trade, domestic policy, and structural conditions.
    ERS will continue to work closely with the World Agricultural 
Outlook Board and USDA agencies to provide short- and long-term 
projections of U.S. and world agricultural production, consumption, and 
trade. Cooperative efforts will seek to understand how commodity price 
and farm income variability affect market performance and interact with 
Federal policies and programs. ERS has sustained the frequency of 
reporting on commodities' outlooks, while strengthening the analysis 
that leads to a better understanding of reported observations and 
improving access to timely information through the use of the ERS Web 
site. ERS has established quarterly meetings with commodity groups and 
is now expanding the roundtables to include a wider spectrum of 
customers to provide feedback on the ERS market analysis and outlook 
program.
    In addition, ERS will continue to work closely with the Foreign 
Agricultural Service and the Office of the U.S. Trade Representative to 
ensure that negotiations under the auspices of the World Trade 
Organization and regional trade agreements are successful and 
advantageous for U.S. agriculture. Research will target options and 
prospects for further liberalization in global markets, building on 
recent ERS findings such as empirical evidence that tariffs on food and 
agricultural products constitute the most significant barrier to 
increased market access for U.S. products. ERS' January 2001 
publication, Profiles of Tariffs in Global Agricultural Markets, 
demonstrates the Agency's ability to provide critical information on 
the levels of protection in food and agricultural markets, and also on 
the variations across countries and commodities that may be critical to 
understanding the benefits and costs of alternative negotiating 
proposals. ERS will also continue to conduct and build upon research 
designed to significantly improve understanding among decision makers 
of the changing structure of the food marketing chain (for example, the 
implications for producers of the increasing replacement of open 
markets by contractual arrangements and vertical integration). 
Understanding the Dynamics of Produce Markets, published in August 
2000, and U.S. Fresh Fruit and Vegetable Marketing, published in 
January 2001, demonstrate the expertise that ERS has built in 
explaining and analyzing critical changes in vertical relationships in 
the food system, and the implications for producers and others 
throughout the supply chain.
    ERS analyses can help guide and evaluate resource allocation and 
management of public sector agricultural research--a key to maintaining 
increases in productivity that underlie a strong competitive position 
for U.S. farmers. ERS economists track and seek to understand the 
determinants of public and private spending on agricultural R&D; 
evaluate the returns from those expenditures; and consider the most 
effective roles for public and private sector research entities. 
Economic Issues in Agricultural Biotechnology, released in March 2001, 
demonstrates ERS' understanding of and ability to communicate the role 
of biotechnology and intellectual property rights in reshaping the 
public-private balance and partnerships in agricultural research.
Purchase and Dissemination of Retail Meat Prices
    The request for an increase of $1,197,000 in fiscal year 2002 is 
necessary to meet the requirements imposed by the Mandatory Livestock 
Price Reporting Act of 1999 which seeks to improve the price reporting 
of meat products. The funding will be used to purchase retail price and 
volume data from retailers and to aggregate the data. The data will be 
maintained in a database and will permit the monthly electronic 
publication of retail sales quantity, value and average price at the 
national level for the major meats, such as beef, pork and chicken; and 
for other meats, such as turkey, veal and lamb. This initiative will 
enhance transparency of pricing systems in livestock and meat markets. 
It will also provide a foundation for continuing analysis of rapid 
structural changes in food and agricultural markets to aid in policy 
decisions related to market regulation, competition, information 
services, consumer demand, and rural development.
Goal 2: The food production system is safe and secure
    ERS focuses on improving the efficiency and effectiveness of public 
policies and programs designed to protect consumers from unsafe food by 
analyzing the benefits of safer food and the costs of food safety 
policies; efficient and cost-effective approaches to promote food 
safety; and how agricultural production and processing practices affect 
food safety, resource quality, and farm workers' safety. This research 
helps government officials design more efficient and cost-effective 
approaches to promoting food safety. For example, ERS works closely 
with various USDA agencies and the Centers for Disease Control and 
Prevention (CDC) on pathogen reduction efforts, including Hazard 
Analysis and Critical Control Points (HACCP). The ERS research program 
provides detailed and up-to-date appraisals of the benefits of safer 
food, such as reducing direct medical costs and indirect costs 
associated with productivity losses from foodborne illnesses caused by 
microbial pathogens. Tracing the Costs and Benefits of Improvements in 
Food Safety, published in October 2000, provided policymakers with 
information about who ultimately benefits from reduced foodborne 
illnesses and who ultimately pays the costs of food safety regulations. 
ERS received increased funding for work under Goal 2 in fiscal year 
1999 and fiscal year 2000. Using this funding ERS administered a 
competitive process through which several grants were awarded. The 
projects, for which results are expected in 2002, are applying state-
of-the-art valuation methodologies to measure consumers' willingness to 
pay for reductions in food safety risks from microbial pathogens in 
foods.
    Understanding how food prices are determined is increasingly 
important in responding to domestic and international market events and 
opportunities that promote the security of the U.S. food supply. As the 
farm share of the food dollar declines, accurate retail price forecasts 
depend more heavily on understanding the marketing system beyond the 
farmgate. ERS systematically examines the factors that help set retail 
prices, including an assessment of the roles of the transportation, 
processing, manufacturing, wholesaling and retailing sectors; the 
impact of imports and exports; and linkages to the total economy.
Goal 3: The nation's population is healthy and well-nourished
    ERS helps identify efficient and effective public policies that 
promote consumers' access to a wide variety of high-quality foods at 
affordable prices. ERS economists analyze factors affecting dietary 
changes as well as trends in America's eating habits; assess impacts of 
nutrition assessments and the implications for the individual, society 
and agriculture; and provide economic evaluations of food nutrition and 
assistance programs, such as factors determining changes in Food Stamp 
program participation. In 2000 ERS published The Decline in the Food 
Stamp Program Participation in the 1990s, which detailed and analyzed 
the decline in participation from 27.5 million participants in 1994 to 
18.2 million in 1999.
    Analysis of nutrition education efforts considers what kinds of 
information motivate changes in consumer behavior, the food cost of 
healthy diets, the influence of food assistance programs on nutrition, 
and the implications of healthy diets for the structure of the food 
system. In 2000, ERS released the study, WIC and the Nutrient Intake of 
Children, which found that participation in the WIC program had a 
significant positive effect on children's intake of several nutrients, 
including iron. The finding regarding iron was especially useful since 
low intake of iron, which may lead to anemia, is considered to be an 
important public health issue.
    Through the Food Assistance and Nutrition Research Program (FANRP), 
ERS will continue to conduct studies and evaluations of the Nation's 
food assistance programs. FANRP research is designed to meet the 
critical needs of USDA, Congress, program managers, policy officials, 
USDA program clients, the research community, and the public at large 
in relation to the design and effectiveness of food assistance 
programs, diet quality, and nutrition education. FANRP research is 
conducted through internal research at ERS and through a portfolio of 
external research. Through partnerships with other agencies and 
organizations, FANRP is enhancing national surveys by adding a food 
assistance dimension. FANRP's long-term research themes are dietary and 
nutritional outcomes, food program targeting and delivery, and program 
dynamics and administration.
Goal 4: Agriculture and the Environment are in Harmony
    In this area, ERS research and analytical efforts in cooperation 
with the Natural Resource Conservation Service (NRCS) support 
development of Federal farm, natural resource, and rural policies and 
programs. Such efforts promote long-term sustainability goals, improved 
agricultural competitiveness, and economic growth. This effort requires 
analyses of the profitability and environmental impacts of alternative 
production management systems in addition to the cost-effectiveness and 
equity of public sector conservation policies and programs. ERS 
analysts focus on evaluating the benefits and costs of alternative 
agricultural and environmental policies and programs in order to assess 
the relationship between improvements in environmental quality and 
increases in agricultural competitiveness. For example, in its January 
2001 publication Agri-Environmental Policy at the Crossroads: 
Guideposts on a Changing Landscape, ERS focused on the issues and 
tradeoffs that policymakers would face in designing a program of agri-
environmental payments. ERS is continuing to work with NRCS to provide 
a combination of economic, farm structural, and geographic information 
to inform ongoing decision making about the design of conservation 
programs and the regulation of animal waste.
    ERS is seeing the payoff of its having put increasing emphasis on 
understanding and analyzing trends in adoption of genetically modified 
crops and the emergence of markets for both genetically modified and 
non-genetically modified commodities--becoming a leader in the public 
sector in releasing new and timely information on this topic. In 2000, 
Genetically Engineered Crops for Pest Management in U.S. Agriculture 
reported that adoption of genetically engineered (GE) crops with traits 
for pest management has risen dramatically since their commercial 
introduction in the mid-1990s. The research provided important new 
understanding of the impacts of adopting GE crops on crop yields, net 
returns, and pesticide use.
Goal 5: Enhanced economic opportunity and quality of life for rural 
        Americans
    The ERS contribution to this goal is based on analysis that 
identifies how investment, technology, employment opportunities and job 
training, Federal policies, and demographic trends affect rural 
America's capacity to prosper in the global marketplace. ERS economists 
analyze rural financial markets and how the availability of credit 
(particularly Federal credit) and public spending, taxes, and 
regulations influence rural economic development. ERS analyzes the 
changing size and characteristics of rural and farm populations and the 
implications of these changes on the performance of rural economies. In 
addition, ERS studies the economic structure and performance of non-
farm economic activities in rural areas, including the rebound in 
population growth in non-metropolitan counties.
    ERS also monitors rural earnings and labor market trends with 
emphasis on regional and other disaggregations in order to provide 
insight into the determinants of variation in trends among rural 
counties. Such work yields a better understanding of the factors that 
promote rural vitality and the opportunities for effective public 
sector intervention.
    An ERS study currently underway will identify and analyze factors 
affecting growth in remote rural areas. This study is part of a multi-
country international project conducted under the auspices of the 
Organization for Economic Cooperation and Development. Other studies 
are investigating the effects of various policy scenarios, including 
increases in the minimum wage and the Earned Income Tax Credit, on the 
poverty and employment status of rural welfare recipients. ERS 
researchers are also examining Federal credit and tax policies to 
assess their impact on farm families and the intergenerational transfer 
of farm assets. Researchers are also assessing the impacts of 
structural and policy changes on the costs and availability of 
electric, telecommunications, and financial services in rural America.
    ERS continues to monitor the financial situation of the farm sector 
through establishing farm business organization and performance 
benchmarks. This task includes study of the financial position of 
farmers who employ technological advances and innovative risk 
management strategies in their businesses, compared with the financial 
position of farmers who use more traditional approaches.
    ERS has developed and widely disseminated a new farm typology that 
goes beyond the traditional classification of farms by sales class 
alone to a grouping that is much more reflective of operators' 
expectations from farming, stage in their life cycle, and dependence on 
agriculture for household income. Continued applications of the 
typology are bringing new understanding about the diversity of the U.S. 
farm community, factors that can enhance success among small and 
minority-owned farms, and the implications for the different types of 
farms of alternative approaches to providing safety nets for farm 
households. In October 2000 ERS published A Safety Net for Farm 
Households, which applies the typology to four scenarios for government 
assistance to agriculture based on the concept of ensuring some minimum 
standard of living.
 economic analysis and expert witness support for the pigford consent 
                                 decree
    The request for an increase of $600,000 is for costs associated 
with economic analysis and expert witness litigation support for the 
Pigford Consent Decree which is from a class action lawsuit that 
alleges racial discrimination in the administration of USDA farm loan 
and benefit programs. The USDA and the Department of Justice (DOJ) 
determined that it was critical that expert economic analysis be made 
available to support DOJ work. ERS's role is to generate an objective 
estimate of economic damages in each particular case using a 
consistent, understandable, and defensible methodology that is based on 
standardized farm accounting procedures.
                 customers, partners, and stakeholders
    The ultimate beneficiaries of ERS's program are the American people 
whose well-being is improved by informed public and private 
decisionmaking leading to more effective resource allocation. ERS 
shapes its program and products principally to serve key decision 
makers who routinely make or influence public policy and program 
decisions. This clientele includes White House and USDA policy 
officials and program administrators/managers; the U.S. Congress; other 
Federal agencies and State and local government officials; and domestic 
and international environmental, consumer, and other public 
organizations, including farm and industry groups interested in public 
policy issues.
    ERS depends heavily on working relationships with other 
organizations and individuals to accomplish its mission. Key partners 
include: the National Agricultural Statistics Service for primary data 
collection; universities for research collaboration; the media as 
disseminators of ERS analyses; and other government agencies and 
departments for data information and services.
                            closing remarks
    I appreciate the support that this Committee has given ERS in the 
past and look forward to continue working with you and your staff to 
ensure that ERS makes the most effective and appropriate use of the 
public resources. Thank you.
                                 ______
                                 

      Cooperative State Research, Education, and Extension Service

        Prepared Statement of Dr. Colien Hefferan, Administrator

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to submit the proposed fiscal year 2002 budget for the 
Cooperative State Research, Education, and Extension Service (CSREES), 
one of four agencies in the Research, Education, and Economics (REE) 
mission area of the United States Department of Agriculture (USDA). I 
am especially honored as this is my first opportunity to submit 
testimony to this Committee as the Administrator of CSREES.
    CSREES works in partnership with the land-grant university system, 
other colleges and universities, and public and private research and 
education organizations, in concert with the Secretary of Agriculture 
and the intent of Congress, to initiate and develop agricultural 
research, extension and higher education programs. This partnership has 
a breadth of expertise that is ready to deliver solutions to problems 
facing U.S. agriculture today. For example, University of California 
scientists are developing a foot-and-mouth disease transmission model 
to simulate a wide range of possible epidemic patterns and identify 
eradication strategies for each. The model will ultimately be used to 
address important questions about foot-and-mouth disease eradication 
and is expected to be a useful tool for veterinary decision-makers, 
when and if the disease returns to the United States. Through extension 
and education activities, the system will be able to mobilize personnel 
to inform and assist producers and the public on technological advances 
about this and other agricultural problems.
    The broad portfolio of CSREES programs has supported scientific 
discovery from conception to application. Formula funds have leveraged 
dollars from other sources, provided the start-up funds needed for an 
investigator to establish a research program and build the capacity to 
compete successfully in a competitive program, and allowed for a rapid 
response to an emerging problem. Competitively funded research from the 
National Research Initiative (NRI) has supported individual 
investigators undertaking basic research aimed at generating new 
knowledge. Research results are applied to real life problems through 
the Cooperative Extension System's outreach efforts. All of these 
efforts are undertaken in an environment that prepares students to meet 
the ongoing needs of agriculture, the environment, individuals and 
communities.
    It is this coordinated, continuum of science--discovery to 
application--that has strengthened U.S. agriculture and has made the 
U.S. the world leader in science. For example, in 1998, scientists at 
Iowa State University received an NRI award for $130,000 entitled, 
``Optimizing Marker-assisted Selection for Genetic Improvement of 
Livestock.'' The primary goal of this award was to develop advanced 
mathematical methods for selection and breeding strategies needed to 
achieve superior livestock. A subsequent Initiative for Future 
Agriculture and Food Systems award entitled, ``Mapping and Use of QTL 
for Marker-assisted Improvement of Meat Quality in Pigs,'' made to the 
same scientists in 2000 for $587,722, built on work supported by the 
NRI award and was the first extended, large-scale study to identify 
desirable pork quality traits in commercial breeds. The results of this 
study will be accessible by interested stakeholders for industry 
implementation.
    CSREES continues to strive to meet the recurring challenge of 
ensuring that its programs are flexible and responsive to national 
needs, as expressed by stakeholders and as reflected in Department and 
Administration priorities. In a recent speech, Secretary Veneman 
identified research and development as the way to find new solutions 
for issues related to energy, biotechnology, food safety, and the 
environment. CSREES-supported research and education are meeting these 
challenges.
    Work is being conducted under the National Research Initiative and 
formula programs on biobased products to address energy and other needs 
that will generate information and tools for farmers to grow, harvest, 
and process alternative crops, and for manufacturers to convert 
renewable, raw materials to useful products for industry and/or 
consumers. For example, Smith-Lever formula funding has helped Colorado 
extension alternative crops specialists study three fiber crops--Kenaf, 
sunn hemp and sesbania--that can be processed into particle board, 
paper, and even lumber. These products could provide the public with an 
excellent alternative to wood products, the demand for which continues 
to climb.
    The use and impact of biotechnology is transforming many sectors, 
including agriculture. CSREES-supported biotechnology research funded 
through formula funds and competitive grants not only has the potential 
to facilitate the development of enhanced foods and new food products, 
but also new non-food products, including lubricants, oils, and 
plastics.
    The CSREES integrated research, extension and education Food Safety 
Program is supporting research to reduce the risk of drug residues in 
food products as well as the level of microbial resistance to 
antibiotics. This cutting edge research will greatly improve the safety 
and quality of the Nation's food supply, and also will contribute to 
reducing the chance of microbes causing illness that is not treatable 
in the human population.
    In a Nation that values the environment--clean air and water, 
unique ecosystems, and pristine land--we must ensure that our 
production practices, as well as our public policies and programs 
affecting these practices, are consistent with the dual objectives of 
promoting competitiveness while preserving natural resources and 
environmental quality. To achieve these goals, a better understanding 
of the complex interactions between agricultural production and the 
environment is needed. Scientists in Missouri, supported by Hatch Act 
funds, have developed new methods of capturing nutrients in swine waste 
for crops, reducing fertilizer costs by $1,700 to $6,500 for each of 
the state's family-operated swine farms, at the same time reducing 
nitrogen in water. High phosphorus concentrations in the soil from 
poultry litter were troublesome until Delaware scientists, supported by 
Hatch Act funds, helped to develop new feed programs that allow 
chickens to digest phosphorus more efficiently. Phosphorus in poultry 
litter has been reduced by as much as 80 percent, helping protect water 
in poultry production areas nationwide. California extension personnel 
helped reduce sediment that was trapping 1,300 pounds of pesticide 
residues in the ecosystem and harming river wildlife in the San Joaquin 
River and Sacramento Delta. Approximately 68 percent of the farmland in 
the area is under management systems that have kept tons of sediment 
out of rivers, lakes, and streams.
    CSREES is committed to seven overarching themes in its fiscal year 
2002 budget and proposes sustained funding at the fiscal year 2001 
level for:
  --Competitively awarded grant programs such as the NRI and the 
        Initiative for Future Agriculture and Food Systems;
  --Funding for targeted areas, including Pest Control Related, Food 
        Safety, and other national priority issues;
  --Integrated research, extension, and education activities, as 
        evidenced by continued support at the $41.8 million level for 
        the Integrated Activities Account;
  --A balanced program portfolio, as evidenced by sustained support at 
        the fiscal year 2001 level for all formula programs;
  --Continued support for partnerships to reach diverse audiences 
        through funding for the 1890 and 1994 land-grant institutions, 
        Alaska Native-Serving and Native Hawaiian-Serving Institutions, 
        and for Hispanic-Serving Institutions;
  --Development of human capacity to address the need for a highly 
        trained cadre of quality scientists, engineers, managers, and 
        technical specialists in the food and fiber systems through 
        funding the Higher Education Programs; and
  --Streamlined management and improved accountability of CSREES 
        programs through sustained support for the Research, Education, 
        and Economics Information System, and through the integration 
        of research, extension, and education under certain programs as 
        intended in the Agricultural Research, Extension, and Education 
        Reform Act of 1998.
                   fiscal year 2002 budget highlights
    The CSREES budget proposal, which totals nearly $1 billion, 
provides funding for ongoing programs, and key provisions of the 
Agricultural Research, Extension and Education Reform Act of 1998. The 
fiscal year 2002 budget proposes to fund most programs at the fiscal 
year 2001 level, with the exception of about $118 million for earmarked 
projects, which are proposed for elimination. Programs receiving 
continued support in fiscal year 2002 include:
    Research and extension formula programs proposed for funding at the 
fiscal year 2001 appropriated level of $544 million. CSREES works 
closely with partner institutions through the annual planning process 
and other means to target funds to priority issues facing agricultural 
producers, natural resource managers, and rural residents. The fiscal 
year 2002 budget proposes $106 million for the NRI to fund grants that 
address key problems of national scope through research in the 
biological, physical and social sciences as related to agriculture. The 
program provides the critical agricultural knowledge base needed to 
solve immediate and future agricultural problems; it is the seed needed 
to assure continuing scientific advancement in agriculture. NRI is a 
unique program within CSREES that complements, but does not duplicate, 
the Integrated Research, Education, and Extension (Integrated) programs 
and the Initiative for Future Agriculture and Food Systems program.
    One of the most crucial variables in the food and fiber system is 
scientific and professional human capital. The research and education 
agenda of the future depends on a highly trained cadre of qualified 
scientists, engineers, managers, and technical specialists. The budget 
funds CSREES Higher Education Programs at about $35 million, including 
$7.1 million to be added to the principal of the Native American 
Institutions Endowment Fund to improve the education capacity at Tribal 
colleges. The types of activities that can be supported with the 
interest derived from the endowment funds recently have been expanded 
to include facility renovation and construction projects. The budget 
also includes $3 million for a program initiated in fiscal year 2001 
for Alaska Native-serving and Native Hawaiian-serving Institutions.
    Americans recognize that their quality of life depends largely on 
economic, physical, and institutional factors affecting their families, 
businesses, and communities. The fast pace of changes in these factors, 
and their increasingly complex interactions, present a growing 
challenge. CSREES, in partnership with the land-grant university 
system, enhances the capabilities of individuals, families, and 
communities to improve their quality of life. The fiscal year 2002 
budget proposes continued support for programs such as Expanded Food 
and Nutrition Education Program, Children, Youth and Families, and 
Youth Farm Safety Education and Certification.
    The fiscal year 2002 budget provides $38 million for Food Quality 
Protection Act (FQPA) related pest control activities, the same as the 
fiscal year 2001 level. Emphasis is placed on developing alternatives 
to replace chemical pest controls that are at-risk of being taken off 
the market due to the stricter pesticide registration requirements 
resulting from the implementation of FQPA. The FQPA Risk Mitigation 
Program aims to establish longer-term pest control alternatives for 
major crops while the Crops at Risk Program supports projects to 
develop intermediate term alternatives in place of pesticides used on 
fruit and vegetable crops.
    The Administration has proposed not to continue funding for program 
earmarks. We believe that competitive, peer-reviewed programs that 
respond to nationwide issues and have national application, and formula 
programs represent a higher priority use of taxpayer dollars.
                           mandatory programs
    The fiscal year 2002 budget proposes funding for the Fund for Rural 
America (Fund) program. As determined by the Secretary, funding 
supports competitive grants for research, education, and extension. 
Projects under the Fund are for national, regional and multistate 
system level approaches to strengthen international competitiveness, 
productivity, efficiency and profitability; to enhance natural resource 
management and environmental stewardship; and to strengthen rural 
communities. The fiscal year 2002 budget proposes $120 million for the 
Initiative for Future Agriculture and Food Systems (IFAFS) program, 
which focuses on research that is cutting-edge, multi-institutional and 
directly linked to producer and consumer issues through extension or 
education programs. In fiscal year 2000, the agency received almost 
1,000 proposals for the IFAFS program, 25 percent of which were rated 
highly meritorious by peer reviewers; the agency was able to fund fewer 
than 9 percent of these proposals. The budget also proposes funding for 
the Community Food Projects grants program at $2.5 million (supported 
with mandatory funds provided by the Food and Nutrition Service's Food 
Stamp Program).
                                summary
    The broad portfolio of CSREES programs, including both formula 
based and competitively-awarded funds, ensures that research extends 
the transfer and implementation of practical outcomes. With this broad 
portfolio as a base, the strong Federal, State, and university 
partnership has supported great successes that have far reaching 
impacts on the food we eat, the environment in which we live, human 
health, and the quality of life of our citizens.
                                 ______
                                 

        Grain Inspection, Packers and Stockyards Administration

      Prepared Statement of David R. Shipman, Acting Administrator

    Mr. Chairman and members of the Committee, I am pleased to 
highlight the accomplishments of the Grain Inspection, Packers and 
Stockyards Administration, and to submit our fiscal year 2002 budget 
proposal.
    GIPSA is part of USDA's Marketing and Regulatory Programs, which 
works to ensure a productive and competitive global marketplace for 
U.S. agricultural products. Our mission is to facilitate the marketing 
of livestock, poultry, meat, cereals, oilseeds, and related 
agricultural products, and to promote fair and competitive trading 
practices for the overall benefit of consumers and American 
agriculture.
    GIPSA has both regulatory and service roles. Our Packers and 
Stockyards Programs (P&S) ensure open and competitive markets for 
livestock, meat, and poultry while providing financial protection to 
livestock producers. The Agency's Federal Grain Inspection Service 
(FGIS) provides the U.S. grain market with Federal quality standards 
and a uniform system for applying them. It also provides impartial, 
accurate measurements of grain quality to promote an equitable and 
efficient U.S. grain marketing system. GIPSA helps ensure fair and 
competitive marketing systems for all involved in the merchandising of 
livestock, meat, and poultry, and grain and related products.
                              organization
    We are headquartered in Washington, DC. Our P&S program area has 
180 employees and three regional offices. The Atlanta Regional Office 
is responsible for national issues relating to poultry production and 
processing; the Denver office for livestock concerns; and the Des 
Moines office focuses on swine production and processing. Legal, 
financial, and economics experts from the various locations work 
together to address national issues and more effectively monitor 
emerging technology, evolving marketing strategies, and other issues 
affecting the industries and the constituencies served by the Agency.
    Federal grain personnel work as part of a unique public-private 
partnership with over 2,000 State and private inspectors to provide 
high-quality inspection and weighing services on a user-fee basis 
across the Nation. Federal inspectors service 38 export elevators in 
Georgia, Illinois, Indiana, Louisiana, Maryland, New York, Ohio, 
Oregon, and Texas. Eight delegated States provide service at an 
additional 19 export elevators located in Alabama, California, 
Minnesota, Mississippi, South Carolina, Virginia, Washington, and 
Wisconsin. In Canada, official service on U.S. grain transported 
through Canadian ports is provided under a cooperative agreement by the 
Canadian Grain Commission with GIPSA oversight at 7 locations. Fifty-
nine (59) designated agencies service the domestic market under GIPSA 
supervision. In fiscal year 2000, this unique mix of Federal, State, 
and private inspection agencies provided nearly 2 million inspections 
on over 238 million metric tons of grains and oilseeds; weighed over 
105 million metric tons of grain; and issued more than 89,000 official 
weight certificates.
    Our Technical Center in Kansas City, Missouri, is GIPSA's central 
laboratory for technical leadership and support for the official 
inspection system and U.S. grain industry. The Center is home to the 
GIPSA Biotechnology Reference Laboratory, which accredits private 
testing labs conducting DNA-based testing for biotechnology derived 
grains and verifies the performance of rapid tests for biotechnology 
derived grains.
             gipsa's packers and stockyards programs (p&s)
    The P&S Program fosters fair competition, and guards against 
deceptive and fraudulent practices affecting the movement and price of 
meat animals and their products. The production and marketing of 
livestock, meat and poultry are an important part of American 
agriculture and the Nation's economy.
    With only 180 employees, P&S monitors the livestock, meat, and 
poultry industries, estimated by the Department of Commerce in fiscal 
year 2000 to have an annual wholesale value of $142 billion. At the 
close of 2000 there were 1,318 stockyards; 6,195 market agencies and 
dealers, 2,039 packer buyers registered with GIPSA. An estimated 6,000 
slaughtering and processing packers are subject to the Act. In fiscal 
year 2000, 266 slaughtering packers, each of whom purchased over 
$500,000 of livestock in 1999, were required to be bonded and file 
reports with GIPSA. In addition, there were 205 poultry firms and a 
significant number of meat distributors, brokers, and dealers subject 
to the Act.
    Last year, GIPSA conducted over 1,800 investigations, a 33 percent 
increase over the previous year. Most violations were corrected 
voluntarily, with several resulting in livestock and poultry producers 
receiving additional funds for the sale of their products. During 
fiscal year 2000, 17 administrative or justice complaints were issued 
(a net increase of 5 over the previous year) to bring subject firms 
into compliance with the Act. In addition, USDA issued 13 decisions and 
orders against 21 individuals or firms for violating the Act.
    GIPSA continues to provide payment protection to livestock and 
poultry producers. Financial investigations during last year resulted 
in $5.9 million being restored to custodial accounts established and 
maintained for the benefit of livestock sellers. This is more than 
double fiscal year 1999 restoration figures of $2.7 million. Since the 
1976 amendments to the P&S Act, livestock sellers have been paid $59.7 
million under the statutory trust provision. In 2000, one poultry trust 
complaint received by GIPSA that resulted in payment of $250,000 to 
live poultry growers. By comparison, there were none in 1999. During 
fiscal year 2000, 192 insolvent dealers and market agencies corrected 
or reduced their insolvencies by $6.7 million, an increase of more than 
$2 million from the previous year. Insolvent packers corrected or 
reduced the insolvencies by $2.2 million.
    Many producers and growers are not adequately aware of the 
protections provided under the P&S Act. In the past 2 years, GIPSA 
stepped up outreach activities to better educate the industry about the 
Act and GIPSA's regulatory role in the market. GIPSA held a series of 
town hall meetings to discuss salient issues with many different 
segments of the poultry and swine industries. In fiscal year 2000, 
GIPSA held 12 outreach programs in the major U.S. poultry producing 
areas. Participants agreed that the poultry industry has a greater 
awareness of GIPSA's authority under the Act and regulations because of 
these efforts. As a result of participation in the town hall meetings, 
grower-oriented organizations and integrators have invited GIPSA to 
attend industry meetings and conferences. GIPSA plans to participate in 
another series of meetings with beef and sheep industry 
representatives.
    In addition to the town hall meetings, GIPSA sponsored a Millennium 
Conference to better understand the issues facing our constituencies 
and to honor millennium farmers. We also sponsored a series of regional 
meetings with States Attorneys Generals, and Agricultural Commissioners 
and Secretaries to help us develop stronger strategic alliances in 
serving the agricultural community. We recognize the importance of 
staying in touch with growers, producers, and federal and state 
representatives to understand, stay abreast, and anticipate issues 
confronting the industry. GIPSA has actively cultivated a broader base 
of understanding with growers and producers through public outreach. We 
anticipate continuing this effort.
    Our regulatory responsibilities are at the heart of our mission. To 
this end, GIPSA closely monitors practices that may impede the free 
trade of livestock, meat, and poultry. A high priority is placed on 
investigating all complaints and further developing information 
received concerning allegations of anticompetitive, unjustly 
discriminatory, or unfair behavior in the livestock, meat, and poultry 
industries. Appropriate corrective action is initiated when evidence of 
these practices is discovered.
    Rapid Response teams continue to address urgent industry issues and 
are deployed when a situation warrants immediate attention or action. 
The ability of these teams to respond within 36-48 hours of being 
notified of a crisis provides the public with more immediate 
notification of fiduciary problems with a stockyard or market agency. 
Last fiscal year, 15 teams were deployed to investigate cases in 9 
states. Teams helped recover more than $3 million for growers and 
producers. The Agency also provides a hotline (1-800-998-3447) on which 
constituents may anonymously voice their concerns. GIPSA responds to 
and investigates all issues addressed by the callers. Last year the 
Agency responded to 140 calls, compared to 126 in 1999.
    GIPSA also is strengthening investigations and assessments of 
competitive implications of structural changes in the livestock, 
meatpacking, and poultry industries. To further this initiative, GIPSA 
entered into five cooperative research agreements in fiscal year 1999. 
Two examine competitive conditions in the beef markets, two address 
competitive issues and compensation methods used in the broiler 
production, and the final project examines bidding behavior in a 
laboratory setting to gain insights into expected behavior in actual 
markets. These projects will be completed in fiscal year 2001 and 
fiscal year 2002.
    GIPSA also has made arrangements to obtain special procurement 
information annually from the Nation's top 15 steer and heifer 
slaughter firms. This information is related to livestock purchased 
through contracts, packer feeding arrangements, or marketing and 
formula-priced transactions. Much more work is needed to determine the 
effects of these captive supplies in both the beef and pork industries.
    Currently, GIPSA is litigating two major cases against two of the 
largest packers in the Nation. The first involves a firm alleged to 
have violated the Act by failing to notify sellers that it had changed 
its equation for estimating the lean percent of animals purchased on a 
carcass merit basis. It is alleged that the company underpaid more than 
1,250 farmers by about $1.8 million. The second case, and the complaint 
filed, alleges that a company retaliated against a producer by failing 
to bid or purchase his or her animals. GIPSA has incurred major 
expenses and resources preparing for each of these cases. As an 
example, in the first instance, we spent almost a $\1/2\ million in 
litigating this case.
    In addition to normal regulatory duties, GIPSA has been tasked with 
four Congressional Mandates, which will impact the Agency next year, 
and in subsequent years. They are the Swine Contract Library, Captive 
Supply Study, annual Assessment the Cattle and Hog Industries, and the 
Agency's implementation of the GAO Report.
    The first mandate, the Swine Contract Library, was contained in the 
Agricultural Rural Development, Food and Drug Administration, and 
Related Agencies Appropriations Act of 2000 (Public Law 106-78), signed 
into law on October 22, 1999. It amended the P&S Act to require GIPSA 
to establish and maintain a library of contract provisions offered by 
packers to swine producers for the purchase of swine and to make these 
provisions available to the public. The swine contract library must 
include swine packing plants with a slaughter capacity of 100,000 swine 
or more per year; this includes approximately 50 plants owned by 29 
packers which account for over 95 percent of the market. These 29 
packers are required to provide monthly reports to GIPSA specifying the 
number of swine committed and the maximum number of swine to be 
delivered over the next six to twelve months by contract type.
    GIPSA published a Notice of Proposed Rulemaking on September 5, 
2000 and is drafting the final rule. In addition to the rulemaking 
process, GIPSA has devoted resources to implement the actual contract 
library, involving computer hardware and software development, and data 
collection forms. The library will use a Web-based system facilitating 
data input from swine packers and data access by the public.
    The second mandate is a study directed by a Conference Report 
(House Report No. 106-948) for GIPSA to complete a comprehensive study 
on the issue of Captive Supply by September 30, 2001. As mandated, the 
report will examine and report on whether or not cattle that are 
procured pursuant to a captive supply arrangement by a packer's non-
reporting subsidiary, affiliate and owners, officers and employees are 
being included in the percentages as captive supply. Additionally, the 
report will include the rationale for differences in captive supplies 
reported in the P&S Annual Statistical Report and those reported by 
other entities.
    The third mandate requires the Agency to submit an annual report to 
Congress that assesses the cattle and hog industries. The Packers and 
Stockyards Act was amended in the Grain Standards and Warehouse 
Improvement Act of 2000 (Public Law 106-472) to require the Agency to 
submit an Annual Report Assessing the Cattle and Hog Industries. The 
report will include an assessment of the general economic state of the 
cattle and hog industries, changing business practices in these 
industries and areas of concern under the P&S Act. It is estimated that 
2,000 staff hours and $72,000 were spent in compiling this report for 
2000.
    The final mandate began with the General Accounting Office's (GAO) 
Report to Congress, issued in September 2000, ``Actions Needed to 
Improve Investigations of Competitive Practices.'' The Grain Standards 
and Warehouse Improvement Act of 2000 (Public Law 106-472) required 
implementation of the recommendations in the GAO Report as well as a 
report describing the actions taken to improve investigations of 
competitive practices by November 9, 2001. The report and the actions 
needed to improve investigations are concomitantly moving forward.
    The GAO report addressed actions to improve GIPSA's ability to 
investigate complex issues. The report suggests that the Secretary of 
Agriculture develop a teamwork approach with GIPSA economists and 
Office of General Counsel (OGC) attorneys for complex investigations. 
We began implementing this recommendation a month after the September 
report with combined competition training for legal specialists, 
economists and OGC attorneys. GIPSA now has two legal specialists in 
each regional office. We have formalized procedures within P&S Programs 
by instituting investigation reviews by senior management when cases 
involve issues of competition, are deemed to be complex, are considered 
to be a large investigation, involve more than one unit (financial, 
competition, trade practices) in the investigation, when more than one 
region is involved, or when unusual amounts of resources are required. 
The regional attorneys review each case before they are submitted for 
consideration to senior management. Once senior management has reviewed 
each case the investigation proceeds, and each case is monitored 
throughout the investigation. OGC has been asked to review the 
investigation plans prior to commencement of the investigation and thus 
has been integrated into the investigative process of complex cases at 
their initiation.
    The GAO report recommended that GIPSA improve its competitive 
investigations by adopting methods and guidance similar to those used 
by the Department of Justice (DOJ) and the Federal Trade Commission 
(FTC). GIPSA, working through the Department's Office of the General 
Counsel, is reviewing DOJ and FTC investigative procedures.
    The GAO report recommended that the Secretary modify the grade 
structure for economists. The process of upgrading economists' and 
legal specialists' positions is underway and will hopefully allow GIPSA 
to hire and retain well-qualified individuals. We have reviewed and 
instituted procedures that will better use the legal expertise of our 
legal specialists in each regional office. The advice and critical 
legal review of the cases should improve the process and allow GIPSA to 
operate more effectively.
    The GAO report also suggests that GIPSA provide industry 
participants and Congress with clarifications of the Agency's views on 
competitive activities by reporting changing business practices in the 
cattle and hog industries and identifying market operations or 
activities which raise concerns. We were mandated to provide an annual 
report assessing the cattle and hog industries, and to conduct a study 
on the issue of captive supplies. We have also taken action to hire an 
outreach coordinator to improve our communication with Congress and the 
public we serve. We also anticipate using the knowledge gained in 
broad-based investigations by communicating that intelligence to the 
industry or industries that it addresses.
    In addition to the Congressional mandates, GIPSA will be 
participating in a GAO review initiated by Senator Daschle to examine 
our economic models. He has asked the GAO to ``assess the extent to 
which these models may be understating the effects of imports, market 
concentration, and the use of marketing agreements and forward 
contracts on domestic cattle prices.'' Senator Daschle has also 
requested that GAO provide recommendations on how our models could be 
``improved or revised, to provide the most comprehensive analysis 
possible of the impact of certain factors on prices at the producer 
level, including: import volumes and competition; increasing use of 
marketing agreements and forward contracts; and increasing 
consolidation in the processing, wholesaling and retail distribution 
sectors.'' We fully expect GAO to review the 1996 packer concentration 
study, the follow-up cooperative agreements with universities that 
examined concentration and captive supplies, and other activities 
relating to concentration and captive supplies. GAO expects to complete 
its investigation within one year.
    While working to be wholly responsive to Congressional mandates and 
to provide timely and insightful information to GAO, GIPSA has 
initiated the development of rules to help us better serve our various 
constituencies. The rules will support our enforcement of the Act by 
defining requirements needed for our investigations of violations of 
the Act. We are currently working on six rulemaking initiatives. They 
are, in priority order based on program needs and the least number of 
steps for completion and implementation: swine contract library, packer 
record keeping, contract disclosure, non-reporting of price, premiums 
and discounts, and string sales.
    Swine Contract Library.--GIPSA is drafting a final rule for the 
Swine Contract Library. The proposed rule would require certain packers 
to file swine marketing or purchase contracts with GIPSA and would 
require GIPSA to publish monthly reports about available swine 
marketing contracts.
    We hope to move all of the proposed regulations forward in the next 
year.
    During fiscal year 2000, GIPSA amended existing scales and weighing 
regulations under the Act. The feed weighing regulation now includes a 
requirement of weighing feed whenever the weight of feed is a factor in 
determining payment or settlement under a livestock or poultry growing 
arrangement.
    Mr. Chairman and members of the Committee, GIPSA teams of legal, 
financial, economic specialists will be addressing 8 cases scheduled 
for hearing, including reparations; 14 cases pending review in the 
Agency, and 50 cases pending review in the OGC (this number includes 
referrals, docketed complaints and reparations).
    GIPSA will actively seek to serve the industry by: providing 
payment protection to livestock and poultry producers; increasing the 
number of competitive investigations of potential violations of the 
Act; pursuing voluntary corrections of violations of the Act which will 
likely result in livestock and poultry producers receiving additional 
funds; continuing to reach out to both educate and inform 
constituencies served by the agency of the benefits and protections 
offered to livestock and poultry producers; monitoring and responding 
rapidly to complaints of anticompetitive, unjustly discriminatory or 
unfair behavior in the livestock, meat and poultry industries; pursuing 
cooperative agreements which contribute valuable information to GIPSA's 
economic understanding of the industries; facing off with industry 
giants and expending resources to address violations of the Act; 
responding thoroughly and responsibly to all governmental inquiries and 
Congressional mandates; pursuing rulemaking which enhances GIPSA's 
ability investigate and litigate violations of the Act.
                gipsa's federal grain inspection service
    GIPSA's grain inspection program facilitates the marketing of U.S. 
grain and related commodities under the authority of the U.S. Grain 
Standards Act (USGSA) and the Agricultural Marketing Act of 1946 (AMA). 
GIPSA provides the market with descriptions (grades) and testing 
methodologies to measure the quality and quantity of grain, rice, 
edible beans, and related commodities; provides an array of inspection 
and weighing services, on a fee basis, through a unique partnership of 
Federal, State, and private laboratories; and ensures that the 
standards are applied and the weights recorded fairly and accurately. 
As an impartial, third-party in the market, we advance the orderly and 
efficient marketing and effective distribution of U.S. grain and other 
assigned commodities from the Nation's farms to domestic and 
international buyers.
    For an average cost of 23 cents per metric ton of grain in fiscal 
year 2000, exporters received USDA export certificates from GIPSA which 
they used to market over $20 billion worth of cereals and oilseeds. 
Likewise, here at home, buyers and handlers requested over 1.9 million 
domestic inspections that facilitated the trading of 128 million metric 
tons of cereals and oilseeds.
    To date, the official grain inspection system has operated in a 
supply driven food chain. Grain was produced, delivered to the elevator 
and marketed as a commodity with limited concern about specific 
consumer quality preferences. Buyers relied on the grades and standards 
to describe the general quality needed to produce a quality product and 
provide the ultimate consumer with abundant and wholesome food.
    Today, the need for more efficient processing and the demands of 
consumers are rewriting the rules. Growth in specialty grain markets 
and the controversy over biotechnology-derived crops are forcing the 
U.S. grain production and marketing system to examine how it will 
handle volumes of large specialty (non-commodity) products. This 
transition will likely result on greater reliance on contracting, 
alliances, vertical integration, and other coordinated mechanisms. It 
also will drive the industry, from producer to processor, to establish 
quality assurance systems to meet tougher and more demanding quality 
specifications while retaining, as much as possible, the inherent 
benefits of the current grain production, handling, and processing 
system.
    GIPSA's role in this new and evolving marketplace involves 
providing reliable and practical methods to measure the end-use quality 
attributes of commodities and specialty products (including non-
biotech-derived crops) at the earliest stage of the marketing system. 
The fair and orderly marketing of grain depends on all in the marketing 
chain having access to information on the true value of grain. GIPSA 
must also work with the industry from producer to processor to 
facilitate the development of quality assurance systems that compliment 
or, in some incidences reduce the frequency of, product testing while 
ensuring quality and capturing the benefits of the current marketing 
system.
    The need for increased segregation in production and marketing will 
increase costs by hampering certain inherent economies of scales and 
efficiencies provided in the current commodity market. Consequently, 
industry members will strive to realize greater internal efficiencies 
through such processes as e-commerce. The official inspection system 
must understand and respond to these market needs.
    To address the greater need of providing all players in the market 
with the information they need to effectively market biotech and non-
biotech grains, in fiscal year 2001, GIPSA opened a biotechnology 
reference laboratory. The lab provides standardization for the 
sampling, reference methodologies, and rapid tests for biotech grains. 
GIPSA's laboratory certifies the performance of rapid tests for the 
analysis of biotech events, and will accredit independent laboratories 
using DNA-based testing to determine the presence of modified DNA in 
grain. Through this laboratory, GIPSA is responding to the market's 
need for independent sources to verify the reliability and credibility 
of biotech analyses that differentiate non-biotech from biotech grains 
and oilseeds. This facilitates information exchange, which, in turn, 
decreases transaction costs and increases overall market efficiency.
    During fiscal year 2001, GIPSA has been instrumental in the 
Department's efforts to ensure StarLink<SUP>TM</SUP> corn is used for 
only approved feed and non-food industrial uses. StarLink<SUP>TM</SUP>, 
developed by Aventis CropScience, is the trade-name for corn 
genetically modified to be pest resistant by producing a protein called 
Cry9C. The Environmental Protection Agency registered 
StarLink<SUP>TM</SUP> corn for domestic feed and non-food industrial 
uses only. In October 2000, Aventis requested voluntary cancellation of 
its StarLink<SUP>TM</SUP> registration, after the variety was found in 
the human food chain.
    GIPSA's biotech reference lab has validated seven rapid test kits 
for the analysis of Cry9C in corn. These kits are used by all segments 
of the grain industry to detect Cry9C in corn and to market such corn 
to only approved uses. We are also using this technology to provide 
official USDA testing and certification services for the presence of 
StarLink<SUP>TM</SUP> corn under the authority of the United States 
Grain Standards Act.
    In the international arena, GIPSA, working with the Foreign 
Agricultural Service, was instrumental in developing and then updating 
a protocol addressing Japan's concerns with food corn imports that may 
contain low levels of StarLink<SUP>TM</SUP> corn. StarLink<SUP>TM</SUP> 
is not approved for food or feed use in Japan. The protocol provides 
for a practical quality assurance process to meet the Government of 
Japan's regulatory requirements for StarLink<SUP>TM</SUP> corn. The 
protocol provided a framework from which the industry has developed 
processes to meet the requirements of other importers of U.S. corn.
    Finally, GIPSA is in the midst of a rulemaking undertaken to 
improve consumer access to information on biotechnology. GIPSA, in 
conjunction with the Agricultural Marketing Service, published an 
advance notice of proposed rulemaking (ANPR) seeking public comment on 
USDA's role in facilitating the marketing of grains, oilseeds, fruits, 
vegetables, and nuts in today's marketplace with biotech and non-
biotech crops. The ANPR was published in the Federal Register on 
November 30, 2000, with a comment period closing February 28, 2001. In 
response to public requests, GIPSA reopened and extended the comment 
period until April 16, 2001. To date, GIPSA has received almost 2,900 
comments, the majority of which call for the labeling of biotech foods.
    Our efforts to respond to the market's needs for services to 
facilitate the marketing of biotech and non-biotech grains have been 
substantial. But a great deal of activity has been underway in other 
areas as well.
    GIPSA evaluates and implements new technology in the official 
inspection system in response to market needs. Further, the performance 
of existing official inspection methods is routinely evaluated and 
improvements are developed as needed. Official inspection methods 
(including calibration equations) are made available to commercial 
inspection users to enhance consistency between official and commercial 
grain inspection results. We are in the process of implementing several 
types of new technology for grain inspection:
  --Digital imaging is being piloted to certify the percentage of 
        broken kernels in milled rice. This new technology could 
        greatly improve the accuracy, consistency, and objectivity of 
        inspection and grading. GIPSA also is using digital imaging to 
        measure the vitreousness of Hard Red Spring and Durum wheats. 
        Finally, we are exploring using digital imaging to help 
        inspectors better interpret and grade difficult or unusual 
        grain characteristics, facilitate training for inspectors, and 
        convey to customers visual information on grain condition.
  --GIPSA's work on mycotoxin analysis continues to expand. In addition 
        to establishing aflatoxin testing and reference methods, GIPSA 
        developed and validated a fumonisin reference method, which 
        allowed us to initiate evaluation of fumonisin test kits for 
        use in the official inspection system.
  --We are working with the North American Export Grain Association to 
        develop an automated grain inspection system for use at export 
        elevators. An automated system will provide export elevators 
        with constantly updated grain inspection information five times 
        faster than present manual methods, and may reduce costs to the 
        industry and enhance GIPSA's efficiency.
  --GIPSA is working with researchers from academia and the USDA 
        Agricultural Research Service to define wheat protein quality 
        and to develop practical, rapid methods for assessing wheat 
        protein quality in marketing channels.
  --We continue to cooperate with entities from Canada, Australia, and 
        several European countries to develop and test a ``global'' 
        near-infrared transmission (NIRT) calibration to measure the 
        quantity of protein in wheat and barley protein testing. The 
        calibration, based on tests of nearly 40,000 samples of wheat 
        and barley, uses artificial neural network technology to 
        achieve excellent accuracy for very diverse grain types.
  --GIPSA is working to develop an NIRT calibration for extractable 
        corn starch. This initiative responds to the needs of suppliers 
        of corn to the corn wet milling industry, who require a quick 
        method to determine the extractable starch present in corn.
    GIPSA also is keeping pace with the grain industry's move from 
paper to e-commerce to streamline, automate, and improve business 
transactions. Recent advances in information technology have provided 
the U.S. grain marketing system with tools to provide instantaneous 
exchange of electronic documents and data among all parties in the 
trade chain. Electronic commerce companies and business-to-business 
ventures focused on local, regional, national, and international grain 
sales are emerging at a record pace, and are resulting in new alliances 
within the grain industry. Electronic commerce is improving market 
efficiency, facilitating transparent pricing, offering new price risk 
management tools to producers, and providing more seamless 
transactions.
    GIPSA is keeping pace with our customers' migration toward this 
marketing process. We are taking part in pilot tests and demonstrations 
with electronic commerce vendors, and adopting the latest hardware, 
software, and available technology so that we are prepared to enter and 
participate in the electronic commerce arena. GIPSA is actively 
involved in developing a system to send inspection information 
generated at multiple locations directly to a customer. We also are 
prepared to submit electronic inspection information into a vendor's 
document handling system at the request of applicants. Finally, GIPSA 
also is pilot testing a computer generated inspection certificate for 
export cargoes. The pilot will assess global bank and importer 
acceptance of the new documents.
    All of our efforts to improve and streamline our programs and 
services are paying off for our customers, both in terms of their 
bottom lines and in greater customer satisfaction. GIPSA's service 
delivery costs (adjusted for inflation), decreased from $0.27 per 
metric ton in fiscal year 1994 to $0.23 per metric ton in fiscal year 
2000, saving American agriculture over $5 million in fiscal year 2000 
alone. These savings in inspection service costs pale in comparison to 
the savings achieved by the industry through improved productivity.
    We are an integral part of America's grain handling 
infrastructure--a superior infrastructure of storage facilities, rail 
lines, and waterways that makes American agriculture preeminently 
successful in the global marketplace. We recognize our role and will 
continue to provide all members of the U.S. grain handling system with 
the innovative, high-quality official inspection services they need to 
efficiently and effectively meet the challenges of a changing marketing 
environment.
    Our outreach and educational efforts to our international customers 
are maintaining strong open markets for America's grains and oilseeds. 
One indicator is the number of foreign complaints lodged with GIPSA 
regarding the quality or quantity of U.S. grain exports. In fiscal year 
2000, the number of complaints from importers decreased by 35 percent 
from fiscal year 1999 levels. GIPSA received 13 quality and quantity 
complaints from importers on grains inspected under the U.S. Grain 
Standards Act, involving 355,853 metric tons, or about 0.3 percent by 
weight, of the total amount of grain exported during the year. This 
compares to 20 quality and 2 quantity complaints received in fiscal 
year 1999, representing about 1.4 percent of grain exports by weight.
    In fiscal year 2000, GIPSA also responded to customers' needs for 
technical assistance overseas. Exporters, importers, and end users of 
U.S. grains and oilseeds, as well as other USDA agencies, USDA 
cooperator organizations, and other governments, frequently ask for 
GIPSA expertise, thus requiring personnel to travel overseas. Overseas 
activities include representing the Agency at grain marketing and grain 
grading seminars, meeting with foreign governments and grain industry 
representatives to resolve grain quality and weight discrepancies, 
helping other countries develop domestic grain and commodity standards 
and marketing infrastructures, assisting importers with quality 
specifications, and training local inspectors in U.S. inspection 
methods and procedures. Last year, GIPSA received 19 requests for 
technical assistance overseas.
    Our efforts to facilitate the trade of U.S. grains include direct 
efforts to remove trade barriers. In fiscal year 2000, GIPSA played an 
integral role in ensuring open markets for America's products by 
working with APPAMEX, a Mexican grain importers association, to address 
Mexican importers' grain quality concerns. GIPSA inspectors conducted 
two sets of seminars in Mexico to explain U.S. sampling and inspection 
method. In fiscal year 2001, GIPSA will hold additional seminars, 
conduct two monitoring experiments, and work with officials of Mexico's 
Ministry of Trade and Ministry of Agriculture to help develop a 
national inspection system in Mexico patterned after GIPSA's.
    Also in fiscal year 2000, GIPSA resolved prior weight complaints 
from the Philippine Association of Flour Millers (PAFMIL). Thanks to a 
collaborative cargo monitoring program initiated by GIPSA, and the 
efforts of a U.S. team of government and industry representatives who 
reviewed the grain handling, scales, and weighing systems at each of 
PAFMIL's four flour mills, PAFMIL implemented various improvements to 
their weighing and handling systems which resolved their concerns.
    Finally, GIPSA developed and implemented TCK smut certification 
procedures to facilitate the marketing of U.S. wheat to China and India 
in light of their concerns about TCK smut in imported U.S. wheat 
shipments. GIPSA's procedures helped enable the United States to reach 
a trade agreement with China.
    At home, GIPSA regularly holds seminars and meetings to educate 
foreign visitors and customers about the quality and value of U.S. 
grain exports. In fiscal year 2000, GIPSA representatives met in the 
United States with 89 teams from 50 countries to provide information, 
technical guidance, and educational seminars. These international 
outreach efforts help promote greater harmony between U.S. and 
international standards, and foster a better understanding of the U.S. 
grain marketing system, the official U.S. grain standards, the national 
inspection system. This, in turn, reduces the risk of new barriers in 
today's open and freer global marketplace, enhances purchasers' 
confidence in U.S. grain, and facilitates the export of U.S. 
agricultural products.
    The grain program will continue to work to ensure our relevance and 
value to American agriculture. We are reaffirming our commitment to 
facilitating the marketing of U.S. grain by responding to our 
customers' needs and providing the highest quality grain inspection and 
weighing services to all whom we serve.
                    fiscal year 2002 budget request
    GIPSA's budget request for fiscal year 2002 is $32.9 million under 
current law for salaries and expenses and $42.5 million for our 
Inspection and Weighing Services. GIPSA also is submitting legislation 
to collect $3.8 million in new user fees in fiscal year 2002.
    The President's fiscal year 2002 budget proposes a current law 
request for grain inspection of $15.1 million. There are proposed 
increases of $200,000 to support GIPSA's increased role in 
international trade services and trade activities, $500,000 to develop 
an ISO-9000 certification program, $100,000 to process comments on a 
biotechnology rule, and $400,000 to develop and refine technology to 
detect the presence of biotechnology derived grain and genetic traits 
expressed in grain. Proposed legislation of $3.8 million in new user 
fees to cover the costs of grain standardization activities also is 
being submitted. The budget also proposes a request of $17.8 million 
for the Agency's P&S Programs. The budget includes an increase of 
$756,000 for pay costs.
    The $200,000 increase would allow GIPSA to strengthen its role 
international trade services and activities. In the post-GATT 
environment of the World Trade Organization (WTO) and the North 
American Free Trade Agreement (NAFTA), the liberalizing trade 
requirements have prompted some grain and oilseed importing countries 
to create other barriers to limit or restrict market access. GIPSA has 
become increasingly involved in addressing international grain trade 
issues such as emerging sanitary and phytosanitary (SPS) issues and 
other technical barriers to trade.
    Other significant international activities underway include working 
with our Mexican counterparts to develop a centralized grain grading 
system and internal quality control program similar to that used in the 
United States; and a bilateral exchange with China to share information 
and expertise on our respective grain grading systems.
    Our trading partners also are beginning to formulate domestic 
policies on agricultural biotechnology which will have far reaching 
implications. In June 2000, at the request of the Foreign Agricultural 
Service, GIPSA took part in a four-country fact finding mission in Asia 
to share information on the practical implications of implementing laws 
or regulations requiring testing and labeling of grains developed 
through modern biotechnology. These types of exchanges will become 
increasingly important as countries consider new policies to address 
consumers' ``right to know'' or perceived food safety concerns.
    The requested additional funding for fiscal year 2002 will be used 
for salary and benefits for one additional staff person, plus travel 
and related expenses while on long-term temporary overseas assignments.
    The $500,000 increase is to develop an ISO-9000 certification. ISO 
9000 is a quality assurance system standard established by the 
International Organization for Standardization (ISO). The standard 
establishes a quality management system that assures the quality of a 
service or a product through internal process controls. ISO 9000 is 
globally recognized and accepted as a standard designed to produce 
consistent and reliable quality outputs. Through documentation, 
training, quality control measurements, audits, and customer feedback, 
ISO 9000 has become an international industry standard for producing 
quality services and products.
    The U.S. grain industry is experiencing extraordinary and rapid 
changes in the grain marketing structure. Bioengineering and advances 
in information technology serve as a catalyst for this change. New 
value-added products, such as high oil corn, nutritionally dense corn, 
etc., are emerging onto the market at exceptional rates. These new 
value-added products provide producers an opportunity to produce grain 
products at lower costs. Further, information technology advances, such 
as web-based marketing companies, allow the producer to deal directly 
with buyers.
    GIPSA recognizes the changing market will place severe demands on 
the official grain inspection program to properly label and identify 
these various value-added products. In response to these demands, GIPSA 
believes the implementation of an ISO-9000-based program will 
facilitate the marketing of grains and provide producers the 
opportunity to enjoy financial benefits while maintaining minimal 
Federal involvement in the process. Therefore, GIPSA seeks funding to 
develop an ISO-9000 certification program where GIPSA is recognized as 
an ISO certifier.
    GIPSA shall initiate the multi-year process to obtain full national 
accreditation as an ISO-9000 certifier of segmented grain industry 
accreditation entities. Once this goal is achieved, the American public 
and grain industry, in particular, will benefit from increased sales 
due to greater world recognition and confidence in buying U.S. grain 
products that are produced and marketed under the same international 
standards as used in the rest of the world.
    On May 3, 2000, a series of initiatives was announced to strengthen 
the science-based regulations for biotechnology and to improve consumer 
access to information on biotechnology. One specific initiative calls 
for USDA to publish an advance notice of proposed rulemaking (ANPR) in 
the Federal Register to seek input from producers, consumers, industry, 
scientists, and other interested persons on how USDA can best 
facilitate the marketing of grains, oilseeds, fruits, vegetables, and 
nuts in a market that includes both crops derived from biotechnology 
and other crops. At the request of the Department, GIPSA took the lead 
on this initiative, and the ANPR was published on November 30, 2000.
    The ANPR seeks comment in 2 broad areas: (1) current market needs 
and practices and the costs and benefits associated with those 
practices; and (2) the feasibility of and need for, USDA' s involvement 
in quality assurance or other programs to facilitate the marketing of 
these products in today's evolving market place. If the majority of 
commentors recommend that USDA has a role to play in offering or 
overseeing quality assurance or other programs, GIPSA will publish a 
subsequent proposed rule and final rule. Publication of the proposed 
rule with comment period should occur in fiscal year 2001. Comment 
analysis and preparation of a final rule will occur in fiscal year 
2002.
    This rulemaking is being carried out via a web-based system for 
public submission and review of comments. This system provides the 
public with the flexibility to submit comments via the Internet, e-
mail, mail, and fax. All comments received are posted to the website 
and are searchable.
    Maintaining the web structure, and processing and analyzing 
numerous comments will require substantial staff commitment. The 
requested additional funding for fiscal year 2002 will be used for 
salary and benefits, maintaining the web structure, analysis of the 
proposed rule comments, and preparation of a final rule.
    The comments may also identify a need for further studies or 
research prior to publishing a proposed rule. The current commodity 
market is evolving due to biotechnology and ready solutions may not be 
apparent without further study.
    The budget proposes a $400,000 increase for developing and refining 
technology to detect the presence of biotechnology derived grain and 
genetic traits expressed in grain.
    Although GIPSA does not regulate biotechnology, the Agency must 
respond to the accelerated rate at which new crops are entering the 
market due to advances in biotechnology. GIPSA's role is to facilitate 
the marketing of grain and provide grain markets with standardized 
analytical procedures to better assess the value of grain for end use 
and pricing purposes. GIPSA will continue to provide method standards 
and improve the biotechnology reference center designed to assist in 
standardizing the analytical procedures for assessing biotechnology 
derived grains. The fair and orderly marketing of grain is dependent 
upon all in the marketing chain having access to information on the 
true value of grain. It is essential that GIPSA be funded with the 
additional resources for the program to continue. Funds will be 
allocated for proper staffing and purchase of advanced technology for 
the measurement of transgenic material in grain.
    Additionally, there is a proposed decrease of $599,000 for the 
development of a biotechnology reference facility. The fiscal year 2001 
Appropriation included a one-time only increase of $600,000 (less 0.22 
percent rescission) for the development of a biotechnology reference 
facility to provide standardized methodologies and rapid assessments 
used to test bioengineered grains. Development and construction of the 
facility has been completed. The Agency started offering services 
during the first half of fiscal year 2001.
                               conclusion
    Mr. Chairman, this concludes my statement. I appreciate the 
opportunity to testify on behalf of the Grain Inspection, Packers and 
Stockyards Administration (GIPSA). I will be happy to answer any 
questions the Committee may have.
                                 ______
                                 

                Office of the Chief Information Officer

  Prepared Statement of Ira L. Hobbs, Acting Chief Information Officer

    Mr. Chairman and members of the Subcommittee, the Department of 
Agriculture appreciates this opportunity to share with you our 
progress, and the challenges we continue to face, as we utilize 
information technology--IT--resources to improve services and program 
delivery to the American people.
    The Office of the Chief Information Officer--OCIO--provides USDA 
agencies with IT policy guidance and oversight, data center and 
telecommunications operational support services, and desktop support 
for the Office of the Secretary and the USDA National Appeals Division. 
In line with the Clinger Cohen Act, Policy, operational guidance, and 
oversight are provided in areas such as capital planning and investment 
control, information security, privacy, information technology 
architecture, telecommunications, information management and 
collection, and, most recently, electronic government.
    The OCIO also manages the USDA National Information Technology 
Center--NITC--headquartered in Kansas City, Missouri, with a software 
development facility in Ft. Collins, Colorado and a support office in 
Washington, D.C. The NITC, with a $52 million budget funded by USDA's 
Working Capital Fund, provides innovative, cost-effective and secure 
information technology solutions to support the specific missions of 
USDA's agencies. NITC also provides computer services to the Federal 
Aviation Administration, the General Services Administration, and other 
government clients on a reimbursable basis.
    OCIO's goal is to enhance USDA's corporate stewardship of the 
information technology resources that Congress provides. OCIO is 
working in partnership with USDA agencies to address the challenges 
that all institutions face in a rapidly changing information technology 
environment, as well as specific issues facing USDA because of its 
varied missions. Over the past year, we have made measurable progress 
in specific areas, which I will discuss in greater detail later. They 
include:
  --Providing effective leadership and oversight to the Department's 
        Service Center Modernization Initiative--SCMI;
  --Enhancing the security of our financial and information assets and 
        protecting the privacy of our customers;
  --Promoting the development of e-Government at USDA;
  --Improving the management of the Department's telecommunications 
        resources; and
  --Strengthening the management of our human and capital IT assets.
     usda's fiscal year 2002 information technology budget summary
    The Department's overall budget request for information technology 
in fiscal year 2002 totals almost $1.5 billion in budget authority. 
This is higher than the $1.4 billion budget for fiscal year 2001. This 
amount funds staff, hardware/software purchases and support, contractor 
services, telecommunications, and other infrastructure expenditures. 
Almost thirty percent of the total IT spending, approximately $440 
million, funds entitlements which are distributed to the states in 
support of the Food Stamp and the Women, Infants and Children 
programs--this includes Advanced Planning Documents and Electronic 
Benefits Transfer Grants to States. The IT budgets for the county-based 
support agencies, which include the Farm Service Agency--FSA, the 
Natural Resources Conservation Service--NRCS, and the Rural Development 
Mission Area--RD--agencies, total approximately $370 million or 25 
percent of the USDA total IT budget. The USDA Forest Service's IT 
budget of about $315 million comprises another 21 percent of the 
Department's total. Thus 76 percent of the Department's $1.5 billion in 
IT spending is spread across just three mission areas.
    For fiscal year 2002, we estimate that almost forty percent of the 
Department's IT budget will be devoted to infrastructure and office 
automation in support of all program mission areas, while the remaining 
sixty percent will be in direct support of USDA's primary program 
delivery systems.
    To improve the overall corporate management of USDA's IT resources, 
and to take advantage of economies of scale when purchasing IT products 
and support, OCIO has established a Department-wide IT Asset Management 
Team to investigate opportunities for enterprise software licensing to 
improve methods for managing capital asset inventories, and to develop 
USDA IT policy recommendations and guidelines. Through the Team's 
efforts during the past year, several agencies acquired ad hoc query 
and report generation tools and selected software using enterprise-wide 
licensing methods; achieving significant cost savings in the process, 
thereby allowing funds to be used elsewhere by the agencies. This 
demonstrates the possibilities for economies of scale when USDA 
agencies work effectively together to find common solutions. These 
efforts will continue and expand in the foreseeable future.
    service center modernization initiative--information technology
    Mr. Chairman, the Service Center Modernization Initiative remains 
among USDA's highest priorities. This initiative, which includes the 
Common Computing Environment--CCE, is a major cornerstone of our 
modernization and technology improvement efforts. In March 2000, the 
Deputy Secretary modified the OCIO's role from one of oversight only to 
direct management of IT resources provided by Congress for this 
initiative. In response, OCIO established a new structure for managing 
the Service Center Modernization Initiative-Information Technology--
SCMI-IT. This structure relies heavily on the three partner agency 
chief information officers--CIOs--and interagency technical teams 
working with the OCIO project management staff to resolve technical 
issues and manage the nine projects that are crucial to the 
modernization. The Executive Officer of the National Food and 
Agriculture Council is included to maintain coordination with other 
SCMI activities. OCIO also moved forward to fully involve employee 
unions and associations and USDA conservation partners in this 
structure.
    The scope of this initiative includes the program services of the 
Farm Service Agency, the Natural Resources Conservation Service, and 
the Rural Development Mission Area. These county-based agencies 
delivered about $55 billion in farm, conservation and rural development 
programs and services during fiscal year 2000. These services are 
provided through a network of over 5600 county level offices at 2,500 
co-located sites, and a field workforce of 36,000 Federal and FSA 
county employees working with an additional 7,000 conservation district 
employees and 8,000 volunteers. The CCE, together with reengineered 
business processes, will enable USDA customers to do business with the 
Department electronically, maximize data sharing between agencies, 
increase staff efficiencies and provide many other direct customer 
benefits.
    When the SCMI-IT started in 1996/97, IT equipment and systems at 
the Service Centers consisted largely of 1980's and early 1990's 
technology that had been only minimally enhanced. These legacy IT 
systems were acquired and developed independently by each of the three 
Service Center agencies prior to office collocations. Collocation was 
implemented but the necessary funding to ensure that all IT systems 
could be properly integrated under a common IT infrastructure was not 
provided. Nor was a common management structure put into place. 
Instead, Service Centers had to rely on an ad-hoc assortment of 
separate IT systems that could often not be connected. Telephone 
systems were separated, Internet access was limited, multiple word-
processing and spreadsheet software packages were in use, and data 
transmission capabilities were limited. This ``stove-piping'' of 
systems prohibited information sharing among agencies, employees and 
customers, and had a direct impact on the service that employees could 
deliver to customers.
    From fiscal year 1997-fiscal year 2000, significant progress was 
made in addressing portions of the ``stove-pipe'' technology issue. An 
initial shared telecommunications system was installed; about 35,000 
identical workstations with common office automation software and over 
7,500 shareable printers were acquired, as were a small number of other 
devices such as digital cameras, scanners and Global Positioning 
System--GPS--units. Additionally, FSA acquired a legacy system 
connectivity solution. More recently, progress has been made in the 
following key areas:
  --The OCIO Project Management Office working with the Service Center 
        agencies facilitated the development of an integrated operating 
        budget for fiscal year 2001 SCMI-IT activities. The process 
        included the identification of specific activities for each of 
        nine SCMI-IT teams, prioritization of each activity, 
        development of alternatives and presentation and justification 
        to decision makers.
  --USDA communicated an overall plan for SCMI-IT in a new document 
        entitled ``Service Center Modernization Initiative--Information 
        Technology Blueprint.'' The Blueprint provides a clear vision 
        and plan for the IT component of the SCMI. It describes what is 
        being done, why it is being done and how the SCMI-IT will 
        benefit employees and customers.
  --In November 2000, OCIO awarded a contract for network servers for 
        state and field offices of the county-based agencies. The 
        network servers are a linchpin of the CCE and will tie together 
        the nearly 35,000 CCE workstations that have been purchased 
        over the past two years. The servers enable us to manage these 
        workstations from a central location, provide a common e-mail 
        and messaging system, support initial reengineered processes, 
        and provide additional security and remote management tools.
  --To meet the initial requirements of the Freedom to E-file Act and 
        the Government Paperwork Elimination Act--GPEA, two e-
        Government mandates which require online access to farm and 
        other programs by June 2002 and October 2003 respectively, USDA 
        invested $1.3 million in fiscal year 2000 in the Electronic 
        Access Initiative (EAI). The EAI is designed to establish the 
        technological infrastructure needed to support the first phase 
        of providing electronic access for customers. Three mirror 
        image Web farms were put in place during the first quarter of 
        fiscal year 2001. A comprehensive security plan was also 
        developed to guide the implementation activities to ensure 
        safe, secure and reliable access. This infrastructure was used 
        by the agencies to make 52 agency forms available on-line by 
        December 18, 2000, in order to meet the initial requirements of 
        the Freedom to E-File legislation. Currently, over 200 of the 
        Service Center agencies' most widely used forms are now 
        available for farmers and rural customers to access and 
        download via the Internet. Additional forms are being added as 
        they are converted and cleared through the Office of Management 
        and Budget--OMB.
    Major activities this calendar year include the deployment of the 
network servers that were procured in the first quarter. Also, an 
additional $2 million capital investment is planned for the EAI this 
year: about $1 million to build the basic infrastructure capacity and 
$1 million for digital signature and other security-related solutions 
necessary to implement the phased requirements of the Freedom to E-File 
legislation. Other initiatives include updating integrated project 
plans; continuing to strengthen overall project management; 
finalization of all CCE architecture components; continued upgrading of 
CCE workstations; providing adequate training for Service Center 
employees; and upgrading of the Geographical Information Systems 
strategy for Service Center agencies.
    One of the major challenges remaining for SCMI-IT is to ensure that 
affordable telecommunications capacity is available for rapidly 
expanding online services. The Freedom to E-File Act, GPEA, and the 
movement of the agencies to more Web based applications are increasing 
the required telecommunications ``pipe size'' or ``bandwidth''. The 
SCMI-IT Telecommunications team is developing a strategic 
telecommunications plan that identifies current and future bandwidth 
requirements and pilot tests technical alternatives, such as virtual 
private networks and satellite communications, to meet these 
requirements.
    The SCMI-IT Security Team is also developing a comprehensive 
security assessment and plan for the full CCE environment. The plan 
will identify security problems and risks and the actions needed to 
address the risks. Additionally, security monitoring and audit tools 
will be acquired, and a security response team will be established and 
trained over the remainder of fiscal year 2001.
    Two significant and positive changes that have facilitated progress 
in the CCE initiative were (1) OCIO's increased management role over 
the IT portion of SCMI and (2) the new direct appropriations that 
Congress provided for CCE capital investments.
    By the end of this calendar year, all SCMI agencies' employees 
should have access to modern and compatible workstations, the agencies 
will be on a common robust e-mail system, agencies will be able to 
electronically share information among themselves and with customers 
and fully utilize the Internet, and they will be able to reduce the 
technology administration burden on the field through central remote 
management of the systems.
    Your continued support of this effort is essential for completion 
of the CCE and the timely high-quality program services it will bring 
to USDA customers. For fiscal year 2002, $59.4 million, the same as the 
fiscal year 2001 appropriation, is requested to continue the CCE 
implementation. These funds will be used to:
  --Upgrade the telecommunications capacity to support e-Government and 
        Web based internal applications--$15 million;
  --Acquire and deploy large capacity applications servers needed to 
        implement geographic information system--GIS--applications--
        $32.4 million;
  --Purchase long term GIS software licenses for all Service Center 
        agencies--$5.0 million;
  --Complete the EAI Web farm initiative--$1.0 million;
  --Provide training in the technologies--$3.0 million;
  --Support technical architecture, project operations, and computer 
        security improvements--$3.0 million.
    The fiscal year 2002 investments will complete the major server and 
software components of the CCE.
    As you know, the President's fiscal year 2002 budget mentions that 
USDA will merge the IT staff of the three county-based service center 
agencies into one IT service organization. To properly operate and 
maintain the new shared CCE technology, we believe common support is 
both logical and necessary. The details of how to establish this IT 
support have not been worked out. As we look at options for providing 
this support we will work with Congress and other appropriate parties.
                   computer (cyber) systems security
    We are also continuing to focus on cyber-security. We appreciate 
the funding which the Congress made available in the OCIO fiscal year 
2000 and fiscal year 2001 appropriations to strengthen our Cyber-
Security program. With these funds, we have started to build a modern 
cyber-security program equipped with the staff expertise and management 
to identify and address security vulnerabilities across the 
Department's many different agencies, platforms, and networks. Given 
the pervasive and growing nature of the cyber-security threat to all 
organizations, we will continue to implement the cyber-security plan we 
developed in August 1999. The fiscal year 2002 budget request maintains 
funding for the Cyber-Security program at $4.5 million.
    As we have noted in past testimony, the information that USDA 
agencies manage affects both the financial markets and lives of 
individuals. The National Finance Center--NFC--in New Orleans processes 
payroll and administers the Thrift Savings Plan for Federal employees. 
Rural Development's loan portfolio exceeds $80 billion. The data 
collected by the National Agricultural Statistical Service--NASS--is 
vital to the health of our nation's financial markets. Our systems have 
personal and financial information on millions of customers and on each 
of our employees. Even more, USDA is increasingly using the Internet to 
provide customers information about programs and services, and will 
eventually use it to empower them to transact business with the 
Department online. With annual payments totaling billions of dollars, 
we must take prompt and comprehensive action to mitigate what is now an 
unacceptable high risk of data and potential financial losses.
    To implement the Security Action Plan, OCIO has been systematically 
building a USDA Cyber-Security Program. To lead this program, an 
Associate CIO for Cyber-Security was appointed in March 2000. Along 
with acquiring staff and contractor expertise, the OCIO Cyber-Security 
program has actively engaged USDA's agencies in identifying and 
addressing urgent weaknesses in policies and procedures, training, day-
to-day network management, and monitoring and reporting while 
developing more detailed implementation plans. In addition, an advisory 
council consisting of senior executive program officials and IT 
personnel from across the Department has now officially been chartered 
to provide broad input into all aspects of cyber-security program and 
policy development and implementation.
    Over the past year, important progress has been made in several 
areas. For example, the Cyber-Security program is:
  --Continuing to obtain staff expertise to supplement resources 
        already on board. Specialists in Physical Security, 
        Configuration Management, and Access Control have recently been 
        hired. These specialists have already begun to conduct 
        oversight activities, while also providing hands on problem 
        solving, training, and promoting awareness in these 
        specialties. Staff soon to be on board will include two 
        Security Engineers, Telecommunications Specialists, and 
        Security Specialists, as well as an Information Survivability 
        Manager, a Policy Analyst, and a Privacy Analyst.
  --Working closely with the USDA agency IT community to revise 
        existing security policies and procedures, draft new ones, and 
        develop implementation plans to mitigate problems and 
        systematically improve security practices. These include 
        policies on firewalls, reporting, configuration management, 
        unauthorized access, and others.
  --Providing training for USDA security personnel to implement the 
        Department's revised security policies, share best practices, 
        and to address specific problems as they arise continues to be 
        a critical activity for the Cyber-Security program. Training 
        has been conducted in areas such as configuration management, 
        incident response, risk assessment, risk analysis, and Disaster 
        Recovery and Contingency Planning.
  --Conducting onsite reviews at critical facilities, including the 
        National Finance Center and the National Information Technology 
        Center. The reviews are designed to determine if security 
        measures, both in place and planned, are adequate to protect 
        the integrity, availability and safety of information 
        resources.
  --Making risk assessments an integral part of USDA's security program 
        by using industry expertise to develop comprehensive 
        methodologies that will provide agencies with standardized 
        tools and techniques for performing assessments.
  --Employing contract expertise to assist with the definition of USDA 
        security architecture requirements, establishment of the 
        Department's security baseline and the development of a 
        security architecture methodology.
    These activities, as well as the policy changes noted before, have 
already yielded noticeable results. Through implementing the technical 
and procedural changes mandated by the firewall and server guidance, 
the Department has in effect started the process of ``tightening'' its 
networks and ``hardening'' its computers so they are less susceptible 
to intrusion and exploitation. USDA has changed its approach to cyber-
security management and operation. Instead of permitting all electronic 
data and flows to enter our networks and run on our systems, we now 
permit access only to authorized services related to USDA business 
needs. This represents a fundamental, 180-degree paradigm shift in 
USDA's computer security framework.
    These initiatives are focused on strengthening information security 
management at the corporate level. However, while we strengthen the 
Department's perimeter, individual agencies are also deploying a wide 
range of security mechanisms. These are critical, as the Department is 
only as secure as its weakest link. The NFC, the NASS, the Agricultural 
Marketing Service, and other agencies are continuing to protect the 
valuable information assets that they manage by deploying firewalls, 
intrusion detection systems, and public key infrastructures.
    Each of these agency-specific efforts is important; however, I must 
reiterate that USDA is only as secure as its weakest link. When fully 
implemented, the plan we have developed will ensure that USDA 
implements comprehensive security practices, while increasing our 
ability to materially enhance our security in an environment where the 
challenges will continue to grow exponentially.
                              e-government
    Strengthening cyber-security is even more critical as the 
Department increasingly makes programs and services available online in 
response to public expectations, and legislative and Administration 
mandates. In addition, GPEA, the Freedom to E-file Act, the Office of 
Management and Budget--OMB--Performance Goals and Management 
Initiatives for the fiscal year 2002 Budget, and other mandates all 
stress the President's vision of a government that has a citizen-based 
focus, is results-oriented, and, where practicable, market-driven. OMB 
notes that expanding the application of online procurement and other e-
Government services and information is one of five major reform 
initiatives highlighted by the President.
    E-Government represents a fundamental change in the way USDA 
agencies deliver programs and services, as well as how we process 
administrative functions. Most USDA agencies are continuing to expand 
the amount of information available to customers and employees online. 
During the past year the county-based agencies, working with OCIO, 
agreed upon and began implementing a common Web farm infrastructure to 
forge a more consistent approach to placing farm programs online. Other 
important applications, for instance are the export/import licenses 
managed by the Animal and Plant Health Inspection Service, and 
financial disclosure forms that some USDA employees are required to 
complete, are also now available online.
    Notwithstanding these and other successes, coordinating and 
directing this process across the Department presents significant 
challenges for USDA's programmatic leaders, as well as the information 
technology community. In most cases, the host of Web sites run by USDA 
agencies are supported by scores of servers, and other technology, 
which is decentralized and often redundant across agencies. Web enabled 
applications are often developed without adequate consideration of the 
impact on the Department's telecommunications network, and in an 
environment where we cannot effectively leverage each agency's 
initiatives across the Department. More efforts need to be made to 
share solutions and best practices across agencies.
    In addition to improving coordination across USDA, program and IT 
leaders are faced with other critical challenges. These include:
  --Managing the change to e-Government while maintaining existing 
        program models;
  --Prioritizing e-Government initiatives;
  --Reengineering USDA's business processes to be customer-centered and 
        optimized for the Internet;
  --Funding e-Government initiatives within existing budgets; and
  --Building a secure, reliable, technical infrastructure capable of 
        delivering programs and information 24 hours a day, 7 days a 
        week, 365 days a year.
    The Department has taken initial steps towards developing a 
coordinated management framework to guide USDA's transition to 
electronic government. The Chief Information Officer has been charged 
with coordinating Department-wide e-Government planning and 
implementation. A senior management position, the e-Business Executive, 
was established within the OCIO to lead the effort. Further, each 
mission area has appointed a Senior Executive Program Leader to serve 
on an Executive e-Government Council and work with the e-Business 
Executive to develop plans to implement GPEA, Freedom to E-file and 
other e-Government initiatives. USDA's initial GPEA plans were 
submitted to OMB on October 31, 2000. The Executive Council will 
develop and articulate USDA's corporate vision for e-Government and be 
responsible for the ongoing planning and implementation of e-Government 
initiatives. Key tasks for implementing e-Government at USDA include:
  --Developing a Department-wide strategy and standards, and 
        determining baselines and performance metrics, as required by 
        Presidential Memorandum, to move towards a digital Department;
  --Identifying innovative e-Government and e-Business applications 
        within the private sector and other federal agencies, and 
        sharing best practices with USDA agencies, focusing on 
        mitigating risks;
  --Ensuring that USDA's e-Government initiatives meet customer needs 
        through outreach and other customer assessment initiatives;
  --Analyzing e-Government applications within USDA agencies, 
        determining where possible linkages exist, and, where 
        practical, leveraging successes across the Department;
  --Improving coordination and developing standardized approaches to 
        cross-cutting issues, including: use of the Internet, Intranet, 
        and Extranet, data warehousing, data mining, electronic mail 
        and other electronic directories, online forms, privacy, and 
        training our IT staff to integrate Web-based applications into 
        the Department's technical infrastructure; and
  --Working with state and local partners, and other agencies, to 
        develop applications that utilize the Internet to actually 
        conduct e-Business from a customer-centric perspective.
    These tasks will demand a tremendous amount of time and resources 
from USDA agencies. The Department is developing a corporate strategy 
for e-Government to ensure that we maximize the resources that are 
being devoted to this effort. In this effort, our emphasis is on 
leveraging solutions and capitalizing on lessons learned across USDA.
                     enterprise network initiative
    The diverse set of programs that USDA supports require substantial 
telecommunications resources. As noted earlier, the Service Center 
modernization efforts, and especially e-Government initiatives, are 
also rapidly creating additional requirements for the increased 
bandwidth services and telecommunications equipment necessary to 
operate effectively and securely in an online environment.
    The Department's telecommunications networks can be compared to the 
nation's highway system. Many local and State roads and highways feed 
into the Interstate system--an enterprise network of sorts that allows 
high volume traffic to flow across the country. The enterprise 
telecommunications backbone consists of a corporate network (interstate 
highway) with feeder networks (primary and secondary roads) managed at 
the agency level.
    Our vision is to develop a modern and efficient enterprise/
corporate network. During the past year, the Department forged a 
significant agreement towards realizing this vision. For the first 
time, and after considerable effort by OCIO, several USDA agency Chief 
Information Officers (including those serving the county-based 
agencies, the food and nutrition programs, and the Forest Service) have 
agreed to and signed off on the fundamental vision for developing and 
operating a shared corporate telecommunications network consistent with 
the Department's integrated information technology architecture. As 
envisioned, the Universal Telecommunications Network (UTN) will 
provide:
  --a robust corporate telecommunications network that meets agency/
        Department business requirements;
  --a stable technical architecture which efficiently integrates 
        telecommunications and security components and is flexible to 
        changes in requirements;
  --cost-effective, secure, and reliable services twenty-four hours a 
        day, seven days a week (24x7);
  --the full range of network management functions (i.e., network 
        coordination and monitoring, and fault, performance, 
        accounting, configuration, and security management); and,
  --Service Level Agreements (SLAs) to ensure that services are 
        delivered consistent with mutually agreed-upon performance 
        metrics.
    The collective endorsement of the UTN is a significant milestone 
towards our ongoing efforts to improve management of USDA's 
telecommunications networks. The UTN will allow USDA to take advantage 
of economies of scale and provide the potential to acquire best value 
telecommunications services by maximizing our collective buying power. 
This includes obtaining the lowest possible price to design and deploy 
new telecommunications technology across the Department.
            strengthening information technology management
    Also critical to our ability to improve management of USDA's 
information technology resources are our ongoing efforts to utilize 
capital planning and investment controls, establish our architecture, 
and implement other aspects of the Clinger-Cohen Act. These will 
continue to be high priority activities for us in fiscal year 2002.
    The Capital Planning Investment and Control or CPIC process is key 
to our capacity to strengthen the corporate management of the 
Department's IT resources. The goal of CPIC is to help agencies better 
plan for, acquire, and implement information systems to improve their 
operating performance. CPIC permits the Department to make more 
informed and intelligent investment decisions regarding IT capital 
acquisitions. Through USDA's Capital Planning Process, the Executive 
Information Technology Investment Review Board--EITIRB, which is 
chaired by the Deputy Secretary, reviews, monitors and approves the 
Department-wide information technology investments in support of USDA 
business objectives. The EITIRB's review ensures that the Department's 
major IT investments are fully aligned with its business processes and 
architecture, and that the corporate impacts of these investments have 
been fully considered.
    Major capital investments in the Department's fiscal year 2002 IT 
investment portfolio continue to include: the Service Center 
Modernization Initiative; the Forest Service 615 Project, which has 
replaced old Data General hardware and software throughout the agency; 
and the ongoing deployment of the Foundation Financial Information 
System, the core accounting software designed to consolidate over 100 
separate financial reporting systems and help USDA conform to the 
requirements of the Federal Financial Manager's Integrity Act.
    The CPIC procedure for major systems is supplemented by a 
moratorium on all ``significant'' IT acquisitions that has been in 
place since November 12, 1996. No significant IT acquisitions are to be 
made unless the CIO issues a waiver from the moratorium. Since the 
beginning of the moratorium, more than 700 acquisitions have been 
approved through this waiver process.
    USDA has also standardized the means by which project managers 
report information on investments. All USDA agencies are using the 
Information Technology Investment Portfolio System (I-TIPS), an 
enterprise-wide, automated system for inventorying, documenting, 
prioritizing, tracking and evaluating potential IT investments. USDA's 
entire IT portfolio--comprising approximately 600 investments--is 
currently in I-TIPS. With I-TIPS in place, USDA agencies now have a 
convenient tool for capturing baseline information and tracking current 
updates on projects' costs, schedules, risks and benefits.
                           usda architecture
    In September 2000, USDA issued Version 2 of its ``USDA Enterprise 
Architecture''--EA, which provides the vision, principles, standards, 
concepts, methods, and governance framework for an enterprise-centric 
approach for information and information technology architecture. EA 
Version 2:
  --Contains a high-level description of USDA's current enterprise 
        architecture;
  --  Establishes a future architecture direction that supports USDA's 
        vision of electronic government;
  --Lays out the concepts underlying the implementation of the EA;
  --Sets forth principles and technical standards guiding future 
        investments; and
  --Documents the transition to a more enterprise-centric environment 
        through an established governance system that will guide the EA 
        implementation process.
                           workforce planning
    Last, but perhaps most important, is the issue of workforce 
planning. Effectively managing its IT resources requires USDA and other 
Federal departments to recruit and retain highly skilled information 
technology employees trained in Federal IT management. We also face the 
challenge of competing with the private sector to recruit and retain 
skilled IT professionals. Towards this end, we are working with USDA's 
human resources community to implement a professional development 
strategy that includes the recruitment and retention of IT 
professionals across the Department.
    In November 2000, OCIO released a comprehensive report, Analysis of 
USDA's IT Workforce, which was presented to the USDA community. The 
report analyzed the seven major IT job series represented in the USDA 
workforce from 1996 to 2000. It used computer modeling based on various 
assumptions about future hiring and retirement patterns to forecast 
workforce trends through 2005. The report concluded that USDA faces the 
following three major IT workforce challenges: 1) growing retirement 
eligibility, 2) high turnover rates at lower grade levels, and 3) 
rising average grade levels, leading to a reduced number of employees 
in the IT developmental pipeline.
    To develop strategies to address these issues, OCIO, together with 
the USDA Office of Human Resources Management, is overseeing the 
Department-wide IT-Human Resources--HR--Workforce Planning and 
Development Working Group. The working group is comprised of HR and IT 
specialists from various agencies. They are focusing on major hurdles 
identified by the agencies such as pay differentials between government 
and private industry, the need for stronger IT management by IT and 
non-IT managers throughout the Department, more IT training 
opportunities within the Department, the need for a more thorough exit 
interview process, institution of retention bonuses such as transport 
incentives, and the need for closer IT-HR collaboration in order to 
improve the recruitment and retention of IT personnel. The Group serves 
a critical role in the Department-wide development and implementation 
of IT skills assessments and training delivery.
    OCIO also continues to play an active role in addressing IT 
workforce issues at the Federal level. I serve as co-chair of the 
Federal CIO Council IT Workforce Committee. This has resulted in a very 
active and visible role for USDA in the government's IT workforce 
improvement agenda. USDA's staff is particularly involved in two of the 
Committee's major agenda items, government-wide implementation of the 
Clinger-Cohen core competencies and implementation of recommendations 
cited in the CIO Council's report, Meeting the Federal IT Workforce 
Challenge (June, 1999).
    USDA is also engaged in successful collaboration and partnership 
with the Office of Personnel Management--OPM, a necessary step for 
improving the Department's IT workforce. Two USDA agencies are 
participating in OPM's ongoing IT jobs pilot program, which uses a 
competency-based approach to human resources management. USDA has also 
supported the following OPM activities: revision of the classification 
and qualification standards for IT occupations, development of new IT 
parenthetical specialty titles, and contracting with the National 
Academy of Public Administration to conduct a Comparative Study of IT 
Pay Systems, which will make recommendations on how the federal 
government can better compete for IT talent. Additionally, USDA 
supported OPM in its approval of a government-wide special salary rate 
for certain IT employees that went into effect in January 2001.
                               conclusion
    Mr. Chairman, members of the Committee, the Department of 
Agriculture faces critical challenges as it transitions into this new 
e-Government era of providing services to our customers online. To meet 
these challenges, we are strengthening our Cyber-Security program to 
better protect our growing information assets; we are designing a 
telecommunications network capable of supporting the increased online 
demands we all expect; and we are coordinating a Department-wide e-
Government effort to ensure customers and staff can easily access and 
use these new Internet-based services.
    We are also focusing on the Service Center Modernization 
Initiative, which will bring USDA's county offices into the 21st 
century while reducing the burden on our customers. The Common 
Computing Environment is key to effectively modernizing the services we 
deliver to farmers, ranchers, and other customers of our county-based 
agencies. This effort continues to be among the Department's highest 
information technology priorities.
    Finally, by strengthening the overall management of USDA's IT 
resources through our maturing capital planning investment and control 
process and our IT workforce initiatives, we are well on our way to 
realizing the benefits envisioned in the Clinger-Cohen Act.
    We ask for your support for these initiatives, and look forward to 
working with you in the Congress to achieve these important objectives.
                                 ______
                                 

                      Departmental Administration

    Prepared Statement of Paul W. Fiddick, Assistant Secretary for 
                             Administration

    Mr. Chairman and members of the Subcommittee, I want to thank you 
for the opportunity to submit this statement supporting the President's 
budget proposal for fiscal year 2002 for USDA Departmental 
Administration. As you are aware, Departmental Administration takes in 
a wide range of activities and responsibilities. Our mission is to 
provide leadership in administrative areas and to provide those 
services that make the farm and other programs of the Department work 
better. Today, I want to report to you on some of our activities over 
the last year and indicate some of the administrative challenges facing 
the Department.
                              civil rights
    The Office of Civil Rights provides overall leadership and 
direction to USDA agencies to ensure enforcement and compliance with 
civil rights laws, rules and regulations in employment and program 
delivery; and to ensure that all USDA customers and employees are 
treated fairly with dignity and respect. Where necessary, the Office of 
Civil Rights (CR) mandates corrective action to make sure these 
standards are maintained.
    Major activities include policy development, education and 
technical assistance, analysis and evaluation of USDA programs and 
activities to ensure equal access and participation, and resolution of 
employment and program discrimination complaints.
    Civil Rights Impact Analyses have been conducted on 100 percent of 
new and revised significant USDA regulations to ensure that USDA 
program policies and procedures comply with applicable statutes and 
regulations.
    As of March 2001, a total of 85,061 USDA employees had completed 
civil rights training since January 1, 2000. The training was made 
available in both Spanish and English, and in alternative formats such 
as large print and Braille. Fifty-four percent of the trainees 
completed the training online, the first effort of this magnitude in 
the Federal Government. Beginning in summer 2000, diversity training 
has been provided for managers and supervisors in the Washington, D.C. 
area. Training will be completed in May 2001. In addition, training is 
being provided as a result of recommendations from several USDA 
employee listening sessions in the summer of 2000 to train all USDA 
managers and supervisors on employment-related areas including conflict 
management and effective communication with employees.
    With regard to complaints processing, of the 1,088 program 
complaints in the backlog as of January 1997, all but two cases have 
been resolved. During the period of October 1999 to January 31, 2001, 
the number of open program discrimination complaints was reduced from 
1,248 to 508, a 60 percent reduction. During that same period, the 
average processing time for program cases was reduced by 12 days.
    An analysis of employment complaint filing trends in the current 
USDA employment caseload shows that a substantial number of the 
complaints were filed by a few employees who file multiple complaints. 
Of the 1,870 employment cases being processed as of January 31, 2001, 
749 were filed by just 235 employees. These numbers show that two-
tenths of one percent of USDA's workforce accounts for 40 percent of 
all employment complaints in the system. USDA is using several methods 
to resolve and reduce the number of discrimination complaints: early 
intervention, mediation, and various alternative dispute resolution 
methods.
                                outreach
    During fiscal year 2001, Office of Outreach's priority is to 
identify a measure for minority participation in USDA programs and 
identify effective outreach measures. Using agency outreach plans and 
census data, barriers to participation of underserved groups and the 
means to overcome the barriers will be identified.
    The Outreach for Socially Disadvantaged Farmers grants (``2501'' 
Program) provides training and technical assistance to underserved 
groups of farmers and ranchers. The President's Budget requests that 
the program be maintained at the fiscal year 2001 appropriated level of 
$3 million.
              small and disadvantaged business utilization
    During fiscal year 2000, the Office of Small and Disadvantaged 
Business Utilization (OSDBU), cosponsored with USDA's Rural Business-
Cooperative Service and the University of Nebraska, a symposium on 
``Innovative Strategies for Small and Limited Resource Agricultural 
Producers.'' This symposium brought together a number of the nation's 
leading figures in small farm innovations and as a result of the 
symposium, several of the participants initiated projects in future 
agriculture and food systems.
    Also in fiscal year 2000, OSDBU led two projects addressing small 
business capabilities and barriers to dealing with e-Commerce and e-
Government for Native American and Hispanic-owned businesses. Iowa 
State University is currently conducting a survey of Native American 
business in the twelve states in the North Central Plains; and 
Southwest Texas State University is surveying Hispanic businesses on a 
nationwide basis. The results of these studies will be used to help 
direct effective USDA-sponsored technical and other program assistance 
to these groups.
    During fiscal year 2001, OSDBU has also been working 
collaboratively with the Department's Rural Development agencies, the 
Agricultural Marketing Service, the Farm Service Agency, and the 
Department of Defense (DOD) to develop a USDA Mentor-Protege Program 
based on the DOD model. The proposed program would provide incentives 
for USDA prime contractors in food manufacturing to help small 
disadvantaged businesses and women-owned small businesses develop 
technical and business capabilities.
                   conflict prevention and resolution
    Since 1998, the Conflict Prevention and Resolution Center has led 
the Department's conflict prevention and resolution activities, 
focusing especially on the use of Alternative Dispute Resolution (ADR). 
This office has provided agencies with guidance and assistance that has 
led to the development of new ADR programs and expansion and 
improvement of others. In fiscal year 2000, an ADR policy was 
established that encouraged the use of ADR in workplace and program 
disputes. There was a 40 per cent increase in the use of ADR to resolve 
workplace disputes over fiscal year 1999. Also in fiscal year 2000, a 
video was created to help employees understand mediation, and the 
first-ever National Mediator Training Conference was held for employees 
who mediate workplace disputes. The Center developed a model conflict 
management-training package, and trained managers in Departmental 
Administration.
    In fiscal year 2001, Departmental Administration will issue new 
policy for using ADR to resolve disputes in the EEO complaint process, 
and will expand its ADR policy for other types of disputes. The Center 
and the Office of Civil Rights are working collaboratively to ensure 
that ADR is more widely used to resolve EEO complaints. Also, a Guide 
explaining the many options available to employees to resolve workplace 
conflict has been published and is being distributed to USDA employees 
nationwide. The Center will be actively promoting greater use of ADR 
and other collaborative processes to resolve program disputes, and will 
continue to promote conflict management and ADR training for employees 
and managers. Finally, the Center is developing a tracking system to 
monitor conflict prevention and resolution activity.
                     crisis planning and management
    In October 1998, the Department was directed to develop contingency 
plans to ensure the continuity of operations during a full range of 
potential emergencies, including the potential for terrorist use of 
weapons of mass destruction. Departmental Administration was assigned 
the lead responsibility for the development of the USDA Headquarters 
Continuity of Operations (COOP) Plan. It covers the essential functions 
of USDA agencies located in 18 buildings in the National Capital 
Region, and includes provisions for: lines of succession; emergency 
delegations of authority, where permissible and in accordance with law; 
the safekeeping of vital resources, facilities, and records; emergency 
acquisition of resources to reestablish essential functions; and the 
identification of emergency relocation sites.
    Three exercises were conducted in the late summer and early fall of 
1999 to test and fine-tune the COOP Plan. Throughout fiscal year 2000 
we continued these efforts by conducting a formal assessment with FEMA; 
adding a Family Assistance annex to assist USDA employees in better 
preparing for a COOP emergency; and updating COOP emergency relocation 
site planning. In fiscal year 2000, we also prepared for the Y2K 
Millennium rollover and assisted in the disaster response and recovery 
efforts resulting from Hurricane Floyd.
    In December 2000, the Office of Crisis Planning and Management 
(OCPM) was created. In addition to its other functions, OCPM 
coordinates activities among USDA agencies and other Federal entities 
in response to potential domestic outbreak of foreign animal diseases.
                federal excess personal property program
    Section 923 of the Federal Agriculture Improvement and Reform Act 
(FAIR) of 1996, authorized the Secretary of Agriculture to acquire and 
transfer excess Federal personal property to any of the 1994 Tribal 
Institutions, Hispanic-Serving Institutions, and the 1890 colleges and 
universities, including Tuskegee University. In fiscal year 2000, the 
Office of Procurement and Property Management (OPPM) transferred $3.2 
million worth of personal property under the program, bringing the 
total to greater than $7.7 million since the program began in fiscal 
year 1999. This program provides much needed property and equipment to 
institutions that otherwise would not be able to acquire property due 
to limited funds and will improve the institutions' capability in the 
areas of research, educational, technical, and scientific activities.
    In May 2000, OPPM also published a Federal Excess Personal Property 
handbook that was distributed to eligible Institutions to provide a 
clear understanding of how the program works, what it takes to get 
started, and key points of contact. This handbook is also available on 
the Internet. We continue our efforts to inform the eligible 
institutions on this program.
                    biobased products and bioenergy
    The Department's support and promotion of biobased products and 
bioenergy in fiscal year 2000 resulted in an estimated 100,000 gallons 
of biodiesel fuel being used in USDA vehicles and equipment. The 
Agricultural Research Service Center in Beltsville, Maryland has taken 
the lead in biodiesel use. This winter, a biodiesel heating oil blend 
was used to heat twelve buildings at the site on a demonstration basis.
    Based on USDA's experience, other Federal agencies such as the 
Department of Energy and the Department of Interior's National Park 
Service, have begun purchasing biodiesel for their fleets as part of 
the overall federal petroleum reduction strategy.
                           procurement policy
    During fiscal year 2001, USDA will be implementing FedBizOpps to 
electronically advertise our contracting opportunities and furnish 
solicitation copies via the Internet and will work to increase the use 
of Performance Based Service Contracting (PBSC). In fiscal year 2000, 
use of PBSC contracts increased slightly, but much more needs to be 
done. We are setting a very ambitious target for fiscal year 2002 and 
developing a strategic plan to deal with the barriers to increasing 
PBCS contract use.
                       human resources management
    The Office of Human Resources Management (OHRM) is providing 
leadership and oversight for the workforce planning process by 
providing assistance to attract, develop, and retain the quality and 
representative workforce USDA agencies and staff offices need to 
accomplish their missions. Workforce planning is critical for the 
effective and efficient use of human resources to ensure optimal 
alignment with the budget and program planning processes.
    Downsizing has resulted in serious skills mix issues, an aging 
workforce, and training deficiencies in the Federal workforce. As a 
result, the General Accounting Office has recently put human capital 
management on the list of Federal programs and operations that it 
considers to be ``high risk.'' That designation, coupled with the very 
real challenges that USDA and other agencies face in rebuilding 
talented workforces after several years of downsizing, should result in 
much greater emphasis on workforce planning, recruitment and retention 
strategies, and succession planning.
    As USDA agency workforces decline and the demand for workplace 
personnel flexibility increases, it will be imperative that we be able 
to track and manage human resources management information. The current 
personnel systems cannot meet the future needs of workforce management. 
To bring this capability up to the level needed to support critical 
program missions, we are working to replace the outdated administrative 
systems with systems based on newer technology.
    OPM has changed its regulations governing performance appraisal in 
the Senior Executive Service. These changes include the incorporation 
of balanced measures in evaluating executive performance. USDA is 
required to evaluate executive performance starting in October 2001 
using measures that balance organizational results with customer 
satisfaction, employee perspectives and other measures that are 
appropriate. OHRM has established a departmentwide task group that will 
develop a plan to implement the requirements and draft a new SES 
performance plan that incorporates balanced measures.
                       government ethics program
    The Office of Ethics will enter its third year commencing in fiscal 
year 2002. It has quickly established itself to service directly all 
non-career appointees and all senior executive throughout the 
Department and to provide ethics policy and training for all USDA 
staff. In order the reach all USDA staff, stationed all over the world, 
the office employed an Internet Web Site as its principal tool for 
training and financial disclosure reporting. The success of this 
approach has attracted many other Federal Departments and Agencies also 
to employ the USDA ethics web site as their vehicle for training and 
reporting. This informal and gratis cross servicing has saved many 
thousands of dollars in what would be duplicative development work 
within the Executive Branch.
                  agriculture buildings and facilities
    The Fiscal Year 2002 Budget requests $188 million for Agriculture 
Buildings and Facilities and Rental Payments. This amount includes an 
increase of $5 million for rental payments to the General Services 
Administration and continues to fund renovation of the South Building. 
The building is 10 years older than the Pentagon and is in dire need of 
repair and renovation to make it safe, efficient, and functional. The 
required renovation work includes fire protection systems, abatement of 
hazardous materials, and replacement of over-aged and inefficient 
utility systems. Phase 1 of the renovation is complete and Wing 3 has 
been reoccupied. We are expecting to begin Phase 2 construction later 
this year and complete the detailed design of Phase 3 so that 
construction contracts will be ready for procurement in fiscal year 
2002.
                     hazardous materials management
    The Hazardous Materials Management Program is needed to meet USDA 
compliance responsibilities under the Comprehensive Environmental 
Response, Compensation and Liability Act, the Resource Conservation and 
Recovery Act, and related state and local laws and regulations and to 
meet the USDA goal of completion of all cleanup actions by the year 
2045. Activities supported by this program contribute directly to 
USDA's strategic goal of maintaining and enhancing the Nation's natural 
resources and environment.
    We must cleanup and restore lands and facilities currently and 
formerly under USDA jurisdiction, custody, and control and ensure 
responsible management in the use, storage, and disposal of hazardous 
materials and waste. USDA cleaned up 29 sites in fiscal year 2000, 
plans to cleanup 61 sites in fiscal year 2001, and since 1987, has 
cleaned up over 2,200 sites resulting from USDA activities or 
activities attributed to non-USDA parties. However, the cleanup of 
environmentally damaged sites is becoming more challenging as the 
smaller, less complex sites have already been dealt with.
                          direct appropriation
    For the direct Departmental Administration appropriation, the 
Budget requests $37 million. This amount is $1 million above the fiscal 
year 2001 appropriation level providing for the mandatory pay cost 
increases. The increase is needed in this relatively small organization 
to avoid the erosion of critical operational and support capabilities.
                               conclusion
    Mr. Chairman and members of the Subcommittee, this concludes my 
statement on the Departmental Administration budget for fiscal year 
2002. I want to reiterate our appreciation for the strong support which 
this Subcommittee has given us.
                                 ______
                                 

                         Rural Housing Service

       Prepared Statement of James C. Alsop, Acting Administrator

    Mr. Chairman and members of the Committee, thank you for this 
opportunity to testify on the Rural Housing Service's fiscal year 2002 
Budget Proposal.
    The Department of Agriculture's Rural Housing Service (RHS) assists 
rural America in a variety of ways. Our loan and grant programs promote 
healthy rural communities by helping to provide decent and affordable 
housing as well as essential community services, such as fire 
protection, health care centers, and childcare centers. Through 
partnerships with the private, public, and nonprofit sectors, RHS 
provides financial and technical assistance to low-income families and 
rural communities. RHS helps those who do not have effective access to 
credit because of the isolated nature or small scale of rural markets. 
We also provide credit to low-income families and communities that 
otherwise could not afford mortgage or other debt service payments.
    With the $5.8 billion program funding for fiscal year 2002, RHS 
will provide assistance to more than 67,000 households for single-
family housing homeownership or repairs, construct more than 5,200 new 
rental-housing units, and provide rental assistance to more than 42,000 
very low-income rural renters. Additionally, the fiscal year 2002 
budget will provide support for more than 170 new or improved health 
care facilities, more than 150 new or improved fire and rescue 
facilities, and more than 80 new or improved childcare facilities. It 
also will create or preserve more than 40,000 jobs in rural America and 
serve more than 13 million rural Americans.
    In this era of unprecedented economic prosperity, RHS programs 
ensure that some of rural America's most vulnerable members, including 
low-income elderly, children, farm workers, and Native Americans, share 
in our Nation's good fortune. Let me show you some examples of how we 
have assisted rural America.
            rhs homeownership programs reach the underserved
    In fiscal year 2000, RHS celebrated the 50th anniversary of the 
Section 502 direct loan homeownership program. During the past 50 
years, the program has made tremendous strides in improving the overall 
quality and affordability of the Nation's rural housing stock. Our 
customers are happy with their homes. According to a recent Economic 
Research Service (ERS) report titled Meeting the Housing Needs of Rural 
Residents, 90 percent of recent Section 502 direct loan borrowers think 
that their current home is better than their last one. These same 
satisfied customers are people whom the private market has difficulty 
serving. Ninety percent say that without assistance from us it would 
have taken them more than two years to purchase a comparable home, and 
44 percent believe they could never have purchased a home without the 
Section 502 direct loan program. Twenty-nine percent of RHS borrowers 
are members of minority groups as compared to 15 percent of all recent 
low-income homeowners, and 32 percent of our customers are female 
single parents, as compared to 12 percent of all recent low-income 
homeowners. In addition, 15 percent of Section 502 households have at 
least one member with a disability. Almost three-quarters of the 
borrowers surveyed were first-time homeowners. The typical Section 502 
financed house is a six-year old, detached single-family dwelling with 
three bedrooms and one bathroom. The median purchase price was about 
$64,900.
    In Cantril, Iowa, a single mother with four children was sent to 
RHS by the local bank to see about getting a repair loan for her 
dilapidated home, which had bad wiring and an unsafe furnace. An 
inspection of the home showed it to be uneconomical to repair. However, 
the local Rural Development office found the applicant qualified for a 
Section 502 direct loan to buy or build a house. Because the old house 
is located on a double lot, there is space to build the new house 
alongside the old one. The family will move into the new home and the 
old one will be demolished. Not only will the family have greatly 
improved housing conditions, but the community will benefit by the 
replacement of a deteriorated house with a modern, attractive home.
    In fiscal year 2002, the Budget proposes to direct just over $1 
billion through the Section 502 direct loan program to low- and very-
low income residents who have no other hope of achieving homeownership. 
These funds will enable more than 15,500 low-income rural Americans to 
become homeowners. An additional $3.1 billion in the Guaranteed Section 
502 program will help about 40,000 low- and moderate-income rural 
households become homeowners. In fact, 30 percent of the loans made in 
the Guaranteed Loan program were made to low-income rural residents. 
That helped stretch the Agency's 502 Direct loan funds and reinforced 
the critical role Rural Development plays in housing rural residents. 
Based on the estimates used by the National Association of Home 
Builders, the fiscal year 2002 budget will help create about 36,000 
jobs through the construction of new homes.
    The proposed fiscal year 2002 Self-Help Housing Technical 
Assistance Grants program has a funding level of nearly $34 million. By 
allowing families to earn ``sweat equity'' by helping to build their 
own homes, the Self-Help program makes housing affordable for many 
hard-working, very low-income families who otherwise would never be 
able to own their own homes. About half of the program's participants 
are members of minority groups, and a significant portion is 
farmworkers. The program requirements are tough: participants must 
contribute 65 percent of the labor towards construction of their homes. 
Because owning a home is so important to them, these families are 
willing to work at their regular jobs and then put in as much as 35 
hours a week building their houses. We anticipate that the fiscal year 
2002 budget will allow RHS to gain approximately 20 new technical 
assistance grants in those areas that currently do not have Self-Help 
programs. This, in turn, will enable more than 1,500 families to build 
their own homes.
    The Pine Ridge Indian Reservation in South Dakota, the second 
largest reservation in the Nation, desperately needs inexpensive 
housing. RHS has funded a number of different housing developments on 
the reservation. One of these is a unique self-help housing program. 
Self-help housing is natural for Native Americans who are accustomed to 
helping family and neighbors build their homes. The Oglala Sioux Tribe 
Partnership for Housing worked with RHS to tailor the program to the 
needs of Native Americans. Floor plans are designed with input from the 
program participants. Homebuyer education is offered to participants to 
assist them in buying and maintaining their homes. Instead of being 
located in one development, the homes are built by the self-help 
participants in a construction yard and then moved to individual sites 
on land already owned by the various families throughout the 
reservation. This allows the participants to live near their extended 
families. In addition to funding the self-help program, RHS provides 
mortgage assistance to many of the homebuilders.
   rhs partners with private and nonprofit organizations to increase 
                      homeownership opportunities
    Homeownership can have a tremendous impact on families' lives and 
on the strength of rural communities. However, RHS cannot address this 
issue alone. We must work with partners. Leveraging has become an 
integral part of how we do business. RHS is collaborating with a number 
of private and public partners to meet the housing needs of low-income 
families and individuals.
    RHS originally established the Rural Home Loan Partnership (RHLP) 
as a pilot project initiated with the Federal Home Loan Bank System 
(FHLB) and the Rural Local Initiatives Support Corporation. Now, RHS 
has expanded the RHLP to include other partners. In the RHLP, a local 
nonprofit or community development corporation partners with a local 
lender and RHS provide homeownership education and single-family 
mortgages to very-low- and low-income rural residents. In fiscal year 
2000, the RHLP produced 1,334 new homeowners using $76 million in RHS 
loans and grants and $27.6 million from other lenders. For every dollar 
RHS invests in affordable housing, an RHLP partner contributes another 
36 cents. The first year's success began with 10 local partnerships; 
the pilot has expanded each year to its current level of 263 partners.
    In Batavia, New York, the RHLP Program helped a family of three 
teenagers and their mother buy a home. RHS partnered with Rural 
Opportunities, Inc., (ROI) and the Bank of Castile to create the loan 
package for this family. The borrower attended the homebuyer education 
class presented by ROI, which helped her understand the loan 
application process as well as budgeting and figuring what loan 
payments she could afford. The end result was an affordable home for 
the family. In fiscal year 2000, RHS partnered with ROI on 22 RHLP 
loans.
     rhs rental programs serve the most vulnerable rural americans
    Although RHS housing programs have been successful, many rural 
residents still live in substandard housing. According to the Housing 
Assistance Council's recent report titled The State of Rural Rental 
Housing, more than 900,000 rural rental households, 10.4 percent, live 
in either severely or moderately inadequate housing. More than one 
million rural renter households are ``worst case needs'' households, 
which the Department of Housing and Urban Development defines as having 
an income below 50 percent of the area median household income, being 
extremely cost-burdened or inadequately housed, and receiving no 
Federal housing assistance. Of those rural renters with worst case 
needs, 92 percent pay more than one-half of their income, about $6,000, 
for housing.
    Together, the RHS Section 515 Rural Rental Housing program and the 
Section 521 Rental Assistance (RA) program provide decent, safe, and 
affordable housing to those families who need it most. The Section 515 
program provides loans at an interest rate of 1 percent to build 
affordable housing, while the Rental Assistance program ensures that 
tenants pay no more than 30 percent of their income for rent.
    The average annual income of our Section 515 tenants is just under 
$7,700. Forty-two percent of our 432,000 tenant householders are 
elderly, 14 percent have a handicap or disability, 25 percent are 
members of minority groups, and 72 percent are women. The fiscal year 
2002 budget of $114.3 million for the Section 515 housing will help 
build more than 1,700 much-needed new Section 515 units, repair or 
rehabilitate another 4,000 units, and keep another 1,000 units in the 
program.
    The $688 million fiscal year 2002 funding for the Section 521 
program is essential to ensuring the integrity and financial stability 
of our Section 515 and Section 514/516 loan and grant programs. Well 
over 93 percent of our RA budget will be used to ensure that more than 
42,000 RA contracts are renewed and that the people living in these 
units can remain in affordable housing. The remainder of the RA funding 
will be used for newly constructed units and to keep rent affordable 
when repair and rehabilitation are needed for existing units.
    In Warrenton, Missouri, low-income senior citizens who are no 
longer able to maintain their own homes have the option of living at 
Meadow Wood Apartments. This apartment complex for seniors and 
handicapped individuals was financed through an RHS Section 515 loan. 
RHS also provides qualifying tenants with rental assistance, so that 
they pay no more than 30 percent of their income for rent. There are 16 
one-bedroom apartments in four brick buildings at Meadow Wood. They are 
all on a single floor, so residents have no stairs to climb. A communal 
laundry facility is at the center of the complex. A month after the 
complex opened, all but three apartments were occupied.
    RHS has been working diligently to improve the integrity of its 
Rural Rental Housing program. RHS is working with the Office of 
Inspector General (OIG) to identify and correct any fraud or abuse. We 
have also implemented a new internal tracking system to better monitor 
and manage our $11.9 billion rental portfolio. We are also working to 
improve coordination with other agencies and departments that are 
involved in the fraud, waste, and abuse detection and enforcement 
process.
   rhs provides essential facilities to distressed rural communities
    Along with decent and affordable housing, many communities also 
lack essential community facilities such as childcare centers, fire 
stations, and health care centers. This shortage not only impacts the 
quality of life for community residents but also makes it more 
difficult for communities to attract and retain businesses. 
Fortunately, our Community Facilities (CF) direct and guaranteed loan 
and grant programs provide funding for these essential facilities.
    In Mississippi's Delta region, the Aaron E. Henry Community Health 
Services is providing an unusual service to residents of Coahoma, 
Panola, Quitman, and Tallahatchie counties. With funding provided by 
RHS Community Facilities, the center purchased 15-passenger vans and 
bus shelters to provide low-income residents with transportation to 
appointments at health centers or to get prescriptions filled at local 
shopping centers. RHS also provided the funding for the new Aaron E. 
Henry Community Health Services Center in Clarksdale.
    The $478 million for Community Facilities programs for fiscal year 
2002 will allow us to continue our commitment to childcare, which is 
especially important in rural areas. A staggering 24 percent of rural 
America's children live in poverty. Research by USDA's Economic 
Research Service suggests that young rural children are more likely to 
live in poverty than older children because rural areas lack the 
childcare facilities that enable parents to go to work. Without 
adequate childcare facilities, many rural parents face a tough choice: 
go to work to increase their family's income but worry about whether 
their children are safe and well cared for, or live in poverty in order 
to stay home to take good care of their kids. The high-quality 
childcare centers financed by the Community Facilities program allow 
parents to go to work with peace of mind. Not only that, they help 
address the larger problem of rural child poverty.
    In Dallas, Pennsylvania, RHS helped fund the Little Meadows 
Learning Center, owned by Ecumenical Enterprises, Inc. The center was 
created to complement a geriatric campus, consisting of a nursing 
center, an assisted living center, and two apartment complexes, already 
operated by Ecumenical Enterprises. The childcare center provides work 
site childcare for employees of the geriatric campus as well as quality 
childcare for the local community. Daycare is provided for children 
from infants through pre-school. An after-school program is available 
for older children. The Little Meadows Learning Center offers childhood 
educational programs and intergenerational programs with residents of 
the geriatric campus. The need for childcare in the community was 
clearly demonstrated when the center, with 115 spaces for children, 
reached 90 percent occupancy within a few months of opening.
    Fiscal Year 2002 Community Facilities budget includes nearly $6 
million to continue the Rural Community Development Initiative that 
Congress funded for the first time in fiscal year 2000. This initiative 
will help build the capacity of rural organizations to undertake 
essential housing and economic development projects in their 
communities. There is a great need in rural America for technical 
assistance to foster leadership development, organizational capacity, 
program initiatives, and the adoption of new technology. This is 
especially true in remote and isolated rural areas.
    I have discussed the funding for the major RHS programs. Now, let 
me take a moment to show you how the budget will help some of our most 
vulnerable rural citizens: the elderly, farm workers, and Native 
Americans.
rhs provides rural america's elderly with safe, affordable housing and 
                     essential community facilities
    Elderly rural Americans face critical housing and long-term care 
challenges. Although only 28 percent of all elderly households reside 
in rural areas, 39 percent of elderly households living in moderately 
or severely inadequate housing reside in rural areas. Many live in 
housing that they cannot reasonably afford. Over 50 percent of the 
elderly renters living in rural areas spend at least 30 percent of 
their income on housing.
    RHS programs ensure that these financially overburdened rural 
elderly can live in good and affordable housing. Currently, our Section 
515 rural rental-housing program is providing maintenance-free, 
accessible homes to more than 200,000 elderly households who can no 
longer handle the burdens of homeownership. For elderly rural people 
who want to remain in the homes they own, we provide the Section 504 
loan and grant programs. These programs make substandard homes safe and 
decent by financing such things as indoor plumbing, electric heating 
and cooling systems, safe wiring, roof and floor repair, and the 
installation of features to accommodate disabilities. In fiscal year 
2000, $58.9 million in loan and grant money was used to repair more 
than 11,000 homes under the Section 504 program. The fiscal year 2002 
budget includes nearly $30 million for the Section 504 grant program, 
which serves very low-income seniors, and $32 million for the Section 
504 loan program in which about half of the beneficiaries are elderly. 
With this money, RHS can help make about 12,000 substandard homes safe 
and decent.
    In McHenry, Kentucky, a rural coal mining area, RHS helped a 91-
year-old widow make her home liveable. With only Social Security and 
Black Lung benefits, she could not afford the necessary repairs to her 
home. The leaking roof had severely damaged the ceilings, walls and 
eaves of the house. In her bedroom, the ceiling and walls had separated 
far enough that daylight showed through. In the winter, the bedroom was 
unusable because of the cold drafts and had to be sealed off from the 
rest of the house. There were no storm windows on the house. The RHS 
Section 504 loan and grant programs provided funds to repair the house, 
making it warm and secure during cold, rainy weather.
    The RHS Community Facilities program finances a range of service 
centers for elderly people, including nursing homes, boarding care 
facilities, assisted care, adult day care, and intergenerational care 
centers that serve both elderly people and children at the same time. 
Since its inception in 1974, the Community Facilities program has 
invested $688 million in centers that directly benefit seniors and 
millions more in health care services that serve both seniors and the 
general population.
               rhs programs serve america's farm workers
    Although the housing needs of the elderly are a severe problem, 
their situation is not the worst in rural America. Farm workers and 
Native Americans are the two most poorly housed groups in America. Farm 
workers enable America to maintain its agriculture production levels 
and compete in world markets, yet they are the lowest-paid group of 
workers in the nation. While their labor ensures food security through 
the successful production and distribution of our nation's agricultural 
crops, farm workers live in substandard housing, sometimes without 
basic sanitary facilities, safe heating and cooking equipment, and a 
supply of clean water.
    RHS provides housing to farm workers primarily through two 
programs: the Mutual Self-Help program, which I have already described, 
and the Section 514/516 Farm Labor Housing program, which is the only 
national source of farm labor housing construction funds. Participants 
in either of these programs must be permanent residents or U.S. 
citizens. Tenants in our farm labor housing must earn a substantial 
portion of their income through farm work. Eighty-nine percent of 
tenants in RHS-financed farm labor housing are minorities, primarily 
Latino and African-American.
    Fiscal Year 2000, RHS used $49.5 million to build 818 farm labor-
housing units. The fiscal year 2002 budget of $43.4 million for the 
Farm Labor Housing program will enable us to finance construction of 
approximately 700 new units as well as address our anticipated need to 
rehabilitate and repair about 500 existing units. It will also allow us 
to provide childcare facilities as a part of some complexes. This 
funding will be highly leveraged because RHS partners with other public 
and private funding organizations in the vast majority of the projects 
it finances.
    Housing costs in California are high and there is a severe shortage 
of affordable housing. Thousands of low-income year-round farm workers 
live in substandard mobile home parks, campers and crude shelters. In 
Riverside County, lucky farm workers live in Desert Garden Apartments 
in Indio. This complex, built by the Coachella Valley Housing 
Coalition, and funded primarily through the RHS Farm Labor Housing 
Program, offers many special features, including energy-efficient 
housing, a childcare center, an after-school program with computers, a 
community garden, and a resident community council.
    A grant from the U.S. Department of Housing and Urban Development 
provides funding to counsel residents on homeownership, financial 
planning, and credit management. Other classes for adults include 
creative writing (through interactive software), English as a Second 
Language, and employment and leadership training programs.
    In addition to providing farm workers with housing, RHS also 
provides them with essential community facilities, such as childcare 
and health care centers. The CF program has also been successful in 
meeting the needs of migrant farm workers, who are difficult to serve 
because of the transient nature of their work. In conjunction with the 
Department of Health and Human Services, we have funded a number of 
migrant health care clinics and migrant Head Start centers.
              native americans benefit from rhs assistance
    In rural areas, Native Americans suffer from some of the worst 
poverty levels, housing, and access to basic community and health 
services in the country. RHS continues its extensive outreach to Native 
Americans by working to overcome barriers to lending on trust land and 
by providing grant funds whenever possible.
    The Section 504 housing repair loan and grant programs are often 
the first RHS programs to be used on a reservation. Section 504 loans 
are especially easy to use because if the loan is less than $2,500, no 
real estate security is needed. Thus, the problem of lending on trust 
land is avoided.
    Last year, Rural Development in Wisconsin approved their first 
Guaranteed Rural Housing loan to Native Americans on tribal trust land. 
This loan, under the Rural Housing Native American Pilot initiative, 
enabled the parents and two teenage children to have a three-bedroom 
manufactured home built in Keshena, on the Menominee Indian 
Reservation. The tribe helped the family by paying for the well, septic 
system and water system hookups. A successful collaboration between the 
Rural Housing Service, the Indian tribe, the local bank, and Bureau of 
Indian Affairs, and the manufactured home dealer/contractor made it 
possible for this family to have a new home.
    RHS has worked hard to increase its investments in Indian Country. 
We have financed numerous Section 515 multi-family housing complexes 
across the nation. We typically provide about 10 percent of our Housing 
Preservation Grant funds to organizations that serve Native Americans. 
Through small Section 525 Technical Assistance Grants to non-profit 
organizations, we fund credit counseling and homebuyer education to 
Native Americans to help them qualify for RHS single family housing 
loans and become successful homeowners.
    Assistance for Native Americans has been a Community Facilities 
priority for a number of years. Native American communities, especially 
those on reservations, have many needs beyond housing--needs such as 
medical centers, libraries, community centers, childcare centers, Head 
Start facilities, and fire stations and trucks. In addition to these 
needs, the CF program funds a variety of buildings for tribal colleges, 
including housing for teachers in isolated areas.
    In Montana, RHS works with tribes on the reservations in various 
ways. On the Fort Belknap Indian Reservation, housing is in short 
supply. RHS is funding two multi-family housing projects for the 
reservation. The homes are doublewide mobile homes, which can 
accommodate large families. Because of their low incomes, occupants 
will receive rental assistance from RHS. In Browning Montana, on the 
Blackfeet Reservation, the Community Facilities program funded a new 
multi-use student center, which includes a bookstore, classrooms, 
offices and library for Blackfeet Community College. CF funds are also 
being used to equip an early-childhood center on the reservation, which 
offers prenatal care and daycare for up to 150 children.
 rhs moves employees from welfare to work at the centralized servicing 
                                 center
    RHS's commitment to helping people become self-sufficient extends 
to its employees. Since 1997, the USDA Centralized Servicing Center 
(CSC) in St. Louis, Missouri, has worked with the St. Louis 
Transitional Hope House and the American Red Cross to employ former 
welfare recipients. The CSC has selected a total of 24 employees 
referred through the partnership with Hope House. Starting as worker 
trainees, 14 of these employees have since moved into permanent loan 
processor positions. In May 2000, the CSC received a USDA Secretary's 
Honor Award for training and ongoing support of its Welfare-to-Work 
employees.
    Welfare-to-Work employees are initially hired to work as Customer 
Service Representatives. This helps the trainees because (1) they 
receive in-depth training on all areas of the CSC; (2) they can take 
advantage of flexible scheduling; and (3) there is a special 
supervisory team to give them individual support and training. Once 
they make the transition to a working environment, they may apply for 
other positions. Long-term employees assist the new employees in 
meeting the obligations of the jobs.
    Success gives our employees the courage to continue their growth. 
One employee, who started in the Welfare-to-Work program, now is 
enrolled in college pursuing a degree in accounting. She manages to 
maintain her family, work, and school obligations and continues to work 
toward improving her future.
    I hope I have illustrated for you the many ways that RHS programs 
improve life in rural areas. We have great opportunities to assist 
rural people and their communities in becoming self-sufficient. I have 
mentioned only a few examples of how RHS makes a difference in the 
lives of so many rural Americans.
    Through our partnerships and leveraging efforts, we can expand the 
reach of our resources even further. The funds in the fiscal year 2002 
budget will enable us to continue reaching underserved people in rural 
areas where our help is needed the most.
    Mr. Chairman and members of the Committee, with your continued 
support, RHS looks forward to improving the quality of life in rural 
America by helping to build competitive, active rural communities 
through our Community Facilities and housing programs.
                                 ______
                                 
                          Farm Service Agency

      Prepared Statement of James R. Little, Acting Administrator

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to present the fiscal year 2002 budget for the Farm Service 
Agency (FSA). Our proposals are based on existing legislative 
authorities and assume the expiration of current ad hoc disaster and 
emergency provisions. I would like to highlight the proposals for FSA's 
various activities: the commodity and conservation programs funded by 
the Commodity Credit Corporation (CCC); the farm loan programs of the 
Agricultural Credit Insurance Fund; and our other appropriated 
programs. I will also summarize our request for administrative support.
                      commodity credit corporation
    Domestic farm commodity price and income support programs are 
administered by the Farm Service Agency and financed through the CCC, a 
government corporation for which FSA provides operating personnel. 
Commodity support operations, handled primarily through loans, payment 
programs, and some limited purchase programs, currently include those 
for corn, barley, oats, grain sorghum, wheat and wheat products, 
soybeans, minor oilseed crops, cotton (upland and extra long staple), 
rice, tobacco, milk and milk products, peanuts, and sugar.
    The CCC is also the source of funding for the Conservation Reserve 
Program (CRP) administered by FSA, as well as many of the conservation 
programs administered by the Natural Resources Conservation Service. In 
addition, CCC funds many of the export programs administered by the 
Foreign Agricultural Service. When called upon, CCC also finances 
various disaster assistance programs authorized by Congress. The 
Corporation is authorized to borrow funds from the Treasury to finance 
CCC programs on an on-going basis, and repays these borrowings, with 
interest, from program receipts and from appropriations provided by 
Congress for reimbursement of net realized losses.
Program Outlays
    The current 2002 budget estimates largely reflect supply and demand 
assumptions for the 2001 crop, based on October 2000 data. CCC net 
expenditures for fiscal year 2002 are estimated at $13.1 billion, down 
nearly $7.5 billion from a level of $20.5 billion in fiscal year 2001, 
and $19.2 billion below the record high of $32.3 billion in fiscal year 
2000.
    The net decrease in projected fiscal year 2002 CCC expenditures 
primarily reflects the expiration of $4.5 billion in 2001 emergency and 
market loss assistance authorized by the Agricultural Risk Protection 
Act and the 2001 Agriculture Appropriations Act. Other components 
include decreases of about $1.4 billion in loan deficiency payments, 
nearly $300 million in Section 416 ocean transportation, and about $120 
million in production flexibility contract payments. Also, no CCC 
expenditures will take place in fiscal year 2002 for computer equipment 
or related services due to the limits placed on such expenditures in 
the 1996 Farm Bill and subsequent legislation.
    The CCC budget includes two General Provision proposals for this 
appropriations bill: to cap the fiscal year 2002 Environmental Quality 
Incentives Program at $174 million and to prohibit implementation of 
the Conservation Farm Option Program in fiscal year 2002. These actions 
would reduce fiscal year 2002 CCC expenditures by $5.5 million and $2.1 
million, respectively.
Reimbursement for Realized Losses
    The fiscal year 2001 appropriations act authorizes CCC to replenish 
its borrowing authority as needed from Treasury, up to the amount of 
realized losses recorded in CCC's financial statements at the end of 
the preceding fiscal year. Under this authority, we are projecting that 
in fiscal year 2001 CCC will draw approximately $24.0 billion for 
fiscal year 2000 losses. In addition, nearly $1.3 billion in fiscal 
year 2001 net realized losses has already been reimbursed to CCC during 
the first quarter of this fiscal year as authorized by the Agricultural 
Risk Protection Act of 2000 to cover emergency provisions of that act. 
Without this reimbursement, CCC's ability to continue to assist farmers 
would have been jeopardized.
    The fiscal year 2002 budget proposes to revise the provision of the 
current appropriations that confines reimbursement for realized losses 
to those recorded at the end of the preceding year. Our request would 
provide a current, indefinite appropriation to reimburse the 
Corporation for all actual net realized losses, including those 
recorded in the current fiscal year. This would provide CCC added 
flexibility to avert a possible funding shortfall during periods of 
imminent borrowing authority depletion, without emergency action on the 
part of Congress.
Conservation Reserve Program
    The CRP, administered by FSA, is USDA's largest conservation/
environmental program. It is designed to cost-effectively assist farm 
owners and operators in conserving and improving soil, water, air, and 
wildlife resources by converting highly erodible and other 
environmentally sensitive acreage from the production of agricultural 
commodities to a long-term resource-conserving cover. CRP participants 
enter into contracts for periods of 10 to 15 years in exchange for 
annual rental payments, along with cost-share and technical assistance 
for installing approved conservation practices. The authorizing 
legislation currently allows enrollment of up to 36.4 million acres.
    In fiscal year 2000, a general CRP signup (signup 20) was held from 
January 18, 2000, through February 11, 2000. Of the 3.5 million acres 
offered, 2.3 million were approved for enrollment, with contracts 
beginning in fiscal year 2001 and rental payments beginning in fiscal 
year 2002. The fiscal year 2002 budget assumes that no general signup 
will be held in fiscal year 2001; however, a 1-year extension 
opportunity was announced in January 2001 for contracts that are 
scheduled to expire in September 2001 with an original duration of less 
than 15 years. Additional acres will also be accepted into the CRP 
during fiscal year 2001 through continuous signup, the Conservation 
Reserve Enhancement Program, and the Farmable Wetlands Pilot Program.
    In fiscal year 2001, CCC will pay approximately $1.54 billion for 
rental costs and about $127 million for sharing the cost of 
establishing permanent cover on the enrolled acreage. The bulk of the 
rental payments, covering acres enrolled in regular signups, were 
issued early in the fiscal year. For fiscal year 2002, the budget 
projects a general signup of 1.36 million acres and CCC program costs 
of approximately $1.79 billion, consisting of $1.68 billion for rental 
payments on previously enrolled and extended acres, and $111 million 
for cost-share assistance.
                           farm loan programs
    The loan programs funded through the Agricultural Credit Insurance 
Fund provide a variety of loans and loan guarantees to farm families 
who would otherwise be unable to obtain credit. Access to adequate farm 
credit is often the only way for some farmers to continue their 
operations.
    As a result of the weakness in much of today's farm economy, the 
demand for FSA loans and loan guarantees remains high in fiscal year 
2001. Activity is expected to be particularly heavy in direct farm 
ownership loans and guaranteed farm operating loans with interest 
assistance. The fiscal year 2002 budget, anticipating a continued high 
demand, proposes a total program level of about $3.86 billion in loans 
and guarantees, an increase of $764 million over fiscal year 2001. The 
largest segment of FSA lending is carried out in cooperation with 
private lenders through the guarantee programs. This budget continues 
strong support for guaranteed loans, with a proposed program level of 
$3 billion.
    For direct farm ownership loans we are requesting a loan level of 
$128 million, an increase of $278 thousand over the fiscal year 2001 
appropriated level. The proposed program level would enable FSA to 
extend credit to about 1,100 small and beginning farmers to purchase or 
maintain a family farm. As required by law, the agency has established 
annual county-by-county participation targets for members of socially 
disadvantaged groups, based on demographic data. Also, 70 percent of 
direct farm ownership loans are reserved for beginning farmers and 
about 35 percent are made at a reduced interest rate to limited 
resource borrowers, who may also be beginning farmers. For direct farm 
operating loans we are requesting a program level of $600 million, $76 
million above the fiscal year 2001 level, to provide nearly 12,250 
loans to family farmers.
    For guaranteed farm ownership loans in fiscal year 2002, we are 
requesting a loan level of $1 billion, an increase of $132 million over 
2001. This program level will give approximately 4,000 farmers the 
opportunity to either acquire their own farm or to save an existing 
one. One critical use of guaranteed farm ownership loans is to allow 
real estate equity to be used to restructure short-term debt into more 
favorable long-term rates. For guaranteed farm operating loans we 
propose an fiscal year 2002 program level of $2 billion, compared to 
$1.4 billion in 2001. This level will enable over 12,500 producers to 
finance their farming operations in the face of continued poor economic 
conditions. This program enables commercial lenders to continue to 
extend credit to farm customers who, under current adverse 
circumstances, have become an increased credit risk. Without this 
backing, those farmers would be forced to seek direct loans from FSA.
    The Budget also proposes $25 million in emergency disaster loans in 
fiscal year 2002, sufficient to provide close to 400 low-interest loans 
to producers whose farming operations have been damaged by natural 
disasters. In addition, our budget proposes $2 million for Indian tribe 
land acquisition loans and $100 million for boll weevil eradication 
loans.
                      other appropriated programs
    State Mediation Grants State Mediation Grants assist States in 
developing programs to deal with disputes involving a variety of 
agricultural issues--distressed farm loans, wetland determinations, 
conservation compliance, pesticides, and others. Operated primarily by 
State universities or departments of agriculture, the program provides 
neutral mediators to assist producers, primarily small farmers, in 
resolving disputes before they culminate in litigation or bankruptcy. 
The program was reauthorized through fiscal year 2005 by the Grain 
Standards and Warehouse Improvement Act of 2000. The Budget requests 
$2.993 million to maintain the program at the current level, with 27 
certified States receiving grants.
Emergency Conservation Program
    To restore farmland damaged by natural disasters and return it to 
productive agricultural use, the disaster and emergency title of the 
fiscal year 2001 appropriations act provided $79.8 million for the 
Emergency Conservation Program (ECP). So far this fiscal year, just 
under $40 million has been allocated to share the cost of repairing 
damage caused by drought, floods, tornadoes, and other disasters across 
the country. Claims are pending for damage from ice storms in a number 
of States, and additional claims are anticipated as a result of the 
recent flooding of the Mississippi River, as well as any other 
disasters that may occur. Most of the available funding is likely to be 
allocated by the end of the fiscal year.
    The President's Budget requests no ECP funding for fiscal year 
2002. However, the $5.6 billion governmentwide National Emergency 
Reserve proposed in the President's Budget could provide for emergency 
conservation needs.
Dairy Indemnity Program
    The Dairy Indemnity Program compensates dairy farmers and 
manufacturers who, through no fault of their own, suffer income losses 
on milk or milk products removed from commercial markets due to 
residues of certain chemicals or other toxic substances. Payees are 
required to reimburse the Government if they recover their losses 
through other sources such as litigation. The fiscal year 2002 
appropriation request of $100 thousand, together with carryover 
unobligated funds expected to be available at the end of fiscal year 
2001, would cover a higher than normal but not catastrophic level of 
claims.
                         administrative support
    The costs of administering all FSA programs are funded by a 
consolidated Salaries and Expenses (S&E) account. The account is 
comprised of direct appropriation, transfers from program loan accounts 
under credit reform procedures, user fees, and advances and 
reimbursements from various sources.
    The fiscal year 2002 Budget proposes funding of $1.213 billion from 
appropriated sources, including credit reform transfers, for a net 
increase of about $71 million over the fiscal year 2001 level. This net 
increase has two components: ADP activities and non-Federal county 
offices.
    Our S&E request includes just over $40 million for computer-related 
costs that formerly would have been funded by CCC. The 1996 Farm Bill 
imposed a cap of $275 million for CCC-funded automated data processing 
(ADP) obligations for fiscal year 1997 through 2002. Subsequently, two 
separate legislative actions reduced the cap by a total of $87 million 
to achieve budgetary offset savings in unrelated programs. The last of 
the funding under the resulting $188 million cap was exhausted early in 
fiscal year 2001, making it necessary for FSA to draw upon S&E funding 
to support basic ADP maintenance and operating needs. The $40 million 
requested for ADP under S&E for fiscal year 2002 would provide:
  --$26 million for basic operating costs, including hardware and 
        software upgrades, licenses and renewals, contractor support 
        for hardware and software, and maintenance of mission-critical 
        systems essential for program delivery.
  --$7.8 million to begin the process of converting and migrating some 
        of FSA's 50 legacy automated systems to the Common Computing 
        Environment (CCE) to support the Service Center modernization 
        effort. Transition to the CCE is necessary not only to improve 
        customer service and administrative efficiencies, but also to 
        meet the requirements of the Freedom to E-File Act and similar 
        mandates.
  --$3.5 million for FSA's share of LAN/WAN/Voice installation and 
        operation under the Department's Service Center modernization 
        initiative, to provide a solid telecommunications 
        infrastructure for the CCE, electronic access, and other ADP-
        related improvements.
  --$2.7 million for FSA's share of the Geographical Information 
        System, which is at a critical point of implementation in 
        providing digital geo-spatial data and the tools to make 
        practical use of the information collected.
    The remaining net increase of $31 million for S&E reflects Federal 
office and non-Federal county office costs of pay raises, promotions, 
and within-grade increases, as well as other costs of maintaining 
permanent county office staffing at the 2001 level. Temporary non-
Federal county office staffing needs are expected to decline modestly, 
by 461 staff years, as the expiration of ad hoc disaster and emergency 
legislation reduces the workload associated with crop and market loss 
assistance in fiscal year 2002. Since we cannot predict the 
programmatic impact of a new farm bill, or whether new emergency 
disaster assistance will be enacted, our estimates assume a 
continuation of ongoing workload activity. When a new farm bill is in 
place, or other legislation affecting workload is enacted, fiscal year 
2002 staffing requirements may need to be reexamined.
    Mr. Chairman, this concludes my statement. I will be happy to 
answer your questions and those of the other Subcommittee Members.
                                 ______
                                 
                            RELATED AGENCIES

                       Farm Credit Administration

 Prepared Statement of Honorable Michael M. Reyna, Chairman and Chief 
                           Executive Officer
    Mr. Chairman, Members of the Subcommittee, I am Michael Reyna, 
Chairman and Chief Executive Officer of the Farm Credit Administration 
(FCA or Agency). This is my second report to you as the Chairman of the 
FCA Board. As you know, the FCA Board is a three-member board. Ann 
Jorgensen, who also serves as the Chair of the Farm Credit System 
Insurance Corporation (FCSIC), joins me on the Board. The third 
position on the FCA Board is currently vacant.
    I will highlight the FCA's accomplishments during the past year, 
report to you briefly on the condition of the Farm Credit System (FCS 
or System), and present our fiscal year 2002 budget request.
               mission of the farm credit administration
    The mission of the FCA is to promote a safe and sound, competitive 
FCS so agriculture and rural America will continue to have a permanent, 
dependable, and affordable source of credit in both good and bad times. 
We are not involved in the daily management of System institutions. 
Instead, our responsibility is to ensure that the System complies with 
applicable statutes and regulations, and operates in accordance with 
safe and sound banking practices. We believe that the FCS will continue 
to play an important role in financing agriculture in the 21st century. 
We strive to maintain a regulatory environment that enables System 
institutions to remain financially strong and competitive so they can 
meet the changing demands of rural America for credit and other 
services. In doing so, our primary focus is to ensure the long-term 
safety and soundness of the FCS and develop rules and polices that 
respect market forces.
                    fiscal year 2002 budget request
    We are proud of our accomplishments as the safety and soundness 
regulator of the FCS and of our ability to contain costs while 
fulfilling our mission. I assure you that we will continue our 
commitment to effectiveness and cost-efficiency. We will regularly 
review how additional progress can be made in meeting these objectives. 
I am personally committed to a program of continuous improvement.
    Before I present the budget request, I respectfully bring to the 
Committee's attention that the FCA's administrative expenses are paid 
for by the institutions that we examine. The FCA does not receive a 
Federal appropriation, but instead is funded through annual assessments 
of FCS institutions.
    For fiscal year 2002, I propose a budget of $38,736,000. While this 
is an increase of $383,000, or 1 percent, above the $38,353,000 for 
fiscal year 2001, I can assure you that we are cognizant of our 
responsibility to be good stewards of the System's resources. Most of 
this increase is due to adjustments in compensation and benefits for 
our workforce. The Financial Institutions Reform, Recovery, and 
Enforcement Act of 1989 (FIRREA) requires the FCA to keep the salaries 
of its employees comparable to those of other Federal financial 
institution regulators.
    Our fiscal year 2002 budget request supports a staffing level of 
293.6 full-time equivalents (FTEs). By comparison, our fiscal year 2001 
budget supported a staffing level of 301.6 FTEs. Although our staffing 
level has declined by 8 FTEs from the previous fiscal year, I believe 
we can continue to maintain the right mix of positions and skills 
necessary to implement our Strategic Plan and accomplish our mission. 
The proposed budget that we formally submitted to the Committee 
provides details on the various expense categories and other 
highlights.
                    fiscal year 2000 accomplishments
    I am proud of our many accomplishments during the past year. In 
fiscal year 2000, we continued our efforts to achieve the goals of our 
Strategic Plan through (1) effective risk identification and corrective 
action, and (2) sensible regulation and public policy.
    We have worked hard to maintain the System's safety and soundness 
at a time when the agricultural economy is experiencing stress. At the 
same time, we are continually exploring options to reduce regulatory 
burden on the FCS and ensure it fulfills its public policy mission to 
provide constructive, competitive, and dependable credit and related 
services to agriculture and rural America.
Examination Programs
    One of our highest priorities is the development and implementation 
of efficient and effective examination programs that meet the high 
standards and expectations of the Congress, investors in System debt 
obligations, the farmers, ranchers, and cooperatives that own System 
banks and associations, and the public at large. We conduct 
examinations according to risk-based examination principles, which 
means we set the scope and frequency of each examination based on the 
level of risk in the institution.
    We continuously identify, evaluate, and proactively address these 
risks. We also use an examination cycle of up to 18 months for certain 
institutions, where appropriate, as permitted by the Farm Credit System 
Reform Act of 1996. We continually enhance our risk identification 
capabilities. Our Early Warning System identifies existing and 
prospective risk at FSC institutions. Each institution is reviewed 
quarterly to identify changes in its risk characteristics, and the 
Financial Institution Rating System (FIRS) rating is adjusted as 
needed. In addition, we use our forecasting model semiannually to 
identify and evaluate prospective risk in FCS institutions over the 
next 12 to 24 months under ``most likely'' and ``worst case'' 
scenarios, respectively. This includes monitoring trends in prices for 
various commodities. This proactive approach is intended to evaluate an 
institution's financial condition and performance under various 
scenarios to identify institutions with emerging risks and the 
potential for deterioration. This allows us to implement our 
differential supervision program to address and correct potential 
problems. We continue to enhance our modeling capabilities so that we 
can identify in a timely manner economic developments that may affect 
the financial condition of FCS institutions.
    FIRS uses six components--Capital, Assets, Management, Earnings, 
Liquidity, and Sensitivity to interest rate risk (CAMELS)--to measure 
the performance of each FCS institution. The FCA assigns every 
institution a composite rating and a rating for each of the six 
individual rating components at least quarterly. The FIRS ratings 
reflect current risk and conditions throughout the System. In addition, 
our examiners provide continuous oversight of System institutions to 
ensure that risk in the System is adequately monitored and addressed.
    I am especially pleased to report that for the first time in the 
System's history, more FCS institutions are rated ``1'', which is the 
highest FIRS category, than are rated ``2''. As of February 26, 2001, 
all rated System institutions, except one small association, achieved a 
composite rating in the two highest of the five FIRS categories. 
Currently, no System institution is under an enforcement action.
    During fiscal year 2000, other Federal agencies used our expertise. 
Pursuant to an agreement with the Small Business Administration (SBA), 
the FCA conducted examinations of Small Business Lending Companies that 
are licensed to make SBA guaranteed loans. In fiscal year 2000, the FCA 
helped train examiners in the Office of Thrift Supervision (OTS) who 
now review an increasing number of agricultural loans made by savings 
associations. These arrangements help us to maintain the high quality 
skills of our examiners and defray some of the costs of our operations 
while providing valuable assistance and service to other Federal 
agencies.
Strategic Planning and Performance Plans
    During fiscal year 2000, we focused on improving our methods for 
measuring the FCA's performance under the Strategic Plan. We refined 
the Annual Performance Plan covering Fiscal Years 2001 and 2002 in 
accordance with the Government Performance and Results Act of 1993. The 
Performance Plan lists our performance measures and goals, many of 
which link to strategic goals, objectives, and initiatives. These goals 
and objectives help us to deal effectively with rapid changes in 
agriculture and the System during both strong and weak economic 
conditions. We also use these performance measures and goals to assess 
our ultimate effectiveness in ensuring the safe and sound operation of 
the FCS.
Regulatory, Policy, and Philosophy Initiatives
    Congress has given the FCA Board statutory authority to establish 
policy and prescribe regulations necessary to ensure that FCS 
institutions comply with the law and operate in a safe and sound 
manner. We strive to adopt sound and constructive policies and 
regulations, using a proactive and preventive approach that reflects 
the changing needs of agriculture. Our objective is to promulgate 
regulations that achieve safety and soundness goals while minimizing 
regulatory burden on System institutions.
    During fiscal year 2000, we continued our efforts to remove 
geographic barriers within the FCS that limit the credit options of 
eligible farmers and ranchers and prevent System institutions, as 
single industry lenders, from diversifying concentrations in their loan 
portfolios. We repealed regulations that required an FCS bank or 
association to provide notice or obtain consent before it participated 
in loans that commercial banks and other non-System lenders made in the 
chartered territories of other System institutions. A Farm Credit bank 
and five of its affiliated associations opposed the final rule and 
subsequently filed suit in the United States District Court for the 
District of Columbia. Their suit asked the court for a declaratory 
judgment that the final rule is invalid and contrary to law. This 
action is currently pending.
    The FCA is developing a new rule that would remove geographic 
lending barriers that have restricted the operations of FCS 
associations for decades. As a result, this rule would enable each 
direct lender association to apply for and obtain a charter that would 
authorize it to lend and offer related services to farmers, ranchers, 
and other eligible customers without geographic restrictions. The rule 
would require each association to comply with stringent business 
planning requirements and safety and soundness criteria. Each 
association must continue to serve, on a priority basis, the credit 
needs of farmers, ranchers, and other eligible borrowers in its local 
service area, which in most cases is the area it served before the 
removal of territorial boundaries. Expanded charters would not include 
territories of certain associations in four states that the FCA, by 
law, cannot overcharter unless the shareholders, in some cases the 
boards, and the funding banks of these associations consent. The FCA 
has proposed new regulations that would provide a process for the 
shareholders, boards, and the banks of the affected associations to 
vote on allowing other FCS associations to serve these areas.
    During fiscal year 2000, the FCA adopted final rules concerning 
regulatory burden on FCS institutions, civil money penalties, standards 
of conduct, flood insurance, and disclosure to shareholders. Our 
proposed regulations addressed termination of FCS status, loans to 
designated parties, FCS funding of commercial banks and other financing 
institutions, loan purchases and sales, and issuance of stock in 
service corporations. The FCA Board issued two policy statements. One 
emphasized the obligation of FCS institutions to protect the privacy of 
personal information about their borrowers, while the other provided 
System institutions with more guidance about official and trade names.
Corporate Activities
    During the past year, many FCS associations have merged or adopted 
new corporate structures that include wholly owned operating 
subsidiaries. These restructurings are expected to lower risk through 
diversification, reduce operating expenses, and enable associations to 
use their capital more efficiently while offering their customers a 
broader array of services on a one-stop basis. The FCA has devoted much 
time and energy in the past year to processing and approving these 
corporate applications. In fact, the number of corporate applications 
received by the FCA set a new record. In fiscal year 2000, we processed 
and approved 93 applications, which was double the 46 applications that 
we processed the previous year. We were able to handle the increased 
workload with our existing staff by reprioritizing other work and using 
creative and streamlined approaches for processing the applications. We 
met all 60-day review requirements of the Farm Credit Act of 1971, as 
amended (Act), unless waived by the applicants, and granted approval 
before the requested effective date in every case.
                  condition of the farm credit system
    I am pleased to report that the FCS is a financially strong and 
reliable source of affordable credit to agriculture and rural America. 
The quality of loan assets, risk-bearing capacity, stable earnings, and 
capital levels collectively reflect a healthy System that has rebuilt 
its financial strength and improved its management systems. Despite 
various external factors affecting agriculture, such as reduced export 
demand, adverse weather conditions, and low commodity prices, the 
System's strong financial position will help it weather adverse effects 
from potential deterioration in the agricultural economy.
    Since 1994, the System has steadily earned $1 billion or more each 
year. This has resulted in a large capital cushion that will enable the 
System to absorb losses and remain a viable lender to agriculture 
during downturns in the agricultural economy.
    The quality of the System's loan portfolio has remained generally 
favorable despite continued adverse economic conditions in the 
agricultural sector and a slight deterioration in the performance of 
certain loans to cooperatives. Signs of deterioration have yet to 
materialize in the System's loan portfolio, and early warning 
indicators are much more positive than in the mid-1980s when the System 
last experienced serious asset quality problems.
    Loan volume continues to grow, while the level of nonperforming 
loans, including nonaccrual loans,\1\ consistently remains low. 
Delinquent loans also remain minimal at less than half of one percent 
of total loans.
---------------------------------------------------------------------------
    \1\ Nonperforming loans consist of nonaccrual loans, accruing 
restructured loans, and accruing loans 90 days or more past due.
---------------------------------------------------------------------------
    The System continues to build capital through retained earnings. 
Total capital as a percentage of total assets has increased from 14.2 
percent as of September 30, 1996, to 15.6 percent as of September 30, 
2000. All institutions met their regulatory capital requirements, and 
most greatly exceeded them. Permanent capital ratios at System banks 
and associations ranged from a low of 9.94 percent to a high of 38.2 
percent compared with the 7.0 percent minimum regulatory capital 
requirement.
    Better management practices have resulted in stronger loan 
underwriting standards at most System institutions. Adherence to strong 
loan underwriting standards usually results in sound loans. 
Additionally, this helps insulate an institution's capital from 
excessive risk in a challenging operating environment. As a result of 
improving their management and internal controls, System institutions 
have been diligent in identifying and dealing with troubled loans early 
on. Also, improved asset/liability management practices have enabled 
System banks to effectively manage interest rate risk.
    Economic stress in agriculture, however, is beginning to temper 
this good news. Prices for many agricultural commodities are low while 
farm production costs, particularly for energy, are increasing. As a 
result, the profit margins of many farmers are squeezed. Federal 
support for agriculture over the past several years has been necessary 
to help farmers repay their loans. Obviously, farmers, System 
institutions, and the FCA would much prefer that more favorable 
commodity prices would generate higher profits and better income for 
agriculture. In addition to strong capital and diligent management at 
System banks and associations, Federal assistance to farmers has also 
played an important role in helping the System maintain the quality of 
its loan portfolio.
    Two indicators of profitability, net interest margins and net 
interest spreads, have been trending downward since 1995. Return on 
assets has also followed a declining trend for the past six years, 
although it increased in 2000. While these downward trends raise 
concerns, they also stress why retained earnings and strong capital are 
crucial to the continued financial strength of System institutions.
    The allowance for loan losses continues to be adequate to cover 
risk in the loan portfolios. Since 1993, the System has steadily 
increased its allowance for loan losses to almost $2 billion at the end 
of 2000. This increase is necessary to protect against the stress in 
the farm economy.
    Perhaps the biggest challenge facing the System is the fact that it 
is a single-industry lender in a shrinking market. The number of 
farmers and ranchers has steadily declined ever since the System was 
founded in 1916. However, the System's mission is to finance 
agriculture in both good and bad economic times. The loan portfolios of 
System institutions, as single-industry lenders, are concentrated in 
agricultural commodities. As of September 30, 2000, there were 197 
instances at 135 associations where loans to a single commodity 
exceeded capital. The System lends overwhelmingly to agriculture, which 
is the sector of the economy that is particularly vulnerable to changes 
in commodity prices, currency fluctuations, bad weather, diseases, 
pests, and other difficulties. The FCA will remain ever vigilant with 
regard to its safety and soundness mission in the face of the 
challenges confronting the System.
               federal agricultural mortgage corporation
    The FCA has oversight and examination responsibility for the 
Federal Agricultural Mortgage Corporation, which is commonly known as 
Farmer Mac. Congress established Farmer Mac in 1988 to operate a 
secondary market for agricultural mortgage and rural home loans. In 
this capacity, Farmer Mac creates and guarantees securities that are 
backed by mortgages on farms and rural homes. We monitor Farmer Mac's 
operations and financial condition and provide periodic and timely 
reports to Congress.
    On February 21, 2001, we adopted a final risk-based capital 
regulation for Farmer Mac. The new regulation is designed to ensure 
that Farmer Mac has sufficient capital to meet its mission, especially 
during times of economic stress. The final rule establishes a risk-
based capital stress test that will determine the minimum level of 
risk-based regulatory capital necessary for Farmer Mac to maintain 
positive capital during a 10-year period if stressful credit and 
interest rate conditions occur. The final rule requires Farmer Mac to 
run the risk-based capital stress test at least quarterly to determine 
the adequacy of its capital and to report the results to the FCA. The 
stress test is based on a statistical model used to project Farmer 
Mac's capital sufficiency over the 10-year stress period.
    The FCA continues to monitor Farmer Mac's debt issuance and non-
mortgage investment strategy. We also examine Farmer Mac's strategic 
and operational business planning. In 2000, Farmer Mac had $10.4 
million in net earnings, compared with $6.9 million in 1999 and $5.7 
million in 1998. Farmer Mac's capital remains above the minimum 
prescribed by the Act and its total loan program activity continued to 
increase, reaching $3.19 billion at December 31, 2000.
    In conclusion, we are proud of our efforts and accomplishments in 
ensuring the safety and soundness of the Farm Credit System. We will 
continue to efficiently manage our resources while performing FCA's 
mission in the way Congress intended. Mr. Chairman, on behalf of my 
colleague on the Board, Ann Jorgensen, and myself, I thank you for the 
opportunity to share this information with you.
      

                     ADDITIONAL SUBMITTED QUESTIONS

              Questions Submitted by Senator Thad Cochran

                       DEPARTMENT OF AGRICULTURE

      Cooperative State Research, Education, and Extension Service

                advanced genetic technologies, kentucky
    Question. Please provide a description of the research that has 
been funded under the Advanced Genetic Technologies, Kentucky grant.
    Answer. This is a new special grant this year. The agency has 
requested the university to submit a grant proposal that has not yet 
been received. Preliminary communications with the principal researcher 
indicate that the project involves development of a high throughput 
deoxy-ribonucleic acid analysis facility. This will be used in genomics 
research projects on agricultural species aimed at (1) discovering 
genes and mechanisms to reduce the impact of diseases and pests on 
agricultural plants and animals, (2) metabolic engineering to produce 
novel commercial and pharmaceutical products from plants, and (3) 
enhancing crop and livestock productivity through genomics-facilitated 
breeding.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. According to the principal researcher, the national need is 
that a fundamental understanding of crops and livestock, their 
symbionts and their pests can be gained far more rapidly and 
definitively by genomics tools and associated technologies. Information 
about whole genomes--such as very high density genetic maps or 
sequences of chromosomes--facilitates discovery of genes associated 
with metabolism, stress and parasite resistance, and yield. At the 
regional and local levels, the infrastructure generated through this 
grant will allow genomic analysis of local specialty crops and animals, 
a focus on their metabolites, pests and diseases, and an understanding 
of how plants and animals are or can be adapted to local environmental 
conditions.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to increase the 
productivity of agricultural plants and animals by high-throughput 
genomic approaches. Similar research has been ongoing at this site, but 
at a much lower level than will be made possible by the research 
support technology to be funded by this award. Previous research 
included improvements of genetic maps of soybean, wheat, horses, and 
cattle; identification of plant genes for leaf senescence, organ 
development, stress tolerance, disease resistance, and secondary 
metabolism; and identifying genes in microorganisms that either enhance 
the productivity of plants and animals or contribute to the diseases of 
plants and animals.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated is $473,955.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The present commitment of non-Federal funds and sources 
provided for this grant is approximately $300,000 from State and 
Agricultural Experiment Station Funds and approximately $25,000 for 0.3 
full time equivalents in faculty time.
    Question. Where is this work being carried out?
    Answer. The research is conducted at the University of Kentucky, 
Lexington Campus, College of Agriculture/Kentucky Agricultural 
Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is June 30, 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is the first year of the grant so a previous 
evaluation of the project has not been conducted. The agency will 
convene a merit review panel to evaluate the project when a proposal 
for fiscal year 2001 is received.
               advanced spatial technologies, mississippi
    Question. Please provide a description of the research that has 
been funded under the Advanced Spatial Technology, Mississippi grant.
    Answer. This research will evaluate the use of site-specific 
technology and assess the economics of this application for site-
specific precision farming. Cultural practices will be studied and 
integrated into a management system using site-specific technology to 
monitor yield and variable rate application. This project will expand 
on work conducted under the Spatial Technology Special Research Grant 
funded at $350,000 in fiscal year 1997 and $600,000 in 1998.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The need for this research is to provide farmers with 
unbiased information on the application and economics of site-specific 
technologies for cotton, soybean, and rice production in the mid-south.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to evaluate site-
specific technologies and develop recommendations for management 
decisions related to fertilization, pest control, and other cultural 
practices. Yield monitor and variable rate technology have been 
evaluated and are being adopted by farmers.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1997 
and the appropriation for fiscal year 1997 was $350,000; for fiscal 
year 1998 it was $600,000; for fiscal years 1999-2000 was $1,000,000 
per year; and for fiscal year 2001 is $997,800 for total of $3,947,800.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds provided for this grant are $620,300 
in 1998, $942,000 in 1999, and $974,000 in 2000. These funds are state 
appropriations that support the salaries of scientists and their 
support staff.
    Question. Where is this work being carried out?
    Answer. The research will be conducted on various Mississippi 
Agricultural Experiment Station facilities and farmer fields around the 
state.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Project Manager recognizes that it will take several 
years of field research to develop and demonstrate these technologies. 
Some objectives have been completed and results are being put into 
practice by farmers. Others are long term and will require multiple 
years to complete. Results from all experiments are evaluated at years 
end and used to fine tune remaining objectives as well a initiate 
priority new ones.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project is subject to a thorough peer review in 
preparation of the grant proposal in addition to the year end 
assessment of progress for each experiment. A program update and field 
tour is held during the growing season for farmers, extension, and 
other researchers. Substantial improvements have been made in yield 
monitor for cotton harvesters and all program integration.
                      aflatoxin research, illinois
    Question. Please provide a description of the research that has 
been conducted under the Aflatoxin Research, Illinois grant.
    Answer. This research is focused on development of strains of corn 
which will be highly resistant to infection with Aspergillus flavus and 
the production of aflatoxin under field conditions. Transfer of genetic 
material from resistant strains to other usable, inbred strains of corn 
is underway, and these new strains are being field tested to determine 
level of resistance to fungal infection.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for the 
research?
    Answer. There is continuing concern about the role of aflatoxins as 
carcinogens in the human population. The aflatoxin material is also 
toxic to animals and humans. The presence of the fungus in corn results 
in a lower value for the crop and the possible rejection of the corn. 
Aflatoxin contamination continues to be a serious problem in the 
southern and southeastern U.S., with additional outbreaks also 
occurring during severe drought conditions in the upper mid-west and 
other areas during the past few years.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research was the reduction of 
infestation of corn with Aspergillus flavus and the consequent 
reduction of aflatoxin in the corn produced. The approach being used is 
to develop strains of corn which are genetically resistant to 
infestation with the fungus. The researchers have produced strains with 
resistance genes for both prevention of infection with A. flavus as 
well as the production of the aflatoxin itself. Field trials have been 
in progress to determine effectiveness of these resistance factors 
under normal growing conditions when exposed to the fungus. The work 
has now progressed to the stage where it seems likely that more than 
one gene will have to be transferred to produce strong resistance to 
the Aspergillus infection and production of aflatoxin.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1990, $87,000; fiscal year 1991, $131,000; fiscal 
years 1992-1993, $134,000 per year; fiscal year 1994, $126,000; fiscal 
years 1995 through 2000, $113,000 per year; and for fiscal year 2001, 
$130,712. A total of $1,420,712 has been appropriated.
    Question. What is the source and amount of non-Federal funds by 
fiscal year?
    Answer. The non-Federal funds have been from state appropriated 
dollars in the form of principal investigator and technical salaries, 
equipment usage, and experimental plot expenses. These have been at the 
level of $130,000 for fiscal years 1997 and 1998 and $24,747 for fiscal 
year 1999. In fiscal year 2000, $65,000 in state and institutional 
funds were provided plus $59,890 in related indirect costs not 
supported by the grant.
    Question. Where is this work being performed?
    Answer. The research is being performed in the Department of Crop 
Sciences at the University of Illinois.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
was 1995, but the project was revised last year to continue into fiscal 
year 2002. The primary reason for the extension of the work is that 
there appears to be multiple resistance genes which are necessary to 
prevent both the infection with the fungus and the synthesis of the 
aflatoxin compound. The investigators are very optimistic about the 
future success of this approach. This work was discussed at a meeting 
of Multi-State Research Project NC-129 on January 25-26, 1999, in New 
Orleans, Louisiana, and the Principal Investigators are members of the 
Technical Committee of this project. This committee is very supportive 
of this line of research.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project was evaluated in 1996 and again in March, 
2000. The investigators have made good progress on this project. They 
have identified two genes which are required to have good protection 
against the fungus. They are testing several approaches to determine 
which will give them the best protection against the fungus. 
Unfortunately, the resistance to the Aspergillus flavus fungus which 
produces aflatoxin does not seem to carry over to other fungi such as 
Fusarium moniliforme, the origin of fumonisins. During the review it 
became apparent that a major impediment to more rapid progress is the 
lack of funds to permit larger scale field trials to test the 
transformed strains.
       agricultural diversification and speciality crops, hawaii
    Question. Please provide a description of the research that has 
been funded under the Agricultural Diversification and Specialty Crops, 
Hawaii grant.
    Answer. A variety of research efforts are taking place, and they 
have outreach components that are adding value for clients. Work on the 
development of the most efficient post-harvest processing methodology 
for stevia, a natural sweetener, has begun and results are encouraging. 
Work on a production manual for fish in traditional Hawaiian fishponds 
on Molokai has also begun. This manual, written for the small 
entrepreneur, will include the results of production research. Work on 
food safety continues with a food safety survey sent out to 2,100 
produce growers in December, 2000. This survey also had 20 frequently 
asked questions about food safety so that nearly all of Hawaii's 
produce growers have now become aware of the issue of food safety. 
Collaboration with the Hawaii Department of Agriculture has also led to 
the future establishment of a cadre of food safety auditors at the 
College of Tropical Agriculture and Human Resources, the Hawaii 
Department of Agriculture, and the private sector. Our website 
continues to be a major resource for information on food safety. Our 
``Profit Estimator'' poster was available for clients in February 2000. 
This unique cost of production and profit estimation tool will allow 
any entrepreneur to calculate their costs and profit in five minutes 
without using a computer, software, or calculator. This project 
continues to advise the Hawaiian Commercial and Sugar Company on the 
possibility of starting a large-scale white taro production and 
processing operation in high pressure minimal processing for pineapple 
and other tropical fruits. The cause of premature fading of pineapple 
slices has been determined, and the temperature, pressure, and time 
relationship has been identified to achieve sterility. Plans are 
underway to work with the Hawaii Department of Agriculture and the 
Hawaii Agricultural Statistics Service to build a website where users 
can generate a graph of the prices of commodities found in the market 
place each day. The user can then define a time period and display the 
nature of price rises and declines. This information can help fine-tune 
production decisions.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Hawaii's economy continues to lag behind national averages 
where growth is concerned. The various projects under the umbrella of 
the Diversified Agriculture and Specialty Crop grant rely on research 
information to build decisionmaking tools. These tools help 
entrepreneurs make more informed decisions. When entrepreneurs make 
better decisions they have a higher chance of making a profit in 
business. The decisionmaking tools are being used in Hawaii, the 
Pacific, and on the mainland.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the original proposal was to screen potential 
food and non-food crops for commercial development in Hawaii and then 
make earnest attempts to work with willing and able entrepreneurs to 
move the results of research to the private sector. While the 
University of Hawaii continues to screen crops to help entrepreneurs 
pick the best ones for production and the market place, there are few 
decisionmaking tools that can help entrepreneurs take their products 
more successfully to market. Thus, there is an emphasis on information 
tools such as websites and the profit estimation/cost of the production 
poster. To help farmers prepare for increased food safety scrutiny, the 
University of Hawaii is working with Hawaii State agencies and other 
non-profits to reach out to farmers with critical information.
    Question. How long has this work been underway and how much has 
been appropriated, by fiscal year, through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows, fiscal years 1988-1989, $156,000 per year; fiscal years 1990-
1993, $154,000 per year; fiscal year 1994, $145,000; fiscal years 1995-
2001, $131,000 per year; and fiscal year 2001, $130,712. A total of 
$1,989,712 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The University of Hawaii provides in-kind support in the 
form of laboratory and office facilities, equipment and equipment 
maintenance, and administrative support services which was $68,503 in 
fiscal year 1992; $75,165 in fiscal year 1993; approximately $75,000/
year in fiscal years 1994-1996, and approximately $20,000/year in 
fiscal years 1997-2000. Funds are also being leveraged from other 
private sector, state, and Federal sources for the development of 
nutraceuticals.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the University of Hawaii's 
College of Tropical Agriculture and Human Resources on the island of 
Oahu, and other Hawaiian islands as necessary.
    Question. What is the anticipated completion date for the original 
objectives of this project? Have those objectives been met? What is the 
anticipated completion date for additional or related objectives?
    Answer. Profit/cost of the production poster will be available in 
February 2001. The Lei plant manual will be out in the first quarter of 
2001. Work on Molokai fish production will conclude in December 2001. 
Work is just starting on transportation and food safety issues and will 
continue through 2002. Work on business related information tools will 
continue through 2002. Work continues on high pressure processing of 
tropical fruits and will continue through 2002. Work on nutraceuticals, 
particularly cultural practices and disease management of kava and 
stevia, is continuing through 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Evaluation of this project is conducted annually based on 
the annual progress report and discussions with the principal 
investigator, as appropriate. The review is conducted by the cognizant 
staff scientist who has determined that this research is progressing to 
reach the goals set forth in the proposal.
      agricultural diversity/red river, minnesota and north dakota
    Question. Please provide a description of the research that has 
been funded under the Agricultural Diversity/Red River, Minnesota and 
North Dakota, grant.
    Answer. This project has been an effective contributor to economic 
growth through a program of regional collaboration that helps to 
strengthen the region's competitive position in the global marketplace. 
A key and overarching goal of the project has been to bring together 
people and resources to enhance economic development for the region. 
This multi-year, multi-phase project will have six specific components. 
They are: (1) vegetable growing research--especially field and 
glasshouse related research, (2) vegetable collection and storage 
research and/or related storage or distribution business development, 
(3) development of processing industries for the fresh market or 
research related to the fresh products for market, (4) development of 
marketing and/or supply associations among vegetable producers, (5) 
development of processing industries for the ready-to-eat salad market 
or research related to ready-to-eat products, and (6) development of 
processing industries for the frozen vegetable products market or 
research related to frozen products.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Initially the growing of vegetables in the region was 
driven by an opportunity to meet increasing consumer demands for fresh 
vegetables, and the northern plains states of Minnesota, North Dakota, 
and South Dakota have been identified as one area that could meet this 
need. The opportunity to add a high-value crop to the rotation cycle 
for northern Great Plains farmers can help to decrease their dependence 
upon program crops. The shift in cropping patterns can have a positive 
effect on farm income and lessen the need for outside or Federal 
financial assistance. Interest in the potential for adding higher value 
crop to the rotation cycle, including vegetables, has increased 
significantly in the past two years due to the poor farm economy. 
Research on the potential for adding new crops to the region's 
production base could help stabilize the farm economy in the region and 
lessen the need for outside financial assistance to farmers.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original project goals include: (1) Conduct three 
replicated field trials on growing of carrots; (2) Continue study of 
vegetable growing techniques in Europe and continue negotiations with 
vegetable growing research facilities/laboratories in Europe to 
transfer growing knowledge to the region; (3) Review current and future 
market opportunities for further development of the industry and 
identify strategies and partners for pursuing these opportunities and 
take appropriate organizing steps; (4) Develop and maintain a web page 
for this vegetable industry project; (5) Conduct market research for 
establishment of a ready-to-eat delicatessen salad processing facility 
in the region; (6) Conduct market research for establishment of a 
ready-to-eat fresh-bagged salad processing facility in the region; (7) 
Continue business development planning for establishment of a ready-to-
eat delicatessen salad processing facility in the region; and, (8) 
Continue business development planning for establishment of ready-to-
eat and fresh-bagged salad processing facility in the region.
    To date this grant has accomplished the economic incubation of a 
new deli-salad production system and industry for the region. 
Additional new regionally based industries that are being promoted, 
developed, and served by this grant include vegetable dehydration, 
greenhouse table vegetable production and alfalfa processing.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This work supported by this grant began in fiscal year 1998 
with appropriations for fiscal years 1998 through 2000 of $250,000 each 
year and $374,175 in fiscal year 2001 for a total of $1,124,175 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Efforts have been made to secure non-Federal funding from 
individual states and commodity groups. To date the States of North 
Dakota and Minnesota have been a source of approximately $65,000.
    Question. Where is the work being carried out?
    Answer. The work is being carried out in Minnesota, North Dakota, 
and South Dakota.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Progress is being made on the original objectives. It is 
expected that this will be a multi-year, multi-phase project.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
     Answer. The project is evaluated by review of the proposal and the 
annual project reports. An on-site review was conducted during June of 
2000. This project has been an effective contributor to economic growth 
through a program of regional collaboration that helps to strengthen 
the region's competitive position in the global marketplace. A key and 
overarching goal of the project has been to bring together people and 
resources to enhance economic development for the region. This project 
funding has facilitated the formation of a networking strategy that 
links manufacturing, financial, legal, transportation, trade services, 
and economic development sectors into a region-wide economic growth 
effort and to create a Red River region marketing program. The Red 
River Trade Council has become an important resource to the region in 
the development of grower driven alliances. The Red River Trade Council 
and its affiliate organization, The Northern Great Plains Initiative 
for Rural Development, currently serve as the staff for the FarmConnect 
effort in Minnesota, and they also serve as the resident agent for the 
U.S. Ag Producers Alliance. The project has had a strong presence on 
the world wide web and has facilitated entry of rural manufacturing 
business and agri-business into web-based e-business.
         ag-based industrial lubricants research program, iowa
    Question. Please provide a description of the research that has 
been funded under the Agricultural-Based Industrial Lubricants Research 
Program, Iowa grant.
    Answer. This project is a continuation of ten years of activity 
conducted to target specific applications, establish baseline 
performance data, develop formulations of additives and chemical 
modifications, administer laboratory and field tests, characterize, and 
build relationships for commercialization of industrial lubricants 
derived from U.S. grown vegetable-based oils. Baseline performance data 
will be compiled to establish fatty acid compositions, guide genetic 
modifications, additive development, establish standards relative to 
toxicity and biodegradability, and characterize compatibility with 
specific metallic and non-metallic components. The grant has been peer 
reviewed internally at the University of Northern Iowa.
    Question. According to the research proposal, or the principal 
research, what is the national, regional, or local need for this 
research?
    Answer. Primary local and regional need is related to expanding 
value-added applications of agricultural commodities in order to 
stimulate increased demand and raise crop prices paid to farmers. On a 
national level, pursuant to the Biomass Research and Development Act of 
2000, Executive Orders 13101 and 13114, the need is to provide 
renewable, safer, more environmentally-sound alternatives to petroleum-
based industrial lubricants. Furthermore, there is a belief that there 
are international possibilities for the use of genetically-modified 
soybean-based lubricants. Considering the controversy in Europe for 
genetically-modified food, premium quality lubricants made of 
genetically modified domestic crops present a potential for use in a 
more non-controversial area i.e., industrial lubricants.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the program was sponsored by non-
Federal funding to develop a soybean-based hydraulic oil which was 
introduced to market in July of 1997 as BioSOY hydraulic fluid. Field 
testing of two grease formulations and a dielectric transformer coolant 
are near completion, as well as development of a two-cycle engine 
lubricant, and bar and chain oil. A large volume of technical data has 
been compiled specific to crop-based oil and lubricants. This program 
has identified and has begun servicing a broad array of market 
development requirements, including demonstrating specific performance 
features, expanding awareness, and supporting government purchase 
initiatives. In September 1999, two new soybean-based lubricants were 
licensed to West Central Coop and are now commercial products. Those 
were a chain saw bar oil called SoyLINK and a fifth wheel grease called 
SoyTRUK. A new marketing arm spin-off from the University Foundation is 
planning to market 12 soybean oil-based lubricants developed through 
this program.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Federal funding for this project began with a 1998 
appropriation of $200,000. Fiscal years 1999 and 2000 appropriations 
are $250,000 each year; and fiscal year 2001 is $349,230, for a total 
of $1,049,230 appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Since 1992 this research program has received cash grants 
from the Iowa Soybean Promotion Board, Carver Scientific Research 
Initiatives, in addition to several in-kind donations from industry, to 
develop and coordinate commercialization of what has since become 
BioSOY hydraulic oil. Beginning in 1995, the state of Iowa began to 
support the program through its Wallace Technology Transfer Foundation. 
Beginning in 1996, state funding was provided by legislative 
appropriation through the Iowa Department of Economic Development. 
Additional funding has been provided by the Iowa Department of 
Agriculture and Land Stewardship. In fiscal year 2000 $150,000 was 
appropriated through the Iowa Department of Economic Development, 
$25,000 from the Iowa Soybean Promotion Board, $25,000 from Iowa 
Department of Agriculture and Land Stewardship, $32,500 from John 
Deere, and other awards and service revenues totaling approximately 
$75,000. State funding for fiscal year 2001 in the amount of $400,000 
has been requested through direct appropriation to the university.
    Question. Where is the work being carried out?
    Answer. Laboratory and literature studies are being carried out 
primarily at the Ag-based Industrial Lubricants Research Program 
facility in Waverly, Iowa, with minor portions of activity being 
conducted on the campus of the University of Northern Iowa in Cedar 
Falls, Iowa, and other labs. Field tests are being conducted at Sandia 
National Laboratories, U.S. Department of Army test sites, some 
municipalities, and in industrial equipment located throughout the 
nation. A short line Iowa-based railroad and a class I railroad have 
been testing soybean-based rail/flange grease with success. The rail 
systems in San Francisco--BART--and in Oregon--Tri-Met--now use 
soybean-based rail flange grease at their facilities. The Iowa 
Department of Transportation has begun conversion of most of its mobile 
equipment to the soybean-based hydraulic fluid developed under this 
program
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives have been met, in part, with the 
optimization, demonstration, and commercialization of the soy-based 
hydraulic fluid, chain and bar lubricants, grease for semi-trucks, plus 
several other products that are being commercialized this year. Data 
collection, additive and modification research, characterization, and 
supplier development objectives of the last year are ongoing. 
Commercialization of the dielectric transformer coolant is an added 
objective and has been expedited through to field testing. Activities 
to expand public awareness and support government purchase initiatives 
have been added to the original objectives. Field testing of some 
products is expected to be completed within a year. Additional 
lubricants in the metalworking applications are targeted for 
development and field testing with commercialization expected in two 
years. The program has begun to identify price reduction strategies for 
the first generation lubricants to make final cost of these products 
competitive with conventional petroleum lubricants. The price of some 
soybean-based greases developed with genetically-modified soybeans are 
anticipated to approach prices of conventional oils by the conclusion 
of the current project period.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The cognizant staff scientist reviews quarterly reports and 
has determined that this research is conducted in accordance with the 
mission of the agency.
                agriculture telecommunications, new york
    Question. Please provide a description of the research that has 
been funded under the Agriculture Telecommunications, New York grant.
    Answer. This program encourages the development and utilization of 
an agricultural communications network to facilitate and strengthen 
agricultural extension, resident education, and research, and domestic 
and international marketing of U.S. commodities and products through a 
partnership between eligible institutions and the USDA.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The following needs will be addressed by this program:
  --Make optimal use of available resources for agricultural extension, 
        resident education, and research by sharing resources between 
        participating institutions;
  --Improve the competitive position of U.S. agriculture in 
        international markets by disseminating information to 
        producers, processors, and researchers;
  --Train students for careers in agriculture, natural resource 
        management, environmental science, human sciences, and the food 
        industries;
  --Facilitate interaction among leading agricultural scientists;
  --Identify new uses for farm commodities and increase the demand for 
        U.S. agricultural products in both domestic and foreign 
        markets.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this program is to encourage the development 
and utilization of an agricultural communications network to facilitate 
and strengthen agricultural extension, resident education, and 
research, and domestic and international marketing of U.S. commodities 
and products through a partnership between eligible institutions and 
the USDA. Various educational, extension, and technology transfer 
projects have been funded through the program in fulfillment of this 
goal.
    Question. How long has this work been underway and how much has 
been appropriated, by fiscal year, through fiscal year 2001?
    Answer. The project began in fiscal year 2000. Appropriations for 
fiscal year 2000 was $425,000 and for fiscal year 2001 is $424,065 each 
year for a total of $849,065. The project was previously funded under 
the Extension Activities account.
    Question. What is the source and amount of non-Federal funds 
provided, by fiscal year?
    Answer. Prior to fiscal year 2000, the project received a 100 
percent match of funds from non-Federal sources. However, beginning in 
fiscal year 2000, it became a special research grant and does not 
require a match of funds from non-Federal sources.
    Question. Where is this work being carried out?
    Answer. Cornell University will award grants competitively 
throughout the U.S.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Individual projects being funded address ongoing needs for 
information dissemination and technology transfer. As each project is 
completed the results are evaluated to determine the success of meeting 
the program's objectives.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted?
    Answer. The agency evaluated this project each year via a report 
from institutions funded. The following highlights the programs funded 
under this project:
    The University of Minnesota, Washington State University, 
University of Arizona, and Virginia Tech will collaborate to develop 
and pilot a model for a national system for technology-enhanced 
pesticide applicator training and education. The model can be 
replicated in other national programs that require certification.
    Oregon, Maryland, Vermont, Kentucky, Alabama, Wisconsin, Oklahoma, 
Kansas, California, Wyoming, Montana, Washington, and Arizona will 
collaborate to develop a comprehensive knowledge resource for alfalfa, 
the National Alfalfa Information System, providing an improved 
information resource for educational programs.
    Florida, Kentucky, Georgia, Mississippi, and Texas have developed a 
national real-time Internet web-based radio network for agricultural, 
food, human and natural resource related information to present and 
promote new and existing educational information from land-grant 
universities and colleges providing the public with the latest up-to-
date information.
    Nebraska, South Dakota, Colorado, Minnesota, and Wisconsin 
established a library of Internet-based teaching modules in plant 
biotechnology that facilitate interactive learning to assemble programs 
that target the education needs of agricultural professionals.
    Idaho, Colorado, Nevada, and California developed multiple courses 
for a national audience of persons related to mealtimes in child 
programs, including the USDA Child Care Food Program. The program 
provides research-based information via distance education to those who 
feed children in group settings and offers on-going accessible course 
work and in service training.
    Pennsylvania, California, Texas, and Puerto Rico have developed 
web-based learning programs for food industry professionals designed to 
empower current and future food processing industry professionals to be 
effective product development team players, problem solvers, decision 
makers, and communicators with the ultimate goal of assisting companies 
in creating the expertise to develop and market new products.
    Missouri and Colorado teaming with USDA's Meat Animal Research 
Center are using the world wide web and computing resources to deliver 
a sophisticated decision support tool to producers, educators, and 
researchers linking herd based, bioeconomic simulation models related 
to cattle production systems.
    Indiana and Kentucky with 33 other universities have designed a 
national interactive computer-based learning project for youth. This 
network is an integral component of curriculum developed by the 
National 4-H Cooperative Curriculum System for youth ages 8-19.
    Nebraska, Iowa, Kansas, North Dakota, South Dakota, and Texas 
developed an inter-institutional program of studies leading to a 
Masters of Science in family financial planning through distance 
education. The program uses the expertise of several institutions to 
provide opportunities for pursuit of higher education and lowers 
barriers to inter-institutional collaboration.
                    agriculture water usage, georgia
    Question. Please provide a description of the research that has 
been funded under the Agriculture Water Usage, Georgia grant.
    Answer. The project will determine agricultural water use in 
Georgia using a two percent statistical sample of water sources. 
Equipment has been purchased and personnel hired to conduct the 
project.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. Water has become a major issue in the southeast. The tri-
state water ``issue'' between Florida, Georgia, and Alabama involves 
allocating interstate waters in the primary river basins that begin in 
the Atlanta area. These allocation formulas are completed and ready for 
use. The salt water intrusion problem associated with coastal Georgia 
and South Carolina is also a major issue. Both of these problems suffer 
from a lack of data on agricultural water use across the state. This 
program seeks to develop a monitoring and modeling strategy to 
determine the quantity of water used by agricultural irrigation. The 
program is designed to begin in Georgia and allow expansion of the 
program into neighboring states for a better estimate of agricultural 
water use.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The project hired strategic personnel for the monitoring 
program and development of the equipment and the database to be used 
for obtaining volunteers for the monitoring phase. This integrated 
project will involve the development of computer based models to take a 
monitoring sample and extrapolate that information for the entire 
state.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999. 
The appropriation for fiscal years 1999 and 2000 was $300,000 per year 
and for fiscal year 2001 is $299,340 giving a total of $899,340.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The State of Georgia through the Georgia Department of 
Natural Resources, Environmental Protection Division appropriated 
$289,000 for fiscal years 1998-1999 and is expected to appropriate 
$250,000 per year for an additional 4 years to help support this 
project.
    Question. Where is the work being carried out?
    Answer. Research will be conducted from the University of Georgia, 
College of Agricultural and Environmental Sciences. The primary 
coordination of the program will be centered in the Biological and 
Agricultural Engineering Unit at Tifton, Georgia, but the program will 
involve input from personnel in Griffin and Athens and researchers 
outside the University of Georgia.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This project, within the overall agricultural water use 
program, is anticipated to be completed within the original 5-year time 
frame. Since this project is new, objectives have not been completed to 
date.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project is new and has not been through an agency 
evaluation; however, the investigators prepare quarterly reports for 
the State. The procedures used to conduct the project have been peer 
reviewed, and publications developed by the project will be peer 
reviewed. One product has been produced, ``Irrigation Conservation 
Practices for the Southeast U.S.'', a 60-page report.
                         agroecology, maryland
    Question. Please provide a description of the research that has 
been funded under the Agroecology, Maryland grant.
    Answer. The agency has requested the university to submit a new 
grant proposal that has not yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. The need for this research is to protect the largest 
estuary of the Chesapeake Bay in the U.S. that is fed by eight states. 
Maryland is trying to achieve its share of the 40 percent nutrient 
reductions required by the new Chesapeake 2000 Agreement while 
maintaining economically-viable agriculture and natural resources. 
Agriculture is the predominant land use and economic engine for 
Maryland. It requires the generation of additional science-based 
knowledge and policy guidance in the fields of biological, physical, 
and social sciences.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal is the generation of science-based policy 
decisions towards reaching the 40 percent reduction goals while 
maintaining viable agriculture and natural resource industries. Fiscal 
year 2001 is the first year for this project.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were $285,000 state appropriations.
    Question. Where will the research be carried out?
    Answer. This is the first year for this grant, but the principal 
investigator envisions that work will be carried out at appropriate, 
well-equipped laboratories and field sites throughout the University of 
Maryland system and the state.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is still being clarified for the first year. The principal investigator 
anticipates that this project will play an ongoing role in assisting 
agriculture in achieving long-term nutrient reduction and other 
cooperative goals of the Chesapeake Bay Program.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Since fiscal year 2001 is the first year of the project, no 
evaluation has yet been conducted.
           alliance for food protection, nebraska and georgia
    Question. Please provide a description of the research that has 
been funded under the Alliance for Food Protection, Nebraska and 
Georgia grant.
    Answer. The fiscal year 2000 appropriation supports the 
continuation of a collaborative alliance between the University of 
Georgia Center for Food Safety and Quality Enhancement and the 
University of Nebraska Department of Food Science and Technology. 
Fiscal year 2000 funds supported research at the University of Nebraska 
on the detection, identification, and characterization of food 
allergens, the effects of processing on peanut allergens, and 
investigation of the efficacy of using various types of thermal 
processes to reduce or destroy the toxicity and mutagenicity of certain 
Fusarium metabolites in corn and corn products. Research at the 
University of Georgia was directed toward determining the foodborne 
significance of Helicobacter pylori, determining the effect of 
antimicrobials to eliminate Arcobacter from pork, determining the 
survival of E. coli O157:H7 at reduced water activity, and using 
extrusion cooking to destroy peanut allergens. Proposals from the 
University of Georgia and the University of Nebraska in support of the 
fiscal year 2001 appropriation have been requested.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researchers believe the proposed research 
addresses emerging issues in food safety which have national, regional 
and local significance. Specifically, research will address bacterial 
pathogens that can cause ulcers, cancer, and diarrheal illness, toxic 
fungal metabolites in corn products, and allergens in foods that cause 
serious reactions, including death in sensitive people. These emerging 
issues affect consumers, the food industry, and food producers at all 
levels--national, state, and local.
    Question. What was the original goal of the research and what has 
been accomplished to date?
    Answer. The original goal of this research was to: (1) facilitate 
the development and modification of food processing and preservation 
technologies to enhance the microbiological and chemical safety of 
products as they reach the consumer, and (2) develop new rapid and 
sensitive techniques for detecting pathogens and their toxins as well 
as toxic chemicals and allergens in foods. The University of Nebraska 
developed assays for detection of peanut, milk, egg, almond, walnut, 
pecan, and hazelnut residues in processed foods; produced high-quality 
antibodies for these assays; identified and characterized a soybean 
allergen and two sunflower seed allergens; discovered clues as to the 
reason why Brazil nuts cause severe allergic reactions; discovered that 
certain types of Fusarium fungi do not produce mutagenic substances; 
developed a simple liquid chromatographic procedure for determination 
of moniliformin toxin; found that the corn flake manufacturing process 
can reduce levels of fungal toxins such as aflatoxin and fumonisins; 
also found that low levels of carcinogenic aflatoxins in corn grits 
might be reduced to less than regulatory actions levels by the corn 
flake manufacturing process; discovered that making corn flakes with 
sucrose did not help to reduce fumonisin levels, but that adding 
glucose, or toasting the flakes helped to reduce the fumonisin levels 
significantly; and created reagents that can be used to develop a rapid 
method to test corn for moniliformin toxin.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1996, 
and $300,000 per year was appropriated in fiscal years 1996 through 
2000, and $299,340 in fiscal year 2001 for a total appropriation of 
$1,799,340.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were $117,000 state funds and $250,000 industry and miscellaneous in 
fiscal year 1996 and were estimated to be a minimum of $111,000 state 
funds and $305,000 industry and miscellaneous in fiscal year 1997; 
$70,000 state funds and $295,000 industry and miscellaneous funds in 
fiscal year 1998; $25,000 state funds and $250,000 industry funds in 
fiscal year 1999; and are estimated to be a minimum of $25,000 state 
funds and $25,000 industry funds in fiscal year 2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the University of Georgia 
Center for Food Safety and Quality Enhancement in Griffin, Georgia, and 
at the University of Nebraska Department of Food Science and Technology 
in Lincoln, Nebraska.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The original objectives have not yet been met. The 
researchers anticipate that work will be completed on the original 
objectives in 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An agency science specialist conducts a merit review of the 
proposals submitted in support of the appropriation on an annual basis. 
A review of the proposal from the University of Nebraska was conducted 
on May 4, 2000, and good progress was demonstrated on the objectives 
undertaken in 1998. A review of the proposal from the University of 
Georgia was conducted on May 4, 2000, and good progress was 
demonstrated on the objectives undertaken in 1998.
                    alternative crops, north dakota
    Question. Please provide a description of the research that has 
been funded under the Alternative Crops, North Dakota program.
    Answer. The alternative crops project has two main thrusts--
development and utilization of alternative or specialty crops and novel 
or new utilization of traditional crops. The goals of the project are 
to diversify income at the farm gate, and reduce reliance on 
monoculture to help alleviate pest problems, while providing new 
agricultural and industrial products to society. Some of the new areas 
under investigation include feeding of co-products from value-added 
industry to livestock; development of white corn and white wheat as 
alternative crops; alternative crops for aquaculture diets; development 
of unique dry bean market classes; alternative legumes for crop 
rotations; and expanding utilization of dry peas and lentils. Previous 
work continues with oilseed crops such as crambe, rapeseed, and 
safflower as a renewable supply of industrial oil, products from food 
crops for novel new uses in paints, coatings, food ingredients, and the 
development of new biochemical and enzymatic processes to refine oils 
for industrial uses. The projects funded in this appropriation are 
evaluated by a peer-panel chosen by the Associate Dean of Research at 
North Dakota State University. The internal peer review was conducted 
on the following criteria: (1) development of novel uses for new and 
existing crops, (2) development of niche crops and diversified 
agriculture opportunities, (3) identification of identity-preserved 
products, (4) adaptation of alternative corps, (5) scientific merit, 
(6) feasibility and practicality, (7) interdisciplinary efforts, (8) 
private sector involvement, and (9) potential economic benefit.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. Regionally, the temperate areas of the Midwest have the 
potential to grow a great number of different crops but are in need of 
publicly-sponsored research efforts to reveal the most practical, 
efficient, and economical crops and products to pursue.
    Growers in surrounding states are currently utilizing the 
information generated by research conducted through this grant. The 
principal researcher believes that nationally developing new crops and 
new markets for agricultural products is critical for both 
environmental and economic reasons. Enhanced biodiversity that comes 
from the successful commercialization of new crops aids farmers in 
dealing with pests and reducing the dependency upon pesticides. New 
markets are needed to provide more economic stability for agricultural 
products, especially as Federal price supports are gradually withdrawn.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was and still is to 
introduce, evaluate, and test new crops which will broaden the economic 
diversity of crops grown in North Dakota. The primary emphasis 
continues to be the adaptation and development of new crops, 
utilization of new and existing crops, and creating value-added 
agricultural opportunities. A brief review of accomplishments includes: 
adaptation and expanded production of new crops including crambe, 
canola, field pea, lentil, lupin, chickpea, amaranth, and buckwheat; 
development of alternative crops and crop co-products for new markets 
in livestock and fish feeds; expanded knowledge on technical aspects of 
biochemical means of splitting oilseed fatty acids; deriving red dye 
and pectin from sunflower; creating new uses for various oilseeds; and 
developing improved nutritional profiles for selected food and feed 
crops. These efforts have forged a strong link with the private sector 
and successfully spawned several crops and products into profitable 
private sector businesses.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Appropriations by fiscal year are as follows: 1990, 
$494,000; 1991, $497,000; 1992 and 1993, $700,000 per year; 1994, 
$658,000; 1995, $592,000; 1996 through 2000, $550,000 per year; and 
2001, $623,625. A total of $7,004,625 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. In fiscal year 1991, $10,170 was provided by state 
appropriations. In fiscal year 1992, $29,158 was also provided by state 
appropriations and self-generated funds. In fiscal year 1993, $30,084 
was provided by state appropriations. In fiscal year 1994, $161,628 was 
provided by state funds, $3,189 provided by industry, and $9,020 
provided by other sources, totaling $173,837. In fiscal year 1995, 
$370,618 was provided by state appropriations, $1,496 provided by self-
generated funds, $1,581 provided by industry, and $5,970 was provided 
in other non-Federal funds totaling $379,665 for fiscal year 1995. In 
fiscal year 1996, $285,042 was provided by state appropriation, $4,742 
provided by industry, $14,247 provided from other non-Federal funds 
totaling $304,031 for 1996. In fiscal year 1997, $462,012 was provided 
by state appropriations, $8,080 was provided by self-generated funds, 
$8,217 was provided by industry, and $103,063 was provided from other 
non-Federal funds totaling $581,372 for fiscal year 1997. In fiscal 
year 1999, $984,251 was provided through state appropriations, $40,198 
provided through self-generated funds, $13,010 provided by industry, 
and $87,942 from other non-Federal sources for a total of $1,125,401. 
In fiscal year 2000, $368,664 in state appropriations, $93,408 in other 
non-Federal funds, and $31,886 in industry funds for a total of 
$493,958 were provided for this grant
    Question. Where is this work being carried out?
    Answer. The work is conducted on the campus of North Dakota State 
University and at six different research extension centers in North 
Dakota. Work is also done in eastern Montana.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Fiscal year 2001 is the twelfth year of activity under this 
grant. The primary emphasis has been to find new crops with non-food 
uses and create value added products. The original objectives have been 
met, however, new opportunities have become known as previous research 
has identified new crop alternatives and innovative crop utilization 
ideas.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The cognizant staff scientist annually reviews the project 
and has determined that the research is conducted in accordance with 
the mission of this agency.
                alternative crops for arid lands, texas
    Question. Please provide a description of the research that has 
been funded under the Alternative Crops for Arid Lands, Texas grant.
    Answer. This grant is to develop the two most abundant plants in 
the southwestern U.S., i.e. mesquite and cactus, into commercial crops 
through a combination of applied research and market development. In 
Texas, New Mexico, Arizona and California these plants occupy 72 
million acres. This grant is peer reviewed internally and external 
reviewers include a private sector cactus breeder, the Texas 
Agricultural Extension Service, and a specialist in wood products 
marketing.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
goal?
    Answer. The semi-arid regions of the U.S. that border with Mexico 
in Texas, New Mexico, Arizona, and California have some of the highest 
unemployment rates, lowest economic returns per acre, and lowest 
incomes in the U.S. The two most abundant plant species in this region 
are prickly pear cactus and mesquite. By working with Mexican 
researchers, this grant will help to stabilize the economic situation 
of rural poor in Mexico and the U.S. There are few crops capable of 
being grown sustainably in these regions. Due to the nitrogen fixing 
capability, and thus soil improving properties of mesquite and high 
water use efficiency of cactus, these plants contribute to sustainable 
agriculture and will diversify southwestern agriculture. This research 
group is the only center in the U.S. developing these plants as crops.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal is to dramatically improve the economic returns 
and year-to-year economic stability in the southwestern United States 
from arid and semi-arid lands. For cactus, the goal has been to provide 
improved varieties that can be harvested and processed into food and 
forage. Over 50 hybridizations were conducted between the top producing 
fruit accessions of cactus. Reciprocal hybridizations for 14 different 
accessions were successfully harvested and viable seed recovered. 
Germination trials have yielded more than 100 seedlings from which 
selected hybrids will be transferred to the field in the spring of 
2001. Plots planted in late summer of 1999 are growing well with few 
plant deaths. Data on pads and number of fruit have been analyzed and 
will be combined with data collected in the spring of 2001. Selected 
cuttings from different accessions have been planted and subjected to 
freezing temperatures to evaluate freeze damage. Long term storage of 
pollen is very important, and storage trials are underway to determine 
optimum conditions. For mesquite, the goal is to increase its value as 
a result of better tree form. Germination and survival rates for 20 
sources for superior trees in Texas were evaluated. Seedling height 
prior to transplanting has been found to be an important factor that 
affects survival rate. A meeting was held with a ranch owner in Freer, 
Texas, to evaluate mesquite trees for possible inclusion in a mesquite 
productivity study. The Eighteenth Annual Los Amigos del Mesquite 
Conference, sponsored by the Wray Charitable Trust was planned and 
carried out in the fall of 2000. The conference topic was ``The 
Mesquite Bean and Its Utilization''. Subjects such as mesquite bean 
flour and cattle feed as well as mesquite tree management that fosters 
soil conservation, proper pruning procedures for mesquite trees, and 
long term development of mesquite products were presented. Ten 
mesquite-related companies were represented at the conference.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1994 
and the appropriation for fiscal year 1994 was $94,000. For fiscal 
years 1995 through 1997 the appropriation was $85,000 per year; for 
fiscal years 1999 through 2000 was $100,000 per year; and for fiscal 
year 2001 is $99,780. A total of $648,780 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. In fiscal year 1994, $43,215 was provided by the Texas 
legislature.
    Question. Where is the work being carried out?
    Answer. The work is being conducted by Texas A&M University, 
Kingsville, Texas.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. For cactus, the original objective of the project was to 
provide improved varieties of cactus for fruit and napolitos marketing. 
Researchers anticipate that improved varieties should be available in 
two to four years. Currently, a small Texas and California cactus 
industry exists, and more economic growth can be achieved with the 
introduction of new varieties. For mesquite, the objective to improve 
the economic return largely has been met, since markets for mesquite 
lumber, flooring, furniture, and barbecue work products continue to 
improve. Other related objectives such as growth and form, genetic 
screening, and breeding will take longer to complete.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Evaluation of this project is conducted annually based on 
the annual progress report and discussions with the principal 
investigator, as appropriate. The review is conducted by the cognizant 
staff scientist who has determined that this research is in accordance 
with the mission of the agency.
                alternative nutrient management, vermont
    Question. Please provide a description of the research that has 
been funded under the Alternative Nutrient Management, Vermont grant.
    Answer. In January 2001, the agency requested the University of 
Vermont to submit a grant proposal which will be completed soon. The 
project will investigate the effectiveness of constructed wetlands to 
treat farm runoff and manure to protect adjacent water sources.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. Developing more cost effective and efficient strategies to 
protect groundwater from pollution with farmyard waste is a local, 
regional, and national priority.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research is to use a constructed wetland 
comprised of different plant ecosystems to study how the plant biomass, 
the species or combination of plants, and the harvesting of plants and 
climatic conditions modify the effectiveness of nutrient removal from 
the farm effluent introduced into the system. The research is yet to 
commence although substantial planning and literature evaluation has 
been conducted.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
with an appropriation of $189,582.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. This project will be cooperative with colleagues across the 
University, in Natural Resource Conservation Service, and in the 
Vermont Department of Agriculture. We do not know the precise levels of 
non-Federal funds that will be expended over the course of the project. 
We expect there will be substantial additional investments of state and 
university funds in salaries, support costs, and equipment 
expenditures.
    Question. Where is the work being carried out?
    Answer. Research will be conducted at the University of Vermont's 
Paul Miller Research Center.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This will be a 1-year project completed at the end of 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Since this is a new project, no agency evaluation has 
occurred.
                  alternative salmon products, alaska
    Question. Please provide a description of the research that has 
been funded under the Alternative Salmon Products, Alaska grant.
    Answer. The overall goal of the Alternative Salmon Products Program 
for fiscal year 2000 was to develop market-desired salmon products 
using wild-caught salmon. The project assisted Alaska salmon producers 
in sustaining current and entering new markets. The main approach has 
been a competitive grant process for proposals on marketing of salmon 
products. In addition, an assessment of the Hong Kong smoked salmon 
trade was to be performed. According to the Principal Investigator, a 
call for proposals on the Marketing Mini-grants has been put out and 
the proposals will be judged. Proposals for fiscal year 2001 have been 
requested.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The Alaska salmon industry has lost considerable market 
share worldwide to farmed salmon production. In 1994, the farmed salmon 
market share surpassed Alaska's market share of the world's salmon 
supply and has continued to climb every year since. In 1997, Norwegian 
farmed salmon production exceeded Alaska wild stock harvests. Also in 
1997, Chilean Coho salmon exports to Japan exceeded North American 
sockeye salmon exports to Japan. Japan has traditionally been Alaska's 
strongest and most lucrative export market. The Alaska salmon industry 
is a multi-state industry. Though the product is harvested in Alaska, 
the benefits are shared with fishermen residents in Washington State, 
Oregon, California, and throughout the nation.
    Question. What was the original goal of the research and what has 
been accomplished to date?
    Answer. The broad research goal of the Alternative Salmon Product 
Program is the development of market-desired salmon products using 
wild-caught salmon. In 1998 and continuing, researchers involved in the 
Pinbone Removal Machine Project are addressing the problem of deboning 
wild-caught fish in appropriate volumes, so that they can be marketed 
as frozen skinless, boneless fillet portions rather than simply as 
headed and gutted frozen fish or canned salmon. New products such as 
this would allow Alaskan wild caught salmon to compete more effectively 
with pen-reared salmon. The researchers have designed, built and tested 
four prototype pinbone removal machines, making sequential improvements 
in processing plants during the 2000 salmon season.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The initial funding for the Alternative Salmon Products 
program was $400,000 per year on fiscal years 1998 and 1999; fiscal 
year 2000, $552,500; and fiscal year 2001, $643,581. A total of 
$1,996,081 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Industry will contribute approximately $50,000 based on 
estimated cost of $50,000 per plant for commercial testing of beta 
prototype.
    Question. Where is this work being carried out?
    Answer. The work will be conducted at the University of Alaska, 
Fairbanks, the University of Alaska Fishery Industrial Technology 
Center in Kodiak Alaska, in Hong Kong, and in a variety of salmon 
product processing plants across Alaska.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The Pinbone Machine Project under the Alternative Salmon 
Product Program, including original and related objectives, will be 
completed with fiscal year 2000 funding. Other projects, like the 
Alternative Salmon Management Program will take about two years to 
complete the objective.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The proposal received in support of the fiscal year 2000 
appropriation was reviewed for merit on September 14, 2000. The 
project's thrust is to assist Alaska Salmon producers to sustain market 
penetration by entering new markets with value added products. The main 
approach was to award competitive grant proposals on marketing Salmon 
products. Assessment of trade in Hong Kong smoked Salmon was also part 
of the proposal.
                 animal science food safety consortium
    Question. Please provide a description of the research that has 
been funded under the Animal Science Food Safety Consortium program.
    Answer. The Food Safety Consortium is focused on accomplishing six 
objectives: (1) to develop techniques for rapid detection of infectious 
agents and toxins in meat and poultry; (2) to develop a statistical 
approach for evaluating potential health risks; (3) to identify 
effective intervention points to control microbiological or chemical 
hazards; (4) to develop monitoring methodologies to detect these 
hazards in the distribution chain; (5) to develop technologies to 
complement the development of Hazard Analysis and Critical Control 
Point--HACCP--programs by USDA; and (6) to estimate costs and benefits 
associated with intervention alternatives.
    Question. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Answer. A safer meat product food supply would reduce the economic 
losses related to days away from work, medical treatment, and even 
human suffering and death as a result of foodborne illnesses. The costs 
are estimated at over $5 billion a year. The Consortium's participation 
in technology transfer to health departments and trade associations are 
helping on a regional and local level to educate consumers and food 
handlers on safe handling procedures. Scientific-based testing that is 
being developed will help provide food that will be accepted in 
international markets and increase exports and sustainable rural 
economies at home. On a regional and local level, each of the 
institutions are involved in HACCP program training for industry and 
are holding seminars for industry to discuss food safety research 
findings. In addition, the University of Arkansas is teaching food safe 
programs to children in state elementary schools.
    Question. What was the original goal of this research, and what has 
been accomplished to date?
    Answer. The original goal was to bring together research and 
expertise of institutions in three states in order to best address the 
areas of poultry, beef, and pork meat production from the farm to the 
consumer's table. In coordination with each other, they seek to develop 
detection, monitoring, and prevention techniques to control or prevent 
the presence of infectious agents and chemical toxins in the food 
supply.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $1,400,000; fiscal year 1990, $1,678,000; 
fiscal year 1991, $1,845,000; fiscal years 1992-1993, $1,942,000; 
fiscal year 1994, $1,825,000; fiscal years 1995-1996, $1,743,000 each 
year; fiscal year 1997, $1,690,000; fiscal years 1998-2000, $1,521,000 
each year; and fiscal year 2001, $1,631,403. A total of $22,002,403 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $1,611,947 in 1991; $1,639,050 in 1992; $1,726,153 in 
1993; $2,304,223 in 1994; $2,075,145 in 1995; $2,796,097 in 1996; 
$2,600,545 in 1997; $1,850,899 in 1998; $3,421,866 in 1999. Thus, from 
1991 through 1999 a total of $20,025,925 in non-Federal funds was 
provided.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Iowa State University, 
Kansas State University, University of Arkansas at Fayetteville, 
University of Arkansas for Medical Sciences at Little Rock, and 
Arkansas Children's Hospital.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The research projects from the Consortium continue to 
evolve and build on the original objectives first set out in 1989. The 
principal investigators have developed patented tests that have 
significantly reduced the time necessary to detect pathogens in the 
processing plants.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. There has never been a formal evaluation of the Food Safety 
Consortium but instead an annual conference is organized at which a 
designated representative from CSREES attends. Along with other invited 
agency representatives, such as the Food Safety and Inspection Service, 
the Agricultural Research Service, and the Economic Research Service, 
CSREES participates in a steering committee meeting which critiques 
projects and discusses research priorities. Peer reviews are conducted 
by expert scientists who are not members of the Consortium, to 
determine those projects selected for funding.
                apple fire blight, michigan and new york
    Question. Please provide a description of the research that has 
been funded under the Controlling Fire Blight Disease of Apple Trees, 
Michigan and New York grant.
    Answer. This project studies fire blight in apple trees, which is a 
bacterial disease that can kill spurs, branches, and sometimes entire 
trees. The management of this disease is difficult because only one 
antibiotic treatment is available. The objectives of this research are 
to develop fire blight resistance varieties, evaluate biological and 
chemical control methodologies for disease management, and develop an 
education and extension component for disease management.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Fire blight is a destructive bacterial disease of apple 
trees throughout the U.S. that can kill the trees. In the northeast, 
the disease is more prevalent because of humid weather conditions.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goals of this research are to develop transgenic apple 
trees through various molecular technologies, to develop new approaches 
to antibiotic treatments of disease, to develop an early screening 
technique for tree sensitivity to the disease, to evaluate biological 
and cultural controls, and to develop and improve education and 
extension components of disease management. The last objective involves 
using disease prediction models.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Fiscal year 1997 was the first year funds were appropriated 
for this grant at $325,000. For fiscal years 1998 through 2000, 
$500,000 per year, and $498,900 in fiscal year 2001. A total of 
$2,323,900 has been appropriated.
    Question. What are the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds for 1997 were $40,127 for Michigan 
and $104,166 for New York. The funds for 1998 were $40,071 from 
Michigan and $104,166 from New York. The state appropriated funds for 
1999 were $49,771 for Michigan and $106,689 from New York. The state 
appropriated funds for 2000 were $43,200 for New York and $46,178 for 
Michigan.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Michigan State University 
and Cornell University, New York Experiment Station.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated date of completion for the original 
objectives was 2000. The objectives have not been met. It is estimated 
by the researchers that three to five years are needed to complete this 
project.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The last merit review of this project was in January 1999. 
A site visit was made to Michigan State University in March 1999 and to 
Cornell University, Geneva and Ithaca, New York in April 1999. Both 
principal investigators were visited as well as the field sites. 
Surveys of established apple orchards and new planting in New York 
showed losses of up to 255 trees due to fire blight infections of 
rootstocks. Several new materials for control of fire blight on 
susceptible varieties gave promising results in field trails. Improved 
techniques to transfer genes into apples and to obtain flowering on the 
transgenic trees have been developed so that transgenic fruits can be 
examined within two years. In research in Michigan, a total of 50 phage 
isolated from fire blight were characterized with the potential of 
using these to control the disease. A new plant growth regulator that 
controls vegetative growth in apple appeared to make trees less 
susceptible to fire blight. A detailed study of the role of the hrpA 
gene in fire blight virulence has been completed with a better 
understanding of its involvement in virulence in the disease.
                         aquaculture, arkansas
    Question. Please provide a description of the research that will be 
funded under the Aquaculture, Arkansas project.
    Answer. CSREES has requested that the University of Arkansas at 
Pine Bluff submit a grant proposal for this new research activity that 
will focus on maximizing production efficiency of farm-raised catfish 
under changing market conditions and offshore competition.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This is a new project to be initiated in fiscal year 2001. 
The agency has requested the university submit a research proposal 
which has not been received to date. The principal researcher indicates 
that the U.S. farm-raised channel catfish industry is facing increased 
competition from imported catfish, increasing costs due to expansion of 
regulations, increasing labor costs, and changing market demands. Gains 
in productivity will be required for the industry to continue growing 
to provide employment opportunities and serve as a catalyst for 
economic growth in impoverished rural areas of the U.S.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This is a new research grant to be funded in fiscal year 
2001.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $237,476.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates that significant non-Federal 
funding will be provided in fiscal year 2001 primarily from state 
sources to cover the salaries of the principal investigators. A total 
of $85,000 is anticipated for fiscal year 2001 consisting of $46,600 
from state appropriations, $20,000 from the Arkansas Catfish Checkoff 
Fund, $11,000 from private sector in-kind contributions, and $7,400 
from facility use.
    Question. Where is this work being carried out?
    Answer. The research will be conducted at the University of 
Arkansas at Pine Bluff.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This is the first year of this project and the agency is 
currently awaiting submission of the research proposal.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency will evaluate the progress of this new project 
on an annual basis. The university will be required to submit an 
accomplishment report each year when the new proposal is submitted to 
CSREES for funding. Since this is the first year of the program, CSREES 
will conduct an external peer review of the proposal. The 2001 CSREES 
review will be completed within three weeks of submission of the 
proposal. The researchers will be requested to develop a research 
proposal consistent with the National Science and Technology Council's 
Strategic Plan for Aquaculture Research and Development.
                          aquaculture, florida
    Question. Please provide a description of the research that has 
been funded under the Aquaculture, Florida grant.
    Answer. CSREES is in the process of reviewing the submitted 
proposal. The research will focus on developing procedures for hatchery 
seed production of two potential bivalve species applying dry tempering 
methods to increase the survival of Florida culture clams in 
refrigerated storage using molecular genetic techniques to examine hard 
clam stock diversity, determining the suitability of a freshwater clam 
for use in tertiary treatment of agricultural wastewater, and 
evaluating the efficacy of best management practices in pollutant 
reduction associated with food and baitfish farms.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This is the first year of this new grant proposal. The 
proposed research addresses critical local needs that have been 
identified by the Shellfish Aquaculture Advisory Committee and the 
Florida Food and Bait Aquaculture Advisory Committee. The research 
findings and results will also be of interest and applicable to other 
similar aquaculture operations and conditions in the southern region.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to improve and 
strengthen aquaculture in Florida by enhancing the existing hard clam 
sector, developing new commercial species, and developing improved and 
practical pollutant reduction practices through interrelated research 
activities.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $445,019.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates that significant non-Federal 
funding will be provided in fiscal year 2001 primarily from state 
sources to cover the salaries of the principal investigators and 
operating expenses for the laboratory. As the program develops, 
additional non-Federal funding is expected.
    Question. Where is this work being carried out?
    Answer. The location of the work site(s) will be included in the 
new grant proposal when it is received by CSREES for processing to 
award the grant funds.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This is a new research grant to be funded in fiscal year 
2001. The agency has not received a grant proposal to date.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency will evaluate the progress of this new project 
on an annual basis. The university will be required to submit an 
accomplishment report each year when the new proposal is submitted to 
CSREES for funding. Since this is the first year of the program, CSREES 
will conduct an external peer review of the proposal. The 2001 CSREES 
review will be completed within three weeks of submission of the 
proposal. The researchers will be requested to develop a research 
proposal consistent with the National Science and Technology Council's 
Strategic Plan for Aquaculture Research and Development.
                         aquaculture, louisiana
    Question. Please provide a description of the research that has 
been funded under the Aquaculture, Louisiana grant.
    Answer. The agency requested that the university submit a grant 
proposal that has not been received to date. Research under this 
program has addressed critical problems in the commercial aquaculture 
industry including crawfish, catfish, striped bass, and other emerging 
species. The university has completed studies in the area of fish 
nutrition, fish health, fish genetics, production management 
strategies, alternative species, seafood processing, product quality, 
product safety, and broodstock development.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal investigator indicates that information 
generated from the funded research will have broad application for 
local, regional, and national aquaculture industries. The researchers 
indicate that there is a need to improve production efficiency for a 
number of important aquaculture species in order to enhance the 
profitability and sustainability of the aquaculture industry in the 
region.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research was to provide science-
based information through a basic and applied research base that 
specifically addressed the needs of the aquaculture industry in 
Louisiana and the southern region. Research funded by this program has 
led to improved feed formulations, production of fish vaccines, 
improved extraction and detection methods for off-flavor compounds, 
improved product quality and safety, procedures for the production of 
genetic maps for channel catfish, evaluation of growth hormones in 
channel catfish production, development of cryopreservation techniques 
for germplasm preservation, reduction of phosphorus in aquaculture 
effluents, improved forage-based systems for crawfish, as well as 
improved production, harvesting, and processing technologies for a 
number of important species. Research continues to be directed at 
important opportunities to enhance production efficiency and commercial 
viability of sustainable aquaculture systems in Louisiana and the 
southern region.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Research to be conducted under this program continues 
efforts initiated under the Aquaculture general program in fiscal years 
1988 through 1991. The work supported by this specific program began in 
fiscal year 1992 and the appropriation for fiscal years 1992-1993 was 
$390,000 per year, $367,000 in fiscal year 1994, $330,000 each year in 
fiscal years 1995-2000, and $329,274 in fiscal year 2001 for a total of 
$3,456,274.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates that non-Federal funding for this 
program is as follows: in fiscal year 1991, $310,051; in fiscal year 
1992, $266,857; in fiscal year 1993, $249,320; in fiscal year 1994, 
$188,816; in fiscal year 1995, $159,810; in fiscal year 1996, $150,104; 
in fiscal year 1997, $158,808; in fiscal years 1998 and 1999, $110,101; 
and in fiscal year 2000, $447,269. The primary source of this funding 
was from state sources and self-generated funds with minor 
contributions from industry and other non-Federal sources.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Louisiana State University.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original specific objectives were to be completed in 
1990. These specific research objectives have been met, however, 
research required for long-term growth of the aquaculture industry in 
Louisiana and the southern region continues to be addressed. The 
specific research outlined in the current proposal will be completed in 
fiscal year 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Grants are awarded to scientists within the university on a 
competitive peer-review basis. The entire proposal is reviewed by 
agency Program Managers on an annual basis. The 2000 agency review 
determined that the proposal was well written with objectives clearly 
stated. The research approach, methodology, timetable, and experimental 
design were sound and addressed important opportunities for the 
commercial culture of catfish, crawfish, and tilapia in the southern 
region. The feasibility of attaining objectives during the life of the 
proposed research was excellent, and the research team was well-
qualified. The proposed research built on work initiated in previous 
years, and progress on previous work was well documented. The proposed 
research is consistent with national goals and needs outlined in the 
National Science and Technology Councils--NSTC--Aquaculture Research 
and Development Strategic Plan.
             aquaculture research, stoneville, mississippi
    Question. Please provide a description of the research funded under 
the Aquaculture Research Stoneville, Mississippi grant.
    Answer. The agency has requested that the university submit a grant 
proposal that has yet to be received. Research under this program has 
addressed the critical needs of the farm-raised channel catfish 
industry including practical feeding and nutrition strategies, fish 
health and water quality management, and acoustical in-pond monitoring 
technologies.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal investigator indicates that results from this 
project continue to have a significant impact on the competitiveness of 
a significant segment of the domestic aquaculture industry, namely 
channel catfish. The farmed-raised channel catfish industry accounts 
for over 70 percent of total domestic aquaculture production. Research 
funded by this program is directed towards improving feeds and feeding 
strategies, enhancing aquatic animal health, and acoustical monitoring 
and inventory of catfish in pond production systems. These findings 
will have long-term impacts on the economic viability of the farm-
raised channel catfish industries in the southern region.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to address the 
research needs of the farm-raised channel catfish industry in the areas 
of water quality and nutrition. Results from this research have led to 
improved water quality management practices in commercial catfish ponds 
and improved diet formulation and feeding strategies that have been 
widely adopted by the industry. Research findings from this program 
have had a direct impact on reducing the cost of catfish feed without 
reducing performance and productivity. Researchers have demonstrated 
that fish meal levels can be significantly reduced in commercial 
catfish diets. Fish health monitoring efforts are also expected to 
enhance production efficiency. Additionally, sonar hardware and 
software technologies are being refined and evaluated for use in stock 
assessment in channel catfish ponds.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal years 1980-1981, $150,000 per year; fiscal year 1982, 
$240,000; fiscal years 1983-1984, $270,000 per year; fiscal year 1985, 
$420,000; fiscal years 1986-87, $400,000 per year; fiscal year 1988, 
$500,000; fiscal year 1989, $588,000; fiscal year 1990, $581,000; 
fiscal year 1991, $600,000; fiscal years 1992-1993, $700,000 per year; 
fiscal year 1994, $658,000; fiscal years 1995-1997, $592,000 each year; 
fiscal year 1998, $642,000; $592,000 per year in fiscal years 1999 
through 2000; and $590,698 in fiscal year 2001. A total of $10,819,698 
has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates a total of $2,101,508 in non-
Federal funding to support this research for fiscal years 1991-1994; 
$1,128,451 in fiscal year 1995; $601,473 in fiscal year 1996; $463,990 
in fiscal year 1997; $464,266 in year 1998; $740,000 in fiscal year 
1999; and $770,000 in fiscal year 2000. Non-Federal funding is 
primarily provided by state funds. Additional funding is also provided 
from product sales, industry contributions, and other miscellaneous 
sources.
    Question. Where is this work being carried out?
    Answer. The grants have been awarded to the Mississippi State 
University Agricultural and Forestry Experiment Station. All nutrition 
research is conducted at the Delta Branch Experiment Station, 
Stoneville, Mississippi. The acoustical research is conducted in 
cooperation with the National Center for Physical Acoustics at the 
University of Mississippi.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the specific original 
research objectives was 1984. The original objectives have been met, 
however, projects funded by subsequent grants continue to address the 
critical research needs of the channel catfish industry. The specific 
research outlined in the current proposal will be completed in 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency Program Managers and Program Specialist evaluate 
the progress of this project on an annual basis. The agency's fiscal 
year 2000 evaluation concluded that the proposal was well written, the 
objectives were clearly stated, and the experimental design and 
scientific approach were sound. The researchers were leading 
authorities in this area of research and were well aware of the 
complexity of the industry and the implications of their research. 
Significant progress had been reported on research objectives under 
this program, and a strong linkage between the researchers and the 
catfish industry has led to the accelerated adoption of research 
findings within the industry. The research from this program continues 
to have a tremendous impact on the industry by improving production 
efficiency in commercial catfish ponds through improved feeds and 
feeding strategies. The proposed research is consistent with national 
goals and needs outlined in the National Science and Technology 
Councils--NSTC--Aquaculture Research and Development Strategic Plan.
                      aquaculture, north carolina
    Question. Please provide a description of the research that has 
been funded under the Aquaculture, North Carolina grant.
    Answer. The agency has requested that the university submit a grant 
proposal that has yet to be received. The researchers indicate that the 
funding will be used to support and expand research efforts in areas 
with species that are important to the aquaculture industry in North 
Carolina and the U.S. including hybrid striped bass, tilapia, flounder, 
and catfish.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal investigator indicates that the proposed 
research will impact aquaculture production technology for several 
species of cultured finfish with regional and national implications 
that could significantly impact the economic viability of coastal and 
rural communities across the nation.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the project was targeted at resolving 
specific impediments to aquaculture efficiency, profitability, and 
growth in the Mid-Atlantic region. Research has led to improved vaccine 
administration methods for rainbow trout, improved broodstock 
maintenance methodologies for striped bass, and reduction of 
environmental impacts by improving system technologies and feeding 
strategies in hybrid striped bass production ponds. Under the fiscal 
year 2000 grant, research was initiated to improve technology for 
commercial production of the summer flounder. Studies have been 
initiated to enhance reproductive efficiency, to develop faster-growing 
all female populations, and to evaluate biochemical growth regulating 
factors in summer flounder.
    Question. How long has the work been underway and how much has been 
appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1997 
and the appropriation for fiscal year 1997 was $150,000. The project 
was not funded in fiscal years 1998 and 1999. The fiscal year 2000 
appropriation was $255,000 and for fiscal year 2001, $299,340 is 
appropriated. A total of $704,340 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university reported a total of $94,000 of non-Federal 
funding to support research carried out under this program for fiscal 
year 1997. The university estimates non-Federal funding of $200,000 for 
fiscal year 2000, and $221,000 for fiscal year 2001. The primary source 
of the non-Federal funding is from state sources.
    Question. Where is the work being carried out?
    Answer. Research is being conducted at North Carolina State 
University and their aquaculture research field station.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This program was initiated in fiscal year 1997 and was 
funded for one year. The original objectives were completed. Funding 
was not appropriated in fiscal years 1998 and 1999. The anticipated 
completion date for the expanded objectives for the fiscal year 2000 
proposal is July 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency's fiscal year 2000 review indicated that the 
proposal was well written, objectives were clearly stated, and the 
methodology and experimental design were sound. The research team is 
well qualified and has the appropriate background. Facilities for the 
project are excellent. The research timetable presented was ambitious 
for a 12-month period. The proposed research is consistent with the 
goals and objectives of the National Science and Technology Council's--
NSTC--Aquaculture Research and Development Strategic Plan.
                         aquaculture, virginia
    Question. Please provide a description of the research that has 
been funded under the Aquaculture, Virginia grant.
    Answer. The agency requested that the university submit a grant 
proposal that has yet to be received. The proposed research will 
continue to evaluate culture methods and the economic viability of 
closed recirculating aquaculture systems. Fish culture technologies and 
waste management will be refined, off-flavors and product quality will 
be evaluated, and marketing strategies will developed for these 
systems.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The investigators indicate that there is a need to develop 
a highly-competitive, sustainable aquaculture industry that uses closed 
recirculating system technologies in order to meet consumer demand for 
cultivated aquatic foods that are of high quality, safe, competitively 
priced, nutritious, and are produced in an environmentally responsible 
manner. Research refining culture system technologies has the potential 
to significantly enhance domestic aquaculture production.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to identify 
commercially-viable aquaculture species utilizing recirculating 
aquaculture system technology, verifying production and culture 
management protocols utilizing this technology, analyze production 
budgets providing information upon which to build business plans, 
investigate marketing development strategies, and prepare scientific, 
technical, and popular publications to disseminate the results of this 
research. Research was initiated in fiscal year 1999. Site selection 
and development has been completed and production trials are underway.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This was a new research initiative in fiscal year 1999 and 
$100,000 per year was appropriated for fiscal years 1999 through 2000, 
and $99,780 in fiscal year 2001. The total appropriation for this grant 
is $299,780.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates a minimum of $90,000 of non-
Federal funding in fiscal year 1999; $34,853 in fiscal year 2000; and 
$158,000 in fiscal year 2001. This support is provided primarily from 
state sources. In addition the university reports substantial in-kind 
support from research cooperators.
    Question. Where is this work being carried out?
    Answer. The research will be conducted through the Virginia 
Agricultural Experiment Station, Virginia Polytechnic Institute and 
State University, Blacksburg, Virginia, and at the Southwest Virginia 
Aquaculture Center in collaboration with private aquaculture firms in 
Virginia.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This original proposal outlined a three year project. The 
fiscal year 1999 grant provided funding for the first year of the 
project and the fiscal year 2000 grant provided funding for the second 
year. The anticipated completion date for the fiscal year 2000 
component of the project is 2001. It is anticipated that the fiscal 
year 2001 grant will provide funding for the third year of the proposed 
project with minor modifications.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency evaluates the progress of this project on an 
annual basis. The fiscal year 2000 agency evaluation concluded that 
objectives described in the proposal were relevant to state, regional, 
and national goals. The objectives, methodologies, and experimental 
design were sound. Personnel and facilities were appropriate for the 
stated objectives, and objectives should be attained within budgetary 
and time constraints. The proposed research is consistent with goals 
and needs of the National Science and Technology Council's--NSTC--
Aquaculture Research and Development Strategic Plan.
                        aquaculture, washington
    Question. Please provide a description of the research that has 
been funded under the Aquaculture, Washington grant.
    Answer. The agency has requested that the university submit a grant 
proposal that has yet to be received. This is a new program that will 
be initiated in fiscal year 2001. The university indicates that the 
research will address the critical needs of the trout farming industry 
in the U.S. including the hatchery sector of the industry which 
provides high quality trout eggs for international markets.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The researchers indicate that the project will focus on the 
current constraints to the expansion of the industry that include 
threats from foreign and domestic pathogens which could impact both 
foreign and domestic markets. Research efforts should lead to improved 
production efficiency and enhanced aquatic animal health management in 
the trout farming industry with regional and national implications. The 
researchers indicate that the research goals and objectives are 
consistent with those outlined in the National Science and Technology 
Council's--NSTC--Aquaculture Research and Development Strategic Plan.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The researchers indicate that original goals will be to 
improve and expand trout aquaculture at the regional and national level 
through improved animal health management, improved water quality and 
effluent management, and improved product quality and new product 
development.
    Question. How long has the work been underway and how much has been 
appropriated through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates a total of $148,323 non-Federal 
funding to support this project in fiscal year 2001 primarily from 
state sources. The university also reports significant in-kind support 
from the industry.
    Question. Where is the work being carried out?
    Answer. Research is being conducted at Washington State University 
in cooperation with industry.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This project will be initiated in fiscal year 2001 with the 
anticipated completion date for the original objectives in 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency will conduct the initial review of this proposal 
when it is submitted for funding. The proposal may be externally peer 
reviewed as part of the evaluation.
      aquaculture product and marketing development, west virginia
    Question. Please provide a description of the research that has 
been funded under the Aquaculture Product and Marketing Development, 
West Virginia, grant.
    Answer. The agency requested that the university submit a grant 
proposal that has yet to be received. The research program is aimed at 
developing a viable and competitive aquaculture industry in West 
Virginia and the Appalachian region. The specific objectives of the 
project address state and regional needs by improving the short-term 
viability and long-term sustainability of aquaculture production and 
processing firms in West Virginia and similar areas of Appalachia. 
Specific research strategies include the development of marketing 
strategies for trout producers and processors, increasing the economic 
efficiency and profitability of trout-based enterprises, improving the 
consistency and quality of fresh trout fillets and value-added smoked 
trout products, utilization of impaired mine waters for aquaculture, 
and implementation of a technology transfer component to disseminate 
information generated by this project to the aquaculture industry in 
Appalachia.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The researchers indicate that there is a regional and 
national need to evaluate marketing and product development for small 
scale aquaculture systems in rural communities. In addition, there is a 
need to improve the efficiency of these systems and to evaluate the use 
of impaired mine waters for aquaculture.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to develop sound 
marketing strategies for aquaculture products, improve the economic 
efficiency of aquaculture production systems, and improve the quality 
and variety of aquaculture products in West Virginia and the 
Appalachian region. Marketing surveys have been conducted for fee 
fishing operations and food fish production systems. Researchers have 
developed baseline information on the economics of production and 
processing relevant to small-scale facilities. Studies to evaluate the 
quality of aquaculture products from these small-scale systems have 
been implemented. Efforts to evaluate impaired mine waters for 
aquaculture production have recently been initiated.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. A grant has been awarded from funds appropriated as 
follows: fiscal year 1998, $600,000; $750,000 for each of fiscal years 
1999 through 2000; and $748,350 in fiscal year 2001. A total of 
$2,848,350 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates total non-Federal funding 
available for this program at $440,000 for fiscal years 1998 through 
2001. The primary source of this funding is from state sources.
    Question. Where is this work being carried out?
    Answer. The research is being conducted at the University of West 
Virginia in Morgantown and at off campus sites with a variety of 
cooperators.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project was initiated in fiscal year 1998. Research 
addressing the original objectives has essentially been completed and 
objectives have been met. Research initiated in fiscal years 1999 and 
2000 is currently underway, and the anticipated completion date for 
these objectives is fiscal year 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency's fiscal year 2000 review indicated that the 
proposal was well written with objectives clearly stated. The research 
approach, methodology, timetable, and experimental design were sound. 
The research was relevant and addresses an important opportunity for 
the commercial aquaculture industry in West Virginia and throughout the 
Appalachian region. The feasibility of attaining objectives during the 
life of the proposed research was excellent. The research team was well 
qualified and has the appropriate background. Facilities are adequate 
to conduct the proposed research. The proposed research builds on work 
initiated in previous years and progress on previous work is well 
documented. The proposed research is consistent with national goals and 
needs outlined in the National Science and Technology Council's--NSTC--
Aquaculture Research and Development Strategic Plan.
            asparagus technology and production, washington
    Question. Please provide a description of the research that has 
been funded under the Asparagus Technology and Production, Washington 
grant.
    Answer. This is a new grant and the University of Washington is 
preparing a proposal for submission.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. The asparagus industry in Washington and other states is 
suffering severe economic loss due to competition from countries where 
labor and other costs of production are lower. This has necessitated 
producing more asparagus for the fresh market, developing advanced 
technologies, and delivering this information to the producers. This 
research will enable Washington asparagus producers to remain 
domestically and internationally competitive.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this grant is to develop new technologies for 
harvesting and packaging fresh asparagus that will reduce labor inputs 
and allow asparagus growers from the U.S. to remain competitive.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated for fiscal year 2001 is $224,505.
    Question. What is the amount and source of non-Federal funds 
provided by fiscal year?
    Answer. In fiscal year 1999, $145,000 from an asparagus grower 
assessment was spent addressing these issues. In fiscal year 2000, 
$123,000 from an asparagus grower assessment and $30,000 from the State 
of Washington was provided. In is anticipated that this level of non-
Federal funding will continue throughout the life of the project.
    Question. Where is this work being carried out?
    Answer. The work is being carried out at Washington State 
University and Michigan State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these been met? What is the anticipated 
completion date of the additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is the end of fiscal year 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. This is a new project. A peer review of the project will be 
undertaken by the performing institution and reported on annually. 
CSREES will conduct a thorough evaluation of the proposal once it is 
received.
   babcock institute for international dairy research and development
    Question. Please provide a description of the research that has 
been funded under the Babcock Institute, Wisconsin grant.
    Answer. The Babcock Institute for International Dairy Research and 
Development was established with participation of the University of 
Wisconsin-Madison College of Agriculture and Life Sciences, School of 
Veterinary Medicine, and the Cooperative Extension Division. The 
objective of the Babcock Institute is to link the U.S. dairy industry 
with the dairy industry in the rest of the world through degree 
training, continuing education, technology transfer, adaptive research, 
scientific collaboration, and market analysis.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes the need is to strengthen 
dairy industries around the world, to enhance international commercial 
and scientific collaborative opportunities for the U.S. dairy industry, 
and to draw upon global perspectives to build insight into the 
strategic planning of the U.S. dairy industry.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the Institute remains the linkage of the U.S. 
dairy industry with the rest of the world through training, continuing 
education and outreach, technology transfer, adaptive research, 
scientific collaboration, and market analysis. Initial efforts were 
focused on planning and staffing. An initial activity was, and 
continues to be, the development of multi-language extension materials 
about basic management techniques essential to optimize performance of 
U.S. dairy cattle overseas. This activity has grown to include manuals 
on Breeding and Genetics, Lactation and Milking, and Basic Dairy Farm 
Financial Management published in English, Spanish, French, Russian, 
and Chinese. Research on potential implications of the North American 
Free Trade Agreement--NAFTA--and the General Agreement on Tariffs and 
Trade--GATT--on the U.S. dairy industry was completed. A technical 
workshop on dairy grazing in New Zealand and the Midwest was organized 
and held in Madison, Wisconsin, during the fall of 1993. A technical 
workshop on Nutrient Management, Manure and the Dairy Industry--
European Perspectives and Wisconsin's Challenges--was held in Madison, 
Wisconsin, during September 1994. A round table was held in January 
1995 addressing ``World Dairy Markets in the Post-GATT Era''. Sponsored 
the Great Lakes Dairy Sheep Symposium in 1995 and 1996. Created a World 
Wide Web site in 1996 for distribution of Babcock Institute technical 
dairy fact sheets in four languages. The first International Dairy 
Short Course for a group of producers and technicians from Argentina 
has been organized on the University of Wisconsin Campus. Scientists' 
are being supported in collaborative research with New Zealand 
primarily to gain a better understanding of grazing systems as related 
to dairy management. An analysis of the impact of changes in European 
dairy policies has been completed. The Institute sponsored a Minnesota-
Wisconsin Dairy Policy Conference to provide insights into current 
agricultural programs and policy issues in the dairy sector of the U.S. 
economy. During the past year more than 30 publications have appeared 
as a result of funding through the Babcock Institute. These report the 
results of research collaboration and scientific exchange, world market 
and trade analysis, or are for use in international education and 
training programs.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal years 1992 and 1993, $75,000 per year; fiscal year 
1994, $250,000; fiscal years 1995-1998, $312,000 per year; fiscal year 
1999, $400,000; fiscal year 2000, $510,000; and fiscal year 2001, 
$598,680. A total of $3,156,680 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. During fiscal year 1992, $13,145 of State funds were used 
to support this program and $19,745 of State funds in fiscal year 1993 
for a total of $32,890 during the first two years of this research. 
Information is not available for fiscal years 1994-2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the University of Wisconsin-
Madison College of Agriculture and Life Sciences.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Babcock Institute's overarching mission has been to 
link the U.S. dairy industry and its trade potential with overseas 
dairy industries and markets. The original objectives of this project 
have remained consistent over the years. However, each year specific 
objectives were proposed to further the mission of the Institute and to 
build on previous accomplishments. The Institute has accomplished 
specific objectives each year in a timely manner. The Babcock Institute 
has remained true to its original objective of linking Wisconsin and 
the U.S. to dairy industries around the world. This objective remains 
increasingly important with continued development of international 
markets for dairy products and technologies. The university researchers 
anticipate that work currently in progress will be completed by 
September 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The Babcock Institute undergoes two independent review 
processes each year. The first is done by a committee of university and 
industry representatives who review the annual research proposal and 
amend it prior to submission to the agency. The annual proposal is 
reviewed by agency technical staff prior to approval for fund release. 
In addition, the institute was included in a comprehensive review of 
the programs of the Department of Dairy Science at the University of 
Wisconsin in May 1995. The agency project officer has conducted two 
onsite reviews of the institute since its formation in 1992. The most 
recent review has found that the approach proposed by the researchers 
is appropriate and that the researchers are well qualified to perform 
the objectives as stated. The objectives of the proposal are within the 
mission of USDA and CSREES.
                   beef technology transfer, missouri
    Question. Please provide a description of the research that has 
been funded under the Beef Technology Transfer, Missouri grant.
    Answer. This is a new project starting in fiscal year 2001. CSREES 
has requested the university to submit a grant proposal that has not 
yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The need for this research is for the adoption of 
technology to enhance vertically-aligned independent and corporate beef 
producers. Missouri is currently the second largest cow-calf producing 
state in the country. Accessing and the delivery of pre-harvest beef 
production technology is critical to the future success of beef 
producers in the state and region to optimize and improve beef quality 
and product value.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to enhance the 
information base available to beef producers involved in vertically-
coordinated production systems to capture retail case value. Input from 
Missouri state commodity groups, implementation of beef advisory groups 
to the land-grant university representing producers throughout the 
state, and interaction with a new age producer cooperative that has 
begun with a business goal of marketing beef products and capturing 
retail case value are examples of recent, innovative accomplishments 
and university/producer interactions to date. Conceptually, this moves 
the paradigm from marketing of beef toward the concept of marketing 
specific and consumer-oriented beef products.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: approximately $350,000 state appropriations for fiscal 
year 2001.
    Question. Where is this work being carried out?
    Answer. Research and/or outreach will be conducted at the 
University of Missouri-Columbia and Lincoln University, Columbia, 
Missouri.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for original, additional, 
and related objectives is January 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project, and no evaluation has been 
conducted.
                     biobased technology, michigan
    Question. Please provide a description of the research that has 
been funded under the Biobased Technology, Michigan grant.
    Answer. This is a new grant, and funds will be used to develop and 
demonstrate new biobased polymers derived from agricultural resources. 
Polymer technology allows a highly-customizable material to be 
developed, such as medical plastics that can resist blood clot 
formation and infections. Funds will be used to develop and optimize 
the reaction and recovery processes to produce succinic acid.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Biobased technologies offer environmentally-preferable 
products and processing technologies that expand agricultural markets, 
create job opportunities in rural America.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This grant is new in fiscal year 2001. Prior research to 
justify this new work includes the development and scale-up of a 
fermentation process to produce succinic acid. Polymer research has 
been successful in changing the surface characteristics of medical 
devices to optimize performance such as resisting blood clot formation.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Since this is a new grant, and a proposal has not yet been 
received, the source and amount of non-Federal funds for this research 
is unknown.
    Question. Where is this work being carried out?
    Answer. This work will be carried out at Michigan State University.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated date of additional or related objectives?
    Answer. This project is expected to be completed in three years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the evaluation conducted.
    Answer. Since this is a new grant, no evaluation has been 
conducted.
                  bioinformatics initiative, virginia
    Question. Please provide a description of the research that has 
been funded under the Bioinformatics Initiative, Virginia grant.
    Answer. This is a new special grant this year. The agency has 
requested the university to submit a grant proposal that has not yet 
been received. Preliminary communications with the principal researcher 
indicate that the project involves the development of software and 
database tools for comparative genomic analysis of model organisms such 
as Arabidopsis and Medicago relative to agriculturally-important crops 
such as tomato, potato, soybean, and others.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. According to the principal researcher, the national need is 
that a considerable amount of Federal funding in plant genomics, with 
the exception of the rice genome, goes into model organisms of marginal 
agricultural importance such as Arabidopsis thaliana and Medicago 
truncatula. In order to make use of and leverage the Federal investment 
in the genomics of model organisms, the principal researcher states 
that it is necessary to build analytical information bridges between 
model genomes and agriculturally-important crops thereby enhancing 
technology transfer and economic development.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to advance critical 
information and communications technologies to support the analysis, 
manipulation, transmission, and end use of massive volumes of complex 
data being generated by contemporary genome research. The research is 
just getting started at the Virginia Polytechnic Institute and State 
University--VPISU.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated is $473,955.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The Commonwealth of Virginia is providing operational 
support of $11.6 million for the 2000-2002 biennium for the Virginia 
Bioinformatics Institute. This amount is projected to increase to $12 
million per year thereafter. VPISU is raising additional funds from the 
private sector of currently indeterminate amount for the Virginia 
Bioinformatics Institute.
    Question. Where is this work being carried out?
    Answer. The research is conducted at the Virginia Bioinformatics 
Institute, Virginia Polytechnic Institute and State University, 
Blacksburg, Virginia.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is September 2006.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new special grant so it has not been evaluated 
yet. The agency will convene a merit review panel to evaluate the 
project upon receipt of a proposal for fiscal year 2001.
        biomass-based energy research, oklahoma and mississippi
    Question. Please provide a description of the research that has 
been funded under the Biomass-Based Energy Research, Oklahoma and 
Mississippi, grant.
    Answer. CSREES has requested Oklahoma State University to submit a 
grant proposal that has not yet been received. The research will 
address conversion of biomass to ethanol. Through the establishment of 
the Oklahoma State and Mississippi State University Consortium, both 
universities are continuing the development of an ethanol gasification-
bioconversion process that utilizes all of the biomass, including the 
lignin. While making it more cost efficient than other methods of 
ethanol production, this process utilizes all portions of biomass/
feedstock material: grasses, crop residues, processing plant 
byproducts, and animal wastes.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Gasification-bioconversion provides an additional method 
for the development of ethanol while developing an alternative source 
of income in rural America.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This grant is new and the research will build upon existing 
expertise for utilizing crop residues, grasses, byproducts, and animal 
wastes.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $900,016.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Since this is a new grant, and a proposal has not yet been 
received, the source and amount of non-Federal funds for this research 
is unknown.
    Question. Where is this work being carried out?
    Answer. This work will be carried out at Oklahoma State University 
and Mississippi State University.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated date of additional or related objectives?
    Answer. This project is expected to be completed in three years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the evaluation conducted.
     Answer. Since this is a new grant, no evaluation has been 
conducted.
                     biotechnology, north carolina
    Question. Please provide a description of the research that has 
been funded under the Biotechnology, North Carolina grant.
    Answer. This is a new special grant this year. The agency has 
requested the university to submit a grant proposal that has not yet 
been received. Preliminary communications with the institutional 
research administrator indicate that the project involves integrated 
biotechnological and genetic systems for enhanced forest productivity 
and health. Three areas of focus are: (1) genetic control of wood 
quality; (2) understanding and managing invasive species threats to the 
Fraser fir Christmas tree industry; and (3) development of propagation 
and deployment systems for elite oak genotypes.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. According to the institutional research administrator, the 
need for this research is to enhance the competitiveness of the 
southern region in the production of industrial wood through genetic 
manipulation, to combat invasive pathogens of various ornamental trees, 
and to develop advanced techniques to capture genetic quality and 
replicate elite genotypes of hardwood forest species more efficiently.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to improve the 
competitiveness of southern U.S. wood production, to better manage 
invasive pathogens of ornamental trees, and to increase the 
distribution of elite hardwood trees in natural forest settings. The 
research is just getting underway at North Carolina State University.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated for fiscal year 2001 is $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Existing research and extension resources at North Carolina 
State University will be used to complement the Federal funding to 
carry out the proposed research. The forest industry is also expected 
to provide in-kind support in the form of field work and laboratory 
analyses. The exact amount of these contributions is not known at the 
present time.
    Question. Where is this work being carried out?
    Answer. The research is conducted at North Carolina State 
University and various sites in the southern Appalachians and elsewhere 
in the southeast U.S.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion of additional or related objectives?
    Answer. The anticipated completion date for the original 
objectives, according to the institutional research administrator, is 
five years from project inception or approximately September 2006.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new special grant so it has not been evaluated 
yet. The agency will convene a merit review panel to evaluate the 
project upon receipt of a proposal for fiscal year 2001.
          blocking anhydrous methamphetamine production, iowa
    Question. Please provide a description of the research that has 
been done under the Blocking Anhydrous Methamphetamine Production, Iowa 
grant.
    Answer. Since starting in fiscal year 2000, research under this 
grant has examined several possible ways to chemically treat anhydrous 
ammonia intended for use as an agricultural fertilizer so that it 
cannot be used for making the illegal drug methamphetamine.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. The principal researcher has indicated that anhydrous 
ammonia, a commonly used agricultural fertilizer, can be used as an 
ingredient for making methamphetamine, an illegal and highly addictive 
drug which has posed a drug enforcement problem for Iowa and other 
Midwestern states in recent years.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research is to discover a chemical 
procedure that will render anhydrous ammonia ineffective in producing 
methamphetamine while keeping the anhydrous ammonia cost-efficient and 
effective as a fertilizer. Preliminary results suggest that certain 
metal salts in catalytic amounts can be effective at inactivating the 
drug-producing reaction.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This grant began in fiscal year 2000 with an appropriation 
of $212,500. The appropriation for fiscal year 2001 is $247,454 for a 
total of $459,954 appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. State funds in an amount of less than $5,000 were used to 
get the project started in fiscal year 1999. The state plans to cost-
share the salaries of the principal investigator and a faculty 
collaborator in the amounts of $20,000 and $25,000 per year, 
respectively.
    Question. Where is this work being carried out?
    Answer. The research is being conducted in the Chemistry Department 
at Iowa State University, Ames, Iowa.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The principal investigator anticipates completing the 
original objectives of the project in two or three years. Additional or 
related objectives have not been specifically identified at this time.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was evaluated by a merit review panel convened 
by the agency on April 17, 2000. The panel recommended approval of the 
project pending receipt of supplemental information on administrative 
aspects of the project. The supplemental information was received, and 
the agency is satisfied that the program is being administered in 
compliance with the purpose of the grant. A merit review panel will be 
convened to re-evaluate the project upon receipt of a proposal for 
fiscal year 2001.
                     bovine tuberculosis, michigan
    Question. Please provide a description of the research that has 
been conducted under the Bovine Tuberculosis, Michigan grant.
    Answer. Bovine tuberculosis has been discovered to be present in 
free-ranging white-tailed deer and other wild life in Michigan. 
Eradication of the organism/disease from the state's deer population 
has been mandated. To address this issue this project will work on 
three objectives: (1) Determine the spatial relationships in 
transmission of bovine tuberculosis relating to feeding habits and 
factors in the habitat; (2) Determine the survivability of 
Mycobacterium bovis--M. bovis--in the environment; and (3) Determine 
other wild or domestic hosts for M. bovis transmission through 
epidemiological studies of naturally-infected hosts.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for the 
research?
    Answer. The need for this research relates to the critical problem 
of bovine tuberculosis which has now been discovered to have spread 
into the white-tailed deer population in the state of Michigan. If 
information on the scope of this disease in deer and methodologies to 
monitor and reduce this problem is not available soon, it will present 
a serious threat to the largely tuberculosis-free national cattle herd.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research is to develop information 
about the spread of the bovine tuberculosis organism, M. bovis, within 
the deer population of Michigan. Appropriate control programs cannot be 
devised until the epidemiologic information is available. The research 
team has reported that there is clear evidence that supplemental 
feeding of deer is associated with the prevalence of M. bovis in the 
deer population. The other component of the epidemiological study 
concerns the survival of the M. bovis organism in the environment. To 
date, all samples tested--approximately 190--from cattle farms, deer 
feeding sites, and captive cervid operations have been negative. Either 
oral or intratracheal inoculation of pigeons can result in shedding of 
the M. bovis organism in feces. However, only the intratracheal 
inoculation seems capable of producing active disease in the pigeons. 
The group has also initiated a literature search to identify relevant 
existing risk assessment models and initial work on a model has begun.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000 
with an appropriation of $170,000 and $324,285 in fiscal year 2001. The 
total amount appropriated is $494,285.
    Question. What is the source and amount of non-Federal funds by 
fiscal year?
    Answer. During fiscal year 2000, an additional $650,000 were 
provided from institutional--Michigan State University--and state 
funds--Departments of Agriculture and Natural Resources.
    Question. Where is this work being performed?
    Answer. The research is being performed in the College of 
Veterinary Medicine, Michigan State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is 2002. The research team has made good progress in identifying 
potential risk factors for the occurrence of tuberculosis in the wild 
deer herds as well as the studies on the potential role of pigeon as 
either active or passive carriers of the organism.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project was initiated in fiscal year 2000, and due to 
the short time interval since it was started, no formal, onsite 
evaluation has been done at this time. The CSREES representative has 
had regular contact with personnel at Michigan State University to 
monitor this research effort.
                      brucellosis vaccine, montana
    Question. Please provide a description of the research that has 
been conducted under the Brucellosis Vaccine, Montana grant.
    Answer. This project will study the immune response of bison to 
Brucella abortus antigen which has been incorporated into an organism 
that can be given orally to the animals. The objective is to produce an 
oral vaccine that can be easily administered to the bison without 
subjecting them to intensive handling procedures.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for the 
research?
    Answer. The research project is intended to develop a strategy for 
vaccinating or immunizing cattle against brucellosis by incorporation 
of Brucella abortus genes into an orally-administered system. The need 
for this program relates to the problem associated with bison which are 
infected with Brucella abortus, the causative agent of brucellosis, 
within the Yellowstone bison herd.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the project was to accomplish 
incorporation of Brucella genes which code for specific antigens into 
Salmonella species of bacteria and test the efficacy of oral 
administration of this material in developing systemic immunity in 
bison. At this time, the research team has been successful in 
demonstrating that an immune response to a test organism does occur 
after oral exposure, and the antibodies do appear in secretions of the 
reproductive tract. They are currently testing the feasibility of 
intranasal vaccination as a possible alternative to the oral route and 
are also working on development of methods to permit incorporation of 
the lipopolysaccharide--LPS--from B. abortus into a potential vaccine 
product.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999. 
The appropriation for fiscal year 1999 was $150,000; for fiscal year 
2000, $425,000; and for fiscal year 2001, $494,909 for a total of 
$1,069,909.
    Question. What is the source and amount of non-Federal funds by 
fiscal year?
    Answer. The source and amount of non-Federal funds for fiscal year 
1999 was $67,401 from state sources, and $15,300 from state sources in 
fiscal year 2000. In addition, the university contributed unpaid 
overhead costs on the grant.
    Question. Where is this work being performed?
    Answer. The work is being performed in the Department of Veterinary 
and Molecular Biology at Montana State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
was May, 2002 or three years from the initiation of the project.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project began in the summer of 1999 and there has been 
no formal onsite evaluation as yet.
        center for animal health and productivity, pennsylvania
    Question. Please provide a description of the research that has 
been funded under the Center for Animal Health and Productivity, 
Pennsylvania grant.
    Answer. This research is designed to reduce nutrient transfer to 
the environment surrounding dairy farms in the Chesapeake Bay 
watershed. Progress to date includes the development of an individual 
dairy cow model which will predict absorbed amino acids and the loss of 
nitrogen in manure. This model has been developed into a user-friendly 
software so that trained farm advisors can evaluate herd nutrient 
management status while on a farm site. A whole farm model has been 
developed which integrates feeding and agronomic practices to predict 
utilization of nitrogen and farm surpluses. Using these tools, a survey 
of dairy farms in the region has been done to assess nitrogen status on 
dairy farms and potential management practices to reduce nitrogen 
excesses on dairy farms. Refinement of the model tools and research to 
refine estimates of the environmental fate of excess nitrogen from 
dairy farms is in progress. During the last two years, researchers have 
discovered that a significant fraction of total nitrogen in feed is 
lost from the animal housing facility in the form of ammonia 
volatilized to the atmosphere. Preliminary estimates indicate that as 
much as 50 percent of the nitrogen consumed by dairy cows is lost as 
ammonia to the atmosphere before waste ever reaches the manure storage 
and management system. Two on-site reviews of the program have been 
conducted by the CSREES Project Officer and a third is planned during 
2001. The animal and farm models have been published in peer reviewed 
scientific journals. Scientists funded by the grant regularly 
participate in public meetings related to animal nutrient management 
systems.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that reducing non-point 
pollution of ground and surface water by nitrogen from intensive 
livestock production units are of concern nationally, and especially in 
sensitive ecosystems like the Chesapeake Bay. This research is designed 
to find alternative feeding, cropping, and management systems which 
will reduce net nutrient flux on Pennsylvania dairy farms to near zero.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research remains the development 
of whole farm management systems which will reduce nutrient losses from 
the farm to the environment external from the farm to near zero. To 
date the researchers have developed their own models to more accurately 
formulate rations for individual dairy cows which permit the comparison 
of alternative feeding programs based upon both maximal animal 
performance and minimal nutrient losses in animal waste. This model is 
being tested on select commercial dairy farms to evaluate the extent to 
which total nitrogen losses in manure can be reduced without impacting 
economic performance of the farm. At the same time, whole farm nutrient 
models have been developed to evaluate alternative cropping systems 
which will make maximum use of nutrients from animal waste and minimize 
nutrient flux from the total farm system. These tools are currently 
being used to survey the current status of nutrient balance on farms in 
the area and efforts to fine tune the tools are in progress. The recent 
discovery of the quantitative significance of nitrogen loss as ammonia 
to the atmosphere and potential transport from the farm and 
redeposition to the earth's surface raises a whole new aspect of 
nutrient management.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. A grant has been awarded from funds appropriated in fiscal 
year 1993 for $134,000 and in fiscal year 1994 for $126,000. In fiscal 
years 1995-2000, $113,000 per year was appropriated, and $112,751 in 
fiscal year 2001. A total of $1,050,751 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. This information is not available at the present time.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the University of 
Pennsylvania, College of Veterinary Medicine at New Bolton Center, 
Pennsylvania.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The University researchers anticipate that work currently 
underway will be completed by September 2001. This will complete the 
original objectives of the research. The principal researcher indicates 
that consideration has been given to the broadening of objectives to 
include additional nutrients in the model system, but this has been 
dropped because technical expertise required is currently not readily 
available.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The Center for Animal Health and Productivity Project was 
last reviewed in June 1997. An onsite review by agency technical staff 
was conducted in June 1995. It was concluded that project objectives 
are within the goals of the program, are within the mission of both the 
USDA and CSREES, and the institution is well equipped and qualified to 
carry out the research project. The institution has made excellent 
progress toward the completion of the original goals of the project, 
but still must evaluate the effectiveness of the use of the new tools 
developed in reducing nutrient runoff from commercial dairy farms 
within the watershed of the Chesapeake Bay.
                   center for rural studies, vermont
    Question. Please provide a description of the program that has been 
funded under the Center for Rural Studies, Vermont project.
    Answer. The Center for Rural Studies project involves applied 
research focused on developing and refining social and economic 
indicators used to evaluate the impact of economic development 
programming and activities. The Center is perfecting a delivery format 
for technical assistance for community and small business development. 
A major component of current research relates to utilization of the 
world wide web as a delivery vehicle. Project proposal undergoes a 
merit review within the agency.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. This is an on-going project to demonstrate the effective 
development and implementation of applied research, training, 
education, and technical assistance related to rural development. The 
grant has addressed methodology and strategies for assessing rural 
development program impacts and perfecting planning tools to assist 
rural areas in land use and economic planning activities.
    Question. What was the original goal of this research and what has 
been accomplished?
    Answer. The original goal was to create a database and analytical 
capability for rural development programming in Vermont. Examples of 
past accomplishments include maps presented to target child hunger 
programs, targeted areas for other types of rural development program 
intervention, analytical reports to guide the development of retail 
shopping areas, an ``Economic Handbook for Vermont Counties,'' and 
strategies for using the world wide web to disseminate information.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The grant was initiated in fiscal year 1992. Appropriated 
amounts are: fiscal year's 1992-1993, $37,000 per year; fiscal year 
1994, $35,000; fiscal year's 1995-1998, $32,000 per year; fiscal year 
1999-2000, $200,000 per year; and fiscal year 2001, $199,560 for total 
appropriations of $836,560.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Fiscal year 1991 included $91,130 in state matching funds. 
Fiscal years 1993, $143,124; fiscal years 1994-1996, $3,547 state 
matching funds. Fiscal years 1997-1998 state dollars were $2,931, plus 
researcher's salary. No non-Federal dollars were provided for fiscal 
years 1999-2001.
    Question. Where is this work being carried out?
    Answer. Applied research and outreach is being carried out through 
the University of Vermont. Parts of the research and application were 
done in association with the Lamoille County Planning Commission and 
the Addison County Planning Commission.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original completion date was September 30, 1993. The 
original objectives of this research have been met. The additional 
objectives presented for fiscal year 2000 will be completed by June 30, 
2001. The proposal for fiscal year 2001 has not been received to date.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency evaluates the merit of research proposals as 
they are submitted. No formal evaluation of this project has been 
conducted. The principal investigators and project managers submit 
annual reports to the agency to document impact of the project. Agency 
evaluation of the project includes peer review of accomplishments and 
proposal objectives and targeted outcomes. A state level peer review 
was also performed for the Year 2000 project.
                  chesapeake bay agroecology, maryland
    Question. Please provide a description of the research that has 
been funded under the Chesapeake Bay Agroecology, Maryland grant.
    Answer. The Chesapeake Bay Agroecology, Maryland project focuses on 
increasing our understanding of nutrient cycling, retention, and 
utilization by vital agricultural industries located within the 
vulnerable Chesapeake Bay watershed ecosystems that have been impacted 
by outbreaks of the toxic microorganisms Pfiesteria. There is a 
specific focus on Maryland's Eastern Shore. This research focus has 
been identified as a priority by the State of Maryland's Blue Ribbon 
Pfiesteria Action Commission Report of 1997 and by a Research, 
Education and Economics--REE--strategic plan emphasis, Greater Harmony 
Between Agriculture and the Environment, that calls for a better 
understanding of the linkages between agricultural production, water 
and soil quality range and forest land health, and habitat protection.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. The continued viability of Maryland's important coastal 
agricultural economy and the protection of the Chesapeake Bay's and 
Atlantic coastal aquatic and agricultural resources from future 
Pfiesteria outbreaks depends on our ability to prevent future toxic 
algal blooms by stemming the flow of nitrogen, phosphorus, and other 
agricultural nutrients into estuarine waterways.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The objective of this research is to increase our 
understanding of nutrient cycling, retention, and utilization by vital 
agricultural industries located in the coastal regions of the 
Chesapeake Bay and to develop new technologies and strategies that 
limit the loss of nutrients into waterways while preserving and 
enhancing vital agricultural industries. The project was initiated in 
1999, and research results from 2000 are just becoming available.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001.
    Answer. This project was initiated in fiscal year 1999. There were 
$150,000 per year in fiscal years 1999 and 2000 and $174,615 in fiscal 
year 2001. Total appropriations are $474,615.
    Question. What is the amount and source of non-Federal funds 
provided by fiscal year?
    Answer. The State of Maryland has pledged to match 100 percent of 
the Federal funds provided in fiscal year 2000 and in the future years 
of the Chesapeake Bay Agroecology project.
    Question. Where is this work being carried out?
    Answer. This research will be conducted at the University System of 
Maryland institutions and field research stations located throughout 
Maryland.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these been met? What is the anticipated 
completion date of the additional or related objectives?
    Answer. Major progress has been made towards meeting specific 
project goals, as well as regional objectives. However, the issues 
being addressed are complex, and solutions will require a long-term 
approach.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. The project has not yet been evaluated by the agency. 
However, the projects supported by this Special Grant are peer reviewed 
by an independent external scientific panel prior to awarding of funds.
                  chesapeake bay aquaculture, maryland
    Question. Please provide a description of the research funded under 
the Chesapeake Bay Aquaculture, Maryland grant.
    Answer. The agency requested that the university submit a grant 
proposal that has yet to be received. The objective of the Chesapeake 
Bay Aquaculture project has focused on improving the culture of striped 
bass and its hybrids through genetic improvement, reproductive biology, 
nutrition, health management, waste management, and product quality. 
The research is aimed at enhancing production efficiency and product 
quality, and provides a good balance between basic and applied 
research. Recently, research efforts have expanded to include the 
evaluation of nutrient remediation capabilities of seaweed culture 
systems.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal investigator indicates that the Mid-Atlantic 
region of the U.S. continues to play a significant role in the overall 
expansion of the domestic aquaculture industry. Research supported 
through this program will assist in enhancing the culture of striped 
bass and its hybrids in the U.S. Additionally, research supported 
through this program will address the management of aquaculture 
effluents by enhancing nutrient uptake with cultured aquatic plants.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original research goal was to generate new knowledge 
that can be utilized to address serious problems limiting the expansion 
of the aquaculture industry in Maryland and the Mid-Atlantic region. 
The program has focused on closing the life cycle, enhancing production 
efficiency, decreasing effluents, and improving product quality under 
aquaculture conditions of striped bass and its hybrids. Research has 
been conducted in the areas of growth, reproduction and development, 
nutrition, aquacultural systems, product quality, and aquatic animal 
health. Progress has been made in developing controlled artificial 
spawning techniques, cryopreservation of sperm, and refining the 
nutritional requirements. Efforts to evaluate nutrient remediation 
capabilities of seaweed culture systems have also been initiated.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported under this grant began in fiscal year 
1990 and the appropriation for fiscal year 1990 was $370,000. The 
appropriations for fiscal years 1991-1993 was $437,000 per year; fiscal 
year 1994, $411,000; fiscal years 1995-1998, $370,000 each year, fiscal 
years 1999 and 2000, $385,000 per year; and fiscal year 2001, $391,138. 
A total of $4,733,138 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates the amount of non-Federal funding 
for this program is as follows: in fiscal years 1991 and 1992, 
$200,000; in fiscal years 1993 and 1994, $175,000; in fiscal year 1995 
$400,000; in fiscal year 1996 $536,000; in fiscal year 1997 
approximately $400,000; in fiscal year 1998, $360,000; in fiscal year 
1999, approximately $360,000; and $783,055 in fiscal year 2000. The 
university reports that these funds are from direct state 
appropriations and other non-Federal funding sources.
    Question. Where is the work being carried out?
    Answer. Research is being conducted at the University of Maryland.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original specific research objectives were to be 
completed in 1993. The original specific research objectives have been 
met, however, research funded through this grant continues to address 
problems faced by the hybrid-striped bass industry in Maryland and 
throughout the U.S. The specific research outlined in the current 
proposal will be completed in fiscal year 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES staff evaluate the progress of this project on an 
annual basis. The agency's fiscal year 2000 review of this project 
concluded that the research objectives were relevant and addressed 
important opportunities in the aquaculture industry. The feasibility of 
attaining the stated objectives during the life of the proposed 
research was considered good, the research team was well-qualified and 
has the appropriate background, facilities were adequate, the budget 
was appropriate for the proposed activities, and the proposed research 
addressed priority needs of the aquaculture industry at the state and 
regional levels. The proposed research is consistent with national 
goals and needs outlined in the National Science and Technology 
Councils--NSTC--Aquaculture Research and Development Strategic Plan.
                         citrus canker, florida
    Question. Please provide a description of the research that has 
been funded under the Citrus Canker, Florida grant.
    Answer. This is a new grant at the University of Florida, Institute 
of Food and Agricultural Sciences. This project is engaged in short- 
and long-term research directed at the infection of commercial and 
residential citrus trees by the Xanthomonas bacterium which causes 
Citrus Canker disease. Priorities for the research are targeted at 
developing knowledge and technology in support of eradication of this 
invasive species in the short term, and in support of development of 
mechanisms in the long term for citrus to resist the infection process 
and disease development.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Citrus Canker is a devastating disease caused by an 
invasive bacterial pathogen. Fresh outbreaks of this disease threaten 
the viability of the important citrus industry in Florida and other 
states.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. A team of microbiologists, plant pathologists, geneticists, 
and horticulturists are working together on three major goals: (1) 
evaluate potential materials that can delay or interfere with the 
bacterial infection process on susceptible host material; (2) 
characterize aspects of canker biology, ecology, and epidemiology--
disease development--that might be manipulated to reduce infection or 
to predict more effectively where infection has taken place; and (3) to 
develop mechanisms within the host plants that will increase their 
resistance to infection and disease development. Included are enhancing 
differences in susceptibility among citrus cultivars and the 
introduction of additional resistance mechanisms derived from the 
pathogen or from plants with resistance to other similar bacterial 
diseases. Educational objectives of this project focus on development 
and delivery of current information on the organism, the disease, and 
efforts to eliminate it. The targets of this educational effort are: 
(1) commercial citrus producers, harvesters, and those who work in 
contact with citrus trees which may be exposed to the disease; (2) 
homeowners with citrus planted in their yards; (3) the general public 
who seeks information on the eradication effort and its necessity; and 
(4) regulators and policy makers who are interested in science-based 
actions and policies.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated for fiscal year 2001 is $4,739,550.
    Question. What is the amount and source of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds have been identified that have been 
provided for this research.
    Question. Where is this work being carried out?
    Answer. The work is being carried out within the Florida 
Agricultural Experiment Station, which is part of the Florida Institute 
of Food and Agricultural Sciences, and includes Research and Education 
Centers dealing with citrus at Lake Alfred, Bradenton, Immokalee, and 
Homestead.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these been met? What is the anticipated 
completion date of the additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is the end of fiscal year 2006.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. This is a new project. The University of Florida intends to 
operate this project as an internal competitive grants program. 
Submitted proposals will be reviewed by a peer panel. CSREES will 
annually review the request for proposals and will consult with the 
university on the development of the peer review process.
                            citrus tristeza
    Question. Please provide a description of the research that has 
been funded under the Citrus Tristeza research grant.
    Answer. Seven projects were selected for funding through a CSREES 
competitive grants program. Some of the research included: survey 
information on distribution of the brown citrus aphid and Citrus 
Tristeza Virus in Louisiana and Texas; the development of resistant 
citrus varieties to the virus; better understanding of virus strains; 
and the disease complex and biological control efforts on the brown 
citrus aphid in Florida and California.
    Question. According to this research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Citrus Tristeza virus is a problem in all citrus growing 
areas of the U.S. and Puerto Rico. The recent introduction of a new 
vector, the brown citrus aphid, into Florida has allowed for another 
pathotype of the virus to be introduced. The new pathotype is more 
destructive and causes greater damage than those pathotypes already 
established in the citrus producing areas.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this research is to reduce citrus losses in 
citrus; characterize and detect citrus tristeza virus strains; 
understand the biology and control of the brown citrus aphid and the 
epidemiology of citrus tristeza virus; identify host plant resistance; 
assess crop loss caused by citrus tristeza virus; develop strains of 
citrus tristeza virus strains that induce cross-protection in citrus, 
and provide virus free budwood.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999 
at the appropriation level of $500,000. The appropriation for fiscal 
year 2000 was $595,000 and for fiscal year 2001, $740,368. A total of 
$1,835,368 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. There are no non-Federal funds provided for this grant.
    Question. Where is this work being carried out?
    Answer. Research is being carried out at land grant universities 
and research centers in Florida, Louisiana, California, and Texas.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This is the second year of this funding. An anticipated 
completion date has not been determined as the original objectives have 
not been met at this time.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. All projects underwent a peer review at the University 
level, a scientific peer review, and an agency merit review in August, 
2000.
          competitiveness of agriculture products, washington
    Question. Please provide a description of the research that has 
been done under the Competitiveness of Agriculture Products, Washington 
research grant?
    Answer. This research identifies international marketing 
opportunities for Northwest firms in the forest products and food 
products sectors.
    Question. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Answer. Most food processing firms are small. Their export sales 
are made in many widely scattered markets with different languages, 
customs, institutions, and market structures. These markets have also 
been subjected to wrenching changes. University researchers provide a 
central and stable core of knowledgeable experts who can guide small 
export businesses in navigating these markets successfully.
    Forest products from the Pacific Northwest can be shipped to Asian 
markets for less than the cost of shipping them to the eastern 
population centers in the U.S. Research has opened Asian markets to 
U.S. light frame construction building technology, providing good 
opportunities to export higher-valued secondary-manufactured products 
to Japan and China. Research has also been focused on forest management 
alternatives that can better satisfy environmental goals with less 
negative impacts on timber-dependent communities. The Northwest 
agricultural economy is highly dependent upon being able to export 
given that food production in the region greatly exceeds food 
consumption.
    Northwest wood products companies that could export are generally 
small and are not able to provide their own research. Construction 
technologies used in Asian markets are inferior to U.S. technology, yet 
there is a long history of use and cultural appreciation of traditional 
methods. Deregulation and change in these markets has required 
extensive research on comparability of alternative product and building 
standards, quality and service needs, training in the U.S. technology, 
and customization to foreign consumer values. The Pacific Northwest can 
grow more wood with higher quality using more advanced technologies 
while reducing the impact on timber-dependent communities from harvest 
constraints to protect certain species.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal is to provide the information on markets and 
product technologies that can open higher-valued international markets 
to U.S. exporters. Foreign purchasers need information on the 
advantages of U.S. products, and U.S. exporters need information on the 
substantially different quality and service requirements for serving 
foreign markets. If the U.S. can remain competitive and retain its 
presence in these markets in the face of a stronger dollar, exports 
should return to a high growth path once Asian economies recover. 
Evidence to date suggests this is indeed happening.
    The food production research has focused on finding new market 
opportunities for Pacific Northwest producers, solving technical 
impediments to exports, and developing new products and new processes 
that will enhance exports. It has pinpointed emerging market 
opportunities in Southeast Asia, China, Japan, Taiwan, Korea, India, 
Mexico, and Latin America. It has improved the export quality of 
diverse products, such as asparagus, apples, grass-seed, cherries, 
pears, potatoes, onions, and wheat. It has helped commercialize high-
value products such as Wagyu beef, azuki beans, wasabi radish, edamame, 
and burdock, and pioneered new food processing technologies that 
produce higher-quality, fresh-like, shelf-stable products and save 
energy and reduce waste.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. The work began in fiscal year 1992. The appropriation for 
fiscal years 1992-1993 was $800,000 each year; fiscal year 1994, 
$752,000; fiscal years 1995-1998, $677,000 each year; $680,000 in 
fiscal years 1999-2000; and $678,504 in fiscal year 2001. A total of 
$7,098,504 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $716,986 State appropriations, $209,622 product sales, 
$114,000 industry, and $661,119 miscellaneous for a total of $1,701,727 
in 1991; $727,345 State appropriations, $114,810 product sales, 
$299,000 industry, and $347,425 miscellaneous for a total of $1,488,580 
in 1992; $1,259,437 State appropriations, $55,089 product sales, 
$131,000 industry, and $3,000 miscellaneous for a total of $1,448,526 
in 1993; $801,000 State appropriations, $1,055,000 product sales, 
$1,040,000 industry, and $244,000 miscellaneous for a total of 
$3,140,000 in 1994; $810,000 State appropriations, $42,970 product 
sales, $785,000 industry, and a $2,000,000 gift of a ranch due to the 
International Marketing Program for Agricultural Commodities and Trade 
Center's research on Wagyu cattle for a total of $3,637,970 in 1995; 
$844,000 State appropriations, $45,000 product sales $900,000 industry, 
and $45,000 miscellaneous for a total of $1,834,000 in 1996; $876,000 
State appropriations and $1,606,000 industry for a total of $2,482,000 
in 1997; $1,180,000 State appropriations and $604,000 industry for a 
total of $1,784,000 in 1998; $1,551,000 State appropriations, 
$1,006,400 industry, $62,000 product sales, and $30,096 miscellaneous 
for a total of $2,649,496 in 1999; $673,152 State appropriations, 
$488,000 industry, and $13,900 miscellaneous for a total of $1,175,052 
in 2000.
    Question. Where is the work being carried out?
    Answer. The food research is being carried out by the International 
Marketing Program for Agricultural Commodities and Trade--IMPACT--at 
Washington State University, Pullman; and the forest products research 
is carried out at the Center for International Trade in Forest 
Products--CINTRAFOR--at the University of Washington, Seattle.
    Question. What was the anticipated completion date of the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project was projected for 3 years duration to be 
completed following fiscal year 2001.
    Question. When was the last agency evaluation of this project? 
Provide the summary of the last evaluation conducted?
    Answer. Two evaluations of the Washington State University 
component of the project were conducted in 1992 by USDA. The State of 
Washington Legislative Budget Committee gave the Washington State 
Center exemplary marks for meeting its objectives. On-site reviews are 
conducted annually of the University of Washington component of the 
project through annual meetings of the project's Executive Board, 
attended by the agency's staff. Both components are reviewed annually 
by the agency. The project is meeting the key objective of trade 
expansion through innovative research. The University of Washington 
project was formally reviewed by the agency in 1991. State reviews were 
completed in 1992 and 1994. A formal review by the University was 
completed in 1997. A broad survey of constituents impacted by the 
research was completed, resulting in a very favorable review of the 
Center's activities and a recommendation to continue this research. In 
1998, State of Washington legislation eliminated the requirement for 
state reviews of the Center, including one scheduled for 1999, based on 
hearings that focused on the other favorable reviews and the continuous 
oversight by the Executive Board.
                   cool season legume research, idaho
    Question. Please provide a description of the research that has 
been funded under the Cool Season Legume Research, Idaho grant.
    Answer. The Cool Season Legumes, peas, lentils, chickpeas, and fava 
bean are considered minor crops on the national scale but are major in 
importance across the northern tier of states where all U.S. production 
is located. In addition to providing for U.S. consumption, they 
represent important export commodities and are important rotational 
crops in areas where a limited number of crops can be grown. Production 
research is urgently needed to improve economics in order to remain 
competitive in a world economy. The multi-state multi-disciplinary 
research is divided toward crop improvement, crop protection crop 
management, product development, and human nutrition.
    Question. According to the research proposal, or principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The project is multi-state involving 5-7 states each year 
and representing the majority of U.S. production. Therefore, the 
program is national in scope.
    Question. What was the original goal of the research and what has 
been accomplished to date?
    Answer. The principal researcher believes the original goal of this 
project was to improve efficiency and sustainability of cool season 
food legumes through an integrated collaborative research program. 
Research on genetic resistance to important virus diseases in peas and 
lentils, and evaluation studies of biocontrol agents for root disease 
organisms on peas are underway. Other studies are evaluating 
integration of genetic resistance and chemical control. Considerable 
progress has been made using biotechnology to facilitate gene 
identification and transfer. Management system studies have addressed 
tillage and weed control issues. Results of previous years' work is 
already in use by area farmers and are helping to sustain the industry 
facing increasing competition from abroad and increasing production 
cost at home.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1991 
with appropriations for fiscal year 1991 of $375,000; fiscal year 1992 
and 1993, $387,000 per year; fiscal year 1994, $364,000; fiscal year 
1995, $103,000; and fiscal years 1996 and 2000, $329,000; and fiscal 
year 2001, $328,276. A total of $3,589,276 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds provided for this grant were as 
follows: 1991, $304,761 state appropriations, $14,000 industry, and 
$18,071 other non-Federal; 1992, $364,851 state appropriations, $15,000 
industry, and $14,000 other non-Federal; 1993, $400,191 state 
appropriations, $19,725 industry, and $10,063, other non-Federal; and 
1994, $147,607 non-Federal support. Non-Federal support for 1995 was 
$150,607; for 1996 it was $386,887; for 1997 $384,628; for 1998 
$392,000; for 1999 $557,000; and for 2000 $443,000.
    Question. Where is this work being carried out?
    Answer. Research has been conducted at agricultural experiment 
stations in Idaho, Oregon, Washington, Wisconsin, Minnesota, New York, 
Montana, North Dakota, and New Hampshire. The funds have been awarded 
competitively among participating states and not all states receive 
funds each year.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The projected duration of the initial project was five 
years. Revised objectives are expected to be completed in 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation?
    Answer. The project is evaluated annually by a university/industry 
advisory panel. Proposals are peer reviewed at the universities and by 
the agency National Program Leaders. This research has provided vital 
information which is already being used to improve production 
management. However, a number of critical issues related to insect and 
disease control as well as crop quality remain to be addressed. 
Breeding for insect and disease resistance is given the highest 
priority, while crop management alternatives to help reduce disease and 
insect pest problems will continue to be studied.
                 cranberry and blueberry, massachusetts
    Question. Please provide a description of the research that has 
been funded under the Cranberry/Blueberry, Massachusetts grant.
    Answer. Molecular genetics is being used to develop a system that 
will allow farmers to predict when dodder will emerge in their fields. 
This will allow accurate timing of herbicide application which will 
enable farmers to use less herbicide. In addition, molecular genetics 
is being used in an attempt to induce natural defense mechanisms in 
cranberry plants that will reduce the need for fungicide applications 
to protection cranberry fruit from rotting organisms.
    Question. According to this research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. The research is a new approach to managing pests associated 
with cranberries and blueberries in Massachusetts. The program is 
focusing on the use of molecular genetics to reduce pesticide 
dependency in cranberry production. The research will be applicable to 
all states where cranberries are produced.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goals of this research are to determine whether early 
emerging and late emerging dodder populations can be differentiated 
using molecular markers; to determine the relationships among several 
isolates of a fungus which might be used in biological control; to 
screen various plant pathogen fungi isolates for infectivity and 
virulence and determine the presence of genes in these isolates; and 
develop an in vitro assay system for root rot and induce resistance in 
cranberry plants caused by different isotypes of the fungus. To date, 
markers have been developed that differentiate between early and late 
emerging dodder populations. Strains of Phytophthora cinnamomi have 
been identified with potential to be used as elicitors of systemic 
acquired resistance.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999 
and the appropriation for fiscal year 1999 and 2000 was $150,000. The 
appropriation in fiscal year 2001 is $174,615. A total of $474,615 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds are provided for this grant.
    Question. Where is this work being carried out?
    Answer. Research is being carried out at the University of 
Massachusetts Cranberry Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is fiscal year 2005.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project underwent a merit review at the agency level in 
January 2001. It was determined that the investigators are making 
significant progress toward the achievement of their stated objectives. 
The remaining objectives should be attainable within a period of four 
years. The investigators are publicizing the results of their research, 
both in professional venues as well as to producers. The quality of 
this project was determined to be high.
          cranberry-blueberry disease and breeding, new jersey
    Question. Please provide a description of the research that has 
been funded under the Cranberry-Blueberry Disease and Breeding, New 
Jersey grant.
    Answer. The work has focused on identification and monitoring of 
insect pests on blueberries and cranberries; the identification, 
breeding, and incorporation of superior germplasm into horticulturally-
desirable genotypes; identification and determination of several fungal 
fruit-rotting species; and identification of root-rot resistant 
cranberry genotypes. Overall, research has focused on the attainment of 
cultural management methods that are environmentally compatible, while 
reducing blueberry and cranberry crop losses.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. This project involves diseases having major impacts on New 
Jersey's cranberry and blueberry industries, but the findings here are 
being shared with experts in Wisconsin, Michigan, and New England.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal was the development of cranberry and 
blueberry cultivars compatible with new disease and production 
management strategies. Over 75 blueberry selections with wild blueberry 
accessions resistant to secondary mummy berry infections have been 
moved into advanced testing identified. The biology and seasonal life 
history of spotted fireworm on cranberries has been determined. A 
pheromone trap-based monitoring system for cranberry fruitworm was 
developed and further refined for commercialization. Blueberry fruit 
volatiles attractive to blueberry maggots were identified and tested in 
the field. Researchers have planted over 4,500 cranberry progeny for 
evaluation. Seven major fruit-rotting fungal species were identified, 
and their incidence in 10 major cultivars of blueberry and cranberry 
were determined. It is likely that resistance to fruit rot is specific 
to fungal species.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1985, $100,000; fiscal years 1986 and 1987, 
$95,000 per year; fiscal years 1988 and 1989, $260,000 per year; fiscal 
year 1990, $275,000; fiscal years 1991 to 1993, $260,000 per year; 
fiscal year 1994, $244,000; fiscal years 1995 to 2000, $220,000 each 
year; and fiscal year 2001, $219,516. A total of $3,648,516 has been 
appropriated
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. State and non-Federal sources are providing funds in the 
amount of 250,000 each year.
    Question. Where is this work being carried out?
    Answer. This research is being conducted at the New Jersey 
Agricultural Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The completion date for the original objectives was 1995. 
Those objectives have not been met. To complete the breeding, disease 
and insect management, and provision of new management guidelines for 
extension and crop consultants, it is estimated that an additional five 
to nine years will be required.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted?
    Answer. The last agency evaluation of this project occurred in 
January 1999. In summary, the evaluation stated that the effort has 
continued to be highly productive and resulted in improved management 
strategies, new plant materials, and environmentally-balanced 
pesticides being used by growers. Some specific accomplishments 
included continued evaluation of blueberry and cranberry germplasm for 
yield, color, fruit rot, and flavor; and development of an efficient 
plant regeneration system for cranberry for genetic transformation. 
Other research includes trap and lure development for monitoring the 
cranberry fruitworm and evaluation of several aphidicides in 
blueberries. The discovery of an anti-sporulant in a registered 
fungicide provide for a novel use patent for blueberry anthracnose 
control.
                            critical issues
    Question. Please provide a description of the research that has 
been funded under the Critical Issues grant.
    Answer. These funds support research on critical issues related to 
new or emerging pests and diseases of animals and plants. The program 
is expected to initiate research in a short time period until other 
resources can be secured to address the issue. The program began in 
fiscal year 1996 when potato late blight and vesicular stomatitis in 
animals were the two targeted emerging problems chosen for funding. 
Funding for these two projects was continued with fiscal year 1997 
funds to permit orderly conclusion of work leading to integrated pest 
management efforts for the potato late blight and for further surveys 
on wildlife reservoirs of the vesicular stomatitis virus. During fiscal 
year 1998, these funds were used for support of a project on a newly 
emerging corona virus strain that is a probable cause of severe 
outbreaks of shipping fever or pneumonia in transported beef cattle. 
For plant diseases, fiscal year 1998 funds were used to support two 
major research projects on a new disease of sorghum, Sorghum Ergot. The 
two projects were Epidemiology and Life History of Ergot and 
Development of Integrated Control of Sorghum Ergot. In fiscal year 
1999, Johne's Disease of cattle was identified by both veterinary 
researchers and USDA's Animal and Plant Health Inspection Service--
APHIS--animal disease control staff as a major issue. For plants in 
fiscal year 1999, research was supported on the insect-vectored 
disease, Tomato Yellow Leaf Curl virus. For fiscal year 2000, plant 
research was supported to address monitoring of Mexican rice borer 
movement into sugarcane in Texas and Louisiana, the rate and spread of 
Cactoblastis moth on U.S. cactus, and incidence of cucurbit yellow 
stunting disorder virus in U.S. cucurbits. The research on Johne's 
disease issues was continued in fiscal year 2000, with continued 
emphasis on the possible linkage between this disease in cattle and 
Crohn's disease in humans.
    Question. What is the national, regional, or local need for this 
research?
    Answer. Vesicular stomatitis was of national impact due to its 
similarity to foot and mouth disease and the negative effect on 
movement of horses, cattle and swine during an outbreak. Since 1992, 
new, highly virulent strains of the potato late blight fungus, 
Phytophthora infestans, caused severe losses in potato and tomato 
production throughout the U.S., resulting in what some experts term a 
national crisis. From 1993 to 1995, a series of meetings involving 
growers, consultants, industry, academia, and government assessed the 
growing problem, and participants concluded that extraordinary steps 
were needed to mobilize research efforts that would help address the 
problem in the near term. Bovine shipping fever causes heavy economic 
losses to the beef industry in cattle being shipped to feedlots, and 
vaccines for currently recognized viruses seem to be ineffective in 
certain settings in preventing outbreaks. The isolation of a probable 
new virus, bovine respiratory corona virus, represents an opportunity 
to contribute to the reduction of this disease complex in cattle. 
Sorghum Ergot is a serious disease of sorghum which was first detected 
in Texas in March, 1997. It rapidly spread to almost all sorghum 
growing regions of the U.S. by September 1997. Johne's Disease has been 
identified by several commodity and animal health organizations as the 
leading problem for dairy cattle owners and also a serious issue for 
beef producers. Decisions on specific research needs and focus of 
research projects is decided after consultation with a variety of 
commodity stakeholders, other USDA agencies, especially APHIS, 
scientists in the land grant system, and other public input. Tomato 
Yellow Leaf Curl virus is a newly introduced disease into Florida that 
has caused considerable crop loss and now has moved into Georgia. This 
disease is vectored by the silver leaf whitefly and affects tomatoes, 
beans, and other vegetables. The disease symptoms are severe stunting, 
distortion, and high rates of flower loss. Mexican rice borer, a pest 
of sugarcane in the Lower Rio Grande valley of Texas, is a new and 
emerging pest which threatens sugarcane production in Louisiana. The 
biocontrol agent, Cactoblastis cactorum, was accidently introduced into 
Florida from the Caribbean Islands in 1989. Even though this species 
was introduced into the Caribbean basin as a biocontrol agent for 
cacti, it now threatens many native species of cacti in Florida and has 
the potential to spread to other cactus species in the United States. 
The Old World virus, cucurbit yellow stunting disorder virus, was first 
found in melons from Texas and northern Mexico in 1999. In other parts 
of the world it has become the most important virus in cucurbits. 
Determination of incidence and spread in the U.S. is important, 
particularly since the primary vector species Bemisia argentifolii is 
well established in Florida, other southern states, California, and 
Arizona.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research supported by this program is to 
focus on specific questions or issues which are considered to be most 
important in developing control or prevention programs for the disease 
agent under investigation, whether in plants or animals. Thus, for the 
animal studies, the focus has been on identifying natural reservoirs of 
the vesicular stomatitis virus and insects which are capable of 
transmitting the disease among animals; determining the precise 
significance of the apparent new corona virus in shipping fever 
pneumonia of beef cattle; and developing a sub-unit vaccine for Johne's 
Disease in cattle and determining the significance of a linkage between 
Johne's Disease and Crohn's disease of humans. In spite of a very large 
research effort, the natural reservoir for vesicular stomatitis virus 
is still unknown. The bovine respiratory disease work on the apparently 
new respiratory corona virus has validated the role of this virus in 
outbreaks of pneumonia in cattle vaccinated for other known causes of 
shipping fever. This virus has now been isolated from animals with 
pneumonia in other states. Research was initiated to provide growers 
with the knowledge and technologies they need to reduce economic losses 
resulting from potato late blight with less reliance on pesticides. 
Research initiated with fiscal year 1996 funds is making progress in 
developing modeling tools and management approaches that are an 
important step towards reducing the devastating effects of late blight. 
The National Late Blight Fungicide Trial provided important information 
on the efficacy of an array of fungicide programs. A World Wide Web 
site was established to provide growers, researchers, and industry with 
the latest information on management of potato late blight. The 
research projects on Sorghum Ergot were intended to develop information 
about the history and epidemiology of the disease which would lead to 
studies on development of integrated control programs for this fungus. 
Research on Tomato Yellow Leaf Curl Virus has aided in the 
understanding of which field crops other than tomato serve as a source 
of virus infection. Weed reservoirs were also studied as potential 
whitefly infection sites. These results will help in the development of 
field management strategies for this virus. Another research project 
tested transformed tomatoes that had been selected for resistance to 
Tomato Yellow Leaf Curl virus. This approach was successful in 
developing resistant tomatoes to another similar virus and is expected 
to produce highly resistant tomato varieties to Tomato Yellow Leaf Curl 
virus. Incidence and spread of cucurbit yellow stunting disorder virus, 
Cactoblastis moths, and the Mexican rice borer are all significant for 
agriculture and horticulture in the U.S.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. $200,000 were appropriated in fiscal years 1996-2000 and 
$199,560 in fiscal year 2001 for a total appropriation of $1,199,560 to 
date.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. This information is not currently available.
    Question. Where is this work being carried out?
    Answer. From 1996 to 1997, the vesicular stomatitis work was 
conducted at the University of Arizona and Colorado State University. 
The potato late blight work has been conducted at Washington State 
University, Oregon State University, University of Idaho, University of 
Wisconsin, the Pennsylvania State University, and North Carolina State 
University. In 1998, the bovine respiratory disease work was performed 
at Louisiana State University. The Sorghum Ergot work was done at the 
University of Nebraska and Texas A&M University. In fiscal years 1999 
and 2000, the research on Johne's Disease was performed at Iowa State 
University and the University of Iowa. The research on Tomato Yellow 
Leaf Curl Virus was carried out at the Gulf Coast Research and 
Education Center, University of Florida, Bradenton, Florida, and the 
Tropical Research and Education Center, University of Florida, 
Homestead, Florida. The research on the Mexican rice borer is conducted 
in Texas and Louisiana, the research on Cactoblastis is being done in 
Florida and the incidence of cucurbit yellow stunting disorder virus is 
being done in regions where the primary vector, Bemisia argentifolii, 
is known to occur.
    Question. What was the anticipated date for the original objectives 
of the project? Have those objectives been met? What is the anticipated 
completion date of additional or related objectives?
    Answer. The Critical Issues funds are intended to support the 
initiation of research on issues requiring immediate attention until 
other, longer-term resources are available. The objectives of the 
projects are short-term and are expected to be completed within a 1-2 
year period. This has been true for the vesicular stomatitis and potato 
late blight work. These projects have been reviewed to ensure 
compliance with the original goals during fiscal year 1997. The 
subsequent project grants for potato blight in 1997 and for Sorghum 
Ergot and bovine respiratory disease in 1998 had short term goals and 
were completed by the end of their project years in late spring 1999. 
Similarly, the objectives of the research funded with fiscal year 1999 
funds were completed by the summer of 2000. For the Johne's Disease 
work, the emphasis is on determining the likelihood of a link between 
this disease of cattle and Crohn's Disease in humans and also 
developing a vaccine to prevent further spread within the cattle 
population. For Tomato Yellow Leaf Curl Virus, the emphasis is on field 
management of the disease and the development of virus resistant 
varieties of tomato. For Mexican rice borer, Cactoblastis, and cucurbit 
yellow stunting disorder virus work the primary focus is on 
determination of incidence and spread.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. All projects were reviewed for scientific merit before 
funding decisions were made. Also, scientists being supported with 
these funds are in close contact with CSREES' National Program Leaders 
in these areas so that the agency is kept abreast of developments as 
they occur. Each investigator is required to submit a detailed report 
at the end of the funding period to document their accomplishments with 
these funds. In addition, site visits are arranged when convenient to 
include as part of other official travel to that state. The vesicular 
stomatitis research had a site visit review in early 1998 and was 
reviewed as a completed project in March 1999 during a program review 
at the University of Arizona. The final results of the bovine 
respiratory work were submitted to CSREES for review in early fall 
1999. The plant related projects have received similar reviews as the 
projects have moved forward, and the results are being reported at 
regional and national meetings.
                  dairy and meat goat research, texas
    Question. Please provide a description of the research that has 
been funded under the Dairy and Meat Goat Research, Texas grant?
    Answer. The program has addressed a range of issues associated with 
goat production. Research by scientists at the International Dairy Goat 
Center, Prairie View A&M University, focuses on problems affecting goat 
production in the U.S. Issues included are the study of nutritional 
requirements of goats, disease problems, methods to improve 
reproductive efficiency in the doe, the use of gene transfer to improve 
caprine genetics, and the evaluation of breeding schemes to improve 
meat and milk production. Currently, research is in progress to assess 
the economics of alternative breeding and rearing systems for goats in 
the southeastern region of the U.S., to study the incidence and impact 
of intestinal parasites, and to develop least-cost health management 
strategies for parasite control.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that nationally, most of 
the farm enterprises that include goats are diverse and maintain a 
relatively small number of animals. Responding to disease, nutrition, 
breeding, and management problems will improve efficiency of production 
and economic returns to the enterprise.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to conduct research 
that will lead to improvement in goat production among the many small 
producers in the U.S. Research has been conducted to develop and 
improve nutritional standards, improve genetic lines for meat and milk 
production and to define mechanisms that impede reproductive efficiency 
in goats. Current efforts focus on the development of enterprise budget 
management tools for goat producers in the Texas gulf coast region.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded through appropriated funds as 
follows: $100,000 per year for fiscal years 1983-1985; $95,000 per year 
for fiscal years 1986-1988; no funds were appropriated in fiscal year 
1989; $74,000 for fiscal year 1990; $75,000 per year for fiscal years 
1991-1993; $70,000 for fiscal year 1994; $63,000 per year for fiscal 
years 1995-2000; and $62,861 in fiscal year 2001. A total of $1,394,861 
has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university reports no non-Federal funds expended on 
this program.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Prairie View A&M University 
in Texas.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The overall objective of this research is to support the 
needs of small farms engaged in the production of meat and milk from 
goats along the Texas Gulf Coast. The university researchers continue 
to address those needs on an annual basis, and anticipate that work 
currently in progress will be completed by the end of fiscal year 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The Dairy/Meat Goat Research grant was reviewed last in 
June 1997. The project objectives are within the goals of the program, 
are within the mission of both USDA and CSREES, and the institution is 
well equipped and qualified to carry out the research project.
                 dairy farm profitability, pennsylvania
    Bonilla. Please provide a description of the research that has been 
funded under the Dairy Farm Profitability, Pennsylvania grant.
    Answer. CSREES has requested the university to submit a grant 
proposal that has not yet been received. This is a new project that 
will be initiated in fiscal year 2001.
    Question. According to the research proposal, or the principal 
researcher, what it the national, regional or local need for this 
research?
    Answer. The need for this research is national in scope. The dairy 
industry is undergoing significant structural change. Producers must 
adopt and improve practices that will enable them to remain profitable 
as these changes occur.
    Question. What was the original goal for this research and what has 
been accomplished to date?
    Answer. The goal of the research is to identify and develop 
improved dairy management practices that will help producers sustain 
and improve the profitability of their operations. Since the project is 
just now being implemented, there are no accomplishments to report at 
this time.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 
2001. The appropriation for fiscal year 2001 is $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Some preliminary related work has been conducted at the 
Pennsylvania State University. A proposal for this new project is just 
being developed so at this date, no non-Federal funds have been 
provided for this grant.
    Question. Where is the work being carried out?
    Answer. Research will be conducted at the Pennsylvania State 
University
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Since the proposal has not yet been received, anticipated 
completion dates are not available at this time.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Since this is a new project, no evaluation has yet been 
conducted.
                delta rural revitalization, mississippi
    Question. Please provide a description of the program that has been 
funded under the Delta Rural Revitalization, Mississippi project?
     Answer. The Delta Rural Revitalization, Mississippi project 
involves applied research and outreach focused on creating new and 
expanded economic development opportunities for the Mississippi Delta 
region. The project has gone through several phases in the delineation 
of a strategy for long range development within the region. Phase I was 
completed with the delivery of a baseline assessment of the economic, 
social, and political factors that enhance or impede the advancement of 
the region. Phase II of the project evaluated the potential for 
entrepreneurship and small business creation as mechanisms to improve 
economic conditions. Phase III is now focusing on technical assistance 
to Delta region manufacturing firms to strengthen their ability to 
provide employment and incomes and includes the development and 
refinement of data bases and development statistics. The proposals are 
submitted for internal review and evaluation within the agency. 
Recommendations are presented to enhance impact on regional and 
national agendas and provide greater impact on targeted region.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. This is an on-going pilot to demonstrate the effective 
development and implementation of applied research, training, 
education, and technical assistance related to job and business 
development as a development strategy. The principal researcher 
believes that the databases, technical assistance, and analytical 
capability will increase the effectiveness of economic development and 
entrepreneurial activity in the region.
    Question. What was the original goal of this research and what has 
been accomplished?
    Answer. The applied research and outreach project was designed to 
increase ability to strategically guide economic development through 
target industry attraction. An analytical baseline for the Delta region 
has been developed to benchmark economic development progress and to 
profile potential arenas of opportunity. An entrepreneurial forum was 
established to help new business ventures with start-up advice and 
assistance. A venture capital association was formed to help both 
inventors and businessmen find capital resources to carry out 
development initiatives. The emphasis of the project is now shifted to 
technical assistance for existing industries. During the past budget 
year, activity of this project has been directed to expanding the use 
of information technology in economic development in the Mississippi 
Delta.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from appropriated funds in the 
following amounts per year: fiscal year 1989, $175,000; fiscal year 
1990, $173,000; fiscal year's 1991-1993, $175,000 per year; fiscal year 
1994, $164,000; fiscal year's 1995-2000, $148,000 per year; and fiscal 
year 2001, $204,549. A total of $2,129,549 has been appropriated and 
awarded.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Total non-Federal funds directed to this project, as 
reported by Mississippi State University, are: fiscal year 1991, 
$117,866; fiscal year 1992, $84,402; fiscal year 1993, $68,961; fiscal 
year 1998, $57,404. Reports for other years indicate no non-Federal 
funds.
    Question. Where is this work being carried out?
    Answer. Applied research and outreach is being carried out through 
Mississippi State University and sub-contractors.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original completion date was September 30, 1990. The 
original objectives of this research have been met. The additional 
objectives being presented for the current year should be completed by 
September 30, 2001. The current year proposal has not been submitted to 
date.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency evaluates the merit of research proposals as 
they are submitted. No formal evaluation of this project has been 
conducted. The principal investigators and project managers submit 
periodic reports to the agency to document impact of the project. 
Significant suggestions have been offered to improve the relevance and 
impact of this project. An assessment of the project was conducted by 
the Social Science Research Center at Mississippi State University and 
a report compiled in November 1996. A site review was conducted in 
April 1999 to assess the merits of research efforts underway. A review 
and evaluation by an outside consultant is currently underway.
                   designing foods for health, texas
    Question. Please provide a description of the research that has 
been funded under the Designing Foods for Health, Texas grant.
    Answer. Designing fruits and vegetables for improved health and 
nutrition will be the overall goal. Health scientists have documented 
that naturally-occurring compounds such as flavonoids, carotenoids, and 
antioxidants have health benefits to prevent heart disease, stroke, and 
some forms of cancer. The research objective is to develop fruits and 
vegetables that have uniform, high levels of these compounds so all 
consumers can prevent chronic diseases through their diet. The fiscal 
year 2000 grant supports research through September 2001. CSREES 
requested the university submit a grant proposal for fiscal year 2001 
that has not yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. The need for continuing this research is to improve the 
quality of many different fruits and vegetables. Health scientists have 
documented that several fruits and vegetables have naturally-occurring 
compounds that promote health and prevent disease. The medical 
community advocates that preventing disease is more advantageous than 
trying to cure it. For example, a large effort of Texas health science 
centers is to develop improved diets that can aid in prevention of 
colon, esophagus, and prostate cancers. A wide range of improved fruits 
and vegetables for health will provide an enormous benefit for 
consumers worldwide, and will help people who may not know of the 
additional benefits of consuming the new varieties but like the texture 
and taste.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to design fruits and 
vegetables that assist in preventing diseases through diet. With plant 
breeders and medical scientists now working together, goals can be 
established to develop varieties that provide more nutrition and assist 
in preventing disease in children through the elderly. The most 
exciting accomplishment has been the development of the new carrot, 
BetaSweet. It was designed to be attractive, crisp in texture, have 
excellent sweet carrot flavor, and to contain a higher content of beta-
carotene than most orange carrots in the marketplace. Beta-carotene is 
a major source of Vitamin A and is thought to play additional roles in 
preventing certain forms of cancer, especially oral cancer. This carrot 
also contains high levels of anthocyanins that are normally found in 
fruits such as grapes and blueberries. They are known to be excellent 
antioxidants that prevent blood clotting, aid in the prevention of some 
cancers, heart disease, and strokes. The researchers are also improving 
health promoting aspects of the BetaSweet carrot by adding lycopene, 
which is found in tomatoes. Lycopene is thought to play a role in the 
prevention of prostate cancer. All these improvements are being done 
using conventional breeding.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999, 
and the appropriation for fiscal year 1999 was $250,000; for fiscal 
year 2000 $318,750; and for fiscal year 2001, $561,761. A total of 
$1,130,511 has been appropriated.
    Question. What are the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were $206,500 from university funds and $165,000 from an endowment fund 
in 1999, and $240,000 from university funds and $180,600 from an 
endowment fund in 2000.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at the Vegetable and Fruit 
Improvement Center and other research centers within the Texas 
Agricultural and Mechanical University System.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original overall objective of developing fruits and 
vegetables that contain high levels of naturally-occurring compounds 
that have health benefits continues to be addressed. The specific 
objective of improving the carrot by increasing the carotenoid and 
anthocyanin content while maintaining superior flavor and textural 
properties will be completed in 2001. Related objectives include 
increasing quercetin and anthocyanin levels in onions; carotene and 
anthocyanins in peaches; carotene in melons; carotene, quercetin, 
vitamin C, and lutein in peppers. Some of these objectives will be met 
by the end of 2003 and will include other crops such as tomatoes and 
citrus in the near future.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project director conducted a review by peer scientists 
at Texas Agricultural and Mechanical University prior to submitting the 
proposal for fiscal year 1999. The Vegetable and Fruit Improvement 
Center has a very active advisory board of industry professionals who 
review the Center's research programs annually.
                     diaprepes/rootweevil, florida
    Question. Please provide a description of the research that has 
been funded under the Diaprepes/Rootweevil, Florida grant.
    Answer. The funds are requested to address objectives established 
by an interagency/industry task force. CSREES will request the 
university to submit a grant proposal for this award. Among the most 
critical priorities are: Assessment of the plant injury and economic 
damage caused by the root weevil on horticultural, agronomic, and 
ornamental plants in the affected area, and the potential for the pest 
to spread beyond its current range; Development and use of monitoring 
tools to evaluate population levels, regions infested, and to predict 
where economic damage is likely to occur; Development, field 
evaluation, and implementation of management tools that individually 
will assist in weevil management within existing pest management 
programs in citrus and other affected crops. Tools to be developed are 
chemical, biological, cultural and mechanical methods.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Diaprepes abbreviatus is a pest introduced into Florida 
from its native Caribbean Islands in the late 1960's, but remained very 
localized in few citrus groves until the late 1980's when the pest 
began to spread. Known as a serious pest of a wide range of plants, 
this pest has the potential to affect traditional agriculture and also 
native plants. The potential exists for enormous economic losses in the 
home landscape industry, a multi-billion dollar business in Florida and 
the Southeast. Further, movement could expand the impact of this pest 
to other areas of the U.S., and could invoke regulatory concerns 
between trading partners and commerce. Individual plants which are 
attacked are injured through root loss, underground stem damage, and in 
the case of citrus, plant death. Whole blocks of citrus are 
progressively being killed, and the area cannot be replanted to citrus 
or other susceptible crops. Present management needs involve the 
development and evaluation of methods to locate and reduce larval and 
adult populations by a combination of treatments that are effective, 
safe, and economical.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. Research on this pest has concentrated in the past year on 
further development of management approaches for citrus, as well as 
development of information and management options for the pest on a 
wide range of other crops and native plants. Aspects of the biology of 
the weevil under investigation within this program include 
understanding the attraction cues that allow adult weevils to identify 
and locate host plants on which to feed and lay eggs. Leading from this 
research is the development of monitoring and trapping methods, which 
help us understand seasonal and spatial movement of the weevil 
populations. This in turn allows for the proper timing of applied 
controls. Field research is refining the use of selected pesticides for 
adult control on host plant foliage and use of short-residual 
pesticides for interference with young larvae as they fall from the 
canopy to infest roots. The evaluation of commercially-available 
parasitic nematodes to attack and kill root weevils and the testing of 
a native nematode are presently under investigation. Introduction and 
evaluation of parasitoid insects which attack and kill weevil eggs also 
is underway. Integration of these tools into a system which will reduce 
crop impact and slow weevil spread is the ultimate goal of this 
research effort. Establishment of cooperative research efforts in Texas 
are progressing following the finding of this pest in Texas in late 
2000.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Fiscal year 2000 was the first year of the grant and 
$297,500 was appropriated. For fiscal year 2001, $394,131 is 
appropriated for a total of $691,631.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Investment of state funds will continue to be made in this 
research. University of Florida has several programs that have focused 
their efforts on Diaprepes research, including the entomologists, 
pathologists, and plant improvement teams. Internal funds, as well as 
effort, have been redirected to address this problem. The citrus 
growers of Florida have dedicated considerable grant dollars from a 
self-tax for research, and more recently, other commodity groups are 
contributing to fund research. In-kind support through cooperation, 
shared equipment, and other means are being provided to address the 
issue.
    Question. Where is the work being carried out?
    Answer. The work is being carried out at the University of Florida 
with cooperative field studies in the new infested area of Texas.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Completion of some of the objectives will continue past the 
period of the current funding proposal, with evaluation and definition 
of new or modified objectives and priorities to be specified in a 
report which will accompany a new proposal.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project which will be evaluated as 
accomplishments are reported.
                      drought mitigation, nebraska
    Question. Please provide a description of the research that has 
been funded under the Drought Mitigation, Nebraska grant.
    Answer. The National Drought Mitigation Center in the School of 
Natural Resource Sciences at the University of Nebraska has a 
comprehensive program aimed at lessening societal vulnerability to 
drought. Activities of the Center include: promoting and conducting 
research on drought mitigation and preparedness technologies, improving 
coordination of drought-related activities and actions within and 
between levels of government, and assisting in the development, 
dissemination, and implementation of appropriate mitigation and 
preparedness technologies in the public and private sectors.
    Emphasis is directed toward research, outreach projects, and 
mitigation/management strategies that stress risk minimization.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. The Federal Emergency Management Agency has recently 
estimated that annual losses attributable to drought in the U.S. are 
between $6-8 billion. Drought impacts are escalating in response to 
increasing demands for water and other natural resources, increasing 
and shifting population, new technologies, and social behavior. These 
impacts are diverse and affect the economic, environmental, and social 
sectors of society. This fact was reinforced dramatically in 1996 in 
the Southwestern U.S. Impacts of drought in Texas alone were estimated 
to be more than $5 billion.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to create a National 
Drought Mitigation Center and develop a comprehensive program aimed at 
lessening societal water shortages and vulnerability to drought. The 
Center has created an information clearinghouse and is delivering 
information to a diverse audience of users through its web site. Over 
50,000 users now access the Center's web site each month. The Center's 
award winning web site was used extensively by state and Federal 
agencies during the 1999 drought to assist in the evaluation and 
response process. This web site networks users of drought-related 
information in the U.S. and elsewhere with information that would 
otherwise be unavailable or inaccessible.
    The National Drought Mitigation Center played an important role in 
the response of Federal and state government to the 1996 severe drought 
in the Southwest and southern Great Plains states. The Center provides 
timely and relevant information on drought severity and alternative 
response, mitigation, and planning measures. The Center participated in 
the Multi-state Drought Task Force workshop organized at the request of 
President Clinton and helped formulate long-term recommendations to 
improve the way this Nation prepares for and responds to drought. The 
Center is also a member of the Western Governors' Association Drought 
Task Force. This Task Force made recommendations to reduce the risks 
associated with drought in the western U.S.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant received an appropriation 
of $200,000 in fiscal years 1995 through 2000 and $199,560 in fiscal 
year 2001 for a total appropriation of $1,399,560.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The University of Nebraska contributed $75,737 of non-
Federal funds in support of this research in fiscal year 1995, $58,977 
in fiscal year 1996, and $61,545 in fiscal year 1997. The University of 
Nebraska contributed $67,819 in fiscal year 1998 and $74,887 in fiscal 
year 1999.
    Question. Where is this work being carried out?
    Answer. The research will be conducted at the University of 
Nebraska-Lincoln.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The research conducted under this project is being 
undertaken within a series of nine tasks. Significant progress on each 
of these tasks has been made, but these activities are ongoing. The 
information clearinghouse has been created, but new information and 
documents are continuously added to the web site in response to users' 
needs and requests. In addition, the drought watch section is updated 
monthly to assist users in evaluating current climate and water supply 
conditions. Research on new climatic indices to monitor drought and 
water supply conditions are being tested, and mitigation technologies 
and existing state drought plans are continuously evaluated. New 
activities are also being initiated in response to the growing interest 
and awareness in drought mitigation in the United States and elsewhere. 
The activities of the Western Drought Coordination Council provide the 
Center with a broadening range of research needs on an annual basis.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was peer-reviewed at the time the proposal was 
prepared in 1998. Each year, when the new proposal is prepared, the 
proposal is reviewed on the campus and again by agency representatives. 
The project is evaluated for progress toward completion of objectives, 
new activities proposed, and accomplishments.
                          ecosystems, alabama
    Question. Please provide a description of the research that has 
been funded under the Ecosystems, Alabama grant.
    Answer. In 1998, CSREES approved a proposal from Auburn University 
to support projects at two Community Colleges in Alabama--Faulkner 
State Community College and Alabama Southern Community College. The 
Faulkner State Community College's project is intended to: (1) fund the 
development of distance education classrooms for estuarine- and marine-
related education, and (2) to establish an aquaculture-related 
veterinary technician education program. The Alabama Southern Community 
College project will purchase and install laboratory equipment to 
further the education capacity of the Center for Excellence in 
Forestry, Paper, and Chemical Technology.
    Question. According to the research proposal, or the principal 
researcher, what is the local, regional, or national need for this 
project?
    Answer. Faulkner State Community College asserts that their 
veterinary technician program will be the only such program in the 
country providing the first two years of the degree program leading to 
an A.A. degree at Faulkner State, and the second two years leading to a 
bachelor's degree at Auburn University. The distance education capacity 
is intended to better integrate marine and estuary research into 
education activities.
    The Center for Excellence in Forestry, Paper, and Chemical 
Technology at Alabama Southern Community College is believed to be a 
unique educational opportunity in the Southeastern U.S. due to the 
merging of four individual technology training programs. These programs 
are: (1) Industrial Maintenance, (2) Electronics and Instrumentation, 
(3) Paper Process, and (4) Chemical Process training.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goals for these projects include the development of a 
veterinary technician training program and integration of marine and 
estuary research into classrooms at Faulkner State Community College; 
and to establish a state-of-the-art wood paper process and chemical 
process laboratory at Southern Alabama Community College.
    The fiscal year 1998 objectives for Faulkner State Community 
College were to establish a distance education web site to enhance 
integration of marine and estuarine environmental research and to 
establish a 2+2 veterinary technicians program with an emphasis on 
marine/aquaculture. The distance education web site is in place and has 
been tested. In addition, classrooms have been tested and some faculty 
have been trained in the use of the media/hardware. After further 
assessment, it was decided that the proposed Veterinary Technician 
Program would not be cost effective. With the fiscal year 1999 
proposal, Faulkner State Community College proposed instead to 
establish a 2+2 Environmental Science degree program.
    The fiscal year 1998 objectives for Alabama Southern Community 
College was to have completed, tested, and placed into operation the 
chemical, pulp, and paper process laboratories in the areas of (1) 
Process Control, (2) Crystallization, (3) Batch Reactor, and (4) 
Digester by June 2000. The Process Controls, Crystallization, and 
Digester laboratories were completed. The Batch Reactor is currently 
being completed. The completion of the Batch Reactor was delayed 
because the original corporation designated to do the work on this 
project was unable to follow through. However, Auburn University took 
the responsibility of preparing the engineering specifications for the 
Batch Reactor, and the unit will be functional by the end of summer 
2001.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Funds were appropriated for this grant beginning in fiscal 
year 1998. In fiscal years 1998 through 2000, $500,000 was appropriated 
each year, and in fiscal year 2001, $498,900 is appropriated. A total 
of $1,998,900 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided to support this project?
    Answer. No non-Federal funds have been identified to support this 
project.
    Question. Where is this work being carried out?
    Answer. The project is being conducted at the Faulkner State 
Community College Aquaculture Center in Alabama and at the Alabama 
Southern Community College Center for Forestry, Paper, and Chemical 
Technology.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Alabama Southern Community College project proposal 
indicates a two-year budget for project completion. The Faulkner State 
Community College proposal was for one year only. The objectives have 
not yet been met but are well underway.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project had a merit review before it began in fiscal 
year 1998. Subsequent projects were peer reviewed by the respective 
institutions for the fiscal year 1999 allocation.
               efficient irrigation, new mexico and texas
    Question. Please provide a description of the research that has 
been funded under the Efficient Irrigation, New Mexico and Texas grant.
    Answer. CSREES has requested the university to submit a grant 
proposal that has not yet been received. It is anticipated that it will 
request funding for research to increase the efficiency of agriculture 
and urban landscape irrigation and encourage the development of 
efficient water markets in the Rio Grande Basin.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, and local need for this 
program?
    Answer. Growing demand and drought have created critical water 
supply issues for much of the southwest. This project is designed to 
improve irrigation efficiency and water conservation in the Rio Grande 
basin in New Mexico, Texas, and Mexico. The crux of the problem is that 
a total water management system, which would assist agriculture and 
urban interests, does not exist. As a result, water is released on 
demand often resulting in inefficient management. Water problems will 
only increase as the population in this region grows and more industry 
is located to this region.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. Subject areas addressed will include irrigation district 
studies; irrigation system management; urban landscape and in-home 
water conservation; environment, ecology and water quality protection; 
saline and waste water management and water use; basin-wide hydrology, 
salinity modeling, and technology; and communications/oversight/
biometric support/accountability.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $1,185,386.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year.
    Answer. Sources of any non-Federal funds will be identified in the 
grant proposal.
    Question. Where is the work being carried out?
    Answer. This research will be carried out by Texas A&M University 
and New Mexico State University. Coordination will be provided through 
the Water Resources Institute at Texas A&M University.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have them objectives been met? What is the 
anticipated completion date of additional or related objectives.
    Answer. The anticipated completion date for the first phase is 
April 30, 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the, last evaluation conducted.
    Answer. This is a new project. An agency review will be conducted 
prior to awarding the grant.
               environmental biotechnology, rhode island
    Question. Please provide a description of the research that has 
been funded under the Environmental Biotechnology, Rhode Island grant.
    Answer. This is a new special grant this year. The agency has 
requested the university to submit a grant proposal that has not yet 
been received. Preliminary communications with the institutional 
research administrator indicate that the project is part of an ongoing 
environmental biotechnology initiative approved by the Rhode Island 
Board of Governors for Higher Education in 1998. The goal of the 
initiative is to enhance the educational, training, and research 
capacities of the biological and environmental sciences of the 
university through development of state-of-the-art research and 
training facilities including core facilities for genomics, 
transgenics, imaging, and bioinformatics.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. According to the institutional research administrator, this 
project will strengthen research and training programs in marine and 
environmental biology and ecology in response to public needs for 
research, for practical problem solving in government and industry, and 
for the public and private needs of scholars, technological experts, 
and future leaders.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to enhance the 
educational, training, and research capacities of biological and 
environmental sciences of the institution through development of state-
of-the-art research and training facilities. Accomplishments in the 
first two years include receipt of four awards totaling $600,000 from 
the Rhode Island Champlin Foundation to equip biotechnology teaching 
laboratories, receipt of a Federal challenge grant for a transgenics 
teaching facility and training, and commitment of $2.1 million toward 
the Slater Center of Excellence in Biotechnology at the institution.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated for fiscal year 2001 is $189,582.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. In addition to the non-Federal Champlin and Slater Center 
funds referred to earlier, the university has funded a significant 
amount of renovation in the laboratories equipped by the Champlin 
funds, and it has absorbed the cost of developing alternative space to 
free space for a turf-grass business incubator facility on-campus.
    Question. Where is this work being carried out?
    Answer. The research is conducted on the campus of the University 
of Rhode Island, Kingston, Rhode Island.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion of additional or related objectives?
    Answer. Currently planned interim facilities that will house the 
equipment purchased under this special grant are intended to meet 
campus needs for the environmental biotechnology core facility until a 
new facility is completed in 2006.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new special grant so it has not been evaluated 
yet. The agency will convene a merit review panel to evaluate the 
project upon receipt of a proposal for fiscal year 2001.
                  environmental horticulture, florida
    Question. Please provide a description of the research that has 
been funded under the Environmental Horticulture, Florida grant.
    Answer. This is a new grant, and the University of Florida is 
preparing a grant proposal for submission.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Agriculture in the six counties of north-central Florida 
has suffered economically with the decline in the tobacco industry. 
This is a rural area with very little industrial development and so the 
agricultural decline has been a hardship. The environmental 
horticulture industry offers hope for renewed economic growth in this 
area.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this grant is to establish the Green Industries 
Education Institute. This institute will identify and promote 
alternative horticultural crops that can be grown in north-central 
Florida. Appropriate cultural techniques will be developed for these 
crops. Courses will be developed that will re-train the growers in this 
area in these techniques. In addition, a curriculum will be developed 
that will train workers in the skills that will be required by this new 
industry.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001.
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated for fiscal year 2001 is $284,373.
    Question. What is the amount and source of non-Federal funds 
provided by fiscal year?
    Answer. In fiscal year 2000, $340,000 was appropriated by the state 
of Florida to develop this project.
    Question. Where is this work being carried out?
    Answer. The work is being carried out at the University of Florida, 
Florida A&M University, and the North Florida Community College.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these been met? What is the anticipated 
completion date of the additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is the end of fiscal year 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. This is a new project. A peer review of the project will be 
undertaken by the performing institution, and the agency will conduct a 
thorough evaluation of the proposal once it is received.
                    environmental research, new york
    Question. Please provide a description of the research that has 
been funded under the Environmental Research, New York grant.
    Answer. This research has several major goals. These are: (1) to 
better understand the impacts of nutrient flows, principally nitrogen, 
from agriculture on non-agricultural ecosystems, forests, wetlands, and 
water resources in mixed ecosystem landscapes; (2) to improve knowledge 
of agricultural contributions to greenhouse gas emissions and effects 
of projected climate change on crop production; and (3) to develop 
innovative approaches and technologies for improving the efficiency of 
agricultural production. New thrusts include: (1) to improve 
understanding of the impacts of land application of biosolids on the 
sustainability of New York agriculture and on water quality, and to 
develop management practices and guidelines for sustainable use of 
biosolids in New York agriculture; and (2) to evaluate spatial and 
temporal variability of crop yields within fields and to develop 
management practices that increase productivity, increase the 
efficiency of use of inputs, and reduce environmental impacts of 
agriculture.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. Programs supported by the special grant are multi-
disciplinary in nature involving technical scientists from a range of 
disciplines, together with social scientists and economists. Due to the 
complexity of agriculture and environmental interactions at all levels, 
the needed research is complex and requires much time. Additionally, 
translation of knowledge from plot or field studies to larger scales, 
such as landscape to regional and global, is needed to provide 
information that is useful to policymakers.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. One goal of the program is to identify impacts of nitrogen 
flows from agricultural lands on adjacent natural ecosystems, forests 
and wetlands, and water resources and to devise management strategies 
to minimize these impacts. Leaching of nitrogen from maize-based 
cropping systems has been shown to be higher when organic sources of 
nitrogen, manures, and plow-down alfalfa are used as nitrogen sources 
for crop growth compared to use of inorganic fertilizers. A computer-
based nitrogen decision support system to improve recommendations for 
on-farm nitrogen management is being used in New York.
    A second goal of the program is to investigate several interactions 
between agriculture and climate change. Studies of methane fluxes to/
from soils showed that northern hardwood forests are both a source and 
a sink for this powerful greenhouse gas and overall may be a net source 
of methane. In contrast, upland agricultural systems were consistently 
found to be a sink for methane. Use of legume green manures to supply 
nitrogen in an organic production system increased methane emissions 
two-fold, creating a conflict between a sustainable agriculture 
practice and the environment.
    No-tillage agriculture was shown to increase preservation of 
existing soil organic carbon, but accumulation of carbon derived from 
crop inputs was higher with conventional tillage. Inputs of carbon to 
soils from root exudates and residues were found to be more important 
to carbon sequestration in soils than were residues from the tops of 
plants.
    Soil quality assessments at the Chesapeake farms sustainable 
agriculture project on Maryland's Eastern shore, where various cropping 
systems are being compared with the conventional corn-soybean rotation, 
have shown that soil quality improves as the cropping system becomes 
more complex, involves less tillage, and has more organic inputs.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1991 
with an appropriation of $297,000. The fiscal years 1992-1993 
appropriation was $575,000 per year; $540,000 in fiscal year 1994; 
$486,000 each year in fiscal years 1995 through 1999; $400,000 each 
year for fiscal years 2000-2000; and $399,120 for fiscal year 2001. A 
total of $5,216,120 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. In fiscal year 1991, Cornell University provided $27,893 
and the State of New York provided $118,014. In fiscal year 1992, 
Cornell University provided $37,476, and the State of New York provided 
$188,915. In fiscal year 1993, Cornell University provided $13,650, and 
the State of New York provided $243,251. In fiscal year 1994, the State 
of New York provided $214,989. In fiscal year 1995, the State of New 
York provided $233,085. In fiscal year 1996, the State of New York 
provided $388,301. In fiscal year 1999, the State of New York provided 
in excess of $400,000 to support this research and contributed 
approximately $300,000 in 2000.
    Question. Where is this work being carried out?
    Answer. This research is being conducted at Cornell University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original estimate was for a 5-year program, and many of 
the initial objectives in the nitrogen and climate change areas have 
been met. New objectives evolved from the original work, and the 
program was also oriented to consider broader dimensions of 
environmental management, particularly strategies for community-based 
watershed management involving linkage of technical knowledge with 
social and local governmental perspectives and needs. Estimated 
completion items for the current program that started in 1999 are:
  --Watershed science and management
  --Effects of elevated carbon dioxide on crop yield potential
  --Remington farms sustainable agriculture project--a 10-year project
  --Carbon storage in soils
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was peer reviewed in 1997, 1998, and 1999. 
Overall, the project was rated very high. The agency conducted a merit 
review of the project in 2000 and is planning a more formal review of 
the project in the coming year.
              environmental risk factors/cancer, new york
    Question. Please provide a description of the work that has been 
funded under the Environmental Risk Factors/Cancer, New York grant.
    Answer. The agency has requested the University to submit a renewal 
grant proposal which has not yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, and local need for this 
research?
    Answer. The American Cancer Society estimated that over 182,800 
women in the U.S. will be newly diagnosed with breast cancer during 
2000 and that 41,200 will die from this disease. The role of 
environmental risk factors, such as pesticides, is of concern to women, 
their families, the agricultural community, and policymakers. This 
project, emphasizing risk reduction information, will work at filling 
that void.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original and continuing goals of this research are:
    1. To establish and expand the database of critical evaluations on 
the current scientific evidence of carcinogenicity for selected 
agricultural chemicals. This will include writing critical evaluations 
on the breast cancer risk of chemicals used in agricultural settings 
and the role of selected agrochemicals in childhood cancer.
    2. To communicate effectively information in the database to a 
variety of audiences, including the scientific community, Federal 
agencies, public health professionals, the agricultural community, and 
the public using printed materials and electronic formats on the 
Internet.
    3. To ensure that the public will have access to science-based 
information written in non-technical language about environmental 
factors and the risk of breast cancer and childhood cancers.
    4. To increase the knowledge and use of practical strategies aimed 
at breast cancer risk reduction for residents in rural areas. Efforts 
to address this objective will include: a) simple, attractive, printed 
educational materials tailored for families in rural areas; b) 
videotape-based educational workshops for use with groups of rural 
women; and c) enhancement, adaptation, and continued use of the Breast 
Cancer Environmental Risk Factors--BCERF--interactive display.
    5. To effectively incorporate breast cancer risk reduction messages 
into health care and health screening settings in rural areas with 
tailored printed materials and interactive display. Satellite video-
conferencing and supporting web site will allow expanded efforts 
throughout the U.S.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1997, 
and in fiscal years 1997-1999, $100,000 was appropriated per year; 
fiscal year 2000, $170,000; and fiscal year 2001, $226,501 was 
appropriated for a total of $696,501.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $150,000 state appropriations for fiscal year 1996; 
$250,000 per year in state funds were provided for fiscal years 1997 
and 1998; $350,000 state funds for fiscal years 1999 and 2000; and 
$350,000 state funds were requested for fiscal year 2001 with two 
possible supplements of $150,000 each also proposed.
    Question. Where is this work being carried out?
    Answer. This research and outreach is conducted at Cornell 
University, Ithaca, New York.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This project began in April 1997. Because of the success of 
meeting the original objectives in New York State, BCERF efforts are 
being refined to address multiple community settings and tailored for 
regional efforts. The anticipated completion date is June 30, 2002.
    Objectives met:
  --The bibliographic database was established during year one and is 
        updated and expanded each year. It currently has over 5,000 
        entries with over 400 added each quarter. Also, it includes 
        full bibliographies of all pesticide and dietary/lifestyle 
        scientific critical reviews.
  --Critical Evaluations: the breast cancer risk of nine pesticides--
        four in fiscal year 1997, three in fiscal year 1998, and two in 
        fiscal year 1999--have been completed. The completion of two 
        additional critical evaluations is anticipated by the end of 
        the current fiscal year. One critical evaluation was published 
        in a peer-reviewed journal and four other manuscripts submitted 
        for publication.
  --Science-based information material--fact sheets--have been 
        developed for the nine pesticides and for multiple pesticide-
        related issues. Also, fact sheets were developed on diet/
        hormone/lifestyle breast cancer risk factors and general 
        information on breast cancer. Seven additional fact sheets are 
        to be developed in the current fiscal year.
  --Two video teleconferences and an in-service have been held and 
        evaluated. Follow-up telephone surveys of 1997 facilitators at 
        BCERF satellite video conference downlink sites and 
        participants at the June 1997 on-campus training program was 
        completed. These results informed the design of the rural 
        initiative and prepared the program for broader 
        videoconferencing.
  --The interactive computer Rural Exhibit was completed and evaluated 
        in 1999. It was enhanced, refined, and used broadly this year.
  --The BCERF web site was revamped and relaunched in 1997-1998. The 
        number of browsers accessing the BCERF home page rose from 
        approximately 400 hits per month during the summer of 1998 to 
        over 1,000 hits in November 1998 and 3,490 hits in December 
        1998. Hits remain with an average of about 3,000 per month.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. As a relatively new project, a complete evaluation has not 
been conducted, although the proposal is currently under review. 
Periodic progress reports have been made throughout the year. The 
project is moving towards achieving its desired goals. A final 
evaluation will be made after June 30, 2001. BCERF has evaluated most 
components of the program, with further evaluation planned. To date, 
BCERF has done an evaluation of the video teleconferences and in-
service and has had the pesticide fact sheets reviewed by focus 
groups--breast cancer survivors and women not having breast cancer. The 
participants brought a variety of perspectives to the discussion, 
providing BCERF with a wealth of important feedback on our fact sheets 
and educational approach. Some of the conclusions drawn from this 
evaluation have already resulted in simple changes made in the 
preparation of current fact sheets. Other feedback from this evaluation 
will inform planning efforts for the education component in general.
    Evaluation played a key role in the development of the interactive 
computer rural exhibit. To develop the exhibit, qualitative and 
quantitative information was gathered about the knowledge, attitudes, 
and beliefs of rural women regarding environmental risk factors and 
breast cancer. In addition, BCERF conducted brief surveys of rural 
women attending several rural conferences and events. The complete 
exhibit was tested at two farm shows and the New York State Fair in 
Fall 1999, partnering with professionals and organizations such as 
those providing mobile mammography. An adapted, more mobile version, 
was tested in four New York State counties. To evaluate the value of 
critical evaluations to scientists and Federal agency personnel, a fax-
back survey was sent. The majority of respondents--82 percent--found 
the critical evaluations to be relevant to their work. This year 17 
scientists have requested critical evaluations.
                 environmentally safe products, vermont
    Question. Please provide a description of the research that has 
been funded under the Environmentally Safe Products, Vermont grant.
    Answer. This research is designed to develop an environmentally-
friendly wood finish coating formulation system by using whey proteins. 
Whey proteins are a cheese-making byproduct. If successful, the new 
natural and environmentally-friendly wood coating product will be used 
for wood painting and coating, such as furniture, toys, and other 
wooden crafts.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Almost all the wood finish/coating products available in 
the United States markets contain both environmentally-unfriendly and 
health hazardous ingredients, for example, methoxymethylethoxpropanol 
and butoxymethylethoxy-propanol. Therefore, our country needs natural 
and environmentally-safe wood coating products in order to protect our 
environment and the health of people.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to develop and 
optimize an environmentally-friendly wood finish coating formulation 
system by using whey protein as a binding material. This research 
started in the second half of 2000. Five prototype wood coating mixes 
have been formulated. The chemical characteristics of the formulations 
have been analyzed. The coating materials have been applied on 
experimental wood samples. A workshop has been built which is designed 
for this project. The mechanical properties of the coating on wood 
samples will be studied.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000. 
The appropriation for fiscal year 2000 was $170,000 and for fiscal year 
2001 is $245,459. The total amount appropriated is $415,459.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. A total of $4,000 was provided by Vermont Wood and Dairy 
Industries for preliminary studies.
    Question. Where is this work being carried out?
    Answer. This work is being carried out at the University of 
Vermont, Department of Nutrition and Food Sciences.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
of the project is October 2002. Some of the objectives have been met. 
Anticipated completion date of additional objectives is October 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the evaluation conducted.
    Answer. Evaluation of this project is conducted annually based on 
the annual progress report and discussions with the principal 
investigator, as appropriate. The review is conducted by the cognizant 
staff scientist who has determined that this research is in accordance 
with the mission of the agency.
                    exotic pest diseases, california
    Question. Please provide a description of the research that has 
been funded under the Exotic Pest Diseases, California grant.
    Answer. This is a new grant. CSREES has requested that the 
university submit a grant proposal that has not yet been received. The 
principal investigator has indicated that the grant will be awarded on 
a competitive basis to scientists at a number of universities.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Exotic and invasive pest species are a severe national, 
regional, and state problem. In California, recent invasive species 
include the glassy-winged sharpshooter that vectors Pierce's disease, 
Formosan subterranean termite, red imported fire ant, Africanized honey 
bee, giant Arundo, scotch broom, burrowing nematode, rice blast 
disease, Chinese mitten crab, and many others. Pierce's disease 
threatens the state's $33 billion grape industry and has caused an 
estimated $12-14 million loss in the Temecula grape-producing region 
over the last year.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This is a new grant. The proposal has not yet been received 
and the work has not yet begun. The goal of this research is to fund 
research on exotic pest diseases affecting California agricultural, 
urban, and natural systems.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for the fiscal year is $1,247,250.
    Question. What is the source and the amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: California commodity boards fund approximately 
$400,000 per year in research on invasive species; and the State of 
California funds approximately $600,000 per year in fruit fly research. 
The total non-Federal funds and sources provided for this grant were as 
follows: $600,000 state appropriations and $400,000 miscellaneous in 
fiscal year 2001.
    Question. Where will this work be carried out?
    Answer. California will conduct this research through a competitive 
grants program with a majority of the research on endemic exotic 
species to be done in California. Some research may be done in Texas, 
Florida, or Hawaii by USDA co-investigators in cooperation with 
University of California scientists.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or elated objectives?
    Answer. The anticipated completion date for the original objective 
is the end of fiscal year 2005.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is the first year for this project, and it has not yet 
been reviewed.
                    expanded wheat pasture, oklahoma
    Question. Please provide a description of the research that has 
been funded under the Expanded Wheat Pasture, Oklahoma grant.
    Answer. This project was designed to develop improved 
supplementation programs and new systems for technology delivery to 
reduce production risk of raising cattle on wheat pasture. The work 
involves evaluation of grazing termination date on grain and beef 
production, assess the impact of wheat cultural practices, and develop 
an economic model to evaluate alternative decisions on grain/beef 
production. Additional effort is directed toward development of cool 
season perennial forage grasses to complement wheat pasture.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that this work addresses 
the needs of wheat/cattle producers of Oklahoma as a primary focus. 
However, it would appear to have application regionally in adjacent 
wheat growing states.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to develop 
economically-viable management systems for use of wheat for 
supplemental pasture for beef cattle before the crop starts making 
grain. This work has already shown how the use of feed supplements can 
increase net profit from cattle grazing on wheat pasture. The study has 
identified management practices, e.g. date of planting, cultivar 
selection, grazing intensity, and date of cattle removal that produce 
the optimum grain yield and cattle gain. A Wheat/Stocker Management 
Model has been developed as a decision aid to help producers assess 
income risk in the operation. Work is underway on a Wheat Grazing 
Systems simulation model.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1989 
and appropriations were as follows: fiscal year 1989, $400,000; fiscal 
year 1990, $148,000; fiscal year 1991, $275,000; fiscal years 1992-
1993, $337,000 per year; fiscal year 1994, $317,000; fiscal years 1995-
2000, $285,000 each year; and fiscal year 2001, $292,355. A total of 
$3,816,355 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $175,796 state appropriations in 1991; $174,074 state 
appropriations in 1992; and $236,584 state appropriations in 1993. The 
non-Federal support for 1994 was $238,058 for state appropriations. 
Funds for fiscal year 1995 were $275,426, for 1996 were $120,000, for 
1997 were $190,510, for 1998 $224,500, for 1999, $222,650, and for 
2000, $234,000.
    Question. Where is this work being carried out?
    Answer. The research is being done at Oklahoma State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This project started in 1989 with a projection of 10 years 
to complete the research objectives. Some objectives are nearing 
completion while others will require further study. A number of wheat 
cultivars have been identified which will tolerate grazing and still 
produce economic grain yields. The grazing cut off date for grain 
production has been established. However, year to year variation need 
additional study in order to develop a reliable decision support 
system. The revised projected completion date is 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This program is reviewed annually. Each year's funding 
cycle is peer reviewed internally and by CSREES National Program 
Leaders for scientific merit and relevance. Results from this project 
are currently being used by ranchers to help with management decisions 
concerning stocker cattle grazed on wheat that will be harvested for 
grain. Current work is designed to refine the current information and 
identify wheat cultivars and grazing management for optimum economic 
return.
                   expert ipm decision support system
    Question. Please provide a description of the research that has 
been funded under the Expert Integrated Pest Management Decision 
Support System grant.
    Answer. A prototype information and decision support system was 
developed in collaboration with Purdue University and the U.S. 
Department of Energy's Argonne National Laboratory that integrates and 
manages information from multiple data sources. Development of this 
system now continues with the collaboration of the Office of Pest 
Management Policy--OPMP--and the National Science Foundation Center for 
Integrated Pest Management at North Carolina State University. 
Components of the Pest Management Information Decision Support System--
PMIDSS--include information on the U.S. Environmental Protection 
Agency--EPA--review status of pesticides, crop losses caused by pests, 
status of minor use registrations, current research in progress, and 
priorities of integrated pest management implementation teams. PMIDSS 
data, along with OPMP and Pesticide Impact Assessment Program--PIAP--
crop profiles, provide the background information that is critical to 
the development of commodity-specific Pest Management Strategies in 
response to Food Quality Protection Act-driven regulatory decisions.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. When fully operational, PMIDSS will serve national, 
regional, and local needs for research and extension activities. At the 
national level, the system supports the USDA and EPA Memorandum of 
Understanding to identify crop protection gaps and to find alternatives 
to pesticides either under Food Quality Protection Act regulatory 
review or those being lost due to pest resistance. The system will 
assist in the identification of priorities for the Pest Management 
Alternatives Program, Crops at Risk from Food Quality Protection Act--
FQPA--Implementation and the Risk Avoidance and Mitigation Programs, 
and regional Integrated Pest Management--IPM--Special Grants and 
Special Projects. With the new implementation of the USDA Regional Pest 
Management Centers, PMIDSS technology is critical to the information 
needs of these Centers. It will provide a mechanism for decision 
transparency and for all stakeholders to interact with the priority 
setting process. The ultimate result will be to help insure that 
farmers have adequate alternatives for managing pests at the specific 
local level.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of PMIDSS was to refine the process of 
identification for Integrated Pest Management needs of the UDSA, EPA, 
and states. This goal reinforces the state and Federal partnerships to 
disseminate important pest management information for improved decision 
making and environmental quality, and to address future needs. In 1996 
and 1997, the program addressed priority commodity pest management 
needs resulting from voluntary pesticide cancellations and regulatory 
cancellations, responding to the Memorandum of Understanding, and 
supplemental Memorandum of Understanding between the USDA and EPA. The 
supplemental Memorandum of Understanding was signed in April 1996, at 
which time there were 58 pesticides and 374 uses identified and 
prioritized. The process included information on cancellations 
furnished by EPA. Selected uses were sent to the states' Pesticide 
Impact Assessment Program and Integrated Pest Management networks. 
Impacts of cancellations affecting individual states were reported for 
inclusion in the decision support system. Twenty-five minor use crops 
on which 40 specific pests were identified in the 1997 Request For 
Proposals. Results were also used by the regional IPM grants program 
Request For Proposals. In 1999, information sources from PMIDSS were 
used as source material for the development of a number of Crop 
Profiles. In 2000, the Crop profile use continued and the pest 
management Strategic Plans also accessed components of PMIDSS for 
baseline information. PMIDSS had undergone a complete rewrite during 
this last 2 years. PMIDSS was originally begun prior to the initiation 
of the World Wide Web. It has now been rewritten, using Java and Cold 
Fusion Structured Query Language queries, with all data now stored on a 
Structured Query Language Windows NT server. This means that no 
software other than the standard browser is required to access the 
information. All of the time-sensitive data has been updated and a 
searchable database of the new Pest Management Strategic Plans has been 
developed. Presently, user-customizable interfaces are being developed.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001.
    Answer. This work began in 1994, with CSREES administrative 
funding. In fiscal year 1995, $172,000 was appropriated. In fiscal year 
1996, we expended $177,000 in a cooperative agreement with Purdue 
University and Argonne National Laboratory from Pest Management 
Alternative Special Grant Funds, $21,000 from Research, Extension, and 
Education Evaluation Funds, and $40,000 from PIAP. In fiscal years 
1997-1998, we expended $165,425 and $177,000 to Purdue University and 
Argonne National Laboratory. In fiscal years 1999 through 2000 we 
expended $177,000 per year and in fiscal year 2001, $176,611 was 
appropriated to go to North Carolina State University Center for IPM to 
make the system web-based and provide access to multiple databases.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds support the Pest Management 
Information Decision Support System.
    Question. Where is this work being carried out?
    Answer. Presently, the bulk of the work is carried out in 
Washington, D.C. and in Raleigh, North Carolina. CSREES has National 
Program Leaders in IPM, PIAP, and Inter-regional Project-4 program 
areas working on the PMIDSS. The Center for Integrated Pest Management 
at North Carolina State University manages the web server where the 
pest management information system is located and is developing the 
multiple concurrent database search and decision support capability. 
Interaction and information is provided by every state in our system. 
We are in the process of strengthening the role of Land Grant partners 
in this program, and additional database access is being developed 
through the Center for Integrated Pest Management, at North Carolina 
State University and through a sub-contract with George Mason 
University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated complex date of additional or related objectives?
    Answer. Our original estimate was two to three years with adequate 
resources to complete the developmental work. However, the design 
considerations became more complex with the 1996 passage of FQPA. 
Program needs dictated an expansion and change in information bases. In 
addition, the web technology that was unavailable in 1994 is now a 
major and needed part of the program strategy. We feel we are 
reasonably addressing FQPA objectives with available resources and this 
effort may need to become an ongoing activity USDA.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. PMIDSS underwent a formal review in June 1997, and a major 
piece of the system, the Pest Management Alternatives Program 
WorkBench, was reviewed by regionally-selected land grant scientists 
and others in November 1997. In August 1998 a progress review evaluated 
the engineered software product and determined the need for a web 
accessible multiple database search and look-up function for the 
system. A concept review held in September 1998 demonstrated the 
functionality of a web-based decision support system. The June review 
recommendations included: focus the system on the needs of the Pest 
Management Alternatives Program, timely delivery of the software 
product to USDA, and development of a plan to sustain the system in a 
user-friendly, widely-available format. The November evaluation of the 
WorkBench brought the following comments and recommendations: the 
WorkBench provides good linkages to relevant databases and brings 
together essential information on pest management issues; the system 
should be placed on the World Wide Web for greater access and utility; 
tell potential users that it is available; and invest in high quality 
databases to support and enhance data integrity of the WorkBench. 
Development now focuses on the needs of the Pest Management 
Alternatives Program, Crops at Risk Program, Risk Avoidance and 
Mitigation Program, the requirements of FQPA and an easy-to-use 
interface for data search and access. Data access is focused on current 
and transparent databases to address critical FQPA needs.
              farm injuries and illnesses, north carolina
    Question. Please provide a description of the research that has 
been funded under the Farm Injuries and Illnesses, North Carolina 
grant.
    Answer. CSREES has requested the university to submit a grant 
proposal that has not yet been received. It is anticipated that it will 
request funding for research on health and safety issues in 
agriculture, forestry, and fisheries models for future interventions 
and outcomes evaluation. The initial research focus in this funding 
period would be heat exposure of field workers and supervisors and the 
resultant risk of heat exhaustion.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, and local need?
    Answer. The dominant rural occupations in North Carolina are 
agriculture, forestry, and fisheries. North Carolina has the second 
largest number of farmers in the U.S. Agriculture employs 21 percent of 
the state's workforce. Agriculture, forestry, and fishing are three of 
the four most dangerous occupations in the U.S. Agriculture, forestry, 
and fisheries specific occupational illness and injury include: death 
due to trauma, heat stroke, amputations, musculoskeletal disorders, 
skin cancer, hearing loss, chronic respiratory problems, infectious 
disease, emotional stress, and toxic pesticide related illness. This 
population is often underserved medically because of geographic 
isolation, economic constraints, and sometimes lack of understanding 
about the need for health care. We have very little data about the 
health problems of this population. Current health statistics available 
in North Carolina do not identify occupation. Though individuals in 
these industries have many problems common to other rural citizens, 
they are exposed to unique occupational and environmental hazards that 
can lead to health problems not seen in others.
    There is no hard data on the magnitude of heat stroke in field 
workers from surveys, emergency room visits, or death certificates. 
Reporting of heat stroke death in North Carolina is not mandatory 
unless there are five deaths from a single event. Under high heat index 
conditions, heat illness escalates from self-treatable to true medical 
emergency over a few hours. It is poorly understood and often 
mismanaged. There are numerous interactions with medications, alcohol, 
and drugs that exacerbate heat related illness. Older farmers and 
workers are at much higher risk. Since heat related illness is 
preventable, there is a real need to both increase awareness and 
determine instantaneous risk of heat illness in the field.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. Preliminary planning is underway. The goals of the research 
are to: (1) evaluate the factors involved and the role each plays in 
heat related illness, (2) research existing methods and develop a 
comprehensive database for capturing data on heat exhaustion and other 
health problems unique to this population, and (3) develop a plan for 
intervention based on the outcome of the field research.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year.
    Answer. Sources of any non-Federal funds will be identified in the 
grant proposal.
    Question. Where is the work being carried out?
    Answer. The field operations for this research project will be 
carried out on eastern North Carolina farms. The work will be done 
collaboratively by faculty and staff located at East Carolina 
University, North Carolina Agricultural and Technical University, and 
North Carolina State University.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have them objectives been met? What is the 
anticipated completion date of additional or related objectives.
    Answer. The anticipated completion date is one year from receipt of 
the award.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project. An agency review will be conducted 
prior to awarding the grant.
               feed barley for rangeland cattle, montana
    Question. Please provide a description of the research that has 
been funded under the Feed Barley for Rangeland Cattle, Montana grant.
    Answer. This project supports research on the nutritional value of 
barley cultivars as feed for beef cattle. This research will assist the 
breeding and selection of superior barley types that can be more 
competitive with other feed grains and improve farmer income from 
barley crops grown in rotational systems in the Northern Great Plains. 
The project was subjected to a merit review.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Barley is grown extensively as a feed grain in the U.S. 
Based upon both chemical analysis and the experience of some cattle 
feeders, the principal investigator believes barley should have a feed 
value on a par with corn or wheat. Currently, barley is listed as 
inferior to both corn and wheat in feed hand books and is, therefore, 
discounted in the feed market. Comprehensive feeding studies of various 
barley types will be conducted to document the value as a feed grain 
for beef cattle.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The research has examined the use of laboratory analysis of 
barley for predicting feeding quality for beef cattle. They have 
identified several characteristics, including particle size and starch 
content, which are important in feed quality. They have then used some 
of this information to select among barley strains for best feeding 
quality. They have now determined that marker-assisted selection of 
barley varieties will be a viable approach to incorporating feed 
quality into a barley breeding program.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1996 
with an appropriation of $250,000; for fiscal year 1997, $500,000; for 
fiscal years 1998 and 1999, $600,000 each year; for fiscal year 2000, 
$637,500; and for fiscal year 2001, $692,473. The total appropriation 
is $3,279,973.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds for this project were $160,000 in 1996, 
$174,500 in 1997, and $168,000 in 1998. No information is available for 
1999, 2000, or 2001.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Montana State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Completion of the original objectives is anticipated in 
fiscal year 2001. Integration of findings into management systems is 
expected by fiscal year 2005 with outreach and information 
dissemination completed by fiscal year 2010.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project is evaluated annually. It undergoes a 
scientific merit review by two Department Heads and three peer faculty 
members. It is reviewed again by a CSREES National Program Leader upon 
submission to the agency.
               fish and shellfish technologies, virginia
    Question. Please provide a description of the research that has 
been funded under the Fish and Shellfish Technologies, Virginia grant.
    Answer. The agency has requested that the university submit a grant 
proposal that has yet to be received. The project will be initiated in 
fiscal year 2001. The project will focus on minimizing effluents from 
commercial recirculating aquaculture systems, aiding commercial fish 
producers in intensifying their production capacity, and 
characterization of solid and liquid wastes from intensive aquaculture 
production systems.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The investigators indicate that there is a regional and 
national need to advance recirculating system technologies and to 
enhance waste management in these systems in order to develop 
environmentally-compatible aquaculture systems and management 
practices. In addition, intensification of aquaculture production 
systems will become increasingly important in areas with limited water 
supplies. This research could have significant impact on the future of 
domestic seafood production reducing dependence on foreign products. 
The researchers indicate that the research goals and objectives are 
consistent with those outlined in the National Science and Technology 
Council's--NSTC--Aquaculture Research and Development Strategic Plan.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to enhance the 
economic viability and environmental compatibility of intensive 
aquaculture production systems as alternative agricultural enterprises. 
To achieve these goals, researchers will characterize effluent 
discharges from commercial fish farms in Virginia, develop design 
criteria to enhance intensification of commercial fish farm with 
limited water supplies, and conduct studies to minimize waste 
production in commercial scale recirculating aquaculture systems. This 
project will be initiated in fiscal year 2001.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $473,955.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates in excess of $50,000 of non-
Federal funds will be made available in fiscal year 2001 coming 
primarily from state and other sources.
    Question. Where is this work being carried out?
    Answer. The research will be conducted through the Virginia 
Agricultural Experiment Station, Virginia Polytechnic Institute and 
State University, Blacksburg, Virginia, and in collaboration with 
private aquaculture producers in Virginia.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the fiscal year 2001 
grant is fiscal year 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency will evaluate the proposal once it is submitted.
                          floriculture, hawaii
    Question. Please provide a description of the research that has 
been funded under the Floriculture, Hawaii grant.
    Answer. The research carried out with these funds involves 
wholesale and retail U.S. and Japan market research, development of new 
varieties for aesthetic values and pest resistance, and pest management 
strategies to meet quarantine needs and consumer expectations.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The researcher believes the tropical cut flower and foliage 
industry in Hawaii, which includes anthurium, orchids, flowering 
gingers, bird of paradise, heliconia, protea, and cut foliage is worth 
over $50 million primarily in out-of-state sales. Development of 
disease resistant cultivars and quarantine pest management strategies 
that reduce pesticide usage are high priority issues at the national 
and international level.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research was to develop superior 
Hawaii anthuriums, orchids, protea, and exotic tropical flower 
varieties with disease resistance, particularly to anthurium blight 
which devastated the Hawaii anthurium industry through the mid-1980's 
and reduced Hawaii's market share. Additionally, research focused on 
development of post-harvest handling practices and quarantine pest 
control. To date, a new anthurium cultivar has been patented and 
released. Additional blight resistant cultivars are being propagated 
and tested by the anthurium industry. Disease resistant protea 
germplasm has been obtained from South Africa and is being used in the 
protea breeding program. A post-harvest hot water dip treatment has 
been developed and is being used commercially on tolerant cut-flower 
species to meet quarantine requirements.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $300,000; fiscal years 1990-1993, $296,000 
per year; fiscal year 1994, $278,000; fiscal years 1995-2000 $250,000 
each year; and fiscal year 2001, $249,450. A total of $3,511,450 has 
been appropriated since 1989.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: State appropriations of $87,937 in 1995, $56,680 in 
1997, and $62,600 in 1998 for a total of $207,217 since 1995.
    Question. Where is this work being carried out?
    Answer. Research is being conducted by the University of Hawaii at 
Manoa and Hilo.
    Question. When was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The objectives in the original project were to maintain 
Hawaii floricultural industry competitiveness. This objective continues 
to be the principal direction for the projects. Because the industry 
and the markets are changing, pests are becoming resistant and newer 
strains are emerging. As quarantines requirements continually change, 
the need for new technologies continue, the objective remains valid and 
the need for this research continues.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The individual projects funded under this Special Research 
Grant are annually evaluated by a panel of peers prior to awards. Each 
project goes through a merit review within their own institution to 
ensure that good science is being used. In addition, the principal 
investigator and the Acting Dean and Director of the College of 
Agriculture in Hawaii met with the CSREES liaison to this project on 
April 17, 2000, in Washington, DC. The project accomplishments were 
reviewed and the research objectives and performance goals for fiscal 
year 2000 were presented, justified and discussed. Future research 
needs and related production issues were also discussed. The principal 
investigator demonstrated good progress, strong leadership and 
judicious use of project funds. The review also allowed the Federal 
partner to provide input to the direction of the project and for the 
state scientists and administrators to demonstrate the accomplishments, 
competency, and merit of this grant that they manage.
   food and agriculture policy research institute, iowa and missouri
    Question. Please provide a description of the research that has 
been done at the Food and Agriculture Policy Research Institute, Iowa 
and Missouri program.
    Answer. The Food and Agriculture Policy Research Institute--FAPRI--
was established by Iowa State University and the University of 
Missouri, Columbia, in 1984. The purpose of the Institute is to conduct 
comprehensive analysis and disseminate results about the economic 
impacts of U.S. food, farm, and trade policies to agricultural 
producers, agribusinesses, and public policymakers. Iowa State conducts 
research on the economic interrelationships within and between domestic 
and foreign food and agricultural markets from the farm gate to market 
destinations; develops and maintains databases and analytical support 
systems to facilitate the analysis of agricultural and trade policy 
issues; and evaluates the impacts of U.S. and foreign commodity supply, 
demand, and public policy programs on agricultural trade. The 
University of Missouri maintains models of the domestic agricultural 
economy and directs its efforts primarily to the analysis of domestic 
policy issues. The two universities maintain linkages with a number of 
other universities who provide data and analytical support to the 
system.
    The universities maintain a comprehensive analytical modeling 
system of the U.S. and international food and agricultural sectors to 
evaluate near and long-term economic implications of alternative farm 
policies for the basic commodities. Each year, and more often if 
conditions require, the system is used to provide economic information 
on potential impacts out to 10 years in the future of farm policies on 
farm prices, income, output, government program costs and means to 
enhance the management of farm programs at the national level.
    Question. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Answer. The Nation's agricultural sector and its components are 
subject to numerous Federal policies and programs. FAPRI is the only 
publicly-supported, non-Federal organization with the analytical 
capability to assess and evaluate the numerous public policies and 
programs affecting the agricultural sector and report results to a 
broad constituency including farmers, agribusinesses, and Federal and 
State policymakers.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal was to develop the analytical capability 
to assess and evaluate U.S. farm policies on the U.S. agricultural 
sector, and disseminate this information to farmers, farm and other 
agricultural organizations, and public policymakers. The mission has 
been expanded to include assessment of trade and environmental policy 
impacts and their interaction with the agricultural sector at national, 
regional, and farm levels. The models in place are also used to assess 
fiscal and monetary policy implications and impacts of new technologies 
such as biotechnological innovations on the agricultural sector.
    Both institutions maintain large econometric models and data sets 
which are regularly updated to analyze farm and trade policy 
alternatives and the impacts of various programs on the several sub 
sectors of the agricultural economy. This update was especially 
valuable for conducting analysis to assess policy options for the 1996 
farm bill. During the past year, FAPRI completed 35-40 studies 
addressing policy issues such as assessments of the 1996 Farm Bill, 
alternative ethanol programs, USDA's proposed milk market order reform, 
U.S.-Canada agricultural trade, the importance of fast track to U.S. 
agriculture economic recession in the Middle East, and the economic 
meltdown in Russia. Numerous studies were completed addressing 
improvements made to the empirical modeling system to improve domestic 
and international policy capabilities. The FAPRI staff has made 
numerous public appearances throughout the U.S. to agricultural groups 
and Congressional committees and Executive branch groups addressing 
policy issues.
    Question. How long has the work been underway and how much has been 
appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal years 1984-1985, $450,000 per year; fiscal years 1986-
1987, $357,000 per year; fiscal year 1988, $425,000; fiscal year 1989, 
$463,000; fiscal year 1990, $714,000; fiscal years 1991-1993, $750,000 
per year; fiscal year 1994, $705,000; fiscal years 1995-1996, $850,000 
each year; fiscal years 1997-2000, $800,000 per year; and fiscal year 
2001, $947,910. The total amount appropriated is $12,018,910.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $260,355 State appropriations, $113,565 industry, and 
$37,913 miscellaneous for a total of $411,833 in 1991; $321,074 State 
appropriations, $51,500 industry, and $35,100 miscellaneous for a total 
of $407,674 in 1992; $234,796 State appropriations and $70,378 industry 
for a total of $305,174 in 1993; $78,286 State appropriations, $43,925 
industry, and $29,750 miscellaneous in 1994 for a total of $151,961 in 
1994; $80,155 State appropriations, $37,128 industry, and $42,236 
miscellaneous for a total of $159,519 in 1995; $124,123 in State 
appropriations with no other funding for 1996; $79,000 in State 
appropriations, $50,000 industry, and $25,000 miscellaneous for a total 
of $154,000 in 1997; and $88,800 State appropriations, $75,200 
industry, and $34,687 miscellaneous for a total of $198,687 in 1998.
    Question. Where is this work being carried out?
    Answer. The program is carried out at the Center for Agriculture 
and Rural Development, Iowa State University and the Center for 
National Food and Agricultural Policy, University of Missouri.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This is a continuing program of research and analysis for 
the purpose of assessing farm and related policy actions and proposed 
actions likely to affect the agricultural sector and its components.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The annual proposal is carefully reviewed by the CSREES 
program leader for adherence to stated objectives and progress before 
the special research grant is awarded. It is also peer reviewed prior 
to its submission. No formal evaluation of this program has been 
conducted.
                         food irradiation, iowa
    Question. Please provide a description of the research that has 
been funded under the Food Irradiation, Iowa grant.
    Answer. Since the Linear Accelerator Facility was placed in 
operation in March 1993, studies on the effect of irradiation on shelf-
life extension, safety and quality of ground beef, beef steaks, ham, 
pork chops from loins, chicken breasts, and turkey have been conducted. 
Studies combining irradiation with high hydrostatic pressure and 
cooking using whole chicken breasts, turkey, and ham, have been 
conducted to determine the combination of these treatments that will 
yield a shelf-stable product while maintaining high eating quality. 
Several studies were conducted to determine whether consumers can 
detect a difference between irradiated and non-irradiated ground beef 
patties. Experiments were also conducted to investigate consumer 
acceptance of pork products irradiated to prevent trichinosis. Test 
markets of irradiated chicken breasts were conducted to determine 
consumers' willingness to pay for irradiated products. Studies on the 
effect of packaging materials on quality of irradiated meat have been 
completed. Quality changes in ready-to-eat meat and poultry products 
irradiated to control Listeria are under investigation. The fiscal year 
2000 funds are supporting research from May 1, 2000 through June 30, 
2001. A proposal in support of the fiscal year 2001 appropriation has 
been requested.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes consumers' attention and 
concern about the safety of fresh meat and poultry has increased with 
recent outbreaks of foodborne illness from E. coli 0157:H7 and Listeria 
monocytogenes in the past decade. The meat industry has also expressed 
interest regarding the quality of irradiated products and how this 
process can be used to yield high quality fresh meats and ready-to-eat 
products that are free of pathogens. The massive recall of over 50 
million pounds of frankfurters and luncheon meats due to illness caused 
by Listeria monocytogenes contamination has resulted in huge economic 
losses in years 2000 and 2001. With clearance of Food and Drug 
Administration and USDA of irradiation of red meat--December 23, 1999--
research leading to commercialization of this technology has been 
enhanced. Additionally, researchers from eight other research 
institutes have used the irradiation facility for research projects. 
Thus, the principal researcher believes this research to be of 
national, regional, and local need.
    Question. What was the original goal of the research and what has 
been accomplished to date?
    Answer. The original goal of the research was to generate knowledge 
necessary to develop a research and technology transfer program leading 
to commercial use of irradiation of foods whereby consumers would be 
provided with food products with enhanced safety. The effectiveness of 
irradiation, using an electron beam accelerator, in destroying known 
pathogenic bacteria in pork and beef has been determined. Mathematical 
models have been developed to predict the growth of bacteria in low-
dose irradiated ground pork. Demonstration of irradiation technology 
has been presented to some commercial firms, and plans are being 
developed for some large scale test markets.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1991 
when $100,000 was appropriated for this project. The appropriations for 
fiscal years 1992 and 1993 were $237,000 per year; fiscal year 1994, 
$223,000; fiscal years 1995-1997, $201,000 each year; fiscal years 
1998-2000, $200,000 per year; and fiscal year 2001, $224,505. Total 
appropriated for are $2,224,505.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. The project received $1,037,270 in State of Iowa funds--$1 
million of which was for capital construction--in fiscal year 1991; 
$37,942 in state funds and $67,800 in industry grants in fiscal year 
1992; $68,897 in state funds, $78,300 in industry grants, and $9,666 in 
user fees in fiscal year 1993; $70,652 in state funds, $35,420 in 
industry grants, and $47,788 in user fees in fiscal year 1994; $72,772 
in state funds, $100,000 in industry grants, and $55,211 in user fees 
in fiscal year 1995; $81,540 in state funds, $115,300 in industry 
grants, and $50,963 in user fees in fiscal year 1996; $77,963 in state 
funds, $253,450 in industry grants, and $46,550 in user fees in fiscal 
year 1997; and $100,200 in state funds, $205,900 in industry grants, 
and $36,200 in user fees in fiscal year 1998; $125,000 in state funds, 
$213,800 in industry grants, and $34,900 in user fees in fiscal year 
1999; and $109,000 in state funds, $115,000 in industry grants, and 
$48,300 in user fees in fiscal year 2000. Information for fiscal year 
2001 is not available at this time.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Iowa State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The principal investigator anticipates that the project's 
original objectives will be met within a few years after the USDA final 
rules are issued for ready-to-eat meat and poultry products.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A review of the proposal supporting the fiscal year 2000 
appropriation was conducted on May 23, 2000. Previous studies funded 
under this project have provided useful information toward 
understanding how irradiation can be useful in eliminating or reducing 
foodborne pathogens in meat products. It is anticipated that the 
proposed research will continue to further the understanding of how 
irradiation can be used to improve shelf-life and enhance safety of 
meats and meat products.
               food marketing policy center, connecticut
    Question. Please provide a description of the research done under 
the Food Marketing Policy Center, Connecticut grant.
    Answer. The Food Marketing Policy Center was established in 1988 at 
the University of Connecticut at Storrs. The Center seeks to improve 
the performance of the food production and marketing system by 
conducting research on food and agricultural marketing and related 
policy questions. The Center is primarily an economic research 
organization, but it conducts interdisciplinary research as appropriate 
and it communicates results to the public. Key users include farm and 
consumer organizations, agricultural business firms, public agencies, 
state legislatures, and the U.S. Congress. The research proposal was 
subject to an administrative review and a peer review by the university 
prior to submission to CSREES.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The research addresses an ongoing national need to monitor 
the performance of the U.S. food system and to recommend policies that 
improve performance for the benefit of farmers, merchants, processors, 
and consumers.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The ongoing research goal is to identify marketing problems 
and assess alternatives that improve economic performance of the U.S. 
agricultural and food marketing sector. The Center serves as a core 
research group for Multi-State Research Project NE-165, Private 
Strategies, Public Policies, and Food System Performance. The research 
agenda includes industrial organization, strategic marketing, economics 
of food safety, cooperatives, and public policy, including antitrust 
and regulation.
    The Center is a prolific provider of high quality theoretical and 
empirical work, and makes significant scientific, management, and 
policy contributions. The Center has prepared over 50 working papers, 
40 policy research reports, 20 policy issue papers, 8 books and 
numerous chapters, a number of MS and PhD theses, and has distributed 
scientifically-important research articles to researchers, industry, 
Federal and state legislators, and decision makers.
    This grant supports research projects in two problem areas: impacts 
of changes in strategies, technologies, consumer behavior, and policies 
on the economic performance of the food system; and impacts of private 
and public strategies on improvements in food safety and quality. 
Recent accomplishments include: evidence that more concentrated retail 
markets have higher retail prices, brands with greater market share 
have greater ability to raise prices, residents in low income areas 
lack comparable access to retail stores. Forthcoming reports examine 
the impact of Walmart supercenters on local markets; milk pricing 
policies in the Northeast; the ability of firms to differentiate their 
products based on safety or process--e.g. animal welfare, ecological 
impact, organic--attributes; and the impact of sanitary/phyto-
sanitary--SPS--and technical trade barriers on food quality/safety/
price attributes available in the U.S. and other countries. Expert 
testimony before the Federal Trade Commission and state attorneys 
general has resulted in tougher antitrust enforcement, and has caused 
at least one firm to withdraw from a retail mega-merger. The Center 
maintains an extensive database, including special tabulations of 
Census data and private data, that facilitates research by a large 
number of university-based researchers.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1988, $150,000; fiscal year 1989, $285,000; fiscal 
year 1990, $373,000; fiscal years 1991-1993, $393,000 per year; fiscal 
year 1994, $369,000; fiscal years 1995-1998, $332,000 per year; fiscal 
years 1999-2000, $400,000 per year; and fiscal year 2001, $493,911. A 
total of $4,977,911 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are State appropriations as follows: $234,259 in fiscal year 1991; 
$231,741 in fiscal year 1992; $201,288 in fiscal year 1993; $234,557 in 
fiscal year 1994; $219,380 in fiscal year 1995; $134,399 in fiscal year 
1996; $135,490 in fiscal year 1997; $164,772 in fiscal year 1998; 
$163,895 in fiscal year 1999; and $343,302 in fiscal year 2000.
    Question. Where is the work being carried out?
    Answer. The research is being carried out at the University of 
Connecticut and the University of Massachusetts.
    Question. What was the anticipated completion date for the original 
objectives of the projects? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1987 was for 24 months. According 
to the principal researcher, the objective of conducting policy-
oriented research on food manufacturing and distribution industries to 
assist state and Federal policy makers in improving the performance of 
the food system is still an ongoing public concern, given increasing 
levels of concentration in food processing. The current phase will be 
completed in 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed a merit review of the project in April 
2000, as it evaluated the 2000 project proposal. The review noted that: 
``The stated objectives, addressed through nine continuing projects and 
one new one, are scientifically valid, and the procedures specified for 
each are appropriate. The Principal Investigator and associated 
researchers are nationally and internationally recognized and are 
clearly competent to execute this project.''
                    food processing center, nebraska
    Question. Please provide a description of the research that has 
been funded under the Food Processing Center, Nebraska grant.
    Answer. The University of Nebraska Food Processing Center has been 
conducting short-term, highly-applied research projects to assist small 
and mid-sized food processing companies and entrepreneurs to develop or 
improve processes and products and to develop new food processing 
enterprises. Projects were selected based on the estimated economic 
impact of the technical assistance or the criticality of the technical 
assistance to the future of the firm or venture. Priorities were placed 
on projects relating to the safety of the food product or process and 
to the fulfillment of regulatory mandates such as nutrition labeling, 
use of approved and effective ingredients, and adherence to regulations 
imposed by foreign governments. In addition, several research projects 
were conducted to improve or assess the quality, extend the shelf-life, 
or assess or improve the processing efficiency of specialty food 
products which impacted several processors or used alternative 
agricultural products. A proposal in support of the fiscal year 2001 
appropriation has been requested.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes the primary impact of 
this project will be statewide. Small and mid-sized food processing 
companies and entrepreneurs have limited technological capabilities for 
addressing issues related to product development, process development, 
product and process evaluation, food safety, quality assurance, and 
regulatory mandates. The short-term research and technology transfer 
projects conducted as part of this overall project will aid these 
companies in appropriately addressing these oftentimes complicated 
issues.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research is to assist small and mid-sized 
food processing companies and entrepreneurs to develop or improve 
processes and products and to develop new food processing enterprises. 
Technological evaluations were conducted for 89 individuals or 
companies interested in developing new food processing businesses. 
These evaluations included formulations, processes, processing 
equipment, packaging, shelf-life, sensory, nutritional attributes, 
microbiological quality, regulatory considerations, and other factors. 
Additionally, microbiological analyses, shelf-life assessments, 
sanitation audits, and nutritional analyses were conducted for numerous 
Nebraska food companies.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1992. 
The appropriations were $50,000 per year for fiscal years 1992-1993 ; 
$47,000 for fiscal year 1994; $42,000 per year for fiscal years 1995-
2000; and $41,908 for fiscal year 2001. A total of $440,908 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. The Food Processing Center received $402,389 in state funds 
and $1,993,914 in food industry grants and miscellaneous sources from 
1992 through 1999. Data for fiscal year 2000 are not available.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the University of Nebraska.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. Because this project supports ongoing technical assistance 
to clients, the objectives are ongoing. The original objective of 
assisting entrepreneurs and small and mid-sized food processing 
companies to develop/improve products and/or processes have been 
successfully met.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A CSREES science specialist conducts a merit review of the 
proposal submitted in support of the appropriation on an annual basis. 
A review of the proposal was conducted on May 24, 2000. Progress under 
previous grants for this project appears to be satisfactory, with 
numerous examples of assistance cited and summaries of short-term 
projects provided by the principal investigator.
                          food quality, alaska
    Question. Please provide a description of the research that has 
been funded under the Food Quality, Alaska grant.
    Answer. Research has been aimed at completing a number of smaller 
projects that have significance to seafood quality and safety in the 
Alaska Seafood Industry. To identify the most important projects, the 
investigators consulted with informed people from state and Federal 
agencies and from industry. The vetted projects mentioned address 
pertinent research needs in the area of improving seafood quality and 
safety. The subprojects are: (1) Bioprocessing of Marine Bacteriocins 
for Enhancing Seafood Safety; (2) Molecular Tracking of Listeria 
monocytogenes in Smoked Salmon Processing Plants for Eradication by 
Directed Sanitation; (3) Evaluation of Clostridium sporogenes as a 
Substitute for Botulism Testing of Low-Salt, Vacuum-Packaged Seafoods 
including smoked salmon and sujiko; and (4) Using an Electronic Nose to 
Improve Seafood Quality.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The Seafood Industry is the largest employment sector in 
Alaska. Many of the small coastal communities in Alaska have a local 
fish packing plant that has been the major source of income in their 
economies. In 1998, Alaska harvested approximately two million metric 
tons of fish, all for human food. This is greater then 60 percent of 
the U.S. total for fish landings. Furthermore, if one focuses on fish 
harvested for human food, Alaska's share represents an even greater 
percentage because there are no reduction fisheries in Alaska and all 
harvested species are used, at least in part, for human food.
    The salmon industry is regional, involving thousands of fishermen 
and processing workers from Washington, Oregon, California, and 
throughout the nation that come to Alaska to participate in the 
fishery. In recent years, the Alaska salmon industry has suffered 
economically from increased competition from international salmon 
farmers, mainly in Norway and Chile. They have made great inroads in 
many traditional markets, surpassed Alaska in salmon production, and 
now set the product standard in the marketplace. One key for American 
businesses to recapture and strengthen their salmon markets is to 
guarantee and promote the quality of wild Alaska salmon. This project 
will provide the industry with the research and information needed to 
accomplish this.
    Question. What was the original goal of the research and what has 
been accomplished to date?
    Answer. The original goal of this research was to ensure a 
consistent and predictable level of handling and quality for Alaska 
seafood. In doing so, the project will help Alaska seafood processors 
strengthen or maintain their place in domestic and international 
markets. The goals for each of the subproposals are listed as follows: 
(1) The long-range goal is to utilize novel, natural, and safe 
biopreservatives to eliminate potential bacterial pathogens in 
seafoods. Work is in progress on the isolation of broad- and narrow-
spectrum bacteriocins from new producing strains and applied to 
inactivate Listeria monocytogenes in minimally-preserved seafood 
products stored under extended refrigeration. (2) Other goals include 
molecular typing of L. monocytogenes strains isolated from four smoked 
fish processing plants in Alaska; to determine if site-directed 
sanitation methods reduce the incidence of the organism; and to 
determine if growth of inoculated C. sporogenes can be used to indicate 
temperature-abuse of low-salt, vacuum-packaged seafoods. Work is in 
progress. (3) A final goal is to: determine specific compounds that are 
indicators of quality loss in fresh and frozen seafoods; train a hand-
held electronic nose to recognize these early indicators of quality 
loss in seafoods; compare the trained electronic nose with the 
traditional chemical, physical, and sensory techniques used to evaluate 
seafood quality under controlled conditions; and to evaluate the 
electronic nose in an operating seafood processing plant.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999 
and the appropriation for fiscal years 1999 and 2000 was $350,000 each 
year and $349,230 for 2001 totaling $1,049,230.
    Question. What is the source and amount of non Federal funds 
provided by fiscal year?
    Answer. The State of Alaska, the Alaska Seafood Marketing 
Institute, the University of Alaska, and the industry will contribute 
considerable personnel hours. We estimate the non-Federal contributions 
for the entire group of four subproposals is approximately $25,000-
$30,000.
    Question. Where is this work being carried out?
    Answer. The work will be administered at the University of Alaska 
Fairbanks. Field work will be carried out in numerous Alaska fishing 
communities.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The anticipated completion of the full objectives of this 
research is one year from date of the award.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project application was reviewed for merit by a CSREES 
specialist on August 3, 2000. Progress for the previous grant is 
satisfactory. Research on the use of marine bacteriocins, molecular 
biology of L. monocytogenes, and using electronic nose to test seafood 
quality appeared satisfactory.
                          food safety, alabama
    Question. Please provide a description of the research that has 
been funded under the Food Safety, Alabama grant.
    Answer. Auburn Research Centers Food Safety Program is developing a 
method of food inspection that involves the placement of a sensor chip 
on food items. The goal is for these chips to automatically inventory 
and assess the safety at any point from source to consumption of 
appropriate fresh food products sold in the U.S.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Most food-borne illness can be attributed to bacteria. The 
sensor chips developed at Auburn University will target detection of 
the bacteria that causes most of these illnesses. This technology could 
result in financial savings nationally, regionally, and locally through 
the prevention of food-borne illness and its related costs. Up to 33 
million Americans become ill each year from food borne disease. 
Estimates indicate that as many as 9,000 of these individuals will die 
with another one million suffering permanent disabilities. The USDA 
estimates that foodborne illness costs the U.S. economy $14.2 billion 
in lost productivity annually. This project will improve the safety of 
our food supply chain leading to an improved quality of life for every 
citizen and resident of the U.S. In addition to these costs to the 
public and the nation, the costs to industry of settling civil 
litigation due to foodborne disease can be immense. The 1993 Jack-in-
the-Box hamburger incident, which infected 433 individuals, resulted in 
lawsuit settlements of $126 million dollars. This research when 
implemented should greatly reduce the incidence of foodborne illness.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this project is to reduce the 
incidence of food-borne illness through the use of a sensor chip that 
will assess the safety of food items as they move through the food 
chain. Already to date, the researchers have demonstrated a new method 
for the detection of Salmonella bacteria that has the potential to 
greatly reduce detection times. Current industrial methods require that 
a sample of suspect food be taken to the laboratory where tests require 
a minimum of 6 to 48 hours to determine a food is safe to eat. The new 
technology can identify harmful levels of Salmonella bacteria in a few 
minutes and will be packaged as a portable hand-held unit that may be 
used on the food production line. Additionally, Auburn University has 
demonstrated a working stamp-sized radio frequency identification 
sensor tag that can be used to automatically inventory and trace food 
within seconds. This tag stores information from farm to its final 
destination and can be interrogated to rapidly provide information to 
identify the source of a contamination or food problem should it be 
detected at a latter date downstream.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in June 1999. The 
appropriation for fiscal year 1999 was $300,000; for fiscal year 2000, 
$446,250; and for fiscal year 2001, $519,854. A total of $1,266,104 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. Expenditures of non-Federal funds from state and 
corporations totaled $577,350 in fiscal year 2000 and $674,890 has been 
allocated for expenditure in fiscal year 2001. This will bring the 
total of non-Federal funds to $1,252,240 for the first two years.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Auburn University through 
the Auburn Research Center for Detection and Food Safety.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The project is part of a 10-year program to develop and 
implement an entirely new sensing and information technology for the 
detection of foodborne pathogens. Annual objectives are set for each 
year. All objectives for year one were exceeded or met. Already the 
project has completed 50 percent of the second year objectives.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The interim results of the project were reviewed during a 
meeting with the Project Investigator in October of 2000. The interim 
results of the research were found to be satisfactory.
               food safety research consortium, new york
    Question. Please provide a description of the research that has 
been funded under the Food Safety Research Consortium, New York grant.
    Answer. This is a new project to be started in fiscal year 2001. 
Research related to food safety research will be supported by this 
grant. CSREES has requested the university to submit a proposal in 
support of fiscal year 2001 funds, which has not yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This project will develop improved methods to help the food 
industry control contamination with the bacterium Listeria 
monocytogenes. This bacterium causes serious foodborne disease in 
humans and is responsible for an estimated 500 foodborne deaths 
annually in the U.S. The presence of this bacterium is also commonly 
responsible for costly food recalls, even though many contaminated food 
products may not cause human disease. There is a national need to 
develop tools that will help food processors to prevent contamination 
of their products with this bacterium and to understand which types of 
Listeria monocytogenes may cause disease when present in foods.
    Question. What is the original goal of the research and what has 
been accomplished to date?
    Answer. The goal of this research is to develop a collection of 
Listeria monocytogenes isolated from various food processing plants and 
from various sites within processing plants for characterization by DNA 
fingerprinting to elucidate the specific DNA subtypes of this organism 
associated with contamination. DNA fingerprints for these Listeria 
monocytogenes, as well as fingerprints for Listeria monocytogenes from 
humans, will be assembled into an electronic fingerprint database 
accessible to other researchers, public health officials, and industry. 
This database will provide the food industry with access to modern DNA 
fingerprinting tools and will help them to better control Listeria 
monocytogenes contamination.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This is a new project for fiscal year 2001. For fiscal year 
2001 $284,373 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. Funding in the amount of $122,245 has been provided to the 
International Life Sciences Institute, North America.
    Question. Where is this work being carried out?
    Answer. The work will be carried out at the Department of Food 
Sciences at Cornell University, Ithaca, New York. Collaborators include 
ABC Research, Gainesville, Florida.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The original objectives of this project should be completed 
by September 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project beginning in fiscal year 2001. No 
evaluation has been conducted by USDA.
                 food systems research group, wisconsin
    Question. Please provide a description of the research that has 
been done under the Food Systems Research Group, Wisconsin program.
    Answer. The Group conducts research on contemporary issues 
affecting the organization and competitiveness of the U.S. food system 
in domestic and international markets. The issues include new 
technologies, market structure, firm behavior, and government policies 
and programs. Studies have been completed on pricing of cheddar cheese, 
fed cattle, and hogs; changes in private label product markets; causes 
of structural change in the flour milling, soybean oil milling, wet 
corn milling, cottonseed milling, beef packing, and broiler processing 
industries; competition in U.S. food markets; and the relationship 
between U.S. food market structure and the industry's performance in 
global markets. The research proposal was subject to an administrative 
review and a peer review by the university prior to submission to 
CSREES.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that the U.S. food system 
is changing rapidly in response to a large number of global economic, 
social, and technological changes. Research is needed to determine the 
effects of these changes on the system's organization and performance, 
and to ascertain needed adjustments in public policies based upon sound 
research. There is a national need to assess and evaluate the 
organization and performance of the Nation's food industry to ensure 
that it continues to satisfy performance expectations of farmers and 
consumers and adheres to acceptable standards of conduct. In spite of 
the growing concentration in food production-processing and increasing 
public policy questions concerning the performance of this industry, 
few organizations like the Food Systems Research Group are providing 
research needed for public and private decision making.
    Question. What was the original goal of this research, and what has 
been accomplished to date?
    Answer. The original goal was to assess and evaluate the 
organization and performance of the U.S. food industry and provide 
recommendations for improvements. Recent research results include the 
following: (1) firm concentration trends in a number of food industry 
subsectors, such as dairy, have been analyzed as preparation for 
determining the impact of increasing consolidation on producers, 
consumer, and others; (2) models of arbitrage pricing were developed 
and used to estimate allocative efficiency in broiler, beef, and pork 
subsectors; allocative inefficiency appears in all three because 
participants do not adequately anticipate dynamic market changes; 
vertical integration in broilers has greatly improved production 
efficiency but not allocative efficiency; (3) resource allocation to an 
``office of technology transfer'' seems to be the most important factor 
affecting diversity biotechnology patent production, strategic behavior 
of Wisconsin agribusiness firms was documented in three case studies: 
one firm operates in the mature artificial breeding industry, and the 
other two are involved in cheese production.
    The project has completed numerous studies on economic structure 
and performance issues of the U.S. food manufacturing and distribution 
system. Basic research is conducted on market theories; effects of 
mergers, new technologies, and firm conduct on industry structure and 
organization; factors affecting industry prices, profits, efficiency 
and progressiveness; and impact of public policies and regulations on 
food system organization and performance.
    Question. How long has this work been underway, and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal years 1976-1981, $150,000 per year; fiscal years 1982-
1985, $156,000 per year; fiscal years 1986-1989, $148,000 per year; 
fiscal year 1990, $219,000; fiscal years 1991-1993, $261,000 per year; 
fiscal year 1994, $245,000; fiscal years 1995-1998, $221,000 per year; 
fiscal year 1999, $225,000; fiscal year 2000, $425,000; and fiscal year 
2001, $498,900. A total of $5,395,900 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: State appropriations of $120,304 in 1991; $119,448 in 
1992; $85,188 in 1993; $96,838 in 1994; $59,435 in 1995; $50,636 in 
1996; $56,421 in 1997; $64,004 in 1998; $75,115 in 1999; and $40,218 in 
2000.
    Question. Where is the work being carried out?
    Answer. The grant supports research at the University of Wisconsin, 
Madison.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1976 was for a period of 36 
months. The current phase of the program will be completed in 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed a merit review of the project in April 
2000, as it evaluated the 2000 project proposal and concluded: The Food 
Systems Research Group at the University of Wisconsin is undergoing 
leadership changes. An Interim Director has been appointed while a new 
director is being sought. The Group continues to attract a number of 
respected researchers that do very good work.
          forages for advanced livestock production, kentucky
    Question. Please provide a description of the research that has 
been funded under the Forages for Advanced Livestock Production, 
Kentucky grant.
    Answer. Forage-based livestock production in Kentucky and 
surrounding states depends primarily on tall fescue. There are more 
than 35 million acres of tall fescue in the region. The objective of 
this project is to use traditional plant breeding and molecular mapping 
of tall fescue and related species to develop cultivars with reduced 
endophyte toxicity and improve production and persistence.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The focus of this research will be in Kentucky; however the 
results will have extensive application in the surrounding states where 
tall fescue is the principle forage grass. Therefore this project is 
regional in nature.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to develop improved 
cool season forage cultivars form tall fescue and related species and 
improve the economics of forage-based livestock production in the 
region.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 
2000. The appropriation for fiscal year 2000 was $212,500, and fiscal 
year 2001 is $374,175 a total of $586,675 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The principle investigator estimated non-Federal funds 
provided by the state in support of this work was $130,000 in the year 
2000.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at the Kentucky Research 
Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is fiscal year 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The initial proposal was subjected to peer review and 
approval process at the initiating institution and received additional 
review by CSREES National Program Staff. Results from the first year 
will be used to refine objectives and approaches for year 2001 
proposal.
                      forestry research, arkansas
    Question. Please provide a description of the research that has 
been done under the Forestry Research, Arkansas grant.
    Answer. The Arkansas Forest Resources Center offers programs of 
research, education, and outreach to the landowners of Arkansas and the 
surrounding region. This has been accomplished through continuing 
education events for landowners, the development of a series of 
distance-learning tutorials, and the funding of 20 assistantships for 
the first two classes of graduate students in the new forest resources 
master's program. A partial list of workshops includes: Uneven-aged 
Silviculture of Loblolly and Shortleaf Pine Forest Types; Environmental 
Law & Policy; Timber Income Tax Update; Thinning Methods and 
Operations; Introduction to Arc View 3.0; Estate Planning; Forest 
Finance Applications: Basic Tools for Daily Practice; and Opportunities 
in Forest Regeneration. The educational thrust has combined Center and 
private dollars to establish one of only three of the country's Arc 
View Learning Centers for natural resources. To better provide the 
highly educated professionals needed in the natural resources 
professions, educational tutorials are being developed in dendrology--
tree identification, plant morphology, silvics--that aid in the (1) 
transfer of students in community colleges to institutions with forest 
resources offerings, and (2) forest resources education of non-majors 
at institutions without forest resources faculty. Furthermore, the 
University of Arkansas activated a new Master of Science program in the 
Fall 1998.
    Research projects address issues of species diversity, richness, 
redundance, and the resilience of disturbed and undisturbed hardwood 
stands of the Mississippi River floodplain. Furthermore, research has 
indicated that neotropical migratory birds are indicators of ecosystem 
health. Factors influencing their breeding range include habitat 
destruction/alteration and forest fragmentation. Thus, issues of re-
establishment and structure of hardwood stands are important for 
timber, non-timber values, and the quality of life enjoyed regionally, 
nationally, and internationally. Also, other projects are contributing 
to the development of (1) a biological control agent for the southern 
pine beetle, (2) alternative forest crops for the economically-
depressed Delta region, and (3) technologies for enhanced fiber and 
wood production from nonindustrial and industrial lands. Newer projects 
include an important regional social science study of the resource 
ethical values held by people of the southern U.S. and a comprehensive 
study for forest growth and yield.
    Question. According to the research proposal, or the principal 
researchers, what is the national, regional, and local need for this 
research?
    Answer. With the reduced levels of production of wood products from 
the Northwest, southern forests are increasingly having to produce a 
major portion of wood products for the U.S. This increased demand and 
production make it critical that the forestry community understand the 
possible environment effects of forestry practice. Social implications 
of the conflicts between forest production and environmental quality 
will become more and more important. Collectively, the projects address 
the sustainable management of southern forests.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research is to develop alternative forest 
management strategies for achieving multi-resource objectives; i.e., 
production of timber, wildlife, recreation, and other values of the 
forest on private industrial and non-industrial forest lands and pubic 
lands. Significant progress has been made in several areas. Some 
examples include: developing intensive fiber farming systems as 
alternatives to soybeans for Mississippi Delta farmers, taking the 
first step toward biological control of the southern pine beetle by 
discovering the nutrient needs of predators of the beetle so predators 
can be grown and studied in artificial cultures. The first survey of 
nonindustrial landowners in Arkansas for 15 years has been conducted. 
The survey shows that because of the average age of landowners--60+ 
years--there will be a massive change in ownership in the next 10-20 
years. Landowners continue to not be aware of assistance programs. The 
survey also indicated a concern about government programs and possible 
intervention on private land. This information will be useful in 
understanding future timber supply trends from private holdings and in 
the design of assistance and educational programs.
    Ongoing projects include a broad array of topics competitively 
awarded within the Center. These include best management practices, 
ecological characteristics, effects of different forest management 
regimes, stream-sided buffer zone effectiveness, effects of winter 
logging, and secondary processing efficiency.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows:

        Grant Year                                        Grant Received
1994....................................................        $470,000
1995....................................................         523,000
1996....................................................         523,000
1997....................................................         523,000
1998....................................................         523,000
1999....................................................         523,000
2000....................................................         523,000
2001....................................................         521,849
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................       4,129,849

    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funding and its source provided to this 
grant in 1994 was $411,726 State appropriations and $380,000 industry 
for a total of $791,726; $491,301 State appropriations and $785,262 
industry for a total of $1,276,563 for 1995; a total of $695,204 from 
State and industry sources for 1996; a total of $1,115,341 from these 
sources in 1997; and an estimated total of $1,000,000 for 1998. For 
1999, the State legislature appropriated approximately $850,000 above 
the 1998 level. For 2000, the state contributed $1,607,000 to the 
project.
    Question. Where is this work being carried out?
    Answer. The Arkansas Forest Resources Center is administered from 
the School of Forest Resources on the campus of the University of 
Arkansas at Monticello. Individual studies are being conducted at the 
University of Arkansas at Fayetteville and several locations across the 
State.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Grants were received in 1994-2000 with funds distributed 
for use over the 3 to 5 years following the activation year. Projects 
are on schedule; work from 1994 and 1995 funding is nearing completion. 
Forestry research is long term. Center objectives and selected projects 
will be continued beyond the life of individual grants using the 
infrastructure and capacity developed with these Special Research 
Grants.
    Question. When was the last agency evaluation of the project? 
Provide a summary of the last evaluation conducted.
    Answer. In 1991, an agency team visited the University and reviewed 
faculty qualifications, supporting sources, and the feasibility of the 
proposal. The team exit report indicated the faculty was highly 
capable, the infrastructure needed strengthening, and the proposal 
concepts were feasible. Since 1991, there has not been a formal program 
review. A review planned for the year 2000 has been rescheduled for 
2001 because of a change in forest resources leadership at the 
University.
       fruit and vegetable market analysis, arizona and missouri
    Question. Please provide a description of the research that has 
been funded under the Fruit and Vegetable Market Analysis, Arizona and 
Missouri program.
    Answer. The purpose of this research is to provide timely knowledge 
and analysis of the impacts of trade, environmental, monetary, and 
other public policies and programs upon the Nation's fruit and 
vegetable industry to farmers, agribusinesses, and policymakers through 
a program of empirical assessment and evaluation.
    Question. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Answer. The U.S. fruit and vegetable sector is experiencing 
increased growth from greater domestic and export demand. However, the 
growth of this sector depends upon its ability to compete domestically 
and internationally and to conform with the regulatory environment in 
which it operates. This program of research provides increasingly 
critical information to farmers and policymakers on the implications 
and impacts of various policies and programs such as environmental, 
trade, labor, and food safety. It is the only such program providing 
analysis of the total U.S. sector.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal is to develop the analytical capability to assess 
and evaluate public policies and programs impacting the U.S. fruit and 
vegetable industry and disseminate the results to policy makers, 
industry organizations, producers, and other users. Proposals have been 
submitted that outline long-range plans and specific projects for 
funding. Models have been developed for 18 major--as measured in 
production, consumption, and trade--United States fruits and vegetables 
representing 80 percent of the farm value of the U.S. fruit and 
vegetable industry. Trade models for those commodities with a 
significant import and/or export sector will also be developed. These 
models feed in to a larger food and agricultural sector model to 
support analysis of cross commodity and policy effects.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This research program was initiated in fiscal year 1994. 
Grants have been awarded from funds appropriated as follows: fiscal 
year 1994, $329,000; fiscal years 1995 through 1998, $296,000 per year; 
fiscal years 1999 and 2000, $320,000 per year; and fiscal year 2001, 
$347,234. A total of $2,500,234 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funding and its source provided to this 
grant in 1994 was $50,073 State appropriations and $11,000 industry for 
a total of $61,073; $21,876 State appropriations and $36,624 industry 
for a total of $58,500 for 1995; a total of $62,400 from State and 
industry sources expected for 1996; and $50,000 each year from these 
sources in 1997 and 1998.
    Question. Where is the work being carried out?
    Answer. The work is being carried out at Arizona State University 
and the University of Missouri.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The university researchers anticipate that this is an 
ongoing project to look at the impact of various public policy 
proposals on the U.S. fruit and vegetable industry.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. We have conducted no formal evaluation. However annual 
proposals are peer reviewed for scientific merit and relevance; also 
each annual budget proposal is carefully reviewed and work progress is 
compared with prior year's objectives. Informal discussions with 
congressional staff indicate that the analyses are extremely useful.
                 generic commodity promotion, new york
    Question. Please provide a description of the research that has 
been done under the Generic Commodity Promotion, New York program.
    Answer. The grant supports, in part, the National Institute on 
Commodity Promotion Research and Evaluation which provides objective 
analyses of national and state commodity checkoff programs designed to 
enhance domestic and export demand for U.S. agricultural products. 
``Checkoff'' programs collect funds from producers to pay for 
advertising and promotional programs. The overall project proposal was 
peer reviewed at the university level; a competitive peer review 
process is used to select specific research projects.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher states that producers are 
contributing about $1 billion annually to commodity research and 
promotion funds designed to expand the domestic and export markets for 
their products. The number of commodity groups participating and the 
size of the funds available could continue to grow. The 1996 Federal 
Agriculture Improvement and Reform--FAIR--Act requires all Federally-
constituted research and promotion boards to evaluate their programs at 
least every five years. Accurate evaluations require the development of 
sophisticated techniques that differentiate the impact of research and 
promotion expenditures from several other market influencing factors.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal is to determine the economic effectiveness of 
generic promotion programs designed to increase the sales of 
agricultural commodities in domestic and international markets. 
Accomplishments over the last five years include: (1) understanding key 
economic relationships in the advertising and promotion of milk and 
dairy products, beef, cotton, and eggs, and the exports of beef, pork, 
and wheat; (2) discovering that ``pulsed'' advertising is superior to 
uniform advertising; (3) understanding the factors affecting producer 
attitudes toward checkoff programs; (4) developing a comprehensive 
database of advertising expenditures for all food products; (5) 
developing new techniques using scanner data; (6) developing new 
methods of estimating the relationships among advertising, promotion, 
government support programs, and government policy; (7) developing new 
methods of measuring advertising ``wearout;'' (8) determining the 
sensitivity of results using various methods; (9) explaining the effect 
of socioeconomic and market factors on the impact of advertising; (10) 
estimating optimal allocation of advertising expenditures by type of 
media; and (11) comparing the relative returns from generic and brand 
advertising. The Institute has sponsored educational workshops and 
conferences for promotion board leaders and for elected and appointed 
public officials responsible for developing public policy and 
administering checkoff programs.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by the grant began in fiscal year 1994. 
The appropriation for fiscal year 1994 was $235,000; for fiscal years 
1995-1999, $212,000 per year; for fiscal year 2000, $198,000 per year; 
and for fiscal year 2001, $197,564. A total of $1,690,564 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal matching funds and sources allocated to 
this grant by Cornell University are as follows: $97,333 a year in 
State appropriations for 1994-1996; $125,650 for 1997; $130,430 each 
for 1998 and 1999; and $130,000 for 2000. Collaborating institutions 
performing work under subcontracts also contribute non-Federal matching 
funds.
    Question. Where is this work being carried out?
    Answer. The work is being carried out at Cornell University in 
collaboration with eight other land-grant universities.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1994 was for a period of 21 
months, however, the need to evaluate the benefits of commodity 
promotion and research programs is a growing regional and national 
concern as producers take on greater responsibility for marketing their 
products. An increasing number of promotion and research programs are 
being evaluated. The current phase of the program will be completed in 
2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed a merit review of the project in March 
2000, as it evaluated the 2000 project proposal, and determined that: 
``The project has sound objectives and procedures that are helping 
private and public decision makers effectively expand markets for U.S. 
agricultural products leading to a highly competitive agricultural 
production system and enhanced economic opportunity for Americans. The 
proposal carefully documents the progress and results of several 
ongoing projects supported by the grant at a number of universities. 
The principal investigator, as well as other faculty and staff at 
Cornell University, is well-recognized for research in the economics of 
commodity promotion.''
                             global change
    Question. Please provide a description of the research that has 
been funded under the Global Change, Colorado grant.
    Answer. Radiation from the sun occurs in a spectrum of wavelengths 
with the majority of wavelengths being beneficial to humans and other 
living organisms. A small portion of the short wavelength radiation, 
what is known as the Ultraviolet, or UV-B Region of the spectrum, is 
harmful to many biological organisms. Fortunately, most of the UV-B 
radiation from the sun is absorbed by ozone located primarily in the 
stratosphere and does not reach the surface of the earth. The discovery 
of destruction of the stratospheric ozone layer and development of the 
ozone hole over polar regions has raised concern about the real 
potential for increased UV-B irradiance reaching the surface of the 
earth and the significant negative impact this could have on all 
biological systems including man, animals, and plants of agricultural 
importance. There is an urgent need to determine the amount of UV-B 
radiation reaching the earth's surface and to learn more about the 
effect of this changing environmental force. CSREES is in the process 
of establishing a network for monitoring surface UV-B radiation which 
will meet the needs of the science community of the U.S., and which 
will be compatible with similar networks being developed throughout the 
world. The fiscal year 2000 grant supports work through September 2001.
    This grant is part of a government-wide initiative. The research is 
closely coordinated with other Federal agencies involved in the U.S. 
Global Change Research Program Inter-agency UV-Monitoring Network Plan.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes destruction of the 
stratospheric ozone layer, our shield from the full intensity of solar 
radiation, continues to increase. This creates a high priority need for 
information to document not only the levels of UV-B radiation reaching 
the earth's surface, but the climatology of that radiation. The U.S., 
and the rest of the world, needs to know the strength of the UV-B 
radiation reaching the earth and the potential impact on all forms of 
life, especially animal and plant life of agriculturally-important 
species. The principal researcher believes this research to be of 
national as well as regional and local importance.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The USDA UV-B Network is to provide accurate, 
geographically-dispersed data on UV-B radiation reaching the surface of 
the earth and to detect trends over time in this type of radiation. A 
primary problem which had to be overcome in order to reach this goal 
was the development of instrumentation adequate to make the 
measurements required for the monitoring network. A major advance 
occurred during 1996 with the availability to the network of a new 
multi-band instrument which will provide the spectral information 
needed to support both biological and atmospheric science research and 
to serve as ground-truth for satellite measurements. These instruments 
have been deployed and are currently in operation at 29 monitoring 
sites across the U.S., including Hawaii and Alaska. The researchers 
plan to have additional sites in Puerto Rico, Oregon, North Carolina, 
and Oklahoma, but these plans are on hold due to lack of funding to 
support their installation and operation.
    Two grants to design and build six advanced spectroradiometers have 
been awarded under the CSREES National Research Initiative Competitive 
Grants Program. These instruments are to be used in a research network 
to make precise measurements of the total UV-B spectra at selected 
research sites. The first of these instruments failed to meet spectral 
performance standards when tested and calibrated by the National 
Institute of Science and Technology. An alternative design, which 
resulted in a much larger and more difficult instrument to deploy, has 
been developed. The first of the advanced instruments was deployed at a 
U.S. Department of Commerce research site at Table Mountain near 
Boulder, Colorado, during the fall of 1998. The second and third were 
installed at a Department of Energy solar radiation research site in 
Oklahoma and at an Agricultural Research Service Plant Stress site in 
Beltsville, Maryland, during 1999. Additional funding will be required 
to support the deployment of additional research instruments.
    To gain experience in network operation, broadband instruments 
along with ancillary instruments were installed at ten sites and have 
been in operation for the last 72-84 months. These sites are now 
equipped with a full compliment of instruments including the new multi-
band instrument. Sixteen additional sites developed since 1997 are 
similarly equipped with broadband and the new multi-band UV instrument. 
Data from each site is transmitted daily to Colorado State University 
for preliminary analysis, distribution, and archiving. These data are 
available, within 24 hours of collection, on the Internet via a World 
Wide Web Site located in the Natural Resources Research Laboratory at 
Colorado State University. USDA is also a participant in the 
development of a central calibration facility at the U.S. Department of 
Commerce facilities in Boulder, Colorado. The purpose of the central 
calibration facility is to ensure uniform and acceptable calibration 
and characterization of all instruments used in interagency UV-B 
monitoring programs.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1992, 
and the appropriation for fiscal years 1992-1993 was $2,000,000 per 
year; fiscal year 1994 was $1,175,000; fiscal year 1995 was $1,625,000; 
fiscal year 1996 was $1,615,000; fiscal year 1997 was $1,657,000; 
fiscal years 1998 through 2000 were $1,000,000 per year; and in fiscal 
year 2001, $1,430,845. A total of $14,502,845 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $162,000 state appropriations in 1993; $183,106 state 
appropriations in 1994; and $285,430 provided by Colorado State 
University in 1995.
    Question. Where is this work being carried out?
    Answer. Colorado State University is managing the operating 
network, which when completed will include all regions of the country. 
At least 30 sites are planned for the climatological network including 
sites in Hawaii, Alaska, and Puerto Rico in order to provide broad 
geographic coverage. Ten sites have been operational with broad band 
instruments for up to seven years, and 29 sites are now operational 
with new generation instruments. The research level network began with 
the first instrument installed at the Table Mountain, Colorado 
instrument intercomparison site and the second and third have been 
installed at the USDA Plant Stress Laboratory at Beltsville, Maryland, 
and the U.S. Department of Energy Solar Radiation site near Ponca City, 
Oklahoma, as part of the Atmospheric Radiation Measurements field 
network in 1999.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. As with other weather and climate observations, this 
network will be an ongoing need for the predictable future. These 
measurements will provide information on the nature and seriousness of 
UV-B radiation in the U.S. and will provide ground truth validation to 
other predictions of UV-B irradiance. The project has nearly met its 
first objective of the establishment of a climatological network to 
monitor UV-B radiation at the surface of the earth. Years of operation 
will be required to measure trends in UV-B radiation and to develop 
models to predict the climatology of UV-B radiation.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency has assigned two technical staff to continuously 
monitor activities in the global change research program. A team of 
three experts in UV-B radiation measurement technology reviewed 
specifications for the development of the advanced spectroradiometers 
in July 1996 prior to the procurement of major components of the 
instrument. A panel of radiation spectra scientists were brought in to 
review data derived from the new multi-band instruments in December 
1996 to advise on the interpretation and analysis of data derived from 
these instruments. Agency staff is in contact with program management 
on a weekly basis and has visited the program headquarters six times 
during the last year. The annual plan of work has been reviewed by 
three scientists prior to approval by the agency. A review of the UV-B 
Monitoring Program by a panel of technical experts from outside the 
Department is planned for April 2001.
                         grain sorghum, kansas
    Question. Please provide a description of the research that has 
been funded under the Grain Sorghum, Kansas grant.
    Answer. This project was designed to improve the yield improvement 
of grain sorghum cultivars by developing early maturing hybrids with a 
longer grain filling period. The research focuses on identification of 
sorghum germplasm, which have a longer grain filling period or earlier 
maturation date. These traits may be used to shift more of the 
production to grain and less to vegetative growth, thus enabling more 
efficient use of the limited water supply. These funds are awarded to 
scientists working on sorghum at Kansas State University.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The focus of this research is toward the non-irrigated 
lands of Kansas where sorghum can produce a grain crop under conditions 
that would not be possible with corn and is, therefore, very important 
in the rotation with wheat. While the research is directed toward 
Kansas conditions, it would also apply to adjoining states.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to identify germplasm 
and use it to develop grain sorghum cultivars that mature earlier and 
produce more grain. Initial studies have identified genetic 
characteristics controlling grain yield under a range of climatic 
conditions. Researchers have identified several sorghum lines, which 
have a grain-filling period as much as one-third longer than U.S. 
adapted parent lines. Analyses show that variability exists, the trait 
is genetically controlled, and incorporation into adapted germplasm can 
be accomplished. Simulation of expected production gains has been 
initiated.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1997 
and the appropriation for fiscal years 1997 through 2000 was $106,000, 
and for fiscal year 2001 is $105,767 for a total of $529,767.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. In 1998, Kansas State provided support via salaries and 
associated fringe benefits of $31,852, associated indirect costs of 
$14,652, and in-kind costs of $45,580, for a total of $92,084. In 1999, 
a total of $95,700 was provided and for 2000, $97,200 was provided.
    Question. Where is this work being carried out?
    Answer. The research will be conducted on Kansas State University 
research facilities.
    Question. When was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The objectives of this project, which began in 1997, are to 
develop sorghum parental lines with genetically-longer grain fill 
duration and identify changes in management necessary to optimize grain 
production in these lines. Five years or more are required to 
accomplish the objectives. The first objective has been completed. The 
researchers expect to complete the next three original objectives by 
2004 and subsequent objectives by 2006. Preliminary results have 
contributed toward the understanding of factors controlling grain yield 
and the development of higher yielding sorghum cultivars for Kansas.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project is subjected to the institutional review and 
approval process, as well as review by CSREES National Program Staff. 
In addition, stakeholder input was obtained through formal and informal 
methods. The institutional review of the project confirmed that high 
priority issues of the sorghum industry in Kansas and other sorghum-
producing states were being addressed.
 grass seed cropping systems for sustainable agriculture, id, or, & wa
    Question. Please provide a description of the research that has 
been funded under the Grass Seed Cropping Systems for Sustainable 
Agriculture, Idaho, Oregon, and Washington grant.
    Answer. This program was developed to provide management systems 
for sustainable grass seed production without field burning of the 
straw residue following harvest which results in adverse air quality 
problems. Grass seed yields are often significantly reduced the 
following season if the residue is not burned.
    Funds from this grant are awarded competitively to scientists at 
Oregon State University, the University of Idaho, and Washington State 
University engaged in research on grass seed production. Each award has 
passed a merit review by peer scientist.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that according to 
information provided by technical committees representing researchers 
and the grass seed industry, the need for this research is to develop 
sustainable systems of seed production that do not depend on field 
burning of straw residue. Much of the grass seed for the U.S., 
including lawn grasses, is produced in the area. Field burning of straw 
residue creates unacceptable levels of air pollution, and yields of 
some cultivar decline without burning. This is a regional issue that 
impacts the national supply of grass seed.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal for this project is to develop grass seed 
production systems that do not depend on field burning of straw 
residue. To date joint planning by state experiment station 
administrators and researchers from the three states with industry 
input has developed an integrated regional research effort to solve the 
problem.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1994. 
The appropriation for fiscal year 1994 was $470,000; for fiscal years 
1995-2000, $423,000 each year; and for fiscal year 2001, $422,069. A 
total of $3,430,069 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal support for this project in fiscal year 
1994 was $266,055; $298,052 for fiscal year 1995; $282,053 in fiscal 
year 1996; $301,650 in fiscal year 1997; $310,700 in fiscal year 1998; 
$346,500 in fiscal year 1999; and $334,800 in fiscal year 2000.
    Question. Where is this work being carried out?
    Answer. The research will be conducted by the three state 
agricultural experiment stations in Idaho, Oregon, and Washington.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Completion of the initial objectives was anticipated to 
take five years and, therefore, should be completed in 1999. Revised 
goals leading to application of new management systems have been 
developed and should be completed in 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The entire project is reviewed annually by a steering 
committee for focus and relevance. The combined proposal is reviewed by 
CSREES before funds are awarded.
    Considerable progress has been made toward identifying the 
consequences of phased out field burning of straw residue on grass seed 
production. Current and future efforts are directed toward development 
of sustainable systems without field burning. This program is subject 
to annual comprehensive evaluation by a team of peer scientists, 
industry representatives, and farmers. The results are used to guide 
research for the next year. Each proposal is subjected to the 
institution project approval process and reviewed by the CSREES 
National Program Leader.
                         human nutrition, iowa
    Question. Please provide a description of the work that has been 
funded under the Human Nutrition, Iowa grant.
    Answer. This research aims to develop animal and plant foods with 
nutritionally-optimal fat content and to improve utilization of foods 
containing non-nutrient health protectants, components that may reduce 
health risks. The research includes food production and processing, 
human and animal nutrient utilization, consumer food choices, and 
economic impacts of designed food to support optimal nutrition. The 
fiscal year 2000 grant supports research efforts of 30 investigators 
from seven disciplines through June 2001.
    CSREES requested that the university submit a grant proposal for 
fiscal year 2001, which is now under CSREES merit review.
    Question. According to the principal researcher, what is the 
national, regional or local need for this research?
    Answer. The research addresses food quality, nutrition, and optimal 
health. Much of the research focuses on improving the nutritional 
quality of foods important to the economy of the Midwest, while making 
those improvements economically feasible. Ongoing research focuses on 
increasing health protective lipids and plant chemicals in human foods. 
Such foods have recently been called functional foods, and the 
development of functional foods is of high priority to the food 
industry. In ongoing projects, novel strategies are being developed for 
the dietary reduction of heart disease risk. Recent studies have 
included genetic modification of plant foods for animal and human 
diets.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the Center for Designing Foods to Improve 
Nutrition, the administrative unit for this grant, is to improve human 
nutrition and health maintenance by determining how to improve animal 
and plant food fat content and how to increase availability of health-
protectant factors in the human food supply.
    The Center's research group on soybean health effects has built 
upon its international reputation for the soybean isoflavone database, 
by demonstrating the importance of isoflavones with soy proteins in 
lowering circulating cholesterol and in maintaining bone density. 
Scientists in the Center have also contributed to the development of 
strategies for dietary control of high cholesterol and heart disease 
risk. Pork was modified to contain high polyunsaturated fatty acids 
that were found to lower circulating cholesterol in human subjects.
    Additional projects are aimed at genetically-modifying plants to 
enhance their human health benefit. One project is assessing the plant 
genes that control vitamin content with the aim of modifying vitamin 
content in the future. Another project focuses on controlling the genes 
that regulate carotenoid synthesis to provide a better utilized pro-
vitamin A source for the developing world. A third project developed 
strategies to improve the bioavailability of resveratrol, a cancer 
preventative agent, from genetically-modified alfalfa that accumulates 
this compound. Ongoing research is based on earlier studies that 
demonstrated improved carotenoid bioavailability in fats with high 
saturated fatty acid content. Shea butter is used for cooking in sub-
Saharan Africa and has a high saturated fatty acid profile. This 
project will determine if using shea butter as a vehicle for vitamin A 
fortification will improve vitamin A status in compromised populations.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1991 
with an appropriation of $300,000. The fiscal years 1992-1993 
appropriation was $500,000 per year; $470,000 in fiscal year 1994; 
$473,000 per year in fiscal years 1995 through 2000, and $471,959 in 
fiscal year 2001. A total of $5,079,959 has been appropriated.
    Question. What are the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $293,000 university, $312,869 industry, and $14,000 
miscellaneous in 1991; $90,000 state appropriations, $473,608 
university, $131,160 industry, and $116,560 miscellaneous in 1992; 
$307,500 state appropriations, $472,081 university, and $222,267 
industry in 1993; $486,000 university and $254,000 private in 1994; 
$210,000 university and $200,000 private in 1995; $613,770 university 
and $207,811 private in 1996; $690,736 university and $458,000 private 
in 1997; $502,124 university and $700,000 private in 1998; $363,000 
university, $3,109,000 private, and $2,617,000 other Federal in 1999; 
and $804,639 private and $2,957,877 other Federal in 2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the Center for Designing 
Foods to Improve Nutrition, Iowa State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original overall objective to design foods to improve 
nutrition is continuing to be addressed. A new set of related 
objectives will be initiated in 2001.
    Bonilla. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The grant proposals for fiscal years 1998 through 2000 have 
undergone extensive scientific peer review by the grantee. Progress and 
objectives were further reviewed in May 1999 by the Center's newly 
formed External Advisory Council and in May 2000 by the Departmental 
and Center Review Committee, and their recommendations are being 
implemented. Space allocations for Center research activities have been 
clarified and a full time Director is being recruited.
                       human nutrition, louisiana
    Question. Please provide a description of the work that has been 
funded under the Human Nutrition, Louisiana grant.
    Answer. Obesity remains a worldwide epidemic. The grant entitled 
``Dietary Fat and Obesity'' examines three aspects of this problem. 
Will the surreptitious replacement of dietary fat reduce body weight? 
Will fluctuations in daily fat intake influence the ability to use fat? 
How do good and bad fatty acids produce their different health effects? 
The fiscal year 2000 grant supports research through September 2001. 
CSREES has requested that the university submit a grant proposal for 
fiscal year 2001.
    Question. According to the principal researcher, what is the 
national, regional or local need for this research?
    Answer. Obesity is the second leading cause of preventable death. 
If dietary fat plays a role in the epidemic of obesity, reducing fat 
intake might help alleviate its consequences. Identifying individual 
risk factors for susceptibility to obesity and its health consequences 
in the environment of a high fat diet will enable the targeting of 
these special populations for intervention.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The overall goal of this grant is to identify the basis for 
the susceptibility to obesity of people who eat high-fat diets and to 
understand how they differ from those people who are resistant to 
becoming obese when eating a high-fat diet. The principal finding of 
the past year has been the strong relationship of insulin and fitness 
to the ease with which people become obese. The best indicator of the 
risk of storing fat is the level of insulin. The identification of 
these relationships opens up a new group of possible strategies for 
prevention of obesity.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1991, 
and the appropriation for fiscal years 1991-1993 was $800,000 per year; 
for fiscal years 1994-2000 was $752,000 per year; and for fiscal year 
2001, $750,346. A total of $8,414,346 has been appropriated.
    Question. What are the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $523,100 state appropriations in 1991; $515,100 state 
appropriations and $2,216,606 private in 1992; $536,100 state 
appropriations and $940,000 private in 1993; $627,000 state 
appropriations and $3,775,000 private in 1994; $546,100 state 
appropriations and $3,100,000 private in 1995; $1,471,000 state 
appropriations and $2,488,000 private in 1996; $1,998,000 state 
appropriations and $2,104,000 private in 1997; $987,000 state 
appropriations and $1,892,000 private in 1998; $1,004,000 state 
appropriations and $3,136,000 private in 1999; and $1,085,000 state 
appropriations and $1,685,000 private in 2000
    Question. Where is this work being carried out?
    Answer. Research will be conducted at the Pennington Biomedical 
Research Center, Louisiana State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original overall objective was to identify the basis 
for the susceptibility to obesity of people who eat high fat diets and 
to understand how they differ from those people who are resistant to 
becoming obese when eating a high fat diet. It is anticipated that 
several specific objectives will be completed in 2001. On March 13, 
2001, a site visit team will provide external peer review of the 
projects proposed for completion in 2001 and will also review research 
projects proposed for 2001 and 2002, which address the related 
objective of further characterization of the susceptibility to positive 
energy balance when exposed to a high dietary fat environment by 
evaluating a broader population, including men and women, African 
Americans, and Caucasians with varying fitness conditions.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. In March 1999 an on-site panel of researchers evaluated the 
proposed objectives and experimental protocols. The critiques from this 
site visit were used to revise the final proposal. Another site visit 
is planned on March 13, 2001, to assess the progress and evaluate a new 
set of related objectives, as well as future research protocols. The 
site visit panel will include four imminent peer scientists, and the 
evaluation will be on the basis of originality and feasibility of the 
research plan, potential impact of the research results, and 
appropriateness of the research to the mission of USDA. The site visit 
team will produce a report of the review to be submitted to the 
Principal Investigator and to the responsible National Program Leader 
in CSREES. The research protocols will not be implemented until they 
have met acceptable standards by all review criteria.
                       human nutrition, new york
    Question. Please provide a description of the work that has been 
funded under the Human Nutrition, New York grant.
    Answer. This grant continues to bring together investigators who 
focus on issues that range from improving our understanding of key 
roles of nutrients at the molecular level to the development of 
improved strategies to enable consumers to adopt newly created 
knowledge easily and effectively. At the molecular end of the spectrum, 
emphasis is given to nutrient-gene interactions, and at the consumer 
end, emphasis is given to the role that a supportive environment plays 
in enabling consumers to make desired changes in their eating patterns. 
The fiscal year 2000 grant supports research through September 2001. 
This grant supports the second year activities for 14 research projects 
begun during the 1999 fiscal year. The focus of this program is to 
address the individualization of nutrient requirements from a broad 
multidisciplinary perspective. CSREES requested the university submit a 
grant proposal for fiscal year 2001 that has not yet been received.
    Question. According to the principal researcher, what is the 
national, regional, or local need for this research?
    Answer. In the past decade, and in particular the past five years, 
there has been an explosion of knowledge concerning individual 
differences in the genetic control of the metabolism which underlay 
disease processes and health maintenance. Because metabolism cannot 
exist without the provision of nutrients and because nutrients 
influence genetic control, an understanding of genomics is fundamental 
to the development of nutritional sciences, from the biological to the 
social. Further, knowledge of the individuality will become critical 
for the development of appropriate nutrition programs and policies, 
ranging from food system concerns, to the philosophy and design of 
dietary guidelines and guidance, to the implementation and evaluation 
of food assistance programs. For all of these applications there is a 
need for an integrated consideration of individual differences, not 
just in biology, but also in personal and cultural experience with food 
and other lifestyle and environmental exposures.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The 1990 Dietary Guidelines emphasize a reliance on plant-
based foods. This emphasis was designed to control caloric consumption, 
reduce fat intake, modify the composition of ingested fats, enhance the 
consumption of foods associated with reduced cancer risk, and 
simultaneously insure that nutrient needs are met in the proportion 
that is recommended. The researchers continue to address information 
gaps that relate to these health goals and to the policy aims for their 
implementation and that limit the more effective enhancement of 
consumer practices. The recently released Dietary Guidelines continue 
this emphasis and are consistent with the programmatic direction that 
has become the hallmark of this project since its inception.
    Selected highlights of research accomplishments include significant 
findings on the role of antioxidants found in foods that may protect 
from some cancers. One study has identified a biomarker for selenium in 
the blood that is suspected to play an important role in cancer-
protective metabolites and serve as an end point measure of selenium 
status in cancer prevention trials. Other anti-cancer research involves 
retinoic acid, a metabolite of vitamin A. Research supported by this 
grant has helped understand the role of retinoic acid binding proteins 
in regulating the multiple functions of retinoic acid, especially in 
its role as an anticarcinogenic agent. We are exploring new avenues of 
nutrition research related to the interaction of genes and the 
nutritional environment. One study has successfully adapted 
methodologies used in the study of behavioral response of rats to iron 
and folate deficiencies to an experimental mouse model. Mice are the 
animal of choice in genetic studies, and this advance provides new 
opportunities for future research in functional genomics.
    Epidemiologic research on the biological effect of folic acid 
deficiency on cardiovascular disease and certain cancers has shown that 
both dietary levels of this vitamin and a biomarker of folate acid 
status, homocysteine in the blood, are related to increased blood 
pressure in the third National Health and Nutrition Examination Survey. 
Other research has been examining food insecurity in Hispanic, black, 
and white elderly persons who live at home. This research has shown 
that neither the most commonly used definition of food insecurity nor 
the Federal measure used in the U.S. Census are sufficient in 
describing the problems among the elderly. As a result, food insecurity 
status of the elderly is misunderstood and underestimated in the U.S. 
We expect to propose new ways of measuring this problem to the USDA in 
Spring 2001.
    Question. How long has this work been underway, and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $450,000; fiscal years 1990-1991, $556,000 
per year; fiscal years 1992-1993, $735,000 per year; fiscal year 1994, 
$691,000; fiscal years 1995 through 2000, $622,000 each year; and 
fiscal year 2001, $620,632. A total of $8,075,632 has been 
appropriated.
    Question. What are the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $154,056 state appropriations and $2,456 private in 
1991; $238,430 state appropriations and $60,746 private in 1992; 
$19,401 state appropriations and $22,083 private in 1993; $202,441 
state appropriations and $1,175 private in 1994; $296,794 state 
appropriations in 1995; $348,127 in state appropriations and $39,593 
private in 1996; $133,162 state appropriations in 1997; $8,185 
university appropriations, $166,752 state appropriations, and $7,905 
private in 1998; $6,395 university appropriations, $164,244 state 
appropriations, and $7,414 private in 1999; and $17,598 university 
appropriations, $205,917 state appropriations, and $16,717 private in 
2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Cornell University, New 
York.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The university changed the focus of research funded by this 
grant complement, the university's initiative in mammalian genomics as 
well as the human and social science issues that relate to food and 
nutrition. Progress has been consistent with the proposed time lines. 
They anticipate completing the specific objectives in 2001 and plan to 
concentrate on an expanded nutritional genomics theme for the fiscal 
year 2001 proposal.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES made a site visit on May 27, 1999, to evaluate the 
change in focus. The grant proposal for fiscal years 1999 and 2000 was 
also subjected to independent peer review coordinated through the 
Cornell Agricultural Experiment Station. Two peer reviewers from a list 
of four submitted by the Project Director were selected by the Station 
Director. The reviewers were given the following eight criteria: 
scientific merit, clarity of objectives, appropriate methodology, 
feasibility of attaining objectives, accomplishment during preceding 
project period, research performance and competence of investigators, 
significance of anticipated results for agriculture, forestry or rural 
life, and relevance of the proposed work to regional and national 
goals. They gave the proposal an overall score of slightly below 
outstanding. The reviewers did report serious concerns with the 
objectives of two proposals that were subsequently not funded. 
Modifications were also made to experimental designs of other projects 
based on recommendations from the reviewers. The next peer review is 
scheduled to occur in Spring 2001 in conjunction with developing the 
next proposal.
                   hydroponic tomato production, ohio
    Question. Please provide a description of the research that has 
been funded under the Hydroponic Tomato Production, Ohio grant.
    Answer. This research is designed to develop and demonstrate state-
of-the-art hydroponic vegetable production technology to achieve year-
round high quality-tomato production. The project will develop and test 
decision support functions and distribute them through the Internet, 
and to develop and test automated control system. Results will be 
extended to other vegetable crops.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The research is needed to develop and evaluate management 
protocols for economical production of green house tomatoes as an 
alternative crop.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goals of the research are to develop and test 
protocols for management systems for operation of year round green 
house tomato production as an alterative crop.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 1998 
and the appropriation for fiscal year 1998 was $140,000; for fiscal 
years 1999 and 2000 was $200,000 each year; and for fiscal year 2001, 
$99,780. A total of $639,780 has been appropriated.
    Question. What is the source and amount of non-Federal provided by 
fiscal year?
    Answer. The non-Federal funds provided for support of the project 
are $19,400 for fiscal year 1998; $24,500 for fiscal year 1999; and 
$30,000 for fiscal year 2000.
    Question. Where is this work being carried out?
    Answer. The research will be conducted by the Ohio State 
Agricultural Experiment Station at selected locations in Ohio.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The principal investigator for this project anticipates 
completion of the original objectives in fiscal year 2002. Revised 
objectives are projected for completion in 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was subjected to a peer review in the 
institution and again reviewed by CSREES National Program Staff.
              illinois-missouri alliance for biotechnology
    Question. Please provide a description of the research that has 
been funded under the Illinois-Missouri Alliance for Biotechnology 
grant.
    Answer. The Illinois-Missouri Alliance has initiated a competitive 
grants program in agricultural biotechnology for research in targeted 
priority areas of need related to corn and soybeans. The scope of 
interest includes production, processing, marketing, utilization, 
inputs, and support services, along with economic, social, 
environmental, and natural resource concerns. The Alliance has 
solicited research project proposals from scientists at Illinois and 
Missouri and other midwestern institutions and has conducted peer 
reviews for science quality, commercial feasibility and potential 
economic impact to select the proposals that will be funded. In 2000 
the Alliance awarded three new research grants at three institutions 
totaling $900,703. In 1998 the Alliance started an on-line magazine 
called AgBioForum devoted to the economics and management of 
agricultural biotechnology. The purpose of AgBioForum is to provide 
unbiased, timely information and new ideas leading to socially-
responsible and economically-efficient decisions in science, public 
policy, and private strategies pertaining to agricultural 
biotechnology. In its second year of operation, AgBioForum experienced 
over 135,000 hits from individuals in universities, industry, 
government, and international organizations.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. The principal investigator has indicated that the goal of 
the Alliance is the pre-commercial development of emerging 
biotechnology discoveries for agriculture. The midwestern region 
produces more than half of the nation's output of corn and soybean 
crops and is critical to domestic food security and U.S. 
competitiveness in global agricultural markets. Alliance grants are 
awarded on a regional basis to advance corn and soybean production in 
the Midwest. The Alliance is implementing a research strategy that it 
hopes will generate important biotechnological developments that are 
rapidly adaptable to unique local soil, climatic, and socioeconomic 
conditions of the region. Alliance grants are awarded to projects with 
a clearly defined marketable product or service derived from 
biotechnology research.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. Fiscal year 2000 was the sixth year of funding for the 
Alliance. The research program focuses on the two major commodity 
crops, corn and soybeans, as produced, processed, and marketed in the 
midwest. The goal of this biotechnology program is to fund integrated 
research and development projects that will lead to specifically-
defined practical technologies for commercialization. The projects 
funded in fiscal year 2000 include efforts to: (a) better understand 
consumer attitudes toward products that have been improved through 
biotechnology and the basis for those attitudes; (b) evaluate options 
and strategies for more effectively communicating the benefits and 
risks of biotechnology; and (c) develop new soybean varieties with 
added healthful constituents, with special emphasis on antioxidants.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through 2001?
    Answer. The work supported by this grant began in fiscal year 1995. 
The appropriations for fiscal years 1995 and 1996 were $1,357,000 each 
year; for fiscal year 1997, $1,316,000; for fiscal years 1998 through 
2000, $1,184,000 per year; and for fiscal year 2001, $1,239,268 
bringing the total appropriations to date to $8,821,268.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The Alliance has not specified a required amount of 
matching funds, but it is expected that most projects will have 
commitments for significant direct and in-kind non-Federal support such 
as faculty salaries, graduate student stipends, and funding from 
industry and commodity groups. Since Alliance projects are still 
underway, the exact amount of the non-Federal contribution is still 
unknown. The non-Federal contribution is expected to be substantial, 
and a system for accounting for future non-Federal contributions is in 
place.
    Question. Where is this work being carried out?
     Answer. The research projects identified are being conducted at 
the University of Illinois, the University of Missouri, Iowa State 
University, Northwestern University, Southern Illinois University, and 
the USDA Agricultural Research Service.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Each project proposal for Alliance funding has a target 
date for completion. The four initial projects were three-year studies 
with anticipated completions at the end of fiscal year 1998. Most of 
the second and third rounds of projects are also three-year studies 
that were to be completed at the end of fiscal years 1999 and 2000, 
respectively.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The Illinois-Missouri Biotechnology Alliance was evaluated 
for scientific merit by a review panel convened by the agency on April 
17, 2000. The panel recommended approval of the project pending receipt 
of supplemental information on administrative aspects of the project. 
The supplemental information was received, and we are satisfied that 
the program is being administered in compliance with the purpose of the 
grant. A merit review panel will be convened to re-evaluate the project 
upon receipt of a proposal for fiscal year 2001.
           improved dairy management practices, pennsylvania
    Question. Please provide a description of the research that has 
been funded under the Improved Dairy Management Practices, Pennsylvania 
grant.
    Answer. The research focuses on developing methods to help dairy 
farmers in the adoption of new technology and management practices 
which lead to improved dairy farm profitability. Individual research 
projects funded by the grant are determined by a competitive peer 
review process administered by the Institution using peers from 
Institutions located primarily in other states.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes the local need is for the 
identification and implementation of profit-enhancing management 
strategies for Pennsylvania dairy farms in response to changing market 
conditions and emerging technologies. The current focus is to reduce 
cow losses due to salmonella infections, to evaluate an effective fiber 
index system for the formulation of rations fed to dairy cattle, and to 
evaluate induced lactation in dairy heifers as a method to increase 
profitability of Pennsylvania dairy farms.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goals of this research remains the same, which 
is the development of methods to help dairy farmers in the adoption of 
new technology and management practices which lead to improved dairy 
farm profitability. A farm management survey is complete, and analysis 
of results is in progress. Farm financial models have been developed 
and are undergoing a field test on selected farms. Workshops to teach 
elements of business management to dairy farmers have been conducted, 
and survey instruments are in place to monitor effectiveness of 
workshops. Research is currently underway to develop improved models 
for nutrient management on northeastern dairy farms, to evaluate the 
potential role of intensive grazing systems to replace harvested 
forage, and to better understand how decisions are made by dairy farm 
families. Refinement of an expert computer-based system to assist dairy 
farmers in controlling the udder disease, mastitis, is underway. A 
study to evaluate the induction of lactation on dairy profitability is 
underway. An additional study to evaluate the impact of improved 
protein nutrition during late gestation on dairy cow performance has 
been initiated.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1992 
and the appropriation for fiscal years 1992 and 1993 was $335,000 per 
year. The fiscal year 1994 appropriation was $329,000; $296,000 each 
year in fiscal years 1995-2000; and $397,124 in fiscal year 2001. A 
total of $3,172,124 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. During fiscal year 1992, $354,917 were from State funds, 
and $16,000 from Industry, for a total of $370,917. During fiscal year 
1993, $360,374 were from State funds and $16,000 from Industry for a 
total of $376,374. Information is not available for fiscal years 1994-
2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the Pennsylvania State 
University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The principal researcher anticipated completion of the 
original objectives by March 1994. The original objectives were met. 
Availability of continued funding has permitted the institution to 
develop a competitively-awarded grant program within the institution to 
address priority issues related to management of dairy farms. Proposals 
are reviewed and ranked by peers in other institutions prior to award. 
It is anticipated that awards from the fiscal year 2001 appropriation 
will be complete in September 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency accepts technical review of specific proposals 
funded by this grant on an annual basis. The overall proposal is 
reviewed by the agency on an annual basis. In addition, technical staff 
has conducted an onsite review of the program in 1993 and in 1995. The 
overall objective of the work funded by this grant has direct 
relationship to the development of Integrated Management Systems as 
well as to aspects of animal production systems for animal well-being 
and impact on the environment.
        improved early detection of crop disease, north carolina
    Question. Please provide a description of the research that has 
been funded under the Improved Early Detection of Crop Disease, North 
Carolina grant.
    Answer. This project involves detecting pathogens on crops before 
symptoms appear. The project will examine several remote sensing 
systems to combine photonic instruments.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal investigator indicates that the project has 
potential of creating a universal remote sensing biosensor platform for 
early warning crop disease detection.
    Question. What was the original goal of the research and what has 
been accomplished to date?
    Answer. The goal of the research is to produce a crop-based 
biosensor with which to monitor the onset and spread of crop diseases 
for the purpose of early crop disease detection. They have made strides 
in the measurement of a green fluorescent protein in transgenic plants 
by using fluorescence spectrophotometer and laser-induced fluorescence 
imaging. These techniques are pivotal in gathering the induced plant 
photonic signal which will serve as an early indicator of plant 
diseases.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year 2001.
    Answer. The work supported by this grant began in fiscal year 2000. 
The appropriation for fiscal year 2000 was $170,000 and for fiscal year 
2001 is $197,564. The total appropriation is $367,564.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds are not provided for this grant.
    Question. Where is the work being carried out?
    Answer. Research will be conducted at the University of North 
Carolina-Greensboro.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This grant was issued in 2000. It is anticipated that 
significant progress can be made in the next four years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The overall grant is reviewed annually by CSREES' 
scientific staff.
                   improved fruit practices, michigan
    Question. Please provide a description of the work that has been 
done under the Improved Fruit Practices, Michigan grant.
    Answer. Funds from this grant will be awarded competitively to 
scientists at Michigan State University working with these crops. This 
research will involve a multidisciplinary approach to reduce chemical 
use on apple, blueberry, and sour cherry, three important Michigan 
fruit crops, and improve the management of dry edible beans and sugar 
beets. Research will be conducted on crop management techniques and 
reduced chemical use.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes Michigan's need for this 
research is to develop and maintain/expand their tree fruit and small 
fruits industry. There is a need to improve the culture and management 
of dry edible beans and sugar beets in order for Michigan farmers to 
sustain production of these crops.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The planned objectives of the research are to reduce the 
chemical contamination of the environment from fruit production and 
improve production practices for beans and beets through multi-
disciplinary research, including pesticides, and the development of new 
nonchemical production methods.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1994. 
The appropriation for fiscal year 1994 was $494,000, for fiscal years 
1995-2000, $445,000 each year; and for fiscal year 2001, $444,021. A 
total of $3,608,021 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
in fiscal year 1994 were $437,338 from state appropriations and 
$135,000 from industry; for fiscal year 1995, $574,494 were from state 
appropriations and $127,000 from industry; and a total of $908,969 for 
fiscal year 1996. The non-Federal funds for fiscal year 1997 totaled 
$752,500, for fiscal year 1998, total $729,145; for fiscal year 1999, 
total $1,332,300; and for fiscal year 2000, total $986,000.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at Michigan State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Principal Investigators have reported significant 
progress toward improved cultural practices for these speciality crops 
which is expected to reduce the need for chemical pesticides. Some of 
the original objectives were completed by the end of fiscal year 1999. 
Long-term goals are expected to take an additional five years with a 
projected completion date of 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project has been subjected to a comprehensive review 
with each funding cycle. The annual proposals, including all of its 
sub-projects, are subjected to peer review before submission to CSREES 
to be reviewed by National Program Staff. The project has progressed 
toward the objective of developing management practices and strategies 
for economical production of speciality crops in Michigan with reduced 
chemical pesticide use. At the end of each research cycle, priorities 
are adjusted for the next year's funding. The evaluation is performed 
by scientists at Michigan State University.
                 infectious disease research, colorado
    Question. Please provide a description of the research that has 
been conducted under the Infectious Disease Research, Colorado grant.
    Answer. The purpose of this project is to establish a 
multidisciplinary research center to study infectious animal diseases 
which have a critical economic impact. The ``Center for Economically 
Important Infectious Animal Diseases'' will work collaboratively with 
universities and state and Federal agencies. The focus will be on the 
impact of diseases such as vesicular stomatitis, various Mycobacterium 
species--M. bovis, M. tuberculosis, M. avium subsp.paratuberculosis-- 
and brucellosis, methods for risk analysis, antimicrobial resistance 
issues, and development of vaccines for some of these diseases.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for the 
research?
    Answer. The need for this research is to provide valid risk 
assessment models for diseases which affect both animal and public 
health and which can have a serious impact on international trade. 
Livestock producers and the industry need this type of information to 
enable them to make correct disease management decisions. The Center 
utilizes commodity advisory groups to prioritize specific disease 
problems and will focus on those diseases with the greatest potential 
for economic impact. The Center currently has an Advisory Committee 
which comprises the private sector--commodity groups--academia, and 
Federal and state health officials. This group meets once or twice 
annually to review direction of the Center's programs and decide on 
critical priorities for the next year.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal was to establish a regional center that would 
foster interactive work on risk assessment, disease control, and 
minimize the economic impact of disease outbreaks in livestock. The 
Center has been successful in obtaining additional funding from a 
variety of sources to initiate studies on diseases such as vesicular 
stomatitis and tuberculosis. The coordinating structures have been 
established, and the Center has now reported several successes from 
their research program. They have been conducting long term 
surveillance for vesicular stomatitis on sentinel herds in the U.S. as 
well as in three other countries--Costa Rica, El Salvador, Mexico--
south of the U.S. where this virus can be endemic in nature. Progress 
is also being made on newer, molecular technique-based diagnostic tests 
for Mycobacteria which are involved in tuberculosis or Johne's disease 
outbreaks.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999 
with appropriations in fiscal year 1999 of $250,000; in fiscal year 
2000, $255,000; and in fiscal year 2001, $299,340, for a total of 
$804,340.
    Question. What is the source and amount of non-Federal funds by 
fiscal year?
    Answer. In fiscal year 1999, the project also received the 
following funds: other Federal agency grants, $85,750; private 
foundation grants, $39,488; and state funds, $33,120 for a total of 
$158,358. For fiscal year 2000, the Center received $195,000 in other 
grants in support from private companies and foundations, $7,000 from 
the UN-International Agency for Atomic Energy, and the university 
contributed $119,276 in related indirect costs for a total non-Federal 
contribution of $321,276.
    Question. Where is this work being performed?
    Answer. The research is being conducted at the College of 
Veterinary Medicine, Colorado State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date is 2003. The work is 
proceeding on the designated schedule, and it is expected that the 
objectives will be met in a timely manner.
    Question. When was the last agency evaluation of this project? 
Provide a summary of it.
    Answer. The project was initiated in fiscal year 1999, and no 
formal on-site evaluation has been done at this time. The CSREES 
representative has kept in close contact with the Center Director and 
will attend the meeting of the Center's Advisory Committee on March 2, 
2001, at which time a detailed review of the programs and functions of 
the Center for Economically Important Infectious Animal Diseases will 
be done.
          institute for food science and engineering, arkansas
    Question. Please provide a description of the research that has 
been funded under the Institute for Food Science and Engineering, 
Arkansas grant.
    Answer. As the flagship center for the Institute of Food Science 
and Engineering, the Center for Food Processing and Engineering has as 
its objectives to facilitate and encourage value-added research and 
improve the processing of agricultural products. The Center for Food 
Safety and Quality, with a mission to conduct research on the safety 
and quality of foods relative to microbiological and chemical hazards, 
was activated on January 1, 1997. Researchers within the Center for 
Human Nutrition are focusing on identification and evaluation of 
important dietary phytochemicals present in fruits, vegetables, grains, 
and legumes grown in Arkansas and the Southern region, enhancement of 
phytochemical content through advanced breeding techniques, and the 
development of new value-added products with elevated levels of these 
health promoting compounds. A proposal in support of the fiscal year 
2001 appropriation has been requested.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The Institute will provide technical support and expertise 
to small and mid-sized food processors that usually do not possess 
adequate expertise in-house. The economy of the southern region will be 
improved through the creation of new jobs and a high multiplier effect 
from the research.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to establish an 
Institute of Food Science and Engineering at the University of 
Arkansas-Fayetteville. The full implementation of research findings is 
estimated to have a potential economic impact for the food industry of 
over $25 million annually.
    The Institute staff has assisted national food processing companies 
in development and quality improvement of thermally-processed products 
as well as serving small commercial kitchens and start-up. The 
Institute's Food and Agricultural Organization--FAO--Center of 
Excellence has been involved with a number of training-related 
activities in Latin America and the Caribbean to promote good 
agricultural practices related in the production and handling of fresh 
produce for export to the U.S. This activity is vitally important to 
the U.S. consumer because approximately 40 percent of fresh fruits and 
vegetables are imported.
    To date, 108 publications, two IMPACT reports and a newsletter have 
served to keep the industry and fellow scientists informed of research 
activities. The publication of two comprehensive manuals and six 
Extension fact sheets has supplemented several Hazard Analysis Critical 
Control Point--HACCP--and Better Process Control Schools as important 
technology transfer activities.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1996. 
The appropriation for fiscal years 1996 and 1997 was $750,000 each 
year; $950,000 for fiscal year 1998; $,1,250,000 each year for fiscal 
years 1999 through 2000; and $1,247,250 in fiscal year 2001. A total of 
$6,197,250 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. The non-Federal funds and sources provided for this grant 
include $184,700 in state funds and $85,500 from industry in fiscal 
year 1996; $146,023 in state funds and $279,728 from industry in fiscal 
year 1997; $57,584 in state funds and $243,225 from industry in fiscal 
year 1998; $62,479 in state funds and $394,589 from industry in fiscal 
year 1999; $63,564 in state funds and $409,470 from industry in fiscal 
year fiscal year 2000; and $65,344 in state funds and $211,342 from 
industry. Including equipment donations of $738,369 and training of the 
Descriptive Sensory Panel valued at $200,000, industry has made a total 
contribution of $3,141,917. Adding Food and Agricultural Organization 
contributions of $88,000 and direct state contributions of $663,094, 
non-Federal support totals $3,893,011.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the University of Arkansas 
at Fayetteville.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The principal researcher anticipates that work will be 
completed on the original goals in fiscal year 2002. The objectives 
related to research and service to industry, food entrepreneurs and the 
general public continue to be ongoing.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An agency science specialist conducts a merit review of the 
proposal submitted in support of the appropriation on an annual basis. 
In a review of the proposal on May 25, 2000, the assessment was that 
satisfactory progress was demonstrated in meeting the goals of the 
Institute.
                       integrated pest management
    Question. Please provide a description of the research that has 
been funded under the Integrated Pest Management research grant.
    Answer. The research supported by this grant develops new pest 
management tools to address critical pest problems identified by 
farmers in an agricultural production region. Funds are distributed 
through the Regional Integrated Pest Management--IPM--Grants Program 
using a competitive process which includes technical and merit review 
at the regional and national levels. Projects funded by the Regional 
Grants Program develop new pest management tactics to replace 
management tools lost as a result of regulatory action, pest 
resistance, and other factors. Alternative pest management tactics are 
identified and validated in a production setting. Education and 
training programs are conducted to help producers implement new 
tactics.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The ability of the Nation's agricultural production system 
to keep pace with domestic and global demand for food and fiber is 
dependant on access to safe, profitable, and reliable pest management 
systems. For a variety of reasons, including the Food Quality 
Protection Act--FQPA--of 1996 and pest resistance, many of the chemical 
control options farmers have relied on for many years are no longer 
available. The loss of these important tools is likely to continue at 
an accelerated rate over the next several years and will have 
significant impacts on pest management systems in the U.S. over the 
next decade. The minor use crops, high value crops grown on relatively 
few acres, will be particularly hard hit during this period. For these 
reasons and others, it is essential that farmers be provided with new 
pest management tools and better information so they can remain 
competitive in today's global marketplace. These research grant funds 
are an important part of the Department's plan to assist farmers in 
finding effective pest management alternatives so they can adjust to 
changes in pesticide availability resulting from implementation of the 
FQPA.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this research is to provide farmers with new 
pest management options that allow them to reduce dependance on 
pesticides, improve profitability, and protect vital natural resources. 
The research supported by this research grant has made important 
contributions to increasing knowledge about new approaches to pest 
management. The following are some examples:
  --In California, a resource and training program was developed in a 
        CD-ROM format to help retail nursery personnel and Master 
        Gardener volunteers solve garden and landscape problems using 
        least toxic pest control methods. This program is now in use in 
        every county in California.
  --In Texas, a statistically-valid and user-friendly method was 
        developed to monitor a variety of pests and natural enemies on 
        a number of important crops. As a result, and together with the 
        Texas Agricultural Experiment Station, the Texas Agricultural 
        Extension Service and the Texas Integrated Pest Management 
        Program, personnel are being hired throughout the state to 
        implement IPM strategies for greenhouse and nursery crops.
  --In New England, researchers have been investigating the possibility 
        of establishing populations of a natural enemy to control red 
        mite in apple orchards. Results show that this biological 
        control method can probably be sustained in most northeastern 
        orchards and may eradicate the need for chemical control 
        throughout this apple growing area.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1982, $1,500,000; fiscal years 1983 through 1985, 
$3,091,000 per year; fiscal years 1986 through 1989, $2,940,000 per 
year; fiscal year 1990, $2,903,000; fiscal year 1991, $4,000,000; 
fiscal years 1992 and 1993, $4,457,000 per year; fiscal year 1994, 
$3,034,000; fiscal years 1995 through 2000, $2,731,000 each year; and 
fiscal year 2001, $2,724,992. A total of $60,494,992 has been 
appropriated since fiscal year 1981.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. A study of the source of non-Federal funds that contribute 
to this research effort was conducted in 1993-1994 with the following 
results: In fiscal year 1993, state appropriations, $841,017, product 
sales, $33,987, industry grants, $17,081, and other, $31,737; for 
fiscal year 1994, state appropriations, $2,303,458, product sales, 
$77,157, industry grants, $210,110, and other, $216,552. These studies, 
which have not been repeated since 1994, demonstrate a trend toward 
greater annual state investments in Integrated Pest Management 
programs.
    Question. Where is the work being carried out?
    Answer. Scientists in all states are eligible to compete for this 
funding on a competitive basis. In fiscal year 2000, grants were 
awarded to Colleges of Agriculture in 23 states.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Due to the passage of the FQPA in 1996, the economic and 
environmental pressures facing U.S. agriculture are at least as great 
today as they were in 1981 when Federal funds were first appropriated 
for this research grant. It is important for government to address the 
needs of agricultural producers by supporting research and extension 
efforts to develop alternative pest management approaches. It is 
anticipated that the need for this work will only increase as new pests 
emerge, existing pests become resistant to current control methods, and 
as new pesticide regulations are implemented.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Projects funded by this research grant are awarded through 
a competitive process that evaluates relevance to stakeholder needs and 
technical merit. Progress reports are reviewed to evaluate 
accomplishments and special attention is given to studies involving new 
control strategies relating to at-risk sites with pest management usage 
patterns impacted by FQPA implementations.
                integrated production systems, oklahoma
    Question. Please provide a description of the research that has 
been funded under the Integrated Production Systems, Oklahoma grant.
    Answer. This grant focuses on the development of efficient 
management systems for production of watermelons and blackberries under 
intensively-managed conditions. The work will address biotic and 
abiotic production components under southeastern Oklahoma conditions 
for use in production guidelines. This will include planting densities, 
fertilizer studies, weed management and insect and disease control.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for the 
research.
    Answer. The principal researcher believes the need for this 
research is focused on the local area of southeastern Oklahoma, an area 
that is economically depressed and in need of alternative crops to 
diversify the dominant cow/calf livestock production.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to develop new and 
alternative crops to supplement and diversify the cow/calf livestock 
agriculture of southeastern Oklahoma with emphasis on horticultural 
crops. Work to date has shown promise for strawberries, blackberries, 
cabbage, melons, and blueberries. Research results to support an expert 
system will be developed for grower use.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Work supported by this grant started in fiscal year 1984 
and the appropriations were: fiscal year 1984, $200,000; fiscal year 
1985, $250,000; fiscal year 1986, $238,000; fiscal years 1987-1989, 
$188,000 per year; fiscal years 1990-1991, $186,000 per year; fiscal 
year 1992, $193,000; fiscal year 1993, $190,000; fiscal year 1994, 
$179,000; fiscal years 1995-1998, $161,000 each year; fiscal years 
1999-2001, $180,000 per year; and fiscal year 2001, $179,604. A total 
of $3,369,604 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $165,989 state appropriations in 1991; $160,421 state 
appropriations in 1992; and $164,278 state appropriations in 1993. Non-
Federal support for 1994 was $141,850 for state appropriations. Funds 
for fiscal year 1995 were $129,552; for 1996, $146,000; for 1997, 
$152,000; for 1998, $148,000; for 1999, $151,000; and for 2000, 
$137,000.
    Question. Where is this work being carried out?
    Answer. This research is being done at the West Watkins 
Agricultural Research and Extension Center at Lane, Oklahoma, a branch 
of the Oklahoma State Agricultural Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives of this project were to develop a 
production system for alternative crops with economic potential for 
southeastern Oklahoma. Each year's funding cycle has addressed specific 
crop and management objectives to be completed over two-years time. 
These short term objectives have been met for each of the completed two 
year projects. However, the original objective of developing 
alternative cropping systems is very long term and has not been 
completed. The current project is projected for completion in 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Each of the annual project proposals has been put through 
the institutions review and is reviewed by a CSREES scientist before 
approval. In addition to the annual review of individual proposals, a 
comprehensive review of the Lane Agricultural Center, where this 
research is conducted, was conducted in 1993. This review showed that 
work supported by this grant is central to the mission of that station 
and represents an important contribution to the agriculture of the 
area. This work has provided practical management information for 
farmers of southeastern Oklahoma that has improved their ability to 
economically-produce small fruit and vegetable crops. This project is 
evaluated internally at the end of each year in order to set priorities 
for the next year.
        intelligent quality sensor for food safety, north dakota
    Question. Please provide a description of the research that has 
been funded under the Intelligent Quality Sensor for Food Safety, North 
Dakota grant.
    Answer. This is a new project starting in fiscal year 2001. The 
long-range goal of this project is to build portable intelligent 
quality sensors for detecting food borne pathogens and measuring food 
quality. The investigators at North Dakota State University have 
indicated that they start by reconfiguring and improving currently 
available sensors to detect the volatile compounds produced by stored 
meat and relate the volatile compounds to the type of food borne 
pathogen present in the meat.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The need for this research is to develop rapid methods to 
detect contamination of food by pathogenic microorganisms. An online 
detection system will increase the speed with which food safety can be 
assured. Details will be known when the proposal is received from the 
principal investigator.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this project is to improve the safety and 
quality of the food. The goal will be achieved by developing 
intelligent quality sensors to detect food quality and food borne 
pathogens. The investigators from North Dakota State University have 
indicated that they have conducted preliminary research on the 
development of sensors for detecting odors in meat. In this project, 
they also propose to reconfigure and improve these sensors to detect 
food borne pathogens. Accomplishments will be reported at the end of 
this project period.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $141,688.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university will show the matching resources in the 
proposal.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at North Dakota State 
University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
of this new project is August 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. There was no project last year and no evaluation was 
conducted.
              international arid lands consortium, arizona
    Question. Please provide a description of the research that has 
been funded under the International Arid Lands Consortium, Arizona 
grant.
    Answer. Fiscal year 2001 is the eighth year that CSREES has funded 
the International Arid Lands Consortium. The Forest Service supported 
the program during fiscal year 1993 to develop an ecological approach 
to multiple-use management and sustainable use of arid and semiarid 
lands. Projects that began in 1997-2000 will continue to be funded to 
address issues of land reclamation, land use, water resources 
development and conservation, water quality, inventory technology, and 
remote sensing. All proposals are peer reviewed and awarded 
competitively, whereby the principal investigator must be from a 
Consortium member institution.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes the consortium is devoted 
to the development, management and reclamation of arid and semi-arid 
lands in the United States, Israel, and elsewhere in the world. The 
International Arid Lands Consortium will work to achieve research and 
development, educational and training initiatives, and demonstration 
projects. The current member institutions are the University of 
Arizona; the University of Illinois; Jewish National Fund; Jordan's 
Higher Council for Science and Technology; New Mexico State University; 
South Dakota State University; Texas A&M University, Kingsville; and 
Desert Research Institute, Nevada. Affiliate membership includes 
Egypt's Ministry of Agriculture and Land Reclamation Undersecretary for 
Afforestation. The USDA's Forest Service works very closely with The 
International Arid Lands Consortium through a service-wide memorandum 
of understanding.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the Consortium was and continues to be 
acknowledged as the leading international organization supporting 
ecological sustainability of arid and semi-arid lands. To date, 74 
projects have been funded, 51 of which are to conduct research and 
development, 14 for demonstration projects, and 9 for international 
workshops. Funds approximating $6.2 million have been used to fund 
these projects.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The International Arid Lands Consortium was incorporated in 
1991. Funds were appropriated to the Forest Service in 1993. Additional 
funds were received during each of the years that followed. $329,000 
per year has been appropriated for fiscal years 1994 through 1998; 
$400,000 per year for fiscal years 1999 and 2000; and $493,911 for 
fiscal year 2001. Total appropriations are $2,938,911.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Members of the International Arid Lands Consortium have 
provided funds to support the Consortium office in Tucson, Arizona, and 
for printed materials as needed. Each member has provided travel and 
operations support for semi-annual meetings, teleconferences, and other 
related activities. In fiscal years 1993-1996, $60,000 in state 
appropriations were provided. Industry provided $84,083, $100,000, and 
$25,000 in fiscal years 1993, 1995, 1996, respectively. Additional 
funds of $34,000 were received during 1996 from the Egyptian affiliate 
member to enhance future collaboration. Funds of $50,000 from industry 
were received during 1998-2000.
    Question. Where is this work being carried out?
    Answer. Research is currently being conducted at the University of 
Arizona, South Dakota State University, Texas A&M University, 
Kingsville, New Mexico State University, University of Illinois, 
Nevada's Desert Research Institute, and several research and higher 
education institutions in Israel, Jordan and Egypt.
    Question. What was the anticipated completion date for the original 
objectives of the projects? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives.
    Answer. All research and demonstration projects that started in 
1993 through 1996 have been completed. The projects started in 1997 and 
1998 are expected to be completed within 12 months depending upon the 
nature of the project. Projects started in 1999 and 2000 will be 
completed within two years. Six international conferences and workshops 
were held during 1994 through 2000. The International Arid Lands 
Consortium is an organization with long-term goals.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The cognizant staff scientist reviews the project semi-
annually and has determined that the research is conducted is in 
accordance with the mission of the agency.
                     iowa biotechnology consortium
    Question. Please provide a description of the work that has been 
funded under the Iowa Biotechnology Consortium grant.
    Answer. This Consortium is engaged in jointly planned research 
activities between Iowa State University--ISU, the University of Iowa--
UI, and the City of Cedar Rapids, Iowa. Both fundamental and applied 
research studies are being conducted to identify opportunities to 
convert agricultural processing wastes into value-added products. These 
waste streams include harvesting residues as well as food processing 
wastes, the latter of which can place enormous burdens on municipal 
waste management systems. The overall project involves broad and 
coordinated research approaches for the cost-effective disposal of 
wastes along with efforts to recover and utilize byproduct materials 
generated by the biotechnology industries. Individual projects 
supported by these funds include various studies in the areas of 
analytical methodology, separation and recovery of waste components, 
value-added products from wastes, anaerobic digestion and waste 
disposal, animal feeding of waste products, and land applications of 
waste products. Annual funding decisions for individual studies to be 
included in the overall project are based on a competitive peer review 
process with panel evaluations.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The environmental burden associated with agriculture and 
the agricultural processing industries is recognized as a growing 
problem in the U.S. These researchers are interested in discovery 
investigations that will lead to technological breakthroughs allowing 
the recovery and recycling of energy, chemicals, and materials from 
agriculture-related processing wastes. While these investigators are 
working with wastes that are generated in the State of Iowa, similar 
waste streams are generated by agricultural industries across the U.S. 
Thus, the researchers believe that their studies encompass national, 
regional, and local needs because the potential technologies, which can 
be developed from their research, would have nationwide applications. 
In many respects, this ongoing research effort anticipates the rapidly 
expanding national interest in bio-based products and genetically 
modified plants and animals.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The primary goal of this project is to conduct fundamental 
and applied research aimed at enhancing the recovery and utilization of 
by-product materials from waste streams generated by new and emerging 
biotechnology industries, with emphasis on agribusiness. Early in the 
project, research emphasized characterization of waste streams from 
agricultural processing industries and developing anaerobic digestion 
technologies suitable for treating these streams. This early work has 
resulted in commercially-successful anaerobic digesters used in both 
Iowa and other states. Success in these endeavors has led to new 
research activities aimed at producing value-added products from the 
waste streams. For example, researchers at ISU are investigating ways 
to produce hydrogen instead of methane from anaerobic digesters; are 
testing a process to break down agricultural residues such as oat hulls 
and corn stover into compounds that can be converted to ethanol, lactic 
acid, polyols, and other industrial chemicals; and are culturing 
microorganisms that naturally appear in the vents and tanks at 
agricultural processing plants to see if they could be useful in 
recovering value-added products from waste streams from the plant. 
Researchers at UI have developed a biodegradable sugar-based plastic 
with extraordinary water-absorbant properties for use in personal care 
products, such as disposable diapers; are effecting bio-transformations 
of agriculturally-derived byproducts to generate antioxidant food 
products, vitamin-like growth factors and flavors, such as vanillin; 
and have demonstrated the value of constructed wetlands for the 
treatment of landfill leachates.
    Question. How long has this work been under way and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $1,225,000; fiscal year 1990, $1,593,000; 
fiscal year 1991, $1,756,000; fiscal year 1992, $1,953,000; fiscal year 
1993, $2,000,000; fiscal year 1994, $1,880,000; fiscal years 1995-1996 
$1,792,000 each year; fiscal year 1997, $1,738,000; in fiscal years 
1998 through 2000, $1,564,000 each year; and in fiscal year 2001, 
$1,560,559. A total of $21,981,559 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds and sources provided for this grant were 
as follows: $623,803 from the State of Iowa, $42,813 from the city of 
Cedar Rapids in 1991; $768,287 from the State of Iowa, and $365,813 
from the city of Cedar Rapids in 1992; $858,113 from the State of Iowa, 
and $170,000 from the city of Cedar Rapids in 1993; $841,689 from the 
State of Iowa, and $36,000 from the City of Cedar Rapids in 1994; 
$1,016,505 from the State of Iowa, and $36,000 from the city of Cedar 
Rapids in 1995; $862,558 from the State of Iowa, and $40,000 from the 
City of Cedar Rapids in 1996; $1,044,864 from the State of Iowa, and 
$50,000 from the City of Cedar Rapids in 1997; $303,549 from the State 
of Iowa, and $50,000 from the City of Cedar Rapids in 1998; and 
$293,461 from the State of Iowa, and $59,400 from the City of Cedar 
Rapids in 1999. In fiscal year 2000, $377,410 was obtained from the 
State of Iowa.
    In addition, leveraging of Federal grant monies has been obtained 
in the form of industrial matching funds or contracts for related 
projects. Some of the more noteworthy awards are as follows: $20,000 
from Archer Daniels Midland; $342,720 from Ajinomoto; $40,000 from 
BASF; $18,000 from Bluestem Solid Waste Agency; $1,748,975 from 
Cargill; $177,200 from Heartland Lysine, Inc.; $48,000 from Horizon 
Technology, Inc.; $75,274 from Iowa Corn Promotion Board; $65,200 from 
Iowa Energy Center; $80,273 from National Corn Growers Association, 
$25,000 from National Pork Producers Council; and $11,500 from 
PathoGenesis Corporation.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Iowa State University and 
the University of Iowa, in collaboration with the City of Cedar Rapids. 
In addition, field studies are being conducted at various sites 
throughout Iowa, including the facilities of participating industries 
located in Cedar Rapids and other Iowa communities.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. No firm date was established to complete this research at 
the beginning of the project, and the nature and goals of the research 
have evolved over the life of the project. The Consortium was 
originally created as a partnership between the City of Cedar Rapids 
and the participating universities to assist the city in dealing with 
wastes associated with corn and oat processing and milling, involving 
bio-catalysis to produce high-fructose syrups and one of the largest 
fermentation facilities in the world. More recently, new agricultural 
biotechnology industries have been attracted to Cedar Rapids and have 
added greatly to the volume of industrial waste streams. The 
researchers continue to work closely with the City of Cedar Rapids and 
the industries generating these waste streams. While significant 
progress has been made in analyzing waste streams and in devising 
laboratory procedures for extracting useful products, commercialization 
is still needed. The City of Cedar Rapids is investing its funds in 
special waste treatment facilities to conduct large scale tests of new 
treatment methods. Several years will be required to complete these 
tests and to refine separation technologies.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The Consortium conducts a call for pre-proposals, open to 
all researchers at ISU, UI, and Cedar Rapids. Projects received from 
this call are individually peer-reviewed by researchers outside the two 
universities, who submit written comments. At ISU, a three-member panel 
made up of individuals from agricultural processing industries is 
convened to rank the projects and revise budgets based on the written 
reviews. The decisions made by this panel are used to assemble an 
overall grant application. Once the completed grant application is 
submitted to CSREES, it is again evaluated for scientific merit by an 
agency biotechnology peer panel that makes recommendations regarding 
approval for the award. The Iowa Biotechnology Consortium proposal for 
fiscal year 2001 has not yet been received, but once it is available, a 
CSREES review panel will be convened to review and evaluate the 
proposed studies in the grant application and to make recommendations 
regarding overall approval of the project. In addition, the panel will 
assess progress during the past year as a part of the approval process 
and post-award management. Also, a site visit was made by a National 
Program Leader to the research facilities of Iowa State University 
during the past year.
                       ir-4 minor crop management
    Question. Please provide a description of the research that has 
been funded under the IR-4 Minor Crop Management grant.
    Answer. The IR-4 Minor Crop Management Program is a highly-
effective effort between the State Agricultural Experiment Stations, 
CSREES, and the USDA Agricultural Research Service--ARS. The basic 
mission of IR-4 is to aid producers of minor food crops and ornamentals 
in obtaining needed crop protection products. IR-4 provides the 
national leadership, coordination, and focal point for obtaining data 
to support the regulatory clearance through the Environmental 
Protection Agency--EPA--for pesticides and biological control agents 
for specialty food crops such as fruits and vegetables as well as non-
food crops like turf and ornamentals. In many cases, the agricultural 
chemical industry can not economically justify the time and expense 
required to conduct the necessary research for products with limited 
market potential. With assistance from IR-4, registration-related costs 
are manageable, and producers of a large number of small acreage crops 
such as vegetables, fruits, nuts, herbs and other specialized crops 
have access to necessary pest control products. In order to accomplish 
the above, a four-step process has been developed. Step one involves 
research prioritization. Yearly workshops are conducted that involve 
growers, commodity organizations, university research and extension 
specialists, EPA staff, and industry representatives to determine which 
projects are the most critical to minor crop agriculture. Step two is 
research planning. Research protocols are written after careful review 
and comments from stakeholders. Step three is research implementation. 
A typical IR-4 program consists of both field and laboratory phases. 
For the field work, researchers apply the crop protection chemical to 
the target crop according to the experimental protocol. The crop is 
harvested and transferred to the laboratories where the chemical 
residues in the crop, if any, are determined. All field and laboratory 
research is conducted under EPA's Good Laboratory Practices. Step four 
is data submission and approval. The data are critically reviewed and 
formatted into a regulatory package and submitted to the EPA for their 
review. If appropriate, the EPA will approve the submission and grant a 
tolerance to use the chemical on the target minor crop.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This is a national effort which identifies needs by a 
network of users, commodity groups, and state university and Federal 
researchers. This research is highly significant to national and 
regional as well as local needs. The basic mission of IR-4 is to aid 
producers of minor food crops and ornamentals in obtaining needed crop 
protection products. IR-4 is the principal public effort supporting the 
registration of crop protection products and biological pest control 
agents for approximately $40 billion minor crop industry, representing 
40 percent of the total farm crop value in the U.S.
    Question. What was the original goal of this research and what has 
be accomplished to date?
    Answer. The goal is to obtain minor use pesticide registrations 
with a high priority placed on those pesticides classified as Reduced 
Risk, assist in the maintenance of current registrations, and to assist 
with the development and registration of biopesticides. For 2000, IR-4 
submitted 115 data packages to EPA that supported 588 new minor food 
use clearances. During the past three years, over 1,183 new minor food 
use clearance requests were submitted to IR-4 from growers, state, and 
Federal scientists and extension specialists. The Food Use part of the 
IR-4 Program continues to have a high productivity which, according to 
EPA, supports 40 percent of all EPA pesticide registrations. Since the 
program's inception in 1963, IR-4 has been granted over 5,500 food use 
clearances.
    For ornamental crops in 2000, IR-4 obtained 1,155 pesticide 
clearances which included 29 biopesticide uses on ornamental. Since 
1977, IR-4 has assisted with the registration of over 8,800 crop 
protection chemicals and biological pest control agents on nursery 
stock, flowers, and turf grass. The ornamental industry accounts for 
over 25 percent or $12 billion of the total minor crop value in the 
U.S. Biopesticides have been an important IR-4 thrust since 1982. EPA 
granted 56 IR-4-supported biopesticide food use clearances in 2000.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001.
    Answer. Grants have been awarded from appropriated funds as 
follows: Program redirection in fiscal year 1975, $250,000; fiscal year 
1979, $500,000; fiscal years 1976-1980, $1,000,000 per year; fiscal 
year 1981, $1,250,000; fiscal years 1982-1985, $1,400,00 per year; 
fiscal years 1986-1989, $1,369,000 per year; fiscal year 1990, 
$1,975,000; fiscal year 1991, $3,000,000; fiscal years 1992-1993, 
$3,500,000; fiscal year 1994, $6,345,000; fiscal year 1995 through 
1997, $5,711,000 per year; fiscal years 1998 through 2000, $8,990,000 
per year; and fiscal year 2001, $8,970,222. A total of $89,469,222 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $891,856 state appropriations and $65,402 industry in 
1991; $1,002,834 state appropriations and $104,292 industry in 1992; 
$1,086,876 state appropriations and $310,133 industry in 1993; $550,160 
state appropriations, $408,600 industry, and $924,169 miscellaneous in 
1994; $775,432 state appropriations, $266,714 industry, and $751,375 
miscellaneous in 1995; and an estimated $800,000 state appropriations, 
$250,000 industry, and $800,000 miscellaneous in each years of 1996 
through 2000. This is a total of $16,387,843 from fiscal year 1991 
through 2000.
    Question. Where is this work being carried out?
    Answer. Field work is performed at the State and Territorial 
Experiment Stations. Laboratory analysis is conducted primarily at the 
California, New York, Florida, and Michigan Agricultural Experiment 
Stations with assistance by the Puerto Rico, Hawaii, North Dakota, 
North Carolina, Washington, Virginia, and Idaho Agricultural Experiment 
Stations. Field Research Centers located in Hawaii, Oregon, Washington, 
California, Wisconsin, Michigan, North Dakota, South Dakota, North 
Carolina, Florida, Tennessee, Texas, New Jersey, New York, Maryland, 
and New Hampshire conduct the field residue program. Protocol 
development, data assimilation, writing petitions and registration 
processing are coordinated through the New Jersey Agricultural 
Experiment Station. ARS is conducting minor use pesticide studies at 
field locations in California, Georgia, Ohio, South Carolina, Texas, 
and Washington. ARS laboratories in Georgia, Maryland, and Washington 
are cooperating with analyses.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. IR-4 is involved in research on biological systems that by 
their nature are ever changing and presenting new challenges to 
agriculture. The IR-4 workload is anticipated to be long term because 
of public sensitivities regarding food safety and the environment, and 
the eventual loss of a large number of conventional pesticide 
registrations for minor crops because of the 1996 Food Quality 
Protection Act--FQPA. FQPA presents a serious challenge to minor crop 
pest management. It is estimated that there will be significant loss of 
conventional pesticide registrations for minor crops. IR-4 has 
developed a strategy to minimize the impact of loss of the critical 
pest control tools needed by our domestic minor crop growers. The IR-4 
strategy involves the following factors: (1) facilitating regulatory 
clearance of Reduced Risk pesticides for minor crops; (2) when 
appropriate, develop risk mitigation measures for existing minor use 
registrations; (3) assist with the registration of biologically-based 
pest control products for minor crops; and (4) register and maintain 
pesticides essential to integrated pest management systems.
    With the implementation of the 1995 Strategy Plan, IR-4 has 
achieved significant accomplishments. Since FQPA requires that EPA 
review all of the nearly 10,000 tolerances by 2006, it is anticipated 
that the IR-4 program will have a significant challenge to help bring 
new crop protection solutions to minor crop growers well into this 
century.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Each year the grant applications are peer reviewed and 
reviewed by CSREES senior scientific staff. A summary of those reviews 
indicate excellent progress in achieving the objective of providing 
safe pest controls for minor uses. In December 1997, CSREES sponsored a 
peer review of the project by a panel chaired by a retired 
Administrator of USDA-ARS and representatives from USDA, EPA, commodity 
groups, the food processing industry, the crop protection industry and 
the land grant university system. A report was issued January 1998. The 
report covered the areas of response to FQPA, project operations, 
accomplishments, good laboratory practices, the ARS companion program, 
and future outlook with specific recommendations for each area. The 
review panel was ``in unanimous agreement that IR-4 is a very 
successful program which serves an important need to producers of 
agricultural products for ultimate consumption by the American public. 
The program is effectively and efficiently administered by a dedicated 
professional staff.'' The goal in 2000 and beyond will be to build on 
this basis and fully implement the recommendations of the panel. This 
review and previous reviews have resulted in significant improvement in 
the IR-4 program's productivity and quality of research. Additionally, 
the customers served by IR-4 have provided input to the program to 
enhance its effectiveness.
          jointed goatgrass--aegilops cylindricum, washington
    Question. Please provide a description of the research that has 
been funded under the Jointed Goatgrass, Washington grant.
    Answer. Research is conducted by about 30 scientists in 10 western 
and mid-western states on systems for suppression of jointed goatgrass 
in winter wheat production systems. Research includes integrated 
cultural management, reduction of seed in the soil, identification of 
more competitive wheat varieties and crop rotations, and best 
management practices projects. These projects demonstrate to wheat 
producers the integrated system for managing jointed goatgrass and show 
how to determine the most effective and efficient way to introduce 
herbicide-resistant wheat into the integrated system. The premier 
research projects continue to be four regional, long-term integrated 
management studies conducted across nine states. In these studies, 
various cultural control practices such as seeding rates, row spacing, 
planting dates, seed size, competitive varieties, fertilizer placement, 
crop rotations, and tillage practices are being evaluated as an 
integrated management system for the suppression of jointed goatgrass. 
Research is also being conducted on soil conditions responsible for 
persistence of jointed goatgrass in the soil seedbank, timing and 
intensity of tillage on seed persistence in the soil, gene flow between 
wheat and jointed goatgrass, identification of crop traits making wheat 
more competitive against jointed goatgrass and modeling on how 
agronomic practices affect herbicide-resistance in jointed goatgrass. 
All funded projects have a technology transfer component and a national 
extension coordinator who insures that growers and extension personnel 
are fully informed about all options for managing this devastating 
weed. The National Extension Coordinator is housed at Washington State 
University.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Jointed goatgrass infests nearly five million acres of 
winter wheat lands in the west and mid-west. Through the efforts of the 
national program, the rate of spread of this weed has decreased 
significantly in the past five years. However, jointed goatgrass still 
costs wheat producers in the U.S. an estimated $145 million annually in 
lost yield, reduced quality, production of less profitable crops, 
increased management costs, and reduced land values. Control of jointed 
goatgrass in a standing wheat crop is impossible with currently 
available technology because seed survives in the soil for five years 
or more. Because jointed goatgrass is genetically related to wheat, 
there are no herbicides currently available that will control jointed 
goatgrass selectively in wheat. Jointed goatgrass has increased rapidly 
in the past 25 years in part because of widespread adoption of 
conservation tillage systems. Jointed goatgrass proliferated in such 
systems, and it greatly impeded the universal adoption of such reduced 
tillage. The principal investigator and the National Association of 
Wheat Growers believe this research is of high national and regional 
importance.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this project is to reduce the devastating 
effect of jointed goatgrass on winter wheat production and quality, and 
to prevent the spread of this weed into new, non-infested areas. 
Numerous individual cultural control practices have been evaluated in 
several states as to their effectiveness for the suppression of jointed 
goatgrass and on the growth and yield of wheat. Four regional, long-
term integrated management projects have been established where three 
or more individual cultural control practices have been combined into 
an integrated management system for the suppression of jointed 
goatgrass in winter wheat. Results from these projects show that 
combining three or more individual cultural control practices into an 
integrated management system will suppress jointed goatgrass and 
improve the yield and quality of winter wheat. Significant progress has 
been made in understanding gene flow between wheat and jointed 
goatgrass. This information will be very valuable in managing the 
introduction of herbicide-resistant wheat for the control of jointed 
goatgrass. A bioeconomic model has been constructed that combines 
jointed goatgrass population biology information, weather data, and 
responses of jointed goatgrass and wheat to various cultural control 
practices, and predicts wheat yields, response of jointed goatgrass, 
and economic outcomes from changing production practices. In 2000, two 
regional best management practices projects were initiated to 
demonstrate to wheat producers the integrated systems approach for 
managing jointed goatgrass and to determine the most effective and 
efficient way to introduce herbicide-resistant wheat into the 
integrated system. In 1999, a symposium on jointed goatgrass was held 
as part of the Western Society of Weed Science meetings. At this 
symposium, ten papers were presented outlining the latest research and 
technology transfer activities of this national program. Information 
presented at this symposium was used to establish new priorities for 
this program and to guide the program for the next five years. Since 
1994, six regional symposia have been held to transfer to producers and 
extension personnel the latest information on the identification, 
biology, and management of jointed goatgrass in winter wheat. A World 
Wide Web site has been established and updated annually to further 
enhance information transfer. Summaries of annual progress reports are 
also posted on the website. Also, a videotape, a poster, and a slide 
set have been produced to assist extension personnel in transferring to 
producers information on jointed goatgrass biology and management.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1994. 
The appropriation for fiscal year 1994 was $329,000; for fiscal years 
1995-1997, $296,000 each year; $346,000 for fiscal year 1998; $360,000 
each year in fiscal years 1999 through 2000; and $359,208 in fiscal 
year 2001 bringing the total appropriations to $2,642,208.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds provided for this grant were as 
follows: for 1994, $82,198 state appropriations, $82,256 from industry, 
and $14, 871 miscellaneous; for fiscal year 1995, $67,442 state 
appropriations, $38,496 from industry, $13,304 miscellaneous; for each 
fiscal year 1996-1997, an estimated $70,000 state appropriations, 
$50,000 from industry, and $14,000 miscellaneous; for 1998, $231,335 
state appropriations, $42,570 from state wheat commissions, and $15,000 
miscellaneous; for fiscal years 1999 and 2000, $258,122 state 
appropriations, $87,750 state wheat commissions, and $72,100 
miscellaneous. The total of non-Federal funds has been $1,691,416.
    Question. Where is this work being carried out?
    Answer. The research is being conducted by university scientists in 
10 western states that have serious jointed goatgrass infestations. 
These universities include Washington State University, which is the 
principal coordinating institution and which receives the grant, and at 
universities in Colorado, Kansas, Nebraska, Oklahoma, Utah, Oregon, 
Idaho, Montana, and Wyoming.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project was initiated to accomplish significant results 
in six years, and significant accomplishments have been made. However, 
the jointed goatgrass problem will require four more years to 
accomplish all of the objectives and to have effective management 
practices available for producers to control jointed goatgrass in 
winter wheat.
    Question. When was the agency evaluation of this project? Provide a 
summary of the last evaluation.
    Answer. Each year the sub-projects are peer reviewed for scientific 
merit and adherence to the program objectives by a panel of scientists 
and producers. CSREES's scientific staff reviews the overall grant 
annually. Sub-contract grants to the various universities are awarded 
using a peer review process coordinated by Washington State University.
             livestock and dairy policy, new york and texas
    Question. Please provide a description of the research that has 
been done under the Livestock and Dairy Policy, New York and Texas 
grant?
    Answer. The purpose of this grant is to assess the possible 
economic impacts on the U.S. livestock and dairy sectors from various 
macroeconomic, farm, environmental, and trade policies and new 
technologies. Both Cornell University and Texas A&M University conduct 
analysis of these policies and disseminate the information to 
policymakers, farmers, and agribusinesses. Cornell focuses on sector-
level dairy policies, and Texas A&M focuses on policies affecting 
livestock and dairy at the farm level.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Information on the implications of new and alternative 
farm, trade, and macroeconomic policies affecting the livestock and 
dairy sectors is of special interest to policy-making officials, 
farmers, and others. Such information enables farmers and 
agribusinesses to make necessary adjustments to their operations to 
enhance profitability and for national public officials to consider 
alternatives to sustain adequate supplies and minimize costs. The 
principal researchers believe this research to be of national, 
regional, and local significance.
    Question. What was the original goal of this research and what has 
been done to date?
    Answer. The original goal was to establish a specialized research 
program that could provide timely and comprehensive analysis of 
numerous policy and technological changes affecting livestock and dairy 
farmers and agribusinesses and advise them and policymakers promptly of 
possible outcomes. This goal has been achieved, and the program 
continues to provide timely assessments and evaluations of provisions 
and proposed changes in agricultural policies, the General Agreement on 
Tariffs and Trade, and the North American Free Trade Agreement; various 
income and excise tax measures; and alternative pricing measures for 
milk. The institutions were integrally involved in several current 
studies relating to dairy provisions in the 1996 farm legislation. 
These studies contributed significantly to the development of proposed 
regulations called for in this legislation. Both institutions maintain 
extension outreach programs to disseminate results of their analysis 
throughout the U.S. They have organized a national Dairy Markets and 
Policy Extension committee to advise and assist them in this effort. 
This latter committee was especially helpful to USDA in educating 
farmers about proposed milk marketing order changes last year.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $450,000; fiscal year 1990, $518,000; fiscal 
years 1991-1993, $525,000 per year; fiscal year 1994, $494,000; fiscal 
years 1995-1998, $445,000 each year; fiscal years 1999 through 2000, 
$475,000 each year; and fiscal year 2001, $568,746. A total of 
$6,335,746 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $37,420 State appropriations in 1991; $162,086 State 
appropriations and $133,278 product sales for a total of $295,364 in 
1992; $301,817 State appropriations, $1,412 industry, and $7,121 
miscellaneous for a total of $310,350 in 1993; $24,702 State 
appropriations and $5,961 industry for a total of $30,663 in 1994; 
$235,526 State appropriations for 1995; $250,000 in State 
appropriations for 1996; and approximately $245,000 in State funding 
for 1997 and 1998.
    Question. Where is this work being carried out?
    Answer. The research is being conducted at Cornell University and 
Texas A&M University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This program is of a continuing nature for the purpose of 
assessing existing issues and proposed policy changes affecting the 
livestock and dairy industries.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. No formal evaluations of this project have been conducted. 
Annual proposals for funding, however, are peer reviewed for relevance 
and scientific merit. CSREES staff are also in regular contact with 
principal researchers at each institution to discuss progress toward 
project objectives. Discussions with congressional staff and USDA 
policy makers support the usefulness of policy analysis provided by 
this project.
                   lowbush blueberry research, maine
    Question. Please provide a description of the research that has 
been funded under the Lowbush Blueberry Research, Maine grant.
    Answer. Interdisciplinary research is being conducted on many 
aspects of lowbush blueberry culture and processing including 
investigations into factors affecting processing quality; biological 
control of insect pest; sustainable pollination, weed, disease, and 
fertility management; cold heartiness; and group water protection.
    Question. According to this research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Maine produces 99 percent of all lowbush blueberries or 33 
percent of all the blueberries in the U.S. This work has major local 
impact, and helps maintain the continued availability and high quality 
of this native fruit commodity.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original research goal was to provide answers to unique 
lowbush blueberry production, pest, and processing problems. Research 
to date indicates that the field sanitizer was able to use heat to 
control insect pests without adversely affecting plant growth, while 
providing a non-chemical alternative for pest management. Biological 
control agents were used to control fireworms. Lowbush blueberry yields 
were increased by use of native and alfalfa leafcutter bees. Mechanical 
harvesting was found to be effective and produced equivalent yields and 
fruit quality when compared to hand harvest, resulting in growers 
having a more efficient harvesting method for blueberries. Products for 
the use in food industry are being extracted from cull berries, 
therefore, improving utilization, economics in processing, and reducing 
waste.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1990, $170,000; fiscal year 1991, $202,000; fiscal 
years 1992 and 1993, $185,000 per year; fiscal year 1994, $208,000; 
fiscal years 1995 to 2000, $220,000 per year; and in fiscal year 2001, 
$259,428. A total of $2,529,428 has been appropriated to date.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Direct industry support was about $65,000 per year from 
fiscal years 1996 to 2001.
    Question. Where is this work being carried out?
    Answer. Research is being carried out at the University of Maine.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives have not yet been met. The 
University of Maine researchers estimate that the project will be 
concluded at the end of fiscal year 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The last agency merit review of this project was January 
2000. Research accomplishments included: investigations of post 
emergence; grass specific herbicides to control weeds rather than the 
use of broad spectrum; timing of fertilization treatments; and 
comparisons of various fertilizer combinations have indicated that 
fertilizers containing nitrogen increase yields. Other research 
accomplishments include the insect management of blueberry maggots 
through behavioral control and the use of less toxic chemicals from 
control of blueberry flea beetles.
                        maple research, vermont
    Question. Please provide a description of the research that has 
been funded under the Maple Research, Vermont Grant?
    Answer. The research aims to determine the sources of heavy metals 
and other substances accidentally introduced into maple sap and syrup, 
and to explore methods to reduce or eliminate contaminants through 
modification of maple sap collection and syrup manufacturing equipment 
and through changes in production techniques.
    Question. According to the research proposal, or the principal 
researchers, what is the national, regional, or local focus for this 
research?
    Answer. Maple plays a substantial role in the cultural heritage of 
areas which produce syrup. Syrup is the first agricultural crop of the 
year in these areas, and provides a significant source of income to 
rural America during a season when other agricultural practices are 
inactive. Identifying sources of processing contaminants and finding 
ways to reduce contaminants is critical in assuring consumers that 
maple food products are not harmful.
    Question. What was the original goal of this research and what has 
been accomplished?
    Answer. The goal of this research project is to conduct 
investigations on maple tree physiology, the ecology and management of 
maple stands, and related aspects of the maple syrup industry in 
Vermont and throughout the northeast. The primary goal of this work has 
been to identify sources of lead and other contaminants of maple syrup 
and to determine ways to reduce these contaminants.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Work under this project began in fiscal year 1985. Annual 
appropriations in support of this project are as follows: fiscal year 
1985--$100,000; fiscal years 1986 and 1987--$95,000 per year; fiscal 
years 1988 and 1989--$100,000 per year; fiscal years 1990 through 
1993--$99,000 per year; fiscal year 1994--$93,000; fiscal years 1995 
through 1997--$84,000 each year; fiscal years 1998 through 2000--
$100,000 per year; and fiscal year 2001, $118,738. This sums 
$1,649,738.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal years?
    Answer. Non-Federal fiscal support for this project is provided by 
two primary sources and one secondary source. The primary sources are 
state appropriations and product sales. The secondary source is local 
support and national maple industry support, however that support is 
not available each year. The total non-Federal contribution from these 
sources provides an average ratio of .86 to 1. The low ratio was .6 to 
1 early in the project. More recently the ratio has been 1.1 to 1.
    Question. Where is this work being carried out?
    Answer. This research is being conducted at the Proctor Maple 
Research Center, a field station of the Vermont Agricultural Experiment 
Station at the University of Vermont.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The work from this project, relative to maple tree 
physiology and management of maple stands has been completed. 
Identifying the sources of heavy metals and other contaminants in maple 
sap and syrup, as well as research determining the best and most cost-
effective way to reduce contamination is ongoing with as anticipated 
completion date of 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Project proposals and progress reports are reviewed and 
evaluated annually by USDA. Satisfactory progress has been made on tree 
physiology and maple tree--sugar bush--management. Work on identifying 
sources and controlling contaminants of maple products is progressing 
and is being monitored by the agency.
                           meadowfoam, oregon
    Question. Please provide a description of the research that has 
been funded under the Meadowfoam, Oregon grant.
    Answer. This funding was used for genetics and biotechnology 
research directed towards increasing the productivity of the oilseed 
crop meadowfoam. This crop is grown as a source of oil for chemical, 
cosmetic, and personal care product industries. The research has 
focused on the development of genetically and agronomically-superior 
varieties for farmers, processors, and end users. The proposal will be 
internally and externally reviewed for scientific merit. This research 
will be reviewed by state and Federal scientists and administrators for 
merit and progress.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This research fills the need for the development of 
renewable sources of industrial chemicals and of new rotation crops for 
agriculture. This research is needed to create a more abundant and 
inexpensive supply of meadowfoam oil for the chemical industry. The oil 
produced by meadowfoam has unique physical and chemical properties that 
are being exploited by the chemical industry to develop a wide range of 
chemical feedstocks and end products. Meadowfoam can be grown on wet 
soils, a rarity, and is widely used by turf and forage seed producers 
as a rotation crop in grass seed production fields. The development of 
agronomically-superior varieties is needed to increase on-farm 
productivity, grower profits, and the supply of meadowfoam oil.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original long range goal of this research was to 
increase the productivity of meadowfoam as an oilseed crop for farmers. 
This research had led to the development of new varieties, Wheeler and 
OMF164, that out-yield previous varieties and state of the art tools 
for genetically manipulating economically-important traits, for 
example, chemical composition of the oil, insect resistance, and oil 
yield. Wheeler was officially released to the seed industry in 2000. 
OMF164 is scheduled for release to the seed industry in 2001. 
Significant progress has been made on the development of molecular 
tools and a genome map for increasing selection efficiency and 
precision and gaining an understanding of the genetics of economically-
important traits.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in 1999 and the 
appropriation for fiscal years 1999 through 2000 is $300,000 per year, 
and for fiscal year 2001 is $299,340. A total of $899,340 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Oregon State University is providing $60,781 in matching 
funds.
    Question. Where is this work being carried out?
    Answer. The research is being carried out in field, greenhouse, and 
laboratory facilities at Oregon State University, Corvallis, Oregon.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional and related objectives?
    Answer. The anticipated completion date for the original objectives 
is June 2001. The project start date was July 1, 1999. The original 
objectives have been met or will be met by June 2001, and significant 
progress has been made towards additional and related objectives. The 
latter should be met by June 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Evaluation of this project is conducted annually based on 
the annual progress report and discussions with the principal 
investigator as appropriate. The evaluation is conducted by the 
cognizant staff scientist who has determined that research to date is 
in accordance with the mission of the agency.
                   michigan biotechnology consortium
    Question. Please provide a description of the work that has been 
funded under the Michigan Biotechnology Consortium grant.
    Answer. The objective of the Consortium's research program is to 
develop bioprocessing technology to manufacture products from 
agricultural raw materials; to increase the utilization of agricultural 
raw materials; reduce agricultural surpluses; degrade agricultural and 
associated wastes, thereby decreasing environmental costs of 
agricultural products and processes; and to reduce the need to import 
foreign petroleum.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that the development of 
value-added products from agricultural raw materials will increase 
their utilization, reduce commodity surpluses and environmental costs, 
and decrease the need for foreign petroleum thus contributing 
significantly to local, regional, and national priorities.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this research is to select and develop market-
viable technologies for the production of industrial products from 
agricultural raw materials. The Consortium has used funding from the 
Special Grants program to develop technologies now in the marketplace. 
Examples include production of lactic acid from corn which resulted in 
the building of a $200 million plant in Nebraska. Agricultural 
resources were used as a feedstock for plant growth formulations that 
enhance productivity and reduce plant stress; biodegradable plastic 
resins for compostable films used in lawn and leaf litter bags; 
agricultural mulch films and other soluble films; biodegradable plastic 
resins for injection molded products such as disposable cutlery; all-
natural food flavors; calcium magnesium acetate deicer; and 
biodegradable adhesives. The byproduct of cheese production--whey--was 
used to produce high-quality, high-value optically-pure chiral 
intermediates for pharmaceuticals and agrochemicals.
    A sand/manure separation system for dairy farms was developed to 
cost-effectively separate manure from sand and recycle both components. 
Numerous enzymes have been characterized and are now in use to provide 
value added modifications in the processing of agricultural products. 
Improved methods to clean up herbicides, pesticides, and other 
agricultural materials have been developed.
    Special grant funding in fiscal year 2000 allowed the Consortium to 
develop high value animal feeds from agricultural residues; 
biodegradable paint/rust removers; biobased polymers for medical, 
electronic, and environmental applications; naturally-occurring 
bioactive compounds and biocontrol agents; and methods to improve the 
economics of ethanol production by producing high value co-products. 
Funding also supported a technology transfer program that brought 
researchers from over 30 land grant universities, Federal laboratories, 
and Departments of Agriculture together with Consortium researchers to 
review numerous commercially-promising biobased agricultural 
technologies.
    Question. How long has this work been under way and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $1,750,000; fiscal year 1990, $2,160,000; 
fiscal year 1991, $2,246,000; fiscal years 1992-1993, $2,358,000 per 
year; fiscal year 1994, $2,217,000; fiscal year 1995, $1,995,000; 
fiscal years 1996 and 1997, $750,000 per year; fiscal years 1998 
through 2000, $675,000 per year; and fiscal year 2001, $723,405. A 
total of $19,332,405 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds provided for this grant were as 
follows: $1,750,000--State of Michigan, $160,000--industry, and 
$1,000,000 from miscellaneous in 1991; $1,750,000--State of Michigan, 
$175,000--industry, and $1,000,000 from miscellaneous in 1992; 
$1,750,000--State of Michigan and $100,000 from industry in 1993; 
$1,750,000--State of Michigan, $175,000--industry, and $100,000 from 
miscellaneous in 1994; $200,000--State of Michigan and $2,035,000 from 
industry in 1995; $1,250,000--State of Michigan, $350,000--industry, 
and $6,000,000 from miscellaneous in 1996; $402,500--industry and 
$10,000,000 from miscellaneous in 1997; $500,000--State of Michigan and 
$1,060,000 from industry in 1998; $1,400,000--State of Michigan and 
$1,356,000 from industry in 1999; and $1,500,000 from industry in 2000. 
A total of $35,763,500 has been provided to support this work by non-
Federal sources.
    Question. Where is this work being carried out?
    Answer. The research is being conducted on the campus of Michigan 
State University and at the Michigan Biotechnology Institute 
International. Demonstrations of technology occur throughout the U.S.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Consortium reports specific milestones for technology 
development over a five-year period. Specific milestones for 
technologies which will be commercialized in fiscal year 2001 were 
established in fiscal year 1997 and updated annually. The Consortium 
has been successful in effectively closing the gap between research and 
commercialization within each five-year period.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The Michigan Biotechnology Institute was evaluated for 
scientific merit by an agency peer review panel on April 17, 2000. The 
panel recommended approval of the project pending receipt of 
supplemental information on administrative aspects of the project. The 
supplemental information was received, and the agency is satisfied that 
the program is being administered in compliance with the purpose of the 
grant. A merit review panel will be convened to re-evaluate the project 
upon receipt of a proposal for fiscal year 2001.
         midwest advanced food manufacturing alliance, nebraska
    Question. Please provide a description of the research that has 
been funded under the Midwest Advanced Food Manufacturing Alliance, 
Nebraska grant.
    Answer. The stated purpose of the Midwest Advanced Food 
Manufacturing Alliance is to expedite the development of new 
manufacturing and processing technologies for food and related products 
derived from U.S.-produced crops and livestock. The Alliance involves 
research scientists in food science and technology, food engineering, 
nutrition, microbiology, computer science, and other relevant areas 
from 12 leading midwestern universities and private sector researchers 
from numerous U.S. food processing companies. Specific research 
projects are awarded on a competitive basis to university scientists 
with matching funds from non-Federal sources for research involving the 
processing, packaging, storage, and transportation of food products. 
Projects selected for funding are merit reviewed by non-participating 
university scientists, industry scientists, and scientists from 
professional organizations. Close cooperation between corporate and 
university researchers assure that the latest scientific advances are 
applied to the most relevant problems and that solutions are 
efficiently transferred and used by the private sector.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
project?
    Answer. The principal researcher believes the food manufacturing 
industry is the number one manufacturing industry in the midwestern 
region and that opportunities for trade in high-value processed food 
products will grow exponentially on a worldwide basis. The Alliance is 
positioned to fill the void in longer range research and development 
for the food industry. Though the focus is regional, it is anticipated 
that impacts may also be local and national.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal was to expedite the development of new 
manufacturing and processing technologies for food and related products 
derived from U.S.-produced crops and livestock. This is accomplished by 
conducting a research proposal competition among faculty from the 12 
participating universities to fund research projects where matching 
funds are available from industry. Proposals are reviewed for 
scientific merit by independent scientists, and final selection of 
projects includes consideration of industrial interest and commitment 
on non-Federal matching funds.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1994. 
The appropriation for fiscal year 1994 was $470,000; for fiscal years 
1995-2000, $423,000 each year; and fiscal year 2001, $460,984. A total 
of $3,468,984 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. Industry matching funds were $823,148 in fiscal year 1994; 
$414,164 in fiscal year 1995; $576,600 in fiscal year 1996; $429,579 in 
fiscal year 1997; $557,549 in fiscal year 1998; and $490,496 in fiscal 
year 1999. Information on non-Federal funds for fiscal years 2000 and 
2001 are not available at this time.
    Question. Where is this work being carried out?
    Answer. The work is being coordinated by the Nebraska Agricultural 
Experiment Station at Lincoln. Specific research projects are also 
being conducted at eight other universities that are part of the 
Alliance.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The overall objectives of the Alliance are ongoing. Funding 
supports the continuing and evolving needs and opportunities for foods 
manufactured and processed from U.S.-produced crops and livestock. Nine 
projects were funded from fiscal year 1998 funds with anticipated 
completion and final reports due by May 31, 2000. Reports from 1998 
funded projects indicate that substantial progress has been made in the 
direction of expediting the development of new manufacturing and 
processing technologies. Eleven projects were funded from fiscal year 
1999 funds with anticipated completion and final reports due by May 31, 
2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An agency science specialist conducts a merit review of the 
proposal submitted in support of the appropriation on an annual basis. 
A review of the proposal for fiscal year 2000 was conducted on May 24, 
2000.
                  midwest agricultural products, iowa
    Question. Please provide a description of the research that has 
been done under the Midwest Agricultural Products, Iowa program.
    Answer. The Midwest Agribusiness Trade Research and Information 
Center does applied research to improve the global competitiveness and 
marketability of agricultural products produced in the Midwest and 
disseminates the results to small and medium-sized agribusinesses. 
Projects include analyses of potential international markets for U.S. 
agricultural products and equipment/technology; attitudes of foreign 
consumers; and development of new/improved U.S. products to meet 
foreign needs. The overall project proposal was peer reviewed at the 
university level, and individual research activities are reviewed by 
the principal investigator and other faculty.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that agribusiness firms 
in the United States, especially small to medium-sized firms, have a 
large unrealized potential to expand export sales and foreign business 
ventures. These untapped opportunities exist in the Pacific Rim and in 
emerging markets such as Mexico, China, and Eastern Europe. The 
reluctance of small to medium-sized firms to explore these market 
opportunities is, in part, due to the high cost of market information 
and analysis and the perceived high risk of doing business in new 
markets. This project meets the needs of these firms at the local, 
regional, and national level.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal is to enhance the exports of agricultural 
commodities, value-added products, and equipment produced by Midwestern 
agribusiness firms by providing research and educational programs as 
well as assistance to individual firms. Recent research has analyzed 
the impact of several international developments on U.S. Exports: 
Berlin Accord Reforms; development of Chinese agriculture and potential 
for exports of agricultural products and agricultural and processing 
equipment; comparative advantage of Argentina in corn, soybean, wheat, 
sunflower, beef, and pork production; and Central and Eastern Europe 
accession to the European Union. A ``Port of Des Moines'' study 
examined the potential for developing a U.S.-Canada-Mexico trade 
corridor along I-35 as a means of facilitating north-south trade and 
creating business opportunities in the central Midwest region. In 
total, over 20 research papers were prepared in 1999. The primary 
audience is small- to medium-sized agribusiness firms because they 
often lack the resources to conduct studies or acquire sufficient 
marketing information necessary for international trade.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1992. 
The appropriation for fiscal years 1992-1993 was $700,000 per year; 
fiscal year 1994, $658,000; fiscal years 1995-2000, $592,000 per year; 
and fiscal year 2001, $644,579. A total of $6,254,579 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $185,495 State appropriations and $373,897 industry for 
a total of $559,392 in 1992; $183,192 State appropriations and $318,966 
industry for a total of $502,158 in 1993; $127,948 State appropriations 
and $500,394 industry for a total of $628,342 in 1994; $258,053 State 
appropriations and $389,834 industry for a total of $647,887 for 1995; 
$165,425 State appropriations for 1996; $162,883 State appropriations 
for 1997; $143,850 State appropriations and $51,384 industry for a 
total of $195,234 in 1998; $72,934 State appropriations and $45,860 
industry for a total of $118,794 in 1999; and $76,563 State 
appropriations in 2000. Industry contributions were not reported for 
1996, 1997, and 2000.
    Question. Where is the work being carried out?
    Answer. The program is carried out by Iowa State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1992 was for a period of 24 
months. However, the objective of expanding the export capacity of 
small to medium-sized agribusiness firms is an ongoing regional and 
national concern. The current phase of the program will be completed in 
2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed a merit review of the project in April 
2000, as it evaluated the project proposal for 2000, and concluded 
that: ``The project has sound objectives and procedures that are 
helping agribusiness effectively expand markets for U.S. agricultural 
products leading to a highly competitive agricultural production system 
and enhanced economic opportunity for Americans. The principal 
investigators are well recognized for their leadership in this area.''
                       milk safety, pennsylvania
    Question. Please provide a description of the research that has 
been funded under the Milk Safety, Pennsylvania grant.
    Answer. The overall goal of the milk safety program is to provide 
insight into factors that help ensure an adequate and safe milk supply. 
The research has focused on factors that affect milk production, 
processing, manufacturing, and consumption. Special attention has been 
given to ways of preventing and/or treating pathogens that enter the 
milk supply. Projects are selected for funding each year based on 
competitive, peer reviews by scientists outside the recipient 
institution. The fiscal year 2000 grant is supporting research through 
June 30, 2001. A research proposal in support of fiscal year 2001 
appropriations has been requested.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The question of microbial safety is of paramount interest 
to the milk/dairy industry at all levels. Dairy products have been 
associated with several large outbreaks of staphylococcal food 
poisoning. Coagulase negative Staphylococcus infections are one of the 
most common intramammary infections of dairy cattle, and bovine 
mastitis, the most important infectious disease affecting the quality 
and quantity of milk produced in the Nation, costs producers an average 
$180 per cow per year. Listeria monocytogenes is present in about four 
percent of raw milk and has the potential to grow to dangerous levels 
during refrigerated storage, making pasteurization critical in 
preventing foodborne illnesses from this organism. The population of 
infants, elderly, and immunosuppressed individuals at risk for 
Listeriosis in the U.S. continues to grow rapidly. Understanding the 
growth of Listeria will provide pathways to minimize the occurrence of 
food poisoning related to milk and dairy products. Pathogenic E. coli 
species, including E. coli O157:H7, are of public health concern. For 
products which receive minimal thermal processing or which may be 
preserved primarily by acidification, development of additional means 
of controlling the growth of these foodborne pathogens is of critical 
importance in guaranteeing a safe milk supply. Ensuring safety of dairy 
products impacts not only consumer health and confidence in the safety 
of the food supply, but economic viability as well.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The research is aimed at minimizing or eliminating future 
foodborne disease outbreaks from milk and dairy products. Researchers 
demonstrated that when subjected to a sublethal heat shock prior to 
pasteurization, Listeria monocytogenes becomes much more heat-resistant 
than previously thought, likely requiring the design of new 
pasteurization guidelines to ensure the safety of dairy products. A 
simple, fast, sensitive, specific and inexpensive method was developed 
for the detection of Listeria monocytogenes in dairy products that will 
allow dairy processors to rapidly and easily screen for the presence of 
this pathogen in their products and in the processing environment. A 
computer model of pathogenic growth in dairy products has been 
developed for common pathogens in specific products. These predictive 
models are valuable risk assessment and Hazard Analysis and Critical 
Control Point--HACCP--implementation tools for milk/dairy industry. It 
is estimated that Staphylococcus aureus is responsible for nearly one-
third of all food poisoning in the U.S., and this illness results from 
the ingestion of Staphylococcal toxins. Researchers have identified 
potential approaches for enhancing natural defense mechanisms of the 
bovine mammary gland through vaccination and immunoregulation. 
Discoveries of factors influencing growth of Staphylococcus aureus are 
being used to prevent or contain growth of this pathogen in foods.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded for milk consumption and milk 
safety from funds appropriated as follows: fiscal years 1986 through 
1989, $285,000 per year; fiscal year 1990, $281,000; fiscal year 1991, 
$283,000; fiscal year 1992, $284,000; fiscal year 1993, $184,000; 
fiscal years 1994-1998, $268,000 per year; fiscal year 1999, $250,000; 
fiscal year 2000 $297,500; and fiscal year 2001, $374,175. A total of 
$4,433,675 has been appropriated for milk safety.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The University estimates that non-Federal funds contributed 
to this project include the following costs and salaries: $265,000 for 
fiscal year 1991; $224,700 for fiscal year 1992; $142,600 for fiscal 
year 1993; $252,168 for fiscal year 1995; $621,903 for fiscal year 
1998; $460,423 for fiscal year 1999; and $265,168 for fiscal year 2000. 
No data available for fiscal years 1994, 1996, and 1997.
    Question. Where is the work being carried out?
    Answer. The research is being conducted at the Pennsylvania State 
University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The researchers anticipate that research supported by this 
grant should be concluded in 2002. Continuing and evolving needs 
related to the safety of milk and dairy products are expected to reveal 
new related objectives.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An agency science specialist conducts a merit review of the 
proposal submitted in support of the appropriation on an annual basis. 
The proposal supporting the fiscal year 2000 appropriation was reviewed 
on May 25, 2000, and the agency science specialist concluded that the 
projects addressed important issues related to safety of milk and dairy 
products, were scientifically sound, and that satisfactory progress was 
being demonstrated using previously awarded grant funds.
                         minor use animal drugs
    Question. Please provide a description of the research that has 
been funded under the Minor Use Animal Drug grant.
    Answer. The National Agricultural Program to Approve Animal Drugs 
for Minor Species and Uses--NRSP-7--was established to obtain the Food 
and Drug Administration--FDA--approval of animal drugs intended for use 
in minor species and for minor uses in major species. The objectives of 
the program are to identify the animal drug needs for minor species and 
minor uses in major species; generate and disseminate data for the 
safe, effective, and legal use of drugs used primarily in therapy or 
reproductive management of minor animal species; and facilitate the FDA 
in obtaining approvals for minor uses. Studies are conducted to 
determine efficacy, target animal safety, human food safety, and 
environmental safety. The shortage of drugs for minor food animal uses 
is a concern well recognized by animal producers, veterinarians, animal 
scientists, and regulators. The funds for the special research grant 
are divided between the four regional animal drug coordinators and the 
headquarters at Cornell University for support of the drug approval 
program. The NRSP-7 funds are being utilized by the State Agricultural 
Experiment Stations where the regional animal drug coordinators are 
located as well as by other stations to develop data required for 
meeting approval requirements. Participants in the research program 
consist of the regional coordinators, State Agricultural Experiment 
Stations, USDA's Agricultural Research Service--ARS, schools of 
veterinary medicine, and the pharmaceutical companies. Research 
priorities are continually updated through workshops and meetings with 
producer groups representing species categories such as small 
ruminants, game birds, fur-bearing animals, and aquaculture species. 
Each request for drug approval is evaluated by the technical committee 
according to established criteria which include significance to the 
animal industry, cost of developing the necessary data, availability of 
a pharmaceutical sponsor, and food safety implications. The fiscal year 
2000 research grants terminate between May and July 2002. The 2001 
grant proposals have been requested by the agency. All grants are 
reviewed for relevance to industry needs and undergo scientific peer 
review.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Animal agriculture throughout the U.S. has relied on 
chemical and pharmaceutical companies to provide their industry safe 
and efficacious drugs to combat diseases and parasites. The high cost 
incurred to obtain data to approve these drugs, when coupled with 
limited economic returns, has limited the availability of approved 
drugs for minor uses and minor species. The economic losses due to the 
unavailability of drugs to producers for minor species and minor uses 
threatens the economic viability of some segments of the animal 
industry. The need for approved drugs to control diseases in minor 
species and for minor uses in major species has increased with 
intensified production units and consumer demand for residue-free meat 
and animal products. The program provides research needed to develop 
and ultimately culminate in drug approval by FDA for the above 
purposes. The goals are accomplished through the use of regional animal 
drug coordinators as well as a national coordinator to prioritize the 
need; secure investigators at Federal, state, and private institutions; 
and oversee the research and data compilation necessary to meet Federal 
regulations for approval. All drug approvals are national, although 
industry use may be regional. For example, certain aquaculture and the 
game bird industries are concentrated in specific geographic sections 
of the country. The administration believes this research to be of 
national, regional, or local need.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the NRSP-7 Minor Use Animal Drug 
Program was to obtain approval by the FDA for animal drugs intended for 
use in minor species and for minor uses in major species. This 
continues to remain the dominant goal of the program. In recent years, 
the research program has expanded or given additional emphasis to 
aquaculture species, veal calves, and sheep. The importance of 
environmental assessment, residue depletion, determination of 
withdrawal time, and occupational environmental safety have 
increasingly been given more attention during the approval process to 
help assure consumer protection.
    Since the beginning of the program, over 300 drug use requests have 
been received from animal producers, universities, and veterinarians 
for the development of data in support of the filing of a New Animal 
Drug Approval. Currently, data representing 30 Public Master Files have 
been published in the Federal Register. The Public Master File 
publication enables pharmaceutical companies to extend their label 
claims to minor species by referencing the published file in their New 
Animal Drug Approval filing. Furthermore, these data also enter the 
public domain as presentations to professional groups, publication of 
peer-reviewed articles, and inclusion in the Food Animal Residue 
Avoidance Databank--FARAD. Through these channels, NRSP-7 provides data 
supporting the safe and effective use of therapeutics in minor species 
by consumers. Moreover, the Minor Use Animal Drug Program has averaged 
an expenditure of only about $200,000 for each drug approved for minor 
species.
    In 2000, two Public Master Files, based on data submitted by NRSP-
7, were published in the Federal Register indicating drug approval by 
the FDA. They were: ceftiofur for the treatment of bacterial pneumonia 
in goats and tilmicosin for the control and treatment of chronic 
respiratory disease in sheep. In addition, two Public Master files are 
currently under review at the FDA Center for Veterinary Medicine--CVM. 
These drugs and their use are: oxytetracycline for otolith marking of 
fish and ivermectin pour-on for hypodermosis in American bison. New 
studies have been initiated for the study of tilmicosin in veal calves 
and tylosin for American Foulbrood in honeybees.
    In addition to the development of data for FDA review, the NRSP-7 
program initiated a species grouping program designed to make the drug 
approval process more efficient for all minor species. Research on 
species grouping was continued that will enable game birds and fish to 
be evaluated on the basis of one or two marker species. With species 
grouping, safety and efficacy studies of a drug in one species could be 
extrapolated to other species within the same class. Considering that 
the aquatic and game bird classes contain at present ten and eight 
economically-significant production species, respectively, rates of 
Public Master File publications could be increased many-fold. The FDA/
CVM and the U.S. Geological Survey are cooperating and supporting this 
program to the fullest extent, thereby demonstrating a prime example of 
Federal interagency collaboration in coordination with academic 
institutions, pharmaceutical industries, and commodity interests to 
effectively meet an urgent public health need. Question. How long has 
this work been underway and how much has been appropriated by fiscal 
year through fiscal year 2001?
    Answer. Grants have been awarded from appropriated funds in the 
amount of $240,000 per year for fiscal years 1982-1985; $229,000 per 
year for fiscal years 1986-1989; $226,000 for fiscal year 1990; 
$450,000 for fiscal year 1991; $464,000 per year for fiscal years 1992 
and 1993; $611,000 for fiscal year 1994; $550,000 per year for fiscal 
years 1995-2000; and $548,790 in fiscal year 2001. A total of 
$7,939,790 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $156,099 state appropriations, $29,409 industry 
contributions and $11,365 miscellaneous in 1991; $265,523 state 
appropriations, $1,182 product sales, $10,805 industry contributions, 
and $59 miscellaneous in 1992; $212,004 state appropriations, $315 
industry contributions and $103 miscellaneous in 1993; $157,690 state 
appropriations and $7,103 miscellaneous in 1994; $84,359 state 
appropriations in 1995; $191,835 non-Federal support in 1996; $357,099 
non-Federal support in 1997; $104,596 state appropriations and $97,375 
industry contributions in 1998; $317,225 state appropriations and 
$9,678 industry contributions, and $7,000 miscellaneous in 1999; and 
$349,250 state appropriations and $9,500 industry contributions in 
2000.
    Question. Where is this work being carried out?
    Answer. The grants have been awarded to the four regional animal 
drug coordinators located at Cornell University, the University of 
Florida, the University of California-Davis, Iowa State University, and 
to the National Coordinator at Cornell University. The location of the 
regional coordinator for the north central region moved from Michigan 
State University to Iowa State University due to personnel changes. 
Research is conducted at these universities and through allocation of 
these funds for specific experiments at the State Agricultural 
Experiment Stations, the USDA-ARS, the U.S. Department of Interior, and 
in conjunction with several pharmaceutical companies.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. Selected categories of the Special Research Grants program 
address important national/regional research initiatives. The overall 
objectives established cooperatively with FDA and industry remain 
valid. However, specific objectives continually are met and revised to 
reflect the changing priorities for FDA, industry, and consumers. 
Research projects for this program have involved 20 different animal 
and aquaculture species with emphasis given in recent years to research 
on drugs for the expanding aquaculture industry and increasing number 
of requests from the sheep and game bird industries. The program 
involves research on biological systems that by their nature are ever 
changing and presenting new challenges and/or threats to agriculture. 
Especially with the new sensitivities about food safety and environment 
protection, there is a high priority for continuation of these ongoing 
projects.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency conducted a formal review of the Minor Use 
Animal Drug Program in 1997. An external review team of experts 
representing animal drug research and development, the veterinary 
profession, the pharmaceutical industry, and academia found the program 
to be very productive. Recommendations from the review included: (a) 
improve the visibility of the Minor Use Animal Drug Program; (b) 
improve working relationships with the veterinary and pharmaceutical 
communities; (c) and acquire additional support for the program by 
pharmaceutical companies, universities, and the Federal government to 
meet the identified national needs with emphasis on responsiveness to 
industry needs and food and environmental safety. In 1999, stakeholders 
representing the sheep, aquaculture, goat, and game bird industries met 
with CSREES administration and NRSP-7 representatives to define 
research priorities for the Minor Use Animal Drug Program. Annually, 
grant proposals are scientifically peer reviewed, and twice a year the 
agency and program representatives meet with the FDA representatives to 
evaluate progress and to prioritize research requests. Workshops are 
held periodically to identify priorities for the program whereby 
producers, pharmaceutical companies, FDA, and researchers participate.
                      molluscan shellfish, oregon
    Question. Please provide a description of the research that has 
been funded under the Molluscan Shellfish, Oregon grant.
    Answer. The agency requested that the university submit a grant 
proposal that has yet to be received. The research under this program 
was initiated in fiscal year 1995. The overall goal of the program is 
to benefit the west coast shellfish industry through conservation, 
genetic improvement, and wise management of genetic resources for 
molluscan shellfish. A molluscan shellfish germplasm repository and 
selective breeding program have been established. The program has 
worked cooperatively with the west coast oyster industry, and improved 
selected lines of oysters have been provided to commercial producers.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The researchers indicate that there is a national need for 
a molluscan broodstock development program. This line of research will 
benefit the commercial shellfish industries on the west coast and 
nationally through the conservation of shellfish lines with desirable 
traits, studies involving genetic manipulation to increase disease 
resistance and enhance growth, and judicious husbandry practices 
utilizing molluscan shellfish resources.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goals of this research program were to 
establish a repository for molluscan shellfish germplasm, to establish 
breeding programs for commercial production of molluscan shellfish, and 
to establish a resource center for the industry researchers, and other 
interested parties in the U.S. and abroad. The oyster broodstock 
selection program has been implemented in partnership with industry and 
performance trials of selected stocks continue at commercial sites. 
Over 120 families have been evaluated at commercial sites in fiscal 
year 2000. Production and evaluation of top-performing selected 
families are conducted each year, with top-performing families selected 
to produce the next generation. Comparisons between inbreed and 
outbreed crosses are also underway.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1995 
with an appropriation of $250,000; fiscal year 1996 was $300,000; 
$400,000 in each of fiscal years 1997 through 2000; and $399,120 in 
fiscal year 2001. A total of $2,549,120 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates a total of $135,454 of non-Federal 
funding in fiscal year 1995 primarily from state sources; in fiscal 
years 1996 though 2000 no formal cost sharing was reported. However, 
the university indicates that significant resources in terms of 
equipment, facilities, utilities, and personnel have been applied to 
this program. There is also significant in-kind contributions from the 
industry.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at Oregon State University.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Specific research objectives outlined in the original 
proposal were completed in 1996. Researchers have broadened the scope 
of the project from the original objectives, and it is anticipated that 
these specific objectives will be completed in 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency's fiscal year 2000 review concluded that the 
researchers were well qualified and that the research addresses an 
important opportunity in the aquaculture industry. The research team is 
well qualified and has the appropriate background. Commercialization of 
research findings has been accelerated because of the close cooperation 
with industry and field testing at commercial sites. Progress on 
previous work is well documented and the work complements other 
research being funded though the USDA on molluscan shellfish. The 
proposed research is consistent with national goals and needs outlined 
in the National Science and Technology Council's--NSTC--Aquaculture 
Research and Development Strategic Plan.
                    multi-commodity research, oregon
    Question. Please provide a description of the research done under 
the Multi-commodity Research, Oregon program?
    Answer. The Multi-commodity Marketing Research project helps to 
support the Food Innovation Center, a joint venture of Oregon State 
University and the Oregon Department of Agriculture for multi-
disciplinary, multi-agency research and education. The project helps to 
keep Pacific Northwest agricultural businesses competitive by 
investigating and developing potential value-added market and product 
opportunities. The project analyzes domestic and international market 
potential and marketing strategies, conducts sensory analyses of 
consumers preferences, examines packaging and logistics problems, and 
performs strategic planning for the food industry. A major effort is 
directed at understanding Asian consumers and markets. The research 
proposal was peer reviewed at the university prior to submission to 
CSREES.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Oregon and other Pacific Northwest states produce a wide 
variety of agricultural commodities and products with export potential 
to Pacific Rim countries. Research and analysis are necessary to guide 
agricultural producers and processors in assessing markets, developing 
market strategies, and creating appropriate value-added products.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this research project is to gain better 
specific understanding of the technical, economic, and social 
relationships that define Oregon's value-added agricultural sector, and 
examine how these factors affect the economic performance of the 
sector. This project investigates and develops innovations in value-
added agriculture to improve the economic performance of the 
agricultural and food manufacturing sectors in the Pacific Northwest.
    Recent research results follow: A survey of food processors 
provided valuable data on processing costs and indicated increasing 
efficiency in the firms. A study of Chinese home infrastructure and 
refrigeration measured their impacts on demand for food imports from 
the U.S. China's soybean prices responded to changes in Chicago prices, 
but on a lagged basis. Asians living in the U.S. for a few years have 
very similar food preferences as people in their native lands, hence 
they provide a lower cost method of studying food consumption behavior 
in those cultures. Asians respond differently to hedonic scales than 
U.S. consumers; Asians never use the extreme ``dislike'' choices. A new 
pasteurization process has been developed and has a patent pending. A 
database of over 1,200 food processing firms allows the investigators 
to determine potential strategic gaps in the region's food processing 
industry and serves as a guide to future research and education 
programs.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The research began in fiscal year 1993. The appropriation 
for fiscal year 1993 was $300,000; fiscal year 1994, $282,000; fiscal 
years 1995 through 2000, $364,000 per year; and fiscal year 2001, 
$363,199. The total amount appropriated is $3,129,199.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funding for this grant was $177,574 in State 
appropriations in 1993, and $162,394 in 1994. The project involves the 
use of Oregon State University administrative personnel, equipment, 
utilities and facilities that are indirect costs to the project. These 
costs constitute an Oregon State University contribution to the project 
that is not allowable as a reimbursable expense. Because the Oregon 
state appropriations process penalizes the university for reporting 
nonreimbursed indirect costs, the university has not reported the 
amount of non-Federal funds appropriated for fiscal years 1995-2001.
    Question. Where is the work being carried out?
    Answer. The research is carried out at Oregon State University in 
Corvallis and at the Northwest Food Innovation Center in Portland, 
Oregon.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1993 was for a period of 12 
months, however, the goal of enhancing Oregon's value-added 
agricultural sector is an ongoing regional and national concern. 
Progress on the original objectives is as follows: baseline data have 
been accumulated; an economic growth assessment model is being refined; 
global competitiveness is being assessed for value-added Pacific 
Northwest agricultural products; targets for performance are being 
worked out with agricultural industries; and trade teams have been 
involved in assessing the ability of U.S.-based industries to meet the 
demands for noodle production for Asian markets. The current phase of 
the program will be completed in 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed a merit review of the project in June 
2000, as it evaluated the 2000 project proposal, and determined that: 
``The research is relevant and compatible with the USDA and CSREES 
missions, especially the profitability and competitiveness of the 
American agricultural sector. The stated objectives are scientifically 
valid and achievable, and the procedures specified for each objective 
are appropriate to the research tasks. The proposal was subjected to 
peer review by experts with the necessary scientific knowledge and 
technical expertise. The principal investigator and the associated 
researchers are competent to execute this project.''
           multi-cropping strategies for aquaculture, hawaii
    Question. Please provide a description of the research funded under 
the Multi-cropping Strategies for Aquaculture Research grant in Hawaii.
    Answer. The agency requested that the university submit a grant 
proposal that has yet to be received. This research program focuses on 
the opportunities of alternative aquaculture production systems, 
including the ancient Hawaiian fish ponds on the island of Molokai. A 
community-based research identification process has been used to 
develop specific research needs and prioritize objectives in this 
program. Current research includes work in the area of water quality 
characterization to accelerate permitting of aquaculture systems. Field 
testing of alternative species and management systems in the ancient 
Hawaiian fish ponds is currently underway. The university indicates 
that the scope of the program will be refined in fiscal year 2001 
proposal.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researchers indicate that the primary need 
for this research is to assist the native Hawaiians in improving the 
profitability and sustainability of the ancient Hawaiian fish ponds and 
other appropriate aquaculture systems as part of a total community 
development program on the island of Molokai.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this program was to develop technology 
for the co-production of shrimp and oysters in aquacultural production 
systems. Research led to the development of oyster production systems 
that have been field tested under commercial conditions. In fiscal year 
1993, the university redirected this program to develop sustainable 
subsistence and commercial aquaculture systems on Molokai while 
maintaining the culture and physical environment unique to the island. 
Production methods have been developed for a number of species. 
Researchers have characterized water quality within and between fish 
ponds in order to establish criteria for permitting and management of 
the ancient Hawaiian fish ponds. Multidimensional field testing of 
restored fish ponds is underway to determine yield and management 
systems for native species and polyculture systems.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. This research was initiated in fiscal year 1987 and 
$152,000 per year was appropriated in fiscal years 1987 through 1989. 
The fiscal year 1990-1993 appropriations were $150,000 per year; 
$141,000 in fiscal year 1994; $127,000 in fiscal years 1995-2000, each 
year; and $126,721 in fiscal year 2001. A total of $2,085,721 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university reports a total of $137,286 of non-Federal 
funding for this program in fiscal years 1991-1994; $318,468 in fiscal 
years 1995-1996; $116,730 in fiscal year 1997; $197,000 in fiscal year 
1998; and no non-Federal funds are available for this project for 
fiscal years 1999 and 2000. The university has provided direct 
technical and management support for this program.
    Question. Where is this work being carried out?
    Answer. Research is being conducted through the University of 
Hawaii on the island of Molokai.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The completion date for the original project was 1993. The 
original objectives were met. The specific research outlined in the 
current proposal will be completed in fiscal year 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency's Program Managers review this program on an 
annual basis. The agency's fiscal year 2000 evaluation indicated that 
adequate progress was reported on specific tasks and that the research 
was relevant and addresses an important opportunity for the aquaculture 
industry on Molokai. The objectives were clearly stated and the project 
was integrated into several other community based programs to support 
aquaculture development on Molaki.
      national beef cattle genetic evaluation consortium, new york
    Question. Please provide a description of the work that has been 
funded under National Beef Cattle Genetic Evaluation Consortium, New 
York grant.
    Answer. This is a new project. CSREES has requested the university 
to submit a grant proposal which has not yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Beef is the most popular meat in the U.S. In 1997, 25.4 
billion pounds of beef were produced with a total retail value of $50.6 
billion. The production of high quality, healthy, and affordable beef 
begins by identifying the best breeding animals. Genetic superiority 
can be evaluated by estimating Expected Progeny Differences on 
prospective breeding animals. For selective breeding, Expected Progeny 
Differences have been the most important technology available to 
seedstock and commercial cattle producers. Analysis of beef records to 
calculate Expected Progeny Differences for the vast majority of 
seedstock cattle in the U.S. occurs at four universities: Colorado 
State University, Cornell University, University of Georgia, and Iowa 
State University. The success of this genetic evaluation program has 
been greatly influenced by the existence of an established delivery 
system to make this information readily available to all producers. 
Expected Progeny Differences are widely reported by breed associations 
through sire summary reports and artificial insemination companies that 
distribute semen of sires with superior Expected Progeny Differences. 
Application of this technology has resulted in significant genetic 
improvement trends for the economically-important traits. It is 
critically important to further develop, coordinate, and utilize this 
technology in order to further enhance the competitiveness of beef 
production, both domestically and globally.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This is a consortium involving the four universities that 
have been primarily responsible for the research and development of 
beef cattle genetic evaluation in the U.S. This project will develop 
and implement improved methodologies and technologies for genetic 
evaluation of beef cattle for the purpose of maximizing the impact 
genetic programs have on economic viability, international 
competitiveness, and sustainability of beef producers, and to provide 
consumers affordable and healthy beef products.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 
2001. The appropriation for fiscal year 2001 is $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds provided in fiscal year 2001 are 
approximately $300,000 by the four universities involved and $360,000 
by the beef industry, primarily breed associations.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at the four universities 
involved in this consortium: Colorado State University, Cornell 
University, University of Georgia, and Iowa State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date of the original objectives 
is fiscal year 2007.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project. The proposal will be peer-reviewed 
at the university prior to submission. A merit review will be conducted 
by the agency prior to funding.
        national biological impact assessment program, virginia
    Question. Please provide a description of the work that has been 
funded under the National Biological Impact Assessment Program, 
Virginia grant.
    Answer. The National Biological Impact Assessment Program--NBIAP--
supports the environmentally-responsible use of biotechnology products 
to benefit agriculture and the environment. This project supports the 
Information Systems for Biotechnology which is a national resource in 
agricultural biotechnology information. This program serves the 
research community by providing information about biotechnology 
regulations, environmental issues associated with the release of 
genetically-modified organisms, risk assessment, and risk management 
through a web site. The web site also contains searchable databases, 
documents and resource lists, monthly newsletters, and original printed 
reference materials. Risk assessment workshops are conducted to promote 
science-based regulatory decisions.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This program serves as a unique and comprehensive source of 
biotechnology information. This online system provides scientists, 
nationally and internationally, with timely and important information 
about new research and regulatory and environmental developments in 
agricultural biotechnology. This was the first online system to address 
the rapidly increasing information needs of the agricultural 
biotechnology community, and it continues to be the most comprehensive 
and heavily used source of critically-needed information.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original and current goal of the program is to 
facilitate and assess the safe application of new techniques for the 
genetic modification of plants, animals, and microorganisms to benefit 
agriculture and the environment. Since its inception in 1989, the 
program has developed tools and resources to provide scientists, 
regulators, teachers, administrators, and the interested public with 
value-added, unbiased information in a readily accessible form. The 
computer-based system has developed into an internet site serving more 
that 6,600 requests per month coming from over 42 countries. The site 
includes documents pertaining to regulatory oversight biotechnology 
products, policy statements, and risk assessment and management. 
Searchable databases include records of all environmental releases of 
genetically-engineered organisms conducted under authority of the USDA, 
Institutional Biosafety Committees, State Regulatory contacts, 
biotechnology research centers, and companies. A monthly News Report, 
covering research, regulatory, legal, and international issues is 
distributed by request to 1,800 e-mail and 600 print subscribers. 
Biosafety training workshops have been conducted for scientists and 
state regulatory officials. Current activities include risk assessment 
workshops and publication of a guidebook for safely conducting research 
in greenhouses.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from appropriated funds as 
follows: fiscal year 1989, $125,000; fiscal year 1990, $123,000; fiscal 
years 1991-1993, $300,000 per year; fiscal year 1994, $282,000; fiscal 
years 1995-2001, $254,000 per year; and fiscal year 2001, $253,441. A 
total of $3,207,441 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Virginia Polytechnic Institute and State University--
VPISU--contributes administrative and clerical support of approximately 
$5,000 per year.
    Question. Where is this work being carried out?
    Answer. The program is administered and the research conducted in 
the Biochemistry Department at VPISU. Former and current partners in 
the program include Pennsylvania State University, Louisiana State 
University, North Carolina Biotechnology Center, Michigan State 
University, Arizona State University, the USDA-National Agricultural 
Library, Institute for Biotechnology Information, and the University of 
Minnesota.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Ensuring the environmentally-responsible use of 
agricultural biotechnology products is an ongoing and important task. 
Opportunities for plant and animal improvement through biotechnology 
are expanding as more genes are identified and new methods are 
developed for introducing specific beneficial genes into plant and 
animal populations. As more genetically-modified plants and animals are 
commercialized, there will be a continuing, high priority need to 
provide current, science-based information to assure long term safety 
and efficacy of the use of genetically-modified organisms in 
agricultural production systems.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An external peer-review was conducted in April 2000. The 
panel concluded that this project is making a large, positive impact on 
the agricultural biotechnology community by providing objective, useful 
information in several easily accessible formats. The web site, News 
Report, workshop proceedings, and other reference material are well-
designed, easy to use, and informative. The number of subscribers to 
the monthly News Report, number of hits on the web site, and number of 
workshop proceedings distributed collectively indicate a strong demand 
for the products of this program. A recent user survey clearly indicate 
that users appreciate the high quality, objectivity, and clear 
presentation of the information available. The panel strongly concluded 
the program should be continued, and, if possible, expanded to reach 
even more users. It was recommended that a mission statement be 
developed to help facilitate the continued success of the program.
          nematode resistance genetic engineering, new mexico
    Question. Please provide a description of the work that has been 
funded under the Nematode Resistance Genetic Engineering, New Mexico 
grant.
    Answer. This research is designed to investigate naturally-
occurring compounds from diverse sources that may confer pesticidal 
resistance if introduced into agronomic plants. The main target pests 
are plant parasitic nematodes and also certain insects. The work is 
using molecular biological techniques to incorporate genes into 
agronomic plants which will shorten the timeframe to produce transgenic 
plants.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that the successful 
development of these techniques and subsequent transfer of genes with 
insecticidal and/or pesticidal activity into agronomic plants will 
provide an environmentally-sound system for all plants susceptible to 
pests. The principal researcher believes the project has the potential 
for both regional and national application.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to provide an 
alternative approach for the control of plant parasitic nematodes and 
certain insects through the use of molecular biological technologies to 
transfer pesticide resistance to plants. More recently, an insecticidal 
protease inhibitor gene has been used in transformed plants. A unique 
technique utilizing insect intestinal membrane vesicles was used as a 
tool for detection of specific protein binding domains. The resulting 
gene has been successful in managing Colorado potato beetles for four 
years in field trials with transformed potato.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1991 
and the appropriations for fiscal years 1991-1993 were $150,000 per 
year; $141,000 in fiscal year 1994; $127,000 in fiscal years 1995-2000 
each year; and $126,721 in fiscal year 2001. A total of $1,479,721 has 
been appropriated thus far.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $65,000 state appropriations in 1991; $62,000 in state 
appropriations in 1992; $75,000 in state appropriations in 1994; and 
$75,000 state appropriations in 1995. For 1996, the university and the 
Plant Genetic Engineering Laboratory are providing matching 
contributions in faculty and staff salaries, facilities, equipment 
maintenance and replacement, and administrative support. In 1997, there 
were no matching non-Federal funds. In 1998 and 1999, state 
appropriated funds were $48,000 and $71,000, respectively. In 2000, the 
non-Federal funds were $70,000.
    Question. Where is the work being carried out?
    Answer. Research is being conducted at the New Mexico State 
University and at collaborating universities in the region.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives have not as yet been met. The 
estimated completion date for this project is in 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The last evaluation of this project was a merit review 
conducted in January 2000. In summary, the overall goal of this project 
is to use molecular technology to develop pesticide capability in 
plants of agronomic importance. A plant transformation system was 
developed to improve the historically difficult transformation of 
monocots more efficiently. In field trails of transformed eggplants and 
potatoes, high levels of effectiveness against insects have been found. 
Other constructs are being used in many crops to determine resistance 
to nematodes and other crop pests.
                   nevada arid rangelands initiative
    Question. Please provide a description of the research that has 
been funded under the Nevada Arid Rangelands Initiative grant.
    Answer. The Nevada Arid Rangelands Initiative will provide 
coordination of Federal and State agencies to address the highest 
priority issues related to management of public lands in Nevada. The 
project will support a mix of research, education, and action programs 
to develop healthy multiple uses for rangeland, improve management 
education programs, improve economics at the ranch community and county 
level, and develop a decisionmaking module for public land use.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The research proposal is directed toward public land 
management in Nevada, but would have relevance to other states with 
large acreage of arid public lands.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to develop research 
management and educational programs to promote healthy, productive and 
sustainable use of Nevada rangeland.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000 
and the appropriation for fiscal year 2000 was $255,000 and for fiscal 
year 2001 is $299,340. The total appropriation is $554,340.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The estimate for non-Federal funds provided for this 
program from state funds was $237,000 for fiscal year 2000.
    Question. Where is the work being carried out?
    Answer. Research will be conducted at the University of Nevada 
Research Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project is under development, however anticipated 
completion for the original objectives should be five years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was peer reviewed and subjected to the 
institutional project approval process. In addition it was reviewed by 
CSREES National Program Staff.
                     new crop opportunities, alaska
    Question. Please provide a description of the research that has 
been funded under the New Crop Opportunities, Alaska grant.
    Answer. The overall goal of the ``New Crop Opportunities'' project 
is to investigate new opportunities in crops, value-added processing, 
and markets for Alaskan agricultural products, including forest 
products.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The profile of the agricultural industry is changing from a 
commodity-centered industry to one composed of diverse enterprises. 
There are a number of new crops in Alaska that show promise in consumer 
markets both inside and outside the state. New markets also appear 
feasible for crops that are in the experimental phase of production or 
can be wild harvested in Alaska. Value-added processing of agricultural 
crops in Alaska will contribute to the state's economic diversity.
    Question. What was the original goal of this research and what has 
been the project to date?
    Answer. The specific goal is to generate new knowledge that will 
benefit the agricultural industry and lead to new economic 
opportunities for entrepreneurs. The research is organized into three 
specific objectives: (1) new crops in promising consumer markets; (2) 
new markets for experimental field-cultivated and wild-harvested crops; 
and (3) value-added processing of agricultural crops. Research was 
begun in September 2000. Because of the short period of time in 
process, not all of the projects included have progress reports. Work 
continues on efficacy tests of Trichoderma atroviride in controlling 
diseases on ginseng. A golf green and research plots have been 
established at the Agricultural and Forestry Experiment Station in 
Fairbanks to continue the evaluation of turfgrass species, evaluation 
of fungicides for control of snowmold and other fungi, and develop best 
management practices for golf green maintenance in the subarctic. 
Research designs are complete for spring 2001 establishment of new 
plots and continued evaluation of existing plots for the evaluation of 
best management practices for forage legumes in interior Alaska. Field 
trials with salad greens for cut-salad and whole-fresh markets were 
evaluated in the fall of 2000 and variety selections have been made to 
continue the work in spring 2001. The horticultural component of the 
peony market study begins in the spring, and plans are being made for 
visits with appropriate marketers of the peony crop to European 
countries. A graduate student has begun the literature survey to 
accompany the work with cultivated lingonberry. A successful muskox 
industry workshop and trade show, including five of the six world 
producers of qiviut products, was held in November 2000 in conjunction 
with the Alaska Agricultural Symposium resulting in an organizing 
meeting for a new Association of Alternative Livestock Producers. A 
cost study has been completed on the potential for crushing oilseeds in 
Alaska and investigations of alternative markets for diverse oil 
products has begun.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000 
and the appropriation for fiscal year 2000 was $425,000. For fiscal 
year 2001, the appropriation was $494,909. A total of $919,909 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. There will be nine percent of the total grant amount 
received by the Agricultural and Forestry Experiment Station provided 
to the University of Alaska Fairbanks in fiscal years 2000 and 2001 for 
overhead recovery.
    Question. Where is this work being carried out?
    Answer. This work will be carried out by the School of Agriculture 
and Land Resources Management and the Agricultural and Forestry 
Experiment Station at its experimental farms in Fairbanks and Palmer, 
at various locations near Fairbanks, and at its remote research site in 
Delta Junction.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated date of additional or related objectives?
    Answer. The fiscal year 2000 projects are anticipated to be 
completed in three years from the start date. The objectives have not 
been met because the projects have just begun. There are no anticipated 
additional or related objectives that will be added to the existing 
projects.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Evaluation of this project is conducted annually based on 
the annual progress report and discussions with the principal 
investigator, as appropriate. The review is conducted by the cognizant 
staff scientist who has determined that this research is in accordance 
with the mission of the agency.
                    new crop opportunities, kentucky
    Question. Please provide a description of the research that has 
been funded under the New Crop Opportunities, Kentucky grant.
    Answer. Researchers at the University of Kentucky began work in 
2000 on 13 projects. Research on horticultural crops has focused on: 
bacterial spot resistance, yields, and quality in bell and speciality 
peppers; blackberries for fresh and processing markets; identification 
of underutilized landscape plants and plants native to Kentucky that 
have landscape potential and development of production systems for 
these plants; greenhouse production of bedding plants, vegetables, 
flowering pot plants, and herbs using a controlled water table 
subirrigation system or a float system; and valuation of annual and 
perennial garden flowers. Research on agronomic crops has focused on: 
integrated pest management in corn; evaluation of high-value traits for 
corn in Kentucky; breeding soft white winter wheat for Kentucky; 
development of nitrogen fertilization strategies for the control of 
protein levels and quality in soft white winter wheat; testing of novel 
soybean varieties to provide reliable information grain yield and 
quality characteristics; development of packages of management 
practices for novel soybean varieties; breeding triple-null 
lipoxygenase soybean cultivars that should produce better-tasting 
soyfood products; analysis of the profit and risk potential of 
speciality grains; and determination of drying, storage, and 
germination characteristics of selected speciality grains.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This research addresses a regional need to find alternative 
crops to replace tobacco.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research was to offer new 
opportunities for crop diversification, technology transfer, and 
demonstrations. Accomplishments to date include: establishment of a web 
site to provide information about research projects of the New Crop 
Opportunities Center and results, as available; links to decision aids 
available through the USDA to help farmers determine the economic 
feasibility of specific new crops for their enterprises; information 
about a variety of alternative crops that has resulted from past 
research at the University of Kentucky; notification of upcoming 
meetings of interest to Kentucky farmers; and development of an exhibit 
about the New Crop Opportunities Center and its research. This exhibit 
has been on display at Lexington, Louisville, Princeton, Horse Cave, 
Versailles, and Morehead in Kentucky, and at a conference in 
Evansville, Indiana. Printed materials about the New Crop Opportunities 
Center have been distributed to all of these locations, as well as to 
County Extension Agents across the state. The exhibit will also be on 
display at six meetings in January. On-farm demonstration sites have 
been established around the state for the blackberry, pepper, soybean, 
and wheat projects. Interest in demonstration plots has been high. For 
example, 39 counties asked to participate in the blackberry 
demonstrations. Annual and perennial garden flowers were evaluated at 
the University of Kentucky and demonstrated at four locations around 
the state in 2000. Results from the first year of the pepper, 
greenhouse production of lettuces, greens and herbs, and the annual and 
perennial garden flower evaluation projects have been posted on the 
Center's web site as have the results for a blackberry marketing study 
conducted in 2000. Wheat and soybean breeding research has been 
initiated, as have wheat fertilization, and landscape and native plants 
project.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2000?
    Answer. The work supported by this grant began in fiscal year 2000; 
the appropriation for fiscal year 2000 was $595,000, and for fiscal 
year 2001 is $723,405. The total appropriation is $1,318,405.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds have been provided.
    Question. Where is this work being carried out?
    Answer. This work will be carried at the University of Kentucky, 
its research centers in eastern and western Kentucky, at arboreta and 
botanical gardens, and on cooperating farms across the state.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated date of additional or related objectives?
    Answer. The original objective of some of the research projects 
will be met by the end of fiscal year 2001. Other projects will require 
more time, and many will address additional or related objectives. 
These are expected to be completed by the end of fiscal year 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the evaluation conducted.
    Answer. Evaluation of this project is conducted annually based on 
the annual progress report and discussions with the principal 
investigator, as appropriate. The review is conducted by the cognizant 
staff scientist who has determined that this research is in accordance 
with the mission of the agency.
            nonfood agricultural products program, nebraska
    Question. Please provide a description of the research that has 
been funded under the Nonfood Agricultural Products Program, Nebraska 
grant.
    Answer. This work focuses on the identification of specific market 
niches that can be filled by products produced from agricultural 
materials, developing the needed technology to produce the product, and 
working with the private sector to transfer the technology into 
commercial practice. Major areas of application include starch-based 
polymers, use of tallow as diesel fuel, improvements in ethanol 
production, use of vegetable oil as drip oil for irrigation wells, as a 
two cycle engine oil and as a chain saw bar oil, production of 
levulinic acid, the extraction of wax from grain sorghum, and 
production of microcrystalline cellulose from crop biomass. The 
Nebraska Dean and Director of Agricultural Research has initiated a 
review process that parallels the process used for Experiment Station 
projects. Two to three faculty members are asked to critically review 
the proposal using criteria as described by CSREES in the letter 
soliciting proposals for 2001.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes our ability to produce 
agricultural commodities exceeds our needs for food and feed. These 
commodities are environmentally-friendly feedstocks which can be used 
in the production of many biochemicals and biomaterials that have 
traditionally been produced from petroleum. The production of the 
commodities and the value-added processing of these commodities is 
regional in scope.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The objectives are to identify niche markets for industrial 
utilization of agricultural products; improve and develop conversion 
processes as needed for specific product isolation and utilization; 
provide technical, marketing, and business assistance to industries; 
and coordinate agricultural industrial materials research at the 
University of Nebraska, Lincoln. Accomplishments include 
commercialization of soybean-based drip oil for irrigation wells. 
Bruning Grain Co. Marketing is marketing approximately 12,000 gallons 
per year of ``Soy Bio Drip.'' MCC Technologies, Inc. continues to 
develop a business plan for production of microcrystalline cellulose 
from crop residues such as corn cobs, wheat straw, and cellulose via a 
reactive extrusion process developed by the university's Industrial 
Agricultural Products Center. Various hardness grades of plastic 
particle media blast using a combination of commercially-available 
biodegradable polymers have been produced. A water resistant starch-
based foam has been developed and a patent is pending. A 
commercialization strategy is being developed. Also, an alternative 
process for producing biodiesel has been developed and a patent is 
pending. A patent is pending on a sorghum-based road deicer that was 
developed and which is currently being produced for a trial test this 
winter. All of these commercialization projects are the result of 
research efforts, most of which have been supported by the Nonfood 
Agricultural Products Program. Two Small Business Innovation Research, 
Phase I, proposals have been funded for technologies developed at the 
Center. A Phase II proposal on levulinic acid is currently being 
prepared.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The funding levels for this project are $109,000 in 1990; 
$110,000 per year in fiscal years 1991-1993; $103,000 in fiscal year 
1994; $93,000 in fiscal year 1995; $64,000 per year in fiscal years 
1996-2000; and $63,859 in fiscal year 2001. A total of $1,018,859 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funding for this project is: in fiscal year 
1992, $315,000; fiscal year 1993, $330,000; fiscal year 1994, $330,000; 
fiscal year 1995, $309,000; fiscal year 1996, $251,000; fiscal year 
1997 $250,000; fiscal year 1998, $340,000; fiscal year 1999, $260,000; 
and fiscal year 2000, $250,000. These funds were from Nebraska Corn, 
Soybean, Wheat, Sorghum, and Beef Boards; World Wildlife Fund; Nebraska 
Bankers Association; United Soybean Board; National Corn Growers 
Association; Bioplastics, Inc.; Biofoam, Inc.; and MCC Technologies, 
Inc.
    Question. Where is this work being carried out?
    Answer. This work is being conducted at the Industrial Agricultural 
Products Center, L.W. Chase Hall, University of Nebraska, East Campus, 
Lincoln, Nebraska.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The objectives of the original projects have been 
completed. Specific objectives have been identified in each renewal 
request.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project is evaluated based on the annual progress 
report. The cognizant staff scientist has reviewed the project and 
determined that the research is conducted in accordance with the 
mission of this agency.
          nursery, greenhouse, and turf specialities, alabama
    Question. Please provide a description of the research that has 
been funded under the Nursery, Greenhouse, and Turf Specialities, 
Alabama grant.
    Answer. This is a new grant. The program objectives are: (1) 
evaluate woody landscape plants from a number of sources for those that 
are superior in the southeastern U.S. environment; (2) evaluate woody 
and herbaceous ornamentals for physiological adaptations including heat 
and drought tolerance; (3) evaluate a wide range of bedding plants and 
herbaceous perennials for landscape performance in major climatic 
regions of Alabama; and (4) evaluate performance and suitability of 
turfgrass genotypes for use in Alabama including biology and management 
of turfgrass pests and nutrient flux in turfgrass systems.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Nursery, greenhouse, and turf crops are of increasing 
importance in the state of Alabama and throughout the Nation. According 
to the 1998 Census of Agriculture, this segment of the agricultural 
economy grew at 18 percent per year during the period 1988 to 1998. 
This research will support the continued growth of this agricultural 
sector.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research is to identify landscape and 
ornamental plants that are particularly well-suited for the environment 
in Alabama and other areas of the southeastern U.S. By using plants 
that are so adapted, use of inputs such as fertilizers and pesticides 
can be reduced. This is a new grant, and the work has not yet begun.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001.
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated is $284,373.
    Question. What is the amount and source of non-Federal funds 
provided by fiscal year?
    Answer. There is no non-Federal funding for this project.
    Question. Where is this work being carried out?
    Answer. The work is being carried out by the Alabama Agricultural 
Experiment Station, Auburn University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these been met? What is the anticipated 
completion date of the additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is the end of fiscal year 2006.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. This is a new project. A peer review of the project will be 
undertaken by the performing institution, and CSREES will conduct a 
thorough evaluation of the proposal once it is received.
              oil resources from desert plants, new mexico
    Question. Please provide a description of the research that has 
been done under the Oil Resources from Desert Plants, New Mexico grant.
    Answer. The Plant Genetic Engineering Laboratory at New Mexico 
State University has been exploring the potential for the production of 
high value industrial oils from agricultural products. The effort has 
been focused on transferring the unique oil producing capability of 
jojoba into oilseed rape and soybean. With the development of 
technology to both isolate the enzyme components of oil biosynthesis 
and successfully transform the target plants, significant advances have 
been made with jojoba. In addition, oil enzymes have been studied in 
castor, oilseed rape, desert primrose, cyanobacteria, and meadowfoam.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes desert plant sources of 
valuable oils for industrial applications are typically low yielding 
and limited in climatic areas for farm production. Genetic engineering 
offers an opportunity to move genetic capability to high yielding major 
crops. Many of the oils and their derivative acids, waxes, and others 
can directly substitute for imports of similar polymer materials, 
especially petroleum.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research is to transfer the unique oil-
producing capability of jojoba and other native shrubs into higher 
yielding crops such as oilseed rape and soybean. This is a form of 
metabolic engineering, and it requires the transfer of coordinated 
groups of genes and enzymes into the host plant to catalyze the 
necessary biochemical reactions. Recent progress includes successful 
transformation of tobacco and alfalfa plants with oil metabolism genes 
from the meadowfoam plant and a cyanobacterium.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. This research began in fiscal year 1989 with a $100,000 
grant under the Supplemental and Alternative Crops program. Grants have 
been awarded under the Special Research Grants program as follows: 
fiscal year 1990, $148,000; fiscal years 1991-1993, $200,000 per year; 
fiscal year 1994, $188,000; fiscal years 1995-1996, $169,000 each year; 
fiscal years 1997 through 2000, $175,000 per year; and fiscal year 
2001, $174,615. A total of $2,248,615 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Matching funds from State and private sources used to help 
fund this project were $27,747 in fiscal year 1998 and $71,000 in 
fiscal year 1999. New Mexico State University and the Plant Genetic 
Engineering Laboratory also provide $90,000 for in-kind support per 
year including faculty salaries, graduate student stipends, facilities, 
equipment maintenance, and administrative support services.
    Question. Where is this work being carried out?
    Answer. The research is being conducted by the Plant Genetic 
Engineering Laboratory at New Mexico State University, Las Cruces, New 
Mexico.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. An estimate of the total time in Federal funds required to 
complete all phases of the project is 3-4 years. The application of 
this research for improved management of natural resources will evolve 
and expand as technology in the area advances.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The Oil Resources from Desert Plants, New Mexico project 
was evaluated for scientific merit by a review panel convened by CSREES 
on April 17, 2000. The panel recommended approval of the project 
pending receipt of supplemental information on administrative aspects 
of the project. The supplemental information was received and the 
agency is satisfied that the program is being administered in 
compliance with the purpose of the grant. A merit review panel will be 
convened to re-evaluate the project upon receipt of a proposal for 
fiscal year 2001.
                 organic waste utilization, new mexico
    Question. Please provide a description of the research that has 
been funded under the Organic Waste Utilization, New Mexico grant.
    Answer. Composted dairy waste is utilized as a pretreatment to land 
application. Composting dairy waste before land application may 
alleviate many of the potential problems associated with dairy waste 
use in agronomic production systems. Composting may also add value to 
the dairy waste as a potential landscape or potting medium. High 
temperatures maintained in the composting process may be sufficient for 
killing enteric pathogens and weed seeds in dairy waste. Noxious odors 
and water content may be reduced via composting. Composted dairy waste 
may be easier to apply, produce better seed beds, and not increase soil 
salinity as much as uncomposted dairy waste. Changes in the physical 
structure of the soil are being monitored for the effects of composted 
versus uncomposted amendments. This project undergoes annual peer 
review from academic institutions and experts from government and state 
agencies, and industrial partners.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes the research will address 
the utilization of dairy waste combined with other high-carbon waste 
from agriculture and industry, including potash and paper waste, for 
composting. This approach to waste management will have high impact for 
states where dairy and agriculture are important industry sectors. This 
is especially true for New Mexico and the southwest U.S. where the 
dairy business is growing rapidly. This research will also provide an 
additional pollution prevention tool for the industrial sectors dealing 
with potash and paper waste. The principal investigator believes this 
research to be of local, regional, and national importance.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research was and continues to be 
to determine the feasibility of simultaneously composting dairy waste 
from agriculture and industry. The research will determine effects of 
utilizing composted waste, as opposed to raw waste, as a soil amendment 
on plant growth, irrigation requirements, and nutrient and heavy metal 
uptake. Phase I, to determine the feasibility of simultaneous 
composting dairy waste with available high carbon wastes from 
agriculture and industry, has been completed. Phase II, to determine 
the appropriate ratios of waste to carbon substrate for successful 
composting is completed. Phase III, to determine the kinetics of 
nutrient release and effects of composted material on heavy metal 
uptake will be completed next year. The study of the second and third 
year application of the compost will be undertaken this year. This will 
identify the long term soil impact resulting from compost application.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1996 
and the appropriation for fiscal year 1996 was $150,000; for fiscal 
years 1997 through 2000, $100,000 per year; and for fiscal year 2001, 
$99,780. A total of $649,780 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds for the duration of this grant from 
the state appropriation is $75,000. There is another $50,000 in-kind 
support from the industrial partners. Additionally, a sum of $15,000 
from the New Mexico State Highway Department has been leveraged by this 
project.
    Question. Where is this work being carried out?
    Answer. This work is being carried out in New Mexico under the 
direction of the Waste-Management Education and Research Consortium in 
collaboration with The Composting Council and industrial partners, such 
as N-Viro in Ohio, Plains Electric, and McKinley Paper in New Mexico.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Completion date of the initial phases was March 2000. The 
project has been progressing according to the specified targets. Phases 
I and II have been completed. Phase III is ongoing and will be 
completed by early 2001. Phase IV was added to evaluate the multi-year 
compost application on parameters such as plant growth, soil water 
retention, and soil salinity. Phase V will develop appropriate projects 
for the application of compost by state agencies for land reclamation. 
Particular attention will be paid to the unique soil characteristics of 
the desert southwest with higher background levels of salts and 
minerals. Application rates and maturity indicators will be developed 
in field trials that tailor these organic soil amendments to native 
vegetation, climate, and soil types. In addition, research will be 
undertaken on organic fertilizers developed from the runoff of 
composted waste. Field tests will be used to determine the 
effectiveness of these products. Phase V is projected to be completed 
by mid-2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project has been evaluated based on the semi-annual 
progress report and research findings presented at conferences. The 
cognizant staff scientist has reviewed the project and determined that 
this research is conducted in accordance with the mission of this 
agency.
                   pasture and forage research, utah
    Question. Please provide a description of the research that has 
been funded under the Pasture and Forage Research, Utah grant.
    Answer. This is a multi-disciplinary effort to develop a forage 
livestock management system for improved profitability for Utah 
ranchers. The bulk of Utah's livestock production is based on forages. 
The primary tool for improving profitability of private grazing lands 
is through improved forage management. This research attempts to 
identify the physical and economical feasibility of utilizing 
intensively-rotated and irrigated pastures in the Intermountain West.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. This research proposed under this Special Research Grant 
will address the issues related to management of forage livestock 
production in Utah to improve profitability. The research will focus on 
Utah but have application in adjacent inter-mountain states.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this project is to develop a 
comprehensive guide for the management of irrigated pastures to assist 
livestock producers reduce cost and increase net returns.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1997 
and the appropriation for fiscal year 1997 was $200,000; for fiscal 
years 1998 and 2000, was $225,000 per year; and for fiscal year 2001, 
$249,450. A total of $1,124,450 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds in support of this project and related 
activities were $360,200 for 1997; $356,000 for 1998; $364,000 for 
1999; and $325,000 for 2000.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at the Utah Agricultural 
Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The principal investigators anticipate the completion date 
for some objectives to be in 2002. Some issues will require additional 
time for resolution.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The grant is peer reviewed annually through the 
institutions project approval process as well as by the CSREES National 
Program Leader and the last on-site review took place in November 1999. 
The evaluation summary noted that the program, as implemented at the 
farm level, has already produced significant results in addressing 
problems of forage/livestock operations in Utah and the surrounding 
area.
        peach tree short life in south carolina, south carolina
    Question. Please provide a description of the research that has 
been funded under the Peach Tree Short Life in South Carolina grant.
    Answer. Progress continued in 2000 with focus on the evaluation and 
longevity and productivity of Guardian rootstocks on peach tree short 
life sites in the southeast and replant sites throughout North America. 
More fundamental work has involved the biochemical characterization of 
the egg-kill factor produced by a bacteria on nematode eggs. Other 
basic studies involved the cloning of genes associated with production 
and expression of toxins from bacteria. New studies were initiated on 
the use of solarization to reduce nematode populations for peach tree 
replant.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. According to the principal researcher the problem of 
disease on peach, nectarine, and plum trees in the southeastern U.S. is 
very great. More than 70 percent of peach acreage in the southeast is 
affected. Research continued on the improvement of rootstocks and the 
use of the cultivar Guardian BY520-9, which has now been released in 22 
states including California, New Jersey, and Michigan where bacterial 
canker is a problem.
    Question. What was the original goal of this research and what has 
been accomplished to date.
    Answer. The goal of this research was the continued evaluation of 
productivity of peach using Guardian BY520-9 rootstocks in the presence 
of peach tree short life and investigations into novel management for 
ring nematodes by bacteria. Recent accomplishments include the increase 
in bulk commercial production of Guardian seed while two new Guardian 
selections have had very good nursery trails. Guardian rootstock 
continues to be tested in 22 states and is performing well. A marker 
for a gene for rootstock resistance to two root-knot nematode species 
was sequenced and successfully used to correctly sort current 
commercial rootstocks according to their known nematode resistance or 
susceptibility. A major find is that the egg-kill factor produced by 
the bacteria kills root-knot nematode eggs as well as ring nematode 
eggs.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1981, $100,000; fiscal years 1982 to 1985, 
$192,000 per year; fiscal years 1986 to 1988, $183,000 per year; fiscal 
year 1989, $192,000; fiscal year 1990, $190,000; fiscal years 1991 to 
1993, $192,00 per year; fiscal year 1994, $180,000; fiscal years 1995 
to 2000, $162,000 per year; and fiscal year 2001, $178,606. A total of 
$3,705,606 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources for this grant were as 
follows: $149,281 state appropriations in 1991; $153,276 state 
appropriations in 1992; $149,918 state appropriations in 1993; $211,090 
state appropriations in 1994; $193,976 in state appropriations in 1995; 
$169,806 in state appropriations in 1996 and 1997; $150,693 in state 
appropriations in 1998; $92,099 in 1999; and $92,099 in state 
appropriations in 2000.
    Question. Where is this work being carried out?
    Answer. This research is being conducted at the South Carolina 
Agricultural Experiment Station.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The researchers anticipate that the work may be completed 
in fiscal year 2001. Adequate progress has been made to assure that the 
objectives will be met before the completion date.
    Question. What was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The last agency evaluation of this project was a merit 
review completed January 2000. In summary, the evaluation of peach 
rootstocks with resistance to peach tree short life is of continued 
importance in managing this disease. The use of biological control 
strategies in suppression of plant parasitic nematodes are a 
complementary area of research in that it can enhance disease 
management by protecting the peach rootstocks. Solarization of orchard 
sites prior to peach tree replanting significantly altered the 
microbial community and suppressed nematode multiplication in the 
rhizosphere. Some accomplishments were the increased production and 
release of commercial Guardian seed and continued evaluation of 
rootstock in 22 states and provinces. A molecular techniques that 
separates resistant and susceptible peach rootstocks was validated.
                   peanut allergy reduction, alabama
    Question. Please provide a description of the research that has 
been funded under the Peanut Allergy Reduction, Alabama grant.
    Answer. The industry, in conjunction with Alabama A&M University, 
the University of Florida, and the University of Georgia are trying to 
develop a response to the peanut allergy problem and have determined 
that research is needed in the following areas: (1) the possibility of 
reducing the allergenic potential of peanuts through bioengineering and 
traditional breeding targeted at modifying the peanut proteins 
responsible for causing allergic reactions; (2) development of vaccines 
and other means to desensitize people with peanut allergies; and (3) 
development of better marketing, handling, and processing methods to 
reduce allergy risks.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Peanut allergies present a major problem for the growth of 
the peanut industry nationally, regionally, and locally. In addition, 
food and peanut allergy is becoming a major public health issue of 
national importance and a high priority research area.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goals of this research are to (1) Screen 
divergent peanut germplasm including cultivated and wild Arachis 
species for levels of Ara h1, Ara h2, and Ara h3 peanut allergens to 
determine the potential of breeding for reduced allergenicity; (2) 
Genomic cloning and characterization of Ara h1, Ara h2, and Ara h3 
peanut allergen genes including the determination of gene family size 
and composition; (3) Characterization of Ara h1, Ara h2, and Ara h3 
gene expression; (4) Determine the potential for differential gene 
silencing of multi-gene family members; and (5) Down-regulate allergen 
genes using anti-sense transformation. The award notification was 
received in September 2000. Personnel is being hired and preliminary 
experiments conducted.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in September of 
fiscal year 2000. The appropriation for fiscal year 2000 was $425,000 
and $498,900 has been allocated for fiscal year 2001. The total 
appropriation is $923,900.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. No non-Federal funds have been provided.
    Question. Where is this work being carried out?
    Answer. The research is carried out at Alabama A&M University in 
collaboration with the University of Florida and the University of 
Georgia.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The anticipated completion date of the specific objectives 
outlined above is fiscal year 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project with the award made in September 
2000. Therefore, no agency evaluation has been conducted. An internal 
review of the proposed project was conducted prior to awarding the 
grant in September 2000. The first agency evaluation is anticipated in 
2001.
               pest control alternatives, south carolina
    Question. Please provide a description of the research that has 
been funded under the Pest Control Alternatives, South Carolina grant.
    Answer. This grant supports research and technology transfer to 
provide growers with alternatives for managing pests and to implement 
the use of new alternatives reducing the sole reliance on chemical 
pesticides.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The investigators contributing to the research and 
technology transfer at South Carolina believe that need for the 
development of alternatives for managing pests on vegetables is a 
regional and national problem. Contributions from the South Carolina 
work are projected to impact vegetable production in the southern 
region and consumers of vegetable production from the southern region.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this program is to investigate alternative 
methods of managing insects, plant diseases, and nematodes in vegetable 
crops as complements to or as substitutes for conventional chemical 
sprays. The role of indigenous predators, parasites, and pathogens in 
controlling insect pests are being evaluated. The diamondback moth is 
the most serious pest of brassica crops such as cabbage, broccoli, 
cauliflower, and collards, and control of this pest alone costs growers 
millions of dollars per year. Integrated Pest Management approaches 
developed under this project conserve the indigenous biological control 
agents of the diamondback moth, especially the parasite, Diadegma, in a 
system that utilizes the microbial agent Bacillus thuringiensis, along 
with precise, yet time efficient, field scouting in collards in South 
Carolina. Other microbial agents, some from sources outside the U.S., 
are being tested to identify those that are most virulent against 
insect pests here in the U.S. Results from other work on cultural 
techniques that suppresses insects and diseases are being incorporated 
into grower recommendations. A system of forecasting melon diseases 
avoids over spraying the crop, saves money for growers, and lessens 
environmental impact by chemical pesticides. This is complimented by 
development of melon varieties that have natural resistance to plant 
diseases.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This work supported by this grant began in fiscal year 1992 
and the appropriation for fiscal years 1992 and 1993 was $125,000 per 
year. In fiscal year 1994 the appropriation was $118,000; in fiscal 
years 1995 through 2000, $106,000 per year; and in fiscal year 2001 is 
$116,743. A total of $1,120,743 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. South Carolina has provided approximately $182,000 in 
personnel support and operating dollars per year from state 
appropriations, agricultural chemical industry, and other non-Federal 
grants-in-aid based on the principal investigator's estimate.
    Question. Where is the work being carried out?
    Answer. This research and technology transfer program is being 
conducted at the South Carolina Agricultural Experiment Station, 
Clemson University at Clemson, Florence, and Charleston, South 
Carolina.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives of the project were for five-years. 
The project was revised in 1998 and continues.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Staff at CSREES evaluate this project annually from the 
annual project report which is submitted with the proposal for the next 
year of funding.
                      pest management alternatives
    Question. Please provide a description of the research that has 
been funded under the Pest Management Alternatives special grant.
    Answer. This special research grant supports projects that help 
farmers respond to the environmental and regulatory issues confronting 
agriculture. These special grant funds support research that provides 
farmers with replacement technologies for pesticides that are under 
consideration for regulatory action by the Environmental Protection 
Agency--EPA--and for which producers do not have effective 
alternatives. The passage of the Food Quality Protection Act--FQPA--of 
1996 makes this special research grant of critical importance to the 
Nation's farmers. Through these grants, new pest management tools are 
being developed to address critical pest problems identified by farmers 
and others. Where effective alternative tactics have been developed, 
they are widely and rapidly implemented by farmers. The call for 
proposals for these special research grant funds is published in the 
National Register and funds are distributed through a national open and 
competitive grants program directed by CSREES. Research priorities are 
identified annually by stakeholders, commodity groups, government, and 
private scientists, and others interested parties.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research.
    Answer. Insect, weed, and disease pests always present a risk to 
agricultural production of food and fiber. For the Nation's 
agricultural production system to keep pace with the domestic and 
global demand for food and fiber it must have access to safe, 
profitable, and reliable pest management alternatives. For a variety of 
reasons, fewer pesticides are available today than just a few years 
ago. The FQPA is a major factor in reducing the number of pest 
management alternatives for U.S. producers. This grant provides new 
pest management tools and pest management information, with the intent 
of helping farmers remain competitive in today's global marketplace.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This research is conducted to help farmers respond to the 
environmental and regulatory issues confronting agriculture by 
providing them with new options for managing pests. The research 
supported by this special grant identifies new ways and products to 
manage pests during this time of great change. A few examples of 
successful outcomes from previous grants in this program include: ways 
to reduce organophosphates use in apple production; modified cropping 
systems that replace herbicide use in pumpkins and squash; surface 
amendments that reduce aerial pesticide pollutants; development of pest 
and natural enemy thresholds to improve pest scouting on wheat; models 
to improve pesticide use efficiencies in minor fruit crops; improved 
insecticide and herbicide spray technology; new selective insecticides 
to control broccoli insects; and use of non-traditional oil sprays to 
control mites on apples.
    Question. How long has this work been underway and how much as been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal years 1996 through 2000, $1,623,000 each year, and 
fiscal year 2001, $1,619,429. A total of $9,734,429 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds are provided to this grants program.
    Question. Where is the work being carried out?
    Answer. All state agricultural experiment stations, all colleges 
and universities, other research institutions and organizations, 
Federal agencies, private organizations or corporations, and 
individuals are eligible to compete for this funding. This research is 
currently being carried out by State Agricultural Experiment Stations 
and other research organizations located in 23 States.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The economic and environmental pressures facing U.S. 
agriculture today surpass those of 1996 when Federal funds were first 
appropriated for this special research grant. There will be a need for 
continued investment in research to develop new approaches to managing 
pests for the foreseeable future as the FQPA is implemented.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Each new Call for Proposals and all submitted project 
proposals are evaluated annually by a multi-disciplinary panel for both 
relevancy and scientific merit. A jointly sponsored USDA and EPA 
workshop to evaluate the progress and scope of this program was held in 
Arlington, Virginia on May 11, 1999. The conclusions were that the 
program was on course and making good progress and could do more with 
additional funding. The projects supported by this special research 
grant have consistently provided key knowledge needed in developing new 
approaches to pest management. The focus on pesticides targeted by FQPA 
assures that critical pest management alternatives are being addressed. 
This grants program has supported 93 projects in 29 states since it 
started five years ago.
                   phytophthora root rot, new mexico
    Question. Please provide a description of the work that has been 
funded by the Phytophthora Root Rot, New Mexico grant.
    Answer. Research supported by this grant has concentrated on 
developing breeding strategies for developing durable resistant 
cultivars. As part of this work, a genetic population is being 
developed that will be used for molecular analysis of resistance.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. This project aims to halt the spread of Phytophthora root 
rot and foliar blight before chile production in the U.S. is sharply 
inhibited. Through the combination of Phytophthora root rot and foliar 
blight resistant cultivars and proper cultural practices, southwestern 
chile growers will be ensured a sustainable and profitable future and a 
leading place in the world market. Phytophthora is one of the major 
diseases of chile and has limited production in all states growing 
chiles.
    Question. What was the original goal of this research, and what has 
been accomplished to date?
    Answer. The original goal has been to reduce loss of chile 
production to the Phytophthora syndrome of diseases. Since beginning 
this research, the project has discovered that there are at least three 
different disease syndromes caused by the pathogen. In addition, 
resistance in the host to Phytophthora is multi-genic for each 
syndrome. Furthermore, cultural practices have been found that lessen 
the severity of the disease under commercial production conditions.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1991 
with an appropriation of $125,000 for that year. Fiscal years 1992 and 
1993 appropriations were $150,000 per year; $141,000 in fiscal year 
1994; $127,000 per year in fiscal years 1995 through 2000; and $137,696 
in fiscal year 2001. A total of $1,465,696 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds from state appropriations and the 
California Pepper Commission were $255,614 in 1997; $253,614 in 1998; 
$250,000 from state appropriations and $61,000 from the New Mexico 
Chile Commission in 2000; and a state appropriation of $280,000 in 
2001.
    Question. Where is this work being carried out?
    Answer. The research is being carried out at New Mexico State 
University in the Department of Agronomy and Horticulture. Greenhouse 
and field facilities are being utilized at the Fabian Garcia Science 
Center and at the Leyendecker Plant Science Research Center.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the research objectives 
is 2005. Additional special funding is sought for 2001 to continue New 
Mexico State University's Agriculture Experiment Station research 
efforts to control soil borne diseases in irrigated agriculture. The 
Federal funds provided in fiscal year 2000 helped accelerate research 
results.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Peer review is not required for renewal proposals provided 
that the project has not changed significantly, other scientific 
discoveries have not affected the project, or the need for the project 
has not changed. However, the CSREES Special Grant--Prevention of 
Soilborne Diseases in Irrigated Agriculture--has undergone scientific 
peer review. This project has been evaluated for technical quality and 
relevance to regional goals by researchers with the scientific 
knowledge and technical skills to conduct the proposed research work. 
They have read and made comments that were incorporated into the 
proposal.
                      pierce's disease, california
    Question. Please provide a description of the research that has 
been funded under the Pierce's Disease, California grant.
    Answer. This is a new grant. CSREES has requested the University of 
California to submit a grant proposal defining a competitive process 
that will identify the best research, education, and extension programs 
to address this problem.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Pierce's Disease is a devastating disease of grapes that 
severely limits production wherever it occurs. It is vectored by the 
glassy-winged sharpshooter, which has recently expanded its range into 
California vineyards in the southern half of the state. California is 
the lead state in production of grapes for all uses, which include 
wine, fresh table, and raisins, with a total crop value approaching $40 
billion. Control of this important disease and management of its vector 
are essential to the continued viability of this vital agricultural 
industry.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This is a new grant and the proposal for funding is 
presently being developed. The primary goals of the proposal will be to 
slow the spread of the glassy-winged sharpshooter and to discover a 
method of controlling Pierce's Disease.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001.
    Answer. The work supported by this grant is being initiated in 
fiscal year 2001 and the amount appropriated for fiscal year 2001 is 
$1,895,820.
    Question. What is the amount and source of non-Federal funds 
provided by fiscal year?
    Answer. The total non-Federal contribution to this project for 
fiscal year 2001 is $1,250,000. The State of California has designated 
$750,000 for control of Pierce's Disease. In addition, the Town of 
Temecula in conjunction with Riverside County, both in California, have 
designated $250,000 toward this project in fiscal year 2001. The 
viticulture industry in California has contributed $250,000 toward this 
project in fiscal year 2001.
    Question. Where is this work being carried out?
    Answer. The work is being carried out by the California 
Agricultural Experiment Station. Funds will be awarded competitively to 
scientists from around the country involved in research on Pierce's 
Disease.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these been met? What is the anticipated 
completion date of the additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is the end of fiscal year 2006.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. This is a new project. Each proposal submitted to the 
project will undergo a peer review. CSREES will review annually the 
request for proposals developed for this program.
   plant, drought, and disease resistance gene cataloging, new mexico
    Question. Please provide a description of the work that has been 
funded by the Plant, Drought, and Disease Resistance Gene Cataloging, 
New Mexico grant.
    Answer. The specific objectives of this project are to construct, 
curate, and distribute cDNA libraries for genes that are differentially 
expressed in response to drought or disease. The DNA sequence and the 
pattern of expression of these genes will be determined, and this 
information will be made publicly available in databases. The specific 
plants under investigation include representatives from the major crop 
plant families: legumes, grasses, and the Solanacea.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Water deficit stress is the most severe and ubiquitous 
stress plants face. As urban and agricultural needs for water continue 
to compete, it is of national importance to understand which genes 
control drought resistance. This problem is especially pronounced in 
the arid southwest of the U.S.
    Question. What was the original goal of this research, and what has 
been accomplished to date?
    Answer. The original goal of this project was to develop the 
facilities to perform plant genomic research at the New Mexico State 
University in collaboration with other institutions in the state, Los 
Alamos National Laboratory, and the National Center for Genome 
Resources. The project was intended to develop plant functional 
genomics in the thematic area of biotic and abiotic stress responses. 
To date, cDNA libraries of drought responsive genes have been 
constructed from five different samples and one library of disease 
responsive genes. Scientists are now beginning to use microarray 
approaches to characterize gene expression profiles. DNA sequence 
information has been generated for several hundred genes from these 
libraries.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1998 
and has been supported with appropriations of the following amounts: 
fiscal years 1998 and 1999, $150,000 per year; fiscal year 2000, 
$212,500; and fiscal year 2001, $249,450. A total of $761,950 has been 
appropriated since fiscal year 1998.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. New Mexico Agricultural Experiment Station is providing six 
percent of co-Principal Investigators' salaries, at a cost of 
approximately $9,000.
    Question. Where is this work being carried out?
    Answer. This work is conducted primarily on the main campus of New 
Mexico State University in Las Cruces, New Mexico. Some collaborative 
work is conducted with scientists at Los Alamos National Laboratory in 
Los Alamos, New Mexico, and with scientists at the National Center for 
Genome Resources in Santa Fe, New Mexico. A researcher from the Los 
Alamos National Laboratory, is collaborating on the microarray 
technology, and a researcher from the National Center for Genome 
Resources is collaborating on the gene expression database technology.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Principal Investigators developed a detailed project 
outline for a five-year project, from 1998 through 2003, with specific 
yearly goals and objectives. Each year a detailed progress report is 
provided specifically addressing the bulleted yearly goals and 
objectives. The project is on schedule. The anticipated completion date 
for the project is May 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The last agency evaluation of this project was a merit 
review in March 2000. This evaluation noted that the faculty at New 
Mexico State University have been conducting research on genes involved 
in disease and drought resistance on a wide range of crops and have 
recently developed expertise and collaborative efforts in 
bioinformatics. It was further noted that this project addresses high 
priority objectives in plant genetics that are directed to 
economically-important crops and approval of funding was highly 
recommended.
                            potato research
    Question. Please provide a description of the research that has 
been funded under the Potato Research grant.
    Answer. Scientists at several of the State Agricultural Experiment 
Stations are breeding new potato varieties, high yielding, disease, and 
insect resistant potato cultivars, adapted to the growing conditions in 
their particular areas, both for the fresh market and processing. 
Research is being conducted in such areas as protoplast regeneration, 
somoclonal variation, storage, propagation, germplasm preservation, and 
cultural practices. Congressional language for fiscal years 1997 
through 2001 has directed CSREES to award these funds on a competitive 
basis. In each of the years, CSREES published a request for proposals 
in the Federal Register and awarded grants competitively based on a 
scientific peer review.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This research effort addresses needs of the potato 
producers and processors throughout the U.S.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal was to improve potato production through 
genetics and cultural practices as well as improve storage for quality 
potatoes for processing and fresh market. This research has resulted in 
a number of new high yielding, good quality, disease, and insect 
resistant cultivars, which are now being used in the processing 
industry and in the fresh market. CSREES has been successful using a 
farmer review panel and a scientific peer panel in directing more 
regional comprehensive breeding programs that have resulted in potato 
varieties targeted to the specific growing conditions of that region. A 
number of the new cultivars have also been adaptable to other regions. 
These programs have also had success in identifying resistance to pests 
and pathogens in wild germplasm and are developing expertise to 
incorporate genetic engineering approaches as traditional components of 
the program.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1983, $200,000; fiscal year 1984, $400,000; fiscal 
year 1985, $600,000; fiscal years 1986-1987, $761,000 per year; fiscal 
year 1988, $997,000; fiscal year 1989, $1,177,000; fiscal year 1990, 
$1,310,000; fiscal year 1991, $1,371,000; fiscal years 1992 and 1993, 
$1,435,000 per year; fiscal year 1994, $1,349,000; fiscal years 1995 
through 1998, $1,214,000; fiscal years 1999 and 2000, $1,300,000 per 
year; and fiscal year 2001, $1,446,810. A total of $20,698,810 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $401,424 state appropriations, $4,897 product sales, 
$249,830 industry, and $30,092 miscellaneous in 1991; $567,626 state 
appropriations, $6,182 product sales, $334,478 industry, and $44,323 
miscellaneous in 1992; $556,291 state appropriations, $9,341 product 
sales, $409,541 industry, and $44,859 miscellaneous in 1993; $696,079 
state appropriations, $21,467 product sales, $321,214 industry, and 
$226,363 miscellaneous in 1994; $935,702 state appropriations, $35,376 
product sales, $494,891 industry, and $230,080 miscellaneous in 1995; 
and an estimated $900,000 state appropriations, $10,000 product sales, 
$400,000 industry, and $200,000 miscellaneous in each of the years 1996 
through 2000. A total of $13,170,056 in non-Federal funds have been 
provided from fiscal year 1991 through 2000.
    Question. Where is this work being carried out?
    Answer. The research work is being carried out at the New York, 
Idaho, Maine, Michigan, North Dakota, Oregon, Pennsylvania, Virginia, 
Washington, North Carolina, New Jersey, Wisconsin, and Colorado State 
Agricultural Experiment Stations. The grant to Colorado is divided by 
Colorado with the California and Texas Agricultural Experiment 
Stations.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project was initiated to accomplish significant results 
in about five years, but because genetic varietal development takes 
from 5 to 10 years, we anticipate significant progress by 2006.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Beginning in fiscal year 1997, these funds have been 
awarded on a competitive basis using a scientific peer review. In 
addition, CSREES conducts a formal meeting with representatives from 
the potato industry to review research needs and provide input to the 
agency on the merits of the proposals.
                    precision agriculture, kentucky
    Question. Please provide a description of the research that has 
been funded under the Precision Agriculture, Kentucky grant.
    Answer. Research will evaluate site-specific practices for 
production of corn and soybeans under field conditions. The work will 
compare various combinations of management practices, using site-
specific technology, and evaluate economics of its application.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The need for this research is to provide objective 
information about precision agriculture technologies to assist farmers 
in the development of management systems that are productive, 
economical, and environmentally benign.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to evaluate site-
specified technologies and develop recommendations related to variation 
in fertility, erosion potential, drainage, and soil physical condition. 
The ultimate goal is to demonstrate the potantial economic and 
envrionmental benefits from precision practices.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999 
and the appropriation for fiscal year 1999 was $500,000 in fiscal year 
2000, $850,000; and in fiscal year 2001, $748,350 total of 2,098,350.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The estimate for non-Federal funds supporting this project, 
largely from state appropriations, was $425,000 in fiscal year 1999 and 
$787,000 in field year 2000.
    Question. Where is this work being carried out?
    Answer. This research will be conducted at the Kentucky Agriculture 
Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for this project is 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project will be evaluated upon receipt of the required 
grant proposal.
                    pre-harvest food safety, kansas
    Question. Please provide a description of the research that has 
been conducted under the Pre-Harvest Food Safety, Kansas grant.
    Answer. Longitudinal studies on the fecal shedding of Escherichia 
coli 0157:H7--E. coli 0157:H7--by cattle on beef cow-calf ranches are 
being done to determine the impact of various routine management 
practices on the shedding rate. The purpose of the research is to 
develop an understanding of the management factors that contribute to 
the incidence of E. coli 0157:H7 in beef cattle. During the past two 
years, the project has been enlarged to include more monitoring of 
environmental and wildlife samples to determine reservoirs for E. coli 
0157:H7.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for the 
research?
    Answer. The presence of E. coli in beef animals sent to slaughter 
can contribute to the contamination of meat products produced from such 
animals. This has increased the need for control measures that could 
reduce the incidence of such food-borne human pathogens in food animals 
during the production cycle. With the implementation of mandatory 
Hazard Analysis Critical Control Point--HACCP--programs for E. coli 
0157:H7 in slaughter plants, there is increased pressure for the 
livestock producer to deliver animals to slaughter with reduced 
prevalence of E. coli 0157:H7. This type of research has been 
identified as critical by all food animal commodity groups as well as 
public health officials and consumers. An additional problem has now 
emerged as we learn more about the ecology of the E. coli 0157:H7 
organism, namely, the ubiquitous nature of this bacterium in the 
general environment, including water sources as well as various species 
of wildlife.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal was to determine the incidence of E. coli 
0157:H7 in large versus small beef cow-calf operations and describe the 
management factors that contribute to or affect the rate of shedding of 
organisms in the feces of such animals. E. coli 0157:H7 has been 
detected in 3.11 percent of monthly fecal samples--n=3152--with 4.57 
percent of the 2,058 animals having at least one positive sample. Fecal 
shedding was normally transient; only one animal was positive on more 
than one sampling date. In addition, there was a difference in 
prevalence between farms. Sources of drinking water were also examined 
and 3.5 percent of 199 water samples were positive. Of particular 
interest was that 8.3 percent of 24 creek/stream samples and 2.9 
percent of 103 pond samples were positive. In addition, isolates of E. 
coli 0157:H7 have been obtained from wildlife, especially deer. 
Management practices on the ten farms are being examined to determine 
if there are specific risk factors that can be identified. As the work 
has progressed, however, the significance of the rather widespread 
presence of E. coli 0157:H7 in the general environment has resulted in 
added objectives to this important study.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1996. 
The appropriations for fiscal years 1996 through 2000 were $212,000 per 
year, and for fiscal year 2001 is $211,534. A total of $1,271,534 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds by 
fiscal year?
    Answer. Non-Federal funds have been contributed to this project as 
follows: In fiscal year 1996 non-Federal funds were $150,000 in state 
appropriations and $91,450 in contributed indirect costs; 1997 non-
Federal funds were $165,000 in state appropriated funds and $90,300 in 
contributed indirect costs; 1998 non-Federal funds were $175,000 in 
state funds and $91,500 in contributed indirect costs; 1999 non-Federal 
funds were $109,957 in state funds and $90,800 in contributed indirect 
costs; 2000 non-Federal funds were $125,193 in state funds and an 
additional $91,300 in contributed indirect costs.
    Question. Where is this work being performed?
    Answer. This research is being conducted at Kansas State 
University, University of Nebraska-Lincoln, and at ranches in Kansas, 
Nebraska, and Colorado.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date was October 1, 1998 for the 
original objectives. However, the project was not initiated until 
several months after the expected start date of October 1, 1995 and the 
original objectives were completed in late spring of 1999. As the 
project has progressed, the Principal Investigator has added other 
important questions to the original research plan and has planned to 
look more closely at management interventions that could help reduce 
the incidence of E. coli shedding in beef cattle. During the past two 
years, the project has added objectives which are focused on 
environmental issues such as prevalence of E. coli 0157:H7 in wildlife 
as well as in various water supplies used by the cattle. Thus the 
project is expected to continue for some time after the original 
expected termination date. The research team has been very productive 
and has completed the original goals of the project but has taken the 
initiative to look further at the environmental issues.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was evaluated by an on-site visit on October 
28-29, 1997 by the CSREES National Program Leader. The project team was 
doing an excellent job, and the interactive collaboration was 
outstanding. The research team has also been successful in bringing 
other participants into the program. Also, the project leader provided 
a very comprehensive written report on December 4, 2000, which 
summarizes the current status of the research project. Several 
scientific papers have been given at scientific meetings. Three peer 
reviewed manuscripts have been published and two more are currently in 
the review process. Manuscripts are being published as rapidly as data 
are assembled, analyzed, and prepared for publication.
             preservation and processing research, oklahoma
    Question. Please provide a description of the research that has 
been funded under the Preservation and Processing Research, Oklahoma 
grant.
    Answer. Research has focused on the effects of preharvest and 
postharvest factors on the market quality of fresh and minimally-
processed horticultural products, including pecans, watermelons, 
spinach, and various herb, spice, and colorant crops for further 
processing as nutraceuticals. Researchers have developed harvester 
prototypes for maximizing active component yield from marigold flowers 
and from sage, for incorporation with drying and threshing systems to 
accommodate further processing. Research focuses on integration of 
production, harvesting and postharvest handling systems for fresh 
market, and processing market horticultural products. Research 
continues on methods to determine textural properties of pecans, and is 
being extended for development of improved pecan grading and sorting 
systems. Precision farming operations using remote optical sensing 
technology to optimize chemical inputs and improve profitability for 
Oklahoma spinach production are being developed and implemented.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Technological improvements in fruit, nut, and vegetable 
handling systems are needed to supply domestic markets and support 
continued participation in international commerce. Processing systems 
under development for commercial adaptation will support market 
expansion of pecans and various nutraceutical crops, affecting product 
market potential and value regionally. Improvements in combined 
production, postharvest handling, and processing systems are necessary 
to support growth of the state and national horticulture and related 
agriculture industries and ensure competitive involvement in national 
and international commerce of horticultural commodities uniquely suited 
for production in Oklahoma. New extraction facilities will continue to 
have a positive impact on local economies, incorporating a new-value 
added processing industry, providing local employment opportunities, 
and a new local market for Oklahoma produced commodities.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research has been to define the major 
limitations for maintaining quality of harvested fruits, vegetables, 
tree nuts and nutraceutical crops, and prescribe appropriate 
harvesting, handling, and processing protocols to extend shelf life and 
enhance marketability of harvested horticultural commodities. 
Technologies and procedures previously developed for cucurbit, tree 
fruit, sweet corn, and okra systems are being applied to development of 
pepper, sage, spinach, and marigold cropping, handling, and light 
processing systems, with a targeted completion date of 2003. Research 
from this project provided the basis for commercial high relative 
humidity storage of peaches and is focusing on implementation of 
systems for maintenance of high active ingredients in nutraceutical 
crops to complement and extend efforts towards economical value-added 
extraction of foods.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1985, $100,000; fiscal year 1986, $142,000; fiscal 
year 1987, $242,000; fiscal years 1988 and 1989, $267,000 per year; 
fiscal year 1990, $264,000; fiscal year 1991, $265,000; fiscal year 
1992, $282,000; fiscal year 1993, $267,000; fiscal year 1994, $251,000; 
fiscal years 1995-2000, $226,000 each year; and fiscal year 2001, 
$225,503. A total of $3,928,503 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. State funds have been provided as follows: fiscal year 
1991, $126,900; fiscal year 1992, $209,783; fiscal year 1993, $219,243; 
fiscal year 1994, $308,421; fiscal year 1995, $229,489; fiscal year 
1996, $366,570; fiscal year 1997, $397,881; fiscal year 1998, $205,662; 
fiscal year 1999, $206,334; and fiscal year 2000, $193,126. The state 
also invested $16.1 million for development of an Agricultural Products 
and Food Processing Center and approximately $2.0 million annually to 
staff and operate the facility.
    Question. Where is the work being carried out?
    Answer. This work is being conducted at the Oklahoma State 
Agricultural Experiment Station, in conjunction with ongoing production 
research at the Wes Watkins Agricultural Research and Extension Center 
and the South Central Agricultural Research Laboratories.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. It is expected that ongoing research will be completed in 
2004. Additional related objectives beyond this date would address 
further opportunities for horticulture industry growth, innovative food 
processing technologies, and associated economic development.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An agency science specialist conducts a merit review of the 
proposal submitted in support of the appropriation on an annual basis. 
A review of the proposal supporting the fiscal year 2000 appropriation 
was conducted on May 11, 2000. Additionally, scientists from outside 
the university routinely review proposals prior to submission to the 
agency. The project was evaluated as part of a comprehensive site 
review in the fall of 1995, with a recommendation by the review team to 
continue and substantially expand the value-added product development.
                        produce pricing, arizona
    Question. Please provide a description of the research that has 
been funded under the Produce Pricing, Arizona grant.
    Answer. CSREES has requested Arizona State University to submit a 
grant proposal that has not yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. This research is needed address a number of pricing issues 
and problems in the changing produce industry.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to understand a 
variety of pricing problems in the produce industry and to evaluate 
pricing alternatives.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This is a new project that begins in fiscal year 2001. The 
appropriation for fiscal year 2001 is $75,833.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. We expect state appropriated funds to become a part of this 
project. The dollar amount will be included with the proposal.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at Arizona State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What if the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives and anticipated completion date 
will be specified in the forthcoming proposal.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency will evaluate the project when the first 
proposal is received.
                       protein utilization, iowa
    Question. Please provide a description of the research that has 
been funded under the Protein Utilization, Iowa grant.
    Answer. CSREES has requested the university to submit a grant 
proposal that has not yet been received. The research will deal with 
the utilization of proteins to design new products. Research will be 
conducted at Iowa State University.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The need for research is to create value added market for 
new protein products with potential for national and international 
markets
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The overall goal of this project is to develop technologies 
that will add value to soybean proteins using industrial enzymes. The 
investigators propose to (1) improve the functional properties of soy 
proteins; (2) restore the functional properties of head-treated soy 
proteins; and (3) enhance protein recovery from soybeans and soy 
products. Iowa State University will team up with Genecor International 
Inc. to utilize the company's industrial enzyme library in achieving 
the goal. This is a new project, and the accomplishments will be 
reported at the end of the project period.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $189,582.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The sources of matching funds will be known when the full 
proposal is received from the university.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at Iowa State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is August 2002.
    Question. What was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Since this the first year of the proposed award, no 
previous evaluation has been conducted.
                    rangeland ecosystems, new mexico
    Question. Please provide a description of the research that has 
been funded under the Rangeland Ecosystems, New Mexico grant?
    Answer. Current research is focused on the ecology of noxious and 
invasive weeds that are endemic to New Mexico's rangelands. Competitive 
research grants have been awarded that deal with studying the 
physiological and toxicological effects of these weeds on livestock.
    Question. According the research proposal, or the principal 
researchers, what is the national, regional, or local focus for this 
research?
    Answer. Noxious weeds are a serious problem in the southwestern 
U.S. More than one-half of the rangeland is infested in New Mexico and 
about one-fifth of the rangeland in Texas. Under this program, 
researchers are working to develop an integrated weed management 
approach in rangeland ecosystems for that region.
    Question. What was the original goal of this research and what has 
been accomplished?
    Answer. Research has led to the understanding of broom snakeweed 
and other noxious weeds resulting in a better understanding of plant's 
strategy for invasion and persistence. Currently, the primary focus of 
research is addressing the need for an integrated weed management 
approach for noxious weeds, especially broom snakeweed. Three general 
areas of research are ecology and management, biological control, and 
toxicology and animal health. One specific accomplishment is the 
biological control arena; several plant pathogens and insects are 
proving to be effective in broom snakeweed's control.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001.
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1989, $100,000; fiscal year 1990, $148,000; fiscal 
year 1991, $150,000; fiscal years 1992 and 1993, $200,000 per year; 
fiscal year 1994, $188,000; fiscal years 1995 and 1996, $169,000 each 
year; fiscal year 1997, $175,000; fiscal year 1998, $185,000; and for 
fiscal years 1999 and 2000, $200,000 per year; and for fiscal year 
2001, $299,340. A total of $2,383,340 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $249,251 state appropriations in 1991; $200,110 state 
appropriations in 1992; $334,779 state appropriations in 1993; $302,793 
state appropriations in 1994; $294,451 state appropriations in 1995; 
and an estimated $300,000 in state appropriations in each fiscal year 
1996 through 2000. A total of $2,881,384 in non-Federal funds have been 
provided since fiscal year 1991 through 2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at New Mexico State University 
and throughout the State of New Mexico under actual field conditions.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project was initiated in 1991. Considerable progress 
has been made on many of the original objectives. Currently, additional 
and related objectives have evolved, and anticipated completion date 
for these is 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Each year the grant is peer reviewed with oversight by an 
administrative executive committee within the College of Agriculture 
and Home Economics at New Mexico State University. Additionally, 
CSREES' senior scientific staff review the progress of the grant. Those 
reviews indicated progress in achieving the objectives.
                     red snapper research, alabama
    Question. Please provide a description of the research that will be 
funded under the Red Snapper Research, Alabama grant.
    Answer. The principal investigators will be developing techniques 
to culture red snapper in the Gulf of Mexico.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher indicates that there is a regional 
need for red snapper research because of its importance to the Gulf 
states and the fact that it is presently considered to be an over-
fished species by commercial and recreational interests. Current 
harvest limitations mandated by Federal actions have resulted in 
economic losses to coastal communities. Research will provide critical 
knowledge in efforts to restore native populations and stimulate the 
development of aquaculture enterprises in the Gulf region.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The project was initiated in fiscal year 2000. The overall 
goal of the research is to develop hatchery, nursery, and growout 
methods for the mass production of red snapper that will lead to 
opportunities for aquaculture development and aid in management and 
restoration of wild stocks. Accomplishments in fiscal year 2000 
included refinement of egg quality evaluation methods to improve larval 
survival, development of hormone spawning protocols to improve the 
stimulation of egg release and natural fertilization, evaluation of 
diets to improve sexual maturation of brood stock, and initiation of 
studies on photoperiod and temperature manipulation to improve brood 
stock spawning.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000 
and the appropriation for fiscal year 2000 was $510,000 and for fiscal 
year 2001 is $723,405. The total appropriation for this project to date 
is $1,233,405.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The principal investigators indicate that non-Federal 
support for this project is provided by the use of state-owned public 
and private facilities. For fiscal year 2000 state appropriations 
included $20,000 for salary support and facility use and miscellaneous 
sources contributed $11,000 for a total of approximately $31,000.
    Question. Where is this work being carried out?
    Answer. The research is being conducted through the Alabama 
Agricultural Experiment Station at the Claude Peteet Mariculture Center 
located in Gulf Shores, Alabama, and at the Alma Bryant High School in 
Bayou La Batre, Alabama.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is fiscal year 2002. The project was initiated in fiscal year 2000. 
Studies are currently underway relating to spawning, diet development, 
broodstock development, and methodologies for growout of food-sized 
fish. Project objectives are anticipated to be met in fiscal year 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency will evaluate the progress of this new project 
on an annual basis. The university submitted an accomplishment report 
for evaluation purposes for fiscal year 2000 activities that will be 
updated and included in the fiscal year 2001 proposal submitted to 
CSREES. The university is fulfilling its work objectives and expanding 
collaboration with other institutions conducting related research. The 
2001 CSREES review will be completed within three weeks of submission 
of the fiscal year 2001 proposal. The researchers will be requested to 
develop the research proposal consistent with the National Science and 
Technology Council's Strategic Plan for Aquaculture Research and 
Development as in the past.
                  regional barley gene mapping project
    Question. Please provide a description of the work that has been 
funded under the Regional Barley Gene Mapping Project grant.
    Answer. The Regional Barley Genome Mapping Project is a multi-
disciplinary, multi-institutional project to develop a genome map of 
barley. Specific objectives are to: construct a publicly-available 
medium resolution barley genome map; use the map to identify and locate 
loci, especially quantitative trait loci controlling economically-
important traits such as yield, maturity, adaptation, resistance to 
biotic and abiotic stresses, malting quality, and feed value; provide 
the framework for efficient molecular marker-assisted selection 
strategies in barley varietal development; identify chromosome regions 
for further, higher resolution mapping with the objective of 
characterizing and utilizing genes of interest; and establish a 
cooperative mapping project ranging from molecular genetics to breeding 
that will be an organizational model for cereals and other crop plants.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes barley breeders 
nationwide need information about the location of agriculturally-
important genes controlling resistance to biotic and abiotic stresses, 
yield, and quality factors in order to rapidly develop new, improved 
cultivars and respond to disease and pest threats. This project 
provides that information along with appropriate molecular markers to 
track these traits through the breeding and selection process. The 
project is national in scope.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this project has been to develop a 
restriction fragment length polymorphism map for barley and associated 
important genetic traits as a map to provide closely-linked molecular 
markers for barley breeders. The project successfully mapped 300 
molecular markers. Portions of the map are described as very dense and 
contain key location points for enhanced utility. The project is now 
using the map to locate quantitative traits loci of economic 
importance. These include genetic determinations for yield, maturity, 
rust resistance, plant height, seed dormancy, and components of malting 
quality. Technical papers have been published to report research 
results to the scientific community.
    Question. How long has this work been under way and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1990, $153,000; fiscal year 1991, $262,000; fiscal 
years 1992-1993, $412,000 per year; fiscal year 1994, $387,000; and 
fiscal years 1995-1998, $348,000 each year; fiscal year 1999, $400,000 
fiscal year 2000, $425,000; and fiscal year 2001, $586,706. A total of 
$4,429,706 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $203,760 from industry in 1991; $212,750 from industry 
in 1992; $115,000 from industry in 1993; $89,000 from industry in 1994; 
and $35,000 from the State of Washington and $108,000 in other non-
Federal funding, for a total of $143,000 in 1995, $163,000 for 1996, 
$178,240 in 1997. In 1998, $147,000; for 1999, $156,000; and for 2000, 
$154,000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted in the following state 
agricultural experiment stations; Oregon, Colorado, Washington, 
Montana, Idaho, North Dakota, Minnesota, New York, Virginia, and 
California.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objective was to produce a genetic map of 
agronomically important traits of the barley genome. The anticipated 
time to complete this task was estimated at ten years with completion 
in 1999. The initial goals have been exceeded; however, maps are never 
``done''. The next step will be physical mapping of gene-rich regions 
in order to study the genes and understand pathways. Researchers will 
focus on quality and disease resistence. This phase is projected for 
completion in 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. In 1998, the special grant proposal was subjected to the 
project approval process at Oregon State University, which is the lead 
university, and reviewed by an agency scientist. This project is made 
up of many competitively-awarded mini grants. A subgroup of the 
National Barley Improvement Committee, which is composed of elected 
representatives of research, growers, and industry, serves as the peer 
panel to review and select proposals based on relevance to the original 
objectives and scientific merit. Multi-disciplinary, multi-
institutional, and continuing projects are given the highest priority. 
The overall project and its min-grants have been judged to be 
scientifically sound and appropriate for the stated objectives, based 
on comments and rating from peer scientists which is done on each 
support prior to selection.
     regionalized implications of farm programs, missouri and texas
    Question. Please provide a description of the research that has 
been done under the program on Regionalized Implications of Farm 
Programs, Missouri and Texas grant.
    Answer. The University of Missouri continuously provides 
regionalized analysis of alternative farm program designs. This 
includes providing farm level analysis of national changes in 
agriculture policy.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. The need for this research is to give farm-level or micro 
view of macro-level changes; and to provide as accurate and robust an 
analysis as possible in order to point out regional differences in 
policy alternatives.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original, as well as current, goal is to provide the 
farm community, agribusiness groups, and public officials information 
about farm, trade, and fiscal policy implications by developing 
regionalized models that reflect farming characteristics for major 
production regions of the U.S. The researchers have developed a farm 
level policy analysis system encompassing major U.S. farm production 
regions. This system interfaces with existing agricultural sector 
models used for farm, macroeconomic, and trade policy analysis. The 
universities have expanded the number and types of representative farms 
to 80. Typical farm models also are being developed for Mexico and 
Canada under a collaborative agreement for use in analyzing impacts of 
the North American Free Trade Agreement.
    Policy studies completed this past year at the request of 
policymakers and farm groups included analysis of the impacts of 
marketing loan provisions on farmers' economic viability; drought on 
farm income and farm viability; early provision of Agricultural Market 
Transition Act payments, risk management accounts; and other crop 
insurance and disaster assistance alternatives.
    Results of these analyses were presented to more than 60 different 
groups across the U.S., including both congressional agriculture 
committees. The Agricultural and Food Policy Center web site, which 
contains copies of all Working and Briefing Papers, was visited more 
than 345,000 times and more than 2 billion bytes of information was 
transferred.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1990 
and the appropriation for fiscal year 1990 was $346,000. The fiscal 
years 1991-1993 appropriations were $348,000 per year; $327,000 in 
fiscal year 1994; $294,000 in each of the fiscal years 1995 through 
2000; and $293,353 in fiscal year 2001. A total of $3,774,353 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $288,843 State appropriations and $46,773 industry for 
a total of $335,616 in 1991; $45,661 State appropriations in 1992; 
$33,979 State appropriations in 1993; $40,967 State appropriations in 
1994; $161,876 State appropriations in 1995; $187,717 State 
appropriations for 1996; $137,100 for 1997; and $161,400 for 1998.
    Question. Where is this work being carried out?
    Answer. Research is being conducted by the Texas A&M University and 
the University of Missouri at Columbia.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This program is of a continuing nature for the purpose of 
assessing the impacts of existing policies and issues and proposed 
policy and program changes at the individual firm level for feed grain, 
wheat, cotton, rice, oilseed and livestock producers. In addition, the 
representative farms are constantly being updated as farming practices 
change. Currently the researchers are making adjustments for the 
increasing use of Bt and Round-Up Ready seeds.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. No formal evaluation of this project has been carried out, 
however the CSREES representative is in regular contact throughout the 
year to track the progress of the stated objectives.
                        rice modeling, arkansas
    Question. Please provide a description of the research that has 
been funded under the Rice Modeling, Arkansas grant.
    Answer. The purpose of this research project is to develop a 
regional, national, and global rice industry model for use in analyzing 
the impact of changes in domestic and foreign public policies on 
production, trade, stocks, substitute crops, farm prices, and domestic 
as well as global consumption.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Research is needed to assist both the U.S. rice industry 
and national policymakers in assessing the impact of existing and 
proposed changes in public policies for rice. This research enables 
improved analysis of both international and domestic policy changes on 
rice production, stocks, prices of substitute crops, and consumption. 
It has been, and is being used to analyze the impacts of farm policy 
proposals on the U.S. rice industry, to analyze the impact of the World 
Trade Organization--WTO--and the Uruguay Round agreements on United 
States trade, to analyze the impact of emerging rice importing and 
exporting countries on United States rice exports, and to analyze the 
market for different rice types--qualities--and seasonal demand and 
supply factors that affect the global rice market. The principal 
researcher believes this research addresses national, regional, and 
local needs.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to develop 
international, national, and regional models to analyze the impact of 
foreign and domestic policy changes, and forecast changes in 
production, trade, stocks, prices of substitute crops, farm prices, and 
consumption.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work actually began about four years ago and Federal 
research grants from various sources have totaled roughly $2 million 
prior to this year. The work supported by this grant began in fiscal 
year 1996. The appropriation for fiscal years 1996 and 1997 was 
$395,000; for fiscal years 1998 through 2000, $296,000; and for fiscal 
year 2001, $295,349 for a total appropriation of $1,973,349.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds over the four years prior to this 
year totaled approximately $500,000. For the 1996 fiscal year, state 
appropriations were $178,000; and for 1997 and 1998, $150,000.
    Question. Where is the work being carried out?
    Answer. The research is being carried out at the University of 
Arkansas-Fayetteville and the University of Missouri-Columbia.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The domestic portion of the rice model has been completed. 
The international modeling research is a little over half completed and 
the researchers estimate another five years is required. The purpose of 
constructing the models, however, is to provide on-going analysis of 
the impact of various policy proposals on the U.S. rice industry.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. We have conducted no formal evaluation of this project. 
However, annual proposals are peer reviewed for relevance and 
scientific merit. Also, each annual budget proposal is carefully 
reviewed for adherence to stated objectives and annual progress is 
discussed with the principal investigators.
                       rural development centers
    Question. Please provide a description of the research that has 
been funded under the Rural Development Centers Program grant.
    Answer. There are four regional and two state level rural 
development centers funded under this grant. The four regional centers 
play a unique national role in linking the research and extension 
capacity of land-grant universities with local decisionmakers to 
address a wide range of development issues affecting rural America. The 
centers now collaborate on a number of national initiatives on key 
issues that touch all of rural America, but each continues a research 
program that addresses the particular needs of its region. National 
collaboration is underway on e-commerce and e-community opportunities; 
land use and sprawl; workforce quality in light of technological 
change, global competition, and Federally-restructured entitlement 
programs; community design methodology; the impacts of rural schools 
and public education on rural communities; and the complex links 
between food systems, rapidly changing agricultural production systems, 
and community systems.
    Research priorities are also identified by stakeholders and 
partners within the regions. The North Central Regional Center for 
Rural Development has mobilized scientists to examine the community 
implications of moving to a more bio-based economy; e-commerce 
opportunities for remote areas and American Indian reservations; small 
stores and retail trade; leadership capacity and economic options in 
areas of population decline; the impact of Federal place-based poverty 
reduction programs; and methods of sustainable, participatory 
development. In the Northeast Regional Center, attention is directed to 
land use and rural development; other land use issues such as farmland 
preservation, farming on the urban fringe, and urban sprawl; and the 
emergence and adoption of information technology and its use for rural 
economic development. The Southern Center portfolio includes research 
on the food assistance needs of vulnerable populations; increasing 
diversity of the rural south; the quality of life for children and 
youth; opportunities and drawbacks of e-business; a systems approach to 
sustainable development; transitions in southern agriculture and 
related environmental issues; water quality and quantity issues; health 
care infrastructure; land use in urban-proximity areas; and workforce 
preparation and opportunities for new quality jobs in the south. In the 
west, research is underway on issues of rapid growth and sprawl; public 
land issues; the impact of energy deregulation on rural electric co-
operatives; civic capacity and youth leadership; and the wildfire and 
residential interface and long term forest health issues.
    The two state centers engage in research identified by stakeholders 
and partners in their respective states. In Louisiana, scientists are 
looking at rural school districts and teacher preparation; local 
government capacity; and access to and applications of information 
technology for rural organizations, agencies and individuals. In North 
Dakota, the principal investigator is studying the changing age 
structure and consequences for the state's labor force, as well as the 
contribution of the economic export services sector to counties in the 
state. In general, the research agenda of the centers taken together 
includes understanding trends and emerging issues in rural America; 
improving economic competitiveness and diversification; supporting the 
capacity for strategic planning; promoting constructive use and 
protection of our natural resources; and helping individuals, families, 
businesses, farmers, ranchers, and communities adjust to change and 
achieve prosperity.
    Question. According to the research proposal, or one of the 
principal investigators, what is the national, regional or local need 
for this research?
    Answer. Rural communities and rural economies are increasingly 
complex and multi-dimensional. Restructuring in agriculture, the rapid 
rate of change and its uneven effects in rural America, and impacts of 
global markets are creating new challenges and opportunities for 
people, families, communities, farms, ranches, and businesses. The mix 
of challenges varies from one region to another and from one community 
to another. Some rural and urban communities struggle together with 
rapid growth, sprawl, congestion, and environmental degradation. Others 
contend with severe unemployment, out-migration, and loss of businesses 
and vital services. The significant Federal-state policy shift to 
``place-based'' development puts an increasing burden on local 
communities to envision, plan, and create their own futures. Many 
communities lack the capacity to deal with these challenges or to grasp 
alternative opportunities. Increasingly, they are turning to the land-
grant system for research, information, education, and assistance.
    Although people living in rural America face an ever increasing 
number of public issues and problems needing resolution, the number of 
research faculty addressing broader rural issues is declining in many 
places. Multi-disciplinary, multi-state research supported by the four 
regional centers is even more crucial in this context. The regional 
centers have a proven track record of bringing together the most 
innovative minds--from both inside and outside the universities--to 
address cutting-edge issues without regard to state boundaries. They 
generate credible science-based information that clarifies these 
issues, and they provide science-based and tested tools for dealing 
with them. Their research and outreach activities support the public-
private partnerships necessary to address the problems facing rural 
America.
    The regional centers have assumed a national role in moving forward 
the scientific disciplines that underpin agriculture and community and 
economic development. Their approach increases the capacity for multi-
disciplinary thinking and research; seeds new research fields; 
facilitates creation of new teams of scholars engaged in multi-state, 
multi-disciplinary and multi-institution research; and quickly moves 
research results to the constituents who need them. In this manner they 
play a unique role in the U.S.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The Rural Development Center mission is to strengthen rural 
families, communities, and businesses by facilitating collaborative 
research and extension education through land-grant institutions and 
their partners in the various regions and nationally. Research programs 
are undertaken after evaluating broad regional and national priorities. 
Following are some accomplishments of selected research activities 
conducted under the auspices of various centers.
    The Southern Regional Development Center continues to receive 
national recognition for its Information Briefs, prepared to shed light 
on the host of challenges and opportunities facing governments, 
communities, and people in the South. They help national, state, and 
local leaders and officials understand and respond to the devolution of 
government services, rural transportation issues and welfare reform, 
family economics and individual development accounts, the cost of 
living, rural earnings capacity, job opportunities for low-income 
people, and child care issues. The center's Millennium Series generates 
research on persistent and emerging problems in the rural South, as 
well as optimistic trends. Current topics include wage levels and 
quality jobs, the economic health of agricultural and non-agricultural 
firms, rural racial and ethnic diversity, rapid urbanization and its 
effects on natural and environmental resources, the demand for better 
educated workers, labor force skills, entrepreneurial opportunities and 
strategies to diversify the rural economy, the changing structure of 
families and related family services needs, and barriers to health care 
quality and access. The full complement of policy briefs will stimulate 
public dialogue needed to create vibrant, healthy rural communities in 
the rural South. The center was again chosen by the Economic Research 
Service to be involved in a small grants program to support research on 
food assistance and the needs of vulnerable populations in the south.
    Like the other regional centers, the southern center links research 
with extension education in several ways. In fall 2000, it sponsored a 
direction-setting conference on ``Sustainable Development: Building 
Quality Communities.'' Co-chairs merged development perspectives from 
agriculture and natural resources and from community resource 
development to cross silos which have traditionally divided thinking 
about rural development across the country. In 2000, the center 
organized the first-ever institute designed to provide Extension agents 
a state-of-the-art health issues program. Recent integrated programs 
were continued. For example, with land-grant faculty in the southeast, 
the center developed and continues to sponsor the Southern Regional 
Community Development Institute. Diverse extension educators--
agriculture, natural resources, family and youth development, community 
development, and middle management--spend five days attending sessions 
on understanding community, strategic planning, asset-mapping, social 
infrastructure, local government, problem-solving, economic and 
sustainable development, and leadership skills. Demand for the training 
continues, and the center held its third Institute in the summer of 
2000. The Mid-South Delta Institute also continues as an on-going 
participatory research and training program designed to help community 
leaders in northwest Mississippi develop skills in asset-mapping, 
strategic planning, building partnerships, and consensus-building.
    The North Central Regional Center for Rural Development continues 
to expand its extensive repertoire of research that informs policy and 
sustainable community development programs. It now plays a national 
role in considering the community implications of moving to a more bio-
based agriculture. It is supporting research and public advocacy 
coalitions around different issues related to biotechnology, work 
critical to the process of developing and maintaining a trusted and 
high quality scientific base. Other research examines points of 
intersection between trends in agriculture and rural economic and 
community vitality; demographic shifts and increasing ethnic diversity; 
and research on industrial recruitment and value-added firms locating 
in rural communities. Current research also focuses on ingredients to 
reduce gross migration in rural areas, e-commerce viability in remote 
areas and for diverse populations, the match between leadership 
development curricula and areas of persistent poverty, and the 
geography of rural financing and investment capital. Each of these 
research program areas is fully integrated with extension activities in 
the north central region. Its integrated approach has won national 
recognition for the center in the areas of workforce preparation, state 
of the art community visioning and strategic planning, social 
indicators for community and economic planning, and Federal program 
assessment including the Empowerment Zone/Enterprise Community 
initiative and national workforce preparation programs. The center has 
also supported research that enhances the scientific methods land-grant 
faculty use in applied research on rural development. For example, 
research demonstrates the power and utility of clustering geographic 
and demographic data and linking geo-demographic clusters to 
Agriculture Census and Decennial data. Other research analyzes the 
future of small rural trade centers as providers of public services, 
the dynamics of rural retail trade, and the most critical needs of 
rural business communities. Through its workshops, conferences, 
training programs, and newsletter, Rural Development News, the North 
Central center provides research results and related educational 
materials to rural development professionals in land-grant and partner 
institutions and organizations across the country and internationally.
    In the Northeast Regional Center, strategic planning during the 
first six months of 2000 under a new director resulted in valuable 
stakeholder input and a focused list of research and extension 
priorities. Small research and extension grants are now targeted for a 
more effective return on invested dollars. As a top priority, grants 
now support integrated activities on land use and rural development, 
with a land use conference to follow sometime in 2001. Farmland 
preservation, farming on the urban fringe, urban sprawl, and urban-
rural conflict are issues highlighted for research and outreach. 
Information technology also emerged as an important area for research, 
and regional research and planning grew out of a joint four-center 
national conference in 2000. To facilitate research dissemination and 
networking capability in the region, the Northeast center set up 
specific briefing rooms on its web-site on land use/sprawl, community-
supported agriculture, community design, business retention and 
expansion, workforce preparation, youth development, local government 
issues, entrepreneurship, leadership visioning, and consensus-building. 
In addition, the center identified and reported on two major trends 
affecting rural counties in the northeast: a persistent and growing gap 
between per employee earnings in metro and non-metro counties; and the 
steady increase in the share of self-employed workers in the total 
workforce. The center is now evaluating implications of these trends 
for development strategies.
    As in the northeast, the Western Rural Development Center devoted 
part of 2000 to strategic planning and organizational development under 
a new director. One focus in the year was to build partnerships within 
the region, especially with the fabric of extension and experiment 
station program in the west. Input from these stakeholders helped 
identify priorities and programmatic goals. Because few faculty in the 
western land-grant institutions are actively involved in rural 
development work, the center organized a faculty development workshop, 
seeded the development of research proposals on rural development 
issues, and partnered with regional faculty on competitive grant 
programs, again in an effort to build the research capacity in the 
region. The center continued its work on a ``Rapid Growth Toolkit'' to 
help community leaders and local governments understand and address 
rapid growth at the community level.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1971, $75,000; fiscal year 1972, $225,000; fiscal 
year 1973, $317,000; fiscal years 1974-1981, $300,000 per year; fiscal 
years 1982-1985, $311,000 per year; fiscal years 1986-1987, $363,000 
per year; fiscal year 1988, $475,000; fiscal year 1989, $500,000; 
fiscal year 1990, $494,000; fiscal years 1991-1993, $500,000 per year; 
fiscal year 1994, $470,000; fiscal years 1995-1998, $423,000 per year; 
fiscal years 1999-2000, $523,000 per year; and fiscal year 2001, 
$521,849. A total of $11,685,849 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds available to the four regional centers, 
as previously reported, were: fiscal year 1991, $1,117,000; fiscal year 
1992, $790,000; fiscal year 1993, $900,000; fiscal year 1994, $776,591; 
and fiscal year 1995, $710,050; for a total of $4,293,641 across those 
five years. Non-Federal funds available to the four regional centers 
since 1995 were: fiscal year 1996, $3,559,662; fiscal year 1997, 
$1,322,237; fiscal year 1998, $2,660,048; fiscal year 1999, $1,472,249; 
fiscal year 2000, $1,300,990; fiscal year 2001, $1,573,316. The total 
for 1996 through 2001 is $11,888,502. Non-Federal partners sponsoring 
research and related extension programs through these centers since 
1995 include the Farm Foundation, the Northwest Area Foundation, the 
University of Kentucky's Tennessee Valley Authority Rural Studies 
Program, the W. K. Kellogg Foundation, the Upjohn Institute, the Kerr 
Center for Sustainable Agriculture, the National 4-H Council, the 
Heartland Center, Farmer's Legal Action Group, Pegasus Satellite 
Television, and Cornell University's Conneman project. Other Federal 
partners include the U.S. Environmental Protection Agency, the Small 
Business Administration, and in USDA--Rural Development, Economic 
Research Service, Agricultural Research Service, Forest Service, 
Sustainable Agriculture Research and Education, and National Resource 
and Conservation Service. The regional centers continue to expand their 
non-Federal partnership base and have established an impressive record 
of brokering partnerships with private foundations and non-governmental 
organizations, as well as other Federal partners, to meet their goals 
and extend the impact of their allocated Federal dollars.
    Question. Where is this work being carried out?
    Answer. The four regional rural development centers include the 
following: Northeast Regional Center for Rural Development at 
Pennsylvania State University; North Central Regional Center for Rural 
Development at Iowa State University; Southern Rural Development Center 
at Mississippi State University; and Western Rural Development Center 
at Utah State University. The state level rural development centers are 
at North Dakota State University and Louisiana Tech University. Most of 
the research sponsored by the four regional centers is performed by 
resident faculty at land-grant universities in the respective region 
through subcontracts from that center's grant.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives.
    Answer. The regional rural development centers were established to 
provide an on-going ``value added'' component to link research and 
extension and by doing so to increase rural development under the 
special conditions in each region. The work of the Centers is being 
carried out in all 50 states and in some territories. The Centers 
compile a report of annual accomplishments and share those with the 
states in the region. Accomplishments are now shared through 
sophisticated, interactive web sites. The list of needs is constantly 
evolving and is being addressed through projects that are matched to 
the constantly shifting local and regional agenda. The current phase of 
the program will be completed in 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The proposals for the four regional and two state centers 
have all undergone merit reviews. The regional centers enlist the help 
of academic and private/public foundations personnel on advisory 
committees, boards of directors, and technical advisory committees to 
help establish research and extension priorities and operating rules 
and to provide professional, technical counsel and peer evaluation of 
Center projects and the investigators. The projects are evaluated 
annually through peer review of scientific merit by the advisory 
committees and through merit review by the boards of directors against 
the five key issue areas and the objectives of each project for 
relevance, achievement, and initial impacts. Follow-up evaluation is 
carried out by the Center staffs in order to assess long-term impacts 
of these projects on local communities.
    The Southern Rural Development Center was engaged in strategic 
planning over the course of the last six months of 2000. Input from 
over 150 individuals was studied by the Technical Advisory Committee 
and discussed at its fall 2000 meeting. That committee will submit 
recommendations in January 2001 to the Center's board of directors.
    A full outside review of the North Central Regional Center for 
Rural Development was conducted in 2000. The review team concluded, 
``The Center is doing consistently high quality work. It has had 
considerable impact on rural development research and extension in the 
land-grant universities across the region, and nationally, and it has 
been of benefit to many non-government organizations, community 
leaders, and state and Federal agencies beyond the land-grant system.'' 
The team's positive assessment of the Center's performance led it to 
recommend that ``The Center should continue its integrative research-
engagement approach in its own projects but it is now time to take this 
approach beyond its own projects and become a promoter and teacher of 
an integrative approach throughout the region and the country. The 
Center is a leader in rural development at the national and regional 
levels and has facilitated and nurtured the development of leadership 
among the region's states and communities.''
                  rural policies institute, ne, ia, mo
    Question. Please provide a description of the research that has 
been funded under the Rural Policies Institute, Nebraska, Iowa, and 
Missouri grant.
    Answer. The Rural Policy Research Institute is a consortium of 
three universities designed to create a comprehensive approach to rural 
policy analysis. The Institute conducts research and facilitates public 
dialogue to increase public understanding of the rural impacts of 
national, regional, state, and local policies on rural areas of the 
U.S.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. There is a need to estimate the impacts of changing state 
and national programs and policies on rural people and places. 
Objective public policy analysis can provide timely and accurate 
estimates of the impacts of proposed policy changes to allow more 
reasoned policy discussions and decisions. The principal researcher 
believes this research meets national, regional, and local needs.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the Rural Policy Research Institute 
was to create a new model to provide timely, accurate, and unbiased 
estimates of the impacts of policies and new policy initiatives on 
rural people and places. That model was developed, and the Institute's 
policy analysis research and dissemination activities have expanded 
significantly. The Institute's programs develop in response to current 
and emerging issues in rural America. Work in 2000 centered on six 
Institute projects: the Community Policy Analysis Network, Rural Equity 
Capital Initiative, Rural Health Panel, Operation Rural Health Works, 
Targeted Rural Economic Development, and Rural Welfare Reform Panel. 
The Community Policy Analysis Network refined methods of modeling 
policy alternatives at the community level. Their efforts provide 
quantitative estimates of economic, demographic, and fiscal effects of 
policy alternatives on local communities of different types and in 
different regions. Members of the Network published 2 white papers, 9 
journal articles and book chapters, and 15 staff papers and research 
reports. The Rural Equity Capital Initiative mobilized scientists to 
examine issues related to access to capital for rural development and 
resulted in 2 policy briefs, 5 presentations at conferences, and 
consultations with governors in Ohio and Missouri. Rural Health Panel 
members published 6 policy papers, 2 policy briefs, and 2 journal 
articles. They also contributed to congressional staff briefings on 
medicare, prescription drugs, and other rural health insurance issues 
and presented papers at seven professional meetings. Through Operation 
Rural Health Works, the Institute published a policy brief on 
community-level impacts of losing health care infrastructure and 
produced a video on saving rural hospitals. Other outreach included 
Congressional testimony, presentations at 13 professional meetings, and 
workshops in Washington, D.C., and 13 states. The Institute's work on 
Targeted Rural Economic Development is a new project area. It resulted 
in presentations and extension programs in four states, website 
publications, and steps to establish partnerships for the project, 
including the U.S. Forest Service and the Economic Development 
Administration. The Rural Welfare Reform Panel published two white 
papers and a database on welfare reform research, and the Institute co-
sponsored a national research conference and organized a congressional 
briefing on rural dimensions of welfare reform. During 2000, the 
Institute also analyzed classifications of metropolitan and 
micropolitan areas proposed by the Office of Management and Budget; 
developed methods to analyze the impacts of Living Wage legislation on 
workers, businesses, and the public sector; advised the National 
Governors' Association on workforce development and entrepreneurship; 
served as a consultant for the Wallace Institute on the Farm Bill and 
for the Kauffman Foundation on minority, rural, and non-profit 
strategic planning; served on the Pinchot Institute's Task Force 
reviewing the U.S. Forest Service Cooperative Forestry Programs; and 
worked with the Congressional Rural Caucus on numerous briefings. The 
Institute's work is published and cited in numerous academic journals, 
discussed in the media, and widely used by policy decision makers at 
all levels of government.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by these grants began in fiscal year 
1991 and the appropriation for fiscal year 1991 was $375,000. The 
fiscal year 1992 appropriation was $525,000; for fiscal year 1993, 
$692,000; for fiscal year 1994, $494,000; for fiscal years 1995-2000, 
$644,000 each year; and for fiscal year 2001, $820,192. A total of 
$6,770,192 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Aggregated non-Federal funds to support the Rural Policy 
Research Institute across the three involved universities include 
unrecovered indirect costs, salary support from university and other 
non-Federal sources, and various other grants, contracts, and 
reimbursable agreements. They amounted to $316,458 for fiscal year 
1991; $417,456 in fiscal year 1992; $605,302 in fiscal year 1993; 
$537,834 in fiscal year 1994; $584,516 in fiscal year 1995; for fiscal 
year 1996, $576,782; for fiscal year 1997, $186,859; for fiscal year 
1998, $153,614; for fiscal year 1999, $168,450 for; for fiscal year 
2000, $137,254; and an estimated $188,382 for 2001. Total to date, 
including the 2001 estimate, is $3,872,907.
    Question. Where is this work being carried out?
    Answer. The Institute's member universities are: the University of 
Missouri-Columbia; the University of Nebraska-Lincoln; and Iowa State 
University, Ames.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1991 was for a period of 24 
months; however, rural communities continue to be impacted by major 
socio-economic changes as well as state and Federal policy changes. 
Citizens and elected officials at all levels of government continue to 
need expert analysis of the impacts of current policies and policy 
changes and of alternatives. CSREES funding supports the Institute's 
ability to generate research on changing conditions in rural America 
and conduct briefings on a myriad of rural policy issues The current 
phase of the program will be completed in 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed a merit review of the project in February 
1999, as it evaluated the 1999 project proposal, and determined that: 
``[The Institute] is an effective interdisciplinary, multistate effort 
that supports the mandates for collaboration in the Agricultural 
Research, Extension and Education Reform Act of 1998. Its work supports 
CSREES strategic goals of enhancing economic opportunity and quality of 
life. The principal investigator and participants are well qualified to 
conduct the project.''
                     russian wheat aphid, colorado
    Question. Please provide a description of the research that has 
been funded under the Russian Wheat Aphid, Colorado grant.
    Answer. Funding will support two key areas of research that are 
needed to assure long-term and sustainable Russian wheat aphid 
management. These are: (1) Discovering new crop genes which provide 
resistance to the Russian wheat aphid and incorporating them into 
commercially-acceptable wheat varieties, and (2) Integrating the 
available control tactics into the most effective, efficient, and 
environmentally-sound production systems for the Great Plains.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The Russian wheat aphid is an exotic invasive pest that 
entered the western U.S. without its normal complement of biological 
control agents. This insect has rapidly become the most important 
insect pest of wheat in the western U.S. From 1986-1991, the total 
economic impact was estimated to be in excess of $657 million. In the 
same period, some 17.5 million pounds of insecticides were used 
nationally for Russian wheat aphid control. The cost to American 
farmers of insecticide treatments was over $70 million. In addition, 
the intense use of insecticides on a crop that previously received 
little insecticide treatment raised concerns about the impact on water 
quality, human health, food safety, non-target organisms, and general 
environmental quality. Direct losses in Colorado have been as high as 
$27 million in a single year with an average direct loss of above $11 
million per year since 1987.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goals of the research are to: (1) Discover new crop 
genes which provide resistance to the Russian wheat aphid and 
incorporate them into commercially-acceptable wheat varieties; and (2) 
Integrate the available control tactics into the most effective, 
efficient, and environmentally-sound production systems for the Great 
Plains. The techniques of molecular genetics are being employed to 
reach the goal of identifying new genes for resistance to Russian wheat 
aphid and incorporating them into commercially-acceptable wheat 
varieties.
    In addition, the mapping effort of this project will access cDNA 
libraries produced under a National Science Foundation grant awarded to 
a team of U.S. wheat researchers for the purpose of developing tools 
for wheat genomics. Progress has been made in Integrating Tactics for 
Management of the Russian wheat aphid. In 1998, experimental dryland 
cropping systems were established in eastern Colorado. Long-term 
studies compare the experimental systems with typical wheat production 
systems in the area. The experimental systems were designed to optimize 
the effects of environmentally-sound pest management tactics and 
Russian wheat aphid numbers through the actions of predators and 
parasites. In addition, the experimental systems were designed to 
optimize water use efficiency and other agronomic and profitability 
factors.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1998 
and the appropriation for fiscal years 1998 through 2000 was $200,000 
per year; and for fiscal year 2001, $249,450. A total of $849,450 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year.
    Answer. State appropriations and the Colorado Wheat Administrative 
Committee have demonstrated strong support for this effort. The total 
per year is approximately $775,000 in new funding from the state of 
Colorado and redirected funds from within the university.
    Question. Where is the work being carried out?
    Answer. Research will be conducted on the campus of Colorado State 
University, at Colorado State University research stations, and on the 
farms of cooperators throughout Colorado. Outreach and extension 
activities are being shared with scientists and wheat growers in 
Colorado, Nebraska, Wyoming, Kansas, New Mexico, Texas, and Oklahoma.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This project is anticipated to continue for a total of five 
years with a completion date of July 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project was evaluated by a CSREES site visit on 
February 4 and 5, 1999. Laboratory, greenhouse, and field research 
facilities available for the research program underway are excellent 
and progress has been excellent. Greenhouse space appears adequate for 
the work, and the units are well adapted for the wheat breeding 
program. Rearing facilities and the support personnel for maintaining a 
source of aphids used for bioassays are also excellent. Research 
laboratories are very well equipped for the studies, either proposed or 
underway, and there is strong technical support for the research which 
involves application of techniques of molecular genetics to wheat 
breeding. The research scientists represent strengths in both classical 
or traditional wheat breeding and new molecular genetics-based wheat 
breeding. The group also has strong, well recognized expertise in 
Russian wheat aphid biology, ecology, and management and also in 
dryland wheat production systems used in the Great Plains states. In 
short, there would appear to be few, if any, other locations which 
could match the combination of facilities, equipment, and scientific 
and technical support needed to achieve the goals of this project. The 
project is a multifaceted, multi-disciplinary program which is directed 
toward long-term solutions for Russian wheat aphid management utilizing 
a viable combination of approaches which requires the type of 
facilities and equipment available at this location.
                   safe vegetable production, georgia
    Question. Please provide a description of the research that has 
been funded under the Safe Vegetable Production, Georgia grant.
    Answer. This is a new grant and the University of Georgia is 
presently preparing a grant proposal for submission.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. According to the principal investigator, 1.37 billion tons 
of animal manure is produced annually in the United States. 
Approximately 90 percent of this is produced by cattle. Farm surveys 
indicated that 1 to 5 percent of the cattle shed E. coli 0157:H7, a 
human pathogen, in their manure. Since human consumption of organic 
produce is increasing at an unprecedented rate, and since many organic 
farmers use bovine manure as a fertilizer, research is needed to 
develop practical methods of treating manure to assure that it is safe 
when used as a fertilizer in vegetable production.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this project is to evaluate the hazards 
associated with manure used as fertilizer in vegetable production and 
to develop innovative and practical treatments to reduce the risk of 
spreading harmful microorganisms to crops from manure.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001.
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated for fiscal year 2001 is $284,373.
    Question. What is the amount and source of non-Federal funds 
provided by fiscal year?
    Answer. This is a cooperative project between the Center for Food 
Safety and Quality Enhancement, University of Georgia, Griffin; the 
Coastal Plain Experiment Station, University of Georgia, Tifton; the 
USDA/ARS Soil-Microbial Systems laboratory, Beltsville, Maryland; and 
private industry. Industry has committed $50,000 to this project for 
fiscal year 2001.
    Question. Where is this work being carried out?
    Answer. The work is being carried out at the Center for Food Safety 
and Quality Enhancement, University of Georgia, Griffin; the Coastal 
Plain Experiment Station, University of Georgia, Tifton; and the USDA/
ARS Soil-Microbial Systems laboratory, Beltsville, Maryland.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these been met? What is the anticipated 
completion date of the additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is the end of fiscal year 2004. This is a new project and research of 
the original objectives has just begun.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. This is a new project. A peer review of the project will be 
undertaken by the performing institution, and the agency will conduct a 
throughout evaluation of the proposal upon receipt.
                   satsuma orange production, alabama
    Question. Please provide a description of the research that has 
been funded under the Satsuma Orange Production, Alabama grant.
    Answer. This is a new grant and Auburn researchers are presently 
preparing a grant proposal for submission.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Satsuma oranges are a type of orange commonly referred to 
as tangerines. In the past, there was significant production of satsuma 
oranges in Alabama. However, a series of unusually cold winters has 
placed this important production system at risk of being lost. Research 
is needed to determine practical new methods for raising satsuma 
oranges and to develop cold tolerant plant material.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to identify new ways 
of producing satsuma oranges under potentially unfavorable 
environmental conditions. This is a new grant and the work has not yet 
begun.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001.
    Answer. The work supported by this grant begins in fiscal year 2001 
and the amount appropriated for fiscal year 2001 is $473,955.
    Question. What is the amount and source of non-Federal funds 
provided by fiscal year?
    Answer. Presently no non-Federal funds are being provided.
    Question. Where is this work being carried out?
    Answer. The work is being carried out by the Alabama Agricultural 
Experiment Station, with a subcontract to the Citrus Research Station 
of the Louisiana Agricultural Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these been met? What is the anticipated 
completion date of the additional or related objectives?
    Answer. This is a new project and the anticipated completion date 
has not yet been determined.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. This is a new project. A peer review of the project will be 
undertaken by the performing institution and the agency will conduct a 
throughout evaluation of the proposal upon receipt.
                sclerotinia disease research, minnesota
    Question. Please provide a description of the research that has 
been funded under the Sclerotinia Disease Research, Minnesota grant.
    Answer. Research will focus on spring planted canola which is 
increasing in importance as an alternative crop in the upper midwest 
states of Minnesota and North Dakota. The main objective of the 
research is to develop strategies for growers to use to manage 
sclerotinia to prevent yield reductions in canola fields.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The scope of the research will be to investigate the 
disease Sclerotina, also known as white mold, affecting canola. This is 
a serious disease that affects a number of rotational crops such as 
sunflower, soybeans, dry beans, and canola in the Red River Valley of 
Minnesota and North Dakota. Yield losses can be as high as 50 percent. 
Canola is a source of an excellent low-saturated fat edible oil the can 
be used to meet increased consumer demands for healthy oil.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The main objective of the research is to develop strategies 
for growers to use to manage sclerotinia to prevent yield reductions in 
canola fields. There are six sub-objectives which are: variety 
evaluation and selection; fungicide evaluation for control of 
sclerotinia; sclerotinia forecasting model for sclerotinia control; 
sclerotinia ascospore infection techniques for canola; influence of 
crop rotation on canola diseases; and survey of grower fields for 
sclerotinia.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001 ?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $237,476.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Since the proposal has not been submitted to CSREES, the 
non-Federal funds and sources provided for this grant cannot be 
determined at this time.
    Question. Where is this work being carried out?
    Answer. Research will be conducted jointly by the University of 
Minnesota and the North Dakota State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is five years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency will evaluate the programmatic merits of the 
proposal by at least one senior scientist. Additionally, the university 
will provide a peer review prior to submitting their grant.
         seafood harvesting, processing, and marketing, alaska
    Question. Please provide a description of the research that has 
been funded under the Seafood Harvesting, Processing, and Marketing, 
Alaska grant.
    Answer. This project was initiated in fiscal year 2000. The goal of 
this project is to improve and develop technologies in seafood 
harvesting, processing, product development, and marketing Alaska. The 
CSREES Seafood Harvesting, Processing, and Marketing Program for fiscal 
year 2000 has six subprojects. They are entitled: ``Building an 
Industrial Test Version of a High Capacity Automated Pinbone Removal 
Machine for In-Plant Tests'', ``Utilizing By-Catch: Developing 
Processes for Texturized, Cooked Minces for Food Service Application'', 
``Opportunities for Flaked Products from Pink Salmon'', ``Feasibility 
Study--Evaluation of Spectroscopic and Imaging Technologies for 
Detecting Bruising in Salmon'', ``The Digital Observer Project--
Development of Fish Recognition and Weight Estimation Software'' and 
``Feasibility Study for Alaska Herring Food Product Diversification.'' 
A proposal in support of fiscal year 2001 has been requested.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Alaska harvests more than half of all the fish landed in 
the U.S. and upwards of 65 percent of the food fish. The subprojects in 
this program are designed to help increase the value of Alaska's 
Seafood Industry through fostering greater utilization of the fisheries 
resources as human food and greater efficiency in their production. 
Federal support for research in this area has dropped from $17.3 
million to little more than $1 million nationwide, largely through a 
significant reduction in Saltonstall-Kennedy funds. The funds are 
appropriated from duty collected on imported seafood to National Marine 
and Fisheries Service, which in turn makes grants to U.S. universities. 
USDA traditionally has supported fish food research primarily from 
aquacultured fish. The State of Alaska and private industry have been 
supporting applied fisheries research. Though the product is harvested 
in Alaska, the benefits are shared with fishermen residents in 
Washington State, Oregon, California, and throughout the nation.
    Question. What is the original goal of the research and what has 
been accomplished to date?
    Answer. The objective is to complete the six subprojects listed 
above. These projects have considerable significance to the Seafood 
Industry. Informed people from government and industry helped to 
identify the most important objectives facing the industry. The 
subprojects mentioned address pertinent research needs in the areas of 
harvesting, processing, and marketing of Alaska seafood.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This project was started in fiscal year 2000 with an award 
of $552,500. In fiscal year 2001, the amount to be appropriated is 
$1,165,430. A total of 1,717,930 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. Our estimates for industry contributions for the 
subprojects are as follows: (1) Building an Industrial Test Version of 
a High Capacity Automated Pinbone Removal Machine for In-Plant Tests, 
Summer 2000. Industry contributions total $18,000; (2) Utilizing By-
Catch: Developing Processes for Texturized, Cooked Minces for Food 
Service Application. Industry contribution $28,000: (3) Opportunities 
for Flaked Products from Pink Salmon. Industry contribution $15,000; 
(4) Feasibility Study--Evaluation of Spectroscopic and Imaging 
Technologies for Detecting Bruising in Salmon. Industrial contribution 
$8,500; (5) Digital Observer Project--Development of Fish Recognition 
and Weight Estimation Software. This is part of a much larger project 
for which the total industrial contribution is over $200,000; and (6) 
Feasibility study for Alaska Herring Food Product Diversification. 
Industrial contribution $13,200. Total industry contribution is 
approximately $282,700.
    Question. Where is this work being carried out?
    Answer. Research is being conducted by scientists at the University 
of Alaska--Fishery Industrial Technology Center in Kodiak, Alaska; The 
University of Alaska, Fairbanks; The Center for Applied Regional 
Studies, Cambridge Massachusetts; Washington State University; and 
Cornell University.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The anticipated completion of the full objectives of this 
research is one year.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project was reviewed on August 30, 2000. The proposal 
aims to advance the Alaskan Seafood Industry through research problems 
facing harvesting, processing, and marketing of seafood. The goal is to 
increase the resources and value of Alaskan seafood. New and value 
added products will be developed from pink salmon, herring, and arrow 
tooth flounder. Appropriate new technologies will be developed.
       seafood harvesting, processing, and marketing, mississippi
    Question. Please provide a description of the research that has 
been funded under the Seafood Harvesting, Processing, and Marketing, 
Mississippi grant.
    Answer. Research related to seafood safety, quality, and by-product 
utilization has been supported by this grant. For fiscal year 2000, 
funds supported research on: (1) antimicrobial potential of phloxine B 
against Listeria monocytogenes, Escherichia coli, Saccharomyces 
cerevisiae, and Aspergillus niger; (2) effects of starvation and acid 
stress on the growth characteristics, heat tolerance, freeze thaw 
stability, and virulence factor expression of Aeromonas hydrophila; and 
(3) processing yield and proximate composition, color, microbial 
counts, and surimi quality of mince obtained from under-utilized Gulf 
Coast fish. Funds from the fiscal year 2000 grant are supporting 
research through September 30, 2001. A proposal in support of fiscal 
year 2001 funds has been requested
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The national needs reflected in the project include 
providing consumers with affordable alternative seafood products and 
assessing the food safety implications of new antimicrobial agents and 
emerging pathogens. Continuation of this project will provide continued 
assistance to Gulf-Coast seafood processors in meeting new U.S. 
regulations as well as new international regulations that are important 
for Mississippi export products. Locally, catfish processors are a 
major employer of the severely economically-depressed Delta region of 
Mississippi. By further enhancing the value of catfish products, this 
project seeks to improve the livelihood of individuals both on the Gulf 
coast and in the aquaculture region of the state.
    Question. What was the original goal of the research and what has 
been accomplished to date?
    Answer. The original goals of the research were to improve the 
quality and safety of catfish and improve the utilization of catfish 
byproducts and underutilized marine species. Due to successes of the 
original project, subsequent efforts are focusing on additional uses of 
seafood and aquaculture foods by improving processing strategies and 
providing alternative products from waste materials. The project has 
thus expanded to include crab, shrimp, oysters, freshwater prawns, 
hybrid striped bass, tilapia, and crawfish. The Food and Drug 
Administration has passed rulings affecting the potential viability of 
Mississippi seafood and aquaculture harvesters and processors; emphasis 
is thus being placed on addressing possible adverse consequences 
resulting from these changes.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1990 
when $368,000 was appropriated for this project. The appropriations for 
fiscal years 1991-1993 were $361,000 per year; fiscal year 1994, 
$339,000; fiscal years 1995-2000 $305,000 each year; and fiscal year 
2001, $304,329. A total of $3,924,329 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The State of Mississippi contributed $1,949 to this project 
in fiscal year 1991; $41,286 in fiscal year 1992; $67,072 in fiscal 
year 1993; $91,215 in fiscal year 1994; $147,911 in fiscal year 1995; 
and $61,848 in fiscal year 1996. Product sales contributed $7,044 in 
1991, $13,481 in 1992, $13,704 in 1993, and $5,901 in 1994. Industry 
grants contributed $14 in 1992 and $31,796 in 1993. Other non-Federal 
funds contributed $80 in fiscal year 1991, $838 in 1992, and $17,823 in 
1993. The total non-Federal funds contributed to this project from 1991 
through 1996 was $501,962. In fiscal year 1998, $151,286 in state 
funds, $8,790 in self-generated funds, and $23,877 in other non-Federal 
funds were obtained. In fiscal year 1999, $65,998.05 in state funds 
were contributed to this project. Information on funding for 2000 is 
not currently available.
    Question. Where is this work being carried out?
    Answer. Research is being conducted by scientists in the 
Departments of Food Science and Technology and Agricultural Economics 
of the Mississippi Agricultural and Forestry Experiment Station at 
Mississippi State University and at the Coastal Research and Extension 
Center, Seafood Processing Laboratory, in Pascagoula, Mississippi.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The principal investigators anticipate that research on the 
original objectives will be completed in 2000. Continuing needs by 
Mississippi seafood and aquaculture harvesters and processors related 
to improved quality, safety, and utilization will require research and 
development of new technologies to expand this industry.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An agency science specialist conducts a merit review of the 
proposal submitted in support of the appropriation on an annual basis. 
The last review of the proposal was conducted on August 30, 2000. At 
that time, the agency science specialist believed that the projects 
addressed needs and interests of the regional seafood and aquaculture 
industries.
                     seafood safety, massachusetts
    Question. Please provide a description of the research that has 
been funded under the Seafood Safety, Massachusetts grant.
    Answer. Research will be conducted to improve the safety of seafood 
products.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher indicates the need to strengthen 
the local and Northeast region fisheries industry by addressing and 
solving priority seafood safety issues critical to assuring public 
health and maintaining consumer confidence in a variety of 
economically-important fisheries and aquaculture products.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research was to investigate 
handling, storage, and processing techniques which will improve the 
food safety of seafood products. Accomplishments to date include 
examination of fresh fish samples at the retail level for the human 
pathogen, Listeria monocytogenes, and evaluation of several chemicals 
classified as generally regarded as safe to inhibit the growth of the 
human pathogen under investigation.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000. 
The appropriation for fiscal year 2000 was $255,000 and the fiscal year 
2001 appropriation is $277,388. The total appropriated for this project 
is $532,388.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. In fiscal year 2000, $13,000 was obtained from the American 
Meat Institute, and an additional $12,000 was made available from the 
Department of Food Science, University of Massachusetts, Amherst, 
Industrial Endowment Fund. Additional non-Federal funds are anticipated 
for the fiscal year 2001 grant.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the University of 
Massachusetts-Amherst, Chenoweth Laboratory of the Department of Food 
Science through the Agricultural Experiment Station and in cooperation 
with seafood processing plants located in Gloucester and Boston, 
Massachusetts.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is fiscal year 2002. Work is progressing and is still ongoing relative 
to the original objectives.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency will evaluate the progress of this project on an 
annual basis. The university submitted an accomplishment report for 
evaluation purposes for fiscal year 2000 activities that will be 
updated in the new grant proposal submitted to CSREES for fiscal year 
2001 funding. The 2001 CSREES review will be completed within three 
weeks of submission of the fiscal year 2001 grant proposal.
                  small fruit research, or, wa, and id
    Question. Please provide a description of the research that has 
been funded under the Small Fruit Research, Oregon, Washington, and 
Idaho grant.
    Answer. Funding for this special grant has been used to enhance the 
production and quality of small fruits--blackberry, blueberry, 
caneberry, cranberry, marionberry, raspberry, strawberry, and grape in 
the Pacific Northwestern states of Idaho, Oregon, and Washington. 
Research has been focused on crop genetics, production/physiology, pest 
management, berry/grape processing, marketing, and wine production. 
Proposals are reviewed and selected after evaluation of their 
scientific merit and relevance to priorities identified within the 
region.
    Question. According the research proposal, or the principal 
researcher, what is the national, regional, and local need for this 
research?
    Answer. The importance of berry and grape crops to the region has 
long been recognized by the three northwest states: Washington, Idaho, 
and Oregon. These crops are mainstays of high-value, specialty 
horticulture. The universities and small fruits industry have made a 
strong commitment to the improvement of these crops as evidenced by the 
high level of internally-developed resources for research and 
marketing. There is a considerable demand for fresh and processed berry 
products in the U.S. and in urban Asian markets. Research on 
international consumer preferences, packaging, and products continues 
to be essential.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. Genetic improvement of small fruit cultivars continues to 
be a powerful tool using germplasm collection and identification, field 
evaluation of new germplasm, and advanced selections from breeding 
programs, virus identification and elimination, and approaches that 
utilize genetic engineering. Research is identifying cultivars and 
developing cultural practices that growers can utilize to reduce crop 
losses. Research is evaluating and investigating nutritional factors, 
cultural management, temperature stress, effects of pruning, micro 
propagation, cold hardiness/low temperature injury, and effects of 
viticulture practices on wine quality and of winery processing on wine 
quality.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001.
    Answer. The initial support for this grant was an appropriation in 
fiscal year 1991 for $125,000. The fiscal appropriation for 1992 and 
1993 was $187,000 per year; fiscal year 1994 was $235,000; fiscal years 
1995-1998 were $212,000 each year; fiscal year 1999 and 2000 was 
$300,000 each year; and is $324,285 for fiscal year 2001. A total of 
$2,506,285 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. There are no non-Federal funds supplementing this grant. 
This project involves the use of the Oregon State University 
administrative personnel, equipment, utilities, and facilities that are 
indirect costs to the project. These costs constitute an OSU 
contribution to this research project.
    Question. Where is the work being carried out?
    Answer. The research is being conducted at Oregon State University, 
Washington State University, and the University of Idaho. Oregon State 
University is the lead institution for this project.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives are still valid researchable 
issues, therefore this is a continuing process with priorities annually 
re-evaluated to appropriately adjust research direction within the 
project objectives.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project evaluation process is accomplished annually by 
peer reviewers whom are chosen and organized by expertise according to 
the five technical working groups with input from the designated 
Agricultural Experiment Station Representatives in Washington, Oregon, 
and Idaho. The Program Administrator in each state contacts possible 
reviewers for each proposal. The chair of the review process annually 
rotate between the Agricultural Experiment Station representatives. 
Each submitted proposal is peer-reviewed by a panel of five 
individuals--three scientists and two industry representatives--and is 
grouped into one of the Center Technical Working Groups, namely 
genetics, pest management, production/physiology, processing/packaging, 
and marketing. Proposals are evaluated on the following criteria: (1) 
The nature of the proposed research and its relevance to the needs of 
the small fruit industries; (2) The relevance of the proposal to 
current small fruit research designated priorities; (3) The scientific 
expertise of the scientists involved--training, experience, and 
accomplishments relative to specific areas of small fruit research; (4) 
The appropriateness of the level of funding requested, vis-a-vis, 
availability of funds; and (5) The likelihood of success. Reviewers 
complete an evaluation sheet for each proposal, rating the five 
criteria on a scale of one to ten, with ten being the best. Previously 
awarded projects are given special consideration in order to allow for 
funding for up to three years--when appropriate progress is 
demonstrated. Compilation of evaluations are distributed to the three 
Agricultural Experiment Station Directors and the USDA-Agricultural 
Research Service--ARS--Horticultural Crops Research Laboratory Research 
Leader, who make the final determination of funding for each proposed 
project. Notification of awards are made in December. The peer review 
of all proposals is coordinated and processed through the Northwest 
Center for Small Fruit.
      southwest consortium for plant genetics and water resources
    Question. Please provide a description of the work that has been 
funded by the Southwest Consortium for Plant Genetics and Water 
Resources Grant.
    Answer. Work funded by this grant is cooperative, innovative, and 
relevant to crop adaptation in arid and semi-arid lands. The primary 
objectives of research funded by the Southwest Consortium are: to 
determine and evaluate tolerance to biological and chemical stresses in 
desert plants, to determine the impact of these stresses on 
susceptibility of plants to pests and pathogens as well as on the 
activities of symbionts and beneficial organisms, and to determine and 
evaluate genetic modification of plants that are targeted for better 
adaptability to stress of arid and semi-arid environments and the 
problems of water use efficiency and water quality.
    All funded research has a water and a genetic component and 
requires an interdisciplinary research team. The interdisciplinary 
research teams are formed from researchers at the five participating 
southwestern institutions, which include New Mexico State University, 
Texas Tech University, Los Alamos National Laboratory, University of 
Arizona, and the University of California in Riverside.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This research is highly significant on all levels. The 
Southwest Consortium conducts an integrated program that identifies 
specific problems of southwest agriculture, coordinates water and 
biotechnology research aimed at solving these problems, and facilitates 
the transfer of this information for further research, development, and 
commercialization. This coordinated arid lands research is relevant, 
necessary, and can be applied regionally, nationally, and locally, as 
well as be applied for international improvements of arid lands 
agriculture.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original and ongoing goal of this research is to 
provide funding for the development of innovative and competitive 
research that is relevant to arid lands agriculture. The Southwest 
Consortium is a mini-grant program which awards seed money to 
researchers from the five participating institutions. Projects are 
selected for funding based on a thorough external and committee peer 
review. Over 50 projects have been funded since the Consortium was 
established in 1986, with numerous accomplishments in research relevant 
to arid lands agriculture. Among the most recent accomplishments are: 
genetic analysis of heat tolerance in cotton; hydraulic lift to improve 
drought tolerance in crop plants; molecular mapping of heat tolerance 
genes in corn; exploration of plant defenses to aphids and whiteflies; 
and identification of stress induced gene products using enhancer gene 
traps. Data collected from the first ten years of the Consortium--1986-
1995--show that Consortium funding has been successfully leveraged by 
researchers toward the acquisition of an additional $4,836,208 in 
research funding from other agencies, and that a total of 88 peer 
review scientific publications resulted from Consortium work funded 
during this period.
    Question. How long has this work been under way and how much has 
been appropriated through the year 2001?
    Answer. The work supported by this grant began in fiscal year 1986 
and has been provided with appropriations of the following amounts: 
fiscal year 1986, $285,000; fiscal years 1987 through 1989, $385,000 
per year; fiscal year 1990, $380,000; fiscal years 1991 through 1993, 
$400,000 per year; fiscal year 1994, $376,000; fiscal years 1995 
through 2000, $338,000 per year; and fiscal year 2001, $368,188. A 
total of $5,792,188 has been appropriated since fiscal year 1986.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The source of matching funds is derived from the support 
from the five participating institutions in the form of support 
researchers, salaries, facilities, equipment maintenance, and 
administrative assistance. It is estimated that the amount of non-
Federal supporting funds during fiscal years 1993-2000 is $100,000 per 
year.
    Question. Where is this work being carried out?
    Answer. Research on this grant is conducted at the five 
participating institutions in the laboratories and support laboratories 
of the principal investigators on each mini-grant project.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Southwest Consortium was initiated in 1986. Each year, 
additional and related objectives have been developed and the 
anticipated completion date for these is 2002. The original objectives 
of the project have successfully been met.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation provided.
    Answer. Mini-grants are awarded competitively to support research 
that will lead to solutions of problems unique to agricultural 
production in the southwest. The mini-grant selection process is 
competitive with each proposal subjected to a rigorous review process 
that includes external scientific peer review and internal review by 
the Consortium Steering and Scientific Committees. A progress report is 
submitted for review by each funded mini-grant project prior to the 
award of second year funds. CSREES reviews the complete Southwest 
Consortium progress report on a yearly basis.
                    soybean cyst nematode, missouri
    Question. Please provide a description of the research that has 
been funded under the Soybean Cyst Nematode, Missouri grant.
    Answer. The research being funded by this grant is crucial to the 
development of effective management strategies to understand host 
parasite relationships of the pathosystems and each of its components. 
Work has dealt mainly with identifying Heterodera glycines-resistant 
genes and incorporating them into agronomically-superior cultivars. 
Basic studies elucidate the fundamental biology of the cyst nematode in 
regard to new management strategies. Applied work dealt with evaluating 
production systems and to new management strategies. This project was 
not awarded competitively but has undergone peer review at the 
university level and merit review at CSREES.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for the 
research?
    Answer. The principal researcher believes that although this 
research is focused on the soybean cyst nematodes in Missouri, the 
problem is of regional and national significance. The soybean cyst 
nematode, Heterodera glycines is the most serious pest of soybean in 
the U.S. The problems continue to increase in the midwest where 12 
states have yield reductions in soybean because of this nematode. Due 
to the nematodes ability to adapt to resistant varieties over time, new 
varieties are continually needed.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this research is managing soybean cyst nematode 
through the various management strategies including the development of 
new resistant soybean varieties. To date, several nematode resistant 
soybean lines have been or will be released. The need for breeding 
soybean lines to develop resistant varieties with a broad spectrum of 
resistance continues. More fundamental research involves the 
utilization of new molecular technologies to identify genes responsible 
for resistance. Other aspects of the work relates to field management 
strategies for these nematodes.
    Question. How long has work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1979, $150,000; fiscal years 1980-1981, $250,000 
per year; fiscal year 1982, $240,000; fiscal years 1983-1985, $300,000 
per year; fiscal years 1986-1989, $285,000 per year; fiscal year 1990, 
$281,000; fiscal year 1991, $330,000; fiscal years 1992-1993, $359,000 
per year; fiscal year 1994, $337,000; fiscal years 1995-1997, $303,000 
per year; fiscal year 1998, $450,000, fiscal years 1999-2000, $475,000 
per year; and fiscal year 2001, $598,680. A total of $7,503,680 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $105,012 state appropriations in 1991; $84,368 state 
appropriations in 1992; $168,017 state appropriations in 1993; $118,725 
state appropriations in 1994; $33,498 in 1995 and 1996; $33,723 in 
state appropriations in 1997; $37,445 in state appropriations in 1998; 
and $201,994 in 1999 and $200,000 in 2000.
    Question. Where is this work carried out?
    Answer. This research is being conducted at the Missouri 
Agriculture Experiment Station and the University of Missouri.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Many objectives are being met, but genetic interaction of 
the soybean cyst nematode/soybean is extremely complex. The anticipated 
completion date of the continuing research is in 2004-2006.
    Question. What was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The last evaluation of this project was a merit review in 
January 1999 and the renewal project was evaluated in 2000. In summary, 
continued development of new management strategies for the soybean cyst 
nematode is extremely important. Progress continues with nematode 
resistance being released yearly as well as excellent progress in other 
management strategies. Certified seed of MPV437-NRR was made available 
to farmers in 1999. A new soybean variety, ``Anand'' was released in 
2001. Another high yielding soybean strain, S96-1908 was developed that 
is resistant to all races of soybean cyst nematodes and is being 
evaluated in the uniform tests. More fundamental research involves the 
utilization of new molecular technologies to identify genes responsible 
for resistance. Seven genetic markers associated with loci controlling 
resistance to soybean cyst nematode were found in Peking, China, which 
may be useful in marker assisted selection for resistant lines. Other 
aspects of the work relates to field management strategies for these 
nematodes including effects of nutrient uptake on nematode development. 
A seven-year study of the effects of soybean cyst nematode on soybean 
growth and development was recently completed. It showed among other 
things that a grower's choice of tillage methods and date of planting 
are relatively unimportant in their strategy to control soybean cyst 
nematodes. Another study indicated that nitrogen accumulation and 
fixation are limited under high soybean cyst nematode infections.
             steep iii--water quality in pacific northwest
    Question. Please provide a description of the research that has 
been funded under the STEEP III--Water Quality in the Pacific Northwest 
grant.
    Answer. The STEEP III study was established in 1996 as the third 
phase of the tri-state STEEP Program entitled, ``Solutions to 
Environmental and Economic Problems'' to meet the needs of farmers and 
ranchers in the Pacific Northwest in solving severe problems with soil 
erosion and water quality, while maintaining economically- and 
environmentally-sustainable agricultural production. An open call for 
research proposals is held by three cooperating states, Idaho, Oregon, 
and Washington. Awards are made competitively after both internal and 
external peer reviews within the states, and merit review by the 
agency. The project is in a new phase and is just known as STEEP 
because the STEEP III objectives have been completed.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. According to the research proposal, the soils of the 
Pacific Northwest wheat region are subject to severe wind and water 
erosion, which has taken a heavy toll of the topsoil in a little more 
than 100 years of farming. Due to the hilly terrain, water erosion has 
reduced potential soil productivity in the high rainfall areas of the 
region by about 50 percent. Wind erosion has reduced productivity on 
the sandy soils in the lower rainfall areas. Also, off-site 
environmental costs of water erosion are large. Although many of these 
are difficult to measure, they include damage from sediment to 
recreational areas, roadways, and other areas which costs taxpayers 
millions of dollars annually. Wind erosion, which occurs mostly in the 
spring and fall, also can be costly and environmentally damaging to air 
quality and causes increasing concerns for human health and safety from 
blowing dusts. Water quality degradation is of increasing concern in 
the agricultural areas of this region, since sediment is a major 
pollutant of surface water runoff which may also carry potential 
chemical contaminants. The complex hydrology of the region's landscape 
has made it difficult to identify the sources of these chemicals in 
surface and ground waters. A new major emphasis has been the funding of 
direct seed research in combination with reduction in summer fallow and 
more complex crop rotations. Direct seed is synonymous with no till 
where tillage is eliminated or reduced to a very minimum. Consequently, 
soil and wind erosion are reduced significantly improving soil and 
water quality and contributing to salmon recovery.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The primary goals are: to obtain and integrate new 
technical/scientific information on soils, crop plants, pests, energy, 
and farm profitability into sustainable, management systems; to develop 
tools for assessing the impacts of farming practices on soil erosion 
and water quality; and to disseminate conservation technology to the 
farm.
    The original STEEP and following STEEP II and STEEP III projects 
for erosion and water quality control, have provided growers a steady 
flow of information and technologies that have helped them meet 
economic, environmental, and resource conservation goals. Through the 
adoption of these technologies, the researchers believe that growers of 
wheat, barley, and other alternative crops have been able to reduce 
soil erosion by water and wind, improve water quality, and maintain or 
increase farm profitability. This has been accomplished through a tri-
state, multi-disciplinary, multi-agency approach of basic and applied 
research, along with technology transfer and on-farm testing to assist 
growers with applying these research findings on their farms. The on-
farm testing program has directly involved growers and stakeholders in 
the planning and conduct of the research and educational efforts--and 
has helped growers evaluate conservation options, such as residue 
management, to meet conservation compliance requirements.
    STEEP programs have helped position farmers with new conservation 
technologies, such as direct seeding management systems, well in 
advance of deadlines to meet current and anticipated policy 
requirements. This preparation protects farmers against potential 
penalties and loss of government program benefits. The new emphasis on 
direct seeding has significantly reduced summer fallow through more 
annual cropping and through more emphasis on alternative crops.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1991, 
and the appropriations for fiscal years 1991-1993 were $980,000 per 
year; in fiscal year 1994, $921,000; in fiscal year 1995, $829,000; in 
fiscal years 1996-2000, $500,000 per year; and in fiscal year 2001, 
$498,900. A total of $7,688,900 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $938,812 state appropriations, $63,954 product sales, 
$156,656 industry, and $16,994 miscellaneous in 1991; $1,025,534 state 
appropriations, $75,795 product sales, $124,919 industry, and $88,696 
miscellaneous in 1992; $962,921 state appropriations, $62,776 product 
sales, $177,109 industry, and $11,028 miscellaneous in 1993; $1,069,396 
state appropriations, $46,582 product sales, $169,628 industry, and 
$22,697 miscellaneous in 1994; and $1,013,562 state appropriations, 
$31,314 industry, and $107,151 miscellaneous in 1995. In 1996, 
Washington received $231,724 state appropriations; Oregon passed 
Measure 5 which reduced revenues and imposed funding restrictions so 
they were unable to provide any non-Federal cost-sharing or matching 
funds; and Idaho contributed $81,525 state support, and $86,242 in 
estimated non-Federal grant support, for a total non-Federal 
contribution of $167,767. In 1997, Washington received $197,234 state 
appropriations; Oregon continues to have Measure 5 as law and continues 
to be unable to provide any non-Federal cost-sharing or matching funds; 
and Idaho contributed $27,235 state support and $24,525 in estimated 
non-Federal grant support for a total non-Federal contribution of 
$51,760. In 1998-2000, these same general levels of support have been 
continued with sources of funds from the Environmental Protection 
Agency, Washington Wheat Commission, and PM-10 Air Quality.
    Question. Where is this work being carried out?
    Answer. The work under STEEP III has been performed at laboratories 
and field research sites at the University of Idaho, Oregon State 
University, and Washington State University. Cooperative on-farm 
testing will be conducted in cooperation with growers on their fields 
in Idaho, Oregon, and Washington.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The STEEP II project was completed in 1995, and the results 
were compiled in a final, 5-year report in January 1997 showing that 
the original objectives have largely been met. The STEEP III project 
started in 1996 and continued through the year 2000 as a 5-year 
project. Four modified objectives were identified in the new STEEP 
program for 2000. The objectives are: (1) determine the impact of 
farming practices and systems on soil, water, and air quality; (2) 
develop new technologies and increase efficiency of inputs which 
improve profitability of conservation farming systems; (3) assess the 
profitability of conservation systems; and (4) accelerate grower 
evaluation and adaptation of profitable conservation farm systems.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency's program manager annually reviews progress 
reports, proposes new research on the STEEP Program, and attends the 
annual meetings to assess progress. The program is evaluated within the 
states each year by three committees: grower, technical, and 
administrative. Annual progress is reported at an annual meeting and 
compiled into written reports. These reports and the meeting are 
reviewed annually. Grower and industry input is solicited at the annual 
meeting on research objectives and accomplishments. The most recent 
evaluation was made at the January 2000 annual meeting which 
highlighted direct-seeding technology. This highly successful meeting 
attracted many growers, scientists, and agricultural experts from the 
tri-state region. Another annual review and reporting session is 
scheduled for January 2001. Farmer surveys are also distributed at each 
annual meeting, and results are compiled to assess whether objectives 
are being successfully achieved.
                  sustainable agriculture, california
    Question. Please provide a description of the research that has 
been funded under the Sustainable Agriculture, California grant.
    Answer. This project aims to build upon and link across individual 
efforts to provide a more comprehensive picture of the potential 
impacts of ecologically-integrated farming systems and land management 
on environmental health, farm viability, and regional communities.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The Central Coast of California is a global center of fresh 
fruit and vegetable production and innovative production and marketing 
methods. According to the research proposal, the project is needed to 
help the region respond to a new period of challenge arising from 
globalization of markets, environmental conservation needs, and the 
claims of Latino farm workers and small farmers.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This project aims to develop economically-viable and 
environmentally-sound production systems for strawberries and 
vegetables, to enhance ecosystem health in multiple-use watersheds, and 
to assess the feasibility of alternative production and marketing 
strategies, including consumer education.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000 
and the appropriation for fiscal year 2000 was $255,000 and in fiscal 
year 2001 is $392,135. The total appropriation is $647,135.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds are shown in the project proposal, but 
the project entails a consortium approach involving several non-Federal 
partners, such as the Santa Cruz County Farm Bureau and regionally-
based non-profit organizations which are likely to bring considerable 
in-kind contributions to the effort.
    Question. Where is this work being carried out?
    Answer. The work is being carried out by the Center for Agroecology 
and Sustainable Food Systems at the University of California-Santa Cruz 
in the Monterey Bay area of California.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date was May 1, 2001. The 
original objectives have not yet been completed.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last agency evaluation conducted.
    Answer. No evaluation has yet taken place since the project has 
been underway less than one year.
                   sustainable agriculture, michigan
    Question. Please provide a description of the research that has 
been funded under the Sustainable Agriculture, Michigan grant.
    Answer. This project is intended to develop agricultural production 
systems that are highly productive and profitable and which provide 
high quality ecosystem services to local communities and to the 
environment. It examines how to achieve a high nutrient flow from soil 
to crops and animals, and back to soil, with low loss to ground and 
surface waters. The grant is allocated by the Michigan Agricultural 
Experiment Station to priority areas within the general area of 
sustainable agriculture. Grants are awarded based on research merit and 
proposal submission.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research.
    Answer. The principal researcher believes there is a need to better 
understand the biological processes occurring in Michigan's high-
nutrient-flow crop and animal systems. With high water tables, networks 
of lakes and slow-moving streams, and concern about environmental 
standards, field contamination by agricultural production materials is 
a high priority.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The objective of this research is the identification, 
quantification, and description of production ecology information to 
permit its use in a significant way in farm management decision making. 
Key areas addressed include soil carbon and nitrogen flows, soil 
nematode population management, and weed seed predation and seedbank 
management.
    Accomplishments to date include the development of on-farm compost 
demonstration sites, collection of research data and computer software 
models on water table management, completion of initial research trials 
on rotational grazing at three sites in Michigan, widespread testing of 
cover crops in several crop rotation systems, and tests of the use of 
nematology community structure as a method of detecting difference 
among farming systems. Findings from this project have demonstrated 
that rotational grazing reduces production costs, and increases net 
profits, compared to traditional cow management. This project has also 
shown that composting is an effective way of stabilizing livestock 
waste, controlling odor, and improving nutrient composition for later 
land application. Cover crop development as an integrated tool is 
becoming quite advanced. Frost seeding of wheat with clover is 
increasingly used; approximately one-third of Michigan's wheat acreage, 
by some estimates, is overseeded. Results are being integrated into a 
series of practical publications partially supported by this grant. The 
first in the series, ``Michigan Field Crop Ecology,'' received an 
American Society of Agronomy award in 1998 for excellence as an 
Extension publication. A second volume, on field crop pest ecology was 
completed in January 2000, and similar volumes for fruit and vegetable 
ecology are under development. New work on organic apple production is 
very timely, given producers' growing interest in this area.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1994 
with an appropriation of $494,000; $445,000 were appropriated in fiscal 
years 1995 through 2000; and $444,021 in fiscal year 2001, bringing 
total appropriations to $3,608,021.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Matching funds were provided at the state level for 
$511,900 in fiscal year 1994, $372,319 for fiscal year 1995, and 
$359,679 in fiscal year 1996. Matching support was not reported in 
fiscal years 1997 through 2000.
    Question. Where is this work being carried out?
    Answer. This work is being carried out in Michigan at several 
locations by Michigan State University. Locations include the Kellogg 
Biological Station, the Upper Peninsula Experiment Station, and farms 
around the state.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original project, begun in 1994, was proposed through 
April of 1997. Its specific objectives were met, with additional 
objectives addressed in subsequent related proposals. The current 
project is scheduled to go through July 31, 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last agency evaluation conducted.
    Answer. A formal evaluation of the Principal Investigator's program 
was concluded in 1997, commissioned by the C.S. Mott Foundation through 
an independent consultant. The project continues to have annual peer 
review. According to the Principal Investigator, the proposal has gone 
through the normal Michigan State University review process. First, all 
teams and collaborators of the project have met and reviewed the entire 
proposal with several suggestions and changes being incorporated. 
Second, research administrators in the fields of agronomy/soil science 
and entomology/pest management covering the major dimensions of the 
proposal have reviewed it for scientific appropriateness and accuracy 
as well as for overall balance and likelihood of achieving objectives. 
Their comments have been included as revisions to the proposal.
               sustainable agriculture systems, nebraska
    Question. Please provide a description of the research that has 
been funded under the Sustainable Agriculture Systems program for 
Nebraska.
    Answer. This project is aimed at integration of field crops, animal 
production, agroforestry, livestock waste management, and diversified 
enterprises to meet production, economic, and environmental quality 
goals.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Farmers and ranchers in Nebraska and throughout the Midwest 
face increasing difficulties in maintaining profitable operations that 
are sustainable under increased production costs and more stringent 
environmental regulations. They continue to seek alternative production 
systems, integration of crop and animal enterprises, value-added 
products, including those from woody perennials, and new marketing 
approaches to secure more of the food dollar. Work on crop residue 
utilization is highly important to assess the loss of erosion 
mitigation when grazing occurs as well as the benefits of winter forage 
to production of lean beef. Erosion is still a major problem with 
monoculture cropping, and work with contour strips, residue management, 
and animal grazing is essential to provide good recommendations to 
farmers for how to manage fragile lands.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This project has addressed a number of questions related to 
the management of integrated crop and livestock enterprises. The work 
on composting has answered questions about the costs of composting, 
improved the nutrient content of compost, and evaluated different 
spreading technologies. Because elevated levels of nitrate have been 
found underneath the composting sites, studies are underway to compare 
different crops and shrubs as scavengers of nitrogen. The work on 
contour strip cropping, residue management, no-till planting, and cover 
crops has demonstrated ways to reduce erosion on highly erodible land. 
Studies of grazing on corn residues under different tillage and 
management systems are determining the forage value of residue and the 
impact of grazing on subsequent crop production. Plots that have been 
managed with organic methods for six years are providing local 
experience in this topic of increasing grower interest.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. This project began in fiscal year 1992, with an 
appropriation of $70,000; subsequent appropriations are as follows: 
$70,000 in fiscal year 1993; $66,000 in fiscal year 1994; $59,000 in 
fiscal years 1995 through 2001; and $58,870 in fiscal year 2001. Total 
appropriations to date are $618,870.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Matching funds provided for this research include state 
funds in the amount of $25,313 for fiscal year 1992; $26,384 for fiscal 
year 1993; $27,306 for fiscal year 1994; $36,091 in fiscal year 1995; 
and $24,267 in fiscal year 1996. No matching funds were reported in 
fiscal years 1997 through 2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted by the University of Nebraska 
at several locations in Nebraska, with the major part of the project at 
the Agricultural Research and Development Center near Mead, Nebraska.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original project proposed work through March of 1994. 
The current project proposes work addressing additional related 
objectives through June 30, 2001. It is expected that current 
objectives of the project will be met by this time period.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last agency evaluation conducted.
    Answer. There has not been a formal evaluation of this project, but 
progress reports have been submitted to the agency and reviewed by our 
scientific staff. The grant was awarded competitively within the 
University of Nebraska, and the integrated farm project has been 
reviewed annually for technical merit and progress toward goals by the 
internal review process of the university.
            sustainable and natural resources, pennsylvania
    Question. Please provide a description of the research that has 
been funded under the Sustainable Agriculture and Natural Resources, 
Pennsylvania project?
    Answer. This project studies the cycling of nutrients in soil and 
crops with special emphasis on the development of indices for 
measurement of soil health. Specific goals are to identify indicators 
of a soil ecosystem that maintains a high level of active soil organic 
matter, and to develop nutrient and carbon budgets for managing on-farm 
cropping systems.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Degradation of soil health/quality is a most serious 
problem for agriculture both in the mid-Atlantic region and throughout 
the nation. State governments, both regionally and nationally, are 
attempting to address the issue of soil and water degradation in 
cropping systems and in intensive animal agriculture. Traditional soil 
test results are not providing the needed answers for effective 
nutrient management.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to understand the 
cycling of nutrients and to use that knowledge to develop practical 
indicators of soil quality and health. If farmers are to manage their 
farm lands properly, indicators of soil quality and health must be 
developed that can be used by agricultural producers and consultants. 
Efforts under this project have been devoted to this goal with 
significant accomplishments to date. Management practices have been 
found to affect soil microbiology, and the fate of nutrients from crop 
residues and legume cover crops is being elucidated. A significant 
indicator of soil quality has been identified: measurement of the 
decomposition of filter paper has been shown to be an effective 
indicator of plant residue decomposition, which in turn has been shown 
to be highly correlated to nitrogen mineralization and also shows 
promise as an indicator of soil biological activity. Experiments are 
underway to refine this approach. Results on microbial biomass work 
have been submitted for scientific publication by scientists at Rodale, 
and a Masters of Science thesis at the Pennsylvania State University--
PSU--evaluated the ability of different indicators of soil quality to 
distinguish soil management histories.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported under this grant began in fiscal year 
1993. The appropriation for fiscal year 1993 was $100,000; $94,000 per 
year in fiscal years 1994 through 1998; $95,000 per year in fiscal 
years 1999 and 2000; and $99,780 in fiscal year 2001. A total of 
$859,780 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. A total of $369,574 in matching support from university, 
state, and private industry sources was provided in fiscal year 1997. 
No matching support was reported in fiscal years 1998 through 2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted by the Pennsylvania State 
University with cooperators throughout the state, at the Hunter 
Rotation Experiment at PSU's R.E. Larson Research Center near Rock 
Springs, Pennsylvania, at the Rodale Institute Research Center near 
Kutztown, Pennsylvania, and on farms around the state.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project has met the specific objectives set forth in 
the original project which began in 1993 with an ending date in 1995. 
The continuing project addresses additional objectives related to the 
overall goal. The ending date for the current project objectives is 
June 30, 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last agency evaluation conducted.
    Answer. There has not been a formal evaluation of this project, but 
progress reports have been submitted to the agency and reviewed by our 
scientific staff. The project undergoes regular internal evaluation and 
assessment as part of PSU's major effort in soil quality and nutrient 
management research.
                    sustainable beef supply, montana
    Question. Please provide a description of the work that has been 
funded under Sustainable Beef Supply, Montana grant.
    Answer. The Sustainable Beef Supply, Montana, project develops a 
system to provide information feedback among the various segments of 
the beef industry. This program is a cooperative effort between the 
Montana Stockgrowers Association and Montana State University. A 
systems approach was adopted to allow for tracking of weaned, feeder 
calves from ranches in Montana to feedlots in other states and 
eventually to the packing plant. Information collected throughout the 
production chain is to be shared among all owners of the cattle.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The beef industry is becoming more focused on consumers, 
and specific quality and consistency targets are being established in 
all segments of the industry. In order to meet customer and consumer 
expectations for safe beef and return additional revenue to cattle 
producers, a systems network must be developed to ensure that a high 
quality and consistent product is being produced. Central to this 
networking approach is the exchange of information from the producer to 
the end user, customer, or consumer. This systems approach for 
information transfer is the foundation of the Montana Beef Network.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This project has three primary objectives: develop and 
provide educational programs aimed at meeting beef quality assurance 
standards, production, and marketing goals; certify feeder calves that 
have met defined health management protocols; and provide information 
feedback from the feedlot and packing plant to the cow-calf producers 
showing if the feeder calves met industry requirements for quality, 
consistency, and red meat yield. The funding was used to develop and 
distribute 1,500 training manuals and present over 45 educational 
programs on the Beef Quality Assurance. County agents were trained to 
provide this educational training within their counties. Approximately 
20,000 calves have been certified in 1999 and 2000. A state-wide audit 
of ranches has been initiated to determine value-added production and 
management practices. A research project was completed involving 12 
ranches to determine if a standardized weaning protocol, which includes 
vaccinations and nutrition, could reduce morbidity of calves after they 
entered the feedlot. Results suggest a possible benefit in terms of 
reduced illness after the calves reach the feedlot. One-day short 
courses were conducted in Billings and Lewiston, Montana, to present 
issues pertinent to the beef industry. Ten interactive-television short 
courses were presented in 2000 that focused on carcass evaluation, 
genetic management, backgrounding calves, nutrition, drought 
management, and marketing.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The program supported by this grant began in fiscal year 
1999. The appropriations were $500,000 in fiscal year 1999; $637,500 
for fiscal year 2000; and $742,363 for fiscal year 2001. The total 
appropriation is $1,879,863.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The Montana Department of Agriculture contributed $15,000, 
and the Montana Stockgrowers Association contributed $5,000 in fiscal 
year 2000. The Montana beef producers provided $10,000 in fiscal year 
2001.
    Question. Where is this work being carried out?
    Answer. This project is being conducted at Montana State University 
and on cooperating Montana ranches.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. It is anticipated that it will take five years of funding 
to fully achieve the objectives of this project. Progress to date has 
been very encouraging. Approximately 1,300 producers have received beef 
quality assurance training, and 38,000 calves have been certified. The 
goal is to increase the certification effort to include 75,000 feeder 
calves each year.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was peer-reviewed by faculty at Montana State 
University and also by Montana cattle producers prior to submission. 
The proposals were merit reviewed by the agency prior to funding.
         sustainable pest management for dryland wheat, montana
    Question. Please provide a description of the research that has 
been funded under the Sustainable Pest Management for Dryland Wheat, 
Montana grant.
    Answer. Montana State University researchers are studying the 
influence of four cropping sequences and two tillage systems on 
insects, weeds, plant pathogens, nutrient management, physical and 
biological properties of soil, economic profitability, and 
environmental benefits. The research is being conducted on large 
experimental blocks in the three different dryland farming regions of 
northern, central, and eastern Montana. Each site differs 
climatologically and agronomically from one another yet represents a 
significant production area within the state.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This project addresses pest management issues under 
different cropping sequences and tillage practices utilized in the 
Northern Great Plains for dryland wheat production. The wheat-fallow-
wheat system used by many farmers in the region favors the build up of 
many pests. Dollar losses due to insects, competitive weeds, and plant 
pathogens in dryland wheat production in Montana alone are staggering. 
For example, annual losses attributed to wheat stem sawfly exceeds $25 
million; wild oat infestations causes an estimated $50 million in 
harvest losses and management costs; and wheat streak mosaic has a 
monetary loss of $37.5 million. These and other pests also increase 
reliance on pesticides for crop protection which impacts environmental 
quality, increases production costs, and causes secondary pest 
outbreaks and resistance. The agronomic, environmental, and economical 
benefits of diversified crop rotations are numerous, but these benefits 
are largely unknown or not documented in dryland wheat production. This 
multi-disciplinary project can result in significantly reducing the 
economic impact of agriculturally-important pests by improving soil 
health, reducing production costs, and improving production efficiency.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goals of this research were to study the 
influence of cropping sequences, tillage systems, and different levels 
of inputs on dryland wheat production, pests, nutrient management, 
physical and biological properties of soil, economic profitability, and 
environmental benefits. The third cropping season was completed at the 
northcentral site and the second cropping season was completed at the 
central location in 2000. Data collection continues at these sites, but 
results and the influences of cropping sequences, tillage systems, and 
inputs into the systems have not been determined nor translated into 
useful strategies articulated for use by growers. Arthropod densities 
have increased from 1998 to 2000. Significantly more pests and 
beneficial arthropods were captured in spring wheat following fallow 
than other rotations. These arthropod data suggest that when pest 
numbers are elevated in particular crops, including spring wheat, 
mustard, sunflower, and Conservation Reserve Program land, beneficial 
numbers respond in kind. There was no detectable wheat streak mosaic 
virus, and there was no evidence of foliar fungal diseases in any of 
the wheat plots. The influence of crop rotation was not significant for 
Fusarium crown rot infection of spring wheat in 2000.
    The main objectives at the third research site in northeast Montana 
are determining the effects of forages on wheat yields, intensively 
crop for a more efficient use of water, and determine the value of 
feeding high quality forage in late summer. The entire 25-acre site was 
cropped to spring wheat in 1999 and lentils in 2000. Rotations include 
traditional wheat-fallow, wheat hay barley, wheat-hay barley-pea, 
wheat-sorghum sudan, and alfalfa. Useful results have not been reported 
at this stage in the research program.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This work supported by this grant began in fiscal year 1997 
and the appropriation for fiscal year 1997 was $200,000; for fiscal 
years 1998 and 1999, $400,000 per year; for fiscal year 2000, $425,000; 
and for fiscal year 2001, $460,984. A total of $1,885,984 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds of $42,000, $80,000, and $80,000 from the 
Montana Wheat and Barley Committee were provided for project support 
during 1997, 1998, and 1999, respectively. The Montana Agricultural 
Experiment Station provided $25,000 in state support. Private 
industries provided $5,000 during 1999. Non-Federal funds of $85,335 
from the Montana Wheat and Barley Committee were provided for project 
support during 2000. The Montana Agricultural Experiment Station 
provided $35,000 in state support. Private industries provided $3,500 
during 2000.
    Question. Where is the work being carried out?
    Answer. Research is being conducted in three distinct dryland areas 
of Montana in the north, central, and northeast located on producer-
owned land. Each field site is within 45 miles of a Montana State 
University Agriculture Experiment Station research center.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project was initially proposed for a duration of three 
years. However, this project is envisioned as a long term project and 
will require a total of 12 years to see it to completion.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Yearly progress reports will be used to track the 
effectiveness of the program of research. Assessment of the precision 
of biological control organisms and estimates of profitability, 
marketability, and risk will be used to assess progress. An onsite 
visit and review is anticipated during the growing season of 2001.
                 swine waste treatment, north carolina
    Question. Please provide a description of the research that has 
been funded under the Swine Waste Management, North Carolina grant.
    Answer. Research funded through the current grant continues to 
support research, development, and demonstration of innovative 
technology for swine waste management. Primary focus has been on 
various alternatives or modifications to traditional lagoon/spray-field 
technology. Specifically, this particular funded project is focusing on 
determining the technical and economic feasibility of utilizing a 
combination of technologies--systems approach--involving solids 
separation, aeration, and constructed wetlands, as well as value-added 
processing of generated biosolids, to treat swine manure.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
project?
    Answer. Nationally, regionally, and locally, discussions and 
efforts regarding animal waste management practices and the impact of 
animal agriculture on the environment are at the forefront of issues 
facing the livestock industry, pork production in particular. Soil and 
water quality issues associated with this industry have been identified 
to be: nutrient loading and fate of nitrogen, phosphorus, and metals--
copper and zinc; and fate of pathogenic bacteria in the manure effluent 
and air emissions from animal production facilities. Air quality issues 
identified include emissions of ammonia nitrogen, greenhouse gases, 
dust, and odor. The attention directed to this subject area has 
resulted in research, development, and demonstration efforts by 
academic institutions, the private sector, as well as the livestock 
industry. The need for this project is further illustrated by the 
proposed Concentrated Animal Feeding Operations rule that was signed by 
the U.S. Environmental Protection Agency's Administrator on December 
15, 2000. The rule proposes changes to the size of operation requiring 
permitting and effluent guidelines under the National Pollutant 
Discharge Elimination System Permit Regulation and Effluent Limitation 
Guidelines and Standards for Concentrated Animal Feeding Operations.
    In North Carolina, where livestock and poultry production account 
for approximately $5 billion in farm gate income annually, the 
sustainability of this industry has enormous economic implications. 
Several other states and local regions in which animal production 
agriculture contributes to the economy are facing the same concerns. As 
such, this research project will have a local, state, and national 
impact.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The specific goals for this project include: determine the 
effectiveness of the system at reducing nitrogen, phosphorus, metals--
copper and zinc--ammonia volatilization, pathogenic microorganisms, and 
odor in the treated wastewater; determine the effectiveness of 
utilizing specialized waste processing equipment including a 
pelletizer, fluidized bed dryer, and flash dehydrator for blending and 
processing biosolids removed from the system into value-added products; 
and determine the economic feasibility of the system to include capital 
and operational costs.
    The original goal of this project was to evaluate a full-scale, on-
farm constructed wetland system for swine waste which was supported by 
very promising reports of a five-year study of a prototype system on an 
actual swine farm. This goal has subsequently been re-enforced by the 
North Carolina Governor's request to develop alternatives to lagoons 
for swine waste management and the North Carolina Attorney General--
Smithfield Foods, Inc. Agreement is to provide funding to implement and 
evaluate advanced technologies for swine waste management. The 
constructed waste management system described in the proposal has been 
installed, and a Ribbon Cutting ceremony was held to publicize startup 
of this full-scale system.
    In addition to the system described in the proposal, a dissolved 
air flotation unit has been added to provide greater reduction of 
solids, oxygen demand, and organics in the influent to the wetland 
system. This unit may also provide some oxidation of the nitrogen to 
nitrate to provide higher levels of denitrification in the wetland 
system. Overall, the addition of this dissolved air flotation unit 
should provide the performance of the wetland system to potentially 
reduce its size and thus the footprint for the overall waste treatment 
system. In addition, arrangements have been made with a local 
vermicomposting facility to take the solids removed by the incline 
screen and the dissolved air flotation unit and process them into a 
marketable vermicompost.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1997 
and the appropriation for fiscal year 1997 was $215,000; fiscal year 
1998 was $300,00; fiscal years 1999-2000 was $500,000 per year; and 
fiscal year 2001 is $498,900. A total of $2,013,900 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. This Federally-funded project has helped leverage funds 
from the state and private sector. From state funds for 1998, $25,000; 
1999, for $1,098,00; and for 2000, $0. From industry or commodity 
sources for 1998, $242,000; for 1999 $308,000; and for 2000 $1,450,000.
    Question. Where is this work being carried out?
    Answer. This work is being conducted at North Carolina State 
University in Raleigh, North Carolina. The commercial site 
demonstration is located in Onslow County, North Carolina.
    Question. What was the anticipated date for the original objectives 
of the project? Have those objectives been met? What is the anticipated 
completion date of additional or related objectives?
    Answer. The current project term dates are July 1, 2000, to June 
30, 2003. Based on progress to date, it is anticipated that project 
objectives will be completed by the June 30, 2003 date.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES conducted an evaluation of the progress of this work 
during January 2001. The project has made significant progress towards 
meeting the original goals.
    This project is effectively integrated with the other animal waste 
management efforts at North Carolina State University, particularly 
those efforts of the Animal and Poultry Waste Laboratory. The long term 
viability of the state's swine industry will be dependent upon waste 
management technologies that are documented to address water and air 
quality concerns. This project is coordinated with the three principal 
areas being addressed by the College of Agriculture and Life Sciences 
at North Carolina State University. The first is development and 
performance verification and demonstration of alternative animal waste 
treatment technologies. The second is nutritional modification of swine 
diets such that lower concentrations of nutrients are excreted by the 
animal. The third is identification and quantification of the 
environmental risks associated with existing lagoon/sprayfield 
techonolgy. Based on the work of over 50 projects and nearly two dozen 
different categories of technology, several promising technologies have 
been identified. They include covered lagoons, upflow biofiltration 
system, sequencing batch reactor process, constructed wetlands, and 
high temperature anaerobic digestion. This project has produced 
significant progress on the constructed wetlands research.
    Efforts have been made to identify processes by which by-products 
of the alternative technology may be developed which have economic 
value. Examples of such work include: capturing biogas for energy; and 
use of nutrients in the processed waste effluent to grow plant, 
vegetable, and fish products. Diet related research has shown promise 
to reduce not only nutrients excreted but to also help control odor.
        technology development of renewable resources, missouri
    Question. Please provide a description of the research that has 
been funded under the Technology Development of Renewable Resources, 
Missouri grant.
    Answer. This is a new project thus a precise description of the 
research to be conducted is not currently available. The general focus 
however is genetic manipulations of soybeans for engineering 
applications.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. At this writing, a proposal has not been received. The 
grantee is conducting a thorough literature review and will submit a 
proposal in conjunction with the outcomes of the literature review. The 
requested date for proposal submission is March 31, 2001.
    Question. What was the original goal of this research and what has 
been accomplished to date.
    Answer. The original goal is to determine if soybeans can be 
altered to produce oils for engineering applications. The project has 
not begun, thus we are unable to cite any accomplishments.
    Question. How long has the project been under way, and how much has 
been appropriated, by fiscal year, through fiscal year 2001?
    Answer. Other than a literature review, which is ongoing, the 
project has not begun. The total fiscal award, and the fiscal year 2001 
award are identical $284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year.
    Answer. The source and amount of non-Federal funds has not been 
disclosed as the grantee is still working on the original proposal.
    Question. Where is the work being carried out.
    Answer. The project will be conducted in and around Rolla, 
Missouri.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion dates of additional or related projects?
    Answer. The work has not begun thus no objectives have been met. 
The grantee will likely structure their original investigative work 
over a two year time span.
    Question. When was the last agency evaluation of this project. 
Provide a summary of the evaluation conducted.
    Answer. The agency has not conducted an evaluation of this project 
as we are awaiting the original proposal.
         tillage, silviculture, and waste management, louisiana
    Question. Please provide a description of the research that has 
been funded under the Tillage, Silviculture, and Waste Management 
Research, Louisiana grant.
    Answer. This research has six components: Rice and Cotton Tillage, 
Bald Cypress and Water Tupelo Silviculture, and Dairy and Poultry Waste 
Management. More specifically, the Rice Scientists are looking for ways 
to improve stand establishment; the Cotton Scientists are focusing on 
the use of tillage systems to combat harmful insect populations; the 
Waste Management Scientists are quantifying the environmental and 
economic effectiveness of approved dairy and poultry waste disposal 
systems; and the Silviculturists are conducting a problem analysis on 
factors affecting Bald Cypress and Water
    Tupelo regeneration. The project is annually subjected to the 
university's merit review process.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researchers hypothesize that the crops, 
forests, and waste issues addressed by this project extend beyond the 
state borders; thus, this research has, at a minimum, multi-state to 
regional application.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goals were to: improve conservation tillage in 
rice and cotton farming; determine the effectiveness of no-discharge 
dairy waste treatment facilities; determine acceptable land treatment 
levels for poultry waste disposal; and to evaluate wetland forest 
regeneration processes. All components of the project have established 
research studies and are monitoring progress. For fiscal year 1998, the 
silviculture component was placed on hold and a sweet potato project 
was added. This decision was prompted by a staffing change in the 
Department of Forestry and Wildlife. Prior to this decision, an 
annotated bibliography of Bald Cypress Silviculture was completed; and 
the responsible scientists had begun work on Water Tupelo regeneration.
    Question. How long has the project been underway, and how much has 
been appropriated, by fiscal year, through fiscal year 2001?
    Answer. The work began in fiscal year 1994. The appropriation for 
fiscal year 1994 was $235,000. For fiscal years 1995-2000, the 
appropriation was $212,000, and for fiscal year 2001 is $211,534. A 
total of $1,718,534 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. State funding in support of these areas of research exceeds 
$750,000 annually.
    Question. Where is the work being carried out?
    Answer. Investigations are being conducted on the main campus at 
Louisiana State University as well as the Experiment Stations at 
Calhoun, Crowley, Chase, Winnsboro, St. Joseph, and Washington 
Parishes, Louisiana.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related projects?
    Answer. The original work was scheduled for completion in 1999. 
Early term objectives have been met. The added experiments have closing 
dates ranging from 1999-2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted?
    Answer. The last field evaluation was completed on December 12, 
1995. The evaluation summary complimented the scientists on the 
interdisciplinary components associated with this project, along with 
their investigative procedures, report writing, and external 
networking.
                       tomato wilt virus, georgia
    Question. Please provide a description of the research that has 
been funded under the Tomato Wilt Virus, Georgia grant.
    Answer. This project supports research to help in the reduction of 
major crop losses in the southeastern U.S. due to Tomato Spotted Wilt 
Disease. Research focuses on vector biology and the virus transmitted 
by the vector.
    Question. According to this research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. Tomato Wilt Virus has become a major yield-limiting 
constraint in a number of very important food crops. This is a world-
wide problem, but in the last ten years, has spread invasively 
throughout the southeastern states. Since this virus was first observed 
in Georgia in 1986, it has caused over $100 million in crop loss in 
Georgia alone. The wide host range of the virus and its vector makes 
this a disease that is difficult to manage. The new strategies to 
manage this virus in Georgia will be applicable to all states where it 
occurs.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The primary goal of this research is to reduce losses in 
the major crops grown in the southwest due to spotted wilt. This 
primary goal has sub-goals of identifying the sources of virus and 
vectors, determining the dynamics of the thrip species that transmits 
the virus, elucidating how the virus is acquired by thrips to identify 
possible genes to enhance virus resistance in plants, and adapting to 
crops in the southeast the Risk Assessment Index for spotted wilt that 
is currently in implementation and refinement at the University of 
Georgia for peanut.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This grant began in 1999 and has been supported at the 
level of $200,000 per year in fiscal years 1999 and 2000 and $249,450 
in fiscal year 2001. A total of $649,450 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds provided for this grant are $84,736 
in fiscal year 1999.
    Question. Where is this work being carried out?
    Answer. Research is being carried out at the University of Georgia 
and The Coastal Plain Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives have not been met since this is a 
complex research area. The anticipated completion date for the 
continuing research is the end of fiscal year 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project has undergone peer review at the University 
level and an agency merit review in January 2000. In summary, some 
progress has been made on all objectives of this research. Some 
progress has been made in understanding the relationship of cellular 
receptor proteins in the guts of the vector. This will aid in the 
identification, characterization, and eventually cloning of these genes 
that then could be modified against the virus. Progress was also made 
in investigating the source of inoculum and seasonal dynamics of the 
vector. This included identification of several weed species that are 
alternative virus hosts. The Risk Assessment Index for management of 
spotted wilt disease was used to evaluate peanut cultivars and 
determine how they fit better into management of the virus on peanut.
                     tropical aquaculture, florida
    Question. Please provide a description of the research that has 
been funded under the Tropical Aquaculture, Florida grant.
    Answer. The research is focused on increasing the production 
efficiency of tropical ornamental fish culture, handling, and 
transportation techniques.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. The principal researcher indicates that the ornamental fish 
industry is unique and important to the local economy where 69 percent 
of the total U.S. production of ornamental fish occurs in Hillsborough 
County, and 95 percent of the total production of ornamental fish is in 
southern Florida. At a national level, the U.S. imports 60-70 percent 
of the ornamental fish sold that results in a significant trade deficit 
that can be reduced by increased domestic production.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research under this grant is to 
improve culture and transportation techniques for the commercial 
tropical aquaculture industry in Florida. Accomplishments to date 
include progress on fulfilling the original research study objectives 
and formation of multidisciplinary research teams that are leading the 
various research studies.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000. 
The appropriation for fiscal year 2000 was $170,000 and for fiscal year 
2001 is $197,564. The total appropriation for this project is $367,564.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. For fiscal year 2000, state appropriations supported the 
salaries of principal investigators and the use of state-owned 
facilities to conduct research. The university estimates that 
significant non-Federal funding will be provided in fiscal year 2001 
primarily from state sources to cover salaries of the principal 
investigators and operating expenses for the laboratory. As the program 
develops, additional non-Federal funding is expected.
    Question. Where is this work being carried out?
    Answer. Research is primarily conducted at the University of 
Florida's Tropical Aquaculture Laboratory located in Ruskin, Florida, 
in addition to some work at the main campus in Gainesville, Florida.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is fiscal year 2001. Work is ongoing to complete the original 
objectives in fiscal year 2001. The anticipated completion date of 
additional objectives is fiscal year 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency has requested that the principal investigators 
submit an annual accomplishment report along with the fiscal year 2001 
grant proposal. This report will be evaluated in terms of progress and 
accomplishments related to the original objectives. The 2001 CSREES 
review will be completed within three weeks of submission of the fiscal 
year 2001 proposal. The researchers will be requested to develop the 
research proposal consistent with the National Science and Technology 
Council's Strategic Plan for Aquaculture Research and Development as in 
the past.
                   tropical and subtropical research
    Question. Please provide a description of the research that has 
been funded under the Tropical and Subtropical Research program grant.
    Answer. Tropical and Subtropical Research program is operating in 
coordination with the Tropical and Subtropical Research Caribbean and 
the Tropical and Subtropical Research Pacific Administrative Groups. 
State Agricultural Experiment Stations that are members of the 
Caribbean group are Florida, Puerto Rico, and the Virgin Islands; 
members of the Pacific group are Hawaii and Guam.
    Non-member institutional interests are represented by the Executive 
Director of the Southern Region Agricultural Experiment Station 
Directors, who is a member of the Caribbean group, and the Executive 
Director of the Western Region Agricultural Experiment Station 
Directors, who is a member of the Pacific group. The Agricultural 
Research Service--ARS--also has representation on the two groups, as 
does the CSREES scientist who manages the Tropical and Subtropical 
Research grant program.
    Funds for the program are divided equally between the two Basin 
Administrative Groups. The research objective of the program developed 
by the Administrative Group is to improve the agricultural productivity 
of many of the subtropical and tropical parts of the U.S. Special 
research grants have been awarded for research on controlling insect, 
disease and weed pests of crops; increasing the production and quality 
of tropical fruits, vegetables, and agronomic crops; promoting 
increased beef production through development of superior pastures; 
detection of heartwater disease of cattle and the influence of heat 
stress on dairy cattle reproduction; better use of land and water 
resources; developing computer models for efficient crop production 
systems and animal feeding systems; developing computer models for 
land-use decisions; using biotechnology methodologies for improving 
plant resistance to viral and bacterial diseases; using biotechnology 
to develop non-chemical, or biological, strategies for controlling 
insect pests; and potential for growing new speciality crops.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes there is a need for the 
Tropical and Subtropical Research program to provide research-generated 
knowledge that enables informed choices in the responsible use of 
natural resources, facilitates the health and well being of American 
citizens through improved food safety and nutrition, provides frontline 
protection for the rest of the nation's farms and ranches from serious 
plant and animal diseases and pests, and enhances the ability of U.S. 
farmers to produce crops efficiently and economically and/or to 
introduce new crops and agricultural products with export potential to 
gain market share abroad. On a regional basis, the Tropical and 
Subtropical Research program addresses the unique challenges of 
practicing tropical agriculture, that is presence of pests year-round, 
heat stress, post-harvest processing to meet regulatory requirements 
for export, etc. The local need of Americans living in tropical regions 
of the nation for Tropical and Subtropical Research knowledge-based 
products is to design and implement sustainable agricultural 
development within fragile tropical agroecosystems--particularly on 
tropical islands--and to develop new crops and niche markets.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to increase the 
production and quality of tropical crops; control pests and diseases of 
plants and animals; promote increased beef production; and conserve 
land and water resources. Grants have supported research on control 
strategies for Melon thrips; the biochemical nature of resistance to 
rust in nutsedge; development of bioherbicides for nutsedges; 
development of tomato cultivars with resistance to the spotted wilt 
virus; development of pheromones for monitoring and controlling the 
citrus root weevil; reducing the effects of heat stress in dairy 
cattle; development of a decision support system for vegetable 
production; finding cucurbits with resistance to silverleaf; developing 
a computer program for optimal supplementation strategies for beef and 
dairy cattle on tropical pastures; characterizing new strains of citrus 
tristeza virus in the Caribbean basin; determining the economic 
threshold for the citrus leaf miner on limes; using viral replicase 
genes to engineer rapid detection methods for geminiviruses; developing 
makers of bacterial spot resistance genes in tomato; breeding snap and 
kidney beans for resistance to golden mosaic, virus, and for heat 
tolerance; searching for resistance to papaya bunchy top disease; 
developing weed control for yam production; and bioengineering ringspot 
virus resistance in papaya.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The operation of the Tropical and Subtropical Research 
program was transferred from the Agricultural Research Service to the 
Cooperative State Research, Education and Extension Service, with 
funding being first provided in fiscal year 1983. Funds were 
appropriated in the amount of $2,980,000 per year in fiscal years 1983 
and 1984; fiscal year 1985, $3,250,000; fiscal years 1986 through 1988, 
$3,091,000 each year; $3,341,000 in fiscal year 1989; fiscal year 1990, 
$3,299,000; fiscal years 1991-1993, $3,320,000 per year; $3,121,000 in 
fiscal year 1994; $2,809,000 per year in fiscal years 1995-1996; 
$2,724,000 per year in fiscal years 1997 through 2000; and $3,853,504 
in fiscal year 2001. A total of $58,571,504 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. For fiscal year 1997, more than $1.0 million of non-Federal 
were provided to the Tropical and Subtropical Research program from 
state appropriations; $856,000 for 1998; $595,000 for 1999; and 
$850,000 for 2000. These state funds were in the form of faculty salary 
time commitments and indirect costs covered by the institutions.
    Question. Where is this work being carried out?
    Answer. This research is being conducted in Florida, Puerto Rico, 
Virgin Islands, Hawaii, and Guam. Work is also being done in other 
Pacific and Caribbean countries through agreements between institutions 
but not using Tropical and Subtropical Research grant funds.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. Research on tropical crop and animal agriculture is to 
increase productivity net profits, decrease harmful environmental 
impacts, conserve water, and natural resources. Objectives for some 
projects have been completed, and new objectives addressing new issues 
are being developed in this ongoing project.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The projects that are funded by the Tropical and 
Subtropical Research Special Research Grant have been peer reviewed by 
panels of scientists in the U.S. to assure that good science is 
undertaken. Also, as part of the grant renewal process, progress 
reports are reviewed by the two Administrative Groups and by the grant 
manager at the national level. Workshops in which research results and 
their application for agricultural production are developed are 
conducted every two years. Research papers are published in the 
appropriate regional, national, and international forums available.
    The development in 1995 of the Strategic Plan for Tropical and 
Subtropical Research provided a mechanism to define priorities, examine 
program direction, and recommend operational changes. One of the 
principal points considered was to bring the Caribbean and Pacific 
Basin components closer and better coordinated. Each sub project is 
peer reviewed annually at the initiating institution, by the Tropical 
and Subtropical Research panel and by CSREES National Program Leaders.
                      turkey coronavirus, indiana
    Question. Please provide a description of the research that has 
been funded under the Turkey Coronavirus, Indiana grant.
    Answer. The objectives of the research are to: (1) develop enzyme-
linked immunosorbent assays for detecting antibody to turkey 
coronavirus and turkey coronavirus antigen in turkey flocks; (2) 
elucidate immune responses in turkey poults infected with turkey 
coronavirus; and (3) determine which immunity, humoral, and/or 
cellular, will provide the most effective protection for turkey poults 
against turkey coronavirus infection.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This enteric disease of young turkey poults, called turkey 
poult enteritis or poult enteritis mortality syndrome, has contributed 
to significant economic losses by producers in Indiana, North Carolina, 
South Carolina, Virginia and other states. The cost to the industry is 
in the millions. Currently, no effective medication or vaccination is 
available for control and prevention of the disease. Although turkey 
poults that recover from the coronaviral enteritis may develop long-
term immunity, little is known about the specific immunity. The 
proposed research will lead to further study on the understanding of 
immunological interaction between turkey poults and individual turkey 
coronaviral proteins and subsequent development of recombinant or a 
deoxyribonucleic acid vaccine for effective prevention of the disease. 
The enzyme-linked immunosorbent assays that have been developed in this 
research will provide efficient tools for diagnosis and control of 
turkey poult enteritis.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research was to develop enzyme-linked 
immunosorbent assays for monitoring antibody to turkey coronavirus and 
turkey coronavirus antigen in turkey flocks during acute outbreaks or 
recovery and in routine health monitoring and to develop effective 
vaccines to protect turkey poults against turkey coronavirus infection.
    The investigators' laboratories have successfully propagated turkey 
coronavirus from intestines of infected turkey poults in 22-day-old 
turkey embryos, purified turkey coronavirus from the embryo intestines, 
and have demonstrated an acute enteritis with decreased body weight 
gain in 7 or 10-day-old turkey poults by oral inoculation of the 
purified turkey coronavirus. This establishes an infection model to 
study immunology, pathogenicity, and pathogenesis of turkey 
coronavirus.
    The research team has been successful in adapting a commercially-
available ELISA test used for infectious bronchitis virus for use in 
detecting antibodies against the coronavirus causing the poult 
enteritis syndrome. They have also developed a second test system which 
allows for measurement of cellular immunity of turkeys exposed to this 
virus. The combination of these two tests will permit a much more 
informative study of the immune response of turkey poults exposed to 
the turkey coronavirus.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999. 
The appropriation for fiscal years 1999 and 2000 was $200,000 per year, 
and for fiscal year 2001 is $199,560. A total of $599,560 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds expended on this project in fiscal year 
1999 were $72,311.06, including $25,200 from state funds and $47,111.06 
from a private commodity group, and $245,483.67, in fiscal year 2000 
including both private and state funds.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at Purdue University in the 
Department of Veterinary Pathobiology and the Animal Disease Diagnostic 
Laboratory.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is spring 2002. At present the project is on target to meet its stated 
objectives in the designated time period.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project was initially funded in July 1999, and no 
evaluation has been performed. A review is tentatively scheduled to be 
conducted during summer 2001.
  value-added product development from agricultural resources, montana
    Question. Please provide a description of the research that has 
been funded under the Value-Added Product Development From Agricultural 
Resources, Montana grant.
    Answer. Carbohydrates, the most abundant and commercially-available 
renewable chemicals from agriculture resources, provide the starting 
point for the research to be carried out at the University of Montana. 
The goal of this research is to develop wide-range value-added 
biodegradable polymer materials with different properties, from 
abundant grain and potato starches, wood carbohydrates, and waste milk 
sugar from the cheese industry. Target applications for these polymers 
include biodegradable packaging materials, industrial use materials, 
consumer products, and medically-useful products. The validity of the 
basic technology to produce these polymers is established, but the 
long-range goals of the project require improvement of the technology 
to make it practical and commercially attractive. Additionally, at this 
stage of the research, it is very important to explore materials 
applications that coincide with process technology development.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This project is centered around a growing national need to 
utilize renewable crop materials as resources for chemicals that are 
environmentally favorable and useful for consumer and industrial 
products. Biodegradable polymer materials are gaining favor globally 
because they address the need to start limiting the amounts of non-
biodegradable solid materials that end up in landfills. These novel 
polymers have an added advantage in that the materials produced are 
both biodegradable and derived in significant part from renewable 
agriculture sources, thus adding value.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This is a new grant in fiscal year 2001. Previous studies 
have established the validity of chemically-modifying carbohydrates 
into resins that can be extruded or made into films for use in 
packaging and other consumer products.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $331,270.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Since this is a new grant, and a proposal has not yet been 
received, the source and amount of non-Federal funds for this research 
is unknown.
    Question. Where is this work being carried out?
    Answer. This work will be carried out at the University of Montana.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated date of additional or related objectives?
    Answer. This project is expected to be completed in three years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the evaluation conducted.
    Answer. Since this is a new grant, no evaluation has been 
conducted.
                     value-added products, illinois
    Question. Please provide a description of the research that has 
been funded under the Value-Added Products, Illinois grant.
    Answer. The objective of this project is to develop a breeding and 
production research program aimed at introducing alternative crops, 
such as milkweed, to the midwest region. The first priority will be to 
develop protocols to generate sufficient supplies of milkweed floss and 
seed for the development of value-added products. Long-term objectives 
will be focused on improving yields, developing auto-fertile varieties, 
and developing machinery for milkweed harvest.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
research?
    Answer. Alternative crops will allow growers to disrupt life cycles 
of corn rootworms and to minimize their risks associated with falling 
commodity prices. With the reduced profitability of corn and soybeans, 
growers are looking for ways to supplement their businesses and an 
attractive option is the introduction of new crops to their farming 
practices. Value-added products and technologies expand agricultural 
markets and create new job opportunities.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This grant is new in fiscal year 2001. Research to date has 
identified alternative crops that can produce materials with unique 
properties and high value-added industrial uses. The New Crops program 
at the National Center for Agricultural Utilization Research in Peoria, 
Illinois, has identified several crops with these characteristics that 
are suited for midwest production.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $94,791.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Since this is a new grant, and a proposal has not yet been 
received, the source and amount of non-Federal funds for this research 
is unknown.
    Question. Where is this work being carried out?
    Answer. This work will be carried out at the Western Illinois 
University.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated date of additional or related objectives?
    Answer. This project is expected to be completed in three years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the evaluation conducted.
    Answer. Since this is a new grant, no evaluation has been 
conducted.
                        vidalia onions, georgia
    Question. Please provide a description of the research that has 
been funded under the Vidalia Onion, Georgia grant.
    Answer. The original research emphasis had been focused on pungency 
which became secondary in importance with the appearance of a new 
disease known to producers as Center rot. This newly-recognized disease 
caused a rotting of affected onions around the center leaf deep into 
the bulb. The disease crisis necessitated a revision of the goals of 
this grant and focused on the identification of this new pathogen, the 
incidence of the disease in the production system, the mode of disease 
transmission, the affect of the disease on onions in storage, and 
management options available to producers to prevent the disease.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for the 
research?
    Answer. Vidalia onions are a specialty crop of great importance to 
the economy of certain areas of Georgia. This grant funds research to 
improve product quality and pest management in Vidalia Onion production 
thus maintaining the national and international economic 
competitiveness of this vital production system.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research has demonstrated that 
chemical tests can be used to accurately predict the pungency of onions 
prior to harvest, and perhaps flavor categorization, to consumers. The 
results have also indicated that several diseases affecting onions are 
the most serious problem in regard to quality and production. With the 
appearance of Center Rot in the Vidalia production system, this grant 
has focused entirely on understanding and managing this disease.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The project was funded for $84,000 for 1998; $100,000 per 
year in fiscal years 1999 and 2000; and $249,450 in fiscal year 2001. A 
total of $533,450 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year.
    Answer. The non-Federal funding for this project was $193,137 from 
the state of Georgia, and $251,427 in private funding.
    Question. Where is the work being carried out?
    Answer. The work is being conducted at the Coastal Plain Experiment 
Station in Tifton, Georgia and in test plots in several commercial 
field sites in the State of Georgia.
    Question. What was the anticipated completion date for the original 
objections of the project? Have those objectives been met? What is the 
anticipated completion date of additional objectives?
    Answer. The anticipated duration for the original project was five 
years. The initial objective of establishing procedures for pungency 
testing has proceeded ahead of schedule. The plant disease problems 
that have emerged will likely require several additional years, 
although the incidence and severity of these diseases are highly 
variable from year to year.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A site visit was made by the CSREES Liaison for the Vidalia 
Onion Special Grant on the University of Georgia campus at Athens, 
Georgia, on January 14, 2000. The purpose was to discuss the progress 
and direction of this special grant with the principal investigators 
and their University Administrators. The project history was reviewed. 
The emphasis and goals of this special grant changed in fiscal year 
1999 because of an emergency production problem caused by a new disease 
that threatened the product quality and consumer confidence of the 
entire Vidalia industry. The original research emphasis had been 
focused on pungency which became secondary in importance with the 
appearance of this new disease known to producers as Center rot. This 
newly recognized disease caused a rotting of affected onions around the 
center leaf into the bulb. The revised goals of this grant focused 
entirely on the identification of the pathogen, incidence of the 
disease in the production system, mode of transmission, the affect of 
the disease on onions in storage, and management options to prevent the 
disease.
    The project accomplishments were reviewed, and the research 
objectives and performance goals for fiscal year 2000 were presented, 
justified, and discussed. Future research needs and related production 
issues were also discussed. The principal investigator demonstrated 
good progress, strong leadership, and judicious use of project funds. 
The site visit also allowed the Federal partner to provide input to the 
direction of the project and for the state scientist to demonstrate the 
accomplishments, competency, and merit of their research activities.
            viticulture consortium, new york and california
    Question. Please provide a description of the research that has 
been funded under the Viticulture Consortium, New York and California 
grant.
    Answer. The University of California and Cornell University in New 
York conducted research on varietal responses of grapes, modeling of 
water requirements, management of diseases including Phyloxera, and 
other cultural aspects of grape production. Funds were awarded by the 
lead institutions on a competitive basis to fund projects in various 
grape-producing states within their region. Grants were made based on 
peer reviewed proposals and selected competitively by regional groups 
based on priorities developed by researchers, extension, and industry 
personnel.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The research being carried out is designed to help the 
viticulture and wine industries remain competitive in the U.S. and in 
the global market. Further, disease and insect problems are a concern 
of the industry, especially in new strains of phyloxera while overall 
improvement in all cultural management approaches to grape production 
need to continue.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to maintain or 
enhance the competitiveness of the U.S. Viticulture and wine industry 
in the global market. Each year the project directors meet with 
stakeholder advisory boards to determine research priorities. These 
priorities are then used to guide the formulation of a request for 
proposals.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1996 and 1997, $500,000 per year; fiscal year 
1998, $800,000; fiscal years 1999 and 2000, $1,000,000 per year; and 
fiscal year 2001, $1,496,700. A total of $5,296,700 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Each year the viticulture industry provides matching 
contributions in excess of the appropriated Federal funds.
    Question. Where is the work being carried out?
    Answer. These funds are distributed through a competitive grants 
process administered through Cornell University and the University of 
California. Each year a request for proposals is sent to all states in 
which there is a viable grape industry. This results in research being 
conducted in as many as 12 different states in any one year.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The research priorities set by the guidance group have not 
been met. The research is varied and complex and will take many years 
to complete. Current priorities include: optimize grape production 
efficiency while reducing costs; increase yield and grape quality; 
identify new grape varieties for different growing regions; develop 
effective pest management systems; and determine impact of viticultural 
practices and components of grapes and grape producs.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project underwent merit review in January 2000. The 
research proposals are peer-reviewed in both regions before selection. 
The review group is composed on industry, research, and extension 
personnel that are experts in viticulture.
                       water conservation, kansas
    Question. Please provide a description of the research that has 
been funded under the Water Conservation, Kansas grant.
    Answer. This research program is designed to develop and 
disseminate technical and economic information on the efficient use of 
water for irrigated crop production in western Kansas. The program has 
the following five objectives:
  --Develop regression models to estimate the longevity of subsurface 
        drip irrigation systems using calculations of annual system 
        performance deterioration based on 13 years of operating 
        pressures and flow rates;
  --Evaluate use of livestock effluent with subsurface drip irrigation 
        and its effect on water redistribution and corn water use 
        patterns;
  --Develop best management practices for nitrogen fertigation using 
        subsurface drip irrigation systems for corn;
  --Estimate the long-run economic impacts of irrigation efficiency 
        improvements for irrigated corn, wheat, and grain sorghum in 
        the farm sector and affiliated sectors of the High Plains 
        economy; and
  --Disseminate irrigation research information and best management 
        practice recommendations to Kansas irrigators through a series 
        of extension bulletins and updates based on research-based 
        information.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The need to conserve water has focused attention on more 
efficient alternatives such as subsurface drip irrigation. This 
research will be of particular significance within the state and 
region. However, it also has national and international applications as 
advanced irrigation systems, such as subsurface drip irrigation, which 
will be needed to improve irrigation water use efficiency in the next 
century. Economic research initiated in 1998 is examining the impact of 
adoption of improved water conservation techniques on the entire 
regional economy rather than just on the short term economics faced by 
the individual irrigator. This research will help determine whether 
society should have a role in providing incentives to increase adoption 
rates of water conservation technology.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The research goal is to determine the feasibility of 
subsurface drip irrigation and other alternative irrigation systems in 
western Kansas to sustain irrigated corn production to support the beef 
feedlot industry. The project also supports an educational effort 
through collection and dissemination of information on efficient 
irrigation methods. Subsurface drip irrigation acreage is increasing in 
Kansas, and farmers are obtaining results on their own farms.
    The computer program Irrigation Economics Evaluation Svstem--IEES--
was distributed by the Kansas State University Cooperative Extension 
Service and is being used by Kansas irrigators. A report has been 
published that documents the data requirements and algorithms used in 
the model. A user's guide is also available.
    A report entitled, ``Economic Analysis of Alternative Irrigation 
Systems for Continuous Corn and Grain Sorghum in Western Kansas'' has 
been completed. The results of this study indicate that a low drift 
nozzle, center pivot system is the most profitable center pivot system 
to use for irrigation of corn and grain sorghum. Overall, a surge flood 
system was the most profitable because of its relatively low ownership 
costs. Although the subsurface drip system shows some potential, it is 
only economically feasible when above-average crop yield and price 
conditions exist.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1993 
with an appropriation of $94,000; $88,000 in fiscal year 1994; $79,000 
each fiscal year from 1995 to 2000; and $78,826 in fiscal year 2001. 
The total funds appropriated are $734,826.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The state of Kansas non-Federal funds provided to this 
project were as follows: fiscal year 1997, $119,659; fiscal year 1998, 
$135,993; and fiscal year 1999, $129,850. No funds were reported in 
fiscal year 2000.
    Question. Where is this work being carried out?
    Answer. The research is being conducted at Kansas State University. 
The field portion of the research is being conducted on Research 
Centers at Colby and Garden City, Kansas. Additional work is being 
carried out on campus at the Departments of Agronomy and Agricultural 
Economics in Manhattan, Kansas.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original anticipated completion date for the project 
was 1998. One of the most important objectives of the study is to 
evaluate longevity of the subsurface drip irrigation systems. These 
sites are unique to the region, and very little information is 
available on system longevity. Pressing water quality problems of a 
regional and national scope has necessitated a change in the objectives 
to developing nutrient management practices under subsurface drip 
irrigation and use of livestock wastewater with subsurface drip 
irrigation. Additionally, changes in the Federal farm program which 
allow greater planting flexibility has an effect on how irrigators make 
water/land allocation decisions. Field and economic studies related to 
allocation strategies, nutrient management, and wastewater usage should 
be completed in 3 years. The projected completion date is 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was peer reviewed in January 2000. The 
reviewers found the project concept to be valid and the timetable for 
accomplishments to be on target.
                       weed control, north dakota
    Question. Please provide a description of the research that has 
been funded under the Weed Control, North Dakota grant.
    Answer. A major focus has been developing and evaluating systems to 
reduce herbicide use in crop production. The experiments of longest 
duration are field evaluations of sustainable, reduced tillage and 
conventional crop rotation systems to ascertain changes in weed species 
and densities and in economic returns over time when weed management is 
reduced. Another emphasis has been weed biology, particularly 
understanding the unique physiological and genetic traits of herbicide-
resistant kochia and wild oat in an effort to recommend the most cost-
effective management alternatives. Another goal has been to improve the 
efficiency of postemergent herbicide use by utilizing additives that 
maximize weed control with reduced amounts of herbicide and by reducing 
spray volume and adapting new nozzle designs that improve application 
techniques.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The research address new methods to control weeds using 
systems control. The principles concerning effective use of additives 
with postemergent herbicides are being applied to improving the 
efficiency of postemergent herbicide use across the nation. Similarly, 
adaptation of herbicide application technology that allows reduced 
spray volumes while sustaining herbicide effectiveness is of nationwide 
benefit. The increased understanding of the inheritance and management 
of herbicide resistance in kochia and wild oat will be beneficial to 
management of these weeds in the central and northern regions of the 
U.S. where these weeds are abundant and cause major losses annually. 
The long-term field experiments should provide useful information on 
the positive and negative impacts of reduced weed management systems 
wherever spring-sown small grains are the primary crop.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The initial major activity was a long-term series of 
experiments to evaluate changes in weed species and populations and the 
economic returns in conventional, sustainable, and reduced tillage 
systems with rotations that are up to four years long. The research was 
initiated in 1993. At least two complete cycles of crop rotations of 
eight years will be necessary to accurately assess what farmers can 
expect from adopting new management systems. Resistance of wild oat to 
many of the major herbicides used for its control in the U.S. has been 
documented. This project has been the first to identify specific 
mutations that cause wild oat resistance. Also, resistance to a new 
herbicide for wild oat control has been confirmed, which had not been 
reported previously. Molecular biology and physiological studies were 
initiated to better understand the cause of this resistance in wild 
oat, so management strategies can be recommended.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through year 2001?
    Answer. The support by this grant began in fiscal year 1992 and 
appropriation for fiscal years 1992 and 1993 was $500,000 per year; 
$470,000 in fiscal year 1994; $423,000 per year in fiscal years 1995 
through 2000; and $435,041 in fiscal year 2001. A total $4,443,041 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $27,030 state appropriations in 1992; $48,472 state 
appropriations in 1993; $41,969 state appropriations in 1994; $71,847 
state appropriations in 1995; $62,134 state appropriations in 1996; 
$78,579 state appropriations in 1997; and an estimated $70,000 state 
appropriations in each year of 1998 through 2000. A total of $540,031 
in non-Federal funds has been provided from fiscal year 1991 through 
2000.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the North Dakota State 
University.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original completion date for the long-term rotation 
experiment, utilizing the conventional, reduced tillage and sustainable 
management systems, was anticipated to be a minimum of five years, but 
the experience with atypical environmental conditions suggest that 8 to 
10 years will be necessary to attain a relatively steady state or 
logical end of the research. The current intent is to continue the 
research until at least 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A scientific peer review of the written proposal was 
conducted in fiscal years 1998, 1999, and 2000 by CSREES prior to 
awarding the grant. CSREES' senior scientific staff review the progress 
of the grant. Those reviews indicated progress in achieving the 
objectives.
                       wetland plants, louisiana
    Question. Please provide a description of the research that has 
been funded under the Wetland Plants, Louisiana grant.
    Answer. The agency approved a proposal entitled, ``Biological 
Approaches to Coastal Wetland Restoration'' from the Louisiana 
Agricultural Experiment Station. The research is a collaborative effort 
among scientists of the Louisiana Agricultural Experiment Station Rice 
Research Station, the Department of Agronomy, and the USDA-Natural 
Resources Conservation Service's Plant Materials Program. The knowledge 
and technology resulting from this project should lead to an increased 
ability to economically propagate and maintain the genetic quality of 
Spartina alterniflora-smooth cordgrass--which is an important species 
used in coastal wetlands restoration. Plant biotechnology and genetic 
improved methods are proven and well established in crop production but 
have also been applied on a limited basis for bioremediation and 
coastal wetlands reclamation. This project will develop the knowledge 
base and strategies for genetic improvement needed for the economic and 
rapid establishment of Spartina alterniflora over large areas of 
established and reclaimed coastal wetlands areas. Collections from 
naturally existing populations will be characterized and superior 
plants will be intermated in a recurrent selection breeding program to 
develop improved populations that can be established from seed. Plant 
cloning artificial seed production and molecular biology will also be 
used as tools to facilitate genetic characterization, genetic 
improvement and establishment of a commercial seed industry. Production 
research will focus on aspects of seed processing and production, 
including evaluation of pest control and management strategies to 
maximize seed production.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. There is local, regional, and national need for this 
research. Coastal wetlands erosion is a serious environmental problem 
in many coastal locations around the United States. The program is 
particularly severe in Louisiana where an acre of coastal wetlands is 
lost to erosion every 20 minutes. Current technologies, even at great 
expense, can only slightly reduce these losses. The research this grant 
is funding has the potential to provide a significant improvement with 
respect to both the magnitude and expense of further coastal erosion 
control efforts.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research was to develop an 
economically-feasible approach to controlling coastal wetlands erosion 
that would use vegetation to retain areas threatened by erosion and to 
rebuild lost land. To accomplish this, a system that incorporates 
agricultural principles involved in crop production is required. 
Specifically, a seed-based system using appropriate planting material 
is required. While last year was the first year of funding from the 
agency for this project, progress has been rapid in developing this 
seed-based system. Field trials in the marsh were initiated in 1999.
    Question. How long has this work been underway and how much as been 
appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999, 
and the appropriation for fiscal years 1999 through 2000 was $600,000 
per year and for fiscal year 2001 is $598,680. A total of $1,798,680 
has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $18,391 state appropriations, $5,319 industry grants, 
and $8,691 miscellaneous in 1999. In addition, the University had 
$110,081 in unrecovered indirect costs. State appropriations for 2000 
was $44,441.
    Question. Where is the work being carried out?
    Answer. Research is being conducted at the Louisiana Agricultural 
Experiment Station.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Since this is a new program, the original objectives have 
not yet been met.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project, and there has been no prior agency 
evaluation. An agency evaluation is planned for fiscal year 2001.
                         wheat genetics, kansas
    Question. Please provide a description of the research that has 
been funded under the Wheat Genetics, Kansas grant.
    Answer. This project provides partial support for the Wheat 
Genetics Resource Center at the University of Kansas. The Center 
focuses on collection, evaluation, maintenance, and distribution of 
exotic wheat-related germplasm needed to develop new wheat cultivar 
resistant to disease, insects, and environmental stress.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes most cultivated varieties 
of wheat are derived from common sources. They lack the rich genetic 
diversity needed to develop resistance to diseases, insects, and 
environmental stress. The replacement of genetically-rich primitive 
cultivar and land races by modern, more uniform cultivars all over the 
world is causing erosion of wheat germplasm resources. New pests or 
those that have overcome varietal resistance pose a constant threat to 
U.S. wheat production. Genetic resistance often resides in wild 
relatives of wheat. The researchers believe this program, which was 
established in Kansas, is providing service to wheat breeders 
nationally and internationally.
    Question. What was the original goal of this research and what has 
been accomplished?
    Answer. The original goal of this research was to enhance the 
genetic diversity available to wheat breeders nationally and 
internationally by collecting, evaluating, maintaining, and 
distributing germplasm derived from wild relatives of wheat. To date, 
39 germplasm releases have been made containing new genes for 
resistance to such pests as Hessian fly, greenbug, leaf rust, soil-
borne mosaic virus, and Russian wheat aphid. Germplasm stocks with 
resistance to leaf rust and powdery mildew are under development. 
Evaluation of germplasm for important resistance genes was carried out 
by Center scientists and cooperating institutions. Center scientists 
have introduced antifungal protein genes into the wheat plant which 
enhances its survival against pathogen attacks. One transgenic wheat 
line gave enhanced resistance to wheat scab, a devastating disease of 
wheat. In 1998, the center filled 20 requests from U.S. wheat breeders 
for seed from the germplasm collection and 10 requests for seed of 
germplasm releases, as well as 34 requests from international breeders.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Work supported by this grant began in fiscal year 1989. 
Appropriations were for fiscal year 1989, $100,000; fiscal year 1990, 
$99,000; fiscal year 1991, $149,000; fiscal years 1992-1993, $159,000 
per year; fiscal year 1994, $196,000; fiscal years 1995-1997, $176,000 
each year; $261,000 per year for fiscal years 1998 through 2000; and 
$260,426 in fiscal year 2001. A total of $2,433,426 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds provided for this grant were as 
follows: $609,309 in 1991; $531,167 in 1992; $730,082 in 1993; $468,960 
in 1994; $563,671 in 1995; $457,840 in 1996; $495,820 in 1997; $155,279 
in 1998; $452,600 in 1999; and $527,000 in 2000. Sources include state 
appropriations, product sales, and other organizations, such as state 
commodity associations.
    Question. Where is this work being carried out?
    Answer. This research is being conducted at Kansas State University 
at the Wheat Genetics Resource Center. The principle investigator also 
reports collaborative projects with other departments at Kansas State 
University, as well as other institutions in the U.S.
    Question. When was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The collection, evaluation, and enhancement of wheat 
germplasm is continual process. Therefore, this project does not have a 
defined completion date. Some objectives related to germplasm 
evaluation have been completed in fiscal year 1999, and other 
objectives which are related to other genetic sources are still in the 
developmental stage.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project is peer reviewed annually by the institution, 
Kansas Agricultural Experiment Station, and was found to address 
important issues in the winter wheat industry in Kansas and other 
states. The research has been productive based on germplasm releases 
and peer-reviewed journal articles and other publications. 
Additionally, each annual proposal is reviewed by CSREES National 
Program Staff.
                     wheat sawfly research, montana
    Question. Please provide a description of the research that has 
been funded under the Wheat Sawfly Research, Montana grant.
    Answer. This is a new grant, and CSREES has requested Montana State 
University to submit a grant proposal that has not yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The wheat stem sawfly is a long-standing pest of dryland 
cereal production in the northern Great Plains. Recently, this sawfly 
has adapted to become a pest of winter wheat. Historically, it was a 
pest of spring wheat only, but changes in its seasonal biology have now 
allowed it to expand its host range significantly. At a regional level, 
Montana, western and central North Dakota, north-central Wyoming, 
southeastern Idaho and the Nebraska panhandle are all impacted by the 
wheat stem sawfly. Its range also extends northward in to the Canadian 
prairie provinces, with losses estimated at over $100 million annually 
in this area. Losses due to this insect are focused in Montana with 
annual losses ranging from $20-$30 million. Montana is where the impact 
of the sawfly is centered, and infestation levels can be up to 100 
percent in areas with the heaviest damage. These localized heavy 
infestations can be particularly catastrophic to individual producers 
who may not be able to withstand heavy losses for several years in a 
row.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This is a new project with initial goals to expand upon 
exploratory work on five novel avenues aimed at two critical stages of 
the sawfly, for example, mating and overwintering. The first is to 
develop an understanding of the role of multiple components of a 
complicated grouping pheromone system involved in insect mating. A 
related thrust is to focus on host plant attractants, repellents, and 
induced signals in the plants defenses as new ways to manipulate the 
insect in its environment. Second, investigations toward expanding 
knowledge based on preliminary indications that two partially effective 
natural enemies are impacting the sawfly in wheat, and that induced 
plant signals may be critical in the effectiveness of these enemies. 
The investigators will also look at the pheromones, kairomones, and 
allomones used by these beneficial species as a potential monitoring 
tool to better understand the broad distribution of the species, and to 
target new release sites. Third, they will examine the chemical cues 
released by pathogen-infected wheat plants, to better understand the 
nature of facultative use of overwintering sawflies by these pathogens. 
This process kills sawfly larvae, although in an unknown fashion. 
Fourth, they will fully elucidate the chemistry of the resistance 
mechanisms expressed by several grass and weed species attacked by the 
sawfly. The resistance shown kills many sawfly larvae, but in a way 
that is not completely understood. Each of these target areas will 
allow us to identify and develop practical tools for sawfly management. 
Finally, they will use Russian wheat aphid-resistant isolines to 
examine sawfly and multiple pest resistance traits in wheat. This 
information will provide cereal breeders with a new arsenal to use in 
developing insect-resistant varieties.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 
2001, and the appropriation for fiscal year 2001 is $331,270.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. This is a new project which will begin during 2001; other 
potential funding sources have not yet been developed.
    Question. Where is the work being carried out?
    Answer. The research will be conducted throughout Montana, with the 
main laboratory focus being centered at the main Montana State 
University campus in Bozeman. Annually, there will be a need to field 
test new behaviorally active compounds, and this will be handled at the 
level of individual farm cooperators, with Montana State University 
Research Centers in wheat producing parts of the state aiding in the 
coordination of this effort. For the work on the natural enemies, a 
considerable effort will be concentrated on understanding the 
distribution in the eastern part of Montana, with the Research Centers 
at Sidney and Huntley assisting.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The work proposed is to conduct basic research to aid in 
applied goals. The timelines are somewhat lengthy because of this. 
However, all goals should be reached by 2005, except for the pathogen-
based approaches, which will require approximately seven years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project and will be evaluated through 
accomplishment reports at the outset. An on-site review of another 
Montana special grant will enable a review of initial set-up and 
progress on this project at the beginning of the work.
                       wood utilization research
    Question. Please provide a description of the research that has 
been done under the Wood Utilization Research grant.
    Answer. The research includes: developing processes to upgrade wood 
products made from small-diameter or low quality trees to higher value 
structural applications; catalyzing the formation of new business 
enterprises; reducing environmental impact while improving systems for 
timber harvesting and forest products manufacturing; increasing the 
life of wood in use through preservation and good design; and assisting 
industry to be more innovative.
    Question. According to the research proposal, or the principal 
researchers, what is the national, regional, or local need for this 
research?
    Answer. The forest products industry is very fragmented with many 
small firms which benefit from publicly-sponsored research. Research 
provides the woodworking machinery and tooling industry with the 
technology needed to be more competitive in the global economy. Most of 
the companies helped by this research are too small to afford in-house 
research groups. Shifts in resource availability and increased costs of 
the timber that is still available demand more complete usage in order 
for wood to remain competitive.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal is to generate new knowledge that will benefit the 
wood industry and the environment. New scientists are trained. 
Consumers benefit from better and more environmentally-sound products. 
Among the major accomplishments of the eight centers are (1) design of 
glue-laminated beams, reinforced with plastics, to save 25-40 percent 
of the wood fiber that would otherwise be needed; (2) technology to 
apply wood preservatives using super fluids to reduce environmental 
problems associated with present commercial treatments; (3) better 
harvesting systems that are efficient and environ-mentally acceptable; 
(4) increase of wood machining speeds and reduction of saw blade width 
to increase productivity and save raw material; (5) a patented system 
to apply pressure and vibration to prevent enzymatic sapstain which 
degrades hardwood lumber by $70 to $200 million per year; (6) reduction 
of quantity of wood bleaching chemicals needed by wood pulp producers; 
(7) design and strength of wood furniture frames to minimize wood 
requirements; (8) adoption of European frame saw technology to 
composite lumber to provide a new raw material source for industry; (9) 
improved technology to non-destructively scan standing trees for 
mechanical properties of the wood; (10) reduced warp in structural 
lumber produced from small-diameter trees; (11) characterization of the 
wood products industry; (12) heartwood formation; (13) recovery of 
preservatives from treated wood; (14) installation of a statistical 
process control system in one sawmill with impressive cost savings; and 
(15) development of cost effective and environmentally-friendly 
processes for removing high value chemicals from bark.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows:

        Fiscal year                                               Amount
1985....................................................      $3,000,000
1986....................................................       2,852,000
1987....................................................       2,852,000
1988....................................................       2,852,000
1989....................................................       2,852,000
1990....................................................       2,816,000
1991....................................................       2,852,000
1992....................................................       2,852,000
1993....................................................       4,153,000
1994....................................................       4,176,000
1995....................................................       3,758,000
1996....................................................       3,758,000
1997....................................................       3,536,000
1998....................................................       3,536,000
1999....................................................   \1\ 5,136,000
2000....................................................   \2\ 5,136,000
2001....................................................       5,773,271
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................      61,890,271

\1\ Provided a $500,000 increase for the six existing centers and 
$1,000,000 for the two new centers
\2\ Provided $577,000 to establish a new center in Alaska.

    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The following are non-Federal funds provided by states:
  --Mississippi State University non-Federal funds were: State 
        appropriations, $2,498,800, $2,178,725, $2,353,225, 2,331,691, 
        $2,650,230, $2,778,535, $2,582,617, 2,543,017, $2,717,448, and 
        $2,993,888 for 1991, 1992, 1993, 1994, 1995, 1996, 1997, 1998, 
        1999, and 2000 respectively. In addition, industrial funds 
        averaged $958,871 for the 5 years from 1995 to 2000 in support 
        of Mississippi's research.
  --Oregon State University state appropriations were: $1,337,962, 
        $1,394,304, $1,256,750, $1,252,750, $1,417,755, $1,117,000, 
        $1,100,000, $1,352,000, $1,337,000, and $1,492,000 for 1991, 
        1992, 1993, 1994, 1995, 1996, 1997, 1998, 1999, and 2000, 
        respectively. Estimated non-public support was $802,000 this 
        year.
  --Michigan State University non-Federal contributions were $605,000, 
        $590,000, $700,000, and $600,000 for 1997, 1998, 1999, and 2000 
        respectively.
  --Three new locations were added in 1994: University of Minnesota-
        Duluth non-Federal match was $590,000, $550,000, $560,000, 
        $371,930, $307,532, $510,939, and $1,506,000 for 1994, 1995, 
        1996, 1997, 1998, 1999, and 2000, respectively.
  --North Carolina State University was $126,000, $165,000, $135,000, 
        $163,216, $323,134, $518,258, and $556,486 for 1994, 1995, 
        1996, 1997, 1998, 1999, and 2000 respectively.
  --University of Maine was $600,000, $445,723, $459,100, $477,464, 
        $526,210, $148,032, and $619,898 for 1994, 1995, 1996, 1997, 
        1998, 1999, and 2000, respectively.
  --Two new centers were added in 1999:
    --The University of Tennessee non-Federal funds for 1999 and 2000 
            were $150,987 and $241,696 respectively.
    --The consortium of the Universities of Idaho and Montana and 
            Washington State University non-Federal funds for 1999 and 
            2000 were $305,000 and $406,000, respectively.
  --An additional new center was added in 2000: The University of 
            Alaska non-Federal funds for 2000 were $257,872.
    Question. Where is the work being carried out?
    Answer. There are nine locations. The initial three--Oregon State 
University, Mississippi State University, and Michigan State 
University--were joined by the University of Minnesota-Duluth, North 
Carolina State University, and the University of Maine in fiscal year 
1994. In 1999, they were joined by a center at the University of 
Tennessee and a second center at the University of Idaho, which 
includes a consortium of the University of Idaho, University of 
Montana, and Washington State University. In fiscal year 2000, funds 
for a wood utilization center in Alaska were appropriated. This Center 
is just getting organized now.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objective was to build and maintain three 
strong regional centers of wood utilization research. These centers 
have been established, and six additional centers have been 
established. Projects begun in 1999 will be completed by 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. On-site reviews of centers are conducted on a rotating 
basis. Each center's plans are reviewed yearly or more frequently. 
Progress reports are reviewed yearly. Center directors met together for 
joint planning in June 1996, February 1999, and December 2000. Centers 
all have advisory committees or research committees which meet 
periodically. The agency conducts informal on-site reviews 
periodically. The Minnesota and Oregon sites were visited in 1996; the 
North Carolina site was visited in 1997. Oregon State was visited in 
1998. A Departmental panel reviewed the original three centers in 1992 
and 1993. At that time, the original objectives were broadened to 
address environmental concerns. The centers are helping industry meet 
environmental objectives by conducting research leading to sustained 
timber production; extending the timber supply through improved 
processing; developing new structural applications for wood; and 
developing wood extractives to substitute for pesticides, 
preservatives, and adhesives.
               wool research, texas, wyoming, and montana
    Question. Please provide a description of the research that has 
been funded under the Wool Research, Texas, Wyoming, and Montana grant.
    Answer. The overall goals for this research are to develop 
objective measures of wool, mohair, cashmere, and other animal fibers 
to improve the quality of wool products while enhancing the 
profitability of the U.S. sheep and Angora goat industries. Specific 
objectives include: develop and evaluate measurement techniques for 
rapid objective evaluation of wool, mohair, cashmere, and other animal 
fibers; increase the use of objective measurements to increase fiber 
production, quality, and income to producers; and increase consumer 
acceptance of fabrics made from these fibers. The fiscal year 2000 
grants terminate between May and August 2001. The 2001 grant proposals 
have been requested by the agency. All grants are reviewed for 
relevance to industry needs and undergo scientific peer review.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Collaboration exists among researchers in Texas, Wyoming, 
and Montana associated with this grant and other Federal, university, 
and industry scientists to assure responsiveness to the needs of those 
involved in wool and mohair production, marketing, and processing. The 
sheep and goat industries and the principal researchers believe that 
this research is of national, regional, and local need. The research on 
wool, conducted by means of this grant, represents the only research 
efforts in the U.S. focused on improving the efficiency of measuring 
and assuring wool, mohair, and cashmere quality for garments made from 
these fibers.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The overall goal for this research is to develop and 
evaluate objective measures of wool, mohair, cashmere, and other animal 
fibers with a focus on improving the efficiency of manufacturing and 
predicting the quality of products made from these fibers while 
enhancing the profitability of the sheep and Angora goat industries. 
Research accomplishments included the development of rapid and 
inexpensive measurements of average fiber diameter and distribution of 
animal fibers and other fiber properties such as fiber length and 
color. Each of these properties are very important for grading and 
processing to determine ultimate softness, durability, dye 
characteristics, comfort, and garment price. Within the past year, 
evaluation of laser and automatic image analysis techniques have been 
completed by the three cooperators in this project in collaboration 
with Yocom-McColl Testing Labs, the main animal fiber testing lab in 
the U.S. Two of the principal investigators authored American Society 
for Testing and Materials standard methods of test for these 
instruments that are now published by the Society and, therefore, 
accepted and in use by the U.S. textile industry. Due in large part to 
efforts expended under this grant, all animal fibers tested for fiber 
diameter distribution by this commercial laboratory are now tested 
using one or the other of these new instruments. This has resulted in 
labor savings that have produced a reduction in the price for some 
associated fiber tests. Producers, traders, and processors now receive 
more accurate fiber data at reduced cost and with shorter turnaround 
times. Because this form of testing is also recognized by the 
international textile community, U.S. animal fibers are now more 
readily accepted and accessible as international commodities. 
Additional instruments, primarily for measuring length and strength, 
have also been evaluated with the ultimate objective of better 
describing domestic wool that will eventually permit electronic trading 
of animal fibers. These measurements impact the efficiency of the sheep 
and Angora goat industries, the effectiveness of monitoring the quality 
and consistency of imported products, and the satisfaction of buyers of 
wool, mohair, and cashmere textiles. Other experiments, aimed at 
enhancing our ability to establish the value of specialty animal fibers 
were successfully completed and reported for mohair, cashmere, and 
other fibers. Experiments were also conducted to identify more 
productive rams and billie goats; to select for finer and more valuable 
mohair in Angora goats; to establish the genetic, nutrition, and 
management requirements for the concurrent production of lean lamb meat 
and high quality wool; and to demonstrate the economic advantages to 
producers of skirting and classing their raw wool prior to marketing. 
Research and education efforts have kept U.S. processors and producers 
current on the status of the wool markets world wide. A functional home 
page was built for the purpose of electronic marketing of wool, mohair, 
and cashmere with plans to have it in use by the private sector in late 
2000 or early 2001. It is important that the U.S. producers of wool, 
mohair, and cashmere are competitive in the world market and that 
consumers are assured high quality textiles.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Grants have been awarded from appropriated funds in the 
amount of $150,000 per year for fiscal years 1984-1985; $142,000 per 
year for fiscal years 1986-1989; $144,000 for fiscal year 1990; 
$198,000 for fiscal year 1991; $250,000 per year for fiscal years 1992-
1993; $235,000 for fiscal year 1994; $212,000 per year for fiscal years 
1995-1997; $300,000 per year for fiscal years 1998-2000; and $299,340 
in fiscal year 2001. A total of $3,780,340 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were as follows: $150,913 state appropriations, $11,800 product sales, 
$5,817 industry, and $3,556 miscellaneous in 1991; $111,394 state 
appropriations, $25,451 product sales, $41,442 industry contributions, 
and $3,068 miscellaneous in 1992; $152,699 state appropriations, 
$39,443 product sales, $40,804 industry contributions, and $3,556 
miscellaneous in 1993; $150,094 state appropriations, $35,284 product 
sales, $36,484 industry contributions, and $3,556 miscellaneous in 
1994; $67,345 state appropriations, $10,000 product sales, and $34,325 
industry contributions in 1995; $39,033 non-Federal support in 1996; 
$174,486 non-Federal support in 1997; $200,307 state appropriations and 
$13,000 industry contributions in 1998; $202,854 state appropriations, 
$14,385 industry contributions, and $34,000 miscellaneous in 1999; and 
$208,475 state appropriations, $13,000 industry contributions, and 
$30,500 miscellaneous in 2000.
    Question. Where is this work being carried out?
    Answer. The research is in progress at Texas A&M University, Texas 
Agricultural Experiment Station at San Angelo, the University of 
Wyoming at Laramie, and Montana State University at Bozeman.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The original objectives to improve the efficiency and 
profitability of wool, mohair, and cashmere production and marketing 
are still valid. Specific objectives for individual laboratories and 
experiments are continually revised to reflect the changing research 
priorities for the wool, mohair, and cashmere industries and to satisfy 
consumer demands for products from these fibers. It is anticipated that 
five years will be required to complete the current research.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An external review of the overall wool research program was 
conducted in 1998 in Las Cruces, New Mexico, by a team consisting of 
industry experts and peers from the scientific community. The review 
team concluded that the program was very productive and beneficial to 
the U.S. wool, mohair, and cashmere producers as well as the allied 
fiber industries. Research achievements, noted by the review team, 
included program input for testing methods and standards used to buy 
and sell wool for international trade. This has been very important in 
advancing issues important to domestic producers and maintaining 
competitiveness in the world market. World-wide acceptance of standards 
for the objective measurement of natural animal fibers due, in part, to 
this program, has set the stage for the electronic marketing of wool 
and other fibers to aid the U.S. fiber industries in remaining 
competitive in the world market. Viable sheep and goat industries will 
support jobs for people in rural areas, supply alternative foods for 
public consumption, use natural means of brush control to abate fire on 
rangeland and inhabited areas, and provide alternative uses of land 
unsuitable for cultivation and cattle grazing.
    In addition to the program review, grant proposals are annually 
reviewed and the research facilities are periodically visited. The 
principal investigators meet annually to evaluate progress and re-
evaluate research priorities according to industry needs. Because the 
research encompassed in this grant is a component of a regional 
research project, accomplishments are reported annually to scientific 
peers and representatives from the sheep, goat, wool, mohair, and 
cashmere industries. In addition, the overall regional research project 
is peer reviewed every third year.

               Federal Administration and Special Grants

            agricultural development in the american pacific
    Question. Please provide a description of the research that has 
been funded under the Agricultural Development in the American Pacific 
program.
    Answer. The Agricultural Development in the American Pacific--
ADAP--is a primary means for Land Grant research, extension, and 
instruction programs of the five participating institutions of American 
Samoa Community College, College of Micronesia--including the College 
of the Federated States of Micronesia, College of the Marshall Islands, 
Palau Community College--, Northern Marianas College, University of 
Guam, and University of Hawaii, to collaborate and cooperate to enhance 
their impact on Pacific tropical agriculture and communities. ADAP is a 
mechanism to address common regional client-based issues while 
maintaining cultural, rural, economic, and environmental integrity. 
This research grant is awarded non-competitively to a program planned 
and approved by the five involved Land Grant institutions.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes the five participating 
institutions are geographically dispersed yet facing many similar 
issues which can best be served through extensive networking and 
communication. ADAP facilitates communications and seeks to raise 
levels of academic achievement and faculty skills and improves the 
overall quality of education at the Pacific Land Grants. ADAP's most 
unique feature is that twice each year it brings together the five 
Deans/Directors to discuss agriculture and human resources issues 
facing isolated, tropical ecosystems in the Pacific, and to plan and 
implement activities to address those issues. Oftentimes, discussions 
go beyond ADAP funding and opportunities to areas of increased 
partnership such as that found with the 1890 Land Grants. ADAP 
priorities are categorized in three areas: sustainable systems, 
collaborations/partnerships, and communication systems. Activities 
include joint and collaborative efforts to improve animal waste 
management, animal health, and information distribution; to business 
development and human nutritional improvement; to improving leadership 
capabilities at the institutional level; building mutually beneficial 
relationships with the 1890 Land Grant institutions; and the seeking of 
recognition of Pacific tropical agriculture by the National Association 
of State Universities and Land Grant Colleges.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. ADAP's goals are to develop human resources and information 
capacity within the institutions to manage more effectively 
agricultural programs within and among the institutions, and to focus 
available resources on critical agricultural issues of the Pacific. 
Ongoing projects include animal health surveys, livestock waste 
management, artificial insemination demonstration/education, market and 
production information tracking systems--co-developed with island 
``state'' Departments of Agriculture-- and a website that contains 
relevant publications from around the world. ADAP is also continuing to 
work with the 22-nation Secretariat of the Pacific Community in 
developing a paraveterinary education program. This program will use 
distance learning and site visits to train students from the 
cooperating nations and territories in animal health. This is a 
critical need for the Pacific region. Both ADAP and the Secretariat of 
the Pacific Community contribute support as well as skilled personnel 
to assist in this project. In another regional cooperative effort, ADAP 
led a retreat for strategic planning among the ``state'' and national 
Departments of Agriculture in the Pacific region in July 1999. That 
retreat identified food insecurity as a major issue for Pacific Island 
nations, and ADAP is formulating a number of island forums, in 
collaboration with the Secretariat of the Pacific Community and the 
Food and Agriculture Organization--FAO, Pacific office-- to address the 
issue. In February 2000, the ADAP directors met with the University of 
the South Pacific and other international organizations in Apia, Samoa, 
to work on ways to communicate and collaborate better on issues of 
mutual interest.
    Question. How long has this work been underway and how much has 
been appropriated, by fiscal year, through fiscal year 2001?
    Answer. This work was funded for seven years with an annual 
appropriation of $650,000 to the former Extension Service. In fiscal 
year 1994, an appropriation of $608,000 was made to CSREES to continue 
the ADAP program. In fiscal year 1995 the appropriation was $527,000. 
The fiscal years 1996 and through 2000 appropriations were $564,000 
each year and fiscal year 2001 is $562,759. The appropriation total to 
CSREES is $4,517,759.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds are not provided. Unspecified in-kind 
support, such as facilities, equipment, and administrative support is 
provided by each institution and, in some specific projects, by non-
ADAP collaborating institutions.
    Question. Where is this work being carried out?
    Answer. American Samoa Community College, College of Micronesia, 
College of the Federated States of Micronesia, College of the Marshall 
Islands, Palau Community College, Northern Marianas College, University 
of Guam, and the University of Hawaii are carrying out this work.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The ADAP program has been achieving original program 
objectives, particularly in the areas of improvement in institutional 
capacity and communications. It is anticipated that an additional 5 to 
10 years will be needed to fully achieve collaborative integration of 
the American Pacific land-grant programs.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A formal review of the ADAP program was conducted July 1-
10, 1997, and included visits by review team members to American Samoa 
Community College, College of Micronesia, Northern Marianas College, 
University of Guam, and University of Hawaii. ADAP incorporated review 
recommendations in preparing and adapting a new five-year strategic 
plan. An agency specialist conducts a merit review of the proposals 
submitted in support of the appropriation annually. In a review of the 
April 1999 proposal, progress was judged to be satisfactory.
             agricultural waste utilization, west virginia
    Question. Please provide a description of the research that has 
been funded under the Agricultural Waste Management, West Virginia 
grant.
    Answer. The West Virginia Department of Agriculture is conducting a 
project to validate the applicability and effectiveness of anaerobic 
filtration for treating municipal and agricultural wastes. Anaerobic 
filtration is a leading-edge technology specifically developed to 
biologically recover nutrients and energy from organic waste streams 
and produce an effluent which meets discharge permit requirements. West 
Virginia State College has worked on three objectives. One is to 
conduct field trials to determine the effect of digested solids on 
vegetable crops and pasture grasses. Task two is to assess the 
feasibility of using various digested waste products as a base for fish 
feeds. Task three is to move the anaerobic digester from Moorefield, 
West Virginia, to West Virginia State College for research and 
training.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The current need for this technology is local, national, 
and international. The beneficiaries of this technology will be both 
the people and the environment anywhere in the world where problems of 
food, fertilizer, and energy shortages are currently in conflict with 
the preservation of environmental quality. The direct benefits include 
enhanced and expanded waste water capacity, creation of new jobs, and 
revenue from by-products and water quality improvement.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal was to determine the applicability of 
anaerobic digestion to convert organic waste materials to energy in the 
form of biogas, thereby reducing the amount of organic matter for 
disposal. The goal will go beyond the testing of waste materials in the 
digester and proceed with a program to compare the microbiological 
loading of rivers, where known environmental pollution is measurable, 
and where the total bacterial concentration in the rivers could be 
determined in real-time with a bioprobe. The subsequent goal is to 
manage the remaining solids from anaerobic digestion in an 
environmentally-sound manner.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1998 
and the appropriation for fiscal year 1998 was $360,000; for fiscal 
year 1999, $250,000; fiscal year 2000, $500,000; and fiscal year 2001, 
$494,909. A total of $1,604,909 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funds are not being expended.
    Question. Where is this work being carried out?
    Answer. Research is conducted at West Virginia State College, 
Charleston, West Virginia. Prior to 2000, most of the anaerobic 
digestion work was at a private farm near Moorefield, West Virginia.
    Question. What was the anticipated date for the original objectives 
of the project? Have those objectives been met? What is the anticipated 
completion date of additional or related objectives?
    Answer. The anticipated completion date of the original objectives 
is June 30, 2000. These objectives are being met within the original 
schedule. The additional objectives should be completed by June 30, 
2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The anaerobic digester sludge samples collected are 
analyzed at the laboratories of the West Virginia Department of 
Agriculture in Moorefield, West Virginia. The typical analyses consists 
of: total solids, volatile solids, volatile fatty acids, total kjeldahl 
nitrogen, phosphorus, pH, and fecal coliform. The separated solids are 
collected and sent to West Virginia State College for use in field 
studies to determine plant growth response to the nutrients. The 
perennial crops, blueberries and pasture grass, were planted in 1999 on 
the 2/3 acre field site. A fish production facility was built with 
approximately 40 fish tanks and associated aquaculture equipment. This 
facility will be used to assess the feasibility of using various 
digested waste products as a fish feed. The anaerobic digester at the 
Moorefield, West Virginia, site was dismantled to be moved to 
Charleston, West Virginia.
                   agriculture water policy, georgia
    Question. Please provide a description of the research that has 
been funded under the Agriculture Water Policy, Georgia grant.
    Answer. The research will investigate policy implications of 
agricultural water use in Georgia and across the southeastern U.S. The 
agency has received the grant proposal describing the proposed research 
and expected outcomes of the research.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Agricultural water use in the southeast U.S. has increased 
dramatically over the last two decades. At the same time, population 
growth in this region has led to increased demands for municipal water 
sources. The proposed research will evaluate these conflicting needs 
and develop policies aimed at maximizing the utility of the water 
supply to meet municipal and agricultural demands.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goals of this research are to identify future water 
resource related problems, design alternative policies to correct these 
problems, estimate financial and non-monetary benefits of the 
alternative policies, and develop consensus among agricultural 
producers regarding preferred policies. This is a new grant; therefore, 
no work has been accomplished to date.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This is a new grant. The work supported by this grant 
begins in fiscal year 2001, and the appropriation for fiscal year 2001 
is $365,195.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds and outside sources were provided for 
this grant in fiscal year 2001.
    Question. Where is this work being carried out?
    Answer. The majority of the work is being conducted at the Georgia 
Water Policy Center at Georgia State University. Additional work will 
be conducted through a collaborative arrangement established with 
Georgia Southern University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This is a new grant. The anticipated completion date for 
this project is February 2004. No objectives have been completed at 
this time.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency is conducting a review of the proposal submitted 
by Georgia State University. Subsequently, an annual evaluation of the 
project is expected.
                   animal waste management, oklahoma
    Question. Please provide a description of the research that has 
been funded under the Animal Waste Management, Oklahoma grant.
    Answer. This research project is designed to develop sustainable, 
environmentally safe, and ecologically-sound best management principles 
and practices for beneficial animal waste applications for High Plains 
Agriculture in support of rural economic development through a Federal-
state-local partnership. Emphasis will be placed on the rapidly 
expanding swine industry in the semi-arid region, but information 
gained will also be applicable to the beef and dairy industries which 
play major roles in agriculture production in the region.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The Oklahoma Panhandle region and contiguous counties in 
the states of Colorado, Kansas, New Mexico, and Texas generates nearly 
$3 billion in sales of agricultural products annually. The Oklahoma 
Panhandle is the most productive agricultural region in the state with 
agricultural receipts in excess of $900 million, which represents 31 
percent of the receipts in the region. Texas County, in the Oklahoma 
Panhandle, ranks number one in the state with sales of $668 million in 
1997 and twentieth of all counties in the U.S. in agricultural sales. 
The majority of sales are related to livestock production and the rapid 
expansion of the swine industry in this semi-arid region has only 
strengthened that position. Oklahoma has moved to ninth in position in 
the U.S. for swine sales and Texas County, has risen to third 
nationally with nearly $200 million in swine sales from a position of 
645 in 1992. The rapidly expanding swine industry was projected to add 
$650 million in pork and value-added products in Oklahoma through the 
slaughter and processing of over 4 million hogs per year. Information 
gained from this study will provide the database to develop best 
management practices to maximize beneficial nutrient use and minimize 
nuisance odor in semi-arid cropping and rangeland production systems. 
Practices developed will have significant implications regionally, 
nationally, and internationally. The semi-arid agro-ecosystem is unique 
with climatic conditions consisting of low rainfall that promotes both 
dryland and irrigated agricultural practices; extremes in high and low 
temperatures; soils characterized with alkaline pH, low in organic 
matter, and high in calcium carbonate. This unique agro-ecosystem makes 
information gained from more humid environments inapplicable.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to develop best 
management practices that will protect ground water supplies from 
pollution of nutrients, salts, and pathogens; maintain air quality; and 
minimize odors derived from the entire swine-house, lagoon, land-
application, soil-cropping and or rangeland production system, thus 
maintaining the quality of life in the rural sector. The work shows a 
positive response to animal waste applications particularly for the 
forage production systems. This will have an immediate impact for 
producers who have a diversified livestock production system that 
includes swine, beef, and/or dairy. Studies of ammonia loss from 
applications indicate there can be significant losses following land 
applications. This has several implications for producers and the 
environment due to ammonia loss and ammonia deposition. Ammonia is one 
of several factors associated with air quality in the region that 
contributes to the quality of life. This project has been able to 
accurately predict conditions that contribute to ammonia loss that will 
be included in the best management practices for the region. Developing 
this and other best management practices will allow producers to 
minimize ammonia losses and improve air quality in the region.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1998 
and the appropriation for the fiscal years 1998, 1999, and 2000 at 
$250,000 per year and for 2001 is $274,395. A total of $1,024,395 has 
been appropriated for this project.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. This project has been matched by $750,000 non-Federal 
funding. Sources for this funding have been State and agricultural 
industries.
    Question. Where is this work being carried out?
    Answer. This work has been initiated at The Oklahoma Panhandle 
Research and Extension Center located in Goodwell, Oklahoma. Further 
work will continue to be done at this site. The Center will provide the 
land area and a portion of the facilities and equipment necessary to 
conduct the major portion of the study. Other study sites have been 
developed on private land in cooperation with swine operations in the 
panhandle region.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original completion date was February 29, 2000. Some of 
the original objectives have been answered in regard to air quality and 
ground water protection. However, work needs to continue on the 
implications of ammonia deposition and the effect on water quality in 
the region. Additional work needs to continue on the issues related to 
soil quality and cropping system management. Completion of these 
objectives and additional objectives related to these will be February 
28, 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project was evaluated at the end of December 2000 when 
the summary report of the 1999-2000 accomplishments was submitted. 
Significant progress has been made toward accomplishing the specified 
goals.
    Results to date indicate significant amounts of ammonia will be 
volatilized, lost as a gas, almost immediately following effluent 
application to bare soils. Preliminary indications are that 
applications made to soil, which have significant quantities of plant 
residue or growing plants will reduce the quantity of ammonia lost by 
this pathway. An accurate predictive model has been developed to 
determine the amount of ammonia loss following application. This model 
will be included in development of best management practices for swine 
effluent application. Swine effluent applications to corn, sorghum, and 
forages have demonstrated that it is an acceptable method to supply 
nutrients for crop production. Of particular interest has been the 
response of the forage buffalo grass that is native to the Great Plains 
where work has been completed that indicates there is very limited 
potential for phosphorus from a swine lagoon reaching the aquifer in 
the region.
    Results of this project to date have been disseminated to the 
scientific community and general public via: one conference, four 
refereed publications one published proceeding, eleven proceedings 
papers, eight abstracts, one completed thesis, nineteen presentations 
at national or regional meetings and five publications in preparation.
                  biotechnology research, mississippi
    Question. Please provide a description of the research that has 
been done under the Biotechnology Research, Mississippi grant.
    Answer. This was a new special grant in fiscal year 2000. First 
year accomplishments include the hiring of two doctoral-level 
biotechnologists and the selection of two crops, sweet potato and hot 
pepper, as the initial target crops for improvement through genetic 
modification. CSREES has requested Alcorn State University to submit a 
grant proposal for fiscal year 2001 that has not yet been received.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The overall purpose of this project is to establish a 
Biotechnology Center at Alcorn State University that will focus on 
plant biotechnology research geared toward small farmers in 
Mississippi. Emphasis will be placed on improving the productivity and 
efficiency of crops and plants grown by small farmers in order to 
improve profitability and ensure long-term viability.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of the research is to enhance Alcorn State 
University's research efforts in biotechnology through genetic 
improvement research utilizing biotechnology techniques and to improve 
the livelihood and viability of limited-resource producers in 
Mississippi and the southeast. First year accomplishments include the 
hiring of two doctoral-level biotechnologists and the selection of 
sweet potato and hot pepper as target crops for improvement through 
genetic modification.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This project began in fiscal year 2000 with an 
appropriation of $425,000 and $589,700 in fiscal year 2001. The total 
amount appropriated is $1,014,700.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. A $150,000 grant from the World Bank in fiscal year 1996 
and state funds have supported this work in previous years.
    Question. Where is this work being carried out?
    Answer. The research is being conducted at Alcorn State University 
in Lorman, Mississippi, and at field locations in Preston and Mound 
Bayou, Mississippi.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The principal investigator anticipates completing the 
original objectives of the project by 2003. Additional or related 
objectives have not been specifically identified at this time.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The Alcorn State University project was evaluated by a 
merit review panel convened by the agency on April 17, 2000. The panel 
recommended approval of the project pending receipt of supplemental 
information on scientific and administrative aspects of the project. 
The supplemental information was received, and the agency is satisfied 
that the program is being administered in compliance with the purpose 
of the grant. A review panel will be convened to re-evaluate the 
project upon receipt of a proposal for fiscal year 2001.
              center for agriculture and rural development
    Question. Please provide a description of the research that has 
been done under the Center for Agriculture and Rural Development 
program.
    Answer. The research monitors the final form and implementation of 
the Uruguay Round Agreement and evaluates its impacts on global trade 
and implications for U.S. Agriculture.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. As the Uruguay Round--UR--Agreement implementation 
proceeds, researchers will monitor the development of these policy 
changes and analyze the likely impacts of these decisions with emphasis 
on obtaining differential impacts for developing economies, developed 
economies, and those in transition. Researchers will also explore 
possible directions for the next Round or Mini-round of the World Trade 
Organization.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal is to assess and evaluate various 
proposals affecting agricultural trade, to provide analytical support 
to the Office of the U.S. Trade Representative, and to provide 
information to farmers and agribusiness firms on the competitive 
implications of trade agreements. Theoretical studies and empirical and 
descriptive analyses of policy issues and technical problems pertaining 
to the Uruguay round of negotiations were completed and provided to 
negotiators and the agribusiness community. Knowledge developed in this 
phase is now being used to monitor the effects of the Uruguay Round 
Agricultural Agreement--URA.
    This grant supports six projects focusing on URA and the World 
Trade Organization--WTO--monitoring and implementation problems; 
implications of the URA and WTO for Eastern Europe, Baltic, and the 
Newly Independent States; development of a model to assess the North 
American Free Trade Agreement and its linkages with the General 
Agreement on Tariffs and Trade; trade implications of U.S. food and 
development aid in developing countries; integration of China into 
world agricultural markets; and special projects as requested for the 
United States Trade Representative's office. Major emphasis is placed 
on developing and improving international livestock and grain sector 
models.
    Question. How long has this work been underway and how much has 
been appropriated, by fiscal year, through fiscal year 2001?
    Answer. This research program was initiated in fiscal year 1989. 
Grants have been awarded from funds appropriated as follows: fiscal 
year 1989, $750,000; fiscal years 1990 and 1991, $741,000 per year; 
fiscal years 1992-1993, $750,000 per year; fiscal year 1994, $705,00; 
fiscal year 1995, $612,000; fiscal year 1996, $655,000; fiscal years 
1997 through 1999 $355,000; fiscal year 2000, $355,000; and fiscal year 
2001, $427,058. A total of $7,551,058 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $111,210 State appropriations and $175,616 
miscellaneous for a total of $286,826 in 1991; $113,779 State 
appropriations and $173,117 miscellaneous for a total of $286,896 in 
1992; $120,138 State appropriations and $164,707 miscellaneous for a 
total of $284,845 in 1993; $161,000 State and $30,000 miscellaneous for 
a total of $191,000 in 1995; $70,000 State appropriations and $44,000 
miscellaneous for a total of $114,000 in 1996; $60,325 in State 
appropriations and $61,500 in miscellaneous funds for a total of 
$121,825 in 1997; and $72,000 in State appropriations and $75,000 in 
miscellaneous funds for a total of $147,000 in 1998.
    Question. Where is the work being carried out?
    Answer. The research program is carried out by the Center for 
Agriculture and Rural Development at Iowa State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives of the project envisioned the 
development of models capable of providing guidance to policymakers, 
researchers, and farmers and others of the impact of agricultural trade 
proposals on the U.S. agricultural sector. As such the objectives are 
ongoing.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. We have conducted no formal evaluations; however, each 
annual proposal is peer reviewed for relevance and scientific merit. 
Also, an informal evaluation of this project takes place as a part of 
each annual project review and approval process.
              center for innovative food technology, ohio
    Question. Please provide a description of the research that has 
been funded under the Center for Innovative Food Technology, Ohio 
grant.
    Answer. Funds from the fiscal year 2000 grant are supporting 
research projects on the use of neural networks to classify food 
ingredients, on maximizing the concentration of ellagiac acid and 
lycopene in raspberries, developing protocols for producing swiss 
cheese starter cultures, developing improved methods for coating snack 
food and cereal products, and studying the use of ozonated water for 
washing packaged salads
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes the value-added food 
processing industry is the largest industry in the mid-western states, 
including Ohio where the industry contributes over $17 billion to the 
annual economy. From an economic development point of view, processing 
and adding value to crops grown within a region is the largest possible 
stimulus to that region's total economic product. This program aims to 
partner with and encourage small and medium-sized companies to 
undertake innovative research that might otherwise not be undertaken 
due to risk aversion and limited financial resources for research and 
development in these companies. The principal researcher believes that, 
although the initial impact of this research will be regional, the 
recipient organization of this grant is part of a technology transfer 
network and proactively seeks opportunities to deploy technologies 
developed through this research to the food industry on a national 
basis.
    Question. What was the original goal of the research and what has 
been accomplished to date?
    Answer. The original goal of the research was to develop innovative 
processing techniques to increase food safety and quality or reduce 
processing costs. The neural network project has developed a model for 
predicting the optimum processing parameters for meat product 
ingredients; the raspberry and tomato products have resulted in useful 
information to increase the positive health effects from consuming the 
fruits; the Swiss cheese project has developed a standardized method 
for producing starter cultures that lowers production costs; the 
coatings work has resulted in improved methods for adding flavorings to 
food products at lower cost; and the ozonation project, when complete, 
will very likely increase the shelf life and safety of packaged salad 
products.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1995. 
The project received appropriations of $181,000 per year in fiscal 
years 1995 through 1997; $281,000 in fiscal year 1998; $381,000 each in 
fiscal years 1999 and 2000; and $759,326 in fiscal year 2001. A total 
of $2,345,326 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. In fiscal year 1995, non-Federal funds included $26,000 
from state funds and $70,000 from industry memberships. In fiscal year 
1996, non-Federal funds included $26,000 in state funds and $80,000 in 
industry funds. In fiscal year 1997, non-Federal funds included $35,000 
in state funds and $95,000 in industry memberships. In 1998, $35,000 in 
state funds and $105,000 in private industry memberships contributed to 
the support of the project. During 1999, industry funds increased to 
$125,000, and state of Ohio match increased to $50,000. Data on fiscal 
year 2000 are not currently available.
    Question. Where is this work being carried out?
    Answer. Research is being conducted in the laboratories of the Ohio 
State University and at various participating companies in Ohio, 
Illinois, and Missouri.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional related objectives?
    Answer. The principal investigator anticipates that all projects 
supported by the fiscal year 2000 grant will be completed by February 
28, 2001, and for funds awarded in fiscal year 2001, the principal 
investigator anticipates completing the objectives by July 31, 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An agency science specialist conducts a merit review of the 
proposal submitted in support of the appropriation on an annual basis. 
The last review of the proposal was conducted on June 22, 2000. At that 
time, the agency science specialist believed that the projects 
addressed issues relevant to food manufacturing, were scientifically 
sound, and that satisfactory progress was being demonstrated using 
previously awarded grant funds.
                center for north american studies, texas
    Question. Please provide a description of the research that has 
been done under the Center for North American Studies, Texas program.
    Answer. The purpose of this grant is to develop linkages with 
educational and other institutions in Mexico and Canada in order to 
share data and faculty, conduct research identifying trade 
opportunities and marketing problems, conduct policy analyses, and 
develop a broad range of training programs preparing agricultural firms 
for international marketing opportunities. The research proposal was 
peer reviewed at the university prior to submission to CSREES.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The Center for North American Studies--CNAS--program 
director believes that citizens of the United States, Mexico, and 
Canada have some similar concerns about the impact of the North 
American Free Trade Agreement--NAFTA-- and that new, innovative 
approaches involving international cooperation are needed to assess and 
evaluate these issues. Research and training are needed to provide 
information to evaluate alternatives for expanding U.S. exports and to 
resolve potential social, economic, and environmental conflicts.
    Question. What was the original goal of this research, and what has 
been accomplished to date?
    Answer. The goal is to promote strong agricultural ties among the 
three North American countries, foster greater cooperation in resolving 
critical agricultural issues of common interest, and ensure the 
continued competitiveness of U.S. agriculture. Accomplishments over the 
last five years include: preparation of a briefing book on the 
millennial World Trade Organization--WTO--negotiations for agricultural 
leadership and Congressional staff; survey of 100 agribusiness firms to 
determine views on upcoming millennial WTO negotiations; research on 
``strategic intent'' of southern Texas food marketing firms; continued 
investigation of technical trade barriers as a substitute for tariffs; 
a study of El Nino and La Nina on fruit and vegetable production; 
impacts of NAFTA on livestock, meat, feed, fruit, and vegetable trade; 
a range management watershed study along both sides of the Rio Grande 
River; and study of the competitive response of Texas food marketers to 
NAFTA. Since a new CNAS publication series was started in June 1998, 
seven applied research papers have been published. In 1999, the Center 
conducted 47 seminars/workshops for producers and agribusinesses to 
increase the international capacity of the U.S.; over 3,200 people 
attended. Collaborative work included a workshop on International 
Strategic Alliances workshop developed jointly with a Mexican and a 
Canadian university; an expanded database on Mexican agriculture; and a 
video conference for a Mexican agribusiness audience.
    Question. How long has this work been underway, and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Work supported by this grant began with an appropriation of 
$94,000 in fiscal year 1994; $81,000 in 1995; $87,000 per year for 1996 
through 2000; and $86,809 in fiscal year 2001. A total of $696,809 has 
been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: $39,000 State appropriations in fiscal year 1994; 
$54,000 in 1995; $60,000 in 1996 and 1997; $84,500 in 1998; and $80,000 
in 1999 and 2000.
    Question. Where is the work being carried out?
    Answer. The program is being carried out at Texas A&M University 
through the Texas Agricultural Experiment Station in collaboration with 
other segments of the Texas A&M University System and Louisiana State 
University Agricultural Center.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1994 was for a period of 12 
months. The current phase of the program will be completed in the year 
2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation.
    Answer. CSREES performed a merit review of the project in April 
2000, as it evaluated the 2000 project proposal, and concluded that: 
``The project has sound objectives and procedures for helping U.S. 
firms to be successful in international markets and for helping policy 
makers understand the impacts of policies and trade agreement 
alternatives. Therefore, the project contributes to CSREES goals of a 
highly competitive agricultural production system and enhanced economic 
opportunity for Americans. The principal investigator is well 
recognized for his leadership in this area.''
                    climate change research, florida
    Question. Please provide a description of the research that has 
been funded under the Climate Change Research, Florida grant.
    Answer. The research supported by this grant seeks to promote the 
effective use of climate information to improve decisionmaking within 
the agricultural sector in Florida. The primary objective is to reduce 
economic risk and improve the economic and social well being of 
Florida's rural population involved in agricultural production.
    Question. According to the research proposal, or the principal 
investigator, what is the national, regional, or local need for this 
research?
    Answer. The need for this research emerges from the growing 
capacity to forecast climatic anomalies at seasonal lead times 
suggesting an unprecedented opportunity to tailor agricultural 
decisions to anticipated weather conditions. This could include 
decisionmaking to either mitigate the impact of unfavorable conditions, 
or to take advantage of favorable conditions.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goals of the research include: to characterize 
stakeholder needs; uses and perceptions of climate forecasts; evaluate 
the usefulness of and limitation of climate forecasts; and to adapt and 
enhance research tools, methodologies, and data products required for 
translating climate forecasts into information required to support 
agricultural decision/policy making.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000 
and the appropriation for fiscal year 2000 was $170,000 and for fiscal 
2001 is $169,626. A total of $339,626 has been appropriated to support 
this research.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Information on non-Federal funds and sources is not 
available.
    Question. Where is this work being carried out?
    Answer. This research is being conducted at the University of 
Florida, Gainesville.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. It is anticipated that work currently underway will be 
completed in September 2001.
    Question. When was the last evaluation of this project? Provide a 
summary of the last evaluation conducted.
    Answer. The research proposed to be funded by this grant has been 
reviewed and approved by three qualified experts identified by the 
institution in April 2000. In addition, the proposal has been reviewed 
by qualified staff in CSREES prior to the release of funds. No 
additional evaluation is anticipated until the research is complete.
                         cotton research, texas
    Question. Please provide a description of the research that has 
been funded under the Cotton Research, Texas grant.
    Answer. Texas Tech Universities has developed an integrated 
research effort to address cotton production issues using a 
comprehensive approach in order to strengthen the cotton industry in 
the high plains. Priority production and marketing issues will be 
studied.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The proposed project is expected to help support a broad-
based program to address priority research needs of cotton grown on the 
Texas high plain. The specific issues will include production, 
processing, marketing and utilization.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal of this project is to improve the economics of 
cotton production in West Texas and expand the demand for cotton grown 
in the area.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1998. 
The appropriation for fiscal years 1998-1999 was $200,000 per year; 
$170,000 for fiscal year 2000; and $498,900 in fiscal year 2001. A 
total of $1,068,900 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds are from the state of Texas and 
provide salaries and benefits for experiment station employees. Funds 
supporting the project were $156,000 in fiscal year 1998; $149,000 in 
1999; and $187,000 in 2000.
    Question. Where is this work being carried out?
    Answer. The work will be conducted at the Texas A&M University 
Research and Extension Center, Lubbock and Texas Technical University 
Campus, research facilities, and on area farms.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The principal investigators anticipate the project should 
be completed in fiscal year 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project received a comprehensive review and evaluation 
at its inspection by Texas A&M and Texas Tech Universities and CSREES 
National Program Staff. Each research project is peer reviewed 
annually, and the combined proposal is reviewed and approved by the 
institution.
       curriculum development/mississippi valley state university
    Question. Please provide a description of the research that has 
been funded under the Curriculum Development and Strengthening-
Mississippi Valley State University grant.
    Answer. Funds were used to strengthen academic programs, including 
accreditation and reaccreditation. Of the ten programs eligible for 
accreditation, nine have been accredited. Assessment of the criteria 
has begun for the one remaining eligible program. Academic programs 
have been broadened to include more agriculture-related courses 
consistent with the needs of students from the Mississippi Delta, 
students from other parts of the State, as well as out-of-state 
students. Curriculum additions have had a positive impact on student 
enrollment. Courses continue to be modified to reflect the needs of 
graduates as well as employers in the Mississippi Delta, with 
particular emphasis on those areas that employers have the greatest 
need. The funds continue to provide enhancements related to other 
program and administrative support areas that positively impact program 
delivery and administration at Mississippi Valley State University--
MVSU.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional or local need for this 
proposal?
    Answer. The primary need for this project is to satisfy a local 
need. The need is for strengthening university capacity and curriculum 
development at MVSU. The Delta region is well known for its high level 
of poverty, high rates of unemployment, infant mortality, teen 
pregnancies and other chronic social problems. The MVSU Social Work 
Department is working diligently to improve the quality of life in the 
Delta counties and communities. In following the university's primary 
mission of teaching, the Social Work Department is offering an 
affordable quality education that is the key to overcoming many 
personal and social problems encountered by living in an impoverished 
agriculture environment. The Social Work Department offers an 
educational program that prepares professionals whose primary goal is 
to empower clients to overcome their personal and social problems.
    Question. What was the original goal of this project and what has 
been accomplished to date?
    Answer. The original goal was to provide funding to strengthen the 
academic programs of the university. This funding has strengthened the 
fiscal and academic areas of the university. The university's cash flow 
and cash availability have remained steady and sufficient all year 
long. Student recruitment has improved to show a positive ratio between 
applications received and students admitted. Approximately one-half of 
the applicants are enrolled. Increased quality of instruction and 
programs have benefitted students. This is reflected in the higher 
graduation rate, increased student enrollment, enriched faculty, and 
improved community relationship.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. This program was initiated in fiscal year 1987. Grants have 
been awarded from funds appropriated as follows: fiscal year 1987, 
$750,000; fiscal years 1988 and 1989, $625,000 per year; fiscal year 
1990, $617,000; fiscal year 1991, $642,000; fiscal years 1992 and 1993, 
$668,000 per year; fiscal year 1994, $593,000; fiscal year 1995, 
$544,000; fiscal years 1996-2000, $583,000 per year; and $645,577 in 
fiscal year 2001. A total of $9,292,577 was appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Mississippi Valley State University received State and 
private funding during the period of this grant. The State figures 
provided here are for enhancement funds gained above the university's 
standard formula generated funds. The sources and amounts are as 
listed:

                                                      SOUCE
----------------------------------------------------------------------------------------------------------------
                           Fiscal Year                                 State          Private          Total
----------------------------------------------------------------------------------------------------------------
1987............................................................              $0        $168,640        $168,640
1988............................................................               0        1186,036         186,036
1989............................................................          68,658         190,258         258,916
1990............................................................         207,879         369,358         577,237
1991............................................................         333,263         337,700         670,963
1992............................................................         349,427         470,220         819,647
1993............................................................          35,750         358,680         394,430
1994............................................................         590,890         568,970       1,159,860
1995............................................................         841,654         530,300       1,371,954
1996............................................................       1,197,917         590,824       1,788,741
1997............................................................         309,717         755,629       1,065,346
1998............................................................         313,738         538,423         852,161
1999............................................................         909,419         389,812       1,299,231
2000............................................................       1,416,455         424,070       1,840,525
----------------------------------------------------------------------------------------------------------------

    Question. Where is this work being carried out?
    Answer. These funds are intended to strengthen programs at 
Mississippi Valley State University. The program has been carried out 
on the campus at Itta Bena and at off-campus sites in Anguilla and 
Greenville and the Greenwood Center since the Spring Semester of 1996.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives completion date was June 1992, and 
the primary objective of erasing the financial deficit was accomplished 
at that time. The university has been operating on a sound financial 
basis as of July 1993. Academic program strengthening has progressed 
very well. The objectives of the current grant will be completed by 
September 30, 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The program staff in the agency conducts an annual 
evaluation of reports submitted by the principal investigator. The 
evaluation reflects steady enhancement in curriculum development and 
improved support for strengthening administrative units. The academic 
and administrative organization is being expanded and initiatives are 
being designed to integrate in-service learning and undergraduate 
research into the academic curriculum. These initiatives are redefining 
the academic focus of the institution. Student life and services are 
being improved. Additionally, much attention is being devoted to teach 
education effectiveness. The Department of Natural Sciences and 
Environmental Health realizes that in an ever changing scientific 
technological environment, a labor force must be educated to meet the 
demands of the workplace and its employers. As such, the department 
hopes to foster an environment which meets the needs of students and 
faculty in the natural and environmental sciences by exposing them to 
different technologies and experiences that will make them competent 
and knowledgeable in their chosen fields. Of particular concern are 
those issues in the areas of aquaculture and agriculture.
    Presently, these areas are under studied and constantly changing. 
More and more, genetically-engineered crops are being used to avoid 
problems with drought and pesticides. This raises various concerns 
about its impact on the consumers and the exosphere. Many catfish 
farmers are concerned about their fish in regard to the pesticides and 
herbicides that are being used on crops in the Delta. The Department of 
Natural Sciences and Environmental Health aims to upgrade its 
facilities and the abilities of its researchers to address these issues 
and share the gained knowledge in a forum of fellow scientists.
                   data information system questions
    Question. Please provide a description of system development 
activities that have been funded.
    Answer. CSREES continues to fund activities under contract with a 
major information technology firm for the design and development of the 
Research, Education, and Economics Information System--REEIS. 
Previously funded tasks include the conduct of an inventory of 
databases targeted for inclusion in REEIS; a comprehensive assessment 
of information needs within the Research, Education, and Economics--
REE--mission agencies and State partner institutions; design and 
development of a Web accessible catalog of databases identified in the 
inventory; a comprehensive review of state-of-the-art information 
technology systems available for use in developing the system; ongoing 
design and development of a REEIS proof-of-concept prototype; and 
conduct of a comprehensive interagency data modeling effort that 
identifies and describes data, data relationships, and sources of data 
from across the research, extension, education, and statistics domains 
of the REE mission agencies and State partner institutions. Also, a 
cooperative agreement with the University of Arkansas was established 
to provide national leadership in coordinating the efforts of a 
National Steering Committee charged with guiding the continuing 
development of the system. The Committee held its latest meeting in 
August 2000. Funding has also been provided under the REEIS initiative 
for the design and development of an Evaluation and Accountability 
System for Extension--EASE--which is targeted for linkage in REEIS.
    Question. What is the national, regional or local need for this 
activity?
    Answer. At present, USDA's REE mission area agencies and their 
university partners lack a central, integrated, user-friendly 
electronic information system capable of providing access to thousands 
of programs and projects for which they are responsible and which focus 
on food, agriculture, natural resources, and rural development. Such an 
information system is increasingly needed to enable the Department and 
its partners to readily conduct baseline and ongoing assessments and 
evaluations of research, education, extension, and economic programs 
and projects. In recent years, this need has become more urgent for 
several reasons. First, the United States needs a visionary publicly-
funded research and development program to produce essential knowledge 
and innovations for meeting growing competition in a global market--
which is largely attributable to the expanding research and development 
efforts of foreign nations. Second, a comprehensive information system 
is needed to serve as a primary reference source for development of new 
research and education programs on such diverse issues as increasing 
productivity in agriculture, processing and improving the safety and 
quality of food, and enhancing the sustainability of the environment 
and rural communities. Third, Federal/State policy makers and 
administrators are requiring empirical analyses to account for 
historical, current, and future use of public funds to provide a basis 
for redirecting funds to higher priority issues. Fourth, the Government 
Performance and Results Act--GPRA--has imposed reporting demands which 
current databases and decentralized information systems are not 
prepared to adequately satisfy. It is also envisioned that REEIS will 
play a key role in implementation of the Agricultural Research, 
Extension, and Education Reform Act--AREERA--of 1998. In this regard, 
REEIS would be well-positioned to:
  --Provide linkages for decisionmaking among REE agencies;
  --Enable consistent reporting on identical or similar issues;
  --Provide the public with understanding of the role and mission of 
        REE agencies;
  --Expand REE's outreach to a broader base of constituencies;
  --Provide a better vehicle to facilitate interaction among REE 
        agencies and their university partners;--Link commonalities of 
        research, extension, and teaching projects and programs through 
        a single interface; and
  --Foster global interactions.
    The REEIS customer base includes not only the REE mission agencies 
and their state partners institutions but other Federal agencies that 
partner with the research, extension, and education components of the 
Department. The Department of Education, the Department of Health and 
Human Services, the Department of Energy, the Department of Defense, 
the Environmental Protection Agency, and the National Science 
Foundation are among the Federal agencies that share and exchange data 
with the REE mission agencies and fund programs that address problems 
of mutual concern. Web-enabled access to data and information in the 
REEIS data store and state-of-the-art capabilities for manipulating and 
organizing the data will permit a greater knowledge base of information 
to be more easily shared among stakeholders pursuing common areas of 
interest. It is expected that Federal agencies with programs in food 
safety, natural resources and the environment, rural economics and 
community development, human nutrition, and science education, for 
example, will be key players in assisting the REEIS development team in 
refining many of the system requirements for REEIS. As full 
implementation of the system is realized, greater inter-agency 
communication and collaboration resulting from use of REEIS will lead 
to a strengthening of alliances across the Federal sector.
    Question. What was the original goal of this initiative and what 
has been accomplished to date?
    Answer. The original goal of this initiative was to develop an 
information system that provides real-time tracking of research, 
extension, and education projects and programs; has the capability to 
communicate vertically between field, State, and Federal locations; 
enables the REE agencies and their partners to conduct rapid and 
comprehensive policy assessments and program evaluation analysis; 
facilitates assessment of technologies and practices employed in 
extension, education, economics, and research activities at the field 
and/or regional levels; provides clear and transparent public access to 
relevant parts of the information; and provides information management 
tools to enhance the timeliness and accuracy of REE-wide responses to 
inquiries about program objectives and expenditures.
    Since launching of the REEIS initiative, substantial system 
planning and development work has been completed. Work accomplished 
under a series of multi-task contracts with a private sector 
information technology firm was instrumental in meeting major 
milestones considered to be critical components and a prerequisite to 
the design, development, and implementation of REEIS. Major tasks 
included the conduct of a comprehensive strategic information audit of 
information needs within the REE agencies and partner institutions; the 
identification and inventory of major research, extension, education, 
and economics/statistics databases maintained or supported by the REE 
mission agencies; the design, development, and preparation of the REEIS 
database catalog prototype that affords Web access to the inventory of 
38 databases initially identified as candidates for inclusion in REEIS; 
the design and evaluation of the Web interface to the REEIS database 
catalog; a comprehensive review of state-of-the-art information 
technology systems available for use in developing REEIS; the design 
and development of several iterations of a Web accessible REEIS proof-
of-concept prototype; and the completion of a comprehensive REEIS 
interagency data modeling effort.
    Activities completed in fiscal year 2000 included the development 
and assessment of alternative system architectures and the development 
and testing of a REEIS prototype populated with actual data from 
selected core databases.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Congress first appropriated $400,000 for REEIS in fiscal 
year 1997 to begin planning its design and development. The fiscal year 
1998 appropriation was $800,000. This was followed by appropriations of 
$1,000,000 in fiscal year 1999, $2,000,000 in fiscal year 2000, and 
$2,120,325 in fiscal year 2001. A total of $6,320,325 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Non-Federal funding does not apply at this time.
    Question. Where is this work being carried out?
    Answer. Leadership responsibility for REEIS resides within the 
CSREES Science and Education Resources Development unit in Washington, 
D.C. This provides for effective linkage within the REEIS platform of 
the Current Research Information System, the Food and Agricultural 
Education Information System, and other appropriate research, 
extension, education, and statistics databases. The REEIS leadership 
works closely with the four REE mission agencies and the university 
system to ensure that primary users as well as key stakeholders are 
involved in the REEIS development process. A sizeable effort continues 
under contract with a major private sector information technology firm 
for the design, development, testing, and implementation of REEIS. 
Three staff persons, including a newly recruited REEIS director, are 
assigned full time to direct, manage, and coordinate agency and 
contracting activities. Plans are to recruit several full time computer 
specialists to operate and maintain the system.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. Initial implementation of REEIS was targeted for fiscal 
year 2000. However, the need to satisfy Department requirements for 
justification of the information technology investment for REEIS has 
delayed the use of fiscal year 2000 funds for implementation. These 
requirements include the preparation of several preliminary reports 
that include a cost/benefit analysis, a security plan, 
telecommunications plan, risk analysis, and a system architecture. 
Preparation of these reports is currently in progress. A cooperative 
agreement with the University of Arkansas has been extended in order to 
conduct a series of joint application design sessions and preparation 
of detailed system requirement documents needed for initial 
implementation. Pending the release of fiscal year 2000 funds, initial 
implementation is to begin in fiscal year 2001 with completion targeted 
for the first half of fiscal year 2002. Finalization of complete system 
requirements is to follow. Required to achieve broad implementation is 
the need to conduct ongoing needs assessments within the mission area 
and with its partners to align information system products and services 
with strategic information requirements necessary for meeting agency 
mission and goals and satisfying GPRA reporting requirements. Updating 
and maintenance of technical system assessments, conducting ongoing 
information technology evaluations, and enhancements of REEIS user 
interfaces will be essential to ensure currency and responsiveness over 
the life of the system. Additional activities include enlistment, 
training, and retention of essential personnel and staff, and the 
enhancement of several legacy systems and databases to permit effective 
inclusion in REEIS.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Progress and accomplishments of the REEIS initiative 
continue to undergo review and evaluation by the REE mission agencies, 
the REEIS National Steering Committee, our State partner institutions, 
and outside sources. The most recent in-depth evaluation of the project 
was conducted in June 2000 by a Department-wide information technology 
review board. Factors considered in the evaluation included REEIS 
system objectives, cost control measures, project scheduling, 
performance considerations, security policy, system architecture 
recommendations, and level of support for the Secretary's priorities. A 
user evaluation of this project was conducted at the August 2000 
meeting of the REEIS National Steering Committee comprised of 
representatives of the REE mission agencies, university partners, and 
key stakeholders. Committee members were presented the opportunity to 
critique the latest iteration of the REEIS proof-of-concept prototype 
in terms of its potential for responding to primary users, satisfying 
primary uses, and meeting priority system requirements. An independent 
verification and validation study is planned for fiscal year 2001. The 
study seeks to verify that results of development activities fulfill 
their requirements and validate that development products satisfy user 
needs under defined operating conditions.
                     geographic information system
    Question. Please provide a description of the research that has 
been funded under the Geographic Information System program.
    Answer. The purpose of this program is to promote collaborative and 
innovative transfer of systems technologies to state and local 
governments and others in the public and private sectors. The current 
program is being carried out by the non-profit National Consortium for 
Rural Geospatial Innovations in America--RGIS. The directors and 
participants of the Consortium are the sub-contractors who are carrying 
out the program by working on agro-environmental problems at the 
national, regional, state and neighborhood levels. They represent a 
wide spectrum of site-based expertise including six academic 
institutions, one regional development authority, and the Southwest 
Indian Polytechnic Institute site added by Congress in 1997. This 
institutional arrangement has helped fill a role in linking some of the 
otherwise disparate efforts of agencies and academic institutions to 
apply them now in seven regions of the country.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher believes that local officials are 
facing increasingly complex land management issues that require rapid 
access to resource knowledge and databases for decision making. This 
project is needed to transfer relevant technology to state and local 
governments, including Native American communities whose limited 
training budgets and sometimes-isolated location make it difficult to 
use the latest technology. The technology developed by the Consortium 
is useful in improving the management of natural resources. While 
concentrating on issues related to agriculture, the independent, non-
profit nature of the National Consortium for Rural Geospatial 
Innovations in America facilitates linkages across disciplinary and 
institutional barriers and makes it possible to use analyses at the 
state and local levels which were initiated at the Federal level. While 
the early phases of the geographic information system concentrated on 
building information systems related to rural, physical, and natural 
resources, the current challenge is to integrate human economic, 
social, and demographic information in order to better understand the 
relationship of human communities to the landscape. At the other end of 
the spatial scale, the role of the public sector in geographic 
information system-based precision farming technologies, data capture, 
and information synthesis is the subject of a current study group.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this work was to serve as a pilot 
project for the transfer of geographic information systems technology 
related to natural resources to local governments. The Consortium has 
carried out this function. Economic and biological data are being 
presented in various formats to state and local governments and 
individuals. Through its seven regionally-distributed sites, including 
the new Southwest Indian Polytechnic Institute site in New Mexico, the 
Consortium has implemented a variety of geographic systems technologies 
to local governments--both rural and urban. These include the recent 
expansion of transfer of geographic information technology through 
various distance education and Internet technologies. It is anticipated 
that the fiscal year 2001 grant will support work under this program 
through March 2002. The proposal for this work in 2000 has been 
received and reviewed.
    Question. How long has this work been under way and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1990, $494,000; fiscal year 1991, $747,000; fiscal 
years 1992 and 1993, $1,000,000 per year; fiscal year 1994, $1,011,000; 
fiscal year 1995, $877,000; fiscal year 1996, $939,000; fiscal years 
1997 through 1999, $844,000 per year; fiscal year 2000, $850,000; and 
fiscal year 2001, $1,022,745. A total of $10,472,745 has been 
appropriated since the beginning of the program.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. For fiscal year 1990 through fiscal year 1997, to date, the 
work in this program had $5,009,834 in non-Federal support. In fiscal 
year 1990, non-Federal support was $714,940 consisting of equipment, 
databases, and other miscellaneous contributions from foundations, 
city, and state governments. In fiscal year 1991, non-Federal support 
was $25,000 from county government. In fiscal year 1992, non-Federal 
support was $366,016 from county government, computer companies, and 
state governments consisting of equipment, software, facilities, and 
miscellaneous support. In fiscal year 1993, non-Federal support was 
$713,900 consisting of financial and miscellaneous support from 
foundations, county, and state governments. In fiscal year 1994, the 
non-Federal support was $713,643; in fiscal year 1995, the non-Federal 
support was $987,000; in fiscal year 1996, it was $567,173; and in 
fiscal year 1997, it was $456,582. In 1998-2000, non-Federal dollars 
exceeded $1,000,000, and it is anticipated that they will again in 
2001.
    Question. Where is this work being carried out?
    Answer. The National Consortium for Rural Geospatial Innovations in 
America is administratively centered at the University of Wisconsin-
Madison. The University of Wisconsin-Madison, functioning as the Great 
Lakes and Administrative center, continues a long history of 
involvement in the application of this technology at the local level 
with strong focus on soils/land-use and the institutional aspects of 
the integration of a new technology.
    The southeastern center in Valdosta, Georgia, in affiliation with 
the South Georgia Regional Development Center, has developed a 
comprehensive plan of the City of Adel as a model for other urban 
centers in the 10-county region.
    The southwestern center, in Fayetteville, Arkansas, serves several 
local governments through its training facilities at the University of 
Arkansas, basing its technical approach on expertise and past 
experiences with the Federally-developed system known as GRASS. They 
have developed pilot projects for some local jurisdictions and state 
level databases, which they have provided online.
    Central Washington University focuses on training for state 
planning and on three local governments and the Yakima Nation in the 
Yakima watershed.
    The north central center in Grand Forks, North Dakota, in 
affiliation with the University of North Dakota, focuses on relating 
real time weather data to other spatial attributes.
    Native American communities are being reached through the newly-
developed Southwestern Indian Polytechnic Institute facilities in 
Albuquerque, New Mexico.
    Two new sites were added in fiscal year 1999. They are Pennsylvania 
State University and the Geographic Information Systems Consortium at 
Wilkes University and Kings College in Pennsylvania. These two sites 
have replaced the NCRI-Chesapeake site and will be involved in 
providing Geographic Information Systems solutions to environmental 
problems that local government and regional planning commissions are 
dealing with in the Upper Susquehanna/Lackawanna Watershed.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objectives to build institutional frameworks 
for developing and disseminating geographic and related information to 
local decision makers is constantly evolving. Each site has developed 
approaches to addressing regional needs for modern technologies, and 
many innovative applications have been implemented. Technologies, 
including Internet-based educational and information exchange, have 
been developed to respond to the Consortium's customers. The Consortium 
has been asked to include these new technologies in order to bring its 
primarily rural users into new eras of public education and information 
management.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Proposals have been internally reviewed by Departmental 
personnel in different agencies. Beginning in 1995, the program has 
also been externally reviewed by local advisory committees and 
qualified professionals inside and outside of government. Their various 
comments and suggestions are sent to the agency and have helped with 
the favorable merit reviews. A 3-day review of the program was 
conducted in November 2000 by Departmental personnel in conjunction 
with a satellite training broadcast of Geographical Information Systems 
technologies to tribal colleges. The program was found to be making 
good progress towards objectives and producing useful documents for 
their clientele.
             germplasm development in forage grasses, ohio
    Question. Please provide a description of the research that has 
been funded under the Germplasm Development in Forage Grasses, Ohio 
grant.
    Answer. This project was initiated in fiscal year 2000 as a 
subcontract under the Hydroponic Tomato Production grant funded at 
$100,000 and was funded as a stand alone grant for 2001. The goals of 
the program are to identify and clone genes responsible for apomixis 
and to use them to develop apomictic germplasm in commercially-
important grasses such as corn, wheat, and rice. Apomixis is the 
development of seed embryos without fertilization which produces 
offsprings identical to the parent plant and greatly speed up 
development of new plant cultivars.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. These three grain crops are grown world wide and are the 
principle food source for much of the world's population. The apomictic 
character which can freeze the genetic make up of the first generation 
following cross breeding, equatorial to negative reproduction, greatly 
speeds up the development of new cultivars. This could be a major 
contribution toward feeding the world's growing population. This work 
has national and international impact.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to identify and clone 
the genes responsible for apomixis in grass plants and to use them to 
develop improved germplasm for important grain crops such as corn, 
wheat, and rice. To date five RNA clones from an apomictic forage grass 
have been sequenced, and their gene expression is being evaluated.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $99,780.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal finds and sources provided for this grant 
were as follows: $68,400 state appropriations in fiscal year 2000.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at the University of Toledo and 
Miami University of Ohio.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is estimated by the principal investigator to be 2005.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The last agency evaluation was in a fiscal year 2000 review 
and evaluation of the subcontract of the Hydroponic Tomato production 
Special Research Grant Proposal which was performed by CSREES National 
Program Staff. DNA sequences for gene segments from Tripsaum 
dactyloides have been isolated and sequenced. This will be used to map 
and identify value-added genes.
                     gulf coast shrimp aquaculture
    Question. Please provide a description of the research that has 
been funded under the Gulf Coast Shrimp Aquaculture grant.
    Answer. The Oceanic Institute and the Gulf Coast Research 
Laboratory have submitted a grant proposal that is currently under 
review. The research has addressed three major areas of research 
including broodstock development, aquatic animal health, and the 
development of economically viable biosecure culture systems. 
Researchers are developing improved high health stocks of marine shrimp 
with enhanced production traits and resistance to specific viral 
pathogens. The program continues to respond rapidly to the viral 
diseases and emerging pathogens that have significantly impacted the 
U.S. shrimp farming industry. Efforts to identify important viral 
pathogens and develop enhanced detection methods for these pathogens 
continues. Studies aimed at preventing new introductions of exotic 
viral pathogens in commercial and wild shrimp stocks have intensified. 
Technologies to enhance biosecure broodstock, hatchery, and production 
facilities are being developed and refined.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal researcher indicates that there is potential 
to enhance domestic production of marine shrimp through aquaculture in 
order to reduce the approximately $3 billion annual trade deficit in 
marine shrimp. Research is directed at the critical needs of the 
industry including improved supply of high quality seed, improved 
shrimp health management, improved biosecurity and environmental 
protection, and enhanced production efficiency in shrimp culture 
systems. The U.S. has the opportunity to become a major exporter of 
shrimp seed and improved broodstock, disease control and biosecurity 
technologies, products, and services.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal was to increase domestic production of 
marine shrimp through aquaculture. High-health, genetically-improved, 
and specific pathogen-resistant stocks have been developed and 
evaluated under commercial production conditions. These improved stocks 
serve as the genetic base for most of the commercial shrimp production 
in the U.S. Researchers have responded to severe disease outbreaks 
caused by the introduction of exotic viral pathogens into U.S. Studies 
have focused on the prevention and detection of shrimp viral diseases 
which have decimated domestic commercial production. Biosecure and 
environmentally-compatible production systems have been developed that 
have enhanced U.S. production technology. Diagnostic and disinfection 
techniques for a number of important viral pathogens have been 
developed.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Grants have been awarded from funds appropriated as 
follows: fiscal year 1985, $1,050,000; fiscal year 1986, $1,236,000; 
fiscal year 1987, $2,026,000; fiscal year 1988, $2,236,000; fiscal year 
1989, $2,736,000; fiscal year 1990, $3,195,000; fiscal year 1991, 
$3,365,000; and fiscal years 1992-1993, $3,500,000 per year; fiscal 
year 1994, $3,290,000; fiscal year 1995, $2,852,000; fiscal year 1996, 
$3,054,000; fiscal years 1997 through 2000, $3,354,000, per year; and 
$4,167,811 in fiscal year 2001. A total of $49,623,811 has been 
appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The U.S. Marine Shrimp Farming Consortium estimates that 
non-Federal funding for this program approaches 50 percent of the 
Federal funding for fiscal years 1991-2001. The source of non-Federal 
funding is primarily from state and miscellaneous sources. There is 
also substantial in-kind contributions from commercial cooperators.
    Question. Where is this work being carried out?
    Answer. The work is being carried out through grants awarded to the 
Oceanic Institute in Hawaii and the Gulf Coast Research Laboratory in 
Mississippi. Research is also conducted through subcontracts with Tufts 
University, the Waddell Mariculture Center in South Carolina, the Texas 
Agricultural Experiment Station, and the University of Arizona.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original specific 
research objectives was 1987. The original specific objectives have 
been met, however new challenges to the U.S. farm-raised shrimp 
industry continue the need for shrimp culture research. Researchers 
anticipate that the specific research outlined in the current proposal 
will be completed in fiscal year 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project proposal is reviewed annually by the agency's 
Program Managers and the Program Specialist. The fiscal year 2000 
agency evaluation concluded that the research objectives were clearly 
stated and the proposed research was consistent with the National 
Science and Technology Councils--NSTC--Strategic Plan for Aquaculture 
Research and Development. Facilities and expertise were very good, and 
the research activities were closely linked to the U.S. shrimp farming 
industry with the industry cooperating in many components of the 
research. The agency conducted an on-site review of this program in 
October 1999. The external review team indicated that the quality of 
the science was high, that researchers continue to provide information 
critical to the development of the shrimp farming industry in the U.S., 
and that the overall Consortium management was excellent.
            livestock marketing information center, colorado
    Question. Please provide a description of the research that has 
been done under the Livestock Marketing Information Center, Colorado 
program.
    Answer. The Livestock Marketing Information Center--LMIC--is a 
well-respected source of market-related data and analyses for the 
livestock sector. Direct participants in the Center include 23 
universities, 3 USDA agencies, and 8 private sector organizations. 
Livestock producers, livestock firms, and State and Federal agencies, 
and other institutions also access its data and information. The grant 
has significantly enhanced the ability of the Center to provide 
objective analyses of livestock markets and make recommendations to 
livestock producers.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Recent changes in the structure of the livestock industry 
and in farm legislation have forced producers to pay more attention to 
market signals. Market prices have become more volatile because of 
changing domestic and international markets, thereby increasing 
producers' need for high quality market information and interpretation.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The goal is to increase the ability of livestock producers 
to make economically-sound business decisions in a changing global 
economy.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by the grant began in fiscal year 2000 
with an appropriation of $170,000, and $184,593 in fiscal year 2001. 
The total amount appropriated is $354,593.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The Center includes a consortium of faculty from 23 
universities; participating universities contribute about $170,000 of 
non-Federal funds a year.
    Question. Where is this work being carried out?
    Answer. The work will be carried at the Livestock Marketing 
Information Center, Denver, Colorado, in cooperation with Colorado 
State University and 22 other universities.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original project was a period of 12 months, ending in 
May 2001. However, there are ongoing needs for timely analysis to 
support decisionmaking processes of livestock producers and others in 
the livestock industry.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed a merit review of the project in March 
2000, as it evaluated the 2000 project proposal, and concluded that: 
``LMIC is a excellent home for this project. It has been recognized in 
a number of awards and is a leading institution in the adoption of 
electronic technology since the early 1980s, making its data and 
information readily available on the Internet for easy access and 
customized output. The principal investigator and staff have the 
attitudes, skills, and abilities to do an outstanding job. The project 
is consistent with CSREES' goals of a globally-competitive agricultural 
system and enhanced economic opportunity.''
                      mariculture, north carolina
    Question. Please provide a description of the research that has 
been funded under the Mariculture, North Carolina grant.
    Answer. The agency requested that the university submit a grant 
proposal that has yet to be received. The long-term goal of the project 
is to develop methods for mass propagation of marine finfish for 
commercial cultivation and possible stock enhancement. Specific 
objectives address improved control of reproduction, broodstock 
husbandry practices, growout technologies, larval rearing, and analysis 
of intensive production systems in selected marine finfish species 
including the southern flounder and the black sea bass.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal investigators forecast an increasing need for 
the development of aquacultural production systems and methodologies 
for a variety of marine finfish. Results from this research will have 
broad application in the identification and development of marine 
species with commercial potential in the U.S.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research program was to develop 
sustainable aquaculture production systems for marine finfish. Captive 
mutton snapper were successfully matured and spawned, and the resulting 
larvae reared through the juvenile stages. Juveniles were supplied to 
commercial and governmental organizations for commercial grow-out 
trials. Initial results appear promising with good survival rates and 
excellent feed conversion ratios. Current research involves southern 
flounder and black sea bass and focuses on controlling reproduction, 
developing broodstock husbandry practices, evaluating stocking 
densities, optimization of environmental factors and feeding regimes 
for larval rearing, and evaluating production economics in intensive 
systems.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1998. 
The appropriation for fiscal year 1998 was $150,000; for fiscal years 
1999 and 2000, $250,000 per year; and for fiscal year 2001, $324,285 
was made available. A total of $974,285 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The university estimates that approximately $115,000 of 
non-Federal funds were provided for this project in fiscal year 1998; 
$61,941 were provided for fiscal year 1999; and $125,000 for fiscal 
year 2000. These funds came primarily from state and private sources.
    Question. Where is this work being carried out?
    Answer. The research will be conducted at the Center for Marine 
Science Research at the University of North Carolina at Wilmington.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The project was initiated in fiscal year 1998. The original 
goals that were to be completed in fiscal year 2000 have been met. The 
anticipated completion date for the current proposal is fiscal year 
2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The fiscal year 2000 agency evaluation concluded that the 
proposal was well-written and the objectives were clearly stated. The 
methodology and experimental design were sound, and the research was 
relevant and addressed a potential opportunity for the aquaculture 
industry. Facilities were excellent and have been enhanced through this 
program. The research team was well qualified and had the appropriate 
expertise. The proposed research is consistent with national goals and 
needs outlined in the National Science and Technology Councils--NSTC--
Aquaculture Research and Development Strategic Plan.
          national alternative fuels laboratory, north dakota
    Question. Please provide a description of the research that has 
been funded under the National Alternative Fuels Laboratory, North 
Dakota grant.
    Answer. Through a nationally-marketed collaboration program in 
which the National Alternative Fuels Laboratory matches about half of 
its Federal funding with non-Federal money to work on industry-relevant 
research, the National Alternative Fuels Laboratory staffs have 
developed a Federal Aviation Administration-certified lead-free 
ethanol- and biodiesel-containing alternative to leaded aviation 
gasoline that is now commercially available in South Dakota, and will 
be introduced at airports throughout the U.S. in a year or two in 
response to increasing pilot demand. They have resolved ethanol-in-
gasoline performance and environmental issues to accelerate the use of 
ethanol, and they have initiated new biomass fuel developments, 
including processes, to produce Environmental Protection Agency-
approved, high-octane, emissions-cleaning gasoline additives from 
agricultural resources. In addition, they have initiated and 
coordinated the 27-member Red River Valley Clean Cities Coalition to 
increase the number of alternative fuel vehicles in regional public and 
private fleets and have built E85 refueling sites in North Dakota.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Our nation needs to develop commercially-viable 
alternatives to fossil fuels to ensure energy security, improve air 
quality, and provide employment and economic development opportunities. 
It is crucial to national security and economic development that these 
new fuels are accurately represented in the marketplace and given an 
opportunity to compete fairly with traditional fossil fuels. The 
National Alternative Fuels Laboratory provides unbiased scientific data 
on fuel performance and environmental effects. Regional need for the 
research derives from the need to support regional agriculture and 
associated industries through development of new biomass fuel 
industries based on new crops and conventional crop residues, and 
development of economic uses for agricultural co-products.
    Question. What was the original goal of this research, and what has 
been accomplished to date?
    Answer. The primary original goal was to develop a database of at-
the-pump-sampled conventional, reformulated, and alternative 
transportation fuels sold in the upper midwest and throughout the U.S. 
to enable comparison of current and historical fuels on the basis of 
chemical and physical properties. This fuels database is being expanded 
to include how gasoline chemistry affects air quality and fuel 
performance. Another original goal was to provide information on 
conversion of crop residues, agriculture processing wastes, high-
cellulose-content municipal wastes, and other biomass materials to 
alternative fuels. The National Alternative Fuels Laboratory program 
supported North Dakota's first two public E85 refueling sites, 
initiated an ongoing industry-supported effort to develop and build a 
new agricultural co-product-to-carboxylic acid plant in the Grand Forks 
region--carboxylic acids are building blocks for bio-based polymers and 
fuels--helped resolve ethanol blend evaporative emissions issues and 
E85 engine cold-start problems, and initiated an ongoing industry 
collaboration to demonstrate the viability of producing and utilizing 
biomass-based clean-burning gasoline and diesel fuel additives.
    Question. How long has this work been under way, and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The National Alternative Fuels Laboratory work began in 
fiscal year 1991 and was, in part, sponsored by this grant. Federal 
appropriations in fiscal year 1991 through fiscal year 1993 were 
$250,000 per year. Later awards were $235,000 in fiscal year 1994; 
$204,000 in fiscal year 1995; $218,000 per year in fiscal years 1996 
through 2000; and $258,430 in fiscal year 2001. A total of $2,537,430 
has been appropriated over 11 years.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. To date in fiscal year 2000, $80,000 in non-Federal 
collaborative funding has been secured from Kraus Group Inc., an 
alternative fuels infrastructure developer, and the American Lung 
Association of Minnesota. A total of $1,240,000 in non-Federal funds 
has been secured for performance of the National Alternative Fuels 
Laboratory program objectives over the duration of this grant. During 
fiscal year 1991 through fiscal year 1993, non-Federal funding from the 
state of Illinois totaled $630,000. For fiscal year 1994, non-Federal 
funding of $105,000 was secured from the American Corn Growers' 
Association, the Renewable Fuels Association, and others. For fiscal 
years 1995, 1996, 1997, 1998, and 1999, non-Federal funding totals of 
$50,000, $60,000, $140,000, $90,000, and $95,000, respectively, were 
secured from corn grower organizations, state agriculture departments, 
alternative fuels technology companies, and regional economic 
development agencies.
    Question. Where is this work being carried out?
    Answer. The work is performed at the University of North Dakota 
Energy and Environmental Research Center in Grand Forks. The Center is 
a research, development, demonstration, and commercialization facility 
that employs about 200 scientists, engineers, and support personnel.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The completion date for the original objectives was April 
30, 1992. The objectives were met. The work was then expanded to 
include partnerships with industry and agriculture. The National 
Alternative Fuels Laboratory has been established as a center of 
expertise for development and demonstration of bio-based fuels, 
investigating fuel chemistry effects on engine performance and air 
quality, dissemination of accurate and objective information regarding 
ethanol in gasoline, and ethanol feedstock assessment and process 
development. Additional tasks include commercializing an ethanol-based 
aviation gasoline, implementing industry collaborations to produce 
carboxylic acids and fuel additives from regional agricultural 
resources, and administering the Red River Valley Clean Cities 
Coalition. These tasks should be completed by 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Evaluation of this project is conducted annually based on 
the annual progress report and discussions with the principal 
investigator, as appropriate. The review is conducted by the cognizant 
staff scientist who has determined that this research is in accordance 
with the mission of the agency.
          national center for peanut competitiveness, georgia
    Question. Please provide a description of the research that has 
been done under the National Center for Peanut Competitiveness, Georgia 
grant.
    Answer. The grant supports an interdisciplinary research and 
education program to enhance the competitiveness of the U.S. peanut 
industry by examining alternative production systems, developing new 
products and new markets, and improving product safety.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Peanuts are a very important crop in several southern 
states. In many counties, peanuts provide more than 50 percent of all 
crop income. Peanut producers have been major beneficiaries of 
government income protection programs, but Federal farm and trade 
policies are changing and producers must become more competitive and 
market oriented.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The project helps peanut producers be more competitive in 
the global market. Recent accomplishments follow. An expert management 
system adapted to hand-held computers enables county agents to meet 
farmers in the field and recommend least-cost weed control practices, 
thereby saving farmers several dollars in chemical costs and placing 
less burden on the environment. An interdisciplinary team developed a 
disease-risk index model that successfully predicts the likelihood of 
disease and economic result. Ongoing research is helping to develop 
expert decision support systems to enable producers to improve their 
competitiveness. New production practices such as twin-row planting 
patterns and strip-till production practices are being evaluated in 
several locations.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1998. 
Appropriations have been as follows: $150,000 in fiscal year 1998; 
$300,000 in fiscal years 1999 and 2000; $399,120 in fiscal year 2001. 
Total appropriations to date total $1,149,120.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: in fiscal year 1998, the state of Georgia contributed 
$141,181 and the state of Alabama, $15,000; in 1999, the state of 
Georgia contributed $504,354 and the state of Alabama, $67,553.
    Question. Where is this work being carried out?
    Answer. The Center is located at the University of Georgia at 
Griffen and involves university cooperators from nearby peanut 
producing states, such as Auburn University in Alabama and the 
University of Florida.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1998 was for a period of 36 
months, however, the need to improve the competitiveness of U.S. peanut 
growers continues to grow. The current phase of the program will be 
completed in 2003.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed a merit review of the project in July 
2000, when it evaluated the current year's project proposal, and 
concluded that: ``The project has sound objectives and procedures for 
helping the U.S. peanut industry become competitive, thereby 
contributing to the CSREES goals of a highly competitive agricultural 
production system and enhanced economic opportunity for Americans. The 
principal investigator and other faculty named in the proposal are 
recognized for their leadership in the industry. The subcontracts with 
Auburn University and University of Florida are appropriate and help to 
create a true regional effort.''
                        pm-10 study, washington
    Question. Please provide a description of the research that has 
been funded under the PM-10 Study, Washington research grant.
    Answer. The PM-10 Study in Washington addresses the effects of 
emissions of PM-10 and PM-2.5 sized particulates, or dust, from 
agricultural land on air quality and development of control strategies. 
These studies are being conducted by scientists at the University of 
California-Davis and the Washington State University, in cooperation 
with Federal, state, and local agricultural, environmental, and health 
agencies and farmers and growers in both states. The California program 
had focused on developing and refining methods to accurately measure 
and detect the sources of PM-10 and PM-2.5 emissions from various 
agricultural-susceptible California crops and soils. In addition, the 
California research had been expanded to include dust and gaseous 
emissions from cattle feedlots, dairies, and the poultry industry. The 
Washington State University scientists are using refined instruments on 
field sites to measure and predict the effects of wind erosion and 
agricultural practices in the Columbia River Basin region on PM-10 and 
PM-2.5 emissions, under both natural wind erosion and with portable 
wind tunnel studies. Alternative cropping and tillage practices, 
residue management, and weed control practices are being developed and 
compared for control of PM-10 and PM-2.5 emission pollution under 
Columbia River Basin conditions. Models using regional weather data 
have also been developed in Washington to predict potential air quality 
degradation by PM.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. There has been growing national concern over the potential 
health and safety aspects of air pollution from dusts and suspended 
particulate matter resulting in passage of the 1990 Clean Air Act, as 
well as state air quality laws in both California and Washington. 
Because of particular problems from PM-10 and PM-2.5 emissions in the 
arid regions of the Western U.S., research on the role of agricultural 
operations in intensively cultivated soils--such as in California and 
the Columbia River Basin--as sources of PM-10 and PM-2.5 pollution will 
assist growers to develop alternative agricultural management practices 
to control PM-10 and PM-2.5 emissions is critical.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goals of this research were to measure the PM-
10 emission rates from significant crop and tillage practices, to 
determine the source of PM-10 emissions on soils in agricultural 
regions of central and southern California and the Columbia River Basin 
in the Pacific Northwest, and to explore cost-effective alternative 
agricultural practices to control these emissions. More recently, 
studies of finer PM-2.5 particulates have been included because of 
their recognized potential health risks. In California, field 
measurements were continued on both PM-2.5 and PM-10 emissions on 
production practices on almonds, figs, walnuts, cotton, wheat, and on 
ammonia emissions from dairy farms and feedlots. Similar studies in the 
Columbia River Basin are being conducted in Washington on a number of 
agricultural practices in the rain-fed and dryland croplands. 
Susceptible climatic and soil conditions and tillage and cropping 
practices have been identified and are being used to develop prediction 
tools to assist growers to adopt alternative practices to reduce 
potential air pollution by PM-10 and PM-2.5 particulate emissions. 
During 1998, an intensive study was undertaken to evaluate emission 
differences in almond harvesters. Data have been taken in California to 
assess land preparation techniques.
    A Light Detection and Ranging system has been developed at the 
University of California-Davis that makes it possible to take a 
snapshot of the shape of an emission plume from a source such as a 
harvester and make estimates on the amount of particulate material 
emitted into the atmosphere and its subsequent transport. Efforts 
continue to calibrate the Light Detection and Ranging System. New 
predictive tools are being developed by Washington to predict dust 
storms from extreme weather events.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in March 1994. The 
appropriation for fiscal year 1994 was $940,000; fiscal year 1995, 
$815,000; for fiscal years 1996 through 2000, $873,000 per year; and 
for fiscal year 2001, $435,041 for Washington State University only. 
California was not funded under this grant for fiscal year 2001. A 
total of $6,555,041 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. In California, the program is matched by State funds in the 
form of salaries, benefits, and operating costs. In Washington, there 
were no state or non-Federal funds in support of the PM-10 project in 
1994 and 1995. In 1996, state support was $22,566, and in 1997, state 
support was $102,364. Similar funding was continued in 1998 to 2000.
    Question. Where is this work being carried out?
    Answer. Previous work was being directed by participating 
scientists at the University of California-Davis and currently by 
scientists at Washington State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date of the original objectives 
of this project is 2001. The first four objectives of the project on 
soil particle characterization were anticipated to be completed in 
1999. The objectives on field control will continue. In 1998, a manual 
for practices was developed and circulated for use by growers in 
Washington State to reduce wind erosion on agricultural land. 
Implementation and development of these management practices will be a 
major role of this project in the future. Quarterly and annual reports 
on the Washington State project to date are available.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency's Program Manager annually reviews the research 
progress reports and proposed new research and attended the last annual 
meeting of the program to assess progress in December 2000. The program 
is also evaluated each year by technical, administrative, and agency 
personnel. Progress is reported at research review meetings three times 
a year, with the November 1998 advisory committee members. A formal on-
site review by a panel of experts was conducted of the Washington 
program in November 1997.
  precision agriculture, alabama geospatial training and application 
                                 center
    Question. Please provide a description of the research that has 
been funded under the Precision Agriculture, Alabama Geospatial 
Training and Application Center grant.
    Answer. This grant will develop training programs for farmers in 
the use of Global Positioning Systems, Geographical Information 
Systems, Remote Sensing and Variable Rate Technology for precision 
farming application.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This project will focus on the southeastern area of the 
U.S. However results will apply to any location where precision farming 
is applied.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this project is to provide training 
for farmers and agricultural service representatives in the use of 
precision farming technology.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000 
and was funded at $425,000, and in fiscal year 2001 is funded at 
$585,709. The total appropriation is $1,010,709.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The estimate for non-Federal funds from state appropriation 
and other sources was $300,000 for fiscal year 2000.
    Question. Where is this work being carried out?
    Answer. The project will be conducted at the U.S. Space and Rocket 
Center Huntsville, Alabama, and the Tennessee Valley Research and 
Extension Center at Belle Minci, Alabama.
    Mr. Skeen. When was the anticipated completion date for the 
original objectives of the project? Have those objectives been met? 
What is the anticipated completion date of additional or related 
objectives?
    Answer. The anticipated completion date for the original objectives 
is 2004.
    Mr. Skeen. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project was peer reviewed and subjected to the project 
review and approval process by the submitting organization. In 
addition, each proposal is reviewed by CSREES National Program Staff.
 precision agriculture/tennessee valley research and extension center, 
                                alabama
    Question. Please provide a description of the research that has 
been funded under the Precision Agriculture/Tennessee Valley Research 
and Extension Center, Alabama grant.
    Answer. The Precision Agriculture Tennessee Valley Research and 
Extension Center Project will focus on evaluating and demonstrating the 
utility of geospatial applications to crop production in the area. The 
work will cover issues such as: Global Position Sensor, variable rate 
applicators, yield monitor, computer software and soil moisture 
monitoring equipment. This is a cooperative effort with the Geospatial 
Training and Application Center Project and will provide field 
laboratory for hands-on training of participants in that training 
program.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The activities of this program will be carried out in the 
Tennessee Valley of Alabama, however, the training supported in part by 
this project will have boarder application and therefore could have 
regional and national significance.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this research is to evaluate precision 
technologies at the Tennessee Valley Research and Extension Center for 
applications to site-specific farming and to support training in the 
use of those technologies.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This work started in 2000 as part of the Precision 
Agriculture, Geospatial Training Center Project and was funded in 2001 
as a separate stand alone project. The appropriate for fiscal year 2001 
is $146,677.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were estimated at $97,000 for fiscal year 2000.
    Question. Where is this work being carried out?
    Answer. Research will be conducted at the Tennessee Valley Research 
and Extension Center and area farmers fields.
    Question. When was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is 2004.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project was peer reviewed at the institution and was 
subjected to the project review and approval process. In addition it 
was reviewed by CSREES National Program Staff.
               sustainable agriculture development, ohio
    Question. Please provide a description of the research that has 
been funded under the Sustainable Agriculture Development, Ohio grant.
    Answer. A proposal has been requested from the University of 
Toledo. The principal researcher has indicated that the proposal will 
address the building of capacity and international linkages between 
universities in the U.S. and in Lebanon.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The principal research has indicated that the globalization 
of agriculture has led to a need to increase international interactions 
in research and education.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. According to the project leader, the general goal will be 
to build research capacity among universities in the U.S. and Lebanon 
in biotechnology. This goal will be accomplished through support for 
research and training of Master's degree students at the American 
University of Lebanon and through the training of students from Lebanon 
for Ph.D. degrees at the University of Toledo and the Ohio State 
University. Research and training under this project will include the 
identification and analysis of plants native to Lebanon with potential 
medicinal, bioactive, or ornamental value. Since the proposal has not 
yet been funded, there are no accomplishments to report to date.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $473,955.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Since the project has not yet been funded, there are no 
non-Federal funds to report at this time.
    Question. Where is this work being carried out?
    Answer. The work is expected to be carried out in the U.S. and 
Lebanon by the University of Toledo, the Ohio State University, and the 
American University of Beirut.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The objectives and completion date have not yet been 
determined.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last agency evaluation conducted.
    Answer. No evaluation has yet taken place since the project has not 
yet begun.
                      urban silviculture, new york
    Question. Please provide a description of the research that has 
been funded under the Urban Silviculture, New York grant.
    Answer. This is a new project thus a precise description of the 
research to be conducted is not currently available. The general focus 
however is ``types of greenery most conducive to solving air quality 
problems in the Mott Haven and Hunts Point neighborhoods of New York 
City.''
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. At this writing, a proposal has not been received. The 
grantee is conducting a thorough literature review and will submit a 
proposal in conjunction with the outcomes of the literature review. The 
requested date for proposal submission is April 30, 2001.
    Question. What was the original goal of this research and what has 
been accomplished to date.
    Answer. The original goal is to determine the types of vegetation 
and planting design(s) most conducive to ameliorating air quality 
conditions in the Mott Haven and Hunts Point neighborhoods in greater 
New York City.
    Question. How long has the project been under way, and how much has 
been appropriated, by fiscal year, through fiscal year 2001?
    Answer. Other than a literature review, which is ongoing, the 
project has not begun. The total fiscal award, and the fiscal year 2001 
award are identical $237,476.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year.
    Answer. The source and amount of non-Federal funds has not been 
disclosed as the grantee is still working on the original proposal.
    Question. Where is the work being carried out.
    Answer. The project has not yet begun, but research sites are 
targeted for the Mott Haven and Hunts Point areas of greater New York 
City.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion dates of additional or related projects?
    Answer. The work has not begun thus no objectives have been met. 
The grantee will likely structure their original investigative work 
over a two-year time span and reflect in their proposal that this time 
span will only allow for the establishment of multiple research 
designs, not quantitative air quality amelioration results.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the evaluation conducted.
    Answer. The agency has not conducted an evaluation of this project. 
CSREES' project administrator traveled to New York City on January 18, 
2001 to meet with Congressman Serrano's office and the grantee 
regarding the nuances of grant proposals originating under the Federal 
Administration sector of CSREES' budget.
                        water quality, illinois
    Question. Please provide a description of the research that has 
been funded under the Water Quality, Illinois grant.
    Answer. The Illinois Groundwater Consortium grew out of a fiscal 
year 1990 appropriation of $500,000 to Southern Illinois University at 
Carbondale to focus on the short- and long-term effects of agricultural 
chemical contamination on the state's environment, on groundwater 
quality and quantity, and ultimately, on human health and welfare. As a 
result of this appropriation, the university joined forces with the 
Illinois State Geological Survey, the Illinois State Water Survey, the 
University of Illinois Cooperative Extension Service, the University of 
Illinois Agricultural Experiment Station, and shortly thereafter, the 
Edwardsville Campus of Southern Illinois University, to create the 
Illinois Groundwater Consortium. The Consortium's primary mission, then 
and now, is to work effectively toward providing a solid scientific 
basis for agricultural chemical management and regulatory decision 
affecting Illinois groundwater. The consortium has worked to address 
the concerns of the agricultural and agrochemical industries, as well 
as the valid concerns of the agencies charged with protection of 
environmental quality. Projects supported with consortium funding are 
peer-reviewed by researchers at 30 different universities and agencies 
from across the Nation, and results are presented, critiqued, and 
published annually at the Consortium's Research and Planning 
Conference.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. According to some estimates, Illinois depends on 
groundwater for nearly half of its water usage, with the downstate 
region being most heavily dependent on groundwater sources. The quality 
and quantity of groundwater resources in Illinois are of critical 
concern for the entire estate, from safe drinking water supplies to the 
rapidly growing urban northeastern region to reliable irrigation waters 
in the agriculturally-oriented south.
    Between 1996 and 1999, research funded by the Illinois Groundwater 
Consortium was targeted to studies of the impacts, recovery, and 
remediation of groundwater supplies following the Midwestern region 
after flooding. The extensive 1993-1994 flooding of the Mississippi, 
Missouri, and Illinois Rivers and their tributaries had devastating 
effects on the farmlands, communities, and natural resources of the 
area. These effects have major implications for agricultural practices, 
water quality, and public policy decisions. This natural catastrophe 
resulted in a need for further research into the impact of the flooding 
on surface/groundwater, soils, and their rehabilitation, biodiversity, 
and economic and public policy in the region.
    The more recent focus of the Consortium is on the impacts on 
groundwater of land use practices and changes in such practices 
resulting from urbanization as well as agricultural activities such as 
the growth of large animal feedlots. While the impact of land use 
practices is most immediately seen in surface waters and river systems 
through pollution, changes in biodiversity and habitat, and silting, 
the impact of agricultural contamination on groundwater resources is of 
equal, and perhaps more compelling, concern.
    In addition, there is a continuing need to disseminate results of 
groundwater studies to the public to enable Consortium findings to be 
expeditiously beneficial to those needing the information. To 
facilitate this objective, the Consortium expanded its participant 
institutions to include Southern Illinois University-Edwardsville. The 
strategic location of the Edwardsville campus in the heart of the flood 
damage area, as well as its qualified research scientists who work in 
the Consortium's high priority research areas, add strength to the 
Consortium's capabilities.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The Illinois Groundwater Consortium was established to 
coordinate and support research on the effects of agricultural 
chemicals and other phenomena or events, anthropogenic or natural, on 
Illinois' groundwater. In working toward these goals, it is important 
to achieve a balance between the need to maintain the productivity and 
cost-effectiveness of the Nation's agricultural systems and the need to 
maintain the integrity of the natural environment. In this context, the 
Consortium has worked to address the concerns of the agricultural and 
agrochemical industries as well as those of the agencies charged with 
protection of environmental quality.
    The highest priorities of the Consortium are: (1) the funding of 
research upon which public policymaker working on land-use or 
groundwater-protection issues can base decisions, and (2) the broad 
dissemination of this information. Projects funded by the Consortium 
that are completed, under way, or proposed include the following:
    Short-term projects, largely flood-based and mostly completed:
  --Effect of extended inundation on soil productivity;
  --Effectiveness of methods of remediation for flooded soils;
  --Movement of chemicals--pesticides, herbicides, heavy metal 
        elements, etc.--from flooded soils into surface and ground 
        waters, including rural wells;
  --Impacts on soil fertility and nutrient balance caused by flooding;
  --Impacts of flooding on plant and aquatic life, including endangered 
        and dangerous species, and microbial communities;
  ----Effectiveness of riparian buffer strips under flooded conditions; 
        and
  --Groundwater quality changes resulting from flood-related land-use 
        developments in both the bottomlands where farming practices 
        change, and in the uplands where new communities are being 
        developed.
    Long-term projects, largely current and future, are focusing on the 
effects of land-use practices and changes in practices:
  --Changes in soil chemistry and productivity over time;
  --Long-term effects on and recovery of microbic activity;
  --Long-term assessments and consideration of cultural--social, 
        political--contexts of decision making;
  --Impacts of urbanization on groundwater quality and quantity;
  --The roles of nitrogen and nitrate: Changes in nitrogen-fixing 
        bacteria, isotopic analyses to identify sources of nitrate, and 
        nitrate management for water quality protection;
  --Recommendations for long-term, systems-based planning and 
        management for watershed and bottomland management;
  --Examination of public policy decisions with implications for 
        agriculture and water quality; and
  --Educational outreach to management agencies, educational 
        institutions, and farmers.
    Information on the occurrence, transport, and fate of agriculture 
chemicals in varied hydrogeological settings in Illinois, and the 
effects of regulatory and inventive policies and strategies, has been 
acquired through joint efforts of experts in the state of Illinois who 
are members of the . Illinois Groundwater Consortium.
    Question. How long has this work been underway and how much as been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Research grants have been awarded from funds appropriated 
as follows:

        Fiscal year                                       Funding Amount
1990....................................................        $500,000
1991....................................................         590,000
1992....................................................         750,000
1993....................................................         750,000
1994....................................................         690,000
1995....................................................         500,000
1996....................................................         500,000
1997....................................................         500,000
1998....................................................         500,000
1999....................................................               0
2000....................................................         297,500
2001....................................................         348,232
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................       5,925,732

    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
were: $255,891 state appropriations in 1991; $447,237 state 
appropriations in 1992; $644,054 state appropriations in 1993; and 
$623,124 state appropriations in 1994. Non-Federal and State funds for 
1995-1997 have exceeded the Federal funds. In 1998, state 
appropriations totaled $151,650; in 1999, $156,198; and in 2000, 
$181,881.
    Question. Where will the research be carried out?
    Answer. The active research programs sponsored by the Illinois 
Groundwater consortium are being carried out throughout the state of 
Illinois, including, but not limited to, the heavily populated 
northeastern part of the state, the Karst watershed in southwestern 
Illinois, the drainages of the Sangamon and Illinois Rivers, and in 
natural conservation areas such as Horseshoe Lake. Researchers 
undertaking these programs are staff at the member institutions of the 
Consortium, including the University of Illinois, the Carbondale and 
Edwardsville campuses of Southern Illinois University, the Illinois 
State Geological Survey, and the Illinois State Water Survey. The 
Consortium is coordinated in the Office of Research Development and 
Administration in the Graduate School of Southern Illinois University-
Carbondale.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Illinois Groundwater Consortium was established to 
support research on Illinois' groundwater. In the first and subsequent 
proposals, we identified both short-term objectives, which are project 
goals that could be accomplished within 1-2 years, and long-term 
objectives that could be accomplished within 2-5 years. The 
Consortium's highest priorities are: (1) to fund research that has 
practical implications for the people of Illinois and will contribute 
to sound policy and management decisions, and (2) to achieve broad 
dissemination of this information.
    With respect to the first priority, the Consortium's first major 
focus--what we might think of as a first phase of a coordinated 
research program--was a 5-year study of the impacts and recovery of the 
1993-1994 flooding in the Midwest. By the end of calendar year 2000, we 
had completed six years of studies involving 24 projects, primarily 
directed to the flooding event. That phase is completed now; and in 
1999, the Consortium Board of Directors met and decided on the scope 
and direction of a second phase of groundwater study. Six projects are 
currently funded by the Illinois Groundwater Consortium as part of the 
next phase of projects for fiscal years 2000 through 2003. Projects in 
this phase will address two major issues. One concerns the effects of 
land-use practices and changes in such practices on groundwater quality 
and quantity, emphasizing long-term assessments and consideration of 
cultural--social and political--contexts of decision making. The second 
issue consists of intensified educational outreach efforts to 
management agencies, educational institutions, and farmers in the form 
of ``user friendly'' publications.
    In terms of the second priority of the Consortium--dissemination of 
research findings--results of projects completed in previous years and 
progress reports on projects underway are published each year as part 
of the ``Proceedings of the Annual Research and Planning Conference'' 
of the Consortium and in the Consortium's ``Groundwater Bulletin.'' 
Distribution of both these publications is broad, by way of mailing 
lists to public and private institutions and individuals, as well as 
through related conferences and workshops. Illinois Groundwater 
Consortium-funded research has been the basis for publications and 
educational materials used in classrooms, by management agencies and by 
farmers. These include ``50 Ways Farmers Can Protect Their 
Groundwater--the 1950 Ways' series'' which serves as a textbook and 
informational resources in all 50 states and internationally. A new 
series of these books, entitled ``Secret Agent Worms'' and funded by 
the Illinois Environmental Protection Agency, is being developed for 
educational use at the grade-school level.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This project has not been subject to formal agency review. 
The USDA regularly reviews the Consortium's proposals for funding, 
along with the titles, principal investigators' names and affiliations, 
and budgets. In addition, individual project proposals are peer-
reviewed by at least three faculty/researchers drawn from 36 different 
universities, state, and Federal labs and surveys, the Department's 
research laboratories, and other research centers. The reviewers rate 
proposals on criteria pertaining to scientific merit, quality of the 
research team, likelihood of the work resulting in publications and 
grant support from other sources, and related ness of the project to 
the key objectives of the Consortium.
                      water quality, north dakota
    Question. Please provide a description of the research that has 
been funded under the Water Quality, North Dakota program grant.
    Answer. The original goal of this research was to develop an 
understanding of the occurrence, transport, and fate of agricultural 
chemicals found in representative field settings in the northern Great 
Plains region of the U.S. In 1996, the scope of the program was 
expanded to include additional water management issues in the Red River 
of the North drainage basin. The Red River Water Management Consortium, 
a partnership between public and private sectors was established to 
address critical water quality and quantity issues in an area where 
agriculture is the predominant industry. A major objective of the Red 
River Water Management Consortium is to use results from the initial 
phases of this research program to find economical, practical, and 
timely technological solutions to water-related issues facing the 
region. By providing co-funding for the program, the Consortium members 
become active stakeholders in the research and ensure the practicality 
of the work performed.
    Since the Consortium was established, the Energy and Environmental 
Research Center has advocated a better understanding of the critical 
nature of the climatic cyclicity as the primary factor affecting the 
economy of this region. In order to live successfully in a setting that 
is highly influenced by cyclic climatic phenomena, the Energy and 
Environmental Research Center advocates developing technically-based 
tools as a means of protecting the region from the harmful effects of 
both flooding and drought and the evaluation and implementation of 
creative water management concepts through basinwide partnerships 
between basin stakeholders. The Center believes that the effective 
Federal, state, and local agency, municipality, and industry 
partnership established by the Consortium can become a model for 
agricultural watersheds throughout the Nation.
    The focus of current work is on (1) the assessment, development, 
and implementation of new technologies for addressing water-related 
concerns within the basin; (2) water resource assessment and analysis, 
including the development of mechanisms for providing easy access to 
water-related information so proper water management decisions can be 
made; (3) the determination of agricultural, industrial, municipal, and 
recreational impacts on water resources, both current and potential, 
and the identification of potential solutions to water quality and 
quantity problems and needs; (4) water quality monitoring and 
coordination of monitoring activities; (5) education and information 
dissemination on water issues facing this region of the U.S.; and (6) 
development of watershed management strategies for the Red River of the 
North Basin focusing on water quality and quantity to ensure continued 
economic development and growth of the area.
    Question. According to the research proposal, or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. The Red River Water Management Consortium provides a 
mechanism for transferring results of the initial research to vested 
stakeholders of the region and for addressing water quality and 
quantity issues resulting from agricultural practices and development. 
The overall goal of the Consortium is the development of long-term 
watershed management strategies focusing on water quality and quantity 
which can be used as a model for watershed management in other 
agricultural regions in the United States.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of the research was to understand the 
occurrence, transport, and fate of agricultural chemicals and their 
impact on groundwater resources in representative field settings in the 
northern Great Plains region so scientifically valid decisions could be 
made for their management and regulation. All fieldwork under this 
portion of the program has been completed, and a final comprehensive 
report of research findings will be completed by July 2001.
    Results from this program have been reported in journals, 
conference proceedings, and through presentations at national, state, 
and local meetings. To date, more than 40 presentations or publications 
have resulted. In addition, two doctoral dissertations and one master's 
thesis have resulted from this research.
    Finally, the researchers have established the Red River Water 
Management Consortium as a mechanism for transferring the results of 
the initial and other ongoing research to vested stakeholders in the 
region and to the general public in order to address water quality and 
quantity problems resulting from agricultural practices and 
agricultural development.
    Question. How long has this work been under way and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. In 1989, $1.0 million was appropriated under the 
groundwater research program. Beginning in 1990, funds have been 
earmarked under the direct Federal Administration program. Work 
supported by this grant was initiated in fiscal year 1990, with an 
appropriation of $987,000. Subsequent appropriations have been $750,000 
in fiscal year 1991; $500,000 per year in fiscal years 1992-1993; 
$470,000 in fiscal year 1994; $407,000 in fiscal year 1995; $436,000 
per year in fiscal years 1996-1998; $340,000 in fiscal year 2000; and 
$394,131 in fiscal year 2001. A total of $6,656,131 has been 
appropriated for this water quality research program.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Consortium members provide co-funding to support their 
participation in the program. Co-funding provided by the Consortium for 
fiscal year 1996 totaled $59,700 and fiscal year 1997 totaled $80,000. 
In fiscal year 1998, members provided $90,000 in complementary funding 
through membership fees, of which $86,000 came from non-Federal sources 
and $4,000 came from the U.S. Environmental Protection Agency--EPA--319 
funds. In fiscal year 1999, complementary funding consisted of $90,000 
in membership fees, of which $86,000 came from non-Federal funding and 
$4,000 came from EPA 319 funds. An additional $102,000 in non-Federal 
funds came from other sources, including the North Dakota Industrial 
Commission, the City of Grand Forks, the Minnesota Department of 
Natural Resources, the Bremer Foundation, the Red River Basin Board, 
and internal Energy and Environmental Research Center funds. In 
addition in fiscal year 1999, other Federal sources provided $52,825 in 
complementary funding, which include the EPA's Riparian Project--319 
funds--and the U.S. Department of Energy-Energy and Environmental 
Research Center Jointly Sponsored Research Program. In fiscal year 
2000, $90,000 was provided by membership fees as complementary funding, 
and $33,600 in other Federal complementary funding was provided through 
the EPA's Riparian Project.
    Field activities to determine the long-term trends of nitrate and 
sulfate and to determine the source of sulfate were conducted in 
cooperation with the North Dakota State Water Commission, which 
provided $41,000 in cash equivalent funding for sample analysis and 
field instrumentation. Instrumentation of sites occurred in fiscal year 
1997, and sampling and analysis continued through fiscal year 2000.
    In fiscal year 1998, the U.S. Army Corps of Engineers contracted 
through the Consortium a $100,000, 6-month effort to improve the 
decisionmaking capability regarding ongoing flooding within the Devils 
Lake Basin, a subbasin of the Red River of the North Basin. This work 
produced decision support tools, forecasts, data, and forums that 
continue to be used by the Corps' St. Paul district, the states of 
North Dakota and Minnesota, the International Joint Commission, and the 
people of the Devils Lake region.
    Question. Where is this work being carried out?
    Answer. Research is being conducted at the University of North 
Dakota through its Energy and Environmental Research Center and at 
field sites and agricultural product-processing facilities in North 
Dakota, Minnesota, and Montana as well as in major municipalities along 
the Red River Valley. In addition, a portion of the pesticide research 
was conducted at North Dakota State University. Cooperative efforts 
have resulted in work also being performed at cooperative institution 
locations such as the University of Waterloo, Victoria University, the 
University of Montana, the Resource Conservation and Development 
Council offices in the Red River Basin, and the North Dakota State 
Water Commission.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
of the project, specifically the field-related research, was fall 1995. 
This research his been completed; and the sites have been 
decommissioned, with the exception of those relating to long-term 
nitrate and sulfate monitoring and analysis. Work on nitrate and 
sulfate trends and occurrence was scheduled for completion in 1999. All 
field work related to the impacts of agricultural chemicals on 
groundwater has also been completed. A final report detailing that 
research is slated for July 2001. The Consortium was established in 
1996 as a mechanism for transferring the information derived from this 
research program to the technical community and to the public for use 
in addressing water quality and quantity issues relating to agriculture 
and agricultural development. Wise water management is the key to the 
economic viability of agriculture in our region. It is anticipated that 
the Red River Water Management Consortium activities will continue for 
several years in order to meet the objectives as defined by the non-
Federal sponsors and the agency.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The last formal agency evaluation of this project was 
conducted in September 1996. The agency Technical Project Officer 
attended a meeting of the Consortium to evaluate and determine the 
status of this effort. Since that time. The agency Project Officer has 
been kept apprised of project activities. Significant progress has been 
made by the Consortium during its nearly 5 years, and the program is an 
excellent example of how Federal and State agencies, research and 
academic institutions, private industry, and the general public can 
work together to solve problems in an economical manner to benefit 
people, communities, and the Nation. To date, all project objectives 
have been met.
                     wetland plants, west virginia
    Question. Please provide a description of the research that has 
been funded under the Wetland Plants, West Virginia grant.
    Answer. The research involves an interdisciplinary investigation of 
the vegetation--plant composition, species richness, species diversity, 
and dominance-- disturbance history, soils, geology, and hydrology of 
six wetland sites in West Virginia. Geographical Information Systems' 
maps of the six cities will be developed using black and white aerial 
photographs of the sites from 1940, 1950, 1960, 1970, 1980, and 1990. 
Results will be used to develop models for studying, managing, and even 
creating wetland habitats.
    Question. According to the research proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. Wetlands in West Virginia have declined at least 24 percent 
between the 1780's and 1980's. To compensate for the loss of these 
systems and their functions, mitigation is required. To do this 
effectively, a better understanding and more information of the wetland 
as an ecosystem must be obtained specifically; i.e., at specific sites 
and locale.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. This is a new proposal, and the realization of its goals 
are underway.
    Question. How long has this work been underway and how much as been 
appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $141,688.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds have been identified to support this 
project.
    Question. Where will the research be carried out?
    Answer. Research will be conducted at the Canaan Valley Institute 
in Charleston, West Virginia.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The requested grant proposal has not yet been received.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project. No prior evaluation has been 
conducted.

               Extension Federal Administration Projects

                   after-school programs, california
    Question. Please provide a description of the extension program 
that has been funded under the After-School Program, California grant.
    Answer. This program will improve the quality, accessibility, and 
sustainability of 4-H After-School Programs in Los Angeles public 
housing communities, public schools, and other locations in the 
community. In addition, Los Angeles County Extension Staff will provide 
leadership to improve after-school programs administered by other 
agencies and organizations by offering model after-school program 
sites, staff development and training, and quality experiential 
curricula. CSREES has requested the University of California to submit 
a grant proposal that has not yet been received. The proposal will 
include specific program objectives.
    Question. According to the proposal, or the principal researcher, 
what is the national, regional or local need for this program?
    Answer. The need for this extension program is great. Los Angeles 
County has a population of more than 2.5 million children and youth 
under age 18, more than 26 percent of the total youth population of 
California. The county's youth population is one of the most diverse in 
the United States, with 58 percent Latino, 21 percent Caucasian, 10 
percent African American, and 10 percent Asian American. Of 
California's minority youth population, 45 percent resides in Los 
Angeles County. Thirty-six percent have limited proficiency in English, 
and 37 percent live in low-income households. Low rates of academic 
attainment threaten a future competent and productive workforce. In 
response to these challenging statistics, research has shown that 
engagement in quality after-school programs is one predictor of school 
success. In addition, quality after-school programs have been shown to 
improve social, emotional, and physical competencies. Therefore, this 
program aims to improve educational, economic, employment, and 
environmental factors in the live of Los Angeles families and 
communities.
    Question. What was the original goal of this extension program and 
what has been accomplished to date?
    Answer. The planned goals of this extension program are to first, 
develop and improve model 4-H After-School Programs in Los Angeles; 
second, infuse research-based, age-appropriate curricula into programs; 
third, provide staff development and training; and fourth, conduct 
applied research on youth and family development issues. Because this 
is a new project, a report on accomplishments is not available.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $398,122.
    Question. What are the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are estimated to be as follows: $128,900 state appropriations and 
$360,700 miscellaneous in fiscal year 2001.
    Question. Where is this work being carried out?
    Answer. This extension program will be conducted in public housing 
communities, public schools, and other locations within the city of Los 
Angeles.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is projected to be 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. University of California will conduct a merit review prior 
to submitting the proposal for fiscal year 2001.
                      agriculture in the classroom
    Question. Please provide a description of the program that has been 
funded under the Ag in the Classroom grant.
    Answer. Agriculture in the Classroom is an academic program to 
develop agricultural literacy in kindergarten through 12th grade 
students. Funds appropriated are used to leverage agricultural literacy 
activities in all 50 states, the District of Columbia, and U.S. 
territories by providing national leadership and guidance to State 
Agriculture in the Classroom Coordinators. This supports the education 
of more than five million students through over 130,000 teachers 
annually. Activities during the past year include cooperative 
agreements to develop and distribute instructional materials that meet 
State standards of learning, and to document the effectiveness of Ag in 
the Classroom teaching programs, maintenance of a national web site to 
provide fast, cost effective dissemination of information and 
materials, a national newsletter, collaboration with the Smithsonian 
Institution and Sustainable Agriculture Research and Education to 
educate about prairie agriculture, cooperation with the White House 
Office of Science and Technology Policy to promote Global Science and 
Technology Week, and planning and conducting an annual national 
conference.
    Question. What is the national, regional, or local need for this 
program?
    Answer. In the Federal Agriculture Improvement and Reform Act of 
1996, Congress noted the importance of increasing the number of young 
Americans pursuing baccalaureate or higher degrees in the food and 
agricultural sciences. Agricultural literacy is a critical first step 
in creating interest and awareness of career opportunities in the food 
and agricultural sciences. Education studies cite that students learn 
best by example. Agriculture provides hands-on learning experiences in 
academic disciplines including the physical and biological sciences, 
social sciences, language arts, and mathematics. Developing 
agricultural literacy among America's youth is key to ensuring a high-
quality, globally-competitive food and agricultural workforce.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The Secretary of Agriculture established the Ag in the 
Classroom Program in 1981 to help future generations become 
agriculturally literate. The program encourages teachers to integrate 
food and agricultural topics into their curricula. The original purpose 
of the program was to promote agricultural literacy in the primary and 
secondary education system.
    Each state develops or distributes education materials compatible 
with state teaching and learning standards and conducts in-service and, 
in some cases, pre-service, teacher education. Results show that 
Agriculture in the Classroom helps teachers and students understand the 
complexity of the food and fiber system and better appreciate its 
impact on the economy and society. Teachers integrate food and 
agricultural topics into their broad curricula.
    A national web site coordinates and facilitates ideas exchange 
among the Ag in the Classroom State Coordinators; most states also have 
web sites. Outstanding teachers are presented with National Teaching 
Awards yearly at the national conference; they share their award-
winning materials and techniques with other teachers nationwide.
    USDA annually sponsors a national conference to bring the Ag in the 
Classroom community together to expand experiences, ideas, materials, 
information, and techniques among state programs, educators, government 
agencies, agribusiness, and agricultural organizations. A quarterly 
newsletter provides updates and teaching materials on agricultural 
topics. A National Resource Guide and outreach to educational 
associations are being funded to enhance and extend Ag in the Classroom 
efforts, especially in modestly funded states, and to increase 
collaboration with 4-H and FFA programs.
    States have received acknowledgments from thousands of teachers and 
administrators who report strong links between agriculture and State 
required competencies, increased use of instructional technology, 
meaningful experiential learning for students and teachers, and the 
objectivity and educational appropriateness of Ag in the Classroom 
teaching support materials. Thousands of teachers receive continuing 
education credit or graduate credit.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. A total of $2,912,886 has been appropriated for this 
program by fiscal year as follows: fiscal year 1986, $76,000; fiscal 
years 1987 and 1988, $74,000 per year; fiscal year 1989, $87,000; 
fiscal year 1990, $135,000; fiscal year 1991, $170,000; fiscal years 
1992 and 1993, $208,000 per year; fiscal year 1994, $185,000; fiscal 
year 1995, $208,000; fiscal year 1996, $204,880; fiscal years 1997 
through 2000, $208,000 per year; and $451,006 in fiscal year 2001.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. This is not a grants program and does not require matching 
funds. Ag in the Classroom is highly leveraged through a variety of 
public and private funding that supports State programs. The USDA 
cooperative agreements that are in place have non-Federal matching 
funds.
    Question. Where is the work being carried out?
    Answer. National leadership for Agriculture in the Classroom is 
provided by the Higher Education Programs unit in CSREES. Each state 
manages its own unique program. Nationally, the program impacts an 
estimated 130,000 teachers and over five million kindergarten through 
grade 12 students annually. States depend heavily on many volunteers--
teachers, farmers, agribusiness, farm organization spokespersons, and 
others--to reach the large numbers of teachers and students served by 
their programs.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related activities?
    Answer. Beginning in 1981, under the direction of the Secretary of 
Agriculture, an Agriculture in the Classroom program was initiated in 
every State, the District of Columbia, and the U.S. territories. 
Developing agricultural literacy among America's youth is a continuing 
effort to serve each new generation of students, and to ensure a high 
quality food and agricultural workforce for the future.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. State Directors report that evaluations have been conducted 
over the past several years. Findings are positive: Ag in the Classroom 
is an effective teaching tool. A committee of western educators 
researching agricultural literacy is focusing on the Ag in the 
Classroom program, and two studies on the teaching effectiveness of the 
program began this year.
    During each national conference formal evaluations are conducted 
and results are considered in defining future goals for the program. 
Yearly state summaries are prepared and distributed at the national 
conference. The summaries include accomplishments, impacts, and 
evaluations by states. Recent impacts identified are the introduction 
of food and agricultural topics into the curricula in urban and 
suburban schools, the inclusion of agriculture in the social studies 
core curriculum in several states, and the use of food and agricultural 
topics to meet mandated teaching and learning standards. Teachers 
without agricultural backgrounds have been quick to use Ag in the 
Classroom materials in their lesson plans.
                       beef improvement, arkansas
    Question. Please provide a description of the program that has been 
funded as the Arkansas Beef Improvement Program.
    Answer. The Arkansas Beef Improvement Program uses verification 
methods with producer input to demonstrate cost effective management 
practices for beef cattle and forage production. These demonstrations 
are conducted on family-owned beef cattle operations throughout 
Arkansas. Although the Arkansas Beef Improvement Program continues to 
have whole farm demonstrations, special projects or problem areas have 
been identified and are under examination. This allowed the program to 
expand to help answer additional beef cattle and forage production 
issues. Information learned throughout the Beef Improvement Program is 
transferred to the public via field days, monthly articles, fact 
sheets, quarterly newsletters, press articles, and a special Beef 
Improvement Workshop program.
    Question. What is the national, regional or local need for this 
program?
    Answer. Two major areas demonstrate a national, regional and local 
need for the Beef Improvement program. Arkansas is a very unique state 
in which the northern area resembles much of the mid-south region of 
the U.S. and the southern area of Arkansas represents the southern U.S. 
region. Many of the beef cattle production, forage production, and 
environmental problems that are in Arkansas are also in these two 
areas. Therefore, answers to production problems in Arkansas may apply 
to many states of the southern region. In addition, the Beef 
Improvement Program demonstrates the need for planning, implementing, 
and monitoring a business plan. These decisionmaking skills, or 
processes, are utilized throughout the ranching industry.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The overall goal of the Arkansas Beef Improvement Program 
was to enhance the efficiency and profitability of the Arkansas beef 
cattle producer. This program uses demonstration farms to implement and 
evaluate management practices. To date there have been 14 farms 
committed to the five-year whole farm demonstration. Currently, three 
farms are in the fourth year of the program, and one farm is in its 
second year. Ten farms have completed their five-year commitment. There 
have been 26 farms involved with the Beef Improvement Special Projects. 
The commitment with these projects is usually two to three years but is 
dependent upon the farm and project. Currently, there are 18 active 
projects.
    Question. How long has the program been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. $200,000 has been appropriated to this project from fiscal 
years 1993 through 1995; in fiscal years 1996 through 2000, $197,000 
per year; and in fiscal year 2001, $196,567 for a total of $1,781,567.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The State of Arkansas provided $118,154 for fiscal year 
2000.
    Question. Where is the work being carried out?
    Answer. Currently there are 22 active whole farm demonstrations and 
special project demonstrations. These are being conducted on family 
farms located throughout Arkansas and represent the structure of the 
beef cattle industry of Arkansas. The forage base is bermudagrass, 
fescue, and native grass, and some of the beef cattle producers also 
operate poultry or swine operations. In addition to the demonstration 
farms, a workshop was developed to teach the lessons learned from the 
Beef Improvement effort. Twenty-nine workshops have been conducted with 
more scheduled for the spring of 2001. These workshops have been very 
well received and are usually scheduled a year in advance. In addition 
to these educational methods, an Arkansas Beef Improvement Newsletter 
is published and mailed to county extension agents and extension 
personnel in surrounding states. Monthly articles are published in 
Arkansas Cattle Business, which reaches over 13,000 beef cattle 
producers in Arkansas.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The Arkansas Beef Improvement Program currently has four 
whole farm demonstrations and 18 special projects. Three of the whole 
farm projects will finish in 2001, and the fourth whole farm project 
will finish in 2003. The special projects include cow herd performance, 
pasture renovation, cull cow management, replacement heifer 
development, establishing breeding and calving seasons, backgrounding 
farm raised calves, hay quality and supplemental feeding, and 
stockpiled forages. These projects range from two to five years in 
length. As farms complete special projects, additional farms are 
selected for special projects. This allows the program to investigate 
different management systems under different environmental conditions. 
Eight farms started special projects in fiscal year 2000, and these 
will be completed in two to five years.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A CSREES review of this project is conducted annually. The 
2000 review was positive, with continued encouragement for 
dissemination of results and materials developed in this project 
through public and industry publications to producers in other states.
                  botanic garden initiative, illinois
    Question. Please provide a description of the program that has been 
funded under the Botanic Garden Initiative, Illinois grant.
    Answer. The Chicago Botanic Garden grant proposal for fiscal year 
2000 funded their Garden in Every School Initiative which is intended 
to increase student interest and understanding of science and other 
related subjects using gardening as the focus.
    Question. What is the national, regional, or local need for this 
program?
    Answer. The Chicago Botanic Garden expects the grant to result in 
educational curricula, lesson plans, garden design and construction 
recommendations, and garden activities that will serve as a model for 
other cities throughout the U.S.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The original goal is to develop an innovative program that 
increases green spaces at Chicago's public schools and teaches 
elementary school students the value of plant science, math, nutrition, 
business, and literature. Students and teachers, in collaboration with 
the Chicago Botanic Garden, will build and maintain gardens by using 
the Life Lab curriculum, a nationally-acclaimed and widely-used science 
curriculum.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000 
and the appropriation for fiscal year 2000 was $106,263 and for fiscal 
year 2001 the appropriation is $237,476 for a total of $343,739.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds sources provided for this grant have 
not been determined at this time.
    Question. Where is this work being carried out?
    Answer. This work is conducted at the Chicago Botanical Garden.
    Question. What was the anticipated completion date for the original 
objective of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related-objectives?
    Answer. Current progress indicates the anticipated completion date 
for the original objectives is five years.
    Question. When was the last agency evaluation of this project? 
Provided summary of the last evaluation conducted.
    Answer. In June 2000, the project manager for this grant conducted 
an on-site review of the program. Based on this evaluation, a number of 
revisions were recommended, and these changes have been incorporated in 
the Chicago Botanic Garden's grant proposal.
              conservation technology transfer, wisconsin
    Question. Please provide a description of the program that has been 
funded under the Conservation Technology Transfer, Wisconsin grant.
    Answer. The project integrates Land Grant outreach programs with 
technical assistance dimensions of the Federal Farm Bill. It leverages 
funding at the University of Wisconsin with Federal, State, and Local 
sources to provide education and technical support to livestock 
producers regarding animal waste.
    Question. According to the extension proposal or the principal 
researcher, what is the national, regional, or local need for this 
research?
    Answer. This project is necessary to meet Federal regulations on 
nonpoint source pollution, especially those pertaining to animal waste. 
It has already served as a regional model for cooperation with the 
Cooperative Extension Service, the Agricultural Research Service, and 
the Natural Resources Conservation Service. At least six other states 
have requested information and/or direct assistance from Wisconsin to 
copy specific partnership elements that integrate Land Grant activities 
with the Natural Resources Conservation Service and help streamline 
assistance to local landowners.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this project was to coordinate 
conservation education on soil and water issues including nutrient 
management. To date, one of our greatest successes integrates 
university research and extension outreach with the USDA's Natural 
Resources Conservation Service technical assistance mission. This 
effort has resulted in cooperative programs that educate farmers about 
nutrient management planning.
    Question. How long has this work been underway and how much as been 
appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 2000. 
The appropriation for fiscal year 2000 was $170,022 and for fiscal year 
2001 is $473,955. The total amount appropriated is $643,077.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources provided for this grant 
are expected to be $1,200,000 from state and local funds for fiscal 
year 2001. Commitments are still being secured.
    Question. Where is this work being carried out?
    Answer. This project is being conducted with individual producers 
and land managers throughout Wisconsin, in coordination with the USDA's 
Agricultural Research Service Station in Madison and the Natural 
Resources Conservation Service.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is June 30, 2001. The university has proposed expansion of this effort, 
which would require identification of continual non-Federal funding 
sources to meet the needs of conservation technology education in 
Wisconsin.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The most recent agency evaluation was spring 2000. Several 
changes were made as a result of written comments from fiscal year 
2000. An onsite evaluation of the project is planned for fiscal year 
2001.
                         dairy education, iowa
    Question. Please provide a description of the program that has been 
funded under the Dairy Education, Iowa grant.
    Answer. CSREES has requested the college to submit a grant proposal 
that has not yet been received.
    Question. What is the national, regional, or local need for this 
program?
    Answer. There are tremendous financial pressures on dairy 
producers. Farm families are in need of better education, applied 
research, and technical advocacy so that they can continue to compete. 
It is important to remember that the average cow size of dairy farms in 
Iowa is 66 cows and that most farm operations are conducted by families 
who do the work themselves. Many have already left the farm industry 
because of the lack of educational support. Seventy-two percent of 
Iowa's dairy cows are owned by nearly 3,000 family-based businesses 
located in a 17-county region in northeast Iowa near this Dairy Center 
at Calmar. The Center will be a direct service to all these families. 
In addition, within the remainder of Iowa and the states of Minnesota, 
Illinois, and Wisconsin there are two million dairy cows and nearly 
32,000 producers who will be served by this Center. If the family dairy 
farm is to survive in these difficult economic times, new methods of 
production will need to be developed, tested in a production facility 
and promoted. This Center will serve as an advocate for the family 
dairy farm, combining farmer ownership with Iowa State University 
Extension, and Northeast Iowa Community College leadership. Federal 
funds provided by this grant are expected to strengthen the educational 
effort and explore solutions to the needs of dairy producers and the 
dairy infrastructure of northeast Iowa.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The goal of the Dairy Initiative is to enhance the economic 
viability of current dairy businesses and to increase the number of 
entries into the dairy industry. The Dairy Education, Demonstration, 
and Applied Research Center opened October 14, 2000. Seven-hundred 
dairy farm families came together to make this Center happen. The 
facility will train tomorrow's dairy professionals, demonstrate best 
practices to current producers, and apply the latest innovations in a 
field trial situation. Already, the number of students who have 
enrolled in the dairy program of education has almost doubled. We 
expect an additional doubling by 2001.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $237,476.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funds and sources to be provided for this 
grant are as follows: $554,000 state appropriations; $2.1 million paid 
or committed from Northeast Iowa Community College; $500,000 from Iowa 
State University; $550,000 from Dairy Foundation members and 
contributors; and additional unidentified miscellaneous funds in fiscal 
year 2001.
    Question. Where is the work being carried out?
    Answer. Research and education will be conducted at the Dairy 
Center located at Calmar, Iowa. There is a 150 cow, three-row freestall 
barn that features two manure handling systems; the double eight subway 
milking parlor has parallel stalls on one side and herringbone on the 
other; and a methane digester will be used to capture energy and odor 
from the manure. This is truly a unique facility in the world and was 
designed by the farmer members of the Foundation to best respond to 
their needs for education and training.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
was met when the facility opened October 14, 2000. The methane digestor 
should be operational by May 1, 2001. Education and research projects 
have been conducted at the Center since October 16, 2000. This will be 
a continual process, however, as the facility upgrades technologies to 
demonstrate and apply innovations. The quarterly newsletters of the 
Foundation report on dairy related activity.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A visit to this project has been scheduled, however no 
evaluation has yet been done.
                         delta teachers academy
    Question. Please provide a description of the program that has been 
funded under the Delta Teachers Academy project.
    Answer. The National Academy proposes to continue its Delta 
Teachers Academy in the Lower Mississippi Delta Region--219 counties 
and parishes near the Mississippi River including portions of Arkansas, 
Illinois, Kentucky, Louisiana, Mississippi, Missouri and Tennessee--
focusing on educational improvement in core subject areas. The program 
was launched in 1992 with a pilot grant of $500,000 from the U.S. 
Department of Education. USDA funding began in 1994. The program 
provides long-term academic enrichment annually to approximately 500 
elementary and secondary school teachers by teaming them with 
university scholars for in-service training during the school year and 
with summer institutes at 11 Academy field offices throughout the seven 
Delta states. Through its Fellows Program, the Delta Teachers Academy 
sustains the professional development of more than 1,100 Academy 
graduates throughout the region. This grant is not awarded 
competitively; however, we require annual applications reporting the 
previous year's accomplishments and describing planned activities and 
expenditures for the coming year. These applications undergo merit 
review before the awards are made.
    Question. What is the national, regional, or local need for this 
project?
    Answer. The 219-county Lower Mississippi Delta region has been 
cited by the Educational Testing Service and the National Center for 
Education Statistics as notably lagging in student performance in core 
academic areas. According to the grant recipient, 33 percent of the 
children in the region live below the poverty line compared to 20.5 
percent nationally. In 1996, 60 percent of Louisiana's public school 
sample ranked ``below basic'' on the National Assessment of Education 
Progress test for eighth-graders. The USDA's Economic Research Service 
correlated poor educational performance, rural poverty, and limited 
economic development. The Delta Development Commission cited serious 
educational problems including poor student performance in core content 
areas, demoralized teachers with little opportunity for academic 
development, and region-wide difficulty in recruiting and retaining 
qualified teachers. The Commission noted that 75 percent of the 
region's workforce lacks the basic reading skills necessary for 
technical training, and specifically cited improved teacher training as 
one means for breaking the cycle of poverty and economic 
noncompetitiveness.
    Question. What was the original goal of the program and what has 
been accomplished to date?
    Answer. The original and continuing goal of the project is to 
address the problem of insufficient professional development 
opportunities for the elementary and secondary teachers of the seven-
state region. The Delta Teachers Academy focuses on core subjects of 
English, geography, history, mathematics, and science. Some sites also 
focus on humanities, language arts, social studies, reading, civics, 
and interdisciplinary subjects. The Delta Teachers Academy began by 
offering educational development activities for 100 teachers from 50 
rural districts at 10 sites. Training has expanded to 600 teachers at 
40 sites across the entire seven-state region. More than 1,100 
graduates whose professional development is sustained through the 
Academy's Fellows Program lead teacher in-service training at their 
home schools. The project has improved student performance and teacher 
training, morale, recruitment, and retention in the region.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. A total of $27,653,300 million has been appropriated to the 
Department of Agriculture for this project, including $2,000,000 in 
fiscal year 1994; $3,935,000 in fiscal year 1995; $3,876,000 in fiscal 
year 1996; $3,850,000 in fiscal year 1997; $3,500,000 each year in 
fiscal years 1998 through 2000; and $3,492,300 in fiscal year 2001.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. There are no non-Federal funds identified for this project.
    Question. Where is the work being carried out?
    Answer. The Delta Teachers Academy project is coordinated out of 
The National Faculty's office in Atlanta, Georgia and at 11 Academy 
field offices located throughout the seven Delta states. The project is 
conducted currently at 23 sites in the seven-state Lower Mississippi 
Delta region including Arkansas, Kentucky, Illinois, Louisiana, 
Mississippi, Missouri, and Tennessee.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original objective was to provide three full years of 
training to each faculty team established by the Delta Teachers 
Academy. Training consists of four two-day academic sessions and one 
two-week summer institute for each team. This objective was met for the 
24 faculty teams funded under the original fiscal year 1994 USDA grant. 
Since that time, 15 additional teams funded in 1995, one team funded in 
fiscal year 1996, 20 new teams funded in fiscal year 1997, and 14 teams 
funded in fiscal year 1998 have all completed three-year training 
cycles. Training for 440 new scholars in 18 teams established in fiscal 
year 1999 continued into fiscal year 2000. Nine new teacher cohorts 
established in fiscal year 2000 will continue their training in fiscal 
year 2001 along with 14 new teams to be established in fiscal year 2001 
for three years of training for 500 scholars.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. An assessment of the Delta Teachers Academy performance was 
conducted by the independent research and evaluation firm of Westat, 
Inc. of Rockville, Maryland, during fiscal year 2000. That work will 
continue into fiscal year 2001, and a report will be available by 
September 2001.
    In a previous evaluation completed in August 1997, Westat found the 
majority of participants reported that the Academy met their personal 
and professional needs by renewing their enthusiasm for teaching, 
improving self-confidence, increasing their sense of professionalism, 
improving their knowledge of specific content areas, enhancing teaching 
methods, and interacting with peers. Teachers are applying what they 
have learned from the Academy in their classrooms. For example:
  --88 percent said the Academy prepared them to assume leadership 
        roles in their schools;
  --89 percent noted changes in student work habits, attitudes, 
        aspirations, and achievements;
  --90 percent applied academic content from the program in their 
        classrooms;
  --78 percent used skills and strategies learned at the Academy in 
        their classroom teaching;
  --83 percent said their teaching approaches became more effective in 
        improving student learning.
    A site visit of the Delta Teachers Academy in New Orleans, 
Louisiana, and the National Faculty's Summer Institute at Tulane 
University was conducted by CSREES' National Program Leader for Higher 
Education and Evaluation in 1996. The visit confirmed that Delta 
Teachers Academy strengthened participating teachers' abilities by 
improving their knowledge base, helped them become leaders of other 
teachers by requiring them to conduct staff development at their home 
schools, and had a positive impact on student learning. School 
superintendents reported greater student enthusiasm, more homework, and 
higher test scores for students whose teachers were participants in the 
Delta Teachers Academy program.
    A U.S. General Accounting Office review of the Academy's programs 
was conducted in 1995. Report GAO/RCED-95-208 included summary 
statistics on more than 1,000 teacher evaluations of Academy sessions 
as well as the General Accounting Office's survey of participants. On 
average, participants reported that the Academy was more effective than 
any other teacher development program they had participated in, was 
very effective in renewing or enhancing knowledge in one or more 
academic subjects, and was generally effective in enhancing the 
teaching skills and strategies required for teaching challenging 
academic content.
        diabetes detection and prevention, washington and hawaii
    Question. Please provide a description of the extension activity 
that has been funded under the Diabetes Detection and Prevention, 
Washington and Hawaii grant.
    Answer. This grant supports a pilot project and collaborative 
effort, The Partnership for Diabetes Awareness, Education and 
Screening. This unique collaboration has as its centerpiece a 
partnership between the Cooperative Extension programs at two Western 
Region Land-Grant Institutions, Washington State University and the 
University of Hawaii-Hilo, and the century-old Joslin Diabetes Center, 
an affiliate of the Harvard Medical School and located in Boston, 
Massachusetts. The program is designed to provide (1) diabetes 
awareness, prevention education, screening, and management services to 
selected minority under-served rural and urban populations in 
Washington and Hawaii using innovative non-invasive ocular fluorescence 
detection technology and blood glucose measures; (2) culturally-
sensitive and science-based diabetes prevention and care education 
materials; and (3) case management support and follow-up services for 
patient referrals.
    Question. According to the proposal, or the project director, what 
is the national, regional, or local need for this extension program?
    Answer. This program grows out of a need to reach more of the 
millions of Americans who have undiagnosed diabetes, to reduce the 
racial disparities associated with the disease in the U.S., and to 
ensure a healthy and productive workforce. Diabetes is currently one of 
the leading causes of death and disability in the U.S. adult 
population, and is highest among certain racial and ethnic populations, 
especially Native Americans, African Americans, Hispanic Americans, and 
Asians and Pacific Islanders.
    Question. What was the original goal of this project and what has 
been accomplished to date?
    Answer. The goal of this integrated extension outreach project 
continues to be to provide (1) screening for diabetes among selected 
rural and urban minority patient populations in Washington and Hawaii, 
using an innovative non-invasive ocular fluorescence detection 
technology and blood glucose measures; (2) culturally-sensitive and 
science-based diabetes education prevention and care materials; and (3) 
case management support and follow-up services for patient referrals.
    Accomplishments to date include the following: (1) establishment of 
a memorandum of understanding between the USDA-CSREES and the Joslin 
Diabetes Center to identify the parties involved, the purpose, the 
background of the parties and authority, the roles and responsibilities 
of the parties, and the duration of the partnership; (2) development, 
review, field-test, and publication of a culturally-sensitive and 
science-based instructional flip-chart for use by extension faculty 
with the targeted audience; (3) partnerships with eight community-based 
agencies/institutions with development and testing of the ocular 
fluorescence detection instrument; (4) cooking demonstrations for 
managing diabetes through diet; (5) a presentation on the Joslin/
Extension partner model at a national diabetes education conference 
sponsored by the West Virginia Extension Service; (6) partnership with 
the National Diabetes Education Program sponsored by the Centers for 
Disease Control and Prevention and the National Institute for Diabetes 
and Digestive and Kidney Diseases; (7) partnerships with state Diabetes 
Control Program offices and the Hawaii and Washington State Cooperative 
Extension programs; (8) site visits by staff of the Joslin Diabetes 
Center to Hawaii and Washington programs, and a site visit by USDA 
staff to Hawaii program; (9) a face-to-face planning meeting held in 
Seattle Washington, and five telephone conference calls to review and 
examine progress toward objectives; (10) dissemination of information 
about the pilot project to the human sciences land-grant community; and 
(11) participation by county extension faculty in diabetes education 
training programs to enhance their knowledge.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1999. 
The funds appropriated to date are:

        Fiscal year                                               Amount
1999..........................................................  $550,000
2000..........................................................   550,000
2001..........................................................   923,963
                    --------------------------------------------------------------
                    ____________________________________________________

      Total................................................... 2,023,963

    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. This grant is supported with additional funds and in-kind 
services provided by the Joslin Diabetes Center and state support from 
the Cooperative Extension Programs in Hawaii and Washington.
    Question. Where is this work being carried out?
    Answer. The program is being conducted in a diabetes screening and 
health center in a shopping center in Hilo, Hawaii, and in community 
facilities in Washington. In addition, the Cooperative Extension 
offices in Hawaii and Washington, and local partnering groups, are 
intimately involved in program implementation.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date for the original objectives 
is September 30, 2002. The project is on-target to reach the original 
objectives.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A formal agency evaluation has not yet occurred. Oversight 
and monitoring activities are regularly conducted through telephone 
calls, annual reports, e-mail, and face-to-face visits where these are 
tied to other agency travel. A mid-course evaluation of program outputs 
and the delivery process to date is anticipated in April 2001.
               efficient irrigation, new mexico and texas
    Question. Please provide a description of the extension program 
that has been funded under the Efficient Irrigation, New Mexico and 
Texas grant.
    Answer. The waters of the Rio Grande are a critical resource for 
the region as 98 percent of the water use in the Rio Grande Basin comes 
from the river. This project will provide extension education to 
increase the efficiency of agriculture and urban landscape irrigation 
and encourage the development of efficient water markets in the Rio 
Grande Basin.
    Question. According to the extension proposal, or the project 
director, what is the national, regional, and local need for this 
program?
    Answer. Growing demand and drought have created critical water 
supply issues for much of the southwest. This project is designed to 
improve irrigation efficiency and water conservation in the Rio Grande 
basin in New Mexico, Texas, and Mexico. The crux of the problem is that 
a total water management system, which would assist agriculture and 
urban interests, does not exist. As a result, water is released on 
demand often resulting in inefficient management. Water problems will 
only increase as the population in this region grows and more industry 
is located to this region.
    Question. What was the original goal of this extension project and 
what has been accomplished to date?
    Answer. According to the project proposal, subject areas addressed 
will include irrigation district studies; irrigation education and 
training; institutional incentives for efficient water use; on-farm 
irrigation system management; urban landscape and in-home water 
conservation; environment, ecology and water quality protection; saline 
waste water management and water use; basin-wide hydrology, salinity 
modeling and technology; and communications/oversight/biometric 
support/accountability.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $1,895,820.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year.
    Answer. Sources of any non-Federal funds will be identified in the 
grant proposal.
    Question. Where is the work being carried out?
    Answer. This extension program will be carried out by Texas A&M 
University and New Mexico State University. Coordination will be 
provided through Texas A&M University Extension.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have the objectives been met? What is the 
anticipated completion date of additional or related objectives.
    Answer. The anticipated completion date for the first phase is 
March 31, 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project. An agency review will be conducted 
prior to awarding the grant.
                   extension specialist, mississippi
    Question. Please provide a description of the program that has been 
funded as the Basic Weather Service for Research and Extension 
Project--Extension Specialist, Mississippi.
    Answer. The Basic Weather Service and Extension project is designed 
to fill a void in weather data due to closure of the Ag Weather Service 
facility in Stoneville, Mississippi. The funding is being used to 
gather and disseminate critical agricultural weather data for producers 
and researchers in Mississippi and surrounding states.
    Question. What is the national, regional or local need for this 
program?
    Answer. The closure of the Ag Weather Service facility created a 
void in the availability of and access to critical weather data that 
producers and researchers use to make management decisions and to 
formulate work plans within the state and region. The agricultural 
weather data collected by this project serves a national need to 
provide data for the Weekly Weather and Crop Bulletin and the Soil 
Climate Analysis Network.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The goal of the project is to collect, maintain, and 
disseminate weather information for producers and researchers in 
Mississippi and surrounding states. Electronic weather stations and 
links with other web sites to deliver weather data have been installed 
and developed. The project is providing timely data to producers in the 
Delta.
    Question. How long has the program been underway and how much has 
been appropriated by fiscal year through 2001?
    Answer. The funding for fiscal years 1997 and 1998 was $50,000 each 
year; for fiscal years 1999-2000, $100,000 each year; and for fiscal 
year 2001, $99,780. A total of $399,780 has been appropriated.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The state of Mississippi through the Mississippi 
Cooperative Extension Service and Delta Research and Extension Center 
provided $41,350 in state appropriated funds to support this project in 
1997, 1998, and 1999. Although a 2000 contribution was not formally 
matched, state personnel services were provided.
    Question. Where is the work being carried out?
    Answer. The project is conducted at the Delta Research and 
Extension Center in Stoneville, Mississippi.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of the additional or related objectives?
    Answer. One of the original objectives--installation of equipment 
to collect weather data and establishment of a web site--has been 
completed. The agriculture community--producers, markets, suppliers of 
goods and services, and financial institutions--depend upon weather 
information as a guide for business planning and decision making. As 
agriculture implements new programs in pest management, crop 
production, and site-specific farming, additional and nearer to real-
time weather data and products are needed for their success. A denser 
weather station network with additional specific weather parameters is 
a new objective. Its completion is dependent upon the best use of 
scarce current funding and new funding opportunities and existing and 
new interagency cooperative efforts. At least one weather station per 
county is desired in the 19-county area of the Mississippi Delta.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. Evaluation of the project and Internet web site is being 
conducted with an on-line statistics instrument and through e-mail 
responses about the site. An advisory group has been identified and is 
functioning to provide feedback on the weather center's current status 
as well as assessing needs for future plans for the project's continued 
mission. The Internet site rose rapidly to the top ten on the Extension 
server and receives over 100,000 hits annually.
                family farm beef industry network, ohio
    Question. Please provide a description of the work that has been 
funded under the Family Farm Beef Industry Network, Ohio grant.
    Answer. This is a new project. CSREES has requested the university 
to submit a grant proposal that has not yet been received.
    Question. What is the national, regional, or local need for this 
program?
    Answer. The decline of the ``family farm'' as the functional, 
sustainable backbone of rural society is a problem receiving increased 
national attention. The declining rural population in many states has 
drastically altered the tax base, which has affected the quality of 
primary education, medical care, and other tax-supported services. In 
Ohio, the continuing integration of the pork industry, with the 
resulting recent over-supply of pork and decreased revenue achieved 
from marketing grain through hogs, has forced many northwest Ohio 
farmers to look at other avenues to increase farm income in order to 
survive. Marketing grain through cattle is currently an economically-
viable option due to the structure of the cattle feeding industry. 
However, this will require training a new generation of cattle feeders 
in Ohio, developing relationships with Ohio cow-calf producers looking 
for opportunities to increase their profitability, and developing 
marketing channels for beef that is produced to meet the requirements 
of targeted processors and consumer groups.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The goal of this project is to develop producer education 
and beef production marketing channels to allow closely aligned family 
farms, both cow-calf and feedlot, the opportunity to survive in a 
changing social and economic climate.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 
2001. The appropriation for fiscal year 2001 is $1,317,096.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The non-Federal funding provided for fiscal year 2001 is 
approximately $30,000 from Ohio State University.
    Question. Where is this work being carried out?
    Answer. This work is being conducted at Ohio State University and 
at cooperating feedlot operations, cow-calf operations, and beef 
processors in northwest Ohio.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. It is anticipated that this project will continue to grow 
and develop and will require approximately five years to be fully 
developed.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project. The proposal will be peer-reviewed 
at Ohio State University prior to submission. The agency will conduct a 
merit review prior to funding.
                 food animal residue avoidance database
    Question. Please provide a description of the program that has been 
funded under the Food Animal Residue Avoidance Database, or FARAD, 
grant.
    Answer. The research is aimed at preventing and mitigating the 
occurrence of illegal chemical residues in foods of animal origin. This 
is done by assembling standardized databases of technical information 
from widespread sources. The data from these sources is used in 
sophisticated algorithms to calculate appropriate withholding times for 
producers, veterinarians, and USDA regulators. The goal is both residue 
prevention or avoidance and residue mitigation of chemical 
contamination incidents, such as dioxins in milk.
    Question. What is the national, regional, or local need for this 
program?
    Answer. There is a continuing need for residue avoidance research 
and also residue mitigation research. This is of national and local 
importance to the economic welfare of food producers and all consumers 
of food products of animal origin.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The original goal was to prevent and mitigate the 
occurrence of illegal chemical residues in foods of animal origin. 
FARAD has been successful in accomplishing its goals, but this is an 
on-going process that continues to be an issue for producers of food 
animals.
    Question. How long has this work been underway and how much has 
been appropriated, by fiscal year, through fiscal year 2001?
    Answer. FARAD began in 1982 and has been supported by a variety of 
funding sources. However the specific work supported by this grant 
begins in fiscal year 2001. The appropriation for fiscal year 2001 is 
$284,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year 2001?
    Answer. The non-Federal funds and sources provided for this grant 
are as follows: Non-Federal support is for the salaries of all the 
principal investigators and other ``in-kind'' contributions by the 
three universities involved. In addition, North Carolina State 
University has provided approximately $50,000 to support FARAD.
    Question. Where is this work being carried out?
    Answer. Work is carried out at three cooperating universities: the 
University of California-Davis, the University of Florida, and North 
Carolina State University. At the University of California, a 
bibliographic citation management program and a pharmakokinetic data 
management program will be developed and maintained. FARAD Access 
Centers at the University of California and North Carolina State 
University respond to database inquiries requiring literature research 
and evaluation. At the University of Florida, an approved drug database 
will be maintained and a publication of electronic and hard-copy drug 
compendia will be developed.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The specific work support by this grant begins in fiscal 
year 2001. This work is on-going, and progress will be reported 
annually in a progress report requested from the principal 
investigators.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The specific work supported by this grant begins in fiscal 
year 2001. As with other projects, the results will be reported in an 
annual report submitted by the principal investigators.
 food electronically and effectively distributed (feed) demonstration 
                            project, oregon
    Question. Please provide a description of the project that has been 
funded under the Food Electronically and Effectively Distributed (FEED) 
Demonstration Project, Oregon grant.
    Answer. CSREES has requested the university to submit a grant 
proposal that has not yet been received. The brief description 
available now is that the project is to better coordinate through 
electronic technology, companies wishing to donate food with 
transportation companies and independent truckers wishing to help get 
that food to the food bank's storage locations in order to ultimately 
feed hungry people.
    Question. According to the proposal, or the principal researcher, 
what is the need for this project?
    Answer. Oregon was found to have a very high prevalence of hunger. 
This finding is as a result of a publication by the USDA-Economic 
Research Service entitled, ``Hunger Across the U.S.''
    Question. What was the original goal of this project and what has 
been accomplished to date?
    Answer. The original goal of this project is to coordinate 
transportation to fight hunger. The food bank will be able to take 
advantage of new interactive on-line information systems that will 
allow donors to enter donation information, which will link with 
transportation companies and independent truckers who have the 
transportation capacity to get donations transported. This program 
starts in 2001 so there are no data to report on progress.
    Question. How long has this work been underway and how much has 
been appropriated for fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year is $166,633. This work will just 
be beginning in 2001.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. At this time, there are no non-Federal funds to report.
    Question. Where will this work be carried out?
    Answer. The work will be carried out across the State of Oregon.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have objectives been met? What is the 
anticipated date of additional or related objectives?
    Answer. The proposal, which has not been received, will outline the 
objectives of this project.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The project will begin in 2001, so there are no evaluation 
data yet on this project.
                 income enhancement demonstration, ohio
    Question. Please provide a description of the program that has been 
funded under the Income Enhancement Demonstration, Ohio project.
    Answer. The Federal funds support the Agricultural Business 
Enhancement Center which plays a major role in the development of the 
agricultural sector of Northwest Ohio. The Center provides a variety of 
management training programs, helps farmers and other agribusinesses 
develop comprehensive business plans, and facilitates business 
networking.
    Question. According to the research proposal, or principal 
researcher, what is the national, regional, or local need for this 
program?
    Answer. The Center seeks to enhance the competitiveness of 
agricultural firms in Northwest Ohio and create greater economic 
opportunity for local residents. To be successful in business, farmers 
and other agribusiness firms must be able to adapt to a large number of 
major changes affecting the entire food system, from the farmer to the 
consumer. These include changes in farm programs, globalization of 
markets, new technologies, information systems, consumers' concerns for 
food safety and nutrition, and society's concern for protecting the 
environment. Individuals, families, firms, and communities in Northwest 
Ohio need to understand the changes, and develop and implement 
effective strategies for dealing with change.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The original goal of the project was to help people develop 
new businesses and restructure and expand existing businesses in order 
to enhance incomes in Northwest Ohio. The Agricultural Business 
Enhancement Center conducts economic research on market opportunities, 
provides a variety of management training programs, helps individual 
farms and other agribusinesses develop comprehensive business plans, 
and facilitates networking with businesses in other regions of the U.S. 
and around the world.
    Recent accomplishments include: A group of growers formed a 
cooperative that was successful in bidding for market locations at two 
travel centers on the Ohio Turnpike; additional centers will be 
requested. Perrysburg Farmers Market was organized in 1999. Northwest 
Ohio Pork Task Force is exploring alternatives to revitalize the area's 
pork industry. The Center is helping the Ohio Farm Bureau and Ohio 
Wheat Growers Association examine the feasibility of producing 
strawboard from wheat straw.
    The Center is participating in a USDA/CSREES grant to provide 
growers with production and business planning assistance for developing 
hydroponic vegetable production operations. Participants in the first 
``How to Get Started in Green House Production'' gave the seminar very 
high ratings. A study tour to Ontario, Canada, also was well received.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The project began in 1991. Appropriations have been as 
follows: $145,000 in fiscal year 1991; $250,000 in fiscal years 1992 
through 1995; $246,000 in fiscal years 1996 through 2000; and $245,459 
in fiscal year 2001. Appropriations to date total $2,620,459.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The State of Ohio has appropriated the following funds: 
$35,100 in fiscal year 1991; $72,368 in fiscal year 1992; $56,930 in 
fiscal year 1993; $30,547 in fiscal year 1994; $49,935 in fiscal year 
1995; $51,432 in fiscal year 1996; $48,664 in fiscal year 1997; $53,736 
in fiscal year 1998; $56,186 in fiscal year 1999; and $128,200 in 
fiscal year 2000.
    Question. Where is the work being carried out?
    Answer. The Agricultural Business Enhancement Center is located in 
Bowling Green, Ohio and serves eight counties in the Toledo 
Metropolitan Area. Project leadership is being provided by the 
Department of Agricultural Economics, Ohio State University, Columbus, 
Ohio.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have these objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1991 was for a period of 12 
months, however, the ongoing needs of producers and agribusinesses to 
adjust to major changes in the agricultural sector continues to provide 
the Center with many challenges. The current phase of the program will 
be completed in 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. CSREES performed the last annual merit review of the 
project in June 2000. The project is continuing to meet its goal of 
finding new economic opportunities for people in northwest Ohio. In the 
last CSREES review it was noted that: ``The project director and staff 
are well qualified to carry out the project and have proved their 
ability to do so. The project supports CSREES' goals of a highly-
competitive production system and enhanced economic opportunity. The 
proposal was merit reviewed, according to CSREES guidelines, by three 
Ohio State University faculty members representing the state, district, 
and local extension.''
         integrated cow-calf resources management (chips), iowa
    Question. Please provide a description of the program that has been 
funded as ``CHIPS: Cow-Calf Integrated Resource Management, Iowa 
Program.''
    Answer. CHIPS is an integrated cow-calf resource management--IRM--
program developed to assist Iowa beef producers in maximizing the 
profit potential of their individual livestock operations. CHIPS 
technicians provide technical services to participating cooperators 
that assist in the decisionmaking process as long-term plans are 
developed and finalized. The intent of the program is to strengthen the 
area's economy and at the same time, enhance the competitiveness of the 
individual's beef operation. CHIPS technicians work one-on-one with 
participants, offering support and services intended to improve the 
level of productivity, reduce production costs, and/or incorporate 
technology systems that are designed to improve the ``bottom line''. 
The program has systematically grown to extend services to over 210 
beef producers in over 60 Iowa counties.
    Question. What is the national, regional, or local need for this 
program?
    Answer. Today's beef industry is both volatile and challenging. 
Factors and variables that the producer has little or no control over, 
constantly challenge this rapidly changing industry. To address this 
volatile and rapidly changing agricultural infrastructure, the CHIPS 
program has adjusted its direction and focus to meet the ever-changing 
management and technical needs of Iowa beef producers. CHIPS 
technicians and support staff work closely with program participants to 
collect and analyze individual operation data. This information is used 
to develop management recommendations that enhance the performance and 
economic stability of the operation. This approach supports individual 
economic survival as well as strengthening the local and regional 
economic community.
    The CHIPS program also serves the industry by providing leadership 
and support to industry educational efforts. Working closely with the 
Iowa State University Extension Service, educational programs and 
demonstration projects have been developed and delivered, enhancing the 
educational opportunities provided to Iowa beef producers.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The overall goal of CHIPS is to have a positive effect on 
the area's economy by improving the long-term profit potential of the 
local cattle industry. To address this broad project goal, CHIPS has 
set forth the following objectives: Improve profit potential of 
cooperator farms; Identify issues and trends in the area of beef 
management; Provide CHIPS cooperators with intensive technical 
assistance to develop goals and individualized farm recommendations, 
including management areas such as pasture and forage production, 
rations, utilization of resources, record systems, and government farm 
program compliance; Help producers develop management skills to improve 
efficiency and reduce costs of production as CHIPS recommendations are 
implemented.
    During fiscal year 2000, CHIPS technicians conducted over 1,317 
farm and office visits. Numerous management areas were addressed during 
these one-on-one contacts. Over 32,000 head of calves and beef cows 
were weighed and over 6,000 breeding animals were permanently 
identified. Data collected are used in a variety of record programs, 
including CowSense and breed association records. Over the past 12 
months, CHIPS cooperators completed 139 reproduction-related programs 
and 26 Standardized Performance Analysis records--incorporating 
financial and performance information--were individually analyzed. More 
than 510 forage and soil samples were collected and approximately 325 
ration projections were developed for cooperators. As this activity 
summary indicates, the number of participating cooperators utilizing 
the record keeping programs and other program services continue to grow 
and expand.
    Networking projects continue to be emphasized by the CHIPS program. 
Examples include: Direct working relationship with the Chariton Valley 
Beef organization, CHIPS Heifer Development Program, educational 
efforts in conjunction with the Iowa Beef Center, and Iowa State 
University Extension, support a number of existing beef projects, and 
direct cooperation with the Iowa Quality Beef Program.
    Question. How long has the program been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. $138,000 per year was approved for fiscal years 1992 and 
1993; $276,000 for fiscal year 1994; $350,000 for fiscal year 1995; 
$345,000 per year for fiscal years 1996 and 1997; $300,000 per year in 
fiscal years 1998 and 1999; $250,000 in fiscal year 2000; and $284,373 
in fiscal year 2001. Federal funding through fiscal year 2001 totals 
$2,726,373.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. CHIPS cooperators pay client fees of approximately $3.00 
per beef cow. The fee structure is on a sliding scale that adjusts for 
cow herd size. In fiscal year 2000, approximately $50,000 in client's 
fees was collected.
    Question. Where is the work being carried out?
    Answer. The CHIPS program is being operated in six designated 
technician areas in Iowa. CHIPS services and technical support are 
currently being offered to beef producers in approximately 60 counties 
in the following Iowa areas: southeast--16 counties, south central--8 
counties, southwest--8 counties, northwest--8 counties, east central--8 
counties, and central--12 counties.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met?
    What is the anticipated completion date of additional or related 
objectives?
    Answer. Over the past several years, the CHIPS program has made 
considerable progress in achieving the project's goals. Cooperators are 
utilizing more of the data collection and record keeping programs that 
are currently offered. This data collection process has been important 
as producers make long-term decisions. CHIPS continues to adapt and 
modify program offerings and services.
    The Iowa beef industry now faces a challenging and exciting time 
period. CHIPS is positioned to be a prominent player in both the 
development of the Iowa beef industry and the providing of technical 
support to beef producers throughout the state. In fiscal year 2000, a 
marketing educational segment was incorporated in the service offerings 
of CHIPS to assist producers as marketing decisions are finalized.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A CSREES review of the project is conducted annually. The 
2000 review was positive, with suggestions made for more widespread 
dissemination of the results and materials developed, as well as 
increased emphasis on environmental management with the beef producers.
        national education center for agricultural safety, iowa
    Question. Please provide a description of the extension project 
that has been funded under the National Education Center for 
Agricultural Safety, Iowa grant.
    Answer. The mission of the National Education Center for 
Agricultural Safety--NECAS--is to reduce the level of preventable 
illnesses, injuries, and fatalities among agricultural populations. The 
NECAS serves farmers, ranchers, members of their families and their 
employees, and the people who supply goods and services to agriculture. 
The center is one of few centers in the world that provides actual 
hands-on, real life training opportunities. The center also works with 
rural fire departments, emergency planning agencies, and emergency 
medical technicians in a multi-state area to provide training for those 
who respond to rural emergencies.
    The NECAS is located in Peosta, Iowa. The facility is located at 
the Northeast Iowa Community College. Phase Two of construction has 
just been completed. The facility has a tractor over-turn demonstration 
area, hog confinement building complete with a manure pit, two silos, 
and a grain bin that allow the center to provide examples of situations 
commonly encountered on farms and ranches and teach actual rescue 
techniques. Additional classes on First Aid, Cardiopulmonary 
Resuscitation, and First Responder courses are provided for members of 
farm families.
    The Center has assisted local farmers and small corporations to 
screen workers for employment health risks and conducts programs on 
hearing loss prevention, use of personal protective equipment, skin 
cancer prevention, and the identification and mitigation of risks of 
animal handlers and confinement workers.
    The Center operates an 11,000 square foot facility that was funded 
by the state of Iowa with matching private donations. The USDA grant 
provides funds for salaries and operating expenses. Donations from 
individuals and agri-business provide donations of equipment, 
curriculum, and program development funds. The National Safety Council 
and Northeast Iowa Community College underwrite additional operating 
costs not covered by the USDA grant or donations.
    Question. According to the extension proposal, or the project 
director, what is the national, regional, and local need for this 
program?
    Answer. According to information compiled annually by the National 
Safety Council, there were 770 work-related fatalities among 
agricultural workers in 1999. The Council also estimates that there 
were more than 150,000 disabling injuries among agricultural workers in 
1999. While deaths have declined by 30 nationwide, disabling injuries 
have increased by 7 percent since 1998. Approximately 23 out of every 
100,000 agricultural workers died from injuries received in workplace 
incidents. Farm accidents kill the young and the old. Between 100 and 
125 children and youth are killed on farms each year.
    Fatal injury incidents are preventable, and the number of disabling 
injuries which occur annually can be reduced. The NECAS has developed 
interactive training for at-risk audiences, including senior farmers, 
children and youth, and couples who work off the farm to earn enough 
income to remain in the farming business. The Center provides extensive 
training for those who are first on the scene at farm emergencies. It 
is often a member of the farmer's family who discovers an accident 
victim. NECAS trains family members to stabilize this victim until 
emergency medical help arrives. NECAS also trains rural emergency 
responders on how to protect themselves when responding to an 
emergency. These many volunteers respond from their place of business 
or home and arrive on the scene without protective gear or tools.
    An extensive array of programs for youth are offered in a Tri-State 
Area. NECAS holds safety day camps, fall harvest safety day, chain saw 
safety, tractor safety, and hunter safety programs.
    Question. What was the original goal of this training center and 
what has been accomplished to date?
    Answer. The original and continuing goal of this Project is to 
develop, implement, and evaluate diverse training methods for met 
training needs of at-risk agricultural audiences. The Center has 
recently completed a program in conjunction with the Iowa Fire 
Marshall's Office to deliver a program on Farm Chemical Awareness 
through the Iowa Communications Network. This fiber optic network has 
the capacity of linking more than 100 training sites across the state. 
More than 700 rural firefighters, from 33 different locations, 
participated in this six-hour course. The Center recently trained an 
emergency medical crew from Kansas at the center and has implemented a 
number of out-reach causes to small businesses and rural fire 
departments.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant began in fiscal year 1998 
with an allocation of $195,000 per year for fiscals year 1998-2000 and 
for fiscal year 2001 is $194,571. The total appropriation to date has 
been $779,571.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year.
    Answer. The sources of non-Federal funds are as follows: $450,000 
in 1998 from the state of Iowa for construction of the second phase of 
the facility. Donations from individuals and agri-business companies 
totaled $75,000. In 1999, contributions of $135,200 were received from 
individuals, the state of Iowa, and agri-business. In 2000, 
contributions of $103,875 were received from the State Fire Marshall of 
Iowa, individuals, and agribusiness sources.
    Question. Where is the work being carried out?
    Answer. Training and educational programs under the grant are being 
conducted at the NECAS located on the Northeast Iowa Community College 
Campus in Peosta, Iowa. NECAS also presents programs at a variety of 
meetings and participates in agricultural trade shows and events and 
presents programs upon request to agricultural groups, local fire 
departments, and agri-businesses at off-site locations.
    Question. What was the anticipated completion date for the original 
objectives of this project? Have the objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The anticipated completion date of the original objectives, 
was March 31, 2001. Many of the objectives have been met. Anticipated 
completion of additional objectives is March 31, 2002.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. A CSREES merit review of the project application and site 
review were conducted in the spring of 1999. Another site visit is 
scheduled for June of 2001. The project will be completing its fiscal 
year on March 31, 2001. The National Education Center for Agricultural 
Safety evaluates all its programs and has supplied USDA with copies of 
all programs conducted and the evaluations received on each event. The 
NECAS utilizes external farm safety and health evaluators and has two 
Advisory Committees to maintain its focus on the most pressing issues 
affecting the safety and health of our nation's agricultural 
populations.
                  pilot technology project, wisconsin
    Question. Please provide a description of the program that has been 
funded under the Pilot Technology Project, Wisconsin grant.
    Answer. The primary industrial extension activity of the 
Manufacturing Technology Transfer program is the delivery of technical 
assistance to manufacturing companies. Executive direction in 
determining the assistance required is provided by the University of 
Wisconsin-Stout's Northwest Wisconsin Manufacturing Outreach Center. 
Direct consultation and long-term in-plant assistance is delivered 
primarily through the efforts of university project managers. Direct 
assistance may be delivered through co-op students, staff of the 
University of Wisconsin System, both two- and four-year institutions, 
and Extension services; the Wisconsin Technical College System; 
secondary schools; the private sector, professional societies, and 
private consultants, or attendance at state or national seminars. The 
project also draws on many other state resources to add expertise and 
capacity to network facilitation and in-plant extension activities.
    Question. What is the national, regional, or local need for this 
program?
    Answer. America's manufacturers continue to face tremendous global 
competition. There are enormous pressures to improve the quality of 
products and reduce the time consumed to bring new products to market, 
and there remains an ever-increasing demand to reduce the costs of 
products. Currently there is a strong movement in manufacturing to use 
speed-to-market combined with new product introduction as a tool to 
obtain a competitive advantage. Large companies are not the only ones 
influenced by these trends. Small and medium-size manufacturers often 
supply directly to the market or are vital elements of a supply chain. 
Hence, they must be able to respond quickly to changing market 
conditions while continuously improving productivity and product 
quality.
    Question. What is the original goal of this program and what has 
been accomplished to date?
    Answer. The Manufacturing Technology Transfer program's principal 
objective is the development of a competitive, secure manufacturing 
base through the mechanism of industrial extension. The program 
principally targets small and medium-size manufacturers in rural 
Wisconsin. This funding will: continue to provide valuable industrial 
extension service to the target audience; support the continued 
empirical development of an industrial extension model; and investigate 
the use of new manufacturing technologies to support global 
competitiveness of manufacturers. Productivity improvements were 
reported by the companies showing impressive economic impact to the 
region through client operations assessments and plant evaluations, 
strategy development for continuous improvement, implementation of new 
organizational and operational methods, implementation of new 
manufacturing technologies, establishment of quality assurance/total 
quality systems, establishment of ongoing training programs, and on-
site instruction in new technologies, improved methods, and processes.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This project has been underway since fiscal year 1992 and 
was funded for $165,000 per year in fiscal years 1992 through 1995; 
$163,000 in fiscal years 1996 through 2001; and $162,641 in fiscal year 
2001 for a total of $1,637,641.
    Question. What is the source of and amount of non-Federal funds 
provided by fiscal year?
    Answer. University of Wisconsin-Stout provides $24,367 as in-kind 
match. Funds from other state, University, and partner resources are 
pooled with USDA funds to carry out the described efforts.
    Question. Where is this work being carried out?
    Answer. The University of Wisconsin-Stout, Menomonie, Wisconsin, 
carries out the work. From this location, companies are served 
throughout Wisconsin, but primarily in the northwest counties.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original proposal in 1992 was for a period of 12 
months. However, the Manufacturing Technology Transfer program was 
developed as a continuously evolving industrial extension strategy for 
serving the needs of the manufacturing community. Success is measured 
by meeting the objectives of each year's proposal, including the 
delivery of modernization assistance and development of an industrial 
extension model. The current phase of the program will be completed in 
2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. To measure the success of the project, a client evaluation 
process has been developed which includes an evaluation questionnaire. 
Evaluations are performed both by program staff and by an objective, 
third party survey house. Evaluations indicate significant forward 
strides in job creation, new businesses, expanded productivity, and 
enhanced international competitiveness. In 2000, the U.S. Department of 
Commerce performed an agency evaluation of this project. Evaluation 
highlights showed that the program: provided 191 technical assistance 
projects for 107 companies; sponsored 35 educational events attended by 
436 individuals and 252 companies; helped create or retain 140 jobs; 
and achieved $13.4 million in economic impacts. Clients indicated that 
assistance from the project helped reduce labor costs, reduce material 
costs, reduce inventory costs, and increase sales. Clients said the 
program provided affordable, objective assistance and local access to 
the resources they need to help them prosper.
                   potato pest management, wisconsin
    Question. Please provide a description of the work that has been 
funded by the Potato Pest Management, Wisconsin grant.
    Answer. The goal of work supported by this funding is to advance 
the use of bio-intensive integrated pest management and reduce reliance 
on high-risk pesticides. The project is a collaborative effort 
involving the University of Wisconsin, the World Wildlife Fund, and the 
Wisconsin Potato and Vegetable Growers Association. Market-based 
incentives to accomplish these goals will be developed and tested. An 
environmental, performance-based label standard for Wisconsin fresh 
market potatoes will be developed. Market research will be conducted to 
develop a marketing plan, certification, and testing mechanisms to move 
certified product from Wisconsin fields through the value chain to 
selected retailers. Environmental indicators and measurement methods 
will be developed. A pilot project will begin research with selected 
potato growers to identify key ecosystem conservation opportunities on 
their lands including crane damage mitigation. A collaboration advisory 
committee will be formed to help develop a plan for targeted outreach 
to project growers.
    Question. What is the national, regional, or local need for this 
program?
    Answer. In 1996 this grower-university-environmental group 
partnership in Wisconsin established concrete targets for reducing use 
of high-risk pesticides in potato production. This innovative, 
voluntary, multi-stakeholder project can provide the USDA with valuable 
insights into Food Quality Protection Act--FQPA--transition issues. 
This project will help develop marketplace incentives that reward 
farming practices that reduce the impact of agricultural pesticides on 
health and the environment. This is in response to the growing consumer 
demand for products that are produced with sustainable methods. The 
activity benefits Wisconsin by putting its growers in a leading 
position to capture this expanding market. It offers value-added 
options to the vegetable industry facing over-production, low prices, 
and new FQPA regulatory demands.
    Question. What was the original goal of this program, and what has 
been accomplished to date?
    Answer. This is the first year that the pesticide risk reduction 
goals and the integrated pest management measurement system will be 
combined with developing a marketing strategy for eco-labeled potatoes.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Answer. Fiscal year 2001 is the first year of this Special Grant 
and $189,582 was appropriated. The project's foundation of applied 
field research, measurement, and extension has been funded from 
numerous sources over the past five years. The potato growers, the 
University of Wisconsin, foundations, the World Wildlife Fund, the USDA 
grants, and the Environmental Protection Agency support through 
American Farmland Trust have contributed to the groundwork.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The Wisconsin potato growers contribute more than $150,000 
annually to support University of Wisconsin research and technology 
transfer that is critical to the project. The Wisconsin Department of 
Agriculture, Trade and Consumer Protection has provided $25,000 for 
value-added marketing.
    Question. Where is the work being carried out?
    Answer. The work is being done with fresh market potato growers in 
the following Wisconsin counties: Adams, Columbia, Barron, Green Lake, 
Langlade, Marquette, Portage, Sauk, Waupaca, and Waushara.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The initial phase of developing the eco-label standard and 
marketing strategy will be completed this year. Additional research 
will be needed to improve the environmental indicators incorporated in 
the standard, to test and improve the marketing strategy, to assist 
more growers in meeting the standard, and to extend the initiative to 
processing potatoes and to other vegetable crops grown in rotation with 
potatoes.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. This is a new project, and a proposal has been requested 
from the University of Wisconsin. The proposal will be peer reviewed 
prior to submission to the Agency. The proposal will undergo merit 
review by Agency staff prior to release of funds.
                  range policy development, new mexico
    Question. Please provide a description of the extension program 
that has been funded under the Range Policy Development, New Mexico 
grant.
    Answer. The Range Policy Development project has collected local 
economic data throughout the State. Local data have been used to 
develop an economic model to help explain the relationships between 
local economies and primary industries. The model enables policymakers 
to better understand how local and State economies are tied to primary 
industries, especially those industries that use public lands. The 
focus of the project is on the livestock grazing industry.
    Question. According to the extension proposal, or the principal 
project investigator, what is the national, regional, or local need for 
this project?
    Answer. In New Mexico and throughout western states, many local 
economies are dependent on the use and management of public range and 
forest lands. However, there exists a great deal of disagreement about 
the true level of dependence of individual communities on these public 
land-based industries and, consequently, disagreement about the local, 
statewide, and regional impacts of public policies that alter the use 
and management of these lands. Through better understanding of how 
public lands impact local and regional economies, we now can predict 
the outcomes of potential legislation or amended land use policies, 
resulting in policies that enhance, rather than detract from, local 
economies. The model was used to analyze the economic impacts of 
rangeland reform. The Bureau of Land Management and the Governor's 
State team chose to use the tool to analyze county alternatives for the 
State Environmental Impact Statement.
    Question. What is the original goal of this program and what has 
been accomplished to date?
    Answer. The model has been requested by the U.S. Forest Service to 
help improve Region 3 Land Use Plan Amendments in response to newly 
listed Threatened and Endangered Species. New Mexico is in the process 
of developing detailed input-out models for each county from local and 
state tax revenue data. Economists are following up with workshops 
across the state to present information from economic forecasts to 
local decision makers. Further, the project calls for increasing the 
utility of the models by expanding the scope of the database to include 
oil, gas, cheese processing, dairy, and food livestock industries in 
addition to the grazing enterprises.
    Question. How long has this work been under way and how much has 
been appropriated through fiscal year 2001?
    Answer. This project was initiated in December 1994. In fiscal year 
1995, $200,000 was appropriated, in fiscal years 1996-2000, $197,000 
per year; and in fiscal year 2001, $196,567. The total appropriation 
for the project is $1,381,567.
    Question. What is the source and amount of non-Federal funds to 
support this project?
    Answer. The project budget does not indicate any non-Federal 
support. However, Agricultural Research Stations in five other States 
have economists currently working to expand upon the New Mexico 
project, ultimately to build a regional model.
    Question. Where is this work being carried out?
    Answer. This extension project is being carried out at New Mexico 
State University. Broad regional interest in the project has led to 
efforts to expand applications to fit other regional sites.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. According to the project director, most of the original 
objectives of the first phase have been accomplished. The second phase 
of the project was initiated September 15, 1999. This phase will 
investigate the hypothesis that recreation--in particular, Federal 
land-based dispersed recreation--generates sufficient revenue to offset 
the significant and now documented economic contributions of the 
consumptive industries, such as range, forestry and mining, and crop 
and livestock agriculture. Recreation expenditure patterns and economic 
cycles will be investigated. Production agriculture and range livestock 
are vital segments of rural economies. These sectors produce 
sustainable long-term income and wealth and are the basis of the 
customs and culture of rural economies. The anticipated completion date 
is September 30, 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The proposals for continued funding are subject to merit 
review each year. The most recent merit review of the proposal for this 
project was conducted in late spring of 2000. The review focused upon 
the relevance of the project goals, the suitability of the proposed 
research methods, and the progress to date of the project. The review 
determined that adequate progress had been made toward fulfilling the 
objectives of the second phase of this project.
                       rural development, alaska
    Question. Please provide a description of the program that has been 
funded under the Rural Development, Alaska project.
    Answer. This program provides technical assistance to small 
business to create and retain jobs in rural, under-served areas of 
Alaska and to stimulate local economies. The Southeast Alaska component 
will focus on forest-oriented, home-based and cottage businesses. The 
Western Alaska component is focusing on youth entrepreneurship, 
workforce development, e-commerce, and tourism.
    Question. What is the national, regional, or local need for this 
research?
    Answer. Remote areas in Alaska and other parts of the U.S. are 
struggling to survive in today's very competitive international 
marketplace and with the many management and policy changes being 
deployed on public lands. Alaska's indigenous population needs 
technical assistance to help them define new economic opportunities. 
Strategies and development tools designed in this region can be 
utilized in other areas of the United States and territories.
    Question. What was the original goal of this program and what has 
been accomplished?
    Answer. The original goal of the program was to create new economic 
opportunities in remote areas of Alaska. The project has been underway 
only a few months and project goals have not been accomplished to date.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. This project was begun in fiscal year 2000. Appropriations 
include $276,285 for fiscal year 2000 and $616,640 for fiscal year 
2001. The total amount appropriated is $892,925.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. No non-Federal funds have been provided for this project.
    Question. Where is this work being carried out?
    Answer. The work is being carried out by the University of Alaska 
Fairbanks Cooperative Extension Service.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The initial project proposal has a completion date of 
September 30, 2002. The proposal for fiscal year 2001 funding has not 
been submitted to date.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The initial project proposal underwent a merit review 
within the agency. Since the project is recently initiated, no reviews 
have been conducted to date.
             rural development through tourism, new mexico
    Question. Please provide a description of the program that has been 
funded under the Rural Economic Development Through Tourism, New Mexico 
project.
    Answer. The Rural Economic Development Through Tourism Project--
REDTT--involves applied research and outreach focused on locally-based 
tourism development strategies to enhance economic opportunity in small 
and rural communities in New Mexico. Components of the agenda support 
training of local leadership and tourism professionals, strategic 
planning and market development, and technical assistance to 
communities.
    Question. What is the national, regional, or local need for this 
program?
    Answer. This is an ongoing pilot to demonstrate the effective 
development and implementation of applied research, training, 
education, and technical assistance related to rural tourism as a 
development strategy. The grant has demonstrated that a long-term 
commitment of resources and activity can lead to effective development 
of tourism resources and build new market opportunities and tourism 
products for small communities. As rural America and farmers and 
ranchers seek out new economic opportunities, this proposal has strong 
potential for contribution to a national strategy in rural tourism 
development.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The applied research and outreach project was designed by 
the State Cooperative Extension Organization to increase the ability of 
the public sector to enhance economic opportunity for rural communities 
through tourism development. A regional task force composed of 
Extension professionals and community leaders from business, industry, 
education, and government--local, state, and Federal--was developed to 
guide and advise the development and implementation of locally-based 
programming and research. The results include video training materials, 
a public relations package, image studies and profiles, regional 
tourism guides, development of tourism bus packages, festival planning 
workshops, development of regional tours, and a mini-grants program for 
tourism development.
    Question. How long has this work been underway and how much has 
been appropriated through fiscal year 2001?
    Response . In fiscal years 1992 through 1995 the amount of $230,000 
was appropriated. The appropriation for fiscal years 1996-1997 was 
$227,000 per year; for fiscal year 1998 was $247,000; for fiscal years 
1999-2000, $280,000 per year; and fiscal year 2001, $279,384. Total 
appropriated funds to date is $2,460,384.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Fiscal year 1992 included $38,764 in state matching funds. 
Fiscal years 1993, 1994, 1995 and 1996 included $39,360 of state 
matching funds. Fiscal years 1997 and 1998 included $39,040 state 
matching funds and fiscal year 2000 included $50,804 in state matching 
funds. The proposal for fiscal year 2001 has not been submitted to 
date.
    Question. Where is this work being carried out?
    Answer. Applied research and outreach is being carried out through 
New Mexico State University.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original completion date was September 30, 1993. The 
original objectives of this research have been met. The additional 
objectives presented for the 2000 year will be completed by March 31, 
2001. The fiscal year 2001 proposal has not been submitted to date.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency evaluates the merit of research proposals as 
they are submitted. No formal evaluation of this project has been 
conducted. The principal investigators and project managers submit 
annual reports to the agency to document impact of the project. Each 
year, the project has demonstrated accomplishments in the reports 
submitted. Impacts include increases in attendance of local festivals, 
increase in the number of tour bus visits to New Mexico, training to 
over 700 tourism employees in the region, and establishment of a number 
of new businesses. Agency evaluation of the project includes peer 
review of accomplishments and proposal objectives and targeted 
outcomes.
                     rural rehabilitation, georgia
    Question. Please provide a description of the program that has been 
funded under the Rural Rehabilitation, Georgia project.
    Answer. The program has tested the feasibility of providing 
satellite-based adult literacy education, in association with 
vocational rehabilitation services, to handicapped adults in rural 
Georgia. The program has developed curriculum, tested and adapted 
technology, established student recruitment and retention strategies, 
expanded to statewide coverage, and provided successful adult literacy 
education. Current proposal is addressing technology based literacy 
education.
    Question. What is the national, regional, or local need for this 
program?
    Answer. A state task force has estimated that 25 percent of 
Georgia's adult population is functionally illiterate. Functional 
illiteracy is regarded in Georgia as a form of disability. This project 
and other interests in Georgia have determined functional literacy to 
be a major issue. While this project proposal is based on state needs, 
similar problems exist throughout the country with various targeted 
populations.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. The original goal of this program was to prove that 
distance learning can be an effective tool for reaching and teaching 
functionally illiterate adults in rural areas. This program has 
demonstrated that satellite-based literacy training, in cooperation 
with vocational rehabilitation services, can successfully provide adult 
literacy education designed to improve critical reading, writing, and 
thinking skills for handicapped rural adults. Over the past nine years, 
test scores and attendance and completion rates of students in the 
satellite-based program have shown that distance learning is an 
effective delivery system for instructing low-level readers and non-
readers. Test scores and attendance rates of students in this program 
have been comparable to those of students in traditional urban classes. 
The project is currently working to perfect a process for Internet-
based instruction and student assessment.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. Funding for this program was initially appropriated in 
fiscal year 1989, and the program has been in operation since March 
1989. Through fiscal year 1998, appropriations for this program have 
been as follows: $129,000 in fiscal year 1989; $256,000 per year in 
fiscal years 1990 through 1992; $250,000 per year in fiscal years 1993 
through 1995; $246,000 per year in fiscal years 1996 through 1998; 
$236,160 for fiscal year 1999; $246,000 in fiscal year 2000; and 
$245,469 in fiscal year 2001, for a total of $3,112,619.
    Question. What is the source of and amount of non-Federal funds 
provided by fiscal year?
    Answer. The fiscal year 1998 source of non-Federal funds provided 
for this program are state appropriated funds from the Georgia 
Department of Adult Education. Prior years sources also included 
private contributions from the Woodruff Foundation and other local 
foundations. Through fiscal year 1998, the total amount of non-Federal 
funds provided for the project has been $8,006,901. The breakdown by 
fiscal year is: $164,000 in fiscal year 1988; $270,500 in fiscal year 
1989; $809,675 in fiscal year 1990; $656,765 in fiscal year 1991; 
$65,000 in fiscal year 1992; $1,019,821 in fiscal year 1993; $20,000 in 
fiscal year 1994; $872,500 in fiscal year 1995; $1,500,000 in fiscal 
year 1996; $1,319,320 in fiscal year 1997; and $1,309,320 in fiscal 
year 1998. $236,160 in non-Federal funds was provided for the 2000 
budget year by project partners. The proposal for 2001 funding has not 
been submitted to date.
    Question. Where is this work being carried out?
    Answer. The Georgia Tech Satellite Literacy Project is sponsored 
and operated by four organizations: Georgia Institute of Technology's 
Center for Rehabilitation Technology, the Center for Rehabilitation 
Technology, Inc., Literacy Action, Inc., and the Georgia Department of 
Technical and Adult Education. The program grantee is CRT, Inc., a 
private, not-for-profit business advisory board to the Center for 
Rehabilitation Technology, College of Architecture, Georgia Institute 
of Technology, from which the literacy instruction has been provided.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. It was anticipated that it would take 3 years to 
demonstrate that distance learning can be an effective tool for 
reaching and teaching functionally illiterate adults in rural areas. 
That original objective was met in fiscal year 1991. Additional 
objectives since fiscal year 1991 have been to expand the outreach of 
the satellite based adult literacy program to enough additional sites 
throughout the State of Georgia so that all potential participants have 
reasonable access to the program, and to continually upgrade the 
quality of class programming and the technical capacities of the 
system. The fiscal year 1997 technological upgrades expanded the 
capacity of the program more than twenty-five-fold, from seventy-seven 
to over 2,000 downlink sites, and a six-fold increase in broadcast 
hours, and made materials available as supplemental tools to all 
Georgia literacy classes. As of December 1997, the Georgia Tech 
Satellite Literacy Program was in a period of transition from that of 
providing literacy instruction via direct television broadcasts to 
classrooms to that of development and dissemination of technology-based 
instructional aids. The project has been renamed the Lifelong Learning 
Network, or LNN. This change was made based upon the request of the 
major sponsor, the Georgia Department of Technical and Adult Education, 
Office of Adult Literacy. The LNN will develop and produce video-based 
instructional supplements, technology-based curriculum and training for 
adult literacy practitioners, and multi-media projects for literacy 
students. The completion date for fiscal year 2000 funding proposal is 
March 1, 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. The agency receives annual reports on the project that are 
used, together with agency merit review, to assess its progress. Based 
on these reports, the agency has found that the project has made steady 
progress in demonstrating the feasibility of utilizing distance 
learning technology and teaching methods to provide adult literacy 
education programs to handicapped adults throughout the State of 
Georgia. The project has been successful in applying the latest 
distance education technology to both control the program cost per 
participant and, most recently, to expand the availability of the 
program. The proposal is peer reviewed within the agency for compliance 
with program guidelines and project merit each year.
         technology transfer projects, oklahoma and mississippi
    Question. Please provide a description of the program that has been 
funded under Technology Transfer Projects, Oklahoma and Mississippi.
    Answer. The original work involved the transfer of uncommercialized 
technologies from Federal laboratories and universities to rural 
businesses and communities. The objectives have evolved to providing 
more one-on-one assistance to small manufacturers. This type of 
assistance responds to the stated needs of a small manufacturing 
community and meets a recognized gap in the existing service provider 
community. In turn, this innovative and unique program has opened an 
entirely new clientele base for the Cooperative Extension Service.
    Question. What is the national, regional, or local need for this 
program?
    Answer. While every community, state, region, and even nation has a 
vital need for exploring, understanding, and developing technology, 
many do not have the necessary resources to meet this need. As an 
example, the Internet has many potential possibilities for education 
and business to entertain, but without investigation, these potential 
users will probably not utilize these technologies until they have been 
demonstrated to be worthwhile and effective. This puts those groups at 
a disadvantage with the potential for them to fall farther and farther 
behind. Projects such as the Technology Transfer Project provide a way 
for these groups to take advantage of these technologies in the 
adoption process and integrate them into their operations, thus 
enhancing their position. Mississippi is in particular need in this 
respect because of the very low economic resources and rural nature of 
the state. The Oklahoma Manufacturing Extension Partnership has 
received national acclaim for its noteworthy and highly effective 
partnership with the land-grant universities.
    Question. What is the original goal for this program and what has 
been accomplished to date?
    Answer. The original goal for the project was the exploration, 
evaluation, development, and education-transfer of innovative 
technologies to rural businesses, communities, and governments.
    Within the activities of this project, numerous technologies have 
been explored and evaluated for potential use by various groups. 
Technologies such as microcomputers, satellite dishes, Geographic 
Information System--GIS--technology, remote sensing technology, the 
Internet, computer networking, cellular telephones, specialized 
software and wireless communications have all been evaluated and 
educational programs developed. Rural communities and governments have 
been primary targets of the educational activities associated with the 
project since its inception. With the educational objective of this 
project being a primary factor, numerous workshops have been provided 
to teach clientele how to best utilize these technologies. 
Demonstrations, either as pilot projects or as exhibits and 
presentations, have been utilized in many areas to extend dissemination 
of information and skills.
    Question. How long has the work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. Funding appropriated to date is as follows: $350,000 per 
year in fiscal years 1984 and 1985; $335,000 in fiscal year 1986; 
$333,000 per year in fiscal years 1987 through 1990; $331,000 per year 
in fiscal years 1991 through 1995; $326,000 per year in fiscal years 
1996 though 2000; and $325,283 in fiscal year 2001. Total 
appropriations are $5,977,283.
    Question. What is the source and amount of non-Federal funds?
    Answer. Oklahoma State University and Mississippi State 
University--MSU--have provided considerable amounts of matching support 
from state funds over the life of the project. Over the past five 
years, support has included a significant portion of engineering 
faculty salaries as well as the administrative support of county and 
district extension staff. Matching funds have been at least equal to 
the amount of the project funds in the last 10 years. Matching funds 
have included faculty salaries, technology equipment costs, travel, 
supplies, and administrative support. If all monies required to develop 
and implement technologies associated with this project were counted, 
the total would be far greater than the Federal funds provided. For 
example, equipment expenditures in MSU Extension to support technology 
activities in the past year alone were $500,000.
    Question. Where is this work being carried out?
    Answer. The work is being carried out by Mississippi State 
University and Oklahoma State University and, more importantly, on the 
shop floors of the small rural manufacturers. In Mississippi, work 
related to this project is also being carried out in some community 
colleges, on the Internet, and in every county. Demonstrations, 
educational workshops, Internet access, video-conferencing sessions, 
satellite conferences, and one-on-one sessions have been conducted in 
businesses, local government offices, Extension offices, schools, 
farms, and even homes, where appropriate. In Oklahoma, the program is 
being delivered in the Southeastern quadrant of the state where the 
counties are in the lower tier of per-capita income and have higher 
than average unemployment.
    Question. What is the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. The original project objectives were to be completed in 12 
months and have been met. However, the technology transfer process is 
continuous because the pace of introduction of new technologies is ever 
increasing and the gap between the technological competence and 
utilization by rural and urban manufacturers is ever widening. New 
specific and measurable objectives have been developed each year. The 
achievement of those objectives has been documented in annual reports. 
The objectives of both programs have been the delivery of high-quality 
engineering assistance and technology transfer services to small 
manufacturers, conducting joint workshops, client referral, joint 
research and application projects, and demonstration of value of 
service to clients. The current phase of the program will be completed 
in fiscal year 2001.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the last evaluation conducted.
    Answer. In Mississippi, site visits and merit reviews have been 
conducted by university evaluators annually as well as client surveys 
by project staff themselves. Survey results have documented job 
creation, productivity enhancement, and local community economic 
activity. The Technology Transfer Program has impacted the integration 
of emerging technologies that are benefitting the citizens, ranging 
from assisting small businesses and industries in integrating new 
computer hardware and software for conducting electronic commerce, to 
providing extensive on-line information resources. The Technology 
Transfer Funds have served as a catalyst for the development of a long-
range telecommunications network plan for the total extension service 
to link all county extension offices and research centers directly to 
the Mississippi data/video backbone and provide access to the Internet. 
Evaluations are conducted on every educational workshop and activity.
    In Oklahoma, appraisal of program performance was conducted by the 
Oklahoma Alliance for Manufacturing Excellence in the year 2000. The 
impact for the companies served was valued at $13.7 million and the 
economic value of the number of new jobs created and saved was $8.9 
million. During fiscal year 2000, client satisfaction surveys were 
conducted and the program and its staff were rated very high. A U.S. 
Department of Commerce review during fiscal year 2000 indicated that 
the Oklahoma program should serve as a national model.
                    vocational agriculture, oklahoma
    Question. Please provide a description of the program that has been 
funded under the Vocational Agriculture, Oklahoma grant.
    Answer. CSREES has requested that the Retired Educators for 
Agricultural Programs--REAP--a 501(c)3 organization, submit a grant 
proposal that has not yet been received.
    Question. What is the national, regional or local need for this 
program?
    Answer. The need for this outreach effort is due to the diminishing 
numbers of African American agriculture education teachers in Oklahoma 
and the scarcity of the African American youth enrolled in vocational 
agriculture and participating in 4-H and FFA programs.
    Question. What was the original goal of this research and what has 
been accomplished to date?
    Answer. The original goal of this program was to build a foundation 
to promote personal and economic opportunities in agriculture for 
African American youth in Oklahoma through project development and 
partnerships with educational and other community resources.
    Question. How long has this work been underway and how much has 
been appropriated by fiscal year through fiscal year 2001?
    Answer. The work supported by this grant begins in fiscal year 2001 
and the appropriation for fiscal year 2001 is $275,393.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. The Oklahoma Department of Agriculture has provided funding 
to the project over the past three years as follows: $52,500 per year 
in fiscal years 1999 and 2000 and $49,500 in fiscal year 2001. The 
Oklahoma Conservation Commission, in cooperation with the Oklahoma 
Natural Resources Conservation Service, has provided to REAP $25,000 in 
fiscal year 1998, $50,000 in fiscal year 1999, and $95,630 in fiscal 
year 2000.
    Question. Where is this work being carried out?
    Answer. A pilot program has been conducted in Creek, Muskogee, 
Okfuskee, Okmulgee, and Tulsa counties in Oklahoma. The pilot also 
reached Logan, Oklahoma, and Seminole counties. Non-Federal funding 
listed above helped to carry out these pilot projects.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
anticipated completion date of additional or related objectives?
    Answer. This is an ongoing project with the objective of involving 
more African American youth in agriculture education programs. Since 
the program inception in 1994, more than 100 young students have become 
involved and pursued additional education in the field of agriculture.
    Question. When was the last agency evaluation of this project? 
Provide a summary of the evaluation conducted.
    Answer. This is the first year the Retired Educators for 
Agricultural Programs has received funding from the agency. An 
evaluation will be conducted upon completion of the project.
                         wood biomass, new york
    Question. Please provide a description of the program that has been 
funded under the Wood Biomass, New York grant.
    Answer. The goal of the project is to facilitate the 
commercialization of willow biomass crops as a locally grown, renewable 
feedstock for bioproducts and bioenergy in the Northeastern and Midwest 
regions of the U.S. The goal will be reached by simultaneously applying 
research results to optimize the production system to produce the 
highest yields at the lowest possible cost, educating potential 
producers so that they can make informed decisions about producing the 
crop, educating other key target audiences, and by expanding markets 
for bioenergy and bioproducts. The scenario is challenging because 
there is currently not enough willow biomass established to fulfill 
market needs, while at the same time there are currently no long-term 
commitments that will assure producers of a stable market in the 
future.
    Question. According to the extension proposal, or the principal 
researchers, what is the national, regional, or local need for this 
project?
    Answer. The researchers hypothesize that the project is of national 
interest. This project will serve as a model for bringing other closed 
loop biomass feedstocks through the research, development, and 
deployment phases to commercialization. Research on biomass crops spans 
more than 20 years at USDA and the Department of Energy during which 
time-significant progress has been made. Several of these crops, 
including willow biomass crops, are now poised to make the next step 
towards commercialization. However, as is the case with any new crop, 
ongoing research will be necessary to optimize crop production and 
improve returns to local producers. The near-term energy market 
strategy for willow biomass is co-firing at pulverized coal power 
plants. Longer-term conversion uses include gasification and combined 
heat and power systems. Increased effort by other outside groups is 
focused on the fabrication of new biobased materials and chemicals from 
willow biomass as an alternative to products currently derived from 
non-renewable fossil fuels. A major benefit of the willow biomass 
cropping system is the production of environmental and social benefits 
simultaneously with renewable energy and bioproducts. Benefits include 
offsetting carbon emissions from fossil fuels, reduced power plant 
emissions when the biomass is co-fired with coal, rural economic 
development, reduction in soil erosion and non-point source pollution 
associated with conventional agriculture, and the creation of wildlife 
habitat. These efforts can play a major role in bolstering America's 
farm and forestry sectors, increasing energy independence, 
strengthening the protection of the environment, mitigating waste 
problems, and enhancing recycling policies and practices. The 
production, quantification, and valuation of these benefits is 
essential in order to make the system economically viable under the 
current electric energy industry structure.
    Question. What was the original goal of this program and what has 
been accomplished to date?
    Answer. Overall program goals are: (1) Promote willow biomass crops 
as an alternative farm crop for domestically produced, renewable 
bioproducts and bioenergy. (2) Provide verification of scale-up 
estimates of yields and production costs from small research plots to 
commercial size fields. (3) Test and refine the production system for 
willow biomass crops, which will provide a base of experience and 
knowledge to launch commercial production. (4) Facilitate information 
exchange among the diverse groups of participants in the project (e.g. 
farmers, agricultural specialists, natural resources professionals, 
scientists, business interests, economists, engineers, policy makers). 
(5) Cooperate with the Salix Consortium to advance prospects for the 
commercialization of willow biomass systems.
    Significant progress towards these goals has been made. Focused 
outreach and education efforts by the State University of New York--
Environmental Science and Forestry--the South Central Resources 
Conservation and Development, and Cornell Cooperative Extension Service 
have produced a positive change among many target audiences. The focus 
of inquiries has changed from knowledge level questions to how they can 
participate in the program either as potential producers of willow 
biomass crops or as contractors involved in the establishment and 
management of the crop. Over 100 landowners, representing over 4,000 
acres of land in central and western New York State, have expressed 
interest in participating in the large-scale demonstration project. New 
planters, which have been modified by staff in the Department of 
Agricultural and Biological Engineering at Cornell University, have 
increased planting efficiency for willow crops from 0.5 acres per hour 
to 2.5 acres per hour. The first 120 acres of willow biomass crops, 
including 20 acres planted specifically under this project, grown at a 
commercial scale are due to be harvested in the winter of 2001.
    Question. How long has work been underway and how much has been 
appropriated by fiscal year through fiscal year 2001?
    Answer. This aspect of the program began with an appropriation of 
$200,000 in fiscal year 1995. An additional $197,000 was appropriated 
by the Congress for fiscal years 1996 through 2000, and $196,567 in 
fiscal year 2001. The total amount appropriated is $1,381,567.
    Question. What is the source and amount of non-Federal funds 
provided by fiscal year?
    Answer. Four state partners and approximately 18 private partners 
contribute resources at a ratio of nearly 1.5 to 1 for this project.
    Question. Where is the work being carried out?
    Answer. The fieldwork is being conducted on private and state land 
near Syracuse, New York. Tours of the demonstration farms in the last 
year alone have been conducted for numerous groups including high 
school and university students, two national conferences, and visitors 
from four different countries. Presentations have been given at 
numerous local, regional and national events including the National 
Farm Bureau meeting, the Chautauqua Institution, the International 
Poplar Council meeting, International Energy Agency meetings. Outreach 
and educational activities have been conducted at research locations in 
several other states including Delaware, Maryland, New Jersey, 
Pennsylvania, and Vermont.
    Question. What was the anticipated completion date for the original 
objectives of the project? Have those objectives been met? What is the 
completion date of additional or related objectives?
    Answer. The completion date for the original award was September 
30, 1996. Due to some delays in crop establishment related to weather 
and landowner agreements and the need to monitor and harvest the 
original plantings at the end of the first rotation of 4 years, the 
completion date is now 2003. Several new dimensions have been added to 
the project as well.
    Question. When was the last agency evaluation of the project? 
Provide a summary of the last evaluation conducted.
    Answer. A field review of the project was conducted on August 20-
21, 1997. Excerpts from the review report include (1) positive 
accolades for their regular reporting; (2) positive accolades for the 
outreach effort being conducted by Cornell University; (3) praise for 
the scientific outreach by the principal investigators; (4) praise for 
connecting the willow program to poultry waste and riparian issues in 
New York state; and (5) praise for gaining the acceptance of willow 
biomass as an agricultural crop for state property tax purposes. On the 
concern side, the agency's project administrator flagged the delay in 
establishing the demonstration farm and requested diligence in bringing 
this aspect of the project to fruition. Subsequent reports from the 
project reveal that this aspect has been satisfactorily addressed.


AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2002

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2002 budget request for programs 
within the subcommittee's jurisdiction.]

               Prepared Statement of the Ad Hoc Coalition

    Mr. Chairman, Members of the Subcommittee, this statement is 
respectfully submitted for the hearing record on behalf of the ad hoc 
coalition \1\ composed of the organizations listed below. The coalition 
supports sustained funding for Title I of Public Law 480 at a baseline 
program level which is not less than last year's level and which will 
preserve the program as a long-term food aid and market development 
initiative for American agriculture.
---------------------------------------------------------------------------
    \1\ The ad hoc coalition is composed of USA Rice Federation, 
National Association of Wheat Growers, Wheat Export Trade Education 
Committee, US Wheat Associates, National Council of Farmer 
Cooperatives, American Soybean Association, American Maritime Congress, 
Maritime Institute for Research and Industrial Development, 
Transportation Institute, TECO Transport Corporation, National Barley 
Growers Association, US Canola Association, National Sunflower 
Association, National Corn Growers Association, and Liberty Maritime 
Corporation.
---------------------------------------------------------------------------
    The principal focus of this testimony is to request that Title I 
funding for fiscal year 2002 be restored to a sustainable level for 
needed humanitarian assistance abroad and market development for 
American agricultural products. For fiscal year 2001, the program level 
was $159.7 million. Unfortunately, the President's budget for fiscal 
year 2002 requests an appropriation which would support a program level 
of only $139 million. At the very least, Congress should sustain the 
program level established for fiscal year 2001, and should further 
evaluate carefully the need to increase the Title I program level in 
each succeeding year.
    Although the coalition favors a higher Title I program level than 
the Administration proposes, the coalition does support the 
Administration's request for $835,159,000 for Title II donations. Under 
the Food for Progress program, the Administration estimates that $94 
million in Commodity Credit Corporation (CCC) funds will be used to 
support Food for Progress donations in fiscal year 2002, including $64 
million for the purchase of approximately 229,000 metric tons of 
commodities and $30 million for transportation and other non-commodity 
costs. The coalition welcomes this continued commitment of CCC funding 
for Food for Progress. The Administration, moreover, pledges to 
maintain significant levels of shipments under the regular Section 
416(b) program when CCC inventory stocks are available. Commodities 
will be shipped over the next year to complete the Section 416(b) 
programming approved during 2000 and to provide for new programming, 
including programming for the President's Global Food for Education 
Initiative, which currently consists of 632,533 metric tons of 
commodities to 38 countries valued at more than $130 million, as 
discussed more fully below. The coalition strongly applauds this 
initiative, and believes that it will become a pillar of U.S. 
humanitarian assistance for many years to come.
              an overview of u.s. food assistance programs
    Mr. Chairman, the scope and magnitude of U.S. food aid in recent 
years has been remarkable. As shown in the attached charts prepared by 
Foreign Agricultural Service (FAS), the fiscal year 2000 food aid 
program reached a total of 95 countries, more than half the countries 
in all the world. The destinations for U.S. food aid last year included 
45 countries in Africa, 17 in Asia and the Middle East, seven in 
Europe, 14 in Latin America and the Caribbean, two in the Near East, 
and 10 in the Newly Independent States of the former Soviet Union. (See 
Attachment I.) These 95 recipient countries received donations or 
concessional sales of 35 different commodities. (See Attachment II.) In 
fiscal year 2000, USDA-administered programs were responsible for 4.6 
million metric tons of shipments, and US AID administered Title II 
shipments totaled 2.1 million metric tons, for a combined food 
assistance program of 6.7 million metric tons, valued at more than $1.4 
billion.
    The President's Global Food for Education Initiative, on a pilot 
program basis this year, is expected to provide up to 9 million needy 
children with nutritious school lunches. Ultimately, this innovative 
program is expected to provide food donations worth $300 million per 
year. Other major initiatives in recent years have included the Russia 
Food Aid Package and the Ethiopia/Horn of Africa program. The latter 
distributed about 800,000 metric tons of food in Ethiopia to avert 
famine in 2000.
    While our bounty continues to meet many emergency food assistance 
requirements around the globe, Congress should keep in mind that long-
term market development for American agriculture is an important goal. 
That goal is one of the purposes of Title I.
       the title i program promotes long-term market development
    Mr. Chairman, the 1996 Farm Bill directs the Secretary of 
Agriculture to give priority in negotiating agreements under Title I to 
developing countries that have the demonstrated potential to become 
commercial markets for competitively priced U.S. agricultural 
commodities. The concessional sales market of today will become the 
commercial market of tomorrow. In an intensely competitive world 
agricultural marketplace, the United States must use its concessional 
sales program to gain access, establish a foothold and build 
relationships upon which future commercial trade in agricultural 
commodities can depend.
    Under the Public Law 480 Title I program, the United States has 
made concessional sales of commodities with a total value of about 
$31.2 billion since 1955. Along with other export enhancement programs, 
Title I has proved to be a catalyst for strong, long-term growth in 
U.S. agricultural exports. With the benefit of sustained market-
development initiatives, the value of U.S. farm exports rose to an all-
time high of nearly $60 billion in 1996. After declining to $49 billion 
in 1999, the value of total U.S. farm exports has recently regained 
some ground, reaching a level of $53 billion in 2000.
    The United States must intensify its efforts to develop new 
overseas markets for U.S. farm commodities. With deeply depressed farm 
prices and strong competition from a host of producing countries, the 
need for enhanced market development funding has seldom been greater. 
Congress should increase its market development program and certainly 
should not cut the program level for Title I as recommended by the 
Administration. Title I has proved its worth over decades of 
experience.
                  the sharp decline in title i funding
    Throughout the 1980s, Congress maintained high funding levels for 
the Title I program. Unfortunately, Title I program levels experienced 
a sharp drop at the beginning of the last decade--from $725.3 million 
in 1990 to $395.3 million in 1991. The value of commodities shipped 
dropped below $200 million in 1995, and (except for extraordinary CCC-
funded Russian shipments) has remained near this historical low since 
then. For fiscal year 2000, concessional sales and donations of about 
1.2 million metric tons of commodities valued at $233 million were 
programmed to 12 countries under Title I and the Food for Progress 
program using Title I funds, including carryover funds from prior 
years.
    Mr. Chairman, the carryover in the Title I program account at the 
beginning of fiscal year 2000 had been significantly higher than the 
historical average, and Congress cut back the level of new budget 
authority for that fiscal year in order to permit the FAS to draw down 
on the unobligated reserves in the program account. This has been done. 
At the beginning of fiscal year 2000, the carryover was approximately 
$170 million; at the beginning of fiscal year 2001, this had been 
reduced to about $50 million, an amount which is considered a prudent 
reserve level by program managers. Unfortunately, the Title I program 
level requested by the administration for fiscal year 2002 represents a 
$20 million reduction from the fiscal year 2001 program and is a little 
more than 10.7 percent of the peak 1965 Title I program level, ($1.3 
billion in commodity value). In inflation-adjusted dollars, the Title I 
program has lost about 97 percent of its value to American farmers 
since the record-setting year of 1965. The coalition believes that it 
is important now to stabilize funding, stop the persistent downward 
trend, and begin to increase resources devoted to this critical and 
proven program.
  a renewed commitment to market development for american agriculture
    Mr. Chairman, Congress has maintained since World War II a strong 
bipartisan commitment to market development for U.S. agricultural 
commodities. Until the mid-1960s, Title I shipments accounted for about 
20 percent of the annual value of all U.S. agricultural exports. The 
concessional sales program was a principal catalyst for market 
development through the 1970s, when the total value of U.S. 
agricultural exports increased nearly six-fold--from about $7 billion 
in 1970 to $40.5 billion in 1980. The program was funded at high levels 
during periods of war and peace, even during periods of large Federal 
budget deficits.
    The time has come, Mr. Chairman, to reemphasize the importance of 
concessional sales and to revitalize the program. The time has come for 
a renewed commitment to this historic initiative, a program that has 
blazed a trail for billions of dollars in commercial shipments of 
American agricultural products. However, in making this renewed 
commitment, both Congress and the Administration should seek to improve 
the program's effectiveness in the economy of the twenty-first century.
    Under current criteria, a developing country is considered eligible 
for Public Law 480 Title I if it has a shortage of foreign exchange 
earnings and has difficulty meeting all of its food needs through 
commercial channels. The program managers at FAS should review country 
eligibility standards, ensuring that all eligible countries are 
actively considered. There must surely be a substantial market for 
Title I concessional sales--during 1999 and 2000, donations of food 
under USDA-administered programs totaled 12.3 million metric tons. Many 
countries currently receiving Section 416(b) and Food for Progress 
donations can be expected to graduate to Title I concessional sales 
arrangements. The shift from Section 416(b) donations to Title I 
participation could be rapid, and both FAS and Congress should prepare 
for this eventuality.
    There has been legitimate concern that many eligible countries are 
reluctant to sign agreements following allocations at the beginning of 
a fiscal year. Perhaps FAS should establish a reasonable deadline for 
participation under concessional sales terms. The allocations for 
countries choosing not to participate could be shifted to other 
countries, well in advance of the close of the fiscal year. This reform 
could reduce the occasionally excessive carryover of unobligated 
balances, and help to ensure that program benefits are extended to all 
eligible countries. As Congress turns to new farm legislation this 
year, the need for more program flexibility should be addressed. The 
current cap of 500,000 metric tons of shipments under Food for Progress 
seems to make little sense. If this cap were lifted, Title I funding in 
greater amounts could be allocated to Food for Progress. This and other 
reforms could strengthen the concessional sales program, along with its 
companion program, Food for Progress.
                               conclusion
    Mr. Chairman, the United States has shipped food assistance in 
record amounts over the past two and one-half years and large shipments 
are expected to continue throughout the remainder of this year. 
Congress and the Administration deserve great credit for this 
humanitarian effort. But extraordinary food aid shipments will not last 
forever. American farmers require strong commercial markets to maintain 
their share of world trade in agricultural commodities.
    In 1996, U.S. agricultural exports accounted for nearly 23 percent 
of total world agricultural trade by commodity value. As noted above, 
the value of U.S. agricultural exports has declined by nearly 12 
percent since the record was set in 1996. Farm prices are depressed. 
Overseas competitors have enjoyed record crops. Traditional markets 
have been destabilized by economic upheavals. The response must include 
a renewed commitment to proven market development strategies, such as 
Title I of Public Law 480, by restoring the program to at least the 
fiscal year 2001 level.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Prepared Statement of the Advanced Medical Technology Association 
                               (AdvaMed)

    AdvaMed, the Advanced Medical Technology Association (AdvaMed) 
(formerly the Health Industry Manufacturers Association) and its 
members appreciate this opportunity to provide testimony on funding for 
FDA in fiscal year 2002. AdvaMed represents more than 800 innovators 
and manufacturers of medical devices, diagnostic products and medical 
information systems. Our members produce nearly 90 percent of the $68 
billion health care technology products consumed annually in the United 
States and nearly 50 percent of $159 billion purchased around the world 
annually.
                                summary
    AdvaMed believes that four key points must be considered when 
setting FDA funding levels for fiscal year 2002.
  --The coming revolution in medical technology poses significant 
        premarket review challenges for FDA
  --Device premarket review times have improved, but delays remain in 
        FDA approval of breakthrough technologies
  --FDA should be given the full resources it needs to meet the coming 
        revolution in medical technology. Added funding for device 
        premarket review should be coupled with further policy changes 
        to prepare FDA for the future.
  --AdvaMed looks forward to working closely with FDA and Congress to 
        determine the extent of the agency's resource needs and ensure 
        that it is ready to meet the premarket review challenges that 
        lie ahead.
 significant premarket review challenges on the horizon for the agency
    Last year, AdvaMed testified as to the critical importance of 
preparing FDA for the coming revolution in medical technology. Patients 
will be denied access to important new tests and treatments if the 
agency does not have the resources and procedures in place to review in 
a timely manner the breakthroughs that result from this revolution.
    The agency has made significant gains in reviewing incrementally 
improved 510(k) medical technologies within statutory review times as a 
result of its actions to expand the 3rd Party review program--as 
directed by this Subcommittee. Nevertheless, FDA Acting Principal 
Deputy Commissioner Bernard Schwetz recently testified before your 
Subcommittee on the challenges the agency faces, noting ``the United 
States is leading the world into an era of extraordinary scientific 
achievements that can yield unprecedented gains for human health and 
nourishment.''
    Some of the breakthrough technologies approved by FDA over the past 
year underscore the dramatic potential of emerging science not only to 
save and improve lives but also to lower health care costs. They also 
illustrate why FDA faces a considerable challenge in maintaining timely 
reviews for the increasing number of major breakthroughs it will face. 
The vast majority of those breakthroughs will be premarket applications 
(PMAs).
    FDA for example, recently approved digital mammography--after at 
least 5 years--for breast cancer. This is in addition to the ten year's 
the product spent in development. This breakthrough in early detection 
of breast cancer will help save many women's lives in the coming years. 
The effectiveness and efficiency of this technology will only improve 
in the coming years as it is coupled with additional breakthroughs like 
and computer-aided diagnosis and tomosynthesis. FDA's review of digital 
mammography underscores the challenges the agency faces in reviewing 
breakthrough technologies in a timely manner. Unfortunately, such 
premarket review delays are not uncommon for breakthrough medical 
technologies.
    Similarly, combination products--products that are both a device 
and a drug or biologic have faced significant premarket review delays. 
Such combination products are reviewed by at least two FDA centers. 
Unfortunately, combination device drug/biologic products reviewed by 
the Drug and Biologic centers have faced significant review delays. 
Nevertheless, a significant number of the breakthrough products in the 
current R&D pipeline will be combination products never before seen by 
the Agency.
    Medical technology companies also are becoming increasingly 
concerned about increases in the overall development time for new 
technology. Delays in any area of the technology development process--
design, pre-clinical, clinical testing, and FDA review--prevent 
patients from gaining access to new technologies and discourages 
further innovation.
    For these reasons, the premarket review challenges posed by 
innovative medical technologies will only increase in the coming years 
as FDA faces an ever-increasing number of breakthroughs products.
    This fact was highlighted in a report by the Lewin Group on the 
``Outlook for Medical Technology Innovation'' that was released last 
year. A key finding from the report was that medical device and 
diagnostic manufacturers have doubled their R&D over the past decade to 
bring these breakthroughs to fruition. Additionally, a report scheduled 
for release later this year by the Lewin Group is expected to quantify 
the significant increases in R&D spending that medical technology 
companies have made over the last five years.
    In making these heavy R&D investments, AdvaMed members are acutely 
aware of the challenges FDA faces in making these innovations available 
to patients in a timely manner.
    AdvaMed believes that FDA should be given the resources and 
expertise needed to streamline the entire medical technology 
development and review process in order to begin the process of 
preparing FDA for a new age of rapid biomedical and pharmaceutical 
innovation. This new age is rapidly approaching, and the time to start 
preparing is now.
fda needs additional premarket resources to prepare for the new age in 
                     medical technology innovation
    This new era of biomedical breakthroughs is arriving at a time when 
the agency lacks the resources to meet even its current premarket 
review duties. In 1998, FDA Senior Associate Commissioner Linda Suydam 
estimated the agency was $165 million short of what it actually needs 
to do its job. In the intervening period, we have learned that medical 
technology manufacturers have doubled their R&D--the Lewin Report found 
companies are investing $9 billion a year or approximately 12.9 percent 
of revenue. Additionally, while the agency has received important 
appropriations increases including $7 million in fiscal year 2000 and 
$7.7 million in fiscal year 2001 for device premarket review, premarket 
review times for premarket applications (PMA) have nevertheless 
remained flat for the last 3 years. AdvaMed believes FDA's device 
review program will continue to warrant significant increases as the 
agency prepares for the coming explosion in medical technology 
innovation.
    AdvaMed believes FDA should have the resources it needs to meet its 
statutory time frames, both now and in the future. This means 
completing final actions for premarket approval applications for 
breakthrough products within 180 days and 510(k)s for incremental 
advances within 90 days. The fiscal year 2000 Annual Report released by 
the Center for Devices and Radiological Health's Office of Device 
Evaluation reported that PMA reviews continue to be double the 
statutory review times. It also shows that despite budget increases, 
little improvement has been made in PMA review times.
             dialogue needed to understand resources needed
    AdvaMed believes strongly that it is essential to understand the 
total resources needed in order for the agency to meet its statutory 
device review timeframes and has worked for many years to try and 
determine what is needed. This requires a dialogue with the agency. 
Toward this end, we applaud the Committee's effort last year to include 
report language requesting the agency to provide this information to 
the Committee with respect to the fiscal year 2002 budget. To our 
knowledge, the agency has not yet provided this information to the 
Committee.
    AdvaMed strongly recommends a dialogue on this issue between 
appropriators and the FDA so that appropriators may begin to understand 
and work toward appropriate resources for the agency. Such a dialogue 
must also include the resources needed at the Drug and Biologics 
Centers to review combination device drug/biologic products. AdvaMed 
would be happy to participate in any such discussions if the Committee 
believes this would facilitate such a dialogue.
    Similarly, we understand the Agency may not have used its 
contracting out authority as it was encouraged to by this Committee 
last year due to lack of resources. As the pace of medical technology 
innovation quickens, it will become increasingly important for FDA to 
look to outside expertise to make sure the agency does not become an 
ever-tighter regulatory bottleneck.
    AdvaMed strongly believes FDA must remain on the cutting edge of 
science and that one useful way to achieve this goal is for FDA to make 
greater use of the expertise of the researchers who are advancing this 
science and applying it to medical technology breakthroughs. However, 
unless it is known how much the Agency believes it needs to contract 
out for premarket activities, the Committee will not be able to plan 
for the needed resources.
regulatory changes are needed to prepare fda for the new age of medical 
                         technology innovation
    Increased FDA funding for premarket reviews is only part of the 
answer to timely patient access to medical innovations. In order to 
meet the coming biomedical revolution, the agency must be as innovative 
in its regulation of new technologies as researchers are in developing 
them. FDA has shown a commitment to finding new approaches to getting 
its job done, and this commitment should be encouraged and expanded on.
    FDA has demonstrated this commitment through successfully 
implementing some key provisions of the FDA Modernization Act. Recently 
the agency fully implemented and expanded the types of products 
eligible for the third-party review program. Additionally, the agency 
also worked cooperatively with stakeholders on FDAMA's least burdensome 
concept.
                 concern about import user fee proposal
    While we do not yet fully understand the Administration's proposed 
import user fee proposal, we are concerned about its potential impact 
on medical technology manufacturers. As you may know, in this global 
economy, medical technology manufacturers rely on component parts and 
bulk supplies or biomaterials from around the world. The biomaterials 
shortage of the early 90's forced many technology manufacturers to have 
to find biomaterials from around the globe in order to manufacture 
implantable technologies. Additionally, many technology manufacturers 
import pre-manufactured parts into the U.S. from their internationally-
located facilities for final assembly in the U.S. We also believe the 
proposal would require significant authorizing language.
                               conclusion
    AdvaMed urges this Subcommittee to help prepare the FDA for the 
coming era of biomedical innovation. To ready FDA for this era and 
ensure that patients enjoy timely access to the coming dramatic 
breakthroughs in medicine, a dialogue must be opened on the resources 
needed to adequately fund FDA's device and drug/biologics premarket 
review programs and ensure that statutory review times are met. AdvaMed 
stands ready to assist in such a dialogue if requested.
    AdvaMed thanks the committee for this opportunity to present our 
views and we look forward to working with you to help prepare FDA for 
the coming revolution in biomedical innovation.
                                 ______
                                 

 Prepared Statement of the Alachua County Board of County Commissioners

    Mr. Chairman, thank you for allowing the Alachua County Board of 
County Commissioners to submit this written testimony before your 
Subcommittee regarding two significant projects. They are the Partners 
for a Productive Community Enhancement Initiative, and the Critical 
Services to Underserved Areas Initiative.
   partners for a productive community enhancement initiative ($2.3 
                     million in funding requested)
    In response to a spiraling crime rate in southwest Alachua County, 
the Alachua County Sheriff's Office requested help from the Board of 
County Commissioners in 1993. Specifically, the Sheriff reported that 
57 percent of its 911 calls came from an area that had only 3.2 percent 
of the County's population.
    The County Commission responded by providing $38,000 in funding for 
a Program Manager to staff the Partners for a Productive Community 
(PPC) Program in fiscal year 1994. The PPC was launched as a strategic 
planning effort with three goals: the establishment of neighborhood-
based services, the development of public/private partnerships and a 
focus on crime prevention. This Program has enjoyed great success due 
to the coordinated efforts of the Sheriff's Office, the Courts and the 
Alachua County Department of Community Support Services. Furthermore, 
since the inception of this Program, the County has budgeted over $1.6 
million to support the Program through the Community Support Services 
Department and Sheriff's Office. Additionally, over $2.4 million has 
been leverage from other county departments, local social service 
providers and the Sheriff's Office through a local law enforcement 
grant.
    The goal of the Sheriff's Office was to reduce the number of calls 
from the area, and to develop a relationship of trust with the area's 
residents. The goal of the Courts was to help with the swift 
prosecution of cases, and to increase personnel in key areas. Finally, 
the goal of the County's Department of Community Support Services was 
to develop and implement a neighborhood needs assessment, and to 
determine the social service needs in accordance with the results of 
the assessment. The Community Support Services Department was also 
responsible for developing public/private community partnerships, and 
community based organizations comprised of tenants, property owners and 
managers. Thus, this project represents a multi-agency strategy to 
stabilize, revitalize and sustain five specific neighborhoods of 
Alachua County.
    In addition to improving the area's basic infrastructure, Federal 
funding is also being requested to provide community recreational 
programs for the area's youth. These activities will provide positive 
alternatives to crime, and allow youth to participate first hand in 
community improvement programs. In doing so, these programs will build 
and encourage positive self-esteem, leadership skills and academic 
achievement. To complement these programs, additional improvements will 
be made in the community Safe Havens. Finally, the requested funding 
will also allow the PPC to expand this successful demonstration program 
into other at risk Alachua County communities such as Archer, Florida. 
Specifically, the PPC will develop a partnership strategy to address 
the unmet needs of health care, education, training, employment, youth 
recreation and transportation for the residents of Archer.
    This request for Federal funding is justified by the tremendous 
improvements and accomplishments that have been made in these 
neighborhoods since 1995. These achievements include: free community 
day care for 75 children, 30 community day care slots, 24 in-home day 
care slots, the creation of 30 new jobs by the Early Progress Center, 
the reduction in 911 calls from 57 percent to 14 percent of total calls 
in the area, and substantial increases in the property values for four 
of the five neighborhoods.
    Furthermore, the implementation of seasonal recreation programs in 
the targeted communities by the Y.M.C.A. has been instrumental in 
providing positive, character building activities for children, 
teenagers and adults. Day camps are provided during the summer months, 
and back-yard sports are provided at the end of the school day during 
the school year. In addition, two 4-H Clubs serving 60 neighborhood 
children were established along with after school and community teen 
programs. Adult literacy and GED classes were made available at a 
nearby school campus. Finally, other programs have been established for 
the purpose of creating a sustainable neighborhood. These programs 
include quarterly informational forums concerning small business 
development, educational opportunities, self-help seminars, budget 
management and landlord/tenant issues.
    With respect to community-wide improvement programs, a total of 
nine neighborhood cleanups were completed this year. With the active 
involvement of the residents of the neighborhoods, the Alachua County 
Office of Codes Enforcement has been able to reduce from twenty to two 
the number of abandoned and vandalized buildings. Furthermore, a new 
Waste Collection Ordinance which was supported by the PPC permits the 
efficient and timely citation of violators.
    The sustaining factor within this Program is the formally organized 
Partners for a Productive Community Council. The Council is the guiding 
force that deals with issues and determines unmet needs. For example, a 
block captain organization was started this year with the assistance of 
the PPC Council, and the Alachua County Sheriff's Office. This group 
monitors and manages crime prevention programs block by block. In 
recognition of the numerous accomplishments described above, the PPC 
received the National Association of Counties' Achievement Award in 
1996 for distinguished and innovative contributions to improving county 
government. Additionally, the League of Women Voters presented the 
County with a similar award for outstanding community service.
    Furthermore, in December 1999 Alachua County received Official 
Recognition from the Executive Office of Weed and Seed for two of the 
neighborhoods being served by the Partners for a Productive Community 
Program. Pursuant to this recognition, these communities have been 
awarded a $175,000 Weed and Seed Grant for prevention and intervention 
strategies focusing on Cedar Ridge and Linton Oaks neighborhoods. This 
grant will further strengthen the long-term efforts to improve the 
quality of life in these neighborhoods.
    As noted above, the Federal funding requested will also be used to 
expand the successful Partners Initiative into the rural community of 
Archer, which is located in the southwestern portion of Alachua County. 
Archer and the rural areas surrounding it have a population of 6,348, 
of which 16 percent fall below the poverty level. While the City of 
Archer has one elementary school, emergency rescue, fire and police 
services are contracted from Gainesville/Alachua County. There are also 
two public housing communities, and a small obsolete community center 
which is used as a congregate meal site for senior citizens. 
Consequently, many of Archer's residents travel to Gainesville for 
employment, social services, recreational activities, adult and 
continuing education and health care.
    Recently, the University of Florida, School of Nursing received 
$200,000 from the Florida Legislature to provide primary health care 
through a clinic based in Archer. Presently, this clinic is on the 
State Department of Health's list to be eliminated due to the limited 
area that it serves. Should this occur, there will be a need for 
additional funds to meet the health care needs in this area. Thus, a 
portion of the Federal funding in this request could be channeled 
through the Alachua County Health Department in our continuing effort 
to develop partnerships, maximize resources and expand services to the 
citizens of Alachua County through our rural service initiative.
    Employment opportunities, recreation for teens and outreach social 
services continue to be a challenge for the community of Archer. 
According to the Alachua County Sheriff's Office, Archer's crime rate 
is disproportionately high for a community its size. In 2000, the 
Alachua County Sheriff's Office received 2,657 calls for service. Of 
the dispatched calls, 30 were assaults and batteries, and 5 were for 
sexual battery. The largest number of dispatched calls (869) concerned 
burglary and theft.
    In conclusion, Alachua County is requesting $2.3 million in Federal 
funding to continue its highly successful and award winning 
neighborhood revitalization programs; and to expand these successful 
model programs to other neighborhoods, including the City of Archer, 
Florida.
   critical services to underserved areas ($1.81 million in funding 
                               requested)
    Without a safe and reliable source of public utilities, the 
residents who live in the southeastern portion of the City of 
Gainesville and Alachua County must rely upon the use of obsolete 
private water systems, septic tanks and propane gas for their utility 
services. In addition to the health and safety concerns, this lack of a 
public utility infrastructure serves as a deterrent to the area's 
economic revitalization.
    While several subdivisions in the target area are in immediate need 
of a public utility infrastructure, it is the County's intent to 
approach this model program by focusing on the Kincaid Road subdivision 
as Phase I of the Initiative. This subdivision currently has over 150 
homes on septic tanks, with many of them also using propane gas for 
heating. Historically, there are numerous health risks associated with 
malfunctioning septic tanks, including the possible contamination of 
ground water which could lead to the development of diseases within the 
area.
    Gainesville Regional Utilities (GRU) indicates that the 
infrastructure needed to provide wastewater service to this area 
includes: the wastewater collection system lift stations, grinder pumps 
and on-site plumbing to connect to a new gravity sewer system. GRU 
estimates that the construction and extension of a central wastewater 
system to the Kincaid Road subdivision will cost approximately 
$1,585,000, while the extension of the natural gas lines is estimated 
at about $225,000. Thus, the total cost of Phase I of this model 
program is $1.81 million. Finally, it's important to note that GRU is 
currently planning wastewater facilities to serve the Kincaid Road 
subdivision, and may perform additional engineering work as in-kind 
services. The additional engineering work is estimated to cost 
approximately $121,000.
    While Alachua County is requesting assistance from the Federal 
government in funding this portion of the model program for the area's 
revitalization, the County has already begun numerous other programs 
and projects that have had an positive, significant impact on the 
area's redevelopment. For example, in July of 1996, the County began a 
series of neighborhood meetings in Greentree Village, which is a 
subdivision of about 60 households in the target area. Residents were 
encouraged to express their concerns about the area's problems and 
establish priorities. As a result of these meetings, the County 
assisted Greentree Village in the establishment of a crime watch 
program and the creation of a backyard recreation program through the 
Y.M.C.A.
    Several new public buildings and facilities have also been located 
within the target area to encourage its redevelopment. During 1998/99, 
Alachua County expended about $5.5 million to purchase and renovate the 
Eastgate Shopping Center for the Alachua County Sheriff's Office. This 
new facility is 56,200 square feet in area, and it serves as the base 
of operations for the County's 239 sworn deputies, and 260 non-sworn 
administrative and support personnel. Completing this law enforcement 
complex is the new Alachua County Communications and Emergency 
Operations Center which recently opened adjacent to the new Sheriff's 
Office. This facility cost about $5.3 million and operates as a joint 
center for both Alachua County and the City of Gainesville.
    Finally, with a contribution of approximately $430,000 from Alachua 
County, the City of Gainesville has completed a new Technology 
Enterprise Center (TEC) within the target area. This $3.0 million 
business incubator consists of a new, two-story 30,000 square foot 
facility located in the City of Gainesville Enterprise Zone. Over 60 
percent of the construction funds for the TEC were provided by a grant 
from the U.S. Economic Development Administration. The purpose of 
business incubators is to promote the growth and development of new 
enterprises by providing flexible space at affordable rates, a variety 
of support services, access to management, technical and financial 
assistance, and opportunities to interact with other entrepreneurs and 
business experts. Even though this facility has just recently opened, 
about 13,000 square feet of the TEC has already been leased to a 
leading technology accelerator company specializing in speeding 
pioneering technology entrepreneurs to the market. It is expected that 
when fully operating, the TEC will foster the creation of higher wage 
jobs, the expansion of the tax base and the augmentation of new 
business development within the target area.
    In conclusion, Alachua County is undertaking the redevelopment of 
an existing urbanized area, which includes the modernization of its 
utility infrastructure. These improvements will build upon numerous 
previous programs and projects that have already had a positive impact 
upon the area. Phase I of this model program includes the extension of 
a central wastewater system to the Kincaid Road subdivision, as well as 
the extension of natural gas lines. The support of this Phase of the 
project through Federal funding will serve as an impetus for the 
continued revitalization of these residential areas.
               concluding comments for written testimony
    The two initiatives described above represent well-conceived 
programs that address the social, physical and economic needs of the 
citizens of Alachua County. Furthermore, they demonstrate the County's 
continuing commitment to programs that emphasize a balance between 
environmental protection, economic development and social equity for 
all of the residents of the County. Therefore, we hope that the 
Subcommittee will find these two critically important projects worthy 
of your support. Thank you for your consideration.
                                 ______
                                 

        Prepared Statement of the American Dietetic Association

    Mr. Chairman, the American Dietetic Association and its 70,000 food 
and nutrition professionals respectfully urge your subcommittee to 
support adequate funding for USDA's Continuing Survey of Food Intakes 
by Individuals (CSFII). A minimum of $8 million is needed annually for 
this purpose. Congress, USDA, other government entities and the public 
all rely on the information provided by CSFII for developing sound 
agriculture and food policy. We kindly request that this letter be 
entered into the official record of written statements and testimony.
    CSFII data are used to identify and target Americans in need of 
food assistance, track consumption of agricultural commodities and 
assess risks in the food supply. By providing information on individual 
and household consumption, CSFII data identify trends in food patterns 
and connections between diet and health.
    Despite the importance of this survey, the USDA discontinued the 
CSFII in Fiscal Year 2001 due to lack of adequate funding. In the 
absence of CSFII, USDA plans to rely on dietary data collected by the 
U.S. Department of Health and Human Services (DHHS). However, the 
information collected by DHHS is insufficient for formulating 
agriculture, food and nutrition policy. Congress, USDA, and the public 
will be severely disadvantaged by the loss of the USDA data they have 
relied upon over the years.
    Together, USDA's CSFII and the DHHS survey, known as the National 
Health and Nutrition Examination Survey (NHANES), comprise the core of 
America's national nutrition monitoring system. Though USDA and DHHS 
have been working diligently for several years to coordinate data 
collection and to integrate survey methodologies, the plan did not 
include a merger of the two surveys or the discontinuation of one of 
the system's two core components.
    In January 2001, USDA submitted a report to this Committee 
outlining its plan to merge its survey activities with those of the 
DHHS. This report did not address many of the issues and concerns of 
Congress, as identified in Conference Report No. 106-948 accompanying 
the Agriculture, Rural Development, Food and Drug Administration, and 
Related Agency Appropriations Act for fiscal year 2001. In fact, the 
DHHS survey is inadequate to support USDA's agriculture and food policy 
decision-making. Without its own survey, USDA can no longer be assured 
it will receive the types of data needed in a timely fashion to support 
the multi-faceted functions of the Department.
    The USDA should continue data collection as it works with DHHS to 
lay out a clear plan to use complementary research, collection, and 
analysis for both CSFII and NHANES, without loosing the vital and rich 
data collected by each survey. However, it is critical that USDA has an 
in-house mechanism to collect the data it needs on a timely basis. For 
this reason, the American Dietetic Association respectfully requests 
that Congress provides a minimum of $8 million annually to the 
Agricultural Research Service specifically for the CSFII survey.
    Thank you for your consideration of this request.
                                 ______
                                 
integration of the national health and nutrition examination survey and 
          the continuing survey of food intakes by individuals
                              introduction
    Conference Report No. 106-948 accompanying the Agriculture, Rural 
Development, Food and Drug Administration, and Related Agency 
Appropriations Act for Fiscal Year 2001, contained the following 
directive: ``The conferees direct the USDA, in consultation with the 
Department of Health and Human Services, to prepare and submit a report 
to the House and Senate Committees on Appropriations, by December 31, 
2000 that describes the process for integrating the National Health and 
Nutrition Examination Survey (NHANES) and the Continuing Survey of Food 
Intakes by Individuals (CSFII). The report should: (1) include a 
timeline and steps to accomplish the goals set forth in the National 
Nutrition Monitoring and Related Research Act of 1990; (2) be prepared 
in consultation with representatives of user groups (i.e., anti-hunger 
groups, consumer advocates, commodity organizations, food producers, 
nutrition professionals, and public and voluntary health 
organizations); (3) address the strengths and potential weaknesses of 
merging the two surveys and identify how problems will be addressed and 
by whom; (4) identify funding needs and sources; and (5) include 
recommendations for inclusion in reauthorization of the National 
Nutrition Monitoring and Related Research Act.''
                               background
    The Department of Agriculture, through its Agricultural Research 
Service (ARS), conducts the Continuing Survey of Food Intakes by 
Individuals (CSFII) and the Department of Health and Human Services, 
through its National Center for Health Statistics (NCHS) (part of the 
Centers for Disease Control and Prevention), conducts the National 
Health and Nutrition Examination Survey (NHANES). The CSFII which has 
been conducted on a periodic basis is designed to assess food 
consumption and related behavior in the U.S-population using personal 
interviews. The most recent CSFII survey was conducted in 1998. NHANES 
is designed to assess the health and nutritional status of the U.S. 
population using personal interviews and a direct physical examination. 
NHANES, previously periodic, has been conducted on a continuous basis 
since 1999.
                               discussion
    The backdrop for discussions on integrating the CSFII and NHANES is 
the National Nutrition Monitoring and Related Research Act (NNMRRA) of 
1990 which set goals and mechanisms to bring about greator coordination 
of nutrition monitoring activities across agencies. More recently, 
leadership of HHS and USDA have identified a more comprehensive 
integration of these two surveys as a major priority. USDA/HHS staff 
have been engaged in intensive discussions of alternative models and 
approaches for the last three years and have arrived at a basic 
approach. This process of integration has involved input by users of 
the data from both surveys. In addition, both agencies have regularly 
met with and solicited the feedback of stakeholders from inside and 
outside government on the advantages and disadvantages of integrating 
the surveys.
    Extensive planning efforts between both agencies assures that the 
quality of the data collected in the future will be improved. Proven 
and now fully automated methods of data collection will be used, the 
needs of customers and stakeholders will continue to be met, and data 
will be released in a timely manner. However, some issues still remain 
to be addressed.
Objectives for Integrating the Survey
    The goals of USDA and HHS in conducting and integrating nutrition 
surveys is fully consistent with those stated in the Conference Report 
and the general thrust of the NNMRRA. USDA's and HHS' particular focus 
has been to:
  --Continue to meet priority agency and outside user needs for 
        nutrition and dietary data.
  --Reduce the complexity of using multiple surveys conducted with 
        different methods.
  --Improve analytic comparability between previously parallel efforts 
        of the two Departments.
  --Accelerate efforts to implement initiatives anticipated by the I0-
        year plan and the nutrition monitoring act.
  --Achieve cost efficiencies in the face of uncertain and constrained 
        resources.
    Discussions between USDA and HHS on alternative strategies for 
integrating nutrition monitoring efforts have addressed the following 
questions/issues. What is the potential impact on users of diet and 
nutrition data? How can existing data resources be maintained and 
improved? What is the projected availability of funding and what are 
the alternative methodological approaches (e.g., sample sizes, 
telephone and in-person interview modes) to achieve the survey goals? 
What is the advisability and feasibility of using either multiple data 
collection mechanisms or a single, consolidated mechanism?
USDA/HHS Approach to Integrating the NHANES and the CSFII
    Discussions between USDA and HHS have led to an approach to 
integrating the two surveys into a single mechanism. While many details 
remain to be addressed the elements of this approach include:
  --Collection of data from a nationally representative sample of 5,000 
        persons each year as part of the continuous NHANES data 
        collection mechanism. The contents of this diet and nutrition 
        component of the survey will include 24-hour recall, a dietary 
        supplement interview, body measures, and nutritional 
        biochemistries from blood and urine specimens.
  --Use of a new USDA computerized dietary recall data collection 
        system.
  --Processing of dietary recall data through the USDA SurveyNet 
        program.
  --Augmentation of dietary supplement interview data with information 
        collected from supplement manufacturers.
  --Addition of a second day 24-hour recall to NHANES in order to 
        obtain more representative data on an individual's dietary 
        intake.
  --Release of data from this integrated survey database as a timely 
        joint USDA/HHS effort.
  --Conduct of an ongoing research program on methods to improve 
        collection and analysis of dietary data.
Advantages/Disadvantages of Integrating the Surveys
    The major advantages of integrating the two surveys include:
    (1) A single survey will be less costly than maintaining two 
separate field operations.
    (2) Dietary recall data will be available from two days on each 
individual rather than a single day.
    (3) Using the combined assets of USDA and HHS the data will be 
released in a more timely manner.
    (4) Through the extensive concomitant research of the NHANES 
program more comprehensive diet and nutrition data will be linked 
directly to health status data.
    (5) Data collection will proceed on a continuous basis through the 
ongoing NHANES mechanism rather than periodically.
    The potential disadvantages of integrating the two surveys include:
    (1) It was rare for the NHANES and CSFII to be in the field 
simultaneously. For those years in which both surveys would have been 
conducted, the overall sample size would have been 10,000 (i.e., 5,000 
in each survey). With a single integrated effort, the maximum sample in 
any year will be 5,000 under the proposed approach.
    (2) NHANES operational constraints raise the possibility that the 
proposed survey approach will not adequately address seasonal 
differences in food consumption.
    (3) A plan for obtaining information previously collected through 
the Diet and Health Knowledge Survey (DHKS), a telephone follow-up to a 
subsample of the CSFII, is not yet a component of the integrated 
approach.
    (4) An integrated approach involves tradeoffs and compromises on 
design and content and it may not be possible to include as much detail 
on population sub-groups and program participation of special interest 
to the USDA community as was possible in separate survey undertakings. 
Similarly, tradeoffs may be necessary between the interests of users of 
health status data and users of diet and nutrition data in the context 
of a single mechanisms meeting multiple objectives.
    (5) An advantage of two indepedent surveys is the assurance that if 
something happened to the one survey the remaining survey would 
independently continue. With the integrated survey, its success will 
depend on the ability of both agencies to have adequate funding and 
resources to carry out the integrated survey.
    USDA and HHS have concluded that the advantages significantly 
outweigh the potential disadvantages and are committed to working to 
minimize the impact of any of the potential negative impacts. The 
agencies feel that stakeholders and users of the data will be convinced 
that the integration plan has considerable merit and can help advance 
the goals of nutrition monitoring.
Timeline
    While survey integration discussions between ARS and NCHS have been 
taking place a new method of fully computerized dietary data collection 
based on a common set of dietary intake questions, developed in 
consultation with users of the data, has been developed. Further, NCHS 
has modified NHANIES so that a sample of the U.S. population is 
collected each year to enable annual updating of estimates. Field pilot 
testing of the dietary intake system has taken place and an additional 
operational test is being planned. The full implementation of the new 
system is scheduled to take place in 2002. It will be used for an in-
person interview with participants in the ongoing NHANES and a follow-
up interview by telephone for a second, nonconsecutive day of data 
collection on all 5,000 respondents yearly. This will be a nationwide 
sample collected over a 12 month period.
Outstanding Issue
    There are several significant remaining issues which need to be 
addressed prior to implementation. First, ARS and NCHS are examining 
the funding implications of an integrated approach, both in terms of 
total funding required and the extent to which USDA and HHS would 
support the various elements of an integrated plan. At the same time, 
there are other tradeoffs and constraints on the NHANES mechanism, both 
in terms of funding, burden on individual respondents, and tradeoffs 
with other potential subjects that might be addressed.
    Secondly, details of the roles of USDA and HHS components need to 
be refined, including the logistics of operations, the development of 
ongoing mechanisms for user and stakeholder input from both the USDA 
and HHS communities, and the relationship of integration efforts to 
other NHANES partners and operations.
    USDA and HHS have agreed to take the following steps to refine 
their integrated approach and move toward implementation:
  --Submit this report to House and Senate Appropriations Committees 
        and actively solicit comment on the report from users and 
        stakeholders, including those listed in the Appendix.
  --Resolve the outstanding issues addressed above, including funding 
        and operational issues, and make necessary revisions to the 
        approach based on user and stakeholder feedback.
  --Conduct an operational test in 2001 of the newly developed USDA 
        computerized dietary recall data collection system to assure 
        compatibility with the NHANES automated systems.
  --Develop more detailed operational implementation plans and 
        protocols and obtain necessary clearances in 2001 from 
        Institutional Review Boards for the protection of human 
        subjects in research, and the Office of Management and Budget 
        under the Paperwork Reduction Act.
  --Implement an integrated approach reflecting comments from users and 
        stakeholders in 2002.
Funding, Needs and Sources
    Funding for the joint integrated survey will be provided by both 
ARS and NCHS. ARS funds will primarily be used for dietary collection 
and continued improvement of the dietary intake system. This will 
include processing of the dietary data. Funds for the selection of the 
sample to be interviewed, contacting and screening the respondents, the 
facilities to carry out the interviews, and other costs associated with 
the NHANES will be provided by NCHS and its collaborators.
    It is highly desirable to consider expanding the sample size of 
participants for the dietary intakes to 10,000 or more as expressed by 
many stakeholders. This can be done as a freestanding but linked intake 
outside of the current NHANES data collection model but would require 
additional funding. Funding for the DHKS is essential and will require 
additional funds. If the full value of any dietary assessment is to be 
realized, it will require continuous research on dietary intake 
methodology so that methods can be continuously refined and developed.
                                summary
    The USDA and HHS believe a combined, continuous, ongoing effort 
resulting in an integrated survey, which brings together the 
complementary expertise of ARS and NCHS, is preferable to two surveys. 
It is important that this monitoring effort be viewed as a critical 
research tool. It is also important that this national monitoring 
program be buttressed by research sufficient to enable the program to 
keep pace with changing foods, diet and eating behaviors, and with 
evolving survey mechanisms. With guidance from the several communities 
who need diet and nutrition information, USDA/HHIS is confident that 
the Nation's needs can be met.
 user groups consulted to discuss the integration of the usda and hhs 
                       diet and nutrition surveys
    For the development of this report, several mechanisms were used to 
solicit input from user groups on the issues associated with the 
integration of the USDA and HHS surveys. Organizations that 
participated in recent meetings or provided written input include:
  --American Heart Association
  --Nancy Chapman and Associates
  --Library of Congress, Congressional Research Service
  --National Food Processors Association
  --Institute of Food Technologists
  --Society for Nutrition Education
  --American Society for Nutritional Sciences
  --American Dietetic Association
    The agencies also received multiple comments from individuals 
following these meetings.
    USDA and HHS staff have had a continuing dialogue with stakeholders 
as the approach to integrating these surveys has been developed. These 
include:
  --The ARS ``What We Eat in America'' conferences
  --The ARS ``CSFII Survey Users Group'' meetings
  --The NCHS ``Data Users Conferences''
  --ARS/NCHS ``Workshop on the Integrated CSFII-NHANES National Food 
        and Nutrition Survey''
  --ARS expert working group on the ``New USDA Automated Dietary Recall 
        Method''
                                 ______
                                 
       Prepared Statement of the American Farm Bureau Federation
    The American Farm Bureau Federation has identified four USDA 
program areas for which priority fiscal year 2002 funding is essential. 
They are:
  --programs key to the proper implementation of the Food Quality 
        Protection Act (FQPA);
  --programs to expand foreign markets for agriculture;
  --programs to ensure the development and use of biotechnology 
        products; and
  --programs to guarantee proper implementation of CAFO and TMDL 
        regulations.
    These priorities are highlighted in the first portion of this 
statement. The second portion contains a list of additional programs 
supported by Farm Bureau.
     programs key to the proper implementation of the food quality 
                         protection act (fqpa)
    Passed in 1996, the Food Quality Protection Act (FQPA) is our 
nation's new food safety law, establishing revised health standards and 
a new risk assessment process for measuring the safety of crop 
protection products. Farm Bureau supports increased funding for USDA's 
Food Quality Protection Act implementation activities. Proper 
implementation of this law based on sound science is critical to ensure 
the availability of vital crop protection products.
    The following offices and programs are critical to proper 
implementation of FQPA and must be funded as increased levels:
    Agriculture Research Service (ARS).--Integrated Pest Management 
(IPM) research, minor use tolerance research (IR-4), and research on 
alternatives to methyl bromide. The Office of Pest Management Policy, 
should also be funded at increased levels with funding being designated 
under the Secretary of Agriculture's office, not ARS.
    Cooperative State Research and Extension Service (CSREES).--IPM 
research grant, IPM application work, pest management alternatives 
program, expert IPM decision support system, minor crop pest management 
project (IR-4), crops at risk from FQPA implementation, FQPA risk 
avoidance and mitigation program for major food crop systems, methyl 
bromide transition program, regional crop information and policy 
centers, Pesticide Impact Assessment Program (PIAP), and the pesticide 
applicator training program.
    Economic Research Service (ERS).--IPM research, pesticide use 
analysis program, and the National Agriculture Pesticide Impact 
Assessment Program (NAPIAP). Additional funding for FQPA implementation 
activities is needed in the following programs: National Agriculture 
Statistics Service (NASS) pesticide use surveys, Food Safety Inspection 
Service (FSIS) increased residue sampling and analysis, Agriculture 
Marketing Service (AMS) and the Pesticide Data Program (PDP).
        programs to expand foreign markets for u.s. agriculture
    Creating new overseas markets and expanding those that we have is 
essential for a healthy agricultural economy. Continued funding of 
export development programs is fundamental to improving farm income in 
the short and long term. We recommend maximum funding of all export 
development programs consistent with our commitments under the World 
Trade Organization (WTO) trade rules.
    Public Law 480.--We support increased funding for Public Law 480 
programs, the primary means by which the United States provides foreign 
food assistance. The Public Law 480 programs provide humanitarian and 
public relations benefits, positively impact market prices, and help 
develop long term commercial export markets.
    GSM Credits.--AFBF supports the full funding of the GSM credit 
guarantee programs. These important export credit guarantee programs 
can help make commercial financing available for imports of U.S. food 
and agricultural products on deferred payment terms.
    Market Access Program (MAP) and Foreign Market Development Program 
(FMD).--Congress should fully fund the MAP and FMD programs. These 
programs need the expertise of a fully supported Foreign Agricultural 
Service (FAS) that is expanded to cover all existing and potential 
market posts.
    Export Enhancement Program (EEP).--The 1996 FAIR Act authorizes 
direct export subsidies of U.S. agricultural products through the EEP 
program through fiscal year 2002 to counter the unfair trading 
practices of foreign countries. AFBF supports the full funding and use 
of this program in all countries, and for all commodities where the 
U.S. faces unfair competition.
    Dairy Export Programs.--Farm Bureau supports full funding and use 
of the Dairy Export Incentive Program (DEIP) to allow U.S. dairy 
producers to compete with foreign nations that subsidize their 
commodity exports. Farm Bureau supports using savings from the 
elimination of the Commodity Credit Corporation purchase program for 
WTO-legal export development programs.
    Sanitary and Phytosanitary Management.--To address the need for 
additional inspections created by increased volumes of imports and 
exports, Farm Bureau supports increased funding for USDA's Animal and 
Plant Health Inspection Service (APHIS).
    Foreign Agriculture Service.--Farm Bureau recommends increased 
support for the Foreign Agriculture Service.
  programs to insure the development and use of biotechnology products
    USDA must take the lead in biotechnology coordination efforts. It 
is essential that the Department act in a timely manner to evaluate and 
move approved products and technologies to the marketplace. USDA should 
develop a positive national strategy for biotechnology research, 
development and consumer education. Agriculture's competitive advantage 
in world markets will be maintained only with the continued support and 
encouragement of these technological advancements.
    Grain Inspection, Packers and Stockyards Administration (GIPSA).--
Farm Bureau supports sufficient funding for the establishment of a 
GIPSA biotechnology test certification laboratory. The creation of such 
a laboratory is a key element to the acceptance of biotechnology. The 
ability to accurately test and identify products of biotechnology for 
identity preserved and segregation purposes is essential.
    Codex Alimentarius Commission.--Farm Bureau supports increased 
funding for the U.S. CODEX office so that it can adequately represent 
American interests in this important body which develops the 
international food safety standards used as guidance by the World Trade 
Organization. Increasingly, biotechnology is the focus of CODEX 
discussions where an ongoing international effort is being led by the 
EU to place limits on our ability to export products of biotechnology 
by incorporating the precautionary principle into the CODEX general 
principles or biotechnology labeling discussions.
    Agriculture Research Service (ARS).--Farm Bureau supports 
sufficient funding for plant-breeding research programs because they 
are important for maintaining a broad-based research and assuring 
advancement of the technology.
              proper implementation of cafo and tmdl rules
    Final Total Maximum Daily Load (TMDL) and EPA proposed Concentrated 
Animal Feeding Operation (CAFO) regulation would impose billion of 
dollars in costs on agriculture across the country. These attempts at 
regulatory expansion over agriculture are not necessary to achieve 
improvement to nonpoint source water quality. Voluntary, incentive-
based programs have proven effective by directly assisting farmers to 
obtain results while maintaining the farm business.
    Environmental Quality Incentives Program (EQIP).--EQIP is an 
important program for assisting producers in dealing with increased 
water quality regulation. We support a substantial increase in EQIP 
funding over previous years.
    Conservation Technical Assistance (Natural Resources Conservation 
Service).--Conservation program delivery and technical assistance must 
be a priority for NRCS funding. Emphasis should be placed on 
traditional technical assistance and the development of reliable 
resource data for assisting producers dealing with nutrient management. 
Estimates show that $550 million is necessary for this effort to help 
farmers improve farming practices and protect water quality.
                              other issues
    Agricultural Research.--Farm Bureau believes that agriculture 
research and the distribution of that research to producers is critical 
to the future of our industry. One of the areas of agreement when the 
1996 farm bill was enacted was that funding for agricultural research 
would be increased to allow U.S. producers to maintain their 
competitive position in world markets. Farm Bureau recommends a 
significant increase in agriculture research funding over the next five 
years.
    Emerging Diseases and Exotic Pests Research.--Disease has a direct 
impact on food safety and is fundamental to international trade. 
Funding is urgently needed to develop rapid diagnostics, vaccines, and 
products necessary to protect U.S. plants and animals from disease 
outbreaks that occur naturally as well as those that could be 
intentionally introduced. Farm Bureau supports full funding for ARS 
emerging diseases and exotic pests research including ways to prevent 
the importation of exotic species in the ballast thanks of cargo ships.
    Animal Pest Research.--Farm Bureau believes the control of plant 
and animal pests is an important factor in reducing farm costs. Farm 
Bureau supports research funding for scrapie, Johne's, PRRS (porcine 
reproductive and respiratory syndrome), cryptosporidosis, FMD (foot-
and-mouth disease), VS (vesicular stomatitis), BSE (bovine spongiform 
encephalopathy), hog cholera, salmonella and E.coli.
    Plant Pest Research.--Farm Bureau recommends continued research and 
implementation of detection, exclusion, control and eradication 
measures for plant pests including research for:
  --methods to halt the spread of the Asian Longhorned Beetle, a deadly 
        threat to maple trees.
  --an effective control of fire ants and ways to provide safer, 
        effective and practical treatments of multiyear certification 
        of field and container-grown nursery stock.
  --ways to manage domestic European honeybees in the area where 
        Africanized honeybees exist.
  --the magnitude of the threat of the root-lesion nematode, 
        Pratylenchus neglectus.
  --smut and bunt diseases of cereals, including karnal bunt.
    Food Quality and Safety Research--Farm Bureau supports funding for 
research to insure the safety of food. Specifically we support funding 
for research:
  --to insure the safety of food additives;
  --on the irradiation (sold pasteurization) of food;
  --on inspection methods to eliminate the risk from pathogens;
  --food safety technology advances;
  --voluntary food safety guidelines to help prevent microbial 
        contamination of fresh produce.
    Binational Agricultural Research and Development Fund--Farm Bureau 
supports increased funding for BARD and other similar programs that 
maximize cooperative research efforts.
    Genome Research--Access to diverse genetic resource materials is 
crucial for the development of new plant varieties that are more 
resistant to insect infestation and disease and more tolerant to other 
adverse environmental conditions. Genomic research is also important to 
improving the economical traits of importance in livestock and poultry 
that affect animal health and reproductive efficiency. Farm Bureau 
supports increased funding for the food Genome Project currently 
administered by the National Science Foundation as well as additional 
money for plant, animal and microbial genome research at USDA.
    Natural Resources Research--Farm Bureau supports funding to study 
carbon credits and carbon sequestration. We favor continued research on 
reuse of water; conversion of saline waters; air and water pollution; 
water and soil conservation; recharging of groundwater basins; 
drainage; forestry management and utilization; restoration of strip-
mined areas; weather forecasting and modification; treatment of 
domestic, industrial and animal waters; coal desulfurization and other 
natural resource problems.
    Research for new Products for Ag Commodities--Farm Bureau supports 
increased funding for research and development for new commodities and 
for new uses of commodities currently under production.
    Health and Nutrition Research--Farm Bureau supports funding of 
nutrition research on relationships between agricultural products and 
coronary heart disease and cancer.
    National Animal Health Emergency Management System--Farm Bureau 
supports full funding for the National Animal Health Emergency 
Management System that was developed in cooperation with the states, 
industry and the veterinary profession. These monies will enhance 
APHIS's emergency preparedness and response capabilities to address 
emergency animal disease issues that threaten the U.S. food supply.
    ARS and APHIS Laboratory Facilities--Farm Bureau supports full 
funding for a joint APHIS and ARS facility at Ames, Iowa, to meet 
national needs for research, diagnosis and product testing for animal 
health. The existing facilities are antiquated and inefficient and 
without this new laboratory facility, the U.S. will fail to meet 
international standards and to provide the level of animal disease 
protection necessary to achieve a world-class National Animal Health 
Emergency Management System. We support adequate funding for ARS 
biocontainment facilities that are critical to maintaining world-class 
research on both foreign and domestic diseases.
    Plant Pest Control.--Farm Bureau supports funding for control and/
or eradication programs for plant and animal pests including: 
grasshoppers; multiflora rose; autumn olive; Johnsongrass and other 
designated noxious weeds; eradication of fruit flies; Russian Wheat 
Aphid; gypsy moth, southern pine bark beetles; and Plumpox virus.
    Boll Weevil Eradication.--Farm Bureau recommends full funding for 
Boll Weevil eradication to provide a 30 percent match with producer 
funding to facilitate the orderly eradication and/or containment of the 
pest across the balance of the cotton-growing area.
    Pseudorabies.--Farm Bureau supports adequate funding of the 
pseudorabies eradication plan developed by the swine industry.
    Bruecellosis.--Farm Bureau supports funding for a brucellosis 
control program leading to eradication of this disease in swine. The 
Federal government should continue full funding of brucellosis control 
activities in all infected states. Because brucellosis is transmittable 
from wildlife to domestic livestock and humans, we support funding to 
compensate livestock owners for losses brought about by contact with 
wildlife.
    Johne's Disease.--Farm Bureau supports funding to develop an 
accurate blood test for Johne's Disease; to reduce producers' cost to 
test for Johne's Disease; and for a multi-year program to identify 
Johne's disease infected animals and to provide an indemnity payment 
for the disposal of these infected animals.
    Inspection and Grading of Meat and Poultry.--Farm Bureau recommends 
that funding for any new federally mandated seafood inspection program 
should be consistent with existing funding for other food commodities.
    Conservation Operations.--We continue to be concerned about 
adequate Natural Resources Conservation Service (NRCS) conservation 
operation funding. Conservation program delivery and technical 
assistance should be a priority for NRCS funding. Emphasis should be 
placed on traditional technical assistance and the development of 
reliable resource data for assisting producers to deal with nutrient 
management and other conservation concerns.
    Grazing Lands Conservation Initiative (GLCI).--We support funding 
for technical assistance under the GLCI as authorized in the 1996 farm 
bill.
    Environmental Quality Incentive Program (EQIP).--With regard to 
conservation programs under the Commodity Credit Corporation Program 
(CCC), we believe that emphasis should be placed on EQIP. EQIP is an 
important program for assisting producers dealing with increased water 
quality regulation and other conservation concerns. We support a 
substantial increase in EQIP funding over previous years.
    Forestry Incentive Program (FIP).--Farm Bureau supports funding for 
the Forestry Incentive Program and suggest funding at $6 million.
    Farmland Protection Program.--Farm Bureau supports $65 million in 
funding for the Farmland Protection Program.
    Wildlife Services.--Wildlife Services should receive increased 
funding for both operational and research programs.
    Ag in the Classroom.--Most students no longer have firsthand farm 
experience and, therefore, lack a basic understanding of our food and 
fiber system. The Agriculture in the Classroom program provides real 
world examples that teach about agriculture production food safety, 
nutrition and healthy lifestyles, and career opportunities. Farm Bureau 
supports an increase to $750,000 for Ag in the Classroom under CSREES.
    Risk Management Agency.--Farm Bureau supports long term funding for 
the Risk Management Agency.
    Ag Marketing Equity Capital Fund.--Farm Bureau supports funding for 
the Agricultural Marketing Equity Capital Fund to help producers 
develop value-added enterprises.
    WIC Market Coupon Program--Farm Bureau supports increased funding 
for WIC market coupon program.
    Rural Development Issues.--Farm Bureau supports the community and 
business programs of the office of Rural Economic and Community 
Development. We support funding for rural development and recommend 
targeting a greater portion of all funds towards stimulating commerce 
in rural areas.
                                 ______
                                 

           Prepared Statement of the American Farmland Trust

    Last summer, the U.S. Department of Agriculture hosted five 
listening sessions around the country on ``Maintaining Farm and Forest 
Land in Rapidly Growing Areas.'' Hundreds of producers, community 
members and elected officials testified on how rapid growth in 
traditionally agricultural areas impacts their operation and their 
community. Although this was the first forum on urban edge agriculture 
held by USDA, the same concerns and calls for assistance are being 
heard at conferences hosted by the National Governor's Association and 
the U.S. Conference of Mayors. During a recent NGA conference on 
``Private Lands, Public Benefits,'' U.S. Environmental Protection 
Agency Administrator Whitman highlighted the needs of farmers faced 
with sprawling development and the need to build programs that address 
them.
    Why are farmers and ranchers in urban edge areas gaining so much 
attention? Because they have become an integral part of the U.S. farm 
economy and their numbers are growing. According to the USDA Economic 
Research Service, there are now over 1,800 counties where agriculture 
is threatened by rapid growth. Within those 1,800 counties, agriculture 
in the nation's Metropolitan Statistical Area (or MSA) counties 
accounts for over a third of total agriculture production and land 
value. That is equivalent to the farm economy of Ohio, Indiana, 
Illinois, Iowa, Missouri, Kansas, Nebraska and the Dakotas combined. 
Or, to look at it another way, it's equivalent to the total value of 
all agricultural exports.
    Throw in Texas, Mississippi and the rest of the South and the total 
output still would not equal the production of a larger group of urban 
edge agriculture that includes those counties adjacent to MSAs that are 
the next targets of sprawl. Today, more than half the nation's 
agricultural production occurs within commuting distance of our rapidly 
expanding cities.
    Agriculture in these counties faces the same price and supply 
challenges of traditional agriculture, but farmers and ranchers in 
these areas also must contend with nuisance suits, trespassing and 
escalating land values. With ninety-percent of the U.S. population 
living downstream from urban edge farms, they also have the greatest 
impact on our environment and quality of life. Farm and ranchlands in 
urban areas reduce runoff, provide wildlife habitat and scenic 
landscapes. Once the land is paved over, it becomes much more difficult 
to improve environmental quality. Yet, these producers receive little 
to no Federal assistance from USDA. We cannot afford to let this 
growing sector of U.S. agriculture continue to struggle without Federal 
assistance.
    We urge you to use the fiscal year 2002 agriculture appropriations 
bill to recognize the value and needs of urban edge farmers and 
ranchers by funding key programs that protect the land by giving 
producers an alternative to development, build public support for 
agriculture by improving environmental stewardship and make urban edge 
agriculture profitable long term.
Protect the Land and Create An Alternative to Development
    Urban edge farms are disappearing. The 1997 National Resources 
Inventory (NRI) showed a loss of 1.2 million acres of cropland, pasture 
and rangeland a year--a rate 50 percent higher than in 1992. The amount 
of topsoil we are paving over each year is roughly equivalent to what 
we are saving with all Federal soil conservation programs, CRP 
included. And what the NRI doesn't show is that the land is also being 
fragmented, broken up like a checkerboard. For every acre paved, an AFT 
study estimated an additional 2 to 3 acres become harder to farm 
because of conflicts with neighbors over noise, odors, dust and 
chemical drift. The USDA Economic Research Service estimates 164 
million acres of farmland are now threatened by sprawling development. 
Selling conservation easements under the Farmland Protection Programs 
locks in a land base for agriculture and gives farmers and ranchers a 
way retain their way of life instead of selling to developers. 
Protecting this land through the Farmland Protection Program requires a 
much stronger commitment from Congress. If we want to ensure 
agriculture remains viable in the 1,800 counties faced with rapid 
growth, Congress needs to ramp up the Farmland Protection Program 
significantly. In the next ten years, at least $1 billion a year is 
needed to slow the loss of farmland to development. States and local 
governments are doing their part, committing over $200 million a year 
to purchase development rights. We must acknowledge that the benefits 
generated by protecting well-managed farmland flow to the entire 
nation, and we must make the Federal government a full partner in 
achieving them. In fiscal year 2002, we urge Congress to allocate $200 
million to the Farmland Protection Program.
    The demand is there from farmers and ranchers and the 
infrastructure is there to use it effectively. This January, when USDA 
announced the availability of $30 million in FPP funds, applications to 
protect over 780 farms and ranches were submitted. Unfortunately, 
recent cuts to the program will allow USDA to help less than 10 percent 
of those landowners. Around the country, there are another 4,000 
farmers and ranchers waiting to sell their development rights if 
funding were available. With more states and counties starting their 
own farmland protection programs, the expertise and manpower to carry 
out an expanded Federal program is ready to go. By partnering with 
state and local programs, Federal dollars were leveraged six times.
Build Public Support for Agriculture By Improving Environmental 
        Stewardship
    Eighty percent of all Americans, more than 190 million people, live 
in urban areas, yet less than one-tenth of one percent of the budget 
for forestry and conservation programs is dedicated to these areas. 
Continued support for large agriculture programs will require 
increasing the connection between voters and agriculture. Demonstrating 
the public benefits improved water quality, wildlife habitat and open 
space--agriculture producers will build this connection to urban and 
suburban residents. Essentially, we have to recognize that farmers and 
ranchers produce more than food and fiber. They are our nation's most 
important environmental managers as well. We can help stabilize the 
farm economy by assigning value to the environmental commodities 
produced by farmers and ranchers and start paying for them. We already 
have most of the programs in place to do this; we just have not funded 
them adequately. It was very disappointing to see the Administration's 
budget request cut key conservations programs. These cuts send the 
entirely wrong message to farmers and ranchers who have been 
oversubscribing to these programs by a 5 to 1 margin.
    The Wetlands Reserve Program, Environmental Quality Incentives 
Program and the Wildlife Habitat Incentives Program all return benefits 
to the public that we know voters are demanding. A recent Gallup poll 
ranked water quality and open space as top concern of voters. Last 
year, voters approved more than $7 billion to protect open space. 
Unfortunately, Congress has not met that demand. Instead, we continue 
to spend billions of dollars on income support for a small segment of 
farmers and ranchers. In fiscal year 2002, we need to put conservation 
programs on equal footing with commodity programs. Funding for WRP 
needs to be increased to allow USDA to enroll 170,000 acres next year. 
To reduce the backlog of farmers waiting to enroll in EQIP, we urge you 
to increase its funding to $350 million. Finally, to make up for the 
recent cut to WHIP funding and to meet the critical habitat 
improvements needed along our nation's rivers and streams, we urge you 
to increase WHIP to $70 million in fiscal year 2002. Only at these 
levels, can USDA serve the current needs of farmers and ranchers and 
look at new ways to expand them in urban edge areas.
Make Farming Profitable Long Term
    Since selling development rights or adopting conservation practices 
is an economic as well as environmental choice, we need to address 
economic viability of farming and ranching in urban edge areas. Farmers 
can survive, even thrive, in urban edge areas if they are given 
technical and financial assistance to adapt their operation to the 
consumers and markets around them. In the last ten years, farmers 
markets have exploded into our cities and suburbs. These consumers are 
looking for fresh, locally-grown food and farm products. In fiscal year 
2002, Congress should increase funding for Resource, Conservation and 
Development to at least $45 million to hire on the ground experts to 
help urban edge producers take advantage of their local markets by 
diversifying their production, developing new products and implementing 
direct marketing. At the same time, Congress should increase funding 
for the Sustainable Agriculture, Research and Extension to $30 million 
this year to help communities improve their agriculture infrastructure, 
develop new marketing programs and apply new research results to help 
producers reduce their operating costs.
    For farming to prosper in rapidly growing areas, we need to protect 
the land base; we need farmers making profits; and, we need to have a 
general public that wants agriculture to be a visible part of their 
community. USDA has the tools and programs to make all of these steps 
happen, but without adequate funding not enough resources will reach 
farmers and ranchers in the urban edge. It is time to recognize the 
importance of this sector of U.S. agriculture to our farm economy and 
our farm communities. Voters are demanding these changes and state and 
local governments have started listening. We hope the fiscal year 2002 
agriculture appropriations bill will launch the Federal commitment to 
urban edge agriculture.
                                 ______
                                 

Prepared Statement of the American Federation of Government Employees, 
Local 3354 and the American Federation of State, County, and Municipal 
                         Employees, Local 3870

                  rural america needs more compassion
    Family farmers, the ill-housed rural poor, and small rural 
communities must receive a share of the budget surplus! We urge you to 
do whatever you can to make sure the budget allocations for agriculture 
and rural development are sufficient to enable the appropriations 
requested below.
  --The debate on Capitol Hill over what to do with the historic 
        opportunity presented by the budget surpluses has focused on 
        the relative merits of tax cuts for the wealthy and elimination 
        of the debt. Too little attention has been paid to what this 
        issue is really about--making it impossible for the government 
        to invest in any of the long list of priorities that would 
        truly make America better off.
  --Our nation has an enormous backlog of much-needed public 
        investment--especially in supporting family farms over factory 
        farms, in rural housing, and in rural community and economic 
        development. AFGE and AFSCME believe that public investments 
        are by far a more prudent and responsible use of current and 
        future surpluses than meager tax cuts for working families and 
        windfalls for the rich.
  --We ask the Members of this Subcommittee to increase investments in 
        family farmers, the ill-housed rural poor, small rural 
        communities, and the USDA employees who deliver these programs. 
        The fiscal year 2001 Federal budget amounted to only 18 percent 
        of Gross Domestic Product, the smallest percentage since 1966. 
        The tax cuts that have been proposed for the top 1 percent of 
        wealthy Americans, if withheld, would provide over $500 billion 
        for these, and other, investments over the next ten years. We 
        need to increase government investments for the common good, 
        not give away the budget surpluses to private greed!
               the bush blue print for usda--our concerns
    The Congressional Budget Office (CBO) baseline to simply maintain 
2001 levels of discretionary spending for Agriculture is $19.6 billion. 
According to the Administration, funding of ``core operations'', as 
distinct from emergency assistance, was $18.6 billion. The proposed 
discretionary budget authority level for fiscal year 2002 is $17.9 
billion. That's going in the wrong direction, no matter which baseline 
number is used.
    In human terms, the Blue Print states the President's fiscal year 
2002 Budget will:
  --Finance the acquisition of decent, safe, and affordable housing by 
        57,000 low-to-moderate income families in rural America, 
        compared to 80,000 housing units claimed in the fiscal year 
        2001 budget;
  --Create 40,000 jobs in rural areas, compared to 55,000 the fiscal 
        year 2001 budget was estimated to create;
  --Give access to 1.4 million poor, rural residents to clean, safe 
        drinking water, compared to 1.7 million for whom new or 
        improved water systems were provided in the fiscal year 2001 
        budget.
    With respect to the USDA employees who provide these services 
throughout rural America, the Blue Print states as follows: ``In the 
early 1990s, under the previous Bush Administration, an effort was 
begun to streamline USDA's county office structure to improve service 
and reduce costs. Nearly one-third of USDA's field offices have been 
closed since that time. However, there are still about 5,600 USDA 
county-level offices serving one million farmers (not counting 1,300 
USDA rural development offices that serve farmers and other rural 
residents). The Department will review the efficiency of USDA's 
remaining field office structure, recognizing that many farmers and 
other rural customers want to use computers and fax machines to 
transact business with USDA. To meet those needs, the budget includes 
funds to continue efforts to streamline and modernize USDA's county 
office structure through completion of a common computing environment 
and reengineering the way USDA conducts business. In 2002, customers 
will be able to conduct business with the county-based agencies 
electronically. The Administration expects long-term savings and 
improved service from merging the information technology services of 
the three county-based agencies . . . ''
    We have major differences with this analysis, and its implications 
for rural America, as follows.
   afge and afscme funding priorities for agriculture appropriations
    Increased Salaries & Expenses funding for the Department of 
Agriculture's Rural Development mission area is our No. 1 funding 
priority for the Subcommittee's Appropriations for Agriculture, Rural 
Development, and Related Agencies! Congress should appropriate at least 
$654.5 million for Rural Development salaries and expenses in 2002, for 
the reasons outlined below.
    Since 1995, the Congress has increased Rural Development programs 
by 69 percent overall; yet, our staffing levels have been cut by 28 
percent. Our servicing areas in the Field, and our workload in the 
National and Finance Offices, has doubled or tripled. With decreased 
staffing, customer service suffers. Almost no funds have been allocated 
to training for the past six years! The situation has deteriorated to 
the point where State Directors have had to stop most overtime work. 
Use of privately owned vehicles for official travel has been 
prohibited, and use of government-owned vehicles has been limited. 
These restrictions on travel and overtime make it next to impossible 
for our employees to do our jobs! Timely inspections are not completed. 
Interviews of potential borrowers have to be conducted by phone. Night 
meetings of community leaders and organizations, county commissions, 
city councils, real estate interests, and potential customers cannot be 
attended.
    It is laborers and white and blue-collar workers that are the 
infrastructure of our rural communities, in addition to our farmers. If 
we can't provide housing, utilities, and jobs to enable them to be 
productive taxpaying citizens, how can we say the cost outweighs the 
benefits? Low-income rural Americans need public servants, with 
sufficient expense funds to support travel, overtime, training and 
information technology, to deliver these housing, community, and 
business development programs.
    The Rural Development (RD) loan and grant programs are just as 
important, even more so in terms of number of people reached, as the 
various programs delivered by FSA. RD needs staff to deliver these 
programs, just like FSA needs staff to deliver its programs! It is even 
more imperative that Congress increase the appropriated S&E funding for 
Rural Development because RD does not have access to CCC funds, 
university grants, user fees, or any other outside source of funds to 
help support its employees. ``If we're going to have meaningful 
programs supporting family farmers and rural communities, we need to 
maintain USDA's infrastructure of county offices, with sufficient 
staff, that is responsible and accountable to deliver these programs.'' 
Bill Christison, President, Family Farm Coalition
    The House Budget resolution included a provision, supported by our 
unions, to ensure parity in pay increases between the military and 
civilian employees. This will require an increase of 4.6 percent above 
the fiscal year 2001 levels. Salaries & Benefits has been running 
approximately 75 percent of RD's total S&E account. Therefore, 
additional appropriations of approximately $20 million will be required 
to maintain current staffing levels. We also urge the Subcommittee to 
provide at least $15 million for employee training, an increase of 
approximately $13.5 million over fiscal year 2001 levels.
    In addition, we believe the nature of many of the programs 
administered by Rural Development warrants some additional offices, not 
reduction. The communities and families we serve range from very low 
income to moderate income. Many are elderly, handicapped, very poorly 
educated, have no telephone, and definitely no computer or fax machine. 
To become successful homeowners, they need home buyer education and 
credit counseling, provided in person, preferably by a USDA employee 
who is a resident of their own community. To meet this need, we propose 
adding 700 more staff for RD.
    Approximately 600 of these staff years would go to local offices to 
provide one person per office whose main duty is to provide home buyer 
education and credit counseling to our Rural Housing borrowers, also 
assisting in other program areas as needed. The remaining 100 staff 
years would be used to increase IT staff in St. Louis, Washington, and 
in the States. We estimate the fully loaded cost of these staff years 
to average $57,000, requiring an additional human capital investment of 
$40 million.
    Funds to increase Rural Development staff, and direct loan 
programs, should be obtained in the following ways, and by reducing the 
tax cut proposed by the Bush Administration for wealthy Americans:
    We can support the Administration's proposal to eliminate the $25 
million in rural housing funding from HUD because rural housing is best 
provided through USDA's field delivery structure throughout rural 
America. Those funds should be added to the budget of Rural 
Development, and not just eliminated.
    We also believe that Members of Congress should find a way to reuse 
the subsidy recapture funds from the 502 program to further invest in 
successful homeownership for low-income rural Americans. During fiscal 
year 2000, RHS recaptured $30,656,000 in Principal Reductions According 
to Subsidy (PRAS), and $88,332,000 in Interest Subsidy. These funds are 
collected and returned to Treasury when borrowers pay off their loans. 
When compared to the costs to the government of foreclosing on low-
income rural homeowners, we would all benefit by reinvesting some of 
these funds in our proposed homebuyer education and credit counseling 
initiative because foreclosure losses would be significantly reduced. 
If just one percent more rural homeowners are successful as a result of 
this education and counseling, losses to the government would be 
reduced by $75 million.
Public investments in Rural Housing are both compassionate and 
        conservative.
    Since its inception in 1950, the Section 502 direct program has 
produced over 1.9 million units of safe, decent, sanitary housing and 
supported a variety of innovative housing development opportunities 
such as the mutual self-help housing program (sweat equity). Over the 
past ten years, however, the program's production capacity has declined 
41 percent, from 26,203 units in 1988 to only 15,561 in 1998. It is 
even more startling to compare the paltry 1998 production to the over 
132,000 units produced in 1976.
    As of February 7, 2001, RHS had 30,778 qualified applications 
pending for Section 502 loans totaling $2,180,340,430. As of that time, 
however, we only had approximately $784,781,000 available in 
unobligated funds. An additional investment of at least $1.4 billion is 
needed in the Sec. 502 direct loan program.
    We are glad to hear that Senators Kit Bond (R-MO) and John Kerry 
(D-MA) are planning to introduce new housing production bills. We ask 
them, and the Members of this Subcommittee, to both authorize, and 
appropriate, significant new investment in rural housing production. 
The National Rural Housing Coalition's October 2000 report documents 
the following needs:
  --Rural homeowners are more likely than homeowners as a whole to live 
        in substandard housing.
  --Rural homeowners, particularly minority households, face excessive 
        housing related costs.
  --The limited availability of credit on reasonable, affordable terms 
        and conditions makes it harder to get a loan and limits the 
        utility of the secondary market for rural housing loans.
  --The rate of federal assistance to non-metro households is only 
        about half that for metro households.
    Greater investments in the Section 502 (Single Family Direct 
Loans), Section 504 (Housing Repair Loans), Section 514 (Farm Labor 
Housing), Section 523 (Self-help Housing Loans & Grants), and Section 
525 (Technical Assistance Grants). We also need to increase investment 
in Rural Rental Housing, to meet the housing needs of the poorest of 
the poor who cannot pay back a mortgage loan to at least $250 million, 
plus increased Rental Assistance. It costs money to house the poorest 
of the poor, both construction and rental assistance. We subsidize 
homeownership some $98 billion per year in the form of interest 
deductions. Rebuilding the 515 rural rental program costs less than 
homelessness or nursing homes.
   public investments in limited resource and beginning farmers are 
                   compassionate and conservative too
    Investment in the Farm Ownership Direct Loan program needs to be 
increased, at least back to fiscal year 2000 levels. In Oklahoma, all 
available funds for fiscal year 2001 have already been used up. In many 
states, as much as 70 percent of the farm land will change ownership 
over the next fifteen years. Unless the direct farm ownership loan 
program is significantly enhanced, most of that farm land will go to 
the existing large farms, and the benefits and productivity of family 
farming will continue to be wiped out.
    We also ask the Subcommittee to provide the authorized amount of 
$10 million for Outreach and Technical Assistance Program for Minority 
Farmers. The Outreach and Technical Assistance program is the most 
effective tool developed to carry out the mission of USDA as the 
technical provider for small farmers. For a very small investment, the 
program has significant multiplier effects in poor communities where 
there exist few other possibilities for sustainable economic 
development.
    AFGE and AFSCME also suppors the need to increase Salaries & 
Expense funding for Farm Service Agency to incorporate the temporary 
employees funded through emergency appropriations during each of the 
last several years into the baseline S&E appropriation, as requested by 
the National Association of County Office Employees (NASCOE).
    FSA should be required to allocate more staff resources to the Farm 
Loan Programs. The program management standard for excellence in our 
direct farm loan programs is that each responsible loan officer should 
never have a caseload of more than 56 borrowers. Today, our farm loan 
officers in many states have an average caseload of 150 to 200 
borrowers. This makes it impossible to adequately perform the 
supervised credit functions, which ensure the success of the program. 
We have also not had sufficient staff, or contracting funds, to perform 
real estate appraisals, chattel appraisals, and year-end farm analysis. 
For several years, these functions have been contracted out due to the 
arbitrary employee downsizing targets of the Clinton Administration. 
Now, we're not even getting enough money to contract for these 
services.
    As NASCOE has urged, staffing levels and patterns should be based 
on real strategic planning and performance measures/goals. The USDA 
County-Based Agency Study conducted at the request of your Subcommittee 
indicated that approximately 30 percent of FSA's workload is support 
for the Farm Loan Program. The Appropriations Subcommittees should 
allocate 30 percent of FSA's Salaries & Expenses to support of the Farm 
Loan Program. The Agricultural Credit Insurance Fund could be used for 
this purpose by changing the legal language and increasing the 
appropriation for S&E from this account.
              funding for the common computing environment
    The Office of the Chief Information Officer (OCIO) is requesting 
$100 million in additional funding for IT modernization in fiscal year 
2002. While AFGE Local 3354 and AFSCME Local 3870 support the need for 
a common computing environment and modernization of the IT capabilities 
in our Field Offices, we can only support appropriating these funds 
AFTER Congress has FIRST found the money to support increased 
investments in staff and direct loan programs, as outlined above.
    We agree with much of what Senate Government Affairs Chairman 
Thompson (R-TN) said in his March 16 letter to Senate Budget Committee 
Chairman Domenici (R-NM) and ranking member Conrad (D-ND). While 
Senator Thompson lauded the administration's plans to promote e-
government projects and tighten federal computer security, he also 
emphasized that any workforce cuts should be guided by strategic 
planning. He did not call for increased funding to support the 
administration's proposed e-government fund, as Senator Lieberman (D-
CT), the ranking Democrat on the Government Affairs Committee, had done 
the previous week. Senator Thompson added that ``workforce 
restructuring should be done pursuant to a strategic plan and that 
there are areas where increases in human resources are necessary.''
    The Bush Administration Blue Print for USDA suggests that these 
funds to ``streamline and modernize USDA's county office structure 
through completion of a common computing environment'' will be combined 
with a ``review of the efficiency of USDA's remaining field office 
structure, recognizing that many farmers and other rural customers want 
to use computers and fax machines to transact business with USDA''. We 
believe this perspective continues the type of arbitrary assumptions 
for which Senator Thompson correctly criticizes the Clinton 
Administration. ``E-government'' is apparently seen as a means to 
downsize the Federal workforce while also increasing customer service. 
As stated above, such an approach would exclude the low-income rural 
citizens served by Rural Development from access to homeownership and 
other economic opportunities. Guaranteed lenders demand, and should 
have, appropriate electronic access to USDA. But small, isolated, poor 
rural communities cannot be served by ``e-government'' alone. Like 
Senator Thompson, we believe there are some areas where real strategic 
planning, as distinct from pie-in-the-sky silver bullets, means Federal 
hiring should be stepped up.
                            contracting out
    AFGE and AFSCME believe the No. 1 management improvement needed to 
achieve a Common Computing Environment, or otherwise more effectively 
deliver USDA programs to the people we serve, is to reduce the waste of 
funds for poor quality work that results from current USDA contracting 
out practices. Until this problem is addressed, we cannot support the 
Administration's assumption that ``merging the information technology 
services of the three county-based agencies'' will lead to ``long-term 
savings and improved service.''
    During 1998, an Information Technology Functional Team, consisting 
of labor and management from the IT organizations of Rural Development, 
NRCS, and FSA, developed ``Information Technology Contracting 
Recommendations''. This official agency document recommends that 
Federal staffing for IT support be increased, through reductions in 
more expensive contractor personnel, as the least costly and best 
service solution. The reason for this conclusion was simple: It costs 
$50,000 per FTE less, on average, to utilize Federal employees, rather 
than contractors, to provide Information Technology support to the USDA 
county-based agencies!
    Despite this fact, and these recommendations, the OCIO has 
continued to increase reliance on contractors, and our IT organizations 
in St. Louis and Washington have not even been allowed to back-fill 
Information Technology positions as they become vacant due to 
retirement and attrition. Since 1993, the Rural Development IT 
workforce has been cut by over 30 percent, while our workload has 
increased from 4 million to 11 million lines of code. We do not support 
continued pouring of funds into a SWAMP (Stop Wasting America's Money 
on Privatization) of waste, fraud, and abuse through contracting out. 
Therefore, we also do not support continued massive funding of the 
OCIO's requests until, and unless, the reforms advocated below have 
been enacted by Congress, and implemented by USDA.
    The House Report on the fiscal year 2001 Agriculture Appropriations 
Act attempted to address this issue:
    The Committee directs the Department to make cost comparisons of 
the use of private contractors with Federal employee performance and to 
employ the most efficient organization process as described in OMB 
Circular A-76. The Committee also directs the Department to report on 
its contracting out policies, including the agency budgets for 
contracting out, with its annual budget submission for fiscal year 
2002.
    I can assure the Members of the Subcommittee that USDA ignored this 
directive. No cost comparisons of the use of private contractors with 
Federal employee performance were conducted during fiscal year 2001 by 
either Rural Development or the Farm Service Agency. Therefore, we will 
submit language to be added to the Agriculture Appropriations bill for 
fiscal year 2002 to ensure that cost comparisons are conducted.
    Finally, USDA has listed thousands of Rural Development and Farm 
Service Agency jobs as commercial, subject to contracting out, under 
the FAIR Act, totally ignoring employee input that many of our 
functions should be classified as inherently governmental. No less an 
authority than Comptroller General, David Walker, recently stated: 
``Government can never privatize the duty of loyalty to the greater 
good, namely, the need to look out for the collective best interests of 
all rather than the narrow interests of a few.'' The loan and grant 
programs of Rural Development and Farm Service Agency provide subsidies 
to enable very low to moderate-income rural Americans become successful 
homeowners, small family farmers, and to provide economic development 
of small rural communities. These are inherently governmental 
functions, and we will also submit bill language designed to address 
this further concern regarding threatened privatization of Department 
functions.
                                 ______
                                 

     Prepared Statement of the American Forest & Paper Association

    The American Forest & Paper Association (AF&PA) submits this 
written testimony for the record in support of USDA research programs 
that contribute pragmatic solutions to our nation's sustainable 
forestry needs. Both USDA Forest Service Research and USDA Cooperative 
State Research, Education, and Extension Service (CSREES) have the 
obligation to support research to benefit all forest landowners, public 
and private. These organizations are uniquely qualified to support 
collaborative, long-term research and deserve well-targeted funding 
increases to focus resources where they are critically needed: on 
forest productivity, utilization, and inventory issues.
                   af&pa interest in forest research
    AF&PA has a substantial interest in promoting research to improve 
and document forest productivity. As the national trade association of 
the pulp, paper, and forest products industry, we represent 
approximately 84 percent of paper production, 50 percent of solid wood 
production, and 90 percent of industrial forestland in the United 
States. Forests provide a renewable raw material source for our 
industry, which attempts to meet consumer demand while providing rural 
communities with stable, living-wage job opportunities. We face a 
significant global competitiveness challenge, as companies throughout 
the southern hemisphere grow trees three to four time faster at a 
fraction of the cost, often without environmental compliance standards 
similar to those in the United States. We also face a significant 
domestic challenge as the entire forestry community needs timely access 
to more consistent, comprehensive, and accurate forest measurement 
data.
    AF&PA is a member of the National Coalition for Sustaining 
America's Nonfederal Forests and supports the overall objective of 
well-targeted increases in federal investments to support forestland 
stewardship. Research contributes cutting edge, science based solutions 
to ensure that our nation's forests can be managed sustainably for all 
values.
                         related af&pa programs
    Two AF&PA programs recognize the critical contribution of forest 
research to sustainable forestry: the Sustainable Forestry Initiative 
(SFI)SM Standard and Agenda 2020. The Sustainable Forestry Initiative 
(SFI)SM Standard is a condition of AF&PA membership and requires that 
participants support ``forest research to improve the health, 
productivity, and management of all forests.'' The AF&PA Agenda 2020 
program is a collaborative effort initiated with the U.S. Department of 
Energy to promote research that enhances energy efficiency in areas 
such as forest raw material supply. Competitive grants are awarded to 
universities and agency labs based on matching funding, scientific 
peer-review, and collaboration.
    Agenda 2020 provides an outstanding model of a public/private 
partnership that efficiently allocates Federal funding to support 
research that benefits the nation. AF&PA would like to expand this 
partnership and add USDA agencies as formal Agenda 2020 partners.
                    general research recommendations
    AF&PA supports funding increases within existing authorizations for 
USDA agencies best qualified to conduct long-term forest productivity 
research to benefit all landowners. The need for pragmatic research 
designed to produce and measure healthier, faster growing forests far 
exceeds supply. Well-targeted increases in Federal funding support are 
needed to re-build research capacity and focus resources in areas where 
the nation will receive the best return on investment: biotechnology/
genetics, soil productivity, tree physiology, forest measurements and 
forest products utilization.
    A portion of this funding should be allocated through competitive 
grants that support collaborative Agenda 2020 research. Greater use of 
tools such as matching funding, competitive grants, and scientific 
peer-review will leverage scarce resources, ensure quality research, 
and help measure success. To the greatest extent possible, agency 
research priorities should be established in collaboration with 
university, state, and private sector forest researchers and managers. 
This will ensure that research objectives remain relevant to all 
forestland owners.
    AF&PA concurs with the recommendations contained in the 1998 
National Research Council report: ``Forested Landscapes in Perspective: 
Prospects and Opportunities for Sustainable Management of America's 
Nonfederal Forests.'' The report, commissioned by the Secretary of 
Agriculture, calls for greater funding in forest science, technology 
and research programs. In ``Report to the Secretary of Agriculture'' 
dated November 1, 1999, the Forest Research Advisory Council (FRAC) 
urged USDA to ``foster competitive grant or other programs'' to address 
``sustainable intensive timber production'' and ``forest assessment 
(inventory).'' This represented the views of 20 forest research experts 
from Federal and State government, industry, academia, and the 
conservation community.
    AF&PA forest research recommendations are also consistent with the 
Congressional findings of the 1998 Farm Bill. It is important to review 
some of those findings since it gets to the heart of the forest 
community's ability to compete in the global marketplace. Congressional 
findings included:
  --``Uncertainty over the availability of the United States timber 
        supply, increasing regulatory burdens, and the lack of Federal 
        Government support for research is causing domestic wood and 
        paper producers to move outside the United States to find 
        reliable sources of wood supplies, which in turn, results in a 
        worsening of the United States trade balance, the loss of 
        employment and infrastructure investments, and an increased 
        risk of infestations of exotic pests and diseases from imported 
        wood products'' and
  --``Wood and paper producers in the United States are being 
        challenged not only by shifts in Federal Government policy, but 
        also by international competition from tropical countries where 
        growth rates of trees far exceed those in the United States. 
        Wood production per acre will need to quadruple from 1996 
        levels for the United States forestry sector to remain 
        internationally competitive on an ever decreasing forest land 
        base.''
   fiscal year 2002 usda recommendations--agriculture appropriations 
 cooperative state research, education, and extension service (csrees)
    Four programs administered by the USDA Cooperative Research, 
Education, and Extension Service (CSREES) make a significant 
contribution to supporting university research, forestry education, and 
vital partnerships. These are McIntire-Stennis, The Renewable Resources 
Extension Act (RREA), the National Research Initiative (NRI), and the 
Initiative for Future Agriculture and Food Systems (IFAS).
    AF&PA strongly supports these programs and specifically recommends 
a total $39.9 million increase (4.0 percent) for the USDA Cooperative 
State Research, Education, and Extension Service (CSREES) targeted at 
three (3) priorities, summarized and discussed below.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                           Budget Item                              2001 Total     2002 Targeted    2002 Total
                                                                      Funding        Increase         Funding
----------------------------------------------------------------------------------------------------------------
McIntire-Stennis................................................           $21.9            $8.1           $30.0
RREA............................................................             3.2            11.8            15.0
NRI.............................................................           106.0            20.0           126.0
                                                                 -----------------------------------------------
    Total--Priority Programs....................................           131.1            39.9           171.0
                                                                 ===============================================
Total CSREES fiscal year 2001 Budget--Enacted...................           988.6
Percent Increase................................................  ..............               4  ..............
----------------------------------------------------------------------------------------------------------------

$8.1 million increase for the Cooperative Forestry Research Program 
        (McIntire Stennis Act).
    This program provides critical core funding for forestry research 
and scientist training efforts at universities. It is authorized at 
$105 million, was funded at $21.932 million in fiscal year 2001 and 
matched more than three times by universities with state and nonfederal 
funds. AF&PA suggests that a total $8.1 million increase be targeted as 
follows:
  --$3 million--forest productivity research as defined by Agenda 2020
  --$2.1 million--forest information technology
  --$1.1 million--wood utilization and processing technology
  --$1.9 million--assessing economic impacts of policy decisions
$11.8 million increase for the Renewable Resources Extension Act (RREA) 
        program.
    This program provides the foundation for extension and outreach 
efforts delivered to private landowners through universities. It is 
authorized at $15 million and was funded at $3.192 million in fiscal 
year 2001. Cutting-edge sustainable forestry solutions developed 
through research are of limited benefit unless they can be effectively 
delivered to the nation's forest landowners. AF&PA suggests a total 
$11.8 million increase to fully fund this important program, with new 
funding targeted at developing databases, communications materials, and 
effective delivery mechanisms to ensure that landowners have easy 
access to forest management advice and professional services.
$20.0 million increase for the National Research Initiative Competitive 
        Grants Program (NRICGP) targeted at forestry research in the 
        areas of forest biotechnology, forest soil productivity, tree 
        physiology, and forest information technology.
    This program is a significant source of funding ($106 million in 
fiscal year 2001) for basic and applied research in several categories 
related to agricultural crops, sustainable forestry, and related 
market/trade issues. It has great potential to contribute to the 
nation's sustainable forestry research needs, though only ten percent 
(10 percent) of the available funding has been allocated to forestry 
research. AF&PA supports a total $40 million increase targeted at 
Agenda 2020 priorities, equally divided between fiscal year 2002 and 
fiscal year 2003, as a reasonable means to increase the emphasis on 
critical forestry research needs.
 fiscal year 2002 usda recommendations--interior appropriations forest 
                     service research & development
    AF&PA supports increased funding for Forest Service research in 
three areas of critical importance:
  --Forest Productivity Research with a Competitive Grants funding 
        component,
  --Forest Inventory & Analysis (FIA) program,
  --Forest Products Laboratory in Madison, Wisconsin. Improved science 
        in these areas transcends ownership categories and will result 
        in enhanced tree growth, improved knowledge for sustainably 
        managing all forest values, and increased wood utilization 
        efficiency. As authorized by the Forest and Rangeland Renewable 
        Resources Act of 1978, Section 2 (a)(1), Forest Service 
        research should ``support the protection, management, and 
        utilization of the Nation's renewable resources.'' This Act 
        refers not just to public lands, but to private lands as well.
    AF&PA recommends a total $31.5 million increase (13.7 percent) for 
Forest Service Research & Development targeted at three (3) priorities, 
summarized and discussed below.
$11 million increase for Forest Inventory and Analysis (FIA).
    This is consistent with recommendations in the Memorandum of 
Understanding (MOU) between the Forest Service and the National 
Association of State Foresters. Forest Inventory and Analysis (FIA) 
provides data needed to measure forest growth, health, and other 
essential information needed to make resource allocation and forest 
policy decisions.
$16 million increase to build forest productivity research capacity, 
        with $10 million dedicated to Competitive Grants to support 
        Agenda 2020 priority research in biotechnology, forest soil 
        productivity, tree physiology, and forest information 
        technology.
    The number of scientists and projects focused on producing more 
wood products from fewer acres has dramatically declined as the agency 
has moved away from commodity production. Forest Service regional 
experiment stations have both an obligation and the unique ability to 
address the nation's sustainable forestry needs through long-term 
research. Section 1672 of the Agricultural, Research, Extension, and 
Education Act of 1998 (Research Title of the Farm Bill) specifically 
identified improving long-term forest productivity as a priority 
research need and allows the Secretary of Agriculture to award 
competitive grants for such research.
    We recommend that the Forest Service implement a formal competitive 
grants program at fully authorized levels to support collaborative 
forest productivity research through Agenda 2020 in the areas of 
biotechnology, soil productivity, tree physiology, and forest 
information technology. This will help build stronger partnerships 
between the agency and our nation's university-based forestry schools.
$5.5 million increase for Forest Products and Utilization Research at 
        the Forest Products Laboratory in Madison, Wisconsin and other 
        labs, with $2 million to support core functions and $3.5 
        million dedicated to the housing research initiative.
    A $2 million funding increase for core functions will ensure 
continued technological innovation in using renewable wood products. 
Forest products and utilization research contributes to improved forest 
productivity and sustainability by focusing on efficient and effective 
use of wood fiber. AF&PA also endorses the housing research initiative 
and suggests that $7 million equally divided between fiscal year 2002 
and fiscal year 2003 is a reasonable and responsible means to provide 
technological innovation needed to respond to increased housing demand.
                               conclusion
    In conclusion, AF&PA recognizes a critical need for increased 
investment in forest research and respectfully recommends well-targeted 
increased appropriations within USDA. At least two USDA agencies are 
uniquely qualified to support collaborative, long-term research in 
priority areas: forest productivity, utilization, and inventory. 
Increased appropriations for these forest research priorities are a 
needed investment that will pay substantial dividends for our nations' 
future.
                                 ______
                                 

  Prepared Statement of the American Honey Producers Association, Inc.

    My name is Richard Adee. I am President of the American Honey 
Producers Association, Inc., and I am submitting this statement in its 
behalf. The American Honey Producers Association, Inc. is a national 
organization of commercial beekeepers with activities in most of the 
States in this country.
    First, the Association wishes to thank the Subcommittee for the 
support it has provided in the past for agricultural research 
activities in behalf of the beekeeping industry. It has enabled the 
Agricultural Research Service to staff its bee laboratories at the 
minimum level necessary to meet with critical needs of the industry. To 
continue this research, the Association supports funding for bee 
research at the ARS facility at Weslaco, Texas, at not less than the 
level appropriated for fiscal year 2001. The Association also 
recommends an increase of $500,000 in the level of funding for the ARS 
honey bee breeding, genetics, and physiology laboratory at Baton Rouge, 
Louisiana.
                               background
    Honey bees pollinate over 90 cultivated crops and are an essential 
element in the productivity achieved by American agriculture. It is 
estimated in a Cornell University study published in 2000, that the 
annual value of agricultural production attributable to honey bee 
pollination amounts to $14.6 billion. These include the production of 
such diverse crops as almonds, apples, oranges, melons, vegetables, 
alfalfa, soybeans, sunflower, and cotton, among others. Their increased 
value comes in the form of both increased yields and improved quality. 
In addition, honey bees are responsible for the production of an 
average of 200 million pounds of honey annually, the sales of which 
helps sustain this nation's beekeepers.
    Since 1984, the survival of the honey bee has been threatened by 
continuing infestations of mites and pests for which appropriate 
controls are being developed by USDA scientists. Unfortunately, there 
is no simple solution to these problems. The honey bee industry is too 
small to support the cost of the needed research, particularly with the 
current depressed state of the industry. Further, there are no funds, 
facilities, or personnel elsewhere available in the private sector for 
this purpose. Accordingly, the beekeeping industry is dependent on 
research from public sources for the scientific answers. The key to the 
survival of the honey industry lies with the honey bee research program 
conducted by the Agricultural Research Service.
             research at the ars weslaco, texas, laboratory
    The Association recommends that the appropriation for the Weslaco 
laboratory be approved at not less than current levels. This will 
enable the laboratory to continue its work in finding a chemical 
solution to parasitic mites that are causing a crisis for the U.S. 
beekeeping and pollination industries.
    Varroa mites are causing the loss of hundreds of thousands of 
domestic honey bee colonies annually as well as devastating wild bee 
colonies The only chemical which has received a general registration 
for varroa mite control, fluvalinate, is being rendered ineffective by 
the development of resistant mite populations. The USDA honey bee lab 
at Weslaco, Texas, has been working hard trying to find alternative 
chemicals to control the varroa mite. It appears that the laboratory 
has found a chemical, coumaphos, with the potential of being equally 
effective as fluvalinate. This is a real break through for the bee 
industry, but as of today we have only been able to obtain section 18 
emergency registrations. Much work still remains to be done before a 
section 3 general registration is granted by EPA.
    A new pest, the small hive beetle, found in Florida has caused 
severe bee colony losses. Apparently, it originated in South Africa. 
Estimates put the losses in just one season at over 30,000 colonies. 
There is evidence that the beetles are spreading to other areas in the 
East coast. As the beetles spread, they will just devastate the bee 
industry. In order to contain the beetle, several states have 
quarantined bees from Florida, North Carolina, South Carolina, and 
Georgia or are actively considering such quarantines. Despite these 
precautions, the beetle has recently spread to California. There is a 
fear that its spread in California will be difficult to control because 
of similarity of soil conditions with those in Florida. It seems that 
coumaphos may help control this insect as well as the varroa mite, but 
as previously stated it has not received a section 3 registration and 
it is unclear when such a registration will be granted by EPA.
    The USDA-ARS honey bee research scientists at the Weslaco 
laboratory have been working overtime to find chemicals, techniques, 
pheromones, or other methods of controlling the beetle. Time is of the 
essence, as a control must be found immediately as all the bee colonies 
in the Western Hemisphere are at risk.
    Additionally, the requested appropriation will enable the Weslaco 
lab to continue its work in finding new and improved methods for 
control of other parasitic mites, such as the tracheal mite, as well as 
solving beekeeping problems that interfere with honey production and 
effective crop pollination, and determining the impact and spread of 
Africanized honey bees.
         research at the ars baton rouge, louisiana, laboratory
    The Association also recommends an increase of $500,000 in the 
appropriation for the ARS laboratory at Baton Rouge, Louisiana. The 
Baton Rouge lab is the only laboratory world-wide focusing on the 
development of long-term, genetic-based solutions to the varroa mite. 
Existing stocks of U.S. honey bees have several desirable traits but 
are not genetically resistant to the parasitic mites. Research 
scientists with the Baton Rouge laboratory have been to the far corners 
of the world looking for mite resistant bees. In eastern Russia, they 
found bees that have co-existed for decades with the mites and 
survived. The bees were brought to the United States and are in the 
process of being evaluated to assure that the resistance holds up under 
a wide range of environmental and beekeeping conditions. Attributes 
such as vigor, pollination, and honey production are being tested.
    There is an immediate need to propagate the resistant queen bees in 
large numbers for wide scale distribution to beekeepers so that this 
evaluation can be accomplished. The work is slow and tedious. It is 
also costly. The requested appropriation will accelerate the research, 
development, and transfer of queen bee stock resistant to varroa mites 
by providing for the employment of an additional research scientist and 
supporting staff whose salaries are not included in the USDA budget.
                                summary
    In conclusion, we wish to thank you again for your support of honey 
bee research in the past. We also would appreciate your continued 
support by approving an appropriation at not less than current levels 
for the Weslaco, Texas, lab, by adding an additional amount of $500,000 
to the appropriation for the Baton Rouge bee facility, and by otherwise 
supporting the Administration's request for bee research. Only through 
research can we achieve and maintain profitability in the U.S. 
beekeeping industry and continue to provide stable and affordable 
supplies of bee pollinated crops which make up fully one-third of the 
U.S. diet.
    I would be pleased to respond to any questions that you may have.
                                 ______
                                 

 Prepared Statement of the American Horse Protection Association, Inc.

    Dear Chairman Cochran and Members of the Subcommittee: On behalf of 
the American Horse Protection Association, Inc., I am writing to offer 
its views concerning the fiscal year 2002 appropriation for the Horse 
Protection Act program administered by the Animal Plant and Health 
Inspection Service (APHIS). AHPA is a national nonprofit humane 
organization devoted exclusively to equine welfare. Since the 
Association's incorporation in 1966, the prevention of abuse to show 
horses, and in particular Tennessee Walking Horses and similar gaited 
breeds, has been one of its principal areas of interest and concern.
    The authorized appropriation for the Horse Protection Act program 
is a maximum of $500,000 annually, which is exceedingly low in absolute 
terms for a program which is responsible for enforcing the Act at 
approximately 500 horse shows and sales per year. As a practical 
matter, since Fiscal Year 1994 the effective level of Horse Protection 
Act program enforcement expenditures has not exceeded $400,000. At this 
level, APHIS is severely limited in its efforts to effectively enforce 
the Horse Protection Act.
    AHPA recommends that the fiscal year 2002 appropriation be 
increased to the full $500,000 for the reasons set forth below.
    In 1970, Congress enacted the Horse Protection Act (Pub. L. No. 91-
570, 15 U.S.C. Sec. 1821 et seq) in response to concern for show horse 
abuse--particularly among Tennessee Walking Horses. ``Soring'', as the 
abuse is commonly known, involved the infliction of pain to the horse's 
feet and legs to accentuate its naturally animated gait and to hasten 
the training process. The Act was substantially amended in 1976 to 
expand the kinds of conduct that were prohibited and to strengthen the 
Agriculture Department's enforcement capabilities (Pub. L. 94-360) 
directing it to detect and punish violators, either civilly or 
criminally.
    The legislative history of the Act is clear: Congress regarded 
soring to be an inhumane practice which gave those trainers and owners 
who sore horses an unfair competitive advantage over those who 
safeguarded the welfare of their animals. Congress intended to 
eliminate soring, and believed that the competitive and financial 
interest of those who sore horses should not receive any recognition. 
Most importantly, Congress clearly mandated enforcement responsibility 
to the Department of Agriculture.
    Historically, Congress and the Agriculture Department have 
recognized that there is a close relationship between soring and the 
kinds of ``action devices'' and shoes and pads that a horse wears, 
especially if the effects of the devices and shoes and pads are 
accentuated by making the animal's feet and legs painful through the 
application of chemical irritants or blistering agents. As a result, 
enforcement under the Act has focused in part on prohibiting the use of 
equipment and techniques that reasonably can be expected to sore a 
horse. APHIS field enforcement at horse shows is intended to detect 
horses that show evidence of being in pain prior to or after showing. 
In addition, APHIS personnel attend shows to monitor the performance of 
Designated Qualified Persons (DQPs), employees of Horse Industry 
Organizations (HIOs) appointed by horse show management to inspect 
horses for soring violations.
    Last year marked the 30th anniversary of the passage of the Horse 
Protection Act. Yet, soring of horses remains a serious problem today. 
At an equine welfare forum in 1999 hosted by the American Association 
of Equine Practitioners and the American Veterinary Medical 
Association, Ron DeHaven, Deputy Administrator for APHIS, pointed out 
that nine of the last 10 presidents of the Walking Horse Trainers 
Association as well as nine of the last 16 ``Trainers of the Year'' 
have either Federal cases pending or convictions of soring. Moreover, 
although the Walking Horse industry often cites a 98 percent compliance 
rate, APHIS Veterinary Medical Officers (VMOs) write alleged violations 
for only the clearest, most egregious cases of soring. As a result, a 
very small percentage of documented cases of soring actually become the 
subject of USDA enforcement action. Furthermore, the informed judgment 
of APHIS VMOs suggests that an even larger number of horses are sored, 
but escape detection. Finally, at present, the number of cases being 
pursued by the Department of Agriculture's Office of General Counsel 
has dramatically dropped--without explanation.
    In recent years, due to funding restrictions APHIS attendance at 
Walking and Racking horse shows has been at an all time low. 
Nevertheless, the presence of APHIS VMOs at horse shows and sales makes 
a big difference in detecting and deterring soring abuses. Enforcement 
data from at least the last five show seasons, for example, 
demonstrates consistently that when VMOs are present, DQPs do a better 
job. Disqualification rates at shows attended by VMOs are regularly two 
to three times as high as the rates at shows inspected by DQPs alone. 
This indicates clearly that DQPs are more thorough and accurate, and 
adhere more closely to the inspection standards required by Horse 
Protection Act regulations when VMOs are present. Furthermore, the 
presence of VMOs is a powerful deterrent: On many reported occasions, 
exhibitors have withdrawn their horses from shows when VMOs appear on 
the show grounds unannounced.
    During the past few years, certain factions of the Walking Horse 
industry have promoted the concept of ``self-regulation'' under the 
Act, with the intent of restricting USDA's enforcement role in general. 
In this regard, AHPA would like to call the Subcommittee's attention to 
a Strategic Plan published in 1997 by USDA which, in fact, does call 
for a cooperative effort between the Department and horse industry 
organizations to improve enforcement of the Act and eliminate soring. 
However, it also confirms USDA's legal mandate to enforce the Act, and 
calls for a number of reforms, including more consistent inspection 
procedures, uniform rules and penalties among the HIOs, tighter 
conflict-of-interest prohibitions, and more funding for APHIS 
inspections at horse shows. It does not, in any way, call for industry 
self-regulation which, in and of itself, is contrary to the Act.
    In addition, at least one of the HIOs, the National Horse Show 
Commission, has historically been antagonistic to USDA's enforcement 
efforts. For example, during the 1990s the Commission collected a 
mandatory fee of $1 per show per exhibitor per day to help support the 
industry's Show Horse Support Fund, a lobbying and legal defense fund. 
In our view, it is highly unusual and a conflict of interest for an 
organization--that exists to administer a DQP program so that show 
management can fulfill its responsibilities under the Act--to be the 
instrument by which money is collected to fund industry efforts to 
oppose USDA enforcement. This same HIO continues a misleading effort to 
convince members of Congress to include language in the appropriations 
bill to direct APHIS to abandon its longstanding, established, and 
judicially affirmed practice of finding a horse to be sore if it shows 
a repeated, consistent pain reaction in response to digital palpation. 
Contrary to information that the Subcommittee may have received, an 
evaluation of a horse's movement and general appearance are always part 
of a soring examination (see 9 C.F.R. Sec. 11.21). However, gait 
impairments or general signs of discomfort are not necessary elements 
of a finding that a horse is sore. Furthermore, despite repeated 
assertions by the Commission, the American Association of Equine 
Practitioners has never adopted or endorsed the concept that a horse 
may be found sore only if it exhibits signs or symptoms in addition to 
a repeated, consistent pain reaction in response to digital palpation.
    Enforcement experience under the Act has shown that USDA presence 
at horse shows and sales is the best and most effective way to fight 
soring horses. In order for APHIS personnel to do the best job possible 
enforcing the Horse Protection Act, as mandated by Congress, their 
presence at horse shows must be expanded. For these reasons, AHPA 
requests that the Subcommittee recommend a $500,000 Horse Protection 
Act program appropriation for fiscal year 2002, and resist any attempt 
to insert language which would limit APHIS's enforcement role, 
including but not limited to a prohibition of relying on digital 
palpations as the primary diagnostic test to determine whether a horse 
is sore.
    Thank you for considering the Associations' views. We would be 
pleased to answer any questions you or your staff may have.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
American Indian Higher Education Consortium (AIHEC) and the 30 Tribal 
Colleges that comprise the 1994 Land grant Institutions, we thank you 
for this opportunity to share our funding requests for fiscal year 
2002.
    This statement covers two areas: a) it provides a brief background 
on the Tribal Colleges, and b) it outlines the 1994 Tribal College Land 
Grant Institutions' ambitious plan through our authorized land grant 
programs and the RCAP program to fulfill the agricultural potential of 
American Indian communities and to ensure that American Indians have 
the skills needed to maximize the economic development potential of our 
resources. Before providing this information, immediately following is 
a summary of our fiscal year 2002 requests.
                          summary of requests
    We respectfully recommend the following funding levels for fiscal 
year 2002 for our on-going land grant programs. Specifically, we 
request: $5 million for the 1994 institutions' extension grants 
program; $12 million for the Native American endowment fund; $3 million 
for the higher education equity grants; and $3 million for the 1994 
institutions' research program.
    In addition, we request $5 million be set aside out of the Native 
American--Rural Community Advancement Program, for the 1994 Tribal 
College Land Grant Institutions to address the critical facilities and 
infrastructure needs at the colleges that impede our ability to 
participate fully as land grant partners.
                     background on tribal colleges
    Today, almost 140 years after enactment of the first land grant 
legislation, Tribal Colleges, more than any other institutions, truly 
exemplify the original intent of the land grant legislation. The first 
Morrill Act was enacted in 1862 specifically to bring education to the 
people and to serve their fundamental needs. The Tribal Colleges fit 
this definition well, as they are community-based institutions.
    The Tribal College Movement was launched in 1968 with the 
establishment of Navajo Community College, now Dine College, in Tsaile, 
Arizona. A succession of Tribal Colleges soon followed, primarily in 
the Northern Plains region. In 1972, the first six tribally controlled 
colleges established the American Indian Higher Education Consortium to 
provide a support network for member institutions. Today, AIHEC 
represents 32 Tribal Colleges and Universities located in 12 states, 
begun specifically to serve the higher education needs of American 
Indian students. Collectively, they serve American Indian students from 
over 250 federally recognized tribes.
    Tribal Colleges offer primarily two-year degrees, although in 
recent years some institutions have begun to offer baccalaureate and 
graduate-level degrees. The vast majority of the Tribal Colleges are 
fully accredited by independent, regional accreditation agencies.\1\ 
Tribal Colleges serve as community centers, providing libraries, tribal 
archives, career centers, economic development and business centers, 
public meeting places, and child care centers. Despite our many 
obligations, functions, and notable achievements, Tribal Colleges 
remain the most poorly funded institutions of higher education in this 
country. Most of the 1994 Institutions are located on Federal trust 
territory; states have no obligation and in most cases, do not fund the 
Tribal Colleges. In fact, most states do not even fund our institutions 
for the non-Indian state resident students who attend our colleges 
despite the fact that non-Indian enrollment at the Tribal Colleges 
averages 20 percent.
---------------------------------------------------------------------------
    \1\ The Tribal Colleges and Universities are accredited by regional 
accreditation agencies and must undergo stringent performance review on 
a periodic basis. The higher education division of the respective 
regional accreditation agency accredits twenty-seven of the TCUs. Two 
new TCUs are at the Pre-candidate stage as they complete work to attain 
Candidate status; one TCU is at Candidate status. Two TCUs are 
accredited as ``Vocational/Adult Schools by the ``schools'' division of 
the respective regional accreditation agency.
---------------------------------------------------------------------------
    Today, one in five American Indians live on reservations. As a 
result of two hundred years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in abject poverty comparable to poverty found in Third 
World nations. Through the efforts of Tribal Colleges, American Indian 
communities receiving services they need to reestablish themselves as 
responsible, productive, and self-reliant citizens. It would be tragic 
not to expand the modest investment in, and capitalize on, the human 
resources that will help open new avenues of economic development, 
specifically through enhancing the Tribal Colleges land grant programs, 
and adequate access to information technology.
     1994 land grant programs-ambitious efforts to reach economic 
                         development potential
    Tragically, due to lack of expertise and training, millions of 
acres on our reservations lie fallow, under-used, or have been 
developed through methods that render the resources non-renewable. The 
Equity in Educational Land Grant Status Act of 1994 is our hope for 
turning this situation around. Our current land grant programs are 
modest, yet vitally important to us. It is essential that American 
Indians learn more about new and evolving technologies for managing our 
lands. We are committed to becoming, as we were when your forefathers 
came to this land centuries ago, productive contributors to the 
agricultural base of the nation and the world.
    Extension Program.--As 1994 Land Grant Institutions enter into 
partnerships with 1862 Institutions through extension projects, recent 
years show impressive efforts to address economic development through 
land use. Our extension program illustrates an ideal combination of 
Federal resources and Tribal college-state institution expertise, with 
the overall impact being far greater than the sum of its parts. These 
programs have grown substantially in idea and scope since they were 
initially implemented in fiscal year 1996. The current single year 
competitive grants for what have developed into flourishing multiyear 
projects is no longer an effective or efficient way to administer these 
vital programs. A mechanism for multiyear funding needs to be explored 
to give these programs financial stability. Some examples of the 
innovative programs that are funded through annual competitively 
awarded grants include:
  --United Tribes Technical College and North Dakota State University 
        Extension Service are collaborating to provide diabetes 
        prevention education to Native Americans through nutrition 
        education. Diabetes and its complications have spread 
        epidemically throughout Indian Country. Through nutrition, 
        health, and wellness education programs, which are culturally 
        appropriate and community supported, program participants will 
        have a greater understanding of their role in how to control 
        and even prevent this disease.
  --Northwest Indian College in conjunction with Washington State 
        University has launched a tribal grants program aimed at 
        increasing the capacity to address issues such as natural 
        resources restoration and utilization, tribal agricultural 
        projects, air and water quality, food and nutrition, and 
        projects focused on gaining tribal youth participation. The 
        program works with individuals and leaders of Washington and 
        Idaho tribes and will serve the American Indian families, 
        tribal economics, and whole communities. It will also expand to 
        develop ties with the University of Idaho, University of 
        Alaska, and the Oregon State University extension programs.
    In fiscal year 2001, the 1994 institutions were awarded $3,280,000 
for extension grants. Additional funding is needed to supplement these 
programs designed to address the inadequate extension services provided 
on reservations by the states. It is important to note that this 
program is specifically designed to complement and build upon the 
Indian Reservation Extension Agent program and is not duplicative of 
ongoing extension activities.
    For the reasons outlined above, we request Congress support this 
vital program by appropriating funding at the authorized level of $5 
million and include report language that would open the door to 
multiyear funding to encourage the growth and further success of these 
essential programs.
    Native American Endowment Fund.--The endowment installments paid 
into the 1994 Tribal College Land Grants Institutions account remain 
with the U.S. Treasury only the interest is distributed to our 
colleges. It is important to note that these funds are not scored as 
current budget outlay or authority. The latest annual interest payment 
distributed among all 30 of the 1994 Land Grant Institutions totaled 
$1,141,821.
    Just as other land grant institutions historically received large 
grants of land or endowments in lieu of land, this sum assists 1994 
Land Grant Institutions in establishing and strengthening our academic 
programs in such areas as curricula development, faculty preparation, 
instruction delivery, and to address critical infrastructure issues. As 
earlier stated, Tribal Colleges often serve as primary community 
centers. Although conditions at some have improved substantially, many 
of the colleges still operate under deplorable conditions. In order for 
the 1994 Institutions to become full partners in this nation's great 
land grant system, we need and deserve the facilities and 
infrastructure necessary to engage in education and research programs 
vital to the future health and well-being of our reservation 
communities. We respectfully request Congress build upon this much-
needed base fund by increasing the fiscal year 2002 endowment fund 
payment to $12 million.
    1994 Institutions' Educational Equity Grant Program.--Closely 
linked with the endowment fund, this program has provided almost 
$52,000 per 1994 Institution to assist in academic programs. Through 
the modest appropriations made available since fiscal year 1996, the 
Tribal Colleges have been able to begin to support vital courses and 
planning activities specifically targeted to meet the unique needs of 
our respective reservations. Some examples include:
  --Sisseton Wahpeton Community College in Sisseton, South Dakota, has 
        leveraged the equity grant funds with funding from the 1994 
        Institutions' endowment program to remodel the college kitchen 
        for the development of a food service operation/food safety 
        laboratory and curriculum. The goal of the program is to 
        prepare students to run a modern food service operation 
        including receiving, storing, preparing, cooking, holding, and 
        serving foods. Attention to food safety, including prevention 
        of food borne illness, is a top priority of the program. This 
        project is designed to work in cooperation with the Sisseton 
        Wahpeton Sioux Tribe Indian Health Hospital.
  --Fort Peck Community College in Poplar, Montana, is building on its 
        delivery system for instructional programs in food and 
        agricultural sciences designed to meet the technological and 
        social demands of modern living in rural Montana. Through 
        collaboration with current USDA programs and agencies, Fort 
        Peck Community College is focusing on the production, 
        marketing, and distribution of locally produced agricultural 
        commodities; enhanced rural development using distance 
        education technology; and family and consumer sciences through 
        Native customs, values, and traditions.
    Other Tribal Colleges have started courses and programs in natural 
resource management, environmental sciences, horticulture, forestry, 
nutrition, and buffalo production and management. We respectfully 
request the Subcommittee expand this program by increasing the funding 
to $3 million, to allow the colleges to build upon the courses and 
activities that the initial funding launched.
     1994 Research Program.--We are requesting increased funding for 
our research program, which was authorized in the Agriculture Research, 
Extension, and Education Reform Act of 1998, at ``such sums as 
necessary.'' We recognize the budget constraints that Congress is 
working under. However, we feel the current $1 million is simply not 
adequate, with 30 institutions competing for these research dollars. 
This research program is vital to ensuring that Tribal Colleges finally 
become full partners in the nation's land grant system. Many of our 
institutions are currently conducting agriculture based applied 
research, yet finding the resources to conduct this research to meet 
their communities' needs is a constant challenge. This research 
authority opens the door to new funding opportunities to maintain and 
expand the research projects begun at the 1994 Institutions. The 
following is a prime example of the first projects to be funded under 
this new program.
  --Turtle Mountain Community College in Belcourt, ND, in partnership 
        with North Dakota State University, has launched a project to 
        assess the risk of mosquito-borne Western equine 
        encephalomyelitis (WEE) infection to horses and humans on the 
        Turtle Mountain Chippewa Reservation (TMCR). Through collection 
        and examination of both adult and larvae vector mosquitoes from 
        throughout the reservation, this research will determine the 
        spatial distribution and the proportion of WEE vector species 
        on the TMCR that is infected with the virus. The results will 
        be published in the Journal of Medical Entomology.
    Other projects include soil and water quality projects, amphibian 
propagation, pesticide and wildlife research, range cattle species 
enhancement, and native plant preservation for medicinal and economic 
purposes. We urge the subcommittee to fund this program at $3 million 
to enable our institutions to develop and strengthen their research 
potential.
    Rural Community Advancement Program (RCAP).--In fiscal year 2001, 
$24 million of the RCAP funds were appropriated for loans and grants to 
benefit Federally recognized Native American Tribes. Report language 
declared that the conference committee expected $4 million be made 
available for community facility grants for Tribal College 
improvements. As stated earlier, the facilities at many the 1994 Land 
Grant Institutions are in desperate need of repair and in many cases 
replacement. We urge the Subcommittee to designate $5 million of the 
Native American RCAP funds to address the critical need for improving 
the facilities at the 30 Tribal College Land Grant Institutions. 
Additionally, we respectfully request report language directing the 
Department of Agriculture to set aside $5 million of this RCAP program 
funds for each of the next five fiscal years to allow our institutions 
the means to solidly address our facilities needs.
                               conclusion
    The 1994 Land Grant Institutions have proven to be efficient and 
effective tools for bringing education opportunities to American 
Indians and hope for self-sufficiency to some of this nation's poorest 
regions. The modest Federal investment in the Tribal Colleges has 
already paid great dividends in terms of employment, education, and 
economic development, and continuation of this investment makes sound 
moral and fiscal sense. American Indian reservation communities are 
second to none in their need for land grant programs and no 
institutions better exemplify the original intent of the land grant 
concept than the Tribal College Land Grant Institutions.
    We appreciate your long-standing support of the Tribal Colleges and 
Universities and are grateful for your commitment to making our 
communities self-sufficient. We look forward to continuing our 
partnership with you, the U.S. Department of Agriculture, and the other 
members of the nation's land grant system-a partnership that will bring 
equal educational, agricultural, and economic opportunities to Indian 
Country.
    Thank you for this opportunity to present our funding requests 
before this Subcommittee. We respectfully request your continued 
support and full consideration of our fiscal year 2002 appropriations 
requests.
                                 ______
                                 

      Prepared Statement of the American Phytopathological Society

    The American Phytopathological Society (APS) appreciates the 
opportunity to provide the Subcommittee with our recommendations for 
fiscal year 2002 appropriations for essential research programs 
administered by the U.S. Department of Agriculture (USDA). The APS 
represents more than 5,000 scientists and practitioners of plant 
pathology. The APS promotes the health of plants and their products in 
sustainable agricultural, landscape, and forest ecosystems through 
environmentally sound and cost-effective approaches to assure a safe, 
abundant, and reliable supply of food, feed, and fiber.
    For the fiscal year 2002 agricultural appropriations bill, our top 
priorities are to increase funding for the USDA National Research 
Initiative (NRI) by 15 percent and, more specifically, to increase 
funding by $5 million for microbial genomics, especially genomics of 
microbial pathogens, within the NRI and within the Agricultural 
Research Service (ARS). The NRI provides critical support to individual 
investigators for basic, fundamental research. In addition to our top 
priorities, we urge the Subcommittee to maintain the $120 million in 
funding for the Initiative for Future Agriculture and Food Systems 
(IFAFS) as the IFAFS program provides support for microbial genomics as 
well. The IFAFS focuses on providing support to multi-institutional, 
multidisciplinary research. The NRI and the USDA microbial genomics 
programs are essential to plant disease management in the future.
    The NRI has been the primary source of Federal funds awarded 
competitively for research on plant diseases and their management since 
its formation in 1991 as the flagship competitive grants program of the 
USDA. Within the USDA, the NRI is particularly valuable and unique as 
it supports research focused on the fundamental understanding of plant 
diseases that serves as the foundation for applied research for plant 
disease management. The ability of the NRI to support this fundamental 
work is in jeopardy as the costs of modern-day research in the 
biological sciences has skyrocketed in recent years and funding for the 
NRI has not kept pace with these costs. While funding for research has 
increased significantly over the past 10 years and in some cases has 
doubled during that period, funding for the NRI has remained 
essentially flat and, for fiscal year 2001, funding was reduced by $14 
million, with much of this decrease occurring in the plant sciences. A 
report released by the National Academy of Sciences in 2000 again 
recommends that funding for the NRI be increased to the level 
authorized in 1991, which is five times its current level of $106 
million. Because of the reduced funding for plant sciences, the NRI was 
unable to support critical genomics research.
    The NRI has supported many significant scientific and technical 
breakthroughs. Some of the accomplishments funded by the NRI include:
  --The first cloning of a plant gene responsible for recognition and 
        rejection of a microbial plant pathogen by the pant and now 
        known to be one of a family of genes with counterparts 
        responsible for recognition and rejection of infectious 
        microbial agents by certain human and animal tissues;
  --Identification of the harpin protein responsible for a generic 
        resistance response in plants and approved in 2001 by the EPA 
        as a natural plant-pathogen product now being sold under the 
        trade name ``Messenger''; and
  --Discovery of a gene expressed uniquely in roots and responsible for 
        the widespread susceptibility of plants to root knot nematodes 
        that is now providing us with an entirely new method of 
        developing crop plants with genetic resistance to these pests.
    In spite of these and other accomplishments, we are deeply 
concerned that because of flat funding, our discipline, so critical to 
assuring a safe and secure food supply, is being left behind both by 
the fast-pace of change in agriculture and the revolution in the 
biological sciences. New plant disease problems continue to emerge 
while the older problems continue to threaten the efficiency and 
productivity of American farms or keep our farmers locked into the use 
of pesticides.
    Genomics has opened entirely new vistas for improvements in human, 
animal, and plant health. Plant pathology is poised along with our 
contemporaries in the medical and veterinary fields to take advantage 
of the new information on sequences of genomes. However, still missing 
in this explosion of information on genome sequences is information on 
the sequences of genomes of our most important plant pathogens. Of some 
100 microbial genomes (other than viruses) that have been sequenced 
now, only one plant pathogen, a bacterial pathogen of citrus, has been 
completely sequenced, and this work was done in Brazil. Because of the 
small size of most microbial genomes, sequencing can be done 
inexpensively and quickly. With $5 million devoted to the sequencing of 
microbial genomes and, particularly, to plant pathogens, we could begin 
to revolutionize plant pathology. Once we have the sequences of the 
most important plant pathogens, it will advance significantly our 
efforts to discern the function of the genes (i.e., functional 
genomics).
    The availability of information on both genome sequences and the 
function of genes for a select and representative list of plant 
pathogens would open entirely new approaches to understanding, 
managing, and even predicting plant disease outbreaks and epidemics 
just as is now happening for medicine. Such information can also 
improve diagnostics in cases where phytosanitary laws are used as trade 
barriers and help authorities track down any bioterrorist release of a 
notorious plant pathogen. The APS is in the process now of prioritizing 
the plant pathogens for which sequences are needed. Our goal is to 
select those pathogens that would be representative of all plant 
pathogens from a practical and scientific standpoint.
    We recognize that the National Science Foundation, the Department 
of Energy, and the National Institutes of Health are investing in 
microbial genomics. We appreciate, greatly, the support from these 
agencies. However, the focus of the microbial programs in the other 
agencies is not on agriculturally important plant pathogens. We believe 
that the USDA can and should play a leading role in microbial genomics, 
especially as it relates to plant pathogens.
    We, strongly, urge you to include $5 million for microbial genomics 
and a 15 percent increase for the NRI in the fiscal year 2002 
agricultural appropriations bill. These programs will assist in our 
effort to maintain healthy plants so that we have a safe and secure 
food supply.
    Thank you for this opportunity to present our views.
                                 ______
                                 

               Prepared Statement of the American Rivers

    American Rivers is joined by over 500 local, regional and national 
conservation organizations \1\ from all 50 states in calling for $325 
million in funding for the Environmental Quality Incentives Program and 
in supporting an expansion two important conservation programs 
administered by the U.S. Department of Agriculture. Specifically, we 
support increasing the acreage limits of the Conservation Reserve 
Program to 40 million acres, and eliminating the acreage limit in the 
Wetlands Reserve Program and enrolling 250,000 acres yearly, beginning 
in fiscal year 2002.
---------------------------------------------------------------------------
    \1\ These groups have endorsed ``The River Budget 2002'', a report 
of national funding priorities for local river conservation. A list of 
groups endorsing the River Budget can be viewed at 
www.americanrivers.org.
---------------------------------------------------------------------------
    The Environmental Quality Incentives Program (EQIP) is a voluntary 
program that helps farmers and ranchers facing threats to soil, water, 
and other natural resources develop and implement successful 
conservation practices. The Conservation Reserve Program is a voluntary 
program that partners the U.S. Department of Agriculture (USDA) with 
farmers and ranchers, helps protect millions of acres of the nation's 
agricultural lands from erosion while increasing wildlife habitat and 
protecting ground and surface waters. The Wetlands Reserve Program is a 
voluntary program that protects and restores the nation's wetlands, 
bring tangible economic and environmental benefits to rural 
communities.
                environmental quality incentives program
    The health of America's agricultural lands is fundamental to the 
nation's well being. These lands support an industry of great value, 
provide important habitat for a large portion of the nation's birds, 
fish, and wildlife, and significantly affect river health. The 
Environmental Quality Incentives Program (EQIP) is voluntary program 
that helps farmers and ranchers facing threats to soil, water, and 
other natural resources develop and implement successful conservation 
practices.
    EQIP focuses largely on lands that face significant natural 
resource problems or are particularly environmentally sensitive. As 
these priority areas are identified locally, conservation districts 
convene working groups of key Federal, State, and local agency 
representatives to propose conservation plans for these areas. 
Communities play a significant role in the planning process, ensuring 
that the plans fully reflect local needs and priorities. Once Natural 
Resource Conservation Service (NRCS) representatives select 
conservation plans, EQIP staff provide technical, educational, and 
financial assistance to farmers or ranchers to help them implement 
management plans for nutrients, manure, pests, irrigation, water, and 
wildlife habitat practices. Farmers may also apply for 5- to 10-year 
EQIP contracts that provide financial incentives and cost-sharing 
assistance to implement conservation practices outlined in the 
conservation plan required for use of most agricultural lands.
                      conservation reserve program
    With the dust bowl of the 1930's, the United States learned the 
hard way about the destructiveness of agricultural erosion. In the 
years since, the nation has also come to recognize the damage caused by 
runoff that carries pollutants into river, lakes, and other bodies of 
water.
    One of the Federal government's largest and most effective 
environmental improvement programs grew out of concern about the 
impacts of agricultural soil erosion and polluted runoff. The 
Conservation Reserve Program (CRP), a voluntary program that partners 
the USDA with farmers and ranchers, helps protect millions of acres of 
the nation's agricultural lands from erosion while increasing wildlife 
habitat and protecting ground and surface waters. The program provides 
incentives for farmers and ranchers to voluntarily implement long-term 
conservation practices on erodible and environmentally sensitive lands 
in return for annual rental payments and cost-share assistance.
    The benefits of CRP are clear. The total acreage of new wildlife 
habitat created by the program is twice that of the National Wildlife 
Refuge System and all state-owned wildlife areas in the contiguous 48 
states combined. According to NRCS, each acre enrolled in CRP reduced 
topsoil erosion by an average of 19 tons per year, improving water 
quality in lakes, rivers and other water bodies. USDA estimates show 
that, over the life of the initial 36.4 million-acre enrollment, CRP 
will have resulted in a $2.1-$6.3 bilion increase in net farm income, 
$3.3 billion in future timber resources, and up to $4.2 billion in 
surface water quality improvements. The Fish and Wildlife Service 
estimates that the wildlife benefits will total $1.4 billion for water 
fowl hunting and $4.1 billion for non-consumptive wildlife benefits 
such as photography and wildlife watching.
                        wetlands reserve program
    Wetlands are a critical component of many ecosystems, providing 
myriad of benefits for people and wildlife. They filter sediments and 
pollutants from runoff water, protect water quality, provide critical 
habitat for millions of birds and other wildlife, absorb water to 
reduce floods, and improve soil moisture for vegetation. The economic 
benefits of healthy wetlands are many, including improving wildlife 
watching and photography. In 1991, almost 109 million people spent $59 
billion on fishing, hunting, and wildlife watching and photography.
    The Wetlands Reserve Program (WRP) is a volunteer program aimed at 
protecting and restoring the nation's wetlands, bringing tangible 
economic and environmental benefits to rural communities, 
recreationists, landowners and family farmers nationwide. Participating 
landowners receive technical and financial assistance from the NRCS to 
restore wetlands, including marginal agricultural land. In exchange for 
selling a conservation easement or entering into a cost-share 
restoration agreement, landowners receive all or a percentage of 
restoration costs and/or an annual payment. The program currently has 
more than 5,230 contracts in 48 states. Participating landowners retain 
control over access to their lands and may lease them for undeveloped 
recreational activities and other uses that are fully consistent with 
wetland protection and enhancement. Wetlands restored by WRP also help 
reduce the ``dead zone'' in the Gulf of Mexico by intercepting polluted 
runoff from farms and city streets along the Mississippi River.
     farm conservation programs: protecting america's water quality
    Water quality is an issue that touches many lives. Each year, 
sediment and nutrients are inadvertently washed off the landscape, into 
feeder streams, and ultimately into our nation's rivers--reducing farm 
income, increasing channel maintenance costs, threatening drinking 
water supplies and filling side channels used by river wildlife. The 
costs associated with sediment and nutrient loss are enormous. On the 
Mississippi River, for example, farmers annually lose more than $300 
million in applied nitrogen, dredging costs annually top $100 million, 
and habitat preservation efforts on the Upper Mississippi River will 
soon reach $33 million a year.
    Fertilizers, animal waste, and inadequately treated human waste 
have contributed to high levels of nutrients--nitrogen and phosphorus. 
Once they are released into the Mississippi, these nutrients ignite a 
chemical chain reaction that reduces the amount of oxygen dissolved in 
the water, limiting the types of river species that can survive. They 
also contribute to a ``dead zone'' in the Gulf of Mexico--a 7,000 
square-mile zone where dissolved oxygen is simply too low to support 
marine life. In rare cases, nutrients like nitrogen and bacteria from 
human and animal waste can contaminate well-water and other drinking 
water supplies, affecting human health.
    Like nitrogen and phosphorous, sediment continues to enter the 
Upper Mississippi River at unsustainable levels--that is, sediment 
enters the Mississippi a rate that exceeds the river's ability to move 
sediment downstream. In addition to filling side channels, burying 
mussel beds and blocking the sunlight needed by aquatic plants, this 
imbalance increases the cost of removing sediment from the navigation 
channel--a Federal responsibility which now costs more than $100 
million annually.
    Much of this sediment is the result of historic farm practices that 
have left large sediment deposits in small feeder streams. While great 
strides have been made in improving agriculture practices to reduce 
erosion and run-off, limited resources for these efforts limits the 
scope and effectiveness of conservation efforts by farmers.
    Although many landowners--both in the Upper Mississippi River basin 
and across the country--are anxious to enroll their land into easement 
programs, create buffers of trees and grasses along streams, or adopt 
soil-conserving tillage practices, demand for Federal technical 
assistance far exceeds supply. Funding for conservation programs, 
outreach and education, and research and monitoring must be increased 
to meet the demand for programs like EQIP and CRP.
    American Rivers is strongly supportive of these successful programs 
and the tremendous efforts of the American farmer to protect water 
quality. We strongly urge you to appropriate $325 million to the U.S. 
Department of Agriculture for the Environmental Quality Incentives 
Program and to provide sufficient funding to supporting an expansion of 
the Conservation Reserve Program acreage limits to 40 million acres and 
the Wetlands Reserve Program to 250,000 acres in fiscal year 2002.
                                 ______
                                 

    Prepared Statement of the American Seed Trade Association, Inc.

    Mr. Chairman and members of the Subcommittee, thank you for this 
opportunity to provide you with our views on the fiscal year 2002 
agricultural appropriations bill. The American Seed Trade Association 
(ASTA) appreciates greatly your leadership in supporting the USDA 
National Plant Germplasm System (NPGS). We, strongly, urge you to 
include a $10 million increase for the NPGS in the fiscal year 2002 
agricultural appropriations bill.
    The ASTA, founded in 1883, is one of the oldest trade associations 
in the United States. With over 900 members, the ASTA is the premiere 
advocate for the seed industry and related interests. Our diverse 
membership consists of the leading companies that are developing, 
providing, supporting, and promoting new varieties that hold tremendous 
promise and opportunity for farmers and consumers everywhere.
    Our request for a $10 million increase for the NPGS is the number 
one appropriations issue and the number one legislative issue for ASTA. 
This increase will allow seed companies to meet the diverse challenges 
facing our customers. Support for significant increases to the NPGS 
goes well beyond industry; we, also, have the support of our customers 
and the scientific community. Earlier this month, the following 
organizations joined in our request for a $10 million increase for the 
NPGS, the: Alaska Division of Agriculture; American Association of 
Botanical Gardens and Arboreta; American Malting Barley Association; 
American Nursery & Landscape Association; American Society for 
Horticultural Science; American Society of Agronomy; American Society 
of Plant Physiologists; American Soybean Association; American Sugar 
Cane League of the USA; Association of Official Seed Certifying 
Agencies; Beet Sugar Development Foundation; Busch Agricultural 
Resources, Inc.; Crop Science Society of America; Florida, Texas, and 
Hawaii Sugar Cane Growers National Association of State Universities & 
Land-Grant Colleges; National Association of Wheat Growers; National 
Barley Growers Association; National Barley Improvement Committee; 
National Campaign for Sustainable Agriculture; National Corn Growers 
Association; National Cotton Council; National Council for Science and 
the Environment; National Farmers Union; National Grain Sorghum 
Producers; National Sunflower Association Pickle Packers International, 
Inc.; Society of American Florists; Soil Science Society of America; 
Sonoma County Grape Growers Association; Southwest Peanut Growers 
Association; Turfgrass Breeders Association; USA Rice Federation; U.S. 
Beet Sugar Association, and The U.S. Rice Producers Association.
    The Agricultural Research Service (ARS) has recognized the need for 
significant increases in funding for the NPGS, as well. The ARS 
requested an increase of $20 million for fiscal year 2001 and again for 
fiscal year 2002. We are disappointed that the Administration's 
proposed budget failed to provide an increase for the NPGS and reduced 
funding for the Arctic germplasm collection in Palmer, Alaska.
    As you know, narrow genetic bases can result in widespread crop 
losses. In 1970, Southern corn leaf blight cost farmers 15 percent of 
the corn crop; in the 1950s and early 1960s, about 70 percent of the 
wheat crop in the Pacific Northwest was wiped out by stripe rust; and 
the Irish potato famine of the 1840s was the result of the reliance on 
only a single variety of the potato. To prevent catastrophic losses, 
breeders must have open access to extensive, well-maintained, and well-
documented genetic resources.
    The NPGS germplasm collections underpin crop-breeding efforts 
throughout the U.S. Preservation of and filling gaps in the base 
collections is a unique Federal responsibility. The NPGS acquires 
germplasm; develops and documents information on the germplasm; 
preserves and distributes germplasm; and maintains quarantine 
facilities for testing imported germplasm for pests and pathogens 
before introduction in the U.S. The NPGS ensures that scientists and 
plant breeders have access to diverse germplasm to develop varieties 
that meet new and changing circumstances.
    Preserving the genetic diversity of plants is essential to the 
future of agriculture as the genes to add new traits, such as tolerance 
to diseases and resistance to insects, are often present in wild 
relatives of the major crops. Most of the U.S. crops raised and used 
for food, fiber, ornamentals, and industrial feedstocks originated from 
outside of the U.S. Consequently, the plant breeding community is 
highly dependent upon germplasm from other countries, some of which is 
endangered. Once lost, the germplasm cannot be fully reconstructed.
    Unless we have a wide diversity of genetic resources, there will be 
nothing available to improve plants or to prevent plants from becoming 
genetically susceptible to pests, pathogens, and abiotic stress. With 
sufficient genetic resources, we will have an abundant, safe, 
nutritious, and affordable supply of food and fiber that is produced in 
an environmentally friendly manner and that ensures a reasonable return 
for our farmers and livestock producers. American agriculture can 
provide as well renewable resources for a wide range of everyday 
consumer products if diverse genetic resources are available and 
accessible to U.S. scientists and plant breeders.
    To ensure that these genetic resources are accessible and that they 
remain available, the NPGS must obtain a significant increase in 
funding. In 1991, the NPGS reported that an annual budget of $40 
million would be required to remedy shortfalls in secure storage, 
backup, evaluation, and development of core germplasm collections. 
Today, funding for the NPGS remains below $30 million. We recognize the 
tight budget constraints under which the Subcommittee must operate; 
however, the following outlines the precarious situation of the NPGS:
  --Funding for the NPGS has declined significantly, in constant 
        dollars, since 1992, jeopardizing vital germplasm;
  --Lack of funding has resulted in decreased supplies of germplasm 
        that limits distribution and impedes the progress of research 
        and breeding programs;
  --93 percent of all clonally-propagated samples and 19 percent of all 
        seed samples are not duplicated and are at high risk of 
        catastrophic loss;
  --No backup has been made for citrus and nearly all tropical fruit 
        crops in the NPGS due to the lack of funds to develop effective 
        storage methods;
  --Without a significant infusion of funds, many of the clonally-
        propagated crops in the collection will remain at risk of 
        catastrophic loss as long-term backup methods for these crops 
        have not been developed;
  --Internationally, destruction of natural habitats, limited gene bank 
        capacity, inadequate management, and lack of consistent funding 
        has left much of the world's germplasm at high risk of loss;
  --Acquisition of endangered germplasm has slowed and may stop 
        completely without an increase in funding;
  --Due to funding constraints, the Plant Germplasm Quarantine Office 
        established quotas for importing germplasm thereby restricting 
        the amount of materials available to U.S. scientists and plant 
        breeders;
  --Funding is insufficient for the Quarantine Office to take full 
        advantage of molecular diagnostic techniques;
  --99 percent of the germplasm accessions at Griffin, GA, and 68 
        percent of the accessions at Pullman, WA, have not been tested 
        for viability within the past 10 years due to lack of funding;
  --At least 30 percent of all NPGS accessions need to be regenerated 
        during the next couple of years and with current funding it 
        will take at least 9 years;
  --18 percent of NPGS accessions are unavailable for distribution 
        primarily due to lack of funding; and
  --Without an increase in funding, many NPGS sites will be unable to 
        pay for utilities, general operations, and facility repairs.
    To fulfill its mission to provide access to diverse genetic 
resources, the NPGS must have a balanced program that includes (1) 
acquisition of germplasm to fill gaps in the collections and to 
preserve endangered germplasm; (2) maintenance and preservation of 
germplasm with secure backups to prevent loss; (3) adequate 
documentation and characterization of the germplasm; (4) sufficient 
supplies of viable seeds to allow for distribution; and (5) quarantine 
facilities that make germplasm available in a timely manner. The steady 
decline in available funding has had an extremely negative impact on 
the ability of the NPGS to have a balanced program.
    Inadequate funding is jeopardizing the security of the U.S. food 
and fiber system. Genetic diversity is the engine that drives plant 
breeding. Without new sources of genetic variation, plant breeders 
cannot make improvements. Without improvements, we will be unable to 
ensure the continued economic viability and security of our food and 
fiber system.
    The NPGS is a fundamental, strategic resource that we cannot afford 
to jeopardize. Without a significant infusion of funds, the NPGS will 
not be able to ensure the preservation of important germplasm that is 
vital to our existence and prosperity. Our ability to provide breeders 
with the blueprints and genetic codes is necessary to ensure new, 
plentiful foods, fibers, consumer products, and drugs. If the NPGS is 
not funded at a sufficient level, biodiversity will be reduced and we 
could lose the very germplasm needed for a possible wonder drug or the 
cure for some dreaded disease. The NPGS is a good investment for 
taxpayers and for the American consumer.
    We, strongly, urge you to provide an increase of $10 million for 
the NPGS for fiscal year 2002. We recognize that this will be difficult 
and that there are many competing priorities for limited resources; 
however, we cannot afford to be complacent about the fundamental 
resources that underpin our future for food and fiber.
    Thank you for the opportunity to present our views on the 
importance of the USDA National Plant Germplasm System. We look forward 
to working with you to ensure that the NPGS is able to provide the 
germplasm necessary for U.S. agriculture to meet the demands and 
challenges of the 21st Century.
                                 ______
                                 

     Prepared Statement of the American Sheep Industry Association

    The American Sheep Industry Association (ASI) is a federation of 
state member associations representing the nearly 67,000 sheep 
producers in the United States. The sheep industry views numerous 
agencies and programs of the U.S. Department of Agriculture as 
important to lamb and wool production. Sheep industry priorities 
include rebuilding and strengthening our infrastructure, critical 
predator control activities, maintaining and expanding research 
capabilities and animal health efforts.
    The rapid changes that have occurred in the domestic sheep industry 
and continue to take place put further emphasis on the importance of 
adequately funding the U.S. Department of Agriculture programs 
important to lamb and wool producers.
    We appreciate this opportunity to comment on those portions of the 
USDA fiscal year 2002 budget.
           animal and plant health inspection service (aphis)
    The mission of APHIS, ``to protect U.S. animal and plant resources 
from diseases and pests,'' is very important to the sheep industry of 
the nation.
Wildlife Services Wildlife Services
    With well over one-quarter million sheep and lambs lost to 
predators each year, the Wildlife Services (WS) program of USDA-APHIS 
is vital to the economic survival of the sheep industry. The value of 
sheep and lambs lost to predators and predator control expenses are 
second only to feed costs for sheep production. Costs associated with 
depredation currently exceed our industry's veterinary, labor and 
transportation costs.
    The American Sheep Industry Association strongly supports the 
President's salary increase recommendations of $1.26 million for WS 
operations and $454,000 for methods development. For a number of years, 
salary cost increases have been mandated without offsetting 
appropriations. In Fiscal Year 2000 for example, Congress mandated 
$849,000 for pay cost increases. These funds had to come out of the 
operations budget, meaning less available money for the field work.
    Method development has also been overlooked for a number of years. 
Since fiscal year 1989, the NWRC operations budget increased from $2.02 
million to $2.89 million in fisca year 2000. During the same period of 
time, method development has been given a number of new Congressional 
directives including aquaculture research, wildlife disease research, 
ungulate research and the reopening of three field offices in Hawaii, 
Washington and Mississippi. To add to the budget strain of NWRC 
operations is a new multi-million dollar research facility with no 
monies to staff and maintain the building. Maintenance cost for this 
facility now approach $1.5 million annually. ASI requests that the 
current method development budget be increased an additional $6.0 
million to $17.46 million. We also request that of this $6.0 million, 
$2.5 million go to staffing, operating and maintaining existing 
facilities, $1.0 million for bird, rodent and ungulate research, and 
$2.5 million for alternative capture systems and canine research.
    Aerial hunting is one of Wildlife Service's most efficient and 
cost-effective core programs. It is used not only to protect livestock, 
wildlife and endangered species, but is a critical component of the 
Wildlife Services rabies control program. A lack of adequate finding 
for safety purposes was found to have contributed to a number of 
accidents experienced within the WS program in recent years. Following 
an independent review of the WS aerial program, recommendations were 
provided the Department to improve aerial safety. A December 2002 
deadline was set by the Department to implement these recommendations. 
ASI requests $2.9 million in additional finding be provided WS so the 
agency can complete the implementation of the safety recommendation.
    Expanding wolf populations in Montana, Idaho, Wyoming, Minnesota, 
Wisconsin and Michigan continue to create increased demand for 
assistance in managing wolf depredation. While resources have been 
provided Montana, Idaho and Wyoming, $750,000 in additional funding is 
still needed in Minnesota, Wisconsin and Michigan to manage a wolf 
population approaching 3,000 animals.
    Wildlife Service's cooperative nature has made it the most cost 
effective and efficient program within federal government in the areas 
of wildlife management and public health and safety. Wildlife Services 
has over 2,000 cooperative agreements with agriculture, forestry 
groups, private industry, state game and fish departments, departments 
of health, schools, county and local governments and others to mitigate 
the damage and danger that the public's wildlife can inflict on private 
property and public health and safety. WS is one of the few federal 
programs that has been consistently at or above the 50:50 federal to 
cooperative funding ratios. In fiscal year 2000, $36,434,699 in 
cooperator dollars went to Wildlife Services. The agency, however, only 
had $21,275,873 in finding available at the field level in Fiscal Year 
2000 to match the funding provided by WS cooperators. Another $2.2 
million is needed to meet increasing customer demand for the agency's 
services.
    Wildlife Services must document its operations in order to conduct 
program analysis and comply with Federal reporting requirements. The 
agency's current information technology support system has become 
antiquated which could result in incomplete data collection and 
analysis. To update and maintain the information system, an additional 
$700,000 is needed.
Scrapie
    Adequate funding for scrapie eradication and other supportive 
efforts, such as the Voluntary Scrapie Flock Certification Program and 
the National Scrapie Slaughter Surveillance Study are of critical 
importance to the sheep industry, as well as all segments of the 
livestock industries. The national regulation for scrapie eradication 
to be issued by USDA in 2001 is supported with the Administration's 
budget request of $18 million for fiscal year 2002 which is strongly 
supported by ASI. ASI appreciates this Subcommittee's efforts in 
recognizing the seriousness of this devastating disease and the real 
need for control and eradication. ASI and others have urged APHIS to 
step up its efforts in scrapie control/eradication through a more 
aggressive regulatory approach. APHIS has received published and 
received comments on both an ANPR and a Proposed Rule over the past 
three years; we expect the publication of a Final rule to begin 
eradicating scrapie through interstate movement restrictions soon. 
According to APHIS, an aggressively funded scrapie eradication effort 
will take seven to ten years and cost approximately $100 million over 
the life of the program. As it has been with all disease eradication 
programs, scrapie eradication will take adequate funding in order to be 
successfull. Through the successful section 201 trade action this past 
year, USDA/APHIS has received sufficient CCC funding to begin the 
eradication program and the surveillance study. At this critical point 
in time, it is important that funds be APPROPRIATED to conduct the 
``base program'' activities such as hiring Veterinary field personnel 
so that the federal program will be implemented uniformly State to 
State and enforced properly. We therefore urge the subcommittee to 
support the Administration's request for an $18 million increase for 
Scrapie eradication in appropriated funds.
                     agricultural marketing service
Lamb Market Information and Price Discovery Systems
    The sheep industry strongly supports the fiscal year 2002 budget 
for Market News of USDA-Agricultural Marketing Service. Furthermore ASI 
supports necessary increases in appropriations for the full 
implementation of the mandatory price reporting system for livestock.
                   foreign agricultural service (fas)
    The sheep industry participates in FAS programs such as the Market 
Access Program (MAP) and the Foreign Market Development Program. ASI 
strongly supports continued appropriations at the current level for 
these critical Foreign Agricultural Service programs. ASI is the 
cooperator for American wool and sheep pelts and has achieved solid 
success in increasing exports of domestic product. Exports of American 
wool have been increased dramatically with approximately 30 percent of 
U.S. production competing overseas.
             natural resources conservation service (nrcs)
    ASI urges increased appropriations for the range programs of the 
Soil Conservation Service to benefit the private range and pasture 
lands of the United States with conservation assistance. We support the 
budget item and recommend an increased level for the Grazing Lands 
Conservation Initiative, which ASI has worked with, along with other 
livestock and range management organizations, to address this important 
effort for rangelands in the U.S.
                   research, education and economics
    As a result of the successful section 201 trade action, the sheep 
industry must become more competitive. We are also striving to be 
profitable and sustainable as a user of and contributor to our natural 
resource base. Research, both basic and applied, and modern educational 
programming are essential if we are to succeed. We have been 
disappointed in the decline in resources USDA has been targeting toward 
sheep research and out-reach programs. With net increases in the animal 
systems category of the agriculture research budget, for example, sheep 
and wool research has either declined or remained static for the past 
several years. In order for the sheep industry to be more globally 
competitive in the future, we must invest in the discovery and adoption 
of new technologies for producing, processing and marketing lamb and 
wool. We urge the subcommittee to send a strong message to USDA 
supporting sheep research and education funding increases.
Agricultural Research Service
    Emerging and Exotic Diseases and Pests of Plants and Animals--we 
request the subcommittee's support for the administration's allocation 
of $6.782 million in this area. The animal disease portion should be 
substantial and is urgently needed to protect the U.S. livestock 
industry. ARS has planned for $5 million of these funds to be directed 
toward BSE research. We agree that BSE is an extremely important 
disease issue globally and believe that research is needed to help keep 
the U.S. free of this devastating disease. With this in mind, we remind 
the subcommittee that scrapie is a TSE that is endemic in the U.S. and 
we recommend that a new or expanded research effort directed toward BSE 
be designed in such a manner that the research will assist with scrapie 
eradication needs. We also respectively remind the subcommittee that 
scientists in the animal disease research unit (ADRU), ARS, Pullman 
Washington, have made significant progress in the early diagnosis of 
TSEs, which is important in early recognition and eradication of TSEs. 
The programs of these scientists at ADRU should be enhanced and 
expanded to include, for instance, the development of rapid and 
accurate methods for strain typing of TSEs within the United States and 
world and to understand the basis of genetic resistance and 
susceptibility to these devastating diseases.
    We urge your support to restore the $300,000 used for collaborative 
research between ARS animal disease research unit in Pullman, 
Washington and the U.S. sheep experiment station in Dubois, Idaho 
concerning malignant catarrhal fever (MCF) research. These monies were 
established by congressional action in last year and have been 
successfully utilized to initiate research leading to control methods 
for this important disease of sheep and cattle. Health and disease 
management was one of the four focus areas included in the President's 
Section 201 relief decision. This additional funding will be key in 
helping us address two very important diseases.
    Research into Johne's disease has received additional funding 
through ARS over the past several years, focusing on cattle. Johne's 
disease is also endemic in the U.S. sheep population and is not well 
understood as a sheep disease. The same food safety concerns exist in 
both sheep and cattle; other countries are also very concerned about 
Johne's in sheep.
    We urge the subcommittee to send a strong message to ARS that 
Johne's disease in sheep should receive more attention at the National 
Animal Disease Research Center (NADC) with an emphasis on diagnostics.
    Genetic resources are the underpinning for all livestock production 
systems and therefore have a great influence upon economic returns. To 
effectively address changing consumer demands, natural resource 
utilization and protection of animal biodiversity from economic changes 
as well as catastrophic events such as disease epidemics requires 
utilization and protection of the full breadth of animal genetic 
resources. To accomplish this a national system for the maintenance, 
characterization and utilization of animal genetic resources is 
important. We recommend that the subcommittee fund the national animal 
germplasm, program (NAGP) so that the NAGP can become fully functional 
and effective in collecting, storing and assessing animal genetic 
resources.
Economic Research Service
    The mandatory price reporting line item in the Administration's 
budget includes retail price reporting which needs to include lamb as 
lamb is covered under mandatory reporting provisions.
                           rural development
    The National Sheep Industry Improvement Center is critical to the 
industry and we fully support an appropriation of $5 million for fiscal 
year 2002. The Center is providing $14 mi1lion funds for loans in the 
sheep industry to rebuild and strengthen the infrastructure of the 
industry with loans made for wool, lamb and goat programs in 2000. 
Nearly one dozen loan applications are now in the review process for 
approval. The Center also provided $5 million for 23 grants for 
American Lamb product development, marketing, and promotion in 2000 and 
2001 with projects beginning in every region of the United States to 
strengthen efforts with American Lamb. The Center is a premier vehicle 
of the U.S. sheep industry's adjustment plan therefore adequate funding 
is critical to the industry.
  cooperative state research education and extension service (csrees)
    Minor Use Animal Drugs is a ``Special Research Grant'' that has had 
great benefit to the U.S. sheep industry. The research under this 
category and the companion ``NRSP-7'' program through FDA/CVM has 
provided research information on therapeutic drugs that are needed for 
the approval process. Without this program--American sheep producers 
would not have effective products to keep their sheep healthy. We 
appreciate the Administration's request of $549,000 for this program 
and we urge the subcommittee to recommend that it be funded at $750,000 
to more fully meet the needs of our rapidly changing industries.
    Ongoing research in wool is critically important to the sheep 
industry. ASI supports continued funding of $300,000 for fiscal year 
2002 through the special grants program of the CSREES.
    The industry greatly appreciates this opportunity to discuss these 
programs and appropriations important to the sheep industry.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM), the largest single 
life science organization in the world, comprised of more than 42,000 
members, appreciates the opportunity to provide written testimony on 
the fiscal year 2002 budget for the U.S. Department of Agriculture 
(USDA) research and education programs.
    The ASM represents scientists who work in academic, medical, 
governmental and industrial institutions worldwide and are involved in 
research to improve human health and the environment. Microbiological 
research is directly related to agriculture involving foodborne 
diseases, bioterrorism, new and emerging plant and animal diseases, 
soil erosion and soil biology, agricultural biotechnology, and the 
development of new agricultural products and processes. The ASM is a 
member of the Coalition on Funding Agricultural Research Missions 
(CoFARM), which represents scientific societies and organizations 
involved in formulating research directions and needs for agricultural 
research.
    The U.S. agricultural system is one of the most productive and 
efficient in the world, due in part to past investments in science. 
Agricultural research has lead to many advances including 
biotechnology, which contribute to a more abundant, nutritious, 
efficient and environmentally friendly food supply, while at the same 
time reducing agriculture's reliance on chemical fertilizers, 
pesticides, and fungicides. USDA's research budget, however, has not 
grown commensurate with its record of achievement and broad and unique 
responsibilities to support science and technology in agriculture. 
According to the National Science Foundation's (NSF) Division of 
Science Resources Studies, agricultural research made up only 4 percent 
of all public funds devoted to basic research and only 2 percent of 
total R&D expenditures for fiscal year 2000. If the lowest cost food 
for the nation's consumers and agricultural exports are to continue to 
be successful policy for the United States, then it must be understood 
that continued, sustained Federal investment in agricultural research 
is necessary.
      cooperative state research, education and extension service
    In 1989 the Board on Agriculture of the National Research Council 
(NRC) recommended that public investment through competitive research 
grants in agriculture, food, and the environment be made a national 
priority. To address this monumental task, Congress (1991) created the 
National Research Initiative Competitive Grants Program (NRI) in the 
hope of generating new knowledge and reinvigorating research in 
agriculture, food, and environmental science (National Research 
Initiative: a Vital Competitive Grants Program in Food, Fiber, and 
Natural-Resources Research, NRC, 2000). The ASM strongly supports 
competitive peer reviewed research that is open to all the nation's 
scientists. However, the ASM is disappointed with the continued decline 
in merit-based research programs at the USDA, such as the NRI, whose 
budget was decreased by 11 percent for fiscal year 2001. ASM recommends 
that NRI be funded at the fiscal year 2000 level of $119 million.
    This funding will improve important research in agriculture 
including food safety and nutrition, plant, animal and microbial 
genomics, and emerging pest and disease management. In conjunction with 
other coalition groups like CoFARM, the ASM believes Federal support 
for agricultural research is essential to building the broad knowledge 
base needed to commercialize new and improved agricultural products and 
tools.
    The ASM is pleased to see continued support for the Initiative for 
Future Agriculture and Food Systems (IFAFS). This competitive grants 
program differs from the NRI in that it provides mandatory funding for 
research and extension projects that is multi-disciplinary and applied 
in scope and targets critical agriculture issues.
                     agricultural research service
    U.S. agriculture is experiencing severe problems caused by new and 
reemerging infectious diseases in plants and animals, a threat that 
requires immediate attention. The imminent threats of Bovine Spongiform 
Encephalopathy (BSE) and foot-and-mouth disease in animals and plum pox 
in plants are examples requiring new and extensive research. Cost 
effective and real-time monitoring may now be feasible, allowing for 
more immediate diagnosis. Funding and enhancing agricultural research 
is the surest way to prevent and control infectious and zoonotic 
diseases afflicting livestock and aquaculture today and mitigating the 
threats of tomorrow.
               animal and plant health inspection service
    The Animal and Plant Health Inspection Service (APHIS) has the 
critical role of policing the U.S. infrastructure that is in place to 
prevent, diagnose and respond to a disease introduction. The U.S. needs 
a comprehensive biosafety system to prevent foreign animal and plant 
diseases from entering the domestic agriculture system. This sentinel 
network requires new, accurate and cost effective diagnostic tools and 
updated information technology.
               infectious diseases in plants and animals
    It is important to recognize a growing threat to the U.S. 
agricultural system that requires immediate attention--the threat of 
new and emerging infectious diseases. Like the human population, U.S. 
agriculture is also experiencing severe problems caused by new and 
emerging infectious diseases in plants and animals. Changes in 
agricultural practices, population growth, climate, microbial 
evolution, animal migration, and international trade and travel are all 
factors in introducing new plant and animal diseases into the U.S. 
agriculture system. The lack of knowledge to manage effectively and 
control new and reemerging infectious diseases often leads to very 
serious consequences from lost productivity from quarantines to 
embargoes, and the destruction of plants and animals to control the 
spread of diseases. For example, citrus canker has cost millions in 
tree destruction in Florida. Research, monitoring, surveillance, and 
new sources of resistant genetic material, including the use of 
biotechnology, may enable continued growth of citrus trees commercially 
and by homeowners. New technologies, e.g. the polymerase chain 
reaction, now enables us to detect minute quantities of etiological 
agents, including those previously ascribed to physiological problems 
in plants, such as the class of viruses known as luteoviruses.
                              food safety
    Foodborne illness continues to pose a major public health problem 
in the U.S. The ASM recommends that Congress provide additional funding 
to USDA to expand food safety research. In a recent report it was 
estimated foodborne diseases cost the U.S. $8 billion in medical costs 
and lost productivity and an estimated 76 million illnesses a year 
(CDC). Further reducing foodborne illness requires not only preventing 
contamination through improved processing and inspection, but also 
educating consumers to avoid unsafe consumption choices and to prepare 
food safely to avoid cross-contamination. The 1997 Food Safety 
Initiative recognizes this with funding for a national media campaign 
to encourage safe food handling.
    Microorganisms continue to adapt to their changing environments and 
begin to ``out smart'' current techniques to control their presence. 
Many foodborne microbes have developed resistance to conventional food 
preservation and disinfection techniques and continue to proliferate. 
It is also important to note that the diversity of microorganisms 
affecting food safety changes with time, processing techniques, 
location and other factors. To illustrate the growing problem, one need 
only examine the number of USDA and FDA regulated food product recalls 
because of harmful bacteria. In 1995 the USDA and FDA recalled 265 
products due to microbial hazards; in 1999, the number of recalls rose 
to 337.
                           microbial genomics
    Microbes are involved in all aspects of agriculture-from beneficial 
uses of microbes in food (i.e., yogurt, cheese, and bread) to pest 
controls to the spread of disease in plants and animals and the 
contamination of the food supply. Studying the genomes of agricultural 
microbes could lead to the development of new technologies to provide 
improved foods and better pest control to protect the nation's crops, 
to reduce the incidence of plant and animal disease, and to ensure a 
safer food supply. Thus, ASM is highly supportive of microbial genomics 
through the NRI and IFAFS programs. Coordination and cooperation with 
the National Science Foundation in this area is particularly promising.
                           biobased products
    The ASM continues to support the promising research to accelerate 
the conversion of agricultural materials and byproducts into biofuels, 
such as soybean oil conversion into (bio)diesel fuel. Such scientific 
advancements in biobased product research have the added benefit of 
enhancing farm income, strengthening U.S. energy security, rural 
revitalization, and environmental stewardship. Current scientific 
estimates suggest that energy production from biofuels could generate 
up to 10 percent to 15 percent of the nation's energy needs. ASM 
believes agriculture can play a positive role in achieving U.S. energy 
security and encourages Congress to consider the benefit biofuels 
represents to the entire agriculture and consumer community.
                         global competitiveness
    Recent adoption of the Uruguay Round, which confines the use of 
import restrictions on agriculture products of the General Agreement on 
Tariffs and Trade (GATT) and the North American Free Trade Agreement 
(NAFTA) pose great challenges to American agriculture. While domestic 
advances in agricultural technology, including biotechnology, have 
achieved great strides in food production, safety, and nutrition, they 
will also provide similar advances to other nations. Agricultural 
competitiveness in the global economy depends upon the ability of 
producers and processors to make measurable production and quality 
gains while providing desirable products that are reliable and safe. 
Agricultural research in food safety, production systems, and 
biotechnology will be key instruments in maintaining America's 
agricultural competitiveness, while providing food security.
    The ASM encourages Congress give high priority to agricultural 
research for fiscal year 2002. Many of today's scientific achievements 
leading to the development of biotechnology, genetically modified 
foods, improved crops and plant-based products and an improved 
environment have their roots in the basic research conducted by the 
USDA. The future holds several challenges from the monitoring of the 
ecological impact of transgenic plants to research in plant and animal 
diseases that is requisite to combating agricultural bioterrorism. We 
urge the Administration and Congress to assist the USDA to address 
these issues.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as the Department of 
Agriculture bill is considered throughout the congressional process.
                                 ______
                                 

     Prepared Statement of the American Society of Civil Engineers

    Chairman Cochran and Members of the Subcommittee: The American 
Society of Civil Engineers (ASCE) is pleased to offer this testimony on 
the President's proposed budget for the Natural Resources Conservation 
Service (NRCS) for fiscal year 2002.
    ASCE was founded in 1852 and is the country's oldest national civil 
engineering organization. It represents more than 125,000 civil 
engineers in private practice, government, industry and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501(c)(3) non-profit educational and 
professional society.
         nrcs & the small watershed dam rehabilitation program
     ASCE is concerned that no funds have been requested in the 
President's budget to fund the Small Watershed Dam Rehabilitation 
Program that was authorized on November 9, 2000, in PL-106-472, Section 
313. We hope the outcome of the fiscal year 2002 appropriations process 
will enable this vital work to begin and expand as we seek to preserve, 
protect and better manage our nation's water and land resources. Every 
state in the United States has benefited from the Small Watershed 
Program.
    Of the 75,000 dams in the United States, 95 percent are regulated 
by the states. Approximately 10,400 of these dams are small watershed 
structures built under the United States Department of Agriculture 
programs authorized by Congress beginning in the 1940s (primarily the 
Flood Control Act of 1944, PL-534 and the Watershed Protection and 
Flood Control Act of 1953, PL-566). By the year 2020, more than 85 
percent of all dams in the United States will be more than 50 years 
old, the typical useful life span.
                   the urgent need for federal action
    The benefits from the 10,400 improved watershed dams are enormous. 
The dams provide downstream flood protection, water quality, 
irrigation, local water supplies and needed recreation. Yet these 
benefits to lives and property are threatened. The small watershed dams 
are approaching the end of their useful lives as critical components 
deteriorate. The reservoirs become completely filled with sediment, 
downstream development increases the potential hazards and 
significantly changes the design standards, and many dams do not meet 
state dam safety standards.
    Although these dams were constructed with technical and financial 
assistance from the Department of Agriculture, local sponsors were then 
responsible for operation and maintenance of the structures. Now these 
dams are approaching the end of their useful lives, yet the resource 
need is still great. The flood control benefits, the irrigation needs, 
the water supply, the recreation and the conservation demands do not 
end. In fact, they are more necessary than ever as downstream 
development has dramatically increased the number of people, properties 
and infrastructure that are protected by the flood control functions of 
these dams. The Federal government has a critical leadership role in 
assuring that these dams continue to provide critical safety and 
resource needs.
    The NRCS in the Department of Agriculture has estimated the cost of 
rehabilitating the small watershed dams at $542 million. While the 
average rehabilitation cost per dam is approximately $242,000, the 
local sponsors typically do not have sufficient financial resources to 
complete these necessary repairs to assure the safety and critical 
functions of these dams. The Federal government must recognize the 
urgent need to provide assistance to maintain these dams. Congress 
should reinforce its earlier commitment to the goals of the Flood 
Control Acts of 1944 and 1953.
                         extent of the problem
    ASCE views funding of dam safety repairs as a critical need. In the 
recently released Report Card for America's Infrastructure dams 
received a grade of D. Nearly 2,000 unsafe dams have been identified in 
this country and many of the owners do not have sufficient funding 
sources. Last year Congress proposed funding $60 million a year for 10 
years, but the legislation enacted only authorizes $90 million spread 
over five years. However, this is an important first step in 
recognizing and resolving the enormous problem with deteriorating and 
aging dams. Many of these urgent repairs and modifications are needed 
because of the following: downstream development within the dam failure 
flood zone, replacement of critical dam components, inadequate spillway 
capacity due to significant watershed development and increased design 
criteria due to downstream development.
    Many of the small watershed dams do not meet minimum state dam 
safety standards and many that are being counted on for flood 
protection can no longer provide flood protection due to excessive 
sedimentation and significant increases in runoff from development 
within the watershed. The dams suffer from cracked concrete spillways, 
failing spillways, inoperable lake drains and other problems that 
require major repairs that are beyond the capability of the local 
sponsors.
                         the cost of no action
    These small watershed dams have been a silent and beneficial part 
of the landscape; but failure to make the necessary upgrades, repairs 
and modifications will increase the likelihood of dam failures. 
Continued neglect of these structures may easily result in reduced 
flood control capacity causing increased downstream flooding. Failure 
of a dam providing water supply would result in a lack of drinking 
water or important irrigation water.
    The floods in Georgia in 1993 and in the Midwest in 1994 are recent 
reminders of natural events that can cause enormous disasters, 
including dam failures. The failure to act quickly will clearly result 
in continued deterioration and a greater number of unsafe dams until a 
dam failure disaster occurs. The failure of a 38-foot tall dam in New 
Hampshire in 1996, which caused $5.5 million in damage and one death, 
should be a constant reminder that dam failures happen and can have 
tragic consequences.
    Completion of the needed repairs will result in safer dams, as well 
as continued benefits. Failure to establish a mechanism to reinvest in 
these structures will greatly increase the chances of dam failures and 
loss of benefits, both having significant economic and human 
consequences. Costs resulting from flood damage and dam failure damage 
are high and unnecessarily tap the Federal government through disaster 
relief funds or the National Flood Insurance Program.
                             recommendation
    ASCE urges the committee to approve full funding at the authorized 
level of $10 million, and an additional $5 million to make up for 
funding not received in fiscal year 2001 for the Small Watershed Dams 
Rehabilitation Program (PL-106-472, Section 313). Additionally, we 
would like to see these rehabilitation funds be a separate line item in 
the NRCS budget in an effort to better track the rehabilitation funding 
approved by Congress. While, this is well short of the demonstrated 
need of $60 million a year for 10 years, it would be a step in the 
right direction.
    The condition of our nation's dams, and the need for watershed 
structure rehabilitation, should be a national priority before we have 
to clean up after dam failures that we know are likely to happen if 
nothing is done.
    ASCE also supports a research and development (R&D) program as we 
get the structural rehabilitation process underway. In the USDA, the 
Agricultural Research Service (ARS) undertakes that work. We 
respectfully request that $1.5 million be included in the ARS budget 
for small watershed research. These funds would be used for evaluation 
of upstream and downstream changes to the stream channel systems in 
cases of decommissioning, evaluation of the water quality impact of 
stored sediment releases, and the evaluation of impacts of the loss of 
flood protection, among other things.
NRCS & the Snow Telemetary Program
    In the West, water--much of which flows from mountain snows--is one 
of our most precious natural resources. This year the West is faced 
simultaneously with potential drought, wildfires, and an energy crisis 
in part due to reduced hydropower generation. To effectively manage 
this important resource, it is essential to have accurate water-supply 
data.
    Therefore, we respectfully request that you include $8,515,000 (a 
$2,525,000 increase) in the Natural Resources Conservation Service's 
Conservations Operations Account (CO-01) and Snow Survey and Water 
Supply Forecasting Subaccount (CO-45) in the Agriculture appropriations 
bill. This service is administered by the National Water and Climate 
Center (NWCC), and operates in each western state. The base budget 
amount of $5,990,000 is not adequate to operate and maintain the 
existing system of 656 SNOTEL (SNOw-TELemetry) sites and 1,110 snow 
courses measured manually.
    The vital information obtained through this water-supply data is 
used by various government agencies and other public and private 
entities and individuals to project spring and summer water supplies 
for agriculture, municipal, and industrial uses, hydropower production, 
recreation, fish and wildlife management, endangered species needs, 
flood control, and other purposes. Non-Federal cooperators contribute 
money and in-kind services in support of the system.
    Over the past five years, level Federal appropriations in the face 
of increasing costs has left the Snow Survey and Water Supply 
Forecasting program in serious circumstances. Given past and present 
funding requests from the Executive Branch, and the subsequent erosion 
in program resources, the NWCC has prepared a protocol for 
discontinuing 10 to 15 percent of the SNOTEL sites. In order to protect 
the nation's $30 million investment in this vital network, a $2,525,000 
increase is needed over and above the $5,990,000 base amount, for a 
total of $8,515,000.
                                 ______
                                 

   Prepared Statement of the American Society of Plant Physiologists

    Mr. Chairman, the American Society of Plant Physiologists 
representing 6,000 plant scientists, appreciates this opportunity to 
submit comments to the Subcommittee for its consideration of fiscal 
year 2002 appropriations for research sponsored by the Department of 
Agriculture.
    Support by the Subcommittee for the National Research Initiative 
Competitive Grants Program (NRI) provides the agricultural research 
community and America's farmers with a highly acclaimed program that 
determines awards through a rigorous peer review process.
    The National Research Council Board on Agriculture and Natural 
Resources committee report on the NRI last year strongly endorsed 
support for this competitive grants program. The NRC committee ``found 
the NRI to have financed high-quality scientific work within 
congressional guidelines. . . . The committee reiterates the 
extraordinary importance of public merit-based peer-reviewed research 
in food, fiber and natural resources. In the committee's opinion, past 
public research and current private activities cannot meet the needs 
that are being created by population growth, climate change and natural 
resource deterioration or the challenges related to food safety and 
nutrition and to the growing convergence of foods and medical 
research.''
    The NRC committee recommended that a major emphasis of the NRI 
continue to be the support of high-risk research with potential long-
term payoffs. Much of this research would be classified as fundamental 
in the traditional use of this term.
    A major conclusion of the NRC committee was that, ``Without a 
dramatically enhanced commitment to merit-based peer-reviewed, food, 
fiber and natural resources research, the nation places itself at 
risk.''
    In addition to the direct benefits to farmers and consumers that 
result from the leading research discoveries sponsored by the NRI, 
increased support for the program would help maintain the strength and 
vigor of the nation's agricultural research community. We urge the 
Subcommittee to increase support for the NRI, including NRI-sponsored 
plant research to help meet the important long-term research needs of 
America's farmers.
    The Initiative for Future Agriculture and Food Systems (IFAFS) has 
provided grants at levels that enable scientists of different 
institutions and disciplines to work together in addressing important 
research questions. ASPP urges the Subcommittee to continue support for 
IFAFS in the fiscal year 2002 appropriation at the level authorized by 
statute.
    The Agricultural Research Service (ARS) continues to address 
effectively many important research questions for American agriculture. 
American farmers and consumers are well-served by the large number of 
successful research efforts of ARS scientists. Continued support for a 
balanced research portfolio in the Department including intramural and 
extramural research is needed to address the many and sometimes 
devastating problems farmers face in growing crops.
    ASPP supports the request of the National Coalition for Food and 
Agricultural Research (National C-FAR) to double support for 
agricultural research over five years--a rate of increase averaging 
more than 14 percent a year. We encourage the Subcommittee to increase 
support for all agricultural research programs supported by the 
Department of Agriculture by more than 14 percent this year.
    What could be done with this requested increase in funding? In the 
plant science area alone, we know that extraordinary advances can be 
achievable with sufficient support and time. Increased funding can be 
expected to accelerate the time in which advances could be made.
    The age of genomics and biotechnology has brought revolutionary new 
tools to plant scientists to better serve the needs of agriculture. 
Following this paragraph is a look back to what has happened in 
agriculture in the past century to offer some guideposts for a look 
ahead to the new century before us. The look ahead includes projections 
of what may be expected to be achieved earlier or later in this new 
century depending upon levels of support for research. We appreciate 
the assistance of ASPP Education Foundation Chairman Bob Goldberg, 
Professor at the University of California, Los Angeles, and founding 
editor-in-chief of the widely cited science journal, THE PLANT CELL, 
for his contributions to this following look back and ahead for plant 
science and agriculture.
    Starting with the year 1900, we find that Mendel's laws of genetics 
were not widely understood. The tools and knowledge base of those 
studying plants at the time are now seen as quite primitive. The study 
of Botany focused more on the classification of species of plants. The 
study of plant physiology within Botany to learn more of the structure 
and functions of plants would not emerge as a strong separate 
discipline until the end of the first quarter of the century.
    Despite the modest state of plant science and agriculture in 1900, 
the ensuing 100 years reaped increases in crop yields in the range of 
300 percent. In addition, the number of Americans needed to work on 
farms to produce food for the rest of us dwindled from one in two 
people to nearly one in 100.
    Along the way, developments in the area of plant breeding, genetic 
engineering, genomics, irrigation, use of fertilizers, computers, and 
other advances helped transform plant science, American agriculture and 
the nation itself.
    For the 21st Century, plant scientists predict even more impressive 
gains--gains for which there are a definite need. In the next 50 years 
, we will have to produce more food than has ever been produced in the 
collective history of people on earth. On a world scale, agriculture on 
a per capita basis is on a decline as we begin the 21st Century. Today 
we have hunger even in parts of prosperous nations like the U.S.
    At the same time, the world is near the limits of available land 
and other resources for agriculture. More environmentally benign 
agricultural practices and more productive plants will be needed. In 
addition to demands on cropland for food, there will be increased 
demands on farmers to grow energy feedstocks. Some plant scientists 
predict that plants will rival petroleum for the production of 
industrial chemical products such as polymers, polyurethane, nylon and 
other materials. New high value energy crops will provide new 
profitable markets for American farmers who will become less dependent 
on government subsidies.
    Major crops will be genetically modified to fix nitrogen as is now 
found in legumes, leading to less use of applied fertilizers and to a 
cleaner environment. Dead zones in the Gulf of Mexico and other cases 
of contaminated waterways reportedly linked to agricultural runoff 
would be addressed through use of engineered crop plants that can fix 
nitrogen.
    The lines between agricultural research and medical research will 
blur as advances in plant science will address nutritionally related 
human health diseases on a mass public health scale. Calcium deficiency 
is common in the diets of American adolescents, particularly girls, 
leaving many with less dense bones more susceptible to fracture and 
osteoporosis later in life. Foods commonly eaten by children will be 
engineered by plant scientists to contain higher levels of calcium. A 
number of common mineral and vitamin deficiencies in diets causing 
various maladies for people here and abroad will be addressed by 
enhanced foods engineered by plant scientists. Anemia, the most 
widespread ailment related to nutritional deficiency in the developing 
world, will be addressed by a new ``Golden Rice'' with higher levels of 
usable iron. This rice will also contain higher levels of beta 
carotene, which converts to Vitamin A after human consumption. This 
enhanced rice could prevent 500,000 cases of child blindness annually.
    Millions of Americans and many more people overseas have allergies 
to proteins in widely consumed existing foods such as wheat and milk. 
We have already seen success in laboratory experiments supported by the 
NRI that are eliminating allergens in wheat and milk. Researchers have 
identified a number of other foods that could be made safer for 
consumption through this research using biotechnology. Millions of 
cases of allergic reactions to foods will be averted through these 
genetically enhanced foods. High value, allergen-free wheat and other 
commodity products will be grown by American farmers who will find new 
premium markets for their products.
    Plants have long been a major source of pharmaceutical products. As 
plant scientists combine use of modern transformation technologies with 
increased knowledge of plant genomes, many more life saving medicines 
will be developed. Some of these plant-based pharmaceutical products 
will take the form of edible vaccines--such as bananas genetically 
engineered to produce a vaccine for hepatitis B or deadly infant 
diarrhea.
    Genomics will help in understanding hybrid vigor to produce 
enhanced, higher yielding crops. Plant scientists will learn how to 
change the size and number of plant seeds and organs. The earliest 
events controlling plant reproduction will be understood.
    Scientists may learn how to engineer plants that will better 
capture higher levels of carbon dioxide in the atmosphere for use with 
the sun's energy in photosynthesis, leading to faster growing plants 
and possibly an additional harvest season for some crops.
    Plants engineered to tolerate higher levels of salinity will help 
farmers salvage more of their crops in dry seasons. Increased tolerance 
of future engineered plants to environmental stresses of cold and 
freezing will be a boon to the horticultural industry and other 
growers. The Federal government will experience savings in emergency 
spending for crop disasters--some disasters that will be avoided 
through use of new, enhanced plants.
    Just as we found in the century past, the advances in the 21st 
Century will transform plant science, American agriculture, the nation 
and world our grandchildren will inhabit. Indeed, this transformation 
will have to occur because the well-being and even survival of many in 
future generations will require it.
    Again, thank you for this opportunity to submit comments to the 
Subcommittee. We appreciate the Subcommittee's leadership in support of 
agricultural research.
                                 ______
                                 

      Prepared Statement of the Association of Research Directors

    Chairman Cochran, and other distinguished members of the Committee, 
I am Carolyn Brooks, Dean of the School of Agricultural and Natural 
Sciences and Research Director at the University of Maryland Eastern 
Shore and Chair of the Association of Research Directors (ARD) of the 
eighteen Historically Black Land-Grant Colleges and Universities, 
including Tuskegee University (hereafter referred to as the 1890s). Mr. 
Chairman, I submit, on behalf of the ARD, this written testimony in 
support of the fiscal year 2002 Federal Budget recommendations, 
primarily those submitted by the National Association of State 
Universities and Land-Grant Colleges (NASULGC).
                          general information
    The role of the 1890 Land-Grant institutions, relative to research 
in the food, fiber, and agricultural sciences, partnering and 
collaborating with USDA, NASULGC and other entities, is to conduct 
basic and applied research to ensure a safe, economical and adequate 
food supply, promote a sustainable environment, conserve the natural 
resource base, and contribute to the improvement of the socio-economic 
well-being and overall quality of life of diverse rural and urban 
populations. Research at our institutions is increasingly multi-
institutional, multi-state and stakeholder driven and is focused on:
  --Economically competitive and sustainable small-scale agricultural 
        systems;
  --Crop diversity/alternative crops and marketing strategies for 
        farmers;
  --Food safety and quality;
  --Family and community development;
  --Protection and improvement of water quality and quantity;
  --Waste management and prevention of environmental pollution;
  --Value-added plant and animal products; and
  --Improved nutrition and health of urban and rural populations.
    The 1890 Land-Grant mission of providing access to higher education 
and opportunities for betterment of life for all Americans constantly 
guides the plans and initiatives in research, outreach and academic 
programs of these institutions. The general philosophy of the 1890s is 
that ``men and women of talent and ability, regardless of their 
economic and social condition, can contribute to the common good, with 
hard work and the opportunity to develop and prosper.'' Although the 
1890s proudly keep pace with mainstream education and cutting-edge 
advancement, these campuses hold true to focusing on viable research 
programs that focus on societal needs and increasing diversity within 
the human resource capital.
                         budget recommendations
    The 1890s/ARD request continuing support of these research efforts, 
which will result in having positive impacts and valuable benefits for 
the people served and will involve students, giving them valuable 
training and experience in research methodology and practices. Research 
initiatives the 1890s/ARD request congressional support for in the 
fiscal year 2002 Federal Budget are:
To Strengthen The Evans-Allen Base Program
    The Evans-Allen formula funding provides the 1890s with their 
primary financial support to conduct research in the food, fiber, and 
agricultural sciences. The research conducted by these institutions 
provides both proactive and reactive responses to public concern about 
environmental, social, economic, and health issues, small-scale 
agriculture, and small business enterprises. The NASULGC/ARD budget 
request for this research program is $36,197,000.
To Enhance Research and Teaching Initiatives
    The 1890s are the major producers of African-American minority 
human capital resources in food, fiber, and agricultural sciences. The 
human capital resources produced by these institutions meet a 
significant employment need of their land-grant partners, which include 
USDA agencies, private industry, and 1862 Land-Grant Universities. 
Initiatives to be supported are:
    The Capacity Building Grants Program.--This highly competitive 
program is needed to continue to build and enhance the capacity of the 
1890s in research and teaching endeavors. Because of a history of 
neglect and underfunding, it is amazing how the 1890s have been able to 
do so much with so little. At least 80 percent of all African Americans 
who receive baccalaureate degrees in the agricultural sciences have 
received their education from 1890 institutions. These students deserve 
the same quality of education provided at higher funded institutions. 
Capacity Building grants assist the 1890s to raise the quality of 
research and teaching programs at our institutions. We have a unique 
and vital mission as intellectual, educational, service centers and 
funding that recognizes this is crucial to our vitality and quality. 
The NASULGC/ARD budget request for this grant program is $15,000,000.
    The Facilities Grants Program.--Funds may be used by the recipient 
institutions to purchase land, acquire state-of-the-art equipment, and 
renovate or construct facilities to enhance their teaching, research 
and extension land-grant programs. The NASULGC/ARD budget request for 
this grant program is $15,000,000.
                            closing comments
    Mr. Chairman, based on past accomplishments of which we are 
extremely proud, and a visionary approach, the 1890s/ARD are 
positioning themselves to enter the 21st Century with a renewed 
commitment and capacity to implement their land-grant research mission. 
Full appropriations of the fiscal year 2002 budget recommendations as 
stated above will facilitate this and is vital to the ARD member 
institutions. I thank you very much for allowing me to address this 
honorable body and if there is a need for additional information, you 
may contact me as indicated below.
                                 ______
                                 

 Prepared Statement of the Association of State Dam Safety Officials, 
                                  Inc.

    Chairman Cochran and Members of the Subcommittee: The Association 
of State Dam Safety Officials (ASDSO) is pleased to offer this 
testimony on the President's proposed budget for the Natural Resources 
Conservation Service (NRCS) for fiscal year 2002.
    The Association of State Dam Safety Officials is a national 
organization of more than 2,000 state, Federal and local dam safety 
officials and private sector individuals dedicated to improving dam 
safety through research, education and communications. Our goal is to 
save lives, prevent damage to property and maintain the benefits of 
dams by preventing dam failures. Several devastating dam failures 
occurring in the 1970s focused attention on the potential catastrophic 
results of dam failures. These dramatic failures demonstrate that dams 
should always be properly constructed, operated and maintained to 
continue to provide important benefits and prevent failures.
    ASDSO is concerned that no funds have been requested in the 
President's budget to fund the Small Watershed Dam Rehabilitation 
Program that was authorized on November 9, 2000, in Public Law 106-472, 
Section 313. We hope the outcome of the fiscal year 2002 appropriations 
process will enable this vital work to begin and expand as we seek to 
preserve, protect and better manage our nation's water and land 
resources. Every state in the United States has benefited from the 
Small Watershed Program.
    Dams are an important part of the nation's infrastructure. They 
provide flood control, water supply, irrigation, hydropower and water 
quality benefits. Of the 75,000 dams in the United States, 95 percent 
are regulated by the states. Approximately 10,400 of these dams are 
small watershed structures built under the United States Department of 
Agriculture programs authorized by Congress beginning in the 1940s 
(primarily the Flood Control Act of 1944, Public Law 534 and the 
Watershed Protection and Flood Control Act of 1953, Public Law 566). By 
the year 2020, more than 85 percent of all dams in the United States 
will be more than 50 years old, the typical useful life span.
                   the urgent need for federal action
    The benefits from the 10,400 improved watershed dams are enormous. 
The dams provide downstream flood protection, water quality, 
irrigation, local water supplies and needed recreation. Yet these 
benefits to lives and property are threatened. The small watershed dams 
are approaching the end of their useful lives as critical components 
deteriorate. The reservoirs become completely filled with sediment, 
downstream development increases the potential hazards and 
significantly changes the design standards, and many dams do not meet 
state dam safety standards.
    Although these dams were constructed with technical and financial 
assistance from the Department of Agriculture, local sponsors were then 
responsible for operation and maintenance of the structures. Now these 
dams are approaching the end of their useful lives, yet the resource 
need is still great. The flood control benefits, the irrigation needs, 
the water supply, the recreation and the conservation demands do not 
end. In fact, they are more necessary than ever as downstream 
development has dramatically increased the number of people, properties 
and infrastructure that are protected by the flood control functions of 
these dams. The Federal government has a critical leadership role in 
assuring that these dams continue to provide critical safety and 
resource needs.
    The NRCS in the Department of Agriculture has estimated the cost of 
rehabilitating the small watershed dams at $542 million. While the 
average rehabilitation cost per dam is approximately $242,000, the 
local sponsors typically do not have sufficient financial resources to 
complete these necessary repairs to assure the safety and critical 
functions of these dams. The Federal government must recognize the 
urgent need to provide assistance to maintain these dams. Congress 
should reinforce its earlier commitment to the goals of the Flood 
Control Acts of 1944 and 1953.
                         extent of the problem
    ASDSO views funding of dam safety repairs as a critical need. 
Nearly 2,000 unsafe dams have been identified in this country and many 
of the owners do not have sufficient funding sources. Last year 
Congress proposed funding $60 million a year for 10 years, but the 
legislation enacted only authorizes $90 million spread over five years. 
However, this is an important first step in recognizing and resolving 
the enormous problem with deteriorating and aging dams. Many of these 
urgent repairs and modifications are needed because of the following: 
downstream development within the dam failure flood zone, replacement 
of critical dam components, inadequate spillway capacity due to 
significant watershed development and increased design criteria due to 
downstream development.
    Many of the small watershed dams do not meet minimum state dam 
safety standards and many that are being counted on for flood 
protection can no longer provide flood protection due to excessive 
sedimentation and significant increases in runoff from development 
within the watershed. The dams suffer from cracked concrete spillways, 
failing spillways, inoperable lake drains and other problems that 
require major repairs that are beyond the capability of the local 
sponsors.
                         the cost of no action
    These small watershed dams have been a silent and beneficial part 
of the landscape; but failure to make the necessary upgrades, repairs 
and modifications will increase the likelihood of dam failures. 
Continued neglect of these structures may easily result in reduced 
flood control capacity causing increased downstream flooding. Failure 
of a dam providing water supply would result in a lack of drinking 
water or important irrigation water.
    The floods in Georgia in 1993 and in the Midwest in 1994 are recent 
reminders of natural events that can cause enormous disasters, 
including dam failures. The failure to act quickly will clearly result 
in continued deterioration and a greater number of unsafe dams until a 
dam failure disaster occurs. The failure of a 38-foot tall dam in New 
Hampshire in 1996, which caused $5.5 million in damage and one death, 
should be a constant reminder that dam failures happen and can have 
tragic consequences.
    Completion of the needed repairs will result in safer dams, as well 
as continued benefits. Failure to establish a mechanism to reinvest in 
these structures will greatly increase the chances of dam failures and 
loss of benefits, both having significant economic and human 
consequences. Costs resulting from flood damage and dam failure damage 
are high and unnecessarily tap the Federal government through disaster 
relief funds or the National Flood Insurance Program.
                             recommendation
    ASDSO urges the committee to approve full funding at the authorized 
level of $10 million, and an additional $5 million to make up for 
funding not received in fiscal year 2001 for the Small Watershed Dams 
Rehabilitation Program (Public Law 106-472, Section 313). Additionally, 
we would like to see these rehabilitation funds be a separate line item 
in the NRCS budget in an effort to better track the rehabilitation 
funding approved by Congress. While, this is well short of the 
demonstrated need of $60 million a year for 10 years, it would be a 
step in the right direction.
    The condition of our nation's dams, and the need for watershed 
structure rehabilitation, should be a national priority before we have 
to clean up after dam failures that we know are likely to happen if 
nothing is done.
    ASDSO also supports a research and development (R&D) program as we 
get the structural rehabilitation process underway. In the USDA, the 
Agricultural Research Service (ARS) undertakes that work. We 
respectfully request that $1.5 million be included in the ARS budget 
for small watershed research. These funds would be used for evaluation 
of upstream and downstream changes to the stream channel systems in 
cases of decommissioning, evaluation of the water quality impact of 
stored sediment releases, and the evaluation of impacts of the loss of 
flood protection, among other things.
                                 ______
                                 

          Prepared Statement of Bernard H. Berne, M.D., Ph.D.

    I am a resident of Arlington, Virginia. I serve the Food and Drug 
Administration (FDA) as a Medical Officer and as a reviewer medical 
device approval applications. I am testifying as a private individual.
    I ask your Subcommittee to deny the Administration's request to 
provide $6,000,000 for costs related to occupancy of new FDA facilities 
at White Oak, Maryland. This request appears in the President's Budget 
for fiscal year 2002 on p. 435 under the heading ``Department of Health 
and Human Services'', ``Food and Drug Administration'', ``Salaries and 
Expenses''. The Budget states on p. 436 that these funds would support 
the first phase of FDA's consolidation into the White Oak, Maryland, 
site.
    The General Services Administration (GSA) is now starting to design 
and construct this facility. These would be the first funds that 
Congress would appropriate to the Department of Health and Human 
Services (HHS) and FDA to support the White Oak project. Please deny 
these funds for the following reasons:
                        economic considerations
    FDA will need to pay rent to GSA if it occupies this facility. 
FDA's future budgets, which your Subcommittee would fund, would pay 
these rents. The rents would likely be higher than rents that GSA and 
FDA pay to private property owners, since GSA would not need to enter 
into competitive bidding processes.
    Congressional authorizing committees need to evaluate the current 
costs of the consolidation and compare them to the costs of maintaining 
FDA's current facilities. No Congressional committee has done this 
during the past ten years.
    All or nearly all of FDA's offices that would move to White Oak are 
presently located in satisfactory leased facilities. Some, such as my 
own, are in excellent buildings. There is no urgent need or economic 
reason to relocate these offices to White Oak.
    Despite this, the requested $6,000,000 would support the relocation 
of the Office of Compliance of FDA's Center for Drug Evaluation and 
Research (CDER) to White Oak. There is no clear need for this 
relocation, since it would put 20 miles between this office and all 
other CDER offices. The relocation would clearly decrease FDA's 
efficiency by decreasing interactions between this office and related 
ones.
    GSA has recently encountered delays in its design and construction 
efforts. It appears that FDA will not be able to utilize any of the 
appropriated funds in fiscal year 2002. FDA apparently can not occupy 
the facility until fiscal year 2003.
    The Budget request is therefore premature. There is no need need to 
provide the requested $6,000,000 at this time.
                                location
    White Oak is an unsatisfactory location for FDA's headquarters 
consolidation. The project would promote urban sprawl.
    FDA's White Oak facility would occupy 125 acres next to a golf 
course in a suburban residential neighborhood in Montgomery County, 
Maryland. The FDA site is outside of the Capital Beltway on a largely 
forested 750-acre property surrounded by heavily congested roads and 
highways. The site is three miles from the nearest Metro station, and 
has only infrequent bus service.
    An FDA consolidation at White Oak would bring 6000 FDA employees to 
this Washington area suburb. Most would need to commute for much longer 
times and distances than they presently do. White Oak is more than 20 
miles from most present FDA facilities.
    I and thousands of other FDA employees presently commute to work by 
Metro, as our workplaces are near Metro stations. This will be 
impossible at White Oak.
    FDA employees driving to White Oak will add traffic congestion and 
air pollution to the Washington Metropolitan Area. This is especially 
unfortunate because the Washington Metropolitan Area already has the 
second worst traffic congestion of all urban areas in the United 
States.
    FDA employee surveys have revealed widespread opposition to this 
relocation. Last July, a survey of those employees who would relocate 
first to White Oak showed that 70 percent opposed the move. Many stated 
that the relocation would impair FDA's ability to regulate drugs and 
medical devices.
    A number of the employees noted that the first White Oak building 
will have few window offices. Many of the employees who would relocate 
to White Oak in the first phase presently have windows in their 
offices. The design of this building and the location of the facility 
will have long-lasting adverse effects on FDA's ability to recruit and 
retain qualified employees. The Washington Metropolitan area has a 
number of better sites at which FDA can consolidate. Among these is the 
Southeast Federal Center in downtown Washington, D.C. This 
underutilized 50-acre federally-owned property is adjacent to the Navy 
Yard Metro Station. It is only one mile from the U.S. Capitol and the 
headquarters of the U.S. Department of Health and Human Services.
                              legal issues
    On February 23, 2001, I and a number of other FDA employees joined 
the Sierra Club and the Forest Conservation Council in a law suit that 
is intended to stop the White Oak project. For a number of reasons, 
FDA's occupancy of any buildings at White Oak would be illegal. The 
U.S. District Court for the District of Columbia is presently 
considering this suit.
    The White Oak facility would house the Office of the Commissioner 
of Food and Drugs, as well as most other FDA headquarters offices. This 
would violate 4 U.S.C. Sec. 72, which states: ``All offices attached to 
the seat of government shall be exercised in the District of Columbia, 
and not elsewhere, except as otherwise expressly provided in law.'' 4 
U.S.C. Sec. 72 is derived from the 1790 Act that established the 
District of Columbia as the Nation's capital. The first Congress 
enacted this law, which President George Washington signed.
    There is no law that expressly provides that FDA's headquarters 
offices shall be exercised outside of the District of Columbia.
    The FDA Revitalization Act (Public Law 101-635; 21 U.S.C. 
Sec. 369b), authorizes the Secretary of HHS to award contracts to 
acquire property and to construct and operate a consolidated FDA 
headquarters facility. This Act does not provide the location of the 
consolidated facility.
    I ask Congress not to appropriate funds to support an illegal 
activity. The 1790 Act had the worthy purpose of ensuring that all 
central offices of the Federal government would consolidate in the 
Federal capital District, and not elsewhere. The consolidated FDA 
facility would be one such office that is ``attached to the seat of 
government''.
    Article 1, Section 8, of the Constitution gives Congress exclusive 
jurisdiction over the District of Columbia. Your Committee should take 
no action to support the location of FDA's headquarters at a location 
that is outside of the District. Any such action would tend to vitiate 
this section of the Constitution, which 4 U.S.C. Sec. 72 is intended to 
support.
    Executive Order 12072, Aug. 16, 1978, states in Section 1-1, 
Subsection 101: ``Federal facilities and Federal use of space in urban 
areas shall serve to strengthen the nation's cities and to make them 
attractive places to live and work. Such Federal space shall conserve 
existing urban resources and encourage the development and 
redevelopment of cities.''
    White Oak is not in or near any city. An FDA consolidation at White 
Oak (which is in an ``urban area'', the Washington Metropolitan Area) 
would not strengthen any cities. The FDA facility would not encourage 
the development or redevelopment of any cities.
    Executive Order 12072, Section 1-1, Subsection 101, contains the 
word ``shall'' in several locations. FDA therefore can not legally 
locate its headquarters in suburban White Oak.
    Executive Order 12072 and several Federal statutes require that 
heads of Federal agencies consult with local city officials to obtain 
their recommendations for and objections to all proposed new Federal 
facilities. Neither GSA nor FDA officials ever consulted with officials 
of the District of Columbia or of the City of Rockville in Montgomery 
County, Maryland, concerning the White Oak facility.
    This lack of consultation violated Executive Order 12072 and 
several laws. It prevented District and Rockville officials from 
recommending alternative sites for the consolidated facility within 
their own jurisdictions and from objecting to the selection of the 
White Oak site.
    The Public Buildings Act of 1959 requires that the Committee on 
Environment and Public Works of the U.S. Senate approve prospectuses 
that describe the location and maximum costs of any large buildings 
that GSA may wish to construct before Congress can appropriate funds to 
design and construct such buildings. That Committee has never approved 
a prospectus that describes FDA's White Oak facility.
    The Treasury and General Government Appropriations Act, 2000 
(Public Law 101-58) appropriated funds to GSA that could support the 
first phase of FDA's consolidation in Montgomery County, Maryland. 
However, Public Law 101-58 contains a provision at 113 Stat. 451 that 
states: ``Provided further, That funds available to the General 
Services Administration shall not be available for expenses in 
connection with any construction, repair, alteration, or acquisition 
project for which a prospectus, if required by the Public Buildings Act 
of 1959, as amended, has not been approved, except that necessary funds 
may be expended for each project for required expenses in connection 
with the development of a proposed prospectus.''
    The Public Buildings Act of 1959 requires a prospectus that 
describes FDA's White Oak facility. No prospectus that described this 
facility had been approved before Public Law 101-58 was enacted into 
law. Therefore, GSA may only legally use the funds appropriated in this 
act for ``required expenses in connection with the development of a 
proposed prospectus''. GSA cannot legally use the funds to design and 
construct any buildings.
    Despite this prohibition, GSA is presently designing and starting 
to construct the first phase of the consolidation without an approved 
prospectus. This is illegal.
    The Budget asks Congress to appropriate funds in the Agriculture, 
Rural Development, Food and Drug Administration Appropriations Act, 
2002, that would enable FDA to occupy new facilities at White Oak that 
GSA would construct illegally. Your Committee should not initiate the 
appropriation of any such funds.
    The prospectus approval process is designed to assure that Congress 
evaluates the need, location, and maximum cost for all GSA building 
projects. Congress has never done this for the facilities that FDA 
would occupy at White Oak.
    The National Environmental Policy Act (NEPA) of 1969 requires that 
Federal agencies compare in an Environmental Impact Statement (EIS) 
alternative locations for any large new Federal facility. However, the 
EIS for the White Oak FDA facility did not make any such comparisons.
    The EIS only compared the environmental impacts of an FDA 
consolidation at White Oak with the ``no action'' alternative. 
Following this legally inadequate comparison, GSA and FDA officials 
selected White Oak as the location for the facility.
    GSA and FDA officials therefore violated NEPA when they selected 
the White Oak site. Congress should not appropriate funds to support 
this illegal selection.
    A Federal court may prevent FDA from consolidating its facilities 
at White Oak for one or more of the above reasons. Congress should not 
provide funds for FDA to occupy the White Oak facility until the 
Federal courts decide whether the project can proceed.
    I therefore ask that your Committee not provide the requested 
$6,000,000 to FDA in this legislation. Thank you.
                                 ______
                                 

 Prepared Statement of the California Industry and Government Central 
                    California Ozone Study Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
Coalition we are pleased to submit this statement for the record in 
support of our fiscal year 2002 funding request of $500,000 from CSREES 
for the Central California Ozone Study (CCOS).
    Ozone and particulate matter standards in most of central 
California are frequently exceeded. In 2003, the U.S. Environmental 
Protection Agency (U.S. EPA) will require that California submit SIPs 
to for the recently promulgated, national, 8-hour ozone standard. It is 
expected that such SIPs will be required for the San Francisco Bay 
Area, the Sacramento Valley, the San Joaquin Valley, and the Mountain 
Counties Air Basins. Photochemical air quality modeling will be 
necessary to prepare SIPs that are acceptable to the U.S. EPA.
    Central California Ozone Study (CCOS) is designed to enable central 
California to meet Clean Air Act requirements for ozone State 
Implementation Plans (SIPs) as well as advance fundamental science for 
use nationwide. The CCOS field measurement program was conducted during 
the summer of 2000 in conjunction with the California Regional PM10/
PM2.5 Air Quality Study (CRPAQS), a major study of the origin, nature 
and extent of excessive levels of fine particles in central California. 
CCOS includes an ozone field study, a deposition study, data analysis, 
modeling performance evaluations, and a retrospective look at previous 
SIP modeling. The CCOS study area extends over central and most of 
northern California. The goal of the CCOS is to better understand the 
nature of the ozone problem across the region, providing a strong 
scientific foundation for preparing the next round of State and Federal 
attainment plans. The study includes six main components:
  --Developed the design of the field study
  --Conducted an intensive field monitoring study from June 1 to 
        September 30, 2000
  --Developing an emission inventory to support modeling
  --Developing and evaluating a photochemical model for the region
  --Designing and conducting a deposition field study
  --Evaluating emission control strategies for the next ozone 
        attainment plans
    CCOS is directed by Policy and Technical Committees consisting of 
representatives from Federal, State and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS. The sponsors of CCOS, representing 
state, local government and industry, have contributed approximately 
$8.7 million for the field study. The Federal government contributed 
$500,000 for some data analysis. In addition, CCOS sponsors are 
providing $2 million of in-kind support. The Policy Committee is 
seeking Federal co-funding of additional $8.5 million to complete the 
data analysis and modeling portions of the study and for a future 
deposition study. California is an ideal natural laboratory for studies 
that address federal, agriculture-related issues, given the scale and 
diversity of the various ground surfaces in the region (crops, 
woodlands, forests, urban and suburban areas).
    For fiscal year 2002, our Coalition is seeking funding of $500,000 
through the U.S. Department of Agriculture (USDA) Cooperative State 
Research, Education, and Extension Service (CSREES). Domestic 
agriculture is facing increasing international competition. Costs of 
production and processing are becoming increasingly more critical. The 
identification of cost-effective options for addressing environmental 
options affecting agricultural costs will contribute significantly to 
the long-term health and economic stability of local agriculture. A 
CSREES grant is needed to address the issue of biomass burning and 
alternatives to open burning. Biomass burning is managed in order to 
minimize smoke impacts and avoid violations of ambient air quality 
standards. The air quality impacts of using biomass as a fuel source 
and as an alternative to open burning need to be addressed. CCOS will 
improve the ability to assess the impacts of biomass power plants.
    There is a national need to address national data gaps and 
California should not bear the entire cost of the addressing these 
gaps. National data gaps include issues relating to the integration of 
particulate matter and ozone control strategies. The CCOS field study 
took place concurrently with the California Regional Particulate Matter 
Study--previously jointly funded through Federal, State, local and 
private sector funds. Thus, CCOS was timed to enable leveraging of the 
efforts for the particulate matter study. Some equipment and personnel 
served dual functions to reduce the net cost. From a technical 
standpoint, carrying out both studies concurrently was a unique 
opportunity to address the integration of particulate matter and ozone 
control efforts. CCOS was also cost-effective since it builds on other 
successful efforts including the 1990 San Joaquin Valley Ozone Study. 
Federal assistance is needed to effectively address these issues and 
CCOS provides a mechanism by which California pays half the cost of 
work that the Federal government should pursue.
    Scientists at the University of Nevada, Desert Research Institute 
(DRI) are involved with the CCOS. To expedite research studies related 
to biomass burning and smoke management for CCOS, it is requested that 
funds provided by CSREES be allocated directly to DRI.
    We appreciate the Subcommittee's consideration of our request. 
Thank you very much.
                                 ______
                                 

       Prepared Statement of the Coalition for APHIS/Animal Care 
                             Appropriations

    The Coalition for APHIS/Animal Care Appropriations first wishes to 
express its appreciation to the subcommittee and to the full committee 
for helping to improve Animal Welfare Act (AWA) enforcement in fiscal 
years 2000 and 2001 through the first funding increases the program has 
experienced in a decade. As you know, the Animal Welfare Act sets 
minimum standards of humane care for millions of animals in research 
institutions; in zoos, circuses, roadside menageries, and other 
exhibits; at the facilities of breeders and dealers; and during 
transportation by common carriers, such as airlines. After such a long 
period of budget stagnation and program retrenchment, the Animal Care 
(AC) division of the Animal and Plant Health Inspection Service has put 
the new funds to good use by, among other things, increasing the number 
of compliance inspections, which are crucial to protecting human and 
animal health and safety as the law requires, from a low of 8,772 to a 
projected 10,086 this fiscal year. Moreover, Animal Care has initiated 
a more vigorous effort directed at unlicensed facilities, and has more 
frequently been able to confiscate and place animals immediately when 
necessary to relieve suffering.
    Our testimony today urges the subcommittee to continue to support 
this steady and much needed improvement in AWA enforcement, which would 
entail a modest total increase of $3.8 million in fiscal year 2002 in 
three critical AWA-related programs. We have attached materials 
providing details on each component of this request and have summarized 
as follows:
  --Ideally, Animal Care should be conducting 17,000 AWA compliance 
        inspections per year (AC also carries out over 1,000 
        prelicensing and preregistration inspections annually), 
        conducting internal audits and inspector quality reviews, and 
        expanding its programs for regulated industries. To sustain the 
        progress it has achieved in the last two years, Animal Welfare 
        will need a modest increase of $2.4 million in fiscal year 
        2002, for a total appropriation of $14.5 million.
  --Ironically, Animal Care's enhanced AWA activities have now brought 
        to the fore problems elsewhere, specifically in Investigative 
        and Enforcement Services. This division supports AC's 
        inspectors through timely and complete investigations of 
        alleged Animal Welfare Act violations. Like AC, IES has 
        experienced severe erosion in its purchasing power; unlike AC, 
        however, it has not begun a recovery from the resulting erosion 
        in its programs. In 2000, it had only 56 investigators, down 
        from 73 in 1992. AWA investigations have dropped from 
        approximately 800 in the early 1990s to 329 in 2000. A 
        relatively small increase in fiscal year 2002 of $1 million, 
        for a total appropriation of $7.263 million, would enable IES 
        to add much-needed field investigators, especially in areas 
        with high concentrations of animal welfare licensees and 
        registrants. More investigations could be completed in less 
        time and better tracking of unlicensed facilities would be 
        possible. Because IES has other responsibilities unrelated to 
        its role in AWA enforcement, we respectfully request that the 
        following report language also be included so as to avoid 
        confusion within the division:

    ``The Committee directs that the $1 million of additional funds for 
Investigative and Enforcement Services be used for enhanced enforcement 
of the Animal Welfare Act.''

  --An important resource for assisting research institutions in 
        complying with the AWA is the Animal Welfare Information 
        Center, which serves as a clearinghouse and education resource 
        for all individuals involved in the care and use of animals for 
        experimentation. However, its $750,000 appropriation is 
        unchanged since AWIC's creation in 1985. With an additional 
        $400,000 in fiscal year 2002, for total spending of $1.150 
        million, the Center could, among other things, conduct more 
        user workshops, develop web-based training, and expand its 
        website content and improve the search engine to maximize 
        access to the data available.
    We thank the subcommittee for this opportunity to express our 
support for this modest re-quest, one that is very small in the context 
of the department's budget but large in its ability to sustain and 
advance the progress in AWA enforcement that Congress has made possible 
in the past two years.
coalition for aphis animal care appropriations fiscal year 2002 budget 
               request for animal welfare act enforcement
Animal Care (Animal and Plant Health Inspection Service)
    Fiscal year 2002--$14.500 million (Needed increase of $2.4 million)
    Between fiscal year 1992 and fiscal year 1999, the appropriation 
for the Animal Welfare program under Animal Care remained stagnant, 
which meant a decrease in spending power. The number of inspectors 
responsible for nearly 10,000 sites fell from 88 to 64. Inspections 
dropped precipitously, from nearly 18,000 to 9,000. With respect to 
commercial dog breeders alone--some of the most problematic of 
licensees and the area where many unlicensed facilities operate--the 
average rate of inspection fell from three per year to one, which 
includes the average of four to eight visits required by noncompliant 
facilities. Audits by the Office of Inspector General found that 
``APHIS did not ensure all sites are periodically inspected'' and ``did 
not perform all required reinspections.'' A 1998 audit found that ``of 
221 sites used by 3 airlines in one APHIS region, only 32 percent had 
been inspected since January 1995.'' In the meantime, problems during 
air travel continue to result in the death, injury, and loss of 
animals.
    In Fiscal Year 2000 and 2001, the Animal Welfare portion of Animal 
Care's budget rose by a cumulative $3 million, to $12.167 million. This 
increase has allowed a strengthening in the number of inspectors to 80 
and a slow recovery in the number of annual inspections (although in 
fiscal year 2000 the number still went down, it slowed considerably and 
actually went up in the last half of the year as the new staff went out 
into the field; just over 10,000 inspections are projected for fiscal 
year 2001). Animal Care has initiated a more vigorous enforcement 
effort directed at ``puppy mills'' that are in chronic violation of the 
law, as well as at those not licensed at all.
    These improvements are long overdue and most welcome and 
demonstrate the effective use to which Animal Care is putting its 
increased funding. They also show the tremendous need that remains. In 
order to ensure that all sites are visited at least once annually and 
all noncompliant facilities receive the needed follow up, AC should be 
conducting at least 17,000 compliance inspections per year. (AC also 
carries out over 1,000 prelicensing and preregistration inspections 
annually.) APHIS also expects--and indeed, is already seeing--a rise in 
the number of airline-related incidents it must investigate as a result 
of new reporting requirements mandated in the FAA Reauthorization Act 
(Public Law 106- 181, Section 710).
    A $2.4 million increase in fiscal year 2002, for a total 
appropriation of $14.5 million, would enable AC to maintain all current 
AWA activities; strengthen its field staff by hiring, training, and 
equipping an additional 12 inspectors; increase AWA inspections to 
approximately 11,600 and improve follow-up inspections to verify 
correction of violations; increase searches for unlicensed and 
unregistered operations and other illegal activities; handle Animal 
Welfare Act complaints more quickly; expand programs for regulated 
industries; and implement internal audits and inspector quality 
reviews.
Investigative and Enforcement Services (Animal and Plant Health 
        Inspection Service)
    Fiscal year 2002--$7.263 million (Needed increase of $1 million)
    APHIS's Investigative and Enforcement Services provides crucial 
support to Animal Care's inspectors (in addition to three other APHIS 
divisions) through timely and complete investigations of alleged Animal 
Welfare Act violations. IES staff perform a variety of critical 
functions, such as conducting investigations; tracking unresolved 
cases; coordinating investigative efforts within APHIS and with other 
Federal and State agencies; and training APHIS inspectors in 
documenting violations and gathering evidence.
    As with AC, ten years of static budgets have eroded IES's 
purchasing power, resulting in a substantial reduction in force, from 
73 investigators in 1992 to 56 in 2000. Only 329 AWA investigations 
occurred in 2000, a 58 percent drop from a yearly high of 800 in the 
early 1990s. The average time needed to complete an investigation in 
2000 was about 140 days; in the early 1990s, it was 60 days. Clearly 
the budget shortfalls during the last decade have had a serious 
detrimental impact on IES's operations, which in turn adversely affects 
the health Coalition for APHIS ANIMAL CARE Appropriations Page 4 and 
well-being of regulated animals, who may not receive relief until a 
case is resolved. Moreover, the deterrent effect of a sanction is 
severely diminished when action is not taken soon after the violation.
    IES's fiscal year 2001 budget is insufficient to keep up with the 
projected growth in demand for its investigative and enforcement 
services in the next few years as a result of the addition of 250 
inspectors to Plant Protection and Quarantine, and the addition of a 
total of 35 inspectors to Animal Care between Fiscal Year 2000 and 
2002.
    Because IES has fallen so far behind, the modest increase of 
$400,000 in the IES budget for fiscal year 2001 was insufficient to 
cover current program activities; most of it was immediately absorbed 
by cost of living increases. The APHIS Administrator made a one-time 
transfer to allow IES to fill critical vacancies in the central part of 
the country.
    An increase of $1 million in fiscal year 2002, for a total 
appropriation of $7.26 million, will enable IES to fill a critical 
vacancy for an enforcement specialist and continue to support the four 
field investigator positions now temporarily funded through the APHIS 
Administrator, as well as add four new field positions strategically 
placed in areas with high concentrations of animal welfare licensees 
and registrants. With these additional funds, other improvements in IES 
functions would occur, including:
  --Reducing time to complete investigations;
  --Allowing investigators to accompany Animal Care staff to 
        noncompliant facilities;
  --Deploying ``quick-response'' teams to respond to high-priority 
        violations;
  --Implementing electronic case report format to accelerate case 
        routing and processing;
  --Increasing tracking of unlicensed operators.
    With this additional funding, IES would be able to respond more 
quickly to the growing number of new animal care violation cases and to 
enhance enforcement efforts directed toward protecting the welfare of 
animals under the Animal Welfare Act.
The Animal Welfare Information Center (Office of Research, Education 
        and Economics/National Agricultural Library)
    Fiscal year 2001--$750,000
    Fiscal year 2002--$1.150 million (Needed increase of $400,000)
    The Animal Welfare Information Center (AWIC) was created by 
legislative mandate in the 1985 amendment to the Animal Welfare Act, 
the Improved Standards for Laboratory Animals Act. The AWIC's purpose 
is to serve as a clearinghouse and educational resource for all 
individuals involved in the care and use of animals for 
experimentation. The Center provides information on appropriate care 
for animals including minimization of pain and distress, preventing 
unintended duplication of experiments, training for laboratory 
employees, legal requirements regarding the use of animals in research, 
and reduction and/or Coalition for APHIS ANIMAL CARE Appropriations 
Page 5 replacement of the use of animals in research, where possible. 
The website address for AWIC is http://www.nal.usda.gov/awic and users 
have accessed this site nearly half a million times in one year alone. 
It is an invaluable resource for the research community, yet its 
funding has remained stagnant at $750,000 since its creation more than 
fifteen years ago.
    We are seeking a $400,000 increase in appropriations to enable the 
AWIC to provide much needed services. These additional monies would 
permit the Center to sponsor workshops in different regions of the 
country and to develop web-based training to educate the regulated 
community and thereby ensure increased compliance with the Federal law. 
The website would be expanded with additional material and an updated 
search engine to maximize access to the data available and the 
efficiency of obtaining the data.
    Submitted on behalf of the Coalition for APHIS ANIMAL CARE 
Appropriations, representing regulated industry, the scientific 
community, humane organizations, and their members across the U.S.: The 
American Humane Association; The American Society for the Prevention of 
Cruelty to Animals; The American Veterinary Medical Association; The 
American Zoo and Aquarium Association; The Humane Society of the United 
States; National Association of Federal Veterinarians; Society for 
Animal Protective Legislative; Working for Animals used in Research, 
Drugs, and Surgery (WARDS)
                                 ______
                                 

          Prepared Statement of the Coalition of ESPCoR States

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to submit this testimony on behalf of the Coalition of 
EPSCoR States\1\ regarding the U.S. Department of Agriculture 
Experimental Program to Stimulate Competitive Research (USDA EPSCoR). 
USDA EPSCoR is extremely important to agricultural research in the 
state of Mississippi and in our nation. I appreciate the opportunity to 
submit this testimony.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Idaho, Kansas, Kentucky, Louisiana, 
Maine, Mississippi, Montana, Nebraska, Nevada, North Dakota, Oklahoma, 
Puerto Rico, South Carolina, South Dakota, Vermont, West Virginia, and 
Wyoming.
---------------------------------------------------------------------------
    I would also like to extend my appreciation to you, Mr. Chairman, 
for your strong support of USDA EPSCoR. This important program is 
having a significant impact in Mississippi and in the other USDA EPSCoR 
states. Your support and the support of this Subcommittee have been 
absolutely crucial in establishing and maintaining this important 
program. Mr. Chairman, those of us committed to improving Mississippi's 
research and development capability deeply appreciate your support and 
your effort. Thank you for your fine work representing Mississippi in 
the United States Senate.
    Seven Federal agencies have EPSCoR or EPSCoR-like programs, 
including USDA. EPSCoR works to improve our country's science and 
technology capability by funding activities of talented researchers in 
states that have historically not received significant Federal R&D 
funding. USDA EPSCoR was established in fiscal year 1992 with the goal 
of increasing the amount of agricultural research at academic 
institutions within states that have received limited competitive 
funding from USDA.
    The Mississippi EPSCoR program began in 1988 with the naming of the 
state EPSCoR Committee by the Governor. Mississippi EPSCoR obtained its 
first funding in 1989 from USDA EPSCoR's sister program in the National 
Science Foundation. Since that time, EPSCoR has had an enormously 
positive impact within the state and at the four research institutions 
and their affiliates.
    Because of the multi-institutional framework of EPSCoR and of the 
commitment of the state EPSCoR Committee to creating a critical mass of 
scientists and engineers around specific issues as well as a more fully 
developed statewide infrastructure, Mississippi EPSCoR has produced a 
stronger, more competitive research community and closer working 
relationships among the institutions that participate in the federal 
EPSCoR programs: Jackson State University, Mississippi State 
University, the University of Mississippi, the University of Southern 
Mississippi, and the University of Mississippi Medical Center.
    Mr. Chairman, USDA EPSCoR is helping to improve the quality and 
competitiveness of agriculture research in Mississippi. Since the 
program was established in 1992, a number of Mississippi researchers 
have received USDA EPSCoR Strengthening Awards. These investigators 
have been located at Mississippi State University, the University of 
Mississippi Medical Center, and the University of Southern Mississippi. 
The amount of USDA research funds received by Mississippi increased by 
more than 500 percent between 1990 and 1996, a clear indication that 
Mississippi researchers are becoming more effective.
    Important examples of Mississippi's research include studies in 
such areas as: kenaf processing, which is a potential economic 
opportunity for rural states; rapid detection of E coli, an important 
factor in food safety; and disease mechanisms in channel catfish, which 
impacts a significant cash crop across the southern part of the 
country. These projects and many, many others address issues important 
to rural states and to the rest of the nation. USDA EPSCoR allows 
researchers across our country to contribute to our economy and our 
agricultural research knowledge base.
    USDA EPSCoR states are those whose funding ranks no higher than the 
40th percentile of all states, based on a three year rolling average. 
The following states are eligible: Alaska, Arkansas, Connecticut, 
Delaware, Hawaii, Idaho, Kentucky, Maine, Mississippi, Montana, Nevada, 
New Hampshire, New Mexico, North Dakota, Rhode Island, South Carolina, 
South Dakota, Utah, Vermont, West Virginia, Wyoming, and the 
Commonwealth of Puerto Rico. Let me stress that EPSCoR relies on 
rigorous merit review in order to ensure that it funds only high-
quality research.
    USDA makes four types of competitive awards through USDA EPSCoR: 
Research Career Enhancement Awards, Equipment Grants, Seed Grants, and 
Strengthening Standard Research Project Awards. Proposals must be 
related to the program priorities of the National Research Initiative 
Competitive Grants Program, which address critical issues facing 
agriculture today.
  --Research Career Enhancement Awards help faculty enhance their 
        research capabilities by funding sabbatical leaves. Applicants 
        may not have received a NRICGP competitive research grant 
        within the past five years.
  --Equipment Grants strengthen the research capacity of institutions 
        in USDA EPSCoR states. Each request shall be limited to one 
        major piece of equipment within the cost range of $10,000-
        $250,000. The grant cannot exceed 50 percent of this cost or 
        $50,000, whichever is less. The principal investigator for this 
        grant is responsible for securing non-Federal matching funds.
  --Seed Grants enable researchers to collect preliminary data in 
        preparation for applying for a standard research grant. Seed 
        Grant awards are limited to a total cost of $75,000, including 
        indirect costs, for two years and are non-renewable. Applicants 
        must indicate how the research will enhance future 
        competitiveness in applying for standard research grants.
  --Strengthening Standard Research Project Awards fund standard 
        research projects of investigators who have not received a 
        NRICGP grant within the past five years.
    Through USDA EPSCoR, Mississippi and the other USDA EPSCoR States 
contribute more effectively to our nation's science and technology 
capability, and help provide our country with needed, high-quality, 
peer-reviewed research. This program allows all regions of our country 
to contribute to our nation's science and technology capability while 
allowing flexibility to meet regional research needs. USDA EPSCoR is a 
sound investment of taxpayer dollars.
    Mr. Chairman, the Subcommittee has for several years directed USDA 
to set aside 10 percent of USDA NRICGP funds for USDA EPSCoR. Those 
funds have provided significant opportunity and significant success in 
Mississippi and the other EPSCoR states. I request that the 
Subcommittee once again include report language directing USDA to set 
aside 10 percent of its NRI competitive grant funds in fiscal year 2002 
for an EPSCoR program. These funds will allow the EPSCoR states to 
continue providing for the agricultural research needs of rural America 
and of our nation.
    I thank the Subcommittee for the opportunity to submit this 
testimony.
                                 ______
                                 

            Prepared Statement of the Coalition for Food Aid

    Mr. Chairman, on behalf of the members of the Coalition for Food 
Aid, I respectfully submit for the record this statement supporting a 
total fiscal year 2002 program level of $1.1 billion for the Public Law 
480 (``Food for Peace'') program. Although this will only make up 
$83,000,000 of the $673,000,000 cut in Public Law 480 that has occurred 
since fiscal year 1993, it will at least bring the program closer to 
its program level of fiscal year 1997 and 1998. Within the Public Law 
480 budget, we urge that the title II program be appropriated 
$887,000,000, a $50,000,000 increase over the fiscal year 2001 
appropriations, but $40,000,000 less than the actual fiscal year 2001 
title II allocation. We are also seeking Committee Report language to 
encourage improved U.S. Agency for International Development (USAID) 
and U.S. Department of Agriculture (USDA) administration of food aid 
programs.
    The members of the Coalition are private voluntary organizations 
and cooperatives (jointly referred to as ``PVOs'') that develop and 
implement food aid programs overseas, including title II programs. We 
are very concerned about the decline in Public Law 480. In fiscal year 
1993, Public Law 480 provided 6 MMT; in fiscal year 2001 it will only 
provide 2.9 MMT.
    For PVOs, it is not just a matter of how much food aid is 
provided--it is how this food is used. Food aid is more than a hand out 
of U.S. grain, oilseed and dairy products, dry peas, beans and lentils, 
and other agricultural products. When linked with human and economic 
development activities that are developed and implemented by PVOs, food 
aid can have a lasting benefit. This makes title II a very effective 
program.
                           food aid is needed
    For developing countries that are strapped with debt and cannot 
afford to import adequate amounts of food to meet the nutritional needs 
of their populations, food aid is very important. According to the 
United Nations Food and Agricultural Organization report, ``The State 
of Food and Agriculture 1998,'' approximately 828,000,000 people are 
chronically undernourished in the world. While no region is immune to 
hunger, the vast majority of these people live in 87 low-income, food-
deficit countries. The USDA Economic Research Service reports that 
about 15 MMT of food aid is needed a year to meet the ``food gap'' in 
the 60 countries that are considered to be least developed and reliant 
on food imports.
    Hunger has many causes and manifestations, but is most often 
associated with poverty and lack of empowerment. In developing 
countries, where poverty is endemic, employment opportunities are 
lacking, governments are unable to provide basic health and education 
services or sanitation and clean water due to low revenues and high 
debt burdens, agricultural productivity and marketing systems are 
usually weak and under-performing, and many people struggle just to 
meet their basic needs.
    During the Uruguay Round Trade Agreement negotiations, it was 
acknowledged that low-income, net food-importing countries often have 
hard currency limitations and cannot afford to meet their food needs 
through commercial imports. Their need for food aid was expected to 
increase as the availability of subsidized commercial commodities 
decreased. Because of this, the Ministers declared that donor countries 
would seek to increase food and agricultural aid to these low-income 
countries.
     Emergencies abroad also require food aid interventions. Recent 
events dramatically show the need--severe human and property losses due 
to hurricanes in and earthquakes in Ecuador and India, and ongoing 
emergencies in Africa caused by drought and war. These disasters 
compound the suffering of the poor, erase the economic progress made by 
struggling, developing countries and thrust millions of low-income, and 
even middle-income, families into poverty.
                    responsible use of us resources
    The essence of US food aid programs is the expression of American 
good will through ``people-to-people'' programs. American farmers 
produce the food, American businesses process, package and transport 
the food, and American PVOs make sure it is used properly and 
effectively. PVOs target areas of need, establish programs in 
cooperation with local communities and institutions, and provide 
efficient management.
    PVOs are supported by the American public through contributions and 
are accountable to their donors. When they receive food and cash 
assistance from the U.S. Government, they must account for the use of 
the resources and are audited and evaluated according to U.S. 
Government procedures. They have established mechanisms for food 
monitoring and reporting from point of departure from the U.S. to the 
ultimate recipient. In the case of monetization (commodity sales and 
the use of funds for pre-approved program activities) or if funds have 
been provided for program support, itemized records of the use of such 
funds are maintained. They also keep records to assess the ultimate 
impact of the program on the intended beneficiaries.
                effective programs for lasting benefits
    Food aid can tackle the root causes of hunger in many ways. It is 
not accomplished just by distributing U.S. commodities--it takes 
thoughtful planning and outreach to make sure these programs help 
people to help themselves. There are many examples. Nutritious foods 
along with immunization and health care are provided during critical 
growth periods for mothers and children. Infrastructure and sanitation 
in poor communities are improved by giving food as payment for work on 
sewage and water systems. Land use and conservation are enhanced when 
food is provided as an incentive for community participation in 
reforestation and land conservation projects. Agricultural productivity 
and incomes are improved by selling donated food and then using the 
sales proceeds to finance agricultural, small business and credit 
programs.
    One innovative approach to food aid programming is monetization--
the sale of donated commodities in poor, food deficit countries and the 
use of the sales proceeds for such things as (1) the distribution of 
food to pregnant women, mothers, children and others; (2) purchasing 
equipment, services and supplies to enhance the impact of food-for-
work, school feeding or child and maternal health care programs; and 
(3) supporting programs that help improve agriculture productivity, 
marketing, post-harvest storage and processing or provide employment 
and business opportunities to increase incomes of the poor. The process 
of monetization itself can stimulate wider participation of traders in 
the market of the recipient country, thereby strengthening the free 
market system. The sales transactions are carefully planned to avoid 
interference in commercial trade or local production and marketing.
               linkages to u.s. agriculture: aid to trade
    In contrast to developing countries the U.S. agricultural sector is 
the most productive in the world. A great part of the American 
tradition is to lend a helping hand to those less fortunate. The United 
States has used its agricultural bounty to help others through food aid 
programs. The donations have a positive impact on the U.S. economy, 
creating business for farmers, food processors, packaging companies, 
railroads, ports and shipping companies.
    Food aid is one intervention in a range of programs that can lead 
from aid to trade. Many of the countries where PVOs operate have not 
been analyzed or targeted by U.S. agricultural organizations since they 
are low income and are not current targets for commercial sales. Yet, 
there is growing interest among agricultural organizations to explore 
how food aid can be integrated into their long-term planning.
    In the short term food aid provides an additional market for U.S. 
goods. There is a long term benefit, as well. If properly planned, food 
aid programs promote ``food security''--the ability of people to 
produce, to buy or otherwise to access enough food to meet their 
nutritional needs. As a family improves economically, it can afford to 
buy more and as a developing country improves its economic situation, 
the demand for food and higher-valued food increases. Thus, there are 
linkages between food aid programming and future market development.
    History has shown that U.S. food aid can be the foundation for 
trade. Today, 40 percent of our commercial agricultural exports are 
sold to countries that were food aid recipients.
    Agricultural organizations cooperate in different ways with PVOs. 
Some provide information about their products and respond to questions 
by PVOs about the efficacy of using a particular commodity. Others 
directly assist or work with a PVO to conduct market analyses and to 
develop monetization plans in a target country.
    As an example, the U.S. soybean producers, through their 
contributions to the United Soybean Board (USB) and state soybean 
boards, initiated a collaborative effort with PVOs to identify the best 
uses for donated soybean products in developing countries. The purposes 
are (1) to provide soybeans, soybean meal and soybean oil to countries 
that need these products, (2) to have a long-term benefit by 
integrating the proceeds from the sales of these products into economic 
and social development programs implemented by PVOs, and (3) to 
identify opportunities to use soy protein products to improve the 
nutritional quality of foods available in a target country. PVOs and 
USB have been working together to plan effective programs that use food 
aid in ways that can have a benefit on the recipient country's economy 
and a nutritional benefit to targeted populations.
                    title ii funding increase needed
    The fiscal year 2001 expenditures for title II will exceed 
appropriations by $90,000,000. These extra funds are carryovers and 
transfers from other accounts. USDA's budget submission states that in 
fiscal year 2002 such carryovers and transfers can not be assumed.
    In fiscal year 2001, USAID asked PVOs to reduce commodity levels 
for several ongoing programs because of budget shortages. Thus, even 
with the transferred funds that increased the total program level for 
title II, cuts were made in ongoing programs. Since developing a title 
II proposal is a very lengthy, costly and in-depth process, when USAID 
states that it has limited resources or wants to limit the number of 
programs it approves, PVOs are hesitant to draft proposals to start new 
programs. USAID also places constraints on PVOs by making it difficult 
to develop and to gain approval of certain types of programs, such as 
food for education and HIV/AIDS programs.
    Thus, without increased appropriations, title II actual 
expenditures are very likely to drop in fiscal year 2002 and valuable 
programs that reduce malnutrition and improve the availability of food 
in poor households will be cut. We therefore ask you to appropriate 
$887,000,000 for title II, which will provide $50,000,000 more than the 
fiscal year 2001 appropriations, and about 125,000 MT in additional 
food aid.
               reforming food aid program administration
    USAID's administration of title II programs is through an unwieldy 
and constantly changing set of regulations, guidelines, policy 
announcements, handbooks and individual program officer decision-
making. At USDA, the process is murky and unpredictable for Food for 
Progress and surplus disposal programs. There are some disturbing 
trends in USDA policy governing surplus disposal under section 5(d) of 
the Commodity Credit Corporation (CCC) Charter Act and the Section 416 
program, including the way the fiscal year 2001 Global Food for 
Education Initiative (``GFE'') is being managed. There is little or no 
consultation between USDA and PVOs about the program approval criteria 
or elements for a successful project, even though many PVOs can offer a 
great deal of help due to years of hands-on, field experience. The 
review process used by USDA is not transparent and changes are made in 
program rules midstream, after proposals have been developed to meet 
the program rules that were originally published.
    PVOs try to navigate this administrative maze, but it is exhausting 
and takes away from their ability to target programs to meet local 
needs.
    U.S. PVOs should be considered partners in U.S. food aid. Reforms 
are needed that will enhance the positive impacts of food aid by 
streamlining administration and giving PVOs greater flexibility to pick 
the right commodity for the right use, supporting monetization as a 
valuable method for food distribution and strengthening economies, 
providing flexibility for a PVO to develop the type of project that 
would be most appropriate for the local setting and circumstances, and 
focusing on the use of food as a resource for growth and development. 
User-friendly program guidance and flexibility for PVOs to adapt a 
program to meet the changes encountered during the implementation phase 
are necessary.
    If a PVO has demonstrated the capability to conduct programs, the 
administrative agency should give the PVO flexibility to develop a 
program that responds to local needs without trying to micromanage PVO 
decisions. This would give PVOs greater flexibility to make 
programmatic changes as they work to achieve program objectives. PVO 
programs are audited according to U.S. Government-proscribed 
procedures, are subject to U.S. government audit and are independently 
evaluated. Besides a high level of accountability, the value added by a 
PVO is its ability to develop a program that meets local needs and to 
work directly with communities, institutions and people in poor 
countries to make lasting changes.
    Mr. Chairman, thank you for this opportunity to submit testimony on 
Public Law 480 and other food aid programs. We appreciate your support 
for food aid over the years and seek your continued help to maintain 
funding for this program.
                                 ______
                                 

   Prepared Statement of the Coalition to Promote U.S. Agricultural 
                                Exports

    As members of the Coalition to Promote U.S. Agricultural Exports, 
we commend the Chairman and members of the Subcommittee for their 
interest and support of U.S. agriculture and express our appreciation 
for this opportunity to share our views.
    The Coalition to Promote U.S. Agricultural Exports is an ad hoc 
coalition of over 80 organizations, representing farmers and ranchers, 
cooperatives, small businesses, regional trade organizations, and the 
State Departments of Agriculture (see attached). We believe the U.S. 
must continue to have in place policies and programs that help maintain 
the ability of American agriculture to compete effectively in a global 
marketplace still characterized by subsidized foreign competition.
    Farm income and agriculture's economic well-being depend heavily on 
exports, which account for one-third or more of domestic production, 
provide jobs for millions of Americans, and make a positive 
contribution to our nation's overall trade balance. In 2001, U.S. 
agriculture exports are projected to be around $53 billion, down $7 
billion from 1996. This is caused by a combination of factors, 
including continued subsidized foreign competition and related 
artificial trade barriers. U.S. agriculture's trade surplus is also 
expected to be about $13 billion, down over 50 percent from 1996, with 
continued low commodity prices also forecast.
    According to recent USDA information, the EU and other foreign 
competitors are outspending the U.S. by a factor of 20 to 1 with regard 
to the use of export subsidies and other expenditures for export 
promotion. In 1998 (the most recent year for which data is available), 
in addition to spending $6 billion in export subsidies, our leading 
foreign competitors spent a combined $1 billion on various activities 
to promote their exports of agricultural, forestry, and fishery 
products, including some $379 million by the EU.
    According to USDA, spending by these competitor countries on market 
promotion increased by 50 percent over the 1995-98 time period, while 
U.S. spending remained flat. We have no reason to believe that this 
trend has changed since then. Furthermore, almost all of this increase 
has been directed to the high-value and consumer-ready product trade.
    Information compiled by USDA also shows that such countries are 
spending over $100 million just to promote sales of their products in 
the United States. In other words, they are spending more to promote 
their agricultural exports to the United States, than the U.S. 
currently spends ($90 million) through MAP to promote American-grown 
and produced commodities worldwide! In fiscal year 1999, the U.S. 
recorded its first agricultural trade deficit with the EU. In fiscal 
year 2000, that trade deficit nearly doubled to $2 billion.
    Because market promotion is a permitted ``green box'' activity 
under World Trade Organization (WTO) rules, with no limit on public or 
producer funding, it is increasingly seen as a centerpiece of a winning 
strategy in the future trade battleground. Many competitor countries 
have announced ambitious trade goals and are shaping export programs to 
target promising growth markets and bring new companies into the export 
arena. European countries are expanding their promotional activities in 
Asia, Latin America, and Eastern Europe. Canada, Australia and New 
Zealand have also sharply bolstered their export promotion expenditures 
in recent years.
    As the EU and our other foreign competitors have made clear, they 
intend to continue to be aggressive in their export efforts. For this 
reason, we believe the Administration and Congress should immediately 
strengthen funding for MAP and other export programs, and ensure that 
such programs are fully and aggressively utilized. Since MAP was 
originally authorized, funding has been gradually reduced from a high 
of $200 million to its current level of $90 million-a reduction of more 
than 50 percent. Again, given what our foreign trade competitors are 
doing, we believe it's time to restore funding for this vitally 
important program up to its original level. American agriculture is the 
most competitive industry in the world, but it can not and should not 
be expected to compete alone against the treasuries of foreign 
governments.
    In order to reverse the decline in funding over the past decade for 
a number of our agricultural export programs, the Coalition is strongly 
supporting legislation (S. 366) introduced by Senators Murray (D-WA) 
and Craig (R-ID), et al. that would authorize no less than $90 million 
and up to $200 million per year for MAP. The bill would also provide a 
minimum of $35 million for the Foreign Market Development (FMD) 
Cooperator Program for cost-share assistance to help boost U.S. 
agriculture exports. Further, it would allow up to 50 percent of 
available funds under the Export Enhancement Program (EEP) to be used 
for related market development and promotion activities.
    Both MAP and FMD are administered on a cost-share basis with 
farmers and other participants required to contribute up to 50 percent 
of their own resources. These programs are one of the few tools 
specifically allowed under the Uruguay Round Agreement to help American 
agriculture and American workers remain competitive in a global 
marketplace still characterized by subsidized foreign competition. By 
any measure, they have been tremendously successful and extremely cost-
effective in helping maintain and expand U.S. agricultural exports, 
protect American jobs, and strengthen farm income. In addition to 
helping achieve these objectives, enactment of S. 366 would provide 
needed flexibility to respond to changing market conditions and 
capitalize on potential new market opportunities. It would also send a 
powerful message to our foreign competitors and strengthen the U.S. 
negotiating position in future trade talks.
    For all these reasons, we want to emphasize again the need to help 
strengthen the ability of U.S. agriculture to compete effectively in 
the global marketplace. As a nation, we can work to export our 
products, or we can export our jobs. USDA's export programs, such as 
MAP and FMD, are a key part of an overall trade strategy that is pro-
growth, pro-trade and pro-job.
    Again, as members of the Coalition to Promote U.S. Agricultural 
Exports, we appreciate very much this opportunity to share our views 
and we ask that this statement be included in the official hearing 
record.
                                 ______
                                 

 Prepared Statement of the Colorado River Basin Salinity Control Forum

    The Congress concluded that the Colorado River Basin Salinity 
Control Program should be implemented in the most cost-effective way 
and realizing that agricultural on-farm strategies were some of the 
most cost-effective strategies authorized a program for the Department 
of Agriculture. With the enactment of the Federal Agriculture 
Improvement and Reform Act of 1996 (FAIRA), the Congress concluded that 
the Salinity Control Program could be most effectively implemented as 
one of the components of the Environmental Quality Incentives Program. 
Since the enactment of FAIRA, the Salinity Control Program has not been 
funded at a level adequate to ensure that salinity damages from the use 
of Colorado River water in the United States will not increase.
    The Salinity Control Program has been subsumed into the EQIP 
program without the Secretary of Agriculture giving adequate 
recognition to the requirement in Section 202(c) in the Colorado River 
Basin Salinity Control Act to carry out salinity control measures. 
Water users hundreds of miles downstream are the beneficiaries of this 
water quality improvement program. Agriculturalists in the Upper Basin, 
however, see local benefits as well as downstream benefits and have 
submitted cost-effective proposals to the State Conservationists in 
Utah, Wyoming and Colorado. Priority Area proposals for EQIP funding 
are ranked in each state under the direction of the Natural Resources 
Conservation Service (NRCS) State Conservationist. Existing ranking 
criteria, however, does not consider downstream benefits (particularly 
out of state benefits) when proposals are being evaluated.
    After longstanding urgings from the states and directives from the 
Congress, the Department has concluded that this program is different 
than small watershed enhancement efforts common to the EQIP program. In 
this case, the watershed to be considered stretches more than 1,200 
miles from the river's headwater in the Rocky Mountains to the river's 
terminus in the Gulf of California in Mexico. The Department has now 
determined that this effort should receive a special fund designation 
and has appointed a coordinator for this multi-state effort.
    The NRCS has earmarked funds to be used for the Colorado River 
Basin Salinity Control Program and has designated this an area of 
special interest. This was done at the urging of this Senate 
subcommittee. The Forum appreciates the efforts of the subcommittee in 
this regard. Since the designation, there has been earmarked about $4.5 
million annually. The states added about $1.5 million in up-front cost-
sharing and local farms, we estimate, contributed about another $2.0 
million. The plan for water quality control of the river prepared by 
the Forum, adopted by the states, and approved by the EPA requires that 
the USDA portion of the effort to be funded at $12 million. Hence, 
there is a shortfall from the Federal designated funds of about $7.5 
million. State and local cost-sharing is triggered by the Federal 
appropriation. The entire effort is only at about 40 percent of what is 
needed. The USDA indicated that a more adequately funded the total 
national EQIP program would result in more funds being allocated to the 
salinity control program. The Basin states have cost sharing dollars 
available to participate in on-farm salinity control efforts. The 
agricultural producers in the Upper Basin are waiting for their 
applications to be considered so that they might also cost share in the 
program.
    The Forum urges that this subcommittee support the funding of more 
than $200 million from the CCC in fiscal year 2002 for EQIP. The Forum 
also requests that this subcommittee advise the Administration that $12 
million of these funds be designated for the Colorado River Basin 
Salinity Control Program.
                                overview
    The Colorado River Basin Salinity Control Program was authorized by 
Congress in 1974. The Title I portion of the Colorado River Basin 
Salinity Control Act responded to commitments that the United States 
made, through a minute of the International Boundary and Water 
Commission, to Mexico with respect to the quality of water being 
delivered to Mexico below Imperial Dam. Title II of the Act established 
a program to respond to salinity control needs of Colorado River water 
users in the United States and to comply with the mandates of the then 
newly legislated Clean Water Act. Initially, the Secretary of the 
Interior and the Bureau of Reclamation were given the lead Federal role 
by the Congress. This testimony is in support of funding for the Title 
II program.
    After a decade of investigative and implementation efforts, the 
Basin states concluded that the Salinity Control Act needed to be 
amended. Congress agreed and revised the Act in 1984. That revision, 
while keeping the Department of the Interior as lead coordinator for 
Colorado River Basin salinity control efforts, also gave new salinity 
control responsibilities to the Department of Agriculture. Congress has 
charged the Administration with implementing the most cost-effective 
program practicable (measured in dollars per ton of salt removed). It 
has been determined that the agricultural efforts are some of the most 
cost-effective opportunities.
    Since Congressional mandates of nearly three decades ago, much has 
been learned about the impact of salts in the Colorado River system. 
The Bureau of Reclamation has conducted studies on the economic impact 
of these salts. Reclamation recognizes that the damages to United 
States' water users alone are hundreds of millions of dollars per year.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum has become the seven-state 
coordinating body for interfacing with Federal agencies and Congress to 
support the implementation of a program necessary to control the 
salinity of the river system. In close cooperation with the Federal 
agencies and under requirements of the Clean Water Act, every three 
years the Forum prepares a formal report analyzing the salinity of the 
Colorado River, anticipated future salinity, and the program necessary 
to keep the salinities at or below the levels measured in the river 
system in 1972.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations measured at Imperial, and below Parker, and 
Hoover Dams in 1972 have been identified as the numeric criteria. The 
plan necessary for controlling salinity has been captioned the ``plan 
of implementation.'' The 1999 Review, Water Quality Standards for 
Salinity, Colorado River System, includes an updated plan of 
implementation. In order to eliminate the shortfall in salinity control 
resulting from inadequate Federal funding for the last several years 
for USDA, the Forum has determined that implementation of the salinity 
control program needs to be accelerated. The level of appropriation 
requested in this testimony is in keeping with the agreed to plan. If 
adequate funds are not appropriated, State and Federal agencies 
involved are in agreement that damage from the high salt levels in the 
water will be widespread and very significant in the United States and 
Mexico.
              state cost-sharing and technical assistance
    The authorized cost sharing by the Basin states, as provided by 
FAIRA, was at first difficult to implement as attorneys for USDA 
concluded that the Basin states were authorized by FAIRA to cost share 
in the effort, but the Congress had not given USDA authority to receive 
the Basin states' funds. After almost a year of exploring every 
possible solution as to how the cost sharing was to occur, the states, 
in agreement with the Bureau of Reclamation, with state officials in 
Utah, Colorado and Wyoming and with NRCS State Conservationists in 
Utah, Colorado and Wyoming, agreed upon a ``parallel'' program wherein 
the states' cost sharing funds will be used. We are now several years 
into that program and, at this moment in time, this solution to how 
cost sharing can be implemented appears to be satisfactory.
    With respect to the states' cost sharing funds, the Basin states 
felt that it was most essential that a portion of the program be 
associated with technical assistance and education activities in the 
field. Without this necessary support, there is no advanced planning, 
proposals are not well prepared, assertions in the proposals cannot be 
verified, implementation of contracts cannot be observed, and valuable 
partnering and education efforts cannot occur. Recognizing these 
values, the ``parallel'' state cost sharing program expends 40 percent 
of the funds available on these needed support activities. Initially, 
it was acknowledged that the Federal portion of the salinity control 
program funded through EQIP was starved with respect to needed 
technical assistance and education support. The Forum is encouraged 
with the Administration's determination that 19 percent of the EQIP 
funds will be used for technical assistance but observes that this is 
still not adequate funding for the technical assistance needed. The 
Forum urges this subcommittee to appropriate adequate funds for these 
support activities rather than to direct NRCS to borrow these needed 
funds from the CCC.
                                 ______
                                 

      Prepared Statement of the Colorado River Board of California

    Your support and leadership are needed in securing adequate funding 
for the U.S. Department of Agriculture with respect to it's on-farm 
Colorado River Basin Salinity Control Program for fiscal year 2002. 
This program has been carried out through the Colorado River Basin 
Salinity Control Act, since it was enacted by Congress in 1974. With 
the enactment of the Federal Agricultural Improvement and Reform Act 
(FAIRA) in 1996, specific funding for salinity control projects in the 
Colorado River Basin were eliminated from the Federal budget, and 
aggregated into the newly created Department of Agriculture 
Environmental Quality Incentive Program (EQIP) as one of its program 
components. With that action, Congress concluded that the salinity 
control program could be more effectively implemented as one of the 
components of the EQIP. Prior to FAIRA, the Department of Agriculture 
had specific line item funding for salinity control projects as high as 
$14.7 million, but in recent years the level of appropriations have 
been reduced to between $3.4 and $5.1 million which is inadequate to 
ensure that water quality standards in the Colorado River, with regards 
to salinity can be met. California's Colorado River water users are 
presently suffering economic damages in the hundreds of million of 
dollars per year due to the river's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the state agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River System. 
In this capacity, California along with the other six Basin States 
through the Colorado River Basin Salinity Control Forum (Forum), the 
interstate organization responsible for coordinating the Basin States' 
salinity control efforts, established numeric criteria, in June 1975, 
for salinity concentrations in the River. These criteria were 
established to lessen the future damages in the Lower Basin States of 
Arizona, California, and Nevada, as well as assist the United States in 
delivering water of adequate quality to Mexico in accordance with 
Minute 242 of the International Boundary and Water Commission. The goal 
of the Colorado River Basin Salinity Control Program is to offset the 
effects of water resource development in the Colorado River basin after 
1972 rather than to reduce the salinity of the River below levels that 
were caused by natural variations in river flows or human activities 
prior to 1972. To maintain these levels, the salinity control program 
must remove 1,480,000 tons of salt loading from the River by year 2015. 
In the Forum's last report entitled 1999 Review, Water Quality 
Standards for Salinity, Colorado River System released in June 1999, 
the Forum found that additional salinity control measures were 
necessary to meet the implementation plan that had been adopted by the 
seven Colorado River Basin States and approved by the Environmental 
Protection Agency. Since implementation of the EQIP, Federal 
allocations by the Department of Agriculture have not equaled the 
Forum's identified funding needs for the Department of Agriculture's 
portion of the program. The Forum identified a ``backlog'' of salinity 
control measures which stands at 384,000 tons. This is in addition to 
future controls designed to lower the River's salt loading by 372,000 
tons by 2015 in order to meet the established salinity standards. The 
Forum has presented testimony to Congress in which it has states that 
the rate of implementation of the program beyond that requested by the 
past President is necessary.
    The President's request for funding the Department of Agriculture 
in fiscal year 2002 is unknown at this time, however, the Colorado 
River Board urges that the subcommittee support funding of more than 
$200 million from the Commodity Credit Corporation in fiscal year 2002 
for EQIP. Of the amount to be appropriated for EQIP, the Colorado River 
Basin Salinity Control Forum, at its meeting in Henderson, Nevada, in 
October 2001, recommended a funding level of $12.0 million for on-farm 
salinity control in the Colorado River Basin for fiscal year 2002 to 
maintain water quality consistent with the established standards. This 
subcommittee should advise the Administration that $12 million of these 
funds be designated for the Colorado River Basin Salinity Control 
Program. These Federal dollars, if earmarked, would be augmented by 
state cost sharing of 30 percent with an additional 30 percent provided 
by the agricultural producer with whom the Department of Agriculture 
contracts for implementation of salinity control measures. The Colorado 
River Board supports the recommendation of the Forum. The salinity 
control program has proven to be a very cost effective approach to help 
mitigate the impacts of higher salinity. Continued Federal funding of 
the program is essential.
    In addition, the Colorado River Board recognizes that the Federal 
government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
be honored, it is essential that in fiscal year 2002 and in future 
fiscal years, the Congress provide funds to the Department of 
Agriculture to allow it to continue providing needed technical support 
to the producers for addressing salinity control in the Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 17 million residents of southern California as 
well as throughout the Lower Colorado River Basin. As stated earlier, 
preservation of its quality through an effective salinity control 
program will avoid the additional economic damages to users of Colorado 
River water in California, Arizona, and Nevada.
    The Colorado River Board greatly appreciates your support of the 
Federal/State Colorado River Basin Salinity Control Program and again 
asks for your assistance and leadership in securing adequate funding 
for this program.
                                 ______
                                 

            Prepared Statement of Colorado State University

    Mr. Chairman, Members of the Subcommittee, my name is Anthony 
Frank. I am Vice President for Research and Information Technology at 
Colorado State University, located in Fort Collins, Colorado. I 
appreciate this opportunity to submit my testimony for the record of 
proceedings on the fiscal year 2002 Department of Agriculture Budget. I 
am happy for this opportunity to thank you for your previous support of 
the Russian Wheat Aphid research program and the Center for 
Economically Important Infectious Animal Diseases. I would like to 
update you on these two programs.
    As you know, this Committee has provided federal funds to support 
Russian Wheat Aphid (RWA) research at Colorado State University. The 
Russian Wheat Aphid research program is a five-year $1.25 million 
($250,000 per year) initiative to develop methodologies that will 
control the aphid and diminish the significant costs of lost wheat 
production and insecticide applications in western wheat producing 
areas. We are entering our final year of research activities for which 
we require federal financial support.
    In 1997, Colorado experienced its worst RWA infestation in 10 
years, costing about $10 million in insecticide application alone. In 
2000, RWA damage was widespread and especially threatening throughout 
the wheat growing region. This pest costs wheat producers in Colorado 
alone, where the RWA is especially troublesome, over $11 million per 
year in direct economic loss.
    Through Federal, State government, and private assistance, CSU 
researchers have made significant progress in combating the RWA. About 
$1 million per year is invested in RWA research and outreach from 
state, university and industry sources. The most notable achievement is 
the creation and production of the first commercial variety of RWA 
resistant wheat, called ``Halt.'' After seven years of extensive 
development and testing, it became available to growers for planting in 
the fall of 1996. Early results indicate that farmers who plant 
``Halt'' and experience RWA infestations can save a minimum of $12 to 
$13 per acre. In the worst year of RWA infestation, the elimination of 
insecticide treatments alone would have saved Colorado farmers at least 
$13.8-$15 million. Since the introduction of ``Halt,''four other wheat 
cultivars have been released: ``Prairie Red,'' ``Prowers,'' ``Prowers 
99,'' and ``Yuma''.
    A long-term solution to the Russian wheat aphid problem requires 
the development of additional cultivars with multiple sources of 
resistance. The process of identifying, developing and testing takes 
several years. The accomplishments of this five-year program will lay a 
foundation for an on-going, but much less costly effort, which will 
continue, without federal funds, to provide growers with cost-
effective, environmentally sound management of RWA into the future.
    Your committee has also acknowledged the importance of research in 
animal infectious diseases and has supported our Center for 
Economically Important Animal Infectious Diseases for the past three 
years.
    The Center for Economically Important Infectious Animal Diseases is 
working to prevent or control those infectious diseases that are the 
most economically devastating to the animal industry. Chief among these 
are vesicular stomatitis, bovine tuberculosis, transmissible spongiform 
encephalopathy (chronic wasting Importantly, the Center, working 
closely with local USDA and CDC laboratories, represents a significant 
component of our nation's ability to respond to other emerging threats 
to animal agriculture.
    Despite the fact that vesicular stornatitis has been present since 
1995, very little is known about it. The virus emerges and then 
disappears. It appears to be concentrated in the Southwest, Rocky 
Mountains and Great Plains and to affect primarily cattle, horses and 
swine. Scientists haven't been able to identify how the virus is 
transmitted, nor identify its host. And, equally important, scientists 
don't know if the disease can be spread to other species.
    Bovine tuberculosis infects approximately 50 million cattle. It is 
a recognized cause of tuberculosis in humans. Tuberculosis in cattle 
impacts milk production, weight and reproduction. This disease costs 
cattlemen approximately $378 million annually. Although much progress 
has been made in controlling this disease in the U.S., there is still 
considerable threat to beef herds primarily due to the inadequate 
testing and quarantine of steers entering from Mexico and the lack of 
an effective diagnostic tool that can be used on the farm.
    Chronic wasting disease is a strain of transmissible spongiform 
encephalopathies. ``Mad cow disease'' falls into this category. Chronic 
wasting disease has been showing up in deer and elk along the northern 
Front Range of Colorado. Very little is known about how this disease is 
transmitted or its potential for transmission to related species.
    During the past three years, the Center has been involved in many 
research projects and is recognized nationally and internationally as 
the leading entity in the field of infectious animal diseases and food 
safety pathogens. During this time, it has made major contributions 
related to the following animal diseases:
Vesicular Stomatitis
  --Development of a laboratory test that is better and faster for 
        detecting VS virus in infected animals and insects.
  --Use of Geographical Information Systems software to understand how 
        the disease spreads and why some animals get the disease.
  --Collection of data to determine how the virus is maintained in the 
        environment when it is not causing disease outbreaks.
Mycobacterium bovis and Mycobacterium tuberculosis
  --Development of a laboratory test that can identify a greater 
        percentage of animals shedding the bacterium, and development 
        of a similar laboratory test for captive elephants and other 
        non-domestic species.
Mycobacterium avium subsp. paratuberculosis (Johne's disease)
  --Development of more sensitive laboratory tests for use in young 
        cattle so that infected animals can be removed as early as 
        possible to decrease spread and reduce costs.
Food safety
  --Determination of the optimal type and number of diagnostic tests 
        for identifying Toxoplasma gondii in pigs in order to increase 
        cost-effectiveness while maintaining sensitivity.
Clostridium perfringens
  --Development and optimization of tests to detect C. perfringens in 
        equine fecal samples and environmental samples.
  --Identify some of potential risk factors for future development of a 
        plan to prevent this disease in foals.
Brucella abortus
  --Development and testing of new oral formulations of vaccine for use 
        in bison and wild ungulates in Yellowstone National Park and 
        elsewhere, as conventional intra-muscular injections are not 
        easy to use in wild species.
    Continued appropriations will enable the Center to advance its work 
in the following areas: (1) detection of economically critical diseases 
early, including the development of diagnostic tests that may be 
performed on the farm; (2) evaluation of prevention strategies, 
including vaccination programs for efficiency and cost effectiveness; 
(3) analysis of the impact of animal movement and trade on the spread 
of infectious diseases; and (4) using analytical tools, including risk 
assessment and geographic information systems, determination of risk of 
the spread of economically critical infectious diseases.
    Once again, I thank you for the financial investment you have made 
to the Russian Wheat Aphid research program and to the Center for 
Economically Important Animal Infectious Diseases and look forward to 
your continued support.
                                 ______
                                 

               Prepared Statement of Columbia University

    Mr. Chairman, thank you for this opportunity to submit a statement 
for the Outside Witness Hearing Record. This statement provides a 
recommendation to improve and refine one of USDA's primary missions and 
goals relating to U.S. agriculture, the development of world supply and 
demand estimates for agricultural production and products.
    The supply and demand analysis that USDA conducts requires the most 
accurate tools and mechanisms available. Columbia University's 
International Research Institute for Climate Prediction is recognized 
as the leader in climate modeling and interannual to seasonal 
forecasting. The IRI's partnership with USDA in would result in 
improved supply and demand estimates, and therefore be of immense 
benefit to the U.S. agricultural economy. The details of this proposed 
linkage are discussed below.
                               objectives
    (1) $1 million for the involvement of IRI analysis and expertise to 
utilize improved and available tools and mechanisms for foreign 
agricultural supply and demand estimates. (2) $1 million for support of 
the IRI's Center for Health and Food Security for the development of an 
independent institution that will focus on Africa and work 
cooperatively with the Federal Government in the accomplishment of USDA 
missions and goals.
                               background
    USDA's World Supply and Demand estimates for agricultural products 
could utilize, but currently do not, the most sophisticated and 
accurate analytical tools available. The importance of advanced 
planning in crop production and reserve stocks in times of fluctuating 
foreign demand can assist the agricultural economy in maintaining 
financial stabilization and provide warnings to mitigate foreign 
famine. Foreign draught and famine, in addition to the tolls of human 
life and suffering, cause social and political unrest in third world 
countries, contributing to instability and economic hardships on third 
world national economies. Improved supply and demand estimates assist 
domestic producers and the entire agricultural economy, as well as 
provide the advance planning necessary to avoid or minimize damage in 
third world economies.
    Columbia University's International Research Institute for Climate 
Prediction has developed the world's most accurate and long-range 
climate models and forecasting techniques in the areas of temperature 
and precipitation variability from average conditions. These two 
factors determine the surplus or deficit in foreign agricultural 
production. USDA does not currently utilize IRI analysis or input. 
Improvement of the accuracy of USDA's long-range supply and demand 
estimates could be achieved with the involvement of IRI analysis and 
expertise in the an effort to obtain the necessary and available tools 
and mechanisms for foreign agricultural supply and demand estimates.
    Africa represents the most vulnerable continent to temperature and 
precipitation variations caused by climate forcing agents such as El 
Nino and La Nina. The IRI is establishing a Center for Health and Food 
Security that will integrate global interannual to seasonal forecasts 
with regional climate modeling to provide the most accurate climate 
forecasting and predictive analysis for private and governmental 
decision makers. The agricultural component of this effort is crucial 
to the production of USDA's supply and demand estimates, and also to 
key planting decisions both within the U.S. and abroad. The IRI's 
Center for Health and Food Security will focus on Africa and function 
as an independent institution that will work cooperatively with the 
Federal Government in the accomplishment of USDA missions and goals.
    Thank you for this opportunity to submit this proposed linkage for 
the Subcommittee's consideration in deliberations on the fiscal year 
2002 Agriculture Appropriations Bill.
                                 ______
                                 

            Prepared Statement of Community Medical Centers

    Mr. Chairman and Members of the Subcommittee: My name is Dr. Philip 
Hinton and I am the Chief Executive Officer of Community Medical 
Centers in Fresno, California. Community Medical Centers is a not-for-
profit, locally owned healthcare corporation that is committed to 
improving the health of the community. I am pleased to provide the 
subcommittee with a request for assistance in securing Federal monies 
for a critical project in the Central San Joaquin Valley that would 
improve healthcare delivery to the growing Hispanic and minority 
populations by creating a network of clinics accessible to the rural 
areas. These populations in the five county area of Fresno, Madera, 
Tulare, Kings and Mariposa face some of the most devastating and worst 
health outcomes in the state of California and in the nation:
  --the third highest asthma mortality rate in the nation;
  --the highest rates of teen pregnancy in the state;
  --the highest incidence of diabetes among the Hispanic population
  --late or no prenatal care for pregnant women
  --greater likelihood for newborns to be of low birth weight than the 
        rest of the state
  --some of the lowest immunization rates in the nation (62 percent at 
        age 2 versus 79 percent nationally)
  --the highest rates of syphilis in the state.
    These health outcomes are not acceptable and yet they exist because 
of the following reasons:
  --Limited access to care
    --Low ratio of primary care providers to population. Fresno County 
            has 178 physicians/100,000 population vs. 235/100,000 in 
            the state.
  --Virtually no specialist care located in rural areas
    --Isolation of rural communities from urban areas and poor public 
            transportation.
  --Financial constraints
    --Many people are without health insurance
    --Accessing healthcare in the urban areas results in a day's lost 
            wages
    --Lack of childcare providers means that patients must bring their 
            entire family with them when they visit the clinic.
  --Educational issues concerning health
    --Lack of understanding of preventive care
    --Cultural barriers to addressing health issues before they become 
            acute crisis
  --Language barriers
    --Over 100 languages are spoken in the area
    Coupled with high unemployment rates that are twice the state and 
three times the national average, and adults and children living below 
the poverty line hovering at 25 percent and 32 percent respectively, 
the statistics and indicators point to the need for aggressive action 
to address the tremendous health care needs of the population in this 
five county area.
    Community Medical Centers proposes to address this health situation 
with a pilot project to improve the health of farm workers and 
residents of the rural communities who make up 41 percent of the 
population of the region.
    Community Medical Centers has proposed developing a collaborative 
network that will include local healthcare providers, Federally 
Qualified Health Centers, county health and human services agencies, 
local hospitals, dentists, schools, churches and local communities. The 
network will work to aggressively deliver both preventive and primary 
health care to the people of the five county region. The new Regional 
Health Center on the campus of the Regional Medical Center in downtown 
Fresno will be the center for coordinating these activities. The new 
Regional Health Center is just one component of a more comprehensive, 
$210 million medical complex that will also include a new facility to 
house Level I burn and trauma services, emergency services, in-patient 
surgery, cardiac services and intensive care beds as well as a 
University of California San Francisco (UCSF) Medical Education and 
Research Center to house the teaching program. The Regional Health 
Center will deliver primary and specialty care, offer easy access to 
higher level care in an inpatient and outpatient setting, and access 
the faculty and residents of the UCSF-Fresno Medical Education Program.
    This $35 million project will:
  --Improve access to the rural areas by partnering with existing 
        centers and local healthcare providers to provide access for 
        all patients and utilize and coordinate mobile health care 
        units to go into the areas that are under-served. In addition, 
        provide trained bilingual personnel to qualify people for 
        health care programs and educate them about preventive care.
  --Focus on preventive care and high prevalence diseases by offering 
        asthma education and management programs; early diagnosis, 
        dietary and medical management of diabetes; teen pregnancy 
        prevention programs; prenatal care; screenings for cancer, 
        diabetes and high blood pressure; and dental and mental health 
        services.
  --Result in a healthier community by providing primary care to a 
        significant portion of the population and reducing their 
        dependency on hospital emergency rooms for these services; 
        improve people's quality of life and health thereby reducing 
        hospital admissions for asthma, diabetes, hypertension and 
        complications associated with these diseases; reduce the number 
        of premature births.
  --Realize significant savings in medical costs by focusing on the 
        health needs of the population and emphasizing prevention and 
        disease management as opposed to depending on hospitalization 
        for primary care. We predict a 20 percent decrease in emergency 
        room visits and hospitalization that would result in a 
        significant savings of $18 million per year.
    The human statistics point to the need to address this situation 
now before it progresses to a crisis. Community Medical Centers is 
working with the County of Fresno to contribute $17.5 million of state 
and local monies toward this pilot project. These monies, coupled with 
an additional $17.5 million from the Federal government, would provide 
key funding support and ensure completion of this critical health care 
initiative facing our community.
    We have identified the USDA Rural Community Facilities Loans and 
Grants program funded by the appropriation bill for Agriculture, Rural 
Development and Related Agencies as a source of funds. Because our 
pilot program would serve a vastly under-served rural population with 
significant health care needs in a five county area, we request your 
assistance in including a $17.5 million ``soft'' earmark of these funds 
to establish a comprehensive primary care and disease prevention 
program for the residents of these areas. Language in the bill's 
accompanying report acknowledging the Committee's understanding of our 
need may prompt the USDA's reviewing authorities to look more favorably 
on our application for program funding, an application process that we 
are committed to undertake.
    Enclosed is a recent article in the Fresno Bee that highlights the 
crisis in healthcare that we are facing in the area. The emergency 
departments in area hospitals are overcrowded and inundated by people 
who could best be served in a primary care setting that we are 
proposing. Unless, this critical situation is addressed soon, the 
conditions will only worsen.
    We appreciate your attention to this matter and we hope that you 
will favorably consider our request to improve healthcare delivery in 
the Central San Joaquin Valley in California.
                                 ______
                                 

Prepared Statement of the Council for Agricultural Research, Extension, 
                              and Teaching

    Thank you, Mr. Chairman. I appreciate the opportunity to provide 
testimony again this year in support of the highly successful research, 
education, and extension partnership between the United States 
Department of Agriculture (USDA) and the Land-Grant University System.
    My name is Daniel M. Dooley, Chairman of the Council for 
Agricultural Research, Extension, and Teaching, commonly called CARET. 
CARET is a national group of lay support persons working on behalf of 
the Land-Grant University System. The CARET group, a collaboration of 
farmers, ranchers and others interested in maintaining America's 
competitive edge, was formed a number of years ago for the expressed 
purpose of enhancing national support and understanding of the 
important role played by the land-grant colleges in the food and 
agriculture systems, as well as the role of this system in enhancing 
the quality of life for all citizens of the nation.
    Each of the CARET members from across the land can share from 
personal experience the importance of maintaining a competitive 
technological edge. In my particular case, I have benefited from 
university research that has substantially improved production and 
reduced costs by limiting chemical usage.
    I will not burden you with a recitation of all of the contributions 
that the Land-Grant University System partnership with USDA has made to 
America's food, fiber, and agricultural production system. I do want 
you to know, however, that this unique partnership has been an 
essential ingredient to the success of American agriculture and the 
health of the American public--in essence, the foundation of this 
nation's way and quality of life.
    Suffice it to say, the Land-Grant University System is very unique 
and has been a critical component to the long-term success of the 
nation's agricultural community. It has provided technology and 
education enabling farmers, ranchers, and other stewards of natural 
resources in this country to manage their productive resources in a way 
that is efficient, yields the greatest and most nutritious quality and 
quantity of food in the world, and protects the natural environment. 
The contributions of the Land-Grant University System to American 
agriculture has had an enormous impact on the nation's economy, our 
balance of trade, the quality of our workforce, and the health and 
quality of life for every American citizen. Indeed, the greatest single 
investment you can make in the long-term health of the American people 
is to ensure that appropriate investments are made in future technology 
for the food and fiber system. Unfortunately, this research and 
education system that has given so much to the country sometimes is 
taken for granted.
    The purpose of my testimony today is to request support for the 
fiscal year 2002 budget recommendations of the National Association of 
State Universities and Land-Grant Colleges (NASULGC) Board on 
Agriculture. CARET joins NASULGC in calling for a doubling of the 
nation's agricultural research and education funding over the next five 
years--$200 million in fiscal year 2002. CARET believes that this new 
funding will help the Land-Grant University System meet the challenges 
it will be called upon to address in maintaining a highly nutritious 
and healthy food supply, revitalizing our nation's communities (both 
rural and urban), cultivating an educated workforce, and protecting our 
natural environment. CARET also supports continued funding for the 
Initiative for Future Agriculture and Food Systems (IFAFS).
    Although the United States has the safest food supply in the world, 
millions of Americans are afflicted by food-borne illnesses each year. 
The young, elderly, and people with compromised immune systems are the 
most susceptible. Estimates of the annual health care costs for these 
illnesses range from $2.9 billion to $7 billion. Greater investment in 
the agricultural research and education system could help reduce the 
number of food-related illnesses and costs. Additionally, great 
opportunities exist to utilize technology to tailor food for specific 
health and nutrition benefits if proper investments are made.
    Conservation and economic growth require a delicate balancing act. 
While agriculture presents challenges to the environment, it also knows 
that the environment must be respected and protected. Science and 
education are helping the agricultural industry to protect fragile 
ecosystems and deal with urban expansion by developing sustainable 
production systems that protect the long-term productivity of essential 
resources. Funding of agricultural science and education programs will 
continue to ensure an adequate and safe food supply and the protection 
of our precious natural resources.
    For four decades, agricultural production in the United States has 
enabled an unyielding string of successes in our trade balance. Today, 
experts project that at least $60 billion in food and raw materials--
one-third of the nation's production will be sold overseas. Agriculture 
is one area in the nation's economy without a trade deficit. This 
competitive advantage should not be lost because of insufficient 
investments in our agricultural research and education system.
    All of the technology and knowledge in the world are useless 
without the well-trained mind of someone to learn from it, apply it, 
and expand it. Undergraduate education in colleges of agriculture and 
life sciences is largely neglected in Federal funding. All of the 
nation's students need to be equipped to become leaders in our nation's 
workforce. Their future and the nation's future are one in the same, 
and the nation can ill afford to poorly invest in this critical area.
    Tomorrow's science comes with a high price tag, with great advances 
in biotechnology, genetics, satellite imagery, and other highly 
technical fields looming on the horizon. Only if funding sources are 
adequate will new scientific investigation:
  --build agricultural production efficiency and profitability
  --protect the nation's environment
  --revitalize and sustain our nation's communities
  --bring diverse student populations into the food and agricultural 
        sciences
    The budget recommendations that are being advanced by CARET on 
behalf of the Land-Grant University System are the result of a broad 
number of stakeholder meetings and receipt of substantial input from 
those that benefit from the research and education activities.
    It is the belief of the CARET membership that doubling of the 
nation's agricultural research and education funding over the next five 
years--$200 million in fiscal year 2002--is the only way to equip 
American agriculture for the 21st Century. This amount of funding will 
facilitate the maintenance of America's competitive edge throughout the 
broad range of the production, processing, distribution, and retail 
system that moves commodities around the world. CARET also firmly 
believes that this funding level for agricultural science and education 
will enhance the health and welfare for our own citizenry as well as 
the people of the world. Certainly, we do not want the recent headlines 
about the food supply in the European community and other places in the 
world to be the future headlines in American newspapers.
    So, when you go home tonight and sit down at your dinner table, 
just remember that you do not have to think or worry about: Will there 
be enough food for me and my family to eat? Will this food harm or make 
my family and me sick if we eat it?
    However, if adequate funding for agricultural research and 
education is not provided now and in the future, your children and 
grandchildren may have to worry about these and many other questions in 
relation to the food and fiber that the nation produces and consumes.
    Thank you for this opportunity to provide this testimony in support 
of the appropriations for continuing the fine work being done and the 
work that must be done at America's Land-Grant University System--a 
true national treasure!
                                 ______
                                 

              Prepared Statement of Defenders of Wildlife

    On behalf of our 435,000 members and supporters nationwide, 
Defenders of Wildlife thanks you for the opportunity to submit 
testimony on the fiscal year 2002 Agriculture Appropriations bill. 
Defenders is a national, non-profit organization dedicated to the 
protection of wild animals and plants in their natural communities. We 
focus our efforts on the accelerating rate of extinction of species and 
the associated loss of biological diversity, and on habitat alteration 
and destruction. Consequently, we have a special interest in the U.S. 
Department of Agriculture's natural resource protection programs. These 
programs include the Wildlife Habitat Improvement Program (WHIP), the 
Wetland Reserve Program (WRP), the Farmland Protection Program (FPP), 
the Environmental Quality Incentives Program (EQIP), the Conservation 
Reserve Program (CRP), and the Conservation Reserve Enhancement Program 
(CREP). We also strongly support the proposed Conservation Security Act 
(CSA) because of its potential beneficial impacts on wildlife habitat 
and ecosystem quality.
    Most farmers who volunteer to participate in the USDA's natural 
resource protection programs are turned away due to lack of funding. 
Defenders of Wildlife therefore strongly supports the fiscal year 2002 
appropriation of $150 million for WHIP, $300 million for WRP, $200 
million for FPP, and $550 million for EQIP, and adequate funding for 
other natural resource protection programs offered through the USDA. We 
oppose any efforts to zero-fund WHIP, WRP, and FPP in fiscal year 2002.
    Effective implementation of USDA conservation programs requires 
increased technical assistance at the field level. Nominal funding 
levels for resource conservation technical assistance and research have 
remained practically unchanged over the last few years, despite a USDA 
mandate to implement more conservation programs over a broader 
geographical area. In real terms, Federal funding for technical 
assistance to deliver conservation programs, and for the research and 
development of new conservation technologies, has actually declined 
over the last ten years. This situation has resulted in the inability 
of reduced staffs to provide effective and efficient service to the 
growing numbers of producers waiting to participate in conservation 
programs. Defenders of Wildlife therefore encourages the fiscal year 
2002 appropriation of $1,710,000 for Conservation Technical Assistance 
in support of USDA conservation programs.
    A major constraint to improving the effectiveness and efficiency of 
existing USDA conservation programs is the lack of adequate monitoring 
and evaluation of field level projects and their impacts on natural 
resource quality, especially native wildlife and their habitats. 
Defenders of Wildlife believes that $5 million should be allocated to 
defining and implementing a pilot monitoring program(s) over the next 
two years to evaluate conservation program impacts toward achieving 
improved native wildlife habitat, water and air quality, and soil 
health. Defining and implementing a pilot monitoring program(s) would 
be a cooperative effort involving the United States Department of 
Agriculture, the United States Environmental Protection Agency, the 
United States Fish and Wildlife Service, the National Marine Fisheries 
Service, and the United States Geological Survey. The experience from 
this pilot effort would be used in designing a permanent monitoring and 
evaluation program.
    Applied research is lagging behind increased regulatory 
requirements that mandate producers to improve the environmental and 
ecological performance of their operations. Defenders of Wildlife 
proposes that producers receive incentives for research, development, 
and testing of new conservation management practices. Such a program 
would require an fiscal year 2002 appropriation of $10 million.
    The Land Grant Universities and the USDA Agricultural Research 
Service also require increased financial support for research and 
development of production practices that, to the extent possible, 
simultaneously meet profit and production goals and reduce adverse 
environmental impacts on wildlife habitat, water, air, and soil 
resources. Defenders of Wildlife supports funding of this program at 
$20 million for fiscal year 2002.
     In fiscal year 2002, the USDA has a tremendous opportunity to 
assist agricultural producers to be effective stewards of natural 
resources on their lands. The appropriations amounts recommended this 
testimony would make realization of that opportunity possible.
    On behalf of Defenders of Wildlife, I thank you again for this 
opportunity to submit testimony.
                                 ______
                                 

                   Prepared Statement of Easter Seals

    Easter Seals appreciates the opportunity to report on the notable 
accomplishments of the USDA Cooperative State Research, Education, and 
Extension Service (CSREES) AgrAbility Program and request that funding 
for the AgrAbility Program be increased to $4.6 million in fiscal year 
2002.
    The AgrAbility Program is an essential, unduplicated, hands-on 
resource for farmers, ranchers, and farmworkers with disabilities and 
their families. AgrAbility is the only USDA program dedicated 
exclusively to helping agricultural producers with disabilities. The 
Secretary of Agriculture hailed the importance of the program at an 
event held at USDA in July 2000 to celebrate the tenth anniversary of 
the Americans with Disabilities Act. This event was held to celebrate 
AgrAbility as USDA's contribution to fulfilling the promise of the 
Americans with Disabilities Act. It demonstrates the value of public-
private partnership by securing donations of funds, talent, and 
materials to magnify the impact of a modest Federal investment. The 
fiscal year 2001 appropriation of $2.8 million funds 18 state programs.
                        disability & agriculture
    Agricultural production is one of the nation's most hazardous 
occupations. Each year, approximately 200,000 people working in 
agriculture experience injuries that limit their ability to perform 
essential farm tasks. Tens of thousands more become disabled as a 
result of non-farm injuries, illnesses, other health conditions, and 
the aging process. Approximately 500,000 agricultural workers 
nationwide have physical disabilities that prevent them from performing 
one or more essential farm tasks.
    The presence of a disability jeopardizes rural and agricultural 
futures for many of these individuals. Rural isolation, a tradition of 
self-reliance, and gaps in rural service delivery systems frequently 
prevent agricultural workers with disabilities from taking advantage of 
growing expertise in modifying farm operations, adapting equipment, 
promoting farmstead accessibility, and using assistive technologies to 
safely accommodate disability in agricultural and rural settings. Yet, 
with some assistance, the majority of disabled agricultural workers can 
continue to earn their livelihoods in agriculture and participate fully 
in rural community life.
                 agrability's role and accomplishments
    The AgrAbility Program was established under the 1990 Farm Bill in 
response to the needs of farmers with disabilities. The Farm Bill 
authorizes the Secretary of Agriculture to make grants to Extension 
Services for conducting collaborative education and assistance programs 
for farmers with disabilities through state demonstration projects and 
related national training, technical assistance, and information 
dissemination. Easter Seals is proud to be a partner with the 
University of Wisconsin Extension Service to provide the national 
training and technical assistance portion of AgrAbility. Thousands of 
people in states with and without state AgrAbility projects are aided 
through this initiative.
    AgrAbility combines the know-how of the Extension Service and 
disability organizations to provide people with disabilities working in 
agriculture the specialized services that they need to safely 
accommodate their disabilities in everyday farm operations. AgrAbility 
received strong bipartisan support during the 1998 reauthorization of 
the USDA research and education programs, and was extended through 
fiscal year 2004. The $6 million authorization level for AgrAbility was 
continued.
    Under the statute, state and multi-state AgrAbility projects engage 
Extension Service agents, disability experts, rural professionals, and 
volunteers to offer an array of services, including: identifying and 
referring farmers with disabilities; providing on-the-farm technical 
assistance for agricultural workers on adapting and using farm 
equipment, buildings, and tools; restructuring farm operations; 
providing agriculture -based education to prevent further injury and 
disability; and, upgrading the skills of Extension Service agents and 
other rural professionals to better promote success in agricultural 
production for people with disabilities.
    In 2001, USDA received an allocation from Congress of $2.8 million. 
These funds support eighteen state projects in Colorado, Delaware, 
Illinois, Indiana, Iowa, Kentucky, Minnesota, Mississippi, Missouri, 
Nebraska, North Carolina, North Dakota, Pennsylvania, South Dakota, 
Tennessee, Texas, Utah, and Wisconsin.
    AgrAbility provides customized assistance to farmers, ranchers, and 
farmworkers with disabilities and their families. The nature and degree 
of assistance depends on the individual's disability, needs and 
agricultural operation. For Example:
  --Grover Greer, of Anguilla, Mississippi, has farmed in the 
        Mississippi Delta for 26 years. Thanks to the work of 
        AgrAbility and other state agencies, his son is now doing the 
        same. Born with cerebral palsy, Jonathan, 17, operates a 25-
        acre turfgrass business. A hoist and hand controls allow 
        Jonathan to independently operate his tractor to irrigate and 
        maintain the grass. While they anticipate the business growing 
        and providing Jonathan with employment, Grover says, ``The more 
        important point is that he is happy and self-sufficient.'' 
        Jonathan is putting to good use his abilities and motivation to 
        be a successful turfgrass farmer.
  --Max Rodemeyer from Latimer, Iowa was diagnosed with Multiple 
        Sclerosis in his twenties. Now in his forties, he has 
        difficulty climbing, crouching and walking long distances. With 
        these limitations, he was unsure whether or not he could 
        continue to operate his 900-acre family farm. Through 
        modifications recommended by Iowa AgrAbility, a joint effort 
        between Iowa State University Extension and Easter Seals Iowa, 
        Mr. Rodemeyer has been able to remain gainfully engaged in 
        farming. Mr. Rodemeyer uses a Kawasaki Mule, All Terrain 
        Vehicle to get from building to building and to check his 
        crops. All of his tractors have lower and wider steps to make 
        it easier for him to mount and dismount. Mr. Rodemeyer uses a 
        special seed vacuum to load seeds into his planter, as he is 
        not able to lift 50-pound bags. Through these modifications, 
        and the assistance of Iowa AgrAbility, Max is doing what he 
        always has done and what he wants to continue to do, farm.
  --Richard Mauer, of Newport, Pennsylvania, has operated his 450-acre 
        dairy farm since he purchased it from his father in 1966. 
        Thirty years later, a stroke that left Mr. Mauer partially 
        paralyzed threatened his ability to remain in farming. After 
        reading about AgrAbility in a magazine, Mr. Mauer contacted 
        AgrAbility for Pennsylvanians to seek assistance. AgrAbility 
        staff helped Mr. Mauer make modifications to his farm including 
        extra steps on tractors, a new more automated milking system 
        with computerized monitors and automatic shut-off mechanisms, 
        and a automatic wagon hitch that minimizes the number of times 
        Mr. Mauer must climb on and off a tractor. These modifications 
        have helped Mr. Mauer remain in farming, and his farm currently 
        produces approximately 550 gallons of milk a day. He also 
        serves as a mentor for other farmers with disabilities 
        throughout Pennsylvania. Overall, AgrAbility Projects in 24 
        states along with the national project accomplished the 
        following since 1991:
  --provided assistance, including nearly 5,000 on-site visits, to over 
        8,760 farmers, ranchers and farmworkers or their families 
        affected by disability;
  --educated over 137,000 agricultural, rehabilitation, and health 
        professionals on safely accommodating disability in 
        agriculture;
  --recruited and trained more that 5,300 volunteers and peer 
        supporters to assist farmers, ranchers and farmworkers with 
        disabilities; and,
  --reached 9,500,000 people through more that 6, 100 exhibits, 
        displays, and demonstrations to increase awareness of the 
        challenges affecting and resources available to farmers, 
        ranchers and farmworkers with disabilities.
    Nationally, the AgrAbility technical assistance and education grant 
was awarded to Easter Seals national headquarters and the University of 
Wisconsin Extension Service in 2000. This new partnership is generating 
innovative and effective activities at the national level that will 
have a significant impact on the effectiveness of the state AgrAbility 
projects and the lives of farmers with disabilities. Some of the 
initiatives underway or planned at the national level include:
  --a national needs assessment conducted with state AgrAbility project 
        staff that will identify priorities for designing new tools and 
        training;
  --organizing a consensus conference with the Farm Foundation to 
        engage leading agricultural interests in identifying and 
        addressing concerns of farmers with disabilities;
  --refining the AgrAbility website, including offering AgrAbility 
        technical information and tools electronically that were 
        previously only available in paper format;
  --developing a comprehensive training package on rural case 
        management with the Marshfield Clinic and National Farm 
        Medicine Center; and,
  --developing distance education programs for State AgrAbility Project 
        staff to increase access to training.
                    impact of current funding levels
    A funding floor of $150,000 per state was set in the 1990 Farm Bill 
to assure that the state programs were appropriately resourced to meet 
diverse, statewide agricultural accommodation needs. However, because 
funding has not approached the $6 million authorized level, state 
projects have only received slightly over $100,000 per state. In the 
1998 reauthorization of the USDA research and education programs, the 
Committee reaffirmed a commitment to that funding floor of $150,000 per 
state. Easter Seals strongly supports full funding of state programs to 
4 assure that they continue to be effective for farmers with 
disabilities. The fiscal year 2002 request of $4.6 million would bring 
all current states up to the $150,000 level and would allow eight 
currently unserved states to implement AgrAbility programs.
    AgrAbility projects are underfunded relative to need and objective. 
At the current funding level, only a few staff can be hired to provide 
statewide education and assistance to farmers with disabilities, 
educate rural professionals, recruit volunteers, and work with rural 
businesses on disability-related issues. Rising demand for services and 
the great distances that must be traveled to reach farmers and ranchers 
severely strains even the most dedicated of AgrAbility's outstanding 
staff. Easter Seals fears that failure to invest adequately in this 
worthwhile program will ultimately cause it to falter.
    One of the consequences of limited funding is that, in every grant 
cycle, some states with existing AgrAbility programs and a demonstrated 
need for services, are not renewed and are forced to discontinue 
services to farmers with disabilities in that state. These states often 
have difficulty obtaining the access to the limited public and private 
funding sources that the Federal seed money granted them. More than a 
dozen states have sought AgrAbility funding without success. Other 
states, including Louisiana, Michigan, Montana/Idaho, New Hampshire, 
New Jersey, New York, South Carolina, Ohio, and Vermont, had USDA-
funded AgrAbility projects in the past. Each of these states can 
demonstrate significant unmet needs among farm and ranch families 
affected by disability that AgrAbility could potentially address. Any 
loss of programs will greatly affect farmers with disabilities in 
states for whom AgrAbility is the primary resource through which they 
seek information and assistance on farming with a disability.
                            funding request
    The need for AgrAbility services has never been greater, and its 
accomplishments to date are remarkable by any standard. Easter Seals is 
proud to contribute to the ongoing success of the USDA-CSREES 
AgrAbility Program. Please support the allocation of at least $4.6 
million for AgrAbility in fiscal year 2002 to ensure that this valuable 
public-private partnership continues to serve rural Americans with 
disabilities and their families. Thank you for this opportunity to 
share the successes and needs of the USDA AgrAbility Program.
                                 ______
                                 

             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for the opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University (FSU).
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research and top quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities and have a 
strong commitment to public service. Among the faculty are numerous 
recipients of national and international honors, including Nobel 
laureates, Pulitzer Prize winners as well as several members of the 
National Academy of Sciences. Our scientists and engineers do excellent 
research, have strong interdisciplinary interests, and often work 
closely with industrial partners in the commercialization of the 
results of their research. Having been designated as a Carnegie 
Research I University several years ago, Florida State University 
currently is approaching $125 million per year in research awards.
    FSU will soon initiate a new medical school, the first in the U.S. 
in over two decades. Our emphasis will be on training students to 
become primary care physicians, with a particular focus on geriatric 
medicine-consistent with the demographics of our state.
    Florida State attracts students from every county in Florida, every 
state in the nation, and more than 100 foreign countries. The 
University is committed to high admission standards that ensure quality 
in its student body, which currently includes some 192 National Merit 
and National Achievement scholars, as well as students with superior 
creative talent. We consistently rank in the top 25 among U.S. colleges 
and universities in attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
universities.
    Mr. Chairman, let me tell you about a project we are pursuing this 
year through the U.S. Department of Agriculture/Agricultural Research 
Service Account. Florida State University (FSU), Harbor Branch 
Oceanographic Institution (HBOI), and USDA's Agriculture Research 
Service (ARS) are collaborating on a five-year research and development 
program to design low-cost, energy efficient recirculating aquaculture 
production systems for marine species in new environments. These 
efforts will expand the aquaculture opportunities for subtropical 
marine species to inland sites throughout the southern United States.
    There is an increasing global awareness of the need for sustainable 
aquaculture development. By the year 2025 global population is 
projected to reach 8.5 billion, with a projected demand for seafood of 
120 million metric tons (MMT). Capture fisheries reached the carrying 
capacity more than ten years ago, but the demand for seafood has shown 
no signs of abating. The Food and Agriculture Organization (FAO) 
reported that in 1995 aquaculture only accounted for 26 percent of the 
total world harvest of food fish. In 1997, U.S. seafood imports 
increased both in volume and value with shrimp topping the list at 
278,600 metric tons valued at $2.7 billion dollars. Shrimp imports 
continue to be the second largest contributor to the U.S. trade deficit 
and it is expected that finfish imports will follow the same scenario. 
There remains a great need for U.S. aquaculture production to fill this 
void and relieve some of the harvest pressure on wild fish stocks.
    Competition for access to the limited U.S. coastal land resources 
requires innovative approaches to develop and expand marine aquaculture 
into new environments. HBOI has work underway demonstrating that many 
saltwater species thrive in freshwater systems with the appropriate 
chemical makeup. Experimental and demonstration trials have shown that 
some species of marine fish and shrimp can be successfully acclimated 
and grown to market size in hard freshwater systems, thus, expanding 
the sites where marine species can be cultured.
    In response to public concern about environmental protection of 
coastal waters and producer concern about biosecurity to protect farmed 
aquatic resources from disease and poor water quality, farmers are 
turning to recirculating aquaculture production systems. In many 
locations around the U.S., regulatory constraints already require the 
use recirculating aquaculture systems. In order to use these systems to 
produce marine finfish, we need to improve the filtration efficiency 
and develop cost effective recirculating production systems.
    The objectives of the five-year research program are to: develop 
the culture technology to produce marine or brackish water species in 
new environments (i.e., fresh water); improve the energy efficiency 
(i.e., solar) and reduce the production costs for enclosed aquaculture 
production systems; and design low-cost recirculating systems for 
intensive aquaculture production. The goal of our work is to design a 
cost effective and energy efficient solar aquaculture system capable of 
sustained production of warm-water species throughout the year in 
colder climates. The research team will design and test low-cost 
recirculating nursery and growout production systems for marine 
finfish. Our design will also include a computer control system for all 
solar components, water and interior temperatures, recirculating 
systems, and other mechanical components. Findings will expand U.S. 
aquaculture production of saltwater species into new locals, result in 
better utilization of land resources and reduce the demand for imported 
aquaculture products.
    The collaborating institutions are seeking an appropriation of $1.7 
million in fiscal year 2002 to support the development of sustainable 
marine aquaculture systems through the U.S. Department of Agriculture's 
Agricultural Research Service (ARS) account.
    Mr. Chairman this is an excellent project that will yield great 
rewards for our nation and is just one of the many ways that Florida 
State University is making important contributions to solving some key 
problems and concerns our nation faces today. Your support would be 
appreciated, and, again, thank you for an opportunity to present these 
views for your consideration.
                                 ______
                                 

   Prepared Statement of Friends of Agricultural Research--Beltsville

    Mr. Chairman, and Members of the Subcommittee, thank you for this 
opportunity to present our statement supporting funding for the 
Department of Agriculture's Agricultural Research Service (ARS), and 
especially for the Agency flagship research facility, the Henry A. 
Wallace Beltsville Agricultural Research Center (BARC), in Maryland. 
Our organization--Friends of Agricultural Research--Beltsville--is 
dedicated to supporting and promoting the Center's agricultural 
research, outreach, and educational mission.
    Now without preliminaries, Mr. Chairman, we will go directly to the 
heart our recommendations, which are based on expressed industry needs 
and our consultations with the Department of Agriculture.
    We first will list three high priorities where we recommend 
establishing new research positions. Second, we will suggest relatively 
new or ongoing research areas that need additional funding. Last, we 
will allude to other fundamental research topics and needs.
                   recommendations for new positions
    Biochemist or Molecular Biologist Position for Dry Bean Research.--
American farmers annually plant two million acres to dry beans, 
generating a farm-gate cash value of approximately $280 million. 
Farmers plant another 300, 000 acres to snap beans for fresh markets 
and processing, generating approximately $280 million annually. The 
United States is one the world's largest exporter of dry beans. Much of 
the export goes to Africa and Latin American, where dry beans provide 
excellent sources of protein, vitamins, minerals, and calories for the 
diets of hungry, low-income people. Beans are important to the American 
diet as well.
    U.S. dry bean and snap bean production is constrained by persistent 
low yields and plant diseases. Production restraints are complex and 
poorly understood. Though traditional investigative approaches have 
produced several improved bean cultivars, further progress requires a 
more comprehensive, multidisplinary approach. Thus, we are pleased to 
join the National Dry Bean Council in recommending a new scientific 
position within the Vegetable Laboratory for developing molecular 
markers to identify genes for improving yields and resistance to 
diseases. The new position will contribute to dry bean improvement 
throughout the United States and beyond.
    Soil and Water/Hydrologist Position for Irrigation and Water 
Management Research in the Mid-Atlantic States.--Just in the past ten 
years, irrigation agriculture from New Jersey to Florida has grown by 
20 percent. Irrigation agriculture in the region now totals almost five 
million acres. Yet irrigation expertise and research are lacking. 
Growers need better information to manage irrigation timing and 
drainage to improve profitability and protect the environment from 
associated crop production risks. They need information about 
efficient, safe use of waste (recycled) water, especially for 
irrigating turfgrass and ornamental landscapes, and protecting local 
and regional water quality. They need strategies to deal with sporadic 
drought conditions and competition among alternative demands for local 
and regional water supplies. We concur in recommending a new science 
position to address these expanding issues.
    Research Position for Organic Farming Systems.--Certified organic 
cropland doubled from 1992 to 1997. Organic livestock sectors--eggs and 
dairy--grew even faster. Forty-nine states committed 1.3 million acres 
to organic production, two-thirds of them to crops in 1997. Almost half 
the states were raising certified organic livestock. Organic farming 
systems rely on cultural and biological pest management, virtually 
prohibiting synthetic chemicals in crop production and antibiotics or 
hormones in livestock production. Organic farming provides habitat for 
predators and parasites of crop pests. Organic farmers use planting, 
and harvesting dates and crop rotation to maintain soil fertility, and 
cycle animal and green manures as fertilizer. Approximately 2 percent 
of our best fruit and vegetable crop acreage--apples, carrots, lettuce, 
and grapes--was managed organically in 1997. Certified organic 
livestock production was less than one percent of total production but 
growing.
    Several USDA agencies are active in the expanding the organic 
farming industry. Since the early 1990s BARC has been in at the 
forefront of research on organic and sustainable farming systems. The 
Center needs this new position to enhance and expand its support of 
this rapidly growing sector of American agriculture.
                    recommendations for ongoing work
    Bio-mineral Soil Amendments for Nematode Control.--Losses to soil 
nematodes cost farmers billions every year. The soybean cyst nematode 
alone can cut soybean yields by 10 percent, often more. Citrus and 
vegetable crops also are vulnerable to intensive nematode damage. 
Growers are squeezed by expanding nematode infestations, developing 
nematicide resistance, and de-registration of traditional nematicides 
because of environmental concerns. BARC in cooperation with industry 
and others is pursuing new, more effective approaches to nematode 
control, including promising research lines using such re-cyclable soil 
amendments as animal wastes, composts, and mineral by-products. We 
recommend a substantial increase in funds supporting these promising 
approaches.
    Animal Improvement Programs.--For many years America's dairy cows 
have steadily increased milk production at the rate of about 45 gallons 
per year. Approximately two-thirds of those increase trace to genetic 
progress. Much of the credit for that success stems from the 
cooperative national and international genetic evaluation programs of 
BARC's award winning Animal Improvement Programs Laboratory. Now under 
funded, the laboratory needs additional support to continue its 
historical support for the nation's dairy farmers, livestock and food 
industries, and American consumers.
                     other research or initiatives
    Mr. Chairman, the foregoing includes only our most prominent 
recommendations. They are neither comprehensive nor exclusive. For 
instance, we recommend support for BARC's work on value-added products, 
co-utilization, and cooperation with industry to use foundry sand in 
soil amendments. Finally, we will note the exponential growth of a 
relative new field called ``agricultural bioinformatics,'' which 
generally refers to using advanced computer expertise to support such 
studies as genomics, molecular biology, gene and chromosomal mapping, 
and database mining for genetic improvement.
    Since our last statement before this Subcommittee, BARC has 
celebrated several milestone events marking the Center's long, 
distinguished record of leadership and accomplishment. In closing, we 
briefly will note selected BARC milestones and will allude to another 
milestone event planned for later this year.
    Last June BARC celebrated its 90th anniversary year. The event--in 
conjunction with BARC's annual public field day--featured priceless 
period photos and great research accomplishments through the decades. 
Also in June, the Center was officially named the Henry A. Wallace 
Beltsville Agricultural Research Center in honor of former Secretary 
Henry Wallace. During Secretary Wallace's tenure, BARC grew and 
expanded, shifted its emphasis from applied research to ``research into 
the laws and principles underlying agriculture in its broadest 
aspects.''
    In September, FAR--B was pleased to co-sponsor another in BARC's 
outstanding series of international symposia. This one, appropriately 
entitled Healthy Animals 2000, was markedly successful. Then just last 
month the American Society for Horticultural Science designated BARC a 
``Horticultural Landmark.'' The Society has declared only two other 
Historical Landmarks: Monticello, honoring our third President, and the 
Como Park Conservatory in St. Paul, Minnesota. Last, we note that BARC 
is planning a groundbreaking ceremony later this year to modernize the 
Beltsville Human Nutrition Research Center
    Mr. Chairman, that concludes our statement. We are grateful for 
your past support of the BARC mission. And, we again thank you for the 
opportunity to present our testimony.
                                 ______
                                 

        Prepared Statement of Friends of the National Arboretum

    Chairman Cochran and members of the Subcommittee, thank you for the 
opportunity to submit testimony in support of the U.S. National 
Arboretum (USNA) on behalf of Friends of U.S. National Arboretum (FONA)
    In 1997 the Agricultural Research Service (ARS) commissioned 
development of a new Master Plan for the USNA. The new Master Plan was 
developed under contract with the ARS by a noted outside consultant and 
was essentially completed by mid-1999. Since fiscal year 2000, FONA and 
key Members of Congress have been urging implementation of the new 
Master Plan, which should start with the capital funding for the design 
and implementation of such long lead-time items as the new entrance 
from Bladensburg Road and the new visitor's center. FONA respectfully 
requests $3,000,000 for planning, design and construction of the new 
entrance off Bladensburg Road and $110,000 for planning and design of 
the new Education and Visitors Center.
    FONA is advised that starting in fiscal year 2002, the Gardens Unit 
as well as the Education and Visitor Services Unit will have to 
decrease staff because of budgetary constraints at the very time that 
the success of the facility and interest in horticulture is bringing 
increased number of visitors to the site. These units have not had a 
program increase since fiscal year 1996 and are further threatened by 
having funds diverted to meet increased utility and service costs. FONA 
strongly urges an increase in the USNA's operating budget equivalent to 
7 FTE's for these key functions in fiscal year 2002.
    The Congressionally mandated purposes of the USNA are research and 
education. As part of the ARS, the USNA has a strong research program. 
Yet an independent consultant recently found that is was not very 
visitor friendly. Its Gardens Unit as well as its Education and Visitor 
Services Unit are chronically underfunded, and these components of the 
education function cannot compete favorably against research projects 
for program funding within the ARS. It has been the urgent 
recommendation of FONA that funding of the facilities component of the 
USNA, including specifically the Gardens and Education and Visitors 
Services Units, should be removed from within the Plant, Microbial, and 
Insect Genetic Resources, Genomics and Genetic Improvement (301) 
program area and established as a stand-alone program area. FONA urges 
implementation of this recommendation in the appropriation for fiscal 
year 2002.
    Thank you for your continued support of the national treasure that 
is our U.S. National Arboretum.
                                 ______
                                 

  Prepared Statement of the Coachella Valley Water District; Imperial 
   Irrigation District; the Metropolitan Water District of Southern 
            California; and San Diego County Water Authority

    This is a fiscal year 2002 budget request to provide $2 million 
from the Department of Agriculture's wildlife habitat program for 
habitat conservation and enhancement in and around the Salton Sea area 
related to agricultural activities in Riverside and Imperial Counties 
in California. The requested funds would be used to conserve and 
enhance habitat that could be affected by agricultural water use 
efficiency improvements needed in order to provide water to meet urban 
water needs in southern California, and do so without adversely 
impacting the region's farm economy. More effective water use is a 
critical part of California's Colorado River Water Use Plan.
    California's Colorado River Water Use Plan is a major undertaking 
by the State and its agencies that will enable California to reduce its 
reliance on Colorado River water by up to 800,000 acre-feet per year. 
In the past, California has taken up to 5.2 million acre-feet per year 
from the river; but due to increased use by other states, California 
must now find the means to live within its normal year apportionment of 
4.4 million acre-feet. Key components of California's Colorado River 
Water Use Plan include core voluntary cooperative water conservation/
transfers from agricultural use to urban use which are needed to meet 
California's water needs and maintain its urban and agricultural 
economies. At the same time, we must conserve and enhance critical 
wildlife habitats that could be affected by water conservation. 
California and its Colorado River water users will be making 
expenditures in the billions of dollars to implement California's 
Colorado River Water Use Plan.
    The requested funds would be used to create lower salinity habitat 
in the Salton Sea deltas and surrounding areas, provide for wetland/
upland restoration projects, and enhance piscivorous bird habitat. The 
local program implementing agency would be the Imperial Irrigation 
District.
    Our collective agencies thank you for your consideration of this 
important funding request, and respectively request that the funding be 
part of the Department of Agriculture's fiscal year 2002 budget.
                                 ______
                                 

     Prepared Statement of the Humane Society of the United States

    We appreciate the opportunity to provide testimony to the 
Agriculture and Rural Development Subcommittee on funding items of 
great importance to the Humane Society of the United States and its 7.7 
million supporters nationwide. As the largest animal protection 
organization in the country, we urge the Committee to provide these 
priority funding items in the fiscal year 2002 budget:
  --$3.8 million increase for Animal Welfare Act Enforcement, broken 
        down as follows:
    --$2.4 million increase for APHIS/Animal Welfare inspections
    --$1 million increase for APHIS/Investigative and Enforcement 
            Services
    --$400,000 increase for ARS/Animal Welfare Information Center
  --$325,000 for Iowa's Leopold Center for Sustainable Agriculture to 
        promote use of hoop barns, under the Cooperative State 
        Research, Education, and Extension Service
  --$1,988,673 for Wildlife Services Methods Development to conduct 1st 
        year of study evaluating relative effectiveness of non-lethal 
        and lethal predator control management for livestock protection
  --$102,000 increase for APHIS enforcement of Horse Protection Act
                     animal welfare act enforcement
    We are grateful that the Committee has begun to address the severe 
budget shortfall in the U.S. Department of Agriculture's Animal and 
Plant Health Inspection Service (APHIS)/Animal Welfare budget, by 
providing a $1 million increase in fiscal year 2000 and a $2 million 
increase in fiscal year 2001. Before that, as you know, funding for 
enforcement of the Animal Welfare Act had been stagnant since 1991. The 
Animal Care (AC) unit received $12.14 million in fiscal year 2001 to 
cover, among other things, inspections of approximately 10,000 separate 
locations at regulated entities--research facilities; exhibitors such 
as zoos and circuses; animal dealers and breeders; and animal carriers 
such as airlines and ground freight handlers.
    While the increases of the past two years are making a real 
difference, more is needed to ensure that regulated facilities and the 
public can depend upon having a high quality inspection program and 
consistent enforcement of the Animal Welfare Act's requirements. This 
is vital to protect the health and safety of millions of animals. It is 
also important for people, as strong enforcement protects them against 
(1) the sale of unhealthy pets by commercial breeding facilities 
commonly referred to as ``puppy mills''; (2) laboratory conditions that 
may impair the scientific integrity of animal-based research; (3) risks 
of disease transmission from, and dangerous encounters with, wild 
animals in or during public exhibition; and (4) injuries and deaths of 
pets on commercial airline flights due to mishandling and exposure to 
adverse environmental conditions. To help meet these needs, we 
respectfully request that the Committee provide an additional $3.8 
million in fiscal year 2002, allocated to the following three key 
components. The Humane Society of the United States is pleased to join 
forces on this request with a broad coalition of organizations 
representing regulated facilities and animal protection interests.
Animal Welfare Inspections--$2.4 million increase
    In 2000, USDA was able to conduct fewer than 9,000 Animal Welfare 
Act compliance inspections, down from 18,000 in 1992. Thanks to the 
modest increases of the past two years, the AC division has begun to 
reverse this decline, and expects to complete just over 10,000 
inspections this year. While this is an encouraging sign that attention 
will be paid to long-neglected facilities, it highlights the need for 
further progress. At these still-low levels, many facilities continue 
to escape oversight for long periods of time, giving rise to situations 
that threaten both human and animal health and safety. Forty-five 
percent of the sites that are inspected are found to have apparent 
violations of the minimum standards under the Act. Facilities with 
serious deficiencies require between four and eight reinspections per 
year until compliance is achieved. To ensure that every site is visited 
at least once a year and all noncompliant facilities receive the 
necessary follow-up, AC should conduct a minimum of 17,000 compliance 
inspections per year. A $2.4 million increase in fiscal year 2002 would 
bring the Animal Welfare budget to $14.5 million, enabling AC to hire, 
train, and equip an additional 14 inspectors; conduct approximately 
11,600 inspections and improve follow-up inspections to verify 
correction of violations; increase searches for unlicensed and 
unregistered operations and other illegal activities; handle animal 
care complaints more quickly; expand outreach to regulated industries 
and the public; develop industry-specific training courses; and 
implement internal audits and inspector quality reviews to ensure 
consistent quality in inspections.
Investigative and Enforcement Services--$1 million increase and 
        Committee Report language
    As AC inspectors improve their identification of problems at 
facilities, the workload at Investigative and Enforcement Services 
(IES) grows. However, ten years of static IES budgets have resulted in 
a substantial reduction in the number of investigators, from 73 in 1992 
to 56 in 2000, creating a bottleneck in the overall enforcement system. 
Only 329 Animal Welfare Act investigations were undertaken in 2000, 
down from 800 in the early 1990s. In the early 1990s, cases took an 
average of 60 days to complete; in 2000, it was 140 days. A $1 million 
increase in fiscal year 2002 directed at enhanced enforcement of the 
Animal Welfare Act would bring IES' budget to $7.26 million, enabling 
it to fill a critical vacancy for an enforcement specialist; continue 
to support four field positions now temporarily funded through the 
APHIS Administrator; add four new field staff strategically placed in 
areas with high concentrations of animal welfare licensees and 
registrants; reduce time to complete investigations; deploy ``quick-
response'' teams to address high-priority violations; and improve 
tracking of unlicensed operators. We also respectfully request 
inclusion of the following language in the Committee Report: ``The 
Committee directs that $1 million of additional funds for Investigative 
and Enforcement Services be used for enhanced enforcement of the Animal 
Welfare Act.''
Animal Welfare Information Center--$400,000 increase
    Created by Congress in 1985, the Animal Welfare Information Center 
(AWIC) serves as a clearinghouse and education resource for all 
individuals involved in the care and use of animals for 
experimentation. AWIC provides information on training for laboratory 
employees, and legal requirements and appropriate care for animals in 
research, including minimizing pain and distress, preventing 
duplication of experiments, and reducing or replacing animals in 
research when possible. It is an invaluable resource for the research 
community, and users have accessed its website, http://
www.nal.usda.gov/awic, nearly half a million times in one year alone. 
However, the AWIC budget has remained stagnant at $750,000 since its 
creation more than 15 years ago. A $400,000 increase in fiscal year 
2002 would bring AWIC's budget to $1.15 million, enabling it to develop 
web-based training to enhance compliance with the Federal law; expand 
its website with additional material and update the search engine to 
improve access to the data available; and sponsor workshops in 
different regions of the country.
         hoop barns/leopold center for sustainable agriculture
    The hoop barn is an emerging alternative for livestock production 
that offers many advantages to the factory farm system of animal 
housing. A typical hoop barn is shaped like a Quonset hut (a half 
cylinder lying on its flat side) and contains a deep bedding of straw 
or corn stalks. No individual cages confine the animals, and open ends, 
which can be closed if weather requires, allow access to pasture. 
Animals in hoop barns enjoy greater freedom of movement and have the 
opportunity to interact socially.
    Because they are not tightly confined in an overcrowded, high-
stress environment, animals in hoop barns tend to be healthier than 
their counterparts in factory farms. That means farmers using hoop 
barns do not need to rely on antibiotics to prevent disease and promote 
growth, a common practice on factory farms that is contributing to the 
development of antibiotic-resistant strains of bacteria that threaten 
public health. Products from hoop producers are being sought out by 
meat suppliers and restaurants based on the enhanced flavor and texture 
characteristics of the meat. In addition, hoop barns are better for the 
environment, because they use solid manure composting rather than the 
liquid waste disposal system used by factory farms, which jeopardizes 
groundwater and produces noxious odors. Furthermore, they offer an 
affordable alternative for farmers. Hoop barns are approximately one-
third the cost of conventional factory farm structures. They are easy 
to install and versatile (they can be used for different species or for 
storage of hay or equipment). This flexibility helps family farmers 
withstand fluctuations in market demand and avoid corporate buyouts.
    The Leopold Center for Sustainable Agriculture at Iowa State 
University has been in the forefront of research and development on 
hoop barns. We request funding of $325,000 under the Cooperative State 
Research, Education, and Extension Service account to enable the Center 
to make the benefits of hoop barns available on a wider scale. These 
funds would be used by the Center to:
  --Evaluate several production, marketing, and systems questions where 
        current hoop knowledge is in the early stages, including but 
        not limited to: disease/pest vector control, gestation 
        applications, and social, community, and environmental effects.
  --Develop a ``Best Management Practices'' manual for raising pigs in 
        hoops. This will provide guidance to farmers on how to install 
        and operate hoops for optimal results in a range of different 
        climates and other factors, so that use of these structures can 
        be effectively and readily adapted to suit individual farming 
        needs. It will include information on animal behavior, animal 
        husbandry and nutrition, health strategies, environmental 
        impacts, marketing strategies, and economic costs and returns 
        for pigs raised in hoop structures.
  --Establish a network of hoop demonstration sites and producers with 
        multiple locations in Iowa and other states, including Florida 
        (a major pork consumption state). This objective would include 
        dissemination of information through field days, tours, 
        producer exchanges, etc.
  --Address potential use of hoop barns for production of other animal 
        species.
  --Work with industry producer groups, processors, retailers, and 
        community groups to promote awareness of use of hoop barns in 
        pork production. This would include factors such as quality of 
        pork, community issues, targeted marketing, and market linkages 
        of producers, processors, retailers, and consumers.
Wildlife Services Non-Lethal Predator Control Demonstration Program
    We appreciate the Committee's inclusion of a provision in the 
fiscal year 2001 Agriculture Appropriation Act for the Wildlife 
Services Methods Development division to ``conduct pilot projects in up 
to four States representative of wildlife predation of livestock in 
connection with farming operations for direct assistance in the 
application of non-lethal predation control methods . . .,'' in order 
to evaluate the effectiveness of non-lethal measures. We believe this 
investigation can help advance what has often been a contentious debate 
in Congress surrounding USDA's use of lethal predator control for 
livestock protection.
    We have worked closely with Wildlife Services personnel during the 
past few months, as they identified three states (Idaho, California, 
and West Virginia) to investigate and developed a study protocol 
designed to produce statistically meaningful results. To accomplish 
this objective, experts at the National Wildlife Research Center and at 
USDA headquarters suggest that a four-year study be undertaken 
involving eight to twelve sheep ranches in each of the three states. 
Participating ranches would be provided the current regime of 
assistance (blending lethal and non-lethal techniques) for half of the 
study period, and would be provided only non-lethal assistance for the 
other half of the study period. Participants would be divided into two 
groups, with one group receiving the non-lethal assistance for the 
first two years and the current regime for the last two years, while 
the other group would receive help in the reverse order (current regime 
first, then non-lethal only). Again, according to the Wildlife Services 
experts, this ``switchback'' study design will minimize bias and 
variables that would distort evaluation of the relative effectiveness 
of lethal vs. non-lethal measures. Participants would be offered 
compensation for verified livestock losses due to canid predators 
(except wolves) during the non-lethal only phase of the study, in order 
to assure their continued participation in the study. Because the 
lambing season was already underway in two of the three states by the 
time the protocol was developed, and because the necessary funding was 
not in hand, we and the sponsors of the original provision, Senators 
Bob Smith and Barbara Boxer, agreed with Wildlife Services personnel 
that it would be preferable to defer the first year of the study until 
fiscal year 2002.
    The detailed study protocol should be available from Wildlife 
Services for the Committee's consideration. Attached is a one-page 
budget break-out prepared by Wildlife Services that shows projected 
study needs for each of the four years. Accordingly, we request that 
the Committee provide $1,988,673 in fiscal year 2002 to initiate this 
study, along with report language referencing the objective and key 
elements of the study.
                    horse protection act enforcement
    Enacted by Congress in 1970, the Horse Protection Act was passed to 
end the obvious cruelty of physically soring the feet and legs of 
horses. In an effort to exaggerate the high-stepping gate of Tennessee 
Walking Horses, unscrupulous trainers use a variety of methods to 
inflict pain on sensitive areas of the feet and legs for the effect of 
the leg-jerk reaction that is popular among many in the show-horse 
industry. Just as in 1970 the practice of soring was rampant, in 2001 
the practice continues unabated by the well-intentioned but seriously 
underfunded and understaffed APHIS inspection program.
    The authorization limit for enforcement of the Act has remained at 
$500,000 since the enactment of the law 30 years ago, and annual 
appropriations continue to fall short of even that low funding level. 
We appreciate that the Committee began to address this shortfall last 
year, with an increase of $37,000 that brought the funding level up to 
$398,000 in fiscal year 2001. We respectfully urge that the Committee 
provide funding at the full authorization level of $500,000 for fiscal 
year 2002 (a $102,000 increase), to improve enforcement of the Horse 
Protection Act. We also urge the Committee to resist any effort to 
include report language that might restrict the USDA from enforcing 
this law to the maximum extent possible.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture and Related Development Appropriation 
Act of fiscal year 2002. We hope the Committee will be able to 
accommodate these modest funding requests to address some very pressing 
problems affecting millions of animals in the United States. Thank you 
for your consideration. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

    Prepared Statement of the Illinois Soybean Association and the 
                         University of Illinois

    We appreciate the opportunity to provide testimony on behalf of the 
Soybean Disease Biotechnology Center, an important initiative for 
soybean producers in Illinois and the United States.
    Request.--The Illinois Soybean Association, an organization of 
approximately 4,000 leading soybean producers, and the University of 
Illinois, a major land-grant institution, propose to establish a 
Soybean Disease Biotechnology Center within the National Soybean 
Research Laboratory (NSRL) at the University of Illinois. We request a 
Federal appropriation of $3.5 million to match a $500,000 contribution 
from the Illinois Soybean Checkoff Board to establish the Center.
    The Illinois Soybean Checkoff Board will entertain proposals from 
Center scientists for future program support, and the University of 
Illinois will contribute core staff, space, general support services, 
greenhouse facilities, and utilities. This will greatly leverage 
Federal support of soybean disease biotechnology research.
    Rationale.--The Soybean Disease Biotechnology Center will be the 
first line of defense against major soybean diseases that threaten the 
U.S. soybean industry, especially the soybean cyst nematode (SCN). The 
Center will bring the power of new sciences of structural, comparative, 
and functional genomics and genetic transformation to bear on SCN and 
other current and potential disease threats, including major diseases 
not yet in the U.S., such as soybean rust.
    Center researchers will identify and create new and improved 
mechanisms of disease tolerance and resistance, so as to protect the 
soybean crop and increase its profitability throughout the industry. 
Genetic stocks of the National Soybean Germplasm Collection, located at 
the University of Illinois, will be a unique, readily accessible 
resource for the Center, as will wild species that are related to 
soybean and have novel sources of disease resistance.
    Location Advantages.--The Soybean Disease Biotechnology Center will 
be synergistic with two campus resources: the Keck Center for 
Comparative and Functional Genomics and the National Center for 
Supercomputing Applications. They offer high throughput genetic 
sequencing, unequaled bioinformatics capabilities, and unique, one-of-
a-kind genetic analysis tools, including micro-arrays. Center 
researchers will also have ready access to the University of Illinois 
Biotechnology Center, which provides recombinant DNA and protein 
services, immunological resources, flow cytometry, high capacity 
transgenic plant production, and cell and tissue culture facilities.
    Outstanding USDA-ARS programs in soybean pathology will interface 
directly with the Center, and there will be direct access to superb 
conventional greenhouse and controlled environment facilities in 
adjacent, connected structures. As part of this project, a bio-
containment greenhouse will be constructed specifically to provide the 
levels of isolation and protection required for sophisticated disease 
biotechnology research. An elaborate system of research farms will be 
available for testing new developments in a wide range of soil and 
climatic conditions that are representative of the Midwest. Space is 
available in the NSRL to create specialized, state-of-the-art 
laboratories for the Center.
    The Soybean Disease Biotechnology Center will interface with the 
new St. Louis-headquartered Danforth Plant Science Center and 
participate in the Illinois Missouri Biotechnology Alliance. Its 
association with the NSRL will assure that research in the Soybean 
Disease Biotechnology Center will fully complement and benefit from 
other soy research programs across the nation. This will assure that 
the results of fundamental soybean disease biotechnology research are 
quickly translated into practical technology, useful information, and 
sustainable competitive advantage for the industry.
    This is an excellent time to establish the proposed Center because 
the University of Illinois is ramping up its post-genomics 
biotechnology program. A multi-million investment of state funds is 
providing new biotechnology faculty positions in functional genomics, 
bioinformatics, developmental biology, microanalytic systems, and 
cellular and molecular bioengineering, and is creating elaborate new 
facilities for basic biotechnology and bioinformatics research. Some 
new positions in plant disease biotechnology have been filled with 
outstanding scientist/educators who already have established impressive 
track records. The new state-funded Post Genomics Institute (to be 
completed in 2002) will enable a much-expanded basic biotechnology 
research program that will support and complement activities of the 
Center. The Center will also benefit from the investment of Illinois in 
an expanded University of Illinois business incubator and two new 
University research parks to assure rapid commercialization of 
promising new technologies from the University's research program.
    Summary.--We request that $3.5 million be appropriated to establish 
a Soybean Disease Biotechnology Center within the National Soybean 
Research Laboratory at the University of Illinois. These funds, 
complemented by state funds and industry contributions, will be used to 
staff, equip, house, and operate the center, and launch and sustain its 
programs. We greatly appreciate the legislative initiative that created 
the National Soybean Research Laboratory and look forward to this 
opportunity to extend its world-renowned capabilities with the Soybean 
Disease Biotechnology Center.
                                 ______
                                 

  Prepared Statement of the University of Illinois, the University of 
               Missouri, and Southern Illinois University

    Our testimony is on behalf of the federally funded project entitled 
the Illinois-Missouri Alliance for Biotechnology (IMBA). We much 
appreciate the strong, continuing support of the committee for this 
effort, which began in fiscal year 1995. The project continues to 
produce valuable results and open new options for the corn and soybean 
industries in the Midwest and for the nation as a whole.
    Request.--In order to enhance this productive and strategically 
essential program, we request that $3.0 million be appropriated for 
IMBA for fiscal year 2002. It is particularly important to push this 
initiative forward at this time because of the race among nations to 
capitalize on dramatic findings in the field of genomics. Powerful 
tools are now available to determine the function of genes in 
microorganisms, plants, animals, and humans. Knowledge of gene function 
will allow much better targeting of projects on genes of major 
economic, health, and social promise. The increased appropriation will 
allow us to fund a larger proportion of worthy proposals, expand use of 
the powerful tools of genomics, and include more socioeconomic research 
that addresses stakeholder concerns about product quality and safety as 
well as economic and social impacts of biotechnology. An increased 
appropriation will provide significant economies of scale and scope, 
thus disproportionately increasing funds directly available for 
research and increasing annual leveraged contributions to about $9 
million.
    Needs and Opportunities.--IMBA is focused on the world's most 
important agricultural challenge, meeting the nutritional needs of a 
growing population. Rapidly growing population, urbanization, and 
affluence, especially in Asia, are causing a dramatic increase in the 
consumption of animal protein. These changes are leading to 
unprecedented growth in large animal production facilities and in 
global markets for animal products. Corn and soybeans are economically 
and nutritionally superior to other grain crops for feeding swine, 
beef, dairy, poultry, and confined fish. These classes of livestock are 
increasingly being produced in large-scale, confinement facilities 
around the world. With superior technology, Illinois, Missouri, and 
surrounding Midwestern states can be principal global suppliers, not 
only of corn and soybeans, but also of value-added livestock and other 
food products produced from these crops. To capture these emerging 
markets, however, the U.S. will have to compete vigorously against 
sophisticated foreign producers and will have to address consumer 
concerns about quality, safety, and efficacy of products containing 
genetically modified corn and soybeans.
    Mission, Objectives, and Strategy.--IMBA seeks to maximize the 
benefits of biotechnology for the American agriculture and food sector 
and the American consumer by improving the quality, safety, 
affordability, and acceptance of agricultural and food products. It 
accomplishes this mission by supporting competitively funded, cutting-
edge biotechnology research conducted as part of research programs 
organized around clearly defined, practical objectives. IMBA scientists 
are strongly encouraged to work closely with the private sector to 
assure that promising new discoveries move rapidly to practical 
application in Midwest agriculture.
    After approval by Congress, program funds are transferred by USDA-
CSREES to the Illinois Agricultural Experiment Station, which serves as 
repository until the funds are dispersed within the program. To avoid 
spreading the IMBA research investment too thinly, the scope of the 
program is limited to the corn and soybean industries; geographical 
scope to Illinois, Missouri, and other Midwestern states; and 
disciplinary scope to biotechnology, including technical, economic, and 
social dimensions of that subject.
    IMBA-funded biotechnology research grants are awarded 
competitively, based on relevance to IMBA objectives, soundness of 
proposed research strategy, and scientific merit. Proposals are 
evaluated by scientific peers to assure that the best strategies are 
brought to bear on agricultural problems and opportunities that are 
important to the region. A Program Manager located at the University of 
Missouri works with an Executive Management Committee to design and 
develop a biotechnology research investment portfolio that addresses 
the following objectives: 1) develop new and improved uses for corn and 
soybeans and increase the value of these crops as raw material for 
manufacturing various products, 2) lower the cost of producing, 
processing, and utilizing these products, 3) maximize positive and 
minimize negative impacts of the corn and soybean industries on the 
environment and conserve nonrenewable resources that are consumed by 
the corn and soybean industries, 4) anticipate and understand the 
economic and social impacts of agricultural biotechnology and capture 
as many benefits as possible for the American agriculture and food 
sector, 5) define the roles of experts and knowledge systems in 
resolving social conflicts over agricultural biotechnology so as to 
understand and manage agricultural biotechnology risks as perceived by 
consumers, and 6) understand and improve economic, organizational, and 
institutional approaches to value-enhancement and identity 
preservation.
    In designing the IMBA research portfolio, the Executive Management 
Committee defines and seeks an appropriate balance among the above 
objectives, among projects with varying degrees of uncertainty and 
risk, and among goals that can be achieved in relatively short and long 
periods of time. Provision is made for some high risk funding of 
promising but unproven scientists with good ideas. Overall program 
evaluation is performance-based, in accordance with the principals of 
the Government Performance and Results Act.
    Recent Achievements of IMBA Research.--IMBA-supported projects 
continue to progress on several broad fronts. To foster rational 
discourse on biotechnology, IMBA supported the initial development of 
AgBioForum, a unique, web-based, peer-reviewed journal designed to 
reach and educate a broad audience on issues of central importance. 
AgBioForum articles are widely reproduced in the classroom, by the 
media, and as references in academic journals. Total readership has 
surpassed 175,000 and include people from universities, industry, 
government, international organizations, and commercial sites, among 
others. Major themes in 1999 and 2000 issues of AgBioForum include: 
public acceptance of agrobiotechnology, industry consolidation, 
private-public interactions in agricultural biotechnology, farm level 
economics, agrobiotechnology in less developed countries, biotechnology 
and functional foods, regulatory approval of biotech products and 
functional foods, and economics of animal biotechnology.
    IMBA scientists produced genetically transformed soybeans that are 
20 to 60 percent higher in oil. Linkage maps and fast oil analysis 
procedures developed by this group will simplify selection of soybean 
lines for oil and protein content. Nucleotide sequence information they 
have collected is revealing the specific genes involved in protein and 
oil synthesis in soybeans and how these genes differ among lines with 
different oil quantity and quality. Progress is being made toward 
project goals of producing lines with increased total oil content and 
better fatty acid composition than major competing oils.
    Drawing on support from IMBA, a scientist is making excellent 
progress on several fronts toward greater soybean resistance to sudden 
death syndrome (SDS) and soybean cyst nematode (SCN). He identified new 
markers for the most important SDS resistance genes, thus facilitating 
selection for these genes. One hundred thousand cultivars from 10 
public and private breeding programs were screened in one season with 
these markers, yielding 10 with potential for superior resistance to 
both SDS and SCN. Two patents were generated by this project. The rapid 
selection tools are being commercialized. Private firms are developing 
varieties using this method. These varieties will be identified with a 
SDS-Guard trademark.
    IMBA scientists pioneered nitrogen-related genetic changes that 
increase corn yield by 10 percent and reduce leaching of nitrogen into 
ground water. Seeds of six promising transgenic lines were provided to 
ICI Garst, Inc. to plant three field trials. Monsanto is also planting 
transgenic lines in four environments. Both companies are already 
developing second generation transgenics with enhanced performance. 
This project also generated two patents.
    With support from IMBA, scientists are assessing the efficacy of 
adding isoflavones to corn foods as a way to reduce the incidence of 
breast tumors in animal models. The ultimate goal is to create 
transgenic corn that produces one or more of these unique compounds so 
that corn products are healthier for humans. Wild-type mice and mice 
lacking estrogen receptor alpha have been fed diets containing two 
isoflavones, namely, genistein and daidzein. In both cases, a link 
between activity of the gene and availability of the isoflavone has 
been established. The study was extended to include colon tumors. The 
research reveals an extremely complex relationship in which isoflavones 
may reduce or increase tumors depending on the genetic makeup of the 
animal. Knowledge gained in this research will allow scientists to 
predict negative and positive effects depending on an animal's or 
person's genetic makeup.
    IMBA-supported scientists identified more than 8,000 diet-regulated 
genes, 33 of which map to locations associated with diabetes. 
Ultimately, it should be possible to identify each individual's unique 
food-related genetic profile, anticipate certain responses to food, and 
adjust eating habits accordingly. These tests will also facilitate 
treatment of various chronic and acute food-related disorders, 
including obesity, some forms of cancer, and heart disease. Results of 
this work are being commercialized by Electropharmacology, Inc., in 
partnership with major pharmaceutical and biotechnology companies.
    IMBA-funded scientists are studying the process of apomyxis, which 
allows seed to be produced in the absence of sexual reproduction. If 
hybrid corn plants could be produced that produce seed through 
apomyxis, that seed would produce plants genetically identical to the 
hybrid parents, unlike seed produced on current hybrid plants. This 
would enable farmers to save seed from hybrid parents for use as seed 
the next year. The goal is to reduce seed production costs while 
enhancing hybrid purity.
    Phytic acid contains much of a plant's phosphorus. It is relatively 
undigestable to non-ruminant animals, including humans. Thus, much of 
the phosphorus is passed into ground and surface waters, creating 
pollution. IMBA scientists working to produce soybeans with low levels 
of phytic acid identified a bacterial gene that produces an enzyme, 
phytase, that breaks down phytic acid, making it digestible. They 
introduced this gene into a model plant, Arabidopsis, producing plants 
that store phytase in their seeds. Seeds are being ground and processed 
with corn meal to see if the soybean phytase will break down the phytic 
acid in corn meal. Phytase genes are also being introduced directly 
into soybeans. This opens up two possibilities: (1) a method to produce 
phytase as a feed supplement or for use in grain processing, and (2) to 
incorporate the phytase directly into feed crops, thus reducing their 
phytic acid content.
    Several IMBA scientists are cooperating to develop high oil, high 
oleic acid oil, corn hybrids. Grain produced with these hybrids will 
command a premium based on higher digestible energy level, added value 
in manufacturing certain kinds of food products, and potential human 
health benefits. These scientists have identified molecular markers 
that will make it much easier to select for oil concentration and for 
specific fatty acid profiles. They also have developed new genetic 
constructs that, when introduced into elite germplasm, should enhance 
oil concentration and oleic acid concentration.
    Cooperators.--Current cooperators in IMBA projects include the 
Universities of Illinois and Missouri, Southern Illinois University, 
Iowa State University, and the USDA-Agricultural Research Service group 
at Woodward, Oklahoma. Private, non-profit cooperators include 
Sapient's Institute and Northwestern University. Commercial firms 
cooperating or involved in negotiations include Monsanto Company, ICI 
Garst, Inc., DuPont/Pioneer, ADM-Growmark, Clarkson Grain, Cargill, 
Biosys, Zeneca Agrochemicals, Novartis, DowElanco, Genentech, 
Healthtech, Electropharmacology, and others. Each project is generating 
potential new and improved products, and private firms are evaluating 
the commercial potential of each product of IMBA research.
    Summary.--We believe IMBA projects constitute an outstanding 
portfolio of promising research investments focused on the major 
problems and opportunities associated with the U.S. corn and soybean 
industries. Because of the economically important subject matter being 
addressed by IMBA, unique opportunities afforded by advances in 
genomics, outstanding capabilities of participating institutions, and 
the innovative research management approach being employed, we believe 
that IMBA will continue to be highly productive and will generate an 
unusually high return on the Federal investment. This will more than 
justify the appropriations to date and the $3.0 million requested to 
continue the project in fiscal year 2002.
                                 ______
                                 

            Prepared Statement of the University of Illinois

    Our testimony is on behalf of the Livestock Genome Sequencing 
Initiative (LGSI), an extremely important scientific initiative with 
profound implications for the future of U.S. agriculture. We request 
that $1.6 million be appropriated through USDA, coordinator of the 
international LGSI consortium, to complete the funding of Stage I for 
cattle ($800,000) and Stage I of the pig ($800,000).
    These funds would be provided to the University of Illinois, as a 
member of international consortium, to lead the completion of the 
whole-genome physical map for cattle and for the pig. Specifically, the 
funding will be used to sequence the ends of 100,000 bacterial 
artificial chromosomes (BACs) that contain large inserts of cattle and 
pig DNA. This will enable scientists to build and enhance the quality 
of a whole-genome, high-quality physical map for each species, the 
critical first step in sequencing the genomes.
    Concept.--International participants in a Livestock Genome 
Sequencing Initiative will create a map of the entire genomes of cattle 
and pigs and will sequence all the DNA in those genomes, so that every 
gene in each of the two species is identified by its unique sequence 
and location on specific chromosomes. The resulting map and sequence 
information will be placed in databases that can be accessed by 
scientists using bioinformatics to help establish the function of each 
of tens of thousands of genes, thus leading to valuable practical 
applications. Similarities to the human genome will be extremely useful 
in the mapping and sequencing effort and subsequent research.
    Justification.--Mapping and sequencing genes are the essential 
first steps to learning the function of each gene. Knowledge of gene 
location and sequence, as is amply demonstrated by the human genome-
sequencing project, opens a whole new vista of approaches to health, 
welfare, and quality of life issues and serves as the basis for future 
biological research. Diagnostics and cures for some of the major 
scourges of mankind, including cardiovascular disease, cancer, 
diabetes, and obesity are among the potentials of this initiative. In 
livestock, the initiative will enable powerful, environmentally safe 
approaches to disease prevention, resistance, and treatment; stress 
alleviation; increased productivity and profitability; improved food 
quality, safety, functionality, and diversity; improved odor and waste 
management; improved environmental quality; and enhanced quality of 
life for food animals. Most important, the initiative will address the 
growing aspirations of the world's population for nutritious, healthy, 
safe, and affordable livestock products.
    Even though it is an international undertaking, there is a very 
important global competitiveness dimension to this initiative as well. 
To illustrate, China, the world's largest pork producer, and Denmark, 
the largest pork producer per capita and a major world exporter of pork 
and pork products, are launching an aggressive swine genome sequencing 
initiative. If the U.S. is to remain technologically competitive in 
global food markets, it is absolutely essential for the U.S. to be 
among the first to map and sequence food animal genomes. This 
fundamental biological information is the foundation for sustainable 
competitive advantage.
    Economic Development Impact.--Rapid population growth, 
urbanization, and growing affluence in the most populous parts of the 
world are resulting in rapidly expanding world markets for livestock 
products. Enormous future growth is very likely, as developing 
countries improve both political and economic systems. To compete 
effectively for those markets, Illinois and the nation must be among 
the first to implement new livestock technology derived from genomics. 
Livestock production adds great value to the feedgrains produced in 
Illinois and the Midwest, and technological leadership will allow that 
value to be captured in the areas where the new technology is 
implemented.
    The current $7.5 billion in cash value of agricultural products at 
the farm gate in Illinois alone would be multiplied at least 10-fold if 
feed grains were exported as livestock and other processed products 
instead of as grain or feed, with proportionate increases in other 
major livestock states. This increased value would accrue to Illinois 
and the nation as increased profits throughout the swine and cattle 
industries, reduced costs of government farm programs, increased 
employment and economic development, and improved consumer products.
    University Capabilities.--The University of Illinois is uniquely 
positioned to lead in the mapping of the pig and cattle genomes. The 
University's Biotechnology Center, which includes the W. M. Keck Center 
for Comparative and Functional Genomics, provides one of the highest-
throughput public gene mapping and sequencing capabilities in the 
nation, as well as a number of state-of-the-art genetic analysis 
capabilities, such as micro-array analysis. Cutting edge bioinformatics 
capabilities are provided by the National Center for Supercomputing 
Applications.
    These superb research support capabilities enabled University of 
Illinois scientists to be the largest recipients of any institution of 
competitive Federal funding for cattle, pig, and soybean genome 
research. The infrastructure is further enhanced by sizeable public 
investments in facilities, including the Edward R. Madigan Laboratory 
and Post-Genomics Institute ($75 million of state funds, to be 
completed in 2002).
    Additional state appropriations are enabling many distinguished 
scientists of demonstrated excellence to join a distinguished faculty 
that is already internationally preeminent in the genomics area. Also, 
the University has a long history of productive alliances and 
cooperation with other public and private institutions, both here and 
abroad, in biotechnology research. For example, the University was the 
first in the Western Hemisphere to import Chinese swine and exploit 
their advantages in prolificacy, disease resistance, and superiority 
for genetic research.
    Sponsor and Funding Status.--Under the leadership of USDA-ARS, an 
international consortium for cattle and pig genome mapping and 
sequencing is being formed. The consortium, which will initially 
undertake the mapping of the cattle genome, is presently comprised of 
the USDA-ARS, University of Illinois, Shirakowa Institute of Animal 
Genetics (Japan), AgResearch (New Zealand), and the Alberta Livestock 
Genomics Initiative (Canada). Expectations are that by summer, 2001, 
the consortium will look to begin sequencing the pig genome.
    The consortium will operate in two stages for each species. First 
they will create physical maps of the genomes, at a cost of $2.5 
million per species. Then they will sequence the genomes, so that the 
tens of thousands of genes can be identified. This second stage will 
cost about $97.5 million per species. The current consortium members 
have $1.7 million of the $2.5 million for the Physical Map (Stage I) 
for cattle. They expect to make available $1.7 million of the $2.5 
million for the Physical Map (Stage I) for the pig. This leaves an 
immediate need for $800,000 dollars per species (total $1.6 million) to 
complete Stage I. Funds to invest in Stage II, the genome sequencing of 
cattle and of the pig, will be recruited from public and private 
sources by the international consortium.
    Request and Summary.--For fiscal year 2002, $1.6 million is 
requested to be appropriated through the USDA to complete the funding 
of Stage I for cattle ($800,000) and of Stage I of the pig ($800,000). 
If appropriated, these funds will be provided to the University of 
Illinois, as a member of the international consortium, to lead the 
completion of the whole-genome physical map for cattle and for the pig. 
Specifically, the funding will be used to sequence the ends of 100,000 
bacterial artificial chromosomes (BACs) that contain large inserts of 
cattle and pig DNA. This will greatly speed and facilitate building a 
whole-genome, high-quality, physical map of each species, the critical 
first step in sequencing the genomes.
                                 ______
                                 

            Prepared Statement of the University of Illinois

    Our testimony is in support of a proposal to launch an innovative 
research program in a Renewables Bioprocessing Research and Development 
Laboratory under development at the University of Illinois. The mission 
of the Laboratory is to develop, test, and refine multistage processes 
by which major grains, especially soybeans and corn, are produced and 
converted to new and improved foods, feeds, pharmaceuticals, fibers and 
plastic materials, energy sources, and industrial feedstocks. We 
request $1.5 million to conduct integrated, multi-stage, ``sample-
linked'' process research on specific soy- and corn-based products as a 
proof of concept and demonstration of approach.
    Vision.--In the post-genomics age, it is possible for plants, 
animals, and microbes to be genetically altered in specific, 
controlled, and safe ways. This will lead to enhanced grains and other 
raw materials for manufacturing new and improved food and non-food 
products. The new foods will not only be safer, more nutritious, of 
higher quality, more convenient, and more affordable, but will also 
perform important medicinal and preventive health-related functions. 
They will prevent and mitigate important food-related diseases and 
maladies, such as cancer, heart disease, diabetes, and obesity; improve 
physical and mental performance; extend longevity; and, in general, 
increase quality of life.
    Enhanced soy and corn foods will be prominent in these new 
developments. In many cases, specific pharmaceuticals designed to 
address major health problems will be produced in corn and soybeans. 
These crops have the advantage of not harboring potential contaminants, 
such as viruses and other pathogens that endanger humans and animals. 
Genomics will also open the door to a new vista of environmentally 
friendly, renewable resources, including animal feeds, bio-based 
textiles and other materials, fuels and other energy sources, and 
industrial feedstocks. Genetically altered microorganisms herald the 
day when corn and soybean constituents can be converted to virtually 
any desired end product in an efficient, industrial fermentation 
process. Illinois can capture great economic benefits by leading the 
way into this bio-based economy of the future.
    Concept.--We plan to create a Renewables Bioprocessing R&D 
Laboratory, a unique facility and program in which soybeans, corn, and 
other grains can be initially separated into useful raw fractions, via 
wet or dry grain milling or other means, and further processed at pilot 
scale into various food, feed, and non-food finished products. The 
facility will be designed, equipped, and operated to conduct, on a 
pilot scale, all stages of multistage industrial processes in a 
coordinated, integrated manner, such that samples of raw grains that 
enter the facilities are identity preserved, monitored, and evaluated 
through entire processes leading to finished products and minimal, 
recycled waste streams. These unique capabilities and so-called 
``sample-linked'' research approach will greatly expedite the 
development of new products and process technology based on genetic 
enhancement and will facilitate the design, engineering, and refinement 
of related equipment.
    Need.--To assure that value added by genetic enhancement is 
realized by the end user, it is essential that enhancements are 
preserved from primary production, harvest, storage, and transportation 
operations through every step in complex, multistage processing and 
manufacturing processes to end-product packaging, distribution, and 
preparation. Thus, research on these new products must track quality 
changes in specific samples or lots all the way from genetic 
enhancement of germplasm and breeding lines to customer satisfaction 
with the use of the final prototype product. Examples of such value 
chains would be those connecting genetically enhanced corn to 
cholesterol-lowering margarines containing appropriate levels of stanol 
esters; genetically enhanced soybeans to phytoestrogen-containing 
pharmaceuticals for post-menopausal women; and genetically enhanced soy 
that imparts to feed and hence to animal products a heart-healthy, high 
proportion of omega-3 fatty acids.
    If the promise of genomics is to be realized in a timely and 
efficient manner, research and development leading to these new 
products and outcomes must be fully coordinated and integrated over 
several disciplines, functions, and stages in complex value chains. To 
reduce development time, research on the various stages must be 
concurrent rather than sequential, with research on each stage fully 
coordinated with other stages. Such research will require an 
extraordinary degree of cooperation and communication among diverse 
participants, especially among private and public participants. To be 
productive and cost effective, such research will require innovative 
and unique expertise, policies, protocols, procedures, facilities, and 
equipment. The Renewables Bioprocessing R&D Laboratory will meet these 
needs.
    Location Advantages.--The Renewables Bioprocessing R&D Laboratory 
will be headquartered at the University of Illinois in facilities 
constructed as part of the renewal of the University's South Farms. 
This will put it in close proximity to field-scale grain production 
research facilities and feedlot scale animal production research 
facilities. It will also be conveniently located for participation by 
tenants in the University's new incubator and research park (south 
site). This will provide great advantages for small firms and startups 
that otherwise could not gain access to state-of-the-art facilities. 
While it will be most convenient for participation by regional 
institutions, agencies, and firms, other groups will be invited to 
participate in this unique program. Until the new facilities are in 
place, the program will utilize some space in existing pilot plants.
    Related Facilities and Programs.--The Renewables Bioprocessing R&D 
Laboratory will complement various Federal facilities available at the 
National Center for Agricultural Utilization Research at Peoria. It 
will be differentiated from other facilities and programs in Illinois 
and other states by its special emphasis on feeds and foods, especially 
soy- and corn-based functional feeds, foods, and pharmaceuticals; its 
close coordination with and proximity to world-class plant, animal, and 
microbial genomics research and educational programs at the University 
of Illinois; and its support of research on waste stream management and 
recycling. Ready access to outstanding University of Illinois 
engineering and biomedical research capabilities will be valuable to 
public and private individuals, institutions, and firms using the 
facility.
    Operation.--Each section of the Renewables Bioprocessing R&D 
Laboratory will be supervised by a professional trained and experienced 
in the category of activities carried out in that section and will be 
operated by experienced technicians. A director and staff will provide 
broad oversight, personnel management, financial management, and 
coordination. It is anticipated that when the Laboratory is complete 
and the concept fully refined and demonstrated, the Laboratory will 
operate on a fee-for-service basis, providing services at the marginal 
cost to both public sector and private sector clients.
    Anticipated Questions.--The following questions might appropriately 
be asked concerning this proposal.
    Question: Why not submit this request to various competitive grant 
programs, such as CSREES, NIH, or NSF competitive grants?
    Answer: The proposed projects are not single investigator efforts, 
but extremely complex undertakings involving several disciplines, 
functions, and stages in complex value chains. Therefore they do not 
lend themselves to the typical single investigator competitive grant 
program. The purpose of such research is defeated if only one or a few 
stages of a multistage process can be investigated.
    Question: If the goal of the proposed program is to develop food 
and non-food products, why shouldn't this reach be carried out by the 
private sector.
    Answer. The private sector should be involved in this research, but 
only a very few, large private firms have the facilities and 
organizational capabilities required to carryout the research 
described. In fact, no private firms have the pilot-scale capabilities 
envisioned for the Laboratory. The advantage of the proposed facility 
and program is that university researchers, small and medium-sized 
private firms, and startups will have access to unique facilities, 
equipment, capabilities, and research protocols at a marginal cost. 
Through unique public/private cooperation, they will gain otherwise 
unattainable economies of scale and scope. Among other advantages, 
participants can address the needs of specialized niche markets that 
may not be addressed by larger firms. The vast majority of potential 
products fall into that category.
    Budget.--We request an appropriation of $1.5 million to conduct the 
initial projects in the Renewables Bioprocessing R&D Laboratory and to 
refine and demonstrate the concept of fully-integrated, multi-stage, 
``sample-linked'' research. These funds will be used to offset the 
costs of specific experiments conducted under the unique protocols of 
the Laboratory, including the design and installation of prototype 
processing equipment unique to specific projects. We believe this 
effort will clearly demonstrate the advantages of the integrated, 
sample-linked research approach and will create a large demand for 
services such as those provided by the proposed program.
                                 ______
                                 

              Prepared Statement of the State of Illinois

    As you begin to formulate your appropriations and funding 
priorities for fiscal year 2002, I respectfully urge you to consider 
the following items for inclusion in the upcoming agriculture 
appropriations bill. Each request is followed by a brief description of 
the project. These projects and funding requests are of particular 
importance to the State of Illinois and I hope that you will be able to 
include them in this legislation. In addition, I am grateful for all 
assistance that you have been able to provide to the State of 
Illinois--your efforts are greatly appreciated and provide numerous 
benefits throughout the state.
                   natural resources and environment
Illinois River Basin Restoration Program, ``Illinois River 2020''--Farm 
        Bill Components
    The Illinois River Basin Restoration Program is a comprehensive 
proposal of authorizations and appropriations that will address the 
serious threats to the Illinois River and its tributaries and implement 
Illinois' goals for the restoration, enhancement, and conservation for 
the Illinois River and its 55 county watershed. The Illinois River 
Basin Restoration Program is a two-tiered approach to provide a 
voluntary, incentives-based program that restores and protects the 
Illinois river hydrology and water quality, addresses urban non-point 
source issues, farmland protection and open space, land treatment for 
stormwater, and best management practices for upland areas that drain 
into the river and its tributaries.
    The following natural resources and environment requests relate 
directly to the Illinois River Preservation Initiative:
Environmental Quality Incentives Program (EQIP)
    Request. Fully fund the Environmental Quality Incentives Program 
(EQIP) at its authorized level and increase Illinois' share by $4 
million.
    The EQIP provides financial, technical, and educational assistance 
to farmers and ranchers who wish to implement conservation on land 
currently in production. Half of the program funds must be used to 
address livestock-related concerns. Illinois only received $2.5 million 
in EQIP dollars in 1998, 1999, and 2000 respectively. There were 
shortfalls of $2.5 million in fiscal year 1999, and $4.7 million in 
fiscal year 2000. In 1999, over 160 landowners could not participate in 
the program because there was a shortfall of $1.8 million for projects.
Wildlife Habitat Incentives Program (WHIP)
    Request. Dedicate $100,000 in fiscal year 2002 to the Wildlife 
Habitat Incentives Program (WHIP) for the Illinois River Basin.
    WHIP offers cost-share assistance for up to 75 percent of the 
habitat restoration expenses and technical assistance for farmers, 
ranchers and other landowners who wish to implement wildlife habitat 
practices. Eligible practices include native grass restoration, 
riparian area restoration, and aquatic habitat establishment.
Conservation Reserve Program (CRP)
    Request. Designate 200,000 acres of Conservation Reserve Program 
acres to the Illinois River Basin for fiscal year 2002.
    The CRP provides farmers with technical and financial assistance, 
including annual rental payments, in exchange for removing 
environmentally sensitive land from production and implementing 
conservation practices such as wildlife habitat restoration and field 
windbreaks. This expansion of acreage would bring an estimated $909 
million in new Federal funding to Illinois for restoration over 15 
years of the CRP contract lifetime.
Wetlands Reserve Program (WRP)
    Request. Dedicate 1,000 acres of Wetland Reserve Program to the 
Illinois River Basin for permanent easements.
    The WRP offers technical and financial assistance to farmers who 
wish to restore and protect agricultural wetlands. The USDA provides up 
to 100 percent of the wetland restoration costs and up to 100 percent 
of' the fair market agricultural value of the land in return for 
permanent or 30-year easements or wetlands restoration cost-share 
agreements. The allotment of this acreage would bring an estimated $1.5 
million in new Federal funding to Illinois for wetland restorations.
Conservation Reserve Enhancement Program
    Request. Expand the CREP in Illinois from 100,000 acres to 232,000 
acres.
    Currently, the State of Illinois has in place a 4-year CREP 
agreement, which began in State fiscal year 99 to enroll 100,000 acres. 
The State of Illinois has dedicated $18 million to fulfill the last two 
years of the agreement, which expires in fiscal year 2002.
    To date, Illinois leads the nation in the number of acres that have 
been enrolled with 66,000 (9,000 acres pending approval), which is 
three-quarters of the state's goal. This enrollment of acres outpaces 
the other states by 3 to 1. Expansion of the number of acres allotted 
to Illinois from 100,000 to 232,000 will enable the state and its 
partners to enroll the most crucial areas of land in the floodplains 
within the Illinois River Basin. These additional 132,000 acres will 
have the greatest impact to the full restoration of the basin.
    Technical assistance for Farm Bill Program implementation is a $345 
M nationwide deficit. In Illinois specifically, that deficit is over $9 
M. Increases in technical assistance funding is needed to properly, 
implement the Farm Bill programs associated with the Illinois River 
Restoration Program.
Mahomet Aquifer Consortium
    Request. A total of $10 million for an extensive study of the 
Mahomet Aquifer in Central Illinois over ten years.
    The Mahomet Aquifer Consortium is proposing a study of the Mahomet 
Aquifer in Central Illinois. Tile Study will identify and resolve water 
quality and quantity issues, help ensure a water supply for the future, 
optimize future water costs, and promote planned economic development 
for the communities affected by the aquifer. The project is broken down 
into 2 phases with phase one taking 3 years and an estimated cost of $4 
million. Phase two will cost $6 million and take 6 years to complete.
Illinois Groundwater Initiative at Southern Illinois University 
        Carbondale
    Request. $1 million to establish a small outreach center in 
southern Illinois, plus $600,000 annually for three years to continue 
research funding for publications and data to be used by farmers, 
educational institutions, and management agencies. Funding is sought 
from the Agriculture Appropriations bill through USDA's Cooperative 
State Research, Education, and Extension Service.
    The Illinois Groundwater Consortium (IGC), established in 1990, has 
been funded by Congressional appropriations to investigate short- and 
long-term effects of agricultural chemical contamination on 
groundwater, the environment, and ultimately, human health and welfare. 
Consortium members--the Illinois State Geological Survey (ISGS), the 
Illinois State Water Survey (ISWS), Southern Illinois University 
Carbondale (SIUC), Southern Illinois University Edwardsville (SIUE), 
the University of Illinois (UIUC) Agricultural Experiment Station, and 
the University of Illinois Cooperative Extension Service--have been 
working together to provide a scientifically valid bases for 
agricultural chemical management and regulatory decisions affecting 
groundwater.
    During its first years, the IGC focused on issues of agricultural 
contamination of groundwater resources. Between 1996 and 1999, IGC-
funded research was directed to the effects of and recovery from the 
extensive flooding that occurred in 1993-94 along the Mississippi, 
Missouri, and Illinois Rivers and their tributaries. In the fiscal year 
2000-2001 funding interval, research is focusing on the effects of 
land-use practices and changes in land-use practices on groundwater 
quality and quantity, with an emphasis on long-term (past and future) 
assessments and consideration of cultural (social, political) contexts 
of decision-making. During the fiscal year 2001-2003 funding period, 
research will continue to focus on the above but with greater emphasis 
on water quantity issues and educational outreach to management 
agencies, education institutions, and farmers in the form of ``user 
friendly'' publications.
                  agricultural research and economics
Economic Assistance for Agriculture
    Request. Plan for the possible need of farm income assistance in 
fiscal year 2002, including the doubling of the AMTA payment to farmers 
and producers.
    Unless market conditions improve for the 2001 crop year, support 
for farmers and ranchers will be needed. In the fiscal year that ended 
September 30, 2000, USDA made a record $28 billion in direct payments 
to farmers and ranchers to help them weather these low commodity 
prices. In the coming months USDA will be distributing more that $4 
billion in additional emergency funds. Similar funds will be needed in 
fiscal year 2002.
    Farmers and ranchers continue to experience very difficult market 
conditions, with many commodities at or near their price lows. Under 
the 1996 Farm Bill's formula, marketing assistance loan rates could 
fall from the current levels if directed by the USDA Secretary. Based 
on current projections, for example, the corn loan rate would fall from 
$1.89 per bushel to $1.76; the wheat loan rate would fall from $2.58 
per bushel to $2.43; and the soybean loan rate would fall from $5.26 
per bushel to $4.92. A change in loan rates or a decrease in farm and 
ranch income will be detrimental to the rural economy.
Federal-State Cooperation in Warehouse Examination Agreements
    Request. $400,000 Federal reimbursement for state examinations used 
by the Commodity Credit Corporation (CCC). This would be a new program 
requirement for USDA.
    In 1997, USDA terminated its cooperative agreement with states to 
reimburse them for grain elevator examinations performed by state 
inspectors. Illinois' inspectors continue to inspect and share this 
same information with CCC, but receive no Federal reimbursements for 
their efforts. Given the fact that today's corn and soybean crop prices 
are near their record lows and participation in CCC's programs are at 
record highs either in LDP's or CCC loans, the Department is asking 
USDA to again cost share the additional expense of time spent on 
warehouse examinations by Department staff.
    Prior to 1985, Federal policies dictated that commodities would be 
isolated from market prices and forces until prices rose to specified 
levels. As a result, large inventories and U.S. government owned 
commodities and commodities pledged as collateral for price support 
loans accumulated and the facilities in which these commodities were 
stored had to be examined to adequately protect the Commodity Credit 
Corporation's (CCC) interests.
    This led to CCC relying heavily on cooperative agreement with the 
Department because the volume of workload associated with these high 
stock levels did not make it feasible for CCC to hire and train a 
workforce that would be adequate to conduct all the necessary 
examinations. USDA terminated this program in 1997 after the enactment 
of the farm bill and the low amount of commodities under loan and CCC 
control. Illinois' storage share and Federal reimbursements were: In 
1993/4, 7.78 million bushels of grain stored--$364,920 reimbursed; in 
1994/5, 7.87 million bushels--$364,820 reimbursed, in 1995/6, 8.04 
million bushels of grain--$379,487 reimbursed.
Agricultural Research Funding
    Request. Increase USDA ARS Research funding by $1 billion a year, 
which would provide approximately $60 million to Illinois.
    Food and fiber are fundamental to life and health. Federal spending 
on health research has more than doubled. Today, Federal spending for 
the National Institutes of Health is nearly $18 billion, 10 times that 
of food and agricultural research, extension and education at USDA. By 
any comparison, whether in terms of payback, future potential, or 
importance to the average family, Federal investment in food and 
agricultural research is woefully inadequate.
    Publicly supported food and agricultural research and education 
were major contributors to the ascension of the U.S. during the 
``American Century.'' U.S. food and agriculture researchers and 
educators contributed to the Green Revolution that saved a billion 
people from starvation. Promising research breakthroughs in genetics, 
nutrition, information technology, food production and safety and 
ecosystern management hold great potential for even greater strides in 
the 21st century.
    Despite being the best-fed nation with the lowest share of income 
spent on food, many critical national food, agricultural and natural 
resource challenges remain. Some $100 billion of annual health costs 
are linked to poor diets and food-borne pathogens. Agriculture's 
continued viability and competitiveness in the global food system 
depends on technological, management and policy advancements based on 
the most sophisticated cutting-edge research and education. The public 
has rising expectations for a clean and healthy environment and a safe, 
nutritious and health enhancing food supply.
    Scientific studies document that each taxpayer dollar spent on 
agricultural research, extension and education pays back $8 in public 
benefits. These benefits are proportionately greater for low income and 
disadvantaged, who spend a much larger proportion of their incomes on 
food. Yet, after adjusting for inflation, federal investment in food 
and agricultural research has been flat for two decades.
Create a Joint USDA-IllinoIs DNR Invasive Species Program
    Request. Direct $5 million per year through USDA-ARS to Illinois to 
create, on the campus of the University of Illinois, a unified, 
collaborative USDA-IDNR Invasive Species Laboratory and program on 
research, implementation and outreach against invasive species 
affecting Illinois.
    Invasive species cost Illinois citizens millions of dollars 
annually for control and loss of value of crop and natural lands. While 
some control efforts are well coordinated among State, local and 
Federal partners it is not true for control of many exotic species. 
Creating a collaborative program to develop and implement solutions to 
invasive plant and animal species in agricultural, forest, waterway and 
natural areas will benefit all the State's citizens and businesses. 
Research and outreach efforts require surveying for new invasives, 
developing novel management strategies, preventing new invasions, and 
educating Illinois', citizens about invasive threats and the potential 
benefits from these solutions.
    Invasive species affect every Congressional district in Illinois. 
Species affecting Illinois include kudzu, Chinese soybean aphid, Asian 
longhorned beetle, gypsy moth and zebra mussel. Illinois is fighting 
invasive species, but efforts to find solutions are limited by lack of 
funds for research and implementation. The Illinois Natural History 
Survey in Champaign has a research and outreach program addressing 
Illinois' invasives. USDA-ARS has an Invasive Weed Management Research 
Unit on the UI campus. Creating and funding a joint program on the UI 
campus reduces redundancy, builds on strengths of each program, and 
unifies efforts by USDA, IDNR, and IDA, making Illinois a leader in the 
fight against invasive species. Funding to assess new and current 
invasives, develop and implement novel long-term solutions, and produce 
high-quality materials for the public and schools throughout Illinois 
will benefit the entire State.
Value-Added Agriculture
    Request. Increase overall funding to USDA programs like Rural 
Business Cooperative Services Agency, Rural Business Programs, 
Cooperative Development Grant Programs, Value Added Grant Programs, 
Rural Business Enterprise Grant Programs, and Rural Business 
Cooperative Services Programs/Rural Development Mission statement areas 
and in the areas of biotechnology, biofuels, and biomass research and 
developments.
    Each part of the U.S. is unique in terms of agronomic conditions, 
on-farm resources, access to markets, the price basis, transportation 
systems, and other factors. These factors all affect the types of 
specialty crop and livestock that can be profitably produced as well as 
the potential for value-add processing in each eco-region.
    To maintain the diversity of U.S. agriculture, agribusinesses and 
food processing and manufacturing industry, to create a unique 
opportunity for farm families and rural communities in the global food 
economy, and to create an agriculture and food system that uses natural 
resources wisely, a major commitment is needed now to develop policies 
and make critical investments that will advantage the U.S. economically 
in the high tech competition of the 21st century global food and 
agriculture system.
    There is significant potential for collaboration in innovations to 
create the new economy food and agriculture sector with major private 
sector partners such as DuPont, Monsanto, Rennessen, Syngenta, Protein 
Technologies International, ADM, Kraft Foods and others, as well as new 
era producer cooperatives and producer alliances.
    The ``first wave'' of agribiotechnology has been dominated by 
designer input traits that improved yields and lowered costs by 
incorporating herbicide, disease and insect resistance into corn and 
soybeans. Bt corn and Roundup Ready soybeans are examples. Rootworm 
resistant corn is on the horizon. First wave advancements will continue 
and will accelerate.
    The ``second wave'' of agribiotechnology is rapidly approaching. It 
focuses on value-enhanced traits, bioproducts and functional food and 
pharming. Examples include: unique traits in corn, soybeans, and wheat 
that create value for livestock feeders and food companies; in improved 
processing efficiency and for energy, industrial, and human health 
applications.
    Bioengineering plants and animals to produce nutraceuticals and 
farmaceuticals, such as cancer preventing agents, will change the 
health care industry and bring integration with agriculture. Edible 
vaccines delivered through fresh foods like apples or potatoes will 
change the landscape of drug production and delivery. Corn modified to 
fight osteoporosis; and soybeans, with unique human disease resistance 
qualities and health improvement attributes, will turn commodities into 
functional food products.
    On ``Pharms,'' herds of novel transgenic animals will serve as 
``bio-pharmaceutical factories'' to produce drugs, medicines and even 
organ donors for human transplants. A genetically engineered dairy cow, 
goat and/or sheep herd will produce medicines deposited in milk at a 
fraction of the cost of traditional methods of production.
    Bioproducts and biochemicals bioengineered from plants will support 
biobased value-added products and fuels for domestic use and export 
replacing petrochemical feedstocks with biomass materials. Biobased 
fuels, such as ethanol, produced from customized plant biomass 
technologies using cost competitive bioprocesses will dramatically 
reduce dependence on imported oil.
    Federal policies must be responsible, support these new ventures, 
and regulate with sound science principles.
Environmental Research and Outreach Programs at the University of 
        Illinois (At Urbana/Champaign)
    Request. $130,000 for the Illinois Water Resources Center; $1.1 
million for the Illinois-Indiana Sea Grant College Program; and 
$700,000 for the Midwest Technology Assistance Center.
    The concept of this proposal is to build on existing Federal/State 
partnerships to help Illinois communities and agencies address issues 
of natural resource development and protection. The proposed program 
draws on three statutory programs for research and outreach on natural 
resources and the environment: (1.) In partnership with the U.S. 
Geological Survey, the Illinois Water Resources Center receives federal 
matching funds to conduct university-based research and outreach on 
water resources issues. (2.) In partnership with the National Oceanic 
and Atmospheric Administration, the University of Illinois and Purdue 
University jointly conduct the Illinois-Indiana Sea Grant College 
Program. Sea Grant conducts research and outreach to help citizens and 
communities understand and manage coastal resources. (3.) In 
partnership with the U.S. Environmental Protection Agency, in 1998, the 
Midwest Technology Assistance Center (MTAC) was formed at the 
University of Illinois to help small communities solve problems of safe 
drinking water supply. By strengthening these partnership programs, the 
proposed research and outreach will improve knowledge of Illinois' 
natural resources and their wise use in economic development.
Illinois-Missouri Biotechnnology Alliance
    Request. $3 million in funding for the Illinois-Missouri 
Biotechnology Alliance.
    The State of Illinois supports funding for the Illinois-Missouri 
Biotechnology Alliance to continue research at the Universities of 
Illinois and Missouri on biotechnology. Congress appropriated $1.184 
million in funds for this project in fiscal year 2000. The Illinois-
Missouri Biotechnology Alliance is a competitive grants program focused 
on biotechnology issues related to the production and utilization of 
corn and soybeans as they are produced in the mid-western U.S.
Soybean Disease Biotechnology Research Center
    Request. Request $3.5 million for fiscal year 2002
    It would be established within the National Soybean Research 
Laboratory (NSRL) at the University of Illinois, the Center will be the 
first line of defense against major soybean diseases that threaten the 
most important ``biofactory'' of new foods and uses in the future, 
namely, the soybean crop. Scientists in the Center will employ cutting 
edge biotechnology research to provide soybeans with new and improved 
mechanisms of escape from, tolerance of, and resistance to major 
pathogens, including soybean cyst nematode (SCN) and other soy diseases 
that threaten the profitability of the soybean industry. The Center 
will draw on the 17,000 lines in the National Soybean Germplasm 
Collection at the NSRL and apply the power of structural, comparative, 
and functional genomics and genetic transformation. The Illinois 
soybean industry will provide funds to help establish the Center and 
support its research program.
Center for Alternative Agriculture Crops and Products
    Request. $1.95 million for the Center for Alternative Agriculture 
Crops and Products at SIU-Carbondale.
    This center synergizes various corporations, agencies, and regional 
universities of the heartland and midsouth to explore alternative 
income crops and products for Southern Illinois, Illinois, and the 
region. Emphasis would be on increased farm income and increased rural 
development through added production, processing, and employment. The 
plan calls for $1.95 million for renovation and expansion of a 
13,000sq. ft. building on SIU-Carbondale campus.
SIU Soybean Genomics Lab
    Request. Seek 189,000 for the Soybeans Genomics Lab at SIU.
    Expand the current laboratory to accommodate four added faculty 
researchers in soybean genomics and transformation.
Renewables Bioprocessing Research Program
    Request. Seek $20 million for the Renewables Bioprocessing Research 
Program at the University of Illinois.
    The Renewables Bioprocessing Research Program (RBRP) is an effort 
by the University in collaboration with other agencies and institutions 
to provide ``plant to product'' research information for the production 
and processing of corn, soybeans, and wheat. Objectives of the RBRP 
program are: (1.) Establish an interdisciplinary collaborative research 
effort in the production and development of new food and industrial 
products from corn, soybeans, and wheat coproducts; (2.) Establish an 
interdisciplinary collaborative research effort to improve the overall 
efficiency of converting renewable corn, soybean and wheat coproducts 
into saleable products; (3.) Enhance the development of small-scale 
laboratory procedures to accurately predict the genetic capabilities of 
different genotypes, phonetypes, and varieties to make desired end use 
products; and, (4.) Provide commercial companies with a single 
integrated program of contract research.
                         education and training
SIU/U of I Outreach Center
    Request. Seek $1.8 million for a joint SIU/U of I outreach center. 
Located on the Carbondale, IL Campus, University of Illinois Extension 
Service and SIU College of Agriculture Agribusiness Economics 
Department will partner to serve Southern Illinois constituents via on-
site classroom instruction, digital television delivery, and web-based 
access. Building 103 on the Carbondale campus would be renovated, 
expanded, and rewired. Estimated cost is $1.8 million.
SIU Plant and Alternative Crop Training Center--Belleville, IL
    Request. Seek $2.5 million for a Plant and Alternative Crop 
Training Center at Southern Illinois University Belleville Research 
Station.
    Add a 10,000-sq. ft. facility for university and industrial 
training on the SIU Belleville Research Station site near the Mid-
America airport. The facility would allow agricultural industries of 
the Metro-East (St. Louis) area to have access to an indoor multimedia 
training/meeting facility. This plan allows for synergy with Donald 
Danforth Plant Science Center shared use of land and 1,200-sq. ft. of 
wet-laboratory space. Construction cost is estimated to be $2.5 
million.
                   food safety and inspection service
Wholesome Meat Inspection Program Cost Share
    Request. Increase USDA support of Illinois' Wholesome Meat 
Inspection Program to cover 50 percent of the total program cost as 
required in the joint State/Federal cooperative agreement. The Federal 
allocation required in fiscal year 2002 is $5,224,155 (an additional 
$638,155 over the fiscal year 2000 allotment).
    The State of Illinois maintains a Wholesome Meat Inspection program 
as part of a cooperative agreement with the Federal government's 
Cooperative Inspection Program of the United States Department of 
Agriculture's Food Safety and Inspection Service. The cost of the state 
Wholesome Meat Inspection program is designed to be shared evenly (50/
50) with the Federal government. However, the Federal government is not 
meeting its commitment to fund 50 percent of the state program costs. 
Federal program officials indicate that meeting 50 percent of program 
costs is a goal that they have been unable to reach as the Federal 
appropriations have been relatively flat over the last several years 
and new states have joined the program (most recently Minnesota).
    Federal officials appear to have considerable leeway in determining 
the distribution of funds among the states, considering each state's 
budget request to determine the most equitable distribution of limited 
available resources. The Federal government should increase the total 
Federal appropriation so that all states can be funded at 50 percent of 
program costs.
National Center for Food Safety & Technology at IIT
    Request. $3 million through Agriculture Appropriations bill for the 
National Center for Food Safety & Technology at the Illinois Institute 
of Technology.
    IIT seeks continuation of the $3 million received annually by its 
National Center for Food Safety & Technology. Through the leadership of 
Senator Durbin and Congressman Lipinski, the Center received $3 million 
in both the fiscal year 2000 and 2001 Agriculture Appropriations bills. 
The Center needs the funding to continue its progress in fighting the 
growing incidence of food borne illness. The Center will continue 
developing its pilot plant into a state of the art food processing-
pathogen laboratory. The Center's goal is to be able to stage multiple 
full-size trials and then transfer the technology to food production 
facilities. Another goal is expanding the Center's collaboration with 
the food industry. The Federal funding has improved the Center's 
programs so that more food companies want to join the Center for help 
In protecting their processes. Over the last two years, food company 
membership has grown from 43 to 75.
Quality Assurance Pilot Certification Program for Small Meat Processors
    Request. Seek $250,000 a year for three years to establish a 
Quality Assurance Certification Program under the IL Dept. of 
Agriculture for small meat processors.
    This Pilot Program is an effort by the Department to establish a 
Quality Assurance Certification Program for small meat and poultry 
slaughter and processing plants. Under this certification program, the 
Department will contract with food safety experts to provide education 
and HACCP compliance training to plant management and employees. After 
completion of the project, material can be used by other states.
National Food Testing Center at the University of Illinois
    Request. Seek $25 million to create a state of the art National 
Food Testing Center at the University of Illinois.
    To create a state-of-the-art facility for conducting safety and 
efficacy research on new, improved, and functional foods, including 
health-related, genetically enhanced foods. The National Food Testing 
Center will support and expedite the most important experiments on 
foods, that is, tests to assure that they are safe and effective. 
Through these experiments, hundreds of new and improved foods and 
related products will be tested and approved for human use, resulting 
in greatly improved human health, quality of life, and longevity. This 
will enable the U.S. to capture proprietary benefits from its 
investment in agricultural and biomedical research. In addition, 
consumers of these products will be fully confident that these products 
will be safe and effective.
                            animal research
Transgenic Animal Research Center at Southern Illinois University 
        Carbondale
    Request. $370,000 for the Transgenic Animal Research Center at 
Southern Illinois University Carbondale (SIUC).
    Both the SIUC College of Agriculture and the SIU School of Medicine 
are in an excellent position to move forward with new and intensive 
technology research and education initiatives in transgenic livestock 
research, including cloning, gene, and disease research. It is 
necessary, however, in order to renovate and expand existing facilities 
at the SIUC livestock production units and to create two laboratories 
at the School of Medicine in order to meet NIH guidelines for 
containment and confinement of transgenic animal, provide laboratory 
and surgical space, and veterinarian office space.
    At the School of Medicine, SIU proposes to develop a core facility 
in the animal laboratories at SIU School of Medicine. This core 
facility will enhance ongoing and proposed genetics research and allow 
faculty of the SIU School of Medicine to study the gene/disease 
relationships. This facility will permit the genetic construction of 
mice that either express or do not express the genes that have been 
identified as important in the development of a particular disease.
Livestock Genome Sequencing Initiative at University of Illinois 
        (Urbana/Champaign)
    Request. $1.6 million in Federal funding is requested through the 
USDA-ARS to the University of Illinois for this initiative.
    International participants in a Livestock Genome Sequencing 
Initiative (LGSI) will create an ordered map of large insert DNA clones 
covering the entire DNA in major species of food animals (i.e. cattle 
and pigs) and will sequence all the DNA in those clones, so that every 
gene in each of those species is identified. The resulting map and 
sequence information will be placed in databases that can be accessed 
by scientists using bioinformatics to help establish the function of 
genes, thus leading to valuable practical applications. In order to 
obtain timely access to the resulting information, it is especially 
important for the University of Illinois to be involved in leading the 
effort to map and sequence the cattle and swine genomes.
National Food Animal Institute
    Request. $1 million a year for three years.
    The Institute would be established by the Department of Agriculture 
in Illinois to review research through peer review and to publish and 
disseminate unbiased information about all the aspects of the food 
animal industry. It would maintain comprehensive information systems 
for the improvement and enhancement of the food animal industry for use 
by the public, government agencies, other interested parties. The 
Institute must fulfill its purpose with unbiased integrity.
Johne's Disease Pilot Program
    Request. Seek $1 million over a three year period to start a pilot 
program in IL under the IL Dept. of Agriculture.
    Johne's disease is a wasting disease of cattle, sheep, goats and 
cervidae. This disease is contracted through direct contact with 
infected animals, which are generally infected at a young age, but may 
not exhibit signs of the disease until they are four or five years of 
age. There is no cure for Johne's disease. It has been estimated that 
economic losses can amount to $227 per cow. A recent National Animal 
Health Monitoring System (NAHMS) sampling of Illinois dairy cows, 
indicated a prevalence of at least 10 percent in the cull cows from the 
dairy herds tested. Illinois would like to start a pilot program that 
could be used as a model for the U.S.
             animal plant health inspection service (aphis)
National Coolwater Broodfish Center at Southern Illinois University 
        Carbondale
    Request. $1.25 million for the National Coolwater Broodfish Center 
at SIUC.
    A crucial need exists for selectively bred coolwater broodfish 
(sexually mature fish that are used to produce offspring for stocking) 
such as hybrid striped bass, largemouth bass, sunfish, walleye, yellow 
perch, as well as coolwater strains of trout and catfish. Domestication 
and selectively breeding are necessarily long-term activities that 
cannot be expected to be supported by traditional granting programs 
that are almost universally limited to time horizons of just a few 
years.
    The objectives will be to domesticate suitable strains of coolwater 
species for commercial foodfish production, selectively breed coolwater 
fishes for desirable traits (rapid growth, disease resistance, better 
dress-out, etc.), maintain genetic histories of coolwater broodfishes, 
and provide selectively bred coolwater broodfishes to the aquaculture 
industry. The National Coolwater Broodfish Center, in conjunction SIU's 
other programs, will serve as a powerful catalyst for aquaculture 
development in the U.S.
    Should you need additional information, please do not hesitate to 
contact Derek Persico in my Washington, DC office at (202) 624-7762. 
Thank you for your consideration of these requests and for your 
leadership on this most important legislation.
                                 ______
                                 

    Prepared Statement of the International Association of Fish and 
                           Wildlife Agencies

             natural resources conservation service (nrcs)
    The Natural Resources Conservation Service has immense 
responsibilities for implementing the conservation provisions of the 
1985 Food Security Act (FSA), the 1990 Food, Agriculture, Conservation 
and Trade (FACT) Act, and the Federal Agricultural Improvement and 
Reform (FAIR) Act of 1996.
    WRP, WHIP, FPP and EQIP.--The Wetlands Reserve Program (WRP), 
Wildlife Habitat Incentives Program (WHIP) and Farmland Protection 
Program (FPP) have reached their authorized acreage or appropriation 
caps and USDA characterizes them as ``completed''. This is particularly 
perplexing since these are all voluntary, incentive based programs that 
are currently well over-subscribed. These programs not only provide 
income support for agricultural landowners, but they also help 
landowners meet their natural resources conservation objectives in ways 
that are alternative to regulatory controls.
    Wetland conversions continue and wetland resources cannot be 
sustained without a proactive program like WRP that compensates 
landowners for voluntary restoration of wetlands. WRP is currently 
over-subscribed by a factor of 5, with many eligible landowners already 
qualified but unable to enter the program since it has bumped up 
against its statutory acreage enrollment cap.
    Similarly, many wildlife species reside on agricultural landscapes 
and have nowhere else to go--they must survive on those landscapes if 
they are to survive at all. WHIP has helped many landowners make 
meaningful contributions to conservation of imperiled species of 
wildlife and landowner interest in this program has far exceeded 
available funding.
    In a like manner, the FPP has been important in places where urban 
encroachment diminishes the long-term viability of the local farming 
economy and interest in the program far exceeds acreage availability.
    While the program caps for WRP, WHIP and FPP have been reached, 
these caps are arbitrary in the sense of natural resource 
sustainability and should not be viewed as reasons for ending the 
programs. To the contrary, none of these programs (WRP, WHIP or FPP) 
have outlived their critical and key role in conservation.
    In addition, funding for the Environmental Quality Incentives 
Program (EQIP) has been insufficient to meet landowner interest and 
needs. The EQIP program can help agricultural landowners achieve 
remediation of non-point source runoff via a voluntary, incentives-
based program, as opposed to the strict imposition of regulatory 
controls on a farm-by-farm basis.
    All four of these programs have all been tremendously popular and 
successful. Due to the overwhelming success, customer acceptance and 
public benefits of these programs, the Association strongly encourages 
Congress to reauthorize and fund WHIP at $100 million, FPP at $65 
million, EQIP at $300 million and WRP at $286 million, which will 
support an increase in the enrollment cap for WRP by 250,000 acres in 
fiscal year 2002.
    Technical Assistance.--The NRCS Strategic Plan for 2000-2005 
establishes natural resource priorities in support of agriculture and 
identifies staffing levels needed to achieve success. The Strategic 
Plan projects a steadily increasing need for technical assistance 
through 2005. Adequate technical assistance will be essential to ensure 
private landowners can deliver the conservation of natural resources 
while also providing affordable food for our citizens. However, despite 
increased workloads and increased societal demands on land and natural 
resources, NRCS staffing levels have been flat in recent years and the 
fiscal year 2002 budget proposal actually reflects a decrease of 301 
staff years. The rationale for the 301 staff year reduction is tied to 
loss of emergency funding to support the Emergency Watershed Protection 
Program and, thereby, reduces the ability of NRCS to respond to 
emergencies. This reduction is inconsistent within the overall USDA 
budget proposal in that the FSA budget proposal reflects an increase of 
$120 million for increased staffing to better respond to agricultural 
emergencies even though emergency funding has been eliminated there as 
well.
    It seems prudent for both NRCS and FSA to be adequately staffed to 
ensure quick response to emergency situations. In addition, the 
Conservation Reserve Program (CRP), WRP, WHIP and EQIP all reflect 
long-term contracts that necessitate continuous technical support to 
participants, whether or not there is new sign-up. Notably, $44 million 
of the $58.4 million CTA increase shown in the fiscal year 2002 budget 
proposal is actually a budgetary shift from CCC funds (for CRP 
technical assistance) that allows NRCS to stay even in regard to 
supporting CRP, rather than an actual increase in CTA. The Association 
strongly encourages Congress to restore the 301 staff year reduction 
reflected in the fiscal year 2002 budget proposal as well as providing 
the addition of sufficient staff years to begin to address the nearly 
24,000 staff years (compared with 11,200 staff years in the fiscal year 
2002 budget proposal) identified for 2002 in the NRCS Strategic Plan 
for 2000-2005.
    Increasingly, State fish and wildlife agencies are contributing 
staff time to help NRCS field offices service fish and wildlife aspects 
of USDA assistance to private landowners. Such partnerships can help 
NRCS deliver specialized technical expertise to private landowners at 
less cost than adding staff with this expertise. The Association 
strongly encourages the Administration and Congress to emphasize 
partnering arrangements, between NRCS and State fish and wildlife 
agencies and others, that result in cost-efficiencies through a 
challenge-grant program initially funded at $5 million in the fiscal 
year 2002 budget.
    Wetland Determination.--We believe the need for wetland 
determination, certification, and mapping is great and urge NRCS to 
proceed as soon as possible, under the guidance of the FAIR Act of 
1996. The Association urges expeditious completion of the wetland 
determinations required to implement the Swampbuster provisions of the 
1985 FSA, 1990 FACT Act, and the 1996 FAIR Act as well as the FAIR Act 
directed interagency cooperation, whereby NRCS assumed responsibility 
for wetland designation for Section 404 (Clean Water Act) purposes on 
farmland, including tree farms, rangelands, native pasture, and other 
private lands used to produce or support the production of livestock. 
The Association and individual State fish and wildlife agencies will 
continue to work with NRCS to help achieve these goals.
    Public Law 566.--The Association generally supports small watershed 
(Public Law 566) projects. Support is based upon continued emphasis on 
updated watershed planning and management. Such efforts could utilize 
and expand upon existing Public Law 566 plans in light of present day 
issues of wetland protection, water quality enhancement and fish and 
wildlife habitat. The greatest potential for these programs is for land 
treatment measures that retain the water on the land in concert with 
stream flow that is adequate to sustain diverse aquatic life, improve 
infiltration, improve water quantity and quality, and provide fish and 
wildlife habitat. Structural and non-structural land treatments require 
state and local matching funds to leverage greater conservation 
benefits for each Federal dollar spent while promoting valuable 
partnerships among states, local agencies, and other organizations. The 
Association supports the level of funding for Public Law 566 that is 
reflected in the fiscal year 2002 Budget.
    National Buffer Initiative.--NRCS has implemented this initiative 
in cooperation with industry and other partners. The National Academy 
of Sciences has found that buffer strips can reduce off-field pollution 
by 70 percent, thus also contributing to meeting non-point source 
remediation goals under the Clean Water Act. Unfortunately, the level 
of sign-up by producers remains very low. NRCS has committed special 
emphasis and a major effort to use the buffer strip practices covered 
by the continuous CRP sign-up in a more targeted fashion. However, 
there is no mention of the National Buffer Initiative in the fiscal 
year 2002 budget narrative. Unlike the large or whole field CRP 
retirements, buffer strips will require extensive outreach and 
specialized incentives that fairly compensate landowners. The 
Association encourages NRCS to continue the National Buffer Initiative 
as a high priority effort.
    Forestry Incentives Program (FIP).--The Forestry Incentives 
Programs (FIP) has multiple resource values for fish, forests, 
wildlife, clean water and erosion control. Many farms contain forest 
resources that are as in need of conservation treatment as cropland and 
grassland. The Association opposes the NRCS proposed intention to zero 
out FIP funding and strongly recommends that the fiscal year 1999 level 
of $16.325 million be restored in the fiscal year 2002 budget.
                                 ______
                                 

            Prepared Statement of the Joslin Diabetes Center

                              introduction
    Mr. Chairman, thank you for this opportunity to submit a statement 
for the public witness hearing record. The subject of this short 
statement is the continued funding in fiscal year 2002 for the Diabetes 
Project in the Extension Service of CREES. We have developed a plan for 
fiscal year 2002 that will require continued funding at the current 
year's level of $926,000. This includes costs of Federal 
Administration, participation expenses of the states of Washington, New 
Mexico and Hawaii, and the personnel, equipment and associated costs of 
Joslin Diabetes Center within the total cost of the program.
                      fiscal year 2001 background
    I would like to express Joslin Diabetes Center's sincere 
appreciation to Representative Nethercutt and the Subcommittee for 
actions in the fiscal year 2001 process in providing $926,000 for the 
third year of the Diabetes Project. We know you faced difficult 
decisions concerning funding priorities. We feel that the allocation of 
these funds indicates support for the growing community role and 
organizational flexibility of the Extension Service.
    Recently Joslin, Washington State, Hawaii, and Federal Extension 
personnel attended an all day planning session for the current year and 
reviewed accomplishments to date on this project. A summary of each of 
these segments will be forwarded to the committee staff when available.
    Through fiscal year 2001 funding retinal imaging equipment will be 
installed in all three states, with image acquisition and training, and 
image reading procedure in place. At a rate of 30 patients per day per 
site, the three units will have the capacity to screen 18000 patients 
annually. This actually involves the examination of 36,000 eyes, 
because a patient can develop diabetes retinopathy in only one eye.
    All participants remain committed to goals and objectives of the 
original project and are planning cooperatively for this and the coming 
fiscal year.
                         fiscal year 2002 plan
    For fiscal year 2002, the mission and objectives for the three 
state pilot programs will be implemented on two levels:
  --Continuation of distribution of educational materials for diabetes 
        awareness and dieting/health guidelines;
  --Retinal screening for diabetes mellitus in all three states.
  --Assessment of progress and revision of materials and internal 
        processes within each state will be conducted for refinement 
        for each state's target population.
    Joslin Diabetes Center would welcome additional participation 
within the three states of the pilot project to better educate 
consumers about diabetes and the most effective methods to address 
diabetes and its complications.
    Mr. Chairman, this concludes my brief statement. We are submitting 
a detailed budget for the fiscal year 2002 funds of $926,000 to the 
Committee for continuation of this project with the Extension Service. 
If you or the Committee staff have any questions we may answer 
concerning this project, we would be pleased to meet and discuss the 
details in more detail.
    The Extension Service and Joslin Diabetes Center appreciate your 
confidence in our capabilities and your focus on the improvement of 
quality of life in rural America. We respectfully request continued 
funding of $926,000 in fiscal year 2002 to fully demonstrate the 
benefits and potential national returns that can be derived from this 
pilot effort.
                                 ______
                                 

   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    Chairman Cochran and Members of the Subcommittee: The Metropolitan 
Water District of Southern California (MWD) appreciates the opportunity 
to submit testimony regarding the U.S. Department of Agriculture's 
(USDA) fiscal year 2002 budget, for the Hearing on Agriculture, Rural 
Development, Food and Drug Administration and Related Agencies 
Appropriations. MWD is a public agency created in 1928 to meet 
supplemental water demands of those people living in what is now 
portions of a six-county region of southern California. Today, the 
region served by MWD includes 17 million people living on the coastal 
plain between Ventura and the international boundary with Mexico. It is 
an area larger than the State of Connecticut and, if it were a separate 
nation, would rank in the top ten economies of the world.
    Included in our region are more than 225 cities and unincorporated 
areas in the counties of Los Angeles, Orange, San Diego, Riverside, San 
Bernardino, and Ventura. We provide nearly 60 percent of the water used 
in our 5,200-square-mile service area. MWD's water supplies come from 
the Colorado River via the district's Colorado River Aqueduct and from 
northern California via the State Water Project's California Aqueduct.
                              introduction
    MWD continues to favor USDA implementation of conservation 
programs. MWD firmly believes that interagency coordination along with 
cooperative conservation programs, that are incentive-based and 
facilitate the development of partnerships are critical to addressing 
natural resources concerns, such as water quality degradation, wetlands 
loss and wildlife habitat destruction. It is vital that Congress 
provide USDA with the funding necessary to successfully carry out its 
commitment to natural resources conservation.
    Our testimony focuses on USDA's conservation programs that are of 
major importance to MWD. In particular, MWD urges your full support for 
funding for USDA's Environmental Quality Incentives Program (EQIP). 
Funding for this program is essential for achieving Colorado River 
Basin salinity control objectives through the implementation of 
salinity control measures as part of EQIP. Sufficient Federal funding 
for USDA programs is necessary to achieve source water quality 
protection objectives in the Colorado River Basin.
                environmental quality incentives program
    EQIP provides cost-sharing and incentive payments, technical 
assistance and educational assistance to farmers and ranchers for the 
implementation of structural practices (e.g., animal waste management 
facilities, filterstrips) and land management practices (e.g., nutrient 
management, grazing management) that address the most serious threats 
to soil, water and related natural resources. EQIP is to be carried out 
in a manner that maximizes environmental benefits per dollar expended. 
This assistance has been focused in conservation priority areas 
identified by the Natural Resources Conservation Service's (NRCS) State 
Conservationists, in conjunction with state technical committees and 
Farm Service Agency personnel.
    In Public Law 104-127, Congress amended the Colorado River Basin 
Salinity Control Act to direct the Secretary of Agriculture to carry 
out salinity control measures in the Colorado River Basin as part of 
EQIP. Beginning with the first full year of EQIP funding in 1997, 
USDA's participation in the Colorado River Salinity Control Program 
(Salinity Control Program) has significantly diminished. The mechanism 
by which funding had been allocated by USDA inherently masked projects 
for which benefits are interstate and international in nature. After 
requests had been made by the Colorado River Basin Salinity Control 
Forum (Forum), the interstate organization responsible for coordinating 
the Basin states' salinity control efforts, and others, and directives 
from the Congress, USDA has concluded that the Salinity Control Program 
warranted a multi-state river basin approach. The Forum is composed of 
Gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah, and Wyoming. Clearly, Colorado River salinity control 
has benefits that are not merely local or intrastate in nature, but 
continue downstream. Federal funding in an amount greater than $200 
million through financing provided by the Commodity Credit Corporation 
is critical for implementation of EQlP in order to achieve nationwide 
EQIP objectives. This would allow acceptance and funding of additional 
EQIP proposals nationwide. USDA staff have indicated that a more 
adequately funded EQIP would result in the availability of more funding 
for the Salinity Control Program.
    The Colorado River is a large component of Southern California's 
regional water supply and its relatively high salinity causes 
significant economic impacts on water customers in MWD's service area, 
as well as throughout the Lower Colorado River Basin (Lower Basin). MWD 
and the Bureau of Reclamation (Reclamation) completed a Salinity 
Management Study for Southern California in June 1999. The first phase 
of the study (completed in February 1997) updated the findings of 
previous studies and concluded that the high salinity from the Colorado 
River continues to cause significant impacts to residential, industrial 
and agricultural water users. Furthermore, high salinity adversely 
affects the region's progressive water recycling programs, and is 
contributing to an adverse salt buildup through infiltration into 
Southern California's irreplaceable groundwater basins. In April 1999, 
MWD's Board of Directors authorized implementation of a comprehensive 
Action Plan to carry out MWD's policy for management of salinity. The 
Action Plan focuses on reducing salinity concentrations in Southern 
California's water supplies through collaborative actions with 
pertinent agencies, recognizing that an effective solution requires a 
regional commitment. MWD, the Association of Groundwater Agencies, the 
Southern California Association of Publicly Owned Treatment Works, and 
the WateReuse Association of California have formed a Salinity 
Management Coalition which will be holding a Salinity Summit next 
month.
    Reclamation estimates that water users in the Lower Basin are 
experiencing hundreds of millions of dollars in annual impacts from 
salinity levels in the river, and that impacts would progressively 
increase with continued agricultural and urban development upstream of 
California's points of diversion. Droughts will cause spikes in 
salinity levels that will be highly disruptive to Southern California 
water management and commerce. The Salinity Control Program has proven 
to be a very cost-effective approach to help mitigate the impacts of 
higher salinity. Adequate Federal funding of the Salinity Control 
Program is essential.
    The Forum issued its 1999 Review, Water Quality Standards for 
Salinity, Colorado River System (1999 Review) in June 1999. The 1999 
Review found that additional salinity control was necessary with normal 
water supply conditions beginning in 1994 to meet the numeric criteria 
in the water quality standards adopted by the seven Colorado River 
Basin states and approved by the U.S. Environmental Protection Agency 
(USEPA). For the last eight fiscal years (1994-2001), funding for 
USDA's salinity control program has not equaled the Forum-identified 
funding need for the portion of the program the Federal Government has 
the responsibility to implement. While NRCS has designated Colorado 
River Basin salinity control as an area of special interest and 
allocated about $4.5 million in fiscal year 2001, with states and local 
cost-sharing adding about $3.5 million, it is essential that 
implementation of salinity control efforts through EQIP be accelerated 
to reduce economic impacts. The Basin states and farmers continue to 
stand ready to pay their share of the implementation costs of EQIP.
    The Forum has determined that allocation of $12 million in EQIP 
funds in fiscal year 2002 is needed for on-farm measures to control 
Colorado River salinity. This level of funding is necessary to meet the 
salinity control activities' schedule to maintain the state adopted and 
USEPA approved water quality standards. With this level of Federal 
funding, an additional $9.3 million in states and local cost-sharing 
could be committed.
                   conservation technical assistance
    MWD also supports adequate funding for Conservation Technical 
Assistance (CTA) within the NRCS Conservation Operations Program. 
Conservation technical assistance provides the foundation for 
implementation of EQIP and other conservation programs. While USDA has 
determined that 19 percent of the EQIP funds will be available for 
technical assistance, adequate funding for technical assistance and 
educational activities should be provided through the Conservation 
Operations Program, permitting these EQIP funds to be utilized for 
contracts with agricultural producers. USDA staff has indicated that 
the percentage of EQIP funds available for technical assistance is 
inadequate. Consequently, the Basin states have agreed that 40 percent 
of the states' cost sharing funds be utilized for technical assistance 
and educational activities. However, only through adequate Federal 
funding as well for technical assistance and educational activities can 
advance planning, proposal preparation assistance, comprehensive 
proposal review, and periodic verification of contract implementation 
occur.
                               conclusion
    MWD urges you and your Subcommittee to support funding of greater 
than $200 million for EQIP and adequate funding for NRCS CTA, and 
advise USDA that $12 million in EQIP funds be designated for the 
Salinity Control Program. Thank you for your consideration of our 
testimony. USDA's conservation programs are critical for achieving 
Colorado River Basin salinity control objectives, as well as broader 
source water quality protection objectives in the Colorado River Basin.
                                 ______
                                 

      Prepared Statement of the Multi-Crop Aflatoxin Working Group

    Mr. Chairman: This is to transmit the Multi-Crop Aflatoxin Working 
Group's request for fiscal year 2002 increased funding for aflatoxin 
research under the jurisdiction of the Subcommittee on Agriculture, 
Rural Development, and Related Agencies. The Multi-Crop Aflatoxin 
Working Group appreciates your assistance in making this part of the 
hearing records related to the fiscal year 2002 appropriations bill.
    The Multi-Crop Aflatoxin Working Group, with representatives from 
corn, cotton, peanuts and tree nuts, was formed in 1989 to pursue the 
goal of eliminating or preventing the formation of aflatoxin in field 
crops and serves as a liaison committee to assist the USDA on aflatoxin 
research. Aflatoxin, a by-product of several naturally occurring fungi, 
is recognized internationally as a serious food safety hazard. It 
causes millions of dollars of crop losses to American agriculture each 
year. A new factor causing reduction in U.S. exports is that 
international food safety organizations have lowered acceptable 
aflatoxin levels in foods and feeds to near zero levels. Development of 
procedures to produce food free of aflatoxin requires a coordinated 
national effort by both government and industry. The elimination of 
aflatoxin would greatly improve the competitiveness of U.S. 
agricultural products.
    Since the Multi-Crop Aflatoxin Working Group was formed it has 
strongly supported increasing the budget of the USDA Agricultural 
Research Service for aflatoxin research to help maintain this food 
safety research at an appropriate and productive level and worked with 
USDA to keep a focused and integrated aflatoxin research program. About 
$800,000 of the total USDA research budget for aflatoxin of about $9.1 
million goes for these grants given on a competitive basis. A blue-
ribbon panel of industry representatives assists in reviewing the 
projects that are funded and works with USDA to assure that they 
represent an integrated approach to the problem. Since the beginning of 
this program, over 200 important projects have been initiated. These 
include projects that address the major research objectives thought 
useful in reaching the goal of eliminating aflatoxin problems in the 
U.S. There are projects on (1) breeding and genetically engineered crop 
varieties with enhanced resistance to contamination, (2) development of 
bio-competitive agents to remove aflatoxin-producing fungi from crops, 
and (3) improving our understanding of the genetics and chemistry of 
how the fungi produce aflatoxin. These projects are being conducted 
through grants to ARS laboratories and state universities in about 20 
states.
    The combination of ARS projects, grants and the significant 
research efforts underway by U.S. producer and processor groups 
demonstrate the commitment of Congress, the Department of Agriculture, 
and the nation's food and fiber producers and processors to eliminate 
aflatoxin from the food supply, improve food safety, and increase the 
competitiveness of U.S. producers.
    Much has been learned from the research conducted since 1990. But 
much more needs to be learned about managing and eliminating the 
serious aflatoxin problems. This is evidenced by the devastating 
occurrence of aflatoxin in crops in some of the south, mid-south and 
southwest in 1998 and 1999.
                            funding request
    For fiscal year 2002, the Multi-Crop Aflatoxin Working Group is 
requesting that the funds added by the Congress in the fiscal year 2001 
appropriations that are proposed to be terminated be restored. The 
Working Group also requests that the USDA, ARS base budget for 
aflatoxin research in fiscal year 2002 be increased by $2.5 million for 
grants to translate our base of knowledge into practical systems to 
help farmers regain and increase export markets lost due to new more 
restrictive international standards. The funds are specifically 
earmarked for:
  --research and development of the biology and ecology of Aspergillus 
        flavus and the use of non-aflatoxin producing strains to 
        prevent aflatoxin contamination;
  --research and development to extend and commercialize this and other 
        control technology in other affected crops; and
  --research for the four affected crops that was outlined earlier.
    Thank you for consideration of our recommendations. If there are 
questions please contact Sherri Lehman (Corn Refiners Assoc., 202-331-
1634) or Phil Wakelyn (National Cotton Council, 202-745-7805).
                                 ______
                                 

  Prepared Statement of the National Association of FSA County Office 
                               Employees

    Thank you for the opportunity to provide testimony concerning the 
agricultural appropriations for the Farm Service Agency. The Farm 
Service Agency (FSA) improves the economic stability of agriculture, 
rural America, and the environment through commodity programs; farm 
ownership, operating, and emergency loans; conservation programs; 
domestic and overseas food assistance programs; and disaster programs. 
These programs provide a safety net to help farmers produce an adequate 
food supply, maintain viable operations, compete for export sales of 
commodities in the world marketplace, and contribute to the year-round 
availability of low-cost, safe, and nutritious foods. FSA considers 
environmental impacts in the development and implementation of program 
operations to ensure adequate protection of natural, cultural, and 
historical resources.
    Currently, FSA's programs are delivered in nearly 2,250 USDA 
Service Centers and 51 State Offices, including Puerto Rico. This 
network enables FSA to maintain close relationships with Agency 
customers and successfully address customer needs in an effort to 
continually improve the delivery of FSA programs. For the past seven 
years, FSA has been addressing historic shifts in the Federal 
Government's role in production agriculture. Rural communities and 
agriculture producers still rely heavily on the programs administered 
by the FSA field employees during periods of economic decline. Per the 
conferees report of the 2001 Ag Appropriations, ``. . .  the economic 
crisis and FSA workload are not expected to decline in the near future; 
the conferees expect that future funding requests by USDA to fully 
support the workload needs of the employees.''
    During the past four years Congress has recognized the need for 
additional salary and expenses for FSA, approving eight supplemental 
appropriations. In as much as FSA employees appreciate the supplemental 
process, they also recognize that the supplemental process is not a 
fundamentally sound method of budgeting for the agency. It has resulted 
in fluctuating staffing levels in the county office and inability to 
retain staff when critically needed. It causes turmoil with delayed 
payments and disrupted service to producers.
    According to the ``Government Performance and Results Act of 1993'' 
FSA Administrator must prepare and submit an annual Performance Plan 
for the agency identifying staffing and funding necessary to carry out 
program goals. OMB utilizes this plan for budget. NASCOE believes the 
2001 Performance Plan, prepared by the previous administration, does 
not adequately address FSA county office employee FTE positions and 
funding. This is indicated in the referenced 1999 and 2000 staffing 
reports. This is also evident in the fact there has been a funded 
supplemental appropriation request for temporary employees for the Farm 
Service Agency in 1998, 1999, 2000, and 2001.
    In Section 7 of the ``Government Performance and Results Act of 
1993 it is stated, ``Nothing in this Act shall be construed as limiting 
the ability of the Congress to establish, amend, suspend, or revise an 
annul performance goal. Any such action shall have the effect of 
superseding that goal in the plan.'' NASCOE believes USDA must amend 
the performance goals of the previous administration for FSA to assure 
adequate PERMANENT staffing and fiinding for FSA county office 
employees. NASCOE stresses we can, and must, achieve a turn-around in 
the abuses and stresses affecting FSA county office employees.
    The previous budget shortfalls illustrate the need for salary and 
expense finding to be commensurate with program delivery requirements. 
In 2001 and 2000, program outlays for Farm Service Agency salary and 
expenses accounted for only 2.8 percent of the total program level 
budget. When analyzing past historical budgets from the period of 1996 
through 2001, as well as analyzing the workload system performed by the 
Farm Service Agency, a 4.5 percent program level for salary and 
expenses is supported. In other words, for every dollar of program 
funds appropriated by Congress, it is demonstrated that approximately 
4\1/2\ cents needs to be appropriated for related salaries and 
operating expenses of the agency.
    In order to retain the security and accountability of the farm 
programs, investments and improvements in the infrastructure is 
mandatory. Wherever possible, USDA has streamlined its administrative 
structure to ensure that maximum resources are devoted to programs. 
Agencies have been consolidated, offices closed, and staffing levels 
reduced. More than one-third of the county field offices that existed 
in 1994 have been closed, and Farm Service Agency CO staffing levels 
have declined by nearly 40 percent between 1993 and 2001. At this same 
time, Farm Service Agency has been expected to complete significantly 
more work. We have seen greater than 250 percent increase in program 
outlays, and the percent of farm program participation is at its 
highest level in USDA history. The Farm Service Agency performs an 
actual count of work completed in each field office, and can determine 
based on this workload the total number of employees needed. In 1999, 
the most recent year for which data is available, FSA report 14 
indicates the total number of employees required to adequately staff 
the field FSA offices were 11,424.3 employees. The current staffing in 
county offices is 9160 permanent employees, taken from information 
provided by the Department. County offices are under-staffed by 2,284 
employees, and this disparity currently continues for 2001. We need 
USDA to recognize this crisis and correct the disproportionate staffing 
of employees. It is important to realize that permanent staffing at the 
Field Office level has decreased by 5,793 employees since 1993. This is 
nearly a 40 percent cut in permanent CO staffing and indicates a cut of 
2.5 employees per county office (there are approximately 2250 field 
offices nationwide).
    A major workload component facing FSA in the 2001 fiscal year is 
implementation of the Agriculture Risk Protection Act (ARPA). In this 
bill FSA was assigned the task of providing compliance oversight on 
Crop Insurance. Per a report released by the crop insurance industry in 
January 2001, ``Because FSA has an extensive field office structure and 
RMA does not, the act authorizes RMA to utilize FSA in its compliance 
efforts. Fraud and abuse are best addressed immediately in the area 
where it is suspected. FSA's presence in the local area should help RMA 
attain information regarding a suspect situation in a timely manner.'' 
In addition, in the same law, the Non-Insured Crop Disaster Assistance 
Program was dramatically changed to provide coverage to producers on a 
fee basis. Therefore the program will mirror crop insurance in many 
aspects and will require considerable staff time for County Offices. 
The time involved is unknown since this is new approach to a program 
FSA has delivered on a limited basis over the past 5 years. The Farm 
Service Agency indicates in their fiscal year 2000 and 2001 Annual 
Performance Plan that NAP is a very labor-intensive process and the NAP 
participation is expected to increase in the coming years. It is 
estimated these two new requirements will add staffing workload of 1 to 
1\1/2\ persons per office depending on the size of the Counties. NASCOE 
is concerned that a projection for this increased workload be included 
in the budget request.
    If USDA is to leverage the power of technology to deliver a range 
of services, its employees must be highly skilled. Unfortunately, USDA 
is facing an aging workforce, which has one of the highest retirement 
eligibility rates in the Federal Government. As FSA jobs become 
increasingly technical, skill gaps are emerging in key areas, such as 
information technology. Adequate funds for program and computer 
training are essential. As current workers retire and new workers are 
hired, FSA must ensure that it maintains and builds a talented, 
flexible and diverse workforce.
    USDA's budget request for 2002 increases FSA's salary and expense 
baseline by $120 million. This is the first time the Department has 
requested an increase in several years for FSA. The proposed budget 
reflects a net increase after inflation of approximately $70 million. 
NASCOE believes it is critical FSA considers allocating this increase 
to permanent staffing to take care of the increased workload generated 
by the current economic situation, the Agriculture Risk Protection Act, 
and the Freedom to E-File Act. Additional concern, as supported by 
recent GAO reports, is recognizing the crisis in human capital 
affecting USDA and the Farm Service Agency. With a majority of the 
workforce eligible to retire in the next six years, recruitment and 
adequate training of employees must occur. Considering a net cost per 
employee of $55,000, FSA could hire 1,273 permanent employees. Although 
the immense use of temporary employees by FSA has continued for the 
past three years, the skill and program expertise of these employees is 
minimal, and is no substitute for institutional knowledge. Due to past 
intermittent hiring and reductions of temporary employees, retention of 
these employees is often non-existent and leads to loss of real dollars 
in training of these employees only to have them exit the FSA workforce 
for more secure employment, and benefits.
    It is imperative that Farm Service Agency future budgets allow for 
the hiring and recruitment of permanent employees. The current workload 
and historic trends in agricultural policy and rural economics support 
a need for increased permanent staffing in the short-term. Responsible 
planning and awareness of the crisis in human capital being faced by 
USDA and the Farm Service Agency support the need for permanent hiring 
for long-term stability. The ability to meet the needs of rural America 
and our nation's farmers and ranchers is dependent upon the recognition 
that infrastructure needs are becoming more pronounced, and must be 
addressed with adequate funding and effective leadership.
                                 ______
                                 

    Prepared Statement of the National Association of Conservation 
                               Districts

    The National Association of Conservation Districts is the 
nonprofit, nongovernment organization that represents the nation's 
3,000 conservation districts and more than 16,000 men and women who 
serve on their governing boards. Established under state law, 
conservation districts are local units of state government charged with 
carrying out programs for the protection and management of natural 
resources at the local level. They work with nearly two-and-half 
million cooperating landowners and operators--many of them farmers and 
ranchers--to provide technical and other assistance to help them manage 
and protect nearly 70 percent of the private land in the contiguous 
United States. In carrying their mission to coordinate and carry out 
all levels of conservation programs, districts work closely with USDA's 
Natural Resources Conservation Service (NRCS) through its Conservation 
Technical Assistance (CTA) program to provide the technical and other 
help farmers and ranchers need to plan and apply complex conservation 
treatments.
    On behalf of America's conservation districts, I am pleased to 
provide our recommendations on selected conservation programs carried 
out through the US Department of Agriculture, especially those of the 
Natural Resources Conservation Service. Our request includes an 
additional $60 million for the NRCS Conservation Technical Assistance 
account, and another $190 million for specific conservation needs if 
the available funds permit. We are requesting an additional $350 
million for the Environmental Quality Incentives Program. We also 
request an additional $150 million for the Watershed Protection and 
Flood Prevention Program. And lastly, we request $60 million to provide 
NRCS technical and financial assistance to address watershed 
infrastructure issues, in concert with local sponsors, identified in 
the Small Watershed Rehabilitation Amendments of 2000.
    Farmers and ranchers can and do provide more than just food and 
fiber. They protect and improve the quantity and quality of our soil 
resources. They provide clean water and air, as well as wildlife 
habitat and open space. Many of the conservation practices producers 
apply on their land also take carbon out of the atmosphere and store it 
in the soil, providing a hedge against global climate change. As 
stewards of the nation's working lands, farmers and ranchers manage the 
vast majority of America's private lands and provide tremendous 
environmental benefits to the country.
    In 1985, Congress recognized the important role that farmers and 
ranchers play in environmental protection. It enacted the first Farm 
Bill conservation title, requiring producers to incorporate 
conservation into their operations if they wanted to continue receiving 
USDA farm program benefits. The title also included an incentives 
program--the CRP--to give farmers financial incentives to protect 
sensitive lands. In subsequent Farm Bills, lawmakers added more 
incentives programs--WRP, EQIP, Farmland Protection Program, WHIP--to 
encourage good stewardship behavior.
    The number and complexity of Federal conservation programs has 
grown considerably over the past one-and-a-half decades, but the 
Federal component of the infrastructure needed to implement them 
hasn't. In fact, it has gone down. In the meantime, the workload 
continues to grow.
    Two years ago, NACD and several of its partners collected extensive 
data on the challenges facing private lands conservation through its 
National Field Workload Analysis (WLA). The purpose of that analysis 
was to examine the staff years of technical support needed at the field 
level to carry out 29 core work elements each year. Some of these core 
work elements encompass Farm Bill program objectives, but many do not.
    The national data collected through the WLA painted a stunning 
picture of the workload needs across the countryside. To effectively 
address the total resource needs on America's private lands would 
require 359,734 staff years of technical assistance from all sources. 
If stretched over a 10-year period, this would equate to 35,974 staff 
years per year, at a cost of nearly $2.4 billion per year for technical 
assistance alone. We are just now completing a 2001 WLA and early 
indications are that the need has not gone down but has increased by 15 
percent.
    Earlier this month, the Senate Budget Committee indicated 
recognition of the shortfall in funding and staffing needed to address 
agriculture's environmental needs by adding $1.65 billion to USDA's 
budget for conservation in fiscal year 1902. America's conservation 
districts applaud this action and, if realized, urge you to provide a 
substantial increase in NRCS's CTA and other important conservation 
programs as part of that package. Our specific recommendations for how 
additional funds should be appropriated follow.
                         discretionary programs
    It is critical that the basic CTA account at least remains intact 
at its current level to address as many of the nation's resource 
conservation needs as possible. In order to cover inflation, increased 
pay costs and the loss of reimbursements from mandatory programs like 
the Conservation Reserve Program (CRP), we estimate that it will take 
an additional $60 million in fiscal year 1902 to keep NRCS field staff 
at its current level and not lose ground. This is the basis for our CTA 
request.
    Our request is consistent with the President's budget request, 
which proposes an overall $59 million boost in CTA funding for fiscal 
year 1902. While we welcome and applaud this requested increase, we are 
concerned that his budget directs up to $44 million in the CTA program 
to pay for any technical assistance costs associated with enrolling 
2.24 million acres into the CRP in 2002, as is optimistically projected 
in the President's budget request. We strongly urge Congress to ensure 
that conservation programs such as the CRP that are funded by the 
mandatory spending of the Commodity Credit Corporation pay their own 
technical assistance costs from mandatory funds.
    The bottom line is that whether CRP enrollments in 2002 are 2.24 
million acres or less, the CRP should pay for its own technical 
assistance costs, and that CTA should be funded at a level necessary to 
maintain current field staffing levels.
    When considering funding for NRCS fiscal year 1902, it is important 
to keep in mind that CTA is a program, and it was not created by 
Congress to serve as a salary and expense account to support a limited 
number of Federal tools. It was intended as a program in and of itself 
the purpose of which was to help the nation's farmers and ranchers and 
other landowners address their resource conservation needs by providing 
technical support at the local level, including non-HEL lands that are 
nonetheless eroding at unacceptable levels. It is critical that the 
basic CTA account at least remains intact at its current level to 
address this and myriad other resource needs.
    Waste from animal feeding operations (AFOs) has become a 
significant issue over the past several years. USDA's most recent 
estimate indicates that more than roughly 275,000 comprehensive 
nutrient management plans will be needed over the next several years to 
control runoff from AFOs. The President's proposal would re-direct $70 
million of CTA to begin to address those AFO plans. Conservation 
districts strongly support providing resources to help farmers and 
ranchers address AFO problems, but re-directing an already seriously 
oversubscribed CTA account for this purpose would be a mistake. If we 
seriously want to address AFO issues, Congress needs to provide an 
additional $70 million for technical assistance in fiscal year 2002 to 
do so.
    Another important national priority is the growing problem in many 
areas of the deteriorating condition of our nation's grazing and 
pasturelands. Resource problems such as brush, weeds and accelerated 
water or wind erosion threaten the capacity of nearly 300 million 
acres--more than 50 percent--of these lands to satisfy production needs 
and meet natural resource values. Working with partners such as the 
National Grazing Lands Conservation Initiative, conservation districts 
and their partners have determined that at least $60 million is needed 
to fund the Farm Bill's Conservation of Private Grazing Land (CPGL) 
Program to begin reversing the negative trends that affect both 
production and environmental concerns on these lands. Conservation 
districts urge Congress to appropriate $60 million to begin funding the 
CPGL in fiscal year 2002.
    Since 1985 significant advances have been made in reducing soil 
erosion and increasing productivity. Much of the gain in controlling 
soil erosion is a result of conservation compliance, the adoption of 
conservation tillage and the enrollment of land in the CRP. Since 1996, 
however, rates of erosion reduction have leveled off, as there were 
fewer incentives to reduce erosion on non-highly erodible land that is 
nonetheless eroding at unacceptable levels: There is still excessive 
soil erosion on 112 million acres of cropland, with a total of 1.3 
billion tons eroding per year. Leaching and runoff of soil and chemical 
components continue to be concerns. Conservation districts support 
appropriating an additional $60 million to address erosion control on 
non-HEL in fiscal year 2002.
    Through its Watershed Protection and Flood Prevention Program NRCS 
and local sponsors address numerous water-related and other natural 
resource issues, conduct studies, develop watershed plans and implement 
resource management systems. Projects are carried out primarily under 
the authority of Public Law 83-566 and Public Law 78-534. More than 500 
active watershed projects primarily target land treatment measures for 
water supply management and flood prevention. The most recent program 
evaluation by NRCS showed a 2.2:1 benefits to cost ratio for this 
program. Conservation districts support funding the Watershed 
Protection and Flood Prevention program at $250 million to complete 
ongoing projects and to address the backlog of project requests.
    A related priority facing private lands conservation is the 
rehabilitation needs of the nation's aging watershed infrastructure--
many of them built under the authority of the above programs. NRCS 
estimates that approximately 2,200 watershed structures, including 
dams, are in immediate need of rehabilitation and that more than 650 of 
these dams pose potential threats to public health and safety. Unless 
these issues are addressed, the magnitude of the problems will only 
increase as the infrastructure continues to age.
    The Small Watershed Rehabilitation Amendments (SWRA) of 2000, 
enacted last year, authorizes $90 million over the next five years to 
provide NRCS technical and financial assistance to address these 
watershed infrastructure issues in concert with local sponsors. Project 
sponsors in the 500 active watersheds need technical and financial 
assistance to implement rehabilitation plans to meet current 
environmental, economic and safety needs. Conservation districts urge 
you to begin addressing these needs through that statute by 
appropriating $60 million for watershed infrastructure rehabilitation 
projects in fiscal year 1902. Resource Conservation and Development 
Councils play an important role in rural development and natural 
resource conservation. USDA has indicated that it takes $161,000 to 
fully support an RC&D council. There are 348 existing councils and 27 
pending applications. Conservation districts recommend that Congress 
appropriate $60 million to fully support all existing councils and 
additional applicant areas.
                           mandatory programs
    The Environmental Quality Incentives Program (EQIP) is an ideal 
vehicle through which to address livestock water quality and other 
resource issues. However, this program, too, is tremendously 
oversubscribed and unavailable to fund three out of four producers who 
would otherwise qualify. And, many of those turned away are livestock 
producers not currently subject to NPDES regulation. The Senate's 
resolution acknowledges EQIP's potential and its lack of adequate 
funding by adding an additional $350 million annually for assistance 
through the program. Conservation districts support funding EQIP at 
$550 million in fiscal year 2002.
    If additional funds become available, the nation's conservation 
districts also support expanding and funding the Conservation Reserve 
Program, the Wetlands Reserve Program, the Wildlife Habitat Incentives 
Program and the Farmland Protection Program in fiscal year 2002.
    As you continue your work on providing funding for critical NRCS 
programs, we again urge you to keep in mind that NRCS is the only 
Federal agency whose primary role is to provide conservation assistance 
on the nation's private lands. There are a few other agencies with 
narrowly targeted purposes, but no other agency even comes close to 
touching 70 percent of America's private lands as do NRCS and 
conservation districts. It is critical, therefore, that we strengthen 
the nation's commitment to providing adequate resources to help these 
land managers conserve and protect natural resources on America's 
private lands.
    On behalf of the nation's 3,000 conservation districts, we 
appreciate the opportunity to provide our views on fiscal year 2002 
funding recommendations for select USDA conservation programs. We look 
forward to working with you over the next few months in finalizing your 
proposals. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 

Prepared Statement of the National Association of Professional Forestry 
                          Schools and Colleges

    The National Association of Professional Forestry Schools and 
Colleges (NAPFSC) is comprised of the 67 universities that conduct the 
Nation's research, teaching, and extension programs in forestry and 
related areas of environmental and natural resource management. NAPFSC 
strongly supports increased funding for Federal forestry research 
programs, including those operated by the USDA's Cooperative State 
Research Education and Extension Service (CSREES).
    The management of nonfederal forestlands has become a critical 
economic and environmental issue. Owners and managers of nonfederal 
forestlands are simply not equipped to deal with the tremendous changes 
in forest land use and management that have occurred in the last decade 
nor the pressures of the 21st century. The programs outlined below are 
key to addressing the stewardship of these lands. These programs are: 
the McIntire-Stennis Cooperative Forestry Research Program (McIntire-
Stennis), the Renewable Resources Extension Act (RREA), the National 
Research Initiative (NRI), and the Initiative for Future Agriculture 
and Food Systems (IFAFS). The first three of these programs have 
stimulated the development of vital partnerships involving 
universities, Federal agencies, non-governmental organizations and 
private industry, and the newest program--IFAFS--a competitive grants 
program, offers great potential for developing new uses for forest 
products, improving natural resource management, and building multi-
state and multi-university partnerships for research and outreach 
activities.

----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal Year     Fiscal Year
                                                    Fiscal Year     Fiscal Year      2002 Bush      2002 NAPFSC
                                                   2000 Enacted    2001 Enacted       Budget      Recommendation
----------------------------------------------------------------------------------------------------------------
McIntire-Stennis................................     $21,932,000     $21,932,000     $21,884,000     $30,000,000
RREA............................................       3,192,000       3,192,000       3,185,000      15,000,000
NRI.............................................     119,300,000     106,000,000     105,767,000     150,000,000
IFAFS...........................................     120,000,000     113,400,000     120,000,000     120,000,000
----------------------------------------------------------------------------------------------------------------

            the case for enhanced forestry research funding
    The past, present, and future success of forestry research and 
extension activities arising from the NAPFSC member institutions 
results from a unique partnership involving Federal, State, and private 
cooperators. Federal agencies have concentrated on large-scale national 
issues while state funding has emphasized applied problems and state-
specific opportunities. University research in contrast, with the 
assistance of Federal, State and private support, has been able to 
address a broad array of applied problems related to technology 
development and fundamental biophysical and socioeconomic issues and 
problems that cross ownership, state, region, and national boundaries.
    The 1998 Farm Bill and various subsequent reports and conference 
proceedings have identified the need for greater attention on the 
emerging issues confronting non-Federal forest landowners. NAPFSC is 
pleased to be one of the cofounders of the National Coalition for 
Sustaining America's Nonfederal Forests. The founding of the Coalition 
and its subsequent report emerged from a Forestry Summit held in 1999 
that brought together key forestry leaders and landowners from across 
the nation. The outcome of the Summit confirmed the need for increases 
in forestry research funding focused on non-Federal lands and for an 
increase in collaborative efforts between university-based research and 
the Federal agencies.
    The forests and other renewable natural resources of this country 
are primary contributors to the economic health of the nation; are 
reservoirs of biodiversity important to the well-being of our citizens; 
are significant to the maintenance of environmental quality of our 
atmosphere, water, and soil resources and provide diverse recreational 
and spiritual renewal opportunities for a growing population. 
Tremendous strains are being placed upon the nation's private forest 
lands by the combination of increasing demands for forest products 
coupled with dramatic changes in timber policies concerning our 
National Forests. Because of the changes in Federal forest policy, 
private forest lands in the United States are now being harvested at 
rates not seen since the beginning of the 20th century.
    For example, in the East, NIPFs are projected to increase their 
timber harvests almost 30 percent from the 1986 levels until 2010. 
Hardwood timber harvests on NIPF lands in the South are actually 
projected to increase more than 60 percent from 1986 to 2010. These 
spectacular increases will require larger investments and enhanced 
public educational programs--and hopefully much more regeneration and 
intensive timber management--at a scale never before realized on NIPF 
lands in the U.S.
    To meet this challenge, research priorities must be adjusted to 
better address the needs of private landowners, and to specifically 
enhance the productivity of such lands through economically efficient 
and environmentally sound means. These challenges can be substantially 
addressed by the university community through the building of 
integrated research and extension programs assisted by McIntire-
Stennis, RREA, and NRI.
    There are currently approximately 10 million private forestland 
owners in the U.S. These landowners control nearly 60 percent of all 
forestland in the country. And it has been to the universities, with 
strong support from CSREES, that landowners traditionally look for new 
information about managing their lands. The overwhelming majority of 
the 10 million private landowners are not currently equipped to 
practice the sustained forest management that is critical to the health 
of our environment and economy. The combination of research conducted 
by the forestry schools, combined with the dissemination of that 
research through the cooperative extension network, has never been more 
essential.
             mcintire-stennis cooperative forestry research
    The Cooperative Forestry Research Program (McIntire-Stennis Act), 
is the lead forestry effort administered by the USDA Cooperative State 
Research, Education, and Extension Service (CSREES). This program is 
the foundation of forestry research and scientist training efforts at 
universities. Funding this program provides for cutting-edge research 
on productivity, technologies for monitoring and extending the resource 
base, and environmental quality. The program is critically important 
today since universities provide a large share of the nation's 
research. Additionally, universities train nearly all of the nation's 
scientists in forestry. The main categories of need are:
  --Significantly enhance sustainability and productivity of nonfederal 
        forests;
  --Increase the financial contributions of nonfederal forests to 
        benefit landowners, the rural community, state and national 
        economies, and environmental values; and
  --Conserve and sustain the nonfederal forests and other natural 
        resources for future generations.
    The Cooperative Forestry Research Program is currently funded at 
$21.932 million and matched more than three times by universities with 
state and nonfederal funds. The program is currently funded at little 
more than one-fifth its authorized level. We recommended funding 
McIntire-Stennis at a level of $30,000,000 for fiscal year 2002. The 
requested additional funding would be targeted at:
  --sustainable and productive forest management on private lands to 
        address issues of competitiveness and economic growth ($3.0 
        million);
  --forest inventory, monitoring, and assessment with emphasis on new 
        technologies ($2.1 million);
  --new products, improved processing technologies, and utilization of 
        small trees to extend the forest resource and improve 
        environmental quality ($1.1 million); and
  --assessing social values and tradeoffs to facilitate the 
        understanding of policy options, economic impacts, and informed 
        decisions at all levels of government ($1.9 million).
    The NAPFSC schools further recommend that CSREES provide this 
support to universities with direction to focus on new or existing 
approved projects for the explicit purpose of near term progress in 
addressing one or more of these research targets in each school's state 
or region. It is recognized that progress will be dependent on a 
critical mass of scientific effort, and collaboration among schools is 
thus encouraged. Additionally stakeholder advisory mechanisms should be 
a part of the funding allocation process. In the process of funding 
these projects, NAPFSC would also recommend that portions of this 
funding be used to build research capacity, including a provision 
calling for training of much needed new forestry scientists.
                   renewable resources extension act
    The Renewable Resources Extension Act (RREA) is the lead forestry 
extension effort administered by the USDA Cooperative State Research, 
Education, and Extension Service (CSREES). This program is the 
foundation of outreach and extension efforts at universities. Funding 
for this program addresses critical forestry and related natural 
resources extension and stewardship needs in states, and would address 
the critical issues of forest management for productivity and 
environmental quality on non-Federal lands brought about by diminished 
harvest levels on Federal lands.
    Audiences for the products of outreach and extension are as diverse 
as are the stakeholders. Of highest priority are the owners of 
nonfederal forestlands and those involved in implementing forest 
management. These groups would be best served by outreach programs that 
(1) solve immediate problems; (2) transfer research technologies and 
new knowledge; and (3) increase their awareness of the benefits of 
active management.
    It is vital that Congress increase funding for this important 
program for distributing the knowledge gained through our research 
institutions to the private landowners. NAPFSC recommends funding RREA 
at a level of $15 million for fiscal year 2002. This increase would 
take RREA to its full authorization level.
    With nearly ten million nonfederal forest landowners, the most 
compelling priority areas for extension and outreach are:
  --Develop databases of landowner information to customize educational 
        efforts and their delivery to address owner values and goals 
        ($2.5 million);
  --Increase landowner awareness through new communication 
        technologies, volunteer leadership, and localized programming 
        ($2.5 million);
  --Identify management alternatives with readily accessible new 
        information on programs, services, and benefits of management 
        and planning to integrate water, fish, wildlife, timber and 
        other products and services ($3.0 million);
  --Address local issues and needs within the framework of landowner's 
        objectives using special forums, experts, and case study 
        approaches to sustainable forestry ($2.0 million); and
  --Identify and follow up on organizational opportunities including 
        the establishment of landowner organizations linked to 
        professional services, price reporting systems, and cooperative 
        marketing ($1.8 million).
    The NAPFSC schools further recommend that CSREES provide this 
support to universities with direction to focus on new or existing 
approved projects for the explicit purpose of near term progress in 
addressing one or more of these outreach/extension targets in each 
school's state, region, or nationally. It is recognized that progress 
will be dependent on a critical mass of extension educator effort, and 
cooperation among schools is thus encouraged. Additionally stakeholder 
advisory mechanisms should be a part of the funding allocation process. 
In the process of funding these projects, NAPFSC would also recommend 
that portions of this funding be used to build outreach/extension 
capacity, including a provision calling for training of much needed new 
extension educators and associated technical support staff.
            national research initiative competitive grants
    The National Research Initiative Competitive Grants program 
(NRICGP) is a significant source of funding for basic cutting-edge and 
applied research in categories important to sustainable forest 
management. Among these categories are (1) natural resources and the 
environment, (2) plants, (3) markets, trade and rural development, and 
(4) processing for value added/new products. This program is 
administered by the USDA Cooperative State Research, Education, and 
Extension Service (CSREES).
    This program is currently funded at $106 million of which 
approximately ten percent goes to successful forestry research 
proposals. Building to address the full set of research needs of 
nonfederal forests will take several years and steps as described in 
the Coalition's planning document. However, we urge a significant step 
in the first part of this new century. NAPFSC recommends this program 
be funded at $150 million for fiscal year 2002 with at least $20 
million directed to forestry and forest products research priorities in 
categories (1)-(4) above under existing and/or new research opportunity 
areas. We further urge the targeting of funding of research on the most 
compelling needs.
           initiative for future agriculture and food systems
    The Initiative for future Agriculture and Food Systems (IFAFS) is a 
new research, extension, and education competitive grants program 
designed to address a number of critical emerging issues in the broad 
area of agricultural. These issues encompass future food production, 
food safety, environmental quality, natural resource management, and 
farm income. Priority program areas include (1) the agriculture genome; 
(2) new and alternative uses and production of commodities and 
products; (3) biotechnology; and (4) and natural resource management, 
including precision agriculture. Priority for funding is for those 
proposals that were multi-state, multi-institutional, or multi-
disciplinary, or that integrated research, extension, and/or education. 
This program, administered by CSREES, was funded at $113.4 million in 
fiscal year 2001. NAPFSC strongly supports this new competitive grants 
program and urges your Subcommittee to provide the full $120 million 
for fiscal year 2002.
                               conclusion
    The needed investment for these programs is substantial, but the 
potential returns are enormous and crucial to our society's future. 
Disciplined and rigorous implementation of research on forestry issues 
will contribute greatly to attaining our vision for America's 
nonfederal forests for the future. NAPFSC urges cooperation at Federal, 
State, and University's levels to make this research and the vision it 
will support a reality.
                                 ______
                                 

 Prepared Statement of the National Association of State Universities 
                        and Land-Grant Colleges

    Mr. Chairman, I would like to extend my thanks to you and the 
Committee for the opportunity to submit testimony regarding funding for 
USDA's Cooperative State Research, Education and Extension Service in 
fiscal year 2002. I am Gale Buchanan, Dean of the College of 
Agricultural and Environmental Sciences at the University of Georgia. I 
serve as Chair of the Board on Agriculture Budget Committee of the 
National Association of State Universities and Land Grant Colleges 
(NASULGC). Founded in 1887, NASULGC is the nation's oldest higher 
education association. A voluntary association of public universities, 
land-grant institutions and many of the nation's public university 
systems, NASULGC campuses are located in all 50 states, the U.S. 
territories and the District of Columbia. As of October 2000, the 
association's membership stood at 212 institutions. This includes 75 
land-grant universities (of which 18 are the historically black public 
institutions created by the Second Morrill Act of 1890) and 28 public 
higher education systems. In addition, tribal colleges became land-
grant institutions in 1994 and 30 are represented in NASULGC through 
the membership of the American Indian Higher Education Consortium 
(AIHEC).
                            the bottom-line
    The Land Grant Colleges and State Universities support doubling the 
investment in agricultural research, extension and teaching over the 
next five years. To accomplish this goal,
    We recommend increasing funding for USDA/CSREES by $200 million in 
fiscal year 2002.
    We recommend that these increases be accomplished through a 
balanced portfolio of investments, which are listed in the attached 
table. We recommend that these increases be targeted to investments in 
five priority areas: An Educated Workforce, Dependable Food Supply, 
Revitalizing Communities, Environmental Balance, and Capacity Building. 
The Capacity Building category allows for critically needed investments 
in our minority-serving institutions, which will enable them to more 
effectively address the other priority areas and the unique needs of 
the communities that they serve.
                    invest in an educated workforce
    The entire traditional education system is due for an overhaul and 
expansion. It must be transformed through technology, electronic-based 
learning and globalization of the curriculum. And there's no time to 
spare. In a very few years, today's students will run a food and 
agricultural system with assets exceeding a trillion dollars. Almost 20 
percent of the workforce in this country is involved in the production, 
processing, packing and distribution of nutritious and safe food and 
fiber. All the new technology and knowledge in the world are useless 
without the well-trained mind of someone to learn from it, apply it and 
expand it. Yet undergraduate and graduate education in colleges of 
agriculture and life sciences is largely neglected in Federal funding. 
More investment is needed to make the higher education system a more 
global one through electronic-based learning. We need to equip our 
college students, especially minorities, with skills and opportunities 
to become leaders in our nation's workforce. And we need to ensure that 
the state and land-grant university system continues to provide 
unbiased information, continuing education and workforce preparation to 
help people prosper in today's ever-changing world. Our state and land-
grant institutions educate future scientists and employees who serve 
one of the largest sectors of the American economy. Their future is key 
to our nation's future.
    We are proposing that an investment of $19.7 million be targeted 
towards workforce education.--The specific funding mechanisms that we 
think can best address this issue are listed in the Table. We recommend 
increased funding for Graduate Fellowship Grants, Institution Challenge 
Grants, Multicultural Scholars, and Secondary/2-year Post Secondary 
grants. As part of this mix of funding mechanisms, we propose that $3 
million be identified for workforce preparation within the integrated 
Sec. 406 accounts. This new program would integrate research, teaching, 
and extension elements into workforce preparation, fostering innovation 
in our agricultural teaching and extension outreach programs.
                   invest in a dependable food supply
    As agricultural markets rapidly move into the world arena, American 
farmers go head to head with farmers from other countries who rely on 
high government supports, work under less stringent environmental 
protection rules and safety standards, or pay far less for labor and 
other expenses. Yet American farmers must compete internationally to 
stay in business. Their best hope is science, conducted through state 
and land-grant universities. New biotechnology tools and the science of 
genomics will open new horizons and challenges for food production, 
processing and international trade. Advancements in health and 
agricultural sciences will help us better understand the interactions 
between diet and health. It can learn how foods may contribute to 
allergies or stave off chronic diseases. It can fight insects, weeds 
and diseases in the field; create new crops and economic opportunities; 
develop new foods and processing techniques, and keep pathogens and 
other dangers out of the food supply.
    When it comes to food, everyone--consumers, growers, processors and 
authorities--all demand safety, and for good reason. The Centers for 
Disease Control and Prevention says 76 million illnesses can be 
attributed in this country to food-borne diseases. Economic losses 
attributed to meat and poultry risks alone may top $28 billion 
annually. Many of the causes of greatest concern were not even 
recognized 20 years ago. Recent news about ``Mad Cow'' and ``hoof-and-
mouth'' diseases are immediate examples of the need to invest in 
assessment and treatment research, as well as producer training and 
public education programs. Biotechnology, genomics and other yet-
undiscovered sciences must undergo rigorous reviews to keep a close eye 
on these promising advancements. They may offer the key to developing 
foods to combat diseases and chronic health problems, and improving 
nutrition.
    To address the production needs of farmers and ranchers and the 
safety and health concerns of consumers, we request a total budget 
increase in this category of $35.404 million.--The mix of funding 
mechanisms that can best target these issues are shown in the Table. We 
have proposed increasing Hatch research funds by $7.587 million, to be 
targeted to these issues. We've targeted all of our proposed increases 
in Animal Health to these issues. We urge enhancing the Expanded Food 
and Nutrition Education Program (EFNEP). We recommend a doubling of the 
Ag in the Classroom program. We recommend creating two new categories 
in Sec. 406. We recommend creating an category addressing biobased 
products, both to develop alternative renewable energy sources and to 
develop new and value added products. We recommend a second category to 
address biotechnology and health issues, which should be targeted 
towards addressing research and education efforts to address public 
concerns regarding emerging new technologies, such as genetically 
modified organisms. We also recommend funding a Small Farms Initiative 
to meet the special challenges facing smaller producers.
                      invest to renew communities
    Community leadership, sound public policy, portfolio diversity for 
the tax base, well-managed and envisioned community services, active 
public involvement, strong schools and medical facilities, a healthy 
population: these are the characteristics of a healthy, growing 
community. Both rural and urban communities will face special 
challenges in the next decade. Local communities will be required to 
make complex decisions about health care, education, 
telecommunications, economic development, and the delivery of social 
services. The land-grant system is the only dependable source of 
information for many struggling communities. It can arm them with the 
necessary tools to succeed. Researchers and educators can help them 
develop participatory citizens, involve youth through 4-H in life-long 
learning, promote economic vitality, and strengthen the agricultural 
and agribusiness sector. They can tackle community health issues, 
enhance private forestland production while sustaining environmental 
quality and train potential community leaders. The Extension Service 
educates community leaders, coordinates projects across states and 
regions to help communities learn from each other, and develops local 
solutions to local challenges. The land-grant system can help bridge 
the widening gap in acquiring and applying technology in communities in 
danger of being left behind in the technology revolution.
    We request a total budget increase of $30.646 million to help our 
communities.--All of the proposed increase of $23.178 million for 
Extension formula funds (Smith-Lever) is targeted to developing 
community opportunities. We recommend strengthening the Extension 
investment in our Rural Development Centers and we recommend 
reestablishing the research component of these Centers. We recommend 
increased funding for our Children, Youth and Families at Risk 
programs. We also propose developing a new designation within the Sec. 
406 account to be targeted to rural economic development.
                    invest in environmental balance
    Production of food and fiber also means conserving scarce natural 
resources, private forests and open spaces. Research, extension and 
education efforts at state universities and land-grant colleges are 
providing farmers and ranchers with the tools and technologies that 
they must have to conserve their natural resource base and protect the 
environment, while staying economically healthy and competitive. Our 
programs provide science-based management alternatives that help 
prevent the need for regulatory solutions. Environmental research at 
schools of agriculture is playing a part in devising new technologies 
to reduce or reuse animal wastes and crop byproducts. Novel studies in 
animal diets, air quality and animal production systems will help keep 
agricultural odors away from the non-farmers. The use of global 
positioning system precision farming sensors can reduce runoff of farm 
chemicals and land-applied animal waste. Scientists are looking at 
crops that could trap carbon to slow climate change. Complex 
biochemistry could change plant oils into petroleum-like materials. 
With increased investment, scientists can increase their discoveries of 
new ways to control pests naturally, maintain biodiversity, and tackle 
environmental problems
    Research and education efforts at the land-grant universities 
created Integrated Pest Management (IPM), a well-known system that 
melds management and technology to reduce the use of expensive and 
potentially harmful pesticides in and around farms, businesses and 
public buildings. The next generation of integration, called 
Environmental Management Systems looks at the entire system of 
agricultural production and how strategies and methods can improve 
conditions for farm workers, children, consumers, wildlife and the 
environment as a whole.
    We recommend increased funding of $46.404 million to address 
natural resource and environmental issues.--We propose an increase of 
$7.587 million in research formula funds (Hatch) to be targeted to 
helping farmers and ranchers address environmental issues. All of our 
proposed increase in forestry research (McIntire-Stennis) is targeted 
to addressing these issues. We propose a mix of additional funding 
mechanisms, as shown in the table, ranging from Integrated Pest 
Management through Water Quality and Pesticide Applicator Training. We 
propose substantial increases in the Renewable Resources Extension Act. 
We recommend establishing a new, integrated program to manage animal 
waste through Sec. 406.
                           capacity building
    Land-grant colleges serving minority communities, including the 
1890s and Tribal Colleges, have historically struggled with inadequate 
funding resources to meet the especially challenging needs of under-
served communities. Their challenge is two-fold. Limited resources have 
taken their toll on the quality of facilities that enable these 
institutions to effectively compete for other funding sources. In turn, 
they slip behind in their ability to connect university research, 
teaching, and extension services with the minority communities that so 
vitally need their services. Capacity building at these institutions is 
the foundation for not only providing better research and teaching 
facilities, but also leveraging additional dollars for community based 
programs working in some of our nation's poorest communities. Land-
grant institutions serving minority communities have dramatically 
increased the economic viability of small and limited resource farmers. 
In spite of years of neglect and under funding, the 1890s have been 
able to make contributions of high quality and relevance to the 
agricultural sciences and their stakeholders; their continued success 
and future growth (and that of the 1994s) depends on solid investments 
in capacity building programs.
    NASULGC proposes a budget increase of $35.846 million to build 
capacity at minority serving institutions.--The Capacity Building 
portfolio provides for facilities rehabilitation, research grants, 
teaching programs, minority recruitment, and extension activities. The 
mix of mechanisms we recommend for investment is provided in the Table. 
These funding lines target the specific needs of our historically black 
1890 institutions, the Tribal Colleges and Hispanic Serving 
Institutions. Included in this mix is our proposed increase of $3.521 
million for 1890 research formula funds (Evans-Allen) and $4.757 
million for 1890 extension formula funds.
                         cross cutting funding
    The proposed increases in capacity building for minority serving 
intuitions will enable them to more effectively address the priority 
issue areas addressed previously. In addition, there are two funding 
mechanisms that can be used to effectively address each of these 
priority issues: the NRI and the International Sc9ience and Education 
Grant Program. We strongly recommend restoring the National Research 
Initiative and increasing its funding to a minimum level of $130 
million. We recommend that the earmarking of funds to address food 
safety concerns be lifted, or far better, that the funding targeted to 
food safety be added to the total amount of funding available through 
the NRI. We also recommend establishing the International Science and 
Education Grant Program at $8 million. This program was established as 
Sec. 1458 in the 1998 Agricultural Research, Extension and Education 
Reform Act. This program is designed to internationalize the curriculum 
of our agricultural courses and to better prepare students and faculty 
to compete and prosper in today's increasingly global industries and 
markets. This program address each of the priority areas addressed 
previously, but from an international perspective.
Why should food and agricultural science and education receive new 
        funding in the 2002 USDA/CSREES budget?
    The decades of investment in both base programming and competitive 
grant funding for state and land-grant institutions have revolutionized 
agricultural production, ensuring a safe, affordable food supply. But 
agriculture does not live on bread alone. It takes a strong network of 
agribusinesses to supply equipment and other inputs, process 
agricultural products and connect the producer to the market. It takes 
communities with trained and visionary leaders who can anticipate 
development. It takes respect and understanding for the environment, 
and the ramifications of agricultural production within that realm. And 
it takes the education of students of all ages-whether through 4-H for 
youngsters, degree work in the agricultural and life sciences or 
continuing education for producers and consumers alike.
What are the new investments needed now?
    Tomorrow's science comes with a high price tag as scientists delve 
into biotechnology, genetics, satellite imagery and many other highly 
technical fields. Tomorrow's scientists must be educated today, even as 
the fields of science advance each day. A balanced portfolio of funding 
mechanisms must be used to address these critical issue areas, drawing 
on base funding to sustain programs and competitive grants to target 
specific projects.
What scientific progress has resulted from this work?
    Integrated pest management to cut production costs and protect the 
environment, constant vigilance in testing for and detecting food 
safety problems, genetic improvements among livestock species to breed 
leaner animals for healthier products, advances in crop breeding 
through biotechnology that assures more affordable food throughout the 
world, variety testing and field work to take the guesswork out of 
farming . . . the list is endless. And beyond production agriculture, 
the community development work and educational advances happen every 
day in communities and classrooms throughout the country. The state and 
land-grant institutions stretch out their research, extension and 
education arms with one mission in mind: to support the nation's 
prosperity and our quality of life.
Will progress continue?
    Even with a generous infusion of funds to support food and 
agricultural sciences and education, it's only a beginning. New 
scientific investigation can build production efficiency and 
profitability through biotechnology without harming the environment, 
attract minority and other students into the exciting fields of science 
and design marketing strategies and economic alternatives for 
struggling communities. But one year's work can only be the beginning. 
The science and education community in the food and agricultural 
sciences welcomes this challenge and responsibility. The future belongs 
to those with the vision to see it. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Prepared Statement of the National Association of WIC Directors

    On behalf of the National Association of WIC Directors, NAWD, we 
appreciate the opportunity to submit this written statement to the 
Committee on the President's Fiscal year 2002 Budget Request for the 
Special Supplemental Nutrition Program for Women, Infants and Children, 
known as WIC.
    WIC has an extraordinary 27 year record of preventing children's 
health problems and improving their long-term health, growth and 
development. WIC children enter school Ready To Learn and demonstrate 
better cognitive performance. Research shows:
  --four and five-year-olds whose mothers participated in WIC during 
        pregnancy had better vocabulary test scores than children whose 
        mothers had not received WIC benefits.
  --children participating in WIC after their first birthday had better 
        digit memory test scores than children not participating in 
        WIC.
    WIC gives children a solid foundation for learning. Quality 
nutrition services is the centerpiece of WIC: nutrition and 
breastfeeding education, nutritious foods, and improved healthcare 
access for low and moderate income women and children with, or at risk 
of developing, nutrition related health problems. Committed, results 
oriented, entrepreneurial staff stretch resources to serve all eligible 
women and children and ensure program effectiveness and integrity.
    As the nation's premier public health nutrition program, WIC is a 
cost-effective, sound investment--laying the foundation for America's 
children to learn.
    The WIC Program's well-documented successes have earned WIC strong 
bipartisan support. Successive Congresses have demonstrated their 
commitment to moving the WIC Program toward full funding. The level of 
funding included in the fiscal year 2002 budget proposal, threatens the 
states' ability to maintain services to participants served in fiscal 
year 2001.
    The Administration has proposed a $94 million increase in the WIC 
appropriation for fiscal year 2002 bringing WIC funding to a level of 
$4.137 billion over last year's appropriation level (minus the 
recission amount included in Section 1 (a)(4) of Public Law 106-554) of 
4.043 billion. NAWD applauds the Administration for identifying WIC as 
a Child Nutrition priority. NAWD urges the Committee to consider the 
following:
                           wic participation
    January data sets WIC caseload at 7.259 million participants. This 
means that WIC has exceeded the Administration's caseload projections 
for fiscal year 2002 of 7.25 million participants;
    Should the economy continue to decline and workers experience more 
layoffs as industry attempts to cut costs to improve profits, it is 
reasonable to expect that WIC caseload will grow;
    The Administration projects an unemployment rate of 4.6 percent for 
the fiscal year 2002. In 1998, the last time the US experienced such an 
unemployment rate, WIC caseload averaged 7.37 million participants;
    Some financial experts are projecting unemployment to reach as much 
as 5 percent;
    This leads one to the inevitable conclusion that the level 
identified in the Administration's WIC funding request will be 
inadequate to meet a caseload which could well exceed 7.35 million 
participants.
                    wic carryover or recovered funds
    The Administration estimates 2001 recoveries at a level of $180 
million. Based upon state reallocation draws, a more reasonable 
estimate would be $170-$175 million;
    The Administration estimates 2002 recoveries at a level of $136 
million. If states continue to draw down recoveries at their current 
rate, this level too can be expected to decline to between $125-$130 
million.
    The existence of recovered food funds leads to the erroneous 
perception that WIC is over-funded. Financial estimates require 
resource margins that will protect states should food costs exceed 
available WIC funds. Voucher and rebate transactions occurring late in 
a fiscal year do not accrue to a state until early in the next fiscal 
year thereby contributing to the situation. On average, states will 
expend roughly 97 percent of their grant to ensure a sufficient margin 
of management safety and prevent caseload disruptions. It is neither 
possible nor prudent for WIC Directors to expend all of their grant 
resources in a fiscal year.
    State Fiscal Managers would penalize Directors who overspend their 
grant as options are generally not available to provide state support.
    States have moved to reduce the Program's level of carryover 
funds--advising USDA of available recoveries, and rendering resources 
available for reallocation to those states most in need of resources.
              nutrition services and administrative grant
    While the Program's funding formula directs the percentage share of 
the overall grant which accrues to each component of the WIC grant--(1) 
Food and (2) Nutrition Services and Administrative--the percentage 
increase provided in the Administration's request for Food is 2.53 
percent while the increase for NSA is 0.7 percent.
    The NSA request is inadequate to support funded participation 
levels, cover cost of living raises for WIC staff, or inflation on 
equipment, supplies, materials, rents and utilities.
                         infrastructure grants
    The Administration provides no increase for infrastructure needs 
and directs that 43 percent of the requested $14 million be dedicated 
to electronic benefit transfer (EBT) development.
    The joint NAWD/USDA Management Information Systems (MIS) Strategic 
Plan has identified a crisis in the status of WIC MIS systems. Fully 
\1/3\ of the states' MIS systems are at least 7 years old. These 
systems are incapable of providing the data services that the nation's 
public health system needs to track client participation, health and 
nutrition records, avoid fraud and abuse, process vendor claims and 
track rebates.
    The remaining $7 million in the Administration's request cannot 
possibly address the crisis WIC is facing with obsolete MIS systems. 
The joint NAWD/USDA MIS Task Force observed that it would require a 
commitment of $110 million--$150 million over three years to implement 
core functions, upgrade WIC technology, and maintain MIS and electronic 
services.
  wic farmers' market nutrition program & wic senior farmers' market 
                                program
    While WIC has partnered with the Farmers' Market Nutrition Program 
(FNINP) since its inception, NAWD continues to believe that the FMNP 
should not be funded at the risk of turning away eligible individuals 
who seek WIC benefits.
    Similarly, NAWD believes that WIC Senior Farmers' Market Program 
(SFMP) funding must not adversely impact WIC caseload. While NAWD 
regrets that the SFMP was not included in the Administration's budget, 
NAWD is pleased that the Administration recognizes the importance of 
protecting caseload.
                 what should the wic budget number be?
    To meet projected participation levels, given the Administration's 
unemployment projections and other factors, NAWD believes that the WIC 
funding level should provide for an increase to the Program of $214 
million setting the Budget proposal at $4.248 billion. This represents 
an increase of $110 million above the Administration's request.

    WIC is a short-term intervention program designed to influence 
lifetime nutrition and health behaviors in a targeted, high-risk 
population. WIC is the ``Gateway to Good Health,'' providing quality 
nutrition education and services, breast-feeding promotion and 
education, access to prenatal and pediatric health care services, drug, 
alcohol and tobacco abuse information, and other services in 10,000 
clinics administered by 2000 Local Agencies in 87 State WIC Programs.
    WIC's monthly food prescription (package), tailored to meet the 
specific nutritional needs of clients, was provided to over 7.259 
million participants last January, including 1.8 million pregnant, 
breast-feeding and postpartum women, over 1.9 million infants, and over 
3.5 million children. To participate WIC requires that clients have one 
or more documented nutritional risks and incomes less than or equal to 
185 percent of the poverty level. In fact, 92 percent of all WIC 
participants are at income levels below 150 percent of the poverty 
level.
    Approximately 37 percent of all pregnant women in the United States 
are enrolled in WIC. Of these, roughly 46 percent enroll in WIC during 
their first trimester of pregnancy. At certification, 50 percent of 
pregnant women have three or more nutrition risk factors. Numerous 
studies have shown that pregnant women who participate in WIC have 
longer pregnancies leading to fewer premature births; have less low and 
very low birth-weight babies; experience fewer fetal and infant deaths; 
seek prenatal care earlier in pregnancy and consume more of such key 
nutrients as iron, protein, calcium and Vitamin C.
    It costs $601 a year for a pregnant woman to participate in WIC. By 
contrast, it costs $28,000 per pound to raise a low (less than 5.5 
pounds) and very low (less than 3.25 pounds) birth-weight baby to 
normal weight (7 pounds). WIC prenatal care benefits reduce the rate of 
very low birth-weight babies by 44 percent. Medicaid costs are reduced 
by WIC on average between $12,000 and $15,000 per infant for every very 
low birth-weight prevented.
    WIC promotes breast-feeding as the preferred method of infant 
feeding. Breastfeeding helps mothers feel close to their baby. Breast 
milk contains all the nutrients infants need to grow and develop. 
Breastfed infants tend to be healthier since they receive antibodies 
from the breast milk, which protects them against infection. In spite 
of an environment that generally does not support a woman's choice to 
breastfeed, WIC mothers have continued to increase their breast-feeding 
initiation rates. Better than 40 percent of WIC infants between the 
ages of 7-11 months are breastfed.
    WIC helps to assure children's normal growth, reducing levels of 
anemia, increasing immunization rates, improving access to regular 
health care and improving diets. Fortyseven percent of all infants born 
in the United States are on WIC. Nearly twenty percent of all children 
in the United States are on WIC. Children are eligible for WIC up until 
they reach their fifth birthday. At certification, 48 percent of all 
children have more than one nutrition risk factor.
    Four and Five-year-olds whose mothers participated in WIC during 
pregnancy had better vocabulary test scores than children whose 
eligible mothers had not received WIC benefits. Children who 
participated in WIC after their first birthday had better digit memory 
test scores than children who did not participate in WIC.
    Of the Federal appropriation, only 9 percent of the WIC grant to 
states is allocated for program administration; 16 percent is allocated 
for direct care activities needed to assess eligibility, provide 
nutrition education, breast-feeding support and promotion, screen 
immunization status, issue food benefits, register voters and provide 
other mandated or necessary client services. The remaining 75 percent 
of the WIC grant is allocated for food benefits.
    States continue to stretch available WIC funds through rebates on 
foods and other cost saving initiatives--including adjustments in food 
benefits. In 1986, State WIC agencies began using their infant formula 
buying power (40 percent of national infant formula sales) to achieve 
bulk purchaser savings, in the form of monthly rebates paid by infant 
formula manufacturers. These state-initiated and operated rebate 
programs currently function in all state and most Indian Nation WIC 
Programs.
    Rebates save over $1.4 billion for Federal tax payers--34 percent 
of the program's total appropriation--and fund services for 1.8 million 
women and children. WIC's cost 4 containment measures are among the 
most effective cost containment measures to be found.
    States need to be allowed to use cost-saving revenues in the same 
way as grant funds or other program income. Identifiable and 
predictable food cost savings could be considered as funds returned to 
the entire WIC grant and not just the food grant; each state would then 
be able to direct a portion of these funds to NSA services, capping at 
a preset rate such as the current NSA grant ratio.
    Again, Mr. Chairman and Members of the Committee, we thank you for 
this opportunity to present this statement on behalf of the National 
Association of WIC Directors, NAWD. Should you have any questions, 
please feel free to contact Douglas A. Greenaway at 202/232-5492.
                                 ______
                                 

  Prepared Statement of the National Beef Cattle Evaluation Consortium

    Mr. Chairman, Members of the Subcommittee, this testimony is for 
the record of proceedings on the fiscal year 2002 Department of 
Agriculture Budget. The testimony is presented on behalf of the 
National Beef Cattle Evaluation Consortium, which consists of four 
universities, Colorado State University, Cornell University, Iowa State 
University, and The University of Georgia. This consortium was created 
in response to requests from beef industry leadership groups to create 
a sustainable research and development program in genetics for that 
industry. We are happy for this opportunity to thank you for your 
support during last year's budget proceedings. We would like to take 
this opportunity to update you on this program as well as issues we are 
currently addressing and those we are planning to address.
    As you know, this Committee provided Federal funds ($265,000) last 
year to support the creation of the consortium. The reason for creating 
this consortium was to address the lack of organization in research 
programs for genetic evaluation of beef cattle for improvement of the 
national cow herd resource through selection. This consortium will 
serve in a capacity much like the USDA Animal Improvement Production 
Lab, Beltsville, MD does for the dairy industry, a model that has 
positioned the U.S. dairy cow among the elite production animals in the 
world. Through these Federal dollars, with support from the four 
universities and various segments of the beef industry, we have 
established the infrastructure of the consortium and have begun 
research in several important areas.
    The mission of the consortium is to develop and implement improved 
methodologies and technologies for genetic evaluation of beef cattle 
for the purpose of maximizing the impact genetic programs have on the 
economic viability, international competitiveness, and sustainability 
of U.S. beef cattle producers and to provide consumers with affordable 
and healthy beef products. To achieve the goal intrinsic to this 
mission statement, we have created the following objectives:
  --Establish and coordinate priorities for genetic evaluation of U.S. 
        beef cattle with the goal of positioning the U.S. as a leader 
        in this area thereby increasing the global competitiveness of 
        the U.S. beef industry.
  --Consolidate efforts among the four land-grant institutions to 
        conduct research to meet these priorities with the goals of 
        reducing duplication of effort and maximizing the return of 
        useable information to the beef industry.
  --Streamline the process between the development and adoption of new 
        genetic evaluation methodologies by the industry with the goal 
        of ensuring the economic viability and sustainability of 
        producers in the U.S. beef industry.
  --Identify new traits and technologies for inclusion in genetic 
        programs with the goals of reducing the costs of beef 
        production and providing consumers with a high value, healthy, 
        affordable protein source.
  --Create decision-making tools that incorporate the increasing number 
        of traits being evaluated and the increasing amount of 
        information from DNA biotechnology into genetic improvement 
        programs with the goal of optimizing the overall efficiency, 
        product quality/safety, and health of the national cattle herd 
        resource.
    The U.S. cattle industry is comprised of more than one million 
individual farms and ranches operating in all 50 states. Total sales of 
cattle and calves have exceeded 30 billion dollars per year in recent 
years. Beef is the most popular meat in America. In 1997, U.S. cattle 
ranchers produced beef with a total retail value of $50.6 billion, and 
American consumers spent an average of $186.03 per person on beef. 
Nearly 8 percent of U.S. beef is produced for export, with a total 
value greater than $4.5 billion.
    The continued production of high-quality, healthy and affordable 
beef is dependent on the availability of information upon which to make 
prudent selection decisions. The most important tool for selective 
breeding is expected progeny differences (EPD). An EPD is a prediction 
of the genetic merit of an animal and as such the potential impact of 
that animal as a parent. The investment in EPD production and research 
made by the U.S. beef industry since 1990 is approximately $350,000 per 
year, with no direct Federal support.
    The ability to influence the genetics of U.S. beef cattle has 
greatly enhanced U.S. competitiveness in the world marketplace. 
However, current research and outreach efforts are fragmented and rely 
on the expertise of just a few scientists. Other countries, most 
notably Brazil and Australia, have made large public investments in 
beef breeding stock genetic evaluation and are threatening to diminish 
America's edge in the export market.
    With the appropriation received thus far, we have established the 
infrastructure of the consortium to include creating a board of 
directors and industry advisory committee. We have met with allied 
industries and producer groups to prioritize our programs and to 
establish channels of communications between the industry and the 
consortium. We have also begun research efforts in the following focus 
areas:
  --Developing predictions for new traits such as reproductive 
        efficiency, carcass composition and quality that are important 
        to the efficiency and profitability of beef production. A high 
        priority is the identification of economically relevant traits 
        (ERT) and systems to evaluate potential breeding stock for 
        these ERT's.
  --Including DNA information in genetic evaluation programs to enhance 
        the accuracy of predictions of genetic merit. We are in the 
        midst of a genetic revolution fueled by discoveries in 
        molecular genetics that is overwhelming science and field 
        applications of technology with data. Research into the 
        inclusion of data from DNA technology into systems that assess 
        genetic merit is necessary to convert that data into useable 
        information.
  --Creating selection decision tools to improve production efficiency, 
        product quality/safety and herd health. Selection for species 
        with diverse and dynamic production criteria is a challenging 
        task. Animals in a production system must be reproductively 
        sound, efficient, and produce healthy products. Selection 
        decision tools will be necessary to afford producers the 
        opportunity to identify individuals that bring the best balance 
        of all these required characteristics and do so in a cost 
        effective manner.
  --Developing new methodologies to enhance the accuracy, reliability 
        and productivity of the EPD production systems.
    Future appropriations will enable the consortium to continue 
research efforts in the initial focus areas, draw in researchers from 
other institutions to broaden the areas of expertise within the 
consortium, and, in doing so, allow us to establish new focus areas of 
research. One important area of research that needs to be established 
with new funding and moved forward quickly is the area of the genetics 
of animal health. There are currently no genetic programs in place that 
allow producers to address selection for improved animal health and 
disease resistance. The emphasis on disease in cattle and how those 
diseases impact the beef products is receiving considerable attention 
in the public today. Establishing best breeding practices for animals 
going into the food production system is becoming an increasingly 
important requirement to reduce the reliance of animal industries on 
antibiotics and to increase consumer confidence in the products from 
those industries.
    Once again, we thank you for the financial investment you have made 
in the consortium. We feel the foundation has been laid for an 
effective program in beef cattle evaluation and the industry is already 
working with the consortium leadership to establish mechanisms for 
technology transfer as discovery occurs. We are confident that the 
creation of the consortium will revolutionize the selection programs 
for this industry and, in doing so, keep that industry positioned to 
provide a quality source of protein to U.S. consumers and to compete in 
the global market. Thank you.
                                 ______
                                 

Prepared Statement of the National Coalition for Food and Agricultural 
                                Research

                              introduction
    The National Coalition for Food and Agricultural Research (National 
C-FAR) appreciates very much this opportunity to submit its views 
regarding the fiscal year 2002 agriculture appropriations bill and 
respectfully requests that this statement be included as part of the 
official hearing record.
                             national c-far
    National C-FAR, is a newly organized broad-based stakeholder 
coalition of food, agriculture, nutrition, conservation and natural 
resource organizations. It is a nonprofit, nonpartisan, stakeholder-
driven, and consensus-based coalition focused on food and agricultural 
research funding and priority setting. It is dedicated to fostering 
public confidence in food, agricultural, nutritional and natural 
resource research through public participation in planning and 
evaluating the process and impact of research activities. Membership is 
open to those who support the objectives of (1) enhancing Federal 
investments in U.S. food and agricultural research and extension and 
(2) expanding stakeholder participation in identifying funding needs 
and opportunities.
    The mission of National C-FAR is to double Federal funding of food, 
nutrition, agriculture, natural resource, and fiber research, extension 
and education programs during the next five years. This is to be net 
additional funding on a continuing basis that will complement, not 
compete with or displace the existing portfolio of Federal programs of 
research and education.
                                overview
    There are many challenges facing agriculture both near and long 
term. These include dealing with continued low commodity prices and 
reduced farm income, safeguarding our borders against the introduction 
of the devastating BSE (``mad cow'' disease) and foot-and-mouth 
diseases, addressing concerns over biotechnology, as well as a number 
of other challenges. While Congress has been very supportive of a 
number of near term actions, it is equally important to focus on 
policies and programs needed to promote the long term economic well 
being and profitability of agriculture for the benefit of producers and 
consumers alike. To help achieve this objective, we believe, a key 
component of any long-term strategy should include increased support 
for food and agricultural research and education.
    To paraphrase the old adage, an ounce of prevention is worth a 
pound of cure. We believe one dollar of funds invested in research now 
will pay back eight or more dollars of public benefits in the future. 
Investments in U.S. food and agricultural research and education have 
already paid huge dividends to the United States and the world, 
especially in the latter part of the 20th century. Research based 
technological advances, such as the ability to produce higher yielding 
crops and animals with improved human nutritional qualities, have 
allowed for a more abundant, safe, efficient and environmentally 
friendly food supply, improved human health and well-being, and yes, 
longer lives and lower health costs. New discoveries are advancing our 
understanding of the relationship between food and health--another 
rationale for investment in research. Only research can provide the 
answers and identify the types of changes that need to be made to 
effectively provide the food supply with optimal nutrition for the 
future.
    We want to thank the leadership and members of this committee for 
supporting programs and funding that have helped make these 
accomplishments possible. Yet, despite the best efforts of this 
committee and the world-renowned success of U.S. food and agricultural 
research, Federal funding has not kept pace with inflation.
    In real terms, we now spend less on food and agricultural research 
than we did in 1978. We believe this statistic suggests that Federal 
support could be as much as a quarter century behind. Today we spend 
only $1 of Federal food and agricultural research in the USDA for each 
$500 consumers spend on food and fiber. There is a very real concern 
this less than optimal investment in food and agricultural research 
will unintentionally restrict our nation's competitiveness, living 
standard and general economic growth and development.
    While our coalition is initially directing our collective efforts 
on securing a doubling of Federal food and agricultural research 
funding, our ultimate goal is not budgetary, but the many benefits that 
will accrue to each American that a doubling of funding will bring 
about. We believe increased funding of food and agricultural research 
will result in:
  --Safer, more nutritious, convenient and affordable foods
  --More efficient and environmentally friendly food, fiber and forest 
        production
  --Improved water quality, land conservation and environment
  --Less dependence on non-renewable sources of energy
  --Expanded global markets and improved balance of trade
  --More jobs and sustainable rural economic development
    At National C-FAR's inaugural meeting less than two months ago on 
January 31, 2001, in Washington, DC, 100 leaders in the food, 
agriculture, natural resource organizations and key Federal officials 
heard a speech by Dr. Norman Borlaug, the Nobel Peace Prize award 
winner, who started the ``Green Revolution.'' The Green Revolution 
expanded food and agricultural production and saved one billion people 
from starvation. Dr. Borlaug noted: ``Few industries have been as 
productive and innovative as agriculture during the 20th century.'' Yet 
he cautioned, ``Despite the successes of the Green Revolution, the 
battle to ensure food security for hundreds of millions of miserably 
poor people is far from won. . . . Continuing research breakthroughs 
will be needed.'' Borlaug also noted ``Agricultural productivity 
increases, made possible through research and new technology 
development, spared an area slightly greater than all the land in 25 
states east of the Mississippi River for other uses.''
    Dr. Johanna Dwyer, Director of Frances Stern Nutrition Center and 
New England Medical Center and Tufts University School of Nutrition 
Science and Policy, also spoke during the inaugural meeting. Dr. Dwyer 
emphasized the connections between the entire system of agriculture, 
food and nutrition for our nation and the importance of food and 
agricultural research as it contributes to the nation's health by 
discovering ways to improve the nation's nutritional status. Strong 
connections were illustrated between nutrition and agricultural yield, 
efficiency, sustainability and safety and quality. Dr. Dwyer 
highlighted the need for research that will improve the nation's 
dietary diversity, nutrition profiles, decrease malnutrition, and 
ensure sound nutrition over the long term through improved efficiency 
of plants and animals.
               how should the additional funds be spent?
    While National C-FAR does not have a list of research project 
recommendations, through our members and their association with other 
related coalitions, we are well aware of urgent research needs to 
address and opportunities to explore. Several coalitions, committees 
and scientific societies, including those listed below, have identified 
these needs and opportunities:
  --Coalition for Research on Plant Systems--CROPS 1999
  --Food Animal Integrated Research for 2002--FAIR 2002
  --Institute of Food Technologists--Food for Health Research Needs
  --Council on Food, Agricultural, and Resource Economics--Economics 
        and Research Priorities for an Efficient and Sustainable Food 
        System
  --American Society for Nutritional Sciences
  --National Agricultural Research, Extension, Education, and Economics 
        Advisory Board
  --American Dietetic Association
    Members of our Research Committee have presented to our Board a 
compilation of these studies. While several emerging needs and 
opportunities have been identified, we also want to stress the 
continuing need to build the capacity to do quality research and 
education, including human resources, infrastructure support, formula 
funds, and core programs. It is important to maintain a balanced 
portfolio of Federal research and education programs, including 
competitive grants, formula funds and intramural programs. Agriculture 
is a biologically based industry and many of the problems are site 
specific. Hence, we need to maintain a diversified research and 
education system. Major areas of research that have been commonly 
identified by most, if not all, of the related coalitions that are in 
need of additional funding include:
  --Food security, safety, fortification, enrichment and allergens
  --Nutrition and public health
  --Production quantity and quality; nutrient adequacy; global 
        competitiveness; and new market opportunities
  --Environmental stewardship and resource conservation and the 
        scientific basis for public policies relating to the 
        environment, plants and animals
  --Increasing knowledge, skills, and expertise
  --Emergency preparedness for emerging plant and animal diseases and 
        bio-terrorism
  --Product pioneering for food, nutrition, biobased materials and 
        biofuels
  --Genetic resources, genetic knowledge, and biotechnology
  --Jobs and rural community economic vitality
  --Education and outreach to producers, processors and consumers 
        including food safety, sound nutrition, conservation, 
        management, and new technology
    Our coalition arose from a shared mutual concern about the capacity 
of our agricultural research system as a whole to meet the future 
demands and capitalize on emerging opportunities. We will need a 
research system that simultaneously satisfies needs for food quality 
and quantity, resource preservation, producer profitability and social 
acceptability. This coalition will be working on ways to help assure 
that these needs are met.
                               conclusion
    For all these reasons, the National Coalition for Food and 
Agricultural Research recommends that Federal investments in food and 
agricultural research be doubled over the next 5 years. This objective 
translates into roughly an increase of 15 percent per year of the 
research, extension and education in USDA and other Federal agencies or 
about $500 million increase per year for 5 years.
    This is a small investment compared to the $1 trillion dollar size 
of our food and agricultural sector. However, we believe it is a 
strategic and wise investment that would: (1) benefit producers and 
consumers of all commodities and all states; (2) improve income 
opportunities for farmers; (3) contribute to the United States 
remaining the best fed country with the lowest share of income spent on 
food; (4) strengthen our competitiveness in the global marketplace, 
while achieving the proper balance with human and environmental needs; 
(5) enable producers to produce safer, healthier foods; (6) find new 
uses for agricultural products; and (7) enhance the protection of our 
natural resources.
    Again, we appreciate the opportunity to share our views. We look 
forward to working with you and the members of this Subcommittee in 
support of these important long-term objectives.
                                 ______
                                 

  Prepared Statement of the National Consortium for Rural Geospatial 
                         Innovations in America

    As your subcommittee prepares the fiscal year 2001 Agriculture, 
Rural Development and Related Agencies appropriations, we are 
requesting that you provide $1.6 million to support the Geographic 
System Information Program (GISP). We appreciate the support your 
subcommittee has provided our Program in the past. This Program has 
received funding from the Research and Education account of USDA's 
Cooperative State, Research, Education, and Extension Service (CSREES).
    The National Consortium for Rural Geospatial InnovationS (RGIS) is 
a group of eight university and non-profit sites distributed across the 
U.S. With the support of the Geographic System Information Program, 
RGIS sites assist state, tribal, regional and local governments and 
non- and for-profit organizations in implementing advanced geospatial 
information technologies. The last decade has seen an explosion of 
computer-based technologies for the creation and management and 
distribution of information about natural resources, property records, 
infrastructure, transportation, and other land use arenas. These 
technologies include geographic information systems (GIS), remote 
sensing image processing, global positioning systems (GPS) and other 
related information technologies. RGIS uses a variety of approaches to 
make these technologies understandable, affordable and useful. (See 
enclosure, National Consortium for Rural Geospatial Innovations in 
America, Summer 2000)
    The mission of RGIS is to increase access to digital technology in 
rural America. We promote the transfer of geospatial technologies by:
  --Providing geospatial tools, technologies, and training to empower 
        local governments, organizations, and citizens to understand 
        and participate in decisions that affect their economy, quality 
        of life, and environment;
  --Educating and training a cadre of people to apply geospatial 
        technologies to rural issues;
  --Supporting the development of appropriate local land information 
        systems, as well as linkage to and cooperation with regional, 
        state, and national land information systems.
  --The goal of the program is to improve the quality of life, 
        environmental health, and economic competitiveness in rural 
        communities.
    RGIS members have proved that geospatial technologies are efficient 
and cost-effective tools to improve local decision-making and local 
governmental processes. RGIS members have enabled local communities to 
develop better information, which has allowed local communities to make 
better decisions on a variety of issues including farmland 
preservation, emergency services, watershed management, land records 
modernization, and environmental protection. Continued funding of the 
Program will allow the organization to continue these benefits and 
leverage other resources to improve the quality of life in rural 
America and insure these communities have access to cutting-edge 
technologies.
    The eight existing sites are contributing the following:
  --Wilkes University and Kings College in Pennsylvania bring expertise 
        in how to implement geospatial technologies among rural local 
        governments and engineering mapping skills for comprehensive 
        watershed planning. (See Tackling Environmental Clean-up with 
        GIS, February 2001)
  --Pennsylvania State University brings expertise in how to apply 
        geospatial technologies to assess agricultural quality for 
        rural land use planning and management and spatial analytic 
        methods for assessing the environment. (See Farmland Protection 
        and GIS, December, 2000)
  --University of Wisconsin-Madison continues its extensive set of 
        geospatial outreach training programs, including hands-on land 
        use planning and management program for county and town level 
        planners. Selection by the Federal Geographic Data Committee 
        (FGDC) Community Demonstration Program has provided an 
        opportunity to assist local citizen planners in accessing new 
        land use planning and management tools. (See On Solid Ground, 
        June 2000)
  --University of North Dakota continues to respond to the expanding 
        interest in geospatial technology by local governments. One of 
        the most rewarding developments has been the assistance 
        provided to the City of Grand Forks in the aftermath of the 
        1997 devastating flooding of the Red River. (See Making Road 
        Travel Safer, November 2000)
  --University of Arkansas continues to provide local, state and 
        national leadership. Examples include providing geospatial 
        expertise to the Arkansas Land Records Modernization Board, GIS 
        training camps for local high schools, and assisting the NRCS 
        in developing the capacity to transfer soils and 
        orthophotography information over the Web. (See Finding the Lay 
        of the Land on the World Wide Web, November, 2000)
  --Central Washington University continues to support the 
        modernization of irrigation records used by water management 
        boards to insure equitable distribution of hydraulic resources 
        and continues to assist tribal and local rural communities 
        assess the role and use of geospatial technologies. (See GIS 
        Transforms Irrigation Management in Kittitas Reclamation 
        District, September, 2000)
  --South Georgia Regional Development Center continues to assist local 
        governments to modernize land record systems such as parcel 
        records for various applications including economic development 
        and infrastructure management. (See Ben Hill County, Georgia 
        Reaps Benefits From GIS and Damping High Fire Insurance Rates, 
        March, 2001)
  --Southwestern Indian Polytechnic Institute (SIPI), in its inaugural 
        Program year, started a program to assist tribal communities 
        utilize GIS and GPS technologies for agricultural and local 
        land management applications. Also SIPI hosted a satellite 
        distance education geospatial program for 29 tribal colleges 
        across the U.S. Each RGIS Program Site participated by 
        providing a 15-minute technical segment to the two-hour 
        satellite program.
                                 ______
                                 

      Prepared Statement of the National Cotton Council of America

    This is to transmit the cotton industry's request for fiscal year 
2002 funding for selected programs under the jurisdiction of 
Subcommittee on Agriculture, Rural Development and Related Agencies. 
The National Cotton Council appreciates your assistance in making this 
statement a part of the hearing records related to the fiscal year 2002 
appropriations bill.
    The National Cotton Council of America (NCC) is the central 
organization of the U.S. cotton industry representing growers, ginners, 
warehousemen, cottonseed crushers, merchants, cooperatives and 
manufacturers whose primary business operations are located in 16 
cotton producing states. Cotton Council International (CCI) is the 
overseas promotion arm of the cotton industry. The annual average farm 
gate value of U.S. cotton production is about $5 billion and its retail 
value averages approximately $60 billion. U.S. raw cotton exports 
normally account for approximately 40 percent of annual production and 
are valued at approximately $4 billion. U.S. textile manufacturers 
continue to be the U.S. cotton producer's most important customers. In 
addition to the fiber, cottonseed products are used for livestock feed, 
and cottonseed oil is used for food products ranging from margarine to 
salad dressing. Cottonseed and cottonseed products generally account 
for about 3 percent of the annual revenue generated from U.S. cotton 
production. Cottonseed contributes about 17 percent of the value of the 
crop at the farm gate.
    Cotton and cottonseed prices remain at historic lows and market 
observers predict low prices could continue for the foreseeable future. 
Asia's slow economic recovery; changes in China's cotton import policy; 
and an excess supply of cotton have all effected demand for U.S. raw 
cotton. The strong U.S. dollar relative to other currencies has made 
exporting bulk commodities difficult and spurred alarming increases in 
textile and apparel imports into the U.S. Excess production and cheap 
prices for synthetic fibers also contribute to a situation that has 
cotton farmers and their customers deeply concerned by shrinking 
operating margins.
    The financial assistance Congress provided for economic and weather 
related losses for the last 3 crop years has been critically important 
for farmers and the industry infrastructure. Unfortunately, as was 
noted in a recent letter sent by 25 Senators to Chairman Domenici, the 
combination of chronically low prices, escalating input costs and 
sluggish demand will result in continued low farm income and the need 
for an emergency economic assistance package in 2001 to provide at 
least the same level of economic assistance as was provided for the 
2000 crop.
    In the long-term, cotton farmers will benefit from federally funded 
programs and activities designed to reduce production costs and build 
demand. Successful completion of the boll weevil eradication program, 
control of the pink bollworm, new technology developed through 
research, and demand building export programs including MAP, FMD and 
GSM credit are all essential to our industry.
    The cotton industry's long-term viability depends on: an effective 
farm policy without unreasonable eligibility restrictions or 
limitations on benefits, including a marketing loan and adequately 
funded 3-step competitiveness provisions; an investment in the 
development and application of scientific principles; and, aggressive 
market development activities. The National Cotton Council welcomes the 
opportunity to provide the following recommendations and requests for 
fiscal year 2002 appropriations for programs which make important 
contributions to our industry's ability to compete and prosper.
                           funding priorities
    Pink Bollworm Programs (APHIS).--$6 million to continue the San 
Joaquin Valley (SJV) containment program and to begin sterile moth 
release phase of the pink bollworm eradication program initiated in 
2001 in the Trans Pecos/El Paso Valley of Far West Texas (in 
combination with the Boll Weevil Eradication Program). The pink 
bollworm is a serious cotton pest in Texas, Arizona, New Mexico and 
California with costs of prevention, control and yield loss exceeding 
$21 million annually. Sterile moth releases, pheromone traps and 
cultural methods have proven successful in preventing establishment of 
the pink bollworm. Growers in the SJV provide a significant portion of 
containment program costs through a self-assessment. Sterile moths are 
reared in a facility in Phoenix, financed by California growers. 
Management equipment, methods and partial support for rearing and 
operations are furnished by APHIS. The Far West Texas eradication 
program will initiate the three-phase program to eliminate the pink 
bollworm as a pest in Texas, New Mexico, Arizona, California and 
adjacent cotton areas in Northern Mexico. Program will employ Bt 
cotton, pheromones for mating disruption and sterile insect releases as 
eradication technologies. Increased funding in fiscal year 2000 and 
fiscal year 2001 allowed APHIS to prepare for demands of the Texas 
program. The significant increase in funding for fiscal year 2002 will 
allow the Phoenix facility to produce sufficient quantities of sterile 
moths to supply the SJV program and the new area wide program in Far 
West Texas.
    Boll Weevil Eradication (FSA).--Sufficient funding to allow FSA to 
make at least $100 million in loans to eligible Boll Weevil Eradication 
Foundations. To the extent Federal cost-share funds are insufficient 
for a 30 percent contribution and to assist producers in areas where 
farm income is extraordinarily low, loan funds are critical to 
successful operation and completion of the eradication program. There 
may also be an interest in expanding eligibility to include the pink 
bollworm eradication program to ensure it is adequately funded.
    Boll Weevil Eradication (APHIS).--$82.2 million for APHIS to 
maintain the Federal cost share at approximately 30 percent. More than 
10 million acres in Alabama, Mississippi, Tennessee, Arkansas, 
Louisiana, Texas, Oklahoma, Missouri and New Mexico will be under 
active eradication in 2001 and 2002 with a projected total program cost 
of $274 million. Approximately 4.5 million acres in Virginia, North 
Carolina, South Carolina, Georgia, Florida, Alabama, Texas, Tennessee, 
Arizona and California will be in post-eradication having been declared 
weevil-free. The program has achieved documented economic and 
environmental benefits. Adequate Federal cost-share funds are critical 
to timely completion. APHIS should also be directed to make every 
effort to minimize overhead and administrative expenses for boll weevil 
eradication to ensure maximum funding reaches field operations.
    Market Access Program (MAP).--$90 million is currently authorized 
by 1996 farm law. Cotton Council International actively promotes 
exports of U.S. cotton and cotton products in Asia, Europe and Central 
and South America. Activities carried out using MAP (and FMD) have been 
responsible for increased export sales of raw cotton and value-added 
cotton products. Exports of value-added cotton products add more than 
$6 billion to the overall value of cotton exports. For every $1 in MAP 
and FMD funds, CCI has generated matching contributions of over $9.00. 
The industry also supports funding to ensure FAS is adequately staffed 
to carry out important market development and trade enhancing functions 
in headquarters and abroad.
    Foreign Market Development (FMD).--The fiscal year 2000 
appropriations measure included a provision resulting in funding for 
the FMD Cooperator Program being provided through CCC rather than as 
part of the annual FAS appropriation. The industry requests the 
subcommittee to urge FAS to support FMD activities by programming not 
less than $33.5 million for fiscal year 2002, the absolute minimum 
amount necessary to sustain current levels of market development 
activities.
    GSM-102 Credit Guarantee (FAS).--Maintain authority to make at 
least $5.9 billion in GSM-102 guaranteed export credit available for 
use by U.S. exporters and customers. Urge U.S. negotiators at the DECD 
not to agree to modifications in the terms and conditions of the 
program, which render it unworkable for U.S. exporters and their 
customers. An ineffective GSM-102 program would reduce U.S. cotton 
exports by up to 500,000 bales and reduce prices by as much as 3 cents 
per pound. Consider modifications to the rules governing the program to 
include authority to accept repayment in foreign currencies, to allow 
the guarantee to cover cost of shipping and other regulatory 
adjustments to improve the value of the program for U.S. exporters and 
their customers.
    Aflatoxin (ARS).--The cotton industry strongly supports the funding 
recommendations of the Multi-Crop Aflatoxin Working Group and 
particularly the work by Dr. Peter Coty with AF-36 in Arizona.
    Ginning Research (ARS).--Urge ARS to continue to provide funding at 
not less than fiscal year 2001 levels for operations and research 
activities conducted at the regional ginning labs at Stoneville, MS; 
Lubbock, TX; and Mesilla Park, NM.
    Ginning Specialist (CSREES).--Urge ARS/CSREES to fill the vacant 
position and continue full funding of the Cotton Technology Transfer 
and Education Coordinator with headquarters in Stoneville, MS.
    Precision Agriculture (CSREES).--Request that priority be given to 
funding for precision agriculture applications research and that USDA 
be provided funds for use in matching NASA/Earth Sciences Enterprises 
allocations to precision agriculture.
    Shafter Cotton Research Station (ARS).--Urge ARS to maintain 
funding for cotton research conducted at the Station and not to shift 
funds or staffing resources from Shafter.
    Agricultural Genetic Resources.--Urge an increase of $10,000,000 
for USDA's National Plant Germplasm System (NPGS). An increase for the 
NPGS would provide funds for acquisitions of specific cotton germplasm 
from Russia, Uzbekistan and Latin America. Funds will also enhance 
winter nursery capabilities in Mexico, intensify cotton germplasm 
regeneration program and develop methods for precise description of 
cotton genomic viability. Work will be done at College Station and 
Lubbock, Texas. It would also provide funds to Phoenix, AZ for 
broadening the relatively narrow genetic base for upland and pima 
cotton varieties in Western and Southwestern U.S. by incorporating 
genes from wild relatives.
    Farm Service Agency.--Provide adequate funding so the agency can 
deliver essential programs and services.
    Other.--Support funding for value-added textile research at New 
Orleans ARS/SRRC and ARS/Clemson, SC; PM10 air quality research by 
CSREES; silverleaf whitefly control programs; conservation programs 
including CRP, WRP and WHIP; the Office of Pest Management Programs 
which continues to provide important assistance to growers during EPA's 
review of critical crop protection products; and the Aerial Application 
Technology Program at College Station.
    Research & Extension.--Support formula funding for Research and 
Extension; National Extension Priorities including water quality, food 
safety, and pesticide assessment program, and, funds for National 
Research Initiative.
    Cotton Classing Services (AMS).--The cotton classing services 
provided by USDA's AMS Cotton Division are critically important to 
marketing U.S. cotton. Cotton must be classed to be eligible for the 
CCC loan. AMS has successfully held classing fees at current levels for 
several years. For 2001, the agency is anticipating a significant 
increase in energy expenses and qualified seasonal employees are in 
short supply at most classing office locations. Yet in recognition of 
the severe economic stress in the industry, the agency has elected to 
hold fees at 2000 crop levels. Over the next 3 years, significant 
capitol investment will be required to install new automated classing 
equipment which will improve accuracy and reduce labor costs. The 
industry urges the Committee to consider providing appropriated funds 
for fiscal year 2002 and fiscal year 2003 to be used for the purchase 
of new automated equipment as reliable equipment becomes available.
                                 ______
                                 

   Prepared Statement of the National Council of Farmer Cooperatives

    The National Council of Farmer Cooperatives (NCFC) appreciates very 
much this opportunity to share its views regarding the fiscal year 2002 
agriculture appropriations bill, and respectfully requests this 
statement be made a part of the official hearing record.
                overview of ncfc and farmer cooperatives
    The National Council of Farmer Cooperatives (NCFC) is a national 
trade association representing nearly 100 regional marketing, supply 
and credit cooperatives, and state councils. Included among these 
regional cooperatives are over 3,500 local cooperatives whose farmer 
owners represent a majority of America's 2 million individual farmers. 
With approximately 300,000 full-time and seasonal employees, farmer 
cooperatives also represent a significant source of employment in many 
rural communities.
    Farmer cooperatives are farmer owned and controlled. They exist for 
the mutual benefit of their farmer members. As farmer-owned businesses, 
they handle, process and market virtually every type of commodity 
produced in the U.S.; manufacture and sell farm supplies; and provide 
credit and related financial services for and on behalf of their member 
owners. Earnings from such activities are returned to their member 
owners on a patronage basis, thereby helping improve the income of 
farmers and contributing significantly to the economic and tax base of 
local communities.
                    near and long term action needed
    The experience of the last three years has demonstrated again how 
farm income can be highly variable due to the inherent risk associated 
with production agriculture and the volatile nature of commodity 
markets. Today, without continued government assistance, farm income 
will again be down significantly due to continued low commodity prices 
and rising production costs.
    Congress has been very generous in its response and we strongly 
support continued assistance to help meet the immediate income 
challenges facing agriculture. However, action is also needed to 
promote a more lasting economic recovery with regard to agriculture.
            farmer's share of the consumer dollar declining
    The farmer's share of the consumer food dollar has steadily 
declined to where it now represents just 20 cents, its lowest level 
ever. Reversing this decline would substantially improve net farm 
income and reduce the need for direct emergency economic assistance 
long term. For example, increasing the farmer's share of the consumer 
food dollar by just one cent to 21 cents would have added over $6.2 
billion to farm income in 1999 and potentially reduced dependence on 
direct government payments.
   globalization continues to drive changes in food and agriculture 
                                industry
    Globalization continues to drive changes throughout the economy, 
including continued consolidation in the food and retail sectors, as 
individuals and businesses look to gain the size and scale needed to 
become more efficient and competitive in a global economy. This has 
renewed concerns over the impact of such changes on farmers and their 
ability to remain competitive and obtain a fair return on what they 
produce.
        international markets characterized by foreign subsidies
    According to a recent analysis by USDA, the European Union (EU) and 
other foreign competitors are now outspending the U.S. by a factor of 
20 to 1 with regard to the use of export subsidies and other 
expenditures for export promotion.
    The same study shows that such countries are spending over $100 
million just to promote sales of their products in the United States. 
In other words, they are spending more to promote their agricultural 
exports to the United States, than the U.S. is currently spending ($90 
million) to promote American agricultural exports worldwide!
                   recommendation of ncfc task force
    In an effort to help identify and recommend specific actions needed 
to help meet the challenges facing farmers, NCFC established a special 
Task Force comprised of both farmer owners and managers of farmer 
cooperatives across the U.S. According to the task force, a key 
component of any strategy aimed at addressing the challenges facing 
agriculture should include action to strengthen the ability of farmers 
to join together in cooperative self-help efforts to improve their 
income from the marketplace, manage their risk, capitalize on potential 
market opportunities, compete more effectively in a rapidly changing 
global economy, and enhance their economic well being and profitability 
long term.
                    usda farmer cooperative programs
    Programs to help foster and promote such cooperative self-help 
efforts by farmers need to be revitalized and given a high priority. To 
help achieve this objective, we recommend that a separate agency be 
established within USDA, along with specific funding of not less than 
$6 million for fiscal year 2002, to carry out programs relating to 
farmer cooperatives.
    farmer cooperative research, education and technical assistance
    Funding for USDA research, education and technical assistance in 
support of cooperative self-help efforts by farmers should also be 
strengthened. Accordingly, not less than $6 million should be provided 
for programs relating to farmer cooperatives. This would include not 
less than $3 million for cooperative research agreements and not less 
than $3 million for cooperative education grants.
    Provisions should also be included to require such programs be 
carried out by public private partnerships with organizations with 
proven and demonstrated expertise to improve coordination and delivery 
of such programs, and to maximize available resources. We also 
recommend that not less than $1 million of available funds for 
cooperative education grants be utilized to help expand existing 
national cooperative education programs to provide farmers with greater 
access to the information and technical assistance needed for 
organizing and operating a farmer owned cooperative business.
    Funding for value-added technical assistance grants should also be 
maintained at not less than $25 million for fiscal year 2002 to further 
encourage and promote cooperative self-help efforts by farmers.
       usda's b&i loan guarantee program and farmer cooperatives
    USDA's Business and Industry (B&I) guaranteed loan program should 
be modified and strengthened to provide farmer cooperatives and their 
farmer owners with access to capital on a similar basis as currently 
available under related programs for rural electric and other types of 
cooperatives. This would include eliminating the current limitation on 
the amount of a guaranteed loan that may be made to a farmer 
cooperative, among other changes needed to provide greater program 
flexibility consistent with other types of cooperative lending 
programs. Farmers and their cooperatives need improved access to 
capital to modernize and expand, invest new plant and equipment, meet 
costly environmental and other regulatory requirements, capitalize on 
potential market opportunities, and to compete effectively in a rapidly 
changing global economy. In addition, funding for USDA's B&I guaranteed 
loan program should be increased to provide up to $10 billion in 
guaranteed loan authority for such purposes.
                    usda commodity purchase programs
    We strongly urge that statutory and report language included in the 
fiscal year 2001 agriculture appropriations bill be included in the 
fiscal year 2002 bill to ensure that farmer cooperatives are fully 
eligible to participate in USDA's commodity purchase programs. Such 
programs serve two important purposes. One, they help meet the food and 
nutrition needs of consumers. Second, they provide an important market 
outlet for farmers, especially during periods of surplus production, 
thereby helping strengthen farm income and promoting orderly marketing.
    However, under previous guidelines established by USDA, this 
important market was eliminated for many farmers choosing to 
cooperatively market their products. The fiscal year 2001 agriculture 
appropriations bill addressed this by clearly providing that farmer 
cooperatives are fully eligible to participate in such programs for and 
on behalf of their farmer owners. In doing so, it preserves an 
important market outlet for many farmers, promotes orderly marketing, 
encourages cooperative self-help efforts, and helps maintain and 
strengthen farm income--since proceeds from the sale of commodities and 
related products are returned to the cooperatives' farmer owners as 
patronage income. It also serves to increase the potential quantity and 
quality of commodities and related products available for purchase and 
use under such programs, and provides for more competitive bidding 
among participants. Finally, it helps contribute to stronger rural 
communities where farmer cooperatives and their farmer owners are 
located. For all these reasons, we again urge such provision be 
included in the fiscal year 2002 agriculture appropriations bill.
                            export programs
    We also believe it important to maintain and strengthen funding for 
USDA's export programs, including the Market Access Program (MAP) and 
Foreign Market Development (FMD) Cooperator Program, and we endorse the 
recommendations of the Coalition to Promote U.S. Agricultural Exports 
of which NCFC is a member. Such programs have been tremendously 
successful and extremely cost-effective in helping maintain and expand 
U.S. agricultural exports, countering subsidized foreign competition, 
protecting American jobs and strengthening farm income.
    Programs such as MAP and FMD have also helped encourage and 
strengthen the ability of farmers to join together in cooperative 
efforts to promote their products in overseas markets and improve their 
income. Administered on a cost-share basis, they remain one of the few 
tools specifically allowed under the Uruguay Round Agreement to help 
American agriculture and American workers remain competitive in a 
global marketplace still characterized by subsidized foreign 
competition.
    We also urge continued funding for other related USDA export 
programs, including the Export Enhancement Program (EEP), Dairy Export 
Incentive Program (DEIP), GSM Export Credit Guarantee Program, and 
Public Law 480. All of these programs continue to be essential to help 
encourage U.S. agriculture exports, counter subsidized foreign 
competition, protect American jobs, and strengthen farm income.
                         agricultural research
    Another important area of emphasis when it comes to enhancing the 
global competitiveness of farmer cooperatives and American agriculture 
is research. It is equally important to help ensure that farmer 
cooperatives and American agriculture can continue to help provide 
consumers at home and abroad with a dependable supply of safe, high 
quality food and fiber at reasonable prices, while meeting important 
environmental and food safety objectives.
    NCFC endorses the statement by the National Coalition for Food and 
Agricultural Research of which NCFC is a member, which has set an 
objective of doubling Federal funding of food, nutrition, agricultural, 
natural resource, and fiber research, extension and education programs 
during the next 5 years.
                           conservation/eqip
    We strongly support continued funding for the Conservation Reserve 
Program (CRP), as well as restoring funding for the Environmental 
Quality Incentives Program (EQIP), as recommended in the 
Administration's budget. Such programs are necessary to help achieve 
and maximize water quality and other environmental benefits.
    The CRP and EQIP programs in particular are critical to empowering 
farmers to continue voluntary efforts to sustain the natural resource 
base and to respond to societal expectations and demands with regard to 
water quality and protecting our natural resource base.
                       meat inspection/user fees
    We continue to be opposed to user fees relating to Food Safety and 
Inspection Service (FSIS) for meat inspection. Such inspection programs 
provide important public benefits relating to food safety and quality 
and should continue to be publicly funded.
                               conclusion
    Mr. Chairman, on behalf of NCFC and its members, we want to again 
thank you for the opportunity to share our views with regard to the 
fiscal year 2002 agriculture appropriations bill. We also wish to take 
this opportunity to express our appreciation to you and the members of 
the Subcommittee for your interest and support of farmer cooperatives 
and American agriculture.
                                 ______
                                 

      Prepared Statement of the National Corn Growers Association

    The National Corn Growers Association (NCGA) appreciates the 
opportunity to provide the Subcommittee with our recommendations for 
fiscal year 2002 appropriations for key programs administered by the 
U.S. Department of Agriculture. The NCGA represents 30,000 corn growers 
in 48 states and the association's mission is to create and increase 
opportunities for corn growers in a changing world and to enhance corn 
utilization and profitability.
    The NCGA, strongly, urges the Subcommittee to:
  --Increase the ARS plant, animal, and microbial genomics programs by 
        $5.0 million;
  --Increase funding for the National Plant Germplasm System by $10 
        million; and
  --Maintain $120 million in funding for the Initiative for Future 
        Agriculture and Food Systems.
    While many Federal agricultural programs are important to the 
nation's corn growers, the NCGA believes that the future of the corn 
industry is written in corn's genetic code and that plant genomics will 
give us the fundamental information necessary to revolutionize American 
agriculture. Plant genomics research advances our understanding of the 
structure, organization and function of plant genomes.
    Since 1996, funding for plant genomics has been the number one 
appropriations issue for the NCGA. The Plant Genome Initiative (PGI), a 
multi-agency program
    Focused on structural and functional genomics, will help 
scientists, geneticists, and plant breeders identify and utilize genes 
(from corn and other plants) that control important traits, such as 
nutritional value, stress tolerance, and resistance to pests. In a 
recently published report, the Interagency Working Group on Plant 
Genomes, estimated that $600 million, over three years (fiscal year 
2001-2003) was needed for the National PGI. While the NSF will provide 
a significant level of funding for the PGI, USDA must increase its 
plant genomics funding, substantially, if we are to meet the minimum 
level of need. Further, USDA must begin a concerted effort in animal 
and microbial genomics.
    For the fiscal year 2002 agricultural appropriations bill, the NCGA 
requests an increase of $5.0 million for plant, animal, microbial 
genomics at the Agricultural Research Service (ARS). We support the 
Administration's requested increase of $4.5 million increase for 
bioinformatics research at ARS and urge the Subcommittee to provide an 
additional $500,000 for additional ARS genomics efforts. The NCGA, 
also, urges the Subcommittee to allow full funding to continue for the 
Initiative for Future Agriculture and Food Systems as a significant 
portion of the funds are supporting plant, animal, and microbial 
genomics research.
    To take full advantage of the plant genomics revolution, diverse 
plant germplasm must be available for crop breeders to develop the 
varieties necessary to meet the changing circumstances and needs of the 
future. The USDA National Plant Germplasm System (NPGS)--
  --Acquires germplasm;
  --Develops and documents information on the germplasm;
  --Preserves and distributes germplasm upon request; and
  --Maintains quarantine facilities for testing imported germplasm.
    Funding for the NPGS has declined significantly, in constant 
dollars, since 1992, while demands on the system have increased. The 
NSF-funded plant genome research program has increased, tremendously, 
the amount of genetic stocks for the NPGS to manage. For example, one 
maize grant will generate, at least, 50,000 new maize genetic stocks, 
doubling the size of the NPGS maize stock center. Comparable situations 
will exist for several other economically important crops as well. 
Without a significant increase in funding, the NPGS will not be able to 
manage current stocks, much less the increased stocks generated through 
genomics research. It is critical that these resources remain in the 
public domain to ensure continued accessibility to all scientists and 
breeders. The 2 NCGA believes that the NPGS is a fundamental, strategic 
resource, and urges the Subcommittee to provide a $10 million increase 
for the NPGS.
    Advances in basic plant science that result from a vigorous plant 
genomics program and a strong, viable National Plant Germplasm System 
will allow us to create new hybrids and varieties that will--
  --Improve human and animal health;
  --Reduce medical costs due to more nutritious, healthier, food for 
        individuals;
  --Reduce worldwide malnutrition through higher yielding and more 
        nutritious crops;
  --Reduce environmental problems for crop and livestock growers;
  --Expand plant-based renewable resources for chemicals and energy; 
        and
  --Allow growers to get more income from the market and reduce grower 
        reliance on Federal farm programs.
    The National Plant Genome Initiative, the National Plant Germplasm 
System, and the competitive USDA programs that support genomics 
research are critical to the long-term viability of U.S. agriculture as 
they will provide our growers with the tools to meet the challenges and 
demands of the 21st century. The NCGA, strongly, urges Congress to 
provide a $5 million increase in ARS funding for plant, animal, and 
microbial genomics research and a $10 million increase for the USDA 
National Plant Germplasm System.
    Thank you for your consideration of our views.
                                 ______
                                 

    Prepared Statement of the National Congress of American Indians

                              introduction
    My name is Susan Masten, and I am Chair of the Yurok Tribe of 
Northern California and President of the National Congress of American 
Indians (NCAI). I am pleased to have the opportunity to present a 
written statement regarding the President's budget request for fiscal 
year 2002 Indian programs and services within the Department of 
Agriculture.
    Since the 1970's, the high population growth rate of Indian 
reservations has put great strains on an already inadequate 
infrastructure. Education, law enforcement, transportation, health 
care, jobs, housing, technology, water and sewer systems--each of these 
basic governmental services all too often falls victim to resources 
that are spread far too thin. While fiscal year 2001 funding levels for 
Indian programs certainly made great strides toward meeting the basic 
programmatic needs of tribes, our work is not yet done. In order to 
fully support tribal self-government and economic self-sufficiency, 
Congress must not turn back the clock on last year's gains and in fact 
should consider increases for key programs that serve Indian Country.
    Last year, Congress enacted a final fiscal year 2001 budget that 
included a total of $9.4 billion for critical Indian programs. This 
total, a $1.1 billion increase over fiscal year 2000, represented the 
largest increase ever for Indian programs and brought together over a 
dozen agencies to help address the needs of Indian nations.
    The last time the Federal government enacted an increase of a 
similar scope was in the mid-1970's as part of President Nixon's self-
determination policy. Self-determination has been and continues to be 
the most successful Federal policy toward Indian Nations. Under it, 
tribal governments have local control over programs and are able to 
fulfill needs and solve problems more quickly and efficiently than 
through a ``top-down'' Federal approach.
    For fiscal year 2002, the President has proposed $1.96 trillion in 
fiscal year 2002 spending, including a four percent increase in 
discretionary spending over fiscal year 2001. While this increase--
which is slightly higher than inflation--seems positive, it is 
important to note that it is only half the 8.5 percent gain enacted 
last year. Furthermore, proposed budget for the Department of Interior 
is four percent less than the fiscal year 2001 enacted level.
    The President's ``Blueprint for New Beginnings'' fails to provide 
many substantive, agency-level details about the fiscal year 2002 
budget request. Until these details become available through the 
release of more comprehensive agency budgets, it is extremely difficult 
to gauge the impact of the proposed fiscal year 2002 budget on programs 
that serve American Indians and Alaska Natives.
    I will address the proposed funding levels that are available and 
to highlight those programs that we believe are critically important to 
Indian nations. Much of the information and recommendations contained 
in my testimony was provided by our member tribes and by national and 
regional Indian organizations, such as the National Indian Education 
Association, the National Indian Health Board, the National American 
Indian Housing Council, the Northwest Portland Area Indian Health 
Board, and others.
                       department of agriculture
    Being the most rural of any minority group, American Indians 
residing on reservations are for the most part, geographically 
isolated, resource-limited, and the least likely of any farm group to 
receive loans from the United States. Of the some 55 million acres of 
Indian lands, 47 million acres are used for the production of crops, 
livestock, or both. Those individual operators and farming tribes who 
produce these resources are in need of capital, more efficient 
administration of existing Federal programs, and technical assistance. 
This need extends over all farming tribes even those who may have an 
abundance of natural resources. In addition, development assistance 
provided through USDA helps non-farming tribes to develop more 
sustainable economies.
    For fiscal year 2002, the President has proposed cutting USDA 
funding from its current level of $19.4 billion to $17.9 billion, a 1.6 
percent reduction. NCAI is particularly concerned about the proposed 
elimination of $235 million in rural development assistance. 
Furthermore, we recommend the following funding levels for Indian-
specific programs:
Extension Indian Reservations Program
    In fiscal year 2001, $2 million was provided for extension agents 
on Indian reservations, a slight increase over the fiscal year 2000 
enacted level of $1.7 million. Since 1990, the Extension Indian 
Reservation Program, authorized under the Food, Agriculture, 
Conservation and Trade Act, has provided services to Indian Country on 
issues ranging from crop and animal production practices to farm 
business management. It also has furnished extension agents, employees 
of the State Cooperative Extension System, who work with tribal 
advisory committees to develop educational programs in agriculture or 
agriculture-related youth programs that respond to tribal priorities. 
NCAI strongly supports an increase to $5 million for fiscal year 2002 
in order for the program to hire additional extension agents on large 
Indian reservations to help Indian Country promote productive and 
efficient land use.
Rural Development Native American Program
    In fiscal year 2001, $24 million was provided for Indian Rural 
Community Advancement Programs (RCAP). While this funding level was 
welcome, NCAI further recommends that this funding be allocated as 
follows: $1 million for Rural Business Opportunity Grants to Tribes; $5 
million for Community Facilities Grants for Tribal College 
Improvements; $16 million for Drinking Water and Waste Disposal Systems 
for Tribes; and $3 million for Rural Business Enterprise Grants to 
Tribes.
Food Distribution Program on Indian Reservations
    The Food Distribution Program on Indian Reservations (FDPIR) is 
administered at the Federal level by the Food and Nutrition Service 
(FNS) in cooperation with 98 tribal organizations and six state 
agencies. Many Native Americans actually participate in the FDPIR, 
rather than the Food Stamp Program because of rural isolation and the 
lack of easy access to food stores.
    fiscal year 2001 funding for the FDPIR was $76.5 million, an 
increase of $1.5 million over the fiscal year 2000 enacted level. 
Maintaining this increase is crucial in order to provide commodity 
foods to low-income households on reservations and to Native American 
families residing in designated areas near reservations.
                               conclusion
    We urge the Congress to fulfill its fiduciary duty to American 
Indians and Alaska Native people and to preserve the government-to-
government relationship, which includes the fulfillment of health, 
education and welfare needs of all Indian tribes in the United States. 
This responsibility should never be compromised or diminished because 
of any political agenda or budget cut scenario. Tribes throughout the 
nation relinquished their lands as well as their rights to liberty and 
property, and we ask that the Congress maintain the Federal trust 
responsibility to Indian Country and continue to assist tribes on the 
road toward self-sufficiency. Thank you.
                                 ______
                                 

     Prepared Statement of the National Food Processors Association

    Mr. Chairman, my name is John Cady, Chairman and CEO of the 
National Food Processors Association (NFPA), and today I am submitting 
testimony on behalf of NFPA. NFPA is the nation's largest food trade 
association representing a $460 billion industry that employs over 1.5 
million Americans. With three laboratory centers, NFPA is the leading 
authority on scientific and public policy issues involving food science 
and safety for the food industry. For more than 90 years, the food 
industry has relied on NFPA for government and regulatory affairs 
representation, scientific research, technical services, education, 
communications, and crisis management.
    NFPA was formed at a time when it was necessary to enhance public 
confidence in food safety, and we are proud of our contributions to 
further improve the safety of our nation's food supply. The U.S. food 
supply is the safest in the world. However, NFPA remains committed to 
working to make it even better. That is why NFPA advocates oversight 
and regulation that is appropriate. Our association is particularly 
supportive of providing an adequate level of funding for the Food and 
Drug Administration (FDA) and the Department of Agriculture's Food 
Safety and Inspection Service (FSIS). While several Federal agencies 
have responsibility for food safety and quality programs, the FDA and 
FSIS share the primary responsibility for food regulation. NFPA, on 
behalf of our members, is making an enhanced commitment to focus on 
increasing the resources and productivity of these authorities.
    This year NFPA has launched a long-term effort, along with other 
leading food trade associations, to seek additional funding for FDA's 
Center for Food Safety and Applied Nutrition (CFSAN), which in real 
dollars, has had a steadily declining budget since 1973. While funding 
for CFSAN has risen by $100 million over the past four years, CFSAN 
must continue to enhance efficiency and productivity. Only by enhancing 
efficiency and productivity will the Center be able to stretch resource 
dollars further to meet the demands in areas such as food safety 
research, risk-based inspections and premarket reviews, including 
biotechnology and food additives. NFPA is committed also to adequate 
resources for the Agriculture Research Service (ARS) at the Department 
of Agriculture, specifically to fulfill it's mission to generate 
technical information on providing an adequate supply of food products 
by practices that maintain a permanent and effective agriculture and to 
improve the nutrition and well being of the American people.
                               user fees
    The Administration's fiscal year 2002 Budget proposes new user 
fees--more appropriately described as regulatory taxes--that require 
food companies to pay for the privilege of being regulated. Though NFPA 
applauds the Administration for not proposing new user fees for FSIS, 
the fiscal year 2002 request does include $13.4 million in new, 
unauthorized user fees. This includes $8.1 million for new, 
unauthorized user fees for import inspections and $5.3 million export 
certifications. NFPA appreciates that the Committee repeatedly has 
rejected these proposals in past Administration budget requests, and 
recommends again that funding of food safety and regulatory programs 
should be borne through appropriated funds. The proposed FDA user fees 
would be collected to provide food companies with certification 
documents for exporting products. Amounting to a tax on food trade, 
this would discourage the export of U.S. food and agriculture products 
at a time of already declining agriculture exports. Proposed user fees 
on the food industry are hidden taxes whose costs would be borne both 
by producers and eventually consumers in higher food prices. NFPA does 
support the Administration's focus on FDA's export certification 
system, which needs reform to prevent the continuing backlog of 
document requests. However, establishing a user fee system would simply 
camouflage the deficiencies of the existing system. Furthermore, 
funding regulatory programs through taxes raised from the industry 
would only serve to undermine global public confidence in the 
independent judgment of FDA. We urge the Committee to reject this user 
fee proposal.
        food and drug administration's food regulatory programs
    NFPA supports the requested level of funding for FDA's food 
regulation activities, but recommends that priority be given to the 
areas of research, risk assessment, education and surveillance. Such 
priority setting will ensure that limited resources will be targeted 
toward reducing risk associated with food borne illness. In addition, 
we support FDA's infrastructure request for funding to administer the 
transfer of the CFSAN staff and facilities to College Park, Maryland 
and to construct a new regional laboratory in Los Angeles, California.
    We also urge the Committee to protect funding for science-based 
food activities at CFSAN. Recent increases to CFSAN's budget have been 
absorbed by a combination of dedicated funding for regulatory 
initiatives and staff salary increases and cost-of-living adjustments. 
This ``crowding out'' effect appears to have contributed to a slow, but 
steady, erosion in FDA's ability to preserve its food science base. The 
continued decline of FDA's scientific base can only imperil FDA's long-
term capabilities to respond rapidly and authoritatively to emerging 
scientific and policy challenges that grow increasingly complex. We 
urge the Committee to explore with FDA opportunities to support the 
integrity of CFSAN's scientific capabilities.
                             biotechnology
    NFPA recognizes the leading role FDA plays in ensuring public 
acceptance of emerging food technologies including biotechnology. NFPA 
strongly supports the proposed fiscal year 2002 increase of $1 million 
to strengthen CFSAN's scientific capabilities and requests the 
Committee provide an even higher level of funding for this important 
function. In January, FDA released a draft guidance on labeling for 
food derived from biotechnology and a proposed rule on premarket 
notification. FDA should expeditiously publish a final version of the 
guidance and rule to ensure the review process is thorough, rigorous, 
and scientifically based.
                  extending the food safety initiative
    NFPA appreciates the continued emphasis that Congress has placed on 
food safety through its funding for the Food Safety Initiative for FDA, 
USDA, and the Centers for Disease Control and Prevention (CDC) in 
fiscal years fiscal year 1998 through 2001. The fiscal year 2002 
request represents the new Administration's commitment to enhance 
efforts to prevent the spread of mad cow disease to the U.S., and to 
expand successful food safety activities. We endorse most aspects of 
the Administration's request to increase funding to reduce the 
prevalence of pathogens, and expand coverage to pesticides and chemical 
contaminants, particularly in those areas that emphasize research, risk 
assessment, education and surveillance. Our concern remains that FDA 
use resources efficiently and effectively. FDA should fully implement 
on-going monitoring and risk evaluations, and expand current laboratory 
capabilities in order to increase timely risk assessments and 
scientific analysis before premature regulatory steps are taken. We 
request that the Committee remain vigilant in its oversight to ensure 
that appropriated funds for food safety programs are deployed in a 
manner commensurate with relative food safety risks.
      further reforms needed at food safety and inspection service
    NFPA supports adequate resources for the FSIS, but is concerned 
with reports of personnel management practices that have led to 
inspector shortages and resulting plant slowdowns or work stoppages in 
meat and poultry establishments. We urge the Committee to review this 
problem to ensure the availability of inspection personnel either 
through additional resources or management reforms, including 
alternative inspection procedures.
    NFPA supports the transition to a HACCP-based inspection system, 
but notes that FSIS has not fulfilled its past pledges to remove 
inspection regulations that are inconsistent with HACCP. We urge the 
Committee to ensure that unnecessary layers of regulation are promptly 
removed to speed HACCP implementation.
    For example, NFPA is disappointed that FSIS reported to Congress in 
March 2001 that it would not follow through with an announced plan to 
move toward daily, unscheduled processing inspection in 2001. FSIS 
estimated that this would save an estimated $19 million. NFPA agreed 
that the FSIS plan put forward in the fiscal year 2001 budget would 
free up appropriated funds to address inspection shortages and other 
significant food safety risks. NFPA believes unscheduled inspection in 
processing establishments could yield even greater benefits by 
allocating resources based on a public health risk allocation of 
resources. We urge the Committee to direct FSIS to explore methods of 
further maximizing this flexible approach.
    NFPA also recognizes the lead role that FSIS plays in overseeing 
the work of the U.S. Manager for Codex Alimentarius. NFPA strongly 
supports the fiscal year 2002 requested increase for FSIS Codex 
activities, and recommends that the Committee provide an even higher 
level of funding for this important function. Codex remains a 
critically important forum for ensuring U.S. leadership in 
international trade and food safety activities.
               adequate funding needed for food research
    The National Nutrition Monitoring and Related Research Act of 1990 
directed the USDA's Agriculture Research Service to coordinate the 
Continuing Survey for Food Intake by Individuals (CSFII) with the 
National Health and Nutrition Examination Survey (NHANES) conducted by 
the Department of Health and Human Services (DHHS). Though USDA is 
working diligently with DHHS to coordinate the two survey systems and 
methodology, USDA has failed to conduct the CSFII in 2000 and has no 
plans to conduct the survey in 2001. Congress has requested USDA report 
on how the Department plans to integrate the two surveys without losing 
the vital data collected by both programs. The recently released USDA 
report failed to appropriately address the concerns of the Congress as 
the language of the report appears to indicate plans to rely only on 
the data collected through NHANES. The CSFII is at the core of 
America's national nutrition monitoring system and is vital to 
understanding the growing problem of childhood obesity, conducting food 
safety risk assessments, refining objectives of Federal food assistance 
programs, and monitoring the nutritional health of various at-risk 
populations. NFPA urges the Committee to direct the ARS to continue to 
conduct the CSFII as the Service develops a coordinated plan with DHHS 
for both surveys.
    The ARS also performs the essential function of compiling and 
communicating agriculture and food industry data and information on the 
evaluations and decisions that impact the future capacity of production 
agriculture in the U.S., made by the Environmental Protection Agency. 
NFPA recommends the Committee increase the budget allocation for 
continuing implementation of the Food Quality Protection Act to ensure 
the Office of Pest Management Policy at ARS has adequate funding to 
support tolerance reviews and determinations of the cumulative risk 
assessments needed to ensure a safe food supply.
                               conclusion
    In conclusion, NFPA is grateful for the important funding oversight 
that the Committee provides to ensure the integrity of U.S. food safety 
regulation. The food industry endeavors to produce the safest and 
highest quality food products in the world. As a result, NFPA 
understands that adequate funding for our nation's food safety 
regulators through direct appropriations and enhanced productivity by 
the agency is fundamental to good public health, and to maintaining the 
confidence of consumers in the safety of the food supply. NFPA 
appreciates the opportunity to submit testimony on the President's 
fiscal year 2002 food safety budget request.
                                 ______
                                 

  Prepared Statement of the National Organization for Rare Disorders, 
                                  Inc.

    Mr. Chairman and members of the Senate Appropriations Subcommittee 
on Agriculture, Rural Development and Related Agencies, the National 
Organization for Rare Disorders (NORD), wishes to express its views 
regarding appropriations for the Orphan Products Research Grant Program 
administered by the Office of Orphan Product Development (OOPD) at the 
Food and Drug Administration (FDA).
    NORD is a federation of approximately 140 voluntary health 
organizations and over 70,000 individual patients, healthcare providers 
and clinical researchers dedicated to helping the 25 million people in 
the United States suffering with rare ``orphan'' diseases. An orphan 
disease is defined by statute as any disease or condition impacting 
less than 200,000 Americans.\1\ It makes no difference whether you are 
male or female, rich or poor, young or old, white, African-American, 
Latino, Asian or American Indian. These diseases affect everyone.
---------------------------------------------------------------------------
    \1\ Orphan Drug Act of 1983.
---------------------------------------------------------------------------
    On behalf of the rare disease community, we are respectfully 
requesting that just one dollar for each and every person suffering 
with a rare disease be appropriated by this Subcommittee for the FDA'S 
Orphan Products Research Grant Program. Twenty-five million would 
represent a minimal investment by the Federal government in the 
development of lifesaving treatments that the private sector is not 
interested in. But the return on investment could be phenomenal if only 
a few new orphan drugs or devices are developed to reduce the burden of 
disease and death for thousands of patients with rare disorders.
    As you can imagine, appropriating just one dollar for each rare 
disease patient in America, rather than the current funding level of a 
mere fifty cents per patient, is a win-win situation. Patients win when 
their symptoms are alleviated or cured. Families win when their loved 
ones no longer suffer. Society, as a whole, wins when patients are able 
to return to school or work to become productive tax-paying citizens. 
Pharmaceutical and biotechnology companies win when they are able to 
market new therapeutic products when part of the development costs are 
subsidized. The scientific community wins when the knowledge they gain 
can be applied to more prevalent diseases. And, finally, the government 
wins when the drain on healthcare dollars is minimized.
              fda orphan products research grants program
    Congress created the research grants program in fiscal year 1983 to 
provide funding for pivotal clinical trials on new orphan drugs, 
medical devices, and medical foods for rare diseases. The funds have 
been made available to academic scientists and small companies. By 
definition, ``orphan products'' are treatments for rare conditions that 
have small potential markets and thus are not attractive to the 
commercial sector. Such treatments were not being developed for 
``orphan'' diseases by the private sector until the Orphan Drug Act was 
enacted in 1983.
    Since then, the FDA has approved over 218 orphan drugs for 
marketing, and more than 800 additional drugs are in the research 
pipeline. Of those products approved for marketing, 27 (23 drugs and 4 
medical devices) were developed with funding from the orphan product 
grants. These 27 treatments would not be on the American market today 
saving the lives of thousands of Americans, enabling them to return to 
school or work, if Congress had not created this small but critically 
important pool of research funds.
    Most of FDA's Orphan Products Research Grants support small 
clinical trials at academic institutions throughout the nation to 
develop the preliminary evidence that is necessary to attract 
commercial sponsors. It is the quintessential model for a successful 
government/industry partnership. There is no more appropriate program 
deserving of Federal support because it fills a major gap between 
academic research and the private sector, and it creates lifesaving 
products that are needed throughout the world.
    For example, children with Severe Combined Immune Deficiency (the 
``Bubble Boy Disease'') no longer have to live in a plastic bubble 
because now their immune systems can fight off germs, thanks to an 
orphan drug developed with these grant funds. Children with urea cycle 
disorders no longer slip into a coma and die because an orphan drug 
enables their bodies to eliminate toxic levels of ammonia. Babies born 
without ribs no longer suffocate in infancy because an artificial rib 
(an orphan medical device) is being developed now with funds from the 
Orphan Products Research Grants Program that allows the children's 
lungs to expand and breathe. Cystic fibrosis, Crohn's disease, and 
multiple sclerosis drugs are on the market today only because these 
grants supported some of their research.
    Unfortunately, there are many diseases and conditions that are too 
rare to attract private investment because the commercial sector is 
simply not interested in developing treatments for small markets. The 
investment necessary for research and development of new drugs and 
devices is too large in comparison to the size of the potential market 
for a rare disease. Case in point, there are only about 125 patients in 
the United States suffering with an orphan disease called 
fibrodysplasia ossificans progressiva (FOP), Only 15,000 with 
Huntington's disease or Duchenne Muscular Dystrophy, and only 30,000 
with cystic fibrosis. Many of the genetic diseases each impact no more 
than 40,000 Americans. Whereas, drugs for cancer, arthritis or 
hypertension, for example, each affect many millions of Americans, 
representing several billion dollars in potential sales each year.
    Given the fact that the Orphan Products Research Grant Program is 
attracting greater attention, more researchers are eager to participate 
each year. Therefore, it is very unfortunate that the annual 
appropriation for this program cannot begin to cover all of the 
meritorious grant requests for promising research projects. Today, 
about 100 grant applications are received annually, but many 
scientifically important applications are never funded simply because 
the appropriation is too small to meet the needs of the program. In 
fact, the appropriation now is less than it was in fiscal year 1995, 
and has remained between $10 to $12 million for many years.
    Mr. Chairman, if the government does not fund this research, who 
will? The private sector is simply not interested in rare diseases. If 
this Subcommittee does not meet the need of this unique sector of 
scientific research, people with rare diseases will be further 
victimized by the injustice of the supply and demand marketplace. For 
these diseases, no company wants to supply a treatment when the market 
demand is small.
                               conclusion
    In 1989 the HHS National Commission on Orphan Diseases estimated 
that only 30 percent of the 25 million patients suffering with rare 
diseases receive a diagnosis in three to five years after the onset of 
symptoms. That works out to about 7.5 million patients who are shuffled 
from specialist to specialist, year after year. Fifteen percent, or 3.7 
million people, wait seven years or more. And even after diagnosis, 
they can only hope that someone, somewhere, will conduct research to 
develop a treatment for their disease.
    And so, on behalf of those medically disenfranchised Americans and 
their families, we respectfully request that the members of this 
Subcommittee appropriate no less than $25 million dollars to the FDA 
Orphan Products Research Grant Program for fiscal year 2002. We are 
relying on the members of this Subcommittee to fill the void between 
government and the private sector, and propel these treatments forward 
from academic laboratories to our local pharmacies. Ultimately, your 
compassion and insight will put new orphan drugs and devices into the 
waiting hands of critically ill patients. If you don't provide adequate 
resources for the Orphan Products Research Grants Program, 
unfortunately no one else will.
    Thank you.
                                 ______
                                 

           Prepared Statement of the National Potato Council

    My name is Todd Michael. I am a potato farmer from Ohio and current 
Vice President, Legislative/Government Affairs for the National Potato 
Council (NPC). On behalf of the NPC, we thank you for your attention to 
the needs of our potato growers.
    The NPC is the only trade association representing commercial 
growers in 50 states. Our growers produce both seed potatoes and 
potatoes for consumption in a variety of forms. Annual production in 
2000 was 500,000,000 cwt. with a farm value of $2,800,000,000. Total 
value is substantially increased through processing. The potato crop 
clearly has a positive impact on the U.S. economy.
    The potato is the most popular of all vegetables grown and consumed 
in the United States and one of the most popular in the world. Annual 
per capita consumption was 147 pounds in 2000 up from 107 pounds in 
1962 and is increasing due to the advent of new products and heightened 
public awareness of the potato's excellent nutritional value. Potatoes 
are considered a stable consumer commodity and an integral, delicious 
component of the American diet.
    The National Potato Council's fiscal year 2002 appropriations 
priorities are as follows:
Cooperative Research Education and Extension Service (CSREES)
    Potato Special Grant Program.--The NPC urges that $1.6 million be 
appropriated for the special research grant program. The Congress 
increased the level in fiscal year 2001 by $150,000 to $1.45 million 
and should the Administration delete these funds from its budget we 
urge that Congress restore the fiscal year 2001 appropriated level as 
well as increase the funding to $1.6 million. The program had once been 
at $1.4 million but had been reduced due to various across the board 
cuts. This has been a highly successful program and the number of 
funding requests is increasing.
    The NPC also urges that the Congress, once again, include Committee 
report language as follows: ``Potato research.--The Committee expects 
the Department to ensure that funds provided to CSREES for potato 
research are utilized for varietal development testing. Further, these 
funds are to be awarded competitively after review by the Potato 
Industry Working Group.''
Agricultural Research Service (ARS)
    The NPC urges that the Congress once again add Committee report 
language urging the ARS to work with the NPC on how overall research 
funds can best be utilized for grower priorities.
    Should the Administration's fiscal year 2002 budget delete the 
$250,000 for Prosser, Washington and the $300,000 for the Northeast 
Plant, Soil and Water Laboratory at Onono, Maine, added by the Congress 
in fiscal year 2001, the NPC urges that the Congress restore these 
funds.
            Grand Forks and East Grand Forks
    Appropriate $350,000 for a new scientist to be located at the 
Potato Research worksite in East Grand Forks, Minnesota. The scientist 
would address the effects of postharvest storage and treatments on 
potato market quality and value added traits. Since over 70 percent of 
the U.S. fall potato crop is placed into storage for year around sale, 
this research will benefit potato growers throughout the country.
            Fort Collins, Colorado
    Appropriate $300,000 for the Soil, Plant, and Nutrient Research 
Program at Fort Collins to conduct research to enhance water and soil 
quality with precision conservation farming.
            Aberdeen, Idaho
    Appropriate $150,000 for additional work by the potato breeder at 
Aberdeen. Since an estimated 96 percent of the current budget is 
committed to salaries and fixed costs, this additional funding is 
needed to provide for the development of a strong molecular biology 
program component to speed the incorporation of disease resistance from 
wild potato species into the cultivated potato.
    Appropriate $400,000 for planning and design for the construction 
of an advanced molecular genetics laboratory at the National Small 
Grains Germplasm Research Facility. This facility at Aberdeen is needed 
to assure the continuation of advanced molecular genetics research for 
potatoes and small grains. It is estimated that total construction 
costs will be $3.9 million.
            Albany, California
    ARS has funded Dr. William Belknap in Albany, with the support of 
the NPC, to develop genetic constructs for potato transformation that 
will be publicly available without patent restrictions on their use. 
His laboratory should serve as a source of reagents for use by ARS 
scientists and others who work in the public sector. Estimated cost of 
providing this service is an additional $100,000 in fiscal year 2002 
for Dr. Belknap's base budget to carry out the potato research.
            Beltsville, Maryland
    Improving the nutritional value of potatoes is a high priority of 
the NPC. Research should also be initiated at the Beltsville Vegetable 
Laboratory that combines traditional breeding and plant biotechnology 
to increase the nutritional value of the potato and add value to the 
crop. Estimated cost would be $300,000 for fiscal year 2002.
National Agricultural Statistics Service (MASS)
    The NPC urges that the Congress appropriate $125,000 to the 
National Agricultural Statistics Service to conduct a Potato Objective 
Yield Size and Grade Survey. It is important that potato growers not 
only have objective yield surveys carried out by NASS in the major 
potato producing states, but also have a size and grade survey 
completed that estimates the marketable quality of those potatoes.
Plant Protection and Quarantine Service (APHIS-USDA)
    The NPC urges that the Congress appropriate $610,000 for the Golden 
Nematode Quarantine Program. The National Potato Council also supports 
the appropriation of $100 million for the Agriculture Quarantine 
Inspection (AQI) user fee account; $52 million for the AQI appropriated 
fund account and $45 million for pest detection. As new trade 
agreements are negotiated, the agency must have the necessary staff and 
technology to deal with the threat of pests and diseases.
FQPA Funding
    The NPC also supports the appropriation of $106 million for USDA to 
meet the data requirements of the new Food Quality Protection Act 
(FQPA). This would include $2.6 million for the USDA Office of Pest 
Management. The NPC has devoted considerable time and resources to the 
evaluation of pesticides required by the FQPA. However, it is essential 
that the USDA have adequate resources to assist in this effort. 
Otherwise, given the tight time frame for these assessments, the EPA 
will rely on default assumptions in the absence of actual data.
                                 ______
                                 

          Prepared Statement of the Partners for Rural America

    Mr. Chairman and members of the Subcommittee, I am Bob Swanson. I 
am the Executive Director of the Washington State Association of 
Community Action Agencies and serve as Chair of the Washington State 
Rural Development Council. I also serve as Chair of the Board of 
Directors of Partners for Rural America (PRA), which is the national 
service organization of the America's 40 state rural development 
councils (SRDCs).
        the contributions of the nrdp and srdcs to rural america
    SRDCs are unique entities. They do not administer programs or make 
grants. Although they influence the making of policies that affect 
rural America, they, themselves, do not make policy.
    SRDCs are composed of officials of Federal, state, local, and 
tribal governments and representatives of the private and non-profit 
sectors. These SRDCs promote:
  --Greater coordination among Federal agencies in the development and 
        delivery of Federal programs that affect rural areas;
  --Greater collaboration between the Federal government and others 
        working for an improved future for rural America;
  --Leveraging of limited financial resources that are available to 
        rural communities;
  --Identification and elimination of program and regulatory 
        impediments; and
  --Development of local solutions by local people to address the 
        challenges and opportunities facing rural communities.
              our fiscal year 2002 appropriations request
    On behalf of the NRDP and SRDCs, we respectfully request that the 
Subcommittee include an appropriation of $7.542 million in the fiscal 
year 2002 appropriations bill for the US Department of Agriculture 
(USDA) to support the operations and activities of the Partnership and 
SRDCs.
    Of this amount:
  --Slightly more than 90 percent ($6,820,000) would provide direct 
        support for SRDCs.
    --80.22 percent of the request ($6,050,000) would flow directly to 
            the SRDCs in the form of cooperative agreements or grants 
            or both.
    --10.21 percent of the request ($475,000) would underwrite direct 
            services to the SRDCs.
  --Just under 8 percent ($600,000) would underwrite program support 
        for the SRDCs.
  --And 1.62 percent ($122,000) would cover administrative costs.
    Of the funds that go to SRDCs, roughly two-thirds is used for 
personnel costs, with the remainder used to underwrite operating costs. 
Each SRDC is typically a one-or-two person operation, although a few 
Councils have larger staffs. SRDCs are required to provide a 33 percent 
non-federal match (cash or in-kind), although some Councils have been 
able to leverage the Federal funds they receive by a factor of two or 
three. During the last five years, the match provided by SRDCs has 
exceeded $10.5 million.
    Because the issues on which the NRDP and SRDCs focus extend well 
beyond the responsibilities of the USDA/Rural Development Mission Area 
(USDA/RD) and--indeed, beyond the responsibilities of USDA--it is our 
position that support for the Partnership should come from funds 
generally available to USDA. Ultimately, we would support a strategy 
which provides support for the Partnership from across the Federal 
government, but--until a system can be devised that is stable and 
predictable--we must rely on USDA for core support for the NRDP and 
SRDCs. It is our strong desire that any funds provided to the NRDP and 
SRDCs through the Agricultural Appropriations Bill be ``new money;'' 
that is, funds that are added to the Appropriations Bill rather than 
money that is transferred from other programs within USDA, many of 
which are already oversubscribed.
              past federal support for the nrdp and srdcs
    This request for an fiscal year 2002 appropriation marks the first 
time Appropriators have been asked to directly support the Partnership 
and SRDCs. This request is being made because the past system for 
funding the NRDP and SRDCs has been inadequate.
    From its beginning in the early 1990s, the Partnership has never 
had a dedicated, predictable source of funding. Instead, it has 
depended upon voluntary contributions of discretionary funds from USDA 
and the Federal Departments of Labor, Transportation (DOT), Veterans 
Affairs, and Health & Human Services. Without the financial 
contributions and--more importantly--the dedicated participation of 
these agencies, the Partnership would never have achieved the many 
successes it has.
    Although we have decided to seek core funding for the Partnership 
through the Agricultural Appropriations Bill, it is our sincere hope 
the non-USDA agencies that have worked with us is the past will remain 
engaged in the Partnership and that they will be joined by many other 
Federal agencies. Participation by the greatest possible number of 
Federal agencies in the Partnership is essential in order to facilitate 
broad-based interagency collaboration. Providing core funding from the 
Agricultural Appropriations Bill will greatly increase administrative 
and logistical convenience, as well as significantly increasing the 
predictability of funding for the SRDCs. However, continued financial 
support from agencies beyond USDA can help to strengthen and expand the 
Partnership.
    Since fiscal year 1993, revenue available from these five agencies 
has decreased precipitously while the program's obligations have 
increased. In fiscal year 1993, when there were 26 SRDCs, program 
revenue totaled $5.250 million; in fiscal year 2000, when there were 37 
SRDCs, program revenue had decreased to $3.193 million. Support from 
USDA/RD decreased from a high of $4 million in fiscal year 1993 to just 
under $2 million in fiscal year 2000. Language in the fiscal year 1999, 
fiscal year 2000, and fiscal year 2001 DOT appropriations bills 
limiting the use of Federal Highway Administration funds resulted in 
DOT's contribution to the Partnership being reduced from $500,000 
annually to $50,000.
    SRDCs became aware of a likely funding shortfall in fiscal year 
2001 funding for the Partnership in the spring of 2000. Despite strong 
support for the Partnership from many members of Congress, including 
members of this Subcommittee, SRDCs' efforts to win inclusion of funds 
for the Partnership in the fiscal year 2001 Agricultural Appropriations 
Bill were initiated too late to be successful. During Senate 
consideration of the Conference Committee Report on the fiscal year 
2001 Agricultural Appropriations Bill, a number of Senators entered 
into a colloquy with Chairman Cochran in which the Chairman said, ``I 
want to assure the gentlemen that it is the Committee's belief that the 
Secretary of Agriculture should continue to provide funding from 
discretionary amounts for this program.'' (Congressional Record, 
October 18, 2000, pages S10680 and S10681.) Fortunately, USDA Secretary 
Ann Veneman has allocated recently additional funds to the Partnership 
to carry it through the end of fiscal year 2001.
    It is important that we be extremely clear why it was necessary for 
Secretary Veneman to allocate additional funds to the Partnership for 
fiscal year 2001. As noted above, we became aware of a likely fiscal 
year 2001 funding shortfall in the spring of 2000. Funds available at 
the beginning of fiscal year 2001 were adequate to only carry the 
Partnership through the end of the second quarter of fiscal year 2001. 
The previous Administration neither provided additional funds to the 
Partnership nor did it put forward a plan to deal with the funding 
shortfall. Had Secretary Veneman not allocated additional funds to the 
Partnership, Federal financial support to SRDCs would have ended on 
March 31, 2001, thereby threatening the financial and operational 
viability of most SRDCs.
                    administrative support from usda
    From the beginning of the Partnership, USDA has provided 
administrative support for the NRDP and SRDCs through the National 
Partnership Office (NPO), an agency located within USDA/RD and now 
attached to the Office of Community Development. NPO staff salaries and 
general administrative expenses are paid by USDA/RD and are not 
included in this request.
    During the NPO's period of greatest staffing (when there were 36 
SRDCs), 7.5 FTEs were assigned to it. Currently, 4.5 FTEs are assigned 
to the NPO. We strongly believe that this level of staffing is 
inadequate to support this 40-state program and to provide appropriate 
oversight of SRDCs' operations on behalf of the Federal government. 
Accordingly, we urge that the staffing allocation for the NPO be 
restored to a minimum of 9 FTEs.
                     history of the nrdp and srdcs
    The basis of the NRDP and SRDCs can be found in the Rural 
Development Policy Act of 1980 (94 Stat. 1171), which called on the 
USDA Secretary to:

    ``. . . provide leadership within the executive branch for, and 
shall assume responsibility for coordinating, a nationwide rural 
development program using the services of executive branch departments 
and agencies, including, but not limited to, the agencies bureaus, 
offices, and services of the Department of Agriculture, in coordination 
with rural development programs of State and local governments.''

    ``. . . conduct a systematic review of Federal programs affecting 
rural areas to (A) determine whether such areas are benefiting from 
such programs in an equitable proportion to the benefits received by 
urban areas and (B) identify any factors that may restrict 
accessibility to such programs in rural areas or limit participation in 
such programs.''

    ``. . . develop a process through which multi-state, State, 
substate, and local rural development needs, goals, objectives, plans, 
and recommendations can be received and assessed on a continuing 
basis.''

    ``. . . undertake cooperative efforts with other Federal 
departments and agencies to improve the coordination and effectiveness 
of Federal programs, services, and actions affecting rural areas.''

    The actual establishment of SRDCs was called for in the January 
1990 report of the White House Economic Policy Council Working Group on 
Rural Development, Rural Economic Development for the 90s: A 
Presidential Initiative. The Presidential Initiative called for SRDCs 
to fill four principal missions:
  --To serve as the coordinating vehicle for delivery of Federal rural 
        development programs;
  --To identify, assess, and address current local rural development 
        needs;
  --To serve as the focal point for localizing and implementing Federal 
        rural development initiatives; and
  --To provide personalized leadership and assistance to local 
        community leaders desiring Federal rural development 
        assistance.
    Eight states were chosen to host pilot SRDCs. With the success of 
these initial SRDCs, additional states were added to the program to the 
point where SRDCs operate in 40 states today. The value of SRDCs was 
recognized in the 1992 report of the President's Council on Rural 
America. Members of the Commission ``urge[d] that continuing support be 
given to the creation and maintenance of State Rural Development 
Councils in all states as a means of promoting cooperation between the 
Federal and state levels of government, local governments, and the 
private sector.''
    The 1996 Farm Bill also recognized the contribution the NRDP and 
SRDCs could make to rural America and, as a result, laid out specific 
expectations and responsibilities for the Partnership.
    As a result of a March 8, 2000, hearing on the structure and 
operations of the NRDP and SRDCs before the Senate Subcommittee on 
Agriculture, Nutrition, and Forestry, Senators Larry Craig and Kent 
Conrad introduced legislation to formally recognize the Partnership and 
to authorize it to receive appropriations (106th Congress, S. 3175, the 
National Rural Development Partnership Act). Twenty-eight Senators 
joined as co-sponsors of the bill, with co-sponsors equally divided 
between the two political parties. This legislation will soon be 
reintroduced in the Senate and will also be introduced in the House of 
Representatives.
    The enactment of the National Rural Development Partnership Act 
will represent an important milestone for the NRDP and SRDCs. During 
the last decade, SRDCs have made important contributions to their 
states as they have evolved. Although they typically do not administer 
programs or promulgate regulations, SRDCs' roles as facilitators and 
coordinators have proven invaluable to the communities they have 
served. Hopefully, a renewed focus on rural development policy and 
program coordination by Congress, the Bush Administration, and rural 
development practioners will lead to advances toward the goals set 
forth in the Rural Development Policy Act of 1980 and the 1990 
Presidential Initiative.
                                 ______
                                 

       Prepared Statement of the National Rural Housing Coalition

    Mr. Chairman and members of the Senate Subcommittee on Agriculture, 
my name is Robert Rapoza and I wish to testify on behalf of the 
National Rural Housing Coalition.
    I wish thank you for the Subcommittee's support of the Rural 
Development programs of the United States Department of Agriculture and 
to urge you to support an increase in its budget for fiscal year 2002.
    As you may know, the National Rural Housing Coalition (the 
Coalition) has been a national voice for rural low-income housing and 
community development programs since 1969. Through direct advocacy and 
policy research, the Coalition has worked with Congress and the 
Department of Agriculture to design new programs and improve existing 
programs serving the rural poor. The Coalition also promotes a non-
profit delivery system for these programs, encouraging support for 
rural community assistance programs, farm labor housing grants, self-
help housing grants, and rural capacity building funding.
    The Coalition is comprised of approximately 300 members nationwide. 
We hope to work with you to assure that the voices of rural America are 
heard and its needs met. Our concerns are focused on rural housing and 
rural water and sewer systems.
                 the need for affordable rural housing
    A disproportionate amount of the nation's substandard housing is in 
rural areas. Rural households are poorer than urban households, pay 
more of their income for housing that their urban counterparts, and are 
less likely to receive government-assisted mortgages. They also have 
limited access to mortgage credit and the secondary mortgage market, 
making them prime targets for predatory lending. Rural America needs 
programs which focus on the issues facing it. The Rural Housing Service 
of Rural Development provides many of these needed programs.
    Homeownership is the principal form of housing in rural America. 
However, there are a number of obstacles to improving homeownership in 
rural areas including high rates of poverty and poor quality of 
housing. According to a 1999 Economic Research Service report, the 
poverty rate in rural America was 15.9 percent, compared to 13.2 
percent in urban areas. Minorities in rural areas have much higher 
rates of poverty with an average of 34.1 percent compared to urban 
minorities at 28.1 percent. More than 1.6 million low-income rural 
households live in moderately to severely inadequate housing. These are 
units without hot or cold piped water, and/or have leaking roofs, 
walls, rodent problems, inadequate heating systems, and peeling paint, 
often lead-based.
    Rural residents also have limited access to mortgage credit. The 
consolidation of the banking industry that accelerated throughout the 
1990s has had a significant impact on rural communities. Mergers among 
lending institutions have replaced local community lenders with large 
centralized institutions located in urban areas. Aside from shifting 
the locus of loan-making, this has resulted in the diminishment of a 
competitive environment which, in the past, encouraged rural lenders to 
offer terms and conditions that were attractive to borrowers.
    Because of the gap left by traditional lenders, rural households 
are often prime targets for predatory lenders. Predatory lending 
practices include excessive fees, prepayment penalties, and loan 
flipping into high cost subprime loans. Participants told about their 
borrowers' being convinced to convert their mortgages to high cost 
subprime loans, unaware of the higher interest rates. Even RHS 
borrowers paying a one percent interest rate were approached and 
convinced to switch.
    Renters in rural areas also live in difficult situations. Thirty-
three percent of rural renters are cost-burdened, paying more than 30 
percent of their income for housing costs. Almost one million rural 
renter households suffer from multiple housing problems, 60 percent of 
whom pay more than 70 percent of their income for housing.
                      usda's rural housing service
    USDA's Section 502 single family direct loan program and Section 
515 rural rental housing program address many of these issues.
Section 502 single family direct loan program
    To qualify for the direct loan program, borrowers must have very 
low or low incomes but be able to afford mortgage payments. Also, 
applicants must be unable to obtain credit elsewhere, yet have 
reasonable credit histories. The average income of households assisted 
under Section 502 is $18,500. About nine percent of households have 
annual incomes of less than $10,000. Since its inception, Section 502 
has provided loans to almost two million families.
Section 515 rental housing program
    To qualify for the rental housing program, tenants must have low or 
very low incomes. Over more than 30 years, Section 515 has helped to 
produce over 500,000 homes. Under Section 515, USDA makes direct loans 
to non-profit and for-profit developers to build rural rental housing. 
The average tenant income is just over $7,500, approximately 26 percent 
of median, and more than half of tenants are elderly, disabled, or 
handicapped.
    Despite these conditions, Federal rural housing has received severe 
cuts in recent years. The USDA's Section 502 single family direct loan 
program, which funded 132,000 units in 1976, has dropped its production 
by 89 percent to fewer than 15,600 units. Spending for Section 515 
rental subsidized housing has been cut by 73 percent since 1994. And 
rural rental housing unit production by the Federal government has been 
reduced by 88 percent since 1990.
    With these dramatic reductions and new opportunities presented by a 
good economy for building higher end housing, the private sector 
delivery system is no longer dominant as it was when funding levels 
were higher, and in many rural communities does not exist. In some 
rural areas, non-profits have picked up the slack and pursued a 
multiple funding strategy. Skilled local organizations meld Federal, 
state, local and private resources together to provide affordable 
financing packages to low-income families. But there is not a dedicated 
source of Federal support to promote a non-profit delivery system for 
rural housing.
    As one way to improve its programs, USDA has expanded its 
cooperation with non-profit housing and community development 
organizations. Two successful programs are Mutual and Self-Help Housing 
and the Rural Home Loan Partnership.
    Under Mutual and Self-Help Housing, with the assistance of local 
housing agencies, groups of families eligible for Section 502 loans 
perform approximately 65 percent of the construction labor on each 
other's homes under qualified supervision. This program, which has 
received growing support because of its proven model, has existed since 
1961. The average number of homes built each year over the past 3 years 
has been approximately 1,500.
    The Rural Home Loan Partnership is a leveraged loan program. USDA 
provides a set-aside of Section 502 funds which are distributed to 
local partnerships of organizations. The Rural Home Loan Partnership 
has partnered with 177 non-profits and developed and financed close to 
1,350 homes.
Section 514 loan and Section 516 grant farm labor housing programs
    Two additional rental housing programs address the needs of farm 
laborers. Migrant and seasonal farmworkers are some of the nation's 
most poorly housed populations. The last documented national study 
indicated a shortage of some 800,000 units of affordable housing for 
farmworkers.
    Farmworker households are also some of the least assisted 
households in the nation. Some 52 percent of farmworker households' 
incomes are below the poverty threshold, four times the national 
household poverty rate, and 75 percent of migrant farmworkers have 
incomes below the poverty line. Yet little more than 20 percent of 
farmworker households receive public assistance; most commonly food 
stamps, rarely public or subsidized housing.
    There are only two Federal housing programs that specifically 
target farmworkers and their housing needs: Sections 514 and 516 of the 
Housing Act of 1949 (as amended). Borrowers and grantees under Rural 
Housing Service Sections 514 and 516 receive financing to develop 
housing for farmworkers. Section 514 authorizes the Rural Housing 
Service to make loans with terms of up to 33 years and interest rates 
as low as one percent. Section 516 authorizes RHS to provide grant 
funding when the applicant will provide at least 10 percent of the 
total development cost from its own resources or through a 514 loan.
    Non-profit housing organizations and public bodies use the loan and 
grant funds, along with RHS rural rental assistance, to provide units 
affordable to eligible farmworkers. These funds are used to plan and 
develop housing and related facilities for migrant and seasonal 
farmworkers. Current funding for Sections 514/516 totals $34 million in 
program authority. This amount provides about 700 units of housing. The 
waiting list of applications for Section 514/516 is two to three times 
the appropriated level. USDA limits applications as there is little 
prospect of funding all the demand for assistance.
               the need for rural water and sewer systems
    Hundreds of rural communities nationwide do not have access to 
clean drinking water and safe waste disposal systems. A 1995 USDA needs 
assessment of rural areas showed that more than one million households 
had no indoor plumbing, and 2.4 million households had critical 
drinking water needs. In its 1997 Drinking Water Infrastructure Needs 
Survey, the Environmental Protection Agency estimated that over the 
next 20 years, water systems serving communities of less than 10,000 
people will require $37.2 billion in funding for water systems 
improvements and upgrades. And regarding wastewater, a 1996 EPA Survey 
demonstrated that small communities with up to 10,000 residents will 
need 21,000 wastewater treatment facilities by 2016 at a cost of 
approximately $14 billion. According to EPA's numbers, approximately 
$51.2 billion will be needed to address the basic water and wastewater 
needs of small communities.
    Many projects that RUS funds are under consent order from the state 
EPA office for immediate action. The problems that the agency deals 
with range from communities and systems that are out of compliance with 
health and pollution standards, to communities without sewer systems 
where raw sewage runs in ditches after a heavy rainfall. Because so 
much time and money are spent on critical needs, the state offices 
spend less time on prevention. The programs and communities do not have 
enough resources to address issues before they become larger problems.
    The issue of affordability moves to the forefront with waste 
disposal systems, which are generally more expensive than water 
systems. Waste systems naturally succeed water systems--with central 
water comes indoor plumbing, washing machines, dishwashers, etc., all 
of which eventually require an efficient wastewater disposal system. 
Low-income communities often already pay as much as they can afford for 
water service alone and are unable to manage the combined user fees for 
water and waste. In some extreme situations, some households are being 
forced out of homeownership because they cannot afford rising user 
costs.
    As I mentioned earlier, rural communities have limited access to 
much-needed debt and equity capital, and small water and wastewater 
systems lack the economies of scale needed to reduce costs on their 
own. In order for communities to cut back on project costs and have 
affordable rates, operation and maintenance are typically 
underestimated in the budgets for many new systems. This often results 
in limited or no capital improvement accounts for future upgrades and 
expansions needed for community development including stabilization of 
local small business, affordable housing development, and other needed 
industrial development.
                     usda's rural utilities service
    USDA's Rural Utilities Service (RUS) is the primary Federal force 
in rural water and waste development, providing loans and grants to 
low-income communities in rural areas. The agency assists low-income 
rural communities that would not otherwise be able to afford such 
services. Approximately one-fifth of the communities served live below 
the national poverty line.
    In providing these important services, the program also protects 
public health and promotes community stabilization and development. 
Aging municipal sewage systems alone are responsible for 40,000 
overflows of raw sewage each year. The overflows cause health hazards 
including gastrointestinal problems and nausea, as well as long-term 
damage to the environment. Businesses and industries are unable or 
reluctant to locate in areas without functioning water and sewer 
systems. But with the assistance of RUS, communities are able to have 
the services they need so that their health and economies may benefit.
    Although the need for RUS services continues, the level of 
available funds has decreased annually due to decreasing appropriations 
and increasing interest rates. In fiscal year 1995, $1.35 billion was 
obligated by the Federal program to the states. Since that time, due to 
decreasing appropriations and increasing interest rates, the 
obligations have decreased. Fiscal year 2000 funding, at $1.24 
billion--a decrease of over $100 million--was only 92 percent of its 
fiscal year 1995 level.
    Through Federal and state initiatives, RUS is working to confront 
the challenges faced by rural communities. With increasingly restricted 
time and money, state offices are using other resources such as 
leveraged funds and technical assistance from the Rural Community 
Assistance Program (RCAP). Funds are being leveraged through HUD's 
Community Development Block Grant program and the EPA's State Revolving 
Loan Funds, as well as some private lenders. Through the RCAP technical 
assistance program, more than 4,000 communities in 49 states have 
received assistance to identify solutions to water problems, improve 
and protect water quality, and construct and operate facilities.
    Mr. Chairman and members of the Committee, we look to you for 
continued support of the efforts of Rural Development. These programs 
are vital to the survival of our small communities nationwide. They 
address the most basic needs of affordable housing and clean water that 
still exist all over the country. Because of the overwhelming need, we 
wish to submit the following proposals for increases to Rural 
Development funding:

RURAL HOUSING AND COMMUNITY DEVELOPMENT APPROPRIATIONS--FISCAL YEAR 2001
                     FINAL AND FISCAL 2002 PROPOSED
                        [In millions of dollars]
------------------------------------------------------------------------
                                                 Fiscal
                                                  year     Fiscal year
                    Program                       2001    2002 Proposed
                                                  final
------------------------------------------------------------------------
USDA Programs:
    502 direct.................................  1,100            1,700
    502 guarantee..............................  3,700            3,700
    504 grants.................................    30                50
    504 loans..................................  32.39               50
    514 loans..................................    32               100
    516 grants.................................    15                50
    515 loans..................................  114.3              250
    521 rental assistance......................   680           \1\ 800
    523 self-help grants.......................    34                50
    538 multi guarantee........................   100
    Farm Labor Program.........................  \2\ (4        \2\ (100)
                                                    7)
    Water sewer loans..........................  1,032            1,050
    Water sewer grants.........................   588               700
    Community facilities.......................   250               250
    Community facilities grants................    23                50
    RCDI.......................................     6               25
------------------------------------------------------------------------
\1\ Includes $50 million for new construction or preservation.
\2\ Non-add includes funding for Sections 514 and 516.

    Thank you for your time and attention.
                                 ______
                                 

        Prepared Statement of National Rural Telecom Association

                     summary of testimony requests
Project involved
    Telecommunications lending programs administered by the Rural 
Utilities Service of the U.S. Department of Agriculture
Actions proposed
  --Supporting loan levels for fiscal year 2002 in the same amounts as 
        those contained in the fiscal year 2001 Agriculture 
        Appropriations Act for hardship, cost-of-money, Rural Telephone 
        Bank and guaranteed loan programs and the associated subsidy to 
        fund those programs at the existing level. Opposing the 
        recommendation by the administration contained in A Blueprint 
        for New Beginnings to not fund new Rural Telephone Bank loans 
        in fiscal year 2002.
  --Supporting continued funding in the amount of $27 million in loan 
        and grant authority designated for distance learning and 
        telemedicine purposes, $2 million of which to continue to be 
        made available for a pilot program to finance broadband 
        transmission and dial-up Internet service in rural areas.
  --Supporting an extension of the language removing the 7 percent 
        interest rate ceiling on cost-of-money loans.
  --Supporting continuation of the restriction on retirement of Rural 
        Telephone Bank class A stock at the level contained in the 
        fiscal year 2001 Agriculture Appro priations Act and an 
        extension of the prohibition against the transfer of Rural 
        Telephone Bank funds to the general fund.
    Mr. Chairman, Members of the Committee: My name is John F. O'Neal. 
I am General Counsel of the National Rural Telecom Association. NRTA is 
comprised primarily of commercial telephone companies which borrow 
their capital needs from the Rural Utilities Service of the U.S. 
Department of Agriculture (RUS) to furnish and improve telephone 
service in rural areas. Approximately 1000, or 71 percent of the 
nation's local telephone systems borrow from RUS. About three-fourths 
of these are commercial telephone companies. RUS borrowers serve almost 
6 million subscribers in 46 states and employ over 22,000 people. In 
accepting loan funds, borrowers assume an obligation under the act to 
serve the widest practical number of rural users within their service 
area.
                           program background
    Rural telephone systems have an ongoing need for long-term, fixed 
rate capital at affordable interest rates. Since 1949, that capital has 
been provided through telecommunications lending programs administered 
by the Rural Utilities Service and its predecessor, the Rural 
Electrification Agency (REA).
    RUS loans are made exclusively for capital improvements and loan 
funds are segregated from borrower operating revenues. Loans are not 
made to fund operating revenues or profits of the borrower system. 
There is a proscription in the Act against loans which would duplicate 
existing facilities providing adequate service and state authority to 
regulate telephone service is expressly preserved under the Rural 
Electrification Act.
    Rural telephone systems operate at a severe geographical handicap 
when compared with other telephone companies. While almost 6 million 
rural telephone subscribers receive telephone service from RUS borrower 
systems, they account for only four percent of total U.S. subscribers. 
On the other hand, borrower service territories total 37 percent of the 
land area--nearly 1\1/2\ million squares miles. RUS borrowers average 
about six subscribers per mile of telephone line and have an average of 
more than 1,000 route miles of lines in their systems.
    Because of low-density and the inherent high cost of serving these 
areas, Congress made long-term, fixed rate loans available at 
reasonable rates of interest to assure that rural telephone 
subscribers, the ultimate beneficiaries of these programs, have 
comparable telephone service with their urban counterparts at 
affordable subscriber rates. This principle is especially valid today 
as the United States endeavors to deploy telecommunications 
``information superhighway'' technology and as customers and regulators 
constantly demand improved and enhanced services.
    At the same time, the underlying statutory authority which governs 
the current program has undergone significant change. In 1993, 
telecommunications lending was refocused toward facilities 
modernization. Much of the subsidy cost has been eliminated from the 
program. The subsidy that remains has been targeted to the highest 
cost, lowest density systems. Other loans are made at Treasury's cost-
of-money or greater, and, in fact, involve negative subsidies.
    We are proud to state once again for the record that there has 
never been a default in the RUS/REA telephone program! All loans have 
been repaid in accordance with their terms with interest!
           need for rus telecommunications lending continues
    The need for rural telecommunications lending is great today, 
possibly even greater than in the past. Technological advances make it 
imperative that rural telephone companies upgrade their systems to keep 
pace with improvements and provide the latest available technology to 
their subscribers.
    These rapid technological changes and Federal policies of 
competition and deregulation in the telephone industry, as evidenced by 
passage of the ``Telecommunications Act of 1996'', underscore the 
continuing need for targeted assistance to rural areas. The inherently 
higher costs to serve these areas have not abated. Regulatory trends 
encouraging competition among telephone systems increase pressures to 
shift more costs onto rural ratepayers. Interstate subscriber line 
charges continue to shift substantial costs to local exchange 
customers. Pressures to recover more and more of the higher costs of 
rural service from rural customers to foster urban competitive 
responses will further burden rural consumers.
          1996 telecommunications act effect on rural america
    Congress passed the Telecommunications Act of 1996 as the 
culmination of more than a decade of debating national 
telecommunications policy and balancing many diverse needs and 
interests. The 1996 Act responded to a number of rural needs and 
differences with a series of safeguards to ensure that rates, services 
and network development in rural America will be reasonably comparable 
to urban telecommunications opportunities.
    The process of implementing the new law continues to raise 
troubling uncertainties and concerns about whether the FCC and the 
states will honor the balance Congress achieved in its policy, as 
regulators (a) radically revise the mechanisms for preserving and 
advancing ``universal service,'' (b) adjust the cost recovery 
responsibilities and allocations of authority between Federal and state 
regulation, (c) effectuate the Act's somewhat different urban and rural 
ground rules for how new companies and incumbent universal service 
providers connect their networks and compensate each other and (d) peel 
back layers of regulation developed over a century. So far, the FCC has 
been overzealous in expanding the Act's market-opening provisions to 
give new entrants a regulatory head start and advantage at the expense 
of the Act's rural development and universal service provisions. The 
FCC is trying to usurp the role of competition by dictating a whole 
new--and wholly inadequate--way to measure the costs of modern, 
nationwide telecommunications access to information. The FCC needs to 
reorder the sequence of its proceedings to ensure that rural Americans 
are not denied the ongoing network development and new services the Act 
requires. Rural telephone systems with universal service obligations 
must not be thwarted in their efforts to upgrade and provide rates and 
services reasonably comparable to urban offerings.
      expanded congressional mandates for rural telecommunications
    Considerable loan demand is being generated because of additional 
mandates for enhanced rural telecommunications standards contained in 
the authorizing legislation enacted in 1993 by Congress in Public Law 
103-129. These mandates coupled with the need for stable financing 
sources to meet the infrastructure demands envisioned for rural areas 
by the 1996 telecommunications act amply demonstrate the continuing 
need for this important program at the following levels:

5 percent Hardship Loans................................     $75,000,000
Cost-of-Money Loans.....................................     300,000,000
Guaranteed Loans........................................     120,000,000
Rural Telephone Bank Loans..............................     175,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................     670,000,000

    These are the same levels established in the fiscal year 2001 
appropriations act for the hardship, cost-of-money, Rural Telephone 
Bank and guaranteed loan programs. The authorized levels of loans in 
all programs were fully obligated in fiscal year 2000 and we expect 
these levels to be met in fiscal year 2001. We believe that the needs 
of this program balanced with the minimal cost to the taxpayer argue 
for its continuation at enacted levels.
                       rural telephone bank loans
    In the Blueprint for New Beginnings, the administration proposes to 
not fund new Rural Telephone Bank (RTB) loans in fiscal year 2002, 
stating that ``the RTB has accomplished its mission'' and that not 
funding new loans should generate increased support for statutorily 
authorized privatization.
    The Rural Telephone Bank was established by Congress in 1971 to 
provide supplemental financing for rural telephone systems with the 
objective that the bank ultimately would be owned and operated by its 
private shareholders. The bank's mission is not complete--far from it! 
Loans made today provide state of the art telecommunications technology 
in rural areas including the deployment of broadband technology. If 
Rural Americans are to be full participants with their urban neighbors 
in the Information Age, that job is just beginning! Economists agree 
that modern telecom infrastructure is the key to rural economic 
development which generates jobs and tax revenues for the government. 
Also, the RTB was one of only three USDA agencies to receive an 
unqualified financial opinion from USDA's Inspector General in fiscal 
year 2000!
    The administration proposal will not ``generate increased member 
and borrower support for statutorily authorized privatization''. That 
already exists! Privatization of the RTB began in 1995 under the 
current law and is proceeding annually at the rate of approximately $25 
million per year. The Bank has now retired $115.4 million, or almost 20 
percent, of the government's $592 million investment. Not funding new 
loans in fiscal year 2002 could actually impede privatization of the 
Bank since the law requires that the Bank annually retire government 
stock at the rate of at least 5 percent of the amount of new loans. If 
no new loans were made, there would be no minimum requirement for 
retirement of additional government stock.
    The current loan level of $175 million has remained the same for 
many years. As a matter of fact, after factoring in the eroding effect 
of inflation, loan levels over the years have actually been reduced 
systematically. Despite this fact, we believe that the $175 million 
level is adequate to meet current program needs and strikes a cost 
effective balance for the taxpayer. This amount was fully obligated in 
fiscal year 2000 and we expect it to be met again this year. If no bank 
loans were made in fiscal year 2002, at current loan levels, the 
budgetary outlay savings would amount to less than $26,000 not the $3 
million quoted by the administration because RTB loans are funded over 
a multi-year period. Therefore, continuing to fund $175 million of 
infrastructure investment will cost less than $26,000 in fiscal year 
2002! Moreover, if administration interest rate predictions are 
accurate, RTB loans could actually generate a profit for the government 
because of the minimum statutory interest rate of 5 percent!
                      specific additional requests
Continue the Removal of the 7 percent Cap on Cost-of-Money Loans
    Again this year we are supporting removal of the 7 percent ceiling 
on cost-of-money loans even though long-term Treasury rates are 
currently below this level.
Continue the Restriction on Retirement of Class A Government Stock in 
        the Rural Telephone Bank (RTB) and also Continue the 
        Prohibition Against Transfer of RTB Funds to the General Fund 
        and Require the Payment of Interest
    The Committee should continue the restriction on retirement of the 
amount of class A stock by the Rural Telephone Bank in fiscal year 
2002. The Bank is currently in the process of retiring the government's 
stock as required under current law. We believe that this process which 
began in fiscal year 1996 should continue to be an orderly one as 
contemplated by the retirement schedule enacted six years ago and 
continued in last year's bill to retire no more than 5 percent of the 
total class A stock in one year. We also urge the Committee to continue 
the prohibition against the transfer of any unobligated balance in the 
bank's liquidating account which is in excess of current requirements 
to the general fund of the Treasury along with the requirement that the 
bank receive interest on those funds. The private Class B and C 
stockholders of the Rural Telephone Bank have a vested ownership 
interest in the assets of the bank including its funds and their rights 
should be protected. Previous appropriations acts (fiscal year 1997 
through 2001) have recognized the ownership rights of the private class 
B and C stockholders of the bank by prohibiting a similar transfer of 
the bank's excess unobligated balances which otherwise would have been 
required under the Federal credit reform act.
Loans and Grants for Telemedicine, Distance Learning and Internet 
        Access
    We support the continuation in fiscal year 2002 of the $27 million 
in loan and grant authority provided in fiscal year 2001 for 
telemedicine and distance learning purposes. Loans are made at the 
government's cost-of-money. The purpose is to accelerate deployment of 
telemedicine and distance learning technologies in rural areas through 
the use of telecommunications, computer networks, and related advanced 
technologies by students, teachers, medical professionals, and rural 
residents.
    We also support making available $2 million of the above amount for 
continuation of the pilot program to finance broadband transmission and 
local dial-up access to the Internet in rural areas. This $2 million 
allocation is providing $100 million in rural infrastructure 
improvements in fiscal year 2001.
                               conclusion
    Thank you for the opportunity to present the association's views 
concerning this vital program. The telecommunications lending programs 
of RUS continue to work effectively and accomplish the objectives 
established by Congress at a minimal cost to the taxpayer.
    At the time of this filing, the administration has not submitted to 
the Congress its comprehensive budget request for fiscal year 2002. A 
Blueprint for New Beginnings is all that has been made publically 
available. If the final budget submission contains additional 
recommendations concerning the RUS telecommunications lending programs, 
we respectfully request the opportunity to file additional testimony 
with the Committee in response to such initiatives.
                                 ______
                                 

  Prepared Statement of the National Telephone Cooperative Association

                                summary
    NTCA makes the following fiscal year 2002 funding recommendations 
with regard to the Rural Utilities Service Telecommunications Loan 
Program and related programs.
  --Support the provisions of the president's budget proposal calling 
        for the required subsidy to fully fund the RUS 
        Telecommunications Loan Program's Hardship Account at a $75 
        million level, Cost of Money Account at a $300 million level, 
        and Guaranteed Account at a $120 million level, and 
        administrative expenses of $35.6 million.
  --Reject the provisions of the president's budget proposal calling 
        for zero funding for the Rural Telephone Bank (RTB). Instead, 
        provide the required subsidy to fully fund the bank at last 
        fiscal year's $175 million level. Also, provide a new line item 
        appropriation of $500,000, over and above and separate from the 
        regular administrative expenses of the RTB and the RUS for use 
        by the RTB's elected directors to secure independent counsel 
        and other professional services to help them properly perform 
        their fiduciary responsibilities.
  --Support an extension of language that temporarily sets aside the 7 
        percent interest rate cap on loans made through the RUS Cost of 
        Money fund.
  --Support an extension of the restriction against RTB Liquidating 
        Account funds from being swept to the general Treasury.
  --Support an extension of language prohibiting the expenditure of RTB 
        Liquidating Account funds to provide for the subsidy or 
        operational expenses of the bank.
                               background
    NTCA is a national association representing more than-540 small, 
rural, cooperative and commercial, community-based local exchange 
carriers (LECS) located throughout the nation. These locally owned and 
operated LECs provide local exchange service to more than 2.5 million 
rural Americans. Through the 51-year history of the RUS 
Telecommunications Loan Program, more than 80 percent of NTCA's member 
systems have been able to utilize the Federal program to one degree or 
another.
    NTCA's members, like most of the country's independent LEC'S, 
evolved to serve high-cost rural areas of the nation that were 
overlooked by the industry's giants as unprofitable. On average, NTCA 
members have approximately 6 subscribers per mile of infrastructure 
line, compared with 130 for the larger urban-oriented LECs. This 
results in an average plant investment per subscriber that for NTCA 
members is 38 percent higher than for most other systems.
    Congress recognized the unique financing dilemma confronting 
America's small rural LECs as early as 1949. It was in that year that 
it amended the Rural Electrification Act (RE Act) to create the Rural 
Electrification Administration (REA) Telephone Loan Program, today 
known as the RUS Telecommunications Loan Program. Through the years 
Congress has periodically amended the RE Act to ensure that original 
mission--to furnish and improve rural telephone service--was met. In 
1971, the Rural Telephone Bank (RTB) was created as a supplemental 
source of direct loan financing. In 1973, the RUS was provided with the 
ability to guarantee Federal Financing Bank (FFB) and private lender 
notes. In 1993, Congress established a fourth program lending facet, 
the Treasury Cost of Money account.
                 rus helps meet infrastructure demands
    While the RUS has helped the subscribers of NTCA's member systems 
receive service that is comparable or superior to that available 
anywhere in the nation, their work is far from complete. As Federal 
policies such as the Telecommunications Act of 1996 continue to evolve, 
and as policymakers and the public alike continue to clamor for the 
ubiquitous deployment of advanced services, the high costs associated 
with providing modern telecommunications services in rural areas will 
not diminish.
    RUS telecommunications lending has stimulated billions of dollars 
in private capital investment in rural communications infrastructure. 
In recent years, on average, less than $13 million in Federal subsidy 
has effectively generated $670 million in Federal loans and loan 
guarantees. For every $1 in Federal funds that were invested in rural 
communications infrastructure, $4.50 in private funds were invested. 
The RUS is also making a difference in our rural schools, libraries, 
and hospitals. Since 1993, the RUS Distance Learning and Telemedicine 
Grant and Loan program has funded hundreds of projects throughout the 
nation for interactive technology in rural schools, libraries, 
hospitals, and health clinics.
    In addition, two other RUS-related programs are making a difference 
in rural America. Formerly under the RUS, and known as the Zero 
Interest Loan and Grant Program, the Rural Economic Development Grants 
Program, and the Rural Economic Development Loans Program are now 
managed by the Rural Business Cooperative Service. The two programs 
provide funds for the purpose of promoting rural economic development 
and job creation projects, including funding for project feasibility 
studies, start-up costs, incubator projects and other expenses tied to 
rural development.
         ntca's fiscal year 2002 appropriations recommendations
    Fully Fund The Entire RUS Telecommunications Loan Program.--With 
respect to the discussion above, it is imperative that the entire RUS 
Telecommunications Loan Program be funded at the following levels:

Hardship Account........................................     $75,000,000
Treasury-rate Account...................................     300,000,000
Guaranteed Account......................................     120,000,000
Rural Telephone Bank Account............................     175,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................     670,000,000

    Additionally, to support the operations of the RUS, it is critical 
that Congress provide at least the $35.6 million in administrative 
appropriations the president's budget proposal envisions.
    Reject President's Proposal To Provide Zero RTB Funding.--The 
president's budget proposal contains a proposal that suggests the Rural 
Telephone Bank should not be funded in fiscal year 2002 which the 
administration insinuates may push private stockholders to move to the 
bargaining table regarding the potential accelerated privatization of 
the bank. The proposal is completely unfounded and unnecessary. 
Congress, RTB Stockholders, and the rural telecommunications industry 
deserve the benefit of having RTB privatization reviewed thoroughly, 
and not in the vacuum of the budgetary process.
    The bank is already privatizing at an annual minimum pace as is 
mandated by the Rural Electrification Act. Indeed, were Congress to go 
along with the president's fiscal year 2002 RTB proposal, it would 
effectively be halting this minimum statutory pace which is tied to the 
amount of loan making that is conducted in any given fiscal year. In 
light of these facts as well as that which clearly shows this proposal 
is out of step with the desire of policymakers and the public alike to 
quickly deploy advanced services throughout America, we urge Congress 
to reject this ill-conceived proposal and instead fully fund the bank 
at its regular $175 million annual level.
    With regard to privatization specifically, it is important to note 
that parties within the Office of Management and Budget, the Federal 
Treasury, the Rural Utilities Service, and indeed the industry itself, 
continue to look at the various issues associated with doing so on an 
accelerated basis. While NTCA does not reject such discussions out of 
hand, it does continue to believe such discussions may be premature as 
long as the bank is not provided with an absolute legal determination 
as to the status of its assets now and at the time of partial or 
complete privatization. Additionally, NTCA believes any accelerated 
privatization should never be commenced without first conducting the 
appropriate due diligence to determine whether the entity would be 
viable were it to privatize on such a basis.
    In order to help make such determinations, the bank's industry 
directors should be provided with adequate resources to both hire 
independent counsel as well as to secure other resources to assist them 
in making such determinations, and in effect, meeting their fiduciary 
responsibilities. With this in mind NTCA recommends that Congress 
appropriate an additional specific line item of $500,000 over and 
above, and separate from the regularly appropriated administrative 
amounts that are appropriated for RUS and RTB administrative and 
operational activities.
    Prohibit The Transfer Of Unobligated RTB Liquidating Account 
Balances.--NTCA also recommends that Congress continue the prohibition 
against the transfer of any unobligated balances of the Rural Telephone 
Bank liquidating account to the general fund of the Treasury. This 
language has routinely been included in annual appropriations measures 
since the enactment of the Federal Credit Reform Act (FCRA), Public Law 
101-508 that allows such sweeping to potentially occur. Restatement of 
this language will again ensure that the RTB's private class B & class 
C stockholder are not stripped of the value of their statutorily 
mandated investment in the Bank.
    Prohibit RTB From Self Funding Subsidy And Administrative Costs.--
NTCA urges Congress to maintain its prohibition against unobligated RTB 
Liquidating Account Balances being used to cover the banks 
administrative and operational expenses for the following reasons: (1) 
such action would require amendment of the RE Act, (2) the proposal 
appears to be in conflict with the intent of the FCRA, (3) the proposal 
will not result in Federal budgetary savings, (4) it is unnecessary to 
the determination of whether the bank could operate independently, and 
thus would amount to wasting the resources of the bank which could be 
put to better use upon its complete privatization.
    Extend Removal Of The Interest Rate Cap On Treasury-Rate Loans.--
NTCA is also requesting that Congress again include language removing 
the 7 percent interest rate cap on Treasury-rate loans. This provision 
has been included in recent appropriations measures to prevent the 
potential disruption of the program in the case where interest rates 
exceed 7 percent and insufficient subsidy cannot support authorized 
lending levels.
    Continue Distance Learning and Telemedicine Loan and Grant 
Program.--The RUS Distance Learning and Telemedicine Loan and Grant 
program has proven to be an indispensable tool for rural development. 
In this regard, NTCA urges Congress to provide adequate funding for 
this critical program. NTCA supports the recommendations for this 
program that are contained in the president's budget proposal.
    Preserve RBCS Rural Development Grant and Loan Programs.--Likewise, 
NTCA has witnessed the good these programs have done for rural 
communities. NTCA urges Congress to ensure funding is at levels that 
are adequate to meet current demand for the programs.
                               conclusion
    The RUS Telecommunications Loan Program bears a proud 51-year 
record of commitment, service, and achievement to rural America. Never 
in its entire history has the program lost even a dollar to abuse or 
default--an unparalleled feat for any government-sponsored lending 
program. Clearly such a successful program should remain in place to 
continue to ensure rural Americans have the opportunity to play a 
leading role in the information age in which we live. After all, an 
operational and advanced rural segment of the nation's 
telecommunications infrastructure is critical to truly ensuring that 
the national objective of universal telecommunications service is 
fulfilled. Please help us accomplish that objective.
                                 ______
                                 

      Prepared Statement of the National Treasury Employees Union

    Chairman Cochran, Ranking Member Kohl, and distinguished members of 
this Subcommittee, my name is Colleen Kelley and I am the National 
President of the National Treasury Employees Union. NTEU represents 
more than l55,000 Federal employees across the Federal government, 
including the employees who work at the Food and Drug Administration. I 
want to thank you for giving me the opportunity to present testimony on 
behalf of these dedicated men and women who work to ensure the safety 
of our food, drugs, cosmetics, and medical devices.
    It is unfortunate that even at this late date, the Bush 
Administration still has not released details of its budget for the FDA 
or any other agency for fiscal year 2002. While I can only speculate 
about Congressional concerns about not knowing the new Administration's 
budget priorities, I know for certain that the men and women who work 
at the FDA are very frustrated that they still do not know what 
President Bush has in store for their agency.
    Without question, the Food and Drug Administration (FDA) is one of 
the most important agencies in our government. The FDA regulates more 
than $1 trillion worth of products that account for about 25 cents out 
of every dollar of American consumer spending. The FDA is staffed with 
experts in an extraordinary range of fields. Microbiologists, chemists, 
consumer safety officers, and others are working around the clock 
testing, approving, and regulating new drugs, robotics, and other 
medical devices, that will not only improve the quality of life for 
millions of Americans, but in many cases actually save lives. They are 
working to ensure the food we eat is safe and free of disease-causing 
contaminants. They approve new food products, food additives, and 
dietary supplements, and work to ensure these new products pose no 
threat to our health.
    FDA employees who work in the field offices and laboratories 
located throughout the country have developed valuable working 
relationships with top scientists, health officials, and local 
industries. These employees are on the front lines in protecting 
consumers from mislabeled foods, food borne diseases, defective medical 
devices, or unsafe cosmetics or drugs. And they work very closely with 
Customs, USDA, and others at our borders and ports, to inspect and test 
imported foods and drugs.
    While FDA employees continue to respond to the call of the American 
people for ensuring our food supply is safe and more effective drugs 
and medical products are brought to consumers more quickly, the demands 
placed on the FDA workforce have increased significantly over the past 
decade, and will continue to grow. Research dollars invested by the 
pharmaceutical and food industries have been skyrocketing. And since 
the implementation of NAFTA, GATT, and other international trade 
agreements, there has been a dramatic increase in the quantity and 
complexity of imports of FDA-regulated products across our borders and 
into our ports. But while there are more products on the market to 
regulate, more imports of food and drugs to inspect, and more new 
product applications to approve, the FDA is being given fewer 
resources. The workload has increased while the budget for the FDA has 
remained flat.
    Unless President Bush and Congress agree to provide the FDA with 
more funding for staffing and resources, the agency will not be able to 
respond to the constantly changing and more complex public health 
threats facing our nation. Last year, Congress approved $1.217 billion 
for salaries and expenses at the FDA. Unfortunately, the amount 
provided was $89 million less than what President Clinton requested for 
the FDA. Meanwhile, Congress continued with its plans to double the NIH 
budget over the next five years. $20.3 billion was provided for NIH for 
fiscal year 2001, an increase of $1.5 billion over the President's 
request, and $2.5 billion more than the previous year. And the 
pharmaceutical industry and academic community invested billions more 
in medical research.
    If we want Americans to be able to reap the benefits as quickly as 
possible from medical breakthroughs resulting from our investments in 
medical research, then President Bush and Congress must ensure the 
FDA--the agency charged with regulating these new drugs and medical 
technologies--receives, at a minimum, funding increases proportionate 
to the increases for the NIH. NTEU is hopeful that President Bush and 
Congress will work to provide the FDA with the staffing and resources 
necessary to protect and improve the health of the American public. 
Funding shortfalls in the future will significantly hamper FDA's 
ability to identify and respond to current health threats, and take 
pro-active measures to approve drugs and other products aimed at 
preventing future health problems. I also want to highlight the need 
for Congress to pay special attention to not only maintain, but to 
expand, the current FDA laboratory and field structure. While most of 
the FDA's workforce is employed in the Washington, DC region, almost a 
third of the workforce is located outside of the Beltway. The FDA is 
beginning to implement a plan to close many of its field laboratories 
and consolidate them into a handful of locations. Shutting down most of 
these FDA labs across the country will lead to delays in getting 
potentially harmful market products to FDA laboratories for sampling 
and analysis. Furthermore, with increased trade into, and out of, our 
airports and seaports, and the growth of food and drug industries, 
FDA's lab infrastructure--both in terms of people and technology--is 
that much more critical for consumers and for industry.
    NTEU also has serious misgivings about FDA plans to change its 
program of voluntary Saturday work for employees in the field 
performing laboratory or lab-related functions to make such work 
mandatory. The agency is proposing this despite the fact that, around 
the country, it has encountered virtually no problems using its present 
program to secure volunteers for weekend work. Employees who work at 
the FDA laboratory understand that FDA needs to have its laboratories 
staffed on Saturdays, and we would be pleased to work with the agency 
to fix any real or perceived problems in the voluntary weekend work 
program. However, making weekend work mandatory for FDA employees--many 
of whom have worked Monday through Friday schedules for more than 
twenty years--is the wrong approach.
    The FDA proposals to close laboratories and force employees to 
dramatically change their work and family schedules are not only 
unnecessary, they are unwise. NTEU believes these plans are 
shortsighted and will force hundreds of experienced professionals to 
leave the agency at a time when competition for their services by 
private sector companies is intense. The American public cannot afford 
the risk of losing these valuable resources.
    It is ironic that at a time when many in Congress are increasingly 
concerned about the government's inability to retain and recruit highly 
qualified individuals into public service, FDA would seek to roll the 
dice with their own workforce. As it stands now, the FDA is struggling 
to retain and recruit qualified individuals to serve this Agency. And 
it has been widely documented that the Federal government is expected 
to lose nearly half of our experienced scientists in the next four 
years due to retirement. The FDA can only continue to maintain its 
competence and credibility by strengthening the agency's science base, 
not tearing it apart. With adequate funding for staffing and equipment, 
it would be NTEU's hope that FDA would abandon these risky plans. 
Therefore, it is incumbent upon the President and Congress to provide 
FDA with the resources necessary to retain those currently employed at 
the FDA and recruit more qualified individuals to ensure an efficient 
and effective FDA in the future.
    I am very proud of the work the men and women at the FDA do to 
protect consumers and improve our public health. Yet, our global 
leadership in this area will be jeopardized if we do not provide the 
FDA with the staffing and tools required to carry out its mission. The 
American people rightly demand and expect that their food, drugs, 
cosmetics, and medical devices are safe--and they deserve no less.
    Whether it is testing a new vaccine, approving the application for 
a new dialysis machine, or increasing the safety of our food supply by 
identifying deadly food pathogens, the men and women at the FDA are 
working for you, working for America. Congress needs to approve an FDA 
budget that works for them.
                                 ______
                                 

    Prepared Statement of the National Turfgrass Evaluation Program

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Turfgrass Evaluation Program (NTEP), I appreciate this 
opportunity to provide the Subcommittee with the turfgrass industry's 
perspective in support of restoration of the $55,000 appropriation for 
the National Turfgrass Evaluation Program (NTEP) deleted in the 
President's fiscal year 2002 budget request for the Agricultural 
Research Service (ARS). Also, I appreciate the opportunity to present 
to you the turfgrass industry's need and justification for continuation 
of the $250,000 appropriated in the Presidents's fiscal year 2001 
budget for a full-time turfgrass scientist position within ARS. In 
addition, I appreciate the consideration of an additional appropriation 
of $1,050,000 for the establishment of a national turfgrass research 
laboratory, as proposed by ARS, with three new research scientist 
positions at Beltsville, Maryland.
    Justification of $55,000 Appropriation Request for Program 
Support.--Once again, NTEP and the turfgrass industry come to the 
appropriations process to request that $55,000 be restored to the ARS 
budget to provide basic and minimal support for NTEP's activities at 
Beltsville. We appreciate the Subcommittee's restoration of this amount 
in previous fiscal years, and hope that you will agree with us that 
this request is justified for the ensuing fiscal year.
    The National Turfgrass Evaluation Program (NTEP) is unique in that 
it provides a working partnership that links the Federal government, 
turfgrass industry and land grant universities together in their common 
interest of turfgrass cultivar development, improvement and evaluation. 
The National Turfgrass Evaluation Program is the primary means by which 
cultivated varieties of turfgrass are evaluated in this country. It 
provides unbiased information on turfgrass cultivar adaptations, 
disease and insect resistance and environmental stress tolerance. The 
public and private sectors of the turfgrass industry use this 
information to develop cultivar recommendations for home owners, sod 
producers, sports turf and parks managers, golf course superintendents 
and highway vegetation managers.
    Our nation's awareness of safety is at an all-time high. Turfgrass 
provides multiple benefits to society including child safety on 
athletic fields, environmental protection of groundwater, reduction of 
silt and other contaminants in runoff, green space in home lawns, 
parks, golf courses, etc. With the advancements being made to 
turfgrasses that require less pesticides, water and other inputs as 
well as other efforts to improve integrated pest management programs, 
recycling, etc., the USDA has a unique opportunity to take positive 
action in support of the turfgrass industry. With a minuscule 
investment of Department funds, in relative terms within USDA's budget, 
a tremendous return can be gained for society and the turfgrass 
industry.
    While the vast majority of the USDA's funds have been and will 
continue to be directed toward traditional ``food and fiber'' segments 
of U.S. agriculture, it is important to note that turfgrasses (e.g., 
sod production) are defined as agriculture in the Farm Bill and by many 
other departments and agencies. Further, it is estimated by the 
Economic Research Service that the turfgrass industry, in all its 
forms, is a $30-35 billion industry. It should also be noted that the 
turfgrass industry is the fastest growing segment of U.S. agriculture, 
while it receives essentially no Federal support. There are no subsidy 
programs for turfgrass, nor are any desired.
    For the past seventy years, the USDA's support for the turfgrass 
industry has been modest at best. The turfgrass industry's rapid 
growth, importance to our urban environments, and impact on our daily 
lives warrant more commitment and support from USDA. Failing to support 
the National Turfgrass Evaluation Program, would be a tremendous 
oversight of a major opportunity. USDA's support of NTEP at the $55,000 
level does not cover all costs. In fact, NTEP represents an ideal 
partnership of the public and private sectors in terms of program cost 
sharing. The NTEP relies most heavily on turfgrass industry (i.e., 
public sectors, end-users) support. However, it is essential that the 
USDA maintain its modest financial support and work closely with NTEP. 
The turfgrass industry relies heavily on NTEP for unbiased information. 
Discounting this support will also eliminate a highly reliable and 
credible level of objectivity that is associated with the NTEP program.
    Justification of $250,000 Appropriation Request for ARS Scientist 
Position as well as $1,050,000 Appropriation Request for the 
Establishment of a National Turfgrass Research Laboratory.--NTEP and 
the turfgrass industry are requesting the Subcommittee's support for 
$250,000 continuing funding for the full-time scientist staff position 
at ARS, focusing on turfgrass research, that was appropriated in the 
fiscal year 2001 budget. We also request that the Subcommittee 
appropriate an additional $1,050,000 for establishment of a national 
turfgrass research laboratory within USDA, ARS for the specific purpose 
of collecting, evaluating and enhancing turfgrass germplasm. We ask 
that three new scientist positions be created and located at the 
Beltsville Agricultural Research Center in Beltsville, MD.
    Our society is becoming increasingly more urbanized. Currently, 
turfgrasses impact more than 90 percent of all people in the U.S. 
through exposure to home lawns, business landscapes, roadsides, parks, 
or recreational turf on a daily basis. As more and more cropland is 
converted to houses, office parks, shopping centers, etc., the acreage 
of turfgrass is increasing exponentially. However, with the increasing 
urbanization comes a greater demand on resources, such as potable 
water. Also, with the general public experiencing heightened awareness 
of the environment and its protection, use of inputs such as 
fertilizer, pesticides and water on turfgrass areas is coming under 
greater scrutiny. In some jurisdictions, use of these inputs will 
either be banned or severely restricted for turfgrass use. In addition, 
the urbanization of America is leading to an overuse of current 
recreational facilities such as parks, athletic fields and golf 
courses. New facilities are being considered or constructed, many on 
abandoned sites such as landfills, industrial wastelands, gravel pits 
or mine spoils. Turfgrasses in these areas will play an important role 
in reclamation vegetation, recreational turf or both.
    The USDA needs to initiate and maintain ongoing research on 
turfgrass development and improvement for the following reasons:
  --The value of the turfgrass industry in the U.S. is $30-$35 billion 
        annually. Turfgrass is the number one or two agricultural crop 
        in value and acreage in many states (i.e. MD, PA, FL, NJ, NC).
  --As our society becomes less rural and more urbanized, the acreage 
        of turfgrass will increase significantly. Consequently, state 
        and local municipalities will require the utilization of other 
        water sources (i.e. effluent, reclaimed, sea water), reduction 
        of pesticide use and elimination of nutrient runoff from 
        turfgrass areas. However, demand on recreational facilities 
        will increase while these facilities, for safety reasons, will 
        still be required to provide safe, attractive athletic fields, 
        parks and grounds.
  --Private and university research programs are working to develop 
        improved turfgrasses, but they do not have the time nor 
        resources to identify completely new sources of beneficial 
        genes in commonly used species or the usefulness of potential 
        new species. In addition, new plant materials collected by 
        these institutions most often are not placed in the National 
        Plant Germplasm System for use by all interested parties. 
        Additionally, long-term research to identify and transfer 
        desirable genes from other species (turfgrass or other crop 
        species) is not being undertaken by public and private 
        interests. ARS scientists working with turfgrass will enhance 
        the ongoing research and development currently underway within 
        the public and private sectors of the turfgrass industry. They 
        will provide linkages between public and private research 
        efforts and enhance the development of stress-tolerant and 
        pest-resistant germplasm for the turfgrass industry. 
        Furthermore, this research will not inhibit or compete with, 
        nor will it duplicate, current efforts by public and private 
        plant breeders, universities and development companies as 
        germplasm (improved genetic stocks) developed will be released 
        to the general public for further refinement.
  --USDA conducted significant turfgrass research from 1920-1988. The 
        United States Golf Association (USGA) Green Section was 
        initially a cooperative program between the USGA and USDA. 
        However, since 1988, no full-time scientist has been employed 
        by USDA, Agricultural Research Service (ARS) to conduct 
        turfgrass research specifically.
  --Research on florist, nursery and ornamental crops is significant 
        within USDA, ARS with new funding and programs being added 
        virtually every year--industries with far less public and 
        commercial value than turfgrass.
    A new turfgrass research scientist position within USDA, ARS was 
created by Congress in the fiscal year 2001 budget. Accordingly, in 
January 2001, the turfgrass industry met with USDA, ARS officials to 
discuss the position description, hiring process, facilities needed, 
etc. for the new position. ARS welcomed the new position but felt 
strongly that the position description was too broad in scope. Also, 
they were concerned that just one person working in turfgrass research 
would be ineffective in addressing the needs and concerns of the 
industry. They felt the duties described in the earlier funding request 
warranted several scientists working in a team effort. To accomplish 
this, ARS proposed the following:
             a national strategy for ars turfgrass research
    Research Objectives.--Conduct long-term basic and applied research 
to provide knowledge, decision-support tools and plant materials to aid 
in designing, implementing, monitoring and managing economically and 
environmentally sustainable turfgrass systems including providing sound 
scientifically based information for use in the regulatory process.
    Research Focus.--To make a significant contribution in developing 
and evaluating sustainable turfgrass systems, ARS would need to conduct 
research in two major areas:
  --The collection, evaluation, protection and enhancement of 
        germplasm, primarily through molecular techniques, to improve 
        establishment, persistence and care of turfgrasses for a 
        variety of uses. This research would include a plant physiology 
        component to identify, understand and manage plant mechanisms 
        that adapt to environmental stresses.
  --Long-term applied research to design and evaluate sustainable 
        turfgrass management systems for a variety of environmental 
        conditions with the objective of economically optimizing inputs 
        and outputs to meet performance and environmental standards. 
        This research would include ``turfgrass ecological systems'' 
        management that would look at such issues as water quality and 
        watershed-level analysis, energy balances including carbon 
        sequestration and management energy inputs, and impacts on 
        wildlife in an urban environment.
    ARS will conduct a stakeholder workshop in fall 2001, as they have 
done with other commodities, to gain valuable input from turfgrass 
researchers, golf course superintendents, sod producers, lawn care 
operators, gardeners, regulatory personnel, etc. These discussions will 
allow ARS to refine the proposal to meet the specific needs of the 
industry. ARS plans to include this updated proposal in their fiscal 
year 2003 budget proposal which would include establishment of a 
national laboratory with four to five scientists initially. More 
funding for additional scientists would be requested in future ARS 
budget requests, in accordance with industry needs and possible 
redirection of current personnel.
    The turfgrass industry is very excited about this new proposal and 
wholeheartedly supports the efforts of ARS. However, the needs are so 
great, the turfgrass industry cannot wait an additional year to 
establish the national laboratory. Therefore, for fiscal year 2002, the 
turfgrass industry requests that the following unit be established 
within USDA, ARS:
    A turfgrass genomics unit that includes the following:
  --Plant Germplasm Collection and Evaluation.--This person will 
        identify new genetic sources of commonly used and potential 
        turfgrass species in natural habitats. Also, they will collect 
        specimen plants as a vital first step in conserving resources 
        and maintaining bio-diversity. Additionally, they will conduct 
        germplasm evaluations to identify important traits that provide 
        improved resistance to various environmental stresses and 
        extreme conditions relating to soils, pests, etc. The new 
        position created in the fiscal year 2001 budget will fulfill 
        these duties.
  --Genomics/Genetics Studies.--A molecular geneticist or 
        cytogeneticist is needed to better understand the genomics of 
        various turfgrass species, collected wild germplasm and their 
        evolution. Also needed is an understanding of how desirable 
        genes and traits may be transferred from wild related plants to 
        improved turfgrass species. This research will allow improved 
        drought, salt and wear tolerance, along with disease and insect 
        resistance, to be incorporated into species not currently 
        possessing these traits.
  --Transfer of Desirable Genes.--A molecular geneticist will work to 
        identify desirable genes and how they may be transferred to 
        current turfgrass species. This person will work to better 
        understand the molecular/cellular aspects of current and 
        potential turfgrass species and using molecular techniques, 
        will transfer desirable genes and traits within species and 
        between species.
  --Evaluation and Enhancement of Genetically Altered Grasses.--A 
        turfgrass breeder will evaluate and enhance the genetically 
        altered plants from the program using recurrent genetic 
        recombination techniques and selection of superior turfgrass 
        plants. This person will also conduct genetic studies to 
        confirm the presence of these genes and their stability within 
        the genome. This work will produce germplasm with desirable 
        turfgrass characteristics as well as new genes for stress 
        tolerance, disease and insect resistance, etc. This enhanced 
        germplasm will be easily accessible to breeders in the public 
        and private sectors; i.e. released through the National Plant 
        Germplasm System (NPGS).
    In conclusion, on behalf of the National Turfgrass Evaluation 
Program and the turfgrass industry across America, I respectfully 
request that the Subcommittee restore the vital $55,000 appropriation 
for the National Turfgrass Evaluation Program (NTEP) as well as the 
$250,000 appropriated in fiscal year 2001 for the new turfgrass 
scientist position in the fiscal year 2002 budget for the Agricultural 
Research Service. I also request that the Subcommittee appropriate an 
additional $1,050,000 for the establishment of a national turfgrass 
research laboratory at Beltsville, Maryland with three new full-time 
scientist positions within USDA, ARS for the specific purpose of 
collecting germplasm, conducting genetics/genomics studies and 
producing improved, genetically-enhanced turfgrasses for the public 
good.
    Thank you very much for your assistance and support.
                                 ______
                                 

   Prepared Statement of the National Utility Contractors Association

    Mr. Chairman and Members of the Subcommittee, my name is Angelo Di 
Paolo. I am President of the National Utility Contractors Association 
(NUCA) and President of Di Paolo Company in Glenview, Illinois. I see 
firsthand everyday the dire water and wastewater infrastructure needs 
our country faces, so I sincerely appreciate your interest in 
preventing public health and environmental disasters in rural 
communities by adequately funding the U.S. Department of Agriculture 
(USDA) Rural Utilities Service (RUS) Water and Waste Disposal 
infrastructure program for fiscal 2001.
                       fiscal 2001 recommendation
    On behalf of NUCA's nearly 2,000 members and the citizens of rural 
America who endure daily life without the basic wastewater 
infrastructure that ensures clean drinking water and appropriate 
disposal of waste, I respectfully request that the Subcommittee 
appropriate a minimum of $700 million in budget authority for the RUS 
Water and Waste Disposal Program. Further, I respectfully ask that 
Congress allow the RUS to determine the most appropriate allocation of 
the budget authority to loans and grants as it is in the best position 
to target the grants toward the very poor while providing loans for the 
relatively more well-healed communities.
         rural water and waste disposal needs and the rus cure
    Imagine waking up, sleepily walking into the bathroom, turning the 
shower faucet, and being greeted by stinky, murky water. Imagine being 
unable to quench your thirst because only unfiltered water comes to 
your house. Comparatively speaking, these are mild pictures of the 
horrible circumstances that almost a million rural residents endure 
daily. These Americans do not have potable water or effective waste 
disposal systems. Moreover, the citizens facing these problems are 
those least able to afford bottled water services. Generally, the 
affected families live below the poverty level, $16,700. So even if 
they aren't drinking contaminated water, they have no choice but to 
wash and cook with it. Ironically, in the town serving as the namesake 
for Deer Park bottled water, the locals were drinking unfiltered water 
from shallow wells until the RUS funded a $1.7 million water system in 
1998. RUS Water and Waste Disposal loan and grant programs provide such 
funds for small communities with 10,000 or fewer residents that cannot 
secure reasonable financing for drinking water and wastewater 
infrastructure improvements. The majority of the residents are low-
income and cannot afford even the smallest ratepayer increases, 
increases that would be certainties with other infrastructure funding 
sources.
    Currently, there is a $3.8 billion backlog of applications from 
needy communities that simply cannot afford to build their 
infrastructure through other funding sources. At this time last year, 
the backlog was only $3.2 billion. Today, communities must wait an 
average of approximately three years from the start of an application 
process to the time that RUS commits funds. During the three-year wait, 
children and the elderly continue to be exposed to waterborne diseases 
that have life-long or terminal effects on their health. No state is 
immune from this problem. According to the USDA's recent best 
estimates, at least 260,000 American homes still do not have complete 
plumbing. Another 715,000 homes have critical problems with drinking 
water quality, quantity, and availability. At least 1.1 million homes 
have inadequate wastewater disposal systems that threaten human and 
environmental health.
    The U.S. Environmental Protection Agency (EPA) estimated in 1997 
that some 15 million households use private wells and another 1 million 
homes rely on untreated water sources that include cisterns and water 
hauled from springs, rivers, and lakes. In 1996, the EPA estimated that 
small communities with 10,000 or fewer residents face more than $13.8 
billion in capital costs over the next two decades for sewage 
collection and treatment works. That figure does not include an 
estimation of septic system needs. These figures are considered by most 
within EPA to be conservative estimates. Regardless how you look at the 
needs, a $700 million investment would be worth every penny.
    Despite their inability to afford other funding sources, the 
communities historically do not default on RUS loans. Year after year, 
the USDA maintains an unrivaled loan delinquency rate of just over one 
percent and a long-term loss rate of one-tenth of one percent on the 
wastewater loan program.
                               conclusion
    We, the members of NUCA, urge you to fund the RUS Water and Waste 
Disposal loans and grants program at a minimum $700 million for fiscal 
2001. Thank you for considering our recommendation.
                                 ______
                                 

         Prepared Statement of the National Watershed Coalition

    Mr. Chairman and members of the Subcommittee, I am Bill Hamm from 
Walton, Kansas, and I am pleased to represent the National Watershed 
Coalition (NWC) as its Chairman. The National Watershed Coalition is 
privileged to present this testimony in support of the most beneficial 
water resource conservation programs ever developed in the United 
States. The Coalition recognizes full well the need to use our tax 
dollars wisely. That makes the work of this Subcommittee very 
important. It also makes it imperative that the Federal programs we 
continue, are those that provide real benefit to society, and are not 
programs that would be nice to have if funds were unlimited. We believe 
that the Small Watershed Program (Public Law 83-566) and the Flood 
Prevention Operations Program (Public Law 78-534) are examples of those 
rare programs that address our nation's vital natural resources which 
are critical to our very survival, do so in a way that provide benefits 
in excess of costs, and are programs that serve as models for the way 
all Federal programs should work.
    The watershed as the logical unit for dealing with natural resource 
problems has long been recognized. Public Law 566 offers a complete 
watershed management approach, and should have a prominent place in our 
current Federal policy emphasizing watersheds and total resource 
management based planning. Proper watershed management improves water 
quality. Why should the Federal government be involved with these 
watershed programs?
  --They are programs whose objectives are the sustaining of our 
        nation's precious natural resources for generations to come.
  --They are not Federal, but federally assisted, locally sponsored and 
        owned. They do not represent the continued growth of the 
        Federal government.
  --They are locally initiated and driven. Decisions are made by people 
        affected, and respect private property rights.
  --They share costs between the Federal government and local people. 
        Local sponsors pay between 30-40 percent of the total costs of 
        Public Law 566 projects.
  --They produce net benefits to society. The most recent program 
        evaluation demonstrated the actual ratio of benefits to costs 
        was approximately 2.2:1. The actual adjusted economic benefits 
        exceeded the planned benefits by 34 percent. How many other 
        Federal programs do so well?
  --They consider and enhance environmental values. Projects are 
        subject to the discipline of being planned following the 
        National Environmental Policy Act (NEPA), and the Federal 
        ``Principles and Guidelines'' for land and water projects. That 
        is public scrutiny!
  --They are flexible programs that can adapt to changing needs and 
        priorities. Objectives that can be addressed are flood damage 
        reduction, watershed protection (erosion and sediment control), 
        water quality improvement, rural water supply, water 
        conservation, fish and wildlife habitat improvement, 
        recreation, irrigation and water management, etc. That is 
        flexibility emphasizing multiple use.
  --They are programs that encourage all citizens to participate.
  --They can address the needs of low income and minority communities.
  --And best of all--they are programs the people like!
    The National Watershed Coalition is concerned with the recent 
Congressional lack of support for these watershed programs, with the 
exception of the recent watershed rehabilitation legislative efforts, 
and hopes the outcome of the fiscal year 2002 appropriations process 
will enable this vital work to continue and expand as we seek to 
preserve, protect and better manage our nation's water and land 
resources. Every State in the United States has benefited from the 
Small Watershed Program.
    In order to continue this high priority work in partnership with 
states and local governments, the Coalition recommends a fiscal year 
2002 funding level of $250 million for Watersheds and Flood Prevention 
Operations, Public Law 83-566 and Public Law 78-534. We recommend that 
$30 million of this amount be for Public Law 78-534 projects. For some 
years now, the Federal budget has eliminated the separate line items 
for the Public Law 534 and Public Law 566 watershed projects, and just 
lumped a total figure under Public Law 566 with a note that some amount 
``may be available'' for Public Law 534 projects. This is an entirely 
unsatisfactory way of doing business. Public Law 534 still exists in 
law; it has not been repealed. It should be funded as a separate 
program. The current situation really penalizes both Public Law 534 and 
566, as 534 has no funds at the outset, and in order to provide a 
little something to the Public Law 534 watershed projects, NRCS has to 
take some money from the Public Law 566 accounts which are already very 
underfunded. Please restore funding for Public Law 534 watershed 
projects to $30 million in fiscal year 2002. We also recommend that 
watershed surveys and planning be funded at $25 million, which 
represents the true need.
    We would also suggest that $55 million be used for structural 
rehabilitation and replacement, in accordance with Public Law 106-472, 
the Small watershed Rehabilitation Amendments of 2000, passed by the 
Congress and signed into law on November 9th, 2000, and that another $5 
million be available for a thorough assessment of rehabilitation needs. 
The condition of our nation's dams, and the need for watershed 
structure rehabilitation, is a national priority we believe. There is 
also a research and development (R&D) need as we get the structural 
rehabilitation process underway. In USDA, that work in undertaken by 
the Agricultural Research Service (ARS). That need is estimated at $1.5 
million, and we ask that it be included in the ARS budget. It would be 
used for evaluation of upstream and downstream changes to the stream 
channel systems in cases of decommissioning, evaluation of the water 
quality impact of stored sediment releases, and the evaluation of 
impacts of the loss of flood protection, among other things.
    We recognize Congress may be thinking of lesser amounts for these 
programs. But we are not playing a responsible role if we do not help 
you recognize the true need if we continually recommend the Federal 
share of these needed funds be less. We hope that everyone understand 
these funds are only a part of the total that are committed to this 
vital purpose. The local project sponsors in these ``federally 
assisted'' endeavors have a tremendous investment also. We also suggest 
that the Emergency Watershed Program (EWP) be provided with $20 million 
to allow the NRCS to provide rapid response in time of natural 
disaster. Congress increasingly talks of wanting to fund those 
investments in our nation's infrastructure that will sustain us in the 
future. Yet past budgets have regularly cut funding for the best of 
these programs. This makes absolutely no sense! We continue to read 
that we are in a period of budget surpluses, almost as if the Federal 
coffers were overflowing with cash, yet there is next to nothing for 
watershed protection and improvement. In this period of surplus (tax 
overpayments) and relative prosperity we can't seem to invest and re-
invest in our vital watershed infrastructure. That is simply 
unconscionable. Isn't water quality and watershed management a national 
priority? We believe it is.
    The issue of the current condition of those improvements 
constructed over the last fifty years with these watershed programs is 
a matter of great concern. Many of the nearly 10,500 dams that NRCS 
assisted sponsors build throughout the United States no longer meet 
current dam safety standards largely as a result of development, and 
need to be upgraded to current standards. A USDA study published in 
1991 estimated that in the next ten years, $590 million would be needed 
to protect the installed works. Of that amount, $100 million would come 
from local sponsors as their operation and maintenance contributions. 
NRCS also conducted a more recent survey, and in just 22 states, about 
$540 million in rehabilitation needs were identified. That is the 
reason we are recommending starting with $60 million ($55 million for 
rehabilitation work and $5 million to start a more precise assessment 
of needs) for the work necessary to protect these installed structures, 
and commend Congress for their leadership in passing Public Law 106-
472. Watershed project sponsors throughout the U.S. appreciate your 
leadership on this vital issue. We now have the authorization, and need 
the appropriations. If we don't start to pay attention to our rural 
infrastructure needs, the ultimate cost to society will only increase, 
and project benefits will be lost. This is a serious national issue. 
Page 5 of our testimony provides a summary of the structures 
constructed in each state using these federally assisted USDA programs. 
Since most of these were constructed in the 1950's, 60's, and 70's, and 
were originally designed for a 50-year life, it is apparent we need to 
look at their current condition. If we do some rehabilitation work to 
bring many of these older structures up to current health and safety 
standards, they will continue to provide benefits far into the future.
    In addition to offering our thoughts on needed conservation program 
budget levels, we would like to express what we think will be concern 
with what the Administration's budget will propose in regard to 
watershed program funding in fiscal year 2002. While the President's 
budget will not be released until April 9th, we have read and heard 
enough in the news to make us believe watershed conservation programs 
are once again to be subject to reductions. If true, this is 
disturbing. We will analyze the President's budget when it is 
available, and provide your Subcommittee with our thoughts. Congress 
and the Administration need to recognize watershed natural resources 
conservation as a high national priority. It's only common sense.
    There are a number of suggestions we would like to make concerning 
this very important legislation that we will be making to other 
committees. They will have budget implications. We believe the 
objectives of this legislation should be expanded to include more non-
structural water quality practices, allow the law to provide assistance 
in developing rural water supplies (without water there is no rural 
development), and eliminate the current requirement that mandates that 
twenty percent of the total projects benefits be ``directly related to 
agriculture'' which can be very subjective and has the unintended 
effect of penalizing poor, small, rural communities many of which are 
minority communities.
    The Coalition appreciates the opportunity to offer these comments 
regarding fiscal year 2002 funding for the water resource programs 
administered by USDA's Natural Resources Conservation Service (NRCS). 
With the ``downsizing'' the NRCS has experienced, we would be remiss if 
we did not again express some concern as to their ability to provide 
adequate technical support in these watershed program areas. NRCS 
technical staff has been significantly reduced and budget constraints 
have not allowed that expertise to be replaced. Traditional fields of 
engineering and economics are but two examples. We see many states 
where NRCS capability to support their responsibilities is seriously 
diminished. This is a disturbing trend that needs to be halted. This 
downsizing has a very serious effect on state and local conservation 
programs. Local Watershed and Conservation Districts and the NRCS 
combine to make a very effective delivery system for providing the 
technical assistance to local people--farmers, ranchers and rural 
communities--in applying needed conservation practices. But that 
delivery system is currently very strained! Many states and local units 
of government also have complementary programs that provide financial 
assistance to land owners and operators for installing measures that 
reduce erosion, improve water quality, and maintain environmental 
quality. The NRCS provides, through agreement with the USDA Secretary 
of Agriculture, ``on the land'' technical assistance for applying these 
measures. The delivery system currently is in place, and by downsizing 
NRCS, we are eroding the most effective and efficient coordinated means 
of working with local people to solve environmental problems that has 
ever been developed. Our system and its ability to produce food and 
fiber is the envy of the entire world. In our view, these programs are 
the most important in terms of national priorities.
    We are also disappointed that the subcommittee has a practice of 
not accepting oral testimony from organizations such as the National 
Watershed Coalition. When we were allowed to make an oral presentation 
in the House, we were able to talk to subcommittee members who could 
ask us questions. It was a chance for them to actually talk with people 
doing the work on the land. That personal contact in both houses is now 
missing, and it would be easy to think that our written testimony may 
not be seriously considered. We hope you will reconsider this practice 
in future years, and again allow oral testimony.
    The Coalition pledges its full support to you as you continue your 
most important work. Our Executive Director, Mr. John W. Peterson, who 
has over forty years experience in natural resource watershed 
conservation, is located in the Washington, DC area, and would be 
pleased to serve as a resource as needed. John's address is 9304 Lundy 
Court, Burke, VA 22015-3431, phone 703-455-6886 or 4387, Fax; 703-455-
6888, email; <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4228353227362730312d2c0227302d2e316c212d2f6c">[email&#160;protected]</a>
    Thank you for allowing the National Watershed Coalition (NWC) this 
opportunity.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

                                summary
    This Statement is submitted in support of appropriations for the 
Department of Agriculture's Colorado River Basin salinity control 
program. The salinity control program has not been funded at the level 
necessary to control salinity with respect to water quality standards 
of the basin states. Also, this failure to provide adequate funding 
negatively impacts the quality of water delivered to Mexico pursuant to 
Minute 242 of the International Boundary and Water Commission. Funding 
for the Environmental Quality Incentives Program (EQIP), from which the 
Department of Agriculture funds the salinity program, has been 
insufficient to fund needed salinity control measures. I urge that 
funding of more than $200,000,000 be appropriated for EQIP, with at 
least $12,000,000 designated to the Colorado River Basin salinity 
control program.
                               statement
    The seven Colorado River Basin states, in response to the salinity 
issues addressed by Clean Water Act of 1972, formed the Colorado River 
Basin Salinity Control Forum. Comprised of gubernatorial appointees 
from the seven Basin states, the Forum was created to provide for 
interstate cooperation in response to the Clean Water Act, and to 
provide the states with information necessary to comply with Sections 
303 (a) and (b) of the Act. I am New Mexico's representative to the 
Forum. The Forum has become the primary means for the seven Basin 
states to coordinate with Federal agencies and Congress to support the 
implementation of the salinity control program.
    The Colorado River Basin salinity control program was authorized by 
Congress in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the Act in 1984 to give new responsibilities to the 
Department of Agriculture. While retaining the Department of the 
Interior as the lead coordinator for the salinity control program, the 
amended Act recognized the importance of the Department of Agriculture 
operating under its authorities in meeting the objectives of the 
salinity control program. Many of the most cost-effective projects 
undertaken by the salinity control program have occurred since 
implementation of Department of Agriculture's authorization for the 
program.
    The Bureau of Reclamation is currently completing studies on the 
economic impacts of the salinity of the Colorado River in the United 
States. Reclamation's study indicates that damages in the United States 
may soon be approaching $1 billion per year. It is essential to the 
cost-effectiveness of the salinity control program that Department of 
Agriculture salinity control projects be funded for timely 
implementation to protect the quality of Colorado River Basin water 
delivered to the Lower Basin States and Mexico.
    Congress concluded, with the enactment of the Federal Agriculture 
Improvement and Reform Act of 1996 (FAIRA), that the salinity control 
program could be most effectively implemented as one of the components 
of the Environmental Quality Incentives Program (EQIP). The salinity 
control program has not been funded since the enactment of FAIRA at a 
level adequate to ensure that the Basin State-adopted and Environmental 
Protection Agency approved water quality standards in the Colorado 
River will be honored with respect to total dissolved solids (i.e., 
salinity). Appropriations for EQIP have not been sufficient to prevent 
salt loading by irrigated agriculture in the Upper Colorado River Basin 
from impacting the quality of water delivered to the downstream states, 
nor to Mexico pursuant to Minute No. 242 of the International Boundary 
and Water Commission, United States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the Department of Agriculture to 
implement salinity control measures per Section 202 (c) of the Colorado 
River Basin Salinity Control Act. The EQIP evaluation and project 
ranking criteria target small watershed improvements that do not 
recognize that water users hundreds of miles downstream are significant 
beneficiaries of the salinity control program. Proposals for EQIP 
funding are ranked in the states of Utah, Wyoming and Colorado under 
the direction of the respective State Conservationists without 
consideration of those downstream, particularly out-of-state, benefits. 
Irrigated agriculture in the Upper Basin realizes significant local 
benefits of the salinity control program and agricultural producers 
have succeeded in submitting cost-effective proposals to the State 
Conservationists. However, funding for needed salinity control projects 
has been limited because the full measure of the salinity control 
program benefits has not been considered when prioritizing funding 
allocated to salinity control projects and to all other programs 
administered by each state's autonomous office.
    The Department of Agriculture's Natural Resources Conservation 
Service (NRCS), following protracted urging by the Basin states, has 
concluded as a result that the salinity control program is different 
than the small watershed approach of the EQIP program. The watershed 
for the salinity control program stretches almost 1200 miles, from the 
headwaters of the river through the salt-laden soils of the Upper Basin 
to the river's termination at the Gulf of California in Mexico. NRCS is 
to be commended for its efforts to appoint a salinity program 
coordinator to work with each NRCS state office and to designate the 
Colorado River Basin an ``area of special interest'' including a 
special fund designation for the salinity control program.
    The Basin states were led to believe by Congressional staff when 
the EQIP program was created that the $200,000,000 annual Commodity 
Credit Corporation (CCC) borrowing authority given to the Secretary 
would ensure that through the year 2002 at least the requested amount 
of salinity control funding would be expended through the EQIP program. 
The Basin states, including New Mexico, have been very dismayed that 
funding for EQIP has been inadequate for this most important nationwide 
program. Several years of inadequate Federal funding for the Department 
of Agriculture have resulted in the Forum finding that the salinity 
control program needs to be accelerated to protect the Colorado River 
water quality standards for salinity and to maintain the water quality 
criteria of those standards. Since the designation by the Department of 
Agriculture of the Colorado River salinity control program as an area 
of special interest, about $4.5 million annually has been earmarked for 
the program. This amount is in sharp contrast to the $12 million annual 
funding required for the USDA portion of the plan of implementation of 
the Colorado River water quality standards for salinity, as adopted by 
the Basin States and approved by EPA.
    The Basin States added about $1.5 million in up-front cost sharing 
and local farms contributed an estimated $2 million to match the NRCS 
funds in the previous Federal fiscal year. State and local cost sharing 
is triggered by the Federal appropriation. The entire effort last year 
was funded at only about 40 percent of program needs. The requested 
funding of $12 million for fiscal year 2002 will continue to be needed 
each year for at least the next few fiscal years.
    The Department of Agriculture has indicated that a more adequately 
funded EQIP program would result in more funds being allocated to the 
salinity program. The Basin states have cost sharing dollars available 
to participate in on-farm salinity control efforts. The agricultural 
producers in the Upper Basin are willing to cost-share their portion 
and waiting for adequate funding for their applications to be 
considered. The Department of Agriculture projects have proven to be 
the most cost-effective component of the salinity control program. 
However, the prior Administration and Congressional funding support has 
dramatically declined despite increasing damages from the salinity of 
the Colorado River.
    I urge the Congress to appropriate at least $200,000,000 from the 
CCC in fiscal year 2002 for EQIP. Also, I request that Congress advise 
the Administration that $12,000,000 of the appropriation is to be 
designated for the Colorado River Basin salinity control program.
    Finally, I request that adequate funds be appropriated for 
technical assistance and education activities at the local level, 
rather than requiring the NRCS to borrow funds from CCC for the direly 
needed support functions. Recent history has shown that inadequate 
funding for technical assistance and education activities of the NRCS 
has been a severe impediment to successful implementation of the 
salinity control program. The Basin States parallel funding program, 
implemented as a means of cost sharing with NRCS, expends 40 percent of 
the states' funds available to meet the needs of NRCS for technical 
assistance and education activities. I urge the appropriation of 
adequate funds for these essential activities, and that the NRCS not be 
directed to borrow funds for these uses from the CCC.
                                 ______
                                 

     Prepared Statement of the Nez Perce Tribal Executive Committee

    The Nez Perce Tribe requests the following funding amounts for 
fiscal year 2002, which are specific to the Nez Perce Tribe:
  --$221,575 through the United States Department of Agriculture, 
        Animal and Plant Health Inspection Service for the biological 
        control of noxious weeds for implementation and monitoring.
    The Tribe urges support for the full and adequate funding of Tribal 
programs through the Department of the Interior fiscal year 2002 
budget, with the specific request discussed below.
      nez perce biological control center funding: usda, $221,575
    The Nez Perce Tribe established the Bio-Control Center in 1999 
thanks to grant funds from the USDA-Business Cooperative Services 
program. Since its inception, the Center has developed partnerships and 
networks to coordinate the biological control of weeds through the 
State of Idaho and worked collaboratively with the USDA to develop and 
implement monitoring protocols. The Center has been instrumental in 
providing biological control agent releases and monitoring under 
contractual agreements with private landowners and Agencies throughout 
the region.
    The biological control of weeds uses the weeds' natural enemies to 
reduce the weeds' ability to compete with the desired vegetation. 
Biological control techniques have been used in the West since 1940 to 
reduce weed density on range and wildlands where cultural and chemical 
control methods are not economically feasible or practical. This 
allocation would enable the Tribe to rear and provide biological 
control organisms to private and public entities at no cost, to monitor 
the impacts, develop technology transfer materials, and host seminars 
for all interested parties.
    For fiscal year 2002, the Nez Perce Tribe requests that Congress 
earmark $221,575 from the USDA Animal Plant Health Inspection Service 
to establish nurseries to increase biological control availability, 
distribute biological control organisms throughout weed infestation 
areas, monitor the impacts, and provide annual technology transfer 
seminars to Cooperative Weed Management Area partners. This program 
will be developed in coordination with USDA, local universities, and 
regional experts.
                                 ______
                                 

    Prepared Statement of the Northwest Indian Fisheries Commission

    Mr. Chairman and Members of the Committee, I am Billy Frank, Jr., 
Chairman of the Northwest Indian Fisheries Commission (NWIFC), and on 
behalf of the twenty-Western Washington member Tribes, I submit this 
request for appropriations to support the research, sanitation and 
marketing of Tribal shellfish products. We request the following:
  --$500,000 to support commercial harvests costs which will assist the 
        tribes in fulfilling the demands for their shellfish products 
        both domestically and abroad;
  --$1,000,000 to support water and pollution sampling, sampling and 
        research for paralytic shellfish poisoning and coordination of 
        research projects with State agencies; and,
  --$1,000,000 to support data gathering at the reservation level for 
        the conduct of shellfish population surveys and estimates.
                        treaty shellfish rights
    As with salmon, the tribes' guarantees to harvest shellfish lie 
within a series of treaties signed with representatives of the Federal 
government in the mid-1850s. In exchange for the peaceful settlement of 
what is today most of Western Washington, the tribes reserved the right 
to continue to harvest finfish and shellfish at their usual and 
accustomed grounds and stations. The tribes were specifically excluded 
from harvesting shellfish from areas ``staked or cultivated'' by non-
Indian citizens. Soon after they were signed, the treaties were 
forgotten or ignored.
    The declining salmon resource in the Pacific Northwest negates the 
legacy Indian people in Western Washington have lived by for thousands 
of years. We were taught to care for the land and take from it only 
what we needed and to use all that we took.
    We depended on the gifts of nature for food, trade, culture and 
survival. We knew when the tide was out, it was time to set the table 
because we live in the land of plenty; a paradise complete. Yet, 
because of the loss of salmon habitat which is attributable to 
overwhelming growth in the human population, a major pacific coastal 
salmon recovery effort ensues. Our shellfish resource is our major 
remaining fishery.
    At least ninety types of shellfish have been traditionally 
harvested by the Tribes in Western Washington and across the continent 
Indian people have called us the fishing Tribes because of our rich 
history of harvesting and caring for finfish and shellfish. Our 
shellfish was abundant and constituted a principal resource of export, 
as well as provided food to the Indians and the settlers which greatly 
reduced the living expenses.
    Clams, crab, oysters, shrimp, and many othern species were readily 
available year round. The relative ease with which large amounts could 
be harvested, cured, and stored for later consumption made shell fish 
an important source of nutrition.
    Shellfish remain important for subsistence, economic, and 
ceremonial purposes. With the rapid decline of many salmon stocks, due 
to habitat loss from western Washington's unrelenting populous growth, 
shellfish harvesting has become a major factor in tribal economies.
    The tribes have used shellfish in trade with the non-Indian 
population since the first white settlers came into the region a 
century and a half ago. Newspaper accounts from the earliest days of 
the Washington Territory tell of Indians selling or trading fresh 
shellfish with settlers. Shellfish harvested by members of western 
Washington's Indian tribes is highly sought after throughout the United 
States and the Far East. Tribal representatives have gone on trade 
missions to China and other Pacific Rim nations where Pacific Northwest 
shellfish--particularly geoduck--is in great demand. Trade with the Far 
East is growing in importance as the tribes struggle to achieve 
financial security through a natural resources-based economy.
    Treaty language pertaining to tribal shellfish harvesting included 
this section:
    ``The right of taking fish at usual and accustomed grounds and 
stations is further secured to said Indians, in common with all 
citizens of the United States; and of erecting temporary houses for the 
purposes of curing; together with the privilege of hunting and 
gathering roots and berries on open and unclaimed lands. Provided, 
however, that they not take shell-fish from any beds staked or 
cultivated by citizens.''
              treaty with the s'klallam, january 26, 1855
    In exchange for the peaceful settlement of what is today most of 
western Washington, the tribes reserved the right to continue to 
harvest finfish and shellfish at all of their usual and accustomed 
grounds and stations. The tribes were specifically excluded from 
harvesting shellfish from areas ``staked or cultivated'' by non-Indian 
citizens.
    Tribal efforts to have the Federal government's treaty promises 
kept began in the first years of the 20th Century when the United 
States Supreme Court ruled in U.S. v. Winans, that where a treaty 
reserves the right to fish at all usual and accustomed places, a state 
may not preclude tribal access to those places.
    Sixty years later, the tribes were again preparing for battle in 
court. After many years of harassment, beatings and arrests for 
exercising their treaty-reserved rights, western Washington tribes took 
the State of Washington to Federal court to have their rights legally 
re-affirmed. In 1974, U.S. District Court Judge George Boldt ruled that 
the tribes had reserved the right to half of the harvestable salmon and 
steelhead in western Washington.
    The ``Boldt Decision,'' which was upheld by the U.S. Supreme Court, 
also re-established the tribes as co-managers of the salmon and 
steelhead resources in western Washington.
    As a result of this ruling, the tribes became responsible for 
establishing fishing seasons, setting harvest limits, and enforcing 
tribal fishing regulations. Professional biological staffs, enforcement 
officers, and managerial staff were assembled to ensure orderly, 
biologically-sound fisheries.
    Beginning in the late 1970s, tribal and state staff worked together 
to develop comprehensive fisheries that ensured harvest opportunities 
for Indian and non-Indian like, and also preserved the resource for 
generations to come.
    It was within this new atmosphere of cooperative management that 
the tribes sought to restore their treaty-reserved rights to manage and 
harvest shellfish from all usual and accustomed areas. Talks with their 
state counterparts began in the mid-1980s, but were unsuccessful. The 
tribes filed suit in Federal court in May 1989 to have their shellfish 
harvest rights restored.
    The filing of the lawsuit brought about years of additional 
negotiations between the tribes and the state. Despite many serious 
attempts at reaching a negotiated settlement, the issue went to trial 
in May 1994.
    In 1994, District Court Judge Edward Rafeedie upheld the right of 
the treaty tribes to harvest 50 percent of all shellfish species in 
their Usual and Accustomed fishing areas. Judge Rafeedie also ordered a 
shellfish Management Implementation Plan that governs tribal/state co-
management activities.
    After a number of appeals, the U.S. 9th Circuit Court of Appeals 
let stand Rafeedie's ruling in 1998. Finally, in June 1999, the U.S. 
Supreme Court denied review of the District court ruling, effectively 
confirming the treaty shellfish harvest right.
    assist the tribes in fulfilling the demands for their shellfish 
                           products, $500,000
    Shellfish harvested by members of Western Washington's Indian 
tribes is highly sought after throughout the United States and the Far 
East. We request $500,000 which will assist Tribes in promoting our 
shellfish products, in both domestic and international markets. We are 
now at a point in time when telecommunicating is both cost effective 
and timely when marketing products. Tribal fishers are not capable of 
supporting such an effort individually, but, could collectively benefit 
if such a network could be developed through the Northwest Indian 
Fisheries Commission and the Northwest Indian College in Bellingham, 
Washington. This institution is capable of providing the technology 
needed to implement such a marketing program for Tribal shellfish 
products.
   water and pollution sampling, sampling and research for paralytic 
 shellfish poisoning and coordination of research projects with state 
                          agencies, $1,000,000
    Shellfish growing areas are routinely surveyed for current or 
potential pollution impacts and are classified based on the results of 
frequent survey information. No shellfish harvest is conducted on 
beaches that have not been certified by the tribes and the Washington 
Department of Health. Growing areas are regularly monitored for water 
quality status and naturally-occurring biotoxins to protect the public 
health.
    However, both Tribal and non-Indian fisheries have been threatened 
due to the lack of understanding about the nature of biotoxins, 
especially in subtidal geoduck clams. Research targeted to better 
understand the nature of biotoxins could prevent unnecessary illness 
and death that may result from consuming toxic shellfish, and could 
prevent unnecessary closure of tribal and non-Indian fisheries.
 data gathering at the reservation level for the conduct of shellfish 
              population surveys and estimates, $1,000,000
    Very little current data and technical information exists for many 
of the shellfish fisheries now being jointly managed by state and 
Tribal managers. This is particularly true for many free-swimming and 
deep-water species. This lack of information can not only impact 
fisheries and the resource as a whole, but makes it difficult to assess 
50/50 treaty sharing arrangements. Additionally, intertidal assessment 
methodologies differ between state and tribal programs, and can lead to 
conflicts in management planning.
    Existing data systems must be enhanced for catch reporting, 
population assessment and to assist enhancement efforts. Research on 
methodology for population assessment and techniques also is critical 
to effective management.
    Onsite beach surveys are required to identify harvestable 
populations of shellfish. Regular monitoring of beaches also is 
necessary to ensure the beaches remain safe for harvest. Additional and 
more accurate population survey and health certification data is needed 
to maintain these fisheries and open new harvest areas. This 
information will help protect current and future resources and provide 
additional harvest opportunities.
                               conclusion
    We ask that you give serious consideration to our needs. We are 
available to discuss these requests with committee members or staff at 
your convenience.
    Thank you.
                                 ______
                                 

Prepared Statement of the National Fire Ant Task Force and the Oklahoma 
     Fire Ant Research and Management Advisory Committee Task Force

    I am an agriculture producer, serve as a member of the National 
Fire Ant Task Force and the Oklahoma Fire Ant Research and Management 
Advisory Committee task force. Our national purpose is to develop and 
promote research that can be flexible, adaptable to different climatic 
regions of the country, sustainable but not chemical discouraging, but 
hopefully results in the use of less chemicals and less expense to the 
property owner while accomplishing the task at hand.
    From a state perspective, our purpose is to determine what can be 
done to address the continued growth of fire ants in our state with 
state resources and how that we might cooperate with other multi-state 
and national ventures to address the problem. This testimony is on 
behalf of the committee and myself as an impacted agriculture producer 
and how the research funding or lack thereof impacts locally within the 
states. I would like to discuss briefly the continued expansion of the 
range of imported fire ants in this country, the continued economic and 
social impact of such expansion and the resulting need for research 
funding.
    It is an exciting time for fire ant research because for the first 
time since the pest entered the United States, we have hope for 
stopping the spread and controlling its march across the south and soon 
to reach middle America. Our hope lies with bio-control methods coupled 
with other methods of control. But, without significant research funds 
to the basic research effort all efforts may soon be lost. The USDA-
Agricultural Research Service charged with the mission of fire ant 
research has not seen a congressional increase in 30 years for this 
effort. Our request is that you increase the research base of the 
Imported Fire Ant Unit at the Center for Medical, Agricultural & 
Veterinary Entomology in Gainesville, Florida by a total of $900,000. 
The proposed Florida allocation would be $600,000 above the current 
level which would just return the location to where it was 14 months 
ago restoring two FTE's. The remaining $300,000 would be directed to 
the Mississippi location to further develop efforts there that tie back 
to the Gainesville activity.
    We appreciate the final conference committee funding of $325,000 
already included by Senate leadership for the last two years that was 
directed to Mississippi. However, the available base in the 
Agricultural Research Service for this research mission has actually 
been dropping steadily and we are in a position today where the 
critical mass of the few experienced scientists headquartered at 
Gainesville, currently only 4.5 FTE's, now available is about to be 
even further reduced. We believe investing in the basic applied 
research with ARS will compliment and enhance the specially directed 
funds.
    Why is Oklahoma so interested in seeing funding to a Florida 
location? As an emerging state with fire ant populations growth, we are 
interested in stopping the number of counties that are impacted each 
year. We have worked with cooperative research in Oklahoma with ARS and 
are working toward an area wide research effort to be conducted in 
Florida, Oklahoma , Texas and Mississippi. We are tired of losing 
livestock, other economic impacts and most importantly our elderly and 
children being attacked. With the rapid rate of expansion and the 
proven ability to survive in northern reaches of the projected 
expansion area, in just a short time they will most likely be in the 
District of Columbia--on the Capitol grounds, the White House lawn, 
other government buildings and private properties. For seven 
consecutive years, ants have been found north of Washington in the 
Bowie, Maryland area.
    While fire ants have been around for decades as a result of 
importation into Alabama from South America, this non-native pest has 
spread further and caused far more destructive damage than ever 
envisioned. Just a few decades ago, it was never anticipated that these 
pests would expand so far north and encompass so many states and such a 
great population. Yet, today there are no signs of any slow-down and 
the impacted constituencies continue to grow. The red imported fire ant 
now infests and requires APHIS quarantine in over 318 million acres in 
12 contiguous states plus counties with firm establishment in 
California and New Mexico--now under quarantine--Maryland, and 
occasional occurrences in Arizona, Nevada, West Virginia, and Kentucky.
    In 1985, Oklahoma's experience with fire ants began with the first 
mounds discovered in the Oklahoma-Arkansas border county of Leflore. 
Since that time twelve Oklahoma Counties now are classified as ``Red 
Imported Fire Ant Established.'' Another 15 counties have fire ant 
activity but that are not yet fully established. Some predicted that 
fire ants would never expand further than the southern Oklahoma border 
of the Red River, yet today Tulsa and Payne Counties in northern 
Oklahoma have recorded finding fire ants--the same latitude as the U.S. 
Capitol. Both counties are one and two counties south of the Kansas 
border. In the State of Arkansas they are near the Missouri border and 
in Tennessee they have been found near the Kentucky border.
    My interest in addressing the imported fire ant issue is not only 
from a professional point of representing the farm and rural membership 
of Oklahoma Farmers Union but also a very personal one. My family and I 
farm and ranch along the Red River in the southern Oklahoma counties of 
Love and Jefferson. In the last two years we have seen a literal 
proliferation of this pest to the point of destroying pasture land and 
harming farm equipment with their huge mounds.
    It even becomes more personal when my 5 year-old daughter is simply 
playing and the fire ants attack her--inside the house. Just two 
counties over a child in his own bed was attacked hundreds of time 
while he lay sleeping. Producers and other citizens alike experience 
the loss of electrical water heaters, air conditioning and heating 
units when fire ants gather in such numbers that they cause electrical 
shorts resulting in property loss. It is quite common for the local 
Rural Electric Cooperatives to experience losses on their supply lines 
because of the pests.
    From an agricultural economic standpoint, fire ants pose an 
immediate and present danger to our family farm and others just like us 
who are in the hay production business. Because our county is 
quarantined, we must sell our hay only to other counties where fire 
ants are established. This limits our available markets. We have just 
come through three of the worst droughts in U.S. history. Three years 
ago, many producers in Oklahoma received hay from Kansas, Colorado, 
Missouri and Arkansas. Imagine if the drought had been to the north and 
farmers depended on southern producers for their supply. Although we 
would have had hay, we would have been unable to provide a hay supply 
to our neighbors to the north because of fire ant quarantines. God 
forbid that such should ever happen. This has occurred when hay from 
North Carolina was shipped to drought areas of West Virginia and 
infestation resulted. Our own state department of agriculture is now 
aggressively working to check the border to ensure that product will 
not cross the border that is infested. Each load must be fire ant free. 
We applaud this effort but realize that research provides the only real 
answer to our plight.
    I would point out that the Southern United States, which so far has 
been greatest impacted, also has some of the most vulnerable citizens 
to fire ant stings. Since the South attracts more retirees than most 
parts of the country, the numbers alone make the elderly a prime target 
of fire ants. Attacks on the elderly, with weakened immune systems, in 
nursing homes and hospitals is coming far too often. Last year an 
incapacitated lady in Florida died from 1,600 stings while in a nursing 
home. Another of the most vulnerable--our children--have increasingly 
been evacuated from schools so the properties can be treated for fire 
ants. Other public properties around the United States such as parks, 
lakes and zoos are becoming inundated. Peanut farmers in Southern 
Oklahoma now think twice before they reach to repair a digger or 
combine that can be covered with fire ants that thrive in the sandy 
peanut soils. Three years ago, over 500 farmers in Bryan County 
gathered to talk about fire ants because they had been impacted by the 
rapid expansion of the fire ant. Producers want answers and quickly.
    While there has been extensive research work on baits and other 
chemical applications dealing with fire ants, it appears that these 
solutions only will help curtail and not eradicate or bring under 
control this pest. These options are also very expensive and for the 
chemical application process to work everyone must be willing to apply 
the solution repeatedly. We know that this is an unrealistic and 
expensive solution for either the private or government sector.
    What has shown the most promise in the last four years are 
biological control methods that can be applied in conjunction with 
chemical applications for what could be an effective permanent 
management solution. I am particularly excited about the development of 
a national strategy that will for the first time strategically address 
this pest since it first came to the shores of Alabama in the 1920's. 
Such a strategy has been set forth by the Southern Legislative 
Conference, comprised of state legislators across the south, and the 
scientists and research leaders of the United States Department of 
Agriculture's Agricultural Research Service. I am pleased to have had 
the opportunity to have participated in the development of this initial 
plan.
    USDA-ARS research in Gainesville, Florida, on the development and 
release of candidate self-sustaining bio-control agents, resulted in an 
Agreement in 1998 with the Southern Legislative Conference, 
representing the elected state officials in the southern 15 states. 
Based on the successful survival of the early releases of the two bio-
control agents in Gainesville, a formal agreement with the SLC was 
established. Participating states provided limited state resources to 
assist the Gainesville laboratory in increasing production of bio-
control agents for limited field trials in their states. By 2000, 
participating states included Oklahoma, Texas, Alabama, Georgia, South 
Carolina, North Carolina, and Louisiana. Other existing collaborations 
provided release opportunities in Arkansas, Mississippi, Florida and 
Tennessee. From 1998-2000, phorid flies were released and established 
in Florida, Mississippi, Louisiana, Texas, Alabama, North Carolina, and 
South Carolina. In Florida, where releases began in 1997, populations 
expanded from 5 mound locations (1997-98) to 50 square miles by 1999, 
and to 1,000 square miles by December, 2000. Concurrent paired field 
studies (72 sites total) examining the impact on fire ant populations 
will continue through 2002.
    Also from 1998-2000, the disease agent of fire ants was released at 
selected sites (5 mounds each) in Florida, Oklahoma, Arkansas, Alabama, 
Tennessee, North Carolina, South Carolina, Mississippi, and Louisiana. 
Subsequent infections was detected in Florida, Oklahoma, Arkansas, 
Alabama, North Carolina, South Carolina, Georgia, Mississippi, and 
Louisiana. In Florida, infections spread among mounds at the initial 
release site, and resulted in a 40-60 percent reduction in fire ant 
populations in the affected area.
    In 2000, the first field test of an integrated management strategy 
for fire ants was initiated at a military installation in South 
Carolina. With supplemental temporary funding to ARS from EPA, and 
commitment of in-kind resources from the U.S. Army, the South Carolina 
National Guard and Clemson University, a central ``near-zero 
tolerance'' area was treated with traditional pesticide applications 
while surrounding areas were inoculated with phorid flies and the 
disease agent of fire ants. At 16 weeks, assessments indicated a 96 
percent reduction in the near-zero tolerance area, and the successful 
establishment of both bio-control agents. Assessments continue.
    Also in 2000, USDA-APHIS and the National Biological Control 
Institute, canvassed state departments of agriculture, and found that 
bio-control of fire ants was the single highest priority for invasive 
insect species. Subsequently, APHIS and ARS partnered with the State of 
Florida Department of Agriculture and Consumer Services to initiate 
mass-rearing of phorid flies at state facilities in Gainesville, 
Florida, for subsequent release in the infested states. The agreement 
was finalized in February, 2001. Releases will begin by late summer.
    As a result of the outcome of the ARS, DOD and SLC leadership in 
the South Carolina IPM project and based on the merits of the proposal, 
a new peer reviewed proposal funded internally will expand such tests 
to Oklahoma, Texas and Florida initially. This 4-5 year temporary 
project will focus on cattle and improved pasture regions. Of ten 
projects reviewed this was the one funded in fiscal year 2001. I stress 
this to demonstrate the confidence placed in the research through peer 
review. However exciting this funded project may be, it has no impact 
on the base funds to maintain--let alone increase--much needed basic 
research.
    The bottom line is to develop self-sustaining biological control 
agents for the imported fire ant. Farmers, and particularly 
disadvantaged farmers in the southern and western states, need relief 
from fire ants, but traditional baits and pesticides are too costly and 
require frequent application to manage the invader. In a survey of 
Texas cattle producers, an estimated $67 million per year in losses was 
due to fire ants. The ant also will kill chicks and adversely affects 
the yields of several important agricultural crops. The need for self-
sustaining bio-control and a pesticide-reduced integrated pest 
management approach is critical. Besides being expensive, traditional 
chemical pest management strategies fail to provide sustained 
management of the pest without continuous re-applications of 
insecticides, which not only kill the imported fire ant but basically 
sterilize the sites of all living invertebrates, continuing the 
disruption of ecological balance originally upset by the invading fire 
ant. Because of wide-spectrum toxicity, adverse environmental impact 
and economic cost, chemical treatment strategies are not suitable for 
large tracts of land such as pastures in sustained management.
    The goal of the National Fire Ant Strategy is to develop customized 
regional management strategies to reduce the imported fire ant 
infestations to levels below economic thresholds on agricultural lands 
and large acreage tracts. Such is the case in South America, the native 
range of fire ants where populations are only 20 percent of those in 
the U.S. In fact, fire ants in that country are not generally 
considered a pest. A second purpose is to eliminate fire ants as a 
nuisance or health threat in local urban high-risk environments. 
Biologically-based technologies are a major component. A systematic 
approach will be developed to optimize integrated management strategies 
with biologically-based technologies as a major component. Coordination 
has occurred among Federal, State and private sectors to ensure that 
current and emerging technologies are evaluated for regional 
effectiveness, and that they are rapidly implemented.
    Through coordinated Federal, State and private sector efforts, the 
strategy includes the release and monitoring of candidate biocontrol 
organisms for regional comparisons, development of new biologically-
based technologies and the subsequent ``fast tracking'' of the 
implementation of successful tools. With the use of the latest 
technology applications, customized regional, biologically based 
strategies will be developed. Precision targeting for maximum local 
elimination in high risk and high priority areas with existing bait or 
chemical technologies will be redefined. The final direction of the 
work plan strategy in accomplishing the objectives is to package the 
technologies and strategies for optimized integrated pest management.
    Biological methods for treatment of fire ants appears to be 
working! Two bio-control agents are now available with 25 remaining in 
South America with potential for reducing populations in the U.S. While 
it is exciting that we are finally making more progress on fire ants in 
the last few years than we have for the entire time that fire ants has 
plagued this country--it requires one key ingredient--adequate funding. 
Three years ago we began an effort to see increased funding. Based on 
the national strategy as developed, funding of $2 million would be 
needed on an annual basis to apply the strategy that shows so much 
promise and to ``fast track'' the results and technologically transfer 
that information to the private sector for application. The proposed 
increase of $900,000 above the current base restores lost positions and 
strengthens the program.
    We would strongly encourage you to provide the appropriate funding 
of $2 million annually to Gainesville by adding $900,00 to the ARS 
budget base for such a nationally biologically-based integrated 
management strategy that includes a partnership of both USDA-ARS, state 
land-grant universities, state legislatures and the private sector.
    Thank you again for this opportunity to submit testimony regarding 
the need for additional appropriations for fire ant research.
                                 ______
                                 

     Prepared Statement of the Organization for the Promotion and 
           Advancement of Small Telecommunications Companies

                           summary of request
    The Organization for the Promotion and Advancement of Small 
Telecommunications Companies (OPASTCO) seeks the Subcommittee's support 
for fiscal year 2002 loan levels for the telecommunications loans 
program and Rural Telephone Bank (RTB) program administered by the 
Rural Utilities Service (RUS) in the following amounts:

                        [In millions of dollars]

5 percent hardship loans..........................................    75
Treasury rate loans...............................................   300
Guaranteed loans..................................................   120
RTB loans.........................................................   175

    In addition, OPASTCO requests the following action by the 
Subcommittee: (1) removal of the statutory 7 percent cap on Treasury 
rate loans for fiscal year 2002; (2) removal of previous appropriations 
act language limiting the retirement of Class A stock of the RTB to 5 
percent; (3) a prohibition on the transfer of unobligated RTB funds to 
the general fund of the Treasury; and (4) funding of the distance 
learning and telemedicine grant and loan program at sufficient levels.
                                general
    OPASTCO is a national trade association of more than 500 
independently owned and operated telecommunications carriers serving 
rural areas of the United States. Its members, which include both 
commercial companies and cooperatives, together serve over 2.5 million 
customers in 42 states. Approximately half of OPASTCO's members are RUS 
or RTB borrowers.
    Perhaps at no time since the inception of the RUS (formerly the 
REA) has the telecommunications loans and RTB programs been so vital to 
the future of rural America. The telecommunications industry is at a 
crossroads, both in terms of technology and public policy. Advances in 
telecommunications technology in recent years will deliver on the 
promise of a new ``information age.'' The Federal Communications 
Commission's (FCC) ongoing implementation of the landmark 
Telecommunications Act of 1996, as well as modernization resulting from 
prior statutory changes to RUS's lending program, will expedite this 
transformation. However, without continued support of the 
telecommunications loans and RTB programs, rural telephone companies 
will be hard pressed to build the infrastructure necessary to bring 
their communities into this new age, creating a bifurcated society of 
information ``haves'' and ``have-nots.''
    Contrary to the belief of some critics, RUS's job is not finished. 
Actually, in a sense, it has just begun. We have entered a time when 
advanced services and technology--such as broadband fiber optics, high-
speed packet and digital switching equipment, and digital subscriber 
line technology--are expected by customers in all areas of the country, 
both urban and rural. Unfortunately, the inherently higher costs of 
upgrading rural networks, both for voice and data communications, has 
not abated. Rural telecommunications continues to be more capital 
intensive and involves fewer paying customers than its urban 
counterpart. RUS borrowers average only 6.3 subscribers per route mile 
versus 130 subscribers per route mile for large local exchange 
carriers. In order for rural telephone companies to modernize their 
networks and provide their customers with advanced services at 
reasonable rates, they must have access to reliable low-cost financing.
    The relative isolation of rural areas increases the value of 
telecommunications services for these citizens. Telecommunications 
enables applications such as distance learning, telemedicine, and high-
speed Internet connectivity that can alleviate or eliminate some rural 
disadvantages. Telecommunications can also make rural areas attractive 
for some businesses and result in revitalization of the rural economy. 
For example, businesses such as telemarketing and tourism can thrive in 
rural areas, and telecommuting can become a realistic employment 
option.
    While it has been said many times before, it bears repeating that 
RUS's telecommunications loans and RTB programs are not grant programs. 
The funds loaned by RUS are used to leverage substantial private 
capital, creating public/private partnerships. For a very small cost, 
the government is encouraging tremendous amounts of private investment 
in rural telecommunications infrastructure.
    Most importantly, the programs are tremendously successful. 
Borrowers actually build the infrastructure and the government gets 
paid back with interest. There has never been a default in the history 
of the telecommunications lending programs.
  the telecommunications act of 1996 has heightened the need for the 
               telecommunications loans and rtb programs
    The FCC's implementation of the Telecommunications Act of 1996 will 
only increase rural telecommunications carriers' need for RUS 
assistance in the future. The forward-looking Act defines universal 
service as an evolving level of telecommunications services that the 
FCC must establish periodically, taking into account advances in 
telecommunications and information technologies and services. As 
anticipated, in December 2000, the FCC convened a Federal-State Joint 
Board to begin reviewing the definition of the services supported by 
the universal service mechanism. While the competitive environment 
engendered by the 1996 Act may offer the means of meeting this evolving 
definition in urban areas, rural and high-cost areas have less 
potential for economically sound competitive alternatives. RUS has an 
essential role to play in the implementation of the law, as it will 
compliment new funding mechanisms established by the FCC and enable 
rural America to move closer to achieving the federally mandated goal 
of rural/urban service and rate comparability.
    At present, considerable regulatory uncertainty exists for rural 
telecommunications carriers as several critical FCC proceedings 
implementing the 1996 Act remain unresolved. These include fundamental 
changes to the universal service and access charge systems and the 
procedures incumbent carriers use to separate their costs between the 
Federal and State jurisdictions. In addition, uncertainty exists as to 
whether rural incumbent carriers will be able to recover the costs of 
the extensive additional regulatory obligations and potential broadband 
deployment demands placed on them. If these outstanding issues are 
resolved in a piecemeal fashion and/or with a strong bias toward new 
entrants, rural incumbent carriers with universal service obligations 
could be hampered in their ability to modernize their networks and 
provide quality, affordable service to all of their customers. Managed 
coordination of existing proceedings, as proposed in the Petition for 
Rulemaking of the LEC Multi-Association Group (MAG Plan, filed with the 
FCC Oct. 20, 2000), is necessary if the Commission is to preserve 
Congress's public policy goals of affordable rates and access to an 
evolving telecommunications network for all Americans. Adoption of the 
MAG Plan would ensure that all of the goals of the 1996 Act--including 
universal service, an even playing field for competition, and 
deregulation--are realized in rural areas.
    a $75 million loan level should be maintained for the 5 percent 
                         hardship loan program
    One of the most vital components of RUS's telecommunications loans 
program is the 5 percent hardship loan program. These loans are 
referred to as hardship loans for good reason: They provide below-
Treasury rate financing to telephone companies serving some of the most 
sparsely populated, highest cost areas in the country. The commitment 
these companies have to providing modern telecommunications service to 
everyone in their communities has made our nation's policy of universal 
service a reality and, in many cases, would not have been possible 
without RUS's hardship loan program. Companies applying for hardship 
loans must meet a stringent set of eligibility requirements and the 
projects to be financed are rated on a point system to ensure that the 
loans are targeted to the most needy and deserving. In fiscal year 
2001, the government subsidy needed to support a $75 million loan level 
was under $7.8 million. Given the necessity of this indispensable 
program, it is critical that the loan level be maintained at $75 
million for fiscal year 2002.
removal of the 7 percent cap on treasury rate loans should be continued
    With regard to RUS's Treasury rate loan program, OPASTCO supports 
the removal of the 7 percent ceiling on these loans for fiscal year 
2002. This Subcommittee appropriately supported language in the fiscal 
year 1996 Agriculture Appropriations Act to permit Treasury rate loans 
to exceed the 7 percent per year ceiling contained in the authorizing 
act. The language has been continued in each subsequent year. Were 
long-term interest rates to exceed 7 percent, adequate subsidy would 
not be available to support the Treasury rate loan program at the 
authorized levels. Accordingly, OPASTCO supports the continuation of 
this language in the fiscal year 2002 appropriations bill in order to 
prevent potential disruption to this important program.
   a $175 million loan level should be maintained for the rtb program
    As previously discussed, the RTB's mission has not been completed 
as rural carriers continue to rely on this important source of 
supplemental financing in order to provide their communities with 
access to the next generation of telecommunications services that are 
essential for their survival. In fiscal year 2001, the government 
subsidy necessary to fund a $175 million loan level was only $2.59 
million, or 1.48 percent of the capital that the program generates. The 
ongoing need for the RTB program makes it essential that a $175 million 
loan level be maintained for fiscal year 2002.
the 5 percent limitation on the amount of class a stock of the rtb that 
                    can be retired should be removed
    OPASTCO believes it would be appropriate to remove or change the 
language contained in previous agriculture appropriations acts 
restricting the retirement of Class A stock of the RTB to 5 percent. 
This restriction is an impediment to the timely privatization of the 
RTB, as envisioned by the Rural Electrification Act of 1936. OPASTCO 
further suggests that Congress, the Administration, and the RTB Board 
of Directors develop a schedule and plan for privatizing the bank in a 
timely manner. OPASTCO believes that the timely privatization of the 
RTB is of great importance to rural telecommunications carriers as they 
seek to upgrade their networks for the provision of advanced services 
to their customers.
 the prohibition on the transfer of any unobligated balance of the rtb 
   liquidating account to the treasury and requiring the payment of 
              interest on these funds should be continued
    OPASTCO urges the Subcommittee to reinstate the language introduced 
in the fiscal year 1997 Agriculture Appropriations Act, and continued 
in the years following, prohibiting the transfer of any unobligated 
balance of the RTB liquidating account to the Treasury or the Federal 
Financing Bank which is in excess of current requirements and requiring 
the payment of interest on these funds. As a condition of borrowing, 
the statutory language establishing the RTB requires telephone 
companies to purchase Class B stock in the bank. Once all loans are 
completely repaid, a borrower may then convert its Class B stock into 
Class C stock. Thus, all current and former borrowers maintain an 
ownership interest in the RTB. As with stockholders of any concern, 
these owners have rights which may not be abrogated. The Subcommittee's 
inclusion of the aforementioned language into the fiscal year 2002 
appropriations bill will ensure that RTB borrowers are not stripped of 
the value of this required investment.
 the distance learning and telemedicine program should continue to be 
                       funded at adequate levels
    In addition to RUS's telecommunications loans and RTB programs, 
OPASTCO supports adequate funding of the distance learning and 
telemedicine grant and loan program. This sensible investment allows 
rural students to gain access to advanced classes which will help them 
prepare for college and jobs of the future. Also, rural residents will 
gain access to quality health care services without traveling great 
distances to urban hospitals. Loans are made at the government's cost-
of-money, which should help to meet demand for the program in the most 
cost effective way. In light of the Telecommunications Act's 
requirement that schools, health care providers, and libraries have 
access to advanced telecommunications services, sufficient targeted 
funding for these purposes is essential in fiscal year 2002.
                               conclusion
    The development of the nationwide telecommunications network into 
an information superhighway, as envisioned by policymakers, will help 
rural America survive and prosper in any market--whether local, 
regional, national, or global. However, without the availability of 
low-cost RUS funds, building the information superhighway in 
communities that are isolated and thinly populated will be untenable. 
By supporting the RUS telecommunications programs at the requested 
levels, the Subcommittee will be making a significant contribution to 
the future of rural America at a negligible cost to the taxpayer.
                                 ______
                                 

         Prepared Statement of the Red River Valley Association

    Mr. Chairman and members of the Committee, I am Wayne Dowd, and I 
am pleased to represent the Red River Valley Association as its 
President. Our organization was founded in 1925 with the express 
purpose of uniting the citizens of Arkansas, Louisiana, Oklahoma and 
Texas to develop the land and water resources of the Red River Basin.
    As an organization that knows the value of our precious water 
resources we support the most beneficial water and land conservation 
programs administered through the Natural Resources Conservation 
Service (MRCS). We understand how important a balanced budget is to our 
nation; however, we cannot sacrifice what has been accomplished. NRCS 
programs are a model of how conservation programs should be 
administered and our testimony will address the needs of the nation as 
well as our region. We strongly believe that this national program must 
be preserved.
    The President's fiscal year 2002 budget guideline for USDA 
indicates a reduction of 8\1/4\ percent from fiscal year 2001. If you 
do not consider the emergency funds for fiscal year then the fiscal 
year 2002 appropriation is approximately a 3 percent increase; however, 
even this does not cover cost of living and inflation increases. This 
could mean NRCS programs will not be adequately funded, to the 
detriment of the agency and our natural resources. We would like to 
address several of the programs administered by NRCS. Failure to 
adequately fund these initiatives would reduce assistance to those who 
want it and the resources that need it.
    Conservation Operations Budget.--This has been in steady decline, 
in real dollars, over the past several years. It has occurred partly as 
a result of funds being reduced from Conservation Operations to balance 
increases in other conservation financial assistance programs. 
Approximately $620 million was allocated for this account in fiscal 
year 2001. This is far short of what is required to serve the needs of 
our nation's private lands. We request a total of $965 million be 
appropriated for Conservation Technical Assistance.
    Conservation Technical Assistance is the foundation of technical 
support and a sound, scientific delivery system for voluntary 
conservation to the private users and owners of lands in the United 
States. It is imperative that we provide assistance to all ``working 
lands'' not just those fortunate few who are able to get enrolled in 
programs. Working lands are not just crops and pasture (commodity 
staples) but includes forests, wildlife habitat and coastal marshes. 
The problem is that personnel funded from ``programs'' can only provide 
technical assistance to those enrolled in these cost share programs, 
leaving the majority of the agricultural community without technical 
assistance. We recommend that this funding for technical assistance be 
placed in ``Conservation Technical Assistance'', and allow NRCS to 
provide assistance to everyone.
    It also appears the emphasis has been to increase `command and 
control' enforcement and reduce voluntary, science based assistance. 
This is the wrong way to go. We encourage you to reverse this trend and 
allow our agricultural community to have access to technology for 
voluntary conservation, rather than be harassed by the constant threat 
of regulations and penalties for noncompliance.
    Section 11 Caps.--Another factor that seriously reduces the ability 
of NRCS to meet the considerable public demand for technical 
assistance, is the Section 11 cap and the transfer of funds from the 
Community Credit Corporation (CCC). The CCC funds NRCS technical 
assistance for several programs, including EQIP and CRP. Currently, 
this cap prevents NRCS from covering its staff costs for these crucial 
programs. We support the removal of the Section 11 Cap on technical 
assistance, which was established before EQIP, CRP and VW were created. 
We will also be addressing this issue in the ``Farm Bill'', as it 
develops.
    Watershed and Flood Prevention Operations (Public Law 566 & 534).--
More than 10,400 individual watershed structures have been installed 
nationally. They have contributed greatly to conservation, 
environmental protection and enhancement, economic development and the 
social well being of our communities. More than half of these 
structures are over 30 years old and several hundred are approaching 
their 50-year life expectancy.
    Today you hear a lot about the watershed approach to resource 
management. These programs offer a complete watershed management 
approach and should continue for the following reasons:
  --They protect people and communities from flooding.
  --Their objectives and functions sustain our nation's natural 
        resources for future operations.
  --They are required to have local partners and be cost shared.
  --The communities and NRCS share initiatives and decisions.
  --They follow NEPA guidelines and enhance the environment.
  --They often address the need of low income and minority communities.
  --The benefit to cost ratio for this program has been evaluated to be 
        2.2:1.
    What other Federal programs can claim such success?
    There is no questioning the value of this program. The cost of 
losing this infrastructure exceeds the cost to reinvest in our existing 
watersheds. Without repairing and upgrading the safety of existing 
structures, we miss the opportunity to keep our communities alive and 
prosperous. It would be irresponsible to dismantle a program that has 
demonstrated such great return and is supported by our citizens.
    It was a great step forward to have the ``Lucas Bill'' passed last 
year, now adequate appropriations must be provided. A 1999 survey, 
conducted in 22 states, showed that 2,200 structures are in need of 
immediate rehabilitation at an estimated cost of $543 million. The 
funding level authorized in the bill is far short of this realistic 
need. We request that $5 million be appropriated for NRCS to conduct 
assessments of the rehabilitation needs nationwide. We request that 60 
million be appropriated to provide financial and technical assistance 
to those watershed projects where sponsors are prepared to commence 
rehabilitation measures.
    In addition to the needs for reinvesting in existing infrastructure 
there are many new projects, which are awaiting funds for construction. 
We strongly recommend that a funding level of 250 million be 
appropriated for the Public Law 534 ($30 million) and Public Law 566 
($220 million) proprams. This is realistic and comparable to 
appropriations in years prior to 1994.
    Emergency Watershed Protection Program.--This program comes under 
Watershed and Flood Prevention Operations, but is a separate line item. 
It has traditionally been a zero budget line item; however, there will 
always be emergency needs.
    As our land use expands to include sensitive environmental 
ecosystems, major weather events will have an adverse impact requiring 
NRCS assistance; therefore, it should be funded up front. It is 
important that NRCS is prepared for a rapid response, not waiting for 
legislative action. With funds available, they can respond immediately 
to an emergency when it occurs.
    We request that a minimum of $100 million be appropriated for this 
program in fiscal year 2002 and are not taken from elsewhere in the 
NRCS budget. In fiscal year 2000 $80 million was added and in fiscal 
year 2001 $110 million. It is inevitable that emergency funds will be 
required, so this should be included.
    Conservation Reserve Program (CRP).--This program, administered by 
Farm Services Agency, impacts NRCS the most. NRCS is reimbursed for 
providing technical assistance for this program. We understand the 
Administration is considering termination of this program since the 
original goals have been met. It restores the land to a higher and 
better use until such time as the nation may need it for food and fiber 
production. The environmental values gained from CRP should obviate the 
need and justify the investment of raising the CRP cap.
    We ask Congress to take the initiative to increase the CRP 
enrollment cap to a minimum of 45 million acres. This is an extremely 
beneficial program to both our nation and the Red River Valley, and 
should not be allowed to expire. It provides a safety net to those 
farmers trying to make a living on the marginal lands most suited for 
this program.
    Watershed Survey and Planning.--In fiscal year 2001 $11 million was 
appropriated to support this extremely important community program. 
NRCS has become a facilitator for the different community interest 
groups, state and Federal agencies. In our states such studies are 
helping identify resource needs and solutions where populations are 
encroaching into rural areas.
    As our municipalities expand, the water resource issue tends to be 
neglected until a serious problem occurs. Proper planning and 
cooperative efforts can prevent problems and insure that water resource 
issues are addressed. We request this program be funded at a level of 
$25 million.
    Forestry Incentives Program.--Congress transferred this program to 
NRCS from the Farm Service Agency as a restructuring in the Federal 
Agricultural Improvement and Reform Act of 1996. Forestry on small, 
privately owned lands is recognized as a farming activity. NRCS is the 
best agency to administer this program, which assists farmers in 
production agriculture. It is more than just a timber production 
program. Forests are the most effective use of land as they relate to 
water quality, non-point source pollution, air quality, greenhouse gas 
reduction and wildlife habitat.
    We request Congress fund the Forestry Incentives Program at a level 
of $6.5 million for fiscal year 2002.
    Environmental Quality Incentives Program (EQIP).--Request for 
assistance through the EQIP program has been overwhelming. Requests far 
exceed the available funds and place an additional workload on NRCS's 
delivery system. Additionally, adequate funding for technical 
assistance must be provided to administer the program at a minimum of 
19 percent of total program cost.
    The EQIP program for fiscal year 2002 should be appropriated $300 
million and the technical assistance budgeted at $57 million to meet 
the 19 percent TA level.
    Wetlands Reserve Program (WRP).--This is a very popular and 
important program. It serves as a safety net to those farmers trying to 
make a living on marginal lands. It also addresses a variety of 
conservation needs, from water quality to global warming.
    We strongly recommend that the cap be raised by 250,000 acres for 
fiscal year 2002. This will allow the program to continue until fiscal 
year 2003 when a reauthorization for the program can be made.
    ``Red Bayou Irrigation Demonstration Project''.--Findings in the 
Natural Resources Inventory (NRI) have concluded that irrigated 
agriculture is moving from western states to the east. A prime example 
of this is the interest to irrigate along the Red River in Arkansas and 
Louisiana. The recent drought conditions have accelerated the efforts 
of different regions to form irrigation districts and start the process 
to install systems. The farmers along Red Bayou, Caddo Parish, 
Louisiana, have been very aggressive in their attempts to become 
operational. We request that this project be ``earmarked'' as a 
demonstration project to be used as a model throughout the Red River 
Valley. When the cost for this irrigation system has been determined 
and the irrigation district formed, we will request maximum Federal 
participation for the funding of this endeavor.
    Over 70 percent of our land is privately owned. This is important 
in order to understand the need for NRCS programs and technical 
assistance. Their presence is vital to ensuring sound technical 
standards are met in conservation. These programs not only address 
agricultural production, but sound natural resource management. Without 
these programs and NRCS properly staffed to implement them, many 
private landowners will not apply conservation measures needed to 
sustain our natural resources for fixture generations.
    There have been new clean water initiatives, but why do we ignore 
the agency that has a proven record for implementing watershed 
conservation programs? Congress must decide: will NRCS continue to 
provide the leadership within our communities to build upon the 
partnerships already established? It is up to Congress to insure NRCS 
is properly funded and staffed to provide the needed assistance to our 
taxpayers for conservation programs. Funding Conservation Technical 
Assistance at $965 million and eliminating the Section 11 Caps will go 
a long way in accomplishing this.
    All these programs apply to the citizens in the Red River Valley 
and their future is our concern. The RRVA is dedicated to work toward 
the programs that will benefit our citizens and provide for high 
quality of life standards. We therefore request that you appropriate 
the requested funding within these individual programs, to insure our 
nation's conservation needs are met.
    I thank you for the opportunity to present this testimony on behalf 
of the members of the Red River Valley Association and we pledge our 
support to assist you in the appropriation process.
    Grant Disclosure.--The Red River Valley Association has not 
received any Federal grant, sub-grant or contract during the current 
fiscal year or either of the two previous fiscal years.
                                 ______
                                 

          Prepared Statement of the Seminole Tribe of Florida

    The Seminole Tribe of Florida is pleased to submit this statement 
regarding the fiscal year 2002 budget for the Natural Resources 
Conservation Service (NRCS) in the Department of Agriculture.
    The Seminole Tribe of Florida asks that Congress earmark a total of 
$400,000 in the Natural Resources Conservation Service's (NRCS) account 
that funds the Small Watershed Program, as authorized by Public Law 83-
566, for design and construction of a portion of the Tribe's Water 
Conservation Plan on the Big Cypress Reservation. The Tribe requests 
$300,000 for financial assistance for construction and $100,000 for 
technical assistance (08 funds) for operational planning. The Tribe has 
worked with the NRCS in Florida for five years to develop this small 
watershed project as a part of the Tribe's overall Everglades 
Restoration Initiative. The results of this small watershed project 
will complement the joint effort of the Tribe and the Corps of 
Engineers to complete the Initiative. This is the first year in which 
the Tribe has requested funding for this project.
    In addition, the Tribe supports full funding for NRCS's 
Conservation Operations--01 Partnership. The Seminole Tribe's 
agricultural enterprises and environmental programs benefit from the 
technical assistance the NRCS provides through its Conservation 
Operations Partnership. The Tribe works closely with the Florida State 
Conservationists on a number of 1996 Farm Bill programs and anticipates 
increased technical assistance needs in the coming fiscal year.
                     the seminole tribe of florida
    The Seminole Tribe lives in the Florida Everglades. The Big Cypress 
Reservation is located in the western basins, directly north of the Big 
Cypress National Preserve. The Everglades provide many Seminole Tribal 
members with their livelihood. Our traditional Seminole cultural, 
religious, and recreational activities, as well as commercial 
endeavors, are dependent on a healthy Everglades ecosystem. In fact, 
the Tribe's identity is so closely linked to the land that Tribal 
members believe that if the land dies, so will the Tribe.
    During the Seminole Wars of the 19th Century, our Tribe found 
protection in the hostile Everglades. But for this harsh environment 
filled with sawgrass and alligators, the Seminole Tribe of Florida 
would not exist today. Once in the Everglades, we learned how to use 
the natural system for support without harm to the environment that 
sustained us. For example, our native dwelling, the chickee, is made of 
cypress logs and palmetto fronds and protects its inhabitants from the 
sun and rain, while allowing maximum circulation for cooling. When a 
chickee has outlived its useful life, the cypress and palmetto return 
to the earth to nourish the soil.
    In response to social challenges within the Tribe, we looked to our 
Tribal elders for guidance. Our elders taught us to look to the land, 
for when the land was ill, the Tribe would soon be ill as well. When we 
looked at the land, we saw the Everglades in decline and recognized 
that we had to help mitigate the impacts of man on this natural system. 
At the same time, we acknowledged that this land must sustain our 
people, and thereby our culture. The clear message we heard from our 
elders and the land was that we must design a way of life to preserve 
the land and the Tribe. Tribal members must be able to work and sustain 
themselves. We need to protect the land and the animals, but we must 
also protect our Tribal farmers and ranchers.
    Recognizing the needs of our land and our people, the Tribe, along 
with our consultants, designed a plan to mitigate the harm to the land 
and water systems within the Reservation while ensuring a sustainable 
future for the Seminole Tribe of Florida. The restoration plan will 
allow Tribal members to continue their farming and ranching activities 
while improving water quality and restoring natural hydroperiod to 
large portions of the native lands on the Reservation and ultimately, 
positively effecting the Big Cypress National Preserve and Everglades 
National Park.
    The Seminole Tribe's Big Cypress Initiative addresses the 
environmental degradation wrought by decades of Federal flood control 
construction and polluted urban and agricultural runoff. The 
interrupted sheet flow and hydroperiod have stressed native species and 
encouraged the spread of exotic species. Nutrient-laden runoff has 
supported the rapid spread of cattails, which choke out the periphyton 
algae mat and sawgrass necessary for the success of the wet/dry cycle 
that supports the wildlife of the Everglades.
    The Seminole Tribe designed an Everglades Restoration Initiative to 
allow the Tribe to sustain ourselves while reducing impacts on the 
ecosystem. The Seminole Tribe is committed to improving the water 
quality and flows on the Big Cypress Reservation. We have already 
committed significant resources to the design of the projects and to 
our water quality data collection and monitoring system. Within the 
next few months, the Tribe will begin construction on the conveyance 
system that will serve as the backbone to Big Cypress water control 
system. We are willing to continue our efforts and commitment of 
resources, for our cultural survival is at stake.
                 small watershed project on big cypress
    As a part of the Tribe's Everglades Restoration Initiative, the 
Tribe completed a water conservation plan for the design and 
construction of surface water management systems to remove phosphorus, 
convey and store irrigation water, improve flood control, and rehydrate 
the Big Cypress National Preserve. This water conservation plan has 
been permitted for construction under the Clean Water Act Section 404 
program.
     Through the Corps of Engineers (COE) critical project program 
authorized by the Water Resources Development Act of 1996, the Tribe is 
building part of that water conservation plan. The first phase of the 
critical project is to construct a conveyance canal system that will 
supplement and improve the existing system. The balance of the critical 
project will construct water storage and treatment areas on the east-
side of the Reservation.
    Over the last five years, the Tribe has enjoyed the support of the 
Florida State Conservationist and the Florida staff of the NRCS in the 
development of a small watershed project to address some needs 
identified in the water conservation plan. While some preliminary 
planning has been completed, an existing funding commitment prevented 
commencement of the small watershed project until fiscal year 2002. In 
fiscal year 2002, both the Tribe and the NRCS in Florida are prepared 
to begin design and construction of water storage and treatment areas 
on the west-side of the Reservation. To do so, Congress must 
appropriate the initial funding.
    While all the project component options have not been fully vetted, 
the cost estimates range from downward from $34.6 million. This project 
is approved to operate with a 75 percent Federal and 25 percent Tribal 
cost share. The timing of the design and construction are dependent on 
the funding stream.
                               conclusion
    Everglades restoration is a well-recognized national priority. The 
Tribe's goal of sustainable agriculture is consistent with the goals of 
the NRCS. The NRCS's support of the Tribe's conservation measures in 
the past, along with the implementation of future programs, will make a 
significant impact on the Big Cypress Reservation and the South Florida 
Ecosystem.
    Through its assistance to the Tribe, NRCS has provided valuable 
technical assistance to date. Beginning in fiscal year 1999, NRCS has 
provided programmatic support through EQIP and WRP, which is 
anticipated to continue. Additional programmatic assistance through the 
small watershed program will provide the needed design and construction 
to complete the water conservation plan None of the joint objectives of 
the Tribe and the NRCS can be accomplished, however, without sufficient 
funding.
    The Tribe has demonstrated its economic commitment to the 
Everglades Restoration effort; the Tribe is asking the Federal 
government to also participate in that effort. This effort benefits not 
just the Seminole Tribe, but all Floridians who depend on a reliable 
supply of clean, fresh water flowing out of the Everglades, and all 
Americans whose lives are enriched by this unique national treasure.
    Thank you for the opportunity to present the request of the 
Seminole Tribe of Florida. The Tribe will provide additional 
information upon request.
                                 ______
                                 

  Prepared Statement of the Society for Animal Protective Legislation

    We appreciate the support this Subcommittee has provided to these 
programs of the United States Department of Agriculture (USDA) and 
respectfully request the following modest appropriations to ensure the 
protection of animals and people and that the laws passed by Congress 
are being carried out effectively.
    A $14.5 Million Appropriation is Needed for APHIS/Animal Care's 
Enforcement of the Animal Welfare Act
    A coalition of organizations including the American Veterinary 
Medical Association, the American Zoo and Aquarium Association and the 
Society for Animal Protective Legislation has joined together seeking 
adequate funds for enforcement of the Animal Welfare Act (AWA). This 
represents a unique meeting of the minds between the regulated 
community and the animal welfare community, who recognize the desperate 
need for increased funding for this vital program.
    The AWA is the chief Federal law for the protection of animals. The 
USDA seeks compliance with its minimum standards for the care and 
treatment of animals during transportation and at the approximately 
10,000 sites of dealers, research, testing and teaching facilities, 
zoos, circuses, carriers (airlines, motor freight lines and other 
shipping businesses) and handlers (ground freight handlers).
    Forty-two percent of the facilities that are inspected by USDA are 
found to be noncompliant. Facilities with serious deficiencies require 
reinspections to ensure that corrective action is taken, but lack of 
funds has prevented USDA from conducting this much-needed follow-up.
    In 1966 the Laboratory Animal Welfare Act (later renamed the Animal 
Welfare Act) was adopted in an effort to prevent the sale of lost or 
stolen pets into research. Nevertheless, this has continued to be a 
serious problem. In an attempt to address this problem in the 1990s, 
APHIS Animal Care (AC) instituted a policy of conducting quarterly 
inspections of random source dealers. Since stepping up its enforcement 
in this area (which has come at the expense of inspections conducted 
elsewhere), USDA has revoked 11 dealer licenses and imposed more than 
$500,000 in fines. The number of random source (USDA licensed Class B) 
dealers supply dogs and cats to research has dropped from 104 to 23.
    This example illustrates the value of frequent, unannounced 
inspection of licensees and registrants. Increasing the number of 
inspections will ensure effective compliance with the law. Facilities 
need to comply with the minimum standards under the law, or they should 
not be operating businesses that involve the use of animals under the 
AWA.
    The 1985 amendment to the AWA mandates at least one inspection per 
year of all registered research facilities. A vigorous inspection 
program is critical to maintaining public confidence in the quality of 
research and ensuring the humane treatment of experimental animals. 
With the need to evaluate performance, as well as engineering, 
standards, each inspection is timeconsuming and necessitates skilled 
veterinary inspectors.
    Increased funding will permit AC to hire and equip more inspectors, 
and thereby increase the number of facilities that are inspected. 
Additional training of inspectors to improve the quality of their 
inspections will be possible, too. AC will be able to increase its 
searches for unlicensed facilities, an important effort because failure 
to obtain licensure is a widespread problem with many entities 
purposefully evading AC and the requirements of the AWA. An area 
frequently ignored for lack of sufficient funds has been inspection of 
airlines. Increased funding will permit AC to conduct an adequate 
number of inspections of airlines in an effort to protect against the 
injury, loss or death of animals being transported by air and to help 
meet the requirements of the recently adopted Federal Aviation 
Administration amendment for safe transport of animals by air.
    An Appropriation of $7.263 is needed for APHIS' Investigative and 
Enforcement Services.
    Investigative and Enforcement Services (IES), the enforcement arm 
within APHIS, is responsible for conducting investigations, tracking 
unresolved cases, coordinating investigations within APHIS and between 
APHIS and other Federal and/or state agencies and train APHIS 
inspectors in the collection of evidence and documentation of 
violations. IES provides support to AC and to three other APHIS 
programs.
    An increased appropriation is needed for IES to provide timely and 
complete investigations of alleged AWA violations. A $1 million 
increase will enable IES to fill a critical vacancy for an enforcement 
specialist and to continue to support four field investigators, now 
temporarily funded by the APHIS Administrator. IES would also fill four 
new field positions strategically located in the states with the 
greatest need. Additional funds to IES will: permit deployment of 
``quickresponse'' teams to address high-priority/visibility violations, 
permit implementation of an electronic case report format to accelerate 
case routing and processing, reduce the time to complete 
investigations, and allow investigators to accompany AC inspectors to 
noncompliant facilities when necessary.
    A $1 Million Appropriation is needed for the Animal Welfare 
Information Center with a cap of 5 percent to Agriculture Research 
Services and/or the National Agricultural Library.
    The Animal Welfare Information Center (AWIC) was established by the 
1985 amendment to the Animal Welfare Act, the Improved Standards for 
Laboratory Animals Act, to serve as a clearinghouse and educational 
resource of information on alleviating or reducing pain and distress in 
experimental animals (including anesthetic and analgesic procedures), 
reducing the number of animals who must be used for research and 
identifying alternatives to the use of animals for specific research 
projects.
    AWIC is the single most important resource for educating research 
facility personnel on their responsibilities under the AWA. There are 
more than 1,200 registered research facilities nationwide, and the 
services of the AWIC are available to all individuals at these 
institutions including the members of the Institutional Animal Care and 
Use Committees.
    The AWIC staff, four full-time professionals, one technician and 
two part-time professionals, respond to requests for information on 
topics covered by the AWA including alternatives to painful procedures, 
unproved methodologies, training, environmental enrichment for nonhuman 
primates, and checking for unintended duplication. The staff conducts 
training, present at meetings, exhibit at conferences, produce 
documents, maintain a website and work on special projects.
    The AWIC website (http://www.nal.usda.gov/awic), which receives 
approximately 45,000 hits per month, is a growing medium of information 
dissemination that needs to be expanded and updated. Annually the AWIC 
staff fills about 20,000 requests for specific publications and has 
provided reference services in response to more than 1,500 requests.
    The AWIC appropriation has remained at $750,000 since it 
establishment 15 years ago, and over time this has increasingly 
restricted the services that AWIC is able to provide. In addition, the 
National Agricultural Library (NAL) and the Agriculture Research 
Service (ARS) have been collecting ``overhead'' from AWIC, leaving the 
Center with a mere $365,000 to operate-less than half of their 
appropriation! This siphoning off of AWIC's resources warrants an 
inquiry. A cap on monies provided to ARS and NAL is needed.
    Additional funds will permit AWIC to sponsor workshops in different 
regions of the country and to develop web-based interactive training 
modules to educate the regulated community and thereby increase 
compliance with the Animal Welfare Act. The website would be expanded 
with additional material and an updated search engine to maximize the 
data available and the efficiency of obtaining it.
    A $500 thousand Appropriation is needed for APHIS/Animal Care's 
Enforcement of the Horse Protection Act
    Congress adopted the Horse Protection Act (HPA) more than 30 years 
ago yet soring of Tennessee Walking Horses continues to be a widespread 
problem. Soring is defined by APHIS as ``the application of any 
chemical or mechanical agent used on any limb of a horse or any 
practice inflicted upon the horse that can be expected to cause it 
physical pain or distress when moving.'' Horses are sored to produce an 
exaggerated gait.
    The most effective method of reducing the showing of horses who 
have been sored is to have Animal Care (AC) inspectors present at the 
shows. AC has been restricted to attending about 10 percent of horse 
shows because of insufficient funds. Unless funding is provided to 
enable AC to attend more events, the industry will continue to defy the 
law with impunity. Certain members of the Walking Horse industry with a 
careless disregard for the HPA have utilized a variety of strategies to 
prevent fair and proper enforcement of this law. The current effort to 
undermine the law is to deny inspectors the ability to use digital 
palpation of the pastern to determine soreness in horses. Use of 
digital palpation, an accepted veterinary diagnostic technique, is 
vital to AC's ability to enforce the law.
    Lack of financial support has made it necessary for AC to rely 
heavily on the industry to assume responsibility for enforcement of the 
law. This is the same industry that has turned a blind eye to 
compliance with the law since 1970! ``Designated Qualified Persons'' 
(DQPs) are the ``inspectors'' from industry who are supposed to assist 
AC in identifying sore horses and pursuing action against the 
individuals who are responsible. The history of DQPs reveals their 
failure to achieve the level of enforcement of the unbiased, well-
trained, professional AC inspectors. The gap is widening between the 
enforcement when AC inspectors are present versus the level of 
enforcement by unsupervised DQPs, clearly demonstrating the abysmal 
failure of the industry to regulate itself. For example, in fiscal year 
1999 the rate at which DQPs turned down horses for soring was .44 
percent. The turndown rate more than tripled to 1.49 percent when 
government inspectors were present to oversee the activities of the 
DQPs. The record was still worse for certain Horse Industry 
Organizations like the Kentucky Walking Horse Association; there was a 
nearly 12-fold increase in horses who were turned down for soring when 
AC inspectors were present as compared to when DQPs were unsupervised!
    We respectfully request that the Subcommittee resist all efforts by 
the industry to restrict AC's ability to enforce the Horse Protection 
Act. An increase in appropriations to $500,000 would permit AC to 
attend a greater percentage of horse shows, thereby ensuring 
significantly stronger compliance with the HPA.
    A $16.2 Million Appropriation is needed for Wildlife Services' Oral 
Vaccine Effort Against Rabies.
    Wildlife Services (WS) has been involved in a wildlife rabies 
vaccine program which uses treated baits in an effort to curb the 
spread of rabies. An appropriation of $16.2 million is needed to 
continue the expansion of regional barriers. Resources'should be 
maximized to address the rabies threat. We encourage that full funding 
be provided for this critical effort: $7.8 million through legislative 
appropriations and $8.4 million through the Commodity Credit 
Corporation. These funds will be used to assist participating states 
by: (1) continuing the vaccination program in Texas to control and 
eliminate gray fox rabies, while maintaining an effective barrier to 
prevent the reintroduction of canine rabies in coyotes, (2) maintaining 
the vaccination barrier in Ohio and West Virginia to keep raccoon 
rabies from advancing along the Ohio River Valley, (3) increasing 
existing vaccination barrier zones and establishing new critical 
barriers in the New England States and New York State to contain 
raccoon rabies and to establish raccoon rabies-free areas in the 
northeastern United States, with the ultimate goal of merging regional 
programs in Ohio and New York State, and (4) establishing a regional 
vaccination barrier program in the Southeastern United States to 
prevent the westward spread of raccoon rabies through Alabama and 
Louisiana.
    Congress needs to provide increased Oversight of Wildlife Services' 
Operations and Research.
    Wildlife Services (WS) needs to utilize a variety of tools for 
management of wildlife under its purview. However, it is essential that 
these tools are effective and publicly acceptable.
    WS needs to begin a phase out of steel jaw leghold traps. Leghold 
traps slam shut with bonecrushing force on the limbs of their victims, 
tearing ligaments and tendons, severing toes and causing excruciating 
pain. These traps, opposed by the vast majority of Americans, have been 
condemned as ``inhumane'' by the American Veterinary Medical 
Association, the American Animal Hospital Association and the World 
Veterinary Association. On December 11, 1997, the U.S. Government 
reached an ``understanding'' with the European Union in which the U.S. 
agreed to phase out use of ``conventional steel jawed leghold 
restraining traps.'' WS has the responsibility of complying with the 
U.S. obligation by ending its use of these barbaric devices.
    WS should begin by immediately prohibiting use of leghold traps for 
3 species for which there is extensive documentation that effective, 
publicly acceptable, less cruel alternatives exist. These species are 
raccoon, beaver and opossum. While we believe that this policy should 
extend to all species, there is no justification for refusing to 
implement this modest step in alleviating unnecessary animal suffering 
at once.
    WS should pursue no further testing of leghold traps as this would 
be an extremely wasteful use of taxpayer money and cause unnecessary 
animal cruelty. Previously, funds designated for trap research were 
merely passed on to a nongovernmental organization to utilize as it saw 
fit, without involvement and oversight from WS. If funds are allocated 
for trap testing, WS should conduct the research since the agency has 
the appropriate technical expertise.
    Further, WS should adopt a policy of checking all restraining traps 
within a 24-hour period. A wealth of scientific studies documents the 
fact that the longer an animal is in a restraining trap, the greater 
the injury. For this reason, the majority of states have a daily trap 
check requirement. Animals should not be subjected to long-drawn out 
pain because of a failure to assume the responsibility of carefully 
checking traps every day. This policy will help reduce the trauma 
experienced by non-target animals, too, ensuring that more of these 
animals will be able to be released alive.
                                 ______
                                 

         Prepared Statement of the Texas A&M University System

    Mr. Chairman and members of the Committee, I am Ed Hiler, Vice 
Chancellor for Agriculture and Life Sciences in The Texas A&M 
University System. I appreciate the opportunity to describe a few 
exciting research projects we have underway, and to ask for your 
support for continued Federal funding. New technology is the life blood 
of American agriculture. With the 1996 Farm Bill and resulting phase 
down in Federal farm programs, it is imperative that research continues 
providing a technological underpinning for agriculture. Today, I will 
briefly describe several examples of how we can provide this 
underpinning to benefit both agriculture and consumers.
 developing fruits, vegetables and other food plants for prevention of 
                       life-threatening diseases
    I want to begin by describing an exciting research area that is 
joint between agriculture and medicine. Diet- related diseases--certain 
kinds of cancer, heart disease, stroke, atherosclerosis, and diabetes 
mellitus--are leading causes of two-thirds of the 2 million deaths that 
occur in the United States each year. These diseases also have long 
term costs associated with lost productivity and disease treatment. 
Scientists are identifying plant ``phytochemicals'' in food plants that 
prevent these diseases. Plant breeders, biochemists, and 
biotechnologists are working to increase levels of the compounds 
through conventional breeding and new molecular techniques. Our 
objectives seek to reduce the risk of, or to slow or even prevent 
diseases such as cancer, heart disease, stroke, and atherosclerosis. 
Researchers at the Texas A&M Vegetable and Fruit Improvement Center, 
Institute of Food Science and Engineering, and the Borlaug Crop 
Biotechnology Center will work with fruit and vegetable producers, 
seeds producers, and food processors to develop commercially viable 
products available for all Americans. Scientists at the Texas A&M 
University-Kingsville Citrus Center, University of Texas Southwest 
Medical Center in Dallas, Texas A&M University Health Science Center, 
Baylor College of Dentistry, and South Carolina Cancer Center within 
the University of South Carolina will cooperate in designing improved 
food crops for prevention of diseases. Consumers, health care 
providers, farmers, and government will benefit from the production, 
consumption, and health effects of producing and consuming these 
improved plants. We are requesting increased funding for this important 
continuing project at $2,000,000 for fiscal year 2002.
pollutants, odor, and dust from concentrated animal feeding operations 
                      in the southern high plains
    The semiarid western United States of Texas, Kansas, Oklahoma and 
New Mexico produce over one-third nationally of beef and dairy cattle 
fed in confinement. The region likewise has experienced explosive 
growth of the dairy industry and large scale, multiple-site swine 
feeding operations. This industry growth has intensified public concern 
about effects of air pollution (noxious gases, odors and dust events) 
from these Concentrated Animal Feeding Operations, or CAFOs. To address 
public concern, the Texas A&M University System and Kansas State 
University propose to establish a national program for research and 
technology transfer of methodologies that agricultural producers, 
processors, and managers of CAFOs can use to economically comply with 
air pollution regulations mandated by the Federal Clean Air Act (FCAA) 
and required by State Air Pollution Regulatory Agencies (SAPRAs). The 
goal of this initiative will be a reduction of public exposure of 
pollutants from agricultural operations while minimizing the economic 
burden on managers of agricultural operations. We are requesting 
funding for this project at $1,000,000 for fiscal year 2002.
    increasing food safety through advanced molecular technologies ]
    Food safety is among the greatest concerns of the public, 
particularly safety of the nation's supply of meats, fruits, and 
vegetables. Foods contaminated with animal wastes and other sources of 
bacterial pathogens annually cause millions of illnesses and thousands 
of deaths. In this initiative, we are seeking appropriations to develop 
and test the application of advanced molecular technologies for 
enhancing the safety of the nation's food supply. New and rapidly 
advancing molecular technologies promise to make possible the early and 
economical tracking and investigation of such pathogens. They also will 
significantly increase our ability to determine sources of outbreaks 
and to anticipate the effects of food production and processing 
practices on the ability of these organisms to cause disease. The Texas 
and Iowa Agricultural Experiment Stations and Texas Tech University 
propose cooperative public-private research needed to put such 
technologies in place throughout the nation and the world. The 
requested resources will strengthen coordination among Iowa State 
University, the Institute of Food Science and Engineering at Texas A&M 
University, and The Center for Research on Animal Production Issues at 
Texas Tech University. We estimate that implementing this initiative 
will begin a process that reduces numbers of medical cases associated 
with food borne pathogens by 210,000 and the numbers of deaths by 380. 
We are requesting funding for this project at $1,250,000 for fiscal 
year 2002.
 protecting u.s. agriculture from bio-terrorism and exotic bio-invaders
    Bio-terrorism is a significant threat to the U.S. agricultural 
system and the U.S. food supply. The threat of biological weapons 
during the Gulf War, the planned use of chemical and biological agents 
by terrorists in Japan's subways, and a deeper understanding of the 
former USSR's bio-weapons program, underscores the potential threat of 
bio-terrorism to the U.S. population, its food supply, and the entire 
U.S. agricultural system. Genetically engineered bio-agents greatly 
expands the list of naturally occurring biological invaders and 
underscores the importance of early detection of bio-agents introduced 
into the U.S. from other parts of the world. An integrated system for 
protecting U.S. agriculture and its food supply against the threat of 
bioterrorism is recognized as an increasingly high priority addition to 
similar systems for protecting humans and cyberspace. The system will 
also work for natural or accidental outbreaks of animal and plant 
disease resulting from introduction of exotic bio-agents. The proposed 
agricultural bio-security system will include a surveillance network 
using GPS and satellite imaging technology, field and laboratory based 
diagnostic capacity deploying DNA-chip technology to identify and 
characterize bio-agents, and a geo-referenced information system for 
predicting and tracking the spread of bio-agent after introduction. The 
system will include means to support intervention and mitigation 
following attack. We will develop the system in partnership with the 
USDA's Agricultural Research Service, other universities, and the 
private sector. We are requesting funding for this project at 
$7,000,000 for fiscal year 2002.
    The next few initiatives are collaborative efforts that are 
currently funded. This funding is greatly appreciated. My purpose in 
commenting on each initiative is to urge their continued funding in 
this next fiscal year.
  efficient irrigation for water conservation in the rio grande basin
    Recent drought conditions in the border region of the Rio Grande 
Basin highlight the importance of ample water resources for the 
region's economy and environment. More efficient agricultural and urban 
irrigation systems can conserve large amounts of water that can be used 
for other purposes. The objective of this two- state initiative is to 
increase the efficiency of agricultural and urban landscape irrigation 
and encourage development of efficient water markets in the basin. We 
are requesting continued funding for this project at $3,750,000 for 
fiscal year 2002.
                         animal fiber research
    We seek appropriations to continue wool, mohair and cashmere 
research that will stabilize and increase the profitability of the 
sheep, Angora, and cashmere goat industries in the United States and 
Texas while providing U.S. consumers with high quality animal fibers at 
internationally competitive prices. In this three- state initiative, 
emphasis will be placed on the development and expanded use of 
objective fiber measurements in the areas of nutrition, management, 
selection, harvesting, and marketing. We are requesting funding for 
this project at $300,000 for fiscal year 2002.
               farm-level impacts of agricultural policy
    We need continued funding to conduct agricultural policy research 
that directly supports congressional committees involved in setting 
agricultural policy. This two-state research activity emphasizes the 
regional and farm-level effects of alternative agricultural policies on 
crop producers. Monitoring performance at the farm level continues to 
be particularly critical as government explores its role in providing 
an income safety net for American agriculture. We are requesting 
funding for this project at $750,000 for fiscal year 2002.
                  livestock and dairy policy analysis
    We need funds to allow Texas A&M University and Cornell University 
to conduct agricultural policy research on the livestock and dairy 
industries that will assist congressional committees in developing new 
legislation for agricultural programs. We will analyze legislative 
options to determine policy impacts on various sectors of the 
agricultural economy, markets and land prices. Monitoring the 
performance of the dairy sector at the farm level will be particularly 
critical at a time of regulatory dairy policy reform mandated by the 
1996 Farm Bill and government roles in providing an income safety net 
for American agriculture. We are requesting funding for this project at 
$925,000 for fiscal year 2002.
                   center for north american studies
    This two-state funding initiative, which has received continual 
support from Congress since fiscal year 1994, would continue and expand 
the programs of the Center for North American Studies headquartered in 
The Texas A&M University System. The Center provides leadership for the 
promotion of stronger agricultural relationships among Canada, Mexico 
and the United States through cooperative study, research, policy 
analysis and training. We are requesting funding for this project at 
$925,000 for fiscal year 2002.
                      shrimp aquaculture research
    Federal support is needed to maintain continued funding for ongoing 
efforts and to expand programs of the U.S. Marine Shrimp Farming 
Program (USMSFP). This program, currently funded by the USDA/
Cooperative State Research, Extension and Education Service (CSREES) 
through the Oceanic Institute in Hawaii and the Gulf Coast Research 
Laboratory Consortium as based in the Texas Agricultural Experiment 
Station and The Texas A&M University System Agriculture Program. We are 
requesting funding for this project at $5,000,000 for fiscal year 2002.
       international goat research at prairie view a&m university
    Congressional funds are sought to continue the effort supporting 
dairy and meat goat research at the International Goat Research Center 
at Prairie View A&M University, a member of The Texas A&M University 
System. We are requesting funding for this project at $750,000 for 
fiscal year 2002.
    new products from rangelands at texas a&m university-kingsville
    Congressional funds are sought to continue research efforts to 
support the commercialization of new industrial and food crops from 
native plants--such as cacti and mesquite--from arid lands, greatly 
benefitting Americans who live in the southwestern United States. We 
are requesting funding for this project at $120,000 for fiscal year 
2002.
        southern plains cotton research and education consortium
    The cotton industry in the Southern Plains is under unprecedented 
stress from declining prices due to strong global competition, improved 
boll weevil management, and increased cotton acreage in the 
southeastern U. S. An agricultural research and education consortium 
composed of Texas Tech University, the Texas Agricultural Experiment 
Station, the Texas Agricultural Extension Service, and USDA 
Agricultural Research Service has been formed to address these 
challenges in the Southern Plains. The consortium proposes to initiate 
a five-year, $27.5 million program to increase profits of Southern 
Plains cotton farmers and processors. The effort will accomplish its 
goal by developing and disseminating improved cotton germplasm, crop 
management practices, pest control programs, textile processing 
technologies, and marketing programs. We are requesting funding for 
this project at $5,500,000 for fiscal year 2002.
           agriculture and the environment--landscape issues
    The focus of the Texas Institute for Applied Environmental Research 
is on agriculture and the environment. Funding for this initiative will 
be used to continue development of (1) conceptual approaches that can 
be used to resolve environmental problems in agriculture while 
maintaining the competitiveness of the industry, (2) modeling tools 
that analyze policy alternatives to determine their effectiveness in 
achieving environmental objectives and their economic impacts on the 
targeted industry, and (3) implications of smart growth initiatives on 
production agriculture. We are requesting funding for this project from 
USDA at $1,500,000 for fiscal year 2002.
                                 ______
                                 

            Prepared Statement of the U.S. Apple Association

    The U.S. Apple Association (USApple) appreciates the opportunity to 
provide this testimony on behalf of our nation's apple industry.
    Our testimony will focus on the following three areas: the Market 
Access Program (MAP); Food Quality Protection Act (FQPA) 
implementation; and Agricultural Research Service (ARS) funding.
    USApple is the national trade association representing all segments 
of the apple industry. Members include 40 state and regional apple 
associations representing the 9,000 apple growers throughout the 
country as well as more than 500 individual firms involved in the apple 
business. Our mission is to provide the means for all segments of the 
U.S. apple industry to join in appropriate collective efforts to 
profitably produce and market apples and apple products.
    Assistance for Apple Growers.--USApple urges Congress to provide 
apple growers with fair and equitable inclusion in any farm relief 
program that may help apple growers survive the current devastating 
economic crisis.
    Apple growers lost an estimated $760 million between 1995 and 1998 
due to unfairly priced imports of apple juice concentrate, adverse 
weather conditions, continuing retail consolidation and rising 
regulatory costs among other factors beyond their control. Current 
apple prices, which are as much as 40 percent below grower production 
costs, are pushing apple growers deeper into financial crisis.
    Congress provided $100 million in market loss assistance and $38 
million in crop loss assistance for apple growers as part of the fiscal 
2001 Agricultural Appropriations act (Public Law 106-387). It provides 
Commodity Credit Corporation funds to compensate apple growers for 
recent devastating market and crop losses. However, this assistance is 
not adequate to sustain America's apple growers through the current 
economic crisis.
    Market Access Program (MAP).--USApple strongly supports increasing 
the annual appropriation for MAP from $90 million to $200 million.
    All segments of the U.S. apple industry benefit directly from the 
use of export promotion funds, which increase export demand. In fiscal 
year 2001, the apple industry received approximately $3 million in MAP 
export-development funds. These funds are matched by grower funds, and 
are used to promote apples in more than 20 countries throughout the 
world. Since 1987, when the apple industry first utilized MAP funds, 
apple exports have increased by 49 percent.
    The U.S. apple industry faces keen competition around the globe 
from competitors who receive significant government funds for generic 
promotions. The governments of our foreign competitors spend 
approximately $500 million on export promotion and market development. 
It has become increasingly difficult for U.S. exporters to compete with 
European and Chinese producers who receive massive government 
assistance. Increased funding for this critical program will assist 
U.S. apple producers to better compete and revive export demand in 
countries recently hit by adverse economic conditions.
    Food Quality Protection Act (FQPA) Implementation.--USApple 
strongly supports full funding for the following programs intended to 
facilitate fair FQPA implementation and to offset its anticipated 
negative impact on apple growers.
    Specifically, USApple supports the U.S. Department of Agriculture's 
following budget requests.
  --$20 million for the Pesticide Data Program, administered by the 
        Agricultural Marketing Service (AMS);
  --$7.3 million for the National Agricultural Statistics Service 
        (NASS) pesticide-usage surveys;
  --$2.6 million for the Office of Pest Management Policy administered 
        by the Agricultural Research Service (ARS);
  --$4.1 million for minor-use registration of crop protection tools 
        (IR-4) administered by ARS;
  --$16 million for area-wide Integrated Pest Management research 
        administered by ARS;
  --$20 million for the Integrated Pest Management Research Grant 
        Program administered by the Cooperative State Research, 
        Extension and Education Service (CSREES);
  --$12 million for minor-use registration of crop protection tools 
        (IR-4) administered by CSREES; and
  --$14.3 million for the Pesticide Impact Assessment Program, Regional 
        Crop Pest Management Information Centers, Crops at Risk, and 
        Risk Avoidance and Mitigation Program all administered by 
        CSREES.
    Temperate Fruit Fly Research Position--Yakima, Wash.--USApple 
requests continued funding of $300,000 to conduct critical research at 
the USDA-ARS laboratory in Yakima, Wash. on temperate fruit flies, a 
major pest of apples.
    FQPA implementation is expected to significantly reduce the number 
of pesticides currently available to growers for the control of pests 
such as cherry fruit fly and apple maggot. Left unchecked, these 
temperate fruit flies can be devastating. Research is critically needed 
to develop alternative pest controls should growers lose access to 
presently available crop protection tools as a result of FQPA 
implementation.
    Congress appropriated $300,000 last fiscal year for this critical 
position. We request that the committee appropriate $300,000 for this 
position in fiscal year 2002.
    Post Harvest Quality Research Position--East Lansing, Mich.--
USApple requests that the committee provide continued funding of 
$309,600 for postharvest-quality research at the ARS laboratory in East 
Lansing, Michigan.
    This facility is conducting research that is critical to the future 
economic recovery of the apple industry. Using a series of new sensing 
technologies, researchers at the East Lansing facility are developing 
techniques that would allow apple packers to measure the sugar content 
and firmness of each apple before it is shipped to consumers. Research 
has shown that consumers will increase purchases of high quality 
products that consistently meet their expectations. We believe 
consumers will eat more apples if this technology is fully developed 
and employed, by our industry.
    Congress appropriated $309,600 last fiscal year for this critical 
position. We request that the committee continue to provide funding for 
this critical research in fiscal year 2002.
    Fireblight Research--Kearneysville, W.Va.--USApple requests that 
the committee provide increased funding of $220,000 for fireblight 
tissue culture research at the ARS Appalachian Fruit Research Station 
in Kearneysville, W.Va.
    Fireblight is a devastating disease that threatens apple growers in 
all apple growing regions. This disease has become more prevalent and 
even more difficult to control as growers have shifted production to 
several popular new apple varieties on rootstocks that are especially 
susceptible to fireblight.
    Fireblight is a bacterial disease typically controlled with timely 
applications of antibiotics. However, various Federal agencies are 
reevaluating agricultural uses of antibiotics due to concerns that 
these uses may contribute to human resistance to antibiotics. 
Meanwhile, fireblight strains are becoming resistant to the apple 
industry's only antibiotic tool to control fireblight. This new funding 
is needed to find new alternative controls to antibiotics using tissue 
culture research and genetic engineering.
    We request that the committee provide an increase of $220,000 for 
this important research in fiscal year 2002.
    The U.S. Apple Association thanks the committee for this 
opportunity to present testimony in support of the U.S. apple 
industry's Federal agricultural funding requests.
                                 ______
                                 

   Prepared Statement of Association Coordination Council (ACC), the 
National Labor Coordination Council (NLCC), and the Union Coordination 
                             Council (UCC)

    Chairman Cochran, Ranking Member Kohl, and members of the 
Subcommittee, I am Michelle Corridon, Communications Chairperson for 
the ACC, NLCC, and UCC. I thank you for this opportunity to offer 
comments on the proposed Department of Agriculture of Budget for fiscal 
year 2002.
                              introduction
    For the past three years, the Association Coordination Council 
(ACC), the National Labor Coordination Council (NLCC), and the Union 
Coordination Council (UCC) have been working together on issues of 
substance, which will maximize customer service and provide employees 
with a positive working environment. Our councils represent a coalition 
of employees who are located in both the USDA Field Service Centers and 
headquarters locations who work for the Farm Service Agency (FSA), 
Rural Development (RD) and the National Resources and Conservation 
Services (NRCS). We are the employees who deliver USDA programs on a 
daily basis and have first hand knowledge of what can be successful 
regarding our USDA Service Centers and the customers that we serve.
    Since 1998, the Office of the Chief Information Officer (OCIO) and 
the Service Center Agencies have been working together to modernize the 
USDA Service Center Information Technology architecture. The employee 
coalitions have directly been involved and have supported those effects 
and worked with the OCIO to secure funding for these improvements. We 
have taken our case to the Office of Management and Budget (OMB) and to 
the Congress. We are also working closely with our Service Center 
partners, which includes the local Soil and Water Conservation 
Districts. Most Service Center employees will agree that the new 
computers, printers, software, and telecommunications upgrades are 
bringing our business into the 21st century. However, the USDA 
modernization is only 70 percent complete and some of the additional 
components including GIS, will provide dramatic improvements in how we 
can serve our customers.
               e-commerce is the direction of the future
    With the passage of H.R. 852, ``The Freedom to E-File Act'', USDA 
employees face the challenge that our customers will have service 
expectations that are greater than the level of service provided today. 
USDA employees are concerned that they will be on the ``badside'' of 
the digital divide. Our customers often have better equipment than the 
average USDA employee does and we are concerned that we will not be 
able to process electronic service requests as intended in the Act, the 
technology modernization, including the upgrading of our Service Center 
telecommunications system.
    Our customers expect other e-commerce activities such as the sale 
of government owned real estate, electronic data interchange (EDI), and 
loan processing. Our Rural Development Guaranteed Rural Housing program 
lenders expect electronic processing of loan applications and loan 
underwriting. Lenders face the same problems as USDA employees, a lot 
of work with fewer employees. Web-based loan processing allows the 
lender to spend more time on more complicated applications while still 
maintaining volume. Without a web-based solution to process and 
underwrite loans, Rural Development and the Farm Service Agency will 
fall further behind in market share. That will mean we are not serving 
Rural America in the manner in which we are charged.
    As important as e-commerce is to our future, we all know that USDA 
will continue to have a large part of its customer base that is either 
not ``e-savvy'' or simply wishes to do business with us in other ways. 
We also have a large segment of Rural America that has traditionally 
not used our services such as Native American tribal organizations. 
Maximizing delivery of e-services and providing ``mobile'' technology 
tools will free up staff time to better address those needs.
                          human capital crisis
    It is anticipated that within the next 5 years, approximately 50 
percent of the USDA employee population can and will retire. We can all 
agree that the possibility of replacing those employees is not good. 
Additionally, USDA has lost about 22 percent of its employee population 
within the past 5 years with a corresponding increase in program level 
activity of approximately 78 percent. Also within that same time frame, 
employees have only been able to complete work that is absolutely 
necessary and have been unable to donate adequate time to important 
issues such as outreach to under served communities. For example in 
FSA, credit employees are mandated to provide supervised credit to 
borrowers. Employees have been unable to do so because of the demands 
of greeting borrowers, providing reports to upper management, and 
closing loans. USDA needs to stabilize employee numbers while updating 
outdated technology.
    The GIS tools will save a lot of time for NRCS, FSA, and RD 
employees. The Old methods of designing practices such as buffer strips 
used to take days; with GIS now being deployed, an employee can 
generate options for the customer in about 15 minutes. FSA employees 
are using GIS maps and GPS units to measure complex CRP signup fields 
in hours instead of days. Many offices map oriented processes are 
seeing 80 to 90 percent efficiency improvements. The customer spends 
less time in the office, giving them more time to spend on farm 
management. The employee is able to assist more customers.
                            farm bill issues
    The crisis in the farming community will mean a hard look at the 
current farm bill. Most farmers and FSA employees will agree that 
``Freedom to Farm'' is not working. Due to the economic crisis across 
the U.S. and the world, the open market concept has not brought 
economic success to our American Farmers. FSA employees are under 
mandate from Congress to provide assistance checks to farmers because 
of low prices. These employees are stretched to the limit and need 
modern automation tools.
                  what is needed for fiscal year 2002
    In order for USDA to meet its obligations to Rural America, both in 
the short run and for the future, we ask that you provide fiscal year 
2002 funding sufficient to:
  --Maintain current staffing levels to allow us to provide current 
        services while at the same time devoting resources to modernize 
        our program delivery.
  --Complete the Common Computing Environment (CCE), as originally 
        planned by the end of fiscal year 2002.
    In terms of the CCE, we believe that it is important to continue to 
provide these funds continually under the OCIO so that the new 
equipment is not ``owned and controlled'' by any one of the Service 
Center agencies but is available to all. We also know that from the 
USDA Service Center Modernization Technology Blueprint published in 
December 2000 and through our work with the OCIO technology team, that 
$100 million will be required in fiscal year 2002 to complete the CCE 
as scheduled. This will provide the critically needed 
telecommunications upgrade ($15 million), the needed GIS/application 
hardware, software and enterprise license ($44 million), the necessary 
labor saving tools such as digital cameras, GPS units, scanners etc. 
($32 million) and support training, architecture, and security at the 
levels needed to successful ($9 million). Not funding the completion of 
the CCE in fiscal year 2002 will delay the benefits and stretch out the 
technology modernization to five years when some of the initial 
components begin reaching the point of needing replacement. The 
completion of the CCE in fiscal year 2002 and the establishment of a 
``refresher fund'' in fiscal year 2003 will ensure that we will have a 
viable common technology infrastructure to provide customer service on 
into the future.
                               conclusion
    USDA employees are committed to serving Rural America in the finest 
possible manner. However, it is difficult to do this without the proper 
tools. Your committee has been very supportive of our modernization 
efforts in the past and provided some special funding for this in 
fiscal year 2000 and 2001. We ask that you ratchet up this support to 
the point that we can finish this job this year and begin providing the 
kind of services that our customers deserve and a work environment that 
makes full utilization of the skill and knowledge that our employees 
have to offer. Mr. Chairman, on behalf of the many employees at the 
Service Center agencies, I want to thank you for this opportunity to 
present testimony and I offer the assistance of the employee councils 
at any time.
                                 ______
                                 

      Prepared Statement of the United States Telecom Association

                           summary of request
    Project Involved.--Telecommunications Loan Programs Administered by 
the Rural Utilities Service of the U.S. Department of Agriculture.
    Actions Proposed.--Supporting RUS loan levels and the associated 
funding subsidy for the hardship, cost of money, Rural Telephone Bank 
and loan guarantee programs in fiscal year 2002 in the same amount as 
loan levels specified in the fiscal year 2001 Agriculture 
Appropriations Act, and opposing the Administration's proposal which 
was contained in ``A Blueprint for New Beginnings'' to not fund Rural 
Telephone Bank loans. Also supporting an extension of the language 
removing the 7 percent interest rate cap on cost of money loans. Also 
supporting continuation of the restriction on the retirement of class A 
Rural Telephone Bank stock in fiscal year 2002 at the level contained 
in the fiscal year 2001 Agriculture Appropriations Act and an extension 
of the prohibition against the transfer of Rural Telephone Bank funds 
to the general fund. Supporting funding in the amount of $27 million in 
loan and grant authority designated for distance learning and 
telemedicine purposes, including allocation of $2 million of that 
funding to extend the pilot program begun last year of direct loans and 
grants to finance broadband transmission and local dial-up Internet 
service in rural areas.
    The United States Telecom Association (USTA) represents over 1000 
local telecommunications companies that provide over 95 percent of the 
access lines in the United States. USTA members range from large 
public-held corporations to small family-owned companies as well as 
cooperatives owned by their customers. I am Gary Lytle, Interim 
President and CEO of USTA. I submit this testimony in the interests of 
the members of USTA and their subscribers.
    USTA members firmly believe that the targeted assistance offered by 
a strong RUS telecommunications loan program remains essential in order 
to maintain a healthy and growing rural telecommunications industry 
that contributes to the provision of universal telephone service. We 
appreciate the strong support this committee has provided for the 
telecommunications program since its inception in 1949 and look forward 
to a vigorous program for the future.
    This testimony is based upon the Administration's budget proposal 
for fiscal year 2002 entitled ``A Blueprint for New Beginnings''. As of 
the filing of this testimony, that document is the only information 
available concerning the President's plans for RUS for the fiscal year 
beginning October 1, 2001. This testimony is necessarily based upon the 
assumption that there are no changes from the fiscal year 2001 
Agriculture Appropriations Act other than those specified in the budget 
blueprint. USTA respectfully requests that the Subcommittee not close 
the hearing record until we have had an opportunity to supplement our 
testimony if the full Administration budget proposal differs from the 
budget blueprint with respect to appropriations for the RUS 
Telecommunications program.
                          a changing industry
    As Congress recognized through passage of the Telecommunications 
Act of 1996, telecommunications in the United States is in the midst of 
the most significant changes any industry has ever undergone. Both the 
technological underpinnings and the regulatory atmosphere are 
dramatically different and changing at an extraordinarily rapid pace. 
Without system upgrades, rural customers will be left out of the 
emerging information revolution.
    The need for modernization of rural telecommunications technology 
employed by RUS borrower rural telecommunications companies has never 
been greater. In addition to upgrading switching capability to allow 
new services to be extended to rural subscribers, it is crucially 
important that rural areas be included in the nationwide drive for 
greater bandwidth capacity. In order to provide higher speed data 
services, such as Digital Subscriber Line (DSL) connections to the 
Internet, outside plant must be modernized in addition to new 
electronics being placed in switching offices. With current technology, 
DSL services cannot be provided to customers located on lines more than 
three miles from the switching office. Rural areas have a significant 
percentage of relatively long loops and are therefore particularly 
difficult to serve with these higher speed connections. Rural 
telecommunications companies are doing their best to restructure their 
networks to shorten loops so that DSL may be provided, but this is not 
an inexpensive proposition and may not be totally justified by market 
conditions. However, these services are important for rural economic 
development, distance learning and telemedicine. RUS-provided financial 
incentives for additional investment encourage rural telecommunications 
companies to build facilities which allow advanced services to be 
provided. The economic externalities measured in terms of economic 
development and human development more than justify this investment in 
the future by the Federal government.
    Greater bandwidth and switching capabilities are crucial 
infrastructure elements which will allow rural businesses, schools and 
health care facilities to take advantage of the other programs 
available to them as end users. The money spent on having the most 
modern and sophisticated equipment available at the premises of the 
business, school or clinic is wasted if the local telecommunications 
company cannot afford to build facilities that quickly transport and 
switch the large amounts of data that these entities generate. RUS 
funding enhances the synergies among the FCC and RUS programs targeted 
at improving rural education and health care through 
telecommunications.
    The RUS program provides needed incentives to help offset 
regulatory uncertainties related to universal service support, 
interstate access revenues and interconnection rules with a reliable 
source of fairly priced, fixed-rate long term capital. After all, RUS 
is a voluntary program designed to provide incentives for local 
telecommunications companies to build the facilities essential to 
economic growth.
    RUS endures because it is a brilliantly conceived public-private 
partnership in which the borrowers are the conduits for benefits from 
the Federal government which flow to rural telephone customers, the 
true beneficiaries of the RUS program. The government's contribution is 
leveraged by the equity, technical expertise and dedication of local 
telecommunications companies. The small amount of government capital 
involved is more than paid back through a historically perfect 
repayment record by telecommunications borrowers as well as the 
additional tax revenues generated by the jobs and economic development 
resulting from the provision and upgrading of telecommunications 
infrastructure. RUS is the ideal government program--it generates more 
revenues than it costs, it provides incentives where the market does 
not for private companies to invest in infrastructure promoting needed 
rural economic development, it allows citizens to have access to 
services which can mean the difference between life and death and it 
has never lost a nickel of taxpayer money. Furthermore, if the 
Administration's projected lower interest rates materialize, the 
already very small subsidy required to maintain this program will be 
even further reduced.
          impact of credit reform on the rural telephone bank
    Contrary to the intent of Congress, the interpretation of credit 
reform by the Office of Management and Budget (OMB) has significantly 
affected the operation of the Rural Telephone Bank (RTB). One of the 
most damaging impacts of OMB's interpretation of the credit reform law 
is to essentially cleave the RTB into two banks--a liquidating account 
bank which is responsible for pre-credit reform loans, and a financing 
account bank which is responsible for post credit reform loans. USTA 
has protested this arrangement since it began, since it prevents the 
relending of borrower repayments to fund new loans in direct 
contravention of Sec. 409 of the Bank's enabling act. This, in turn, 
forces the RTB to borrow unnecessarily from the Treasury to fund new 
loans. It also permits funds to build up in the liquidating account 
that were generated by GAO-documented interest rate overcharges, 
instead of those funds being returned through relending to the same 
universe of borrowers that initially generated them. OMB should adhere 
to Sec. 409 of the Rural Electrification Act and allow those repayments 
to be used to fund new RTB loans.
                            recommendations
    Continuation in fiscal year 2002 of the loan levels and necessary 
associated subsidy amounts for the RUS telephone loan programs that 
were recommended by this committee and signed into law for fiscal year 
2001 would maintain our members' ability to serve the nation's 
telecommunications needs, maintain universal service and bring advanced 
telecommunications services to rural America.
    USTA strenuously objects to the proposal in the budget outline to 
not fund Rural Telephone Bank loans in fiscal year 2002. The proposal 
is fundamentally flawed. The RTB's mission is far from complete. Loans 
made today are to provide state of the art telecommunications 
technology in rural areas. Furthermore, the budget savings are 
miniscule. If no RTB loans were made in fiscal year 2002, at the 
current loan level of $175 million, the outlay savings next year would 
amount to less than $26,000, not the $3 million quoted in the budget 
outline, because RTB loans are funded over a multi-year period. 
Moreover if administration interest rate predictions are accurate, RTB 
loans could potentially generate a profit for the government because 
there is a minimum statutory interest rate of five percent!
    Not funding RTB loans will not ``generate increased member and 
borrower support for statutorily authorized privatization''. This 
ignores the fact that privatization of the RTB began in 1995 under the 
current law and is proceeding annually. Over $115 million, or almost 20 
percent, of the government's equity investment in the bank has already 
been retired. As a matter of fact, not funding new loans in fiscal year 
2002 could actually impede privatization since the law requires that 
the Bank annually retire government stock at the rate of at least five 
percent of the amount of new loans. With no new loans, there is no 
minimum requirement for retirement of government stock.
    For a number of years, through the appropriations process, Congress 
has eliminated the seven percent ``cap'' placed on the insured cost-of-
money loan program. The elimination of the cap should continue. If long 
term Treasury interest rates exceeded the 7 percent ceiling contained 
in the authorizing act, adequate subsidy would not be available to 
support the program at the authorized level. This would be extremely 
disruptive and hinder the program from accomplishing its statutory 
goals. Accordingly, USTA supports continuation of the elimination of 
the seven percent cap on cost-of-money insured loans in fiscal year 
2002.
    The restriction on the retirement of the amount of class A stock by 
the Rural Telephone Bank, adopted in fiscal 1997, should be continued. 
The Bank is currently retiring Class A stock in an orderly, measured 
manner as current law requires. This should continue. The Committee 
should also continue to protect the legitimate ownership interests of 
the Class B and C stockholders in the Bank's assets by continuing to 
prohibit a ``sweep'' of those funds into the general fund.
Recommended Loan Levels
    USTA recommends telephone loan program loan levels for fiscal year 
2002 as follows:

                        [In millions of dollars]

RUS Insured Hardship Loans (5 percent)............................    75
RUS Insured Cost-of-Money Loans...................................   300
Rural Telephone Bank (RTB) Loans..................................   175
Loan Guarantees...................................................   120
Broadband Pilot Program...........................................   100
                                                                  ______
      Total.......................................................   770

Distance Learning and Telemedicine
    USTA strongly supports the loan and grant proposal and recommends 
its funding for fiscal year 2002 at the levels adopted in last year's 
Agriculture Appropriations Act, that is, $27 million for loans and 
grants. This program is a perfect complement to the traditional RUS 
telecommunications loan programs. For distance learning and 
telemedicine to become a reality, schools and hospitals need training 
and equipment. Similarly, local telecommunications companies need 
modern infrastructure to connect these facilities to the 
telecommunications network.
    USTA also supports continued allocation of $2 million of this 
appropriation for the pilot program of loans and grants to finance 
broadband transmission and local dial up access to the Internet in 
rural areas. In its initial year, $100 million of loans for these 
important purposes were made. RUS was founded on the notion that rural 
Americans should have no lesser service, facilities and prices for 
telephone service as those living in more densely populated, lower cost 
areas. As we move into the Information Age, in which increases in 
productivity, economic development, education and medicine can greatly 
benefit from the tremendous potential of the Internet, it is a 
continuation of the historic mission of RUS to support the extension of 
vital new services to rural America.
                               conclusion
    Our members take pleasure and pride in reminding the Subcommittee 
that the RUS telecommunications program continues its perfect record of 
no defaults in over a half century of existence. RUS telecommunications 
borrowers take deadly seriously their obligations to their government, 
their nation and their subscribers. They will continue to invest in our 
rural communities, use government loan funds carefully and judiciously 
and do their best to assure the continued affordability of 
telecommunications services in rural America. Our members have 
confidence that the Subcommittee will continue to recognize the 
importance of assuring a strong and effective RUS Telecommunications 
Program through authorization of adequate loan levels.
                                 ______
                                 

 Prepared Statement of the University of Southern Mississippi Polymer 
                               Institute

    Mr. Chairman, distinguished Members of the Subcommittee, I would 
like to thank you for this opportunity to provide testimony describing 
ongoing research and commercializing efforts of The University of 
Southern Mississippi (USM) and the Mississippi Polymer Institute. I am 
very grateful to the Subcommittee for its leadership and the continued 
support of the Institute and its work. This testimony will include an 
update on the progress of the Institute since my testimony of 
approximately one year ago. During the past year, our efforts have 
focused principally on two commercialization thrusts. One effort 
involves our novel, agricultural-based inventions in emulsion 
polymerizations, and the other is to produce a commercial, 
formaldehyde-free, soybean derived adhesive for a variety of composite 
board materials, i.e., particleboard or oriented strand board (OSB). 
During the past year, we have continued to refine the adhesive and have 
made much progress. We are optimistic that these materials will be of 
commercial quality. I will discuss the progress made with the two 
inventions separately in order to offer more clarity.
    In the case of castor and soy oil, we have designed and synthesized 
several more novel monomers or polymer building blocks that offer 
state-of-the-art technology. For instance, the attributes of the 
technology includes the ability to produce odor free, solvent free, 
non-polluting latex coatings. This represents best-available-technology 
for the production of solvent free latex coatings. The success of the 
technology depends on the use of agricultural materials as a building 
block of emulsion derived polymers offering a new opportunity for ag 
derived materials as a raw material in the polymer industry. By 
contrast, contemporary latex coatings contain 250 grams/liter or more 
of air pollutants or volatile organic content (VOC) per gallon. 
Moreover, this novel technology, if practiced, would allow governmental 
regulatory agencies to tighten the restrictions on volatile organic 
content (VOC) emissions of applied coatings without harm to the 
coatings industry. The fundamental scientific principles regarding its 
mode of action have been confirmed, yet additional data must be 
collected as even more novel monomers, or polymer building blocks are 
designed and synthesized. We have identified emulsion polymerization as 
a synthetic technique particularly suited for use of these materials. 
We have also found that it holds much promise in ultraviolet cured 
polymers in that hard, scratch resistant coatings are produced in 
seconds from this novel technology. We have utilized this technology in 
the design and fabrication of industrial coatings that offer high 
performance, flexible, and non-blocking products. We have secured a 
pilot scale manufacturing facility for this material and as a result 
can produce 20 gallons of product per run. Financial assistance was 
obtained via the USDA SBIR division via competitive grant applications. 
We have met our SBIR objectives for Phase I and have thus submitted a 
Phase II award grant application. As a result of this work, we are now 
able to provide sufficient quantities of product to prospective users 
of this technology. We have sampled many interested parties and are in 
continuing negotiations with several firms regarding commercialization.
    Over the past year, several new patents have been obtained from the 
U.S. Patent office protecting this technology. Foreign patent filings 
have also been affected. Two new patent applications are anticipated 
for submission to the U.S. Patent office within the next few weeks. 
Negotiations are also underway with Pentagon officials to obtain 
``Green Seal'' certification for paints formulated from this 
technology. Paints have been formulated and submitted which, in our 
hands, meet the Green Seal requirements. However, the formulated 
coating is, at this writing, being evaluated by outside testing 
laboratories. Should the formulated paint meet the Green Seal 
requirements, and we have no reason to believe that it will not, we 
expect an order(s) from the Pentagon for coatings to be used in the 
Pentagon.
    In summary, commercialization efforts have continued over the past 
year. New patents have been approved, new patent applications have been 
submitted, a pilot scale manufacturing process has been implemented, a 
USDA SBIR grant has been obtained to assist in the development of this 
technology, new industrial coatings have been designed, manufactured, 
formulated, and tested and formulation efforts have been directed 
toward the generation of finished goods, i.e., high performance, low 
odor, and low VOC coatings. We are optimistic that sales of these ag 
derived products will commence during 2001!
    In yet another of our novel ag based technologies, we have 
developed formaldehyde-free adhesives for use in the composites 
industry, specifically for particleboard and oriented strand board. The 
new adhesives are composed of more than 98 percent agricultural 
products and are comparable in properties with traditional formaldehyde 
adhesives. Formaldehyde emissions are regulated as formaldehyde is 
considered a potential cancer producing agent. Consequently, there is a 
move afoot to remove formaldehyde from articles of commerce. This work 
continues to be refined. More specifically, water absorption values 
have been too high and efforts have been underway during 2000 to reduce 
water absorption values. This goal has been met but at a slight cost; 
i.e., a slight reduction in internal bond strength. Thus, continual 
modification or property adjustments are necessary and will be the 
focus of work during the 2001 year. If successful, this work would 
provide an additional and substantial outlet for America's soy bean 
farmers.
    In 1983, the Mississippi Legislature authorized the Polymer 
Institute at USM to work closely with emerging industries and other 
existing polymer-related industries to assist with research, problem-
solving, and commercializing efforts. During the past year, seventeen 
new polymer-related industries have located in Mississippi. In 
particular, during the past four years Sunbeam-Oster, Dickten and 
Masch, Wellman, and Kohler have constructed facilities approaching a 
cost of 1.4 billion dollars and each has commented on polymer science 
and engineering as a significant factor in their decision to locate 
near to The University of Southern Mississippi and the Mississippi 
Polymer Institute.
    The Institute provides industry and government with applied or 
focused research, development support, and other commercializing 
assistance. This effort complements existing strong ties with industry 
and government involving exchange of information and improved 
employment opportunities for USM graduates. Most importantly, through 
basic and applied research coupled with developmental and 
commercializing efforts of the Institute, the Department of Polymer 
Science continues to address national needs of high priority.
    The focus of my work is commercialization of alternative 
agricultural crops in the polymer industry. This approach offers an 
array of opportunities for agriculture as the polymer industry is the 
largest segment of the chemical products industry in the world, and 
heretofore has been highly dependent upon petroleum utilization. 
However, my efforts are directed to the development of agricultural 
derived materials that will improve our nation's environment and reduce 
our dependence on imported petroleum. As farm products meet the 
industrial needs of the American society, rural America is the 
benefactor. Heretofore, this movement to utilize alternative 
agricultural products as industrial raw materials has received some 
attention but much less than opportunities warrant. Your decisions are 
crucial to the accomplishment of these goals as funding from this 
Subcommittee has enabled us to implement and maintain an active group 
of university-based polymer scientists whose energies are devoted to 
commercializing alternative crops. We are most grateful to you for this 
support and ask for your continued commitment.
    The faculty, the University, and the State of Mississippi are 
strongly supportive of the Mississippi Polymer Institute and its close 
ties with industry. Most faculty maintain at least one industrial 
contract as an important part of extramural research efforts.
    Polymers, which include fibers, plastics, composites, coatings, 
adhesives, inks, and elastomers, play a key role in the materials 
industry. They are used in a wide range of industries including 
textiles, aerospace, automotive, packaging, construction, medical 
prosthesis, and health care. In the aerospace and automotive 
applications, reduced weight and high strength make them increasingly 
important as fuel savers. Their non-metallic character and design 
potentials support their use for many national defense purposes. 
Moreover, select polymers are possible substitutes for so-called 
strategic materials, some of which come from potentially unreliable 
sources.
    As a polymer scientist, I am intrigued by the vast opportunities 
offered by American agriculture. As a professor, however, I continue to 
be disappointed that few of our science and business students receive 
training in the polymer-agricultural discipline as it offers enormous 
potential. The University of Southern Mississippi and the Mississippi 
Polymer Institute are attempting to make a difference by showing others 
what can be accomplished if appropriate time, energy, and resources are 
devoted to the understanding of ag based products.
    I became involved in the polymer field 37 years ago and since that 
time, have watched its evolution where almost each new product 
utilization offered the opportunity for many more. Although polymer 
science as a discipline has experienced expansion and a degree of 
public acceptance, alternative agricultural materials are an under-
utilized national treasure for the polymer industry. Moreover, there is 
less acceptance of petroleum derived materials today than ever before 
and consequently the timing is ideal for agricultural materials to make 
significant inroads as environmentally friendly, biodegradable, and 
renewable raw materials. These agricultural materials have always been 
available for our use, yet society for many reasons, has not recognized 
their potential. The following examples are included and represent 
opportunities other than those already described which supports this 
tenet:
  --A waterborne, waterproofer has been designed and formulated with 
        the help of several natural products. The material functions as 
        a waterproofer yet is carried in water. However, after 
        application to the intended substrate, typically wood or 
        cementous products, the material becomes hydrophobic and highly 
        water resistant. We have collected two and one-half years of 
        exposure data on this product with excellent success. We have 
        made additional contacts with industrial firms during the year 
        in hopes for commercialization but industry is complacent and 
        no driving force for change exists. For instance, unless VOC 
        emission laws are tightened, little movement will be toward 
        new, environmentally friendly, products. However, we will 
        continue our efforts to promote the use of ag based products 
        offering improved environmental attributes, i.e., high 
        performance accompanied by low odor and low VOCs.
  --We have exploited the potential of lesquerella, a crop that 
        produces a triglyceride similar to castor oil. Several high 
        performance products have been prepared and include polyesters, 
        stains, foams, pressure sensitive adhesives, and 100 percent 
        solid ultraviolet (UV) coatings. This technology was 
        highlighted at the AARC/NASDA meeting in Washington, DC. We 
        have developed a cooperative relationship with Alcorn State 
        University, Lorman, MS to grow and thus evaluate the agronomics 
        of lesquerella as a new crop for Southeastern U.S. region. 
        Consequently, we have fabricated ag based foams for use as weed 
        retardant mulches. The new foams are under test as this report 
        is being written.
    U.S. agriculture has made the transition from the farm fields to 
the kitchen tables, but America's industrial community continues to be 
frightfully slow in adopting ag based industrial materials. The prior 
sentence was included in my last testimony and rings true one year 
later as I write this report. However, we must continue to aggressively 
pursue this opportunity and in doing so:
  --Intensify U.S. efforts to commercialize alternative crops and 
        dramatically reduce atmospheric volatile organic content 
        emissions. The result will be much cleaner air for all 
        Americans.
  --Reduce U.S. reliance on imported petroleum.
  --Maintain a healthy and prosperous farm economy.
  --Foster new cooperative opportunities between American farmers and 
        American industry.
    Mr. Chairman, your leadership and support are deeply appreciated by 
the entire University of Southern Mississippi community. While I can 
greatly appreciate the financial restraints facing your Subcommittee, I 
feel confident that further support of the Mississippi Polymer 
Institute will continue dividends of increasing commercialization 
opportunities of agricultural materials in American industry. Advances 
in polymer research are crucial to food, transportation, housing, and 
defense industries. Our work has clearly established the value of ag 
products as industrial raw materials and we must move it from the 
laboratories to the industrial manufacturing sector. Only then can the 
U.S. enjoy a cleaner and safer environment which these technologies 
offer, as well as new jobs, and expanded opportunities for the U.S. 
farmer. We are most grateful for the support you have provided in the 
past. The funding you have provided has allowed the laboratory work to 
be conducted, yet we are at the crossroads of commercialization and 
additional funds are needed to take this technology from the laboratory 
to manufacturing and to the market place. Moreover, past funding has 
been essentially level with some slight increases.
    Since our testimony last year we have reached new levels of 
commercializing efforts. The technology has matured and marketing and 
sales must move parallel with continued commercial development of new 
products. Thus, we are in need of additional resources to take these 
technologies to the market place and to continue our developments of 
other exciting technologies. We therefore respectfully request $1.5 
million in Federal funding to more fully exploit the potentials of 
commercializing the technologies described herein. When we are 
successful, our efforts will be recognized as instrumental in 
developing a ``process'' for commercialization of new ag based 
products. That is, we will have taken a technology from the ``idea'' 
stage to commercialization. The development of this process, and to 
show it successful, is extremely important to all entrepreneurs who 
believe in ag based products. Thank you Mr. Chairman and Members of the 
Subcommittee for your support and consideration.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created 20 years ago by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five states' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for the U.S. 
Department of Agriculture's conservation programs and technical 
assistance.
    Funding for conservation programs on private lands--the working 
lands--has eroded over time and is now less in constant dollars than 
during the depths of the Great Depression. The USDA's conservation 
programs and technical assistance are the only viable alternatives to a 
totally regulatory approach to improving water quality. These important 
programs are inadequately funded. The UMRBA supports continuation and 
expansion of funding for these programs.
    Of particular importance to the UMRBA is funding for the 
Conservation Reserve Program (CRP), Wetlands Reserve Program (WRP), and 
Environmental Quality Incentives Program (EQIP). Taken together, these 
three Commodity Credit Corporation-funded programs provide an 
invaluable means for the USDA to work with landowners, local 
conservation districts, and the states to ensure that agricultural 
productivity is maintained while protecting the nation's soil and water 
resources. Moreover, they do this in a voluntary, non-regulatory 
fashion. As stewards of some of the nation's most productive 
agricultural lands and important water resources, the five states of 
the Upper Mississippi River Basin believe these programs are vital. 
Strong farmer interest and state support demonstrate the region's 
commitment to the objectives of these programs. In 1998, state, local, 
and private entities matched every dollar of NRCS investment in the 
five states with an additional $0.80.
    Unfortunately, the President's fiscal year 2002 budget request does 
not place sufficient priority on these three key programs. Funding for 
the CRP would be increased modestly to $1.788 billion. While this 
funding increase is certainly welcome, the UMRBA is increasingly 
concerned that the CRP's 36.4 million acre enrollment cap threatens its 
continued success. Since its inception, enhancements to the CRP have 
increased its effectiveness in improving water quality, soil 
conservation, and habitat. These same enhancements, which include 
noncompetitive enrollment for filter strips, riparian buffers, and 
similar measures as well as establishment of the Conservation Reserve 
Enhancement Program, have made the program more flexible and thus more 
attractive to farmers. But, while demand for the program is up, the CRP 
is unable to capitalize fully on its increased attractiveness and 
effectiveness because of its acreage cap, which USDA projects will be 
reached by December 31, 2002. Thus, the states urge Congress not only 
to provide sufficient funding but also to increase the enrollment cap, 
thereby ensuring that the CRP will continue its vital role in helping 
states, local communities, and landowners meet their water quality and 
conservation goals.
    Even more pressing is the need to fund and expand the enrollment 
cap for the WRP, which will reach its 1.075 million acre cap before the 
end of 2001. Citing the cap, President Bush has not requested any 
fiscal year 2002 funding for the WRP. Since the WRP's establishment in 
1996, its easements have proven to be important tools for restoring and 
protecting wetlands in agricultural areas. This is clearly evident from 
the overwhelming landowner response and the resulting improvements to 
water quality and habitat. In the fiscal year 2001 agriculture 
appropriations bill, Congress addressed the WRP acreage cap problem on 
an interim basis, increasing it by 100,000 acres. However, as noted 
above, this increase will be fully subscribed this year. Clearly the 
time is right for Congress to secure the WRP's future in a longer term 
way this year by significantly expanding the acreage cap and providing 
continued funding for this valuable program.
    The CRP and WRP have been extremely effective in helping Midwest 
farmers to protect land and water resources by curtailing production on 
some of their most sensitive land. And there are certainly many more 
opportunities to make good use of the CRP and WRP in the region. 
However, it is also essential to support sound conservation practices 
on the far greater amount of land that remains in production. EQIP is 
the USDA's largest and most effective means of assisting farmers and 
ranchers to implement conservation practices on land currently in 
production. EQIP assistance can, for example, help operators balance 
the new dynamics of livestock production with the need to protect soil 
and water resources. The President has requested level funding of $174 
million for EQIP in fiscal year 2002. While the states are gratified 
that the new Administration supports EQIP, the UMRBA encourages 
Congress to increase fiscal year 2002 funding to the authorized level 
of $200 million and to expand the EQIP authorization as part of the 
upcoming Farm Bill.
    The UMRBA remains concerned with the adequacy of funding and 
staffing levels in the NRCS' conservation operations account. The 
technical assistance funded through conservation operations provides 
the foundation for the USDA's voluntary conservation planning. The 
Administration has proposed an increase of $59 million in conservation 
technical assistance funding for fiscal year 2002. However, up to $44 
million of this increase would be for CRP technical assistance costs 
that were previously reimbursed from the CCC. As a result, NRCS field 
staff will likely continue to have difficulty providing the timely, 
comprehensive technical assistance that farmers need if they are to 
participate effectively in the USDA's conservation programs. A 2001 
National Workload Analysis indicates that the NRCS needs approximately 
1,900 employees at the field level in Illinois, Iowa, Minnesota, 
Missouri, and Wisconsin. Actual field staff in the five states numbers 
about 1,250, or one-third below the estimated needs. The UMRBA urges 
Congress to ensure that the NRCS has both the staff and funding 
necessary to deliver its conservation programs effectively.
    The Midwest and indeed much of the nation faces significant 
challenges in the future as dams built under the Public Law 534 and 
Public Law 566 programs age. More than 600 flood control structures in 
Illinois, Iowa, Minnesota, Missouri, and Wisconsin need rehabilitation 
if they are to continue to function safely and effectively. This 
represents approximately one-third of the structures built in the five 
states under the USDA's dam-building programs. Rehabilitation costs in 
the five UMRBA states alone are estimated at $53.9 million. Last year's 
enactment of the Small Watershed Rehabilitation Amendments authorized 
NRCS to assist in rehabilitating these structures. The UMRBA now asks 
Congress to provide NRCS with the funding it needs to serve as an 
effective Federal partner in addressing these needs.
    The five states of the UMRBA acknowledge that our region faces 
enormous soil and water conservation needs and limited public and 
private resources to address those needs. In this context, it is 
imperative that NRCS work with the states, conservation districts, and 
farmers to identify and target the most pressing problems. Coordination 
and communication with the states is particularly critical to success 
in addressing the interstate resource challenges faced on the Upper 
Mississippi River. Success in addressing such complex, large-scale 
issues will not come quickly. It will require long-range thinking and 
commitment over time from all levels of government and from farmers. 
The states look to both Congress and the Administration to join them in 
providing such leadership.
                                 ______
                                 

             Prepared Statement of the USA Rice Federation

    USA Rice is a federation of U.S. rice producers, millers and allied 
businesses working together to address common challenges, advocate 
collective interests, and create opportunities to strengthen the long-
term economic viability of the U.S. rice industry. USA Rice members are 
active in all major rice-producing states: Arkansas, California, 
Florida, Louisiana, Mississippi, Missouri, and Texas. The U.S. Rice 
Producers' Group, USA Rice Council and the Rice Millers' Association 
are charter members of the USA Rice Federation.
                                summary
    USA Rice supports agriculture appropriations falling into three 
major categories: international trade promotion, food aid and domestic 
programs. A total of $96 million is needed for international trade 
promotion, $1.507 billion for food aid and $3.825 million for domestic 
programs. In addition, the Foreign Agricultural Service should be 
funded to the fullest degree possible to ensure adequate support for 
trade policy initiatives and oversight of export programs like the 
Foreign Market Development program and the Market Access Program. All 
of these programs are critical for the economic health of the U.S. rice 
industry.
                     international trade promotion
    Exports are critical to the U.S. rice industry. Historically, 40-60 
percent of annual U.S. rice production has been shipped overseas. U.S. 
rice that is not shipped overseas stays in the domestic marketplace, 
driving down already low prices for rice even further. Thus, building 
healthy export demand for U.S. rice should be a high priority.
    In addition, exports mean U.S. jobs. According to USDA data, in 
fiscal year 1999, U.S. rice exports of $1 billion supported an 
estimated 15,200 direct jobs. Indirect jobs are estimated at more than 
45,000 (unofficial USDA estimates).
Foreign Market Development
    The Foreign Market Development program allows USA Rice to focus on 
importer, food service, and other non-retail promotion and other 
activities around the world. For fiscal year 2002, FMD should be fully 
funded at $33.5 million. As the president's budget only calls for the 
Office of Management and Budget to apportion $27.5 million from 
Commodity Credit Corporation resources for this program for fiscal year 
2002, an additional $6 million (USDA, Foreign Agricultural Service) 
needs to be appropriated to reach the full funding level. If only the 
expected $27.5 million apportionment is realized, this will result in a 
20 percent cut in the program from recent levels. The Foreign Market 
Development program allows USA Rice to focus on trade servicing 
activities around the world. Without a fully funded FMD program, USA 
Rice will have to drastically reduce and/or cancel several of its 
worldwide activities targeted at markets that represent major growth 
opportunities for future U.S. rice exports. For example, USA Rice will 
forgo activities in Syria and Jordan where opportunities are expected 
for U.S. rice as state trading continues to give way to private sector 
rice trading, in Eastern Europe where increasing personal disposable 
income should lead to increased ability to purchase U.S. rice, and in 
Taiwan where opportunities are expected for U.S. rice once Taiwan joins 
the World Trade Organization.
Market Access Program
    The Market Access Program allows USA Rice to focus on consumer 
promotion and other activities around the world. For example, USA 
Rice's MAP-funded efforts to increase U.S. milled rice sales to Japan 
have led to a tripling (from 500 to 1,800 metric tons from fiscal year 
1998 to fiscal year 1999) of U.S. milled rice being sold in identified, 
unblended form to the Japanese consumer. Another example is that as a 
result of USA Rice's MAP-funded in-store promotions in Guatemala this 
year, not only did sales of U.S. rice jump 25 percent during the 
promotion, but also a Guatemalan company is now importing U.S. rough 
rice, processing it, and labeling as ``U.S. rice'' on its consumer 
retail packaging. For fiscal year 2002, MAP should be fully funded at 
$90 million (USDA, Foreign Agricultural Service), the level currently 
authorized. Ideally, the program should be funded at $200 million as 
called for in legislation such as H.R. 98 and S.366.
USDA/FAS
    Equally important to these programs is an adequately staffed and 
funded Foreign Agricultural Service in Washington, D.C. and in our 
embassies overseas. USA Rice and other agricultural groups rely on the 
significant expertise these agricultural experts bring to the table, 
and we rely upon them to help us gain, grow, and maintain market access 
worldwide. FAS should be funded to the fullest degree possible to 
ensure adequate support for trade policy initiatives and oversight of 
export programs like the Foreign Market Development program and the 
Market Access Program.
                                food aid
    Food aid continues to be vital to the health of the rice industry 
and local economies as an instrument to remove excess rice stocks from 
the U.S. market, generate business, stabilize prices, and create market 
development by allowing entry into foreign markets not otherwise 
accessible to the United States. Nearly half of all U.S. grown rice is 
exported. Over twenty percent of this amount is reliant on food aid 
programming. In fiscal 2000, this accounted for nearly 9 million 
hundredweight (400,000 metric tons) of rice that otherwise would have 
remained on the U.S. market, severely impacting the welfare of farmers, 
millers, and allied industries by driving down prices, eliminating 
jobs, and undermining the infrastructure of the industry and local 
economies.
    Rice farmers as well as millers are dependent on food aid in order 
to remain financially solvent. Without adequate food aid funding 
levels, milling capacity is underutilized. Delays in the release of 
food aid funding in fiscal 2001 by OMB have meant fewer tenders, 
forcing some millers in the South to temporarily shut down operations, 
creating economic hardship for these businesses and for local workers. 
Such continued hardship would force these operations to close 
permanently. Rice farmers are equally dependent upon the stabilizing 
effect of food aid movements as a price support mechanism. With 
production costs nearing the $12.00 per cwt. mark, where they are 
approximately double the current market price, the reduction of ending 
stocks from the U.S. market is crucial to help increase prices, and 
avoid further emergency assistance.
    Last year the movement of rice food aid accounted for 1,200 jobs, 
and created an influx of millions of dollars to local economies in 
terms of labor hours, utilization of equipment and services, and 
investment in the rice industry infrastructure. This level of economic 
activity was dependent the use of value-added rice in food aid 
programs. For every 1 million hundredweight of U.S. food aid sent as 
rough rice rather than value-added, the total effect on the U.S. rice 
industry would be a loss of $23 million and nearly 136 jobs in the six 
rice-producing states. The rice producer as well as the rice miller 
directly benefits from value-added product. In years of larger supply, 
the margin of premium gained by the producer from value-added rice 
increases dramatically. For instance, in the 1999 crop year, one grower 
cooperative returned an average of 60 cents per bushel on milled rice 
over rough rice returns. Farmer-owned cooperatives account for about 40 
percent of the rice milled in the United States.
    Last year, 9 million hundredweight of rice was exported as food 
aid. The economic gain generated by further processing was retained 
within the United States. Furthermore, taxpayer dollars, including 
those of U.S. rice producers and millers, fund food aid programs. The 
U.S. government should maximize the use of taxpayer dollars by 
exporting the highest value product possible, not use U.S. taxpayer 
dollars to subsidize the development of foreign processing facilities. 
For these reasons, the appropriations bill language should indicate 
that for rice, only value-added products are to be used in food aid.
    Food aid programs are critical for the United States in maintaining 
its competitive position in the global marketplace. Overall, exports of 
U.S. agricultural commodities, including rice, are decreasing. The 
United States must look to new markets and gain access to developing 
markets in order to rebuild its comparative export advantage. Food aid 
is the only tool that allows for entry into an underdeveloped country's 
market when it cannot afford to pay a premium for high quality U.S. 
product, further aggravated by currency devaluations. Food aid allows a 
preference for U.S. rice to develop among foreign consumers and trade, 
setting the stage for future commercial sales when foreign economies 
improve. Food aid continues to be fundamental to humanitarian 
assistance efforts.
Public Law 480 Title I
    Maintain $180 million in funding (USDA, Foreign Agricultural 
Service), with retention of at least $160 million dedicated to 
commodity loans, and any additional funding being allocated to freight 
and financing expense. Congress has recently criticized high funding 
carry-over levels in this program; funding carry-over has been 
diminished due to use in funding Title I Food for Progress sales to 
Russia in fiscal 2000. Therefore, retention of base level funding is 
necessary. Through work with FAS and foreign governments, USA Rice 
helps maintain a high percentage rate of successful agreement 
fulfillments, avoiding carry-over of unused funds. Public Law 480 sales 
into developing countries such as the Philippines have provided a 
critical link to local trade. Under Title I, 104,000 metric tons of 
U.S. rice reached the trade and consumers in the Philippines last year 
that otherwise would not have been competitive with Asian suppliers. 
Just as importantly, the movement of this rice enabled the U.S. rice 
industry to access local trade that is now allowed to transact limited 
private imports as the Philippines slowly transitions from monopoly 
control of sales under a state trading entity to a more liberalized 
market. By cultivating relationships with local trade through the 
Public Law 480 Title I program, a private commercial sale of thousands 
of metric tons of premium quality U.S. rice was made to the Philippines 
this year. This is a critical step in developing long-term prospects 
for a high quality niche market for U.S. rice in the Philippines.
Public Law 480 Title II
    Maintain $837 million funding level (USDA, Foreign Agricultural 
Service). As Public Law 480 title I funding levels have declined by 
$580 million since 1990, other food aid programs are now crucial to 
maintain movement of rice stocks. Title II projects involving private 
voluntary organizations (PVO's) that monetize rice to fund other 
development projects are the most far-reaching vehicle to introduce 
U.S. rice into markets where the United States has limited or no 
commercial access. For instance, in Ghana, since the 1980's, as a 
result of Public Law 480 program penetration, U.S. rice has become the 
benchmark of quality in rice for Ghanaian consumers and remains the 
product against which all other imported rice is gauged. U.S. rice 
sales have grown steadily over the last five years, and in 1999 sales 
of almost 77,000 metric tons represent an 18 percent increase over 
1997, and account for about 33 percent of the total market.
Food for Progress
    Maintain $94 million funding level (USDA, Foreign Agricultural 
Service). The Food for Progress program is particularly effective for 
market development because rice moves into the foreign market at local 
market prices. USA Rice works closely with PVO's in this program to 
develop trade connections. Increased movement of rice through this 
program is needed to most effectively target new markets, and to enable 
the United States to maintain market share when U.S. rice would 
otherwise be unable to compete commercially. This was the case in Cote 
D'Ivoire in the late 1990's, when the effects of currency devaluations 
in both Cote D'Ivoire and Thailand, a leading rice competitor of the 
United States, led to a period where U.S. rice could not compete 
commercially. Some market share was maintained through Food for 
Progress programs, which enabled quick recovery when conditions 
improved. This enabled retention of a market that had originally grown 
from a niche market to a large importer due to Public Law 480 sales. 
Imports of U.S. rice, including both commercial and government 
assistance programs, rebounded from around 1,000 metric tons in 1998 to 
over 25,000 metric tons in 1999 and 2000.
Global Food for Education Initiative
    The Global Food for Education Initiative should be funded (USDA, 
Foreign Agricultural Service) for fiscal year 2002 at $300 million for 
preschool and school feeding programs and $50 million for maternal and 
infant health and feeding programs, per draft legislation of ``George 
McGovern-Robert Dole Global Food for Education and Infant Feeding Act 
of 2001.'' This program is designed to most efficiently deliver food to 
its targeted group. It will provide much need alternative access for 
distribution of rice to offset losses in other programs.
                           domestic programs
Rice Research
    The Dale Bumpers National Rice Research Center should be funded for 
fiscal year 2002 at a minimum of $3.675 million, the same level as 
fiscal year 2001 (USDA, Agricultural Research Service).
    The mission of the Dale Bumpers National Rice Research Center is to 
conduct research to help keep the U.S. rice industry competitive in the 
global market place, by assuring high yields, superior grain quality, 
pest resistance, and stress tolerance.
    The DB NRRC is an $11.2 million, state-of-the-art laboratory. The 
46,000 square foot DB NRRC contains offices, research laboratories, 
seed storage, and greenhouse space. The DB NRRC has USDA-ARS scientists 
in eight research categories: genetics, germplasm evaluation and 
enhancement, biology and control of weeds, cereal chemistry, molecular 
genetics, cytogenetics, molecular plant pathology and molecular 
biology. Shared laboratory space also is provided for the University of 
Arkansas rice research groups, as well as visiting scientists.
Blackbird Control
    The Louisiana blackbird control project should be funded for fiscal 
year 2002 at $120,000 and the blackbird control research at $30,000. 
This is the same level of funding as fiscal year 2001 (USDA, Animal 
Plant Health Inspection Service). This program has been critical in 
reducing the damage this pest does to rice fields. If not controlled, 
blackbirds can significantly reduce rice yields, resulting in 
substantial loss of income to the producer.
                                 ______
                                 

      Prepared Statement of the United States Beet Sugar Industry

                              introduction
    The United States Beet Sugar Industry continues a long and 
productive working relationship with the Agricultural Research Service 
of the United States Department of Agriculture. Since before 1938, 
USDA-ARS research on sugarbeet has provided essential germplasm and 
knowledge to the U.S. sugarbeet industry. USDA-ARS research continues 
to enhance the productivity and profitability of growers across the 
United States. Over 50 years ago, the Beet Sugar Development Foundation 
signed a Memorandum of Understanding with the USDA-ARS, providing for 
close cooperation in defining, funding, and meeting challenges to the 
sugarbeet industry through research. No other public program in the 
United States, other than ARS, is involved in breeding disease 
resistance for sugarbeet. And no other program in the United States is 
involved with the fundamental biology of sugarbeet.
    Sugarbeets are produced on over 10,000 farms in 15 states 
(including seed production), often in northern tier states where crop 
choices are limited, population densities are low, and rural economies 
are heavily reliant on sugarbeet production. Market forces are 
reshaping sugar processing economics, with the increasing result that 
most growers own and operate their factories as cooperatives. Few, if 
any, of these cooperatives are able to provide the needed basic 
research that will keep the U.S. sugar beet industry viable
    Over the years, the industry has noted a decline in the number of 
USDA-ARS scientists involved in sugarbeet research. As it has been in 
the past, the products of this research are vital for the future of our 
domestic industry. Currently, there are five USDA-ARS stations serving 
the national research needs of the U.S. sugarbeet industry. A brief 
summary of the activities and accomplishments at each sugarbeet 
research location as well as the status of personnel and funds at each 
location is provided below. Also included is an industry perspective on 
the resources required at these locations to maintain and enhance our 
current efforts. For budgeting, we have used the USDA-ARS baseline 
figure of $300,000 per SY (scientist year).
                              kimberly, id
    There is one very large void in the USDA-ARS sugarbeet research 
program. We grow 230,000 acres of sugarbeets in Idaho and eastern 
Oregon. Although all of the USDA/ARS stations work together on common 
problems in the industry nationwide, there is a great need for USDA/ARS 
sugarbeet research for this growing area with its unique challenges. 
The USDA/ARS has an existing research station in Kimberly ID, in the 
heart of the beet growing area. The addition of a sugarbeet unit to 
this existing station would be an excellent fit. We know that a USDA/
ARS sugarbeet research program at this location would strengthen 
national sugarbeet research in three significant ways. We propose a new 
unit that would include a Physiologist, an Irrigation Specialist and an 
Agronomist/Crop Fertility Specialist.
    The Station at Kimberly has particular strength in Irrigation/Water 
Use research. The Irrigation Specialist would fit well with that group. 
It has been many years since irrigation work was done on sugarbeets, 
and this is especially needed with the increase in overhead irrigation. 
In growing areas where we are required to irrigate, the cost of water, 
along with the energy costs of pumping and distributing the water are 
major factors in the cost of production. With the current energy 
situation and outlook, an irrigation specialist for sugarbeet and other 
row crops is desperately needed.
    Although there has been considerable work done on sugarbeet 
fertility, basic work has been lacking recently on the interactions 
between fertility, genotype, irrigation, and crop quality. The research 
an Agronomist/Crop Fertility Specialist would do in this area is very 
much needed. This is an area that is also tied to the energy situation, 
since the majority of our fertilizers are produced from petroleum 
products. The costs of these inputs are steadily increasing. Also, a 
major problem in sugarbeet processing in the presence of impurities in 
the beet. This can be caused by over or improper fertilization. Of 
course, fertility is not isolated to one years' crop, but must be 
studied as an ongoing evolution, taking into consideration the other 
crops in the rotation.
     Finally, a Physiologist to work with crop biochemistry and post 
harvest storage is needed, not only for the Idaho area, but also for 
all growing areas. The area of crop biochemistry is directly related to 
the Irrigation Specialist and the Fertility Specialist. The basic 
knowledge to understand the best and most efficient usage of water and 
fertilizer, will require the input of physiological factors in 
sugarbeet development. Sugarbeet storage has been mentioned at three 
locations in this write-up. This is not by accident, and certainly not 
a duplication of efforts. Decreasing losses in the storage pile is a 
major component to profitability of the beet sugar industry. Each of 
the areas, where storage work in either going on or proposed to go on, 
are unique. Therefore they need to be investigated independently, 
however, these three stations working in unison would definitely be 
able to interact, and we are sure, speed up the delivery of useful 
results. Information obtained from all of these research areas is a 
national priority. We feel we would need $1,250,000 to start this 
program with three SY's and capital investments in research equipment.
                            ft. collins, co
    This station currently has three SY's working on CRIS projects 
involving sugarbeets. There is one Research Geneticist/Plant Breeder, 
one Plant Physiologist/Biochemist and one Plant Pathologist. The Fort 
Collins Unit is funded at a level of $750,413.00. A Molecular 
Geneticist is needed to complement the skills of the current geneticist 
and plant breeder, who is also Research Leader. An increase of $500,000 
is needed in this program.
    This station is the primary source of germplasm with resistance to 
Rhizoctonia root rot worldwide. It also is the primary ARS station 
involved in breeding for resistance to Cercospora leaf spot and has a 
very active program breeding for resistance to the curly top virus.
    One of the major pests lowering sugarbeet production in the US is 
the sugarbeet cyst nematode. Basic biochemical research on the 
mechanism of action of mustard and radish crops that can be used to 
decrease the soil concentration of this nematode has been undertaken in 
Fort Collins. Use of these ``trap crops'' can contribute to gains in 
productivity without the use of fumigants.
    Biological control research is ongoing at Fort Collins using 
Trichoderma strains. In other crops, a single seed treatment with 
similar strains has been demonstrated to reduce severity of several 
diseases, which cause seedling death. The use of one treatment to 
control multiple diseases would reduce cost of fungicides for disease 
control.
    Critical to solving many disease problems is the ability to 
complement traditional breeding, biochemistry, and plant pathology 
approaches with a molecular genetics approach. Researchers at Fort 
Collins have begun investigations to provide molecular markers and to 
identify resistance genes for sugarbeet diseases to increase efficiency 
in the plant breeding process.
    In addition to improved germplasm, new plant breeding techniques, 
and better disease management techniques, the Fort Collins scientists 
emphasize research addressing sugarbeet's biochemical quality, 
especially as it affects the amount of sugar that can be recovered 
through current processing technology. Scientists have worked with 
processing companies to assess and improve sucrose and chemical quality 
analysis procedures, which has reduced processing costs. Research to 
assess the effects of various diseases on the quality of beets held in 
storage before processing is being planned. Disease can have a 
tremendous impact on the potential amount of sucrose that can be 
extracted from such stored beets, and increase the cost of processing.
                            east lansing, mi
    This Station currently has three SY's working on two CRIS projects 
involving sugarbeets. They include one Molecular Geneticist, one 
Geneticist and one Pathologist. The Genetics CRIS has two scientists, 
and a total of $389,000, short $211,000 from the ARS target. The 
Pathology CRIS has one scientist projected to retire in the near future 
and a total of $169,500, or $130,500 short. Each of these positions is 
needed for future viability of the industry. In addition, a 
Physiologist /Biochemist position is needed to characterize processes 
of sucrose accumulation and focus on modifying those processes for 
alternative uses for sucrose. Expanding the uses of sucrose is the key 
to expanding profitability in sugarbeet production. This position would 
require $300,000. Therefore, a total request for East Lansing of 
$641,500.
    The sugarbeet Genetics program at East Lansing has three primary 
responsibilities: (1) to continue and strengthen sugar beet germplasm 
enhancement for the Eastern U.S. growing areas ongoing for 70 years, 
(2) to develop and apply molecular methodologies for dissection of 
genetic traits, and (3) to elucidate mechanisms and engineer solutions 
to persistent seedling emergence and stand establishment problems.
    Field emergence and stand establishment is perennially among the 
concerns for sugar beet growers. Recent results implicate a single gene 
that describes the difference between good emerging varieties and poor 
emerging varieties. This conclusion could only be drawn by the 
judicious application of the modern, and expensive, technologies that 
can now be applied to solve pernicious problems in sugarbeet growth.
    In very few instances is it known what genes influence agronomic 
traits in sugarbeet. With increasing requirements for multiple disease 
resistant sugarbeets in all areas of the U.S., it is imperative to be 
able to tailor gene combinations efficiently to meet changing 
environmental challenges imposed by these new disease pressures. The 
East Lansing location is developing the requisite materials to discover 
and deploy these genes.
    The Pathology/Physiology position at East Lansing conducts disease 
nurseries and examines pathogen populations throughout the growing 
regions, examining the structure of pathogen populations for type and 
fungicide resistance, and examining mechanisms of disease resistance 
that may be exploited for germplasm enhancement. This position 
interacts closely with growers and agronomists, and provides management 
options and recommendations when disease problems occur. The pathogens 
that affect the Eastern growing region occur elsewhere, but are 
particularly severe and occur regularly in Michigan. One reason costs 
of production are lower in Michigan than elsewhere in the U.S., aside 
from the lack of irrigation costs, is the wide use of disease resistant 
varieties. Resistance appears to carry a yield penalty, and one 
important future goal is to create high yielding, highly resistant 
sugarbeet germplasm that can be deployed through breeding.
    One of the keys for any commodity to develop new uses to identify 
alternative market. Sucrose is the most abundant, chemically pure, 
renewable resource on the planet, and would be ideal as a chemical 
feedstock for industrial and other chemicals. The only limitation for 
using sucrose industrially is its over-functionality. That is, chemical 
reactions are difficult to control because of the large number of 
potentially reactive sites on the sucrose molecular. The goal of the 
Physiologist /Biochemist CRIS is to develop strategies that would block 
most of the reactive groups, and allow for controlled chemical 
reactions.
                               fargo, nd
    The Fargo ARS Station currently has three SY's working on CRIS 
projects involving sugarbeets. Unit scientists include one Pathologist, 
one Geneticist and one Physiologist. The CRIS funding for this location 
is $974,084.00. The sugarbeet industry is plagued by several major 
production problems in this area. Pre-harvest losses include crop 
damage incurred by the sugarbeet root maggot and by fungal diseases, 
such as root rot caused by Aphanomyces and leaf spot. Unit research 
activities include two major thrusts addressing these issues. Research 
focusing on both disease resistance and crop protection, as well as 
pathogen virulence is being actively pursued and is making excellent 
progress. A major portion of the unit's Genetics and breeding efforts 
is directed at identifying and introducing plant resistance to the 
sugarbeet root maggot. Research on sugarbeet physiology is directed 
toward identifying the internal processes that affect sucrose 
accumulation and retention in sugarbeets.
    Decreased pesticide use would greatly reduce producer's input 
costs. To this end, an entomologist conducting research on root maggot 
biology or on other insect-related problems of national importance 
(e.g. sugarbeet root aphid, beet army worm, nematodes) could be added. 
This research would compliment current unit efforts in breeding natural 
resistance to sugarbeet root maggot as well as investigating field 
application of a biological insecticide for root maggot control.
    Improvements in the management of postharvest beet storage would 
also result in increased profitability. Postharvest deterioration of 
piled beets due to storage pathogens, harvest injury, and temperature 
extremes and other physiological processes occurs frequently and 
results in the loss of a large portion of the harvested sucrose. 
Fundamental research into maintenance of sugarbeet quality during 
storage would therefore be appropriate for this location. These studies 
would complement current physiological studies on sucrose metabolism in 
sugarbeets. We feel an increase of $300,000.00 would be needed to fill 
either an Entomology or Storage (Physiology) SY position at this 
location.
                              salinas, ca
    This station currently has four SY's working on CRIS projects 
involving sugarbeets. They include two Virologists and two Geneticists. 
The Virology CRIS is funded at $647,027.00. This virology program has 
been very productive in the past and continues to produce information 
which is used not only in California, but across the entire sugarbeet 
production area. This team continues the excellent virology work at 
this station. At this time, this CRIS, we feel has adequate funding. 
The Genetics CRIS is funded at $571,620.00. According to USDA/ARS 
baseline, the Genetics CRIS is currently under funded, we agree. 
Salinas unquestionably has the world's foremost sugarbeet breeding 
program. Germplasm created from this program has been used worldwide. 
The incorporation of genes for Rhizomania resistance, not only saved 
the industry in California, but is now used throughout the country and 
throughout the world. They are also concentrating their breeding 
efforts on sugarbeet cyst and rootknot nematode. These are a major pest 
in many growing areas, and ones that have very limited chemical control 
means. The chemical control means available are very expensive. It is 
imperative that this program continue. We are requesting and increase 
of $100,000.00 annually to fund this CRIS at a level where quality 
research can be conducted.
                             beltsville, md
    This Station currently has two SY's working on CRIS projects 
involving sugarbeets. They include one Microbiologist and one 
Pathologist. This station is adequately funded at a level of 
$650,000.00 and doing a good job. No additional funding is requested 
for Beltsville.

                         Summary of Needed Funding

Kimberly, ID............................................   $1,250,000.00
Ft. Collins, CO.........................................      500,000.00
East Lansing, MI........................................      641,500.00
Fargo, ND...............................................      300,000.00
Salinas, CA.............................................      100,000.00
Beltsville, MD..........................................               0
                                 ______
                                 

    Prepared Statement of the U.S. Marine Shrimp Farming Consortium

    Mr. Chairman, we greatly appreciate the opportunity to provide 
testimony to you and the Subcommittee, to thank you for your past 
support and to discuss the achievements and opportunities of the U.S. 
Marine Shrimp Farming Program.
    We would like to bring to your attention the success of the U.S. 
Marine Shrimp Farming Consortium and its value to the nation. The 
Consortium consists of institutions from six states: The University of 
Southern Mississippi/Gulf Coast Research Laboratory, Mississippi; The 
Oceanic Institute, Hawaii; Tufts University, Massachusetts; Texas A & M 
University, Texas; The Waddell Mariculture Center, South Carolina; and 
the University of Arizona, Arizona. These institutions have made major 
advances in technology to support the U.S. shrimp fanning industry, and 
the program's excellent performance through multi-state collaboration 
has been recognized by the USDA in its recent program reviews. The 
Consortium is at a point of opportunity to make significant 
contributions to building the U.S. industry, reducing the trade 
deficit, and satisfying increasing consumer demand for shrimp. Seafood 
imports constitute the second largest trade deficit item for the U.S. 
at $7.1 billion and shrimp represents approximately half of this 
deficit.
                            accomplishments
    The Consortium, in cooperation with private industry, industry 
associations, and government agencies has generated new technologies 
for producing premium quality marine shrimp at competitive prices. To 
date the program has: (1) established the world's first and currently 
most advanced breeding and genetic selection program for marine shrimp; 
(2) completed pioneering research and development of advanced 
diagnostic tools for disease screening and control; (3) described the 
etiology of shrimp diseases associated with viral pathogens; (4) 
fostered shrimp production at near-shore, inland/rural farm and even 
desert sites; (5) served a lead role in the Joint Sub-committee on 
Aquaculture's efforts to assess the threat of globally transported 
shrimp pathogens; (6) supplied the U.S. industry with selectively bred 
and disease resistant shrimp stocks; (7) developed advanced technology 
biosecure shrimp production systems to protect both cultured and native 
wild stocks from disease; and (8) developed new feed formulations to 
minimize waste generation. These accomplishments are encouraging. The 
advances in these fundamental areas have provided the foundation for 
achieving our overall goal.
                         industry vulnerability
    While exceptional progress has been made, this emerging and 
important industry is continually confronted with new challenges. It 
depends on the U.S. Marine Shrimp Farming Program for high-health and 
improved stocks, disease diagnosis and production technologies. As a 
result of the consortium's support, the U.S. industry has maintained 
relative stability while other countries have had major losses in their 
production due to diseases and environmental problems. Disease losses 
due to exotic viruses in Asia and Latin America during the last year 
approached $1 Billion and $250 million U.S., respectively. We are happy 
to report that U.S. farmers experienced no disease outbreaks during the 
same period while at the same time producing record harvests. In 
addition to supporting today's industry, our advanced biosecure shrimp 
production systems will allow the expansion of shrimp farming into 
near-shore, inland/rural, and desert sites away from the 
environmentally sensitive coastal zone.
                         industry independence
    As a result of the work of the Consortium, investor confidence is 
increasing. Notably, within the last three years, new shrimp farm 
startups have begun in Mississippi, Hawaii, Texas, Arizona, South 
Carolina and Florida and are being considered in other states. 
Importantly, these new production technologies produce the highest 
quality shrimp at world competitive prices, consume U.S. grains as 
feed, and do not pose any threat to the environment. Shrimp farming is 
the newest agricultural industry for the U.S., and CSREES has suggested 
that our program represents a model program for resolving important 
problems and capturing opportunities in both agriculture and 
aquaculture.
    To begin completion of our remaining tasks, an increase in the 
current funding level from $4.177 million to $5 million is being 
requested. Allocation of $5 million per year for the next few years to 
work in cooperation with the private sector, to support existing 
efforts, and to build this new industry with its associated jobs and 
economic benefits is in the best interests of the nation.
    Mr. Chairman, the U.S. shrimp farming industry and our Consortium 
deeply appreciate the support of the Committee and respectfully ask for 
a favorable consideration of this request.
                                 ______
                                 

        Prepared Statement of the Wildlife Management Institute

    Dear Mr. Chairman: I am Ronald R. Helinski, Conservation Policy 
Specialist for the Wildlife Management Institute. Established in 1911, 
the Institute is staffed by professional wildlife scientist and 
managers. It's purpose is to promote the restoration and improvement of 
wildlife in North America. I am submitting testimony for the Senate 
Subcommittee on Agriculture, Rural Development and Related Agencies 
concerning appropriations for:
                 natural resources conservation service
    With such a short timetable I will hit the highlights of each line 
item/program and offer observations on impacts of this proposed fiscal 
year 2002 budget on conservation, particularly this nation's fish and 
wildlife resources.
    Conservation Technical Assistance--The proposed increase of $59 
million dollars is woefully inadequate to meet the needs of farmers, 
ranchers and private landowners who have or plan to participate in the 
current Farm Bill programs. Technical assistance is an expected 
service. It is provided by natural resource professionals to assist 
farmers, ranchers and private landowners in the planning, 
implementation and evaluation of said programs. It has often been 
argued that private landowner participation hinges on what kind of 
support the constituent obtains from those professionals. Given a 5:1 
demand for EQIP, 5:1 for WRP, and 3:1 demand for WHIP, landowners 
EXPECT those services and guidance.
    Admittedly, there is a need for more personnel in NRCS to provide 
this on-the-ground service. Consideration to alternative providers is 
one way to help address this endemic problem. WMI suggests that through 
the the leveraging of NRCS monies, state fish and wildlife agencies and 
conservation NGO's are in a position to help fill this void. Currently, 
this type of infrastructure is in place in many states including 
Missouri, Kentucky, Georgia, Texas and Arkansas. Reimbursement from 
NRCS to state agency personnel would go a long way to help resolve this 
problem. The state fish and wildlife agencies bring professional 
expertise to the table and are experienced in developing conservation 
plans to assist with the current overwhelming demand of Farm Bill 
applications.
    Specific Farm Bill Programs.--WHIP and WRP programs without a doubt 
are two of the most successful programs to ever come down the road for 
private landowners. As mentioned above, the current demand for the 
programs speak volumes to there popularity. This popularity equals 
additional monetary assistance to landowners in this time of economic 
decline. The conservation bonus has helped resolve many natural 
resource problems while acting as a long term investment for providing 
quality of life improvements for this nations citizens.
    WRP.--Increase the cap on WRP to 3.5 million acres or the annual 
enrollment cap to 250,000 acres. With a 3:1 ratio of applications to 
approved projects, the demand exists. Projects should be designed more 
carefully to help achieve wildlife restoration goals. Currently there 
is no additional acres for enrollment in 2002, this needs to be 
corrected.
    WHIP.--Provide $100 million annually. WHIP projects have reached 
non-traditional farm bill constituents where they have been able to 
address many endangered species scenarios while keeping regulations to 
a minimum. This program was embraced by landowners and formed many 
partnerships between USDA (NRCS) and non-Federal organizations, 
resulting in tremendous leveraging of non-Federal dollars.
    Section 211 (b) of the Agricultural Risk Protection Act provided an 
additional $40 million for soil and water conservation assistance. The 
2001 Consolidated Appropriations Act gave the Secretary the authority 
to reallocate these funds to WHIP and FPP, $8 million in additional 
funds was provided for FPP and $12 million was allocated to WHIP. The 
original allocation was $20 million allocated to WHIP. It goes without 
saying that the recognition of the utility and need for this program 
comes up year after year. It's time to allocate the necessary monies to 
make this a true national program. The allocations to the Northeast and 
far Western states are inadequate to meet these regional needs. In 
fact, WHIP is of the same stature as CRP to these regions.
    Forestry Incentive Program.--WMI recommends creating one non-
industrial private landowner cost-share assistance program by combining 
the existing Forestry Incentives Program (FTP with the Stewardship 
Incentives Program (SIP) and fund it at $100 dollars. A financial 
incentives program is needed to encourage private land owners to adopt 
management practices that respond to national needs for healthy 
sustainable forests.
    Farmland Protection Program.--Provide $200 million for the Farmland 
Protection Program. Require conservation easements under the program to 
consider wildlife habitat, in addition to soil, and water conservation.
    Forest Legacy Program.--Increase to 5200 million annually. The 
Forest Legacy Program has a proven track record of protecting 
productive forestlands from development and fragmentation. Weather 
through conservation easements or fee purchase, Legacy focuses on state 
assessments of need to set program priorities. Public benefits amass 
from both environmental and economic values.
    Forest Stewardship.--Provide $50 million per year to increase 
planning assistance to private forest landowners. Non-industrial 
private forestland owners provide great benefits to wildlife through 
their forest management. Forest Stewardship plans ensure that non-
commodity forest resources such as soil, water and fish and wildlife 
recreation and aesthetics are considered and balanced with commodity 
outputs.
                          farm service agency
    With an environment that includes low commodity prices and 
shrinking overseas markets, producing more commodities will not solve 
the problem. Given that there is no foreseeable change in this 
equation, giving private landowners options for other monetary sources 
would be a good thing. As I review the submitted budget for fiscal year 
2002 I see a number of popular Farm Bill programs being zeroed out. CRP 
has been a mainstay on this countries landscape. CRP has enabled 
private landowners to retire land to assist this country with soil, 
water and wildlife habitat enhancement. Alternative opportunities are 
presented for farmers and ranchers to secure additional monies for 
helping to improve the quality of life for all our citizens. Why stop 
now when the job is far from being completed.
    CRP.-On page 102 of the Budget for fiscal year 2002 it shows a zero 
allocation for obligations and technical assistance (CCC funds). What a 
mistake this would be. CRP is USDA's largest conservation/environmental 
program. It also includes the Buffer Initiative and Conservation 
Reserve Enhancement Program (CREP) programs. WMI recommends raising the 
cap on CRP to 63.9 million acres (with a minimum of 45 million acres). 
A sensible approach to reduce excess production capacity through long-
term idling of surplus cropland exists in this very popular program. 
The demand by landowners is tremendous. The program has enhanced more 
wildlife populations than any action ever taken in this nation. CRP has 
helped raise commodity prices, too. The value of the CRP's improvements 
to wildlife viewing and to pheasant hunting has been estimated at $704 
million/year (Claassen et al., 2001). Specific improvements to CRP 
include state flexibility in addressing rental rates and seed mixtures, 
along with natural regeneration on riparian buffers and marginal 
pastures.
    Technical Assistance.--In fiscal year 2001, $26 million was 
obligated for technical assistance services (see page 108 The Budget 
for fiscal year 2002). It is zeroed out for fiscal year 2002. If we 
minimally increase the cap to 45 million acres we will need an increase 
in technical assistance between percent 60 to 80 million dollars. If 
you refer to the section above entitled ``technical assistance'' under 
the MRCN section you will find that there is an alternative to this 
request.
                                 ______
                                 

               Prepared Statement of the State of Wyoming

    This statement is sent in support of fiscal year 2002 funding in 
the amount of $12,000,000 for the Department of Agriculture's Colorado 
River Salinity Control (CRSC) Program, which, pursuant to Public Law 
104-127, is a component program within the Environmental Quality 
Incentives Program (EQIP). The U.S.D.A.'s Natural Resources 
Conservation Service designated the Colorado River Salinity Control 
Program as a national conservation priority area in fiscal year 2000. I 
request inclusion of this statement into the formal hearing record 
concerning fiscal year 2002 appropriations.
    Wyoming views the inclusion of the CRSC Program in EQIP as a direct 
recognition on the part of Congress of the Federal commitment to 
maintenance of the water quality standards for salinity in the Colorado 
River--and that the Secretary of Agriculture has a vital role in 
meeting that commitment.
    The State of Wyoming is a member state of the seven-state Colorado 
River Basin Salinity Control Forum, established in 1973 to coordinate 
with the Federal government on the maintenance of the basin-wide Water 
Quality Standards for Salinity in the Colorado River System. The Forum 
is composed of gubernatorial representatives and serves as a liaison 
between the seven states and the Secretaries of the Interior and 
Agriculture and the Administrator of the Environmental Protection 
Agency (EPA). The Forum advises the Federal agencies on the progress of 
efforts to control the salinity of the Colorado River and annually 
makes funding recommendations, including the amount believed necessary 
to be expended by the USDA for its on-farm CRSC Program. Overall, the 
combined efforts of the Basin states, the Bureau of Reclamation and the 
Department of Agriculture have resulted in one of the nation's most 
successful non-point source control programs.
    Farmers and agricultural producers in the five project areas of 
Colorado, Utah, and Wyoming, where the Program's salinity control 
efforts are underway, have been willing participants in the salinity 
reduction effort. The salinity control effort has cost-sharing partners 
ready to participate, and through use of the Upper and Lower Colorado 
Basin Development Funds, additional funding above and beyond 
appropriations to the USDA can be expended to further increase the 
maximization of environmental benefits per appropriated dollar 
expended.
    One of the five CRSC Program units presently being implemented is 
located in southwestern Wyoming. The Big Sandy River Unit is located 
within the boundaries of the Eden Valley Irrigation and Drainage 
District. About 15,800 acres are irrigated on the District's lands each 
year, and it is projected that about 85 percent of the District's lands 
will have salinity reduction practices in place at full implementation 
of this CRSC Program unit. With that level of participation, the 
Natural Resources Conservation Service (NRCS) has projected that 53,000 
tons of salt will annually be prevented from entering the Colorado 
River system. The majority of the producers have opted to install 
center pivot sprinkler systems as the means to greatly increase their 
irrigation application efficiency.
    For the past 17 years, the seven-state Colorado River Basin 
Salinity Control Forum has actively assisted the U.S. Department of 
Agriculture in implementing this unique, collaborative, and important 
program. At its recent October 2000 meeting, the Forum recommended that 
the U.S. Department of Agriculture Colorado River Basin salinity 
control program, a component part of the EQIP, should expend 
$12,000,000 in fiscal year 2002. This funding level is appropriate to 
reduce a growing ``backlog'' in meeting the pace of necessary salt 
loading reductions. Failure to maintain the standards' numeric criteria 
could result in the imposition of state-line water quality standards 
and impair the Colorado River Basin states' ability to develop their 
Compact-apportioned water supplies. ``Catch-up'' funding in the future 
will require expending greater sums of money, increasing the likelihood 
that the numeric salinity criteria are exceeded, and create undue 
burdens and difficulties for one of the most successful Federal/State 
cooperative non-point source pollution control programs in the United 
States.
    The State of Wyoming greatly appreciates the Subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
continue to believe this important basin-wide water quality improvement 
program merits funding and support by your Subcommittee.

                             RELATED AGENCY

                  Commodity Futures Trading Commission

        Prepared Statement of James E. Newsome, Acting Chairman

    Thank you, Chairman Kohl and members of the Subcommittee. I am 
pleased to submit this testimony on behalf of the Commodity Futures 
Trading Commission.
    First, I would like to discuss the mission and responsibilities of 
the agency and provide you with a detailed description of the manner in 
which we have used previous budget allocations. Then, I would like to 
describe how the profound changes in the regulatory landscape that have 
resulted from the passage of the Commodity Futures Modernization Act of 
2000 will impact our budget plans for fiscal year 2002.
                         mission of the agency
    Since creating the Commission in 1974, Congress has tasked the CFTC 
both with protecting participants in the commodity futures and options 
markets against manipulation, abusive trade practices, and fraud and 
with enabling the markets to serve better their critically important 
economic role of providing a mechanism for price discovery and a means 
of managing risk. Most of the participants in the futures and option 
markets are commercial or institutional users of the commodities they 
trade and those commodities wind up ultimately in countless food and 
consumer products or are consumed in the provision of many important 
services.
    The mission of the Commodity Futures Trading Commission as an 
oversight regulator is two-fold: (1) to foster open, competitive, and 
financially safe and sound futures and options markets in the United 
States, and (2) to protect the public from fraud, manipulation, and 
abusive practices in these markets. To achieve these goals, the 
Commission employs a well-trained, dedicated, and responsive staff, 
consisting of lawyers, economists, accountants, auditors, futures 
trading specialists, computer specialists, and support and 
administrative staff. The staff is primarily comprised of three main 
operating divisions (Economic Analysis, Trading & Markets, and 
Enforcement), and two offices (Office of International Affairs and 
Office of the General Counsel). The Commission is headquartered in 
Washington, D.C. and maintains regional offices in Chicago, New York, 
Kansas City, Los Angeles and Minneapolis. Commission staff oversee the 
activities of futures exchanges and registrants--futures commission 
merchants, salespeople, floor brokers, floor traders, commodity pool 
operators, commodity trading advisors, and introducing brokers-in 
addition to working with the exchanges as self-regulatory organizations 
(SROs) and the National Futures Association (NFA), a statutorily 
recognized SRO overseen by the Commission, to maintain safe and secure 
markets.
                     responsibilities of the agency
    The oversight functions of the Commission encompass many diverse 
areas. The Division of Economic Analysis (EA) has a critical 
responsibility to ensure that futures and option markets operate 
competitively, free of manipulation and congestion, and serve the risk-
shifting and price discovery needs of the United States and world 
economies. EA staff conduct daily market surveillance to ensure that 
the markets are functioning in an orderly manner and can, in an 
emergency, order an exchange to take specific action to restore an 
orderly market. EA staff also analyze reports of large trader positions 
in order to identify and address potentially problematic concentrations 
in the marketplace. The Commission is briefed weekly regarding any 
surveillance issues or concerns, and additional briefings are scheduled 
as necessary in response to specific market events. EA staff maintain 
ongoing liaison with other Federal regulators--for example, the United 
States Department of Agriculture and the Federal Energy Regulatory 
Commission--to discuss issues of common interest and to share 
information regarding market conditions.
    The Division of Trading and Markets (T&M) develops, implements, and 
interprets regulations that protect customers, prevent trading and 
sales practice abuses, and assure the financial integrity of the 
futures markets and firms holding customer funds. T&M staff oversee the 
compliance activities of the futures industry self-regulatory 
organizations, including the futures and options exchanges, their 
clearinghouses, and the NFA. Regarding solicitation of customers, T&M 
staff monitor issues relating to the requirements that registrants 
disclose market risks and past performance information to prospective 
investors. T&M staff also review registrant compliance with the 
requirements that customer funds be kept in accounts separate from 
those maintained by the firm for its own use. In addition, staff ensure 
that customer accounts are adjusted to reflect the current market value 
at the close of each trading day. T&M staff oversee NFA's activities 
relating to registration of individuals and companies that handle 
customer funds or give trading advice, and make appropriate referrals 
to enforcement staff as necessary. Moreover, T&M staff monitor 
registrants' supervision systems, internal controls and sales practice 
compliance, and ethics programs. T&M and EA staffs perform trade 
practice surveillance and work closely with exchanges in their self-
regulatory capacity to ensure that their rules and regulations comport 
with Federal regulation in various areas, including clearance of 
trades, trade orders and records, position limits, price limits, 
disciplinary actions, and floor trading practices. The staffs conduct 
comprehensive semiannual reviews of all domestic futures and options 
exchanges to ensure that they remain in compliance with the Commodity 
Exchange Act and its regulations.
    The Division of Enforcement (DOE) investigates and prosecutes 
alleged violations of the Commodity Exchange Act and Commission 
regulations. DOE takes actions against individuals and firms registered 
with the Commission, those who are engaged in commodity futures and 
options trading on designated domestic exchanges, and those who 
improperly market futures and options contracts.
    DOE staff base investigations on information they develop 
independently, as well as information referred by other Commission 
divisions; industry self-regulatory organizations; State, Federal, and 
international authorities; and members of the public. At the conclusion 
of an investigation, DOE staff may recommend that the Commission 
initiate administrative proceedings or seek injunctive and ancillary 
relief on behalf of the Commission in Federal court. Administrative 
sanctions may include orders suspending, denying, revoking, or 
restricting registration and exchange trading privileges and imposing 
civil monetary penalties, cease and desist orders, and orders of 
restitution. The Commission also may obtain temporary restraining 
orders and preliminary and permanent injunctions in Federal court to 
halt ongoing violations, as well as civil monetary penalties. Other 
relief may include appointment of a receiver, the freezing of assets, 
restitution, and disgorgement of unlawfully acquired benefits. The CEA 
also provides that the Commission may obtain certain temporary relief 
on an ex parte basis, including restraining orders preserving books and 
records, freezing assets, and appointing a receiver. When those 
enjoined violate court orders, DOE staff may seek to have the offenders 
held in contempt.
    The Division of Enforcement works with the Department of Justice in 
the prosecution of criminal activity involving commodity-related 
issues. In addition, DOE staff provide expert help and technical 
assistance to U.S. Attorneys' Offices, other Federal and State law 
enforcement agencies, and international authorities. The Commission and 
individual States may join as co-plaintiffs in civil injunctive actions 
brought to enforce the Commodity Exchange Act.
    The Office of International Affairs (OIA) assists the Commission in 
responding to global market and regulatory changes by coordinating the 
Commission's international activities. OIA provides information and 
technical support to the Commission and to its other offices and 
divisions on international matters; assists the Commission in 
developing rulemakings having foreign implications; analyzes foreign 
regulatory developments; develops regulatory information-sharing 
arrangements; shares regulatory and fitness information with foreign 
authorities; and coordinates technical assistance to foreign 
jurisdictions. OIA represents the Commission in international 
organizations, organizes international conferences on behalf of the 
Commission, and provides technical comments to other U.S. financial 
regulators with respect to relevant international activities.
    The Office of the General Counsel (OGC) is the Commission's legal 
advisor. OGC represents the Commission in appellate litigation and in 
certain trial-level cases, including bankruptcy proceedings that 
involve futures industry professionals. Through its opinions program, 
OGC assists the Commission in performing its adjudicatory functions. As 
legal advisor, OGC reviews all substantive regulatory, legislative, and 
administrative matters presented to the Commission. OGC also advises 
the Commission on the application and interpretation of the Commodity 
Exchange Act and other administrative statutes.
                     highlights of fiscal year 2000
    The Commission's fiscal year 2000 appropriation was $62.8 million. 
This was $1.6 million or a 2.6 percent increase over our fiscal year 
1999 level. Actual staffing levels for fiscal year 2000 were down to 
556 full-time equivalent employees (FTEs) in fiscal year 2000 from 567 
FTEs in fiscal year 1999.
    Approximately three-fourths of the CFTC's appropriation is to cover 
the salary and benefits of the Commission staff. Recruiting and 
retaining a professional staff, consisting primarily of attorneys and 
economists, continues to be one the Commission's largest management 
challenges. Beginning in fiscal year 2000 and continuing in this fiscal 
year, the Commission has moved aggressively to recruit, and more 
importantly retain, its highly specialized professional staff by using, 
when fiscally feasible, all of the flexibilities available to it within 
Title V.
    The remaining quarter of the Commission's budget covers all other 
operating expenses. The two largest operating expenses are the lease of 
office space and the cost of maintaining an information technology 
infrastructure that enables the Commission to maintain an effective 
enforcement and market surveillance presence.
    Keeping pace with the rapid information technology developments in 
the futures industry is perhaps the Commission's second largest 
management challenge. For the first six months of the year 2000, the 
Commission undertook an independent assessment of its information 
technology program. The report included a number of specific 
recommendations including:
  --Reorganizing the Office of Information Resources Management;
  --Reestablishing an information technology strategic planning body 
        with enhanced senior management involvement;
  --Increasing staff, over a two-year period, from 38 FTEs to 58 FTEs, 
        to bring the Commission to acceptable industry standards;
  --Implementing skill requirements for staff based upon the Chief 
        Information Officer's Council Core Competencies framework;
  --Changing the information technology infrastructure, including an 
        enhanced security program; and
  --Reengineering the change management process.
    The Commission initiated a number of these changes with fiscal year 
2000 and fiscal year 2001 resources. For example, the Commission has 
already reallocated an additional six FTEs for information technology 
positions.
    In addition to the significant resources devoted to the substantial 
revisions to the Commodity Exchange Act, the following are some 
highlights from the ongoing work of the Commission's programs:
Enforcement
    In the program areas, the CFTC has used its appropriations to 
maintain an effective enforcement and market surveillance presence in 
the growing futures and option markets. The largest share of our 
resources goes to support the Commission's enforcement program. The 
primary goal of the enforcement program is to police futures markets 
for conduct that violates the Commodity Exchange Act or Commission 
regulations. The Enforcement program continuously looks for new ways to 
enhance the Commission's ability to detect and deter wrongdoing. In 
fiscal year 2000, for example, the Enforcement staff took action in a 
variety of areas including:
    Fraudulent Internet Solicitations.--Internet fraud poses a grave 
new threat because technology now enables malefactors to solicit 
business fraudulently from millions of people quickly and cheaply. To 
combat this threat, the Commission's enforcement program:
  --Published a new Consumer Advisory; participated in Internet 
        surveillance ``surf days'' in cooperation with the Securities 
        and Exchange Commission and the Federal Trade Commission; and 
        trained international enforcement agencies in the investigation 
        and litigation of Internet-related fraud actions.
    On May 1, 2000, the Commission announced the initial results of a 
coordinated enforcement initiative with the Securities and Exchange 
Commission and the Federal Trade Commission aimed at cleaning up 
Internet Web sites. As part of the initiative, the Commission filed and 
simultaneously settled 10 administrative enforcement actions.
    Fraudulent Illegal Commodity Contracts.--Illegal futures or option 
contracts continue to pose a financial threat to the public. The 
Enforcement program actively seeks to protect the public from 
wrongdoers who fraudulently solicit customers for what are purported to 
be financed speculative purchases of precious metals and other 
commodities but which are in fact illegal futures or option contracts. 
In fiscal year 2000, the Commission brought several civil actions 
charging defendants with this type of misconduct. The Commission has 
also issued a Consumer Advisory to address these issues. In the 
Consumer Advisory, the Commission warned that companies making such 
pitches often overstate profit potential while minimizing the risk 
involved, falsely claiming that they are purchasing and storing metal, 
and charging phony ``storage'' and ``interest'' fees.
    Other enforcement initiatives focused on fraudulent trade 
allocations--targeting, for example, wrongdoers who purposefully failed 
to provide account numbers for trades--until after they knew the prices 
at which the trades had been confirmed--in order to favor some 
customers over others in the allocation of profits and losses.
    Market Surveillance, Analysis, and Research.--As noted above, one 
of the Commission's principal responsibilities is to assure that 
futures markets operate competitively, free of manipulation and 
congestion, and serve the price discovery and risk management needs of 
the U.S. and world economies. The Market Surveillance, Analysis, and 
Research programs in the Division of Economic Analysis focus on these 
objectives, periodically examine the effectiveness of their programs, 
and seek to institute revisions that reduce the costs of compliance. 
The following are examples of fiscal year 2000 initiatives in these 
programs:
    Adoption of New Procedures for New Contract Listing and Rule 
Reviews.--The Commission proposed a far-reaching and fundamental change 
to its procedures for listing new contracts offered by U.S. exchanges. 
The change responds to U.S. futures exchanges' concerns that their 
ability to list new contracts without delay is important to their 
continued competitiveness, particularly with foreign exchanges. 
Specifically, the Commission adopted procedures allowing an exchange to 
list new contracts one day after the exchange files a notice with a 
certification that the contract meets the Commission's requirements. 
The certification, in conjunction with fast-track procedures for 
approval of new contracts previously adopted by the Commission, ensures 
that the benefits of a new contract can be brought to the marketplace 
as soon as possible. Since then, the Commission further streamlined the 
exchange rules approval process to permit single, weekly summary 
filings rather than individual submissions.
    Listing of a Variety of New Products. The Commission approved 29 
new futures and option contracts, two of which were approved under 10-
day fast track procedures, and 13 of which were approved under 45-day 
fast track provisions. In addition, exchanges filed 23 new contracts 
for listing under the Commission's certification procedures, which 
permit exchanges to certify their own contracts and list them prior to 
receiving Commission approval. Examples of new contracts include:
  --U.S. Agency Notes based on Freddie Mac and Fannie Mae instruments;
  --Illinois Waterway Barge Freight and St. Louis Harbor Barge Freight 
        futures;
  --Cottonseed Oil futures and futures option contracts;
  --U.S. equity index contracts, including the Dow Jones Utilities 
        Average and the Dow Jones Transportation Average, as well as 
        the Dow Jones Composite Average;
  --Dairy and Livestock products, such as the cash-settled live cattle 
        futures and option contracts based on the value of cattle at 
        slaughter weight;
  --Regional Electricity contracts such as the MidColumbia electricity 
        futures contract, which provides electricity market 
        participants with risk management tools to respond to the 
        evolving electricity cash market in the Pacific Northwest 
        region of the U.S.
    Trading and Markets.--As noted above, T&M staff develop, implement, 
and interpret regulations that protect customers, prevent trading and 
sales practice abuses, and assure the financial integrity of the 
futures markets and firms holding customer funds. During fiscal year 
2000, the Commission published the following final rules, proposed 
rules, orders, and advisories as part of the Commission's effort to 
reduce regulatory burdens:
    Block Trading Proposals.--The Commission approved a proposal by the 
Cantor Financial Futures Exchange, Inc. (Cantor) to establish block-
trading procedures at Cantor. The block-trading program at Cantor 
allows qualified market participants to negotiate and arrange futures 
transactions of a minimum size bilaterally, away from the centralized, 
competitive market. Once the specific terms of the block transaction 
are agreed to, the counterparties report the relevant details of the 
transaction to the exchange for clearing and settlement. The Commission 
also approved a later submission from the Chicago Mercantile Exchange 
to establish block trading.
    Electronic Signatures.--The Commission adopted new rules permitting 
futures commission merchants or FCMs, introducing brokers or IBs, 
commodity trading advisors and commodity pool operators to accept from 
their customers, clients or pool participants electronic signatures in 
those instances where Commission rules require registrants to obtain a 
signature on a document--such as an acknowledgement of receipt of 
required disclosure. The new rules include a definition of ``electronic 
signature'' patterned on the definition in the Uniform Electronic 
Transaction Act and a requirement to employ reasonable safeguards in 
accepting electronic signatures.
    Average Price Calculations.--The Commission issued an advisory 
permitting FCMs to calculate average prices for their customers, when 
permitted to do so by exchange rules, if multiple prices are received 
on an order or series of orders. Previously, the Commission had 
authorized only U.S. trading clearinghouses to perform the 
calculations. FCMs now have greater flexibility and increased 
efficiency in providing average pricing.
    Foreign Futures and Options.--The Commission adopted a rule 
permitting foreign firms acting in the capacity of FCMs and IBs to 
accept and execute foreign futures and option orders received directly 
from certain sophisticated U.S. customers without the firms being 
required to register with the Commission.
              commodity futures modernization act of 2000
    The Commodity Futures Modernization Act (CFMA) was signed into law 
on December 21, 2000, and with its enactment, the Commission was given 
the task of overhauling virtually the entire regulatory structure of 
the commodity futures and options industry. While this will bring 
tremendous pressures to bear on its staff and resources, the Commission 
is extremely pleased to have the opportunity to carry out the mandates 
of this flexible new oversight structure, and the agency is firmly 
committed to doing so in accordance with the timetables that are given 
within the statute.
    The CFMA provides legal certainty for over-the-counter markets, 
lightens regulatory burdens on domestic exchanges, and lifts the ban on 
single-stock futures. The new Act requires action by the Commission, 
including 15 rulemakings and three studies. In some cases, the 
Commission is required to coordinate its efforts with those of other 
Federal regulators. The CFMA also clarified the Commission's authority 
with regard to prosecuting foreign exchange bucket shops and provided a 
new framework for the oversight of designated clearing organizations.
    Additionally, the CFMA moved the Commission from a role as a front-
line regulator to a more flexible oversight role. It might appear that, 
in this new capacity, the Commission would need fewer resources than in 
the past. However, just the opposite is likely to be true. 
Implementation of the CFMA promises to liberate market participants 
from prescriptive, often out-dated, regulations so that innovation in 
new products and new trading platforms may flourish. Market 
participants have already begun to respond enthusiastically to this 
opportunity. However, this very innovation, and the increasing 
diversity in products and platforms that it generates, can present the 
Commission with significant oversight challenges.
    For example, rapid developments in technology, particularly in 
telecommunications and the Internet especially, have sparked great 
interest in electronic exchanges and trading platforms. In just the 
last year or so, the Commission has approved three new exchanges and 
granted no-action relief to two electronic trading platforms for energy 
products. By comparison, for more than a decade prior to that, only two 
new exchanges were designated and neither became an economically viable 
trading platform.
    And it is very likely that those three new exchanges represent only 
the tip of the iceberg. Commission staff are currently reviewing the 
applications of, or have received serious inquiries from, another half 
dozen proposed electronic exchanges and we anticipate that some of the 
electronic cash markets may also give rise to additional electronic 
futures exchanges.
    This exciting growth and innovation in the marketplace has begun, 
and will continue, to provide real benefits to market participants, 
customers, and the economy as a whole. However, because the 
Commission's primary responsibilities have not changed, growth and 
innovation will also place increasingly greater demands on our 
resources. Several areas in particular require significant attention 
and effort:
  --New exchanges and alternate trading platforms, for which tailored 
        oversight must be fashioned to fit each market along a spectrum 
        of regulatory classifications from full oversight to basic 
        fraud and manipulation protections;
  --A new product area (single-stock futures) which potentially will 
        lead to new contracts;
  --Advancements in the practices of clearinghouses to respond properly 
        to these new products and new trading platforms; and
  --Clarification of our enforcement mission to now include 
        prosecutions in the increasingly problematic area of foreign-
        exchange bucket shops.
    To effectively fulfill its responsibilities in these areas, the 
Commission and its staff must rely heavily upon information management 
and telecommunications resources that are capable, efficient, and up-
to-date in order to allow flexible, fast, and appropriate responses to 
market conditions and events. It should be emphasized that, as a 
financial regulator, and particularly a regulator that is witnessing 
phenomenal growth in electronically based market activity, the 
Commission depends heavily upon its information management and 
telecommunications resources. Without adequate resources in this area, 
the Commission cannot effectively monitor markets to detect potential 
problems on a timely basis. Nor can the Commission reconstruct market 
events when disputes arise or when violations are alleged. These 
monitoring and investigative responsibilities require the processing of 
vast quantities of information and the Commission's Office of 
Information Resources Management represents not a support function but 
rather a mission-critical core competency of the Commission.
    But our human resources, the dedicated people that interpret and 
act upon the information provided by our computer resources, are even 
more critically important to the performance of our mission, the 
protection of market participants, and the markets themselves. This 
mission requires staff members with the proper training and solid 
experience in the specifics of the markets we oversee.
                  budget request for fiscal year 2002
    The President's fiscal year 2002 budget request for the Commission 
is $70.4 million. That sum represents an increase of $2.6 million (or 
3.7 percent) over fiscal year 2001 appropriations. To maintain its 
current level of services and operations, the Commission would require 
for fiscal year 2002 approximately $76.2 million. Therefore, this 
budget will finance an estimated 57 fewer FTEs (in staff-years) for 
fiscal year 2002 than is provided for in fiscal year 2001.
           overview of funding levels and operational effects
    The proposed funding level for fiscal year 2002 will require the 
Commission to make some hard choices as it prepares to transform itself 
from a front line regulator to an oversight agency. The Commission's 
top priorities will continue, to every extent possible, to dedicate 
resources to the Enforcement and Surveillance programs and to permit 
ongoing critical investments in technology to increase the Commission's 
ability to make the most of the limited resources.
    The Commission will strive to ensure that the staff reductions will 
not seriously impair the Commission's ability to keep pace with the 
rapid growth in volume and the profound changes resulting from novel 
transactions, new trading systems, new market practices, technological 
advances, market globalization, and efforts to carry out the long 
awaited regulatory reform efforts culminating in the passage of the 
Commodity Futures Modernization Act of 2000 or CFMA.
    Specifically, the fiscal year 2002 President's Budget will result 
in a reduction of twelve staff-years in the Enforcement program--a 
decrease that is approximately the size of an entire investigation/
litigation team. While the FTEs eliminated will be distributed through 
the Enforcement program in an attempt to minimize the impact, this 
decrease will most likely have a measurable impact on the program. For 
example, more and more Americans have money at risk in the futures 
markets either directly or indirectly through pension funds or 
ownership of shares in publicly held companies that participate in the 
markets. The growing size and sophistication of these markets present 
new challenges to the Enforcement program and place new demands on its 
resources. The Enforcement program is important both as a deterrent to 
wrongdoers and as a signal of integrity to inspire confidence on the 
part of market participants. This reduction in staff means the 
Enforcement program will be less well equipped to respond to these 
challenges in the future.
    In fiscal year 2002, the Market Surveillance, Analysis, and 
Research program will lose nine positions. This loss means the level of 
surveillance, exchange oversight, contract design review, and market 
and product study may not be commensurate with the growth in new types 
of exchanges and the initiation of new products, such as single stock 
futures. If growth in the industry outpaces the resources available to 
oversee the industry, several risks are introduced, including the 
increased possibility of undetected price manipulations and abusive 
trading practices. A key goal of the Commission is to ensure that its 
regulatory policies reflect of industry developments so as not to 
impede market innovation. But because these markets and the products 
traded on them are increasingly complex, it will be difficult to meet 
this goal with fewer staff resources.
    The Division of Trading and Markets will lose approximately 17 
positions in fiscal year 2002. Trading and Markets plays an important 
leading role in developing many of the regulatory reform initiatives 
undertaken by the Commission and is key to the implementation of the 
CFMA and the many studies that it requires. In fiscal year 2002, in 
addition to providing guidance to the public and industry professionals 
concerning compliance with the CEA, the program will review Commission 
rules to determine if they should be streamlined further in light of 
technological and market developments, provide guidance to foster 
innovative transactions and electronic trading systems, and monitor the 
risks to regulated industry participants by unregulated derivatives 
activities as well as the risks posed to registrants by their 
unregistered affiliates. In addition, Trading and Markets will strive 
to maintain U.S. leadership in setting internationally acceptable 
standards for the regulation of markets and trading. However, with the 
decreased level of resources the program will not be equipped to 
respond as quickly as desired to these critical challenges and their 
associated interested parties.
    Other program areas at the Commission affected by this decrease 
include the Office of the General Counsel and the Office of 
Proceedings. In the Office of the General Counsel, a reduction of four 
FTEs means there may be delays in reviewing contract market designation 
applications, rule changes, and proposed enforcement actions; in 
analyzing legislation and proposed legislation affecting the 
Commission; in defending the Commission in appellate and other 
litigation; and in assisting the Commission in the performance of its 
adjudicatory functions. Likewise, the Office of Proceedings, which will 
lose five staff members, is expected to experience delays in the 
performance of its responsibility, which is providing an inexpensive, 
impartial, and expeditious forum for handling customer complaints 
against persons or firms registered under the CEA.
    The one function that will receive a net increase in staff is 
information technology. The Commission recognizes that the effective 
use of information technology is critical to the Commission's ability 
to carry out its mandate. The fast growing information-intensive and 
increasingly complex futures industry continues to expand into new 
markets and embrace electronic trading, creating a virtual global 
market. The Commission's investment in staff and budgetary resources in 
information technology is a recognition that the Commission must 
maintain technology capabilities that enable it to provide effective 
oversight of an industry with platforms and products that are 
constantly evolving based on technological innovations. It is critical 
that the Commission's information technology capacity stay on par with 
the industry in order to provide the right information at the right 
time and in the right format to our investigators, analysts, and 
attorneys. The increase of four positions for information technology 
will be more than offset by a reduction of seven positions in finance, 
human resources, and administrative services. The loss of seven 
positions among these administrative support functions means less 
responsive support to our program areas in critical areas such as 
recruiting and retaining employees and planning for the financial 
resources necessary to carry-out our mission. .
    Thank you for the opportunity to present our mission, 
responsibilities, and resource needs as we take on the challenge of 
rethinking our former methods of regulating the safest, soundest 
futures and options markets in the world. The Commission looks forward 
to working with Congress and other Federal financial regulators to 
ensure that we foster innovation and competition in the marketplace to 
enable the markets to grow and maintain their global leadership role. I 
would be happy to provide answers to any questions you may have.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Ad Hoc Coalition, prepared statement.............................   733
Advanced Medical Technology Association (AdvaMed), prepared 
  statement......................................................   741
Alachua County Board of County Commissioners, prepared statement.   743
Alsop, James C., Acting Administrator, Rural Housing Service, 
  Department of Agriculture, prepared statement..................   472
American:
    Dietetic Association, prepared statement.....................   748
    Farm Bureau Federation, prepared statement...................   750
    Farmland Trust, prepared statement...........................   754
    Federation of Government Employees, Local 3354, prepared 
      statement..................................................   756
    Federation of State, County, and Municipal Employees, Local 
      3870, prepared statement...................................   756
    Forest & Paper Association, prepared statement...............   760
    Honey Producers Association, Inc., prepared statement........   764
    Horse Protection Association, Inc., prepared statement.......   765
    Indian Higher Education Consortium, prepared statement.......   767
    Phytopathological Society, prepared statement................   770
    Rivers, prepared statement...................................   772
    Seed Trade Association, Inc., prepared statement.............   774
    Sheep Industry Association, prepared statement...............   776
    Society for Microbiology, prepared statement.................   779
    Society of Civil Engineers, prepared statement...............   781
    Society of Plant Physiologists, prepared statement...........   783
Association of:
    Coordination Council (ACC), prepared statement...............   922
    Research Directors, prepared statement.......................   786
    State Dam Safety Officials, Inc., prepared statement.........   787

Berne, Bernard H., M.D., Ph.D., prepared statement...............   789
Billy, Thomas J., Administrator, Food Safety and Inspection 
  Service, Department of Agriculture, prepared statement.........   429
Bond, Hon. Christopher S., U.S. Senator from Missouri, statements 
  of.............................................................3, 280
Bosecker, R. Ronald, Administrator, National Agricultural 
  Statistics Service, Department of Agriculture, prepared 
  statement......................................................   402
Braley, George A., Acting Administrator, Food and Nutrition 
  Service, Department of Agriculture, prepared statement.........   440
Byrd, Hon. Robert C., U.S. Senator from West Virginia, questions 
  submitted by...................................................   156

California Industry and Government Central California Ozone Study 
  Coalition, prepared statement..................................   791
Chambliss, Mary, Acting General Sales Manager, Department of 
  Agri- 
  ture...........................................................   161
Clayton, Kenneth C., Acting Administrator, Agricultural Marketing 
  Service, Department of Agriculture, prepared statement.........   405
Coachella Valley Water District, prepared statement..............   817
Coalition for APHIS/Animal Care Appropriations, prepared 
  statement......................................................   792
Coalition for Food Aid, prepared statement.......................   797
Coalition of ESPCoR States, prepared statement...................   795
Coalition to Promote U.S. Agricultural Exports, prepared 
  statement......................................................   800
Cochran, Hon. Thad, U.S. Senator from Mississippi:
    Opening statements......................................1, 161, 279
    Questions submitted by.......................40, 226, 248, 399, 487
Collins, Keith, Chief Economist, Office of the Secretary, 
  Department of Agriculture......................................1, 161
    Prepared statement...........................................   189
    Statement of.................................................   187
Colorado:
    River Basin Salinity Control Forum, prepared statement.......   801
    River Board of California, prepared statement................   803
    State University, prepared statement.........................   804
Columbia University, prepared statement..........................   806
Community Medical Centers, prepared statement....................   807
Cooper, Norman G., Director, National Appeals Division, 
  Department of Agriculture, prepared statement..................   443
Council for Agricultural Research, Extension, and Teaching, 
  prepared statement.............................................   808
Craig, Hon. Larry E., U.S. Senator from Idaho:
    Questions submitted by.......................................   122
    Statement of.................................................     8

Defenders of Wildlife, prepared statement........................   810
Dewhurst, Stephen B., Budget Officer, Office of the Secretary, 
  Department of Agriculture......................................     1
Dorgan, Hon. Byron L., U.S. Senator from North Dakota:
    Prepared statements.........................................10, 204
    Questions submitted by...........................149, 233, 274, 276
    Statement of.................................................     9
Durbin, Hon. Richard J., U.S. Senator from Illinois:
    Prepared statements....................................13, 205, 286
    Questions submitted by.......................................   149
    Statement of.................................................    11

Easter Seals, prepared statement.................................   811

Fiddick, Paul W., Assistant Secretary for Administration, 
  Departmental Administration, Department of Agriculture, 
  prepared statement.............................................   468
Florida State University, prepared statement.....................   813
Friends of Agricultural Research--Beltsville, prepared statement.   815
Friends of the National Arboretum, prepared statement............   816

Hagy, William F., III, Acting Administrator, Rural Business-
  Cooperative Service, Department of Agriculture, prepared 
  statement......................................................   377
Harkin, Hon. Tom, U.S. Senator of Iowa, questions submitted by.147, 272
Healy, Patricia E., Acting Chief Financial Officer, Office of the 
  Chief Financial Officer, Department of Agriculture, prepared 
  statement......................................................   399
Hefferan, Dr. Colien, Administrator, Cooperative State Research, 
  Education, and Extension Service, Department of Agriculture, 
  prepared statement.............................................   448
Herglotz, Kevin, Acting Director of Communications, Office of 
  Communications, Department of Agriculture, prepared statement..   385
Hobbs, Ira L., Acting Chief Information Officer, Office of the 
  Chief Information Officer, Department of Agriculture, prepared 
  statement......................................................   460
Honor, Phyllis W., Acting Administrator, Risk Management Agency, 
  Department of Agriculture......................................   161
    Prepared statement...........................................   179
Horn, Dr. Floyd P., Administrator, Agricultural Research Service, 
  Department of Agriculture, prepared statement..................   373
Humane Society of the United States, prepared statement..........   817

Illinois Soybean Association and the University of Illinois, 
  prepared statement.............................................   821
Imperial Irrigation District, prepared statement.................   817
International Association of Fish and Wildlife Agencies, prepared 
  statement......................................................   836

Johnson, Hon. Tim, U.S. Senator from South Dakota:
    Prepared statements.....................................5, 202, 283
    Questions submitted by................................152, 234, 275
    Statements of................................................4, 282
Joslin Diabetes Center, prepared statement.......................   838

Kaplan, Dennis, Deputy Director, Office of Budget and Program 
  Analysis, Department of Agriculture............................   161
Kelly, James Michael, Acting General Counsel, Office of the 
  General Counsel, Department of Agriculture, prepared statement.   386
Kohl, Hon. Herb, U.S. Senator from Wisconsin:
    Prepared statements........................................202, 285
    Questions submitted by...........................123, 232, 270, 275
    Statement of.................................................     2

Levitt, Joseph A., Center for Food Safety and Applied Nutrition, 
  Food and Drug Administration, Department of Health and Human 
  Services.......................................................   279
Little, James R., Acting Administrator, Farm Service Agency, 
  Department of Agriculture, prepared statements...............161, 477

Metropolitan Water District of Southern California, prepared 
  statements...................................................817, 839
Multi-Crop Aflatoxin Working Group, prepared statement...........   841

National Association of:
    Conservation Districts, prepared statement...................   844
    FSA County Office Employees, prepared statement..............   842
    Professional Forestry Schools and Colleges, prepared 
      statement..................................................   847
    State Universities and Land-Grant Colleges, prepared 
      statement..................................................   851
    WIC Directors, prepared statement............................   856
National:
    Beef Cattle Evaluation Consortium, prepared statement........   858
    Coalition for Food and Agricultural Research, prepared 
      statement..................................................   860
    Congress of American Indians, prepared statement.............   870
    Consortium for Rural Geospatial Innovations in America, 
      prepared statement.........................................   862
    Corn Growers Association, prepared statement.................   869
    Cotton Council of America, prepared statement................   864
    Council of Farmer Cooperatives, prepared statement...........   866
    Fire Ant Task Force, prepared statement......................   903
    Food Processors Association, prepared statement..............   872
    Labor Coordination Council (NLCC), prepared statement........   922
    Organization for Rare Disorders, Inc., prepared statement....   874
    Potato Council, prepared statement...........................   876
    Rural Housing Coalition, prepared statement..................   880
    Rural Telecom Association, prepared statement................   884
    Telephone Cooperative Association, prepared statement........   887
    Treasury Employees Union, prepared statement.................   890
    Turfgrass Evaluation Program, prepared statement.............   892
    Utility Contractors Association, prepared statement..........   895
    Watershed Coalition, prepared statement......................   896
New Mexico Interstate Stream, prepared statement.................   899
Newsome, James E., Acting Chairman, Commodity Futures Trading 
  Commission, prepared statement.................................   942
Nez Perce Tribal Executive Committee, prepared statement.........   900
Northwest Indian Fisheries Commission, prepared statement........   901

Offutt, Susan E., Administrator, Economic Research Service, 
  Department of Agriculture, prepared statement..................   444
Oklahoma Fire Ant Research and Management Advisory Committee Task 
  Force, prepared statement......................................   903
Organization for the Promotion and Advancement of Small 
  Telecommunications Companies, prepared statement...............   907

Partners for Rural America, prepared statement...................   878

Red River Valley Association, prepared statement.................   910
Reed, Dr. Craig A., Administrator, Animal and Plant Health 
  Inspection Service, Department of Agriculture, prepared 
  statement......................................................   409
Reed, Pearlie S., Chief, Natural Resources Conservation Service, 
  Department of Agriculture, prepared statement..................   381
Reyna, Honorable Michael M., Chairman and Chief Executive 
  Officer, Farm Credit Administration, prepared statement........   481

San Diego County Water Authority, prepared statement.............   817
Schwetz, Bernard, D.V.M., Ph.D., Acting Principal Deputy 
  Commissioner, Food and Drug Administration, Department of 
  Health and Human Services......................................   279
    Prepared statement...........................................   291
Seminole Tribe of Florida, prepared statement....................   912
Sharpless, Mattie R., Acting Administrator, Foreign Agricultural 
  Service, Department of Agriculture, prepared statement.........   181
Shipman, David R., Acting Administrator, Grain Inspection, 
  Packers and Stockyards Administration, Department of 
  Agriculture, prepared state- 
  ment...........................................................   451
Shipman, Thomas Hunt, Acting Deputy Under Secretary, Farm and 
  Foreign Agricultural Services, Department of Agriculture.......   161
    Prepared statement...........................................   166
    Statement of.................................................   162
Society for Animal Protective Legislation, prepared statement....   914
Southern Illinois University, prepared statement.................   823
Specter, Hon. Arlen, U.S Senator from Pennsylvania, questions 
  submitted by............................................119, 232, 269
State of:
    Illinois, prepared statement.................................   829
    Wyoming, prepared statement..................................   940
Stockton, Blaine D., Acting Administrator, Rural Utilities 
  Service, Department of Agriculture, prepared statements........   367
Sundlof, Stephen, D.V.M., Ph.D., Director, Center for Veterinary 
  Medicine, Food and Drug Administration, Department of Health 
  and Human Services.............................................   279
Suydam, Dr. Linda, Senior Associate Commissioner, Food and Drug 
  Administration, Department of Health and Human Services........   279

Texas A&M University System, prepared statement..................   917

Union Coordination Council (UCC), prepared statement.............   922
U.S. Apple Association, prepared statement.......................   920
U.S. Marine Shrimp Farming Consortium, prepared statement........   938
United States Beet Sugar Industry, prepared statement............   934
United States Telecom Association, prepared statement............   924
University of Illinois, prepared statements...............823, 825, 827
University of Missouri, prepared statement.......................   823
University of Southern Mississippi Polymer Institute, prepared 
  statement......................................................   927
Upper Mississippi River Basin Association, prepared statement....   930
USA Rice Federation, prepared statement..........................   931

Veneman, Hon. Ann M., Secretary of Agriculture, Office of the 
  Secretary, Department of Agriculture...........................     1
    Oral remarks.................................................    17
    Prepared statement...........................................    20
Viadero, Roger C., Inspector General, Office of Inspector 
  General, Department of Agriculture, prepared statement.........   419

Weber, Jeffrey, Acting Senior Associate Commissioner for 
  Management and Systems, Food and Drug Administration, 
  Department of Health and Human Services........................   279
Weems, Kerry, Acting Deputy Assistant Secretary for Budget, Food 
  and Drug Administration, Department of Health and Human 
  Services.......................................................   279
Wellstone, Hon. Paul D., U.S. Senator from Minnesota, letter from    16
Wildlife Management Institute, prepared statement................   939
Woodcock, Janet, M.D., Director, Center for Drug Evaluation and 
  Research, Food and Drug Administration, Department of Health 
  and Human Services.............................................   279

Zoon, Kathryn, Ph.D., Director, Center for Biologics, Food and 
  Drug Administration, Department of Health and Human Services...   279


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                     Agricultural Marketing Service

                                                                   Page
Agricultural marketing...........................................   406
Budget:
    Proposal.....................................................   407
    Request summary..............................................   409
Federal-State Marketing Improvement Program......................   407
Mandatory market news............................................   406
Microbiological data program.....................................   407
Mission..........................................................   405
National organic program.........................................   406
Pesticide data program...........................................   407

                     Agricultural Research Service

Fiscal year 2002 budget recommendations..........................   374
Proposed fiscal year 2002 buildings and facilities increases.....   376

               Animal and Plant Health Inspection Service

Our budget request...............................................   418

      Cooperative State Research, Education, and Extension Service

Advanced:
    Genetic technologies, Kentucky...............................   487
    Spatial technologies, Mississippi............................   488
Aflatoxin research, Illinois.....................................   488
AG-based industrial lubricants research program, Iowa............   492
Agricultural:
    Diversification and speciality crops, Hawaii.................   489
    Diversity/Red River, Minnesota and North Dakota..............   491
    Telecommunications, New York.................................   494
Agriculture water usage, Georgia.................................   495
Agroecology, Maryland............................................   496
Alliance for Food Protection, Nebraska and Georgia...............   496
Alternative:
    Crops for arid lands, Texas..................................   499
    Crops, North Dakota..........................................   498
    Nutrient management, Vermont.................................   500
    Salmon products, Alaska......................................   501
Animal Science Food Safety Consortium............................   502
Apple fire blight, Michigan and New York.........................   503
Aquaculture:
    Arkansas.....................................................   504
    Florida......................................................   505
    Louisiana....................................................   505
    North Carolina...............................................   508
    Product and marketing development, West Virginia.............   510
    Research, Stoneville, Mississippi............................   506
    Virginia.....................................................   509
    Washington...................................................   509
Asparagus technology and production, Washington..................   511
Babcock Institute for International Dairy Research and 
  Development....................................................   512
Beef technology transfer, Missouri...............................   513
Biobased technology, Michigan....................................   514
Bioinformatics initiative, Virginia..............................   514
Biomass-based energy research, Oklahoma and Mississippi..........   515
Biotechnology, North Carolina....................................   516
Blocking anhydrous methamphetamine production, Iowa..............   516
Bovine tuberculosis, Michigan....................................   517
Brucellosis vaccine, Montana.....................................   518
Center for:
    Animal Health and Productivity, Pennsylvania.................   519
    Rural Studies, Vermont.......................................   520
Chesapeake Bay:
    Agroecology, Maryland........................................   521
    Aquaculture, Maryland........................................   522
Citrus:
    Canker, Florida..............................................   523
    Tristeza.....................................................   524
Competitiveness of agriculture products, Washington..............   524
Cool season legume research, Idaho...............................   526
Cranberry and blueberry, Massachusetts...........................   527
Cranberry-blueberry disease and breeding, New Jersey.............   528
Critical issues..................................................   529
Dairy:
    And meat goat research, Texas................................   531
    Farm profitability, Pennsylvania.............................   532
Delta rural revitalization, Mississippi..........................   532
Designing foods for health, Texas................................   534
Diaprepes/rootweevil, Florida....................................   535
Drought mitigation, Nebraska.....................................   536
Ecosystems, Alabama..............................................   537
Efficient irrigation, New Mexico and Texas.......................   538
Environmental:
    Biotechnology, Rhode Island..................................   539
    Horticulture, Florida........................................   540
    Research, New York...........................................   540
    Risk factors/cancer, New York................................   542
Environmentally safe products, Vermont...........................   543
Exotic pest diseases, California.................................   544
Expanded wheat pasture, Oklahoma.................................   545
Expert IPM decision support system...............................   546
Farm injuries and illnesses, North Carolina......................   547
Feed barley for rangeland cattle, Montana........................   548
Fiscal year 2002 budget highlights...............................   450
Fish and shellfish technologies, Virginia........................   549
Floriculture, Hawaii.............................................   550
Food:
    Agriculture Policy Research Institute, Iowa and Missouri.....   551
    Irradiation, Iowa............................................   552
    Marketing Policy Center, Connecticut.........................   554
    Processing Center, Nebraska..................................   555
    Quality, Alaska..............................................   556
    Safety Research Consortium, New York.........................   558
    Safety, Alabama..............................................   557
    Systems Research Group, Wisconsin............................   559
Forages for advanced livestock production, Kentucky..............   560
Forestry research, Arkansas......................................   561
Fruit and vegetable market analysis, Arizona and Missouri........   562
Generic commodity promotion, New York............................   563
Global change....................................................   564
Grain sorghum, Kansas............................................   566
Grass seed cropping systems for sustainable agriculture, ID, OR, 
  & WA...........................................................   567
Human nutrition:
    Iowa.........................................................   568
    Louisiana....................................................   569
    New York.....................................................   570
Hydroponic tomato production, Ohio...............................   572
Illinois-Missouri Alliance for Biotechnology.....................   573
Improved dairy management practices, Pennsylvania................   574
Improved:
    Early detection of crop disease, North Carolina..............   575
    Fruit practices, Michigan....................................   575
Infectious disease research, Colorado............................   576
Institute for Food Science and Engineering, Arkansas.............   577
Integrated:
    Pest management..............................................   578
    Production systems, Oklahoma.................................   580
Intelligent quality sensor for food safety, North Dakota.........   581
International Arid Lands Consortium, Arizona.....................   581
Iowa Biotechnology Consortium....................................   582
IR-4 minor crop management.......................................   584
Jointed goatgrass--aegilops cylindricum, Washington..............   586
Livestock and dairy policy, New York and Texas...................   588
Lowbush blueberry research, Maine................................   589
Mandatory programs...............................................   450
Maple research, Vermont..........................................   590
Meadowfoam, Oregon...............................................   591
Michigan Biotechnology Consortium................................   592
Midwest Advanced Food Manufacturing Alliance, Nebraska...........   593
Midwest agricultural products, Iowa..............................   594
Milk safety, Pennsylvania........................................   595
Minor use animal drugs...........................................   596
Molluscan shellfish, Oregon......................................   599
Multi-commodity research, Oregon.................................   600
Multi-cropping strategies for aquaculture, Hawaii................   601
National:
    Beef Cattle Genetic Evaluation Consortium, New York..........   602
    Biological impact assessment program, Virginia...............   603
Nematode resistance genetic engineering, New Mexico..............   604
Nevada arid rangelands initiative................................   605
New crop opportunities:
    Alaska.......................................................   606
    Kentucky.....................................................   607
Nonfood agricultural products program, Nebraska..................   608
Nursery, greenhouse, and turf specialities, Alabama..............   609
Oil resources from desert plants, New Mexico.....................   610
Organic waste utilization, New Mexico............................   611
Pasture and forage research, Utah................................   612
Peach tree short life in South Carolina, South Carolina..........   612
Peanut allergy reduction, Alabama................................   613
Pest:
    Control alternatives, South Carolina.........................   614
    Management alternatives......................................   615
Phytophthora root rot, New Mexico................................   616
Pierce's disease, California.....................................   617
Plant, drought, and disease resistance gene cataloging, New 
  Mexico.........................................................   618
Potato research..................................................   619
Pre-harvest food safety, Kansas..................................   620
Precision agriculture, Kentucky..................................   620
Preservation and processing research, Oklahoma...................   622
Produce pricing, Arizona.........................................   623
Protein utilization, Iowa........................................   623
Rangeland ecosystems, New Mexico.................................   624
Red snapper research, Alabama....................................   625
Regional barley gene mapping project.............................   626
Regionalized implications of farm programs, Missouri and Texas...   627
Rice modeling, Arkansas..........................................   628
Rural:
    Development centers..........................................   629
    Policies Institute, NE, IA, MO...............................   633
Russian wheat aphid, Colorado....................................   634
Safe vegetable production, Georgia...............................   636
Satsuma orange production, Alabama...............................   636
Sclerotinia disease research, Minnesota..........................   637
Seafood harvesting, processing, and marketing:
    Alaska.......................................................   638
    Mississippi..................................................   639
Seafood safety, Massachusetts....................................   640
Small fruit research, OR, WA, and ID.............................   641
Southwest Consortium for Plant Genetics and Water Resources......   642
Soybean cyst nematode, Missouri..................................   643
Steep III--water quality in Pacific Northwest....................   644
Sustainable agriculture:
    California...................................................   646
    Michigan.....................................................   647
    Systems, Nebraska............................................   648
Sustainable:
    And natural resources, Pennsylvania..........................   649
    Beef supply, Montana.........................................   650
    Pest management for dryland wheat, Montana...................   651
Swine waste treatment, North Carolina............................   652
Technology development of renewable resources, Missouri..........   654
Tillage, silviculture, and waste management, Louisiana...........   654
Tomato wilt virus, Georgia.......................................   655
Tropical:
    And subtropical research.....................................   657
    Aquaculture, Florida.........................................   656
Turkey coronavirus, Indiana......................................   659
Value-added product:
    Development from agricultural resources, Montana.............   660
    Illinois.....................................................   660
Vidalia onions, Georgia..........................................   661
Viticulture Consortium, New York and California..................   662
Water conservation, Kansas.......................................   663
Weed control, North Dakota.......................................   664
Wetland plants, Louisiana........................................   665
Wheat:
    Genetics, Kansas.............................................   666
    Sawfly research, Montana.....................................   667
Wood utilization research........................................   668
Wool research, Texas, Wyoming, and Montana.......................   670

               extension federal administration projects

After-school programs, California................................   704
Agriculture in the Classroom.....................................   704
Beef improvement, Arkansas.......................................   706
Botanic garden initiative, Illinois..............................   707
Conservation technology transfer, Wisconsin......................   708
Dairy education, Iowa............................................   709
Delta Teachers Academy...........................................   710
Diabetes detection and prevention, Washington and Hawaii.........   711
Efficient irrigation, New Mexico and Texas.......................   713
Extension specialist, Mississippi................................   713
Family Farm Beef Industry Network, Ohio..........................   714
Food:
    Animal residue avoidance database............................   715
    Electronically and effectively distributed (FEED) 
      demonstration project, Oregon..............................   716
Income enhancement demonstration, Ohio...........................   716
Integrated cow-calf resources management (CHIPS), Iowa...........   717
National Education Center for Agricultural Safety, Iowa..........   719
Pilot technology project, Wisconsin............................632, 720
Potato pest management, Wisconsin................................   722
Range policy development, New Mexico.............................   723
Rural:
    Development through tourism, New Mexico......................   724
    Development, Alaska..........................................   724
    Rehabilitation, Georgia......................................   725
Technology transfer projects, Oklahoma and Mississippi...........   727
Vocational agriculture, Oklahoma.................................   728
Wood biomass, New York...........................................   727

               federal administration and special grants

Agricultural:
    Development in the American Pacific..........................   672
    Waste utilization, West Virginia.............................   674
    Water policy, Georgia........................................   675
Animal waste management, Oklahoma................................   675
Biotechnology research, Mississippi..............................   677
Center for:
    Agriculture and Rural Development............................   677
    Innovative Food Technology, Ohio.............................   679
    North American Studies, Texas................................   680
Climate change research, Florida.................................   681
Cotton research, Texas...........................................   681
Curriculum development/Mississippi Valley State University.......   682
Data information system questions................................   684
Geographic information system....................................   686
Germplasm development in forage grasses, Ohio....................   688
Gulf coast shrimp aquaculture....................................   689
Livestock Marketing Information Center, Colorado.................   690
Mariculture, North Carolina......................................   691
National:
    Alternative Fuels Laboratory, North Dakota...................   692
    Center for Peanut Competitiveness, Georgia...................   693
PM-10 study, Washington..........................................   694
Precision agriculture:
    Alabama Geospatial Training and Application Center...........   696
    Tennessee Valley Research and Extension Center, Alabama......   696
Sustainable agriculture development, Ohio........................   697
Urban silviculture, New York.....................................   697
Water quality:
    Illinois.....................................................   698
    North Dakota.................................................   701
Wetland plants, West Virginia....................................   703

                      Departmental Administration

Agriculture buildings and facilities.............................   471
Biobased products and bioenergy..................................   470
Civil rights.....................................................   468
Conflict prevention and resolution...............................   469
Crisis planning and management...................................   470
Direct appropriation.............................................   472
Federal excess personal property program.........................   470
Government ethics program........................................   471
Hazardous materials management...................................   471
Human resources management.......................................   470
Outreach.........................................................   469
Procurement policy...............................................   470
Small and disadvantaged business utilization.....................   469

                       Economic Research Service

Budget...........................................................   444
Customers, partners, and stakeholders............................   448
Economic analysis and expert witness support for the Pigford 
  consent de- 
  cree...........................................................   447
ERS contributions to mission area goals..........................   444
Mission..........................................................   444

                 Farm and Foreign Agricultural Services

Activities for fiscal year 2001 are as of April 27, 2001.........   253
Administrative and operating (A&O) expenses......................   180
AG mediation.....................................................   233
Agricultural trade/Foreign Agricultural Service..................   248
Bioenergy program..............................................214, 234
Byrd amendment on dumping........................................   269
Catfish imports..................................................   269
Cochran Fellowship Program.......................................   250
Commodity loan rates...........................................217, 230
Conservation:
    Program cuts.................................................   235
    Reserve program:
        Acreage..................................................   230
        Technical assistance.....................................   273
Cranberry marketing..............................................   212
Crop:
    Insurance coverage of unharvested sunflowers and corn in 
      North Da- 
      kota.......................................................   276
    Loss assistance..............................................   231
Dairy:
    Export incentive program (DEIP)............................209, 270
    Policy.....................................................206, 275
Effects of energy costs..........................................   226
Emergency:
    Disaster assistance payments.................................   223
    Farm assistance..............................................   271
Export credit:
    Guarantee activities.........................................   252
    Guarantees...................................................   272
Farm:
    Economy......................................................   212
    Emergency aid................................................   235
    Income.......................................................   227
    Program delivery.............................................   233
    Repayment....................................................   221
    Service Agency (FSA).........................................   166
FCIC fund........................................................   181
Food aid.........................................................   274
Foot and mouth disease...........................................   272
Foreign:
    Agricultural Service (FAS)...................................   175
    Market development (FMD) cooperator program 

Guarantees

272____________________________________________________________________

Farm:

Economy

212____________________________________________________________________

Emergency aid

235____________________________________________________________________

Income

227____________________________________________________________________

Program delivery

233____________________________________________________________________

Repayment

221____________________________________________________________________

Service Agency (FSA)

166____________________________________________________________________

FCIC fund

181____________________________________________________________________

Food aid

274____________________________________________________________________

Foot and mouth disease

272____________________________________________________________________

Foreign:

Agricultural Service (FAS)

175____________________________________________________________________

Market development (FMD) cooperator program

268, 273_______________________________________________________________

Fruit and vegetable violations rule

234____________________________________________________________________

FSA staffing

219____________________________________________________________________

Global school feeding program

272____________________________________________________________________

International trade/MPC

270____________________________________________________________________

Lamb meat adjustment assistance program

275____________________________________________________________________

LDP program repayments in Pennsylvania

232____________________________________________________________________

New farm bill

Farm:

Economy

212____________________________________________________________________

Emergency aid

235____________________________________________________________________

Income

227____________________________________________________________________

Program delivery

233____________________________________________________________________

Repayment

221____________________________________________________________________

Service Agency (FSA)

166____________________________________________________________________

FCIC fund

181____________________________________________________________________

Food aid

274____________________________________________________________________

Foot and mouth disease

272____________________________________________________________________

Foreign:

Agricultural Service (FAS)

175____________________________________________________________________

Market development (FMD) cooperator program

268, 273_______________________________________________________________

Fruit and vegetable violations rule

234____________________________________________________________________

FSA staffing

219____________________________________________________________________

Global school feeding program

272____________________________________________________________________

International trade/MPC

270____________________________________________________________________

Lamb meat adjustment assistance program

275____________________________________________________________________

LDP program repayments in Pennsylvania

232____________________________________________________________________

New farm bill

Economy

212____________________________________________________________________

Emergency aid

235____________________________________________________________________

Income

227____________________________________________________________________

Program delivery

233____________________________________________________________________

Repayment

221____________________________________________________________________

Service Agency (FSA)

166____________________________________________________________________

FCIC fund

181____________________________________________________________________

Food aid

274____________________________________________________________________

Foot and mouth disease

272____________________________________________________________________

Foreign:

Agricultural Service (FAS)

175____________________________________________________________________

Market development (FMD) cooperator program

268, 273_______________________________________________________________

Fruit and vegetable violations rule

234____________________________________________________________________

FSA staffing

219____________________________________________________________________

Global school feeding program

272____________________________________________________________________

International trade/MPC

270____________________________________________________________________

Lamb meat adjustment assistance program

275____________________________________________________________________

LDP program repayments in Pennsylvania

232____________________________________________________________________

New farm bill

Export credit:

Guarantee activities

252____________________________________________________________________

Guarantees

272____________________________________________________________________

Farm:

Economy

212____________________________________________________________________

Emergency aid

235____________________________________________________________________

Income

227____________________________________________________________________

Program delivery

233____________________________________________________________________

Repayment

221____________________________________________________________________

Service Agency (FSA)

166____________________________________________________________________

FCIC fund

181____________________________________________________________________

Food aid

274____________________________________________________________________

Foot and mouth disease

272____________________________________________________________________

Foreign:

Agricultural Service (FAS)

175____________________________________________________________________

Market development (FMD) cooperator program

268, 273_______________________________________________________________

Fruit and vegetable violations rule

234____________________________________________________________________

FSA staffing

219____________________________________________________________________

Global school feeding program

272____________________________________________________________________

International trade/MPC

270____________________________________________________________________

Lamb meat adjustment assistance program

275____________________________________________________________________

LDP program repayments in Pennsylvania

232____________________________________________________________________

New farm bill226

Emergency:

Disaster assistance payments

223____________________________________________________________________

Farm assistance

271____________________________________________________________________

Export credit:

Guarantee activities

252____________________________________________________________________

Guarantees

272____________________________________________________________________

Farm:

Economy

212____________________________________________________________________

Emergency aid

235____________________________________________________________________

Income

227____________________________________________________________________

Program delivery

233____________________________________________________________________

Repayment

221____________________________________________________________________

Service Agency (FSA)

166____________________________________________________________________

FCIC fund

181____________________________________________________________________

Food aid

274____________________________________________________________________

Foot and mouth disease

272____________________________________________________________________

Foreign:

Agricultural Service (FAS)

175____________________________________________________________________

Market development (FMD) cooperator program

268, 273_______________________________________________________________

Fruit and vegetable violations rule

234____________________________________________________________________

FSA staffing

219____________________________________________________________________

Global school feeding program

272____________________________________________________________________

International trade/MPC

270____________________________________________________________________

Lamb meat adjustment assistance program

275____________________________________________________________________

LDP program repayments in Pennsylvania

232____________________________________________________________________

New farm bill

Guarantees

272____________________________________________________________________

Farm:

Economy

212____________________________________________________________________

Emergency aid

235____________________________________________________________________

Income

227____________________________________________________________________

Program delivery

233____________________________________________________________________

Repayment

221____________________________________________________________________

Service Agency (FSA)

166____________________________________________________________________

FCIC fund

181____________________________________________________________________

Food aid

274____________________________________________________________________

Foot and mouth disease

272____________________________________________________________________

Foreign:

Agricultural Service (FAS)

175____________________________________________________________________

Market development (FMD) cooperator program

268, 273_______________________________________________________________

Fruit and vegetable violations rule

234____________________________________________________________________

FSA staffing

219____________________________________________________________________

Global school feeding program

272____________________________________________________________________

International trade/MPC

270____________________________________________________________________

Lamb meat adjustment assistance program

275____________________________________________________________________

LDP program repayments in Pennsylvania

232____________________________________________________________________

New farm billFarm:

Economy

212____________________________________________________________________

Emergency aid

235____________________________________________________________________

Income

227____________________________________________________________________

Program delivery

233____________________________________________________________________

Repayment

221____________________________________________________________________

Service Agency (FSA)

166____________________________________________________________________

FCIC fund

181____________________________________________________________________

Food aid

274____________________________________________________________________

Foot and mouth disease

272____________________________________________________________________

Foreign:

Agricultural Service (FAS)

175____________________________________________________________________

Market development (FMD) cooperator program

268, 273_______________________________________________________________

Fruit and vegetable violations rule

234____________________________________________________________________

FSA staffing

219____________________________________________________________________

Global school feeding program

272____________________________________________________________________

International trade/MPC

270____________________________________________________________________

Lamb meat adjustment assistance program

275____________________________________________________________________

LDP program repayments in Pennsylvania

232____________________________________________________________________

New farm bill

Guarantees

272____________________________________________________________________

Farm:

Economy

212____________________________________________________________________

Emergency aid

235____________________________________________________________________

Income

227____________________________________________________________________

Program delivery

233____________________________________________________________________

Repayment

221____________________________________________________________________

Service Agency (FSA)

166____________________________________________________________________

FCIC fund

181____________________________________________________________________

Food aid

274____________________________________________________________________

Foot and mouth disease

272____________________________________________________________________

Foreign:

Agricultural Service (FAS)

175____________________________________________________________________

Market development (FMD) cooperator program

268, 273_______________________________________________________________

Fruit and vegetable violations rule

234____________________________________________________________________

FSA staffing

219____________________________________________________________________

Global school feeding program

272____________________________________________________________________

International trade/MPC

270____________________________________________________________________

Lamb meat adjustment assistance program

275____________________________________________________________________

LDP program repayments in Pennsylvania

232____________________________________________________________________

New farm bill

Fruit and vegetable violations rule..............................   234
FSA staffing.....................................................   219
Global school feeding program....................................   272
International trade/MPC..........................................   270
Lamb meat adjustment assistance program..........................   275
LDP program repayments in Pennsylvania...........................   232
New farm bill....................................................   213
New markets--biotechnology.......................................   232
Overseas offices.................................................   266
Production flexibility contract payments.........................   226
Public Law 480...................................................   268
Quality loss program.............................................   234
Risk Management Agency (RMA).....................................   172
Starlink buy-back/bioengineered foods..........................231, 248
State:
    AG mediation grants program funding..........................   235
    Mediation grants.............................................   232
Surplus commodity program 416(B) and Public Law 480..............   274
Wool Assistance Program..........................................   236

                          Farm Service Agency

Administrative support...........................................   480
Commodity Credit Corporation.....................................   478
Condition of the farm credit system..............................   483
Farm Credit Administration, mission of the.......................   481
Farm loan programs...............................................   479
Federal Agricultural Mortgage Corporation........................   484
Fiscal year:
    2000 accomplishments.........................................   481
    2002 budget request..........................................   481
Other appropriated programs......................................   479

                       Food and Nutrition Service

Child nutrition programs.........................................   441
Commodity assistance programs....................................   442
Food:
    Program Administration.......................................   443
    Stamp program................................................   440
Nutrition program for the elderly................................   443
School meals initiative and team nutrition.......................   441
Special supplemental nutrition program for women, infants, and 
  children (WIC).................................................   441
2002 budget request..............................................   440
WIC:
    Electronic benefit transfer (EBT)............................   442
    Farmers' market nutrition program............................   442

                   Food Safety and Inspection Service

Communication with stakeholders..................................   435
Fiscal year 2002 budget request..................................   438
FSIS overview....................................................   429
Infrastructure...................................................   430
Targeting risk in the food safety and inspection program.........   432
Upgrading education, training and professional skills in the 
  workforce......................................................   435
Workplace environment............................................   434

        Grain Inspection, Packers and Stockyards Administration

Fiscal year 2002 budget request..................................   458
GIPSA's:
    Federal Grain Inspection Service.............................   455
    Packers and stockyards programs (P&S)........................   452
Organization.....................................................   451

                National Agricultural Statistics Service

Fiscal year 2002 plans...........................................   405

                       National Appeals Division

Mission..........................................................   444

                 Natural Resources Conservation Service

Commodity Credit Corporation funded conservation programs........   383
Conservation through partnerships................................   385
Discretionary funding............................................   381

                        Office of Communications

Fiscal year 2002 budget request..................................   386

                      Office of Inspector General

Audit and investigations activities..............................   421
Business and industry loan program...............................   426
Crop insurance...................................................   426
Employee integrity...............................................   423
Financial integrity..............................................   423
Health and safety................................................   421
Information resources management.................................   425
Introduction and overview........................................   419
Other major challenges facing USDA...............................   425
Rural housing program............................................   427

                 Office of the Chief Financial Officer

Fiscal year 2002 budget request..................................   400
Working capital fund.............................................   401

                Office of the Chief Information Officer

Computer (Cyber) systems security................................   463
E-Government.....................................................   464
Enterprise network initiative....................................   465
Service center modernization initiative--information technology..   461
Strengthening information technology management..................   466
USDA:
    Architecture.................................................   467
    Fiscal year 2002 information technology budget summary.......   461
Workforce planning...............................................   467

                     Office of the General Counsel

Civil rights.....................................................   397
Current activities and issues....................................   387
Fiscal year 2002 budget request..................................   397
Food and Nutrition Division......................................   388
General Law Division.............................................   396
International affairs and commodity programs.....................   387
Legislation Division.............................................   397
Litigation Division..............................................   397
Mission..........................................................   386
Natural resources................................................   393
Organization.....................................................   387
Regulatory and marketing programs................................   389
Rural development................................................   392

                        Office of the Secretary

Accomplishments..................................................    51
Additional committee questions...................................    40
Agricultural:
    Buildings and facilities and rental payments.................   128
    In the Classroom.............................................    50
    Marketing Service (AMS)......................................    43
    Research................................................35, 66, 129
    Research Service.............................................   130
        Buildings and facilities................................97, 131
    Trade dairy export incentives program........................   141
Animal Plant Health and Inspection Service (APHIS)...............    40
Animal welfare...................................................   135
Aquaculture......................................................   159
Budget revision..................................................    26
Chief information officer (CIO)..................................   113
Child:
    And adult care feeding program...............................   141
    Nutrition programs...........................................    46
China importation of potatoes....................................    30
Common computing environment.....................................   128
Conservation CRP technical assistance............................   136
Cooperative State Research, Education, and Extension Service.....   131
    Federal administration and special research grants...........    48
    Sustainable agriculture research.............................    48
Country-of-origin labeling (COL).................................   152
Cranberry:
    Industry.....................................................    16
    Purchases....................................................   136
CRP-wetlands pilot project.......................................   152
Current activities...............................................    51
Dairy............................................................   119
    Compacts.....................................................   126
Departmental management..........................................    25
Disaster assistance..............................................    28
Economic Research Service.......................................64, 130
Efforts to prevent BSE and FMD...................................   155
Electronic Service, E-Gov, and Government Paperwork Elimination 
  Act (GPEA).....................................................   107
Emergencies......................................................   156
Emergency:
    Assistance...................................................   125
    Reserve fund.................................................   149
Environmental protection and conservation........................    30
Expedited approval of requests...................................    30
Explanation of unobligated balances in excess of 10 percent of 
  total funds available..........................................   116
Farm:
    And Foreign Agricultural Services............................    21
    Programs emergency funding...................................    38
    Service Agency (FSA).........................................    43
Food:
    Aid/donations................................................   150
    Assistance programs..........................................    28
    Nutrition, and consumer services.............................    24
    Safety...................................................23, 27, 32
    Safety and Inspection Service (FSIS).........................    43
    Stamp Program................................................    45
Foot and mouth disease......................................15, 26, 123
Foreign market development (cooperator) program..................   147
Freedom to E-File Act............................................   106
Global feeding initiative........................................33, 34
Government Performance and Results Act (GPRA)....................   102
Human nutrition..................................................   138
Humanitarian food assistance.....................................   146
Information technology (IT):
    Contracting..................................................   113
    Security.....................................................   109
    Technology/security..........................................    98
Listeria.........................................................   149
Major IT investments proposed for fiscal year 2002...............   100
Mandatory price reporting........................................   155
Marketing and regulatory programs................................    22
Microbiological performance standards............................   147
Milk protein concentrates (MPC's)................................   142
National:
    Animal Disease Center: ARS and APHIS facilities at Ames, Iowa   148
    Appeals Division.............................................   127
    Nutrition monitoring system and the discontinuation of the 
      USDA survey, the continuing survey of food intakes by 
      individuals (CSFII)........................................   122
    Plant germplasm system (NPGS)................................    77
Native American Institutions Endowment Fund......................    49
Natural resources and environment................................    24
Natural Resources Conservation Service (NRCS)....................    43
1890 Land-Grant Institutions.....................................    49
Nutritional value of assistance programs.........................   138
Office of the:
    Chief Financial Officer......................................   127
    General Counsel..............................................   128
Outreach for socially disadvantaged farmers......................   129
Potato wart......................................................    29
Quality loss program.............................................    36
Research:
    Education, and economics.....................................    25
    Facilities...................................................   158
    Programs/food safety/administration priorities...............   157
Rural:
    Development..................................................    24
    Development rural community advancement program..............   136
    Economic area partnership....................................   150
    Health.......................................................    51
    Housing Service..............................................   137
    Telephone bank...............................................    39
    Utilities Service............................................   137
    Water and wastewater.........................................   156
Sanctions........................................................   145
School breakfast start-up grants.................................   138
Senior farmers' market nutrition pilot program...................   158
Seniors' farmers market..........................................   139
Service center modernization initiative (SCMI) and plan..........   102
Significant IT investments proposed for fiscal year 2002.........   100
Special supplemental nutrition program for women, infants, and 
  children (WIC)................................................47, 121
Starlink.........................................................    33
State AG credit mediation program funding........................   154
Telecommunications management....................................   115
The emergency food assistance program (TEFAP)....................   139
Trade sanctions..................................................    34
Unobligated balances.............................................   116
USDA:
    APHIS precedent for defining the origin of beef cattle.......   153
    Carcasses quality grading rule status........................   154
    EPSCoR.......................................................    60
    Foundation financial management systems (FFIS)...............   112
Value-added cooperative funding..................................   150
WIC..............................................................   147
    Funding......................................................    34
    Program......................................................   140
Wildlife services................................................   134
Year 2000 rollover...............................................   116

                   Rural Business-Cooperative Service

Appropriate technology transfer for rural areas program..........   380
Business and industry:
    Direct loan program..........................................   378
    Guaranteed loan program......................................   378
Intermediary relending program...................................   378
Rural:
    Business enterprise grant program............................   379
    Business opportunity grant program...........................   380
    Economic development loan program............................   379
    Empowerment zones and enterprise communities grants..........   380
Salaries and expenses............................................   380

                         Rural Housing Service

Native Americans benefit from RHS assistance.....................   476
RHS:
    Homeownership programs reach the underserved.................   472
    Moves employees from welfare to work at the centralized 
      servicing center...........................................   477
    Partners with private and nonprofit organizations to increase 
      homeownership opportunities................................   473
    Programs serve America's farm workers........................   476
    Provides essential facilities to distressed rural communities   474
    Provides rural America's elderly with safe, affordable 
      housing and essential community facilities.................   475
    Rental programs serve the most vulnerable rural Americans....   474

                        Rural Utilities Service

Administrative expenses..........................................   369
Distance learning and telemedicine...............................   372
Electric program.................................................   370
Facilitating advanced telecommnications in rural America.........   371
Grants and loans to provide rural towns with broadband services..   373
Outreach to the needest people...................................   372
Responsive and responsible.......................................   370
Rural:
    Business-cooperative services................................   368
    Development budget request...................................   368
    Housing Service..............................................   368
    Utilities Service............................................   369
Telecommunications budget........................................   372
Water and environmental programs.................................   371

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                      Food and Drug Administration

Application review performance...................................   314
Blood:
    Action plan..................................................   309
    Safety.......................................................   314
        And regulation of tissues................................   294
Bovine spongiform encephalopathy (BSE) or ``Mad Cow Diseas282, 289, 312
    Enforcement actions..........................................   306
    Funding......................................................   301
Cancer patients..................................................   293
Cardiac patients and the elderly.................................   294
Challenges.......................................................   296
Children and infants.............................................   293
Clinical trails..................................................   290
Devices..........................................................   316
Diabetes.........................................................   294
Dietary supplements..............................................   304
Drugs for resistant infections...................................   294
FDA approvals....................................................   290
Food safety..........................................290, 292, 299, 320
Generic:
    Animal drug producer.........................................   281
    Drug approvals...............................................   283
    Drug resources...............................................   305
Global trade and global production...............................   295
Globalization....................................................   289
Import inspections...............................................   302
Importation of catfish...........................................   307
Imported products................................................   289
Imports and inspections..........................................   289
    Activities...................................................   297
Infrastructure:
    Funding......................................................   311
    Support....................................................290, 300
Medical products.................................................   292
NARMS............................................................   310
Patient safety task force........................................   308
Post-market surveillance.........................................   319
Prescription:
    Drug User Fee Act (PDUFA) reauthorization....................   319
    To OTC.......................................................   304
Product withdrawals--post market.................................   303
Professional staff...............................................   289
Protecting volunteers and the integrity of data in clinical 
  trials.........................................................   298
Public trust.....................................................   288
Reduced adverse events related to medical products...............   298
Resource our most important......................................   296
Science and technology challenges................................   288
State of the art robotic medical devices.........................   294
Summary of data and information..................................   319
Women............................................................   293

                                   - 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
